<html>
<title> - NOMINATIONS</title>
<body><pre>[Senate Hearing 116-273]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-273

        NOMINATIONS OF THE 116th CONGRESS, FIRST SESSION, PART I

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                                 PART I
                     MARCH 6, 2019 TO JULY 30, 2019

                               ----------                              

       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web: 
                         http://www.govinfo.gov                         
                         
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-447 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


                     COMMITTEE ON FOREIGN RELATIONS

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD YOUNG, Indiana                  CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        



                           C O N T E N T S

                              ----------                              

Responses to additional questions from the committee and any 
  additional material submitted for the record are located at the 
  end of each hearing transcript.
  
  
                              ----------                              


                                 Part I

March 6, 2019....................................................     1

    Abizaid, General John P., to be Ambassador Kingdom of Saudi 
      Arabia.....................................................     6

    Tueller, Hon. Matthew H., of Utah, to be Ambassador to the 
      Republic of Iraq...........................................    10


March 12, 2019...................................................    65

    Johnson, Ronald Douglas, of Florida, to be Ambassador to the 
      Republic of El Salvador....................................    69

    Fitzpatrick, Michael J., of Virginia, to be Ambassador to the 
      Republic of Ecuador........................................    72


March 27, 2019...................................................   113

    Destro, Robert A., of Virginia, to be Assistant Secretary of 
      State for Democracy, Human Rights, and Labor...............   121

    Krach, Keith, of California, to be Under Secretary of State 
      for Economic Growth, Energy, and the Environment; U.S. 
      Alternate Governor of the European Bank for Reconstruction 
      and Development; U.S. Alternate Governor of the 
      International Bank for Reconstruction and Development; and 
      U.S. Alternate Governor of the Inter-American Development 
      Bank.......................................................   123

    Stilwell, Brigadier General David, USAF (Ret.), of Hawaii, to 
      be Assistant Secretary of State for East Asian and Pacific 
      Affairs....................................................   128


April 9, 2019....................................................   207

    Eberhardt, Jeffrey L., of Wisconsin, to be Special 
      Representative of the President for Nuclear Non-
      Proliferation..............................................   211

    Gilmore, Hon. James S., of Virginia, to be U.S. 
      Representative to the Organization for Security and 
      Cooperation in Europe......................................   214

    Swendiman, Alan R., of North Carolina, to be Deputy Director 
      of the Peace Corps.........................................   217


April 11, 2019...................................................   251

    Crawford, Edward F., of Ohio, to be Ambassador to Ireland....   254

    Byrnes, Kate Marie, of Florida, to be Ambassador to the 
      Republic of North Macedonia................................   257

    Satterfield, Hon. David Michael, of Missouri, to be 
      Ambassador to the Republic of Turkey.......................   260



                                 (iii)

May 16, 2019.....................................................   303

    Brink, Bridget A., of Michigan, to be Ambassador to the 
      Slovak Republic............................................   305

    Howery, Kenneth A., of Texas, to be Ambassador to the Kingdom 
      of Sweden..................................................   307

    Klimow, Colonel Matthew S., USA (Ret.), of New York, to be 
      Ambassador to Turkmenistan.................................   310

    Daigle, John Jefferson, of Louisiana, to be Ambassador to the 
      Republic of Cabo Verde.....................................   313


May 21, 2019.....................................................   343

    Bates, Pamela, of Virginia, to be U.S. Representative to the 
      Organization for Economic Cooperation and Development......   347

    Landau, Christopher, of Maryland, to be Ambassador to the 
      United Mexican States......................................   350

    Nordquist, Jennifer D., of Virginia, to U.S. Executive 
      Director of the International Bank for Reconstruction and 
      Development................................................   353

    Pedrosa, Eliot, of Florida, to be U.S. Executive Director of 
      the Inter-American Development Bank........................   356


June 20, 2019....................................................   393

    Bremberg, Andrew P., of Virginia, to be U.S. Representative 
      to the Office of the United Nations and other International 
      Organizations in Geneva....................................   397

    Goldberg, Hon. Philip S., of the District of Columbia, to be 
      Ambassador to the Republic of Colombia.....................   400

    Manchester, Doug, of California, to be Ambassador to the 
      Commonwealth of the Bahamas................................   402

    Zuckerman, Adrian, of New Jersey, to be Ambassador to Romania   405

    Norland, Hon. Richard B., of Iowa, to be Ambassador to Libya.   430

    Cohen, Jonathan R., of California, to be Ambassador to the 
      Arab Republic of Egypt.....................................   433

    Rakolta, John, Jr. to be Ambassador to the United Arab 
      Emirates...................................................   436


July 17, 2019....................................................   605

    Marks, Lana, of Florida, to be Ambassador to the Republic of 
      South Africa...............................................   606

    Lapenn, Jessica, of New York, to be U.S. Representative to 
      the African Union..........................................   609

    Bell, Richard K., of Pennsylvania, to be Ambassador to the 
      Republic of Cote D' Ivoire.................................   612

    Leonard, Hon. Mary Beth, of Massachusetts, to be Ambassador 
      to the Federal Republic of Nigeria.........................   615

    Bekkering, Michelle, of the District of Columbia, to be an 
      Assistant Administrator of the U.S. Agency for 
      International Development, Economic Policy, Economic 
      Growth, Education, and Environment.........................   618


July 30, 2019....................................................   701

    Carwile, John Leslie, of Maryland, to be Ambassador to the 
      Republic of Latvia.........................................   703

    McKee, Erin Elizabeth, of California, to be Ambassador to 
      Papua New Guinea, Ambassador to the Solomon Islands, and 
      Ambassador to the Republic of Vanuatu......................   706

    Godfrey, Anthony F., of Virginia, to be Ambassador to the 
      Republic of Serbia.........................................   710

    Mustafa, Herro, of California, to be Ambassador to the 
      Republic of Bulgaria.......................................   714

                                Part II


September 19, 2019...............................................   759

    Billingslea, Hon. Marshall, of Virginia, to an Under 
      Secretary of State for Civilian Security, Democracy, and 
      Human Rights...............................................   772

    Boehler, Adam Seth, of Louisiana, to be Executive Officer of 
      the U.S. International Development Finance Corporation.....   776

    Pack, Michael, of Maryland, to be Chief Executive Officer of 
      the Broadcasting Board of Governors........................   778


October 16, 2019.................................................   897

    Cantor, Carmen G., of Puerto Rico, to be Ambassador to the 
      Federated States of Micronesia.............................   899

    DeSombre, Michael George, of Illinois, to be Ambassador to 
      Thailand...................................................   902

    Kim, Hon. Sung Y., to be Ambassador to the Republic of 
      Indonesia..................................................   906

    Tan, Morse H., of Illinois, to be Ambassador at Large for 
      Global Criminal Justice....................................   908

    Currie, Hon. Kelley Eckels, of Georgia, to be Ambassador at 
      Large for Global Women's Issues............................   911


October 29, 2019.................................................   965

    Cabral, Roxanne, of Virginia, to be Ambassador to the 
      Republic of the Marshall Islands...........................   966

    Degnan, Kelly C., of California, to be Ambassador to Georgia.   969

    Gilchrist, Robert S., of Florida, to be Ambassador to the 
      Republic of Lithuania......................................   972

    Kim, Yuri, of Guam, to be Ambassador to the Republic of 
      Albania....................................................   975

October 30, 2019.................................................  1017

    Sullivan, Hon. John Joseph, of Maryland, to be Ambassador to 
      the Russian Federation.....................................  1025


October 31, 2019.................................................  1167

    Castillo, Andeliz N., of New York, to be U.S. Alternate 
      Executive Director of the Inter-American Development Bank..  1170

    Golden, Dr. Alma L., of Texas, to be an Assistant 
      Administrator of the U.S. Agency for International 
      Development................................................  1172

    Haymond, Peter M., of Virginia, to be Ambassador to the Lao 
      People's Democratic Republic...............................  1176

    Romanowski, Alina L., of Illinois, to be Ambassador to the 
      State of Kuwait............................................  1179

    Tsou, Leslie Meredith, of Virginia, to be Ambassador to the 
      Sultanate of Oman..........................................  1182


November 20, 2019................................................  1255

    Biegun, Stephen E., of Michigan, to be Deputy Secretary of 
      State......................................................  1260


December 17, 2019................................................  1393

    Chapman, Hon. Todd C., of Texas, to be Ambassador to the 
      Federative Republic of Brazil..............................  1396

    Hennessey-Niland, John, of Illinois, to Ambassador to the 
      Republic of Palau..........................................  1399

    Shea, Dorothy, of Virginia, to be Ambassador to the Lebanese 
      Republic...................................................  1403

    Wright, Dr. Donald, of Virginia, to be Ambassador to the 
      United Republic of Tanzania................................  1406

 
                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, MARCH 6, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Rubio, Johnson, 
Gardner, Romney, Barrasso, Paul, Young, Cruz, Menendez, Cardin, 
Shaheen, Udall, Murphy, Kaine, and Merkley.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The committee will come to order.
    Today we are going to hear a couple of very important 
positions. We have a couple nominees, one to be Ambassador of 
Saudi Arabia and one to be Ambassador of Iraq. And to introduce 
our nominees, we have a very, very distinguished guest from the 
great State of Alaska, Senator Sullivan, and he is going to 
make the introductions. So, Senator Sullivan, the floor is 
yours.

                STATEMENT OF HON. DAN SULLIVAN,
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Well, thank you, Mr. Chairman and Senator 
Menendez. It is truly an honor for me to come before the 
committee today on behalf of my friend and a great American, 
General John Abizaid, U.S. Army, retired, to support his 
confirmation to be U.S. Ambassador to the Kingdom of Saudi 
Arabia.
    I know you have all had an opportunity to review his 
resume. I know many of you have already talked to General 
Abizaid. What I wanted to do is to highlight a few important 
elements of his personal background and experience that I have 
seen firsthand.
    After graduating from West Point, General Abizaid began his 
distinguished Army career in 1973 as an infantry platoon 
leader. He rose to the rank of four-star general and was the 
longest serving commander of U.S. Central Command, an area of 
responsibility that at the time he commanded spanned more than 
4 million square miles from the Horn of Africa, Egypt, the 
Arabian Peninsula, Iraq, Afghanistan, South and Central Asia.
    As he rose through the ranks, he always kept his mind 
sharp. He achieved a master's degree in Middle Eastern studies 
from Harvard University. He was an Olmsted Scholar at the 
University of Jordan in Amman.
    After 34 years of service to his nation, he retired from 
the U.S. military in 2007 and is now a fellow at Stanford 
University's Hoover Institution.
    In 2005, I was a major in the Marine Corps Reserves and was 
called to active duty to spend close to a year and a half as a 
staff officer for General Abizaid when he was the CENTCOM 
Commander. I pretty much was with him everywhere in the world 
during that time, Iraq, Afghanistan, Pakistan, Egypt, Central 
Asia and, yes, Yemen and Saudi Arabia. It was a difficult time 
in the region, especially in Iraq.
    What I witnessed day in and day out is everything you would 
want in an American general and an American public servant 
serving our country, a man of the highest integrity, a warrior, 
a scholar, an intellectual, a truly tested leader and, yes, a 
diplomat who, during his time in the military, garnered the 
deep respect of the leadership at the State Department due to 
his keen understanding of the culture and politics of the 
region for which he was responsible.
    There are few people in our country who understand the 
cross currents of U.S. interests, challenges, and history in 
the Middle East than John Abizaid. He commands respect and 
trust from those around him, those who have served with him.
    I remember watching in amazement several times as a staff 
officer when he had meetings with leaders in the region, all 
over the region, whether it was kings or prime ministers or 
colonels and generals, where he would begin the meetings 
speaking in Arabic. General Abizaid speaks Arabic, by the way, 
another element of his distinguished background.
    This kind of credibility and trust was so critical in the 
region.
    He is also a man with a great sense of humor and sharp wit. 
I remember a time when I was outside his office in Iraq waiting 
for him. The other individual waiting for him was also a Marine 
Corps major. General Abizaid had just had a meeting with four-
star Army General Barry McCaffrey. General McCaffrey walked 
out, looked at the two Marine majors and said, John, what is 
with these marines hanging around your office, to which the 
general responded, I like hanging out with marines. It makes me 
feel smart.
    [Laughter.]
    Senator Sullivan. General Abizaid is a classic example of 
an American patriot willing to serve his country for all the 
right reasons. He did not seek this nomination for attention or 
recognition. He was sought out by the administration because of 
his extensive experience and knowledge of the U.S.-Saudi 
relationship and the issues in the Middle East. He accepted 
President Trump's nomination because he knows at this point in 
time it is important to have someone skilled to navigate such a 
multifaceted relationship in this very important but 
challenging region. And, yes, the U.S.-Saudi relationship is 
indeed complex. I know there is a lot of debate in this chamber 
on pressing foreign policy challenges in the Middle East as it 
relates to Saudi Arabia and Yemen and Iran, and I am sure you 
will ask him hard but fair questions.
    But here is an issue over which I think there should be no 
debate. We need a highly qualified ambassador in Riyadh, and we 
need that person there soon. I do not think there has been a 
nominee before this committee who is so uniquely qualified and 
well equipped to manage the relationship of the post for which 
he has been nominated.
    John Abizaid will serve his country as he always has, with 
integrity, honor, and distinction. I urge all of you to support 
his nomination and move to confirm him as soon as possible.
    Thank you again, Mr. Chairman, for the opportunity to say a 
few words about a great American.
    The Chairman. Well, thank you very much.
    We will hear from both of our witnesses in just a moment, 
but Ambassador Tueller, who is with us today, has been 
nominated to be Ambassador of Iraq, also a heavy lift. 
Ambassador Tueller is a career member of the Senior Foreign 
Service has held multiple tours across the Middle East, and has 
served his country with distinction as U.S. Ambassador to Yemen 
since 2014. His experience navigating the complexities of the 
ongoing Yemen conflict has afforded him a unique perspective on 
war and reconciliation, which will, no doubt, serve him well in 
post-war Iraq.
    Prior to his current role, he served as Ambassador to 
Kuwait, as Deputy Chief of Mission in Egypt, Qatar, Kuwait, 
respectively, and as a senior diplomat in Iraq.
    Let me say just a couple of things as we open here.
    As far as Saudi Arabia is concerned, we have a shared 
security interest with Saudi Arabia in combating Sunni 
extremism and Iranian influence in the region, and we should 
not lose sight of that.
    At the same time, I think all of us have serious concern 
over events surrounding the Saudi Kingdom, and the Saudi-GCC 
rift with Qatar has made difficult U.S. efforts in the Gulf 
Arab unity against Iran.
    We look forward, Mr. Abizaid, General Abizaid, to hearing 
how you plan to work with the Saudi officials to advance U.S. 
objectives on a wide range of issues, including the Saudis' 
role in the Yemen conflict, the GCC crisis with Qatar, and 
reported human rights abuses.
    In addition to that, we welcome Mr. Tueller regarding the 
Iraq post. There remain ongoing tensions between Baghdad and 
the Kurds, as we all know, particularly in the north. Repairing 
this relationship needs to be a priority for the United States. 
The Kurds have been good friends and allies of ours. It is 
important that the relationship in Iraq be repaired.
    This comes at a time when the Iraqi parliament is preparing 
to debate a resolution that would significantly affect the U.S. 
military presence there. This is a hugely concerning prospect, 
and I look forward to hearing from you how we can work together 
to communicate our shared security interests with officials in 
Iraq.
    With that, I will yield to the ranking member, Senator 
Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    I just want to tell our distinguished friend and colleague, 
Senator Sullivan, from my travels abroad, I think it is the 
Marine detachments that actually protect the embassies. So I do 
not know if they want to hear that joke.
    [Laughter.]
    Senator Menendez. But in any event, General Abizaid, 
Ambassador Tueller, thank you both for your past service and 
thank you for both signing up to serve in two complex countries 
with which the United States has critical security 
partnerships.
    Mr. Chairman, I think it sends an important signal that 
these are our first two nominees before the committee in this 
Congress, especially since we have not had a nominee for Saudi 
Arabia in 2 years. And while we have had two closed-door 
briefings ostensibly touching on Saudi Arabia in this Congress, 
they were wholly unsatisfactory in providing this committee 
with information. The administration's attempt to explain its 
failure to provide a legally mandated determination about the 
murder of American resident Jamal Khashoggi was insulting.
    I urge the committee to hold open hearings with the 
administration to understand our actions and our objectives.
    And specifically, Mr. Chairman, I ask you to work with me 
and the other bipartisan cosponsors on this committee on the 
Saudi Arabia and Yemen Accountability Act. If the President 
fails to act, I believe Congress must.
    Now to our nominees. You will both face challenging 
environments. General Abizaid, as we discussed, Saudi Arabia 
has taken a number of actions that have seriously strained the 
U.S.-Saudi relationship over the past few years, actions that 
belie the ambitious reforms many had hoped for.
    Under new management, the Crown Prince has launched Saudi 
Arabia into a devastating war in Yemen; isolated Qatar, 
threatening Gulf cooperation and coordination against threats 
from Iran and regional terrorist groups; detained and tortured 
members of his own family; effectively hoodwinked and 
intimidated the Lebanese Prime Minister. And just this week, we 
publicly learned about the detention and potential torture of a 
United States citizen. And I would like to acknowledge that a 
member of Dr. Fitaihi's family and his advocates are here 
today.
    Amidst all of this, we continue to cooperate in confronting 
real and strategic threats to the United States and Saudi 
interests. The Kingdom does continue to face legitimate 
threats, including from Houthis, often with Iranian backing. No 
country should be expected to live with the threat of missiles 
being launched into civilian centers across its border. But as 
the conflict drags on, violent Houthi factions only become more 
empowered.
    We cannot let these interests blind us to our values or to 
our long-term interests in stability. I have been disappointed 
with the administration's public posture towards Saudi Arabia. 
Our leaders cannot credibly call on the world stage and demand 
accountability for human rights abuses while giving a wink and 
a nod to the Crown Prince.
    General Abizaid, while I am wary of the militarization of 
the State Department, I believe you have the right experience 
for the kind of leadership we need at this embassy. As we 
discussed, you will face not only the challenge of engaging 
directly with the Saudis and managing a large mission in 
Riyadh. You will have to contend with a White House that at 
times seems to be running its own bilateral show.
    Ambassador Tueller, given your current service to Yemen 
while stationed, however, in Riyadh, as is the ousted Hadi 
government, I would also posit some of these challenges to you.
    As our Ambassador to Yemen, you have been responsible for 
securing U.S. interests there, for supporting an 
internationally led effort to promote a political solution that 
offers legitimate security interests for Saudis and Yemenis, 
while also ensuring that all Yemeni people have a political 
process to express their interests, one that equitably and 
adequately addresses all equities and promotes our interests.
    You will face somewhat similar challenges in Iraq. 
Unfortunately, the President's lack of a coherent strategy for 
U.S. policy in Iraq has only increased some of the challenges 
we face. As we discussed yesterday, there is a growing movement 
within some political corners to oust American troops from the 
country. I believe we have invested too many American lives and 
national treasure, seen too many Iraqis perish under the 
brutality of terrorism, and risked critical alliances that we 
have built to do that precipitously.
    We must work with the Iraqi people to continue to support 
building institutions, to promote an inclusive political 
process, and to continue training Iraqi security forces so that 
the Iraqis themselves can ultimately defend their country.
    We must support efforts to confront those seeking to 
continue destabilizing Iraq from a resurgent ISIS to Iranian 
political ambitions. And I am particularly concerned about the 
proposal to permanently close the consulate in Basra.
    Your job will be to keep an open mind about the political 
process, finding a way to include Shia, Sunni, and Kurdish 
populations with all of whom the United States has important 
relationships.
    And in that context, I look forward to hearing from both of 
you.
    The Chairman. Thank you, Senator.
    Gentlemen, thank you to both of you for being willing to 
take this on. As both myself and the ranking member have stated 
in our opening statements, we have tried to tee up for you to 
answer some of the questions that are really challenging. About 
everybody that comes here, we talk about the challenging 
conditions in the country they are going to. Both of these are 
very, very unique challenges. We hear a lot of talk on this 
committee from the administration, from the media, from all of 
the opinion writers about the problem of reconciling the United 
States' interests and having a strategic relationship with 
Saudi Arabia and reconciling how we are going to do that while, 
at the same time, as the ranking member pointed out, Saudi 
Arabia is engaged in acts that just are simply not acceptable.
    Unfortunately, as I said, we hear a lot of descriptions 
about the problem. We do not hear any answers. There have been 
some modest suggestions that have been made, none of which 
would resolve the problem I do not think.
    It is an ongoing conversation that the ranking member and I 
are having and we are having internally amongst this committee, 
sometimes publicly, sometimes privately, and likewise between 
the committee and the administration.
    So knowing that you do not have a silver bullet or a magic 
answer, we do want to hear your thoughts, your comments, 
analysis, and maybe even some helpful suggestions as we go 
forward because everyone agrees we have got to go forward and 
reconcile these two very competing things.
    Iraq is not totally dissimilar, but again, because of 
things that are going on there that make it very difficult for 
us to operate, but it is essential we have a relationship with 
Iraq and that it has to be in the interest of both countries or 
it will not be a relationship.
    So, gentlemen, thank you. And we will start out with you, 
General. Why do you not take the floor?

   STATEMENT OF GENERAL JOHN P. ABIZAID, UNITED STATES ARMY, 
    RETIRED, OF NEVADA, TO BE AMBASSADOR EXTRAORDINARY AND 
PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE KINGDOM 
                        OF SAUDI ARABIA

    Mr. Abizaid. Well, thank you very much, Mr. Chairman and 
Ranking Member Menendez, members of the committee.
    Thanks goes to Senator Sullivan for a very overrated 
introduction. He is a smart marine. He is a great marine, and 
he is a great Senator. And I value his service to this nation 
so much. Thank you, Senator Sullivan.
    I also want to say how privileged I am to be here with 
Ambassador Matt Tueller who served in so many tough and 
demanding assignments.
    I am honored to appear before you today as President 
Trump's nominee to be the next U.S. Ambassador to the Kingdom 
of Saudi Arabia. I am grateful to the President for his 
nomination and to Secretary Pompeo for his trust and 
confidence. I welcome the opportunity to discuss the Kingdom of 
Saudi Arabia and ask that my full testimony be submitted for 
the record.
    If confirmed by the Senate, I pledge to work closely with 
the members of this committee to advance U.S. interests and 
values in Saudi Arabia and the region.
    My wife Kathy and my son David are both here today, and my 
daughters, Shari and Christy, have duties far away, but they 
are here in spirit. I thank the family for their love, their 
support, and service to the nation. All of the kids have served 
the nation, and my son-in-law, Lieutenant Colonel Robb Shaw, 
continues to serve as a battalion commander of paratroopers. We 
have spent too much time in the Abizaid family dealing with 
America's wars. It is my hope that, if confirmed as Ambassador, 
I can play some small role in ensuring that my grandchildren 
never see combat in the Middle East.
    Having served for a considerable part of my life in the 
Middle East, I am aware of both how difficult this region can 
be and just how essential it is to U.S. interests and national 
security.
    It is my conviction that stability in the Middle East is 
most endangered by the continued threat of violent Sunni 
extremism and Iran's radical policy of Shia expansionism. From 
Syria to Yemen, these forces foment instability, deprive the 
region's people of a better future, and threaten the national 
security of the United States. It is difficult for me to 
imagine today that a convoy of Iranian Revolutionary Guards 
Qods Force filled with weapons could travel unimpeded from Iran 
to Lebanon. The good people of Iran deserve a better future 
than the endless war and constant drain on the economy provided 
by the IRGC Qods Force.
    To confront these threats, the United States must work with 
and through our regional partners. We cannot effectively combat 
these threats nor promote our core interests and values without 
them. The United States has a long history of cooperation with 
the Kingdom of Saudi Arabia. It is difficult to imagine a 
successful U.S. effort to undercut Sunni extremism or keep Iran 
in check without engaging and partnering with the Kingdom.
    This is not to say that I am unaware of the challenges 
facing the U.S.-Saudi partnership today: war in Yemen, the 
senseless killing of Jamal Khashoggi, rifts in the Gulf 
alliance, alleged abuses of innocent people, to include an 
American citizen and female activists. All present immediate 
challenges.
    Yet, in the long run, we need a strong and mature 
partnership with Saudi Arabia. Reform there promises to make 
the Kingdom more dynamic, more prosperous, and the region more 
stable. It is in our interests to make sure that the 
relationship is sound, to assist with the vision of reform and 
not shy away from expressing our views and our values to our 
partners in the Kingdom.
    If confirmed as Ambassador, I pledge to work tirelessly on 
the many issues that will inevitably come between the United 
States and Saudi Arabia. It would be my great honor to lead our 
diplomatic team in Saudi Arabia, to advance U.S. interests and 
values in the Kingdom, and to counter the forces that threaten 
U.S. national security.
    I am grateful for the opportunity to appear before you 
today, and I look forward to answering your questions.
    [The prepared statement of General Abizaid follows:]


                 Prepared Statement of John P. Abizaid

    Chairman Risch, Ranking Member Menendez, members of the committee, 
I am honored to appear before you today as President Trump's nominee to 
be the next U.S. Ambassador to the Kingdom of Saudi Arabia. I am 
grateful to the President for his nomination and to Secretary Pompeo 
for his trust and confidence. If confirmed by the Senate, I pledge to 
work closely with the members of the committee to advance U.S. 
interests and values in Saudi Arabia and the region.
    I would first like to thank my wife, Kathy, as well as my children 
Sharon, Christine, and David for their love, support, and service to 
this nation.
    Having served for a considerable part of my life in the Middle 
East--including in Lebanon, Israel, Jordan, and of course Iraq--I am 
aware of both how difficult this region can be, and just how essential 
it is to U.S. interests and national security.
    Today, there are an abundance of active forces that would foment 
regional insecurity. Iran continues its expansionist, destabilizing 
foreign policy. In Yemen, Iran helps the Houthis obtain weapons and 
equipment used to attack Yemeni civilians and bordering countries. In 
Syria, Iran props up Bashar al Assad, who has terrorized his own 
citizens with unspeakable brutality. In Lebanon, Iran funnels weapons 
to Hizballah, strains the fragile Lebanese democracy, and threatens our 
ally Israel.
    The United States also continues to combat the scourge of 
international terrorism. While nearly vanquished on the ground, ISIS 
remains a potent threat to the United States and our allies across the 
globe. Al Qa'ida in the Arabian Peninsula (AQAP) maintains a foothold 
in Yemen and seeks to inflict harm on those who do not agree with its 
false vision of Islam.
    Our relationships with regional partners are essential to 
countering these and other threats we face. We cannot protect the 
homeland, safeguard our citizens oversees, and promote our core 
interests and values without these partners. It is my firm conviction 
that Saudi Arabia has been, and will continue to be, an essential 
partner.
    I am clear-eyed about the challenges facing the U.S.-Saudi 
partnership. I know that the Saudis must do more to end the suffering 
of the Yemeni people and build peace there. I know there must be 
accountability for the terrible murder of journalist Jamal Khashoggi. 
If confirmed as ambassador, I pledge to work tirelessly on both these 
issues, and to urge our Saudi partners to reach the highest standards 
of accountability.
    Despite these challenges, I firmly believe these objectives are 
achievable through close, continued engagement and cooperation with the 
Kingdom. We are able to influence, steer, and advance U.S. national 
security interests and values because of our ability to have honest, 
often difficult conversations with Saudi leadership. Any scaling back 
of that relationship diminishes our ability to secure vital American 
national security interests in the region, and cedes influence to our 
competitors around the world.
    Mr. Chairman, Ranking Member Menendez, members of the committee, I 
submit to you the important ways in which this relationship benefits 
the United States and promotes regional and global security.
    During my nearly four decades serving in the U.S. military, it was 
my highest honor and duty to protect and defend the United States and 
its citizens. If confirmed as ambassador, my top priority will continue 
to be safeguarding America and its people. Given my experience in the 
region, I have no doubt that the U.S-Saudi security partnership is 
essential to doing so.
    The Kingdom of Saudi Arabia plays a critical role in countering 
global terrorism and threats to U.S. interests. The Kingdom hosted the 
inaugural conference of the Global Coalition to Defeat ISIS in Jeddah 
in September 2014, helping set in motion the Coalition's successful 
push to defeat the so-called Islamic State. As Custodian of the Two 
Holy Mosques, King Salman and King Abdullah before him swiftly 
condemned ISIS and enacted tough enforcement and criminal penalties for 
Saudis who sought to travel to fight in Iraq and Syria. Critically, 
Saudi Arabia has led Coalition efforts to disrupt ISIS financial and 
facilitation networks, and to build Coalition members' capacity to 
target such networks and counter illicit financial flows.
    Our military-to-military cooperation with the Kingdom is also 
essential to countering threats and protecting American lives. The 
Houthis have fired numerous missiles and rockets into Saudi Arabia--
home to over 80,000 Americans--specifically targeting populated areas 
and civilian infrastructure in Riyadh, Jeddah, and elsewhere, including 
Saudi Aramco facilities and vessels in Red Sea shipping lanes.
    The United States and Saudi Arabia joined forces in May 2017 to 
inaugurate and co-chair the Terrorist Financing Targeting Center, a 
U.S.-Gulf Cooperation Council initiative to disrupt a broad range of 
new and evolving terrorist financing networks including ISIS, al 
Qa'ida, Hizballah, the IRGC-Qods Force, Lashkar-e-Tayyiba, the Taliban, 
and the Haqqani Network.
    The Kingdom of Saudi Arabia also runs among the most successful de-
radicalization programs in the world. The Care Rehabilitation Center in 
Riyadh has helped thousands of individuals convicted of terrorism turn 
away from poisonous ideologies.
    The Kingdom remains a key diplomatic player in the Middle East and 
supports an active role for the United States in maintaining stability 
in the region. Specifically, it is a central partner in combatting 
Iran's expansionist and destructive foreign policy throughout the 
region.
    Take, for example, Iraq. After decades of estrangement, the Kingdom 
and Iraq are forging closer ties. At the heart of this rapprochement is 
the promise of economic investment and relationship building that bucks 
traditional ethnic and sectarian lines. This was dramatically evidenced 
by Moqtada al Sadr's visit to Riyadh in July 2017--an event that would 
have been unthinkable a decade earlier--as well as numerous other high-
level visits between Riyadh and Baghdad. These steps are critically 
important in buttressing U.S. efforts to bring peace and security to 
Iraq, in demonstrating to the Iraqi people an alternative to Tehran, 
and in ensuring the lasting defeat of ISIS and forestalling the 
resurgence of Islamic extremist terrorist groups in Iraq.
    The Kingdom has also been a central U.S. partner in diplomatic 
efforts to forge a political solution to the Syrian civil war, one that 
ensures Iran is not granted a permanent foothold in Damascus. Saudi 
Arabia has allowed at least 500,000 Syrians to enter the Kingdom since 
the Syrian conflict began in 2011. This fact is little known, yet its 
importance cannot be overstated. Rather than languish in refugee camps 
in neighboring countries or make the treacherous journey to Europe in 
search of asylum, these Syrians in Saudi Arabia are permitted to work 
and are provided basic education and healthcare free of charge. In 
addition, Saudi Arabia provided $100 million in funding for U.S. 
government stabilization programs in northeast Syria so that Syrians 
recovering from years of ISIS rule could begin to rebuild their lives.
    On numerous other important U.S. foreign policy objectives--
including promoting Middle East Peace and negotiating Afghanistan 
reconciliation--the United States is best served by recognizing the 
Kingdom of Saudi Arabia's considerable influence and by partnering with 
the Kingdom to advance mutually beneficial policy objectives.
    Mr. Chairman, Ranking Member Menendez, members of the committee, I 
know you are concerned about the situation in Yemen, as am I. The 
conflict there enters its fifth year this month; over 80 percent of 
Yemeni citizens need some kind of international aid to make it by each 
day. By any measure, the situation in Yemen is a political, 
humanitarian, and security crisis that urgently needs resolution.
    In this difficult space, the administration believes it is firmly 
in the United States' national security interest to provide support to 
the Saudi-led Coalition. Doing so bolsters the self-defense 
capabilities of our partners and reduces the risk of harm to civilians.
    At the same time as it fights to deter a threat on its border, 
Saudi Arabia has provided over $3 billion in stabilization and economic 
support for the Yemeni people. I understand Saudi funding helped 
stabilize the Yemen central bank as the country's currency verged on 
collapse last year. Saudi Arabia, along with the United Arab Emirates, 
provided $970 million toward the United Nation's 2018 Yemen 
Humanitarian Response Plan and, since November, pledged another $750 
million.
    Inside the Kingdom, Saudi leadership are undertaking wide-ranging 
reforms under the banner of ``Vision 2030'' to diversify the Saudi 
economy, create more professional opportunities for Saudi citizens, and 
expand women's roles in public and professional life. Chairman Risch, 
Ranking Member Menendez, members of the committee, these are positive 
developments which, if confirmed, I will strongly advocate for as 
ambassador. I feel particularly strongly that Saudi Arabia, like any 
nation, will benefit greatly by expanding the space for women in public 
and professional life. Advocating for women's rights is a critical goal 
for U.S. foreign policy, and I fully commit to making this a key 
element of my potential tenure as ambassador.
    While I am encouraged by the economic and social reforms the Saudis 
have instituted in recent years, I am fully aware of the disturbing 
reports that political, human rights, and women activists--as well as 
Dr. Walid al Fitaihi, a U.S. citizen--have been detained and at times 
allegedly tortured by the Saudi government. While we should encourage 
reforms that are beneficial to U.S. interests and represent our values, 
we should also speak frankly to our partners when they do wrong.
    The administration has made clear that the United States is 
concerned by the detention of these Saudis activists and takes all 
allegations of abuse seriously. The administration continues to urge 
the Kingdom of Saudi Arabia, and all governments, to ensure fair trial 
guarantees, freedom from arbitrary and extrajudicial detention, 
transparency, and rule of law. If confirmed as Ambassador, I will 
continue to call on the government of Saudi Arabia to treat prisoners 
and detainees humanely, and to ensure that allegations of abuse are 
investigated quickly and thoroughly. I will stress to the Saudis that 
political repression endangers and undercuts the ambitious and positive 
goals of Vision 2030.
    If confirmed, I will also continue to press Saudi leadership on the 
heinous killing of journalist Jamal Khashoggi. The President and 
Secretary Pompeo have been clear that Saudi Arabia must hold 
accountable the individuals responsible for this horrific crime, 
including high-ranking members of the Saudi government. If confirmed, I 
will continue to deploy the full range of diplomatic tools to demand 
accountability and find justice for Mr. Khashoggi.
    Outside the realm of security and foreign policy, our bilateral 
relationship with the Kingdom is anchored by significant economic 
linkages that benefit the United States. We are Saudi Arabia's second 
largest export market, U.S. exports to the Kingdom support 165,000 U.S. 
jobs, and our trade surplus now tops $5.4 billion. Saudi Arabia's 
foreign direct investment in the United States exceeded $14 billion in 
2018 alone. These investments support thousands of American businesses 
and jobs across the United States. American energy companies rely on 
Saudi cooperation, and Saudi-American cooperation is behind the largest 
oil refinery in the United States in Port Arthur, TX.
    Finally, I would like to stress the importance of our diplomatic 
mission in Saudi Arabia and my great desire to lead it. Over 1,000 men 
and women of numerous nationalities work at Embassy Riyadh, Consulate 
General Jeddah, and Consulate General Dhahran. They engage Saudi 
government officials each day to advance America's interests; issue 
visas for Saudi students and their family members--who total over 
100,000 in the United States today; and work to ensure American 
companies can compete fairly in the Kingdom and greater Middle East. 
Perhaps most importantly, they work tirelessly to protect the over 
80,000 American citizens now living in Saudi Arabia, and provide 
consular support to another 20,000 U.S. citizens who make the Haj and 
Umrah pilgrimages each year.
    Mr. Chairman, Ranking Member Menendez, members of the committee, it 
would be my highest honor to lead this team and to advance U.S. 
interests and values in Saudi Arabia and the region. I am grateful for 
the opportunity to appear before you today, and I look forward to 
answering your questions.


    The Chairman. Thank you very much.
    Ambassador Tueller?

STATEMENT OF HON. MATTHEW H. TUELLER, OF UTAH, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
           STATES OF AMERICA TO THE REPUBLIC OF IRAQ

    Ambassador Tueller. Chairman Risch, Ranking Member 
Menendez, members of the committee, I am honored to appear 
before you today as President Trump's nominee to be U.S. 
Ambassador to Iraq and particularly to be here, along with 
General Abizaid, with whom I have had the privilege of working 
before in the region. If we are both confirmed, I look forward 
to a close and collaborative relationship as we both seek to 
advance U.S. interests in this important region.
    I am grateful to President Trump and to Secretary of State 
Pompeo for their confidence in me. If I am confirmed by the 
Senate, I pledge to work closely with the members of this 
committee to advance U.S. interests in Iraq.
    Mr. Chairman, as we begin, I ask that the full written text 
of my testimony be submitted for the record.
    The Chairman. It will be.
    Ambassador Tueller. I would like to recognize and express 
great appreciation to my wife DeNeece who is here with me today 
and has provided steadfast support throughout my Foreign 
Service career, including during periods of separation when I 
served at unaccompanied posts like Iraq and Yemen and during 
periods where she and other U.S. embassy family members were 
evacuated from posts in Egypt and Iraq. Along with our five 
children, DeNeece and I have had the privilege of representing 
the United States abroad under many challenging and rewarding 
circumstances. Two of our children are also here today, David 
and Margaret, as well as our daughter Ayah and two of our 
grandchildren, Unef and Gin Tueller. I would not be here today 
without the love and support of my family.
    Mr. Chairman, Ranking Member Menendez, members of the 
committee, I am grateful of your consideration of me to lead 
one of our largest diplomatic missions in the world. If 
confirmed, I will draw on my leadership and policy execution 
experience in the Middle East.
    Our relationship with Iraq remains a critical one for the 
United States, and if confirmed, I will do my utmost to advance 
U.S. interests there.
    Let me stress from the outset there is no greater priority 
for me than the safety and security of all Americans, whether 
residing in the homeland or in the Middle East and in Iraq.
    Our longstanding principal objective is to bolster Iraq as 
a sovereign, stable, united, and democratic partner of the 
United States. We must remain engaged to ensure that Iraq can 
fend off the internal and external threats, including threats 
from Iran, to its sovereignty and its territorial integrity.
    Our determination to see Iraq as a pillar of stability in 
the Middle East stands in stark contrast to Iran's agenda, 
which seeks to exploit divisions, weaken state institutions, 
and foster extremism. We cannot turn a blind eye to Iran's 
interference in Yemen, Lebanon, Bahrain, Syria, and of course, 
Iraq. Iran and its proxies threaten our interests and the 
security of our friends and allies, including Iraq's Sunni 
neighbors and Israel.
    Iraq's most pressing need is for continuing assistance that 
reinforces the primacy of the Iraqi Security Forces, 
strengthens their capabilities, and deepens their 
professionalization. Together we must be vigilant to prevent 
the return of ISIS or the emergence of other terrorist groups.
    Our coalition-wide approach to stabilization in liberated 
areas sets the conditions for more than 4 million internally 
displaced persons to return home. Much work remains to ensure 
the remaining 1.8 million remaining internally displaced 
persons are able to safely and voluntarily return to their 
communities and rebuild their lives.
    The work of our coalition is not over. We and our partners 
are there at the invitation of the Iraqi government with 2 
dozen other countries helping Iraq ensure its gains against 
ISIS are lasting. This coalition must continue to assist the 
Iraqi Security Forces as they combat a growing ISIS insurgency.
    If confirmed, I will work hard to boost our commercial and 
economic engagement with Iraq and to provide new opportunities 
for U.S. businesses and to help Iraq develop its economy to 
meet the challenges that are growing more acute.
    If confirmed, another priority of mine will be assistance 
to Iraq's persecuted religious communities that ISIS targeted 
for genocide. I will emphasize the priority we attach to the 
safety of these communities, and I will support continued U.S. 
assistance to these groups and will work diligently to promote 
prospects for their survival in Iraq.
    To fully stabilize, Iraq also needs to move toward a vision 
for national unity in which all of its communities play a part. 
Iraqi nationalism remains a potent force, and Iraqis are proud 
of their ancient heritage and culture. ISIS and other unhelpful 
actors want nothing more than to divide and weaken Iraq. We, on 
the other hand, will continue to support a strong and 
independent Iraq.
    The administration believes that a strong Kurdish regional 
government within a unified and federal Iraq is essential to 
Iraq's long-term stability and to the enduring defeat of ISIS. 
We are proud of our longstanding and historic partnership with 
Iraq's Kurdish people.
    Senators, if confirmed, I look forward to the support of 
this committee and an ongoing dialogue to together serve the 
interests of the American people. Thank you for the opportunity 
to testify, and I look forward to answering your questions.
    [The prepared statement of Ambassador Tueller follows:]


             Prepared Statement of Hon. Matthew H. Tueller

    Chairman Risch, Ranking Member Menendez, members of the committee, 
I am honored to appear before you today as President Trump's nominee to 
be the next Ambassador of the United States of America to the Republic 
of Iraq. First, let me express my gratitude to the President and the 
Secretary of State for their confidence in me. If confirmed by the 
Senate, I pledge to work closely with the Members of this committee to 
defend and advance U.S. interests in Iraq.
    I would like to recognize my wife DeNeece who is here with me today 
and express my great appreciation to her. She has provided steadfast 
support throughout my Foreign Service career, including during periods 
of separation when I served at unaccompanied posts such as Iraq and 
Yemen and during periods where she and other U.S. Embassy family 
members were evacuated from posts in Egypt and Saudi Arabia. Along with 
our five children, DeNeece and I have had the privilege of representing 
the United States abroad under many challenging but rewarding 
circumstances. I would not be here today but for their love and 
support.
    I would also like to thank my friend and colleague Ambassador Doug 
Silliman who very ably led our Embassy in Baghdad over the last two-
and-a-half years. He oversaw the United States' support for the 
liberation of all ISIS-controlled territory in Iraq, helped coordinate 
massive international aid to Iraqis struggling to recover from the 
scourge of ISIS' devastation of large areas of their country, set the 
stage for Iraq's integration into the global economy and helped marshal 
international assistance to help rebuild areas that were devastated in 
the course of the fight against ISIS, all efforts I will build on if 
confirmed as ambassador.
    If confirmed, I will draw on my leadership and policy execution 
experience in the Middle East for my new duties in Iraq: including 
service as Ambassador to Yemen, Ambassador to Kuwait, Deputy Chief of 
Mission in Cairo, and Political Minister Counselor at the U.S. Embassy 
in Baghdad from 2007-2008 under the leadership of Ambassador Ryan 
Crocker.
    Our relationship with Iraq remains a critical one for the national 
security interests of the United States, and if confirmed I will do my 
utmost to advance U.S. interests there. However, let me stress from the 
outset that there will be no greater priority for me than the safety 
and security of all Americans residing in Iraq. As a diplomat who 
participated in the 2007-2008 ``surge,'' I understand the importance of 
U.S. engagement in Iraq. The next several years will be crucial for 
Iraq as it struggles to recover from the trauma of ISIS and continues 
to actively confront a persistent ISIS threat. We stand ready to help 
as a trusted and valued partner.
    Our long-standing principal objective continues to be to bolster 
Iraq as a sovereign, stable, united, and democratic partner of the 
United States. We must remain engaged to ensure that Iraq can fend off 
the internal and external threats, including threats from Iran, to its 
sovereignty and its territorial integrity.
    Our determination to see Iraq become a pillar of stability in the 
Middle East stands in stark contrast to Iran's agenda, which seeks to 
exploit divisions, weaken state institutions, and foster extremism. 
Where the United States seeks to help Iraq build professional security 
forces loyal to the state, Iran seeks to cultivate irregular forces 
operating outside the full control of the government. Where the United 
States seeks to help Iraq ensure the rule of law, Iran encourages the 
tactics of organized criminal enterprises. Where the United States 
provides Iraq with expert advice and funding to promote clean drinking 
water in Basrah, Iran promotes a flood of substandard agricultural 
products, as well as low-quality pharmaceuticals and illicit drugs like 
heroin onto Iraqi streets and into Iraqi homes. In short, Iran wants to 
keep Iraq weak and dependent. If confirmed, I will work to make Iraq 
strong and sovereign.
    I recognize that such plain speaking may make some of Iraq's 
leaders nervous. They know all too well that for Iraqis, there is a 
price for speaking up in defense of Iraq's sovereignty. During my 
service as U.S. Ambassador to Yemen, I saw first-hand how Iran works to 
undermine regional peace rather than advance it. We cannot turn a blind 
eye to Iran's interference in Lebanon, Bahrain, and Syria either, and 
of course Iraq. Iran and its proxies threaten our interests and the 
security of our friends and allies, including Iraq's Sunni neighbors 
and Israel.
    I would also like Iraqis to know that we do not seek to sever them 
from Iran, a nation with which they share a border, history, and 
culture. What we are seeking is for Tehran to have normal relations 
with Iraq, relations that are rooted not in armed groups and criminal 
activity, but in trade and exchanges that fully respect the sovereignty 
of the Iraqi government and people.
    To help offset the impact of Iran's harmful meddling in Iraq, we 
must continue to build on our successful diplomatic efforts to 
reintegrate Iraq into the region, particularly among Arab states. Good 
relations between Iraq and neighbors willing to play a constructive 
role is a powerful counterweight to Iran's malign influence. As 
Secretary Pompeo recently observed, last year the Iraqis largely 
rejected sectarianism in their national election. Under Prime Minister 
Adil Abd al-Mahdi, President Barham Salih, and Foreign Minister 
Mohammed Ali al-Hakim, Iraq enjoys an unprecedented relationship with 
Kuwait and has strengthened ties with Jordan, having received a visit 
from King Abdullah and inaugurated a joint industrial zone along their 
border. If confirmed, I will prioritize fostering those revived 
relationships.
    The Strategic Framework Agreement for a Relationship of Friendship 
and Cooperation remains the foundation for developing U.S.-Iraq 
relations in a variety of fields especially in the economic sphere and, 
if confirmed, I will build on that foundation to achieve key U.S. goals 
for Iraq.
    Iraq's most pressing need is for continuing U.S. security 
assistance that reinforces the primacy of the Iraqi Security Forces, 
strengthens their capabilities and deepens their professionalization. 
In support of our partners in the Iraqi Security Forces, the U.S.-led 
Global Coalition to defeat ISIS helped Iraq regain control over all its 
territory and train-and-equip nearly 200,000 members of the Iraqi 
Security Forces. Former Prime Minister Abadi's December 2018 
announcement of the liberation of all Iraqi territory from ISIS control 
was a great moment for Iraq. Together with the U.S.-led Coalition, we 
must be vigilant to prevent the return of ISIS or the emergence of 
other terrorist groups.
    Our Coalition-wide approach to stabilization in liberated areas set 
the conditions for more than four million internally displaced persons 
(IDPs) to return home, with 27 Coalition partners committing over $1 
billion to the UNDP's Funding Facility for Stabilization. Much work 
remains to ensure the remaining 1.8 million remaining IDPs are able to 
safely and voluntarily return to their communities and rebuild their 
lives, as well.
    The work of our Coalition is not over. We and our partners are 
there at the invitation of the Iraqi government, with two dozen other 
countries helping Iraq ensure its gains against ISIS are lasting. The 
Coalition must continue to assist the Iraqi Security Forces as they 
conduct targeted counter-terrorism operations and wide-area security at 
an exceptionally high operational tempo to combat a growing ISIS 
insurgency. Iraq was instrumental in advancing the Coalition's military 
campaign in Syria as well, providing valuable artillery support and 
airstrikes for the Syrian Democratic Forces' offensive just over the 
border. Iraq's growing ability to act in partnership with us to defeat 
threats is one of the truly remarkable developments since 2014.
    Despite the gains they have made with our support, Iraq's armed 
forces are stretched by multiple demands and need continued assistance 
and training to eradicate ISIS remnants, secure Iraq's borders, and 
become a source of regional stability. Subsequently, the U.S.-led 
Coalition must continue to build the capacity of Iraq's legitimate and 
professional security forces.
    If confirmed, I will work hard to advance U.S. interests and 
enhance our commercial and economic engagement with Iraq, providing new 
opportunities for U.S. businesses. Iraq's economic system is untenable 
as it is a command economy that relies on the volatility of the oil 
price to fund its needs.
    The government of Iraq estimates that Iraq needs almost $100 
billion over the next 10 years for post-ISIS reconstruction and 
infrastructure repair. If confirmed, I would seek to marshal the 
resources of the Export-Import bank and the Overseas Private Investment 
Corporation to allow the U.S. private sector to bring its much-needed 
expertise to the task of Iraq's reconstruction. I would encourage the 
government of Iraq to prioritize and budget for key reconstruction 
projects, and to develop new models to attract international financing. 
At the same time, I would encourage Gulf Cooperation Council members, 
other partners, and international organizations to accelerate their 
pledges made during the February 2018 Iraqi-led reconstruction 
conference in Kuwait, which generated almost $30 billion in sovereign 
loan and export credit financing and private sector activity.
    If confirmed, I would aim to foster a sustainable Iraqi private 
sector as an outlet for the 800,000 Iraqis who reach working age every 
year. The government cannot be the sole source of employment for a 
country where sixty percent of Iraq's population is under the age of 
25. Iraq's current and future stability depends to a large degree on 
finding work for this disproportionately large youth segment. I would 
therefore continue our robust economic engagement with the government 
of Iraq and encourage Iraqi leaders to accelerate the implementation of 
critical reforms promised by the current government.
    I would also push the government of Iraq to tackle the issues of 
corruption and excessive red tape that are holding back Iraq's true 
economic potential. To that end, I would commend the government's 
recent anti-corruption actions and would continue to support a U.S. 
funded initiative from the U.N.'s Conference on Trade and Development, 
which is streamlining some of Iraq's bureaucratic processes, increasing 
transparency both for the Iraqi public and for U.S. investors. I would 
attempt to persuade the government of Iraq to modify its deficit-
increasing budget which does not live up to its agreement with the 
International Monetary Fund. This agreement expires in June and I would 
seek to have both sides negotiate a new program.
    A country as wealthy in natural resources as Iraq should be able to 
produce all of its own electricity. But currently, Iraq flares the 
majority of its natural gas and at the same time imports a significant 
amount of overpriced gas from Iran. The World Bank has estimated that 
Iraq has flared 16 billion cubic meters of gas per year. Not only is 
this a waste of a resources, but an environmentally unsound practice as 
well. If captured and processed correctly, Iraq's flared gas could fuel 
domestic power stations and industries, diversify Iraqi government 
revenues, and eliminate dependence on Iranian energy imports. It will 
take years for Iraq to realize its potential, but its government must 
make decisions now for that to become a reality. I will support the 
U.S. companies competing for projects in this sector. These projects 
not only make sense financially and environmentally, but also 
contribute to our policy of supporting Iraq's autonomy from Iran and 
denying the Iranian regime revenue.
    If confirmed, another priority of mine will be helping the recovery 
of Iraq's persecuted religious communities, and particularly those that 
ISIS targeted for genocide. The Administration has programmed nearly 
$340 million since fiscal year 2017 to support these communities, 
including life-saving humanitarian assistance, rehabilitating critical 
infrastructure, clearing explosive remnants of war, psychosocial and 
legal services, funding justice and accountability efforts, and 
providing support for local businesses. While we have seen important 
progress on these initiatives, there is much more to be done, 
especially on the part of the government of Iraq to restore security to 
these areas. Supporting pluralism and protecting the rights of 
minorities is integral to the Administration's effort to defeat ISIS, 
counter violent extremism, deny Iran the ability to exploit sectarian 
divisions, and promote religious freedom around the world. If confirmed 
as Ambassador I will emphasize the priority we attach to the safety of 
these communities. I will support continued U.S. assistance to these 
groups and work diligently to promote prospects for their survival in 
Iraq.
    To ensure persecuted religious communities' survival and achieve 
lasting stability, Iraq needs reconciliation to recover from the trauma 
of ISIS. We are supporting initiatives toward that end. It is not just 
physical infrastructure that needs to be rebuilt, it is also the deep 
emotional scars that remain from years of ISIS depredations. With this 
in mind, the State Department is overseeing programs that include 
psychosocial counseling to help victims and family members recover from 
the trauma that ISIS inflicted on them and their communities. It is 
especially important for Iraq to work through a law-based process to 
hold ISIS perpetrators and collaborators accountable. A fundamental 
part of that process is investigating the sites of ISIS crimes and 
gathering evidence that investigators can marshal in a court of law. To 
that end, we fully support the work of the U.N.'s Investigative Team 
for the Accountability of Da'esh, known as ``UNITAD,'' to exhume mass 
graves in Iraq and collect other important evidence before it is too 
late.
    To fully stabilize and realize its full potential, Iraq also needs 
to move further from sectarianism and toward a vision for national 
unity in which all of its communities play a part. Iraqi nationalism 
remains a potent force, and Iraqis are proud of their ancient heritage 
and culture. ISIS and other unhelpful actors want nothing better than 
to divide and weaken Iraq. We, on the other hand, will continue to 
support a strong, united Iraq.
    The safe and voluntary return of internally displaced persons to 
their home is another vital element for Iraq's stabilization. Since 
January 2014, more than six million Iraqis have been displaced. The 
United States and our partners in the Global Coalition to Defeat ISIS 
have also provided assistance through the U.N. Development Program's 
Funding Facility for Stabilization to help set the conditions for more 
than 4.1 million Iraqis to return home. We are committed to helping 
create durable solutions, including local integration or safe and 
voluntary returns, for the 1.8 million who remain displaced. Our 
Mission in Iraq engages regularly with U.N. humanitarian agencies and 
non-governmental organizations toward this goal.
    It is in our interest to support Iraq's democratic development, but 
significant challenges remain to the building of durable institutions 
that will protect the rule of law, the judiciary, and free and fair 
elections. Iraqis are demanding better governance and ultimately their 
voices must be heard. Unfortunately, last year's electoral turnout was 
the lowest since 2005. But through all of the turmoil of the past 15 
years, Iraq's core democratic institutions have survived. We will 
continue to work with the government of Iraq to provide targeted 
assistance to help strengthen these critical institutions. I will do my 
utmost to continue our support for Iraq's democratic development.
    The administration believes that a strong Kurdistan Regional 
government (KRG) within a unified and federal Iraq is essential to 
Iraq's long-term stability and to the enduring defeat of ISIS. We are 
proud of our longstanding and historic partnership with Iraq's Kurdish 
people. Not only has this relationship been a bulwark of resistance to 
terrorism, but it has also enabled the promotion and advancement of the 
U.S. ``brand,'' whether commercial, educational, or cultural. If 
confirmed, I will seek to further strengthen the already strong bonds 
between our peoples.
    Following the Kurds' 2017 independence referendum, we have been 
focused on helping leaders in Baghdad and in the Iraqi Kurdistan Region 
(IKR) mend that relationship. They have made great progress since the 
appointment of Prime Minister Abd al-Mahdi, including an agreement to 
resume the transportation and export of Kirkuk oil through a KRG-
administered pipeline in the north, and another agreement to harmonize 
customs duties, facilitating the removal of internal GOI customs 
checkpoints along the internal boundary with the IKR. We will continue 
to work with Baghdad and Erbil to encourage their efforts to resolve 
outstanding sources of tension.
    If confirmed, I look forward to the support of this committee and 
an ongoing dialogue to together serve the interests of the American 
people. Thank you for the opportunity to testify and I look forward to 
answering your questions.


    The Chairman. Thank you very much.
    We are going to proceed to a 5-minute round of questions. I 
am going to reserve my time, and I am going to yield to the 
ranking member for opening questions.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you both for your testimony and to your families 
because they also share in the sacrifice.
    General Abizaid, we talked a little bit in the office. The 
administration has a habit of communicating with foreign 
governments, including foreign leaders, outside of traditional 
diplomatic channels. How do you plan to exercise your authority 
as chief of mission? Will you insist on remaining fully 
informed and briefed of all White House and administration 
officials' interactions with the Crown Prince and other members 
of the royal court?
    Mr. Abizaid. Well, thank you, Senator.
    Yes, I will insist upon that, and I am also an old soldier 
and I know my chain of command. My chain of command is the 
President through the Secretary of Defense--or Secretary of 
State. A Freudian slip. I am sorry.
    [Laughter.]
    The Chairman. Understandable.
    Mr. Abizaid. I also will join with the many interlocutors 
that will come out from Washington and from other places in our 
country and talk to them because I think it is usually 
important for me to explain what is going on in Saudi Arabia 
from America's point of view and to give a point of view and an 
opportunity for them to see what is going on.
    Senator Menendez. And I raise the question because it is 
very difficult to be the Ambassador, the chief of mission, and 
have someone else from the outside say, ``you do not have to 
listen to that, just listen to what we tell you.'' And that 
would be an impossible--even within a chain of command, that is 
an impossible way to operate. So I hope you will assert 
yourself, if confirmed as our Ambassador there, while working 
with others, but nonetheless assert yourself as the chief of 
mission.
    I do not think I need to tell you that Congress has become 
increasingly concerned over the Saudi-led coalition conduct in 
Yemen. This is not to absolve the Houthis of their own abuses, 
but we do not sell arms to the Houthis. They are not a 
legitimate nation state with whom we share diplomatic 
relations. Repeated stories of U.S.-supplied bombs hitting 
weddings, funerals, and school buses are simply unacceptable. 
The administration's apparent prioritization of arms sales over 
fundamental values is not acceptable.
    So I have found this so incredibly challenging that I have 
placed a hold on a series of offensive weapon sales to the 
Saudi government pending complete, verifiable information from 
the State and Defense Department about how the Saudis are using 
American-made weapons.
    Can you speak to me about how you will address this issue 
if you are confirmed, as well as what will you say to the 
Saudis about their continuing engagement in the Yemen conflict?
    Mr. Abizaid. Thank you, Senator.
    I think it is very important that the Saudis find the path 
towards peace in Yemen. It is in their interests. It is in the 
interests of the government of Yemen. It is in the interest of 
the region.
    It is also important that in the peace that is found, it is 
not found in such a way that there is a Hezbollah-like militia 
that is underpinned by the IRGC Qods Force that is able to 
operate freely in a free and independent Yemen.
    As far as competence in the operations conducted by the 
coalition there, I think they have much work to do. It is very 
important for us to continue to talk to them about the 
targeting system, about the way that they go about hitting the 
various targets, about the professionalization of the forces, 
and that when mistakes are made, that they do like we do, which 
is convene a board of officers, talk about the mistakes, and 
then take the corrective action necessary to gain better and 
better expertise.
    I am hopeful that there is a way to move forward with 
regard to easing the humanitarian problems of Yemen, and we 
will continue, if I am confirmed, to tell the Saudi government 
of the need to do so.
    Senator Menendez. I appreciate that.
    Our goal is ultimately to end the conflict in Yemen, and I 
hope that you will move the Saudis in that direction.
    Let me, in the last seconds that I have, get a series of 
yeses or noes from you on this set of questions.
    We have seen alarming reports of both Emiratis and Saudis 
transferring a serious U.S.-origin weapon system to third party 
fighters on the ground. Will you engage with the Saudis to have 
them understand that we do not accept their transfer of our 
weapons that we sell to them to others?
    Mr. Abizaid. Yes.
    Senator Menendez. Will you continue to press the Saudi 
government to fully account for the murder of Jamal Khashoggi?
    Mr. Abizaid. Yes.
    Senator Menendez. Would you ultimately commit to ensuring 
that if the administration moves forward, which I do not think 
it has--and I know Senator Markey is very interested in this--
in any type of civilian nuclear agreement that we move toward 
the gold standard?
    Mr. Abizaid. Yes.
    Senator Menendez. Thank you very much.
    The Chairman. Thank you.
    Senator Rubio?
    Senator Rubio. Thank you both for being here.
    And, General, thank you for being willing to take--I 
actually think this is the toughest assignment in the world 
right now in our diplomatic corps. Saudi Arabia, as you well 
know, is an important strategic partner on combating terrorism, 
on confronting Iran. They also are our most difficult partner 
right now because it almost asks us to agree to stay silent on 
grotesque violations of human rights, both domestically and 
abroad.
    And their Crown Prince is not making things easier. He is 
increasingly making it untenable. He is reckless. He is 
ruthless. He has a penchant for escalation, for taking high 
risks, confrontational on his foreign policy approach, and I 
think increasingly willing to test the limits of what he can 
get away with with the United States.
    Anyone who thinks that is an unfair assessment of the young 
man should look at what he has done in the last 2 years. It 
seems like something out of a James Bond movie. He has 
kidnapped the Prime Minister of Lebanon. Kidnapped the Prime 
Minister of Lebanon. He kicked out the Ambassador of Canada, 
canceled flights to Toronto, cut off investments, recalled all 
their students in Canada over a tweet or a couple tweets from 
the Canadian Foreign Minister regarding human rights. And he 
has fractured the important alliance with the Gulf kingdoms. He 
has--obviously we know--ordered I believe and all the evidence 
I believe strongly indicates he ordered or knew of efforts to 
murder Jamal Khashoggi and to do so in a third country in a 
diplomatic facility.
    By the way, domestically he is ruthless. We know the case 
of Saif Badawi who has been sentenced to 10 years in jail and a 
thousand lashes for blogging.
    And then we have the case of women activists, upwards of 11 
at one point, but who have been brutally tortured and 
mistreated, whipped, beaten, electrocuted, sexually harassed in 
the basement of what some call the Palace of Terror.
    And then we have a United States citizen, a doctor, Walid 
Fitaihi, a Harvard trained physician, who recently was slapped, 
blindfolded, stripped to his underwear, bound to a chair, 
shocked with electricity, all apparently in an effort to get 
him to provide evidence against a family friend or a relative 
through marriage, and then reports as recently as yesterday and 
today that the families had their home raided in retaliation 
for family members here in the U.S. who have had the audacity, 
according to the Saudis, to come to Capitol Hill and tell the 
stories of their family members.
    And then, of course, to top it all off, which is a great 
shame to an American company, you have Google and Apple, but 
apparently Google has already made this decision. There is an 
app in Saudi Arabia called Absher. Here is what is translates 
to roughly. It is called ``yes, sir.'' That is the name of the 
app. Here is what allows men to do. It allows them to see where 
the women under their watch are. It allows them to cancel their 
passports. It allows them to look at their travel and flight 
logs. Google says that they are going to keep selling it 
because it does not violate their terms of service. We are 
still waiting on Apple. I mean, it is just stunning.
    Anyway, the point being I guess I have given all this to 
you. I guess that is the bad news of this assignment that you 
have agreed to take on, to great credit to you.
    But how do we balance this? How do we balance all of this 
with this important regional and strategic partnership? Because 
this guy is making it harder. He has gone full gangster, and it 
is difficult to work with a guy like that no matter how 
important the relationship is.
    And welcome to the committee.
    [Laughter.]
    Mr. Abizaid. It is a great honor to be here, Senator Rubio.
    Senator, I appreciate your concern. There are many 
difficult problems. I would like to make the current problems 
short-term problems as we work quickly to try to fix them to 
the best of our ability.
    Our relationship with Saudi Arabia is bigger than the 
relationship just with the Crown Prince. It is all about a 
nation. It is about a government. It is about a king. It is 
about the oil minister. It is about many, many nodes of people 
that are interested in moving the Kingdom forward in a better 
way in the 21st century.
    And so I think that as I move forward and learn more about 
the Kingdom--and I want to emphasize how much I respect the 
Kingdom and the people there--I will look for every way 
possible to find out what has gone on in the short-term 
problems and enhance the need to make the long-term problems 
work.
    Arab societies and Saudi Arabia in particular have many 
nodes of interests. These nodes of interest need to be engaged 
by us in order to find out ways to move forward and solve these 
problems.
    Senator Rubio. Just as an aside, one of the things that I 
think will come up during your time there is what has already 
been mentioned about the potential for a nuclear agreement. 
Senator Markey and I recently introduced legislation to 
increase congressional oversight over any civil nuclear 
cooperation agreement, or 123 agreement. Secretary Pompeo has 
already said he wants a 123 agreement which would not permit 
enrichment. And I just strongly encourage you to be a strong 
voice in that regard because someone who has a penchant for 
reckless, who has a penchant for escalatory foreign policies 
and all the other things I have highlighted, to retain the 
capability to enrich would be I believe an incredibly dangerous 
precedent to set. I do not know how you serve there for 2 years 
or longer and not run into this issue at some point because I, 
no doubt, think it will become a prime issue here very shortly.
    Mr. Abizaid. I appreciate that issue, Senator.
    And I had failed to acknowledge the issues concerning 
women's rights. I have two daughters and a wife. I will be very 
interested in helping in the reform effort to move the rights 
of 50 percent of the population there forward in a way that 
brings their talents and energy to the surface.
    The Chairman. Thank you.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    And let me welcome both you, Mr. Tueller, and you, General 
Abizaid, and thank you for being willing to consider taking on 
these difficult posts at this very important time.
    I would like to begin with you, General Abizaid, and add my 
support for everything that Senator Rubio said and add one more 
concern to that, and that is that the United States still is 
owed $331 million from Saudi Arabia for air refueling that we 
provided the coalition in Yemen.
    I think the list of human rights violations is so long it 
is hard to comprehend what is going on there. And I would like 
your assurances as Ambassador that you will consistently raise 
the issue of human rights violations in a way that expresses to 
the Saudis the grave concern that we have in the United States 
about what they are doing.
    Mr. Abizaid. I will, Senator.
    Senator Shaheen. And can you talk about how as Ambassador 
what opportunities you have to help hold the Saudis accountable 
for what they are doing? It has been 2 years since we have had 
an Ambassador in Saudi Arabia without any oversight or concerns 
expressed on some of these issues.
    Mr. Abizaid. Senator, ambassadors do not hold countries 
accountable. Countries hold countries accountable. It is the 
role of the United States to ensure that the Saudis know what 
we stand for, what we believe, and what the relationship needs 
to be to move forward. I will ensure that those ideals, those 
values, those mutual interests are conveyed as clearly as I can 
to the government of Saudi Arabia. And I look forward to 
working with them not in an adversarial way, but in a way that 
promotes our ability to have the partnership move forward that 
makes the region more secure.
    Senator Shaheen. And I know that several people have 
mentioned the Khashoggi murder. Under the Global Magnitsky Act, 
there is a responsibility for the administration to respond to 
that murder. Can you talk about what responsibility you might 
have as an Ambassador to try and ensure that the administration 
is responsive under the Global Magnitsky Act?
    Mr. Abizaid. Yes. The Secretary of State has said on many 
occasion that we demand transparency and accountability. It 
seems to me that we will continue to do that throughout. We 
probably do not have all the facts. We need to get all the 
facts, and I will convey them, to the best of my ability, to 
the Secretary and to the national command authority under this 
committee.
    Senator Shaheen. Thank you.
    Ambassador Tueller, one of the challenges that we have 
heard from the Iraqis in response to our continued presence 
there is the differences of opinion among the Iraqi people 
about our continued military presence in Iraq. As Ambassador, 
how could you help address the concerns that the Iraqi people 
have?
    Ambassador Tueller. Thank you, Senator.
    Our military presence and the presence of other coalition 
members is there at the invitation and request of the Iraqi 
government. I believe there are many, many of the Iraqi 
political leaders but most importantly Iraqi military leaders 
who want that presence there. They understand the importance 
that that presence provides to enhancing their capability to 
providing training and support. So I think we need to rely on 
those friends, those who understand the impact that our 
presence has and use that leverage to make sure that that is an 
enduring contribution to Iraq's security.
    Senator Shaheen. And one of the principles of this new 
policy with respect to Syria is the assumption that we can 
continue to support the Syrian Democratic Forces in Syria with 
the forces that we have in Iraq. Do you have any view on how 
successful that kind of policy can be?
    Ambassador Tueller. Senator, in both cases, I think we face 
similar concerns about the security threat, whether it is the 
resurgence of ISIS or the role that Iran or other outside 
actors play in fomenting instability. It has always been my 
belief that our presence in the region, our engagement, whether 
it is diplomatically, militarily, economically, serves as a 
stabilizing presence in the region. And of course, our presence 
in Iraq I think has importance beyond just the borders of Iraq 
and signals to any potential threats that we are there prepared 
to defend our interests.
    Senator Shaheen. Thank you. I appreciate that.
    I am out of time, but I hope that you will address the role 
of Iranian influence with the new Iraqi government at some 
point in this hearing.
    Thank you, Mr. Chairman.
    The Chairman. Senator Johnson?
    Senator Johnson. Thank you, Mr. Chairman.
    I want to start out by thanking the nominees and their 
families for their past service and sacrifice and for your 
future service and sacrifice.
    We are faced with some stark realities, you know, a reality 
that we do not particularly like, but ones we have to deal 
with. Senator Rubio was talking about--I liked the way he 
termed it. The Crown Prince has gone full gangster. We find the 
behavior completely unacceptable. But at the same time, as you 
said in your testimony, General Abizaid, we need a sound 
relationship with Saudi Arabia. The reality is that Iran is the 
malign influence and needs to be countered.
    So I would like both of you talking about how--you 
mentioned it in your testimony, but take a little bit more 
time. How important is our relationship to having a sound 
relationship with Saudi Arabia vis-a-vis Iran? General Abizaid?
    Mr. Abizaid. Thanks, Senator.
    How important is it? It is a vital national interest that 
we have a sound relationship with Saudi Arabia to counter 
malign Iranian influence.
    And I think it is important for all of us to recognize the 
difference between the Iranian people and the mullahs and the 
IRGC Qods Force that control the security apparatus of Iran. It 
is my view that sooner or later the good people of Iran, which 
are many, will get tired of the violence and the drains on 
their treasury and will start to move towards a better future.
    It is essential that as this happens, reform in Saudi 
Arabia moves apace. Saudi Arabia is the linchpin. It has been 
for a long time. It will continue to be. And I am confident 
that if we face our problems with them squarely and not mince 
any words about it, that we will be able to solve them.
    Senator Johnson. Ambassador Tueller, let me ask you the 
question slightly differently. What are our alternatives? If we 
do not have a sound relationship with Saudi Arabia, where do we 
go to from there?
    Ambassador Tueller. Senator, I think it is sobering to 
imagine the region without that important security relationship 
between the United States and Saudi Arabia. One of the main 
differences between Iran and Saudi Arabia in my view from the 
perspective of the U.S. diplomat is Saudi Arabia wants us in 
the region, wants us engaged in helping to address the region's 
underlying problems. Iran and its proxies want us out of the 
region. They see that their agenda is served by having the 
United States disengaged and not countering their malign 
influence. So I think it is very, very important that we work 
to ensure that that relationship with Saudi Arabia allows us to 
continue to project our influence into the region.
    Senator Johnson. None of us like the situation, the reality 
that is in Yemen right now. You are currently the Ambassador. 
In my office during our meeting, one of the questions I asked 
you is--because we are all counting on a peace process. We all 
say, you know, military solution. We have to have a peace 
process. But realistically what incentive do the Houthis have 
to agree to a peace process?
    Ambassador Tueller. Senator, I hate to begin the answer to 
any question with saying it is complicated, but of course, 
Yemen is complicated. Even the Houthis I do not think can be 
viewed as monolithic. There are elements that currently are 
aligned with or fighting with the Houthis out of ambition, out 
of self-interest, northern tribes or elements that are still 
loyal to former President Saleh. I think as we continue to 
apply pressure to them, what I hope is that we can create 
conditions where some of those elements will begin to abandon 
sort of the Houthi ideological project, a project that, because 
it is an Iranian project, really in Yemen will never bring 
stability to Yemen.
    You are absolutely right, sir, that there is no way that 
the Houthis are going to voluntarily give up their weapons and 
just become a part of a power sharing arrangement. So we need 
to continue to apply military, economic, political, security 
pressure on them.
    Senator Johnson. Let us face it. Iran has no incentive to 
pressure the Houthis into some kind of a settlement. They would 
preferred a failed state in which they can operate and continue 
to spread their influence.
    So again, that being the case, absent military pressure, 
there is really no way we are going to come to a peace 
agreement. Correct?
    Ambassador Tueller. Sir, I think that is correct. I would 
point out, of course, as I speak of Iran and I am sure as you 
do, we are really in many respects talking about the IRGC Quds 
Force, a malign element. I believe if the people of Iran came 
to understand that their government is spending hundreds of 
millions of dollars in Yemen, a country far from their borders 
where they have no strategic interest, while they are suffering 
economic hardships, that perhaps the voice of the Iranian 
people can help to bend their policy towards something more 
constructive.
    Senator Johnson. Thank you, Mr. Ambassador.
    The Chairman. Thank you, Senator Johnson.
    Mr. Tueller, your comments about the sobering thought of us 
not being aligned with Saudi Arabia in the region and being 
gone from Saudi Arabia I think are very insightful. Having said 
that, I think that the message needs to be strong, and I am 
sure General Abizaid will carry it. They are making it very 
difficult for us right now, and the Crown Prince particularly 
is making this very, very difficult for us. There are 
boundaries and that is a real problem. It is a serious problem, 
and it is going to have to be addressed by the Saudis and by 
the Crown Prince. Thank you.
    It is Senator Murphy's turn.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you both for your willingness to serve. I hope we get 
you to your posts as quickly as possible. Thanks to your family 
as well.
    Even those of us who have been the longest, most vocal 
critics of Saudi Arabia do not wish for us to walk away from 
what is an incredibly important relationship, an important 
counterterrorism relationship. Saudi Arabia has played a role 
for good in the detente in the region between Israel and the 
Gulf states.
    But the relationship today is just completely upside down 
between the United States and Saudi Arabia. If you knew nothing 
about the history of this country and the history of Saudi 
Arabia and you watched the conduct of this relationship over 
the course of the last year, you would get the impression that 
Saudi Arabia is the great power and that the United States is a 
dependent junior partner. After the murder of Jamal Khashoggi, 
the Saudis did not come here to explain what happened. Our 
Secretary of State went there to do a showy photo op. The 
person in the administration that seems to be in charge of the 
relationship is someone who has absolutely no history with 
respect to foreign policy in the region.
    And so the reason why so many of us think that it is 
necessary for us to take action to reset the relationship is 
not because we want to walk away from it, but because we need 
to put ourselves back in charge of this relationship and make 
clear that the way in which we have been treated and our 
residents have been treated is unacceptable.
    That being said, General Abizaid, I want to turn to a 
slightly different part of our relationship. We do have this 
important counterterrorism relationship with Saudi Arabia, but 
as has been said, Saudi Arabia historically has been both a 
fire fighter and an arsonist when it comes to the fight against 
terrorism in that they certainly apply pressure on the most 
radical elements in the region, but they also have exported a 
version of Islam that forms the building blocks of extremist 
movements, a conservative and tolerant brand of Salafist, 
Wahabist Islam that they talk about wanting to control but 
still seem to be spending a lot of time pushing money out into 
the region and into the world.
    You have written about this. You have given a lot of 
thought to this. How do you predict approaching this sensitive 
issue as Ambassador?
    Mr. Abizaid. Senator, it is a very thoughtful question.
    The time that I spent as the Director of the Combating 
Terrorism Center at West Point gave me an opportunity to look 
at this pretty deeply. And at least I can report to you, based 
on my last visit out there, that the situation is getting 
better. And while we spend a lot of time talking about what the 
Crown Prince has not done or what he has done that is malign, 
we should also say that he has sent a very clear message that 
he favors a more tolerant view of Saudi Wahabi Islam. And I see 
evidence of that.
    It is not just him, of course. It is the whole country that 
wants to move forward. The young people want to move forward. 
They are happy not to see the religious police on the streets. 
They are happy to be able to have the opportunity for women to 
drive. But it cannot just be a PR issue. It needs to be a deep 
societal change issue. And I believe that the country, the 
country's leadership is committed to that, and we need to help 
them move forward to the extent that we can.
    Senator Murphy. The locking up of women dissidents is not 
necessarily a great advertisement that you are willing to push 
for a more tolerant version of Islam. But I appreciate the fact 
that you have spent time thinking about this, and I hope that 
you continue to work on it.
    Ambassador Tueller, I wanted to ask you one specific 
question because you have been on the ground as our chief 
diplomat in and around Yemen for the last several years.
    Reports emerged a few months ago that our coalition 
partners, the Saudis and the Emiratis, had transferred American 
weapons to AQAP-linked fighters in Yemen. And in fact, in the 
wake of these reports, the UAE admitted to having done such.
    Let me ask you, when did the administration, when did you 
learn about these transfers?
    Ambassador Tueller. Mr. Senator, of course, I saw the same 
press reports recently that you had seen. I believe we all saw 
back in 2015 some similar reports that there had been some 
weapons transfers. I know that CENTCOM and DOD is investigating 
this, trying to track down exactly where and when there might 
have been unauthorized transfers. In the case of weapons that 
we had earlier provided to the Yemeni security forces back in 
2010, 2008, we know that some of those weapon systems probably 
have fallen out of the control of Yemeni legitimate forces 
following the Houthi-led coupe.
    Senator Murphy. And what are the consequences of that?
    Ambassador Tueller. Sir, we all understand absolutely and 
take very seriously the end-use monitoring of our weapons 
transfers, and we expect countries, when we transfer weapons, 
to adhere very, very closely. And we do not just expect that. 
We follow up with systems to make sure that we can track and 
hold countries accountable.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thank you. Well thought out, Senator Murphy.
    Senator Romney?
    Senator Romney. Thank you, Mr. Chairman and Ranking Member 
Menendez.
    Thank you, General and Ambassador, for being here. Thank 
you in particular for a lifetime of service to the greatest 
nation on earth and to the cause of freedom. The sacrifice that 
you have both made in very different ways, but enormous 
sacrifice putting yourself in harm's way and in danger, often 
being gone for long periods of time from your loved ones and 
the country of your heritage is most commendable, and I feel it 
is an honor to be with you and an honor to have you willing to 
serve yet again in a place of great challenge.
    As we contemplate the outrage of what is occurring in Saudi 
Arabia and what has occurred there, as we contemplate the 
extraordinary harm and pain and the suffering of civilians in 
Yemen, and we consider much of what goes on in the parts of the 
Middle East, there is sometimes a sentiment amongst our members 
and amongst the American people to say why are we there. Why do 
we not just leave? Why do we not just get out of the Middle 
East and let the Sunnis and the Shias and the Iranians and the 
Saudis do what they are going to do and we will just stand back 
in our hemisphere and just not worry about it? That is not a 
sentiment that I share, but I would be interested, in the 
moments we have, to hear from both of you as to why we are 
involved in the Middle East and why we are involved in Yemen, 
what the significance is of those things for the citizens of 
the United States. Mr. Tueller, why do we not begin with you?
    Ambassador Tueller. Thank you very much, Senator.
    In the case of Yemen, the United States has important 
interests. We want to ensure that there are no terrorist groups 
that can arise in Yemen or use the territory there to mount 
attacks against us or our friends and allies.
    We want to make sure that there is freedom of navigation 
through the strategic waterways around Yemen. Much of the 
world's trade passes through the Bab-el-Mandeb and, of course 
to contemplate that Iran or a hostile power would be able to 
control that I think is of great strategic interest to the 
United States.
    We want to make sure that our friends and allies in the 
region have secure borders, that they do not feel that they are 
being threatened by groups like the Houthis that kind of act on 
behalf of Iran as armed proxies in these countries.
    And then, Mr. Senator, there is another important interest 
I think that as Americans we have and that is the humanitarian 
situation. We do not give in to hopelessness. We do not give in 
to cynicism. I think all of us react the same way when we see 
pictures, whether it is in Yemen or other parts of the world, 
where innocent civilians are suffering from consequences of war 
or the actions of irresponsible governments. So as the United 
States, we have an interest in mitigating that humanitarian 
challenge.
    One of the things that I often feel badly about is because 
we have the relationships with Saudi Arabia and understandably 
we hold them to a higher account, we do focus on the 
consequences of Saudi actions. But almost 100 percent of the 
humanitarian catastrophe in Yemen has been caused by the 
Iranian-backed Houthis that overthrew the government, destroyed 
the institutions of state, caused approximately a 40 percent 
decline in the GDP of the country. I see very, very little 
reporting, for example, of the millions and millions of mines 
that the Houthis have planted around the country that in fact 
cause more civilian casualties and will continue to cause 
civilian casualties going into the future. So that is a great 
concern, and I think the American people need to be concerned 
about the humanitarian issues.
    Thank you.
    Senator Romney. Thank you.
    Mr. Abizaid. Thank you, Senator Romney.
    Extremism and sectarian violence is the curse of the Middle 
East. And extremism, unfortunately, is not just a curse for the 
people in the Middle East. It is a curse for all of us, 
recently seeing what happens when an extremist attack happens 
between two nuclear-armed powers like India and Pakistan. We 
have a responsibility to do our best to help the people in the 
region keep extremism from gaining the upper hand.
    When I think back to the days of the ISIS offensives not 
far behind us, it was terrifying to me to think of the idea 
that Iraq could become an ISIS-dominated state.
    Combating extremism requires constant work on the part of 
the good people in the region and the United States helping 
people help themselves to defend themselves against it. As long 
as Iranian state-backed Shia extremism and ISIS and al Qaeda-
type extremism on the Sunni side exist, it is important for us 
to stay engaged. And it is important for us to move in a 
direction that allows the people in the region to have a better 
future so they do not fall prey to the extremist narrative of 
lies.
    When I think about the future of the region, if countries 
can reform, if countries can embrace their own populations, 
there is a chance for a much better path ahead.
    I do not, by the way, believe in a large presence of 
American forces in occupation. It is counterproductive to 
getting the job done. Let us help the people in the region help 
themselves.
    And in particular, in the case of Saudi Arabia, their 
counterterrorism activities, in conjunction with our own, have 
been very, very meaningful in putting somewhat of a damper on 
the extremism that we see so frequently throughout the region.
    The Chairman. Thank you. Thank you, Senator Romney.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And congratulations to each of you. You are very, very well 
qualified for these positions, and I appreciate your service.
    General Abizaid, I would like to start with you. Jamal 
Khashoggi was a Virginia resident. The family lives in 
Virginia. And I want to raise up another individual who has a 
Virginia connection just to exemplify the human rights 
challenges that I hope you will grapple with as Ambassador. 
Aziza al-Yusef.
    Aziza al-Yusef is a legal permanent resident of the United 
States. She came to Richmond to study computer science at 
Virginia Commonwealth University a long time ago, got a 
computer science degree, moved back to Saudi Arabia, and as a 
Saudi citizen, has taught computer science in Saudi Arabia to 
women for nearly 30 years. You have brought wonderful families 
with you today. She is a mother of five. She is a grandmother 
of eight. And she passionately believes that women should be 
treated as equal human beings. She has been engaged in the 
protests about women being able to drive. She has been very 
active to try to reform and end the guardianship system that 
essentially makes women surveilled property of a man. She has 
been very active in protests with respect to lax treatment of 
domestic violence by men against women, all while raising her 
family and teaching computer science in Saudi Arabia.
    She was imprisoned in May with a group of women and men who 
had been advocating for the right of Saudi women to drive. She 
was imprisoned after the driving restriction was lifted, and 
the interpretation of that by most has been when the driving 
restriction is lifted, we want to send the message you have no 
rights. We are giving you a privilege. But by then imprisoning 
all the activists, men and women, who had been advocating for 
women's equality in driving, it was essentially a message to 
everyone you cannot protest. You have no rights. We are doing 
this as a privilege.
    And Amnesty International and other organizations indicate 
that Aziza al-Yusef and the others who have been imprisoned 
have been tortured, held, and they can see their families once 
a month.
    This is a grandmother of eight, a mother of five, who has 
spent her whole life educating Saudi women to be computer 
scientists.
    And I just will say, General Abizaid, this is an important 
relationship, but for me it is sort of a proxy of a nation's 
authoritarianism, extremism, corruption if they treat women the 
way these women are being treated for simply advocating that 
they should have basic equal rights.
    And so you have the background to do this job and do it 
very, very well, but I hope the human rights aspect of the 
portfolio and the treatment of these individuals who have ties 
to the United States will be a top priority for you.
    Mr. Abizaid. Senator, you have my word. It will be.
    Senator Kaine. Thank you.
    To Ambassador Tueller, is Iraq an ally?
    Ambassador Tueller. Sir, I think that the relationship 
between Iraq and the United States is an extremely important 
one that serves both our interests. I have outlined some of 
those common interests, particularly in security in the region. 
And I expect that while I am there, I will be able to continue 
to work with Iraq as a partner and ally of the United States.
    Senator Kaine. Thank you for that. And I share it. I think 
we are partners. I think we are allies. There is a lot of work 
to do to make that relation strong.
    As you pointed out, we are in Iraq militarily now at their 
invitation. We are not occupying Iraq. We left militarily in 
2011. With the rise of ISIS in 2014, Iraq has asked us back. 
And even if there is some controversy about that with some 
politics, it is not going to be a slam dunk on any issue. 
Overwhelmingly the Iraqi government still wants the United 
States to be there to be that kind of partner. Would you not 
agree?
    Ambassador Tueller. I think that we can count on Iraq to 
continue to want the U.S. involved. They understand what 
happened after the U.S. forces withdrew back in 2011, the rise 
of ISIS controlling over 55,000 square miles in Iraq. This 
deeply, deeply traumatized and threatened Iraq, and they 
understand that they need the assistance of the United States 
and other partners to avoid the resurgence of that threat.
    Senator Kaine. General Abizaid said a powerful thing at the 
beginning of his testimony. He said the Abizaid family has 
spent too much time in the Middle East and you do not want your 
grandchildren to be there at war in the Middle East.
    It is interesting that Iraq is now an ally and a partner, 
and yet we still have two authorizations for military force 
against Iraq that are pending. President Trump said in his 
State of the Union great nations do not wage endless wars. I 
think great Congresses should not authorize endless wars. The 
1991 Gulf War authorization to go after Saddam Hussein for the 
invasion of Kuwait is still live and active, kind of a zombie 
authorization floating out there. It has never been repealed. 
The 2002 authorization to go after the government of Saddam 
Hussein is still active and live, again kind of a zombie 
authorization out there that has not been repealed.
    Senator Young and I have introduced today a bill to repeal 
both the first Gulf War and the 2002 Iraq authorization. There 
is no need to have an authorization against an ally and 
partner, and I would hope my colleagues might see the virtue in 
cleaning that up.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Kaine.
    Senator Paul?
    Senator Paul. Thank you both for your testimony and your 
service.
    I will direct this to General Abizaid. It is often said 
that Iran is the largest state sponsor of terrorism. It said 
over and over and over again. I think it is often forgotten, 
though, that I would say Saudi Arabia is the largest state 
sponsor of radical Islam. They act in somewhat different ways.
    Iran is very much a regional player and they are involved 
anywhere there are Shia populations and they are very much 
involved in several theaters mostly within the Middle East.
    Saudi Arabia's malign influence, though, is worldwide. Most 
of the extremists that we have seen have been Sunni extremists. 
The Saudis fund tens of thousand of madrasas, including tens of 
thousands just within Pakistan. It is said that people trained 
in these madrasas cross the border and actually attack our 
soldiers and have killed our soldiers in Afghanistan.
    And so when I hear people say, oh, they are getting better, 
they are letting women drive, part of me thinks, well, maybe 
that is a public relations stunt to let women drive while we 
imprison the activists at the same time. At the same time they 
are letting women drive, they are sending a team of thugs with 
a bone saw to chop somebody up in another country, a writer and 
a resident of our country. So I do not think we should be 
fooled.
    But I do think in the larger context of things, the reason 
I bring up sort of Iran and Saudi Arabia is it reminds me 
somewhat of the Cold War where anybody that sided with us, we 
turned a blind eye to human rights violations. So there were 
dictators throughout Africa, Mobutu, Mugabe, who did horrific 
things to their people, and we just looked away and said, well, 
they are our guy, you know, they are on our side against the 
Soviet Union.
    So we have divided up the Middle East. Iran is the largest 
state sponsor, and we never say a thing about Saudi Arabia. We 
are starting to because of this horrific murder. But I think we 
have turned a blind eye because of oil, because they tend to 
side with us against Iran. And I just think there needs to be a 
more evenhanded look at this. I am not saying that Iran is 
good, but maybe both are malign actors.
    Also when we look at the Middle East, I think there needs 
to be someone saying--you know, we talk about a Middle East 
peace process, and it has all been about the Palestinians and 
Israel. I think that is an important question, maybe an 
imponderable one. But I do think that really the big peace 
process would be some day somebody recognizing that it would be 
having Saudi Arabia at the same table with Iran, if you really 
want to solve most Middle East process.
    So I guess my question to you is given all of that, do you 
think we need to make a stronger statement about the Saudis? 
Instead of just saying they are getting better, saying, well, 
perhaps we need to restrict the arms sales until they quit 
funding madrasas. Instead of saying please quit funding 
madrasas, maybe they should have to quit funding madrasas. We 
should play hard ball with our weapons and say that people that 
imprison people and give people a thousand lashes and all the 
things the Saudis do, maybe they do not deserve our weapons. 
General Abizaid?
    Mr. Abizaid. Thank you, Senator Paul.
    I already indicated that I think extremism is a curse of 
the Middle East, and it is extremism on the Sunni side and it 
is extremism on the Shia side. And really sectarianism is the 
twin curse of the Middle East, and we have to move very, very 
hard to convince the good people in the region to abandon forms 
of extremism.
    But when I think of extremism in Saudi Arabia or extremism 
in any other Arab country, there are elements within the 
population that believe that if they fund extremist preachers, 
if they fund extremist ideologies, if they fund jihadis to move 
to the sound of the guns wherever the current battle might be, 
that they are doing God's work. And it is clearly not God's 
work.
    So we have to keep saying it. It does not matter whether it 
comes from Saudi Arabia or Egypt or the UAE or Yemen. We have 
got to keep saying it. We have got to keep working against it. 
I will not shy away from that. I have told them that for years, 
and I will continue to tell them that.
    But, on the other hand, I would also like to respectfully 
say they have made progress. I remember having an opportunity 
to go to Saudi Arabia recently where I saw some very innovative 
and very effective programs aimed specifically at reducing 
terrorism both financially and on the field of battle.
    Senator Paul. I appreciate that.
    Ambassador Tueller, President Trump has often said that the 
greatest geopolitical blunder of the last 20 years was the Iraq 
war. What is your opinion on that?
    Ambassador Tueller. Well, sir, I think that the removal of 
a leader like Saddam Hussein from the region in the long term 
serves the interest of the United States and----
    Senator Paul. You disagree with the President?
    Ambassador Tueller. I do not think the President--I cannot 
take his remarks----
    Senator Paul. His point was that removing Hussein created a 
vacuum, created an endless war over there, and also empowered 
Iran.
    Ambassador Tueller. It has empowered many of those forces 
of sectarianism and extremism, but I think in the----
    Senator Paul. Which goes back to Senator Kaine's point. Are 
they an ally? Some would argue Iraq is now more of an ally of 
Iran than they are of the U.S.
    But the President disagrees with you. The President thinks 
the Iraq War was a big mistake, emboldened Iran, and we should 
not have done it.
    The Chairman. Thank you, Senator.
    We will move to Senator Merkley.
    Senator Merkley. Thank you very much.
    And, Ambassador Tueller, when you were commenting on the 
humanitarian situation in Yemen, you said virtually 100 percent 
of the humanitarian problems are caused by the Houthis. I found 
that a very surprising statement. An extensive number of deaths 
are being caused by a cholera epidemic that comes from the 
Saudi bombing of water systems. The United Nations did a study 
that said of 17,000 civilian deaths between 2015 and 2018, the 
majority, 10,000, were the result of the Saudi-led bombings.
    Can you explain a little bit how you reached the conclusion 
that the Saudi bombing of civilians somehow is responsible for 
0 percent of the humanitarian crisis in Yemen?
    Ambassador Tueller. Senator, I think any death of civilians 
in conflict is unacceptable, and we should always----
    Senator Merkley. That is not my question.
    Ambassador Tueller. Well, I think that we cannot excuse 
that. However, my remarks about the Houthis being almost 100 
percent responsible--there is an anecdote that I often relate 
to people. In January of 2014, the most important port in Yemen 
used by the private sector was the Port of Aden. It had 111 
ships that disembarked during that month of January 2014.
    Senator Merkley. Ambassador, could you speak up, please?
    Ambassador Tueller. In January of 2015, which was before 
the Saudi-led intervention but after the Houthi takeover of 
Sanaa, the number of ships disembarking in Aden had fallen to 
nine. And that was almost 100 percent responsible for the 
Houthis' actions that caused foreign investment, the Yemeni 
private sector to flee the country, to stop investing in that 
economic activity.
    Senator Merkley. I do not want to use all my time on the 
lengthy explanation there. But when you say that if 100 percent 
is the Houthis, 0 percent is the Saudis, you are giving them no 
responsibility for having used their munitions to attack 
civilian sites, and I find that very astounding.
    Ambassador Tueller. Sir, when we have seen cases where the 
Saudis have caused collateral damage, we have spoken very, very 
forcefully to them about that, and we have worked to try to 
mitigate those consequences. We have seen improvements.
    Senator Merkley. By acknowledging that, you are saying 
there is some Saudi responsibility. I am going to have to stop 
there. But I did find that very disturbing given the vast 
deaths caused by the Saudi bombing campaign, and to treat Saudi 
Arabia as saying, oh, they are our ally, so we will blame 
someone else for all these deaths they are causing seems 
unacceptable to me.
    General Abizaid, we have really been disturbed in Oregon by 
Saudi Arabia posting bail for Saudi citizens, and then those 
citizens disappearing. In 2016, Mr. Noorah, a Saudi national, 
killed a 15-year-old Portland native driving approximately 
twice the posted speed limit. Saudi Arabia posted bail, and he 
disappeared.
    We had the Saudi consulate post bail for Mr. Alhamoud who 
fled Oregon before facing trial in 2012 on multiple sex crime 
charges, including rape.
    We have a Saudi national, Mr. Algwaiz, who has faced 
charges in 2016 for striking a homeless man with is vehicle, 
who disappeared.
    We have the Saudi consulate posting a $500,000 security 
deposit for Mr. Alharthi, a student in Oregon and Saudi 
national, who was arrested in 2015 on 10 counts of encouraging 
child sex abuse before fleeing the country.
    We have the Saudi consulate posting a $500,000 bond for Mr. 
Duways, another university student and Saudi national, who was 
arrested in 2014 on the charge of rape.
    We have these crimes being committed by Saudi nationals and 
then the Saudi government posting bail and whisking them out 
the country. Is this acceptable?
    Mr. Abizaid. Certainly not acceptable for any government to 
assist their citizens that have violated our laws.
    Senator Merkley. Are you as disturbed as I am that 
essentially at this moment the Saudi nationals in the United 
States have a ``get out of jail free'' card that allows them to 
commit abuses against children, manslaughter, rape, and have no 
accountability?
    Mr. Abizaid. Senator, I think there has to be complete 
accountability for any government and their citizens living 
abroad, and that means respecting the laws of the host nation.
    I would, in fairness, like to point out that there are 
80,000 Saudis studying in the United States, most of whom are 
not the type of people you talked about.
    Senator Merkley. And believe you me, I am not implying that 
Saudi nationals as a whole are committing crimes on a higher 
basis than anyone else. I do not have that statistic. I am 
making the point that when a person commits a crime in the 
United States, we should not, because they are an ally who buys 
a lot of stuff from us, allow them to whisk their citizens out 
with no accountability for rape, for child abuse, other sexual 
crimes, manslaughter, or for any other crime. And my sense is 
you agree with that.
    Mr. Abizaid. I agree that any government that assists their 
citizens fleeing our justice is breaking our laws.
    Senator Merkley. I know, and you are translating this into 
a general principle, but are you not disturbed by these exact 
issues regarding Saudi Arabia?
    Mr. Abizaid. Well, what I cannot say because I do not 
know--I accept your stories, but I do not know that the 
government assisted in the escape. I just do not know that.
    Senator Merkley. Yes. What we do know is that it has been 
the conclusion of our government that they are likely to have 
insisted, and in one case at least, the passport was 
surrendered. And so something magical happened for the person 
to be able to return to Saudi Arabia.
    I have introduced the ESCAPE Act, which calls on the State 
Department to analyze this issue, to report on it. If five 
cases happened in Oregon that we know of--and there may well 
have been more we do not know about. There may have been 
hundreds of these cases across the country. I am surprised that 
the State Department has not already investigated this.
    Would you encourage the State Department to investigate 
this issue and get to the bottom of it? And if this is 
happening with other nations, then investigate that too, but 
the ones we have knowledge of all involve Saudi Arabia.
    Mr. Abizaid. Senator, if you confirm me, I will encourage 
them to do so.
    Senator Merkley. Thank you.
    The Chairman. Thank you.
    Senator Young?
    Senator Young. Thank you, gentlemen, for your lifetime of 
service. By my reading of your many accomplishments, I think 
you come in well prepared to not only be confirmed but to serve 
our country honorably and professionally.
    Mr. Ambassador, I have a follow-up question pertaining to 
this issue of the Houthis, the Iranian-aligned Houthis being 
the primary driver of the humanitarian crisis, which may indeed 
be the situation right now. They have mined the ground. They 
have been responsible by my latest briefings for numerous 
violations of human rights law.
    But I think it is helpful that we remember recent history. 
Over the last couple of years, our Saudi partners, working with 
the Emirates in the United States of America, who have assisted 
with refueling, targeting assistance, military training, and 
some other activities, has also been party to some actions 
that, per my many briefings on the subject in classified and 
unclassified settings, has helped to radicalize portions of the 
Houthi population, leading to their alignment with the Iranians 
when many would not have otherwise aligned with the Iranians. 
They have blocked the Port of Hodeidah where 80 percent of 
food, of medicine, of water is delivered. The bombing campaigns 
where they have indiscriminately bombed civilians is something 
that I hope moving forward we will continue to recognize, 
helped to exacerbate what remains the worst humanitarian crisis 
in the world.
    Yes, the Saudis must remain security partners. They will be 
complicated partners moving forward especially with their 
current leadership and their Crown Prince's impulsive and 
sometimes reckless behavior by the reading of this United 
States Senator. So I just think it is very important that we 
are reminded of this and are sort of sober-minded as we 
continue to try and finesse this relationship.
    Senator Shaheen earlier brought up the lack of 
responsiveness that we have seen by the administration under 
the Global Magnitsky Act. General, I remain frustrated by the 
administration's unwillingness to follow another law, 
specifically the National Defense Authorization Act section 
1290, which my colleague, Senator Shaheen, and I worked on. 
There is a provision in section 1290 which requires the 
Secretary to certify that the governments of Saudi Arabia and 
UAE are undertaking a number of actions. The provision also 
includes a detailed requirement for Yemen-related briefings to 
Congress and requires the administration to submit to Congress 
a strategy for Yemen. Congress has not yet received a credible 
certification from the administration. I do not intend to 
remain silent on this. This is the law of the land and I want 
it to be followed.
    So, General, would you commit to providing myself and other 
members of this committee a monthly update on the following: a 
description of Saudi Arabia military and political objectives 
in Yemen and whether the United States' assistance to the 
Saudi-led coalition has resulted in significant progress 
towards meeting those objectives; a description of efforts by 
the government of Saudi Arabia to avoid disproportionate harm 
to civilians and civilian objects in Yemen; an assessment for 
the need for existing secondary inspection and clearance 
processes and transshipment requirements on humanitarian and 
commercial vessels that have been cleared by the U.N. 
verification and inspection mechanism; a description of the 
sources of external support for the Houthi forces, including 
financial assistance, weapons transfers, operational planning, 
training, and advisory assistance; an assessment of the 
applicability of the U.S. and international sanctions to Houthi 
forces that have committed grave human rights abuses, 
obstructed international aid, and launched ballistic missiles 
into our Saudi partner's territory; and an assessment of the 
effect of the Saudi-led coalition's military operations in 
Yemen on the efforts of the U.S. to defeat AQAP and the Islamic 
State? General would you commit to providing that information 
on a monthly basis to this committee?
    Mr. Abizaid. Thank you, Senator Young.
    As a citizen of the great State of Nevada, not a member of 
the administration, I have nothing to say about that. If you 
confirm me and I become a member of the administration, I can 
commit to assisting the administration in answering those 
questions.
    Senator Young. I thought you would answer somewhere along 
those lines.
    Well, let me just note before yielding back to the good 
chairman that if the administration is not already tracking 
each of the different things I have requested of you, it would 
be a matter of sort of diplomatic malpractice, security 
malpractice, from my perspective, and it is my fervent hope 
that the administration will follow the law and finally provide 
a credible certification as required under the law.
    Thank you.
    The Chairman. Thank you very much.
    Senator Cruz is next.
    Senator Cruz. Thank you, Mr. Chairman.
    Gentlemen, thank you both for your service. Congratulations 
on the nominations you have received, but thank you also for 
being willing to serve. Neither of the countries to which you 
have been nominated are easy postings nor are they altogether 
safe postings. And so we are grateful for both of you answering 
the call to serve your nation in challenging times.
    General Abizaid, I want to start with you. Saudi Arabia is 
in my judgment a deeply problematic ally. Their human rights 
record has been sorely lacking. They have, for many years, been 
willing to fund jihadists on the principle that if you feed the 
crocodile perhaps it will eat you last. Their conduct with 
regard to Mr. Khashoggi was abominable and unacceptable. On all 
of those fronts, I think we should be clear and explicit 
condemning their actions.
    At the same time, they are nonetheless an ally, and 
critically they are a vital counterpoint to the nation of Iran. 
And as I look to the Middle East, the rivalry between Iran and 
Saudi Arabia--any conduct that the United States Congress does 
to weaken Saudi Arabia vis-a-vis Iran to my mind is harming the 
national security interests of America because a stronger Iran 
with an Ayatollah Khamenei pledging death to America, funding 
terrorists actively trying to murder Americans--a stronger Iran 
makes for a more dangerous world.
    Do you share that assessment, and what role do you believe 
Saudi Arabia plays in counterbalancing Iran?
    Mr. Abizaid. Thank you, Senator Cruz, for the question.
    I certainly share your sentiments and your description 
about Iran. Maybe 15 years ago, maybe I would have shared your 
description about Saudi Arabia. There was absolutely too much 
turning a blind eye towards extremists leaving the country and 
causing problems elsewhere.
    As I look at it today, I do not think the problem is 
solved, but I think it is getting better. There are joint task 
forces for combating terrorism. There are joint task forces 
looking at the economic flows of money into the terrorist 
networks. We noticed here recently that Hamza bin Laden was 
stripped of his citizenship, that others have been forced to 
pay a price for their support of terrorism, to al Qaeda, ISIS, 
or indeed even supporting the Iranian state.
    So it is incumbent upon the United States to continue to 
press the case that good allies do not support terrorism 
anywhere.
    Senator Cruz. And can you describe the importance of a 
strong Saudi Arabia as a check to Iran?
    Mr. Abizaid. Senator, I think you did an adequate job of 
that. I do not know what I could add.
    Senator Cruz. Is there any coherent or rational argument 
that Saudi Arabia poses a comparable threat to the United 
States to that of Iran?
    Mr. Abizaid. Senator, when I look at the reform vision of 
2030, if we can support it moving forward, it is a plan for 
diversification of the economy. It is a plan to begin the 
empowerment of women. It is a plan to make the armed forces 
more professional. It is a plan to give the young people of 
Saudi Arabia a hope for a better future. If that plan can 
succeed with the support of the international community, I 
believe we will see a change, an important change, that will be 
good for all of us and Saudi Arabia.
    Senator Cruz. What do you believe Iran is trying to 
accomplish in the Middle East?
    Mr. Abizaid. You know, Senator, we have had this 
conversation before, and I appreciate we have had it. And as we 
have noted before, I firmly believe that the good people of 
Iran are just putting up with the IRGC Qods Force and the 
mullah government. Given the opportunity for a better future, 
just like the Saudis, if they had a vision for a reform 
movement, if they had a vision for a better future, the people 
would move in that direction. But right now, the IRGC Qods 
Force and the radicals are in charge, and we need to keep the 
pressure to cause them to ultimately be deposed by their own 
people.
    Senator Cruz. I agree with you.
    Ambassador Tueller, one of the more troubling developments 
in Iraq has been the growing influence of the Iranians, both 
Iranian Shia militia and also direct or indirect Iranian 
control of the Iraqi institutions of government. How 
significant do you assess that threat and what should we be 
doing about it?
    Ambassador Tueller. Senator, I think it is a great threat. 
It is one that concerns us, and I know it is one that concerns 
the Iraqi people. I think one of the most powerful forces in 
Iraq, leaving aside the sectarian influences, ethnic 
differences, and political parties, is Iraqis share a strong 
sense of pride in their Iraqi Arab identity. They do not want 
to see their country weakened, divided, sovereignty impinged 
upon, and they see the major threat of that coming from Iran. 
So I think as we empower Iraqis to build the kind of country 
and future they want, that is what we have to build on.
    Senator Cruz. Okay. Final question. Talk to me briefly 
about the Kurds. The Kurds have been loyal allies. They have 
spilled blood supporting the United States of America. They 
have, I think, been neglected and mistreated far too often by 
United States foreign policy. Can you talk about the importance 
of assuring that we do not abandon the Kurds once again and 
leave them subject to the predations of their neighbors?
    Ambassador Tueller. Senator, that U.S.-Kurdish relationship 
is a historic one. It is a long-lasting one. I think it is a 
very important one. I intend, if I am confirmed, to make sure 
that that relationship between the United States and the 
Kurdish people is one that is solid, that gives the Kurds the 
sense of security they need that they are never again in the 
future going to be dominated by the type of regime that Saddam 
Hussein represented in Baghdad.
    At the same time, I think it is very important from the 
U.S. perspective that we see good, solid relationships between 
Baghdad and Erbil, and I intend to do all I can to make sure 
that that relationship is a positive one.
    Senator Cruz. Thank you.
    The Chairman. Thank you, Senator Cruz.
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you both for your service to this country, your 
willingness to serve in these new posts. This country truly is 
grateful for your service.
    General Abizaid, continuing on the conversation you had 
with Senator Cruz, there are certain issues, resolutions that 
this Congress may be voting on regarding Yemen and other 
resolutions. How would that affect or change relationships in 
Saudi Arabia, perhaps empowering Iran? If you could talk a 
little bit about that.
    Mr. Abizaid. Senator, first of all, I am sorry we missed 
our appointment. I understand you were snowed in badly in 
Colorado.
    Senator Gardner. United once again proved they were in 
charge.
    [Laughter.]
    Mr. Abizaid. Senator, it is a good question. I do not think 
it is good for me as a private citizen at this point to comment 
on legislation. I would prefer to say it is very important for 
us to set the stage that allows for reform in Saudi Arabia, 
that allows ultimately some day for reform in Iran, and that 
allows for a better solution to the many problems that are 
transparent and obvious in Yemen.
    One thing we cannot afford in Yemen, we cannot afford to 
withdraw U.S. expertise to the coalition about how to fight. If 
we want them to fight right, we need to continue to give them 
that expertise.
    Another thing we cannot afford is that if a Hezbollah-like 
pro-Iranian IRGC Qods Force militia were to form in Yemen, it 
would be a lethal threat to the region and one that we could 
not ignore and certainly one that Saudi Arabia could not 
ignore.
    So it is important that we work in the right way in your 
legislation, and I know you are. But again, I think me 
commenting about exactly how it should be done would be out of 
my place.
    Senator Gardner. General--and you may have already talked 
about this with other members of the committee. I apologize if 
I am repeating. Could you talk a little bit about the civilian 
nuclear agreement and what parameters ought to be in place to 
assure a true civilian nuclear agreement, if that is indeed the 
case?
    Mr. Abizaid. Well, Senator, I have had this discussion with 
many of you in our consultations. I certainly think that in 
some future there can be nuclear power in Saudi Arabia, but I 
think anytime the U.S. provides nuclear power to anybody, it 
needs to be done under the strictest controls possible.
    Senator Gardner. With the standard gold-plated agreements 
that have been in every----
    Mr. Abizaid. I would say, yes, that is certainly the 
standard, but the issue is all about let us not allow plutonium 
or other type of substance move to somewhere where it can be 
used as a bomb.
    Senator Gardner. Right. Thank you.
    Ambassador Tueller, we discussed some of the challenges in 
Iraq, obviously, with corruption. How does the United States 
proceed addressing government corruption and the tools that you 
could bring to the position?
    Ambassador Tueller. Senator, again our engagement, whether 
it is through advocating for U.S. businesses to be present 
competing for contracts and the responsibility and the 
transparency that U.S. companies bring when they are engaged in 
an economy, also I think continue to empower the Iraqi 
institutions that have been stood up that so far have been able 
to continue to exist within the new Iraq that are intent on 
promoting greater transparency. The issue of corruption 
throughout the region and in fact through many developing 
countries is one that, as U.S. diplomats, when we encounter, we 
see how toxic it is. And I think the U.S. government, by 
upholding our standards, by encouraging greater transparency, 
helps the citizens of those countries.
    Senator Gardner. What effects do you see remaining from the 
separation--the referendum? The attempt last year--I believe it 
was last year.
    Ambassador Tueller. Sir, between the Kurds----
    Senator Gardner. Yes, correct.
    Ambassador Tueller. Well, of course, the call for a 
referendum--we opposed that. We advised many of the Kurdish 
leaders that we thought it was provocative and unnecessary. 
What I am pleased to say is that that we are seeing that 
relationship already improving. I know that there is a good 
relationship between the Kurdish leaders, the current 
president, and the current prime minister as well, and that 
some steps are being taken to repair that damage and put the 
relationship on a better footing.
    Senator Gardner. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Gardner.
    Senator Udall?
    Senator Udall. Thank you, Mr. Chairman.
    And thank you to both of the witnesses here today. I 
appreciate your testimony.
    These first two questions are for both of you.
    Last fall, Ambassador James Jeffrey, the State Department's 
Special Representative to Syria, stated during a Defense One 
conference--and I quote here. It requires stability ops to 
break Iran's meddling influence. End quote.
    Jeffrey continued saying that Iran, quote, will create a 
new Daesh if we do not get at the underlying problem. End 
quote. Referring to an Arabic acronym for ISIS. This is an odd 
position given that Daesh is a Sunni terrorist organization.
    In tackling Iran, he said we have no better partner than 
Saudi Arabia. He added we could not be doing what we are doing 
in the region without them.
    Yet, we know that funds from Saudi Arabia donors flowed 
towards Daesh and that many Wahabi clerics were an inspiration 
to ISIL's leaders. Saudi Arabia has also been implicated in the 
murder of Jamal Khashoggi and is directly responsible for one 
of the worst humanitarian disasters in recent history in Yemen.
    Comments like these and those of Secretary Pompeo and 
President Trump last year trying to frame Iran as a supporter 
of al Qaeda and other Sunni terrorists without proof should get 
our attention.
    Just last year, Reuters reported in announcing the U.S. 
withdrawal from the 2015 Iran nuclear deal, Trump said in May 
that Iran supports terrorist proxies and militias such as al 
Qaeda. End quote.
    In a speech last week, Pompeo said, quote, today we ask the 
Iranian people is this what you want your country to be known 
for, for being a co-conspirator with Hezbollah, Hamas, Taliban, 
and al Qaeda.
    In the same report, Reuters noted that a study casts doubts 
on these claims, claims, if true, would give the President some 
legal argument to say that the 9/11 AUMF applies to Iran, a 
claim that I as a Member of Congress who voted in favor of the 
9/11 AUMF find to be without any basis in reality.
    My first question to both of you is, do you believe that a 
war with Iran is in the best interest of the United States or 
either of the countries you are nominated to serve in?
    Mr. Abizaid. No.
    Ambassador Tueller. No, Senator, I do not.
    Senator Udall. Do either of you believe that the 9/11 AUMF 
extends to Iran or that Congress intended to use the 9/11 AUMF 
to take on Iran?
    Ambassador Tueller. Senator, I would have to defer to the 
State Department legal advisor to address any issues about 
authorized use of military force.
    Mr. Abizaid. I would have to defer to legal experts as I do 
not have any expertise in the issue.
    Senator Udall. But you guys were both around when all of 
this happened, and you know how targeted we were with the 9/11 
AUMF and what our objectives were, which we long ago--long 
ago--have achieved. So I find that a little discouraging that 
you are punting on that one.
    Mr. Abizaid. You know, Senator, I guess I would say is I 
was a soldier and we go where you tell us to go.
    Senator Udall. Well, I understand that, but you are also a 
very smart gentleman. You understand the realities of the 
Congress. It is Congress that has the authority under the 
Constitution to declare war, and it is also Congress that if it 
decides to do so and it thinks it is appropriate, that ends 
wars. And so an AUMF that has been in place since 2001 and is 
being used around the world as the reason for going into 
countries I think is something you should be worried about as a 
soldier and something that you should have looked into.
    Mr. Abizaid. Thank you, Senator.
    Senator Udall. We all know that climate change is real and 
that the result is that in places like New Mexico and Iraq, 
there is less water for all to go around. We must adjust to 
this reality. There are real and persistent water challenges in 
Iraq, including the Mosul Dam, and lack of sufficient drinking 
water supplies and trained staff to manage these important 
infrastructure investments.
    What role can the United States play and what role can you 
play to help facilitate a sufficient water supply in Iraq, 
including Mosul Dam stabilization, so that the region avoids 
conflicts over water resources?
    Ambassador Tueller. Senator, it is an excellent question. 
It is one that applies in Iraq. It is one that I have seen come 
into play in Yemen which faces a depletion of its water 
resources and elsewhere in the Middle East, in Syria and 
elsewhere. So throughout the Middle East, you often see that 
water resources are underlying part of the ongoing conflict.
    So I think it is important with respect to the Mosul Dam. 
The United States and the Army Corps of Engineers has been 
involved in some of the efforts to try to stabilize the dam. 
The Iraqis themselves are taking on a greater responsibility 
for that. It is a tremendous threat, one that we all need to 
remain vigilant.
    Thank you for the question, Senator.
    Senator Udall. Thank you.
    General, do you have a thought on that?
    Mr. Abizaid. I would only say, Senator, that the water 
problems in the Middle East are great, and the number one thing 
we can do to help solve them is first get these conflicts under 
control to the best of our ability. Once we do that, then other 
things will follow.
    Senator Udall. I hope we can do that, and then I hope we 
can work on the infrastructure for water resources and the 
other things that are needed for stability in order to, like 
you say, move forward.
    Mr. Abizaid. I agree with you, Senator.
    Senator Udall. Yes. I appreciate that.
    Thank you for your courtesies, Mr. Chairman. I know I ran 
over a little bit.
    The Chairman. You certainly did.
    Senator Udall. I bow down and apologize to you.
    [Laughter.]
    The Chairman. There will be more.
    Senator Barrasso, so patient and I am sorry I passed you 
over earlier.
    Senator Udall. If I had seen him there, I would have 
shortened my questions.
    Senator Barrasso. Thank you, Senator. Thank you, Mr. 
Chairman.
    Ambassador Tueller, if I could, just a general--how 
extensive is Iran's influence over Iraq?
    Ambassador Tueller. Well, of course, the two countries 
share a long border. They share an economic history, family, 
religious ties, but I think it is often missed, as you look at 
the broader, to understand again, as I said, Iraqi nationalism, 
the fact that Iraqi Shia clergy have their own standing, 
credibility, legitimacy within the country. So I think it is 
important not to overstate or to overreact to what is Iran's 
presence and relationship.
    I would say we are not trying to sever the relationship 
between Iraq and Iran. There should be ties. What we want to 
see is a normal, healthy relationship based on respect for 
sovereignty, an Iraq wanting to build, as we want to build, an 
Iran wanting to build an Iraq that is strong, stable, and 
sovereign.
    Senator Barrasso. Iran--they have armed militias, provided 
Revolutionary Guard forces to assist with the fighting against 
ISIS in Iraq. So I am talking about the current role the 
Iranian forces are playing in Iraq and what you see in terms of 
the force activity there.
    Ambassador Tueller. Senator, the issue of the popular 
mobilization forces that exist in Iran is one that is 
complicated. I know that the prime minister and other 
government officials are trying to bring all of those forces 
under the control of the government. Many of those forces, in 
fact, are nominally under control of the prime minister. What 
we are really concerned about is particularly those popular 
mobilization forces that are not responsive to the Iraqi 
government but are taking their directions, their leadership 
from not just Iran but from the Revolutionary Qods Force, and 
that is what is going to pose a great challenge. I think moving 
forward for Iraq to emerge as a strong, sovereign, normal 
country, it has to deal with that issue.
    Senator Barrasso. The United States has been encouraging 
Iraq to end its energy dependence on Iran. There was a ``Wall 
Street Journal'' article from November, headlining ``U.S. 
Pushes Iraq to Wean Itself off Iranian Energy.'' But despite 
its role as a major energy producer itself--Iraq--it does rely 
on Iran for imported natural gas to use in gas turbine power 
plants. Iranian natural gas generates about 45 percent of 
Iraq's electricity. Upon the reimposition of U.S. sanctions 
against Iran, the United States has provided Iraq a couple of 
waivers.
    Do you believe Iraq is serious about ending its dependence 
on Iran for energy? And what efforts is Iraq taking to reduce 
or end its energy dependence on Iran?
    Ambassador Tueller. Senator, that is correct. Not only 
significant imports of natural gas from Iran but also 
electricity itself as part of the grid. So it is important, for 
example, that Iraq receive capital, improve its ability to 
capture its own natural gas rather than flaring it so that it 
can be used to generate electricity. In the last several 
months, there has been some progress in that respect, but it is 
time consuming. Not enough has happened yet. And I think an 
important thing to try to use is--if I am confirmed as 
Ambassador, to encourage U.S. companies to be able to play a 
role in helping the Iraqi energy sector to capture that natural 
gas to use it for electrical generation.
    Senator Barrasso. And be less dependent upon Iran for their 
sources of energy.
    Ambassador Tueller. Absolutely.
    Senator Barrasso. Thank you.
    General, if I could, the blockade with Qatar. In June of 
2017, Saudi Arabia ended the diplomatic relationship with 
Qatar, and Saudi Arabia led a blockade against Qatar in terms 
of its Arab Gulf neighbors, Egypt, UAE, Bahrain. You know all 
of the things that have happened there.
    Can you talk a little bit about what the current status is 
of this dispute with Saudi Arabia and Qatar and what progress 
has been there in terms of resolving the dispute?
    Mr. Abizaid. To be honest, Senator, I do not think there 
has been much progress in resolving the dispute. I know there 
have been some forums, especially in the defense arena, where 
Qatari representatives were allowed to attend, opportunities to 
meet with their Gulf colleagues.
    My opinion is that it is important to solve this problem. 
Having Gulf states be antagonistic and at each others' throats 
at a time when they are facing a great threat from Iran to me 
does not make geopolitical sense.
    Senator Barrasso. To that point that you just made, can you 
talk about how this dispute threatens the regional unity needed 
to counter Iran?
    Mr. Abizaid. Senator, the Iranians are masters at finding 
the small crack between forces that they face, and they have a 
small crack because of this dispute.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Ambassador Tueller, I think what Senator Barrasso has 
raised about the Iranian influence in Iraq is a really serious 
concern to all of us. We keep hearing more and more reports of 
that not only in this committee but other committees that I 
serve on. I hope you will pay close attention to it. We all 
know their malign intent, and we realize it is complicated, 
like you said. But it is discouraging to hear the inroads they 
continue to make into the Iraqi infrastructure. So in any 
event, I hope you keep an eye on that.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    General Abizaid, I am very inclined to support your 
nomination, but I heard a few answers here that create a little 
cause for concern for me. So let me try to follow up with you.
    In several answers, you said we cannot afford and went on 
to describe elements that we cannot afford Saudi Arabia not to 
do X, Y, or Z. From my perspective, we cannot afford to 
continue to allow the Saudis fighting in Yemen and 
indiscriminately bombing civilians and ultimately violating 
international law.
    We cannot afford to allow the killing of an American 
resident journalist with impunity and no consequence for that.
    We cannot afford to allow U.S. citizens or permanent 
residents to be detained and, if some of these allegations are 
true, tortured without consequence. And the list goes on.
    So, yes, many of us understand that the Saudi relationship 
is important in our broader national security question, 
particularly as it relates to Iran. But that does not mean--
that does not mean--that we cannot challenge our relationship 
with a nation even when our security interests may align.
    Is that your view that we can challenge and seek to change 
the nature of the relationship, or is that we have to accept 
what they have done in order to pursue our greater national 
security goals?
    Mr. Abizaid. Senator, I thought I was clear in saying we 
should not accept these outrageous sorts of problems such as 
the killing of Jamal Khashoggi, that we should not accept the 
torture and detention--the alleged torture and detention of an 
American citizen, and so many other things, as I mentioned in 
my opening statement. These short-term problems have to be 
solved now, and it requires forceful discussions on behalf of 
the United States with the government of Saudi Arabia. And I am 
prepared to have those discussions if you confirm me.
    Senator Menendez. All right, because that is important 
because I get concerned that somehow we create this aura that 
the relationship is so important that we cannot challenge those 
things that are horribly wrong about it. And I do not buy that 
because if, at the end of the day, you can kill a journalist 
with impunity and because of our interests we will look the 
other way, that is a dangerous message to send across the 
globe. And it is a dangerous message to send to any other 
country for which we may have an interest that you can act with 
impunity as long as you pursue a certain interest we might have 
with you. That is not who we are as a nation. I just want to 
make sure you are going to have no problem pursuing those 
challenges.
    Mr. Abizaid. I have no problem saying what I need to say in 
that regard.
    Senator Menendez. And in that regard, will you press the 
Saudi government on the continued detention of American 
citizen, Dr. Walid Fitaihi?
    Mr. Abizaid. Yes.
    Senator Menendez. And will you commit to request to visit 
women rights activists who have been unjustly detained?
    Mr. Abizaid. Yes.
    Senator Menendez. And finally, let me--Ambassador Tueller, 
I do not want you to think I have no affection for you in this 
hearing. Let me just ask you, what does success look like for 
us in Iraq? And how do we achieve that, and what tools do we 
have to try to achieve it? Give me a sense of that. It is a 
broad statement of your mission, but I would like to get a 
sense of what it is that we are working towards.
    Ambassador Tueller. Sir, I believe we do need to be guided 
by a long-term strategic vision, and I think it is a vision 
that sees Iraq as a pillar of stability in the region. And we 
achieve that by working with Iraqis to build up their security 
institutions, by building up their economy, by combating the 
influence of sectarianism, by combating issues like corruption 
or lack of transparency in the economy. We seek that as a 
vision as you look at the contrasting agenda of Iran, which 
seeks an Iraq that is weak, that is divided that does not have 
sovereignty over its own territory and forces. We are working 
to bring about in areas of Iraq clean drinking water and 
government services to people where Iran is flooding the market 
with cheap goods and in fact with heroin or other dangerous 
products. So we need to be projecting a positive, constructive 
vision for Iraq, and I have no problem doing it.
    Senator Menendez. And what is our leverage to achieve those 
things?
    Ambassador Tueller. Again, I think that we have allies and 
partners who want that, Iraqis who want that same vision, and 
we are working with them, whether they are Kurds, whether they 
are from political alliances, wherever they come from, those 
Iraqis that want to see a strong, stable, unified, sovereign 
Iraq--those are the people that we will work with.
    Senator Menendez. Thank you.
    The Chairman. Thank you.
    We hear a lot of partisan talk up here. So there is no 
mistake, I think the ranking member probably articulated as 
clearly as is possible that when we have an ally, we try to 
support those allies as best we can. But the kinds of things 
that have been happening lately make it very, very difficult, 
and we cannot look the other way.
    Thank you for those remarks, Senator Menendez.
    Senator Murphy?
    Senator Murphy. Thank you very much. Thank you for giving 
us the opportunity to have a short second round.
    I appreciate, General Abizaid, your follow-up answer to 
Senator Menendez. I, as well, was a bit concerned with what was 
to me an unexpected robust defense at times of the Saudi 
regime, and so I appreciate your clarification.
    My second round, though, is for you, Mr. Tueller. The 
Houthis, no doubt, bear significant responsibility for the 
humanitarian catastrophe up until this day. But you are the 
first diplomat with jurisdiction over the crisis in Yemen that 
I have ever heard assign 0 percent responsibility for the 
humanitarian disaster inside Yemen to the Saudis. And it seemed 
as if you resisted amending that answer in the follow-up from 
Senator Merkley. And although Senator Young did not ask you a 
question, I think you understood the beginning of his query to 
you.
    Just because one party starts a war does not give carte 
blanche to the other side to conduct themselves in a manner 
that makes the humanitarian situation on the ground worse. And 
by saying that the Saudis bear no responsibility for what has 
happened there is a permission slip to the Saudis and anyone 
who is a contestant to a conflict to behave as irresponsibly as 
they like just because they might not have been the instigator.
    I can recite you the same statistics that Senator Merkley 
did, but they are pretty overwhelming in terms of the consensus 
among the international community as to the affect that the 
bombing campaign, targeting civilians, the months' long 
blockade had on the worsening humanitarian situation.
    So I want to give you one last shot before we end here to 
amend your answer that the Houthis bear 100 percent 
responsibility for the civilian nightmare that has happened 
inside Yemen.
    Ambassador Tueller. Mr. Senator, thank you for the 
following question, and in describing what I think is an 
analytical position as to exactly what is happening to the 
economy in Yemen, that does in no way or shape excuse the 
Saudis when they violate the Law of Armed Conflict or conduct 
their military operations in a manner that does not give due 
regard for civilian life.
    What I am describing, however, is the situation in Yemen, 
already the poorest country in the world with measures of 
childhood stunting, famine that existed before 2014 that has 
absolutely had the legs of the economy kicked out from under it 
by the actions of the Houthis and the Iranian-back proxies. The 
U.N. Humanitarian Coordinator I think has described the 
situation best when she said Yemen is not suffering from a 
famine of food. Yemen is suffering from a famine of incomes. 
That is what is really driving most of the humanitarian 
suffering that we are all witnessing. Yemenis who have lost 
their incomes because of closure of private sector small and 
medium enterprises, who have lost their government salaries, 
the government that has lost its income----
    Senator Murphy. I get it. I get it. That is not my 
question. I understand what is happening there. The question is 
whether the Saudis bear something above 0 percent 
responsibility for what has happened there.
    Ambassador Tueller. Senator, I understand, and absolutely I 
would not minimize that when there have been targeting of 
infrastructure such as roads or bridges or transportation--and 
that has had a very, very deleterious impact on the economy.
    But if you are looking for a solution of how we are going 
to address the humanitarian situation, it is going to be 
finding a way to leverage the Houthis and to entering into a 
peaceful power sharing agreement. It is not going to happen as 
a result of what the Saudis will do. The answers lie in the 
hands of the Yemenis. And so I think many, many Yemenis would 
tell you exactly the same thing that I have said here today.
    Senator Murphy. So help me figure this out. Are you 
changing your answer or not changing your answer? This is a 
problem for you moving forward here if you cannot commit to us 
that the Saudis have some responsibility for what has happened 
there, as almost everyone has testified before this committee 
before you has said. Are you changing your answer or not?
    Ambassador Tueller. So with the war going on--and, of 
course, the Saudis as one of the participants--absolutely, of 
course, they have had an impact on the humanitarian suffering. 
I am not saying that. And I think again going to the specific 
question, when there have been violations of the Law of Armed 
Conflict or undue consideration for collateral damage, we 
cannot overlook that or excuse that.
    But when I am looking for answers of how we are going to, 
as a nation, resolve the humanitarian crisis, we have got to 
look to the underlying causes of what is happening in Yemen, 
the responsibility of all the Yemeni parties, and what we are 
going to do so that the Yemeni civilians do not continue the 
suffering.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Well, with that, thank you to both of you and your 
families. You have been very patient with us, and we really 
appreciate that.
    For information of the members, the record will remain open 
until close of business on Thursday, including for members to 
submit questions for the record.
    With the thanks of the committee, this hearing is now 
adjourned.


    [Whereupon, at 12:03 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

                              ----------                              


            Responses to Additional Questions for the Record
        Submitted to General Abizaid by Senator Robert Menendez

U.S.-Saudi Relations
    Question. I am very concerned by recent reports that Embassy staff 
in Riyadh were barred from Jared Kushner's recent meetings with the 
Saudi Royal Court, including with Crown Prince Mohammed bin Salman:

  If confirmed, what steps will you take to ensure that you or 
        another embassy official are present at all meetings between 
        Saudi and U.S. officials?

    Answer. The U.S. government should always act as one unit in the 
execution of foreign policy. As I noted in my testimony, if confirmed, 
I will join with the many U.S. government interlocutors from 
Washington, within the U.S. Mission to Saudi Arabia, and elsewhere to 
advance U.S. interests in Saudi Arabia as Chief of Mission in the most 
coordinated manner possible. My policy, if confirmed as Ambassador, 
will be to have an Embassy assigned representative at every official 
meeting to the extent possible.


    Question.  There have been numerous reports of private individuals 
with ties to the president who have pursued business deals or contracts 
in Saudi Arabia.

  What will you do to ensure that all U.S. businesses are treated 
        fairly and equally and that those with ties to the president do 
        not receive preferential treatment?

    Answer. The goal of U.S. embassies overseas is to advance U.S. 
interests across the full spectrum of political, economic, security, 
and humanitarian priorities. If confirmed, I will look to carry on the 
U.S. Mission to Saudi Arabia's long history of connecting the full 
range of U.S. businesses and commercial interests to Saudi 
counterparts. If confirmed, I will strictly enforce regulations and 
procedures to ensure equal treatment of U.S. businesses and citizens.

    Question.  How can the United States best leverage its close 
relationship with Saudi Arabia to ensure better alignment between U.S. 
and Saudi priorities? How might Saudi leaders respond to efforts by the 
United States to withhold or condition the provision of security 
assistance in order to compel policy changes?

    Answer. I recognize that U.S. government assistance and the 
reputational incentives a partnership with the United States offers is, 
in some cases, a useful tool to encourage countries to adopt policy 
changes that favor U.S. interests. I believe U.S. priorities are 
advanced by our close relationship with Saudi Arabia, not in spite of 
it. We are able to influence, steer, and achieve results because of our 
ability to have honest, often difficult conversations with Saudi 
leadership, and our security cooperation activities serve as a key 
venue for deepening our relationship.
    In Saudi Arabia, our strong partnership over many decades has 
allowed us to secure U.S. interests in the region, roll back the malign 
influence of Iran, and counter violent extremist groups, such as al-
Qa'ida and ISIS.

    Question.  How can the United States encourage or demand the 
development of more open, participatory, and transparent governance in 
the kingdom?

    Answer. In all our relationships around the world, the United 
States will continue to encourage more open, participatory, and 
transparent governance, and the President's National Security Strategy 
strongly supports championing American values abroad.
    In Saudi Arabia, freedom of expression, thought, and religion or 
belief are not guaranteed by law. Gender discrimination excludes women 
from many aspects of public life, and citizens lack the ability to 
choose their government in free and fair elections. The Shia minority 
is marginalized from political, social, and economic life. There are no 
political parties or similar associations in the Kingdom. In 2015, 
elections were held for two-thirds of the 3,159 seats on 284 municipal 
councils; the government appointed the remaining third. Women were 
allowed to vote and run as candidates for the first time in 2015.
    If confirmed as Ambassador, I will articulate U.S. support for 
expanding this participatory process for municipal elections. I will 
also convey clearly U.S. concerns regarding the detention of activists 
and perceived dissidents in Saudi Arabia. If confirmed, my mission will 
take all allegations of abuse seriously. I will continue to urge the 
government of Saudi Arabia to ensure fair trial guarantees, freedom 
from arbitrary and extrajudicial detention, transparency, and rule of 
law. Women's rights are a critical goal for U.S. foreign policy, and I 
fully commit to making them a key element of my potential tenure as 
ambassador. The Saudis have made progress, but it is clearly not 
enough. The United States has pressed them on this issue for years, and 
I will continue to do so.

    Question.  What leverage, if any, do you believe Saudi investments 
in U.S. Treasury securities, Saudi support for the denomination of 
international oil sales in U.S. dollars, and Saudi purchases of U.S. 
defense articles and services provide the Saudi government relative to 
the United States? How should the United States respond to implied or 
explicit threats by Saudi officials to change patterns of bilateral 
investment, defense ties, or energy policies?

    Answer. Saudi Arabia's investments in the United States are 
significant, with over $14 billion in foreign direct investment in 
2018. These investments benefit Saudi Arabia and the United States, and 
our country remains the key engine of the world economy. Saudi Arabia, 
like so many countries, are attracted to the U.S. market for its 
stability, quality, and continued potential for growth.
    Saudi Arabia remains a leading player in the global oil market, and 
use of the U.S. dollar as the primary currency of oil and other 
international trade is important to U.S. national security. Dollar-
denominated energy trade gives the United States leverage over those 
using our currency.
    Saudi Arabia is--by far--the largest purchaser of U.S. defense 
equipment, with over $100 billion in active Foreign Military Sales 
cases. These sales provide significant income and growth for U.S. 
businesses, support American jobs, and enhance our military 
interoperability.

Yemen
    Question. Repeated stories of U.S. -supplied bombs hitting 
weddings, funerals, and school busses are simply unacceptable. Although 
the Saudis say that they have implemented measures to investigate and 
reduce civilian casualties, much of the reporting from the Saudis and 
the administration does not comport with other reporting from media and 
human rights organizations on the ground:

   What is your assessment of the mechanisms Saudi Arabia has put in 
        place to both prevent civilian casualties and to investigate 
        particular incidents?

    Answer. At our urging, Saudi Arabia has put in place a number of 
mechanisms to reduce civilian casualties in Yemen. If confirmed, I will 
continue to work with Saudi Arabia to continue activities to sustain 
their positive progress on protecting civilians and adherence to 
international humanitarian law as they pursue their legitimate national 
security objectives. Our close relationship with Saudi Arabia ensures 
we can continue to work with them on this matter.


    Question. Will you continue to press for the Saudis to meaningfully 
reduce civilian casualties and hold those responsible for perpetrating 
attacks on civilians accountable?

    Answer. Yes, if confirmed, I will continue to press the Saudis on 
these critical points.


    Question. Do you believe it is important to continue to promote the 
principles of International Humanitarian Law and the Law of Armed 
Conflict in Yemen?

    Answer. Yes, I believe we have both moral and strategic reasons to 
promote the principles of International Humanitarian Law and the Law of 
Armed Conflict in Yemen.Relations


    Question. What levers do you think the United States has to promote 
the Stockholm Peace process? What will happen if this fragile peace 
process falls apart?

    Answer. Diplomacy has been our primary lever in the Yemen conflict. 
We have coordinated that piece of diplomatic engagement with the 
Coalition, who were essential in bringing the parties to Sweden in the 
first place. Saudi Arabia, in particular, continues to leverage its 
strong bilateral relationship with the ROYG to move the peace process 
forward. Through the Omanis and the European Union, we continue to 
communicate the importance of making good on the Sweden agreement to 
the Houthis. The current peace process is the closest the parties have 
come to forging a political agreement in a long time. They sat across 
from each other in one room in Sweden--no small feat. If this effort 
falls apart, our diplomatic engagement in support of U.N. efforts to 
forge a political solution will continue.


    Question. What do you think our posture should be?

    Answer. Decisions that the United States makes in Yemen have not 
only political, but also humanitarian consequences for the daily lives 
of millions of Yemenis. Our actions have the potential to affect our 
bilateral relationships in the region and beyond, and will have a 
lasting impact on security in the Middle East and our global 
counterterrorism objectives. Our posture must reflect all of these 
realities. If confirmed, I will support our current posture, which is 
to support the international community's ongoing effort to support the 
Yemeni parties in sitting down and charting out an agreement that will 
end this conflict.


    Question. What role do you believe the Houthis should play in any 
negotiated settlement?

    Answer. At one time, the Houthis had legitimate grievances about 
their political and economic marginalization in Yemen. However, the way 
they chose to address those grievances--an attempted violent overthrow 
of a legitimate government--is unacceptable. If they are ready to put 
down their arms and truly invest in a post-conflict Yemeni government, 
they are entitled to political participation and economic 
opportunities, as are all Yemenis. However, they cannot expect this 
outcome while retaining their relationship with Iran. They must put 
down their weapons and make a political agreement in good faith.


    Question. We have seen alarming reports of both Emiratis and Saudis 
transferring serious U.S.-origin weapons systems to third party 
fighters on the ground. If true, this has serious implications for 
future arms sales. How will you engage with the Saudis on this matter?

    Answer. Recent media reports alleging that the Coalition provided 
U.S.-origin Mine-Resistant Ambush Protected (MRAP) vehicles and other 
equipment to Yemeni forces and other third parties without the consent 
of the U.S. government are concerning. All recipients of U.S. origin 
equipment are expected to adhere to commitments governing procurement 
of U.S. defense equipment. If confirmed, I am committed to looking into 
these allegations and working with the Saudis to ensure that they 
adhere to all of the requirements regarding the transfer of U.S. 
equipment.


    Question. What steps will you take to investigate these 
allegations?

    Answer. If confirmed, I am committed to looking into these 
allegations and working with the Saudis to ensure that they adhere to 
all of the requirements regarding the transfer of U.S. equipment.


    Question. What do you think are appropriate responses?

    Answer. If confirmed, I am committed to looking into these 
allegations and working with the Saudis to ensure that they adhere to 
all of the requirements regarding the transfer of U.S. equipment.

    Question.  As Ambassador, what steps will you take to press the 
Saudi government to stop their detention of human rights activists, end 
the detention of American citizen Dr. Walid Fitaihi and allow you to 
visit womens' right activists who have been unjustly detained?

    Answer. If confirmed, I will pursue American interests and champion 
our values, commitments, and our enduring respect for human rights. I 
will make clear that the United States remains deeply concerned by the 
detention of activists and perceived dissidents in Saudi Arabia and 
that we take all allegations of abuse seriously. If confirmed, I will 
continue to urge the government of Saudi Arabia to ensure fair trial 
guarantees, freedom from arbitrary and extrajudicial detention, 
transparency, and rule of law. If confirmed as Ambassador, I will call 
on the government of Saudi Arabia to treat prisoners and detainees 
humanely, and to ensure that allegations of abuse are investigated 
quickly and thoroughly and those found responsible are held 
accountable.
    I have dedicated my life to the protection of U.S. citizens and 
U.S. national security interests and if confirmed that will not change. 
If confirmed, the protection of all U.S. citizens in Saudi Arabia will 
be my highest priority.

    Question.  What steps will you take to press the Saudi government 
to fully account for the murder of Jamal Khashoggi and advise the State 
and Treasury Departments to fully comply with the Magnitsky law and 
provide Congress the mandated determination?
    Answer. The President and the Secretary of State have been clear 
that Saudi Arabia must hold accountable every individual implicated in 
the horrific murder of Jamal Khashoggi, including high-ranking members 
of the Saudi government. If confirmed, I will do my utmost to advance 
this process as Ambassador. The U.S. government has a wide range of 
diplomatic tools--an important one being the Global Magnitsky sanctions 
program--and I will urge the administration to use those tools in line 
with the advancement of U.S. foreign policy interests as laid out by 
the President.
    I cannot speak to current compliance, as I am not a member of the 
administration. However, I fully commit to providing as much 
information as possible to comply with Congressional requirements.

    Question.  Will you press for both our own administration and the 
Saudis to fully cooperate with the U.N. Special Investigator? What 
steps will you take to advocate for their cooperation?

    Answer. The administration supports U.N. Special Rapporteur Agnes 
Callamard's global mandate to investigate extra-judicial, summary, or 
arbitrary executions. It is my understanding that State Department 
officials met with her, at her request, in Washington to discuss 
several matters, including the murder of Jamal Khashoggi. If confirmed, 
I will urge Saudi counterparts to continue their investigation in order 
to hold those responsible accountable, and to provide appropriate 
cooperation for Special Rapporteur Callamard's inquiry into the murder 
of Mr. Khashoggi.

Anti-Semitism/Religious Intolerance
    Question. Saudi Arabia has a history of religious intolerance and 
anti-Semitism, including in its education system. I am very concerned 
that Saudi Arabia's latest books for the 2018-2019 school year continue 
to teach hatred or even violence against Jews, Christians, Shiites, 
women, men who have sex with men, and anybody who mocks or converts 
away from Islam:

  Will you commit making this issue a priority during your time as 
        ambassador?

    Answer. Yes, if confirmed, I will commit to making this issue a 
priority. The United States is concerned that hateful language in 
educational materials not only fosters intolerance and discrimination, 
but fertilizes the ground for violent extremism that extends far beyond 
Saudi Arabia's own borders. As noted in my testimony, intolerance and 
violent religious extremism exported across borders and regions is a 
problem we need to solve. This is a difficult problem to solve, and 
research indicates it may be worsening, but direct engagement with the 
government and other stakeholders will be a priority.


    Question.  What steps will you take to raise this issue with Saudi 
authorities?

    Answer. Although the Saudi government has taken some positive steps 
to remove objectionable content, textbooks retain inflammatory material 
hostile to Christians, Jews, and Shia Muslims. I understand that 
Embassy officials routinely engage with Saudi counterparts on this 
issue, and support international visitor programs aimed at expanding 
religious tolerance and interfaith cooperation. If confirmed, I will 
seek to build upon those efforts.


    Question. How will you advise the administration to address this 
issue with Saudi Arabia?

    Answer. Direct engagement on tough issues is critical. I understand 
the State Department's International Religious Freedom office routinely 
engages leaders across faiths and regions, and I will look to support 
their work to promote religious tolerance with Saudi Arabia.

Nuclear/123
    Question.  Do you commit to ensuring the administration complies 
with 42 U.S. Code Sec. 2153(e), which requires the president to keep 
the Committee on Foreign Affairs of the House of Representatives and 
the Committee on Foreign Relations of the Senate ``fully and currently 
informed of any initiative or negotiations relating to a new or amended 
agreement for peaceful nuclear cooperation pursuant to this section 
(except an agreement arranged pursuant to section 2121(c), 2164(b), 
2164(c), or 2164(d) of this title, or an amendment thereto)''?

    Answer. Yes, if confirmed, I will support the Department's efforts 
to comply with this requirement.


    Question. Crown Prince Muhammad bin Salman stated in an interview 
that Saudi Arabia would acquire nuclear weapons if Iran acquired them. 
What is your assessment of the Saudi's current interest in pursuing 
nuclear energy?

    Answer. As Saudi Arabia expands and diversifies its economy under 
Vision 2030, alternate means of energy production are a reasonable 
avenue to lessening the country's dependence on fossil fuels. Safe, 
secure civilian nuclear technology is one route to achieving that goal.


    Question. Do you agree that supplying nuclear reactors--even so-
called ``peaceful power'' reactors--to Saudi Arabia is significant 
risk?

    Answer. My understanding is that all 123 agreements include the 
strongest nonproliferation and security standards required by any 
nuclear supplier in the world. Beyond these legal requirements, my 
understanding is that the United States has a long-standing policy of 
seeking to limit the spread of enrichment and reprocessing 
technologies. If the United States enters into a 123 agreement with 
Saudi Arabia and a U.S. firm is chosen to build nuclear reactors there, 
it would ensure the Saudi nuclear power program is subject to our high 
nonproliferation and security standards.


    Question. How do you think the U.S. should proceed regarding 
providing nuclear technology to Saudi

    Answer. If confirmed as ambassador, I will support pursuing the 
strongest nonproliferation standards in negotiations with Saudi Arabia.


    Question. There are reports that former NSC officials were pursuing 
efforts to give nuclear technology to the Saudis, reportedly regardless 
of the 123 requirements:

  Are you aware of such reports?

    Answer. I am aware of media reports, but have no further knowledge 
of such activities.


    Question. What steps will you take to ensure that any discussions 
comply fully with 123 and protect U.S. interests?

    Answer. If confirmed, I would support continuing discussions with 
Saudi Arabia on a 123 agreement that fully complies with U.S. law and 
includes the strongest nonproliferation standards.

Democracy
    Question.  What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions? [

    Answer. Having served in the U.S. Army for 34 years, I have devoted 
my life to defending U.S. values and human rights around the world. I 
participated in or led in the following: the rescue of U.S. students in 
Grenada; served as an unarmed U.N. observer in Lebanon; participated in 
operations in Northern Iraq to protect the Kurds and preserve peace and 
stability; after the 2006 earthquake I led efforts to provide relief 
supplies and military assistance to Pakistan; established the 
Provincial Reconstruction Team concept in both Iraq and Afghanistan; 
and led evacuation operations for American civilians in Lebanon. 
Throughout my career, I have been dedicated to the democratic 
principles upon which our country was built and I have advocated for 
the universal respect of human rights. These were particularly 
difficult to in operations in Iraq and Afghanistan.
    The world we live in remains challenging; however, I believe my 
impact on younger U.S. officers concerning the respect for the rule of 
law, democracy and universal human rights has been significant.

    Question.  What issues are the most pressing challenges to 
democracy or democratic development in Saudi Arabia? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. The State Department's most recent Human Rights Report on 
Saudi Arabia documents significant restrictions on freedom of 
expression and civil society. Fundamental freedoms of religion, 
expression, assembly, and association are not enshrined in Saudi law. 
At least 120 Saudis remain in Saudi government detention for activism, 
criticism of government leaders, impugning Islam or religious leaders, 
or ``offensive'' internet postings. There are credible reports that 
some of the detainees have been mistreated or tortured, including U.S. 
citizen Walid Fitaihi. The use of counterterrorism laws and courts to 
prosecute non-terrorists remains a key problem.
    Gender discrimination excludes women from many aspects of public 
life. Women are routinely excluded from formal decision-making 
positions in both government and the private sector, although some 
women attained leadership positions in business and served in senior 
advisory positions within government ministries. While we welcome the 
decision to allow Saudi women to drive which was enacted in June 2018, 
the male guardianship law is still in place, which prohibits Saudi 
women from traveling overseas without approval and limits their freedom 
of movement.
    I understand that Saudi Arabia remains a Country of Particular 
Concern for international religious freedom. Many of those detained for 
advocacy or dissent are members of Saudi Arabia's Shia minority.
    Saudi law does not provide citizens the full ability to choose 
their government in free and fair elections. Only select members of the 
ruling family have a voice in the choice of leaders, the composition of 
the government, or changes to the political system. There are no 
political parties or similar associations. Even so, in 2015, elections 
were held for two-thirds of the 3,159 seats on 284 municipal councils; 
the government appointed the remaining third. Women were allowed to 
vote and run as candidates for the first time in 2015.

    Question.  What steps will you take--if confirmed--to support 
democracy in Saudi Arabia? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will make clear that the United States 
remains deeply concerned by the detention of activists and perceived 
dissidents in Saudi Arabia and that we take all allegations of abuse 
and harassment seriously. If confirmed, I will continue to urge the 
government of Saudi Arabia to ensure the right to a fair trial, freedom 
from arbitrary and extrajudicial detention, transparency, and rule of 
law. If confirmed as Ambassador, I will call on the government of Saudi 
Arabia to treat prisoners and detainees humanely, and to ensure that 
allegations of abuse are investigated quickly and thoroughly.
    Women's rights are a critical goal for U.S. foreign policy, and I 
fully commit to making it a key element of my potential tenure as 
ambassador. Through Vision 2030 and other reform efforts, the Saudis 
have made progress, but it is clearly not enough. We have pressed them 
on this issue for years, and I will continue to do so.
    Finally, if confirmed as Ambassador, I will note U.S. support for 
expanding this participatory process for municipal elections.

    Question.  How will you utilize U.S. government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I plan to leverage U.S. foreign assistance, 
along with other tools available to the U.S. government, to advance our 
foreign policy goals ?and national security interests, including 
through support for democracy and governance. If confirmed, I will 
ensure that U.S. foreign assistance resources and programs support 
civil society organizations, promote inclusive participatory 
governance, and further respect for human rights.

    Question.  If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Iraq? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed as Ambassador, I intend to meet with the full 
range of Saudi society, as well as non-governmental organizations in 
the United States that work on issues related to Saudi Arabia. I will 
make clear to Saudi leadership that the United States supports the 
important role civil society plays in every country.

    Question.  If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. There are no political parties or similar associations in 
Saudi Arabia. However, if confirmed as Ambassador, I will strongly 
advocate for the inclusion of women, minorities, and youth in public 
life. If confirmed, I will strongly advocate for women's inclusion in 
formal decision-making positions in both government and the private 
sector.

    Question.  Will you and your embassy team actively engage with the 
government of Saudi Arabia on freedom of the press and address any 
government efforts designed to control or undermine press freedom 
through legal, regulatory or other measures? Will you commit to meeting 
regularly with independent, local press in Iraq?

    Answer. At every opportunity, if confirmed, I will underscore the 
United States' enduring commitment to human rights, including freedoms 
of conscience, expression, peaceful assembly, and movement. If 
confirmed, I will meet with independent, local press.

    Question.  Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes, if confirmed my embassy team and I will engage with a 
diverse cross-section of Saudi society on freedom of thought and 
expression, as well as the importance and value of a free and open 
press.

    Question.  Will you and your embassy teams actively engage with the 
government of Saudi Arabia on the right of labor groups to organize, 
including for independent trade unions?

    Answer. Saudi law does not provide for the right of workers to form 
and join independent unions, nor does it provide for the right to 
collective bargaining or the right to conduct legal strikes. Even so, 
if confirmed, I will underscore to Saudi leadership that the United 
States is a strong advocate for the human rights and labor rights of 
workers across the globe, and evaluates each country's labor rights in 
our annual Human Rights Report.

    Question.  Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Iraq, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Saudi Arabia? What specifically will you commit to do to help LGBTQ 
people in Saudi Arabia?

    Answer. Under sharia as interpreted in Saudi Arabia, consensual 
same-sex sexual conduct is punishable by death or flogging. If 
confirmed, I pledge to support and defend the rights of LGBTQ Saudis.



                               __________


            Responses to Additional Questions for the Record
    Submitted to General John Abizaid by Senator Benjamin L. Cardin

    Question.  The U.S. and Saudi Arabia share clear strategic 
interests in countering Iranian destabilizing activities, countering 
terrorism, and ensuring the free flow of oil and commerce to global 
markets. They also share a strong security partnership. As Ambassador, 
how will you leverage and restructure this relationship to further a 
principled U.S. foreign policy that takes a firm stance on human 
rights, protection of civilians in Yemen, and holds our partner 
accountable, particularly when it receives substantial U.S. support?

    Answer. I firmly believe that direct, respectful, engagement on 
tough issues advances U.S. interests and messages American values to 
the world. We should always seek to embed our values in our broader 
foreign policy imperatives in the Middle East--stability, security, and 
economic prosperity. Each of these priorities is advanced by our close 
relationship with Saudi Arabia--we are able to influence, steer, and 
achieve results because of our ability to have honest, often difficult 
conversations with Saudi leadership. If confirmed, I will prioritize 
those engagements as ambassador.

    Question.  Are there specific incentives or punitive steps you 
would recommend to encourage or demand the development of more open, 
participatory, and transparent governance in the kingdom?

    Answer. In all our relationships around the world, the United 
States has traditionally encouraged more open, participatory, and 
transparent governance. The tools and levers we use may differ. In the 
case of Saudi Arabia, I believe we should commend ongoing reforms and 
regularly encourage adherence to rule of law and protection of human 
rights, while also seeking to preserve the longstanding relationship 
that has allowed us to achieve mutual objectives in the region over 
many decades. Partnership with the United States is a significant 
incentive in its own right, and the political, security, and economic 
benefits that come with it should always underpin our engagements 
overseas in order to advance American values and ideals.

    Question.  How might Saudi leaders respond to efforts by the United 
States to withhold or condition the provision of arms sales and 
security assistance in order to compel policy changes?

    Answer. I recognize that U.S. government foreign assistance and the 
reputational incentives a partnership with the United States offers is 
in some cases a useful tool to encourage countries to adopt policy 
changes that favor U.S. interests. In Saudi Arabia, I believe our 
strong partnership over many decades has allowed us to secure U.S. 
interests in the region, roll back the malign influence of Iran, and 
counter violent extremist groups, such as al-Qa'ida and ISIS.
    I believe U.S. priorities are advanced by our close relationship 
with Saudi Arabia, not in spite of it. We are able to influence, steer, 
and achieve results because of our ability to have honest, often 
difficult conversations with Saudi leadership. We should not, however, 
take these relations for granted. As we work through our differences, 
we want to maintain our commitment as a reliable partner while 
insisting on full accountability.

    Question.  Until there is more clarity on the circumstances of the 
Khashoggi murder and the trials of the unnamed Saudi suspects, would 
you agree that it is appropriate to defer travel to the United States 
of individuals thought to have a role in it?

    Answer. Yes, and I understand the Secretary of State approved a 
policy on October 23, 2018 restricting visas for all individuals 
suspected of involvement in this horrific crime. There are also human 
rights-related visa restrictions that apply to those involved in an 
extrajudicial killing.

    Question.  What leverage, if any, do you believe Saudi investments 
in U.S. Treasury securities, Saudi support for the denomination of 
international oil sales in U.S. dollars, and Saudi purchases of U.S. 
defense articles and services, provide the Saudi government relative to 
the United States?

    Answer. Saudi Arabia's investments in the United States are 
significant, with over $14 billion in foreign direct investment in 
2018. These investments benefit Saudi Arabia as well as the United 
States, and our country remains the key engine of the world economy. 
Saudi Arabia, like so many countries, is attracted to the U.S. market 
for its stability, quality, and continued potential for growth.
    Saudi Arabia remains a leading player in the global oil market, and 
use of the U.S. dollar as the primary currency of oil and other 
international trade is important to U.S. national security. Dollar-
denominated energy trade gives the United States leverage over those 
using our currency.
    Saudi Arabia is--by far--the largest purchaser of U.S. defense 
equipment, with currently over $100 billion in active Foreign Military 
Sales cases. These sales provide significant income and growth for U.S. 
businesses, support U.S. jobs, and enhance our military 
interoperability.

    Question.  How should the United States respond to implied or 
explicit threats by Saudi officials to change patterns of bilateral 
investment, defense ties, or energy policies?

    Answer. The United States should respond strongly and affirmatively 
to secure U.S. interests. The U.S.-Saudi relationship relies on 
cooperation and shared interests, and I believe the benefits of our 
relationship are well known to Saudi Arabian authorities. A breakdown 
in our relations would serve neither country's interests.

    Question.  What are the kingdom's red lines with regard to a 
solution to the conflict in Yemen?

    Answer. Houthi missile launches and UAV strikes pose a serious 
security threat to Saudi Arabia. The Kingdom will not tolerate this 
threat along its southern border. As part of the political resolution 
to the Yemen conflict, the Houthis must disarm. They must also credibly 
break ties with the Iranians.

    Question.  What role might Saudi Arabia be willing to accept for 
the Houthi movement in the future governance of Yemen and on what 
terms?

    Answer. Saudi Arabia understands that the Houthis must play some 
role in Yemen's future government in order for any political resolution 
to endure. The Houthis have not yet decided whether they are a 
political party, a religious group, or both. There is an outstanding 
question of whether they truly seek a political role. Saudi Arabia's 
primary interest is a stable southern neighbor that can repel Iran's 
destabilizing activities. The Houthis must put down their heavy weapons 
and sever ties with Iran. These are the government of Yemen's terms, 
these are Saudi Arabia's terms. They are also in line with U.S. 
interests. If confirmed, I will work to support a political solution 
that addresses these issues.

    Question.  What would be the pros and cons of providing security 
assistance or guarantees to Saudi Arabia to support a future ceasefire 
arrangement and peace deal in Yemen?

    Answer. Saudi Arabia was a key contributor to the Hudaydah 
ceasefire agreement the Yemeni government and Houthis reached in 
Sweden, and it is honoring and using its influence to advance that 
agreement on the ground. I believe our strong bilateral relationship 
has allowed us to rely on the Kingdom's diplomatic influence at several 
key junctures since the Sweden agreement. While the Kingdom has already 
shown a strong commitment to the peace process, providing security 
assistance or guarantees to the Saudis could further bolster those 
efforts. Such guarantees, however, must not embolden any party to walk 
away from the negotiating table and would require close consultations 
with Congress.

    Question.  What is your assessment of Crown Prince Mohammed bin 
Salman's leadership and decision making since 2015? What implications 
might his consolidation of bureaucratic authority and assertion of 
control over formerly distinct Saudi security forces have for the 
security and stability of the kingdom?

    Answer. I share Administration concerns regarding instances of 
Saudi decision-making that came with little or no warning and 
consultation. If confirmed as Ambassador, my duty will be to engage 
Saudi leadership, including the Crown Prince, on the vast range of 
political, economic, and security issues that underpin the U.S.-Saudi 
relationship, to maximize coordination and avoid surprises. We should 
encourage reforms that are beneficial to U.S. interests and represent 
our values. I understand that State Department officials frequently 
stress to the Saudis that political repression endangers the many 
positive reforms--such as economic diversification, curbs the religious 
police, and authorization for women to drive--that the Crown Prince has 
enacted.

    Question.  What implications might these developments have for 
regional security?

    Answer. Saudi Arabia can help confront common foes and shape and 
promote regional stability. If confirmed, I will work with the Saudi 
government to secure U.S. interests, encourage reforms that represent 
our values, and help guide the region to a positive future.

    Question.  How essential is the crown prince's personal leadership 
to the continuation and success of policy changes that the United 
States has welcomed since 2015, such as the kingdom's Vision 2030 
initiative and various social liberalization efforts that recognize 
Saudi women's rights?

    Answer. Vision 2030 is a bold plan that seeks to transform and 
diversify the Kingdom's economy, employ more Saudis, liberalize the 
country's culture, and promote greater inclusion of women in society 
and the workplace. This is critical for the Kingdom's long-term 
development, and the Crown Prince has shown a firm commitment to that 
goal.
    At the same time, supporting and advancing women's rights is a 
critical goal for U.S. foreign policy, and if confirmed, I fully commit 
to making them a key element of my potential tenure as ambassador. 
Through Vision 2030 and other reform efforts, the Saudis have made 
progress, but it is clearly not enough. We have pressed them on this 
issue for years, and I will continue to do so, if confirmed.

    Question.  What are the prospects for success of the kingdom's 
Vision 2030 and fiscal balance initiatives?

    Answer. Vision 2030 has the potential to fundamentally reform the 
Kingdom's economic and social trajectory. Its success would further 
solidify the country's influence in the region and world, a positive 
prospect for American interests as close partners.

    Question.  What specific steps do you believe the United States 
should take to end the rift between Saudi Arabia and Qatar, two key 
U.S. allies in the region?

    Answer. The President and Secretary Pompeo have been clear that the 
Gulf dispute has gone on too long. The dispute benefits our adversaries 
and harms our mutual interests. The Administration continues to 
underscore to the parties the political, economic, security, and social 
benefits of Gulf unity; this is something I look forward to working on 
if confirmed.

    Question.  What signs would you look for to suggest the conflict is 
``ripe'' for solution?

    Answer. The situation is already ripe to be resolved. GCC+2 
countries have participated together in many events and exercises, most 
recently at the February meeting of the Middle East Strategic Alliance 
in Washington. While aware of the deep divisions that led to the rift, 
we are hopeful the parties will take additional steps to build 
confidence and end the dispute. Significant political, economic, 
security, and human linkages underpin Gulf relations, and an immediate 
end to the dispute will help all parties involved and rekindle the 
unity of the Gulf.

    Question.  The U.S. government has been trying to do more to build 
up ties between the GCC states for years, including proposals in 2005 
to create a ``GCC Plus Two'' that included Jordan and Egypt. What is 
different about the Middle East Strategic Alliance proposal?

    Answer. The Middle East Strategic Alliance (MESA) aims to enhance 
resiliency in the Gulf region through engagement in the political, 
security, energy, and economic spheres. MESAis designed to bolster 
connectivity, interoperability, and collective security among our 
partners in this critical region. If confirmed, I will work to promote 
this initiative as it advances U.S. interests in the region.

    Question.  What should the U.S. do differently than it has done in 
the past?

    Answer. As I understand the concept, MESA's strategic approach--
encompassing political, security, energy, and economic components--
allows us to work with the Gulf region and close regional partners in a 
comprehensive manner, based on multiple pillars of engagement, in 
contrast to earlier iterations of similar concepts.

    Question.  What is the status of U.S.-Saudi dialogue negotiations 
concerning a civilian nuclear cooperation agreement?

    Answer. I understand that the United States and Saudi Arabia have 
been in discussions on a 123 agreement since 2012, though I am not in a 
position to discuss the current status of negotiations.

    Question.  Why does Saudi Arabia want to develop domestic uranium 
enrichment technology?

    Answer. My understanding is the Saudis have natural mineral 
deposits they hope to utilize in the future. The United States has a 
long-standing policy of seeking to limit the spread of enrichment and 
reprocessing technologies around the world. If confirmed as ambassador, 
I will support pursuing the strongest nonproliferation standards in 
negotiations with Saudi Arabia.

    Question.  How confident are you that Saudi Arabia's nuclear 
ambitions are wholly civilian in nature?

    Answer. Saudi Arabia is a party to the Nuclear Nonproliferation 
Treaty (NPT). It has committed never to acquire nuclear weapons and to 
apply full-scope IAEA safeguards to all peaceful nuclear activities. 
The United States remains committed to holding all states accountable 
to their obligations under the NPT and IAEA safeguards agreements.

    Question.  As you may know, Senator Rubio and I recently introduced 
a bipartisan resolution to call on Saudi Arabia to immediately release 
detained women's rights activists, arrested after May 2018, as well as 
other rights defenders, both male and female. Do you commit to work 
with the administration to press the government of Saudi Arabia to 
immediately release all political prisoners, human rights defenders, 
journalists, and bloggers, including Raif Badawi, Waleed Abu al-Khair, 
and Aziza al-Yousef?

    Answer. If confirmed, I will make clear that the United States 
remains deeply concerned by the detention of activists and dissidents 
in Saudi Arabia and that we take all allegations of abuse seriously. I 
will continue to urge the government of Saudi Arabia to ensure fair 
trial guarantees, freedom from arbitrary and extrajudicial detention, 
transparency, and rule of law. If confirmed as Ambassador, I will call 
on the government of Saudi Arabia to treat prisoners and detainees 
humanely, and to ensure that allegations of abuse are investigated 
quickly and thoroughly and anyone found responsible is held 
accountable.

    Question.  What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. Having served in the U.S. Army for 34 years, I have devoted 
my life to defending U.S. values and human rights around the world. I 
participated in or led in the following: the rescue of U.S. students in 
Grenada; served as an unarmed U.N. observer in Lebanon; participated in 
operations in Northern Iraq to protect the Kurds and preserve peace and 
stability; after the 2006 earthquake I led efforts to provide relief 
supplies and military assistance to Pakistan; established the 
Provincial Reconstruction Team concept in both Iraq and Afghanistan; 
and led evacuation operations for American civilians in Lebanon. 
Throughout my career, I have been dedicated to the democratic 
principles upon which our country was built and I have advocated for 
the universal respect of human rights. These were particularly 
difficult to in operations in Iraq and Afghanistan.
    The world we live in remains challenging; however, I believe my 
impact on younger U.S. officers concerning the respect for the rule of 
law, democracy and universal human rights has been significant.

    Question.  What are the most pressing human rights issues in Saudi 
Arabia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Saudi Arabia? What 
do you hope to accomplish through these actions?

    Answer. The State Department's most recent Human Rights Report on 
Saudi Arabia documents significant restrictions on freedom of 
expression and civil society. At least 120 Saudis remain in Saudi 
government detention for activism, criticism of government leaders, 
impugning Islam or religious leaders, or ``offensive'' internet 
postings. The use of counterterrorism laws and courts to prosecute non-
terrorists remains a key problem. There are credible reports that some 
of the detainees have been mistreated or tortured, including U.S. 
citizen Walid Fitaihi. I am aware that the Department has designated 
Saudi Arabia a Country of Particular Concern under the International 
Religious Freedom Act given significant restrictions on freedom of 
worship. Many of those detained for advocacy or dissent are members of 
Saudi Arabia's Shia minority.
    Gender discrimination excludes women from many aspects of public 
life. Women are routinely excluded from formal decision-making 
positions in both government and the private sector, although some 
women attained leadership positions in business and served in senior 
advisory positions within government ministries.
    If confirmed, I will make clear that the United States remains 
deeply concerned by the detention of activists and perceived dissidents 
in Saudi Arabia and that we take all allegations of abuse seriously. I 
will continue to urge the government of Saudi Arabia to ensure fair 
trial guarantees, freedom from arbitrary and extrajudicial detention, 
transparency, and rule of law. If confirmed as Ambassador, I will call 
on the government of Saudi Arabia to treat prisoners and detainees 
humanely, and to ensure that allegations of abuse are investigated 
quickly and thoroughly and anyone found responsible is held 
accountable.
    Women's rights are a critical goal for U.S. foreign policy, and I 
fully commit to making them a key element of my potential tenure as 
ambassador. The Saudis have made progress, but it is clearly not 
enough. We have pressed them on this issue for years, and I will 
continue to do so.

    Question.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Saudi Arabia in 
advancing human rights, civil society and democracy in general?

    Answer. Our advocacy is challenged by the absence of any Saudi law 
protecting freedoms of religion and thought, expression, peaceful 
assembly, and association, as well as a deeply conservative culture 
that does not favor universal equality of men and women in society. 
While we welcome the decision to allow Saudi women to drive which was 
enacted in June 2018, we remain concerned that the male guardianship 
law is still in place, which prohibits Saudi women from traveling 
overseas and limits their freedom of movement.

    Question.  Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Saudi Arabia? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed as Ambassador, I intend to meet with the full 
range of Saudi society, as well as non-governmental organizations in 
the United States that work on issues related to Saudi Arabia. I will 
make clear to Saudi leadership that the United States supports the 
important role civil society plays in every country. I will commit to 
uphold the Leahy Law, and will also commit to our Conventional Arms 
Transfer policies that require human rights to be considered as a 
factor in any arms transfer or licensing decision.

    Question.  Will you and your embassy team actively engage with 
Saudi Arabia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Saudi Arabia

    Answer. Freedom of expression and thought are not enshrined in 
Saudi law. At least 120 Saudis remain in Saudi government detention for 
activism, criticism of government leaders, impugning Islam or religious 
leaders, or ``offensive'' internet postings. There are credible reports 
that some of the detainees have been mistreated or tortured, including 
U.S. citizen Walid Fitaihi.
    I will make clear that the United States remains deeply concerned 
by the detention of activists and perceived dissidents in Saudi Arabia 
and that we take all allegations of abuse seriously. I will continue to 
urge the government of Saudi Arabia to ensure fair trial guarantees, 
freedom from arbitrary and extrajudicial detention, transparency, and 
rule of law. If confirmed as Ambassador, I will call on the government 
of Saudi Arabia to treat prisoners and detainees humanely, and to 
ensure that allegations of abuse are investigated quickly and 
thoroughly and those found responsible are held accountable.

    Question.  Will you engage with Saudi Arabia on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. At every opportunity, I will underscore the United States' 
enduring commitment to human rights and fundamental freedoms. If 
confirmed, I will meet with the full range of Saudi society, including 
independent, local press as well as non-governmental organizations in 
the United States that work on issues related to Saudi Arabia. I will 
make clear to Saudi leadership that the United States supports the 
important role civil society plays in every country.

    Question.  Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question.  Do you or do any members of your immediate family have 
any financial interests in Saudi Arabia?

    Answer. My investment portfolio includes companies that have a 
presence in Saudi Arabia. My investment portfolio also includes 
diversified mutual funds that may hold interests in companies with a 
presence in Saudi Arabia; however, such funds are exempt from the 
conflict of interest laws. I am committed to ensuring that my official 
actions will not give rise to a conflict of interest, will divest my 
interests in those companies the State Department Ethics Office deemed 
necessary to avoid a conflict of interest, and will remain vigilant 
with regard to my ethics obligations.

    Question.  Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Throughout my career I have been dedicated to mentoring 
minority, women and disadvantaged soldiers and ensuring that diverse 
populations faced no systemic or organizational barriers to promotion 
and advancement. I will continue to do so if confirmed as an Ambassador 
of the United States.

    Question.  What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will by my own personal example ensure that 
diversity issues are discussed and implemented and ensure that all 
applicable State Department policies are understood and followed. I 
share your belief that diverse teams not only make the Embassy 
stronger, but make the United States stronger, and set a positive tone 
for those who are watching us in the host nation.

    Question.  How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Saudi 
Arabia specifically?

    Answer. Saudi contacts from a broad range of backgrounds routinely 
cite anti-corruption safeguards and accountability among their top 
concerns for government reform. government measures, including 
investigations by the Public Prosecutor's Office (PPO), to deter and 
combat corruption enjoy strong public support.

    Question.  What is your assessment of corruption trends in Saudi 
Arabia and efforts to address and reduce it by that government?

    Answer. King Salman and Crown Prince Mohammed bin Salman have 
prioritized efforts to prevent and punish public sector and government 
contract corruption. Saudi authorities, including the Public 
Prosecutor's Office (PPO), continue to aggressively pursue corruption 
cases. These efforts enjoy broad public support.
    While the explicit goal of anti-corruption efforts should be 
supported, any detentions and prosecution must respect the rights of 
the accused, be supported by strong evidence, transparency, and a fair 
judicial process. Such efforts must be free of political influence, and 
guarantee the humane treatment of any individuals involved.

    Question.  If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Saudi Arabia?

    Answer. If confirmed, I will engage the Saudi government on 
additional efforts to stamp out corruption, but will emphasize the 
importance of transparency and due process as Saudi authorities 
investigate corruption and hold accountable those who violate Saudi 
anti-corruption laws. I will stress that the best way to build public 
confidence in government anti-corruption efforts and to deter 
wrongdoing is to release as much information as possible about 
corruption cases and ensure that those accused of criminal corruption 
are afforded the opportunity to defend themselves before the law; this 
will make prosecutions more credible and blunt accusations of political 
influence.



                               __________


            Responses to Additional Questions for the Record
        Submitted to General John Abizaid by Senator Bob Portman

    Question.  I would like to ask about ongoing operations in Yemen. 
As you are aware, we have a very robust Foreign Military Sales program 
with Saudi Arabia. Recently, it has been found that the United Arab 
Emirates has transferred U.S. provided vehicles and weapons to known 
terrorist groups. If confirmed, what steps will you take to ensure 
Saudi Arabia fulfills their obligations under Foreign Military Sales 
rules?

    Answer. Recent media reports alleging that the Coalition provided 
U.S.-origin Mine-Resistant Ambush Protected (MRAP) vehicles and other 
equipment to Yemeni forces and other third parties without the consent 
of the U.S. government are concerning. All recipients of U.S. origin 
equipment are expected to adhere to commitments governing procurement 
of U.S. defense equipment. If confirmed, I am committed to working with 
the Saudis to ensure they follow all rules and regulations surrounding 
the transfer of U.S. equipment.

Yemen.
    Question.  Right now, there appears to be no end in sight to the 
fighting in Yemen. The Saudis see the Houthis as an existential threat 
to their security. What do you see as realistic strategic goals for the 
Saudi's in Yemen, and what do you see as U.S. influence ``levers'' we 
can pull to push the Saudis and Emiratis to end this conflict?

    Answer. One of our shared national security interests with Saudi 
Arabia is to stop the growing malign influence of Iran, both in the 
Arabian Peninsula and globally. To that end, we are leveraging constant 
diplomatic engagement to seek a solution to the conflict in Yemen. We 
have messaged clearly that a political solution--not a military one--is 
the only viable option for ending this conflict. The Saudis have 
supported political negotiations and the United Nations Special Envoy's 
efforts, adhering to the terms agreed to in Sweden for a general 
ceasefire in and around the port of Hudaydah, and directly urging the 
Republic of Yemen government to maintain its presence at the 
negotiating table. Saudi Arabia also shares our goal of eliminating 
violent extremist forces operating in Yemen, including al-Qa'ida and 
ISIS, and through many years of close cooperation, we have secured 
significant progress on that front. Working with Department of Defense 
partners, we will continue to engage the Coalition and regional leaders 
at all levels.

    Question.  I would like to discuss human trafficking. As you may be 
aware, Senator Corker, the former Chairman of this committee, passed on 
to me the responsibility for continuing his work on ending modern 
slavery. The State Department's 2018 report on trafficking in persons 
found that ``Saudi Arabia does not fully meet the minimum standards for 
the elimination of trafficking, however it is making significant 
efforts to do so.'' There are currently over 11 million third country 
nationals working in the service industry in Saudi Arabia and many of 
them are at risk of human trafficking. Saudi Arabia is currently a 
``Tier 2'' Watch List country and was granted a waiver from downgrade. 
If confirmed, what steps will you take to work with Saudi Arabia to 
eliminate human trafficking?

    Answer. The administration continues to take the issue of 
trafficking in persons (TIP) very seriously and presses governments 
around the world, including the Saudi government, to develop and 
implement anti-trafficking initiatives. I am concerned by Saudi 
Arabia's efforts to address human trafficking and, if confirmed, I will 
engage Saudi officials on four key areas: 1) significantly strengthened 
law enforcement efforts to convict traffickers, particularly for forced 
labor offenses; 2) expanded reforms to the sponsorship-based 
employment--or kafala--system; 3) improved efforts to proactively 
identify and protect potential trafficking victims and ensure they are 
not punished for unlawful acts committed as a direct result of being 
subjected to trafficking, including immigration law contraventions and 
prostitution; and, 4) implementation of the Saudi government's five-
year National Action Plan to combat TIP.



                               __________


            Responses to Additional Questions for the Record
     Submitted to General John Abizaid by Senator Edward J. Markey

Nuclear Cooperation with Saudi Arabia
    Question.  Senior Saudi officials have declared that under certain 
circumstances, Saudi Arabia might develop nuclear weapons. These 
officials also have insisted that Saudi Arabia be able to produce its 
own nuclear fuel, raising fears that it will be diverted into a covert 
weapons project. The Trump administration appears intent on proceeding 
with negotiations to achieve a ``123'' nuclear cooperation agreement 
with the Saudis, despite these statements and the findings from the 
House oversight committee regarding financial connections between 
administration officials and firms pushing for this deal.

   If confirmed, what will you do to ensure that the United States 
        only shares nuclear technology under a ``gold standard'' 123 
        agreement--one that prohibits Saudi Arabia from enriching 
        uranium and reprocessing plutonium?

    Answer. The United States has a long-standing policy of seeking to 
limit the spread of enrichment and reprocessing technologies around the 
world. If confirmed as ambassador, I will support pursuing the 
strongest nonproliferation standards in negotiations with Saudi Arabia.

    Question.  If confirmed, how will you ensure that the Americans 
involved in any Saudi nuclear negotiations are free of financial 
conflicts of interest?

    Answer. Federal ethics rules apply to all U.S. government employees 
and include relevant recusal obligations with respect to particular 
matters that would have a direct and predictable effect on the 
financial interests of those employees. If confirmed, I would expect 
all U.S. government employees involved in such negotiations to abide by 
their relevant obligations and will insist on full accountability and 
compliance with financial disclosure rules.

    Question.  Some countries--like the United Arab Emirates and 
Egypt--have language in their 123 agreements permitting them to request 
to renegotiate the terms of these agreements should other countries in 
the region receive more favorable terms. If the United States were to 
conclude a 123 agreement with Saudi Arabia that did not include a Saudi 
commitment to forgo all uranium enrichment and reprocessing, do you 
anticipate these countries would ask the United States to renegotiate 
their 123 agreement terms?

    Answer. I cannot speculate as to the potential actions of these 
other governments, but I am aware of these concerns.

    Question.  In a recent speech at the Hudson Institute, Assistant 
Secretary for International Security and Nonproliferation Chris Ford 
stated that 123 agreements ``are a critical part'' of civil nuclear 
cooperation with the United States, ``but they need not be viewed as 
the only tool, for not all countries that wish to develop better civil 
nuclear relationships with the United States.'' He stated that, ``to 
help provide an additional way to catalyze and nurture cooperative 
relationships, we are working to expand the use of less formal, non-
binding bilateral political arrangements more akin to a memorandum of 
understanding (MOU) than to a full 123.'' If confirmed, would you 
endorse engaging in the type of cooperation with Saudi Arabia Assistant 
Secretary Ford described in his remarks?

    Answer. If confirmed, my charge would be specific to Saudi Arabia. 
I would support continuing discussions with Saudi Arabia on a 123 
agreement that includes the strongest nonproliferation standards.

    Question.  Do you believe the United States should engage in 
civilian nuclear cooperation of any kind with Saudi Arabia at present 
given its stated willingness to pursue nuclear weapons?

    Answer. As Saudi Arabia expands and diversifies its economy under 
Vision 2030, alternate means of energy production are a reasonable 
avenue to lessening the country's dependence on fossil fuels. Safe, 
secure civilian nuclear power is one route to achieving that goal.
    The United States has significant strategic, commercial, and 
nonproliferation incentives to conclude a 123 agreement with Saudi 
Arabia. Bringing into force such an agreement would provide substantial 
economic opportunities for U.S. firms and ensure the Saudi nuclear 
power program is subject to the highest nonproliferation, safety, and 
security standards required by any nuclear supplier in the world. In 
the absence of a 123 agreement, U.S. firms will lose the opportunity to 
compete and will likely be replaced by state-owned enterprises from 
other countries with lower nonproliferation standards.
    Saudi Arabia is a member of the Nuclear Nonproliferation Treaty 
(NPT) and a strong security partner of the United States. It has 
committed never to acquire nuclear weapons, and to apply full-scope 
International Atomic Energy Agency (IAEA) safeguards to all peaceful 
nuclear activities. The United States remains committed to holding all 
states accountable to their obligations under the NPT and IAEA 
safeguards agreements.

    Question.  It is longstanding, bipartisan U.S. policy to actively 
work against the spread of nuclear weapons to any country, friend or 
foe. If confirmed, would you continue to support this policy approach?

    Answer. Yes, if confirmed I will actively work against the spread 
of nuclear weapons to any country.

Presence of State Department Officials in U.S. government Meetings
    Question.  CNN reported on March 7 that officials and staffers in 
the U.S. embassy in Riyadh were excluded from Jared Kushner's late-
February meetings in Riyadh with Saudi officials including the Crown 
Prince and thus unaware of the details of those meetings. Reports 
indicate that only a senior State Department official focused on Iran 
joined Mr. Kushner's meetings. Do you believe it is appropriate for 
career State Department officials stationed at an embassy to be 
excluded from official meetings visiting U.S. delegations have with the 
host government? If confirmed, would you oppose U.S. government 
meetings that do not include State Department staff? What steps would 
you take to ensure career State Department officials in Saudi Arabia 
are not excluded from official meetings visiting U.S. delegations have 
with Saudi government officials?

    Answer. If confirmed, my policy as Ambassador will be to have an 
Embassy assigned representative at every official meeting to the extent 
possible. The U.S. government should always act as one unit in the 
execution of foreign policy. As I noted in my testimony, if confirmed, 
I will join with the many U.S. government interlocutors from 
Washington, within the U.S. Mission to Saudi Arabia, and elsewhere to 
advance U.S. interests in Saudi Arabia as the Ambassador and Chief of 
Mission in the most coordinated manner possible.

Murder of Jamal Khashoggi and Human Rights in Saudi Arabia
    Question.  The Trump administration has asserted that, ``the 
President maintains his discretion to decline to act on congressional 
committee requests when appropriate.'' However, the Global Magnitsky 
Act states that, ``not later than 120 days after receiving a request 
from the chairperson and ranking member of [the Senate Foreign 
Relations Committee] with respect to whether a foreign person has 
engaged in [a human rights violation], the President shall:

          ``(A) Determine if that person has engaged in such an 
        activity; and
          ``(B) Submit a classified or unclassified report to the 
        [requesters] with respect to that determination that includes 
        (i) a statement of whether or not the President imposed or 
        intends to impose sanctions with respect to the person; and 
        (ii) if the President imposed or intends to impose sanctions, a 
        description of those sanctions.''

  What is the legal rationale for how the language in this U.S. law 
        permits the president to decline to act as outlined in bullets 
        A and B? Do you agree with that rationale?

    Answer. I know the administration takes Global Magnitsky sanctions 
very seriously and has taken concrete steps, including designating 17 
Saudi officials for sanctions, in response to the horrific killing of 
Mr. Khashoggi. If confirmed, I will work with the relevant stakeholders 
in the interagency to utilize the Global Magnitsky sanctions program as 
an important tool of foreign policy.

    Question.  Why, in your view, has the Trump administration failed 
to sanction the Crown Prince of Saudi Arabia for the murder of Jamal 
Khashoggi, a U.S. resident, while the administration has used Global 
Magnitsky sanctions against two high-ranking officials in the 
government of Turkey, a NATO ally, for the detention of an American?

    Answer. As I am not yet a member of the administration, I am not 
privy to these discussions nor have I been briefed on any intelligence 
matters. I have seen the Secretary's public statements regarding the 
need for transparency in the Saudi investigation and for there to be 
accountability for anyone involved in Mr. Khashoggi's murder, including 
the highest ranking officials of the Saudi government. If confirmed, I 
will also push for this accountability in line with the advancement of 
U.S. foreign policy interests as laid out by the President.

    Question.  Major human rights groups have called for an independent 
investigation into Khashoggi's murder. Do you support such an inquiry? 
If so, what entities are in your view appropriate to conduct such an 
investigation? Would a U.N.-led investigation be appropriate?

    Answer. The administration has been clear that the murder of Jamal 
Khashoggi was a heinous crime. Human rights groups and other 
organizations have my full support to pursue independent inquiries.
    The administration supports U.N. Special Rapporteur Agnes 
Callamard's global mandate to investigate extra-judicial, summary, or 
arbitrary executions. It is my understanding that State Department 
officials met with her, at her request, in Washington to discuss 
several matters, including the murder of Jamal Khashoggi. If confirmed, 
I will urge Saudi counterparts to continue their investigation in order 
to hold those responsible accountable, and to provide appropriate 
cooperation for Special Rapporteur Callamard's inquiry into the murder 
of Mr. Khashoggi.

    Question.  If confirmed, what would you do to secure the release of 
Dr. Walid Fitaihi, a U.S. citizen and Harvard-trained physician who has 
been detained by Saudi Arabia since November 2017 without any public 
charges or trial? Given reports that he may have been tortured, what is 
the administration doing to protect his rights while he remains in 
detention?

    Answer. I have spent my life defending U.S. citizens and U.S. 
values. If confirmed, I will continue to do so. I understand U.S. 
officials in Riyadh and Jeddah are consistently and forcefully engaging 
Saudi counterparts to ensure Dr. Fitaihi's safety, rights, and 
protections under the law, and made several visits to Dr. Fitaihi in 
recent months. Dr. Fitaihi's situation is of critical importance, and 
if confirmed, I will continue to elevate his case.

    Question.  An area of serious concern is the prevalence of anti-
Semitic and intolerant messages in Saudi educational textbooks. If 
confirmed, what priority do you intend to give to this issue, and how 
would you recommend the administration address this issue with Saudi 
officials?

    Answer. The United States continues to urge the government of Saudi 
Arabia to counter religious intolerance, including by encouraging 
educational and textbook reform. They are concerned that hateful 
language in educational materials not only fosters intolerance and 
discrimination, but also fertilizes the ground for violent extremism 
that extends far beyond Saudi Arabia's own borders. Although the Saudi 
government has vowed to remove objectionable content, textbooks retain 
inflammatory material hostile to Christians, Jews, and Shia Muslims. I 
understand that Embassy officials routinely engage with Saudi 
counterparts on this issue, and support international visitor programs 
and other programs aimed at expanding religious tolerance and 
interfaith cooperation. If confirmed, I commit to making this issue a 
priority, and as noted in my testimony, intolerance and violent 
religious extremism exported across borders and regions is a problem we 
need to solve.

    Question.  In your view, does the U.S. government have the right 
level of emphasis on human rights in our bilateral relationship with 
Saudi Arabia?

    Answer. Yes, as I know this is a core part of the U.S. Mission to 
Saudi Arabia's engagement with the Saudi government. That said, we must 
always seek to emphasize our core American values and ideals, as well 
as universal human rights and fundamental freedoms, as we expand any 
international relationship.

Yemen and Humanitarian Access
    Question.  All parties to the Yemen conflict continue to put a wide 
range of access constraints in place, from a full blockade of Yemen's 
ports in 2017, to secondary inspections of humanitarian shipments that 
have already cleared the U.N. inspection process, to restrictions on 
humanitarian staff movements and arbitrary delays in approving life-
saving projects. If confirmed, what concrete steps will you take to 
address these access constraints, particularly when it comes to Saudi 
Arabia and the United Arab Emirates?

    Answer. I am seriously concerned about the dire humanitarian 
situation in Yemen. I understand that maintaining free and unfettered 
access to all of Yemen's ports of entry--and throughout Yemen--is 
critical to the humanitarian response. If confirmed, I will continue to 
urge Saudi Arabia and the United Arab Emirates to increase access and 
to continue to work closely with the U.N. and its inspection process to 
make sure humanitarian aid and staff are able to reach the estimated 24 
million Yemenis who rely on some form of humanitarian assistance to 
survive. If confirmed, I intend to work with like-minded partners to 
address and deter Houthi threats to the Bab al-Mandeb--this will 
provide assurances to shippers and importers to return to the Red Sea 
ports, which are located nearest to the populations in most need of 
aid.

U.S. Weapons Sold to Saudi Arabia and the United Arab Emirates
    Question.  Recent reporting indicates U.S. weapons and materiel 
sold to Saudi Arabia and the United Arab Emirates is ending up in the 
hands of al Qaeda-linked fighters, Salafi militias, and other, non-
state factions waging war in Yemen in violation of the terms of these 
sale agreements. What do you believe the appropriate recourse would be 
for the United States government if these reports were to be confirmed?

    Answer. Recent media reports alleging that the Coalition provided 
U.S.-origin Mine-Resistant Ambush Protected (MRAP) vehicles and other 
equipment to Yemeni forces and other third parties without the consent 
of the U.S. government are concerning. All recipients of U.S. origin 
equipment are expected to adhere to commitments governing procurement 
of U.S. defense equipment. If confirmed, I am committed to working with 
the Saudis to ensure they adhere to all of the requirements regarding 
the transfer of U.S. equipment.

    Question.  If confirmed, how will you ensure that any investigation 
Saudi Arabia conducts into this matter is done in a thorough, 
transparent manner?

    Answer. If confirmed, I am committed to working with the Saudis to 
ensure they adhere to all of the requirements regarding the transfer of 
U.S. equipment.

Rift in the Gulf Cooperation Council
    Question.  How, if at all, does the continued rift within the Gulf 
Cooperation Council affect U.S. interests? If confirmed, how will you 
work to press Saudi Arabia toward reconciling its differences with 
Qatar?

    Answer. The President and Secretary Pompeo have been clear that the 
Gulf dispute has gone on too long. The dispute benefits our adversaries 
and harms our mutual interests. Both Saudi Arabia and Qatar are close 
partners with the United States, and the administration continues to 
underscore to the parties the political, economic, security, and social 
benefits of Gulf unity. This is something I look forward to working on 
if confirmed.



                               __________


            Responses to Additional Questions for the Record
        Submitted to General John Abizaid by Senator Todd Young

    Question.  Based on your preparation for this nomination, can you 
provide an update on the Saudi agreement with Huawei? Do you have any 
concerns about this agreement? If confirmed, do you anticipate raising 
those concerns with Riyadh?

    Answer. I am aware of the media reports about Saudi Crown Prince 
Mohammed bin Salman's visit to China in late February and reports of 
the conversations Saudi Arabia and China have had about Huawei 5G 
technology. I understand the U.S. government has raised concerns about 
Huawei technologies with many of our allies, including that Huawei's 
components present a serious threat to cybersecurity and national 
security. If confirmed, I will support the administration's position of 
ensuring the United States and our partners maintain secure and 
trustworthy networks. The only way to do this is to utilize trusted 
supply chains to reduce the risk of unauthorized and malicious cyber 
activity which could disrupt critical services or possibly be 
manipulated by authoritarian regimes.



                               __________

            Responses to Additional Questions for the Record
      Submitted to General John Abizaid by Senator Cory A. Booker

Efforts to reduce civilian casualties
    Question.  On September 12, 2018, Secretary Pompeo certified under 
Section 1290 of the Fiscal Year 2019 National Defense Authorization Act 
that Saudi Arabia was taking appropriate steps to avoid 
disproportionate harm to civilians and civilian infrastructure and 
complying with applicable agreements and laws regulating defense 
articles purchased or transferred from the United States.
    The certification states: ``The Saudi Ministry of Defense committed 
to fund U.S.-provided training for the Royal Saudi Air Force (RSAF) on 
minimizing civilian casualties as one component of a $750 million, 
multi-year Foreign Military Sales training case.'' What is the status 
of the implementation of this case and what meaningful and demonstrable 
improvements has it made in RSAF operations in Yemen?

    Answer. I understand that, at the U.S. government's urging, Saudi 
Arabia has put in place a number of mechanisms to reduce civilian 
casualties in Yemen, including civilian casualty reduction seminars 
that focus on intelligence, strike preparation, strike command and 
control, and investigations. The Saudi-led Coalition has also 
implemented reviews of civilian casualty incidents by the Joint 
Incidents Assessment Team, which investigates collateral damage caused 
by air strikes, determines the cause, and recommends process 
improvements to mitigate the risk of future incidents.

    Question.  According to a December 25, 2018, New York Times 
article, ``The coalition routinely ignored a no-strike list--drawn up 
by the United States Central Command and the United Nations--of 
hospitals, schools and other places where civilians gathered.'' Will 
you commit to ensure that the Saudi-led coalition abides by the no-
strike list?

    Answer. Yes, I am committed to advancing the Saudi-led Coalition's 
obligations to abide by the no-strike list.

    Question.  What other efforts do you plan to undertake to ensure 
the Saudi-led coalition in Yemen reduces civilian casualties?

    Answer. This is an issue I care deeply about having spent my life 
in the Armed Forces. If confirmed, I will continue to work with Saudi 
Arabia in advancing its efforts on civilian protection and adherence to 
international humanitarian law as that country pursues its legitimate 
national security objectives. Our close relationship with Saudi Arabia 
ensures we can continue to work with them on this matter.

Shia minority
    Question.  Although the Saudi government has pledged to undertake 
significant domestic reforms under Vision 2030 and other programs, the 
Shia community in Saudi Arabia remains subject to state discrimination 
and abuses. While I am hopeful that these reforms make meaningful 
changes that improve conditions for the Shia community, Human Rights 
Watch documented a number of cases in September 2018 that show 
continued bias in education materials, religious restrictions, and 
imprisonment of Shia protestors.

   What efforts will you undertake, if confirmed, to raise concerns 
        voiced by the Shia minority community in Saudi Arabia?

    Answer. The Shia minority is marginalized from political, social, 
and economic life in Saudi Arabia. Intolerance and violent religious 
extremism exported across borders and regions are difficult problems 
that we must continue efforts to solve.
    If confirmed as Ambassador, I will note U.S. support for expanding 
the participatory process for religious minorities in Saudi Arabia. I 
will also make clear that the United States remains deeply concerned by 
the detention of activists and perceived dissidents in Saudi Arabia and 
that we take all allegations of abuse seriously. If confirmed, I will 
urge the government of Saudi Arabia to ensure fair trial guarantees, 
freedom from arbitrary and extrajudicial detention, transparency, and 
rule of law. The United States has pressed them on these issues for 
years, and I will continue to do so.

    Question.  Are you concerned about members of the Shia community 
getting caught up in the Saudi government's broad campaign against 
Iranian influence in the Gulf and if not, why not?

    Answer. The State Department's most recent Human Rights Report on 
Saudi Arabia documents significant restrictions on freedom of 
expression and civil society. Fundamental freedoms of religion, 
expression, assembly, and association are not enshrined in Saudi law. I 
understand that Saudi Arabia remains a Country of Particular Concern 
for international religious freedom. Many of those detained for 
advocacy or dissent are members of Saudi Arabia's Shia minority. At 
least 120 Saudis remain in Saudi government detention for activism, 
criticism of government leaders, impugning Islam or religious leaders, 
or ``offensive'' internet postings. The use of counterterrorism laws 
and courts to prosecute non-terrorists remains a key problem.
    If confirmed, I will pursue American interests, champion our 
values, our commitments, and our enduring respect for human rights and 
religious freedom. I will make clear that the United States remains 
deeply concerned by the detention of activists and perceived dissidents 
in Saudi Arabia and that we take all allegations of abuse and 
harassment seriously. If confirmed, I will continue to urge the 
government of Saudi Arabia to ensure the right to a fair trial, freedom 
from arbitrary and extrajudicial detention, transparency, and rule of 
law. I will call on the government of Saudi Arabia to treat prisoners 
and detainees humanely, and to ensure that allegations of abuse are 
investigated quickly and thoroughly.

    Question.  What meaningful domestic reforms will you encourage the 
government of Saudi Arabia to undertake to improve conditions for the 
Shia population?

    Answer. Vision 2030 is a bold plan that seeks to make the Kingdom 
more economically competitive and socially open, including through 
greater inclusion of women in society and the workplace. This is 
critical for the Kingdom's long-term development, and the Saudi 
government has shown a firm commitment to that goal. I believe the U.S. 
government--alongside the full range of American commercial, 
educational, and societal actors--can play a key supporting role in 
advancing Vision 2030's stated goals.

Joint Incidents Assessment Team
    Question.  Numerous U.S. officials have highlighted the Joint 
Incidents Assessment Team (JIAT) as one of the many reforms that the 
Saudi-led coalition had implemented in the war in Yemen. However, a 
Human Rights Watch report from August found that the body routinely 
cleared the coalition of wrongdoing, and documented 17 instances in 
which the assessment team's conclusions were profoundly at odds with 
Human Rights Watch's own findings.

   In response to a previous question I asked of Ambassador Henzel, he 
        replied that the JIAT was ``nominally an independent body 
        composed of Coalition members. . . . It is not under a specific 
        country's military authority.'' If the JIAT is not under any 
        country's military authority, how do individual coalition 
        members like Saudi Arabia incorporate its findings into their 
        operations and tactics?

    Answer. The administration has worked closely with the Joint 
Incident Assessment Team (JIAT) and Royal Saudi Air Force (RSAF) on 
best practices for civilian casualty investigations, providing 
trainings on the Law of Armed Conflict aimed at improving the JIAT's 
investigations. Additionally, the administration continues to engage 
the Saudi-led coalition to encourage the swift implementation of 
recommendations from JIAT. It is my understanding that JIAT 
recommendations and process improvements are forwarded to the 
operational commands of Coalition members so that others can revise 
their tactics and learn from prior incidents.

    Question.  The Fiscal Year 2019 NDAA Section 1290 certification 
also states: ``Recent civilian casualty incidents indicate insufficient 
implementation of reforms and targeting practices. Investigations have 
not yet yielded accountability measures.'' How does the U.S. envision 
such investigations yielding accountability measures and what measures 
would be sufficient in the view of the State Department?

    Answer. The Joint Incident Assessment Team makes recommendations 
based on its investigations; it remains up to the governments of the 
participating Coalition countries to implement these recommendations. 
If confirmed, I will continue to urge the JIAT to conduct swift and 
transparent investigations and the government of Saudi Arabia to 
implement the JIAT's recommendations in order to hold those responsible 
for civilian casualty incidents accountable and to implement 
recommended tactical changes.

Dr. Walid Fitaihi
    Question.  In March 2019, the New York Times reported that a dual 
citizen of Saudi Arabia and the United States, Dr. Walid Fitaihi, had 
been tortured by Saudi officials. Dr. Fitaihi has reportedly been 
imprisoned since November 2017 without charges or a trial and remains 
detained for unspecified reasons. While I appreciate you raising his 
case in your testimony, this ongoing treatment of an American citizen 
is unacceptable.

   What steps has Embassy Riyadh taken thus far to secure Dr. 
        Fitaihi's release?

    Answer. I understand U.S. officials in Riyadh, Jeddah, and here in 
Washington are consistently and forcefully engaging senior Saudi 
counterparts to ensure Dr. Fitaihi's safety, rights, and protections 
under the law, and consular officials have made several visits to Dr. 
Fitaihi in recent months. I am highly concerned about reports of his 
abuse and possible torture. Dr. Fitaihi's situation is of critical 
importance, and if confirmed, I will continue to advocate and elevate 
his case.

    Question.  What additional actions will you take, if confirmed, to 
raise Dr. Fitaihi's case with senior Saudi officials and work to secure 
his release?

    Answer. I have dedicated my life to the protection of U.S. citizens 
and U.S. national security interests and, if confirmed, that will not 
change. If confirmed, the protection of all U.S. citizens in Saudi 
Arabia will be my highest priority. I am committed to raising Dr. 
Fitaihi's case and others with the highest levels of the Saudi 
government.

Human Rights and Press Freedom
    Question.  The Saudi regime exerts a strong grip of control over 
media in Saudi Arabia and the broader Arab world. This can make it 
difficult to get trustworthy information about the human rights 
situation within the Kingdom. News of the detention of activists and 
dissidents sometimes do not surface for months, and Saudi authorities 
practice severe intimidation against family members of detainees. 
Moreover, one of the most chilling messages sent by the murder of Jamal 
Khashoggi is that no one who dissents from the regime is safe from 
Saudi Arabia's reach-even outside the country.

   As the U.S. ambassador to Saudi Arabia, will you pledge to meet 
        with journalists, dissidents, and activists in the country and 
        advocate for respect for independent press in your engagement 
        with the Saudi government, if confirmed?

    Answer. At every opportunity, I will underscore the United States' 
enduring commitment to human rights and fundamental freedoms. If 
confirmed, I will meet with the full range of Saudi society, including 
independent, local press as well as non-governmental organizations in 
the United States that work on issues related to Saudi Arabia. I will 
make clear to Saudi leadership that the United States supports the 
important role civil society plays in every country.

    Question.  Will you commit to pressing the Saudi government to halt 
their harassment of Saudi journalists and other dissidents who have 
left Saudi Arabia and live outside the country, if confirmed?

    Answer. Yes, if confirmed, I will make clear that the United States 
remains deeply concerned by the harassment and detention of 
journalists, activists, and perceived dissidents in Saudi Arabia and 
that we take all allegations of abuse seriously. I will continue to 
urge the government of Saudi Arabia to advance freedom of expression 
and ensure freedom from arbitrary and extrajudicial detention, 
transparency, and rule of law.

Women's Rights Activists
    Question.  In November, Amnesty International and Human Rights 
Watch issued reports about mistreatment of a number of female activists 
in prison in Saudi Arabia. A sister of one of the activists, Alia 
Hathloul, wrote a January 13 op-ed for the New York Times confirming 
many of the allegations of abuse including that Loujain Al-Hathloul had 
been held in ``solitary confinement, beaten, waterboarded, given 
electric shocks, sexually harassed and threatened with rape and 
murder.''
    During your testimony you said, ``I feel particularly strongly that 
Saudi Arabia, like any nation, will benefit greatly by expanding the 
space for women in public and professional life. Advocating for women's 
rights is a critical goal for U.S. foreign policy, and I fully commit 
to making this a key element of my potential tenure as ambassador'' I 
appreciate these views and hope you will give these words meaning 
through your actions.

    Answer. Secretary Pompeo told reporters he raised the cases of 
these women activists during his meetings in January with King Salman 
and Crown Prince Mohammed bin Salman. However, since then, Saudi 
authorities have charged the activists with ``coordinated and organized 
activities. that aim to undermine the Kingdom's security, stability, 
and national unity.'' If confirmed, I will make clear that the United 
States remains deeply concerned by the harassment and detention of 
activists and perceived dissidents in Saudi Arabia, and will urge the 
government of Saudi Arabia to advance freedom of expression and ensure 
freedom from arbitrary and extrajudicial detention, transparency, and 
rule of law.
    Beyond these specific activist cases, gender discrimination 
excludes women from many aspects of public life. Women are routinely 
excluded from formal decision-making positions in both government and 
the private sector, although some women attained leadership positions 
in business and served in senior advisory positions within government 
ministries.
    Women's rights are a critical goal for U.S. foreign policy, and I 
fully commit to making them a key element of my potential tenure as 
ambassador. The Saudis have made progress, but it is clearly not 
enough. We have pressed them on this issue for years, and I will 
continue to do so.

    Question.  What steps will you undertake, if confirmed, to advocate 
for their cases and request their release from these questionable 
charges?

    Answer. If confirmed, I will make clear that the United States 
remains deeply concerned by the detention of activists and perceived 
dissidents in Saudi Arabia and that we take all allegations of abuse 
seriously. I will continue to urge the government of Saudi Arabia to 
ensure fair trial guarantees, freedom from arbitrary and extrajudicial 
detention, transparency, and rule of law. If confirmed as Ambassador, I 
will call on the government of Saudi Arabia to treat prisoners and 
detainees humanely, and to ensure that allegations of abuse are 
investigated quickly and thoroughly and anyone found responsible is 
held accountable.

Arms Export Control Violations
    Question.  In late 2018, the New York Times reported that Sudanese 
forces fighting Yemen had been issued American-made uniforms and 
weapons. The Saudi government denied this claim stating that American-
made weapons had ``never been distributed to personnel participating 
from Sudan as part of the coalition's operations.'' Nevertheless, there 
have also been similar reports of reexports of arms and equipment by 
the United Arab Emirates (UAE) to forces fighting on their behalf in 
Yemen.

  Has the United States government found the government of Saudi 
        Arabia to have violated any provision of U.S. law or any other 
        bilateral agreement or understanding with regard to the re-
        export or transfer of U.S. defense articles since the beginning 
        of the Yemen conflict in 2015?

    Answer. Recent media reports alleging that the Coalition provided 
U.S.-origin equipment to Yemeni forces and other third parties without 
the consent of the U.S. government are concerning. All recipients of 
U.S.-origin equipment are expected to adhere to commitments governing 
procurement of U.S. defense equipment. If confirmed, I am committed to 
looking into these allegations and working with the Saudis to ensure 
that they adhere to all of the requirements regarding the transfer of 
U.S. equipment.

    Question.  Has the United States investigated the allegation that 
U.S.-made uniforms and weaponry were provided by the Saudi government 
to Sudanese forces fighting in Yemen? If not, why not?

    Answer. I know the U.S. government takes seriously all reports of 
unauthorized transfers of U.S.-origin equipment. If confirmed, I am 
committed to looking into these allegations and working with the Saudis 
to ensure they adhere to all of the requirements regarding the transfer 
of U.S. equipment.

                               __________


                              NOMINATIONS

                              ----------                              


                        TUESDAY, MARCH 12, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
presiding.
    Present: Senators Rubio, Johnson, Gardner, Romney, Young, 
Menendez, Cardin, Murphy, and Kaine.

             OPENING STATEMENT OF HON. MARCO RUBIO,
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. The Senate Foreign Relations Committee will 
come to order.
    This is a nominations hearing for Michael Fitzpatrick to be 
Ambassador to the Republic of Ecuador and Ronald Johnson, from 
my home State of Florida, to be the Ambassador to the Republic 
of El Salvador.
    I wanted to take a quick moment, as I am not able to 
introduce Mr. Johnson from the witness table, to say a few 
words. I met Mr. Johnson and his wife Alina about 7 years ago 
when he served as the representative of the Director of 
National Intelligence and the CIA Director to the U.S. Southern 
Command. Mr. Johnson has served in the U.S. government for over 
3 decades, starting his career as an officer in the U.S. Army. 
He retired as a colonel in 1998 and joined the U.S. 
intelligence community where he currently serves as the Central 
Intelligence Agency's science and technology liaison to the 
United States Special Operations Command in Tampa, Florida. He 
has worked on a wide variety of issues throughout his career 
and is fluent in Spanish. And his experience and background 
make him an excellent candidate to lead the U.S. mission in San 
Salvador.
    I welcome the two nominees here today with us. Ambassadors, 
as we all know, play a critical role in advancing U.S. foreign 
policy and objectives, and thank you for your willingness to 
serve and continue to serve our country, in the case of both of 
you.
    We will have an opportunity to discuss two different 
positions in two countries which are undergoing democratic 
progress and are taking important steps to improve their 
economy, security, and their bilateral relations with the 
United States.
    I would like to start by emphasizing the importance of the 
electoral process in El Salvador, as the country has elected a 
new leader. I recently had the opportunity to speak with 
President-elect Nayib Bukele and congratulated him on his 
recent victory. We were very cognizant of the importance of 
this process for the region as the first presidential election 
of this year. Our Ambassador and embassy personnel closely 
monitored this process and shared with us that the elections 
were transparent and the elections were credible. And I want to 
thank our embassy personnel for playing a supporting role 
through that process. It was the first time El Salvador had 
used their own electoral software, and the system, by all 
accounts, seemed to work very well. This was a key step in 
restoring confidence for the Salvadoran people and their 
government and institutions. There were international 
observation missions that monitored the elections from both the 
European Union and the Organization of American States. There 
was also large participation of civil society organizations.
    The United States is committed to working with President-
elect Bukele and his transition team as they assume the 
presidency on the 1st of June. This relationship between the 
U.S. and El Salvador provides an opportunity to work on issues 
related to cooperation in both security and migration. And the 
chairman of the Homeland Security Committee, Senator Johnson, 
is here and he knows well the importance of the migration 
issue, particularly as it regards El Salvador.
    However, there are, as I said, many challenges that remain. 
El Salvador has the highest concentration of gang members per 
capita in Central America. These gangs are responsible for a 
higher percentage of homicides than in neighboring countries. 
While El Salvador has worked to lower the rates of homicide, 
there is still much work to be done.
    On the economy, it is my hope the United States will work 
with President-elect Bukele and his new team to help 
initiatives to jump start what has proven to be a stagnant 
economy.
    Here is a side note that is of importance. China continues 
to grow in its efforts to expand its influence and its presence 
in the western hemisphere, and I hope that we remain engaged in 
addressing this and particularly the influence of the Chinese 
government and Communist Party in El Salvador. Last year, I and 
others were deeply disappointed to see El Salvador under the 
current administration break its diplomatic relations with 
another fellow democracy, Taiwan, and instead embrace Communist 
China. I believe--many of us believe--this was a grave mistake 
and one that will prove to be costly and short-sighted given 
China's debt trap diplomacy and economic exploitation globally.
    Following El Salvador's decision which, by the way, was 
following the lead of other Latin American countries who have 
caved to Chinese pressure, I joined Senator Gardner, a member 
of this committee, in introducing legislative action that dealt 
with U.S. assistance to El Salvador over this move.
    I am pleased that President-elect Bukele has said that he 
will reassess the existing relationship with China to make 
necessary policy changes from the previous administration.
    At the same time, I also hope that the U.S. will become 
more fully engaged and prepared to support our friends and 
partners who are being bullied and pressured by China to ensure 
they do not become vulnerable to these kinds of aggressive 
Chinese government tactics.
    By the way, President-elect Bukele will be visiting 
Washington this week, and we have a real opportunity to 
strengthen the U.S.-El Salvador partnership and gain an 
important ally on issues of regional and global importance. And 
the embassy will play a key role in that front.
    Ecuador, under President Moreno is making efforts to 
liberalize the economy and to seek broader private investment. 
He has been working to promote public-private partnerships for 
government projects in areas such as infrastructure, 
telecommunications, and energy. I am pleased that the 
administration's fiscal year 2019 budget request would provide 
foreign assistance to strengthen the rule of law and build 
civil society capacity to counter instability and violence in 
Ecuador.
    The U.S. also operates Peace Corps programs in Ecuador that 
support 110 volunteers.
    In June of last year, Vice President Pence visited Ecuador 
and held talks with President Moreno to broaden the bilateral 
dialogue and strengthen U.S.-Ecuadorian relations in a number 
of areas such as security, economic cooperation, migration, and 
democratic governance. The Vice President recognized the 
efforts being made by Ecuador to encourage private investment. 
They also announced a mutual commitment to reactivating a 
bilateral trade and investment council before the end of 2018 
and a commitment to address the influx of more than 150,000 
Venezuelan citizens who have fled the nightmare that is 
Maduro's Venezuela.
    In closing, both positions will be critical to ensuring 
that U.S. interests are advanced here in our own region.
    And once again, I want to thank both of you and your 
families for your service and commitment to our country and 
your willingness to continue to serve it abroad.
    And now the ranking member, Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Mr. Chairman.
    Let me thank both of our nominees for their willingness to 
serve our country. These are very challenging times. It is not 
easy to represent America anywhere in the world, and the 
challenges in our own hemisphere are great today. So I thank 
both of you for your willingness to serve, and we thank your 
families because we know this is a family sacrifice we 
appreciate very much.
    The two countries are critically important. El Salvador is 
a country that has a lot of impact here in America, 2 million 
Americans are of Salvadoran decent. In my home State of 
Maryland, 100,000 of our population trace their roots to El 
Salvador.
    We also have the immediate issue of the temporary 
protective status for Salvadorans. About 200,000 in the United 
States are under the TPS, which is being challenged by the 
President and, right now, protection in our courts. But it is 
an uncertain future. Once again, in Maryland, we have a higher 
percentage than most of the Salvadoran TPS cases. So this is of 
immediate interest.
    I have had a chance to meet with both of the nominees, and 
we have had, I think, very robust, good discussions and I 
appreciate that opportunity.
    I have underscored particularly in our hemisphere but 
globally as well that our missions are critically important to 
promote human rights, good governance. These are challenges 
that are taking place in both El Salvador and Ecuador today. 
There are different circumstances.
    In El Salvador, we have had a commitment to help the people 
of El Salvador with regional security issues, with economic 
issues so there is an economic future other than trafficking in 
drugs or extortion, and to deal with governance issues, which 
is critically important to deal with the issues of governance. 
We have funded those programs. We could argue whether we need 
to do a better job, a more focused job. That is an issue that 
this Congress is still wrestling with.
    I was in El Salvador in 2015 and saw firsthand how the 
gangs ravage the communities. The FBI allowed me to be embedded 
for a day, and it was eye-opening to me to see the risks that 
families face in neighborhoods that look like nice 
neighborhoods. But the gang activities are pervasive. So the 
challenges there are great.
    And we look forward to a discussion today as to how our 
mission in El Salvador can promote American values, provide 
safety for the people of El Salvador, and stop some of the 
pressures we have seen on migration because people leave 
because of the problems in the country. The best investment for 
us to make is to shore up these issues as we have been working 
on now for the last several years.
    In Ecuador, we have hope. The administration has shown some 
degree of sensitivity towards reform on good governance. The 
question is can we continue that momentum that we have seen in 
that country.
    As the chairman has pointed out, even though Ecuador is 
1,000 miles away from Venezuela, they have had a real influx of 
Venezuelan refugees. My number is about 200,000. I think you 
said 150,000. But it is a large number that have exited 
Venezuela that are now in Ecuador. That has a major impact on a 
small country. It causes us to understand that we are going to 
have challenges and we need to work with the new government to 
make sure the reforms stay in place and that the impact of the 
Venezuelan crisis does not impede the progress that we have 
seen in Ecuador.
    We have new leaders in both countries. We look forward to a 
robust relationship, improving America's relationship in our 
own hemisphere and America's leadership in our hemisphere. And 
I look forward to hearing from our nominees.
    Senator Rubio. Thank you both for being here. I just want 
to say it is not often there are two Ron Johnsons in one place 
at a time.
    Senator Johnson. We got to hang together.
    [Laughter.]
    Senator Rubio. Anyway, it is tough to vote against Ron 
Johnson.
    Well, Mr. Johnson, let us start with you since Senator 
Johnson is here with us. Thank you for being here and thanks 
for your service.

    STATEMENT OF RONALD DOUGLAS JOHNSON, OF FLORIDA, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
        STATES OF AMERICA TO THE REPUBLIC OF EL SALVADOR

    Mr. Johnson. Thank you, Senator, and thanks for that warm 
introduction.
    Chairman Rubio, Ranking Member Cardin, and distinguished 
members of the committee, I am truly honored to appear before 
you today as the President's nominee to serve as United States 
Ambassador to the Republic of El Salvador. I am grateful to 
President Trump for the faith and confidence he has placed in 
me and to Secretary Pompeo for his support. I am humbled by the 
opportunity to serve our country at such an important time in 
our history, and I am grateful to you for your consideration of 
my nomination.
    I am supported in this endeavor by a strong and patriotic 
family. My wife Alina to my right immigrated to this country 
over 50 years ago from Cuba. She has actively contributed to my 
service to this country for over 38 years, and it has not 
always been easy. My government careers have required frequent 
separations and service in high-risk areas. Together we have 
raised four grown children, Robert, Lori, Michael, and Joshua. 
Our youngest son Joshua was the fourth generation of Johnsons 
to serve this country in combat.
    I would also like to mention my mother-in-law, Helen Arias. 
As an airline employee in Cuba, when communists took over the 
country, she helped thousands of children flee to the United 
States aboard Pan Am flights through a program called Operacion 
Pedro Pan. Today at 95 years young, she loves the United States 
as only someone who has lived under tyranny can.
    I first represented the United States in El Salvador in 
1984 as an active duty Army officer. Then the country was 
embroiled in a horrible civil war that would last for over 12 
years, ravage the countryside, and claim the lives of over 
70,000 people. Since that conflict ended in 1992, the 
Salvadoran people have exhibited a strong commitment to 
democracy through free and fair elections and the peaceful 
transfer of power. The most recent example of this is the 
February 3rd presidential election where President-elect Nayib 
Bukele won a clear victory in a competitive multi-party race.
    El Salvador has accomplished much since the war ended, but 
much work remains to be done.
    For the United States, combating transnational crime and 
stemming illegal immigration are the key priorities. Our 
strategy for Central America focuses on advancing security, 
prosperity, and good governance to address these priorities 
that are linked to slow economic growth and unemployment.
    There is clearly a need for increased security, but we must 
also work together simultaneously to develop a broader economic 
agenda. El Salvador's growth rate of 2 percent per year over 
the last 10 years is simply too low to provide economic 
opportunities and viable options for young Salvadorans. Working 
together, we need to focus on making El Salvador more 
attractive to business, instead of a place where businesses 
have to add the price of extortion to the cost of operating. We 
must work together to make illicit activities less lucrative 
and to produce dignified alternatives that help Salvadoran 
youth make the right choice.
    The United States is El Salvador's number one trade partner 
and largest source of foreign investment. There are currently 
over 300 U.S. businesses operating in El Salvador, but there 
could be more. If confirmed, I will make the combined issues of 
security and prosperity my highest priority.
    I know our governments share the same concerns regarding 
illegal immigration and gang violence.
    The government of El Salvador is working closely with us 
now to educate its citizens on the dangers associated with the 
long journey to the U.S. border and to discourage individuals 
from traveling to the United States without a visa.
    There are multiple gangs in El Salvador where violence is 
the centerpiece of the gang's power, its influence, and reach.
    In El Salvador, gang membership is illegal, and the 
Salvadoran government works with the U.S. embassy's 
international narcotics and law enforcement unit and other 
offices to disrupt and dismantle gangs and other transnational 
criminal organizations. These programs focus on strengthening 
the capacity of Salvadoran law enforcement and criminal justice 
systems through a three-part approach: regional coordination 
and information sharing; bottom-up community anti-gang efforts 
designed to improve relationships between communities and the 
police; and finally, top-down institutional reform to 
strengthen investigation and prosecution of criminal actors. If 
confirmed, one of my top priorities will be to expand these 
programs and to build stronger cooperation among regional 
partners and U.S. law enforcement. Gang violence is a 
multinational problem, and combating it will require 
multinational cooperation.
    El Salvador has made progress and there are indicators that 
should help us be optimistic.
    El Salvador's Plan El Salvador Seguro has helped to reduce 
the murder rate by over 55 percent. And looking at the long 
term, World Bank statistics indicate that from 1990 to 2017 
life expectancy increased from 64 to 74 years, while per capita 
income rose and extreme poverty dropped significantly.
    We are on the right path, but let there be no doubt. It is 
a path. Continued progress requires broad, sustained, and 
persistent engagement and a willing partner. If we are 
respectful of each other's concerns and limitations, we can 
work together toward a cooperative and mutually beneficial 
relationship.
    I will treat people with dignity, honesty, and respect. I 
will prioritize our efforts in a way that is impactful and 
beneficial to both sides, and I will make those priorities 
clear to my staff and to our partners.
    Chief of Mission San Salvador is no easy assignment, but I 
believe my experience of over 4 decades of government service, 
along with my knowledge of the region and my deep respect for 
the Salvadoran people have prepared me well to represent 
America's interests and to achieve greater regional security 
and prosperity.
    If confirmed, I will safeguard our citizens, our embassy, 
and our reputation, and I will help build a more peaceful, 
secure, and prosperous relationship between the United States 
and the Republic of El Salvador. Your counsel and leadership 
would be crucial for this to work, and if confirmed, I look 
forward to working with you and your staffs toward that goal.
    It is an honor to be before you today, and I would be 
pleased to answer your questions.
    [The prepared statement of Mr. Johnson follows:]


              Prepared Statement of Ronald Douglas Johnson

    Chairman Rubio, Ranking Member Menendez, and distinguished members 
of the committee, I am truly honored to appear before you today as the 
President's nominee to serve as the United States Ambassador to the 
Republic of El Salvador.
    I am grateful to President Trump for the faith and confidence he's 
placed in me, and to Secretary Pompeo for his support. I am humbled by 
the opportunity to serve our country in this capacity at such an 
important time in our relationship with El Salvador and I am grateful 
to you for your consideration of my nomination.
    I am supported in this endeavor by a strong and patriotic family. 
My wife, Alina, immigrated to this country over 50 years ago from Cuba. 
She has actively contributed to my service to this country for over 38 
years, and it has not always been easy. My government careers have 
required frequent separations and service in high-risk areas. Together 
we've raised four grown children, Robert, Lori, Michael, and Joshua. 
Our youngest son Joshua is the fourth generation of our family to have 
served our country in combat.
    I'd also like to mention my Mother-in-Law, Helen Arias. As an 
airline employee in Cuba, when communists took over the country she 
helped thousands of children flee to the United States aboard Pan-Am 
flights through a program called ``Operation Pedro Pan.'' Today at 95 
years young, she loves the United States as only someone who has lived 
under tyranny can.
    I first represented the United States in El Salvador in 1984, when 
the country was embroiled in a horrible Civil War that would last for 
over twelve years, ravage the countryside, and claim the lives of over 
70,000 people. Since that conflict ended in 1992, the Salvadoran people 
have exhibited a strong commitment to democracy through free and fair 
elections and the peaceful transfer of power. The most recent example 
of this is the February 3rd presidential election, where President-
elect Nayib Bukele won a clear victory in a competitive multi-party 
race.
    El Salvador has accomplished much since the war ended, but much 
work remains to be done.
    For the United States, combating transnational crime and stemming 
illegal immigration are the key priorities. They are linked to slow 
economic growth and unemployment. There's clearly a need for increased 
security but we must also work together to simultaneously develop a 
broader economic agenda. El Salvador's growth rate of 2 percent per 
year over the last 10 years, is simply too low to provide economic 
opportunities and viable options for young Salvadorans. Working 
together we need to focus on making El Salvador more attractive to 
business, instead of a place where businesses have to add the price of 
extortion to the costs of operating. We must work together to make 
illicit activities less lucrative and to produce dignified alternatives 
that help Salvadoran youth make the right choice.
    The United States is El Salvador's number one trade partner and 
largest source of foreign investment. There are currently over three 
hundred U.S. businesses operating there but there could be more. If 
confirmed I will make the combined issues of security and prosperity my 
highest priorities.
    I know our governments share the same concerns regarding illegal 
immigration and gang violence.
    The government of El Salvador is working closely with us now to 
educate its citizens on the dangers associated with the long journey to 
the U.S. border and to discourage individuals from traveling to the 
United States without a visa.
    There are multiple gangs in El Salvador where violence is the 
centerpiece of the gang's power, influence and reach.
    In El Salvador gang membership is illegal and the government works 
with the Embassy's International Narcotics and Law Enforcement unit and 
other offices to disrupt and dismantle gangs and other transnational 
criminal organizations. These programs focus on strengthening the 
capacity of Salvadoran law enforcement and criminal justice systems 
through a three part approach: 1) Regional coordination and information 
sharing; 2) Bottom-up community anti-gang efforts designed to improve 
relationships between communities and the police; and 3) Top-down 
institutional reform to strengthen investigation and prosecution of 
criminal actors. If confirmed, one of my top priorities will be to 
expand these programs and to build stronger cooperation among regional 
partners and U.S. law enforcement. Gang violence is a multi-national 
problem and combating it will require multi-national cooperation.
    El Salvador has made progress and there are indicators that should 
help us be optimistic.
    El Salvador's ``Plan El Salvador Seguro'' has helped to reduce the 
murder rate by over 55 percent. And looking at the long term, World 
Bank statistics indicate that from 1990 to 2017 life expectancy 
increased from 64 to 74 years, while per capita income rose and extreme 
poverty dropped significantly.
    We are on the right path but let there be no doubt, it is a path. 
Continued progress requires broad, sustained and persistent engagement 
and a willing partner. If we are respectful of each other's concerns 
and limitations, we can work together toward a cooperative and mutually 
beneficial relationship. I will treat people with dignity, honesty and 
respect. While I will be and effective negotiator, I will also be a 
good listener. I will prioritize our efforts in a way that is impactful 
and beneficial to both sides and I'll make those priorities clear to my 
staff and to our partners.
    Chief of Mission San Salvador is no easy assignment, but I believe 
my experience of over four decades of government service, along with my 
knowledge of the region and my deep respect for the Salvadoran people 
have prepared me well to represent America's interests and to advance 
this relationship. If confirmed I will safeguard our citizens, our 
embassy, and our reputation, and I will help build a more peaceful, 
secure, and prosperous relationship between the United States and the 
Republic of El Salvador. Your counsel and leadership would be crucial 
for this to work and I look forward to working with you and your staffs 
in this endeavor.
    It is an honor to be before you today and I would be pleased to 
answer any questions.


    Senator Rubio. Thank you very much.
    Mr. Fitzpatrick?

  STATEMENT OF MICHAEL J. FITZPATRICK, OF VIRGINIA, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
 COUNSELOR, TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY 
   OF THE UNITED STATES OF AMERICA TO THE REPUBLIC OF ECUADOR

    Mr. Fitzpatrick. Thank you very much. Mr. Chairman, Ranking 
Member, distinguished members of the committee, it is an honor 
to appear before you this morning as the President's nominee to 
serve as the next United States Ambassador to the Republic of 
Ecuador.
    I would like, first, to recognize some members of my 
family, if I may, without whose strong and continuing support I 
likely would not be here today. First, my dear wife Silvana, 
originally from Peru, joins us today. I would like to recognize 
her and our daughter Michelle both for their repeated personal 
sacrifices as they too have so proudly joined me in serving our 
nation as representatives abroad. My brother John, my sister-
in-law Ellen, and their son William also join us here today.
    Mr. Chairman, during my 33 years with the State Department, 
I have been honored to represent the United States while living 
in seven countries on five continents and traveling to scores 
of other nations around the world. If I am confirmed, I believe 
that my longstanding involvement and deep familiarity with both 
this region and our government's best practices will be of 
great value to me not only in leading our strong interagency 
teams at Embassy Quito and Consulate General Guayaquil, but 
also in partnering with the government of Ecuador under the 
leadership of President Lenin Moreno.
    The United States has a distinct opportunity to advance our 
relationship with both the people and government of Ecuador by 
developing a genuine partnership. Chief among our shared 
interests in my mind are democracy, prosperity, and security.
    The first responsibility of any U.S. ambassador must be to 
ensure the safety and security of our citizens. I assure you 
that, if confirmed, I will continue to prioritize investments 
and activities that protect the growing number of our citizens 
who live in or visit Ecuador, including for the security of 
U.S. government personnel in country.
    President Moreno has sought to enhance democratic rights 
and practices and to fight corruption while modernizing and 
opening up Ecuador's economy. He has also welcomed greater 
international cooperation, including with the United States, in 
addressing complex regional and global challenges. Especially 
as transnational criminal organizations seek to deepen their 
presence, we should respond positively to offers to cooperate 
with Ecuadorian efforts to fortify their public institutions, 
reduce international crime, and enhance border protection, 
while safeguarding legitimate travel.
    In short, Mr. Chairman, if confirmed, I will work in 
Ecuador to advance U.S. values and interests. That begins with 
pursuing a shared vision of democratic governance, transparent 
economic development, free and fair commerce, and a fair, open, 
and secure environment in which all may pursue their individual 
God-given talents.
    I would like to express my appreciation to this committee 
and its members for your support for U.S. engagement with 
Ecuador at this important time in our country's relationship 
and for your consideration of my nomination today. Thank you, 
Mr. Chairman, Ranking Member, and members of the committee. I 
look forward to answering any questions you may have.
    [The prepared statement of Mr. Fitzpatrick follows:]


              Prepared Statement of Michael J. Fitzpatrick

    Mr. Chairman, Ranking Member, distinguished members of the 
committee, it is an honor to appear before you today as the President's 
nominee for U.S. Ambassador to the Republic of Ecuador.
    I would like to recognize some members of my family, without whose 
strong and continuing support I likely would not be here today. First, 
my wife, Silvana. Although our daughter, Michelle, cannot be here, she 
is watching the webcast. I would like to recognize them both for their 
repeated personal sacrifices as they too have so proudly served our 
nation as representatives abroad. My brother, John, and my sister-in-
law, Ellen, also join us here today.
    Mr. Chairman, during my thirty-three years with the State 
Department--first as a Presidential Management Fellow, then as a career 
Civil Servant, and now for three decades as a commissioned Foreign 
Service Officer--I have been honored to represent the United States 
while living on five continents, and TDY service to a sixth. I have had 
the opportunity to travel to scores of nations around the 
world.Nevertheless, it is Latin America where my career began. Latin 
America has been a constant in my life. And it is Latin America that 
has been the focus of my most recent assignments: As Charge d'Affaires, 
a.i. and Deputy Chief of Mission in Lima, Peru; as the Interim United 
States Representative to the Organization of American States; and most 
recently, as Deputy Assistant Secretary of State for the Andes, Brazil 
and the Southern Cone. I believe this long-standing involvement and 
understanding will be of great value to me, if confirmed, both in 
leading our Missions in Guayaquil and Quito, and in partnering with the 
government of Ecuador, under the leadership of President Moreno.
    Since his inauguration in 2017, President Moreno has: repeatedly 
advanced efforts to enhance democratic rights and practices, notably 
press freedom; launched an anti-corruption campaign that resulted in 
the imprisonment of his own Vice President; repealed some authoritarian 
decrees targeting civil society; and, welcomed greater international 
cooperation, including from the United States, in addressing complex 
international challenges.
    The United States thus has a distinct opportunity now to advance 
our relationship with both the government and people of Ecuador, for us 
to rebuild a genuine partnership in pursuit of shared interests. Given 
that this has not always been the case, it is incumbent upon us, I 
believe, not to squander this occasion. Chief among the many 
opportunities, in my mind, as we seek to build a stronger bilateral 
compact are: Democracy, Prosperity, and Security.
    Let me speak to each of those, starting with the last, though 
hardly the least, of these three: Security.
Security
    Indeed, the first responsibility of any U.S. Ambassador must be to 
ensure the safety and security of our citizens. Ecuador is, with good 
reason, an increasingly attractive destination for Americans, be they 
tourists, students, entrepreneurs, or retirees. I assure you that, if 
confirmed, I will continue to prioritize investments and activities 
that protect all of our personnel and citizens in Ecuador.
    Ecuador also now faces significant challenges from narco-
trafficking and transnational crime. Mexican cartels, seeking to 
transit cocaine from the neighboring nations of Peru and Colombia to 
the United States and world markets, have expanded their presence in 
Ecuador. Former members of the FARC launched multiple armed attacks 
over the last year along Ecuador's common border with Colombia. The 
government of Ecuador has demonstrated a clear desire to partner with 
the United States, Colombia, Peru, and Mexico to combat transnational 
organized crime and strengthen its security, prosecutorial and judicial 
institutions. We should respond positively, cooperating with Ecuador--
particularly through capacity-building efforts and the sharing of best 
practices--in their efforts to fortify public institutions, reduce 
international crime and enhance border protection while safeguarding 
legitimate travel.
Democracy
    A presidentially supported public referendum on constitutional 
reforms won handily last year. Among other steps, this re-introduced a 
two-term limit to the presidency. Although this represents a step 
towards deeper democratization, persistent social and fiscal challenges 
will continue to weigh on governance.
    The United States should continue to promote the rule of law and 
the freedom of speech and association; this will help revitalize civil 
society, restore confidence in national institutions and foster greater 
support for shared values and policies. We must also support Ecuador in 
its efforts to tend to the significant number of Colombian, and 
increasingly, Venezuelan, refugees and migrants, with emphasis on 
protecting the rights of the most vulnerable among them.
Prosperity
    External economic shocks have contributed to the ousting of three 
democratically elected presidents of Ecuador since the late 1990s. 
While record-high oil prices helped underwrite the public largesse of 
President Moreno's immediate predecessor, fate has not so blessed his 
own administration. Yet his government gains international support for 
its steps to increase transparency, strengthen fiscal institutions and 
re-establish a competitive private-sector driven economy. I commit to 
work, if confirmed, with both the public and private sectors to address 
business environment deficiencies. Together, we can reduce trade 
barriers, promote investor-friendly practices, increase infrastructure 
investments and reduce corruption while providing greater employment 
opportunities.
    In sum, Mr. Chairman, if confirmed, I will work in Ecuador to 
advance U.S. values and interests. That begins with pursuing a shared 
vision of good governance, transparent economic development, free and 
fair commerce, and a fair, open and secure environment in which all may 
pursue their individual, God-given talents.
    I would like to express my appreciation to this committee and its 
members for your support for U.S. engagement with Ecuador at this 
important time in our countries' relationship--and for your 
consideration of my nomination. Thank you Mr. Chairman, Ranking Member, 
and members of the committee. I look forward to answering any questions 
you may have.


    Senator Rubio. Thank you both for being here.
    I will only ask one question, then defer my time to the 
members who may have to go somewhere else.
    So, Mr. Fitzpatrick, I wanted to ask you at the outset. One 
of the highest profile irritants in the relationship 
historically has been Julian Assange's status abroad under the 
protection of diplomatic protection of the government. What 
update can you give us on that? And what role will that play, 
do you believe, in your service to our country from the 
embassy?
    Mr. Fitzpatrick. Yes, sir. I am deeply concerned about 
Julian Assange and Wikileaks hostile activities and intent to 
undermine U.S. democracy and national security. Mr. Assange's 
nearly 7-year stay in the Ecuadorian embassy has permitted him 
to meddle in U.S. affairs and to harm our national security. 
That is a problem, and letting it drag on much longer would 
continue to harm our interests and I believe Ecuador's 
interests as well.
    If confirmed by the Senate, I would continue to raise our 
significant concerns regarding Mr. Assange, and at every 
appropriate opportunity, I would urge the government to pursue 
a rapid resolution of this issue. I would also expect, if 
confirmed, to remain in very close contact with the members of 
this committee.
    Let me say we respect many of the reform efforts undertaken 
by the Moreno administration, but Mr. Assange does, as I said, 
damage to U.S. national security and the United States will 
have to assess a bilateral relationship accordingly.
    Senator Rubio. Thank you.
    The ranking member.
    Senator Cardin. Once again, thank you to both of you.
    Both El Salvador and Ecuador are democratic states. Both 
have significant challenges in dealing with impunity and 
corruption. This is not a new subject. We have been working on 
the impunity problems in this region for a very long time. We 
have seen in the Northern Triangle different efforts with 
integrity commissions. President-elect Bukele has indicated 
that he intends to seek a commission that will deal with this 
issue, with the assistance of international organizations.
    Can you tell us, Mr. Johnson, your priority in dealing with 
this issue of fighting corruption in El Salvador and how you 
believe the United States can assist the government in 
implementing such a policy?
    Mr. Johnson. Thank you, Senator.
    I certainly recognize that we do have issues with 
corruption. In fact, one of the previous presidents of El 
Salvador is in prison now for corruption charges, while another 
is under asylum in Nicaragua. I do not think one shoe fits all, 
but I am committed--I know I am committed to support anything 
that will help reduce corruption in El Salvador.
    Like you, I am encouraged by President-elect Bukele's 
comments. I am not privy to the details on how he plans to move 
forward. I think that will largely depend on the President-
elect and his cabinet as he assembles his administration. But I 
certainly anticipate, if confirmed, to play a role in helping 
him to put together a commission that will be effective in 
ensuring that there is transparency in such agreements, as the 
one that was made with China, and that we can work together 
with the attorney general to fight corruption throughout the 
country.
    Senator Cardin. One thing is clear to me. There are 
international standards for fighting corruption. And that is 
one of the reasons why the different models that have been used 
in Central America have relied in various measures on the help 
of the international community, some 39 nations, other things 
that have been done. But there are standards, and it is 
important. And I would just urge you in your conversations with 
the Salvadoran government to recognize that it is important 
that they take advantage of the help of international 
organizations to give legitimacy to their efforts to fight 
corruption.
    Mr. Fitzpatrick, in Ecuador, the government has indicated 
that they are going to set up some type of corruption 
commission. They have not indicated much more than that. There 
are some conversations about links to the United Nations or OAS 
or other international organizations.
    Can you just assure us that this will be a top priority as 
to how Ecuador institutionalizes their commitment to fight 
corruption in their country?
    Mr. Fitzpatrick. Yes, sir, Senator. Absolutely I concur 
with that.
    We do not have many details of this announcement by 
President Moreno to establish an international anti-corruption 
commission. As you mentioned, they have discussed linking it 
with both the United Nations and the Organization of American 
States. Of course, the OAS has a number of international 
conventions on anti-corruption which we in the United States 
have strongly supported in the past. We look forward to getting 
a lot more information and some details from the government and 
looking for ways that we can partner with them in implementing 
this as they move forward.
    Senator Cardin. And once again, I would urge the American 
presence to explain how it is important to engage the 
international community in fighting corruption so there is 
again credibility in efforts being made.
    Mr. Johnson, I mentioned TPS in my opening statement. We 
have had some different views here on the TPS issue. My 
understanding is that the mission in San Salvador has been very 
open about their concerns about the TPS not being extended for 
the Salvadorans that are here in this country. My question to 
you is that will you assure us that you will provide 
independent advice as to the circumstances within El Salvador 
that would affect the return of the 200,000 that are currently 
under TPS status as to whether they could safely be repatriated 
back to their country or whether TPS should be extended. There 
are certain standards that we use in extending TPS, and we 
depend upon having the independent advice of the mission.
    Now, the ultimate decision will not be made by the mission, 
but it is important that we get that independent advice. And 
what I have seen to date would indicate that the TPS should be 
extended. Will you make that commitment to us?
    Mr. Johnson. Absolutely, sir. You have my commitment. I 
understand my role on the ground is to provide ground truth 
dealing with capacity and the capability of the Salvadoran 
government to receive people back, as well as with the U.S. 
embassy's capacity to take care of any of those that have 
children or spouses that are U.S. citizens. You have my 
commitment, sir.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Rubio. Senator Johnson?
    Senator Johnson. Thank you, Mr. Chairman.
    I want to first thank both nominees for your past service 
and your willingness to serve in these new capacities.
    And, Mr. Johnson, I really hope that your name is not an 
impediment to getting votes. If so, I apologize right now.
    When I went down to Guatemala and Honduras the first time 
about 4 years ago, I was surprised when they talked about the 
two challenges: corruption and impunity. And corruption--we 
have already talked about that. Impunity
    --I really never heard that before. And, of course, it all 
relates to the drug cartels who are untouchable, and that just 
creates a level of impunity for the extortionists and kind of 
the destruction of these public institutions and it leads to 
corruption.
    I have recently met with the new Ambassador to Mexico a 
couple times, and she has brought in a number of her 
representatives. In our last discussion, it was pretty 
interesting. The representatives were talking about how they 
wanted to cooperate with America. They are getting more 
information on the people coming to this country, their country 
illegally from Guatemala, covering that border.
    But they spent a lot of time talking about development. And 
after I kind of listened to their presentation, one thing that 
is pretty obvious to me is there was no mention whatsoever of 
combating the drug cartels and transnational criminal 
organizations.
    You speak in your testimony about the need for economic 
opportunities for Salvadorans or Guatemalans or Hondurans. That 
is crucial, but you cannot get private investment in an 
unsecure situation. And you mentioned in your testimony gang 
violence is a multinational problem and combating it will 
require multinational cooperation. Is that not the first step? 
And how do we in a multinational way effectively begin to break 
up these drug cartels which are just a scourge to the region?
    And I have said repeatedly the reason we have an unsecure 
border is our insatiable demand for drugs that has given rise 
to these drug cartels who have just expanded their product line 
into human trafficking and sex trafficking. But we have to 
effectively address that multinationally. How do we do that? 
You have a great deal of experience in the region.
    Mr. Johnson. Sir, thank you for that question.
    And you have hit on two major points. One is the 
apprehension and the arrest, if you will, of people that are 
involved in these types of criminal activities, and the other 
is how well we are able to prosecute them and hold them 
accountable once they have been arrested. And that is exactly 
the way I would approach it.
    Number one, there is currently a Northern Triangle 
agreement and task force against gangs, not necessarily against 
drugs but usually where there are drugs, there are gangs 
involved. I am not familiar with the task force. I have not 
visited, but I intend to make that one of my priorities to get 
familiar with it. It is based on personal relationships and 
building trust to teach them to cooperate with each other and 
share this information. And I think it is important because if 
you look at that region, you can commit crimes in one country, 
and when you know things are getting a little hot there, you go 
across the border and you seek refuge in the other. So if we 
can help them learn to trust each other and share that 
information, I think we will have a lot more success with that 
part of it.
    The other part you mentioned is immunity. The current 
prosecution rate is at about 11 percent in El Salvador, so 
there is a 90 percent chance or so that if you are apprehended, 
that you will be released. I know one of my priorities will be 
to work with the new attorney general and the Department of 
Justice, with judges, with prosecutors, and I would look at 
programs that we can bring down that would help train them, 
advise them, and mentor them through the process.
    Senator Johnson. A very chilling story that I was told when 
I was down there. And we all know the examples of brutality. I 
do not even want to talk about them in an open hearing. But if 
you are a new member of the police force in one of these 
countries, you get a little DVD, and on that DVD, it shows 
video of your children and your wife going to church or going 
into school.
    How can you expect police forces to show the courage to 
combat those drug cartels that have almost unlimited resources, 
the billions of dollars from the drug trafficking? Does that 
not almost require a multinational force that is under that 
type of threat? Again, you can work with institutions, but do 
we not need an outside force to really combat this effectively 
with those individuals in country being under that kind of 
threat?
    Mr. Johnson. Sir, if confirmed, I would be willing to look 
at anything we can do to increase security for the personnel in 
El Salvador that face these threats. It will not be the first 
time I have dealt with this. In Iraq, we lost more people when 
they were on leave than we did when they were on duty because 
people would hunt them down in their homes. I think it is a 
very chilling tragedy for someone who is making the decision to 
serve their country and defend their neighborhoods in El 
Salvador in a lot of cases, and they have to worry about their 
loved ones and their security. That is something I will be 
committed to look into early. And I have a little bit of 
experience working on those issues, and we will look at 
everything we can do to help them increase that security.
    Senator Johnson. Well, I want to work with you in that 
capacity and try and put this task force together because that 
is what is going to be required.
    Mr. Johnson. Thank you, Senator. I look forward to that.
    Senator Rubio. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And congratulations to both of you for your nominations.
    Mr. Johnson, I want to go back to the anti-corruption 
agenda of the new president of El Salvador, President Bukele, 
because it is reminiscent of the election of Jimmy Morales to 
be president of Guatemala. Jimmy Morales kind of came out of a 
nontraditional political background. President-elect Bukele is 
the first to be elected without the support of either side of 
the civil conflict in El Salvador for the last 30 years. So he 
is coming in, a young, dynamic mayor of San Salvador, without 
the traditional political background.
    President Morales in Guatemala--anti-corruption was the 
lead theme of the campaign. There was a U.N. CICIG, an anti-
corruption organization, already in place when he got there 
that he pledged to work together with. Shortly after becoming 
president, he has, together with other officials, attacked that 
anti-corruption agency over and over again. Those attacks have 
often been litigated in the Guatemalan courts, and the courts 
of the country have tended to side with the commission rather 
than the president. The president and his cabinet ordered the 
anti-corruption agency out of the country about 2, 3 months 
ago.
    So with experience in this region, what might you offer to 
us, sort of your thoughts about how the new president of El 
Salvador in pursuing a similar strategy, being elected on an 
anti-corruption platform, suggesting that we will try to set up 
an international independent anti-corruption agency? What might 
we do to help that be successful?
    Mr. Johnson. Thank you, Senator.
    I think corruption is a very serious problem, and it bleeds 
off a lot of the resources that could go to other more serious 
problems that help drive illegal immigration and prosperity and 
violence in the country.
    I have not had the opportunity to speak with President-
elect Bukele about the details of his plan moving forward. I 
look forward to doing that. Like you, I am extremely encouraged 
by the remarks that I have heard him make. I mentioned once 
before I do not think one shoe fits all, so I am not sure 
exactly how we would bring or the Salvadorans would bring a 
commission or an organization of some type together to fight 
corruption, but I have to believe he is serious about it.
    And I think another thing that is important to keep in mind 
with President-elect Bukele--like you said, he did not come 
from one of the two major parties that exist in country. The 
National Assembly in El Salvador has 84 seats. His party has 
10. So his success is going to largely depend upon his ability 
to garner support from some of these other parties, and that 
remains to be seen. But I feel very positive about his ability 
to do that. And I look forward to working with him and with 
this body to assist in any way we can.
    Senator Kaine. I really appreciate it. It is a tall order. 
I lived in Honduras, and there are similar issues there and a 
similar commitment by the current government to tackle some of 
these issues. And yet, the OAS declared the most recent 
presidential elections in Honduras so fundamentally flawed that 
the OAS suggested they needed to be re-run. So this is a tall 
order for the new government, and I encourage your attention to 
it.
    If I could ask you, Mr. Fitzpatrick. The Vice President was 
there visiting recently President Moreno, and talked a lot 
about the economy and this idea of a reactivation of the trade 
and investment council. To support President Moreno in his 
reforms, one of the best things we could do is help President 
Moreno in his effort to build more strength in the Ecuadorian 
economy. It has been hit by declining oil prices. Talk a little 
bit about the trade and investment council and what we might be 
able to do as the United States through that vehicle to help 
the economy be more successful.
    Mr. Fitzpatrick. Yes, sir. Thank you, Senator.
    The United States remains Ecuador's number one trading 
partner by far. Free trade and open markets are in our mutual 
interest.
    As you mentioned, the first meeting of the trade and 
investment council occurred I believe in November, the first 
time in about 9 years that they actually met. The next time the 
council should meet is I believe in June coming forth in 
Ecuador.
    I believe, if confirmed, there are a number of things I 
would like to do to pursue the issues related to the TIC. First 
of all, I would like the opportunity to speak directly to the 
United States private sector, both in the United States and in 
Ecuador, to learn more not just from the briefing papers 
frankly, but from the actual participants in international 
commerce to understand from them the impediments that they are 
still facing, the irritants that exist in our bilateral 
commercial relations.
    Clearly President Moreno is trying to take a number of 
steps to open up their economy, to reengage with the 
international global markets. That is all to the good. It is 
something we should be encouraging them on. But again, as I 
suggested, there are some bilateral irritants, whether it is 
access for agricultural products into their market, whether it 
is intellectual property rights enforcement, et cetera. There 
are a number of issues like that that I think are ripe for us 
to consider through the trade and investment council.
    Senator Kaine. Thank you, Mr. Chair.
    I look forward to supporting you both.
    Senator Rubio. Thank you.
    And Senator Romney turns 49 today. It is his birthday.
    Senator Romney. Thank you. I appreciate your noticing that. 
And you are 29?
    [Laughter.]
    Senator Rubio. I feel 30.
    [Laughter.]
    Senator Romney. Thank you.
    I do not think there is any question in people's minds 
about the significance of America's role in the world impacting 
not just the world but also America. One only need to look at 
what is happening in your respective countries that you hope to 
represent us in. Clearly the health and well-being of Latin 
America has an enormous impact on our country, on our citizens 
with regard to everything from gangs like MS-13 to drugs to 
trade and so forth. And so I want to express my appreciation to 
both of you for your willingness to take on assignments in 
these countries and to help foster relations that will improve 
the lives of Americans, as well as improve the lives of people 
in these wonderful nations.
    Mr. Johnson, with the election of a center right president 
in El Salvador, there is hope on the part of many that this 
might begin a trend and that other nations in Central America 
that have been hostile to our interests and hostile to their 
own well-being might be encouraged. As I recall, he won without 
a runoff, over 50 percent of the vote, first time running for 
national office in this nation. And so there are many of us 
that have very high hopes that he will be successful, and this 
might spread to neighbors.
    And I am interested in what your objectives, what your 
priorities would be as you look at helping a new president deal 
with everything from MS-13 to corruption in his government to 
doing his best to keep FMLN from rearing its head again in a 
violent way.
    And then, Mr. Fitzpatrick, I am interested in a follow-up, 
after Mr. Johnson has spoken, about whether there is a growing 
trend in Latin America, as you see it, that might be more 
beneficial to the people of those nations and to the prospects 
of prosperity and peace.
    Yes, Mr. Johnson?
    Mr. Johnson. Happy birthday, Senator.
    Senator Romney. Thank you. You are very kind.
    Mr. Johnson. Thank you for the question.
    I think it is a very complex issue. There are not a lot of 
simple answers, but I have two simple priorities and that is 
security and prosperity. And if we look at the other issues, 
the violence, the narcotics issues, human trafficking, it all 
sort of folds under those two main topics. I can assure you 
that will be my priority. I think it will also be the priority 
of the new president-elect and his administration.
    Like you, I am very excited about the promise that his 
election shows, and as we look at other countries in Central 
America and in South America, I am very interested in how the 
political climate is changing in the region. We have all been 
paying a lot of attention on the news recently to the 
developments in Venezuela, for example. I think Central 
American and South American countries are paying a lot of 
attention to that as well. So I think what happens in Venezuela 
will have an impact throughout the region.
    I think the election in El Salvador will have an impact 
throughout the region. And anything that happens regarding 
security or the problems that we have discussed in the country 
of El Salvador will certainly have an impact on its neighboring 
countries in the Northern Triangle and in the upper part of 
Central America.
    Senator Romney. Thank you.
    Mr. Fitzpatrick?
    Mr. Fitzpatrick. Yes, sir. I would echo much of what Mr. 
Johnson said particularly about the priorities of prosperity 
and security. Security first. Without security, prosperity 
simple is not possible. And one need look no further than 
Venezuela for proof positive of that today.
    In the case of Ecuador, for counternarcotics purposes, it 
is a transit country, not a producing country, but it is 
wedged, if you will--Ecuador--between Peru and Colombia, the 
number one and two producing nations in the world. Under 
President Moreno, he has reengaged with the United States but 
also with his immediate neighbors on counternarcotics in a 
range of areas. And we look forward to deepening and 
strengthening that regional cooperation on this transnational 
threat.
    Just in the last few months, through his good offices and 
interagency support by the United States, we have reinitiated 
maritime air patrol activities, and they have already seized 
north of 13 metric tons of cocaine on the high seas in Ecuador. 
That is just one example of one of the benefits of cooperation. 
But frankly, I see it as a simple indicator of the scale of the 
threat. If there were 13 metric tons that we were able to seize 
in a few flights, how much is getting by?
    And so it is incumbent on us, I believe, to double down 
with this administration of President Moreno and the Ecuadorian 
people who also, as was said earlier, can look 1,000 miles away 
and see the threats coming out of Venezuela not only in terms 
of their own security, but frankly for their own prosperity and 
democratic future.
    Senator Romney. Thank you, Mr. Chairman.
    Senator Rubio. Senator Menendez?
    Senator Menendez. Mr. Chairman, I want to wish our 
colleague happy birthday. Now that I know that Twinkies is your 
favorite dessert, when I need something, I will bring a package 
over. So happy birthday.
    Mr. Chairman, I have a statement that I would like to be 
included for the record.
    Senator Rubio. Without objection.
    [The prepared statement of Senator Menendez follows:]


               Opening Statement Senator Robert Menendez

    I want to thank Senators Rubio and Cardin for chairing today's 
hearing. I also want to congratulate Mr. Fitzpatrick and Mr. Johnson on 
your nominations. Today's hearing is an important opportunity to 
discuss relations with Ecuador and El Salvador--two important U.S. 
partners.
    In Ecuador, are witnessing a transformation. President Moreno 
deserves credit for supporting efforts to reinstate presidential term 
limits and improve press freedoms. Together, our governments have 
resumed counternarcotics and security cooperation, and reinstated the 
U.S.-Ecuador Trade and Investment Council to strengthen economic ties.
     President Moreno has also shown leadership in recognizing 
Venezuelan Interim President Guaido, and we are collaborating to 
address the regional impact of Venezuela's migration crisis.
    Despite this notable progress, one specific irritant in the 
bilateral relationship remains. I will ask Mr. Fitzpatrick about how it 
might be resolved and look forward to his response.
    Mr. Johnson, if confirmed, you will arrive in San Salvador in a 
moment of transition and opportunity for strengthening our bilateral 
ties. Since 2014, the U.S. has expanded our engagement with El Salvador 
to facilitate the conditions for security and prosperity, and address 
the issues forcing people to flee their countries. But, progress has 
been piecemeal.
    President-elect Nayib Bukele has proposed new initiatives to 
strengthen governance and combat impunity, and potentially reverse 
President Sanchez Ceren's unfortunate decision to break ties with 
Taiwan. These would be welcome developments.
    I also look forward to discussing the issue of the TPS designation 
for El Salvador. In November 2017, the Trump administration announced 
an end to TPS for roughly 195,000 Salvadorans that have been residing 
in the U.S. legally since 2001, including more than 6,800 with TPS in 
my state of New Jersey. These TPS holders have, by some estimates, 
217,000 U.S. citizen children, including and 3,900 U.S.-born children 
in New Jersey. While the administration's decision to terminate TPS for 
El Salvador is under review by the courts and the administration 
extended TPS designations until 2020 in compliance with court 
directives, I am concerned about the future of TPS. And, I am very 
concerned about how State Department leadership ignored the assessments 
and recommendations of our ambassadors.
    So, there is much to discuss and I look forward to hearing from 
both of our nominees.


    Senator Menendez. Congratulations to both of you on your 
nominations.
    Mr. Johnson, a series of my friends have asked me to be 
nice to you as if I am not nice to every nominee that comes 
before us.
    [Laughter.]
    Senator Menendez. So I do not know what he means, but 
anyhow, I just want you to know you have friends in the 
community.
    Mr. Fitzpatrick, last month, the Moreno government reached 
initial agreement on a $4 billion IMF package, which would be 
in addition to $6 billion in support from the Inter-American 
Development Bank, World Bank, and other financial institutions.
    What does the magnitude of this financial package say about 
the scope of the economic challenges that President Moreno 
inherited from his predecessor? And what is your assessment of 
the Moreno government's ability to successfully manage and 
implement such a major financial package?
    Mr. Fitzpatrick. Yes, sir. The $10.2 billion package to be 
provided by the IMF and a number of international financial 
institutions, as I understand it, is to be spread out over a 3-
year period. It is important for the macroeconomic stability of 
Ecuador, and of course, greater economic prosperity in Ecuador 
is important to the United States as well.
    I think the government of President Moreno took a fair 
amount of time in their first year trying to understand the 
books, if you will, the financial situation that they were left 
with from the Correa administration, and the debt situation 
was, undoubtedly, worse than they had been led to believe 
initially. But President Moreno has taken strong and I think 
courageous steps to reengage with the IMF, to reengage with the 
international financial institutions, to seek support from the 
United States, and to reopen his economy to the global markets. 
That is going to cost him politically I believe in the short 
term at home, but longer term, if we walk the walk with them, 
if we stand by them through this process, I believe they will 
come out stronger at the end.
    Senator Menendez. Do you believe they have the ability to 
implement such a large package?
    Mr. Fitzpatrick. Yes, I believe they do.
    Senator Menendez. And will you, as our Ambassador, if 
confirmed, to the extent that we are investing some significant 
money through these institutions, monitor what is going on as 
it relates to implementation of those obligations?
    Mr. Fitzpatrick. Absolutely, sir.
    Senator Menendez. Let me ask you--I know you addressed 
somewhat of this. But with reference to Mr. Assange, what is 
your understanding of Wikileaks interference in our 2016 
elections?
    Mr. Fitzpatrick. Sir, I am very aware of the January 2017 
assessment by the ODNI about Wikileaks' involvement in that 
working with Russian elements through the GRU to intervene in 
and to influence our elections in 2016 through the use of the 
GRU, in particular to relay U.S. victim information. Then CIA 
Director Pompeo said in April 2017--and of course, he is now my 
boss, the Secretary of State. He said it is time to call out 
Wikileaks for what it really is, a non-state, hostile 
intelligence service often embedded by state actors like 
Russia.
    Senator Menendez. So you accept the intelligence 
community's determination and the Secretary of State's former 
comments when he was the CIA Director?
    Mr. Fitzpatrick. I do, sir.
    Senator Menendez. As such, President Moreno refers to 
Assange as an inherited problem, and that is true to an extent. 
But what is the Moreno government going to do to manage 
Assange's presence and limit his ability to interfere in 
foreign elections? And will you make this one of your top 
priorities in your intercession with the Moreno government?
    Mr. Fitzpatrick. If confirmed, I certainly commit, sir, to 
make that a priority, absolutely.
    Several months back, the Moreno administration issued a new 
set of requirements for their, shall we say, house guest in 
their embassy in London. He has now been there 6 and a half 
years. But in the fall, a number of additional restrictions 
were placed on him, including restricting his access to the 
Internet. He, as I understand it, has in some ways separated 
himself from Wikileaks, and yet he is still officially the 
publisher of Wikileaks and we still hold him responsible for 
what Wikileaks does.
    Their foreign minister, I understand, has been engaged 
directly with the government of the United Kingdom to work out 
potential ways to resolve this problem in the short term. I 
sense increasing frustration on the part of the government of 
President Moreno. He has called this a pebble in the shoe. It 
is long past time to take that pebble out of the shoe.
    Senator Menendez. It is a big pebble.
    Mr. Fitzpatrick. It is a big pebble. It is getting bigger. 
Yes, sir.
    Senator Menendez. Mr. Johnson, do you believe that the 
government of El Salvador has the capacity to guarantee the 
safety of more than 195,000 TPS beneficiaries and their 217,000 
U.S. citizen children?
    Mr. Johnson. Thank you, Senator.
    I have not had an opportunity to see it firsthand. I know 
that is a lot of people for a small country to absorb, 
especially if they were expected to do it all in a short period 
of time. That said, I am very clear on what my responsibilities 
are in regard to TPS, and that is to provide ground truth on 
what the impact might be and on the capacity and the capability 
of the government to repatriate its citizens and on the U.S. 
embassy's capability----
    Senator Menendez. Will you give honest and unfettered 
information to your superiors and to this committee, if asked, 
about what is the consequences of 400,000 and more people being 
returned to El Salvador?
    Mr. Johnson. Yes, sir. I take a great deal of pride in 
honesty and accuracy, and I will commit to speaking truth.
    Senator Menendez. Two final questions, if I may, Mr. 
Chairman.
    During El Salvador's recent presidential campaign, one of 
President-elect Bukele's most popular campaign proposals was 
that he would set up an internationally supported commission 
against impunity to work with El Salvador's attorney general 
investigating and prosecuting some of the politically thorniest 
corruption cases. Similar commissions in Guatemala and Honduras 
have made real progress with some difficulty.
    Do you believe that El Salvador faces challenges with 
accountability and impunity, and would you support this 
proposal to create an internationally backed commission?
    Mr. Johnson. Sir, I have not had an opportunity to speak 
with President-elect Bukele. I am encouraged by his words on 
anti-corruption. I also understand we have a new attorney 
general in El Salvador that I look forward to working with. I 
think I can safely say that I would be committed to helping 
anyone as they put together a commission or an organization or 
a plan that would help stem corruption and impunity in El 
Salvador.
    Senator Menendez. I appreciate that.
    Do you have any direction by the State Department on this 
question? Have you been given any direction in your briefings 
in preparation of this hearing as to whether this is something 
we support or not?
    Mr. Johnson. Sir, I have not been given any direction on 
that specific issue. I have been given a great deal of help in 
assembling information, but not that specific issue, no, sir.
    Senator Menendez. Given the extensive cooperation between 
Ambassador Manes and former Attorney General Melendez--no 
relationship to me. That is an ``l'' not an ``n''--would you 
prioritize a close relationship with the new attorney general, 
Raul Melara?
    Mr. Johnson. Absolutely, sir. I think that is one of those 
critical relationships that the embassy will have.
    Senator Menendez. I appreciate that.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    I will be the last question unless someone else shows up or 
Senator Romney has anything additional, having reserved the 
time.
    Just on the issue of El Salvador, I would hate for our 
relationship to solely be defined by the issue of migration, 
but it most certainly is a big one. And I have often argued 
that perhaps the best--not that we do not do other things on 
border security, but the most effective thing we can do on 
border security is to help nations address the reasons why 
people are leaving those countries in the first place. We do 
not have a migratory crisis from Costa Rica, Chile, Peru, 
Argentina. It does not mean we have zero, but it is not the 
same pressure. And I think when you look at some of the lowest 
levels of growth in investment, El Salvador has the highest 
homicide rate in Central America. And it is no surprise that we 
are seeing this sort of migratory crisis.
    That said, last year, the statistics say that at the 
southwest border, the number of apprehensions of Salvadorans 
declined, while those from Honduras and Guatemala increased.
    So in a two-part question, to what extent has the work we 
have done or the security plan El Salvador is attributed to 
that decline, and what do we need to do to build on that 
progress in El Salvador?
    Mr. Johnson. Thank you, Mr. Chairman.
    I think that if you look at, in particular, INL's program 
in 15 municipalities in El Salvador where they have focused on 
the issue of security and building relationships between the 
community and the police department and on improvements in the 
judiciary system, we have seen the murder rate drop in those 
municipalities by over 50 percent. Some are 55 percent and 
higher.
    What I would propose to do, if confirmed, is spend a great 
deal of time looking at what are the best practices in those 
municipalities, what are we doing that perhaps is not 
contributing, and look to expand the program to other areas, 
and look to take resources from things that are maybe not 
giving us a lot of impact and apply them to other things that 
are showing success. And I agree with you. The numbers are down 
from El Salvador, and I think it can be contributed to the 
efforts of Plan Seguro El Salvador.
    Senator Rubio. And I would just suggest, if confirmed and 
when you are there, that is how you could be most helpful to 
those of us who continue to advocate for addressing the root 
causes of migration and to identify the programs that work best 
and I think also would be helpful for the new administration to 
be able to address those because it builds on the second part. 
I have highlighted about how they have the lowest levels of 
growth in investment in the region.
    The President-elect recently revealed a national 
development plan that calls for a new airport, a new railway 
line. It is not clear yet how they plan to pay for it, but the 
concern always becomes is that China has become an expert at 
swooping in and providing a bunch of money and the workers, by 
the way, to their benefit, and then they trap you in this debt 
situation. And then they leverage that in international forums 
in foreign policy.
    If you could briefly describe, first of all, how much of a 
focus will that be of your time there to ensure that that does 
not happen to our detriment? And second, what can we do from 
the embassy to make El Salvador a more attractive place for 
other investment partners, including U.S. partners, to be able 
to come in and contribute to that?
    Mr. Johnson. Sir, I will answer the second part first. I 
think to make it more attractive to other investors from the 
U.S. and from other countries, we have to establish security. 
We have to reduce the amount of extortion that these businesses 
are paying, and they have to be able to know they can come 
there and hire employees that can come back and forth from work 
to home without having to pay gangs to cross their territory.
    Regarding China, the bad news is China has expanded its 
engagement in the western hemisphere quite a bit in the last 10 
years. The good news is it has not proven to be very effective, 
and I think there is plenty of evidence if you look at places 
where they are heavily invested. And two of those would be 
Venezuela and Nicaragua. They have not followed through with 
their promises. You frequently see construction projects that 
they build that do not provide jobs to local citizens, but they 
bring in their own people to do the work. They bring in their 
own supplies. They do not purchase local supplies. They do not 
have good environmental programs to ensure the environment is 
protected. And I think there is plenty of evidence.
    My job would be to sit down with the government of El 
Salvador with the various people in the legislative assembly 
and others in the administration to ensure that they have seen 
these examples and that they understand what the risks are of 
dealing with China.
    Senator Rubio. And I think that is important simply because 
we hear complaint from the region, which is you asked us not to 
break with Taiwan. You asked us to be wary of Chinese 
investment, but you provide no alternative. And so in 
particular, you have a new president coming in who needs to 
address this. There is money available there from a third 
country even if it comes with a lot of strings attached. And 
there has not been in the past a feeling that the U.S. or 
others have been able to step to the plate and fill the gap. So 
any role we can do in that regard--and you have touched on 
several of the impediments--is important, and I hope will 
become a centerpiece of your service there, if confirmed.
    Mr. Fitzpatrick, on the issue of Ecuador, they face one of 
the biggest fiscal deficits in all the region. I think it is 
about 6 percent of their gross domestic product at least a 
couple of years ago. And they are now undergoing, under 
President Moreno, efforts to sort of open up the economy and to 
seek more private investment. They have announced they are 
going to privatize a number of their state companies. He is 
also promoting public-private partnerships for government 
projects, all this hoping to generate $1.5 billion to $2 
billion to investment in infrastructure and telecommunications 
and things of this nature.
    What is, in your view, the primary obstacles to investment 
right now in Ecuador?
    Mr. Fitzpatrick. Sir, I think some of the primary obstacles 
for American investors in particular is assureties about--well, 
first of all, import restrictions, but more broadly, assureties 
about getting a fair shake.
    You and Mr. Johnson were just discussing the role of China. 
Of course, China has been a major player in Ecuador in recent 
years. The Ecuadorians have also discovered the potential of a 
debt trap with China, but they have also discovered as well, as 
was suggested, that the Chinese do not always play well in 
terms of labor rights, recognition of environmental rules in 
order they play fair in terms necessarily of transparency on 
loans and investments.
    I believe the United States and the American private 
sector, when they are presented a fair playing field, they can 
compete and compete strongly and well. And it is our job in the 
State Department in particular to go bat for American 
companies, to go bat for the American private sector, and to 
ensure that they get a fair and transparent hearing. And when 
there are indications that they are not and that they are not 
able to compete competitively and free and fairly, whether 
publicly or privately, we take the issues up, as appropriate, 
with the government.
    Senator Rubio. And then one more point on the history of 
Ecuador. They seemed to have gotten hit twice now. First, a 50-
some odd year, 40-some odd year--I guess 52-53-year--conflicts 
inside of Colombia had a huge spillover effect for them and 
continue to this day as recently as, I guess, a year ago or so. 
There was the abduction of the journalist--the two Ecuadorian 
journalists, and then they were later killed. But obviously, 
now the spillover effect of Venezuela, a different figure, 
between 150,000 and 200,000. We have seen sort of that produce 
a local reaction already of some societal pressures within 
Ecuador as any country would have of this size when assuming so 
many people at once.
    What is your understanding of what can be done to help, 
obviously, I think it brings to light the reality of the 
Venezuela conflict is not just constrained to Venezuela. It has 
a regional impact.
    So the two-part question is what is the risk and the 
threats to Ecuador if in fact that situation in Venezuela 
remains unresolved and actually is exacerbated? Say another 2 
million people were to leave as the U.N. projects in the next 
year or more, and some percentage of those wind up in Ecuador. 
What would be the impact to Ecuador?
    And second, what does Ecuador need now, given all the other 
challenges they are facing with the debt and so forth? What can 
we do to be of assistance to them?
    So the two-part, what would be the impact if Venezuela is 
not resolved and 2 million more people leave, and what can we 
do to help them with their current challenges?
    Mr. Fitzpatrick. Thank you, Senator. You are quite right to 
be concerned about the potential impact.
    Ecuador historically has been very open to international 
migration through its country--to its country and through its 
country. Currently only about a dozen countries in the world--
citizens of a dozen countries are required visas even to travel 
to Ecuador. So they are very pro-migration, if you will, 
internationally.
    That said, I have heard the numbers from the U.N. lately, 
as many as 220,000 currently in Ecuador. Obviously, that fluxes 
over time. But I think you are right that the numbers are only 
likely to increase as the situation in Venezuela gets worse.
    There have been some unfortunate recent incidents in 
Ecuador of xenophobia and some criminality. It is important 
that Ecuadorians I believe continue their openness and 
welcoming of Venezuelans and other migrants as they have so 
ably and capably welcomed Colombians for so many years, as you 
said, fleeing violence next door. But there is no doubt that 
given the current situation, economic situation, it is 
increasingly difficult for them.
    The United States has, therefore, stepped forward with 
increasing amounts of humanitarian assistance for Ecuadorian 
communities, as well as for the Colombians and Venezuelans that 
are now relocated to Ecuador. Currently it is about $20 million 
we have provided over the last 2 years. I would imagine as the 
situation gets worse in Venezuela, the need will only increase.
    So what they need now immediately is continued cooperation 
with all their regional partners. Ecuador is hosting a number 
of migratory conferences as the region tries to deal with the 
outflow from Venezuela. I think some technical assistance, the 
skills, the capabilities, the technologies that the United 
States can bring to bear would be of help to them.
    Senator Rubio. I would just add the Ecuadorian embassy has 
told us the number is as high as 280,000. So we started at 
150,000. It has climbed to 280,000 in the short time we started 
this. Nonetheless, it is a very significant burden for a 
country of the size. And by the way, this is not over a 20-year 
period. This is over a 3 or 4-year period.
    So I think it just calls to mind, in the case of Ecuador, 
here we have a new president who has sort of realigned the 
nation's foreign policy and practices to be friendlier towards 
the United States and their neighbors in the region, but whose 
success is threatened by both the preexisting debt issue, which 
at some point they may need to have to go to outside finance to 
sort of deal with, and secondarily, with this neighboring 
crisis, which continues to escalate with an unpredictable 
future ahead.
    And I just think it, once again, touches on the point that 
one of the best things that we could do to help Ecuador, as 
well as Colombia and other countries in the region, is do all 
we can to be supportive of a democratic transition that brings 
stability to Venezuela and takes away this crisis, which 
extends beyond Venezuela and actually threatens to severely 
harm, if not collapse, the success of the region because 
whether it is Ecuador or whether it is Colombia or Peru, these 
are important anti-drug partners as well whose ability to 
commit resources to that is constrained even further by the 
influx of this crisis.
    So it is complex but it is an important issue that I think 
bears to mind why this is really a regional crisis and not a 
localized one.
    I tell all of our nominees that the shorter the hearing, 
the better the news is for both of you. Usually people that are 
going to have some problems have a lot of people show up and 
ask a lot of questions, and the crowd is full and the cameras 
are here. If I were ever nominated for something, the less 
people that are there and the less questions you are asked, the 
better sign it is. That has at least been the history. Anything 
can happen. But I think you both have done very well today, and 
I appreciate both of you coming and giving us the time and your 
willingness to continue to serve.
    The record of this hearing is going to remain open for 
another 48 hours. So it is possible written questions may be 
submitted, and I hope we can get those answered if the are 
submitted--questions for the record--quickly so we can expedite 
this and see when the chairman sets up our next steps.
    But, again, thank you both for being here and your 
families.
    And with that, this hearing is adjourned.


    [Whereupon, at 11:10 a.m., the hearing was adjourned.]

                              ----------                              

              Additional Material Submitted for the Record

                              ----------                              


            Responses to Additional Questions for the Record
         Submitted to Ronald Johnson by Senator Robert Menendez

TPS for El Salvador
    On July 7, 2017, the U.S. Embassy in El Salvador sent an 
unclassified cable numbered San Salvador 860, with recommendations 
regarding Temporary Protected Status for El Salvadorans. The cable 
warned that the government of El Salvador lacked the capacity to 
guarantee the safety of more than 195,000 TPS beneficiaries or their 
217,000 U.S.-citizen children, and that they would be vulnerable to 
gang recruitment, as a result. The cable also stated that repatriating 
so many people could accelerate unauthorized immigration to the U.S., 
and concluded that it is in the U.S. national interest to extend the 
TPS designation for El Salvador. In the end, we know the Trump 
administration ignored these assessments and tried to end TPS anyway. 
If confirmed, at some point it will be your responsibility to write a 
similar cable.

    Question.  Do you believe the government of El Salvador has the 
capacity to guarantee the safety of the more than 195,000 TPS 
beneficiaries and their 217,000 U.S. citizen children?

    Answer. The Department of Homeland Security provided a delayed 
effective date of 18 months for El Salvador to permit an orderly 
transition both for those individuals returning home and for the 
government. My understanding is the phase-out period will provide TPS 
beneficiaries time to arrange for their departure and the government of 
El Salvador time to prepare for the reception and reintegration of 
their citizens. It is also my understanding that the administration is 
expending significant time and effort working with the government of El 
Salvador and the other Northern Triangle governments to address the 
security and prosperity of Salvadorans and others in the region. I also 
understand that the U.S. Embassy in El Salvador has met with host 
government counterparts to encourage further development of programs 
and services that can facilitate the successful reintegration of their 
nationals, including TPS returnees. If confirmed, I will continue to 
work closely with the government of El Salvador to strengthen its 
ability to safely and successfully reintegrate their returning 
nationals and support its security and prosperity-focused efforts.

    Question.  Do you believe repatriated TPS beneficiaries and their 
U.S. citizen children would be vulnerable to gang recruitment in El 
Salvador?

    Answer. I am concerned with the security situation posed by gangs 
in El Salvador, including gang recruitment of minors. I understand the 
U.S. government has hosted immigration workshops in El Salvador to 
explore challenges and best practices in reintegration. I also 
understand that the U.S. Embassy in El Salvador has met with host 
government counterparts to encourage further development of programs 
and services that can facilitate the successful reintegration of their 
nationals, including TPS returnees. If confirmed, I will continue to 
work with the government of El Salvador to strengthen its ability to 
safely and successfully reintegrate their returning nationals and 
ensure the U.S. Embassy is able to assist U.S. citizens, including 
minor children.

    Question.  Do you agree that the destabilizing impact of 
repatriating hundreds of thousands of people to El Salvador could 
accelerate unauthorized immigration to the U.S.?

    Answer. I understand that the multi-year U.S. Strategy for Central 
America seeks to address the underlying economic, security, and 
governance challenges that contribute to illegal immigration. I also 
understand that the U.S. Embassy in El Salvador has met with host 
government counterparts to encourage further development of programs 
and services that can facilitate the successful reintegration of their 
nationals, including TPS returnees. If confirmed, I will work to 
redouble the efforts to strengthen El Salvador's ability to reintegrate 
all returning nationals, including TPS returnees.

    Question.  Do you believe that repatriating hundreds of thousands 
of people to El Salvador could have the collateral impact of 
undermining our bilateral cooperation with the Salvadoran government?

    Answer. A secure and stable Central America contributes to a safer 
and more prosperous United States by addressing the security, 
governance, and economic drivers of illegal immigration in Central 
America. If confirmed, I will continue to advance the Department's work 
with the government of El Salvador to advance these objectives. I 
understand the U.S. Embassy in El Salvador has met with host government 
counterparts to encourage further development of programs and services 
that can facilitate the successful reintegration of their nationals, 
including TPS returnees. If confirmed, I will continue to work with the 
government of El Salvador to strengthen its ability to safely and 
successfully reintegrate and provide for its nationals, including TPS 
returnees.

    Question.  Do you believe it is in the U.S. national interest to 
extend the TPS designation for El Salvador?

    Answer. A secure and prosperous Central America contributes to a 
safer and more prosperous United States by addressing the security, 
governance, and economic drivers of illegal immigration in Central 
America. If confirmed, I will continue to work with the government of 
El Salvador to strengthen its ability to safely and successfully 
reintegrate and provide for its nationals, including TPS returnees.

Taiwan
    Question.  El Salvador cut its ties to Taiwan and established 
sovereign relations with China on August 21 of last year, reducing the 
number of countries that still recognize Taiwan to 17. This change was 
directly related to growing Chinese influence in the Western 
Hemisphere.

  What are the prospects for President-elect Nayib Bukele reversing 
        El Salvador's recognition of Taiwan?

    Answer. I have not had the chance to meet President-elect Nayib 
Bukele and am not able at this time to assess the likelihood of his 
reversing El Salvador's recognition of Taiwan.

    Question.  What do you think are the prospects for limiting Chinese 
influence in El Salvador, and.

    Answer. We encourage Latin American leaders to choose high quality, 
transparent, inclusive, and sustainable foreign investment, and we want 
to ensure development financing does not result in unsustainable debt. 
When evaluating types of partnerships and investment relationships, 
Latin American leaders must ensure they are getting the best deal for 
their country and their people over the long term.
    It is my understanding that the U.S. Mission San Salvador has 
focused on promoting transparency for government decision-making with 
regard to all foreign investments and has been successful in raising 
public awareness of the risks connected with corrupt investment 
practices and excessive debt. If confirmed I would be a strong advocate 
for investments that are transparent, commercially motivated, private 
sector-led, and that respect national sovereignty and apply best 
international practices. If these practices are followed, the 
government of El Salvador will be able to make decisions that benefit 
the Salvadoran people and consider the interests of key partners such 
as the United States.

Weak Rule of Law/Governance Driving Migration
    Question.  It is widely understood that poor security conditions 
and high levels of violence are drivers of migration in Central 
America, but weak rule of law, corruption, and the lack of democratic 
governance also contribute to increased migration. I would like to ask 
how U.S. policy could support the fight against corruption, strengthen 
the rule of law, and ultimately support Salvadoran efforts to create 
stable and durable democratic governance.

   What is your assessment about how weak rule of law and a lack of 
        democratic governance drive migration?

    Answer. I understand pervasive corruption, impunity, weak 
institutions, and lack of transparency erode prosperity and undermine 
security in El Salvador. These conditions allow for permissive 
environments in which transnational criminal organizations thrive. 
Corruption strains a government's ability to address complex security, 
economic, and governance challenges--the interrelated root causes that 
drive illegal immigration toward the United States. Improving 
democratic governance, strengthening institutions and the rule of law, 
and tackling corruption and impunity are among the most urgent 
challenges that countries like El Salvador face. If confirmed, I will 
underscore in my engagement with the Salvadoran government the 
importance of its collective action in the fight against corruption.

    Question.  What is your assessment of the challenges to democratic 
governance faced by El Salvador today? Where would you place anti-
corruption efforts as a priority in El Salvador?

    Answer. I understand corruption in El Salvador is a significant 
problem and is a drag on the economy, weakens government institutions, 
hampers the fight against narcotics trafficking and insecurity, and 
contributes to illegal migration flows. The successful prosecution of 
former President Saca for corruption by former Attorney General 
Melendez indicates that parts of the government of El Salvador are 
committed to fighting corruption and building strong democratic 
institutions. There is much more yet to be done. The U.S. Strategy for 
Central America aims to secure U.S. borders and protect U.S. citizens 
by addressing the interrelated security, governance, and economic 
challenges that drive illegal immigration and illicit trafficking. The 
U.S. government supports the fight against corruption by helping to 
strengthen government institutions by mentoring prosecutors, training 
law enforcement, and providing other technical assistance. If 
confirmed, I will continue to prioritize U.S. government efforts to 
combat corruption and impunity in El Salvador.

    Question.  Do you see a role for the U.S. in supporting anti-
corruption efforts, and efforts to strengthen the rule of law? What 
tools do you think you would need to further this effort?

    Answer. I understand the United States has consistently supported 
El Salvador's current and former attorneys general in their efforts to 
tackle corruption and prosecute high-level officials for their crimes. 
If confirmed, I will continue to support the U.S. government's efforts 
to provide training and assistance to Salvadoran institutions to 
strengthen the rule of law. My understanding is U.S. assistance seeks 
to support more effective, transparent, and accountable judicial 
institutions; combat corruption and impunity; promote accountability; 
uphold the rule of law; and increase access to justice. If confirmed, I 
will continue to support these efforts to build upon U.S. support for 
good governance and anticorruption efforts in El Salvador.

International Commission Against Impunity
    Question. During El Salvador's recent presidential campaign, one of 
President-elect Nayib Bukele's most popular campaign proposals was that 
he would set up an internationally-supported commission against 
impunity to work with El Salvador's attorney general on investigating 
and prosecuting some of the politically thorniest corruption cases. 
Similar commissions in Guatemala and Honduras have made real progress, 
despite some difficulties.

   Do you believe that El Salvador faces challenges with 
        accountability and impunity?

    Answer. I understand pervasive corruption, impunity, weak 
institutions, and lack of transparency erode prosperity and undermine 
security in El Salvador. These conditions allow for permissive 
environments in which transnational criminal organizations thrive. 
Corruption strains a state's ability to address complex security, 
economic, and governance challenges--the interrelated root causes that 
drive illegal immigration toward the United States. I understand 
improving democratic governance, strengthening institutions and the 
rule of law, and tackling corruption and impunity are among the most 
urgent challenges that El Salvador faces. If confirmed, I will 
underscore in my engagement with all branches of the Salvadoran 
government the importance of their collective action in the fight 
against corruption and commit to supporting its efforts to do so.

    Question.  Will you support President-elect Bukele's proposal to 
create an internationally-backed commission to help investigate and 
prosecute cases?

    Answer. I understand President-elect Bukele expressed a desire to 
form an independent anticorruption commission. While it is up to the 
Salvadoran people and their leaders to decide what is best for their 
country, it is essential any anti-corruption efforts build on El 
Salvador's progress to-date in combatting corruption and impunity.
    If confirmed, I will continue U.S. support for the Salvadoran 
government's efforts to strengthen its institutions to fight corruption 
and impunity and will look forward to assessing all available options 
related to these priorities to ensure the U.S. can support most 
effectively to achieve measurable results.

Collaboration with Attorney General
    Question.  El Salvador's legislative assembly elected a new 
Attorney General just last December, replacing Douglas Melendez, a 
proven and brave prosecutor who led several important investigations to 
uphold accountability and the rule of law.

  Do you believe that El Salvador faces challenges with 
        accountability and impunity?

    Answer. I understand the United States has consistently supported 
El Salvador's current and former Attorneys General in their efforts to 
tackle corruption and prosecute high-level officials for their crimes. 
I also understand that the Current Attorney General, Raul Melara, has 
made clear his commitment to partnering with the United States 
government to address corruption in El Salvador. If confirmed, I will 
continue to support Mission San Salvador's efforts to provide training 
and assistance to Salvadoran institutions working to strengthen the 
rule of law, including the Attorney General's office.

    Question.  Will you support President-elect Bukele's proposal to 
create an internationally-backed commission to help investigate and 
prosecute cases?

    Answer. U.S. assistance seeks to support more effective, 
transparent, and accountable judicial institutions; combat corruption 
and impunity; promote accountability; uphold the rule of law; and 
increase access to justice. These efforts seek to build on the recent 
Salvadoran successes to combat impunity and transnational organized 
crime. If confirmed, I will continue to support these and other efforts 
to build upon U.S. support for good governance and anticorruption 
efforts in El Salvador.

Promoting the Rule of Law
    Question.  The recently-approved foreign assistance appropriation 
for FY19 includes a section on Central America and is relevant for El 
Salvador. As the nominee for Ambassador, I want to make sure that you 
are comfortable with it. The language makes clear that we will continue 
to provide assistance to El Salvador to help it build democratic 
institutions and fight corruption, and that if the government in San 
Salvador is not seriously committed to these goals, we will not waste 
U.S. taxpayer dollars and will look to move that money elsewhere.

  Can you tell the committee what evidence you will be looking for 
        that the Salvadoran government is serious about fighting 
        corruption and improving the performance of the judiciary, the 
        Attorney General's office, and the police?

    Answer. A lack of transparency, corruption, weak institutions, and 
high impunity rates pose significant obstacles to advancing human 
rights, civil society and democracy in El Salvador. Addressing these 
issues is essential to effectively combat transnational organized 
crime, and will require sustained support and commitment by both the 
government and the people of El Salvador. If confirmed, I will continue 
the U.S. government's efforts to develop trusted and capable judicial 
institutions. Specifically, I would plan to continue to support the 
Salvadoran Attorney General in efforts to combat corruption and 
criminality and strengthen the capacity of his office and other justice 
sector entities.
    U.S. assistance has enabled El Salvador to conduct more complex 
investigations and become trusted partners of U.S. law enforcement. It 
is my understanding that Salvadoran institutions can now deliver high-
impact results due to U.S. support, such as the successful prosecution 
of former President Saca for corruption. A continuation of high-impact 
investigations and prosecutions would send a strong signal to the 
Salvadoran people that their institutions of government will combat 
corruption.

MS-13
    Question.  The administration has focused a great deal of time and 
media attention on MS-13, and while there is no doubt that MS-13 is an 
important and dangerous actor contributing to crime and violence in El 
Salvador, the government has engaged in iron-fisted anti-gang efforts 
that can prove counterproductive. El Salvador has one of the region's 
largest prison overpopulation rates, and neighborhood sweeps result in 
the imprisonment of scores of young men and women, often without 
criminal charges. By some estimates, 50% of prisoners in El Salvador 
have not been charged with any crime, and these prisoners can wait as 
long as two years for release. Moreover, during those two years they 
are forced to live in inhumane and dangerous conditions in which they 
are forced to join prison gangs simply to survive. As a result, many 
are innocent when they enter prison, but find themselves deeply 
integrated into criminal life upon their release.

  What can the U.S. do to encourage a new approach to Salvador's gang 
        problems?

    Answer. Gang violence and criminality, such as extortion, undermine 
the security of El Salvador and have led to a large prison population. 
El Salvador also continues to face serious human rights challenges and 
the Department, through INL and USAID, is working to help Salvadoran 
authorities develop a professional, credible, and effective judicial 
system to address corruption, uphold the rule of law, and respect human 
rights. The United States works to encourage and assist the Salvadoran 
government with institutional reforms that will equip police and 
justice entities, including the prisons, to effectively investigate, 
prosecute, and hold accountable individuals and organizations, 
including gang members, that break Salvadoran law. If confirmed, I look 
forward to working with the new administration in El Salvador to 
discuss the best way forward on this complex issue to ensure human 
rights and the rule of law are upheld while we tackle gang violence and 
other pressing security issues.

    Question.  USAID supports gang prevention and reduction programs, 
and there is evidence that these programs have an impact. Will you 
continue to support these programs?

    Answer. It is my understanding that the U.S. Mission in El Salvador 
is working with the government of El Salvador to institutionalize 
proven prevention programs,. If confirmed, I would work to support gang 
prevention and reduction programs and build the evidence-base for what 
works in reducing crime and violence in this region, partnering with 
U.S.-based organizations that have proven experience addressing these 
types of challenges in gang-ridden cities like Los Angeles and Chicago.

Migration

    Question.  Salvadorans are leaving their country in very high 
numbers, and it's not just single men looking for work. We are seeing, 
at our border, a lot of families with children, sometimes children 
without their parents.

   Can you give us your assessment of why so many people are leaving, 
        and what can be done to address the conditions--like gang crime 
        and domestic violence--that contribute to this?

    Answer. I understand many Salvadoran citizens continue to undertake 
dangerous and illegal journeys to reach the United States often citing 
insecurity, limited economic opportunities, and a desire for a better 
future as among the reasons why they left El Salvador. I also 
understand the U.S. government, as a part of the multi-year U.S. 
Strategy for Central America, seeks to assist Central American 
governments as they work to address the underlying economic, security, 
and governance conditions that drive illegal immigration. If confirmed, 
I will continue to prioritize diplomatic engagement and foreign 
assistance programs that can help address the drivers of illegal 
immigration.

Democracy
    Question.  What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Throughout my over four decades of service to the United 
States, I have supported and defended freedom, democracy, strong rule 
of law, and the promotion of human rights and individual liberty around 
the world, engaging with foreign leaders and citizens in Latin America 
and the Middle East. As a military officer, I was responsible for 
promoting respect for democracy and human rights in interactions with 
foreign personnel and for reporting to my chain of command any known or 
suspected violations. Throughout my government service, I have held 
numerous leadership positions that required me to teach formal classes 
to both U.S. and foreign personnel on human rights, and I have advised 
and mentored foreign partners on the importance of gaining the support 
of the local population by treating them with respect and fairness. 
Most recently, as an advisor to senior military commanders, I briefed 
them on human rights allegations to help them prioritize the protection 
of human rights as a key component of their interactions with foreign 
leaders and organizations.

    Question.  What issues are the most pressing challenges to 
democracy or democratic development in El Salvador? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. A lack of transparency and government accountability, 
endemic corruption, weak institutions, violations of human rights, and 
high impunity rates are among most pressing challenges to democracy in 
El Salvador.

    Question.  What steps will you take--if confirmed--to support 
democracy in El Salvador? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. I believe it is essential for the United States to work 
with civil society, business communities, journalists, religious 
leaders, and academic institutions in El Salvador to address these 
challenges to democracy. If confirmed, I will continue to provide 
strong support for the important efforts of the Salvadoran Attorney 
General to combat corruption, impunity, and criminality; build judicial 
institutions; strengthen the rule of law; and hold government and 
security leaders accountable to the Salvadoran people for violations of 
the law.
    It is my understanding that the Attorney General's office does not 
have adequate resources to investigate complicated financial crimes to 
investigate high-level corruption and the National Civilian Police 
needs more training and additional resources. If confirmed, I will work 
to prioritize U.S. government support to address these challenges.

    Question.  How will you utilize U.S. government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. U.S. foreign assistance to El Salvador supports the U.S. 
Strategy for Central America, which includes security, economic 
opportunity, and governance objectives. I understand U.S. government 
support has enabled Salvadoran law enforcement to conduct complex 
investigations and become better partners for U.S. law enforcement to 
more effectively fight crime and tackle gang violence, especially 
related to MS-13. Additionally, U.S. assistance combats gang violence 
by strengthening the capacity of Salvadoran law enforcement and the 
justice sector through a three-pronged approach of community 
engagement, institutional reform, and increased information-sharing.If 
confirmed, I will work to build the capacity of Salvadoran law 
enforcement institutions, increase information-sharing to fight crime 
and gang violence, and support the National Civil Police's (PNC) 
efforts to provide for greater security and the protection of human 
rights for the Salvadoran people.

    Question.  If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in El Salvador? What steps will you take to pro-actively 
address efforts to restrict or penalize NGOs and civil society via 
legal or regulatory measures?

    Answer. Yes, I commit to meeting with civil society members, human 
rights and other non-governmental organizations in the United States, 
with local human rights NGOs, and other members of civil society in El 
Salvador I also commit to address with the Salvadoran government any 
restrictions on the fundamental freedoms and rights of civil society to 
advocate with their government.

    Question.  If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes, if confirmed, I commit to meet with democratically-
oriented political opposition figures and parties and encourage genuine 
political competition as part of strengthening democratic institutions 
and governance in El Salvador. I will advocate for the rights of women, 
minorities, and youth to engage in the democratic process.As 
demonstrated by the recent presidential election in which outsider 
Nayib Bukele won a competitive multiparty race, El Salvador has a 
functioning democracy and Salvadorans value their democratic system. If 
confirmed, I will be a strong advocate for the rule of law and human 
rights that are the foundation of the democratic system. Where 
appropriate, I would support election monitoring. I would speak 
publicly in favor of free and fair elections and I would encourage the 
investigation and prosecution of criminal attempts to violate the 
integrity of elections.

    Question.  Will you and your embassy team actively engage with El 
Salvador on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in El Salvador?

    Answer. Yes, if confirmed, I will work with the U.S. Mission in El 
Salvador to actively engage with the government of El Salvador on 
freedom of the press and address any government efforts designed to 
control or undermine press freedom through legal, regulatory or other 
measures. I also commit to meeting regularly with independent, local 
press in El Salvador.

    Question.  Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes, if confirmed, I will work with the U.S. Mission in El 
Salvador to actively engage with civil society and government 
counterparts on countering disinformation and propaganda disseminated 
by foreign state or non-state actors in the country.

    Question.  Will you and your embassy teams actively engage with El 
Salvador on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I will work with the U.S. Embassy in El 
Salvador and actively engage with the government of El Salvador on the 
right of labor groups to organize, including for independent trade 
unions.

    Question.  Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in El Salvador, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in El Salvador? What specifically will you commit to do to help LGBTQ 
people in El Salvador?

    Answer. If confirmed, I commit to using my position to advance U.S. 
interests and values and defend the human rights and dignity of all 
people in El Salvador, regardless of sexual orientation or gender 
identity.
    It is my understanding that lesbian, gay, bisexual, transgender and 
queer (LGBTQ) people in El Salvador face discrimination, 
marginalization, and violence directed against them. If confirmed, I 
will set an example for all mission personnel and for the government 
and people of El Salvador in respecting the dignity, value, and 
equality of all persons. .I would also encourage the government of El 
Salvador to investigate and prosecute all crimes committed, including 
those against marginalized populations, to ultimately prevent impunity 
and strengthen the rule of law and access to justice for all people.

Administrative
    Question.  Do you agree that any targeting of or retaliation 
against career employees based on their perceived political beliefs, 
prior work on policy, or affiliation with a previous administration, is 
wholly inappropriate and has no place in the federal government? If 
confirmed, what will you do to ensure that all employees under your 
leadership understand that any retaliation, blacklisting, or other 
prohibited personnel practices will not be tolerated?

    Answer. Yes, I agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government. Department 
employees, like all federal employees, are subject to restrictions on 
engaging in partisan political activity while at work and outside of 
work. If confirmed, I will ensure that prohibited personnel practices, 
including retaliation and blacklisting, will not be tolerated under my 
leadership and that all employees understand and are in strict 
compliance with federal statutes, the Hatch Act, Department policy, and 
federal ethics laws concerning political beliefs or previous work on 
policy or affiliation with a previous administration.

    Question.  Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No.

    Question.  Have you ever addressed concerns or allegations of 
sexual harassment, discrimination (e.g., racial, ethnic, religious, 
etc.), or inappropriate conduct made against any employee over whom you 
had supervisory authority? If so, please describe the outcome and 
actions taken.

    Answer. No.

                               __________


            Responses to Additional Questions for the Record
       Submitted to Ronald Johnson by Senator Benjamin L. Cardin

    Question.  What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. Throughout my over four decades of service to the United 
States, I have supported and defended freedom, democracy, strong rule 
of law, and the promotion of human rights and individual liberty around 
the world, engaging with foreign leaders and citizens in Latin America 
and the Middle East. As a military officer, I was personally 
responsible for promoting the respect for democracy and human rights in 
interactions with foreign personnel and for reporting to my chain of 
command any known or suspected violations. Throughout my government 
service, I have held numerous leadership positions that required me to 
teach formal classes to both U.S. and foreign personnel on human 
rights, and I have advised and mentored foreign partners on the 
importance of gaining the support of the local population by treating 
them with respect and fairness. Most recently, as an advisor to senior 
military commanders, I briefed them on human rights violation 
allegations against foreign leaders and organizations to help them 
prioritize the protection of human rights as a key component of their 
interactions with foreign leaders and organizations.

    Question.  What are the most pressing human rights issues in El 
Salvador? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in El Salvador? What 
do you hope to accomplish through these actions?

    Answer. I believe the most pressing human rights issues in El 
Salvador come from organized criminal elements, including local and 
transnational gangs and narcotics traffickers. These individuals and 
entities commit violent crimes, including murder, extortion, 
kidnapping, and human trafficking, and they threaten and intimidate 
police, judicial authorities, the business community, journalists, 
women, and members of vulnerable populations. I also have serious 
concerns regarding allegations of unlawful killings, forced 
disappearances, torture at the hands of suspected gang members and 
security forces and harsh prison conditions, arbitrary arrest and 
detention, and children enslaved in horrific conditions of child labor 
If confirmed, I will work to support current U.S. efforts to address 
these issues, promote democratic governance and the rule of law, 
protect human rights, and partner with the Salvadoran Public Ministry 
and civil society to effectively combat corruption and impunity and 
achieve greater government transparency and accountability to 
Salvadoran citizens, fewer homicides and violent crimes, and less 
illegal migration to the U.S.

    Question.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in El Salvador in 
advancing human rights, civil society and democracy in general?

    Answer. A lack of transparency and government accountability, 
endemic corruption, weak institutions, and high impunity rates pose 
significant obstacles to advancing democracy, human rights, and the 
rule of law in El Salvador. I believe it is essential for the U.S. to 
work with civil society, business communities, journalists, religious 
leaders, and academic institutions in El Salvador to address these 
challenges. If confirmed, I will work to continue strong U.S. support 
for the important efforts of the Salvadoran Attorney General to combat 
corruption, impunity, and criminality; build judicial institutions; 
strengthen the rule of law; and hold government and security leaders 
accountable to the Salvadoran people for violations of the law.

    Question.  Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in El Salvador?

  If confirmed, what steps will you take to pro-actively support the 
        Leahy Law and similar efforts, and ensure that provisions of 
        U.S. security assistance and security cooperation activities 
        reinforce human rights?

    Answer. Yes, I am committed to and look forward to meeting with 
human rights, civil society, and other non-governmental organizations 
in the U.S. and with local human rights NGOs in El Salvador.
    If confirmed, in accordance with the Leahy law and all applicable 
legal requirements, I will work to continue U.S. efforts to thoroughly 
vet all foreign security force personnel and units prior to them 
receiving U.S. government--funded assistance. If information is found 
related to a gross violation of human rights, I will review and 
recommend appropriate actions be taken to ensure U.S. taxpayer dollars 
follow all applicable U.S. laws and work to assist the Salvadoran 
government in bringing the responsible parties to justice.

    Question.  Will you and your embassy team actively engage with El 
Salvador to address cases of key political prisoners or persons 
otherwise unjustly targeted by El Salvador?

    Answer. Yes, if confirmed, I will work with my embassy colleagues 
to actively engage with Salvadoran government officials to address 
cases of key political prisoners or persons otherwise unjustly targeted 
by the Salvadoran government, especially if they are U.S. citizens.

    Question.  Will you engage with El Salvador on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes, if confirmed, I will engage with the Salvadoran 
government and Salvadoran people on matters of human rights, civil 
rights, and democratic governance issues as part of our Mission's 
priorities.

    Question.  Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question.  Do you or do any members of your immediate family have 
any financial interests in El Salvador?

    Answer. No. Neither I, nor any members of my immediate family, have 
financial interests in El Salvador.

    Question.  Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I look forward to leading the team of U.S. 
and Salvadorian nationals at Embassy San Salvador and to tapping the 
unique and diverse talents each person brings to promote U.S. foreign 
policy objectives in El Salvador. At the State Department's core are 
its people. The Department is committed to fostering a workforce that 
reflects the diverse people it represents. Diversity not only enhances 
our effectiveness but also promotes a workplace culture that values the 
efforts of all members and enhances the professional experience of our 
valued public servants. The Department's diversity efforts are outlined 
in its 2016 Diversity and Inclusion Strategic Plan. If confirmed, I 
will prioritize a variety of training opportunities, mentoring, and 
career development programs to ensure employees have the skills 
necessary for current and future work assignments.

    Question.  What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. The State Department is committed to equal employment 
opportunity (EEO) and ensuring the Department's work environment is 
free from prohibited discrimination and harassment in all phases of 
employment--including hiring, evaluation, promotion, and training. This 
includes improving and enhancing mentorship programs, expanding 
outreach to managers who make hiring decisions, and encouraging 
collaboration with external partners. If confirmed, I will strongly 
communicate the Department's EEO policies in my mission and ensure they 
are followed. If confirmed, I will also take advantage of the variety 
of programs the Department offers to help supervisors work with a 
multicultural staff.

    Question.  If the Salvadoran president requests U.S. assistance in 
forming this commission, how can the U.S. support such an 
effort?Answer:

    Answer. The U.S. government supports the Salvadoran government's 
efforts to combat corruption and impunity. If confirmed, I commit to 
working to continue this close collaboration with President-elect Nayib 
Bukele and his government to further advance these priorities. I 
understand President-elect Bukele has expressed a desire to form an 
independent anticorruption commission to build on El Salvador's 
progress to-date in combatting corruption and impunity. If confirmed, I 
commit to continuing U.S. support for the Salvadoran government's 
efforts to strengthen its institutions to fight corruption and impunity 
and will look forward to assessing all available options related to 
these priorities to ensure the U.S. can support most effectively to 
achieve measurable results.

    Question.  How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in El Salvador 
specifically?

    Answer. I understand that pervasive corruption, impunity, weak 
institutions, and lack of transparency erode prosperity and undermine 
security in El Salvador. These conditions allow for permissive 
environments in which transnational criminal organizations thrive. 
Corruption strains a government's ability to address complex security, 
economic, and governance challenges--the interrelated root causes that 
drive illegal immigration toward the United States. Improving 
democratic governance, strengthening institutions and the rule of law, 
and tackling corruption and impunity are among the most urgent 
challenges that countries like El Salvador face. If confirmed, I will 
underscore in my engagement with the Salvadoran government the 
importance of its collective action in the fight against corruption.

    Question.  What is your assessment of corruption trends in El 
Salvador and efforts to address and reduce it by that government?

    Answer. I understand that corruption in El Salvador is a 
significant problem and is a drag on the economy, weakens government 
institutions, hampers the fight against narcotics trafficking and 
insecurity, and contributes to illegal migration flows. The successful 
prosecution of former President Saca for corruption by former Attorney 
General Melendez indicates that parts of the government of El Salvador 
are committed to fighting corruption and building strong democratic 
institutions. There is much more yet to be done. The U.S. Strategy for 
Central America aims to secure U.S. borders and protect U.S. citizens 
by addressing the interrelated security, governance, and economic 
challenges that drive illegal immigration and illicit trafficking. The 
U.S. government supports the fight against corruption by helping to 
strengthen government institutions by mentoring prosecutors, training 
law enforcement, and providing other technical assistance. If 
confirmed, I will continue to prioritize U.S. government efforts to 
combat corruption and impunity in El Salvador.

    Question.  If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in El Salvador?

    Answer. I understand the United States has consistently supported 
El Salvador's current and former attorneys general in their efforts to 
tackle corruption and prosecute high-level officials for their crimes. 
If confirmed, I will continue to support the U.S. government's efforts 
to provide training and assistance to Salvadoran institutions to 
strengthen the rule of law. My understanding is U.S. assistance seeks 
to support more effective, transparent, and accountable judicial 
institutions; combat corruption and impunity; promote accountability; 
uphold the rule of law; and increase access to justice. If confirmed, I 
will continue to support these efforts to build upon U.S. support for 
good governance and anticorruption efforts in El Salvador.

    Question.  If confirmed, will you commit to implementing all three 
pillars of the Strategy, including economic and governance efforts?

    Answer. If confirmed, I commit to working to support U.S. 
government assistance across all three pillars and furthering our 
diplomatic engagement with our Salvadoran partners. The U.S. Strategy 
for Central America is a comprehensive effort that takes a holistic 
approach to security, economic, and governance drivers of illegal 
immigration and illicit trafficking by enhancing regional economic 
opportunity, reducing insecurity and violence, and strengthening 
democratic institutions. Furthermore, U.S. assistance complements the 
$8.6 billion that Northern Triangle countries themselves are investing 
to address these goals.

    Question.  How can the U.S. assist El Salvador in tackling gang 
violence while still respecting human rights and the rule of law?

    Answer. U.S. government foreign assistance to El Salvador supports 
the U.S. Strategy for Central America, which includes both security and 
governance objectives. U.S. support has enabled Salvadoran law 
enforcement to conduct complex investigations and become better 
partners for U.S. law enforcement to more effectively fight crime and 
tackle gang violence, especially related to MS-13. Additionally, INL 
programs combat gang violence by strengthening the capacity of 
Salvadoran law enforcement and justice sector through community 
engagement, institutional reform, and increased information sharing. As 
a result of these efforts, the homicide rate in El Salvador was reduced 
by over 50 percent from 2015 to 2018, and greater information-sharing 
between Salvadoran, Guatemalan, Honduran, Mexican, and U.S. law 
enforcement entities has resulted in better identification of gang 
members, human smugglers, and drug traffickers. I believe that the U.S. 
needs to continue these efforts in building capacity of Salvadoran 
entities responsible for fighting crime and gang violence while also 
prioritizing clear protection for human rights and the rule of law.
    If confirmed, I will work to ensure U.S. efforts continue to build 
the capacity of Salvadoran law enforcement institutions, increase 
information sharing to fight crime and gang violence, and support the 
National Civil Police's (PNC) efforts to provide for greater security 
and the protection of human rights.

    Question.  Do you commit to reporting and addressing allegations of 
human rights abuses and extrajudicial killings by the Salvadoran 
security forces?

    Answer. If confirmed, I commit to reporting and addressing 
allegations of human rights abuses and extrajudicial killings by the 
Salvadoran security forces and to proactively supporting the Leahy law 
and all applicable legal requirements so that U.S. security assistance 
and security cooperation activities reinforce human rights. I also 
commit to supporting efforts by Salvadoran authorities to investigate 
and hold accountable those responsible for current and past human 
rights violations.

                               __________


            Responses to Additional Questions for the Record
       Submitted to Ronald Johnson by Senator Christopher Murphy

    Question.  Do you agree with the assessment that it's important for 
El Salvador to confront the crimes of the past, and will you be 
supportive of their doing so?

    Answer. Yes, it is important for El Salvador to continue to 
confront the crimes of the past and uphold adherence to the rule of 
law. I understand the U.S. government supports the efforts undertaken 
in El Salvador's judicial system to fairly and independently 
investigate, prosecute, and adjudicate historical war crimes and crimes 
against humanity, narco-trafficking, and corruption. The search for the 
disappeared and ongoing investigations and proceedings in El Salvador 
for historical atrocity crimes committed during the internal armed 
conflict can restore dignity to victims, inspire trust in state 
institutions, and serve as a positive example to countries around the 
world about how to address legacies of violence. If confirmed, I will 
underscore to the Salvadoran government the importance of ensuring 
accountability for crimes of the past through fair and independent 
proceedings and support the government's efforts to uphold the rule of 
law and bring about justice for victims.

    Question.  Do you believe El Salvador has major problems with 
corruption and impunity, and will you support President-elect Bukele's 
proposal to create an internationally backed commission to help 
investigate and prosecute cases?

    Answer. I understand that pervasive corruption, impunity, weak 
institutions, and lack of transparency erode prosperity and undermine 
security in El Salvador. These conditions allow for permissive 
environments in which transnational criminal organizations thrive. 
Corruption strains a state's ability to address complex security, 
economic, and governance challenges--the interrelated root causes that 
drive illegal immigration toward the United States. I understand that 
improving democratic governance, strengthening institutions and the 
rule of law, and tackling corruption and impunity are among the most 
urgent challenges that El Salvador faces. If confirmed, I will 
underscore in my engagement with all branches of the Salvadoran 
government the importance of their collective action in the fight 
against corruption and commit to supporting its efforts to do so.
    The successful prosecution of former President Saca for corruption 
by former Attorney General Melendez indicates that parts of the 
government of El Salvador are committed to fighting corruption and 
building strong government institutions. There is much more yet to be 
done. I understand that the U.S. government supports the Salvadoran 
government's efforts to combat corruption and impunity. If confirmed, I 
commit to working to continue this close collaboration with President-
elect Nayib Bukele and his government to further advance these 
priorities. I understand President-elect Bukele has expressed a desire 
to form an independent anticorruption commission to build on El 
Salvador's progress to-date in combatting corruption and impunity. If 
confirmed, I commit continuing U.S. support for the Salvadoran 
government's efforts to strengthen its institutions to fight corruption 
and impunity and will look forward to assessing all available options 
related to these priorities to ensure the U.S. can support most 
effectively to achieve measurable results.

    Question.  What should we be doing to improve their crime fighting 
strategies, and to ensure they are a strong effective institution that 
respects human rights?Answer:

    Answer. U.S. government foreign assistance to El Salvador supports 
the U.S. Strategy for Central America, which includes both security and 
governance objectives. U.S. support has enabled Salvadoran law 
enforcement to conduct complex investigations and become better 
partners for U.S. law enforcement to more effectively fight crime, 
especially related to MS-13 investigations. U.S. assistance has also 
strengthened information sharing between Salvadoran, Guatemalan, 
Honduran, Mexican, and U.S. law enforcement entities and resulted in 
better identification of gang members, human smugglers, and drug 
traffickers. I believe that the U.S. needs to continue these efforts in 
building the capacity of Salvadoran entities responsible for fighting 
crime while also prioritizing clear protection for human rights and the 
rule of law.
    If confirmed, I will work to ensure U.S. efforts continue to build 
the capacity of Salvadoran law enforcement institutions, increase 
information sharing to fight crime, and support the National Civil 
Police's efforts to provide for greater security and the protection of 
human rights.

    Question.  Will you support a continuing emphasis in our assistance 
programs on these kinds of community based violence prevention 
programs?

    Answer. Through INL and USAID, the United States provides 
comprehensive community-based violence-prevention programs. These 
programs seek to engage youth at-risk for migrating to the U.S. or 
joining gangs, build relationships between police and communities they 
serve, prevent crime recidivism, and support intelligence-led policing, 
thorough investigations, and professional prosecutions to achieve 
reductions in the rates of homicides and other crimes in El Salvador. 
If confirmed, I will work to support current U.S. efforts where I see 
measurable impact and results in the communities where we are working, 
including community-based violence-prevention programs to support U.S. 
interests in El Salvador.

                               __________


            Responses to Additional Questions for the Record
        Submitted to Ronald Johnson by Senator Edward J. Markey

    Question.  Civil society in El Salvador, international human rights 
organizations, and investigative journalists repeatedly have expressed 
concerns regarding excessive use of force by security officers, 
including in units that receive training from the United States:

  If confirmed, what concrete actions would you take or what changes 
        would you make to ensure that Salvadoran security forces uphold 
        human rights? What thresholds would you use to ascertain 
        whether that United States should continue to provide security 
        funding?

    Answer. El Salvador faces serious human rights challenges. I 
understand the Department of State is working to help the Salvadoran 
government develop a professional, credible, and effective police force 
that is free of corruption, upholds the rule of law, and respects human 
rights. If confirmed, I will be a strong advocate for human rights, 
police training and professionalization, and accountability. I would 
also report accurately on conditions on the ground and continue to 
support U.S. efforts to address human rights challenges by training the 
Salvadoran government, and partnering with civil society. I look 
forward to assessing all available options related to these priorities 
to ensure the U.S. can support effectively to achieve measurable 
results.
    I understand the State Department conducts Leahy vetting prior to 
providing assistance to police or security forces. If confirmed, I 
would continue to support the Leahy vetting program to ensure that any 
units or individuals that do not meet these standards or are unable to 
pass Leahy vetting lose eligibility to receive support from the United 
States.

    Question.  As part of U.S. support for combating corruption and 
impunity in Central America, the U.S. Embassy has worked closely with--
and provided increased levels of funding to--the Attorney General's 
office and yet, as you stated in your testimony, El Salvador has only 
an 11 percent prosecution rate. Civil society organizations in El 
Salvador have also documented repeated occasions on which the Attorney 
General's office has protected members of the right-wing ARENA party 
from investigation and prosecution:

   With a new Attorney General who has close ties to the ARENA party, 
        what role should the U.S. Embassy play with regard to ensuring 
        that justice is carried out effectively and evenly in El 
        Salvador? What specific programs and policies should the U.S. 
        promote in order to improve the justice system?

    Answer. Former Attorney General Melendez, with U.S. assistance, 
made great strides in the fight against corruption, including the 
prosecution of former President Saca and former Attorney General 
Martinez for corruption. Current Attorney General Melara just took 
office in January and has expressed his desire to partner with the 
United States government to address corruption in El Salvador. It is 
critical that the United States continue to support the strengthening 
of the Attorney General's Office as an institution. The Attorney 
General's office needs resources and technical skills to continue 
building its investigative capacity to prosecute financial 
crimes.Transparency in government operations and tenders is essential 
to improving the justice system, thus making impunity impossible. If 
confirmed, I would work to continue the U.S. Embassy's efforts to 
advocate for fairness and transparency in government processes in El 
Salvador.
    The Salvadoran people have grown impatient with the lack of 
progress against corruption, and on February 3, 2019, the Salvadoran 
people elected Nayib Bukele who ran on an anti-corruption platform. 
Bukele has expressed a strong interest in cooperating with U.S. anti-
corruption efforts. The United States is currently supporting 
anticorruption efforts through both USAID and INL programs, including 
cooperating with U.N. Office on Drugs and Crime (UNODC) efforts to 
stand up an anti-corruption unit in the Attorney General's office. If 
confirmed, I would work to continue strong support to address 
corruption and impunity challenges in El Salvador.

    Question.  In October 2018, a district court judge issued a 
preliminary injunction to prevent the federal government from 
terminating temporary protected status for several countries, including 
El Salvador. The order granting the injunction states, ``terminating 
TPS status may have adverse ramifications internationally.'' The judge 
points to an October 2017 memo by the Assistant Secretary for 
International Affairs in OP&S, which warns, ``returning aliens to 
[Nicaragua and El Salvador] would put a strain on these countries' 
systems:''

   Do you believe that El Salvador is prepared to repatriate its 
        nationals? Do you agree that the return of its nationals would 
        put a strain on El Salvador's systems? What types of obstacles 
        and consequences may occur?

    Answer. If confirmed, as with all issues pertaining to our 
relationship with El Salvador, I commit to report accurately on the 
conditions on the ground, including its ability to receive its 
nationals. I understand that the U.S. Embassy in El Salvador has met 
with host government counterparts to encourage further development of 
programs and services that can facilitate the successful reintegration 
of their nationals, including TPS returnees. If confirmed, I will 
continue to work with the government of El Salvador to strengthen its 
ability to safely and successfully reintegrate and provide for its 
nationals, including TPS returnees, as well as to ensure the U.S. 
Embassy in El Salvador is able to assist U.S. citizens, including minor 
children, who may accompany TPS returnees.

    Question.  You stated in your testimony that you were in El 
Salvador in 1984 with the U.S. Armed Forces. How would you evaluate 
U.S. policy in El Salvador at that time in terms of its successes and 
failures? What lessons from that era can we apply to our contemporary 
bilateral relations?

    Answer. As a military officer, I was personally responsible for 
demonstrating respect for human rights in all interactions with foreign 
personnel and for reporting any known or suspected violations during my 
service in El Salvador. Throughout my over four decades of service of 
the United States, I have supported and defended democracy around the 
world, engaging with foreign leaders and populations to highlight the 
virtues of democracy and a rules-based system without impunity. The 
United States is the example that many seek to emulate and it is 
important for us to remain engaged and to ensure that we set the right 
example and demonstrate American values in everything we do.
    During my career, I observed that when U.S. assistance is linked to 
demonstrable and verifiable progress, we can make a lasting impact. 
When we do not measure results, results are ephemeral at best. In El 
Salvador, the United States played a key role in the 1992 peace accords 
that led to a democratic society. Since then, El Salvador has had six 
peaceful transitions of power, including the ongoing transition to 
President-elect Nayib Bukele who won a competitive multiparty race on 
February 3, 2019. Our persistent and constructive engagement in El 
Salvador eventually helped create the basis for peace. The huge loss of 
human life during the civil war has hindered development in El Salvador 
to this day and explains much of the country's security and economic 
problems. However, I believe the country is now on the verge of 
compounding the slow progress it has been making and is ready to move 
forward rapidly to address its security, prosperity, and governance 
challenges. President-elect Nayib Bukele has asked for continued 
engagement and support from the United States and has stated his desire 
to be a model small-nation partner with the United States. We should 
constructively embrace his offer, remain engaged, and, above all, 
continue to live and represent our values in El Salvador.

                               __________



            Responses to Additional Questions for the Record
      Submitted to Michael Fitzpatrick by Senator Robert Menendez

    Question.  What does the magnitude of this financial package say 
about the scope of the economic challenges that President Moreno 
inherited from his predecessor?

    Answer. The IMF fiscal package of $4.2 billion, together with 
approximately $6 billion from other international financial 
institutions, offers the Ecuadorian government low-cost finance and 
expert advice on how to reorient the Ecuadorian economy toward a 
market-led model. The Moreno government has exerted significant efforts 
to resolve legacy issues, including debts, left by the Correa 
administration. Public spending is unsustainable, with persistent 
public deficits. Heavy tax burdens, complex bureaucracy, and inflexible 
labor laws constrain growth.
    To respond to these challenges, President Moreno and his economic 
team adopted an economic plan (Plan Prosperidad) that focuses on 
reducing government spending and financing the government in a fiscally 
responsible manner while promoting economic growth and increasing 
support for social programs.
    If confirmed, I will work to support to the Moreno government's 
efforts as they seek to address these economic challenges.

    Question.  What is your assessment of the Moreno government's 
ability to successfully manage and implement this major financial 
package?

    Answer. The Moreno government possesses an economic team of 
capable, pragmatic advisors with experience in the private sector, 
including Economic Minister Richard Martinez and Trade Minister Pablo 
Campana, who are committed to see through the successful implementation 
of Plan Prosperidad and the international financial institutions' 
support package. The international institutions financing the 
assistance package have pledged technical support to the Moreno 
government throughout its implementation.

    Question.  If confirmed, what efforts would you take to help USAID 
reopen its offices in Ecuador?

    Answer. USAID and U.S. Department of State assistance in Ecuador 
enhances the ability of diverse civil society actors to work 
effectively and collaboratively, including with the Ecuadorian 
government, to encourage good governance, protect human rights and 
fundamental freedoms, promote transparency, deter corruption, and 
strengthen legislative and judicial institutions.
    If confirmed, I will engage the Moreno government and USAID 
colleagues to continue efforts to identify areas for cooperation and 
ensure judicious investment of U.S. government funding and gear 
technical assistance towards preserving and furthering democratic 
freedoms in Ecuador. I will look for opportunities to expand Ecuador's 
inclusion in regional USAID initiatives, and will continue working 
towards the re-establishment of a USAID staffing presence in our 
Embassy.

    Question.  What is your assessment of Ecuador's ability to manage 
this massive influx of Venezuelan refugees?

    Answer. In line with its human mobility policy, Ecuador generously 
hosts the largest number of recognized refugees in Latin America, 
approximately 67,000 Colombian refugees, even as it continues receiving 
and providing services to growing numbers of Venezuelan refugees and 
migrants. According to official Ecuadorian government statistics, more 
than 950,000 Venezuelans legally entered Ecuador in 2018, a 231 percent 
increase over the 288,005 who entered in 2017. As of March 10, more 
than 87,000 Venezuelans have legally entered Ecuador thus far this 
year. An estimated 20 percent remain in Ecuador, with the rest 
continuing on to Peru or Chile. The Ecuadorian government and 
International Organization for Migration estimate about 300,000 
Venezuelans are now living in Ecuador. International organizations 
report Venezuelans are arriving ill, malnourished, in need of shelter, 
and vulnerable to human trafficking.
    The government of Ecuador has shown political will to continue 
hosting migrants and refugees, but it lacks the resources and capacity 
for a sustained response to the large influx of Venezuelans entering 
its country in addition to its existing population of Colombian 
refugees and migrants. Venezuela's neighbors have worked together to 
respond to the exodus of Venezuelans fleeing the political repression 
and economic disaster caused by the former Maduro regime. The 
Ecuadorian government has convened a series of regional technical 
meetings, called the ``Quito Process,'' to discuss entry and 
regularization requirements for Venezuelans, as well as a regional 
donor conference to discuss funding needs. It is clear that Ecuador, as 
a small country with its own serious economic problems, will need 
continued international support to bear the burden of hosting an 
unprecedented number of refugees and migrants

    Question.  If confirmed, what type of cooperation with the Moreno 
government would you prioritize in order to support their efforts to 
address the Venezuelan migration crisis and uphold their international 
commitments?

    Answer. It is my understanding that sustained levels of 
international assistance will be necessary to support Ecuadorian 
efforts to effectively address the Venezuelan refugee and migration 
crisis and uphold their international commitments. If confirmed, I will 
continue to prioritize efforts that help strengthen the government of 
Ecuador's capacity to identify, assist, and provide protection to the 
most vulnerable Venezuelan refugees and migrants. Since 2018, the 
United States has provided more than $15 million in humanitarian 
assistance to protect and assist Venezuelans in Ecuador. These funds 
provide emergency food, medicine, education, and protection to the most 
vulnerable Venezuelans and are in addition to nearly $5 million in 
targeted humanitarian assistance for Colombian refugees and migrants in 
Ecuador.
    If confirmed, I will urge the Ecuadorian government to continue 
working closely with various humanitarian organizations, and other 
international and non-governmental organizations, to ensure the 
delivery of life-saving aid to Venezuelans and other vulnerable 
migrants and refugees and to assist in their integration into 
communities in Ecuador. I would also engage both publicly and privately 
with governmental and non-governmental opinion makers to ensure 
sustained support for continued international coordination in response 
to the crisis in Venezuela.

    Question.  What is your understanding of WikiLeaks interference in 
our 2016 elections?

    Answer. It is my understanding that Julian Assange and WikiLeaks 
have engaged in hostile activities with the intent to undermine U.S. 
democracy and national security. I am aware of the ODNI's January 6, 
2017 ``high confidence'' assessment that Russian efforts to influence 
the 2016 U.S. presidential election included the use of the Russian 
military's General Staff Main Intelligence Directorate (GRU) to relay 
U.S. victim data obtained in cyber operations to WikiLeaks.
    I am also aware of that report's assessment that ``the Kremlin's 
principal international propaganda outlet RT has actively collaborated 
with WikiLeaks. I am aware that, according to Russian and Western 
media, the RT editor-in-chief visited WikiLeaks founder Julian Assange 
in August 2013 at the Ecuadorian embassy in London, where they 
discussed renewing his broadcast contract with RT. I have read a number 
of media reports detailing Mr. Assange and WikiLeaks' interference with 
the domestic politics of a number of other countries, including some 
U.S. allies.

    Question.  WikiLeaks head Julian Assange has been in Ecuador's 
Embassy in London since 2012 and President Moreno refers to Assange as 
an ``inherited problem.'' What is the Moreno government doing to manage 
Assange's presence and limit his ability to interfere in foreign 
elections?

    Answer. The Ecuadorian government has said publicly that Mr. 
Assange must respect the conditions of his asylum, which include not 
interfering in the internal political affairs of third countries. In 
March 2018, the Ecuadorian government cut off Assange's internet access 
after he violated an agreement not to interfere in the internal affairs 
of other states by making statements on social media that the 
Ecuadorians assessed ``put into risk their good relations with the 
United Kingdom, EU states, and other nations.''

    Answer. In October 2018, the Ecuadorian government gave Assange a 
set of protocols to address his visits, communications, and medical 
care; the document states that violation of the protocols could be 
grounds for terminating his asylum. The protocol stipulates 
restrictions on Assange's internet access and prohibits political 
interference in the affairs of other nations or Ecuador's bilateral 
relations. In February, Foreign Minister Jose Valencia publicly stated 
it was not feasible for Mr. Assange to remain in their Embassy in 
London indefinitely and that the situation needed to be resolved as 
soon as possible.

    Question.  Do you commit to make Assange's ongoing presence in the 
Ecuadorian Embassy in London a priority in your interaction with the 
Moreno government? And, do you commit to keeping members of this 
committee and our staff informed about your efforts?

    Answer. Mr. Assange's harmful activities undermine the national 
security of the United States and our allies. If confirmed, I will 
continue to raise at every appropriate opportunity our significant 
concerns regarding Mr. Assange and urge rapid resolution of the issue 
with senior officials in the government of Ecuador. I also commit to 
keeping members of this committee and staff informed about our ongoing 
efforts.

    Question.  What do these incidents say about China's environmental 
record in Ecuador and Latin America at large?

    Answer. Alleged incidents of Chinese illegal fishing in Ecuadorian 
waters and in fragile eco systems like the Galapagos, demonstrate 
China's poor environmental record in Latin America. The Ecuadorian 
government remains seriously concerned by the threat illegal Chinese 
fishing incursions pose to its country's national resources, and is 
making a good faith effort to control fishing in its territorial waters 
and exclusive economic zone despite limited resources and capabilities. 
If confirmed, I will stress that Chinese investments and activities 
need to adhere to international best practices on environmental impacts 
as well as transparency, rule of law, and financial sustainability.

    Question.  How can the U.S. support the government of Ecuador's 
efforts to counter China's illegal shark fishing?

    Answer. The United States government works with the Ecuadorian 
fisheries service and the Ecuadorian Navy to improve monitoring of 
illegal, unreported, and unregulated fishing. Ecuador's renewed 
openness and interest to collaborate with the United States provides 
opportunities to deepen cooperation on illegal fishing.
    It is my understanding that Ecuador has reached out to the United 
States to inquire about purchasing more vessels and radars to assist 
with maritime surveillance. I believe we should explore options that 
help the Ecuadorian government improve its maritime capabilities. We 
could also assist the Ecuadorian government by providing technical 
assistance to improve their judicial capacity to handle illegal fishing 
cases. In addition, the United States could encourage Ecuador to expand 
its regional coordination efforts, both diplomatic and military, to 
stem the threat of Chinese fishing depredation.

    Question.  What do you view as the next steps for restoring 
democratic institutions and norms in Ecuador, and what do you see as 
the United States' role in supporting these efforts?

    Answer. The continued restoration of democratic institutions and 
norms in Ecuador will require our sustained engagement with both the 
Ecuadorian government and civil society. U.S. assistance seeks to 
preserve democratic freedoms, increase broad-based citizen engagement 
with the national and local government, strengthen legislative and 
judicial institutions, and support civil society organizations' work to 
promote and defend human rights and promote transparency and deter 
corruption within government institutions. It is critical that this 
work continue.
    If confirmed, I will use all the tools at my disposal to assist the 
government of Ecuador and the nation's citizens in addressing their 
democratic governance challenges. I am a firm believer in the critical 
importance of civil society and private sector initiatives to promote 
government transparency and accountability to the people. The United 
States promotes its own interests when it supports Ecuador through 
professional and educational exchanges, and when it makes public 
statements and engages privately with a wide variety of actors, 
including government officials, journalists, business leaders, civil 
society representatives, and the international community. Such 
engagement deepens our bilateral relationship and helps us promote U.S. 
national interests in Ecuador.

    Question.  What next steps would you look to take with the aim of 
further deepening security cooperation with Ecuador?

    Answer. The United States shares Ecuadorian President Lenin 
Moreno's interests in combating transnational crime and 
narcotrafficking and promoting regional security. If confirmed, I will 
seek to deepen our security cooperation with Ecuador by building on the 
well-established law enforcement relationships and arrangements already 
in place.
    If confirmed, I will work with the Ecuadorian government to improve 
information sharing and identify ways we can advance our mutual goal of 
combatting narcotrafficking and transnational organized crime. The 
establishment of the Office of Security Cooperation and INL funding 
will significantly assist our efforts. I will look for opportunities to 
increase scheduled training, including through the U.S.-Colombia Action 
Plan for Regional Security Cooperation (USCAP), and support greater 
Ecuadorian-Colombian cooperation and coordination. U.S. continued 
financial support for operations and training will increase Ecuador's 
ability to combat its security challenges. In addition, if the Defense 
Security Cooperation Agency (DSCA) acts to reinstate Ecuador's access 
to dependable undertaking, it would expedite the Ecuadorians ability to 
acquire the capabilities needed to be a reliable partner in the region.

    Question.  What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. The defense of human rights and democracy by the United 
States, and their promotion, have been constant priorities in my 
career, as a political officer serving repeatedly in conflict zones. 
Very early on, I learned that a country's human rights development and 
its construction of effective democratic institutions were some of the 
most critical ways to advance U.S. long-term interests and values 
abroad. I also determined that honest recognition--not just by us but 
also by our international partners--of the nature and extent of 
shortcomings is an essential precondition for the political will 
necessary to make the tough choices required to ensure lasting 
improvements. My political reporting and advocacy on these issues won 
Department-wide awards as both a junior-level officer in Peru and as a 
mid-level officer in Colombia. Most importantly, my work informed U.S. 
policy choices and the development and execution of U.S. bilateral 
efforts in difficult circumstances.
    The promotion of human rights and democracy has continued to be an 
integral part of my own diplomatic efforts a senior officer. As Deputy 
Chief of Mission in Paraguay, I took specific steps to ensure that all 
Paraguayan power centers respected the nation's 2008 election of an 
opposition presidential candidate (after 61 straight years of Colorado 
Party rule), both as the time of the election, throughout the 
transition, and following the inauguration. As Deputy Chief of ission 
in Peru, I helped the Peruvian government recruit, train, and deploy an 
innovative U.S.-supported, interagency jungle task force to pursue 
heavily armed narcotics traffickers, and this task force pioneered 
Peru's inclusion of fully integrated judicial prosecutors to ensure all 
operations were conducted legally and with public accountability. While 
leading our Mission to the Organization of American States (OAS) and 
then again as Deputy Assistant Secretary, I worked closely with 
Venezuelan democratic forces to defend human rights and promote 
democratic principles and institutions in the face of sustained attacks 
by the illegitimate Maduro regime. These efforts, undertaken publicly 
and privately, at the OAS and with bilateral partners throughout the 
Americas, in Europe, and elsewhere, contributed significantly to the 
international repudiation and isolation of the Maduro regime, and laid 
the groundwork for a future Venezuelan transition to democracy.

    Question.  What issues are the most pressing challenges to 
democracy or democratic development in Ecuador?

    Answer. President Lenin Moreno's reform agenda includes important 
steps to advance democracy in Ecuador. Since taking office in May 2017, 
Moreno has advanced participatory democracy, supported greater press 
freedom, and repealed several pre-existing authoritarian decrees that 
stifled dissent and unduly restricted freedoms of speech and 
association. Nevertheless, challenges remain, including a lack of 
independence in the judicial sector and the need to build capacity 
among judges and legislators. An inconsistent application of the rule 
of law remains another challenge, as does the need to expand the reach 
of effective democratic governance.
    If confirmed, I will use all the tools at my disposal to assist the 
government of Ecuador and its citizens in addressing these democratic 
governance challenges.

    Question.  What steps will you take--if confirmed--to support 
democracy in Ecuador? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. The Ecuadorian government under President Moreno has shown 
a genuine commitment to addressing many human rights and democratic 
governance challenges. If confirmed, I will encourage the Ecuadorian 
government to continue its efforts to improve press freedoms, build 
greater democratic governance and stronger institutions accountable to 
the Ecuadorian people, and urge consistent application of the rule of 
law and greater social inclusion and respect for human rights.Obstacles 
to the challenges facing Ecuador today will require greater citizen 
engagement from the Ecuadorian people themselves, civil society, and 
the business community, to hold the government accountable and urge 
specific reforms. If confirmed, I will work to support civil society 
initiatives that promote transparency and accountability; facilitate 
the sharing of best practices through professional and educational 
exchanges; and encourage Ecuador's democratic progress through public 
statements and private engagement with a wide variety of actors, 
including government officials, journalists, business leaders, civil 
society representatives, and the international community.

    Question.  How will you utilize U.S. government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will use U.S. government assistance to 
preserve and expand democratic freedoms, increasing broad-based citizen 
engagement with national and local government. U.S. assistance in 
Ecuador enhances the ability of diverse civil society actors to work 
effectively and collaboratively, including with the Ecuadorian 
government, to encourage good governance, protect human rights and 
fundamental freedoms, promote transparency, and strengthen legislative 
and judicial institutions. I commit to working closely with all of our 
partners in Ecuador, and all relevant agencies of the U.S. government, 
to ensure every dollar of U.S. assistance is used wisely and in 
accordance with U.S. interests in the hemisphere.

    Question.  If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Ecuador? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes. If confirmed, I promise to engage with civil society 
members, human rights and other non-governmental organizations in the 
United States, and with local human rights NGOs in Ecuador on human 
rights, including civil rights and democratic governance. I also commit 
to engage with the Ecuadorian government, at the highest level 
necessary, if measures result in restricting NGOs and civil society. 
Continuing diplomatic engagement is crucial to ensuring Ecuador's 
democratic reforms reflect international standards and obligations to 
protect human rights.

    Question.  If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes. If confirmed, I commit to meet with the full range of 
democratic political and non-governmental organizations and figures, 
including democratically oriented political opposition figures and 
parties, and advocate for access and inclusivity for women, minorities, 
and youth within political parties. To encourage genuine political 
competition, I will advocate for full respect for freedoms of 
expression, including for members of the press, and peaceful assembly, 
as well as genuinely free and fair, electoral processes.

    Question.  Will you and your embassy team actively engage with 
Ecuador on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Ecuador?

    Answer. Yes. If confirmed, I promise to engage the Ecuadorian 
government, at the highest levels, and civil society to promote freedom 
of expression, including for members of the press. I also commit to 
meeting regularly with independent, local press, and will encourage my 
embassy staff to do the same.

    Question.  Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes. If confirmed, I will engage with civil society and 
government counterparts on countering disinformation and malign 
propaganda disseminated by foreign state or non-state actors in 
Ecuador, and I will ensure my embassy team does the same.

    Question.  Will you and your embassy teams actively engage with 
Ecuador on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes. If confirmed I will actively engage with the 
Ecuadorian government at the highest level on the right of members of 
labor groups, including independent trade unions, to organize. 
Ecuador's eligibility for the Generalized System of Preferences (GSP) 
trade program is contingent, in part, on taking steps to afford 
internationally recognized worker rights, including the right to 
organize.

    Question.  Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Ecuador, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Ecuador? What specifically will you commit to do to help LGBTQ people 
in country Ecuador?

    Answer. If confirmed, I commit to advance U.S. interests and values 
and defend the human rights and dignity of all people in Ecuador, 
regardless of their sexual orientation or gender identity. It is my 
understanding that LGBTI individuals face high levels of bias-motivated 
violence and discrimination, particularly in education, employment, and 
access to health services. If confirmed, I will engage with the Ecuador 
government and civil society on matters of human rights for all people, 
including marginalized groups. I also commit to ensuring that Mission 
Ecuador itself serves as a model in respecting the dignity, value, and 
equality of all persons regardless of sexual orientation or gender 
identity. I will work with the Ecuadorian government to continue to 
advance efforts to end violence and discrimination against all 
marginalized groups, including LGBTI individuals, through a variety of 
approaches, including programming, regular diplomatic engagement, 
cooperation with other diplomatic missions, including U.N. agencies, 
and multi-level engagement with interlocutors throughout the 
government.

    Question.  Do you agree that any targeting of or retaliation 
against career employees based on their perceived political beliefs, 
prior work on policy, or affiliation with a previous administration, is 
wholly inappropriate and has no place in the federal government? If 
confirmed, what will you do to ensure that all employees under your 
leadership understand that any retaliation, blacklisting, or other 
prohibited personnel practices will not be tolerated?

    Answer. Yes, I agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government. Department 
employees, like all federal employees, are subject to restrictions on 
engaging in partisan political activity while at work and outside of 
work. If confirmed, I will ensure that prohibited personnel practices, 
including retaliation and blacklisting, will not be tolerated under my 
leadership and that all employees understand and are in strict 
compliance with federal statutes, the Hatch Act, Department policy, and 
federal ethics laws concerning political beliefs or previous work on 
policy or affiliation with a previous administration.

    Question.  Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. I am not aware of any such complaints.

    Question.  Have you ever addressed concerns or allegations of 
sexual harassment, discrimination (e.g., racial, ethnic, religious, 
etc.), or inappropriate conduct made against any employee over whom you 
had supervisory authority? If so, please describe the outcome and 
actions taken.

    Answer. I do not recall an instance of such concerns against a 
specific employee I supervised. I have long worked to ensure a 
workplace free of harassment and discrimination of any kind.

                               __________


            Responses to Additional Questions for the Record
     Submitted to Michael Fitzpatrick by Senator Benjamin L. Cardin

    Question.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. The defense and human rights and democracy by the United 
States, and their promotion, have been constant priorities in my 
career, as a political officer serving repeatedly in conflict zones. 
Very early on, I learned that a country's human rights development and 
its construction of effective democratic institutions were some of the 
most critical ways to advance U.S. long-term interests and values 
abroad. I also determined that honest recognition--not just by us but 
also by our international partners--of the nature and extent of 
shortcomings is an essential precondition for the political will 
necessary to make the tough choices required to ensure lasting 
improvements. My political reporting and advocacy on these issues won 
Department-wide awards as both a junior-level officer in Peru and as a 
mid-level officer in Colombia. Most importantly, my work informed U.S. 
policy choices and the development and execution of U.S. bilateral 
efforts in difficult circumstances.
    The promotion of human rights and democracy has continued to be an 
integral part of my own diplomatic efforts a senior officer. As Deputy 
Chief of Mission in Paraguay, I took specific steps to ensure that all 
Paraguayan power centers respected the nation's 2008 election of an 
opposition presidential candidate (after 61 straight years of Colorado 
Party rule), both as the time of the election, throughout the 
transition, and following the inauguration. As Deputy Chief of Mission 
in Peru, I helped the Peruvian government recruit, train, and deploy an 
innovative U.S.-supported, interagency jungle task force to pursue 
heavily armed narcotics traffickers, and this task force pioneered 
Peru's inclusion of fully-integrated judicial prosecutors to ensure all 
operations were conducted legally and with public accountability. While 
leading our Mission to the Organization of American States (OAS) and 
then again as Deputy Assistant Secretary, I worked closely with 
Venezuelan democratic forces to defend human rights and promote 
democratic principles and institutions in the face of sustained attacks 
by the illegitimate Maduro regime. These efforts, undertaken publicly 
and privately, at the OAS and with bilateral partners throughout the 
Americas, in Europe, and elsewhere, contributed significantly to the 
international repudiation and isolation of the Maduro regime, and laid 
the groundwork for a future Venezuelan transition to democracy.

    Question.  What are the most pressing human rights issues in 
Ecuador? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Ecuador? What do 
you hope to accomplish through these actions?

    Answer. President Lenin Moreno's reform agenda includes important 
steps to address human rights concerns in Ecuador. Since taking office 
in May 2017, Moreno has advanced participatory democracy, supported 
greater press freedom, and repealed several pre-existing authoritarian 
decrees that stifled dissent and unduly restricted freedoms of speech 
and association. Nevertheless, challenges remain, including a lack of 
independence in the judicial sector and the need to build capacity 
among judges and legislators. An inconsistent application of the rule 
of law remains another challenge, as does the need to expand the reach 
of effective democratic governance.; Trafficking in persons remains a 
serious challenge, as does discrimination against historically 
marginalized groups and violence against women and children, Afro-
Ecuadorians, indigenous, and LGBTI persons.
    If confirmed, I will use all the tools at my disposal to assist the 
government of Ecuador and its citizens in addressing its human rights 
and democratic governance challenges. In particular, I believe in the 
critical importance of civil society and private sector initiatives to 
promote government transparency and accountability to the people. The 
United States promotes its own interests when it supports Ecuador 
through professional and educational exchanges, and when it makes 
public statements and engages privately with a wide variety of actors, 
including government officials, journalists, business leaders, civil 
society representatives, and the international community. Such 
engagement deepens our bilateral relationship and helps us promote U.S. 
national interests in Ecuador.

    Question.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Ecuador in 
advancing human rights, civil society and democracy in general?

    Answer. The Ecuadorian government under President Moreno has shown 
a real commitment to addressing many human rights and democratic 
governance challenges. Obstacles to the challenges I mentioned earlier 
will require greater citizen engagement from the Ecuadorian people 
themselves, civil society, and the business community, to hold 
government accountable and urge specific reforms. If confirmed, I will 
encourage the Ecuadorian government to continue its efforts to improve 
press freedoms, build greater democratic governance and stronger 
institutions accountable to the Ecuadorian people, and urge consistent 
application of the rule of law and greater social inclusion and respect 
for human rights.

    Question.  Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Ecuador? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes. If confirmed, I will continue the United States' 
longstanding practice of closely engaging Ecuadorian civil society to 
ensure I remain attuned fully to the priorities of Ecuadorian citizens 
on human rights and democratic governance. I commit to working closely 
with the Ecuadorian government, civil society, and all relevant 
agencies of the U.S. government to ensure the wise use of every dollar 
of U.S. assistance, in accordance with all applicable legal 
requirements, including the Leahy Law.

    Question.  Will you and your embassy team actively engage with 
Ecuador to address cases of key political prisoners or persons 
otherwise unjustly targeted by Ecuador?

    Answer. Yes. If confirmed I commit to actively engaging with the 
government of Ecuador to address cases of any key political prisoners 
or persons otherwise unjustly targeted by the Ecuadorian government, 
especially if they are U.S. citizens.

    Question.  Will you engage with Ecuador on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I commit to engage the Ecuadorian government 
and Ecuadorian people on human rights, civil rights, and democratic 
governance issues as part of our Mission's priorities. Sustained U.S. 
diplomatic engagement is critical to ensure that Ecuador upholds its 
commitments to human rights, rule of law, and democratic governance.

    Question.  Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question.  Do you or do any members of your immediate family have 
any financial interests in the Ecuador?

    Answer. My investment portfolio consists of diversified mutual 
funds. The diversified mutual funds are exempt from the conflict of 
interest laws. Even with that said, I am committed to ensuring that my 
actions will not give rise to a conflict of interest, and I will remain 
vigilant with regard to my ethics obligations.

    Question.  Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I will consider candidates from diverse 
backgrounds when seeking to fill high-level positions at the U.S. 
Mission, as I have done in past assignments. I am committed to 
promoting, mentoring, and supporting all staff members, especially 
those from diverse backgrounds and under-represented groups. I believe 
discrimination in the workplace harms both individual employees and the 
larger institution. I recognize that each individual employee brings 
unique strengths, and I will seek to foster a work environment that 
both reflects and draws upon the rich composition of America's 
citizenry.

    Question.  What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will take steps to ensure each of the 
supervisors at the Embassy fosters a diverse and inclusive work 
environment. Doing so helps build greater unity within the Mission and 
allows us to support U.S. interests in Ecuador more effectively. I will 
communicate these priorities directly to and through Embassy 
supervisors, supporting greater mentoring for staff, and using employee 
performance reviews as avenues to encourage a diverse, inclusive, and 
supportive work environment.

    Question.  How does political corruption affect democratic 
governance and the rule of law?

    Answer. Political corruption left unchecked, without transparency 
and accountability to citizens, erodes democratic governance and the 
rule of law, exacerbates social conflict, enables human rights abuses, 
and undermines public confidence in the democratic system. Over the 
past year, we have seen politicians and senior executives tried, 
convicted, and imprisoned on corruption charges, with several others 
currently under investigation for the embezzlement of funds, 
irregularities in procurement, and bribery. The country is in the midst 
of rebuilding its democratic institutions and capacity now because of 
the corrosive effects of political corruption in the past.

    Question.  What is your assessment of corruption trends in Ecuador 
and efforts to address and reduce them by the government of Ecuador?

    Answer. The Ecuadorian government under President Moreno has shown 
a genuine commitment to addressing the widespread corruption that has 
long plagued Ecuador and undermined confidence in government 
institutions. In the last year, we have seen politicians and senior 
executives tried, convicted, and imprisoned on corruption charges, with 
several others currently under investigation for the embezzlement of 
funds, irregularities in procurement, and bribery.
    Since taking office, President Moreno has encouraged press 
reporting on corruption and has supported the independence of 
government oversight bodies and of the judiciary. He supported the 
prosecution of government officials involved in the Odebrecht 
corruption scandal, which led to a six-year jail sentence for his 
former vice president, Jorge Glas. He has also taken steps to join the 
Open government Partnership, a global pact that promotes transparency 
and accountability in government practices. Ecuador further seeks to 
join the Extractive Industries Transparency Initiative (EITI).

    Question.  If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Ecuador?

    Answer. If confirmed, I will take efforts to continue U.S. support 
of the Moreno administration in its work to strengthen democratic 
governance, encourage greater press freedoms, and fight corruption and 
impunity. I will also support U.S. assistance for effective programs 
that can show measurable results in helping the Moreno government 
accomplish these priorities and increase public transparency, 
strengthen judicial and legislative institutions, and encourage greater 
civil society participation in the political process.

    Question.  Aside from Venezuela, are there any other global issues 
where you view Ecuador as a potential U.S. partner?

    Answer. The United States has clear interests in Ecuador: it has 
vast hydrocarbons, mining resources, and renewable energy; it has a 
dollarized economy; and it is strategically important as a South 
American transshipment point for U.S.-bound illegal drugs and precursor 
chemicals. The United States and Ecuador have significant opportunities 
for greater partnership, from pursuing greater energy security to 
addressing increased narcotics trafficking and dismantling 
transnational criminal organizations. In addition, the promotion of 
human rights is a priority for the Moreno administration. In the past 
year, we have seen an important shift in Ecuadorian voting behavior on 
human rights-related issues at the OAS and United Nations, including 
support of human rights and democratic governance in statements or 
votes on Nicaragua, North Korea, and Syria. The Ecuadorian government 
has condemned publicly the state of human rights in Nicaragua and 
engaged the Ortega regime to urge respect for the fundamental rights of 
Nicaraguans, dialogue with the opposition, and respect for democratic 
institutions. Ecuador will likely continue playing an important 
regional role on human rights, particularly through its participation 
in the OAS Permanent Council Working Group on Nicaragua, which has 
pursued a peaceful and sustainable solution to the crisis there.

    Question.  How can we continue to engage with the Ecuadorian 
government and civil society to consolidate the democratic gains that 
have been made over the past two years?

    Answer. Continued U.S. technical assistance and training for 
government officials and civil society will be crucial to the Moreno 
administration as it implements its reform agenda and the Ecuadorian 
people as they support rebuilding the country's democratic 
institutions. The United States has a clear interest in supporting 
strong, stable, and sustainable democratic institutions in Ecuador as a 
model for other countries in the region turning away from authoritarian 
regimes. The State Department and USAID support civil society programs 
to help the government build transparency and strengthen judicial and 
legislative institutions. As Ecuador's political dynamics evolve and 
civil society becomes more vibrant, USAID and State support must remain 
flexible to meet new needs as they arise. Regular U.S. diplomatic 
engagement and high-level dialogues will likewise be critical to 
maintaining the momentum of Ecuador's democratic gains as will visits 
and increased political engagement by Members of the U.S. Congress.

    Question.  How can we highlight Ecuador's progress to other 
countries in the region?

    Answer. The renewed relationship between the United States and 
Ecuador, demonstrated through high-level visits and increased bilateral 
cooperation, highlights U.S. support for Ecuador's progress and reform 
agenda. The United States can highlight Ecuador's progress and 
importance as a partner in the region by continuing to publicly express 
support for its democratic reforms, include Ecuador in regional 
initiatives, and engage Ecuador in seeking solutions to regional 
problems.

    Question.  In which areas does Ecuador still need to improve on 
governance and human rights?

    Answer. While the Moreno administration has made significant 
strides on governance and human rights in the last two years, 
particularly in the areas of freedom of expression and association, 
dismantling ten years of authoritarian, corrupt, and repressive 
policies and rebuilding independent democratic institutions and greater 
press freedoms will take time. Continuing vigilance to address 
corruption and impunity is essential. Strengthening the professionalism 
and independence of the judiciary and building the capacity of the 
National Assembly to research and prepare legislation are also 
necessary to help Ecuador ensure it has a strong system of checks and 
balances in place. In addition to these governance challenges, Ecuador 
continues to face alarming reports of torture and abuse by police 
officers and prison guards, harsh prison conditions, child labor, and 
marginalized populations suffering disproportionately from 
discrimination, violence, and social exclusion.

    Question.  How can we continue Ecuador's support for a return to 
democracy in Venezuela?

    Answer. Ecuador has been a strong supporter of a return to 
democracy in Venezuela. The Moreno government recognized Interim 
President Guaid and it has taken a leading role in South America in 
responding to the humanitarian needs of Venezuelan refugees and 
migrants. It currently hosts hundreds of thousands Venezuelans who have 
fled their homeland--and the number is growing. The United States has 
committed in excess of $15 million in humanitarian assistance to help 
Ecuador respond to the influx of Venezuelan refugees and migrants. 
Ecuador has shown tremendous regional leadership on the Venezuelan 
migration crisis through the Quito Process, and has continued to engage 
with countries in the region and Europe to advance a peaceful solution 
to crisis in Venezuela.

    Question.  Do you think Ecuador would consider joining the Lima 
Group?

    Answer. Though not a member of the Lima Group, Ecuador has 
participated in Lima Group meetings as an observer. Furthermore, 
Ecuador has proven to be a helpful interlocutor on the Venezuela crisis 
through its convening of regional partners in the Quito Process, 
focused on shared operational challenges to managing the international 
flow of Venezuelan migrants and refugees.
    The Lima Group and Quito Process are complementary regional 
mechanisms to the Venezuela crisis, and the U.S. government supports 
both. The practical coordination elements discussed in Quito Process 
meetings, such as increased information sharing and migration tracking, 
are important for strengthening border security and protection of 
refugees and migrants.

                               __________


                              NOMINATIONS

                              ----------                              


                       WEDNESDAY, MARCH 27, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:09 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Rubio, Gardner, 
Romney, Isakson, Portman, Young, Menendez, Cardin, Shaheen, 
Coons, Murphy, Kaine, and Markey.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The committee will come to order.
    Today we will hold a nomination hearing for three very 
important positions. First, we have Mr. Robert Destro to be 
Assistant Secretary of State for Democracy, Human Rights, and 
Labor. Second, we have Mr. Keith Krach to be Under Secretary of 
State for Economic Growth, Energy, and the Environment, as well 
as the following positions: United States Alternate Governor of 
the European Bank for Reconstruction and Development; United 
States Alternate Governor of the International Bank for 
Reconstruction and Development; and United States Alternate 
Governor of the Inter-American Development Bank. Our third 
nominee is General David Stilwell to be Assistant Secretary of 
State for East Asian and Pacific Affairs.
    We also have some very distinguished guests with us who 
wish to introduce two of our nominees. So we are going to allow 
them to proceed with those introductions. So I am going to 
postpone my opening statement until we have the introductions, 
so they can be excused to pursue other ideas.
    And so with that, I would like to introduce Senator Bill 
Cassidy of Louisiana and ask you to make your introduction 
please.

                STATEMENT OF HON. BILL CASSIDY, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. Chairman Risch, Ranking Member Menendez, 
and members of the committee, thank you for allowing me to 
speak.
    And I appreciate the ability or the opportunity to 
introduce President Trump's nominee to be the Assistant 
Secretary of State for Democracy, Human Rights, and Labor, Mr. 
Robert Destro.
    Mr. Destro is currently a professor of law at the Catholic 
University of America here in D.C. where he also serves as 
Director of the university's Institute for Policy Research and 
Catholic Studies. He is also the founding Director of the 
university's Interdisciplinary Program in Law and Religion and 
is a distinguished fellow in the Religious Freedom Center of 
the Newseum Institute. He is immensely qualified. His body of 
work represents the principles and experience necessary to 
accomplish the mission and promote democracy, labor, and human 
rights abroad.
    Robert is a graduate of the University of Miami Ohio and 
University of California-Berkley Law School. And he has 
dedicated his career to protect the rights and well-being of 
peoples of all faiths, ethnicities, and nationalities.
    In 2007, Robert served as the primary administrator for the 
Interfaith Cooperation Initiative in Israel and Palestine, a 
USAID-funded effort to bring Christian, Jewish, and Muslim 
leaders together to work on practical issues important to each 
community. His ability to work with all parties towards a 
common goal is obviously an important quality for his nominated 
position.
    In 2011, he co-founded the Iraqi-Kurdistan Religious 
Freedom and Cultural Mapping Project, which produced the only 
pre-ISIS survey of the Christian communities in the Kurdistan 
region.
    With him today are his children Gina and Mark, brother-in-
law William, and also his wife Brenda. Brenda in her own right 
is an accomplished and committed public servant. She was 
pivotal in my office working with Chris Murphy and his office 
to both write and pass the bipartisan Mental Health Reform Act 
of 2016, which was signed into law by President Obama.
    It was through her that I met Robert, and with his 
expertise, he then aided my office in developing and passing by 
unanimous consent a bipartisan resolution in 2016 expressly 
naming the atrocities perpetrated by the Islamic State of Iraq 
in the Levant against religious and ethnic minorities in Iraq 
and Syria as war crimes, crimes against humanity, and genocide. 
It was through working with him that I witnessed a clear 
passion for human rights and freedom for all people. He 
continues to be actively involved with the Christian, Muslim, 
Yazidi and other religious communities throughout Iraq in an 
effort to document the ISIS genocide.
    To make measured advancements in democracy anywhere on the 
globe, you need a willingness to understand the relationships 
between the political culture and social dynamics of groups in 
the region. Reviewing his past work, it is clear Robert Destro 
understands what it takes to be successful in this position.
    I look forward to the committee and the Senate favorably 
considering his nomination.
    Thank you, Chairman Risch.
    The Chairman. Thank you very much, Senator Cassidy. We 
appreciate you taking time to come here and give us those 
remarks from a personal standpoint.
    Mr. Destro, welcome to you.
    Now we have a couple of our members from the committee that 
are going to introduce one of our guests today. We will start 
with Senator Portman, the Honorable Senator Portman from the 
great State of Ohio. Senator Portman?

                STATEMENT OF HON. ROB PORTMAN, 
                     U.S. SENATOR FROM OHIO

    Senator Portman. Thank you, Mr. Chairman.
    The great State of Ohio happens to have two nominees before 
you today. Mr. Destro is also a native of Ohio, but I am here 
to take the opportunity to introduce Keith Krach to be the 
Under Secretary of State for Economic Growth, Energy, and the 
Environment.
    Keith is a native Ohioan, as I said, born in Lakewood, 
Ohio, raised in Rocky River. That is near Cleveland. His 
parents, Elda and John Krach, he says were the most important 
mentors in his life. He says his dad is the best leader that he 
ever knew. And for those who know Keith--and I have had the 
opportunity to meet him prior to his stepping up to this post--
he takes after his parents, and I think that is the ultimate 
compliment.
    You will see from his biography he is highly qualified for 
this position. He is a natural leader. He has got a long list 
of business accomplishments and successes. I think he will be 
the first to tell you that he would not have been able to do 
any of it without support of his wife Metta, who is with him 
today. But he has also got a few kids: Stephen; Carter; 7-year-
old twins, JD, Emma. And I see the 7-year-old twins are with 
you today. Is that correct? Go JD and Emma. I know you are all 
very proud of your dad, and again, we are proud of him for 
stepping up to take on this public service responsibility.
    The job he has been nominated for is really vital, not just 
to the State Department but to our country right now. As Under 
Secretary of State for Economic Growth, Energy, and 
Environment, he is going to have a really important 
responsibility, senior economic official at the State 
Department. He will be Secretary Pompeo's principal advisor on 
a lot of issues: international economic development, energy, 
agriculture, science, technology. Chairman Risch talked about 
some of the responsibilities of that post earlier.
    And he could not be taking the post at a more important 
time for our country. We are strong in our economy right now. 
We are blessed by that, but frankly, it is a dangerous and 
volatile world out there, and specifically we face a lot of 
challenges. China continues to use unfair trade practices to 
undermine our economy particularly in the area of intellectual 
property, but beyond that. And I know you will be involved in 
some of those issues. Russia is trying to leverage the transit 
of natural gas through Europe with Nord Stream 2, which has 
enormous potential foreign policy implications. Europe is 
wrestling with Brexit and the possibilities there. We saw some 
news this morning about another change and the parliament 
taking over that issue. This has got ripple effects all over 
the EU and beyond.
    And also, how do we capitalize on the opportunities of 
emerging markets throughout the world that want and need U.S. 
leadership? I think that is something we sometimes forget is 
there are so many developing countries that are looking to us 
to provide that leadership and perhaps a model of how free 
markets can work.
    So there is no doubt in my mind that Keith is up to this 
task. He has the academic background with degrees from both 
Purdue and Harvard to go along with an impressive business 
resume, starting out 10 years with General Motors. His current 
job is CEO and Chairman of the Board of DocuSign.
    I am proud to introduce my fellow Ohioan today and I know 
he will serve the Secretary and his nation with distinction.
    I urge my fellow Senators to vote in favor of his 
nomination here in the committee and on the floor.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Portman.
    Senator Young?

                 STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Well, thank you, Mr. Chairman, Ranking 
Member Menendez, and members of the committee. It is an honor 
for me to join Senator Portman in introducing Keith Krach 
today.
    You have heard his impressive bio from Senator Portman, but 
I want to use my time to talk a bit about the immense value he 
has added to my State of Indiana and the difference he has made 
in the lives of countless individuals.
    His connection to Indiana is through Purdue University. He 
graduated from Purdue in 1979 and served on the Board of 
Trustees from 2007 to 2013. I asked Purdue President Mitch 
Daniels to describe Mr. Krach's relationship to the university, 
and one word stood out, ``beloved.'' He continued. He is 
beloved for his commitment to students and for helping advance 
the university's mission in learning, discovery, and 
engagement. And we will be proud to see his influence on an 
even larger scale. It sounds really heartfelt, and having spent 
some time with you, Keith, I echo the sentiments.
    Mr. Krach's professional achievements are impressive, and 
they are well documented. You have heard about some of them. He 
is a visionary with global experience that makes him eminently 
qualified to serve the President as Under Secretary of State 
for Economic Growth, Energy, and the Environment.
    What he has chosen to do with his success demonstrates his 
character and devotion to causes that will leave this planet 
better for future generations.
    As Solomon Kahn noted, Mr. Krach has empowered people to 
accomplish more than they had ever imagined, resulting in a 
profound impact on GDP per capita, international trade, and the 
sustainability of our planet.
    Take DocuSign as an example. Not only has it been a 
successful company, it was named one of Glassdoor's best places 
to work. And DocuSign's disruptive technology has saved more 
than 20 billion pieces of paper and 608,000 barrels of oil.
    Additionally, DocuSign IMPACT Foundation, which Mr. Krach 
now chairs, is a force multiplier for the charitable causes 
selected by DocuSign employees.
    Beyond DocuSign, Mr. Krach is an advisor for City Year, 
founder of Children's Autistic Network, and board member for 
Opportunity International, which issues micro-loans worldwide.
    So clearly he has a heart for service, and if that were not 
enough, he and his family foundation supports education, 
science, the arts, health care, and people in need.
    So there is nothing more humbling than reading through this 
list of achievements for me. And I am grateful that Mr. Krach 
has accepted this call to serve his country. He is going to be 
a true asset to the State Department, to this President, and to 
our nation. I look forward to supporting his nomination before 
the committee and on the Senate floor.
    Thanks so much.
    The Chairman. Thank you very much, both Senator Young and 
Senator Portman.
    Welcome to our guests.
    I am going to make some very brief introductory remarks and 
then turn it over to the ranking member, Senator Menendez, to 
make some introductory remarks. And then we will turn to you 
for your opening statements and we will have some questions.
    So with that, welcome to you and your families. Obviously, 
the families share in these just as much, sometimes more so 
than the nominees. I have experienced that myself. But we 
welcome all of you.
    First of all, talking about the appointment of Mr. Destro 
for Assistant Secretary of State for Democracy, Human Rights, 
and Labor. At a time where democracy and human rights are 
challenged across the globe, it is important for this position 
to be filled. In particular, pervasive threats against 
religious freedom threaten our core values. The United States 
will and must continue to defend this fundamental human right. 
Following the United States' withdrawal from the U.N. Human 
Rights Council last June, I look forward to from you on how the 
United States plans to continue to lead on human rights issues 
around the world.
    Next, Mr. Krach for the Under Secretary for Economic 
Growth, Energy, and Environment. This important position 
oversees a number of bureaus at the State Department, and I 
look forward to hearing how you plan to promote the important 
role that these bureaus play in advancing American economic 
interests overseas.
    Finally, I am pleased to welcome General David Stilwell, 
nominated to be Assistant Secretary of State for East Asian and 
Pacific Affairs. General Stilwell brings a wealth of expertise 
in the Indo-Pacific region acquired during his more than 2 
decades of service in the United States Air Force. He served in 
Japan, South Korea, and China, as well as on the Joint Staff 
and at U.S. Indo-Pacific Command. He is currently the Director 
of the China Strategic Focus Group at USINDOPAC Command.
    And on a personal note, General, thank you for hosting me 
at the command. That was very instructive, and I appreciate 
that. Unfortunately, all my colleagues do not have the 
opportunity to do that, but that was a very enlightening 
briefing.
    The Indo-Pacific region is vital to American prosperity and 
security, and the United States has a deep interest in 
supporting a free and open region. I look forward to hearing 
how you will advance U.S. interests in this region, especially 
through strengthening and expanding our alliances and 
partnerships. Our enduring alliances with Japan, South Korea, 
Australia, and New Zealand are a source of American strength. 
Strengthening these alliances and expanding other partnerships 
are key to promoting peace, security, economic development, and 
freedom across the region.
    The challenge of China is global, but most acute in the 
Indo-Pacific. The Trump administration has already engaged in 
rebalancing bilateral relationships and pushing back on China's 
often coercive and intimidating actions in the region. However, 
more, much more, remains to be done.
    We face the continued threat of North Korea's nuclear and 
missile programs. I remain optimistic that we can get a deal, 
but it is going to take time and we will need to keep up the 
pressure.
    The Indo-Pacific and China in particular are a top priority 
for this committee, as we have already discussed in this 
committee. We look forward to particularly close coordination 
with you as you work to advance American interests in this 
important region.
    Along these lines, I would like to take note of the Asia 
Reassurance Initiative Act, an effort led by Senators Gardner 
and Markey, signed into law by the President last December. 
This act aligns well with the priorities articulated by the 
administration and should be implemented.
    Thanks to all for being here with us today. Thanks to your 
families for being here.
    And, Senator Menendez, I will turn the floor over to you.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Welcome to the nominees and to your families as well, and 
thank you for your willingness to serve.
    Mr. Chairman, however, before I turn to these nominees, I 
need to correct the record concerning statements reportedly 
made by President Trump yesterday afternoon in which he claimed 
Democrats were holding up nominations in the Senate.
    Let me be clear. When the Senate Foreign Relations 
Committee has received qualified nominations, I have worked 
with efficiency and diligence to vet and advance these 
nominations. I have devoted my time and staff resources to 
ensure this because of our strong belief that the State 
Department and USAID and other foreign affairs agencies must be 
properly vetted and properly staffed.
    In the last Congress, the committee reported 169 
nominations. So I reject any assertion that we have not done 
our part to ensure that the State Department is appropriately 
staffed.
    As the chairman knows, the committee, with my full support, 
has been extremely diligent in moving forward on General 
Abizaid's nomination to be the U.S. Ambassador to Saudi Arabia. 
He appeared on the very first committee nominations hearing of 
the 116th Congress, and I look forward to voting in favor of 
his nomination, as soon as the chairman puts him to a vote for 
the committee in a nomination process, and to a speedy 
confirmation.
    I have also proposed to the chairman moving forward with 
approximately 20 more nominees based on reaching an agreement 
regarding other committee business, and I look forward to a 
response.
    But I am concerned that President Trump has an inaccurate 
view of the nominations situation in the Senate and 
particularly on the Foreign Relations Committee. We cannot 
confirm diplomats that we do not have. All too often, the 
committee has received nominations late or not at all. It took 
23 months before the administration bothered to nominate 
General Abizaid. It took even longer, over 2 years, before the 
Trump administration nominated a candidate to be U.S. 
Ambassador to Turkey. We are now 26 months into the Trump 
administration, and we still lack ambassadorial nominees to 
critical countries like Egypt, Pakistan, and our close ally 
Jordan.
    And when we do receive nominations, the substandard vetting 
at State means I have to devote significant time and resources 
to ensure that we are not moving nominees who have no business 
representing the United States of America around the world.
    Now, I have been a gentleman about this. I have not gone 
through these nominees' backgrounds, but in fact I intend to go 
to the Senate floor and talk about some of the problems that 
these nominees have. They have problems with Me Too issues. 
They have legal issues. They have ethical issues. This is 
pretty significant for a series of these nominees.
    And so while we have tried to do this internally to get to 
a better place, if the administration wants to make charges 
that are exactly not true, then we will go to the Senate floor 
and have full vetting about what these nominees are all about.
    But to get diplomats in place, they need to be nominated in 
a timely fashion and vetted properly. That is the real holdup 
here above all.
    Now let me turn to the nominees here today.
    General Stilwell, thank you for your lifetime of service to 
our nation. It is good to see a nominee for a critical position 
of Assistant Secretary for East Asia and the Pacific. And it 
has taken a long time, nearly 2 years, but I am glad to see 
that we will, hopefully, soon fill this important post.
    I know you have a deep knowledge and understanding of 
China, but as you know, the region is much more than just 
China. I happen to be one who holds the view that to get China 
right, we have to first get the region right, starting with our 
allies and partners. So I am also interested in hearing your 
views on the rest of the region and how the United States 
should be positioning itself.
    I am sure you followed the press about the President's 
tweet reversing U.S. sanctions on North Korea, followed by what 
appears to be an effort to deny that the President had done 
what I thought he plainly did. I do not know what to say about 
such a process other than to know that dealing with Korea is 
deadly serious business, and I would expect you to share your 
views with us this morning on exactly what you believe both 
happened here and what we will be doing as we move forward 
against one of the critical national security challenges of the 
United States.
    Mr. Destro, welcome. As you know, the Bureau of Democracy, 
Human Rights, and Labor leads many of the State Department's 
most significant efforts to advance American values, including 
the rule of law, democracy, individual rights, religious 
freedom and labor rights. So should you be confirmed as 
Assistant Secretary for DRL, you will lead a bureau that works 
to promote some of our most basic values.
    Last year, I sent a bipartisan letter to the President 
urging him to nominate a properly qualified candidate for this 
position. We advocated for a qualified nominee but, most 
importantly, one committed to upholding the basic rights of all 
people, including those targeted for their work such as 
journalists, labor activists, and human rights defenders.
    So, sir, I have to say I have deep reservations about your 
willingness to carry out those duties.
    First, your statements and positions on a wide range of 
LGBT issues are extremely concerning. In the past, you have 
opposed the Equality Act, which would ban discrimination 
against LGBT Americans. You have criticized nondiscrimination 
protections that allow transgender people to use public 
accommodations. Perhaps most troubling, you have suggested that 
faith could be used as a pretext for discriminatory conduct 
against LGBT people.
    Given your history on these issues, it is hard for me to 
imagine how you could credibly advocate for the rights and 
equal treatment of LGBT individuals.
    When it comes to women's rights, I am not convinced that 
you would be a leader or the staunch defender of women's rights 
across the globe. In my view, reproductive rights are human 
rights, and the reality is that in too many countries around 
the world, it is still entirely acceptable for women and girls 
to be denied autonomy over their bodies and control of their 
lives.
    Many others share these concerns. On March 22nd, a 
coalition of 46 human rights and civil society organizations 
wrote a joint letter opposing your nomination. And I ask, Mr. 
Chairman, that this coalition letter be included in the hearing 
record.
    The Chairman. It will be.


    [The information referred to above is located at the end of 
this hearing transcript.]


    Senator Menendez. Last but not least, Mr. Krach, as 
President Trump's nominee to be the Under Secretary of State 
for Economic Growth, Energy, and the Environment, I hope you 
are ready to hit the ground running. I think you will be.
    Here again, we are dealing with a position that has been 
vacant for more than 2 years.
    I will be looking forward to hearing in our questioning 
some of your views on some of the issues in your portfolio, 
particularly one that I think has a global challenge and that 
ultimately also has an economic growth and environmental 
challenge, which is the issues of climate change. And I look 
forward to hearing your views on that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    To respond just briefly to your remarks about the President 
expressing his frustration on nominees, I share the President's 
frustration. As you know, you and I have had lengthy 
discussions on these, and we want to move these as rapidly as 
possible. We have got about 60 pending in the committee. We had 
13 on the business committee, which has been taken down, as you 
know.
    But the criticism that he has not filled some of these--
again, I think everybody would like to see them filled, but 
when we have got a backlog of 60, it is hard to criticize him 
for not doing his job when we have got 60 in front of us before 
we get to those.
    So in any event, I look forward to working in a cooperative 
fashion and seeing if we cannot get them there. I appreciate 
your desire to go to the floor and talk about the flaws you 
believe in some of these appointments, which is certainly your 
right as Senator to do. But I think you have got the cart 
before the donkey. What we ought to do is get them out on the 
floor and debate them out on the floor, get them out of this 
committee, move them along, and people can vote yes or no as 
they see fit based upon their view of the nominee. The 
President certainly feels that they are qualified. I understand 
you have the absolute right to think otherwise and to debate 
otherwise, but what we should do is move the process along, get 
votes up or down, and let the chips fall where they may, and 
those that do not make it, the President can back up and 
refill.
    So I look forward to working in a cooperative fashion with 
you to moving these as rapidly as possible. There is a lot of 
angst out there, I can tell you, for getting these positions 
filled.
    So with that, Mr. Destro, the floor is yours.

  STATEMENT OF ROBERT A. DESTRO, OF VIRGINIA, TO BE ASSISTANT 
   SECRETARY OF STATE FOR DEMOCRACY, HUMAN RIGHTS, AND LABOR

    Mr. Destro. Thank you, Mr. Chairman. Chairman Risch, 
Ranking Member Menendez, and members of the committee, thank 
you for giving me the opportunity today to appear before you as 
President Trump's nominee to be Assistant Secretary of State 
for Democracy, Human Rights, and Labor. I am humbled by the 
nomination and grateful to the President for the confidence he 
has placed in me. If confirmed, I will be privileged to serve 
our great nation as a member of Secretary Mike Pompeo's team 
and as the leader of the dedicated public servants who are 
together the Bureau of Democracy, Human Rights, and Labor.
    Please allow me at the beginning to take a moment to 
introduce my family. With me today are my wife, Dr. Brenda 
Destro; my daughter, Gina Destro; my son, Mark Destro; and my 
brother-in-law, William Cloonan. I am grateful that they have 
taken time from their busy schedules to be with me here today. 
I would also like to acknowledge the many family members, 
friends, colleagues, and students, both present and former, who 
are watching this hearing online. I am grateful for your 
support too.
    I would also like to acknowledge those who came before me 
but who are no longer with us. My parents, Anthony and Bette 
Destro, were first generation Americans. My dad was a policeman 
in Akron, Ohio for nearly 40 years, and my mom, a homemaker, 
who kept my sisters and me on the straight and narrow. All four 
of my grandparents were teenage peasants who arrived in this 
great country from Sicily in 1910. How amazed and proud they 
would be of our family. Only in America, Senator.
    I can say with confidence ``only in America'' because the 
individual success stories of the members of my wonderful and 
distinguished extended family would not have been possible had 
my grandparents not settled in a social and political community 
that respects the basic equality and dignity of every human 
being. That respect is written into the text and structure of 
our founding documents and is reflected in the text of the many 
human rights conventions, to which the United States is a 
party.
    Our nation's commitment to respect for human dignity shows 
up in our strong support for the rights of individuals and 
associations and in the demands of human rights advocates that 
governments and international organizations live by the command 
that all persons are entitled to equal protection--and I 
underscore ``protection''--of the laws. Americans support and 
encourage a myriad of civil society associations both at home 
and abroad because we strongly believe that, as human beings, 
it is our God-given nature to communicate freely and to 
organize associations to achieve our common goals in matters of 
faith, education, business, politics, the arts, and the welfare 
of others. This is why Congress and the President have asked 
DRL to provide support to individuals and organizations around 
the globe who aspire to enjoy the blessings of liberty, 
democracy, and the freedom to participate, both individually 
and collectively in the labor market.
    Respect for the inherent dignity of every human being 
requires no less. So over the course of my career, I have been 
privileged to serve both here in the United States and abroad 
as a civil rights lawyer, a public servant, an academic, and a 
policy advocate. My work on the legal and policy issues that 
arise at the juncture of law, religion, and culture has given 
me a unique perspective on nearly every aspect of the 
critically important responsibilities that Congress has 
assigned to DRL.
    If confirmed as Assistant Secretary, I will use all of this 
experience and, consistent with the law, will draw upon the 
experience of the many friends and colleagues with whom I have 
been privileged to work to advance DRL's ongoing efforts to 
protect and advance the cause of human rights across the globe. 
DRL is filled with dedicated public servants who are committed 
to the cause of human rights. I will work, if confirmed--to 
work hard to earn not only their support, but yours as well.
    Senator, I think I will leave it there. Thank you very much 
for the opportunity to be here today.
    [The prepared statement of Mr. Destro follows:]


                 Prepared Statement of Robert A. Destro

    Chairman Risch, Ranking Member Menendez, and members of the 
committee, thank you for giving me the opportunity to appear before you 
today as President Trump's nominee to be Assistant Secretary of State 
for Democracy, Human Rights & Labor. I am humbled by the nomination, 
and grateful to the President for the confidence he has placed in me. 
If confirmed, I will be privileged to serve our great nation as a 
member of Secretary Mike Pompeo's team and as the leader of the 
dedicated public servants who, together, are the Bureau of Democracy, 
Human Rights and Labor (DRL).
    Please allow me to take a moment to introduce my family. With me 
today are my wife, Dr. Brenda C. Destro, my daughter, Gina M. Destro, 
my son, Mark B. Destro, and my bother-in-law, William Cloonan. I am 
grateful that they have taken time from their busy schedules to be here 
with me today. I would also like to acknowledge the many family 
members, friends, colleagues and students, both present and former, who 
are watching this hearing online. I am grateful for your support.
    I would also like to acknowledge those who came before me, but who 
are no longer with us. My parents, Anthony and Bette Destro, were 
``first-generation'' Americans. My Dad was a policeman in Akron, Ohio 
for nearly forty years and my Mom, a homemaker who kept my sisters and 
me on the straight and narrow. All four of my grandparents were teenage 
peasants who arrived in this great country from Sicily around 1910. How 
amazed and proud they would be of our family.
Only in America!
    I can say with confidence ``only in America'' because the 
individual success stories of the members of my wonderful and 
distinguished extended family would not have been possible without my 
grandparents having settled in a social and political community that 
respects the basic equality and dignity of each and every human being. 
That respect is written into the text and structure of our founding 
documents and is reflected in the text of the many human rights 
conventions to which the United States is a party.
    Our Nation's commitment to respect for human dignity shows up in 
our strong support for the rights of individuals and associations, and 
in the demands of human rights advocates that governments and 
international organizations live by the command that all persons are 
entitled to equal protection of the laws. Americans support and 
encourage a myriad of ``civil society'' associations both at home and 
abroad because we strongly believe that, as human beings, it is our 
God-given nature to communicate freely and to organize associations to 
achieve our common goals in matters of faith, education, business, 
politics, the arts, and the welfare of others. This is why Congress and 
the President have asked DRL to provide support to individuals and 
organizations around the globe who aspire to enjoy the blessings of 
liberty, democracy, and the freedom to participate, both individually 
and collectively, in the labor market.
    Respect for the inherent dignity of every human being requires no 
less. Respect for the rights and freedoms of others is the foundation 
of effective diplomacy and a stable foreign policy. It is the key to 
helping others to strengthen the institutions of their own civil 
society, and respect for difference and the interests of others is 
absolutely necessary for the protection of America's vital national 
security and economic interests.
    Over the course of my career, I have been privileged to serve, both 
here in the United States and abroad, as a civil rights lawyer, a 
public servant, an academic and a policy advocate. My work on the legal 
and policy issues that arise at the juncture of law, religion and 
culture has given me a unique perspective on nearly every aspect of the 
critically important responsibilities that Congress has assigned to 
DRL.
    If confirmed as Assistant Secretary, I will use all of this 
experience--and, consistent with the law, will draw upon the experience 
of the many friends and colleagues with whom I have been privileged to 
work--to advance DRL's ongoing efforts to protect and advance the cause 
of human rights across the globe. DRL is filled with dedicated public 
servants who are committed to the cause of human rights. If confirmed, 
I will work hard to earn not only their support and respect, but yours 
as well.
    If confirmed as Assistant Secretary, I promise that I will provide 
my best advice and analysis to the Secretary and his leadership team. I 
will also work closely with this and other committees of the Congress 
to develop mutually agreeable outcome measures that will provide some 
assurance to you, and to America's taxpayers, that the money you 
entrust to DRL is being used wisely and effectively to advance our 
values and strategic foreign policy interests.
    Thank you, Mr. Chairman, for your time and attention.


    The Chairman. Thank you.
    Mr. Krach?

STATEMENT OF KEITH KRACH, OF CALIFORNIA, TO BE UNDER SECRETARY 
  OF STATE FOR ECONOMIC GROWTH, ENERGY, AND THE ENVIRONMENT; 
   UNITED STATES ALTERNATE GOVERNOR OF THE EUROPEAN BANK FOR 
    RECONSTRUCTION AND DEVELOPMENT; UNITED STATES ALTERNATE 
   GOVERNOR OF THE INTERNATIONAL BANK FOR RECONSTRUCTION AND 
DEVELOPMENT; AND UNITED STATES ALTERNATE GOVERNOR OF THE INTER-
                   AMERICAN DEVELOPMENT BANK

    Mr. Krach. Thank you, Chairman Risch and Ranking Member 
Menendez, and members of the committee. It is a true privilege 
to appear before you today.
    I am especially grateful to Senators Portman and Young for 
their overly generous introduction.
    I am also honored and humbled that President Trump, at the 
recommendation of Secretary Pompeo, has nominated me to serve 
as Under Secretary for Economic Growth, Energy, and the 
Environment, affectionately referred to as the ``E.''
    I would like to thank all seven of the former E's and the 
incredible State Department team who spent their valuable time 
with me sharing their insights on this important role. As a 
global businessman, I can tell you it is a strategic asset to 
have the finest diplomatic corps in the world in your corner, 
whether it is here or abroad.
    I also want to thank my family for being here today: my 
dear wife Metta, who is a Georgetown lawyer and serves on their 
board; and our five children, Monika, a marine biologist; 
Steve, a spacecraft design engineer at NASA; Carter, a Silicon 
Valley tech entrepreneur; and our 7-year-old twins, JD and 
Emma, whose courage, kindness, and sense of justice inspires me 
every day.
    My story starts like that of many Americans. I grew up in 
small-town Ohio where my father ran a machine shop and my 
mother was a teacher. My dad's customers were suppliers to the 
big three car companies in Detroit, and his fortunes were tied 
to theirs.
    At age 12, I became a welder in his shop and soon learned 
how to work all the machines. In good times, he employed as 
many as five workers, whom he treated as family. In bad times, 
I was his only employee and saw him go through the agonizing 
process of having to lay off his trusted team. His pain was not 
lost on me.
    My father dreamed that I would get some college knowledge 
and return as an engineer to help him grow the machine shop 
into a big company of 10 employees. While I did become an 
engineer, I never went back to work with my dad, but I believe 
he was proud that I joined the biggest company in the world, 
General Motors, which he had taken to calling ``Generous 
Motors'' after they gave me a full ride to Purdue and to 
Harvard Business School.
    10 years at GM gave me the chance of a lifetime to work at 
the Cadillac plant, Tech Center, New York Treasurer's Office, 
and pioneer the emerging field of robotics by starting a joint 
venture that is the largest industrial robotics manufacturer in 
the world today.
    That taste of high-tech innovation inspired me to risk it 
all and move out west to become an entrepreneur. In my eyes, 
Silicon Valley is the West Point of capitalism, a corporate 
United Nations, a total meritocracy, and a place where failure 
is recognized as the best teacher.
    My Silicon Valley journey began at Rasna where we invented 
mechanical design synthesis that enables engineers around the 
world, like my rocket scientist son, to optimize designs in 
real time.
    I then went on to start another company called Ariba, 
taking it public as the world's first business-to-business e-
commerce company. My ultimate aim was to create a values-based 
driven company that was built to last. Now, $1.7 trillion in 
transactions go through the Ariba network each year, more than 
Amazon, eBay, and Alibaba combined.
    My mother taught me that a truly meaningful career is about 
giving back and paying it forward. So after some initial 
success, I worked with the biggest global insurer of micro-
loans, and I would take my family along on journeys to some of 
the most poverty-stricken places in the world to hand out 
micro-loans. I will never forget being in the slums of Mumbai 
after 12-year-old Carter handed an 18-year-old single mother of 
a crippled child a $50 loan to purchase a sewing machine. And 
he said, I get it now, Dad. We are not giving them fish. We are 
teaching them how to fish.
    My children saw firsthand that economic empowerment and 
entrepreneurship can truly have a transformative impact on 
families and communities. That same concept is what makes the E 
mission so meaningful to me.
    I also had a chance to give back to my alma mater Purdue 
where I had the honor of serving as chairman of the board of 
trustees and recruiting Governor Mitch Daniels to be our 
president. I am particularly proud that Mitch is now recognized 
by the ``Wall Street Journal'' as America's most innovative 
university president, but even more so that we have frozen 
tuition for the last 7 years, working to address the $1.5 
trillion student debt crisis.
    I eventually went back to building another company called 
DocuSign, and after recently completing 10 years, it is now a 
public company with more than 400 million users in 188 
countries and, as Senator Young pointed out, along the way we 
saved 20 billion pieces of paper.
    This Ohio boy, who began his journey welding parts and 
later had the good fortune of welding together billion-dollar 
companies, has had the blessing of a true all-American dream. 
But even this dreamer could have never imagined that one day he 
might be presented with an opportunity to give back to this 
great nation which has given him so much.
    If confirmed, it would be the privilege of my life to serve 
the country and pay it forward to this next generation of 
Americans.
    I fully appreciate the enormity and gravity of this role, 
especially in a time where the reality we face as a nation is 
of ever-increasing cyber warfare and seemingly ceaseless 
variations of intense, perhaps even weaponized, economic 
competition.
    As you know, our rivals are playing the long game and they 
are playing for keeps, a four-dimensional game of economic, 
military, diplomatic, and cultural chess with little respect 
for human rights, intellectual property, international law, 
transparency, the environment, or sovereignty of nations.
    In order to prevail, we must play the game better and take 
economic statecraft to the next level. There is no substitute 
for American diplomacy. I believe the team with the best people 
wins and that diversity of thought is the catalyst for genius.
    With that aim in mind, if confirmed, I will work side by 
side at all levels with our preeminent diplomatic corps and 
with each of you in a meaningful way benefiting from your 
experience, your insights, and your wisdom. If confirmed, I 
will work tirelessly and strategically here and around the 
world to optimize economic growth, energy security, and the 
health of our planet for the sake of advancing the interests of 
our citizens and maximizing our national security.
    Thank you so very much for your kind attention.
    [The prepared statement of Mr. Krach follows:]


                  Prepared Statement of Keith J. Krach

    Good morning, Chairman Risch, Ranking Member Menendez, and 
distinguished Members of the committee. It is a privilege to appear 
before you today and I thank you all for your time and consideration, 
especially those of you who took time from your busy schedules to meet 
with me.
    I am profoundly honored that President Trump, at the recommendation 
of Secretary Pompeo, has nominated me to serve as the Under Secretary 
of State for Economic Growth, Energy and the Environment, 
affectionately referred to simply as ``E.''
    I am also grateful to all 7 of the former E Under Secretaries who 
spent their valuable time with me and shared their insights about this 
important role. Thank you, Joan Spero, Stu Eizenstat, Al Larson, 
Josette Sheeran, Reuben Jeffery, Bob Hormats and Cathy Novelli.
    I would also like to thank the incredibly professional group of 
Civil and Foreign Service officers from the Department who helped bring 
me up to speed on the amazingly diverse work they do to support 
American interests here and abroad. I can honestly say I have never 
worked with a more welcoming, dedicated, intelligent, hard-working and 
patriotic group of individuals, and, if confirmed, it will be my great 
privilege to lead them.
    I particularly wish to thank Manisha Singh, the Acting Under 
Secretary, who has been most generous with her time from the Economic 
and Business Affairs Bureau. Frank Fannon, our Assistant Secretary for 
the Energy Bureau and Marcia Bernicat, the Principal Deputy Assistant 
Secretary for the Bureau of Oceans and International Environmental and 
Scientific Affairs, were equally generous with their time.
    Finally, I want to thank the E Team, in the Office of the Under 
Secretary who guided me throughout this complex process.
    I would not have been here today without their incredible 
dedication, preparation and good humor. As a global business man, I can 
tell you, it is a strategic asset having the finest diplomatic corps in 
the world on our side.
    I also want to thank my beloved family: My dear wife, Metta, who is 
a Georgetown lawyer and serves on their Board; and our five children: 
Monika, a marine biologist serving in the nonprofit sector; Stephen, a 
spacecraft design engineer at NASA's Jet Propulsion Laboratory; Carter, 
a Silicon Valley technology entrepreneur; and our seven-year-old twins, 
JD and Emma, whose courage, sense of justice and kindness inspires me 
every day.
    My story starts like that of many Americans. I grew up in small-
town Ohio, where my father ran a machine shop and my mother was a 
teacher. My dad's customers were suppliers to the big three car 
companies in Detroit, and his fortunes were tied to theirs.
    In good times, he employed as many as five workers, whom he 
considered family. When things slowed down, I saw him go through the 
agonizing process of having to lay off trusted employees. His pain was 
not lost on me.
    At the age of 12, I became a welder in his shop and soon learned 
how to work the machines. I cherish the memory of working at his side. 
In boom times, we scrambled to fill big orders. In bad times, I was his 
only employee.
    When orders dried up, my mom courageously assured us that 
``everything would be okay and to buckle our chinstraps.'' To help make 
ends meet, she worked second and third jobs, including coaching the 9th 
grade boys wrestling team. She was and is our rock and inspiration.
    My father dreamed that I would get some ``college knowledge'' and 
return as an engineer to help him grow the machine shop into a big 
company of 10 employees. While I did become an engineer, I never did go 
back to work with my dad in Ohio. But I think he was proud that I went 
to work for General Motors, the biggest company in the world at that 
time, which my dad had taken to calling ``Generous Motors'' after they 
awarded me a full scholarship to attend both Purdue University and 
Harvard Business School.
    I will be forever grateful for my 10 years working at GM where I 
learned manufacturing at the Cadillac plant in Detroit, engineering at 
the GM Tech Center, finance at the New York Treasurer's Office and was 
given the opportunity to lead a pioneering robotics joint venture, 
which I am proud to say has grown into the largest industrial robot 
manufacturer in the world.
    That taste of hi-tech innovation inspired me to take the risk to 
move out West and become an entrepreneur. In my eyes, Silicon Valley is 
``the West Point of Capitalism,'' a corporate United Nations, a total 
meritocracy and a place where failure is recognized as the best 
teacher. The objective is to reinvent everything, innovate at scale, 
with speed being the ultimate currency.
    My Silicon Valley journey essentially began at Rasna Corporation, a 
software company where we invented Mechanical Design Synthesis that 
enables engineers around the world--like my rocket-scientist son at 
NASA--to optimize their designs in real time. I went on to start 
another company called Ariba, taking it public as the world's first 
business-to-business internet e-commerce company. My goal was to create 
a values-driven company that was ``built-to-last.'' Last year, $1.7 
trillion in transactions were processed through the Ariba network, more 
than Amazon, eBay and Alibaba combined.
    My mother taught me that a meaningful career is truly about 
``giving back and paying it forward,'' so after some initial success I 
set out to give back to the organizations that helped me along the way, 
as well as, pay it forward to people who are less fortunate than me.
    I served on the Board of the largest private issuer of micro loans 
in the world, Opportunity International. I saw firsthand the way that 
transformational leadership and the private social sector can truly 
change communities and help families, many living on less than a dollar 
a day, by spreading kindness, empowerment and hope. I would bring my 
three teenage children along on these journeys as we traveled to the 
poorest of neighborhoods, schools and orphanages in countries like 
Kenya, the Philippines, India, Honduras, Indonesia, Peru, Viet Nam, and 
Nicaragua.
    They made hundreds of close connections by giving a warm hug and 
personally handing out numerous $50 loans. They witnessed in person the 
impact of what I refer to as ``the 3 big E's''--the power of 
entrepreneurship, economic empowerment of women and education. I will 
never forget what my 12-year-old son said, while in the slums of 
Mumbai, after handing a $50 loan to an 18-year-old single mother of a 
crippled child so that she could purchase a sewing machine instead of a 
dreadful alternative. ``I get it now, dad. Just like it says--we are 
not giving them fish, we are teaching them to fish.'' I knew then that 
by helping to transform the lives of those less fortunate, my 
children's as well as my life would be forever transformed.
    Always near and dear to my heart is my alma mater, Purdue 
University, where I had the honor of serving as the chairman of the 
Board of Trustees and recruiting the former head of OMB and Governor of 
Indiana, Mitch Daniels, to be our president. At Purdue, we worked to 
create a model in higher education, innovating new solutions in student 
affordability, online learning, global reach and retraining the 
workforce, which I believe will have a lasting impact in reforming 
higher education.
    I am particularly proud that Mitch is now recognized by WSJ as 
America's most innovative university president and equally proud that 
we have frozen tuition for the last 7 years, working to address the 
$1.5 trillion student debt crisis.
    I eventually went back to be a CEO and Chairman again at a small 
50-person company called DocuSign that had a simple dream of automating 
the signature process. After recently completing 10 years there, it is 
now a public company with more than 400 million users in 188 countries 
and recognized worldwide for its transformative impact on the way 
business is done. It is an example of how private industry and 
technological innovation can accelerate commerce securely by replacing 
slow, wasteful paper transactions--and along the way, we saved the 
planet 20 billion pieces of paper.
    This Ohio boy, who began his journey welding parts and later had 
the good fortune of welding together billion-dollar companies, has had 
the blessing of a true All-American dream. But not even this dreamer 
could have ever imagined, that one day, he might be presented with an 
opportunity to give back to this great nation, which has given him so 
much.
    If confirmed, it would be the privilege of my life to serve this 
country and pay it forward to the next generation of Americans.
    I fully appreciate the enormity and gravity of this role, 
especially in a time where the reality we face as a nation is one of 
ever-increasing cyber warfare and seemingly ceaseless variations of 
intense, perhaps even weaponized, economic competition.
    As you know, our rivals are playing the long game and they are 
playing for keeps a four-dimensional game of economic, military, 
diplomatic and cultural chess with little respect for human rights, 
intellectual property, international law, transparency, the 
environment, or the sovereignty of other nations.
    At the end of the day, there is no substitute for American 
leadership. In order to prevail, we must play this game better and take 
economic statecraft to the next level.
    My life's work has been focused on creating innovative companies 
and transformative social causes by building high-performance teams 
that challenge the status quo. I believe the team with the best people 
wins and that diversity of thought on any team is the catalyst for 
genius.
    With that aim in mind, if confirmed, I will be honored to work 
side-by-side at all levels with our accomplished and committed 
diplomatic corp and with each of you in a meaningful way, benefiting 
from your experience, insights and wisdom.
    Economic diplomacy is at an inflection point and technological 
advances have changed everything. Change is inevitable, and I believe 
it is also the most powerful and exciting word in any language. Change 
need not favor our adversaries.
    If confirmed, my focus will be on embracing this opportunity and 
harnessing 3 powerful areas of competitive advantage: strengthening our 
partnerships with friends and allies, leveraging the innovation and 
resources of the private sector, and amplifying the moral high ground 
of our American values and enduring optimism to advance peace and 
prosperity for our country and for the world.
    If confirmed, I will work tirelessly and strategically here and 
around the world to optimize economic growth, energy security and the 
health of our planet for the sake of advancing the interests of our 
citizens and maximizing our national security.
    Chairman Risch, Ranking Member Menendez, and distinguished members 
of the committee, I thank you for the opportunity to appear before you 
today. I am honored and humbled that you are considering me for this 
important position. I welcome your comments and questions. Thankyou.


    The Chairman. Thank you, Mr. Krach.
    General Stilwell?

 STATEMENT OF BRIGADIER GENERAL DAVID STILWELL, USAF, RETIRED, 
 OF HAWAII, TO BE ASSISTANT SECRETARY OF STATE FOR EAST ASIAN 
                      AND PACIFIC AFFAIRS

    Mr. Stilwell. Chairman Risch, Ranking Member Menendez, 
members of the committee, thank you for this opportunity.
    I would also like to thank President Trump and Secretary 
Pompeo for their confidence and support.
    Peaceful and mutually beneficial relations with East Asian 
and Pacific nations have been a U.S. strategic priority for 
generations. Recognizing this, as well as the region's more 
competitive environment, this administration has identified 
maintaining a free and open Indo-Pacific as a top priority. If 
confirmed, I am committed to realizing a vision for the region 
that more actively advances longstanding U.S. interests, 
bolsters the freedom of East Asian and Pacific nations to 
choose their own path, and brings them together to form a 
strong and prosperous region.
    America's vision is built on enduring principles: freedom 
of the seas and skies; preserving sovereignty; resisting 
coercion; promoting market-based economics and free, fair, and 
reciprocal trade; and supporting good governance and respect 
for human rights. If confirmed, I will work tirelessly to 
advance these principles.
    A network of likeminded allies and partners is key. Our 
strong alliance relationships with Japan, Korea, Australia, and 
the Philippines continue to flourish, and the recent elections 
in Thailand are a very positive development.
    Growing relationships with strategic partners like Vietnam 
and Singapore will continue to benefit both sides, and the Vice 
President's trip to the region last fall demonstrated the 
importance of Pacific island countries to maintaining a free 
and open Indo-Pacific.
    In this effort, New Zealand increasingly contributes across 
the broader region, while ASEAN remains the core of our 
regional engagement.
    If confirmed, I will foster these relationships based on 
our shared interests and values.
    On the other hand, critical security challenges remain. The 
most urgent is North Korea's nuclear and missile programs.
    Longer-term, strategic competition with China presents a 
comprehensive generational challenge. We will cooperate with 
China where it advances our interests as in North Korean 
denuclearization, but we must compete vigorously where our 
interests diverge.
    As the President's National Security Strategy makes clear, 
we are concerned by Beijing's use of covert, corrupt, and 
coercive means to interfere in the internal affairs of others. 
China has used various levers to undermine others' sovereignty 
whether through the One Belt One Road project or a 
militarization of the South China Sea. I appreciate this 
committee's work on ARIA and the BUILD Act to enable regional 
partners to resist these trends.
    As well, Beijing must abide by its commitments related to 
Taiwan in accordance with the Three Communiques. If confirmed, 
I commit to working to show China a better way that includes 
respect for human rights, freedom of religion, and building 
trust by honoring its commitments, while insisting on 
reciprocity and true mutual benefit in our bilateral 
relationship.
    In the region, there is concern about backsliding on human 
rights and democracy, for example, the plight of Burma's 
Rohingya people, Chinese government repression of Muslim 
minorities in Xinjiang, and the banning of political opposition 
in Cambodia. If confirmed, I will continue to promote openness, 
rule of law, and the protection of human rights and fundamental 
freedoms.
    Despite these challenges, the region is bright with 
opportunity with several of the United States' largest export 
markets and investment destinations in some of the world's 
fastest growing economies. As Vice President Pence noted in 
Singapore in November, our trade grows with the region's middle 
class, topping $1.83 trillion in 2017. This helps U.S. 
businesses, workers, farmers who can offer valuable goods, 
services, and American know-how.
    Mr. Chairman and members of the committee, this 
administration is working to ensure that East Asia and the 
Pacific continues to be a free, open, secure, and prosperous 
region. If confirmed, I am committed to working with you to 
ensure this trend continues.
    And now for the best part, I am joined today by my wife 
Jan, who flew out here with me from Honolulu; our son Dane, who 
is here from Los Angeles; and our daughter Janae could not make 
it. She is in Tokyo studying accounting as an exchange student. 
We are celebrating our 30th anniversary today. So thanks for 
making this milestone the most memorable.
    [Laughter.]
    Mr. Stilwell. And with that, I look forward to your 
questions.
    [The prepared statement of Mr. Stilwell follows:]

                  Prepared Statement of David Stilwell

    Chairman Risch, Ranking Member Menendez, and members of the 
committee: Thank you for the opportunity to appear before you. I would 
also like to thank President Trump and Secretary Pompeo for their 
confidence and support.
    Peaceful and mutually beneficial relations with East Asian and 
Pacific nations have been a U.S. strategic priority for generations. 
Recognizing this, as well as the region's more competitive environment, 
this administration has identified maintaining a Free and Open Indo 
Pacific as a top priority. If confirmed, I am committed to realizing a 
vision for the region that more actively advances longstanding U.S. 
interests, bolsters the freedom of East Asian and Pacific nations to 
choose their own path, and brings them together to form a strong and 
prosperous core of a vibrant region.
    America's vision is built on enduring principles: ensuring the 
freedom of the seas and skies; insulating sovereign nations from 
external threat or unlawful use of force or coercion; promoting market-
based economics, open investment environments, and free, fair, and 
reciprocal trade; and supporting good governance and respect for human 
rights. If confirmed, I will work tirelessly to promote these 
principles.
    Our network of like-minded allies and partners is key. Our strong 
alliance relationship with Japan continues to flourish as we cooperate 
economically, confront shared challenges, and strengthen bilateral 
trade ties. Our iron-clad and decades-long alliance with South Korea is 
now global in reach, and has only strengthened as we coordinate more 
closely to achieve the final, fully verified denuclearization of North 
Korea and welcome it into the family of nations. And Australia 
continues its tradition of mateship by addressing new challenges in 
innovative ways Australia is reaching beyond its historical areas of 
interest, linking up with traditional and non- traditional partners to 
attack common threats.
    In Southeast Asia, there is great potential to further expand 
cooperation with treaty allies Thailand and the Philippines, as well as 
other partners like Vietnam and Singapore. As the Vice President's trip 
to the region last fall showed, we recognize the importance of Pacific 
Island Countries to achieving a free and open Indo-Pacific, and are 
committed to working with them to tackle global and regional 
challenges. We work closely with New Zealand on the Pacific and across 
the region more broadly.
    The Trump administration is committed to maintaining ASEAN 
centrality at the core of our engagement with broader regional 
institutions such as the East Asia Summit, the ASEAN Regional Forum, 
and the Asia Pacific Economic Cooperation forum. If confirmed, I will 
prioritize longstanding relationships based on our shared interests and 
values.
    While East Asian and Pacific nations have generally enjoyed peace 
for decades, critical security challenges remain. The most urgent is 
North Korea's nuclear and missile programs. If confirmed, I will work 
with Special Representative Biegun and others to maintain international 
pressure on North Korea.
    As a strategic competitor, China presents a longer-term challenge. 
We will cooperate with China where it advances our interests, as in a 
denuclearized North Korea and counter-narcotics, but we must compete 
vigorously where our interests diverge. As the President's National 
Security Strategy makes clear, we are concerned by China's use of 
covert, corrupt, and coercive means to interfere in affairs outside its 
borders, as well as its use of military threats to compel other states 
to heed its agenda. China's actions often undermine national autonomy, 
whether through commercially unviable projects that indebt other 
countries, or militarization of the South China Sea.
    China also should stop its pressure and coercion and resume 
dialogue with the democratically elected authorities on Taiwan. If 
confirmed, I commit to working to show China a better way to achieve 
its goal of national rejuvenation that includes respect for human 
rights, freedom of religion, and other nations' sovereignty, while 
insisting on fairness and reciprocity in our bilateral relationship. I 
also will make clear that the United States expects that any resolution 
of cross-Strait differences must be peaceful and based on the will of 
the people on both sides, in accordance with the Taiwan Relations Act 
and the Three Communiques.
    Despite these significant challenges, the region is also bright 
with opportunity, with a quarter of the global economy, some of the 
world's fastest growing economies, and several of the United States' 
largest export markets and investment destinations. As Vice President 
Pence noted in Singapore in November, our trade grows with the region's 
middle class, topping $1.83 trillion in 2017. This helps U.S. 
businesses, workers, and farmers who can offer valuable goods and 
services to the region's growing markets.
    The United States will work with East Asian and Pacific nations, as 
part of our broader Indo- Pacific approach, to create the conditions 
needed to attract greater private investment. This engagement allows us 
and our partners to advance an economic and trade architecture that 
opens markets; promotes high standards; and achieves free, fair, and 
reciprocal trade.
    If confirmed, I will work with my colleagues in the interagency to 
foster private sector-led development over state-dominated approaches 
that impinge on national sovereignty and local autonomy. In particular, 
I will work to implement the numerous economic initiatives the 
President, the Vice President, and Secretary Pompeo have announced. 
These promote fair and reciprocal trade, and expand sustainable 
investment in infrastructure, energy, and the digital economy.
    Continued prosperity and autonomy are rooted in good governance and 
transparency. The United States supports strong civil society, efforts 
to counter corruption, judicial sector and legal reform, responsible 
borrowing, and honest procurement and contracting practices, among 
other aims.
    We are also concerned about backsliding on human rights and 
democracy, including the plight of Rohingya from Burma's Rakhine State, 
China's repression of Muslim minorities in Xinjiang, and banning of the 
political opposition in Cambodia. If confirmed, I will continue to 
promote openness, rule of law, and the protection of human rights and 
fundamental freedoms.
    Finally, the United States is working with East Asian and Pacific 
partners to strengthen maritime security and domain awareness, 
humanitarian assistance and disaster response, and peacekeeping 
capabilities, as well as to counter transnational crime. If confirmed, 
I will continue to deepen these important partnerships.
    Ensuring success for U.S. objectives in this region will require 
the full spectrum of our capabilities, including diplomatic 
initiatives, public diplomacy, capacity building, economic cooperation 
and commercial advocacy, and military cooperation. If confirmed, I am 
committed to using all of our tools to advance our strategic priorities 
and increase engagement with allies and partners.
    Mr. Chairman and members of the committee, this administration is 
working to ensure that East Asia and the Pacific continues to be a 
free, open, secure, and prosperous region. If confirmed, I am committed 
to working together with the dedicated professionals at the Department 
of State and our missions in the region to ensure this continues under 
my tenure as Assistant Secretary of State for East Asian and Pacific 
Affairs.
    Thank you for inviting me to testify today and I look forward to 
your questions.


    The Chairman. Thank you, General. My wife and I have 
celebrated some anniversaries like that too.
    [Laughter.]
    The Chairman. Believe me, it will be a memorable experience 
over the remainder of your marriage. I promise you that.
    Well, we are going to do a round of questions. But I 
promised Senator Isakson, who has another commitment, that he 
could have a minute to start with. So, Senator Isakson, I am 
going to yield to you.
    Senator Isakson. Thank you very much, Mr. Chairman. I 
apologize to the committee in advance.
    But two things. One is from a past Member that all of you 
know. Saxby Chambliss told me on Sunday if I did anything this 
week, I had to come and make sure that I said good things about 
Mr. Krach. So I want to say good things about Mr. Krach. I am 
sure his testimony is going to be as good as his introduction 
of himself. We are proud to have you and your family here 
today.
    The second thing I want to do is bring up an important 
issue for our country, particularly for aviation and something 
that Mr. Krach will have to deal with and I hope deal with it 
successfully. But we have open skies agreements with a number 
of the Middle Eastern country-owned airlines who are subsidized 
by the sovereign wealth funds and compete with the United 
States by getting into our marketplace through circuitous 
routes and then compete for personnel and other things at an 
advantage to our people, which we cannot compete with. I want 
to make sure Mr. Krach will promise us he will do everything he 
can to enforce U.S. agreements with foreign airlines coming 
into the country with regard to open skies and be sure we have 
fair and equitable play for our airlines and aviation industry 
in America with the open skies agreements. And I hope he will 
take that position.
    I congratulate you and you have a beautiful family.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Isakson. I am not speaking 
for everyone on the committee, but I think most people on the 
committee share your view on the open skies agreement and some 
of the backward way they are going about that, which has been 
detrimental to airline industries in the United States. So 
thank you very much for your comments.
    I also got the same call from Saxby.
    Well, first of all, I am going to be brief and then yield 
to the ranking member.
    I have a question, Mr. Stilwell, regarding North Korea. We 
all agree that it is important we maintain maximum pressure on 
North Korea especially after the second summit. He has 
indicated that it is not going to go as quickly as a lot of us 
would like to see although I think most of us understood we 
were going to have to have some patience in this regard.
    Last week, the Treasury designated two Chinese shipping 
companies for attempted evasion of North Korea sanctions. The 
next day, the President tweeted saying he had ordered the 
withdrawal of those additional sanctions, which has created 
some confusion. And I wonder if you could tell us your 
understanding of what happened, please, and in your view what 
the implications are for sanctions going forward. And I am sure 
we are going to explore that more as questions go on. So, 
General Stilwell.
    Mr. Stilwell. Senator, thank you for that question, for the 
time we got to spend in your office.
    The North Korea question to me is very optimistic. Things 
are looking much better than they have over the last 20 years 
since I was first involved in 1994 in Kunsan, Korea when we 
discovered the Yongbyon reactor issue.
    If you look at the last 2 years under the pressure 
campaign, we have seen no nuclear tests. We have seen no 
missile launches. We have seen no provocations. The slow and 
patient diplomacy seems to be working. There is going to be ebb 
and flow with that, but staying the course and letting the 
North Koreans know that we are not going to pull back just on 
their word--we have been fooled enough times. And so the steady 
pressure will continue to have an effect.
    As for the sanctions, I am going to defer to Treasury on 
that one but look forward to working with you on that question.
    The Chairman. Thank you, General.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    General, to you and your wife, happy anniversary. We will 
try to make it as happy as possible in this process.
    Let me turn to Mr. Destro. Mr. Destro, do you believe that 
the annual country reports on human rights are valuable?
    Mr. Destro. I am sorry?
    Senator Menendez. Do you believe that the annual country 
reports on human rights are valuable? And would you put your 
microphone on, please?
    Mr. Destro. Yes, Senator, I do. In fact--you go ahead. I am 
sorry.
    Senator Menendez. And in your view, do they contribute to 
advancing fundamental and universal human rights?
    Mr. Destro. I think they do, absolutely.
    Senator Menendez. So in 2018, while speaking on a panel by 
the Family Research Council, you said that the United States 
have these reports and we kind of cram the way we do things 
here down other people's throats and they are not ready for it. 
What did you mean by that?
    Mr. Destro. Well, Senator, thank you for the question and 
it is an important one.
    I look at the human rights reports as the foundation of 
much of our foreign policy in human rights. I know they are 
relied upon.
    But what I was reacting to is comments that I have had from 
people in other countries. So the essence of diplomacy is being 
engaged with everyone from good actors to bad actors, and there 
is frustration out there in some cases.
    Senator Menendez. But certainly the Universal Declaration 
of Human Rights of the United Nations and virtually most 
countries in the world have adopted--that promoting that is 
not, quote, cramming down people's throats.
    Mr. Destro. No, Senator, it is not. Like I said, the human 
rights reports are the foundation of much of the work that--
certainly what DRL does. And it is also very foundational to 
what most of the human rights groups do. So I am very 
supportive of the reports and actually would like to take them 
to the next step.
    Senator Menendez. Well, what would that mean?
    Mr. Destro. Pardon?
    Senator Menendez. What would that mean?
    Mr. Destro. I would like to see them be more interactive. I 
think what we are looking at now is a very good, solid report. 
One of the things that the wonderful staff at DRL has done with 
me over the past month or so is they have given me access to 
what the instructions are, and I think Ambassador Kozak did a 
wonderful job when he explained what it is that DRL is trying 
to do with the reports. But there are many other pieces of 
information that are not in the reports that I think DRL could 
make available to you and to the public, working across these 
agencies in the State Department. And that is a conversation I 
look forward to having, if confirmed.
    Senator Menendez. In March 2017 at Catholic University 
School of Law, there was an event titled ``Trump's Refugee 
Order: Getting Down to Reality in the Age of Misinformation.'' 
You were a panelist at that event. Is that correct?
    Mr. Destro. Yes, sir.
    Senator Menendez. In your remarks, you spoke to the U.S. 
refugee vetting system, and you said, quote, I would venture to 
say that it is probably unlikely that most of the consular 
officers really would know how to figure out who an ISIS person 
anyway because asking those kinds of questions require levels 
of sophistication that I have yet to see of the State 
Department. Close quote.
    I assume that before you spoke on the panel on refugees, 
should you not have known that all refugees admitted in United 
States are also vetted by the Department of Homeland Security, 
the FBI, and other national security agencies?
    Mr. Destro. Yes, Senator, I know that.
    Senator Menendez. So are you suggesting that the State 
Department employees have insufficient sophistication to 
perform their critical national security duties?
    Mr. Destro. No, Senator, I am not. What I am suggesting is 
that in the many years that I have been dealing with the State 
Department--and it goes back many years now--one of the things 
that I have learned over time is that the State Department--
many of the people in the State Department--I should not say 
everyone--have had a hard time dealing with the issue of 
religion. And that is one of the issues I would like to bring 
to their attention. And this question of who is a terrorist and 
who is not requires a lot of sophistication.
    Senator Menendez. There is a lot of sophistication at DHS, 
FBI, and other national security agencies.
    But since you brought up the question of religion, as part 
of the Republican National Lawyers Association conference in 
May of 2017, you participated in a panel where you discussed 
the merits of the President's executive order granting broader 
religious freedom to individual organizations. And during the 
discussion, you said the following. Quote: What we need the 
President to do is get these agencies staffed up with people 
who really understand what religious liberty is all about so 
that we can get some training done and we do not have to deal 
with all the holdovers who make our lives miserable when we go 
deal with these executive agencies.
    Now, that statement is concerning to me. I can assure you 
that if you are confirmed, the committee will be watching 
closely on how you handle personnel issues at DRL. Can you 
assure, because we have already had instances of political 
retribution at the State Department--can you assure me that you 
will not engage in any of these prohibited practices?
    Mr. Destro. Senator, I am glad you asked me that question.
    Of course, I will assure you of that. I mean, I have been a 
labor lawyer all of my career. I believe that you address 
people according to their abilities. And my job as the leader 
of the wonderful people I have met at DRL is to actually find 
out what they want to do in their careers and for me to help 
them do that. So I do not have a problem with making that 
assurance to you, and I will be happy to report back to you 
whenever you would like.
    Senator Menendez. I have another question, Mr. Chairman, 
but I will wait for the second round.
    The Chairman. Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    And, General Stilwell, happy anniversary to you. And I 
think Chairman Risch probably scheduled hearings on his 
anniversary so he could get out of paying for dinner. I do not 
know. Is that what you did, Mr. Chairman?
    [Laughter.]
    Senator Gardner. Thank you all for your time and testimony 
today and welcome to your families and your commitment to 
public service.
    General Stilwell, I am going to spend most of my time with 
you. Do you commit to the full implementation of the Asia 
Reassurance Initiative Act, or ARIA?
    Mr. Stilwell. Senator, absolutely.
    Senator Gardner. Thank you. Your testimony is very much in 
line with what ARIA does. In fact, ARIA is basically the flesh 
and bones of your testimony. How would you interpret that, your 
testimony today, and how it fits with ARIA?
    Mr. Stilwell. Senator, I see it as a proactive approach to 
a challenge in the Asia-Pacific that we really have not had to 
deal with in the past. And so the legislation is very timely. 
It counters a state-run and directed attempt to, in many ways, 
undermine state sovereignty, individual nation sovereignty, 
through what looks like infrastructure funding but does not. 
Whereas, ARIA leverages the open market private sector funding 
that develops and delivers all sorts of great things in the 
world of infrastructure, high quality infrastructure at 
reasonable prices.
    Senator Gardner. And I think you may be talking about the 
BUILD Act. So I want to make sure on the Asia Reassurance 
Initiative Act, though, that you are fully committed to the 
implementation of the Asia Reassurance Initiative Act.
    Mr. Stilwell. Yes. Apologies for conflating.
    Senator Gardner. No, no. That is okay. The Obama pivot and 
rebalance was a good idea, but the difference between that 
success and failure is ARIA. ARIA means all the difference 
between taking the pivot and rebalance and actually turning it 
into something that does provide U.S. presence and leadership 
in the region. So thank you for your commitment.
    And will you agree to appear before this committee in the 
future to talk about the implementation of ARIA?
    Mr. Stilwell. Yes, Senator, absolutely.
    Senator Gardner. Thank you.
    This is an important generational opportunity for the 
United States to provide leadership with all of the elements 
that the Asia Reassurance Initiative Act contains. Yesterday, I 
met with leaders from Vietnam, leaders from Thailand as well. 
And all of them--the first discussion we had was on ARIA and 
how they can partner with the United States to implement ARIA. 
If we miss this opportunity, the U.S. will once again have 
failed on leadership in Asia. We cannot afford to fail. ARIA is 
critical to that success.
    So thank you, General Stilwell, for your commitment and 
your leadership.
    Do you commit to the full enforcement of existing sanctions 
against the North Korean regime under U.S. law, including those 
mandated by the North Korea Sanctions and Policy Enhancement 
Act and ARIA as well?
    Mr. Stilwell. Affirmative. I do.
    Senator Gardner. Thank you.
    Do you agree that no sanctions against North Korea should 
be lifted?
    Mr. Stilwell. Senator, I believe--yes. I believe UNSCR-
approved sanctions should be enforced by all parties that 
signed up to that, U.S. and countries, as part of it.
    Now, as far as the bilateral U.S.-North Korea sanctions, 
yes, we should. I believe that------
    Senator Gardner. I want to clarify the question a little 
bit, that no sanctions will be lifted until North Korea 
demonstrates a commitment to complete, verifiable, irreversible 
denuclearization.
    Mr. Stilwell. Exactly. And so, again, we bought this horse 
before and appreciate the fact that long-term, patient pressure 
has had a very positive effect, as I mentioned earlier, and 
releasing that pressure too soon will get us right back where 
we started.
    Senator Gardner. My concern, of course, is that we are now 
slow boiling back to strategic patience, which failed to do 
anything to deter North Korea. I am concerned about sanctions 
that are being imposed under U.S. law, rightfully so by 
Treasury, and then waived by the administration for no apparent 
concrete step toward denuclearization. That is a very big 
concern. And I think if we are going to relieve maximum 
pressure, we are going to end up back in the failed strategic 
patience doctrine.
    I would just point out that on March 31st, in just a few 
days, a report is due from the Department of State. This is a 
report on a strategy to address the threats posed by and the 
capabilities of North Korea. This report requires identifying 
strategies and policies to achieve peaceful denuclearization, 
to eliminate the threat posed by ballistic missiles, includes 
an assessment of potential road maps towards peaceful 
denuclearization. This report is due in just a few days. We had 
a hearing yesterday with Dr. Victor Cha, Ms. Kelly Magsamen, 
and both of them agreed that we are nowhere near getting this 
report to Congress, as required by law, signed on December 31st 
by the President.
    So this is going to be a top priority of mine, should you 
be confirmed under this. So I would like to make sure that we 
get that.
    And then also I would just submit for the record a letter 
that Senator Markey and I sent to Secretary Pompeo and 
Secretary Mnuchin that talks about the slow-down in sanctions 
against North Korea. Since March of 2017, there were 182 
persons and entities sanctioned by--and I know this is a 
Treasury call, but you work very closely hand-in-glove with 
Treasury and we need your pressure to make sure maximum 
pressure is working.
    But since February 23rd, only 26 new designations have 
occurred despite ample evidence of illicit behavior from 
Pyongyang and its enablers.
    So, Mr. Chairman, I would ask unanimous consent that this 
be submitted for the record.
    The Chairman. It will be.


    [The information referred to above is located at the end of 
this hearing transcript.]


    Senator Gardner. Thank you.
    And just finally, the contours of the U.S. approach towards 
China--I will follow up on this with a question for the record. 
But do you commit to working with the subcommittee and the full 
committee on a comprehensive effort to shape a new China policy 
that is consistent with the National Security Strategy and the 
National Defense Strategy?
    Mr. Stilwell. Yes, Senator. I look forward to it.
    Senator Gardner. Thank you.
    And will you commit to appearing before my subcommittee or 
the full committee to discuss these efforts in the near future, 
including to provide constructive feedback on legislative 
efforts?
    Mr. Stilwell. Affirmative.
    Senator Gardner. Thank you, Mr. Chairman.
    And, again, happy anniversary, General Stilwell. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Gardner.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And congratulations to the witnesses for your nominations, 
for your anniversary.
    I grew up working in my dad's welding shop, Mr. Krach. So I 
appreciate that aspect of your story as well.
    Professor Destro, thank you for the opportunity to meet in 
the office, and I have a couple of questions for you, one that 
you and I talked about yesterday.
    I asked this question in a confirmation hearing when 
Governor Brownback was nominated to be Religious Freedom 
Ambassador, and I was disappointed that I did not get an 
unequivocal answer. So I want to ask you the same question 
because it is so directly related to your human rights 
portfolio, should you be confirmed.
    Some governments use religious justifications to imprison 
and execute LGBTQ people. Do you believe there is any 
circumstance under which religious freedom can justify 
criminalizing, imprisoning, or executing people based on their 
LGBTQ status?
    Mr. Destro. No, Senator, I do not.
    Senator Kaine. Professor Destro, you engaged in a lot of 
writing prior to the marriage equality decision of the Supreme 
Court, and my understanding of your position at that time was 
you did not believe that the Fourteenth Amendment equal 
protection guarantee extended to guarantee same sex individuals 
the right to choose their own partners and marry. There was a 
phrase that you used in one of the articles that you wrote in 
2012 that I just want to ask you about, and it goes like this. 
If the structure of heteronormativity is to be dismantled, 
there is only one place to do it. At the ballot box.
    Throughout our history on fundamental issues of human 
rights, people have not been able to rely purely on the ballot 
box to do that. Slavery did not end and may not have ended 
because of the ballot box. Women would not have gotten the 
right to vote just because of the ballot box. We would not have 
desegregated schools just because of the ballot box. If you ask 
oppressed minorities or disenfranchised people to wait for the 
ballot box, their human rights are often at risk because 
majorities view them with suspicion or do not want them to have 
equal treatment.
    So I was curious about that formulation. You are being 
nominated for a position. One of the key aspects of the 
portfolio is the promotion of human rights and that will often 
be human rights for people who might be of minority religions, 
minority ethnicities, minority political views, people who the 
ballot box does not offer them a lot of comfort. One of the 
great aspects of our liberal democracy is we have a democracy, 
but we also protect the liberties of minority populations so 
that they are not subject to oppression by a majority.
    So I was kind of curious about your suggestion in that 
article that dismantling heteronormativity, if people were 
LGBTQ and wanted to marry or wanted to be treated equally in 
the workplace, they would have to wait for the ballot box to do 
it. And I was just wondering if you could walk me through that.
    Mr. Destro. Sure, Senator. Thanks for the question, and 
thanks for taking the time with me yesterday morning to discuss 
these issues in some depth.
    The question--DRL deals with democracy, human rights, and 
labor. And so sometimes the tendency is to prioritize one over 
the other, and people in individual countries have the right to 
band together to govern themselves. And so there is a constant 
tension between kind of the question of how you prioritize 
human rights. And as we know from our experience here in the 
United States, that once the courts take a good, solid stand, 
then the people follow.
    So it seems to me that we have to give a good example of 
what we are doing, and we not only have to be fair, we have to 
act fair. And I certainly intend to bring that point of view 
not only to address Senator Menendez's concerns about the 
people within DRL--we are all going to be walking the walk 
there. And basically that is what we will be doing across the 
world as well.
    Senator Kaine. And can you tell me that you will be an 
advocate for the right of LGBTQ people to be treated as equals 
using the U.S. as an example of a country that has moved toward 
that and that should be one that we would want to impress the 
virtues of the example on others?
    Mr. Destro. Well, Senator, Brunei just took a slide down 
that road just the other day. And of course, we cannot tolerate 
lack of equal protection. That is why in my opening comments I 
underscored the word ``protection.'' That is an active verb, 
``to protect.'' And I think we have an obligation to help 
people do that.
    Senator Kaine. One more question quickly. Within the State 
Department and the division, there were instructions given to 
embassies and others out in the field to provide information 
about the status of women's access to reproductive health care 
in countries as part of the annual human rights report. And 
that was the case from 2011 I believe to 2017. The instructions 
that are now being given to the field do not ask them to put in 
information about reproductive rights. You have the ability to 
change that, should you be confirmed.
    Would you instruct folks in the field to provide you 
information so that the human rights report would include 
information about the capacity of women around the world to 
access reproductive health care?
    Mr. Destro. Senator, my understanding is that the 
Secretary's instructions are to follow the statutes. The 
statutes require that we look at questions of access to health 
care, access to------
    Senator Kaine. I do not think you are quite answering my 
question. Instructions for a number of years did instruct to 
put in information about women's access to reproductive health 
care. Those instructions have now been changed to deemphasize 
that. If you are confirmed, you would have the ability to do 
this. Would you ask for that information to be reported to you 
from our FSOs in the field so that you can include it in the 
human rights report?
    Mr. Destro. Well, like I said, Senator, not being involved 
in the discussion beforehand--I have seen the instructions. 
They are trying to keep them uniform. I will do what I can 
within the statutes, but that is all I can commit to at this 
point.
    Senator Kaine. Thank you, Mr. Chair.
    The Chairman. Thank you.
    Senator Cardin is next. I know he has got some questions. 
So we will be at ease for a minute while we try to get Senator 
Cardin in here.
    Senator Menendez. Mr. Chairman, while we are waiting for 
Senator Cardin, since we would be going to a second round after 
Senator Cardin, in the interest of time--Senator Cardin has 
arrived.
    The Chairman. I was going to deny that request, Senator 
Menendez.
    [Laughter.]
    The Chairman. No offense. I wanted to make sure Senator 
Cardin------
    Senator Menendez. If I can, Mr. Chairman, to my 
distinguished colleague, we had it bad on our side in terms of 
the ordering. So we apologize.
    Senator Cardin. First, let me thank all of our nominees for 
their willingness to serve our country. These are challenging 
times. I also want to thank your families for your willingness 
to serve. These are challenging times for our country, and we 
thank you for your willingness to serve in these public 
positions.
    General Stilwell, happy anniversary. We have all been 
wishing you that. We hope that you celebrate many more, and we 
hope that this service to your country will only encourage that 
relationship.
    My main concern for this round of questioning is to deal 
with human rights issues. The East Asia and Pacific region is 
one that is very much of concern about what is happening on 
good governance and human rights. And I just really want to 
encourage you to make sure that these issues are front and 
center in the State Department because sometimes they get lost. 
There are so many other issues. We are dealing with nuclear 
proliferation. We are dealing with security issues, dealing 
with trade issues. But human rights are the strength of this 
country, and it is critical that these issues be included in 
all of these discussions. And you hold a key position on this.
    So you mentioned China and Burma. You mentioned Cambodia. 
You could have mentioned also the Philippines having real 
challenges. And I hope that you will make America's values a 
principal part of your responsibility in overseeing our 
missions in East Asia and Pacific.
    Mr. Krach, I must tell you I have listened to many 
statements before our committee, and yours was one of the most 
impressive I have heard about your history. Certainly on 
entrepreneurship, you bring incredible talent to this position. 
It just shows that learning welding skills can do you well in 
life. So I might go back and try to figure out how to become a 
welder. But congratulations on your success.
    But understand that your portfolio includes energy and the 
environment also. And I think we all are going to be anxious to 
understand your commitment to U.S. leadership in dealing with 
the global issues, particularly on the environment. And if we 
do not have time to ask today, we will get to those questions. 
Senator Menendez raised that in his opening statement.
    But to Mr. Destro, I want to concentrate a little bit on 
your role because you have a principal role in human rights and 
good governance, on anti-corruption, the values of this 
country. As I pointed out to General Stilwell, a lot of times 
it is difficult to get these issues front and center in this 
country because there are so many other issues that our 
missions depend on and work on that they do not want to be 
bothered by human rights. But human rights is our strength. 
Good governance is our strength.
    So I want to just follow up on some of the comments that 
you made. I did not quite understand what you meant about the 
State Department having a hard time dealing with religion. What 
did you mean by that in the response?
    Mr. Destro. Thank you, Senator. Thanks for that question.
    The Frank Wolf Religious Freedom Act requires that Foreign 
Service officers be trained when they go out into the field. 
And I have made the comment that not only do the Foreign 
Service officers need to be trained, but so do the lawyers at 
the State Department and at USAID. In the experience that I 
have had, especially it really came kind of full force to me 
when we were working on the inter-faith initiative in the Holy 
Land where we were trying to bring the groups together. And I 
have to tell you, Senator, I still have scars from people kind 
of------
    Senator Cardin. Do you believe that a practicing Muslim or 
a practicing Jew or a practicing Christian raises particular 
concerns?
    Mr. Destro. No, sir. Quite the opposite. I think that we 
need to bring people together, and I have devoted most of my 
career for at least the last 16 years to doing just that.
    Senator Cardin. So one of our concerns is that faith can be 
used as justification for discrimination certainly against the 
LGBT community. We all have our religious beliefs, and I 
respect that. But are you committed to making sure that all 
people globally are protected against persecutions, whether it 
is under the guise of faith or under the guise that we should 
not be interfering in the domestic relations of other 
countries?
    Mr. Destro. Absolutely, Senator.
    Senator Cardin. Can you be a little bit more definitive? 
Are you prepared--look, I have been on the Helsinki Commission 
for a long time, and we have specific provisions under the 
Helsinki Final Act where we can question activities in other 
countries. But we always get the rebuttal, why are you 
interfering in the domestic relations of another country? And 
Senator Menendez says these are basic human rights tenets that 
the global community has aspired to. Are you prepared to take 
on this battle with other countries to say, look, even though 
it may differ from my own personal religious beliefs, you are 
going to stand up to protect the rights of the LGBT community, 
to protect the rights against government laws and policies that 
persecute people because of who they are?
    Mr. Destro. Absolutely, Senator. It is a pervasive problem 
all over the place. I have spent probably the last 12 years 
working on getting prisoners out of jail thankfully, with the 
help of a lot of other people. That is getting in the face of 
other governments, and I would not hesitate to do that for one 
minute.
    The point I have been trying to make all along is that 
equal protection means protection. Every member of a community 
is entitled to the equal protection of the laws.
    Senator Cardin. Just one last question. So if a country has 
a law that would imprison someone because of being part of the 
LGBT community, would that be a priority for you to fight to 
have that law repealed?
    Mr. Destro. Yes, Senator, as much as a priority of a 
country that would imprison a woman for not being with her 
minder or who would imprison a Christian or a Buddhist or 
whomever. Equal protection means exactly that.
    Senator Cardin. Thank you.
    The Chairman. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you to each of you for being willing to consider 
being nominated to these positions that are very critical to 
the country at a very important time in the world.
    Mr. Destro, I am going to follow up with some questions, 
and if you have responded to these, I apologize for asking them 
again.
    But if confirmed, you would be responsible for overseeing 
global U.S. policies for women's reproductive rights. Congress 
appropriated $607.5 million in fiscal year 2019 for family 
planning and reproductive health programs that expand access to 
family planning services and activities for women and girls. So 
if confirmed, will you implement these programs and follow 
congressional will in spending appropriated dollars on family 
planning and reproductive health?
    Mr. Destro. Senator, yes. I mean, I will follow the 
government's policies. Secretary Pompeo made a very eloquent 
statement yesterday or the day before about the Mexico City 
policy. I am bound by what the Secretary and the administration 
does.
    But the United States government is a leader in advocacy 
for women around the world. The human rights reports do report 
on violence against women. They do on coercion and all of that.
    Senator Shaheen. I do not want to interrupt, but 
unfortunately, the United States has not been a leader on 
family planning and giving women around the world access to 
those services. In fact, what we have seen from some agencies 
over the last couple of years is a reluctance to spend the 
dollars that Congress has directly appropriated and directed 
them to spend. So it is not a surprising question.
    Do you believe in the freedom of speech, and will you 
commit to advocating for this right in countries that impose 
restrictions on speech?
    Mr. Destro. Absolutely, Senator, I will. I have been 
working on freedom of speech issues for my whole career.
    Senator Shaheen. Which I appreciate. Thank you for that.
    And given that answer, I would be interested in your 
personal take on Secretary Pompeo's announcement to expand the 
global gag rule even further to invoke the Siljander Amendment 
for the first time which, as you may know, would effectively 
restrain the operations of NGOs and other groups that have 
nothing to do with abortion services. Instead, it goes after 
groups that express their views on choice. Do you think it is 
appropriate for the United States to restrain the speech of pro 
choice organizations in this way? And how can you effectively 
advocate for free speech if you take that position?
    Mr. Destro. Senator, I must question the premise of your 
question. I mean, I do not think the United States government 
is inhibiting freedom of speech at all. I do believe that the 
Secretary spoke about this the other day, yesterday, and I will 
abide by his will on this issue.
    Senator Shaheen. Well, again, just to reiterate. The 
Siljander Amendment would effectively restrain the operations 
of NGOs and other groups that have nothing to do with abortion 
services. And what Secretary Pompeo said, as I understand, was 
that he was planning to expand the global gag rule to include 
the Siljander Amendment which would restrain the ability of 
other organizations that are not providing reproductive 
abortion services, but that may advocate on that behalf, that 
it would restrain our ability--any funding from the United 
States to go to those organizations based on taking that 
advocacy position.
    So I would hope that you would go back to the Department of 
State and that you would, if confirmed, get a clarification on 
what this actually means because I think it is in violation of 
our commitment to free speech around the world.
    Mr. Destro. Senator, you certainly have my commitment to go 
back and to talk to people about how that is understood.
    Senator Shaheen. Also, I was disappointed to see that the 
administration does not consider reproductive rights to be 
worthy of inclusion on the congressionally mandated country 
reports on human rights practices. And it has also 
significantly scaled back reports on gender-based violence.
    So if confirmed, you would oversee these reports. Do you 
consider gender-based violence to be a human rights violation?
    Mr. Destro. I do, Senator.
    Senator Shaheen. And so will you commit to reporting on the 
prevalence of gender-based violence in these country reports?
    Mr. Destro. Senator, again, I have not been involved in the 
discussions about how the reports are put together. I have seen 
the instructions. I do know that there has been a movement 
lately to try and keep the reports more compact. But my comment 
to Senator Menendez a little earlier about adding on top of the 
report, to the extent that we can do that, I would like to see 
us report a little bit more about current events.
    Senator Shaheen. Well, I would certainly hope that 
reporting on gender-based violence would be done. Rather than 
an attempt to keep the report compact, it would be a 
recognition of a real effort to report on human rights 
violations that are happening across the world. That, as I 
understand, is the goal of this reporting. It is not to keep it 
short so that it is an easy read for people.
    Mr. Destro. That is true, Senator. Thank you.
    Senator Shaheen. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Murphy?
    Senator Murphy. I would concur with the Senator's analysis 
of the reason that we do these reports.
    Mr. Krach, the House just passed a bill called the European 
Energy Security and Diversification Act by a big bipartisan 
majority, 391 to 24. This is a piece of legislation originally 
introduced here in the Senate by myself and Senator Cardin and 
Senator Johnson, Senator Rubio, Senator Gardner. A bunch of us 
on both sides of the aisle think it is really important to set 
up a financing vehicle that we could partner with diplomatic 
efforts in order to help countries, especially those on the 
Russian periphery, become energy independent of Russia, a way, 
at no cost to the American taxpayer, to find some ways to try 
to push back on one of the prime means of Russian leverage, 
which is their energy that continues to flow largely unimpeded 
into countries that then become reliant on not only Russia's 
energy source but become very intertwined with their foreign 
policy objectives and priorities as well.
    Can you talk about the importance of the United States 
standing up new capacities to try to help countries around the 
Russian periphery become energy independent of Russia? And I 
would love to get your commitment to work with us on both sides 
of the aisle on this legislation.
    Mr. Krach. Yes, Senator. And thank you for that piece of 
legislation--all of Congress--because I really believe that 
energy security is such a vital component to national security. 
And a key to energy security is obviously to diversify all 
sources of energy. So, Senator, you have my commitment. If 
confirmed, I will do everything possible to utilize our Foreign 
Service experts and bring all forces to bear.
    Senator Murphy. And I assume you believe that the United 
States can do more to try to promote energy independence in and 
around Russia's periphery.
    Mr. Krach. Absolutely, Senator. And my goal is to improve.
    Senator Murphy. Mr. Destro, you have a difficult job ahead 
of you. I am sure Senator Menendez and others have framed this 
for you. This administration's constant embrace of brutal 
oppressive regimes all around the world has set back the 
international human rights cause by decades in my opinion.
    But this position, when I think done right, is one that 
makes the argument that despite all of the competing priorities 
we have in bilateral relationships, when our President and our 
Secretary of State is sitting across from another world leader, 
that they should raise and must raise issues of human rights no 
matter the competing equities. There are always competing 
equities. And this job has been placed in the State Department 
in order to make sure that the human rights and democracy 
promotion equities are part of that equation.
    The President's first trip, when he became the commander in 
chief, was to Saudi Arabia, a country that occupies a position 
of primacy with respect to those brutal and oppressive regimes 
around the world. We have always known of it and its practices, 
but we know a little bit more now given the fact that they 
targeted an American resident for murder and have another today 
that they have reportedly electrocuted.
    Can you share with us what advice you are going to give 
this administration with respect to how we right-size our 
relationship with Saudi Arabia? Thus far, there have been 
absolutely no consequences to the government of Saudi Arabia 
from this administration. And I imagine if there was someone 
strongly advocating for human rights and democracy promotion as 
a cornerstone of our foreign policy in the State Department, we 
might have had a different outcome in this administration's 
policy. Give us your recommendations that you will make or how 
you view the need to raise these issues with a Saudi regime 
that seems to be targeting U.S. residents for repression.
    Mr. Destro. Senator, thank you. The behavior of the Saudi 
regime with respect to women and other minorities, religious 
minorities, leaves a lot to be desired. I will certainly be a 
strong advocate. My job, if confirmed as Assistant Secretary, 
is to do the homework for the Secretary and the President on 
these human rights issues.
    I do know that the President has been four square and so 
has Secretary Pompeo with respect to holding the people 
responsible for the murder of Khashoggi and others to account. 
There have been sanctions issued against people in the Saudi 
regime, and I understand that the process of looking at the 
evidence is still ongoing. Not having my security clearance, 
unless and until I am confirmed, I cannot comment on where they 
are in that process at this point.
    Senator Murphy. We will look forward to having you back 
here. I think everyone, with the exception of the President, 
who has taken a look at the evidence available to us, has come 
to the conclusion that we have not sanctioned and targeted the 
people who were responsible for this killing, thus the need to 
have somebody in your position who is speaking truth to power 
on who was actually responsible for these crimes and who 
actually needs to be held accountable.
    But thank you very much for your participation today.
    Mr. Destro. Thank you, Senator.
    The Chairman. Thank you.
    Senator Coons?
    Senator Coons. Thank you, Chairman Risch, Ranking Member 
Menendez, and thank you to the panel for your willingness to 
step forward and serve and represent our nation in important 
places around the world.
    Mr. Krach, if I might first to you. In your testimony, you 
mentioned the importance of leveraging the innovation and 
resources of our private sector. If confirmed as Under 
Secretary for Economic Growth, Energy, and the Environment, you 
will need to advise Secretary Pompeo on his role as the 
chairman of the new International Development Finance 
Corporation created by the passage of the BUILD Act last year 
which could deploy up to $60 billion a year of American private 
capital in the developing world in a way that would allow us to 
compete with peer competitors like China and others who are 
much more active now in financing projects in the developing 
world that we are.
    What sorts of recommendations might you make to the 
Secretary about the use of this new tool, about the role of the 
IFDC to make sure that it is not just an appealing thing to 
talk about but it actually has impact on the ground, makes a 
difference in the developing world, and reengages particularly 
on the continent of Africa but in other places where we, 
frankly, have been sadly absent in recent years as China has 
significantly stepped up its investments?
    Mr. Krach. Thank you, Senator. And I think that is a 
strategic asset for our foreign policy.
    I would make a recommendation that really has three prongs 
to the strategy, Senator.
    The first one is in terms of deploying those funds, to 
focus those on strategic countries where we could make the most 
difference.
    The second would be to leverage the innovation and 
resources of the private sector. And when I mean private 
sector, I mean not just the business sector but also the 
educational sector and the social sector as well.
    The third one would be to amplify American values. The 
question is how do you make American values come alive. I would 
start off with focusing on the power of entrepreneurship, 
economic empowerment of women, and also education. If 
confirmed, I will do everything I can, Senator.
    Senator Coons. I could not agree with you more that this is 
a tool that allows both the deployment of capital and the 
financing of projects in a process that teaches about our 
values, more transparency, more connectivity to the legitimate 
development goals of our partner countries, and in ways that 
should help advance human rights, democracy, governance 
improvements.
    General, if I might, happy anniversary to you and your 
wife. Thank you for what I suspect has been a long career of 
service that has not often allowed you to be together on your 
anniversary.
    China today is attempting to rewrite the rules of 
international trade and is flexing its muscles broadly, 
economically, politically, militarily, as they continue to rise 
and as their economy and country continues to become more 
significant. And I am greatly concerned about their actions in 
ways that may redefine the international order for generations 
to come.
    While there are certainly areas where we are competing and 
must compete with China, there are areas where we may well end 
up in some confrontation with China.
    I am interested in your advice about specific areas where 
we could cooperate and where expanded cooperation with China 
may balance out the voices that say we are inevitably on a path 
towards confrontation. What are areas of cooperation you will 
be exploring with China in the years to come, should you be 
confirmed?
    Mr. Stilwell. Senator, thank you for that question. That is 
really a good point.
    Oftentimes we use the word ``China'' and we blanket the 
entire not just the government but the people and all that. I 
really, if confirmed, will caution people on that and maybe 
more specific in our language and what are the objectionable 
actors and activities rather than splashing because Xi Jinping 
is using our language to fan nationalist flames and say that 
the world and the U.S. is holding China--trying to keep all 
Chinese people down. And that is not the point.
    So as far as cooperation, while I was there, I had some 
good interaction with Chinese veterans associations from World 
War II. Mr. Destro's family member spoke about Joe Stilwell in 
World War II and the interaction there. I had the opportunity 
while I was there, to meet some 95-year-old folks who fought 
alongside Americans. We put up a display in the Pentagon of 
positive cooperation between the U.S. and China, not 
necessarily the communists and the nationalists, and that 
seemed to resonate.
    So one area--and this is only because of my past 
experience--is to look at developing a positive interaction, 
not with the PLA but with the veterans especially from our 
cooperative period as allies in World War II.
    Senator Coons. Thank you.
    I have got one more question for Mr. Destro, but if I might 
suggest, General, I think there are ways in counterterrorism, 
in nonproliferation, in combating human trafficking, and 
combating wildlife trafficking. There are a range of areas. 
Peacekeeping. You know, I met my first Chinese flag rank 
officer in visiting a U.N. peacekeeping force in South Sudan. 
So I do think there are areas of potential cooperation, and I 
do think our narrative of the U.S. China relationship needs to 
include that. And I am encouraged to hear about your work with 
Chinese veterans. That was an aspect of it that had not 
occurred to me.
    Mr. Destro, last, if I might. In your testimony, you noted 
that--and I quote--respect for the rights and freedoms of 
others is the foundation of effective diplomacy and a stable 
foreign policy. As the co-chair of the Senate Human Rights 
Caucus, I could not agree more. And if confirmed, I will be 
looking to ensure that you stay true to that belief even when 
difficult or uncomfortable. I know my colleagues have 
questioned you at length about your positions and some public 
statements on LGBT rights and on other issues. And I join them 
in concern about making sure that we step forward and continue 
to be a voice for human rights broadly understood.
    But I want to focus on one last thing, if I might. 
Secretary Pompeo recently said China is in a league of its own 
when it comes to human rights violations. I think he was 
referring to the Uighur Muslims in the western most province of 
Xinjiang. How would you engage the international community on 
this issue, if confirmed to the position for which you have 
been nominated?
    Mr. Destro. Well, Senator, dealing with China and the human 
rights issues in China, particularly in Xinjiang, is going to 
take every ounce of creativity that we have. The Chinese have 
effectively shut down the NGOs that DRL certainly has worked 
with. It has become fashionable in many countries to shut down 
the NGO sector as effectively being spies. So we are going to 
have to find, as General Stilwell has just point out, ways in 
which we can cooperate and get that human rights message to the 
right people. Unfortunately, in the case of China, the right 
person is the party chairman, and we are going to have to 
figure out how to get that message to him.
    Senator Coons. One of the challenges you will face--and I 
know and admire the work of several of your predecessors, now 
Congressman Malinowski, Yale Law Professor Harold Koh under 
whom I studied at school. The work of the Bureau of Democracy, 
Human Rights, and Labor is to be a strong and persistent and 
effective and engaged voice for human rights not as one among 
many interests but as a principal interest of the United 
States. There are always security interests at the table. I 
think we need to work together to make sure that human rights 
interests, promoting a free press, promoting a free and open 
Internet, promoting respect for LGBT rights, promoting respect 
for religious liberty. You have a very broad portfolio and one 
I look forward to working with you closely on to make sure we 
continue to advocate for human rights in all the ways it has 
helped advance American interests in the past.
    Thank you all.
    Thank you, Mr. Chairman, for your forbearance.
    The Chairman. Thank you, Senator Coons.
    Senator Menendez for a second round.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Destro, let me return to you. You can hear from my 
colleagues that we all have concerns.
    Do you recognize the constitutional right to marriage for 
LGBT Americans, including Department of State employees------
    Mr. Destro. Yes, Senator.
    Senator Menendez. Let me finish my question. And the 
nondiscrimination rights of LGBT citizens in other countries?
    Mr. Destro. I do, Senator.
    Senator Menendez. So here is our problem. You have talked 
very often in response to questions about your decades of 
working for certain things. How do you reconcile your prior 
statements and long-held views on LGBT rights and women's 
rights with the responsibilities of the position you are 
seeking today? How are we to assume that you are ready and 
willing to fight for some of the very rights you have fought 
against for decades?
    Mr. Destro. Well, Senator, thanks for the question.
    Let me take you back to 1987 when a good friend, the first 
person I ever knew who died of AIDS--I went to see him in the 
hospital. I saw how he was treated. And as a result of that 
treatment, I brought to the United States Civil Rights 
Commission, of which I was a member at the time, the issue of 
health care discrimination against people with HIV. That was 
not a popular position to take at the time.
    And throughout my career, I have tried to deal with 
everybody I have dealt with equally and to encourage their 
development as students, their development as employees, and to 
be honest, Senator, that is what I will do.
    Senator Menendez. Truly you must understand the hesitancy 
of some of us who believe this may be a nomination conversion 
because your statements are totally in contrast to the very 
mission that you are called upon, if confirmed, to lead. So I 
am not sure that--maybe after the hearing, I would love to have 
a conversation because I just do not see it. So I would like 
you to convince me because the history does not match up with 
what I hear here today.
    Mr. Destro. Well, Senator, again, I would be more than 
willing to sit down with you and talk, but I think that if you 
actually talk to the people who I have worked with, for whom I 
have advocated, you will find that at least most of them would 
say that the charge that I am anti-LGBT is laughable.
    Senator Menendez. General, let me ask you. This year we 
celebrate the 40th anniversary of the Taiwan Relations Act. 
U.S. support for Taiwan's flourishing democracy, for its 
ability to maintain the cross-strait status quo, for its 
ability to have a space for autonomy have been important to us 
in our relationship with Taiwan.
    What is your assessment of the current cross-strait 
situation, the pressure Beijing seems to be bringing on Taipei, 
seems to be doing it to various countries in the world, trying 
to disassociate themselves with Taiwan? What do you believe we 
need to do in this regard?
    Mr. Stilwell. Senator, thank you for that question.
    It is obvious that Beijing is trying to conclude their 
reunification in a way that is contrary to the agreements we 
made between 1972 and 1979, primarily the Three Communiques, 
and then subsequent.
    I am not sure why the rush. I am not sure why the 
leadership believes that now is the time to do this. The 
relationship across straits was actually fairly positive in 
terms of trade and other things. So I cannot understand why 
they are doing it, but I do believe that it is our role and our 
responsibility to communicate very clearly to them that it is 
not acceptable. We are going to ask them to live up to their 
commitments and reinforce our position as to the peaceful 
settlement of this dispute through dialogue and not through 
force or coercion.
    Senator Menendez. Well, there is a strong bipartisan 
support here for the U.S.-Taiwan relationship based upon the 
Taiwan Relations Act, and I hope you will be an advocate of 
that in your role, if confirmed.
    Mr. Stilwell. Absolutely.
    Senator Menendez. The administration has announced with 
some fanfare a new Indo-Pacific strategy. I have to admit 
listening to different administration officials, I am not sure 
exactly what it is and how it has been resourced. So could you 
explain, as you understand it, that strategy, and where do you 
think additional resources are needed and warranted?
    Mr. Stilwell. Thank you, Senator, for that question.
    I guess I will start off with my current boss makes a great 
point that most great strategies are backed into. You know what 
your objective is and you state very clearly what it is you are 
trying to accomplish, and then over time and given time, you 
work out the ways and the means on how you are going to get 
that done.
    We have talked a lot about investment, economics. We have 
talked about ARIA, the BUILD Act. With the help of the 
Congress, this is one of those areas where I believe that there 
is no dispute. This is an area where the administration and the 
Congress can work together and has worked together very well 
over time.
    If I can just focus on one thing on the strategy, we need 
to focus on the idea of governance. If you look at what is 
coming out of Beijing in the last 8 years, you know, a couple 
books called the ``Governance of China,'' volumes 1 and 2, they 
are trying to push that governance model out, this 
authoritarian governance model I guess in an effort to develop 
likeminded allies, but having little success, which is good. 
But I think our job is to focus on something that we take for 
granted, we have taken for granted since the fall of the Soviet 
Union in 1991, and focus on the importance of democracies. 
Francis Fukuyama said in ``The End of History,'' democracy won. 
We have kind of become complacent. And that is one thing, if 
confirmed, I would like to focus on is why democracy is 
important, why free, open markets are important, and why top-
down directed authoritarian rule just does not work.
    Senator Menendez. I appreciate that.
    Lastly, Mr. Krach, let me ask you. 2019 is a significant 
year for the U.S. participation in the Paris Agreement because 
November 4th is the day when President Trump can officially 
initiate the formal withdrawal process. And November 4th 
happens to be 7 days before the start of COP25 in Santiago, 
Chile, which by all indications what was intended to be pursued 
at COP25 is very beneficial to the United States and to its 
industries.
    Do you believe that the United States should withdraw from 
the Paris Agreement?
    Mr. Krach. Senator, let me put it this way. I think the 
climate issue is a very serious issue. I think we all want to 
leave and preserve the health of our planet for our children 
and our grandchildren.
    President Trump has made the decision to withdraw.
    I do believe that the health of the planet is critical for 
economic security and also national security. And I believe 
innovating in the clean tech area holds the key. And if 
confirmed, I will leverage my background in the area of 
innovation and high-tech to make sure that we mitigate 
greenhouse gases while protecting our national security.
    Senator Menendez. Well, you know, when the President 
announced, he said possibly we could stay in the Paris 
Agreement if a better deal could be reached. I have not seen 
efforts to achieve that. But if a better deal could be reached.
    Senator Collins and I wrote Secretary Pompeo a letter 
several weeks ago, for which we have not received a response 
yet, requesting that the Secretary explain how we intend as a 
nation to maintain our power and influence in a process that we 
are walking away from. How do you think that that can be 
achieved?
    Mr. Krach. Senator, I think to focus on results. For 
example, since 2005, our GDP has grown 19 percent. Our 
greenhouse emissions has gone down 14 percent. So I am a 
businessman. I think it is to clearly focus on results. And as 
I mentioned in my opening statement, I really want to focus on 
optimizing energy security, economic growth, and the health of 
the planet. And I really believe that innovation holds such a 
great key there. So, if confirmed I know this is a passionate 
issue for you, Senator--I would love to constructively engage 
and continue this dialogue.
    Senator Menendez. Well, I appreciate that. And let me just 
say it is difficult to understand how we leverage U.S. 
interests, for example, in the COP25--the COP24 hearings are 
going to take place in Chile. The reality is business, not me. 
Business is widely regarded as successful and favorable towards 
U.S. interests. But you have to be there to be able to make the 
case. You have to be there in international organizations to 
lead the way. When we have as a nation participated, we largely 
get to set the standards, and when we set the standards, we get 
to promote American interests at the end of the day.
    I hope that particularly in your unique role that has three 
significant buckets to it that you will be an advocate of that.
    Thank you, Mr. Chairman, for the time.
    The Chairman. Thank you.
    Thanks to all of our nominees and your families. Again, we 
appreciate your willingness to stand up and do this work for 
your country. It will be greatly appreciated.
    For the information of members, the record will remain open 
until the close of business on Thursday, including for members 
to submit questions for the record.
    With that, the committee is adjourned.


    [Whereupon, at 11:50 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

                              ----------                              


            Responses to Additional Questions for the Record
           Submitted to Robert Destro by Senator Marco Rubio

    Question.  Do you commit to ensuring that the promotion of human 
rights and democracy is a central part of U.S. foreign policy?

    Answer. Yes. The President's National Security Strategy is clear on 
the point and the Bureau of Democracy, Human Rights and Labor has a 
very important role in the promotion of human rights, which is in the 
best interest of the United States.

    Question.  Do you believe advocating for human rights and democracy 
is a U.S. national security imperative?

    Answer. Yes, absolutely. President Trump has made clear that human 
rights are in the national interest, and his National Security Strategy 
(NSS) reflects a strong commitment to human rights. It states that, 
``Liberty, free enterprise, equal justice under the law, and the 
dignity of every human life are central to who we are as a people.'' It 
also makes clear that a commitment to human rights is essential to 
advance U.S. influence abroad, and that respect for human rights 
produces peace, stability and prosperity--making it integral to U.S. 
national security.

    Question.  Do you believe that the U.S. government's efforts to 
support emerging democracies can be more effective? If confirmed, where 
would you focus your efforts?

    Answer. Supporting emerging democracies is essential. I would hope 
to work closely with the committee on that important goal.
    For example, as Secretary Pompeo said: ``As a friend of the 
Venezuelan people, we stand ready to help them even more, to help them 
begin the process of rebuilding their country and their economy from 
the destruction wrought by the criminally incompetent and illegitimate 
Maduro regime.''

    Question.  If confirmed, do you commit to meeting with dissidents 
and their families here in the U.S. and abroad to advocate for specific 
human rights cases?

    Answer. Yes. It is important that the U.S. stand with those who, 
sometimes at great risk to themselves, press their governments to 
protect human rights.

    Question.  If confirmed, do you commit to pushing for freedom of 
the press and placing greater emphasis on an independent media that is 
free of fear and intimidation from their government?

    Answer. Absolutely. I will promote press freedom by engaging 
directly with governments to encourage reform of laws that unduly 
restrict freedom of expression or press freedoms, as well as raise 
specific cases and provide diplomatic and program support to 
independent media.

    Question.  Do you believe it is a wise investment of U.S. taxpayer 
dollars to support emerging democracies? Will you support critical 
funding to democracy promotion globally?

    Answer. Yes. If confirmed, I will work for strategic investments 
that enable America to advance democracy worldwide.



                               __________


            Responses to Additional Questions for the Record
         Submitted to Robert Destro by Senator Robert Menendez

    Question.  What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have been working on civil and human rights issues for 
most of my career, both here in the United States and abroad. In 
addition to the examples I gave during my testimony, such as the 
pioneering work I did in the mid-1980s on discrimination against 
persons with HIV/AIDS, here are three (3) additional examples:

   Release of prisoners, journalists and prisoners of conscience.  
        Since the early 2000s, I have been actively involved in efforts 
        to seek the release of prisoners of conscience and journalists. 
        Because of my work in the Middle East, I have had the privilege 
        to work with American families whose loved ones are imprisoned, 
        and to press the case for the release of their family members 
        at every available opportunity. In several cases, we succeeded. 
        Where individuals remain imprisoned or missing, I am committed 
        to the effort to get them out for as long as it takes, and 
        will, if confirmed, use whatever authorities I have to multiply 
        the force of ongoing efforts. I am, as I make this report, 
        working on four (4) such cases.
  Human Rights.  From a policy perspective, the most important 
        accomplishment was the drafting, field work and advocacy for 
        the ISIS genocide resolutions: House Concurrent Resolution 75, 
        co-sponsored by Reps. Jeff Fortenberry and Anna Eshoo (adopted 
        393-0); Senate Res. 340, co-sponsored by Senators Bill Cassidy 
        and Joe Manchin (adopted by unanimous consent). Then-Secretary 
        of State, John Kerry, responded by making a formal genocide 
        declaration on March 17, 2016. I have remained involved in the 
        anti-genocide effort since that time, and have used the 
        experience to inform my ongoing efforts to prevent and document 
        the atrocities that are continuing in many parts of the world. 
        If confirmed, I will bring that experience, and the many 
        committed people with whom I have worked, into a broadly-based, 
        international effort to implement the Elie Wiesel Atrocities 
        Prevention Act.
  Democracy.  My experience as a Commissioner on the U.S. Commission 
        on Civil Rights from 1983-1989, and as voting rights counsel 
        for the Ohio Secretary of State from 2004-2006, has given me a 
        ``ground-based'' understanding of the entire range of voting 
        rights issues--from registration to the security of voting 
        technology. My work with Christians, Muslims, Jews and other 
        minorities in the Middle East and North Africa has given me 
        unparalleled opportunities to discuss how to make the case for 
        democracy and human rights in countries that do not have a 
        democratic tradition.

    Question.  What issues are the most pressing challenges to 
democracy or democratic development around the world? These challenges 
might include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. The promotion of democracy and human rights is central to 
our national interests and an essential element of our foreign policy. 
Societies that respect and defend human rights, fundamental freedoms, 
and the rule of law are more stable, secure, and prosperous and make 
stronger allies. Yet we face the challenge of anti-democratic 
governments working to undermine public faith in the democratic process 
and weaken democratic institutions, both at home and abroad. They seek 
to restrict the freedoms of expression, association, and assembly--
essential to any functioning democracy. Political opposition, civil 
society activists, human rights defenders, independent media, and 
others face threats, harassment, intimidation, and violence from both 
state and non-state actors. Too often, these acts go unpunished, giving 
rise to a culture of impunity, which further stifles efforts by civil 
society to preserve and promote human rights and the rule of law.
    If confirmed, I will make it clear that the United States stands 
firmly with like-minded governments, civil society, and other 
stakeholders in our shared commitment to promote, protect, and advance 
democratic values.

    Question.  What steps will you take--if confirmed--to support 
democracy around the world? What do you hope to accomplish through 
these actions? What are the potential impediments to addressing the 
specific obstacles you have identified?

    Answer. If confirmed, you have my commitment to use a range of 
diplomatic tools and programming to support democracy around the world. 
The most powerful thing we can do to support democracy is to support 
democrats--those people who exist in every society who are striving 
peacefully for democratic reforms. For example, I will use tools like 
the Magnitsky Act and the Global Magnitsky Act to deter attacks on 
democratic institutions or democratic activists. I will use democracy 
programs to help civil society. These are powerful tools, and it is 
important that the bureau be effective using them against forces that 
seek to restrict democratic institutions and activities. I hope to work 
closely with the committee to protect victims of abuses while 
increasing the space for civil society to operate.

    Question.  How will you utilize U.S. government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I intend to utilize all resources at my 
disposal. In particular, I will continue to ensure that DRL programs 
will align with national security goals, including defeating ISIS and 
other terrorist groups, by addressing conditions that are conducive to 
the spread of these threats such as poor governance, corruption, and 
human rights violations and abuses. I understand that DRL's rule of law 
programs counter radicalization to violence caused by inability to seek 
redress of human rights violations and abuses, which enhances U.S. 
security and interests through greater stability. DRL will aid civil 
society to advocate for peaceful reform, more openness in repressive 
states, and enhanced respect for human rights. If confirmed, I will 
continue to prioritize protecting victims of religious discrimination 
globally, promoting rule of law in China, and improving the free flow 
of information in the DPRK. Under my leadership, DRL will continue to 
provide rapid responses to democratic openings and human rights crises; 
assert U.S. leadership by utilizing strategic partnerships with 
governments, the private sector, and faith-based organizations, as 
appropriate; oppose corruption and improve market-oriented governance, 
thereby fostering economic opportunities for the American people; and 
promote uncensored access to the Internet.

    Question.  If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society when you travel abroad? What steps will you take to pro-
actively address efforts to restrict or penalize NGOs and civil society 
via legal or regulatory measures?

    Answer. Yes, if confirmed, I will meet with civil society members, 
human rights groups, and other non-governmental organizations in the 
United States, as well as during my overseas trips. The United States 
values the voice and opinions of civil society and has a long history 
of engaging leaders both inside and outside the government, a tradition 
I will continue. Hearing this range of views is essential in 
understanding country conditions, including the state of democracy and 
human rights, and plays a key role in informing and advancing U.S. 
foreign policy.
    If confirmed, I will continue the Department's efforts to provide 
direct assistance to embattled civil society organizations around the 
world that are under threat or attack, in addition to empowering civil 
society around the world to build democratic institutions, support 
access to justice, create independent media, and document human rights 
abuses.

    Question.  If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes on all counts. If confirmed, I will meet with a wide 
range of actors who are committed peacefully to promote democratic 
principles and human rights within their countries. If confirmed, I 
will explore how U.S. government programming and advocacy can push for 
space for political competition, the inclusion of diverse voices and 
opinions, and space for civil society and citizens to exercise their 
fundamental freedoms. I will advocate for access and inclusivity for 
women, youth, and minorities in the political process.

    Question.  Will you actively engage with governments on freedom of 
the press and address any government efforts designed to control or 
undermine press freedom through legal, regulatory or other measures? 
Will you commit to meeting regularly with independent, local press when 
you travel abroad?

    Answer. Yes to both questions. If confirmed, I will actively engage 
with governments on free expression and freedom for the press. I will 
work to advance press freedom, knowing that an informed citizenry is a 
fundamental requirement for free nations and people. If confirmed, I 
will meet regularly with independent, local press when I travel abroad.

    Question.  Will you actively engage with governments on the right 
of labor groups to organize, including for independent trade unions?

    Answer. Yes. I have spent a good portion of my career as a labor 
lawyer and remain actively involved in advocating for whistle-blowers 
and other employees who face discrimination and retaliation in the 
workplace for reasons unrelated to their job performance. I strongly 
believe that the right to organize and operate labor unions is 
protected by the fundamental rights of speech, press, association, 
expression, and peaceful assembly, and that such organizations serve as 
foundation stones in the building of democracy. As a result, they 
should be at the heart of our engagement on labor, democracy and non-
discrimination issues. Ensuring that U.S. trade partners respect 
internationally recognized worker rights and adhere to high labor 
standards promotes a level playing field for U.S. workers and helps 
create stronger trading partners for the United States. If confirmed, I 
will support workers' rights, including their ability to form and join 
the independent trade unions of their choice.

    Question.  Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people, no matter their 
sexual orientation or gender identity? What challenges do the lesbian, 
gay, bisexual, transgender and queer (LGBTQ) people face around the 
world? What specifically will you commit to do to help LGBTQ people?

    Answer. Yes. If confirmed, I will work to defend the human rights 
and dignity of all people, including LGBTI individuals. LGBTI persons 
face serious challenges, including the criminalization of LGBTI status 
or conduct and bias-motivated violence and discrimination in employment 
housing and provision of government services.
    If confirmed, I would use the full range of tools at our disposal--
including bilateral and multilateral diplomatic engagement, emergency 
assistance to LGBTI persons and organizations at risk, and the 
imposition of visa restrictions and economic sanctions, as appropriate, 
against perpetrators of human rights violations and abuses.

    Question.  When discussing the annual Country Reports on Human 
Rights during your confirmation hearing, you said, ``So, I'm very 
supportive of the reports and actually would like to take them to the 
next step..I'd like to see them be more interactive.''

   What is the ``next step''? How would you make the reports more 
        interactive? Please be as specific as possible.

    Answer. If confirmed, I will work with other bureaus and offices 
across the Department to explore digital and graphics tools that might 
be used by DRL in an effort to ensure that the information in the 
reports is as up to date, engaging and interactive as possible.

    Question.  Also in relation to the annual Country Report on Human 
Rights, during your hearing you said, ``.there are many other pieces of 
information that are not in the reports that I think DRL could make 
available to you and to the public.''

   What additional pieces of information do you think should be made 
        available? Please be as specific as possible.

    Answer. As I stated in my testimony, I consider the reports to be 
the ``foundation'' of DRL's reporting obligations. If confirmed, I 
would like to see if DRL can build upon that foundation by 
incorporating more graphical, visual and interactive elements that can 
effectively illustrate the content of the reports. I believe, for 
example, that additional data could be presented through interactive 
maps and charts that would further elaborate on and explain the 
patterns of abuses outlined in the reports.

    Question.  Many believe that the current administration has 
embarked on an unprecedented diminution of support for democracy and 
human rights around the world. Abroad, the President routinely praises 
dictators and congratulates autocrats on winning rigged elections. The 
administration's budget request would decimate foreign assistance 
provided to promote democracy and human rights in foreign countries.

    Answer. The National Security Strategy states that, ``Liberty, free 
enterprise, equal justice under the law, and the dignity of every human 
life are central to who we are as a people.'' It also makes clear that 
a commitment to human rights is essential to advance U.S. influence 
abroad, and that respect for human rights produces peace, stability and 
prosperity--making it integral to U.S. national security. If confirmed, 
I will use diplomacy, sanctions and other tools to press states and 
leaders who act contrary to human rights norms to change their 
behavior. I appreciate and share the longstanding Congressional support 
for democracy programming, and I pledge to respond quickly and flexibly 
to changing needs and opportunities to advance human rights around the 
world. I will also, for example, use the Human Rights and Democracy 
Fund rapid response mechanisms to reinforce U.S. leadership in global 
human rights promotion, leveraging partnerships with governments, the 
private sector, and faith-based organizations.

    Question.  If confirmed, do you think the President's actions and 
statements are helpful or harmful to the work you will be doing to 
advance human rights and democracy? If harmful, how do you intend to 
mitigate that harm?

    Answer. President Trump has been clear that promoting human dignity 
is key to our national security. As he said at his speech in Poland in 
2017: ``we value the dignity of every human life, protect the rights of 
every person, and share the hope of every soul to live in freedom. That 
is who we are. Those are the priceless ties that bind us together as a 
nation, as allies, and as a civilization.''
    Secretary Pompeo has told this committee that he is firmly 
committed to defend the human rights of all people and will work to 
strengthen democracy where it exists and promote it where it does not.
    If confirmed, I will support the President's policy by raising 
human rights and cases with counterparts, including when I travel.

    Question.  Do you believe that public criticism of violations of 
human rights or democratic norms committed by foreign governments can 
advance the cause of human rights and should be a technique used by the 
United States in appropriate cases?

    Answer. Yes.

    Question.  Are there any circumstances in which you believe the 
United States should not criticize other governments for violating 
human rights or democratic norms? What are the factors that you would 
consider in weighing that question?

    Answer. I do not believe there are any circumstances in which we 
should ignore violations of human rights or democratic norms. At times, 
it may be more effective to raise our concerns in a constructive rather 
than a critical tone, and sometimes it may be more effective to make 
criticisms in private. If confirmed, I will raise human rights and 
democracy issues bilaterally and multilaterally, including when I 
travel, using the tactics I judge will be most likely in a given 
situation to bring about progress.

    Question.  Should it make a difference in deciding whether to 
publicly criticize a government for violating human rights or 
democratic norms that the nation in question is considered to be an 
ally of the United States?

    Answer. We should hold all nations to their internationally 
accepted human rights standards and norms. If confirmed, I will do 
that. Whether we do that privately, publically, or both should be based 
on a calculation of which approach is most likely to bring about the 
change in respect for human rights we seek.

    Question.  Do you believe that raising concerns about human rights 
and democratic norms enshrined in international agreements and 
universally recognized documents such as the Universal Declaration of 
Human Rights constitutes interference in the internal affairs of 
another state?

    Answer. No. If confirmed, I commit to you that I will continue to 
raise human rights cases and issues.

    Question.  Do you believe that publicly raising concerns about 
corruption or violations of rights committed by a government currently 
in power and seeking to remain in power constitutes interference in the 
internal affairs of a state?

    Answer. No, I do not.

    Question.  What is the right balance for the United States when it 
comes to engaging or even partnering with deeply abusive governments?

    Answer. If confirmed, it will be my job to ensure that human rights 
and democracy issues are always part of the discussions at the foreign 
policy table. I commit to you that I will raise human rights cases and 
issues to ensure that they are part of the engagement when we find it 
necessary to engage with abusive governments.

    Question.  In general, how do you believe the U.S. can strike the 
right balance between addressing national security and human rights 
concerns? Many Central American women, adolescent girls, and families 
migrate to the U.S. because of gender-based violence, inadequate 
accountability for perpetrators, and inadequate support for survivors 
in their home countries. International human rights law recognizes that 
gender-based violence, including domestic violence, is a human rights 
violation. This year, the annual State Department Human Rights Report 
scaled back reporting on incidences of gender-based violence in many 
countries, including Central American countries like El Salvador, 
Guatemala, and Honduras where women and girls are fleeing unspeakable 
risks.

    Answer. President Trump's National Security Strategy explicitly 
states that the U.S. will support efforts to advance women's equality 
and protect the rights of women and girls. I believe that reporting on 
the prevalence of violence against women and girls is one of the many 
ways in which the Department of State is advancing U.S. efforts to 
press governments to create policies and practices that protect women 
and girls from violence.
    If confirmed, I would work to ensure that the Department of State's 
annual Country Reports on Human Rights Practices report on the extent 
of gender-based violence such as: rape and domestic violence; female 
genital mutilation/cutting; harmful traditional practices such as 
dowry-related deaths, so-called honor killings, acid attacks, and widow 
violence. While it is not possible to list each instance of these 
terrible abuses, we need to find ways to give those who utilize the HRR 
access to qualitative, quantitative, graphical and geographic 
distribution data for every country in which such information is 
available.

    Question.  Do you believe, based on your understanding of 
international human rights law, that gender-based violence, including 
domestic violence, is a human rights violation?

    Answer. Yes. Gender-based violence, including domestic violence, 
violates and impairs or nullifies the enjoyment by women and girls of 
their human rights and fundamental freedoms.
    President Trump's National Security Strategy explicitly states that 
the United States will support efforts to advance women's equality and 
protect the rights of women and girls.

    Question.  How will you ensure that the annual State Department 
Human Rights Report restores its prior levels of reporting on gender-
based violence as a serious human rights violation afflicting millions 
of women around the world?

    Answer. If confirmed, I will seek to ensure that the Country 
Reports on Human Rights Practices provide both qualitative and 
quantitative reporting on gender-based violence in each country 
report.to include rape and domestic violence, female genital 
mutilation/cutting; harmful traditional practices such as dowry-related 
deaths, so-called honor killings, acid attacks, and widow violence.I

    Question.  n your view, what message does a reduction in funding 
for democracy program, whether via NED, State or USAID send to those 
struggling for human rights and democracy as well as our adversaries, 
like China and Russia, who are seeking to disrupt the democratic world 
order and replace it with their authoritarian political, economic and 
governance model?
    As Assistant Secretary, will you commit to supporting a budget that 
invests in DRG funding, and will you recommend that the President 
abandon his proposed cuts to DRG funding in future budgets?

    Answer. I believe democracy programs are critical for defending 
national security, fostering economic opportunities for the American 
people, and asserting U.S. leadership and influence. I understand the 
FY 2020 budget request upholds U.S. commitments to key partners and 
allies through strategic, selective investments that enable America to 
retain its position as a global leader, while relying on other nations 
to make greater contributions toward shared objectives, including 
advancing democracy worldwide. If confirmed, I will look to continue 
support for these critical programs.

    Question.  How will you use the various diplomatic and development 
tools that DRL has at its disposal to promote the human rights of LGBT 
people and the need to hold violators of those rights to account?

    Answer. If confirmed, I will work to protect and defend human 
rights for all people equally--including LGBTI individuals. I would use 
the full range of tools at our disposal--including bilateral and 
multilateral diplomatic engagement, emergency assistance to LGBTI 
persons and organizations at risk, and the imposition of visa 
restrictions and economic sanctions, as appropriate.

    Question.  How specifically would you seek to support reform 
efforts in the nearly 80 countries that still criminalize same-sex, 
adult relationships?

    Answer. If confirmed, I will fully support long-standing U.S. 
efforts to advocate the de-criminalization of LGBTI status or conduct. 
These efforts are best led by local LGBTI human rights defenders. I 
would seek and listen carefully to their advice on where and how the 
United States can bring its diplomatic and programmatic tools to bear. 
I would continue the practice of highlighting criminalization of LGBTI 
status or conduct in the annual Human Rights Reports and the 
Department's consular information. I would work with our embassies and 
consulates to carefully calibrate our public and private messaging, and 
explore opportunities to work with private industry, law enforcement, 
faith leaders, and other allies whose voices may have greater influence 
than our own. In my interactions with governments, I would make clear 
that human rights are universal--and that that LGBTI persons are, like 
everyone else, entitled to equal protection of the laws.

    Question.  Despite pledging to fill the job of Special Envoy for 
the Human Rights of LGBTI Persons almost a year ago, Secretary Pompeo 
has yet to do so. If confirmed, will you commit to ensuring that a 
Senior Foreign Service Officer is appointed promptly to that position, 
and to ensuring that he or she is empowered to accomplish the advocacy 
duties of that position?

    Answer. I support the administration's plan to retain the position 
of Special Envoy for the Human Rights of LGBTI Persons. If confirmed, I 
will fully support the Department's efforts to fill the position with a 
qualified individual empowered to perform its mandate.

    Question.  Will you commit to raising issues related to 
discrimination against LGBTI populations directly with your foreign 
counterparts, at your level, rather than delegating these issues to 
lower levels?

    Answer. Yes. If confirmed, I will personally advocate with foreign 
counterparts decriminalization of LGBTI status or conduct, bias-
motivated violence, and discrimination such as in employment, housing 
and access to government services. As I said in my confirmation 
hearing, LGBTI individuals are entitled to the same freedoms and 
protections as all other human beings.

    Question.  Will you commit to ensure that DRL programs and 
engagement include transgender populations, wherever human rights 
reports have indicated that issues with transgender acceptance/
exclusion exist?

    Answer. Yes. All humans, including LGBTI individuals are entitled 
to respect for their human rights. Where people are subject to criminal 
penalties, violence or discrimination in housing, employment or the 
provision of government services, I would, if confirmed, use diplomacy 
and programming to help them end such abuses.

    Question.  As the Assistant Secretary of the bureau that leads U.S. 
efforts to protect human rights around the world, what concrete 
measures will you take to protect those individuals who are on the 
frontlines of defending human rights in Guatemala?

    Answer. I support efforts to increase protections for human rights 
defenders and to promote their key role in a healthy democracy. If 
confirmed, I will support the work of Guatemalan human rights 
defenders. I will engage Guatemalan officials and commit DRL resources 
to promote respect for human rights and the rule of law to end impunity 
for violence against human rights defenders.

    Question.  Do you believe that DRL has been given adequate 
resources to fulfill its mission over the last decade?

    Answer. Yes, and I appreciate the committee interest in the welfare 
of the bureau.

    Question.  Do you believe that there is value in DRL directly 
managing programmatic budgets that allow it to quickly and flexibly 
support human rights defenders, support and defend democracy and help 
accomplish other objectives?

    Answer. Yes, I understand that the majority of DRL programming is 
implemented in repressive, authoritarian, or transitioning countries, 
including where the United States has no diplomatic presence. If 
confirmed, I will utilize the HRDF like a ``venture capital fund for 
freedom'' therefore enabling DRL to be flexible, adaptable, and 
responsive to complex and changing situations on the ground. I 
understand DRL has developed programming tools gives them the ability 
to respond to critical human rights and democracy issues in a matter of 
days. If confirmed, I will continue to expand our capacity to assist 
threatened human rights activists and organizations by providing them 
small infusions of support--to allow them to continue their work in 
safety. I understand such emergency assistance to human rights 
activists attacked or under threat includes paying the costs of 
temporary relocation, installation of surveillance cameras, and 
medical, legal, psychosocial, and other support services.

    Question.  Do you have any thoughts about how you might like to 
restructure DRL, its offices and programs?

    Answer. Not at this time. If confirmed, I will seek to ensure that 
we are organized to most effectively advance the bilateral and 
multilateral work of the bureau, and to make sure that we have strong 
democracy programs. I appreciate the question, and if confirmed and if 
I determine that we could be better organized, I would look forward to 
discussing these issues, including with Members of Congress.

    Question.  Do you have any criticisms concerning DRL's past 
programs, activities or priorities?

    Answer. No. As I said in my opening statement, if confirmed, I will 
be privileged to serve our great nation as a member of Secretary 
Pompeo's team and as the leader of the dedicated public servants who, 
together, are the Bureau of Democracy, Human Rights and Labor (DRL). I 
care very deeply about the work of the bureau, which has historically 
enjoyed strong bipartisan support. Also, I hope to work closely with 
all the members of the committee, and would be pleased to discuss any 
concerns the committee members may have.

    Question.  If so, what are those criticisms and in what way to you 
plan to address them?

    Answer. I do not, at this time, have enough information to 
formulate any criticisms. If confirmed, I would be pleased to discuss 
any concerns raised by staff with them and with senior management of 
the Department, and to discuss any concerns about the Bureau or its 
operations that committee members may have.

    Question.  What do you think is the appropriate role for DRL within 
the Department of State? What should be the relationship between DRL 
and the regional bureaus?

    Answer. I believe the role of the regional bureau is to synchronize 
all of the different aspects of our relations with the countries in 
their areas of responsibility. I believe the job of DRL is to ensure 
that human rights and democracy are always part of that mix and being 
given proper priority, and that DRL can do so by seeking to understand 
the needs and priorities of those who must implement policy at the 
regional and country levels. If confirmed, I will build strong working 
relationships with my counterparts throughout the Department of State, 
especially in the regional bureaus. I commit to you that I will press 
DRL issues diligently including by raising the issues to more senior 
levels when necessary.

    Question.  Will you be willing to state disagreements with 
officials within regional bureaus and embassies on issues of human 
rights when they arise?

    Answer. I commit to you that I will, if confirmed, press DRL 
issues, including with regional bureaus and embassies.

    Question.  Will you pledge to do everything in your power to ensure 
that DRL has adequate resources and manpower to fulfill its many 
mandates, and that you will inform this committee if you feel that your 
efforts to strengthen DRL are being resisted by others within the 
administration?

    Answer. Absolutely. If I am confirmed, I do hope to work very 
closely with the committee and commit to consult regularly.

    Question.  Freedom of the press is enshrined in the first amendment 
to the United States constitution. Freedom of expression, including 
through a free news media, is also enshrined in Article 19 of the 
Universal Declaration of Human Rights and International Covenant on 
Civil and Political Rights. Today, the President of the United States 
routinely labels members of the news media ``enemies of the people.'' 
This is a term generally associated with Soviet dictators Lenin and 
Stalin, who applied the term to many of those executed by the communist 
state. Variations on the term were also used in the 20th century by 
Hitler and Mao. Today, dictators around the world, from Prime Minister 
Hun Sen in Cambodia, to President Recep Tayyip Erdogan in Turkey, to 
President Abdel Fattah el-Sisi in Egypt use similar language to 
delegitimize independent media. In these countries, journalists are 
routinely harassed, imprisoned, and killed.

  What are your views on the role of the fourth estate in functioning 
        democracies?
  Do you believe that journalists are ``enemies of the people''?

    Answer. A free press is an essential pillar of democracy. If 
confirmed, I will draw attention to the cases of journalists who have 
been imprisoned for their work, will push for accountability for 
violence against journalists around the world, and will oppose legal 
and regulatory measures to restrict press freedom. In addition, I would 
support programs to strengthen the professional capacity of independent 
journalists and to defend them against censorship and other such 
assaults on press freedom.

    Question.  Will you be willing, if confirmed, to stand up for 
freedom of expression in your dealings with foreign governments who 
seek to delegitimize the news media as a means to repress members of 
their society?

    Answer. Yes. If confirmed, I will work to advance press freedom, 
and where countries fall short to uphold their commitments to free 
expression and a free press, I will push to call out those countries 
and encourage reforms.

    Question.  How do you plan to respond to critiques from foreign 
governments, journalists, and activists that the U.S. president does 
not support the notion that a free press is an essential check on 
government power?

    Answer. As an open society, the President and political leaders on 
both sides of the aisle encourage people to scrutinize all information 
they receive and come to informed judgments. Media in the United States 
remains fiercely independent with multiple points of view represented. 
If confirmed, I will work to advance press freedom, and I will also 
draw attention to the cases of journalists who have been imprisoned 
around the world for their work, and I will push for accountability for 
violence against or killings of journalists around the world.

    Question.  Turkey leads the world in the most jailed journalists. 
This is not behavior we expect from a NATO partner. If confirmed, what 
steps will you take to address this concern?

    Answer. I share your concern about Turkey's negative trajectory on 
rule of law, and respect for human rights and fundamental freedoms, 
including media freedom. U.S. officials speak out privately and 
publicly on issues of human rights and fundamental freedoms in Turkey. 
As noted in the U.S. National Security Strategy, these principles form 
the foundation of our most enduring alliances.
    If confirmed, I will urge Turkey to respect and uphold human rights 
and fundamental freedoms, release all those held arbitrarily--including 
unjustly detained journalists, Dr. Serkan Golge, an American citizen 
and NASA physicist who is serving a sentence for a conviction that the 
Department regards as wrongful, and locally employed staff of the U.S. 
Mission--and support judicial independence.

    Question.  The Leahy Laws--one for assistance provided through the 
State Department and one for assistance provided through the Department 
of Defense--were adopted by Congress to help insure that taxpayer 
funded assistance provided to foreign governments by the United States 
is not used to facilitate gross human rights violations. Do you support 
these laws?

    Answer. Yes. I believe that promoting democracy, human rights, and 
fundamental freedoms advances our national security. I believe that our 
most valued, dependable, and effective partner governments and security 
forces around the world uphold democratic values, protect the human 
rights of their citizens and civilians they protect, hold human rights 
violators accountable when necessary, and do not unduly restrict the 
fundamental freedoms of their people. I believe that we must continue 
to create and maintain strong security relationships with such partners 
through diplomacy, measured assistance, and frequent and ongoing 
cooperation. I believe that the Leahy laws are important tools that 
assist us in this effort, and I fully support the laws and their 
continued rigorous implementation by both the Department of State and 
Department of Defense.

    Question.  Do you have any criticisms of or concerns about the 
Leahy Laws?

    Answer. I believe that the Department of State and Department of 
Defense should continuously seek to make improvements to the policies, 
procedures, and the tools that are used to implement the Leahy laws, in 
order to make them as effective, transparent, accountable, and 
efficient as possible. While I believe that we should strive for 
constant improvement in the Leahy law implementation programs, I fully 
support the letter and spirit of the Leahy laws and their continued 
rigorous implementation, and do not have criticisms of or concerns 
about the Leahy laws.

    Question.  Do you believe that the Leahy Laws should be changed in 
any way?

    Answer. I believe that the improvements I will strive to implement 
to our Leahy law implementation programs are fully supported by the 
current Leahy laws. I understand the Departments are investing in new 
technology to carry out Leahy vetting, developing clearer guidance for 
Leahy law implementers throughout the world, and actively working to 
tackle remaining challenges in implementing the Leahy laws through 
policy solutions. I fully support these efforts and I believe that 
these efforts are further supported by the existing Leahy laws.

    Question.  Do you believe that DRL should be provided with 
sufficient resources to adequately vet the records of security force 
and police units intended to receive U.S. assistance and to do so in a 
timely fashion?

    Answer. Yes, I believe that DRL should be provided with sufficient 
resources to adequately vet the records of security force and police 
units in a timely fashion. This is an important mission for the bureau. 
The resources needed to vet these cases are included in the annual DRL 
budget request for Diplomatic Programs.

    Question.  Do you believe that DRL has been provided with 
sufficient resources in recent years to accomplish the objectives set 
forth in the prior question?

    Answer. Based on the information I currently have, yes. I 
understand that in addition to the amounts appropriated directly for 
democracy and human rights programming, regional bureaus in the 
Department have routinely transferred funds to DRL to support such 
programming in their areas of responsibility.

    Question.  The Leahy Laws encourage the United States government to 
offer assistance to foreign governments to clean up units found to be 
ineligible to receive assistance. Do you support these provisions?

    Answer. Yes. I fully support all provisions of the Leahy laws, 
including the provision to seek to offer assistance to partner 
governments to bring security force members who have committed gross 
violations of human rights to justice. I understand that the Department 
of State and the Department of Defense have worked together to draft 
and publish policies and procedures to recognize when partner 
governments have done this, and that U.S. assistance can be provided to 
these remediated foreign security forces units in accordance with the 
Leahy laws. I fully support this process. I agree with Senator Leahy's 
remarks that such ``Leahy diplomacy'' is a highly effective way to 
promote respect for human rights and security force accountability 
throughout the world.

    Question.  Do you believe that the Leahy Laws interfere with 
legitimate and important security cooperation?

    Answer. No. I am aware that sometimes inefficiencies in the 
nominating and vetting system have caused unnecessary complications in 
security cooperation, support the efforts now being made to upgrade 
technology, and if confirmed will look for every opportunity to make 
the administrative system more efficient while fully applying the law. 
I believe that promoting democracy, human rights, and fundamental 
freedoms advances our national security. I believe that our most 
valued, dependable, and effective partner governments and security 
forces around the world uphold democratic values, protect the human 
rights of their citizens and civilians they protect, hold human rights 
violators accountable when necessary, and do not unduly restrict the 
fundamental freedoms of their people. I believe that we must continue 
to create and maintain strong security relationships with such partners 
through diplomacy, measured assistance, and frequent and ongoing 
cooperation. I believe that the Leahy laws are important tools that 
assist the U.S. government in this effort.

    Question.  Do you believe that the Leahy Laws promote U.S. 
interests by allowing the United States to operate in conflict 
situations without underwriting gross human rights violations that 
alienate the public and create ill-will toward the U.S.?

    Answer. Yes. I believe that promoting democracy, human rights, and 
fundamental freedoms advances our national security and is a U.S. 
interest. I believe that even in conflict situations, the U.S.'s most 
valued, dependable, and effective partner governments and security 
forces uphold democratic values, protect the human rights of their 
citizens and civilians they protect, hold human rights violators 
accountable when necessary, and do not unduly restrict the fundamental 
freedoms of their people. I believe that the U.S. must continue to seek 
out and create and maintain strong security relationships with such 
partners, in accordance with the Leahy laws.

    Question.  Please describe steps that you will take to enhance 
effective implementation of this law within the Department of State and 
in U.S. embassies.

    Answer. I understand that in 2019, DRL plans to field a brand-new 
cloud-based International Vetting and Security Tracking (INVEST) system 
called INVESTc with upgraded software features and security protocols 
to make Leahy Law implementation even more effective and beneficial to 
U.S. national security and human rights objectives. This system should 
make the work of our embassies more effective. I will fully support 
this step to enhance the Department of State's Leahy Law implementation 
program.
    If confirmed, I also plan to fully support DRL's work with 
Department of State, U.S. embassies and Department of Defense partners 
to encourage accountability for partner security forces. I would seek 
to ensure that our messaging is consistent and that partner governments 
understand to the maximum extent possible what has resulted in the 
ineligibility of a particular unit and what steps they need to take 
with our support to make it eligible again. The purposes of the law are 
not served if our partners believe that assistance is being withheld 
for anything other than the commission of gross violations of human 
rights and the failure to take steps to bring the perpetrators to 
justice.

    Question.  Please describe the steps you would take to increase 
awareness of the intent of the law-helping allied governments end 
impunity for human rights violations.

    Answer. If confirmed, I will, in my engagements with partner 
governments, increase their awareness of the Leahy laws and their 
intent, with the goal of promoting accountability for human rights 
violators and ending impunity for human rights violations.
    I understand that in 2019, DRL plans to hold a Leahy law workshop 
in Washington D.C. The workshop will be attended by Leahy law 
practitioners from the Departments of State and Defense, as well as 
civil society organizations. I understand that the Department will hold 
panels to discuss Leahy law implementation topics that will be recorded 
and published to U.S. Embassies throughout the world who will be able 
to share them with our partner governments and security forces units 
and members. If confirmed, I will fully support this effort.

    Question.  Will you commit to briefing this committee every 6 
months on the steps you have taken to increase the efficacy and 
implementation of Section 620M?

    Answer. Yes, I fully support all efforts to improve the Department 
of State and Department of Defense Leahy Law implementation programs, 
and, if confirmed, am happy to commit to regularly brief this committee 
on our progress.

    Question.  Will you work to ensure that the Leahy Laws are 
faithfully implemented?

    Answer. Yes, I fully support the letter and spirit of the Leahy 
laws and their rigorous implementation by DRL, the Department of State, 
and the Department of Defense. If confirmed, I will work to ensure that 
efforts to enhance the Department of State Leahy Law implementation 
programs continue to be fully resourced and are completed. I will also 
continue to seek to develop and implement further enhancements to the 
Department of State Leahy law implementation programs.

    Question.  If confirmed, what process will you put in place for 
thorough human rights vetting of munitions sales?

    Answer. The Bureau of Political-Military Affairs (PM) has primary 
responsibility for the process of vetting munitions export license 
applications that are subject to the International Traffic in Arms 
Regulations. The Bureau of International Security and Nonproliferation 
Affairs (ISN) and the Bureau of Economic and Business Affairs (EB) have 
shared responsibility for the process within the Department of State of 
vetting munitions export license applications that are subject to the 
Export Administration Regulations and overseen by the Department of 
Commerce. The Conventional Arms Transfer Policy (CAT Policy; National 
Security Presidential Memorandum Regarding U.S. Conventional Arms 
Transfer Policy, April 19. 2018) directs the executive branch to 
continue to meet the requirements of all applicable statutes, including 
the Arms Export Control Act (22 U.S.C. <l-arrow>2751) and the Foreign 
Assistance Act (22 U.S.C. <l-arrow>2304), and that ``in making arms 
transfer decisions, the executive branch shall account for'' human 
rights and international humanitarian law alongside other 
considerations including the national and economic security of the 
United States.
    DRL plays an important role in making recommendations based on 
human rights. If confirmed, I will commit to making sure DRL's 
recommendations are appropriately considered.

    Question.  Do you agree that any targeting of or retaliation 
against career employees based on their perceived political beliefs, 
prior work on policy, or affiliation with a previous administration, is 
wholly inappropriate and has no place in the federal government?

    Answer. Yes. Targeting of or retaliation against career employees 
based on their real or perceived political beliefs, prior work on 
policy, or affiliation with a previous administration should not be 
tolerated.

    Question.  If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. If confirmed, I will hold all employees to the highest 
standards of professional conduct and will reiterate to all employees 
under my leadership that retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated. I will take allegations of 
such practices seriously and ensure they are referred to the 
Department's Inspector General.

    Question.  Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No. I take the issues of sexual harassment, discrimination 
(e.g., racial, ethnic, religious, etc.), and inappropriate conduct with 
the utmost seriousness and do not tolerate any types of behavior that 
could be considered discriminatory.

    Question.  Have you ever addressed concerns or allegations of 
sexual harassment, discrimination (e.g., racial, ethnic, religious, 
etc.), or inappropriate conduct made against any employee over whom you 
had supervisory authority? If so, please describe the outcome and 
actions taken.

    Answer. Yes. I take the issues of sexual harassment, discrimination 
(e.g., racial, ethnic, religious, etc.), and inappropriate conduct with 
the utmost seriousness and do not tolerate any types of behavior that 
could be considered discriminatory. I would welcome further 
conversation with you on the importance of these topics and how I 
believe institutions and individuals can best respond to any complaints 
or allegations.



            Responses to Follow-Up Questions for the Record 
         Submitted to Robert Destro by Senator Robert Menendez

    Question. State Department Personnel: During your hearing, I 
expressed my concern over remarks you made in March 2017 regarding the 
sophistication of State Department employees. In response you said, 
``.many of the people in the State Department-I shouldn't say everyone-
have had a hard time dealing with the issue of religion, and that's one 
of the issues I'd like to bring to their attention and this question of 
who is a terrorist and who isn't requires a lot of sophistication:''

   Please elaborate on what you meant by this statement.

    Answer. If confirmed, I look forward to working with the 
individuals at the Department who advise those who serve abroad and at 
our borders, to ensure they are effectively and accurately applying the 
First Amendment and the No Religious Test Clause in our foreign and 
visa policies. Section 103 of the Frank R. Wolf International Religious 
Freedom Act, P.L. 114-281, 130 Stat. 1426, already requires that the 
training of all Foreign Service Officers, deputy chiefs of mission and 
ambassadors include ``segments tailored to the particular religious 
demography, religious freedom conditions . in each receiving country.'' 
For a more detailed discussion of the relationship between attitudes 
about religious freedom and cultural awareness please see my article 
``Genocide, Statecraft and Domestic Geopolitics,'' a copy of which has 
been submitted for the committee's consideration.

    Question. During your hearing, your referenced ``equal protection 
of the laws'' several times:
   Please explain in more detail your understanding of the equal 
        protection to which LGBTI persons should be entitled as part of 
        your work, and for which you will advocate, as stated at your 
        hearing.

    Answer. Like all other human beings, LGBTI individuals are entitled 
to the freedoms and protections enumerated in internationally accepted 
human rights instruments such as the Universal Declaration of Human 
Rights. If confirmed, I will personally advocate with foreign 
counterparts and work with civil society to end bias-motivated 
violence, criminalization of LGBTI status or conduct, and 
discrimination such as in employment, housing and access to government 
services.

    Question. Arms Sales: In your response to Question 54, when you 
wrote that DRL's recommendations will be ``appropriately considered'', 
in what circumstances would you consider a DRL recommendation not to 
approve the sale to be ``inappropriate?''

   If the government of a country has been credibly accused of 
        committing gross violations of human rights, would you approve 
        sales of defense articles that themselves would likely not be 
        used for additional human rights violations? If so, would not 
        that conflict with U.S. foreign policy principles to use all 
        means of U.S. leverage, including security assistance such as 
        arms sales, to eliminate such abuses? What human rights abuses 
        do you consider to be ``gross violations of human rights''?

    Answer. In no circumstances would I consider a DRL recommendation 
not to approve an arms sale to be inappropriate. If confirmed, I would 
seek to ensure that DRL's views are always considered in the arms sales 
approval process. In cases of arms sales to countries that have been 
credibly accused of committing gross violations of human rights but 
where the particular arms in question might not likely be used to 
commit human rights violations, if confirmed, I would seek to use all 
forms of leverage to advance respect for human rights. If confirmed, I 
would apply the definition of gross violations of human rights in 22 
USC 2304(d)(1) of the Foreign Assistance Act.



                               __________


            Responses to Additional Questions for the Record
           Submitted to Robert Destro by Senator Rob Portman

    Question.  Mr. Destro, if confirmed to this position will you 
support the Trump Administration's initiative to end the 
criminalization of homosexuality globally in nations where it is still 
illegal to be a homosexual?

    Answer. Absolutely.

    Question.  Further, do you affirm to protect the rights of LGBTQ 
people worldwide and acknowledge that these people will be affirmed the 
same basic rights and human dignities that all people should receive?

    Answer. Yes. Again, as I articulated in my statement, respect for 
the rights and freedoms of others is the foundation of effective 
diplomacy and a stable foreign policy.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Robert Destro by Senator Benjamin L. Cardin

    Question.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have been working on civil and human rights issues for 
most of my career, both here in the United States and abroad. Here are 
some three (3) examples:

   Release of prisoners--journalists and prisoners of conscience.  
        Since the early 2000s, I have been actively involved in efforts 
        to seek the release of prisoners of conscience and journalists. 
        Because of my work in the Middle East, I have had the privilege 
        to work with American families whose loved ones are imprisoned, 
        and to press the case for the release of their family members 
        at every available opportunity. In several cases, we succeeded. 
        Where individuals remain imprisoned or missing, I am committed 
        to the effort to get them out for as long as it takes, and 
        will, if confirmed, use whatever authorities I have to multiply 
        the force of ongoing efforts. I am, as I make this report, 
        working on four (4) such cases.
   Human Rights.  From a policy perspective, the most important 
        accomplishment was the drafting, field work and advocacy for 
        the ISIS genocide resolutions: House Concurrent Resolution 75, 
        co-sponsored by Reps. Jeff Fortenberry and Anna Eshoo (adopted 
        393-0); Senate Res. 340, co-sponsored by Senators Bill Cassidy 
        and Joe Manchin (adopted by unanimous consent). Then-Secretary 
        of State, John Kerry, responded by making a formal genocide 
        declaration on March 17, 2016. I have remained involved in the 
        anti-genocide effort since that time, and have used the 
        experience to inform my ongoing efforts to prevent and document 
        the atrocities that are continuing in many parts of the world. 
        If confirmed, I will bring that experience, and the many 
        committed people with whom I have worked, into a broadly-based, 
        international effort to implement the Elie Wiesel Atrocities 
        Prevention Act.
   Democracy.  My experience as a Commissioner on the U.S. Commission 
        on Civil Rights from 1983-1989, and as voting rights counsel 
        for the Ohio Secretary of State from 2004-2006, has given me a 
        ``ground-based'' understanding of the entire range of voting 
        rights issues--from registration to the security of voting 
        technology. My work with Christians, Muslims, Jews and other 
        minorities in the Middle East and North Africa has given me 
        unparalleled opportunities to discuss how to make the case for 
        democracy and human rights in countries that do not have a 
        democratic tradition.

    Question.  International human rights law recognizes that gender-
based violence, including domestic violence, is a human rights 
violation. This year, the annual State Department Human Rights Report 
scaled back reporting on incidences of gender-based violence in many 
countries, including Central American countries like El Salvador, 
Guatemala, and Honduras where women and girls are fleeing unspeakable 
risks. Do you believe, based on your understanding of international 
human rights law, that gender-based violence, including domestic 
violence, is a human rights violation? How will you ensure that the 
annual State Department Human Rights Report restores its prior levels 
of reporting on gender-based violence as a serious human rights 
violation afflicting millions of women around the world?

    Answer. President Trump's National Security Strategy explicitly 
states that the United States will support efforts to advance women's 
equality and protect the rights of women and girls. I believe that 
reporting on the prevalence of violence against women and girls is one 
of the many ways in which the Department of State is advancing U.S. 
efforts to press governments to create policies and practices that 
protect women and girls from violence.
    If confirmed, I would work to ensure that the Department of State's 
annual Country Reports on Human Rights Practices report on the extent 
of gender-based violence such as: rape and domestic violence; female 
genital mutilation/cutting; harmful traditional practices such as 
dowry-related deaths, so-called honor killings, acid attacks, and widow 
violence. While it is not possible to list each instance of these 
terrible abuses, we need to find a way to give both a qualitative and 
quantitative description of them for every country in the world.

    Question.  The report also removed reporting on women's rights 
issues broadly defined as reproductive rights. This term was adopted by 
states in a consensus document at the International Conference on 
Population and Development in 1994, but it was a recognition that 
reproductive rights are rights already recognized by international law. 
Will you restore the annual State Department Human Rights Report to its 
prior levels of reporting on reproductive rights? If not, why not? If 
yes, what specific steps will you take to ensure this mandate is 
followed by all U.S. embassies?

    Answer. U.S. law requires that we report on ``wherever applicable, 
practices regarding coercion in population control, including coerced 
abortion and involuntary sterilization.'' The Cairo Program of Action 
and the Beijing Platform for Action provide for the recognition of the 
basic right of all couples and individuals to decide freely and 
responsibly the number, spacing and timing of their children and to 
have the information and means to do so, and the right to attain the 
highest standard of sexual and reproductive health. It also includes 
their right to make decisions concerning reproduction free of 
discrimination, coercion and violence, as expressed in human rights 
documents.
    If confirmed, I will report facts relevant to these provisions 
fully and efficiently.

    Question.  Do you believe it acceptable that religious freedom can 
be used, in any case, as a justification for policies that criminalize, 
stigmatize or otherwise discriminate against LGBTI people, 
relationships, or organizations? In some countries, governments cite 
their citizens' religious beliefs as a justification for their 
discriminatory policies. Given your history and writings, I am 
concerned that you might actually agree with them. Will you commit to 
standing by the State Department's policies, that religious beliefs 
should not be used as justification for discriminatory policies? If 
confirmed, how would you work with the Ambassador-at-Large for 
Religious Freedom to ensure that the legal and access rights of any 
minority population-including LGBTI populations-are not disrespected by 
the majority population, in law or otherwise?

    Answer. There is no justification for criminalization of LGBTI 
status, nor for violence against LGBTI persons, nor for discrimination 
in housing, employment or the provision of government services. Respect 
for the inherent dignity of every human person is a universal duty, and 
is the foundation of an effective foreign policy. If confirmed, I will 
work closely with colleagues across the State Department and beyond to 
promote respect for fundamental freedoms, human rights and democratic 
governance for all people, including LGBTI persons. governments around 
the world must understand they are obligated to provide every citizen 
with equal protection under the law, and if confirmed, I would stand 
forcefully for that principle.
    I see no inherent tension between the U.S. government's 
longstanding effort to protect the human rights of LGBTI people 
globally and concepts of international religious freedom. In fact, the 
U.S. government promotes all these rights for exactly the same reason: 
we believe every person has the right to equal protection of the laws. 
All have an equal right to be free to live their lives without fear of 
persecution.
    United States policy is to oppose criminalization, bias-motivated 
violence, and serious discrimination targeting LGBTI persons in areas 
such as employment, housing, or the provision of government services. 
If confirmed, I look forward to the opportunity to advance those 
principles.

    Question.  DRL is responsible for promoting human rights, including 
women's rights and sexual and reproductive rights. The U.S. is a party 
to both the International Conference of Population and Development 
Programme for Action and the Beijing Platform for Action, which 
reaffirm reproductive rights and the right to reproductive health care. 
Implicit in the right to reproductive health is the right of men and 
women to be informed and to have access to safe, effective, affordable 
and acceptable methods of family planning of their choice, including 
information and access to the full range of modern contraceptive 
services such as hormonal contraception, condoms and barrier methods, 
and long-acting reversible contraception. Do you believe that the U.S. 
and other countries should work to ensure that women, young people and 
LGBTI receive accurate information about and access to a full range of 
information and services about their sexual and reproductive health? Do 
you think that health care providers in developing countries should be 
able to refuse to provide women, girls and LGBTI with information about 
modern contraception with the use of U.S. funds? Similarly, should 
health care providers be allowed to discriminate against LGBTI people, 
unmarried adolescent girls, or other minorities people in the delivery 
of services? Can providers deny to provide LGBTI people information 
about condoms, pre-exposure prophylaxis, or methods to prevent 
transmission of HIV? How would you address these issues and potential 
sexual and reproductive rights violations in your role as Assistant 
Secretary?

    Answer. The U.S. has been a leader in promoting the dissemination 
of information about and access to contraception around the world as 
envisioned in the Cairo and Beijing documents. If confirmed, I will 
work to ensure that human rights for women and LGBTI people, including 
with respect to health, are promoted and protected.

    Question.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. I agree with Secretary Pompeo's recent statement: ``Our 
mission is, of course, to represent all of the American people in all 
corners of the globe, so the makeup of our workforce matters .'' He was 
referring to the longstanding commitment of the Department of State to 
having a diverse workforce. If confirmed, I will work to attract new 
talent from the diverse groups that make up U.S. society, inspire all 
of our employees, and encourage individual growth. I will foster an 
organization-wide environment in which diversity and inclusion are 
valued and respected.

    Question.  What steps will you take to ensure each of the 
supervisors in the Foreign Service are fostering an environment that is 
diverse and inclusive?

    Answer. If confirmed, I will vigorously uphold the Department's 
commitment to foster, support and realize the full potential of a 
diverse staff. I will utilize resources within the Department and the 
Foreign Service Institute to provide training and enhance professional 
development that values and respects unique perspectives.

    Question.  Do you commit to bring to the committee's attention (and 
the Inspector General of the State Department and Foreign Service) any 
change in policy or U.S. actions that you suspect may be influenced by 
any of the President's business or financial interests, or the business 
or financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question.  Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. My investment portfolio includes diversified mutual funds 
that may hold interests in companies with a presence abroad. I am 
committed to ensuring that my official actions will not give rise to a 
conflict of interest and I will remain vigilant with regard to my 
ethics obligations.

    Question.  For the third consecutive year, the Trump administration 
has put forward a budget for the State Department and USAID that would 
decimate much of U.S. diplomacy, including with respect to foreign 
assistance geared toward promoting democracy and defending human 
rights. In an era in which human rights are increasingly under threat, 
what are your views on the role played by U.S. foreign assistance in 
promoting fundamental freedoms around the world? If confirmed, will you 
commit to support a robust Democracy, Rights and Governance (DRG) 
budget, and to inform this committee if you feel that support for human 
rights funding is being threatened? If confirmed, do you commit to 
utilize the resources that Congress appropriates and respect the 
Congressional intent for the use of those resources?

    Answer. U.S. foreign assistance to promote fundamental freedoms 
around the world is a low cost/high return element of our foreign 
policy. If we can help people who share our commitment to those 
freedoms bring about reform in their own sovereign countries, 
international stability and prosperity will be enhanced.
    I believe democracy programs are critical for defending national 
security, fostering economic opportunities for the American people, and 
asserting U.S. leadership and influence. If confirmed I would of course 
advocate for adequate funding for these programs.
    If confirmed, I commit to utilizing the resources that Congress 
appropriates and to respect the Congressional intent for the use of 
those resources.

    Question.  Your portfolio covers not only religious liberty, but 
the full range of human rights and labor rights issues, including 
support for democracy and good governance. What experience do you have 
supporting democracy, good governance, or labor rights overseas? How 
can the U.S. work to reverse the disturbing trends of democratic 
backsliding we see taking place worldwide? If confirmed, how would you 
use DRL's diplomatic and programmatic resources to support democratic 
actors and counter authoritarianism? Numerous countries in Latin 
America have created--or have discussed creating--anti-corruption 
commissions to support good governance. If confirmed, do you commit to 
support these efforts to prevent and combat corruption to promote good 
governance?

    Answer. I have worked on human rights and labor issues throughout 
my career. For example, I have practiced labor law, have pressed for 
the release of political prisoners around the world since 2007, and 
have worked to support organizations and individuals active in human 
trafficking prevention and victim recovery in both Central America and 
the Middle East. For almost twenty years I have built dialogues that 
encourage tolerance and collaboration among Christians, Muslims and 
Jews in the U.S. and Middle East on issues including basic human 
rights, the release of prisoners, atrocities prevention, religious 
freedom and human trafficking.
    If confirmed, I commit to create an enabling environment for civil 
society, and to support the work of individual citizens and 
associations to encourage their own governments to be more responsive 
and accountable. I will also press foreign governments to increase 
transparency and eliminate corruption, and continue the Bureau's work 
in support of civil society and democracy activists, especially in 
places where we have no USAID programs and sometimes no diplomatic 
representation. Corruption in Latin America is a significant problem 
that erodes support for democracy and enables human rights violations 
and abuses. Corruption robs societies of economic opportunity, erodes 
the rule of law, and serves as a driver for migration. As such, the 
U.S. national interest is clear in supporting meaningful Latin American 
efforts to prevent and combat corruption.

    Question.  As I'm sure you know, the U.N. describes the situation 
in Yemen as the world's worst humanitarian crisis, with 24 million 
Yemenis in need of humanitarian assistance. Data shows that the Saudi 
and Emirati forces supported by the United States in Yemen are 
increasingly targeting civilians in what may amount to war crimes. On 
Monday, I introduced legislation--along with Senators Durbin, Wyden and 
Markey--that would require the Secretary to make human rights 
certifications for certain arms sales and transfers, specifically those 
involving heavy weapons capable of causing mass casualties or 
destruction, such as attack aircraft and missile launchers.

   Should the United States continue to facilitate arms sales to 
        foreign governments like Saudi Arabia and the UAE credibly 
        suspected of acts that may amount to war crimes?

    Answer. I am aware of and concerned by reports of civilian 
casualties and damage to civilian infrastructure resulting from Saudi-
led Coalition airstrikes in Yemen. I understand the State Department 
adjudicates all potential arms transfers through an Administration 
review process on a case-by-case basis and through a consultation 
process with Congress, as required by law. If confirmed, I would expect 
to contribute to that process.

    Question.  What are your views on the position put forth by 
Secretary Pompeo that, in effect, continuing to arm and otherwise 
support Saudi Arabia and the UAE in Yemen is the best way to support 
human rights there?

    Answer. I believe U.S. priorities are advanced if we are able to 
influence, steer, and achieve results because of our ability to have 
honest, often difficult conversations with Saudi leadership on issues 
like the Yemen conflict. Saudi Arabia and the UAE helped get the 
parties to Sweden and continue to actively support the U.N. Special 
Envoy as he helps them implement the Stockholm Agreement and reach a 
political agreement. This agreement is the only way to end Yemen's 
conflict and humanitarian crisis and to secure a peaceful, stable Yemen 
that upholds human rights and is free of malign Iranian influence.

    Question.  Two weeks ago, the Senate passed S.J. Res. 7, which 
calls for an end to U.S. support for the Saudi- and Emirate-led war. In 
response to that bipartisan vote, Secretary Pompeo said, in effect, 
that those that really care about human rights in Yemen should be 
worried about Iran, not about the massive civilian harm being imposed 
on the people of Yemen by our security partners.

   If confirmed, how would you propose to engage security partners 
        like Saudi Arabia and the UAE?

    Answer. If confirmed as DRL Assistant Secretary, I commit to 
consistently engage with security partners like Saudi Arabia and the 
UAE to mitigate civilian harm and strengthen human rights protections. 
Partnership with the United States in many cases provides political, 
security, and economic benefits, and we should use these relationships 
to advance American values and ideals, including protection of basic 
human rights, which undergird stable and prosperous societies.

    Question.  What would you do as DRL A/S to raise these and other 
human rights issues both privately and publicly with Saudi and Emirati 
authorities?

    Answer. If confirmed, I will raise human rights issues of concern 
with counterparts, including Saudi Arabia and the United Arab Emirates, 
and seek to publicize those concerns when appropriate. The National 
Security Strategy prioritizes support for the dignity of all persons. 
Secretary Pompeo has said that ``we expect every country to behave in a 
way that treats their citizens with the dignity and respect they 
deserve.''

    Question.  If U.S. officials witness court proceedings in Saudi 
Arabia that fall short of international standards, will you urge them 
to say so publicly?

    Answer. If confirmed, I will urge the government of Saudi Arabia to 
ensure fair trial guarantees, freedom from arbitrary and unlawful 
detention, transparency, and respect for the rule of law. I will call 
on the government of Saudi Arabia to treat prisoners and detainees 
humanely, and to ensure that allegations of abuse are investigated 
quickly and thoroughly and that anyone found responsible is held 
accountable. I will urge that we publicize our concerns when I believe 
it will advance our human rights objectives.

    Question.  Would you seek to visit in their places of detention 
human rights activists who are at risk of torture?

    Answer. Yes. If confirmed, I will work closely with my colleagues 
in the Department, as well as seek the views of civil society and human 
rights groups, to determine the best course of action, including 
possible visits to detained activists, for ensuring any detentions and 
prosecutions respect the rights of those detained and accused, and 
guarantee the humane treatment of any individuals involved.

    Question.  As you know, in response to the Saudi murder last 
October of Jamal Khashoggi, the Senate Foreign Relations Committee 
triggered a provision of the Global Magnitsky Act that directed the 
president to report on those individuals--up to and including Saudi 
Crown Prince Mohammed bin Salman--whom the U.S. government believes had 
a role in killing Khashoggi, and on whether the administration intended 
to sanction those responsible.

   Do you agree that Mr. Khashoggi's killing is a completely 
        unacceptable violation of national and international laws and 
        norms? Do you agree that anyone involved in committing or 
        directing that killing should face accountability, no matter 
        their position or rank?

    Answer. Yes.

    Question.  Do you commit to brief this committee in the future with 
the whole truth about what the U.S. government knows concerning the 
circumstances of Mr. Khashoggi's killing?

    Answer. Yes to the full extent permissible under U.S. security laws 
and regulations. I would also favor using other channels to convey 
relevant information to the Congress when security so requires.

    Question.  If, once confirmed, you were told by appropriate 
officials within the IC and law enforcement communities that they 
assess with high confidence that MBS played a role in directing 
Khashoggi's killing, or was otherwise witting of the murder, can you 
commit to saying that you would advise Secretary Pompeo and President 
Trump that Crown Prince Mohammed's role in the murder should be made 
public, and that he should be held accountable?

    Answer. The President and Secretary of State have been clear that 
Saudi Arabia must hold accountable every individual implicated in the 
horrific murder of Jamal Khashoggi, including high-ranking members of 
the Saudi government. If confirmed, I will do my utmost to advance this 
process.

    Question.  If MBS or other senior Saudi officials were found to 
have played a role in Khashoggi's murder, what specific steps toward 
accountability would you recommend the U.S. government undertake?

    Answer. The President and Secretary of State have been clear that 
Saudi Arabia must hold accountable every individual implicated in the 
horrific murder of Jamal Khashoggi, which was fundamentally 
inconsistent with American values. Secretary Pompeo has stated that all 
those involved in the murder must be brought to justice regardless of 
rank and King Salman has made a similar demand. If confirmed, I will 
commit to engaging deeply on additional steps toward accountability 
that the administration could take.

    Question.  If confirmed, do you commit to implementing the Global 
Magnitsky Act robustly?

    Answer. Yes. Global Magnisky is an extremely valuable tool as it 
allows us to target human rights violators without creating a sanctions 
program for an entire country. If confirmed, I look forward to working 
with the Department's experts and the interagency to advance 
implementation of this law.

    Question.  Do you commit to recommend sanctions designations under 
the Act against individuals found to have committed the most egregious 
or systemic crimes, and not to politicize sanctions determinations?

    Answer. Yes. If confirmed, I will work with the Department and 
interagency to ensure a principled approach to implementation of the 
Global Magnitsky sanctions program.

    Question.  Do you commit to moving as expeditiously as possible to 
produce the global tranche of designations that were expected last 
December?

    Answer. Yes. If confirmed, I will work within the Department and 
interagency to develop both global, thematic, and region specific 
sanctions tranches.

    Question.  Do you commit to informing this committee if you lack 
the resources to carry out robust implementation of the Russia 
Magnitsky Act and Global Magnitsky Act?

    Answer. Yes. You have my commitment.

    Question.  It's safe to say that democracy and human rights are 
being challenged right now. They're certainly being challenged by 
governments the United States views as hostile and/or as competitors, 
like China, Russia, Venezuela, and Iran. But they're also being 
challenged by U.S. partner states, from NATO allies like Turkey, 
Poland, and Hungary, to Middle East security partners like Saudi 
Arabia, UAE, Bahrain, and Egypt. In this year's DRL Human Rights 
Report, Secretary Pompeo wrote: ``The policy of this Administration is 
to engage with other governments, regardless of their record, if doing 
so will further U.S. interests.'' What is the right balance for the 
United States when it comes to engaging or even partnering with deeply 
abusive governments? How would you recommend the Secretary of State 
approach such partnerships? In general, how do you believe the U.S. can 
strike the right balance between addressing national security and human 
rights concerns? Do you believe there are cases where political 
isolation or sanctions are appropriate, either based on a country's 
human rights abuses or other foreign policy concerns?Answer:

    Answer. Human rights advocates should always have a seat at the 
foreign policy table. We should always be pressing other governments, 
both abusive and friendly, to adhere to internationally accepted human 
rights standards. Promoting human rights is always in the best 
interests of the United States and of the countries for whose citizens 
we are advocating because societies that respect human rights and the 
rule of law are more stable, and make better allies. It is in our 
national interest to work with allies and partners to try to prevent 
conflict by addressing the causes of violence. Diplomatic efforts to 
prevent conflict are much more effective than engagement after conflict 
erupts. Secretary Pompeo has said that, under his leadership, the 
Department will use a range of programs and partners to promote our 
values abroad, including through bilateral and multilateral channels, 
and imposing visa restrictions and economic sanctions, as appropriate. 
Yes, there are cases where sanctions are appropriate.

    Question.  In addition to the concerning humanitarian crisis, 
Venezuela's democratic institutions have greatly deteriorated over the 
past two decades. What can the U.S. do to ensure that any transition 
paves the way for a return to democracy rather than a new authoritarian 
regime? What do you see as DRL's role in ensuring that any transition 
is peaceful and democratic?

    Answer. The administration has been clear and consistent that a 
change from one authoritarian regime to another is neither our 
objective, nor an acceptable outcome. I agree that our objective should 
be free and fair elections and reinvigoration of democratic 
institutions. The sprawling humanitarian crisis in Venezuela is a 
direct result of the former Maduro regime's efforts to dismantle 
democratic institutions, eliminate checks and balances, and repress the 
rights and freedoms of the Venezuelan people.
    I am deeply committed to helping the Venezuelan people restore 
their democracy and regain their freedom. I will work with the 
Organization of American States to urge its members to achieve the 
objectives of the Inter-American Democratic Charter.
    DRL has a key role to support Venezuela's embattled civil society 
and democratic institutions, to shine light on human rights abuses and 
to support free and fair elections.

    Question.  On December 03, 2018, the Holocaust Museum announced for 
the first time that it believes there is compelling evidence that the 
Burmese military committed ethnic cleansing, crimes against humanity, 
and genocide against the Rohingya, Muslim minority population. Senator 
Young and I plan to re-introduce our Burma Human Rights and Freedom 
Act, which promotes democracy and human rights in Burma, and among 
other actions, requires a State Department report on crimes against 
humanity and other serious human rights abuses committed against the 
Rohingya and other ethnic groups in Burma. Do you believe that the 
gross human rights violations that took place in 2017, in which over 
700,000 fled persecution, when the Rohingya were raped, tortured, 
burned and killed for who they were,--do you believe those actions 
constitute genocide and crimes against humanity? What additional 
measures would you recommend the U.S. take to address allegations of 
genocide, crimes against humanity, and war crimes? What additional 
measures would you recommend the international community take? Would 
you recommend, for example, collaboration to establish a multilateral 
sanctions regime against Burmese military officials who aided, 
participated in, or were otherwise implicated in gross violations of 
internationally recognized human rights in Burma?

    Answer. I share the view that gross human rights violations took 
place in 2017 and am deeply concerned about the Burmese military's 
horrific abuses directed at the Rohingya and the ongoing humanitarian 
crisis that has ensued.
    If confirmed, I will undertake my own review of the facts, and 
offer my recommendations to the Secretary on appropriate actions to 
take to promote accountability and deter further atrocities. Our goal 
should be a mix of private and public and bilateral and multilateral 
diplomacy, economic sanctions and visa restrictions designed to remove 
from positions of responsibility those responsible for ordering these 
atrocities and to bring about the full transition to a civilian-led 
democracy. We also must address the causes of violence and 
discrimination in all regions of Burma.
    I will also support the United States' ongoing efforts to provide 
life-saving humanitarian assistance to those affected by these events 
and to ensure the security of the hundreds of thousands of Rohingya 
remaining in Burma



                               __________


            Responses to Additional Questions for the Record
         Submitted to Robert Destro by Senator Edward J. Markey

    Question.  In the past, you have argued that Christians who oppose 
homosexuality, on the basis of religious belief, should be permitted to 
deny equal treatment and services to LGBT individuals. You have 
questioned whether a transgender person must be accepted as such by 
someone who doesn't accept the basis of gender identity. Given your 
past comments, how can you effectively carry out the position 
articulated by the Secretary of State and be a credible advocate of 
LGBTI rights globally?

    Answer. Respect for the inherent dignity of every human person is 
the foundation of an effective foreign policy. There is no 
justification for violence against LGBTI persons, for criminalization 
of LGBTI status or relations, or for discrimination in areas such as 
housing, employment, or the provision of government services. If 
confirmed, I will work closely with colleagues across the State 
Department and beyond to promote respect for fundamental freedoms, 
human rights and democratic governance for all people, including LGBTI 
persons.

    Question.  In his statement last year during Pride month, Secretary 
Pompeo said, ``LGBTI persons--like all persons--must be free to enjoy 
their human rights and fundamental freedoms, including freedom of 
expression, peaceful assembly, and association, without fear of 
reprisal.'' Do you agree with the Secretary's past statements on the 
role of the U.S. government in promoting the human rights of LGBTI 
people abroad?

    Answer. Yes. If confirmed, I look forward to advancing respect for 
the human rights and fundamental freedoms of all, including LGBTI 
persons.

    Question.  Do you believe it acceptable that religious freedom can 
be used, in any case, as a justification for policies that criminalize, 
stigmatize or otherwise discriminate against LGBTI people, 
relationships, or organizations?

    Answer. There is no justification for criminalization of LGBTI 
status, nor for violence against LGBTI persons, nor for discrimination 
in housing, employment or the provision of government services. Respect 
for the inherent dignity of every human person is a universal duty, and 
is the foundation of an effective foreign policy. If confirmed, I will 
work closely with colleagues across the State Department and beyond to 
promote respect for fundamental freedoms, human rights and democratic 
governance for all people, including LGBTI persons. governments around 
the world must understand they are obligated to provide every citizen 
with equal protection under the law, and if confirmed, I would stand 
forcefully for that principle.
    I see no inherent tension between the U.S. government's 
longstanding effort to protect the human rights of LGBTI people 
globally and concepts of international religious freedom. In fact, the 
U.S. government promotes all these rights for exactly the same reason: 
we believe every person has the right to equal protection of the laws. 
All have an equal right to be free to live their lives without fear of 
persecution.
    United States policy is to oppose criminalization, bias-motivated 
violence, and serious discrimination targeting LGBTI persons in areas 
such as employment, housing, or the provision of government services. 
If confirmed, I look forward to the opportunity to advance those 
principles.

    Question.  Following the departure of Randy Barry, the position of 
the LGBTI special envoy has remained unfilled. Do you support retaining 
the position? If so, what are your plans to encourage the Secretary to 
fill this position?

    Answer. I support the Administration's plan to retain the position 
of Special Envoy for the Human Rights of LGBTI Persons. If confirmed, I 
will fully support the Department's efforts to fill the position with a 
qualified individual empowered to perform its mandate.

    Question.  Following the designations of five individuals and two 
units for atrocities against the Rohingya population in 2017, the 
United States has refrained from sanctioning other senior Burmese 
military officials. Do you believe there should be additional sanctions 
against the Burmese military, including on Commander-in-chief Min Aung 
Hlaing? What will you do to make sure U.S. policy protects the rights 
and dignities of the Rohingya and holds perpetrators of mass atrocities 
accountable?

    Answer. The Administration has been clear that the atrocities 
committed against Rohingya and the ongoing humanitarian crisis that has 
ensued in Burma are the responsibility of the Burmese military 
leadership, that those responsible should be removed from power, and 
the military subordinated to civilian rule.
    If confirmed, I will advocate for actions that promote 
accountability and deter further atrocities. Such actions may include 
targeted economic sanctions and visa restrictions. While I do not want 
to prejudge any specific actions including additional U.S. visa 
restrictions or financial sanctions on specific Burmese individuals or 
security force units, I believe that the United States remains a key 
voice in the international community on the protection and promotion of 
human rights and fundamental freedoms. I will, if confirmed, review the 
conduct of Burmese security forces during the ethnic cleansing of 
Rohingya, as well as human rights abuses by Burmese security forces in 
other parts of the country.
    If confirmed, I will support programs to counter violence and 
discrimination in all affected regions of Burma, and I will support the 
United States' ongoing efforts to provide life-saving humanitarian 
assistance to those affected by violence.

    Question.  Given the trend in authoritarian behavior in the Indo-
Pacific region, and China's efforts to export its authoritarian model 
to other countries in the region, how you will use your position to 
counter this trend and China's efforts to bolster authoritarianism?

    Answer. If confirmed, I will work to advance a free and open Indo-
Pacific through strong support for good governance including promoting 
transparency, openness, rule of law, and the protection of human rights 
and fundamental freedoms within the Indo-Pacific region. These values 
are embedded in the Indo-Pacific Transparency Initiative that was 
announced by the Vice President last November. I will express U.S. 
concerns about China's efforts to export its authoritarian model, seek 
to ensure the U.S. government utilizes appropriate tools to counter 
this trend, and coordinate with our international partners.

    Question.  In you view, what role does civil society play in the 
Indo-Pacific region in promoting democracy and human rights? If 
confirmed, how will you ensure that U.S. foreign policy regularly 
includes engagement and support for civil society in the region?

    Answer. Civil society plays a key role in promoting democracy and 
human rights around the globe, including in the Indo-Pacific region. An 
absence of civil society means an abuse of human rights and democracy. 
If confirmed, I will work to promote a strong, active civil society by 
supporting opportunities for civil society organizations to engage 
their governments, to share best practices across borders, and to 
cooperate on common challenges affecting human rights and fundamental 
freedoms. I will counter efforts by certain governments in the Indo-
Pacific region to place restrictions on the activities of civil society 
organizations and constrain the space in which civil society can 
operate. Finally, I will seek to ensure that democratic institutions, 
including elections, are more credible, inclusive, and effective.

    Question.  How will you ensure that the administration maintains 
focus on the grave situation of human rights in North Korea even as it 
continues diplomatic engagement on denuclearization?

    Answer. The DPRK's human rights record remains among the worst in 
the world. If confirmed, I will meet with North Korean defectors, work 
with likeminded partners to increase international awareness of the 
egregious abuses and violations, and promote respect for human rights 
in North Korea. I will also support civil society efforts to increase 
the free flow of independent information into, out of, and within the 
country.

    Question.  If confirmed, will you use your post to advocate for 
U.S. negotiators to press North Korea on human rights issues, including 
pressing them to cooperate with U.N. human rights mechanism and to join 
the International Labour Organization?

    Answer. Yes. The only way to resolve this human rights crisis is 
for the DPRK regime to join the community of nations and begin to 
respect human rights and adhere to international norms.

    Question.  If confirmed, will you use your post to raise awareness 
of the terms of the North Korea Sanctions and Policy Enhancement Act of 
2016, which specifically imposes sanctions on the North Korean 
government because of its human rights record? Under the law, these 
broader sanctions cannot be lifted, or even waived, unless North Korea 
takes steps to improve its human rights record; will you use your post 
to remind negotiators--on both sides--of this basic legislative 
reality?

    Answer. Yes. If confirmed, I will work with Department and 
interagency counterparts to ensure that our North Korea human rights 
policy, including human rights-related sanctions, is implemented 
consistent with the law, including the North Korea Sanctions and Policy 
Enhancement Act of 2016.

    Question.  Do you think the U.N.'s establishment of a field office 
in Seoul to track rights violations in North Korea is helpful in 
shining a light on North Korea's human rights record? As you know, the 
U.S. withdrew from the UNHRC in June 2018. Do you think this helps or 
hurts multilateral efforts to call out Kim regime abuses?

    Answer. North Korea's human rights record is among the worst in the 
world. I support efforts to document the egregious human rights abuses 
and violations in North Korea for the purposes of shining a light on 
the country's deplorable human rights record and for future 
accountability purposes.
    I believe there are a variety of multilateral forums and tools we 
can use to call out the North Korean government's terrible human rights 
record, including the U.N. General Assembly, the U.N. Security Council, 
and the Universal Periodic Review process.



                               __________


            Responses to Additional Questions for the Record
          Submitted to Robert Destro by Senator Cory A. Booker

    Question.  Do you support these changes made in 2018 downgrading 
the importance of and focus on women's reproductive rights in the 
annual Human Rights Reports?

    Answer. U.S. law requires that we report on ``wherever applicable, 
practices regarding coercion in population control, including coerced 
abortion and involuntary sterilization.'' The Cairo Program of Action 
and the Beijing Platform for Action provide for the recognition of the 
basic right of all couples and individuals to decide freely and 
responsibly the number, spacing and timing of their children and to 
have the information and means to do so, and the right to attain the 
highest standard of sexual and reproductive health. It also includes 
their right to make decisions concerning reproduction free of 
discrimination, coercion and violence, as expressed in human rights 
documents.
    If confirmed, I will report facts relevant to these provisions 
fully and efficiently.

    Question.  Since you have taken stances on numerous pieces of 
legislation in the past, do you support the passage of S.707, 
Reproductive Rights Are Human Rights Act? If not, why not?

    Answer. President Trump's National Security Strategy explicitly 
states that the U.S. will support efforts to advance women's equality 
and protect the rights of women and girls.
    If confirmed, I will work to ensure that women's human rights, 
including their right to the enjoyment of the highest attainable 
standard of physical and mental health, are promoted and protected.
    As a nominee, it would not be appropriate for me to express an 
opinion on a specific piece of proposed legislation. If confirmed, I 
will be happy to have a conversation about legislation of concern to 
you and to contribute to formulating the Administration's response to 
the proposed bill.

    Question.  The State Department's own 2018 Human Rights Reports 
acknowledge that the Nigerian ``government did not adequately 
investigate or prosecute most of the major outstanding allegations of 
human rights violations by the security forces or the majority of cases 
of police or military extortion or other abuse of power.'' 
Unfortunately, this lack of lack of accountability for abuses by 
security forces has been a consistent challenge.
    As recently as October, according to an investigation by Amnesty 
International researchers, Nigerian soldiers and police used excessive 
force which led to the killing of at least 45 supporters of the Islamic 
Movement in Nigeria (IMN) over two days in October 2018, as the Shi'a 
Muslim group held a peaceful religious procession around Abuja. Video 
footage shows the security forces ``opening fire on unarmed 
demonstrators, sometimes shooting indiscriminately into the crowd at 
close range as people turned and tried to flee.'' The soldiers depicted 
were apparently the 7th unit of the Nigerian Brigade (also referred to 
as the Presidential Guard Brigade).

   To your knowledge, has the State Department implemented vetting 
        under the Leahy Law for 7th unit of the Nigerian Brigade (also 
        referred to as the Presidential Guard Brigade) for its alleged 
        abuses in October?

    Answer. I am deeply concerned by allegations of extrajudicial 
killings by Nigerian security forces members, and the lack of public 
accountability to date. I believe it is incumbent upon Nigerian 
security forces to respond to protests in a measured manner that 
adheres to Nigerian law, respects fundamental freedoms, and the rules 
for the escalation of force, while protecting the lives of civilians 
and security forces. If confirmed, I will seek to ensure through the 
Leahy Law and other tools that Nigerian security forces responsible for 
serious human rights abuses do not receive assistance and that they 
improve their respect for human rights and fundamental freedoms.
    I am not privy as to whether the 7th unit of the Nigerian Brigade 
(also referred to as the Presidential Guard Brigade) has been nominated 
for assistance or training since the incident described in the Amnesty 
report. Were it to be to be nominated for training or assistance in the 
future if confirmed I would ensure that the information in that report 
was reviewed and taken into account.

    Question.  How will you seek to promote a greater respect for human 
rights and accountability for security force abuses in Nigeria when 
they remain an important security U.S. partner in fighting Boko Haram, 
if confirmed?

    Answer. I believe that the U.S. government needs to continue its 
robust efforts that aim to help the Nigerian government and civil 
society address instability across Nigeria while building more capable, 
professional, and accountable Nigerian security forces that respect 
human rights and protect civilians. I stress that these concerns are 
not mutually exclusive: protecting human rights, promoting 
accountability, and ensuring civilian protection are instrumental to 
defeating terrorism.
    We must press the Nigerian government for credible, transparent, 
and thorough investigations into allegations of corruption and human 
rights violations, pursuing accountability for those responsible. If 
confirmed, I will ensure that our security cooperation with Nigeria 
continues to support our goals of respect for human rights and 
protection of civilians.

    Question.  Do you support the administration's decision to ignore 
the statutory mandate in the Global Magnitsky Human Rights 
Accountability Act relating to requests for determinations from 
Congress?

    Answer. If confirmed, I will work with interagency legal and policy 
experts to implement the Global Magnitsky Human Rights Accountability 
Act in accordance with applicable delegations of authority and other 
appropriate considerations.

    Question.  What do you view as Congress' proper role in requesting 
a sanctions determination under the Global Magnitsky Human Rights 
Accountability Act?

    Answer. If confirmed, I will welcome the recommendations of 
Congress in Global Magnitsky Act implementation and will work to ensure 
congressional views are taken into account.

    Question.  The most recent Religious Freedom Report on Bahrain from 
2017 states that: ``The government continued to question, detain, and 
arrest clerics, community members, and opposition politicians 
associated with the Shia community.'' Moreover, the government 
continued its crackdown against dissent of all kinds, typified by the 
ongoing imprisonment of human rights defender Nabeel Rajab for tweets 
critical of the government.
    In spite of these ongoing religious freedom and human rights 
concerns, according to a readout of Secretary of State Mike Pompeo's 
meeting with the Bahraini King and Foreign Minister on January 11th, 
Secretary Pompeo failed to publicly raise either of these issues during 
his meeting.

   What steps do you plan to take to raise the concerns of Shia 
        citizens in Bahrain, if confirmed?

    Answer. If confirmed, I will engage counterparts in Bahrain on 
strengthening respect for the human rights of all Bahrainis, including 
Shia citizens. Societies are strengthened, not threatened, by 
expressions of opinion and dissent, and opposition voices can play a 
vital role helping societies become more tolerant and inclusive.
    Bahrain is an important U.S. partner. Closing avenues to legitimate 
civil and political discourse could open a window for external parties, 
including Iran, to exploit frustrated communities.

    Question.  What foreign policy tools do you think the United States 
should employ to put pressure on the Bahraini government for its 
failure to implement governance reforms and respect human rights?

    Answer. I will support human rights issues and raise human rights 
cases of concern with counterparts, including when I travel. I will 
also consult regularly with civil society and opposition voices. The 
National Security Strategy prioritizes support for the dignity of all 
persons. I will urge that we publicize our concerns when I believe it 
will advance our human rights objectives.
    I know the United States has many tools in addition to public and 
private messaging that we can use to effectuate improved human rights 
protections, and if confirmed, I will commit to engaging strongly on 
these issues regarding Bahrain.

    Question.  What in your view is should be the U.S. response to the 
Egyptian government's proposed amendments to extend President Sisi's 
time in power, reduce the independence of the judiciary, and increase 
the role of the military in civilian government?

    Answer. I believe constitutional transitions of power are essential 
for strong democracies everywhere and that we should encourage the 
Egyptian government to ensure that the referendum allows all Egyptians 
to give voice to their views, without penalizing dissenters. I believe 
the United States should encourage civilian control of the military and 
independent judicial systems if we are to advance our objectives of 
prosperity and security around the globe.
    Encouraging Egypt to build a more stable and secure society 
including through strengthening civil society and human rights 
protections is part of achieving those objectives.

    Question.  What innovative ideas will you propose, if confirmed, to 
support human rights defenders and civil society organizations in 
Egypt?

    Answer. If confirmed, I will raise our serious concerns about the 
human rights situation in Egypt with senior Egyptian government 
officials. In those conversations, I will emphasize the obligation that 
all governments have to protect and respect human rights, and to ensure 
that all persons enjoy fundamental freedoms, including freedoms of 
expression, peaceful assembly, association, and religion. As I said at 
the hearing, I want our reporting to be more real time. If confirmed, I 
will look for new ways to use social media and other platforms to 
report on human rights problems and show support for civil society and 
human rights activists in places like Egypt and around the world.
    Enabling an environment for human rights defenders and civil 
society organizations to operate is critical Egypt's to stability and 
prosperity, and to meeting the very real security and terrorism 
challenges Egypt faces. Around the world, these individuals and groups 
are often key to identifying the most innovative initiatives to advance 
reform in their own countries, and I would look forward to seeking 
their views on how the United States can support their own efforts.

    Question.  Will you pledge to work with the Ambassador-at-Large for 
International Religious Freedom to ensure the Egyptian government takes 
concrete steps to end discrimination towards and ensure the safety of 
the Coptic Christian community and places of worship in Egypt, if 
confirmed?

    Answer. Yes. If confirmed, I pledge to work with the Ambassador-at-
Large for International Religious Freedom to ensure the Egyptian 
government takes steps to end discrimination towards and ensure the 
safety of the Coptic Christian community and places of worship in 
Egypt.

    Question.  Will you pledge to raise the cases of prominent human 
rights workers, lawyers, and political activists who have arbitrarily 
detained in your conversations with Egyptian authorities, if confirmed?

    Answer. Yes. If confirmed, I will raise our serious concerns about 
these issues with senior Egyptian government officials. In those 
conversations, I will emphasize the obligation that all governments 
have to protect and respect human rights, and to ensure that all 
persons enjoy fundamental freedoms, including freedoms of expression, 
peaceful assembly, association, and religion.
    Respecting these values and principles, and allowing space for the 
emergence of a robust civil society are critical to Egypt's stability 
and prosperity, and to meeting the very real security and terrorism 
challenges Egypt faces.

    Question.  According to the recently released State Department's 
2019 Human Rights Report on China, which includes Tibet: ``Official 
repression of the freedoms of speech, religion, movement, association, 
and assembly of Tibetans in the Tibet Autonomous Region (TAR) and other 
Tibetan areas and of Uighurs and other ethnic and religious minorities 
in Xinjiang worsened and was more severe than in other areas of the 
country.'' Moreover, the report states that ``arbitrary arrest and 
detention remained serious problems'' in Tibet and as of November 27, 
2017, there were 303 Tibetan political prisoners known to be detained 
or imprisoned in China.

   Will to commit to raising the cases of Tibetan political prisoners 
        and prisoners of conscience in meetings with Chinese government 
        officials, if confirmed?

    Answer. Yes. If confirmed, I am committed to pressing for respect 
for human rights, including freedom of religion and belief, in my 
conversations with Chinese officials, and advocating for the release of 
Tibetan political prisoners and prisoners of conscience.

    Question.  Will you support full implementation of the Reciprocal 
Access to Tibet Act of 2018, including revoking the visas of Chinese 
officials determined to substantially involved in the formulation or 
execution of policies related to access for foreigners to Tibetan 
areas, if confirmed?

    Answer. If confirmed, I will support full implementation of the 
Reciprocal Access to Tibet Act.



                               __________


            Responses to Additional Questions for the Record
           Submitted to Keith Krach by Senator Johnny Isakson

    Question.  Last spring, the State Department negotiated an 
agreement with the UAE to address subsidies provided by the UAE 
government to their state-owned airlines.
    When subsidized carriers open routes to the U.S., American jobs are 
put at risk. That's why Open Skies agreements are so important, 
particularly to my home state.
    However, an earlier agreement with Qatar appears to have been 
undermined when state-owned Qatar Airways acquired a 49% stake in an 
Italian airline. They are now able to use that airline to launch new 
service to the United States:

   If confirmed, will you commit to strictly enforce Open Skies 
        agreements?

    Answer. If confirmed, I would commit to strictly enforcing our Open 
Skies agreements and leveling the playing field to ensure U.S. 
companies have an opportunity to succeed globally.

    Question.  What efforts will you undertake to remedy these types of 
violations?

    Answer. I would support the Department's leadership in ensuring 
appropriate follow-though on the Understandings reached in January 2018 
with Qatar and in May 2018 with the UAE. I would seek to address 
concerns of U.S. industry regarding subsidized competition while 
maintaining the Open Skies framework of U.S. international aviation 
policy. My goal would be to provide beneficial results for as many U.S. 
stakeholders as possible.



                               __________


            Responses to Additional Questions for the Record
          Submitted to Keith Krach by Senator Robert Menendez

Paris Agreement
    Question.  2019 is a significant year for U.S. participation in the 
Paris Agreement because November 4th is the day when President Trump 
can officially initiate the formal withdrawal process. November 4th 
happens to be 4 weeks before the start of COP25 in Santiago, Chile. 
According to the historical responsibilities of your predecessors, if 
confirmed, you would be Head of Delegation to COP25.

   Do you believe the United States should withdraw from the Paris 
        Agreement?

    Answer. I fully support the President's decision that the United 
States will withdraw from the Paris Agreement unless we can identify 
terms for participation that are better for the American people. If 
confirmed, I will ensure that the United States promotes a balanced 
approach to economic growth, energy security, and environmental 
protection. We will remain a global leader on the issue of climate 
change to advance and protect U.S. economic and environmental 
interests, including by participating in ongoing international climate 
change negotiations to ensure a level playing field for all countries. 
We will continue to work with other countries to reduce greenhouse gas 
emissions and enhance resilience in ways that drive innovation and 
market-friendly solutions.

    Question 2  How is it in the best strategic and economic interests 
for the United States to remove itself from the international Agreement 
every other nation of the world is using to shape the future of the 
global economy?

    Answer. If confirmed, I will ensure that the United States remains 
engaged in international negotiations and discussions on the issue of 
climate change to advance and protect U.S. interests, working with 
other countries to help drive innovation and market-friendly solutions, 
so that our efforts to protect the environment and grow our economy are 
mutually supportive.

    Question.  When President Trump announced he would withdraw the 
United States from the Paris Agreement he did so with the caveat that 
he would work to seek a ``better deal'' wherein the United States would 
remain a party to the Paris Agreement.

   Are you aware of what work or progress to advance the president 
        pledge to reach a new or better deal on international climate 
        action, wherein he may justify keeping the United States party 
        to the Paris Agreement?

    Answer. As I am not a government employee, I have not been engaged 
in conversations concerning this matter, but I understand that the 
United States has remained active in international negotiations related 
to the Paris Agreement in order to protect U.S. interests and keep all 
policy options open for the President. I also understand that the 
Administration policy regarding withdrawal from the agreement remains 
unchanged and that the United States intends to withdraw as soon as 
possible, consistent with the terms of the agreement.

    Question.  Will you commit to the committee that, if confirmed, you 
will develop and provide details on what a ``better deal'' would be as 
well as the strategy for achieving a new or better deal?

    Answer. As I am not a government employee, I have not been engaged 
in conversations concerning this matter. If confirmed, I will ensure 
that the United States remains actively engaged on the issue of climate 
change, in multilateral bodies, as well as directly through our 
diplomatic and development activities with other countries.

    Question.  Senator Collins and I wrote Secretary Pompeo a letter 
several weeks ago, for which we have not received a response, 
requesting the Secretary explain how he intends to maintain power and 
influence in a process that we are walking away from.

   Do you believe that U.S. interests are better served when we are 
        inside and actively involved in diplomatic negotiations, or 
        when we excuse ourselves, and walk from processes that the rest 
        of the entire world is actively engaging in?

    Answer. The United States continues to participate in ongoing 
international climate change negotiations to to protect U.S. economic 
and environmental interests. Regardless of our position on the Paris 
Agreement, the United States' approach to environmental protection 
serves U.S. interests and has unburdened communities, individuals, and 
industries to develop and implement policies that fit their needs. This 
approach leverages the ingenuity of our citizens and businesses to 
protect our environment and grow our economy.

    Question.  Can the U.S. maintain its leadership and influence in 
negotiations of policy and implementation processes, in multi-lateral 
forums like the Paris Agreement, when we have chosen not to be party to 
these agreements? If you believe we can, how? If confirmed, will you 
develop and present the State Department's strategy for continued 
leadership on climate change diplomacy, international climate change 
cooperation, and engagement in the Paris Agreement, both during the 
year-long interim period wherein the U.S. withdrawal process is being 
processed, and for the years after a U.S. withdrawal is finalized and 
our country is no longer party to the Paris Agreement?

    Answer. Yes, I believe the United States can maintain its 
leadership and influence in these multilateral policy forums regardless 
of our position on the Paris Agreement. If confirmed, I will ensure 
that the United States remains actively engaged on the issue of climate 
change, in multilateral bodies, as well as directly through our 
diplomatic and development activities with other countries. I will 
ensure that we work to advance and protect U.S. interests, working with 
other countries to help drive innovation and market-friendly solutions, 
so that our efforts to protect the environment and grow our economy are 
mutually supportive.

    Question.  The outcomes from COP24 are widely regarded as 
successful and favorable towards the U.S.'s interests. a. Do you agree 
with this assessment? b. How much credence do you put on the 
achievement of these positive outcomes resulted from the U.S.'s full 
participation in the negotiations as a party to the Paris Agreement?

    Answer. I welcome the outcomes of the 24th Conference of the 
Parties to the United Nations Framework Convention on Climate Change 
(UNFCCC COP24) in Katowice and appreciate the hard work of our 
negotiators, whose active and constructive engagement made it possible 
for the United States to achieve such outcomes. The outcome took a 
significant step toward holding our economic competitors accountable 
for reporting their emissions in a manner consistent with standards the 
United States has met since the early 1990s.

    Question.  What is your strategy for maintaining and growing U.S. 
influence, cooperation, and power on climate diplomacy at COP25? 
(Taking into consideration that in the coming months leading up to 
November 4, 2019, which is the earliest date the President can 
officially begin the United States' withdrawal process).

   How do you think our partner and ally, as well as rival, parties to 
        the Paris Agreement posture and willingness to deal with the 
        United States may change, knowing that on November 4, 2019 the 
        United States may very likely initiate the withdrawal process?

    Answer. With COP25 months away, it is too early to say anything 
specific. That said, I understand that the United States was actively 
engaged at COP24 and, if confirmed, I would work with U.S. negotiators 
to develop an approach to advance and protect U.S. interests at COP25.

    Question.  Given your experience in business and negotiations, if 
your negotiating partner affirmatively states and maintains an 
intention to walk away from a deal, even after gaining concessions, 
would, or rather when, do you as the party sitting across the table 
from the walking party move on and write off further talks and 
concessions for the walking party?

    Answer. Regardless of our position on the Paris Agreement, I would 
work to ensure that the United States remains engaged on the issue of 
climate change internationally, to advance and protect U.S. interests, 
working with other countries to help drive innovation and market-
friendly solutions, so that our efforts to protect the environment, 
enhance energy security, and grow our economy are mutually supportive.

    Question.  Are you aware that many major U.S. companies, like 
Microsoft, Nike, Walmart, Apple, Unilever, Kelloggs, Mars, Best Buy, 
and Exelon support U.S. remaining in the Paris Agreement?

    Answer. I am aware of the views of these private U.S. companies. 
Regardless of our position on the Paris Agreement, the United States' 
approach to environmental protection has unburdened communities, 
individuals, and industries to develop and implement policies that fit 
their needs. This approach leverages the ingenuity of our citizens and 
businesses to protect our environment and grow our economy.

    Question.  Congress approved funding for bilateral assistance for 
both renewable energy and adaptation programs in the FY19 omnibus 
appropriations bill. State and USAID have long and well-established 
channels and programs towards which to obligate these funds.

   Do you support implementing Congress's clear intention in this 
        spending legislation, and devoting resources toward renewable 
        energy and adaptation programming?

    Answer. If confirmed, I will work to ensure that all funds are 
implemented in a manner that is consistent with Administration policy 
and applicable law.

    Question.  If confirmed, will you work with the F bureau at State, 
to ensure the State Department will execute and spend these fund 
according to Congress's clear intent in the FY19 omnibus appropriations 
bill?

    Answer. If confirmed, I will work with the F bureau to ensure that 
all funds are implemented in a manner that is consistent with 
Administration policy and applicable law.

    Question.  If confirmed, will you ensure that the full sums are 
obligated as intended, and not applied to existing spending or 
otherwise double-counted?

    Answer. If confirmed, I will work with colleagues on implementing 
programs consistent with Administration policy and applicable law.

    Question.  Regardless of whether the U.S. withdraws from the Paris 
Agreement, the U.S. remains a party to the U.N. Framework Convention on 
Climate Change. Should you be confirmed, will you continue U.S. 
engagement with the UNFCCC and prioritize payment of U.S. contributions 
to that organization?

    Answer. If confirmed, I will ensure that the United States remains 
engaged on the issue of climate change, through the UNFCCC and other 
multilateral and bilateral fora, to advance and protect U.S. interests. 
The FY 2020 congressional budget justification includes a request for 
funds to be contributed to the UNFCCC

    Question.  In 2017, at the Meeting of Parties to the Montreal 
Protocol in Kigali Rwanda, all parties agreed to amend the Montreal 
Protocol to initiate a global phasedown of HFCs, a highly potent 
greenhouse gas used in refrigeration. U.S. industry stakeholders like 
Dow Chemical and United Technologies as well as the U.S. environmental 
community all support U.S. ratification of the Kigali amendment. In 
fact, 13 Republican senators led by Senator Kennedy, sent a letter to 
President Trump last year, including some members of the committee 
urging him to submit the Kigali to the Senate for advice and consent, 
and yet the Kigali amendment remains on his desk, where it's been since 
he took office.

   Will you ensure that, if confirmed, you will work to get the Kigali 
        Amendment sent to the Senate for its Advice and Consent?

    Answer. I understand that the Administration is actively 
considering transmittal of the Kigali Amendment to the Senate for its 
advice and consent, but no final decision has been reached. If 
confirmed, I will ensure that the State Department remains fully 
engaged in the interagency process considering the Kigali Amendment.

    Question.  Are you aware of the Senate's strong bi-partisan support 
for the Kigali Amendment and, if you have not already, will you read 
the attached letter of support for the Kigali Amendment from 13 Senate 
Republicans, led by Senator John Kennedy of Louisiana, and signed by 
three members of this committee, and commit to reaching out to Sen. 
Kennedy to discuss the Kigali Amendment and brief him on the status of 
the Administration's deliberations?

    Answer. I am aware of the letter and, if confirmed, I would be 
happy to discuss this issue with Senator Kennedy and other co-signers.

    Question.  Are you aware of the strong support for the Kigali 
Amendment from affected U.S. industry leaders?

    Answer. I understand the Administration is aware of U.S. industry's 
views and that the State Department and other agencies are in regular 
communication with industry leaders on this issue.

    Question.  Will you reach out to these industry leaders to 
understand their perspective on how U.S. ratification of the Kigali 
Amendment improves their global economic competiveness and to brief 
them on the status of the Administration's deliberations?

    Answer. If confirmed, I will work with colleagues in the State 
Department to continue to work closely with all relevant stakeholders, 
including U.S. industry, as the Administration considers the Kigali 
Amendment.

Administrative
    Question.  Do you agree that any targeting of or retaliation 
against career employees based on their perceived political beliefs, 
prior work on policy, or affiliation with a previous administration, is 
wholly inappropriate and has no place in the federal government? If 
confirmed, what will you do to ensure that all employees under your 
leadership understand that any retaliation, blacklisting, or other 
prohibited personnel practices will not be tolerated?

    Answer. I view our Foreign and Civil Service employees in the 
highest regard. Having now met with many of them in preparation for my 
hearings before the committee, I have been impressed with their 
professionalism, patriotism, and expertise. Career civil servants and 
Foreign Service employees should be evaluated on merit and are 
protected under law from being treated differently due to their real or 
perceived political affiliation or beliefs. As the Secretary has said, 
such prohibited personnel actions will not be tolerated at the State 
Department. If confirmed, I will ensure that employees under my 
leadership understand the rules and understand that they have the 
ability to report prohibited actions to the appropriate authorities, 
for example the Office of the Inspector General.

    Question.  Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. I take the issues of sexual harassment, discrimination 
(e.g., racial, ethnic, religious, etc.), and inappropriate conduct with 
the utmost seriousness and do not tolerate any types of behavior that 
could be considered discriminatory. I would be happy to speak with you 
on the importance of these and similar topics of this nature, and give 
you my perspective on the need to treat everyone with respect, 
courtesy, and fairness.

    Question.  Have you ever addressed concerns or allegations of 
sexual harassment, discrimination (e.g., racial, ethnic, religious, 
etc.), or inappropriate conduct made against any employee over whom you 
had supervisory authority? If so, please describe the outcome and 
actions taken.

    Answer. I take the issues of sexual harassment, discrimination 
(e.g., racial, ethnic, religious, etc.), and inappropriate conduct with 
the utmost seriousness and do not tolerate any types of behavior that 
could be considered discriminatory. I would be happy to speak with you 
on the importance of these and similar topics of this nature, and give 
you my perspective on the need to treat everyone with respect, 
courtesy, and fairness.



                               __________


            Responses to Additional Questions for the Record
         Submitted to Keith Krach by Senator Benjamin L. Cardin

Human Rights
    Question.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Even though I haven't served in government, I have focused 
on reinforcing human rights and democracy by putting American values 
into action in the business, education, and social sectors around the 
world.

Business sector
    I helped to build four category-defining companies that have had a 
positive impact on productivity, standard of living, human empowerment, 
and the health of the planet. As I mentioned in my opening statement, 
my goal was always to create values-driven companies that were built to 
last. The values I worked to instill in my companies are fundamental 
principles of transparency, courtesy and respect for all, and 
accountability. U.S. companies serve as a model to promote good 
governance, human rights, and democracy around the world.

Social sector
    As the founder and chairman of the DocuSign Impact Foundation, I 
led our team with the mission to transform lives through commitment to 
noble causes. We instituted a one-for-one match for employee's 
contributions to their favorite charities, which provided $30 million 
for these organizations. I also served on the board of Opportunity 
International, the largest global private issuer of micro loans, as 
chairman of the advisory board of New Story- which builds homes in 
third world countries, and as co-founder of the Children's Autistic 
Network.
    If confirmed, I will look for ways to have synergistic public/
private partnerships with non-profits, to be a force for good in 
developing countries, and to amplify the moral high ground of American 
values by bringing the power of entrepreneurship and economic 
empowerment of women and the social sector alive.

Diversity
    Question.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. My life's work has been focused on creating innovative 
companies and transformative social causes by building high-performance 
teams that challenge the status quo. You cannot do that with old ideas 
and ways of thinking. I believe the team with the best people wins and 
that diversity of thought on any team is the catalyst for genius. You 
cannot have diversity of thought without having individuals from 
diverse backgrounds, particularly underrepresented groups. I pledge to 
you that I will do all that I can to recruit, support, and mentor a 
Foreign and Civil Service not only on my staff but throughout the 
Department that matches the incredible diversity of this country. The 
Foreign Service Act directs the Department to be representative of the 
American people and to do that we must encourage varied viewpoints and 
thinking at all levels. With that aim in mind, if confirmed, I will be 
honored to work side-by-side with our accomplished and committed 
diplomatic corps and with you to make this diversity a reality. I would 
also prioritize recruitment, training, and acquisition of appropriate 
tools and resources for the success of all employees.

    Question.  What steps will you take to ensure each of the 
supervisors in the Foreign Service are fostering an environment that is 
diverse and inclusive?

    Answer. As I have sought to do in my private business and 
philanthropic work, I believe it is essential for any truly effective 
leader to model the inclusive behavior I have outlined above for 
supervisors, and, if confirmed, I pledge to do so. In cases where 
modeling has not been entirely effective, I will take swift and 
effective action to ensure Department employees are supervised by those 
who foster a diverse and inclusive workplace free from any form of 
discrimination. Additionally, to foster diversity I would support the 
utilization of recruitment and development programs such as the 
Pickering Fellowship, Rangel Fellowship, and others. I also believe 
that training is as essential for supervisors as it is for employees, 
and I will make every effort to have supervisors take part in 
leadership, diversity, and other training to ensure a workplace free of 
discrimination and harassment. I will also encourage mentoring and the 
use of career advancement and leadership development courses for 
promising employees.

Conflicts of Interest
    Question.  Do you commit to bring to the committee's attention (and 
the Inspector General of the State Department and Foreign Service) any 
change in policy or U.S. actions that you suspect may be influenced by 
any of the President's business or financial interests, or the business 
or financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question.  Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. As listed on my financial disclosure form, I am a passive 
investor in several foreign-based private investment funds. Pursuant to 
the Ethics Agreement I executed, if confirmed I will divest these 
interests.

Small Business
    Question.  Both at home and around the world, small businesses help 
drive innovation and economic growth. In developing countries in 
particular, they help build state capacity. I am working with 
Congressman Joaquin Castro to update and introduce the Global Small 
Business Network Act, which supports expanding the existing Small 
Business Development Center model-already adopted by Central America, 
South America, and the Caribbean-to Southeast Asia.

   If confirmed, will you commit to use your role to support economic 
        security in partner countries through promoting small business 
        and entrepreneurship?

    Answer. To promote American prosperity and jobs, Secretary Pompeo 
and the Department of State advance key relationships to secure 
commercial opportunities and foster investment and innovation. If 
confirmed, I will work to promote U.S. small business and 
entrepreneurship opportunities in partner countries.
    As you are aware, U.S. embassies and consulates support development 
of entrepreneurial values and job creation through small business 
development.
    We also advocate vigorously for open, fair, and transparent markets 
as an essential condition for U.S. and foreign entrepreneurs to create 
economic growth and jobs. If confirmed, I will seek to leverage all 
efforts in a way that engages U.S. small businesses and boosts 
entrepreneurship.

WEEE Act Implementation
    Question.  In January of this year, the President signed into law 
the Women's Entrepreneurship and Economic Empowerment Act, which aims 
to reduce-and eventually eliminate-gender disparities related to 
economic participation. The WEEE Act supports women's property rights 
and capability to determine life outcomes, among other actions.

   If confirmed, will you commit to use your role to promote not only 
        micro, small, and medium sized enterprises globally, but 
        especially businesses owned, managed, and controlled by women?
   Will you commit to the committee to provide regular updates on the 
        Bureau's progress in this regard?

    Answer. I am fully committed to supporting women's entrepreneurship 
and economic empowerment, and to implementing the objectives of the 
WEEE Act.
    Women's economic empowerment contributes to the overall advancement 
of U.S. economic interests, aligns with the National Security Strategy, 
and supports the recently launched White House-led Women's Global 
Development and Prosperity (W-GDP) Initiative. If confirmed, I would 
welcome the opportunity to provide updates to the committee on the 
State Department's work in support of the WEEE Act, as well as the W-
GDP Initiative.

Tariffs
    Question.  What are the risks to the international trading system 
of continued unilateral action on tariffs by the United States?

   Does the U.S. defense of certain industries, such as steel and 
        aluminum, on national security grounds set a precedent for 
        other countries to use similar exemptions to impose trade 
        barriers against the United States?

    Answer. Our goal is to ensure that hard work and innovation are 
rewarded and there is a level playing field for U.S. companies, while 
unfair trade practices and illegal government subsidies are punished. 
For many years after World War II, the United States benefited from a 
global trading system that generally encouraged more efficient markets 
here and around the world. However, there are significant flaws in that 
trading system that are hurting American workers and businesses. 
Existing trade agreements have become imbalanced and outdated, and 
efforts to negotiate new rules within the multilateral trading system 
have failed. In fact, the global trading system has created 
unsustainable imbalances that appear to be tilted in favor of non-
market economies like China.
    It is critical to take actions to protect our national security and 
to obtain fairer and better treatment for U.S. companies and workers. 
If confirmed, I look forward to working with Congress, my interagency 
counterparts, and private sector and civil society stakeholders to help 
open markets for American goods and services while protecting American 
workers and businesses from unfair competition.

Paris Agreement
    Question.  This is a critical time for U.S. climate action. As you 
know, in December 2018, we had a successful COP24 summit, due in large 
part to continued U.S. participation and input in high level climate 
strategy discussions.

   Will you commit to maintaining U.S. engagement throughout the 
        remainder of its membership to the Paris Agreement?

    Answer. If confirmed, I will ensure that the United States remains 
engaged internationally on the issue of climate change to advance and 
protect U.S. interests, working with other countries to help drive 
innovation and market-friendly solutions, so that our efforts to 
protect the environment and grow our economy are mutually supportive. I 
will ensure that the United States is actively engaged in international 
climate change negotiations, as appropriate.

    Question.  How will you continue to advance these efforts after we 
withdraw from the Agreement in 2020?

    Answer. If confirmed, I will ensure that the United States remains 
engaged internationally on the issue of climate change to advance and 
protect U.S. interests, working with other countries to help drive 
innovation and market-friendly solutions, so that our efforts to 
protect the environment and grow our economy are mutually supportive.

    Question.  Will you share with this committee your post-2020 
strategy to maintain and/or advance U.S. strategic and economic 
interests within the Paris Agreement framework?

    Answer. As I am not a government employee, I have not been engaged 
in conversations concerning this matter. Regardless of our 
participation in the Paris Agreement, we will continue to advance U.S. 
strategic and economic interests through active participation in 
international climate change negotiations, as appropriate, to protect 
U.S. economic and environmental interests.



                               __________


            Responses to Additional Questions for the Record
           Submitted to Keith Krach by Senator Jeanne Shaheen

    Question.  The Trump administration has emphasized ``great powers'' 
competition as a pillar of its foreign and national security policy, 
and at the same time has focused its economic and trade policies on 
withdrawing from multilateral agreements, such as the Trans-Pacific 
Partnership, in favor of bilateral negotiations:

   In your view, what is the impact on U.S. economic influence in the 
        world when the United States steps back from its international 
        partnerships?

    Answer. The Administration has revised U.S. trade agreements and 
focused on much stricter enforcement of U.S. trade laws to create a 
more level playing field for American workers and a more fair and 
efficient global economy. President Trump withdrew from the Trans-
Pacific Partnership and is negotiating better trade deals. NAFTA was 
renegotiated into the United States-Mexico-Canada Agreement (USMCA) to 
rebalance America's trade relationships and better serve the interests 
of American workers, farmers, ranchers, and businesses.
    The administration will continue pursuing new trade deals with 
strategic partners, including the launch of new trade negotiations with 
Japan, the European Union, and the United Kingdom and to deepen trade 
with Kenya through a trade and investment working group. If confirmed, 
I look forward to working with Congress, my interagency counterparts, 
and our partners around the world to strengthen our international 
partnerships and create economic opportunities for all Americans.

    Question.  On March 22, President Xi was in Rome to sign a 
memorandum of understanding with Italy, the first G-7 country to join 
the Belt and Road Initiative:

   What are the implications for U.S. interests when a member of the 
        G-7 breaks with its allies on an issue as serious as economic 
        partnership with China?

    Answer. It is important that we underscore the value of enduring 
international norms and standards as well as the continued benefits of 
cooperation among G7 nations in our mutual interests. The investment 
model practiced by the U.S. private sector offers commercially viable 
solutions, on transparent and financially sustainable terms, to the 
long-term benefit of partner countries.
    This approach offers an alternative to state-directed, predatory 
investment and lending practices that often leave countries worse off. 
If confirmed, I will work with our allies and partners, including the 
G7, to promote fair, transparent, and market-based approaches to 
economic engagement that are also consistent with our values.

    Question.  If confirmed, how would you approach countering Chinese 
influence among our closest allies and how would you advocate with 
partners, as Italy did last week, who have drawn on the 
Administration's ``America First'' slogan to pursue their own interests 
rather than our mutual interests?

    Answer. The United States and our allies and partners, including 
Italy, have long-standing and economic and political ties. If 
confirmed, I will work closely with our partners to highlight ?areas in 
which we believe Chinese actions pose a risk to their economic or 
national security interests. Our partners are sovereign nations that 
will make their own decisions, but I am confident they will make good 
decisions when they understand the risk.
    I would also underscore the value of enduring international norms 
and cooperation with the United States in advancing our mutual 
interests.

    Question.  China has undergone significant market reform, but the 
transition to a fully free-market economy has clearly stalled. China 
abuses the rules and norms of the institutions that it has become a 
part of, including the World Trade Organization, in order to further 
its own strategic interests:

   Does the U.S. have a clear strategy to counter Chinese efforts to 
        degrade the free market norms of these multilateral trade 
        institutions? If confirmed, what partners would you work with 
        in order to address China's economic and trade policies, 
        especially China's delinquent membership in bodies such as the 
        WTO?

    Answer. The trading system is inherently flawed, with problems that 
have affected U.S. trade agreements as well as global trade 
institutions. That system rewarded countries like China that engaged in 
unfair and market-distorting trading practices. China's behavior has 
been undermining the global trading system and the WTO for years, using 
its protected market to force technology transfers and acquiring 
leading technology companies overseas. Import substitution policies, 
like China's Made in China 2025 initiative, clearly state that China 
seeks to take away domestic and international market share from 
foreigners, in defiance of global norms.
    The United States and other WTO Members have focused on WTO reform, 
with G20 Leaders expressing support for the necessary reform of the WTO 
to improve its functioning. The Administration believes that WTO reform 
must address the unanticipated challenges of non-market economies, such 
as China. The United States is working with the European Union and 
Japan under a trilateral process to address these challenges. If 
confirmed, I look forward to working with Congress, my interagency 
counterparts, and our partners around the world to develop a common 
understanding of the harm posed by China's economic and trade policies, 
to build support for WTO reform proposals, and to ensure we continue to 
defend the interests of American workers, farmers, and businesses.



                               __________


            Responses to Additional Questions for the Record
          Submitted to Keith Krach by Senator Edward J. Markey

    Question.  There are now 350,000 wind and solar jobs in our 
country. Compare that to only 50,000 coal jobs. Meanwhile, 50,000 solar 
jobs were created in 2016 alone. Do you commit to promoting renewable 
energy as a job-creation engine for our economy?

    Answer. Advancing clean energy technologies and energy efficiency 
are key elements of an overall approach to promote diversified energy 
supply for the United States and our partners and allies. Global 
renewable energy markets will only grow in importance over the next 
decades and are projected to account for almost two-thirds of the 
expected $11 trillion global investment in power generation through 
2040.
    U.S. technology positions U.S. firms to be major exporters, 
integrators, and developers of the full range of renewable energy 
technologies. This can serve to complement economic growth, lessen 
dependence on unstable or nefarious foreign sources, and increase 
energy access. Emerging economies like China, India, Indonesia, and 
others are poised to see explosive growth in energy consumption. 
Promoting U.S. technologies, business models, and financing sources 
abroad will be critical to capturing this $7 trillion market. U.S. jobs 
in export-oriented sectors can complement the exciting growth in 
domestic renewable energy manufacturing, installation, and servicing 
employment.
    The State Department leads coordinated U.S. government efforts to 
encourage the adoption and implementation of policies and programs to 
promote U.S. economic interests and improve energy security through 
bilateral, multilateral, and regional engagements. If confirmed, I will 
advocate strongly for the adoption of U.S. business and finance models 
across the globe and open, transparent global energy markets in which 
U.S. companies can successfully complete.

    Question.  Do you think climate change is a problem? Should we be 
working with our allies and partners to address climate change? If we 
are not party to the Paris Agreement, is the United States truly a 
leader when it comes to protecting the environment?

    Answer. I believe that climate change is a complex global challenge 
and that the United States should maintain its leadership and influence 
in multilateral policy forums, including international climate change 
negotiations, regardless of our position on the Paris Agreement. If 
confirmed, I will seek to maintain U.S. leadership to advance and 
protect U.S. economic and environmental interests, including by 
participating in ongoing international climate change negotiations. We 
will continue to work with other countries to reduce greenhouse gas 
emissions and enhance resilience in ways that drive innovation and 
market-friendly solutions, while ensuring energy security.

    Question.  How do you plan to address the United States' 
participation in upcoming international meetings on climate change, 
including the U.N. Climate Change Conference at the end of this year?

    Answer. I believe the United States should maintain its leadership 
and influence in these multilateral policy forums regardless of our 
position on the Paris Agreement. If confirmed, I will seek to maintain 
U.S. leadership to advance and protect U.S. economic and environmental 
interests, including by participating in ongoing international climate 
change negotiations.

    Question.  Do you believe it acceptable that religious freedom can 
be used, in any case, as a justification for policies that criminalize, 
stigmatize or otherwise discriminate against LGBTI people, 
relationships, or organizations?

    Answer. There is no justification for criminalization of LGBTI 
status, nor for violence against LGBTI persons, nor for discrimination 
in housing, employment or the provision of government services. Respect 
for the inherent dignity of every human person is a universal duty, and 
is the foundation of an effective foreign policy. If confirmed, I will 
work closely with colleagues across the State Department and beyond to 
promote respect for fundamental freedoms, human rights and democratic 
governance for all people, including LGBTI persons. governments around 
the world must understand they are obligated to provide every citizen 
with equal protection under the law, and if confirmed, I would stand 
forcefully for that principle.
    I see no inherent tension between the U.S. government's 
longstanding effort to protect the human rights of LGBTI people 
globally and concepts of international religious freedom. In fact, the 
U.S. government promotes all these rights for exactly the same reason: 
we believe every person has the right to equal protection of the laws. 
All have an equal right to be free to live their lives without fear of 
persecution.
    United States policy is to oppose criminalization, bias-motivated 
violence, and serious discrimination targeting LGBTI persons in areas 
such as employment, housing, or the provision of government services. 
If confirmed, I look forward to the opportunity to advance those 
principles.

    Question.  Following the designations of five individuals and two 
units for atrocities against the Rohingya population in 2017, the 
United States has refrained from sanctioning other senior Burmese 
military officials. Do you believe there should be additional sanctions 
against the Burmese military, including on Commander-in-chief Min Aung 
Hlaing? What will you do to make sure U.S. policy protects the rights 
and dignities of the Rohingya and holds perpetrators of mass atrocities 
accountable?

    Answer. If confirmed, I will support the Department of State's 
efforts to promote accountability for those responsible for these 
abuses and achieving justice for victims. I support continued U.S. 
leadership of the international response to the crisis and efforts to 
deter further atrocities. In my role, I will work with my Department of 
State and interagency colleagues to consider the utility of all policy 
tools at our disposal, including sanctions where appropriate.

    Question.  How you will use your position to make sure the United 
States is seen as a leader and partner with the Indo-Pacific, 
particularly in maintaining robust economic and commercial ties to the 
region?

    Answer. Our vision for a free and open Indo-Pacific excludes no 
nation. Our approach is centered on private-sector led development, 
innovation, and open markets.
    No government has enough money to meet the region's economic and 
development needs. Countries that rely on state-dominated funding for 
development crowd out the private-sector investments their economies 
need to promote long-lasting prosperity and stability.
    Private companies shun markets that are not transparent, unstable, 
and corrupt. If confirmed, I will work to foster private sector-led 
growth, address the infrastructure gap and uneven economic development, 
and help build welcoming business environments to promote mutual 
prosperity.

    Question.  How would you make sure that our North Korea sanctions 
enforcement efforts are communicated clearly and effectively?

    Answer. As the Secretary has made clear, pressure is what opened 
the door for diplomacy, and pressure will ensure the DPRK's final, 
fully verified denuclearization. Sanctions remain in full effect until 
North Korea denuclearizes. If confirmed, I plan to engage actively with 
the international community, to include outreach on U.S. sanctions 
actions, and call on countries to strictly implement all sanctions.

    Question.  Do you support the appointment of a designated focal 
point in the interagency to coordinate our sanctions efforts?

    Answer. Sanctions are a fundamental tool of diplomacy and the 
timely implementation of sanctions is critical to United States foreign 
policy objectives.
    Sanctions coordination will be a priority for me, if confirmed. I 
believe we have to be thoughtful and deliberative in assessing where we 
have been successful and where we may need further resources to ensure 
institutional success without creating unnecessary bureaucracy and 
inefficiencies. If confirmed, I will carefully evaluate this issue.

    Question.  What steps would you take to ensure that China, Russia, 
and other enablers of the Kim regime are held accountable for 
violations of sanctions?

    Answer. The United States continues to work with governments around 
the world, including China and Russia, to ensure all nations are fully 
implementing U.N. sanctions obligations. All U.N. Member States are 
required to implement U.N. Security Council sanctions resolutions and 
we expect them all to continue doing so.



                               __________


            Responses to Additional Questions for the Record
           Submitted to David Stilwell by Senator Marco Rubio

    Question.  What will be your top priorities to counter Chinese 
influence in the Indo-Pacific region?

    Answer. The Indo-Pacific strategy is built on principles that are 
widely shared throughout the region: ensuring the freedom of the seas 
and skies; insulating sovereign nations from external coercion; 
promoting market-based economics, open investment environments, fair 
and reciprocal trade; and supporting good governance and respect for 
individual rights.
    The United States seeks a constructive, results-oriented 
relationship with China, wherever possible, but if confirmed I will not 
shy away from speaking forthrightly and contesting Chinese policies and 
actions that undermine the rules-based international order that has 
fostered peace and prosperity in the Indo-Pacific for decades.

    Question.  How do regional U.S. allies such as Australia, Japan, 
the Philippines, South Korea, Taiwan, and Thailand fit into the U.S. 
vision for a ``free and open Indo-Pacific''?

    Answer. Our strong relationships with allies and partners deliver 
invaluable benefits. Five of our seven non-NATO treaty allies, plus 
Taiwan, are in the Indo-Pacific. Their capabilities, and a shared 
vision of the principles that underpin a free and open international 
order, provide critical comparative advantage over those who challenge 
our presence in the Indo-Pacific. If confirmed, I will work with Japan, 
Australia, Korea, the Philippines, Thailand, New Zealand, the Compact 
States, Singapore, Taiwan, and others to strengthen security and cyber 
capabilities, combat transnational crime, foster sound economic growth, 
good governance, and transparency and uphold the rules-based 
international order.

    Question.  If confirmed, will you commit to reviewing and updating 
the 2015 State Department's ``Guidelines on Relations with Taiwan''?

    Answer. Yes. I understand that the Department periodically updates 
and issues a memorandum detailing executive branch guidelines on 
relations with Taiwan, which reflects current U.S. policy related to 
Taiwan. If confirmed, I will explore the possibility of potentially 
updating these guidelines.

    Question.  As part of that review, do you commit that you will 
evaluate and potentially update the State Department's internal 
guidance to allow for more U.S. official engagement with Taiwan?

    Answer. Yes. I will seek opportunities for visits to Washington and 
Taipei by senior-level officials and authorities that advance our 
robust unofficial relationship and enable substantive exchanges on 
issues of mutual concern, consistent with the Taiwan Relations Act and 
the U.S. One China Policy.

    Question.  Pursuant to the 2015 Guidelines Memo on U.S. relations 
with Taiwan, the Taiwanese flag was removed from the State Department's 
website. If confirmed, will you commit to reviewing this and 
potentially updating the guidelines?

    Answer. I am not familiar with the specific circumstance that led 
to the removal of the Taiwan flag. If confirmed, I commit to reviewing 
the situation and will explore the possibility of potentially updating 
the guidelines.

    Question.  Do you commit to supporting high-level Taiwanese 
officials to enter the United States under conditions that are of 
appropriately respectful for the dignity of such high-level officials 
pursuant to the Taiwan Travel Act (Public Law 115-135) which encourages 
high-level visits between U.S. and Taiwanese officials?

    Answer. Yes. If confirmed, I will seek opportunities for visits to 
Washington and Taipei by senior-level officials and authorities that 
advance our robust unofficial relationship and enable substantive 
exchanges on issues of mutual concern, consistent with the Taiwan 
Relations Act and the U.S. One China Policy.

    Question.  In recent years, governments have switched diplomatic 
relations from Taiwan to China due to pressure from Beijing. If 
confirmed, what will you do to help Taiwan maintain and expand official 
relations with friendly nations and warn U.S. allies of the risks 
associated with doing business with China?

    Answer. Taiwan is a democratic success story, a reliable partner, 
and a force for good in the world. The United States must continue to 
support Taiwan as it seeks to expand its already significant 
contributions to addressing global challenges, and as Taiwan resists 
efforts to constrain its appropriate participation on the world stage.
    Working with our allies and partners, we are expressing our 
concerns that Chinese infrastructure development and financing is often 
not coordinated with other donors or development banks. We are raising 
awareness that, in many cases, the resulting debt loads are 
unsustainable. If confirmed, I pledge to continue this important work.

    Question.  If confirmed, do you commit to supporting Taiwan's 
ability to defend itself against Chinese aggression?

    Answer. Yes. If confirmed, I commit to fully implement the 
provisions of the Taiwan Relations Act under which the United States 
makes available to Taiwan defense articles and services in such 
quantity necessary to enable Taiwan to maintain a sufficient self-
defense capability.

    Answer. Taiwan's defensive capability gives it the confidence to 
engage with the mainland in dialogue to improve cross-Strait relations. 
In this context, our arms sales to Taiwan support peace and stability--
not only in the Taiwan Strait, but also across the entire Asia Pacific 
region.

    Question.  What is your view on the principle of reciprocity in the 
context of U.S.-China relations?

    Answer. I view reciprocity as a key aspect of our relationship with 
China in order to ensure Americans are not disadvantaged, be it in 
trade, visa policy, academic access, or other areas.
    The United States National Security Strategy recognizes China as a 
strategic competitor. This reflects our increasing concerns about 
Chinese actions that undermine American interests.
    If confirmed, I will not shy away from speaking forthrightly and 
contesting Chinese policies and actions that undermine reciprocity and 
the international order that has fostered peace and prosperity in the 
Indo-Pacific for decades.

    Question.  If confirmed, will you support the use of Global 
Magnitsky Act sanctions on Chinese officials implicated in gross human 
rights abuses, in particular abuses in Xinjiang, where credible 
estimates suggest up to a million Uyghurs and other Muslims are 
arbitrarily detained and subjected to gross human rights abuses in 
``political re-education'' camps?

    Answer. I am deeply troubled by the Chinese government's worsening 
crackdown on the human rights and fundamental freedoms of Uighurs, 
ethnic Kazakhs, and other members of Muslim minority groups in the 
Xinjiang Uyghur Autonomous Region and elsewhere in China. China's 
detention of more than one million individuals in Xinjiang since April 
2017 is illustrative of the worsening human rights situation. If 
confirmed, I am committed to supporting the implementation of the 
Global Magnitsky sanctions program and promoting the pursuit of targets 
that reflect our deep concern for human rights and corruption issues, 
including with respect to Xinjiang.

    Question.  If confirmed, will you commit to developing a longer-
term U.S. strategy to address human rights abuses in China?

    Answer. I am deeply concerned about the worsening human rights 
situation in China. I understand that the United States coordinates 
closely with likeminded partners to address China's systemic human 
rights abuses and to press individual cases of concern. If confirmed, I 
am committed to continuing to take a long-term strategic approach to 
addressing China's human rights violations and abuses, and promote 
accountability. As part of this approach, I will support the Indo-
Pacific Transparency Initiative's drive for accountable governance and 
the Department's global diplomatic campaign to galvanize international 
pressure on China to limit or halt its repression of Uighurs, ethnic 
Kazakhs, Kyrgyz, and members of other Muslim minority groups in 
Xinjiang and elsewhere in China.

    Question.  If Washington hopes to deter the militarization of the 
South China Sea, it has to take a tougher stance now. What can be done 
to support this U.S. goal?

    Answer. China's efforts to assert its sovereignty claims over 
disputed land features and its unlawful maritime claims in the South 
China Sea, including through massive land reclamation, construction, 
and militarization of outposts, threaten the security and economic 
interests of our allies and partners, as well as the broader rules-
based order in the Indo-Pacific that has been vital to American 
security and prosperity. If confirmed, I intend to work with 
interagency partners to use the range of national security tools that 
we have--diplomatic, economic, and military--to ensure the South China 
Sea remains free and open.

    Question.  If confirmed, will you commit to pressing the Chinese 
government for a resolution over the Tibet issue and to pressing 
Chinese authorities to guarantee unfettered access to Tibet for 
American citizens as required by the Reciprocal Access to Tibet Act 
(Public Law 115-330)?

    Answer. If confirmed, I will fully implement the Tibetan Policy Act 
and the Reciprocal Access to Tibet Act. I will press the Chinese 
government to enter into dialogue with the Dalai Lama or his 
representatives, without preconditions, to seek a resolution of 
longstanding differences. I will also press Chinese authorities for 
reciprocity regarding the open access that China and many other 
countries enjoy in the United States. I am committed to working closely 
with Congress in pursuit of our shared goal of seeing Americans have 
full access to China, including to the Tibetan Autonomous Region and 
other Tibetan areas.

    Question.  If confirmed, what steps will you take to strengthen the 
U.S. government's efforts to push the Burmese government to cooperate 
with international investigators over the recent atrocities against the 
Rohingya population?

    Answer. If confirmed, I will work closely with the U.S. Mission to 
the United Nations, as well as with like-minded countries and regional 
partners, to press the government of Burma to grant unhindered access 
for established U.N. mechanisms, including the International 
Investigative Mechanism for Myanmar, the U.N. Special Rapporteur on 
Myanmar, and the U.N. Special Envoy to Myanmar. The United States has 
played a key role in creating and funding these mechanisms and has 
supported their efforts to promote accountability for atrocities and 
other human rights abuses in Burma.

    Question.  If confirmed, will you use your position to help enhance 
targeted sanctions on Burmese military commanders implicated in human 
rights abuses, by directing resources to support efforts to identify 
perpetrators and obtain information required to have them sanctioned 
under the Global Magnitsky Act?

    Answer. If confirmed, I will support vigorous efforts to identify 
and hold accountable perpetrators of atrocities in Burma. The Global 
Magnitsky Human Rights Accountability Act is a valuable tool Congress 
has provided to promote accountability for gross violations of human 
rights around the globe and I will seek to use it along with the full 
range of tools available to the U.S. government to advance 
accountability in Burma.

    Question.  Will you pledge to advocate within the State Department 
and to the Secretary of State, as requested by many members of 
Congress, including myself, to reach a formal determination about 
whether the atrocities committed against the Rohingya by Burmese 
security forces in Rakhine State amount to crimes against humanity or 
genocide?

    Answer. I am deeply concerned about and appalled by the Burmese 
military's ethnic cleansing of Rohingya and the ongoing humanitarian 
crisis. The process for deciding whether and when to make a 
determination that certain acts may amount to genocide, crimes against 
humanity, or ethnic cleansing, has historically been reserved within 
the Executive Branch to the Secretary of State. If confirmed, I will 
seek to advise the Secretary on any future determinations as they fit 
into the Department's overarching objectives of easing the humanitarian 
crisis, seeking accountability for those that committed atrocities, 
deterring future such atrocities, and addressing root causes of 
violence.

    Question.  Do you commit to pushing for accountability for the 
atrocities committed-not just against the Rohingya in Rakhine State, 
but also against other ethnic minority groups in Burma targeted by the 
military?

    Answer. If confirmed, I will prioritize promoting accountability 
for the perpetrators of these gross violations of human rights and 
ensuring justice for victims. I will aim to continue the United States' 
leadership of the international response to the crisis and efforts to 
deter further atrocities. In this regard, I will consider the utility 
of all policy tools at our disposal. I also will continue U.S. efforts 
to support Burma's transition to a civilian-led democracy and to 
address the root causes of the violence in all regions of Burma. 
Further, I will seek to ensure the generous humanitarian funding from 
Congress is used effectively to relieve suffering and underwrite 
reconciliation and development efforts.



                               __________


            Responses to Additional Questions for the Record
         Submitted to David Stilwell by Senator Robert Menendez

    Question.  If confirmed, you are joining an administration that 
has, quite frankly, been very inconsistent on its approach to our 
allies and alliances, certainly in Europe but also in Asia. It's a view 
and approach I find deeply troubling. But the President's own words and 
tweets--which are U.S. policy--have been extremely divisive. Secretary 
Pompeo has also been clear that the President deserves a team that 
supports him, and that if you can't support the president don't work 
for the administration. That's a view I share, by the way. We can and 
must vet to make sure that people are capable and computer [sic] and 
not corrupt, and that their views are not dangerously out of the 
mainstream, but presidents do deserve their own teams.

   Do you associate yourself with all of the president's views on our 
        allies and alliances?

    Answer. I recognize the invaluable advantages that our strong 
relationships with allies and partners deliver. Five of our treaty 
allies are in the Indo-Pacific. Their capabilities, and a shared vision 
of the principles that underpin a free and open international order, 
provide critical comparative advantage over those who challenge our 
presence in the Indo-Pacific. Under the leadership of President Trump 
and Secretary Pompeo, this Administration has taken concrete steps to 
strengthen our alliances and partnerships in the East Asia and Pacific 
region to uphold the rules-based order. The Indo-Pacific Strategy is 
about ensuring competition is fair and transparent and bounded by the 
commonly shared principles of the rules-based order.

    Question.  What role do you see for U.S. alliances in the region?

    Answer. I recognize the invaluable advantages that our strong 
relationships with allies and partners deliver. Five of our treaty 
allies are in the Indo-Pacific. Their capabilities, and a shared vision 
of the principles that underpin a free and open international order, 
provide critical comparative advantage over those who challenge our 
presence in the Indo-Pacific. If confirmed, I look forward to finding 
ways to strengthen our relations with our allies and partners.

    Question.  How do you view the role of human rights in U.S. 
national security and foreign policy in general, and as an issue in the 
bilateral relationship with China?

    Answer. Promoting respect for human rights and fundamental 
freedoms, including freedom of religion or belief, is a key component 
of American foreign policy. If confirmed, I am committed to ensuring 
that advancing respect for the rule of law and human rights and 
fundamental freedoms remain key priorities in our bilateral 
relationship with China.

    Question.  Are there particular issues--Xinjiang, Tibet, broader 
closure of civil society space under President Xi--that you find 
troubling?

    Answer. I am deeply concerned about the worsening human rights 
situation in China. I am alarmed by the Chinese government's crackdown 
on Uighurs, ethnic Kazakhs, and other members of Muslim minority groups 
in Xinjiang and elsewhere in China. I share Congress's concerns about 
the lack of respect for human rights and fundamental freedoms in Tibet, 
and the lack of regular access to the Tibetan Autonomous Region and 
other Tibetan areas for Americans. I am concerned by China's arbitrary 
detention of lawyers and human rights defenders. Finally, I am troubled 
by the increasing restrictions on Chinese civil society and the 
significant obstacles faced by U.S. NGOs in China as a result of the 
implementation of the Foreign NGO Management Law.

    Question.  If confirmed, how will you prioritize these issues in 
your portfolio?

    Answer. If confirmed, I am committed to working closely with 
Congress to advance the Administration's priorities with regard to 
improving respect for human rights and fundamental freedoms in China 
and to addressing human rights issues there, including China's systemic 
abuses as well as individual cases of concern. Limiting or halting 
China's campaign of repression and mass detention of Uighurs, ethnic 
Kazakhs, and other members of Muslims minority groups in Xinjiang and 
elsewhere in China must be a top priority given the scale and severity 
of abuses. If confirmed, I am committed to continuing the Department of 
State's efforts to galvanize international pressure on China to end 
these counterproductive and repressive policies and to release all 
those who are arbitrarily detained.

    Question.  What diplomatic tools do you think the United States can 
effectively use to address these issues with China?

    Answer. The United States has a diverse set of policy tools to 
address China's human rights abuses. These tools include strengthening 
our diplomatic and public diplomacy efforts throughout the world; 
imposing economic costs; placing export restrictions on items that can 
be misused or on entities that act in a manner inconsistent with U.S. 
foreign policy; and imposing visa restrictions on individuals involved 
in or responsible for human rights abuse. If confirmed, I am committed 
to using all tools available as appropriate to promote the 
accountability of Chinese officials responsible for human rights abuses 
and to press for greater respect for rule of law and human rights and 
fundamental freedoms, including freedom of religion and belief.

    Question.  Do you believe that climate change is driven by human 
activity?

    Answer. The United States must support a balanced approach to 
promoting economic growth and energy security and access that also 
protects the environment. U.S. energy-related CO2 emissions fell by 14 
percent between 2005 and 2017, even as our economy grew by 19.4 
percent. This has been possible because of innovation and 
entrepreneurship that has allowed for the development and large-scale 
deployment of new, affordable, and cleaner energy technologies.
    Climate change is a complex global challenge. If confirmed, I will 
work with other U.S. government agencies to ensure that U.S. policy in 
the East Asian and Pacific region is informed by the bt scientific and 
intelligence assessments, including on the role of human activities in 
influencing the global climate system.

    Question.  Given the existential threat that rising sea levels from 
climate change pose for the Pacific Island nations as well as heavily 
urbanized low-lying coastal areas in Southeast Asia--and given the 
Trump administration's withdrawal from the Paris Accords and general 
denial of climate change--how do you intend to address climate change, 
if confirmed?

    Answer. I understand that the United States continues to help our 
partner countries reduce emissions from forests and other lands, adapt 
to the impacts of climate change, and respond to natural disasters. 
Regardless of our position on the Paris Agreement, the United States 
must continue to lead the world in providing affordable, abundant, and 
secure energy to our citizens, while protecting the environment and 
reducing emissions through job-creating innovation.
    The United States has long been engaged in supporting disaster risk 
reduction programs aimed at saving lives and reducing the impact of 
disasters worldwide.
    If confirmed, I will ensure that U.S. policy in the East Asian and 
Pacific region will ultimately enable us to achieve our climate and 
energy security goals.

    Question.  What is your assessment of the current state of the 
peace process and ethnic and national reconciliation--including in 
Rakhine state--in Burma?

    Answer. The government of Burma has said progress on the country's 
national peace and reconciliation process is a top priority, though 
there has been limited progress since the civilian government came to 
office in 2016. Burma has encountered significant obstacles in its 
national peace process and ethnic and national reconciliation. One 
common denominator is the negative role of the Burmese armed forces--
the Tatmadaw--which continue to commit atrocities and other human 
rights abuses, particularly against members of ethnic minorities. While 
the government has a right to respond to attacks against it, it is 
incumbent on the Burmese military to respect human rights of all people 
in Burma and to protect civilians during military operations.

    Question.  How do you think the United States should engage with 
Burma given the Rohingya genocide, given the on-going violence in 
Kachin and Shan states, and elsewhere?

    Answer. I believe that we should seek to support through engagement 
and foreign assistance those elements of civil society, business, and 
government that seek reform and to enshrine the institutions of 
democracy, good governance, free markets, and respect for human rights. 
We should continue to condemn--through diplomacy, public messaging, and 
targeted sanctions--those individuals and groups that commit human 
rights abuses and benefit from corruption, especially those in uniform. 
The scale of atrocities committed by the security forces against 
Rohingya and other ethnic minorities is appalling. Our actions to 
address these atrocities should not undermine the civilian government's 
reform efforts to the detriment of vulnerable communities.

    Question.  What is your assessment of the situation and the drivers 
behind the Filipino request for clarification?

    Answer. Philippine policymakers and defense planners value clarity 
on U.S. strategic thinking in a contingency situation in the South 
China Sea and the Pacific Area. Our Mutual Defense Treaty lays out a 
process in Article Three for periodic consultation on the 
implementation of the Treaty, so it is expected that our allies seek to 
have these kinds of frank, open discussions.

    Question.  What sort of clarification do you think the United 
States can and should provide--and how do we establish a coordinated 
process so as to avoid the sort of damaging misstep that Secretary 
Pompeo appears to have made?

    Answer. The Secretary's March 1 clarification on the applicability 
of the Mutual Defense Treaty represented a significant reaffirmation of 
U.S. commitment to the Philippines, and I understand that President 
Duterte and Philippine cabinet officials have welcomed it. Top 
officials from the Office of the President and the Department of 
Foreign Affairs have expressed their satisfaction with this 
clarification and have publicly stated they do not see the need to 
review the Treaty. Other partners in the region took note and responded 
positively to the Secretary's clear stance on our alliance commitments 
with the Philippines.
    To the extent that the Philippines wishes to continue the 
conversation on our Treaty, if confirmed I will work with my 
interagency partners to engage the Philippine government through our 
many established channels for discussion, such as the Bilateral 
Strategic Dialogue.

    Question.  What additional measures for partner capacity building 
do you believe that the Philippines needs to undertake as part of this 
process?

    Answer. We enjoy significant collaboration with the government of 
the Philippines including the Armed Forces of the Philippines. I 
understand that there is an ongoing process of formulating potential 
additional capacity-building measures for discussion at the next 
iteration of the Bilateral Strategic Dialogue. If confirmed, I will 
continue this process and work to ensure that the U.S.-Philippines 
Mutual Defense Treaty continues to be part of the bedrock of the U.S. 
regional alliance network.

    Question.  How do we counter-balance the need to strengthen the 
alliance with on-going concerns regarding extra-judicial killings?

    Answer. The United States has not shied away from expressing its 
concerns with the prosecution of the drug war and, if I am confirmed, I 
commit to raising our concerns with the Philippine government. I will 
urge the Philippines to ensure that its law enforcement efforts are 
consistent with its international human rights obligations and 
commitments, and all credible accusations of extrajudicial killing are 
investigated and perpetrators are brought to justice. If confirmed, I 
will focus on working with the Philippine government to improve respect 
for human rights, strengthen the criminal justice system, counter 
transnational crime, and reduce drug demand through prevention, 
treatment, and recovery programs. I will also work to ensure that the 
Leahy Law continues to be rigorously applied.

    Question.  A few days ago Thailand held its long-awaited elections, 
starting the process to return to democracy after far too many years 
under military rule. I want to acknowledge this important step by 
Thailand and offer the Thai people my congratulations and best wishes.

   What are the next steps, now that the elections have been held, to 
        strengthen U.S.-Thai relations after several years where the 
        bilateral relationship has ``underperformed'' because of the 
        coup?

    Answer. Foreign assistance to the government of Thailand remains 
restricted due to the 2014 military coup until the Secretary is able to 
certify and report to Congress that a democratically elected government 
has taken office in Thailand. I understand that a newly elected 
government may be in place by June. If confirmed, I look forward to 
working with Thailand's newly elected government to advance values that 
bring our countries closer together, including democracy, security, and 
prosperity for all citizens.

    Question.  Where do you see opportunities for greater U.S. 
engagement in working with the region to develop the right sorts of 
institutions and structures--supporting international law, 
international norms, and consistent with our interests and values--for 
the twenty-first century?

    Answer. The United States' Strategic Partnership with ASEAN 
supports the pursuit of our shared goal: a rules-based order which 
underpins peace, stability, and prosperity. ASEAN-centered fora such as 
the East Asia Summit and the ASEAN Regional Forum are vital to our 
efforts to promote a free and open Indo-Pacific region rooted in clear 
and transparent rules. I understand that the United States seeks to 
broaden and deepen our engagement in the Mekong region, a strategic 
area of engagement in our efforts to strengthen the Indo-Pacific 
architecture and continues to work through APEC to support the 
development of a rules-based regional trade and investment 
architecture, and to remove barriers for U.S. businesses to access 
markets in the region. If confirmed, I look forward to continuing to 
advance these efforts.

    Question.  What is your vision of a positive economic, development 
and trade agenda for the Asia-Pacific?

    Answer. I look forward to working with my colleagues across the 
Department to advance sustained and high-quality economic and 
commercial engagement in the Indo-Pacific. This includes promoting best 
practices for transparency and governance that enable sustainable, 
private sector-led development.
    If confirmed, I will work with E family bureaus and with the 
interagency to build strong, reciprocal, and balanced bilateral trade 
and investment relationships in the region. I am committed to 
supporting the Administration's efforts to conclude bilateral 
agreements that will lead to free, fair, and reciprocal trade and 
significantly improve market access for U.S. companies, workers, 
farmers, and ranchers.

    Question.  If confirmed, how do you plan to strengthen our 
partnership with Taiwan?

    Answer. If confirmed, I pledge to lead our team to ensure the 
United States continues to support Taiwan as it seeks to expand its 
already significant contributions to addressing global challenges, and 
as Taiwan resists Chinese efforts to constrain its appropriate 
participation on the world stage, such as through the Global 
Cooperation and Training Framework (GCTF). If confirmed, I commit to 
further strengthen our partnership with Taiwan.

    Question.  How would you update our ``One-China Policy'' in order 
to better enhance U.S.-Taiwan relations?

    Answer. I understand that the Department periodically updates and 
issues a memorandum detailing executive branch guidelines on relations 
with Taiwan, which reflects current U.S. policy related to Taiwan. This 
memorandum was last revised in October 2015. If confirmed, I will 
explore the possibility of potentially updating these guidelines.

    Question.  If confirmed, what will you do to secure Taiwan's 
participation in important international organizations?

    Answer. If confirmed, I pledge to support Taiwan as it seeks to 
maintain and expand its already significant contributions to addressing 
global challenges. I commit to working with like-minded partners to 
support Taiwan's meaningful participation in the World Health 
Organization and to push for Taiwan's participation in the ICAO 
Triennial Assembly and in the INTERPOL General Assembly in late 2019.
    I understand that the United States supports Taiwan's membership in 
international organizations that do not require statehood, such as 
APEC. In organizations that require statehood for membership, the 
United States supports Taiwan's meaningful participation.

    Question.  If confirmed, what will you do to help Taiwan 
maintaining formal relations with its diplomatic allies?

    Answer. China's efforts to unilaterally alter the status quo by 
reducing Taiwan's diplomatic relationships are harmful and do not 
contribute to regional stability. Rather, they undermine the framework 
that has enabled peace, stability, and development for decades.
    If confirmed, I pledge to provide leadership to ensure the United 
States supports Taiwan as it seeks to expand its already significant 
contributions to addressing global challenges and resists Chinese 
efforts to squeeze its international space and constrain its 
appropriate participation on the world stage.

    Question.  If confirmed, how would you review the Guidelines in a 
way that we can promote instead of discourage a stronger U.S.-Taiwan 
relationship?

    Answer. I understand that the Department periodically updates and 
issues a memorandum detailing executive branch guidelines on relations 
with Taiwan, which reflects current U.S. policy related to Taiwan. This 
memorandum was last revised in October 2015. If confirmed, I will 
explore the possibility of potentially updating these guidelines.

    Question.  If confirmed, what will you do to fully implement the 
Taiwan Travel Act to allow regular and high-level exchanges between 
U.S. and Taiwanese officials?

    Answer. If confirmed, I will seek opportunities for visits to 
Washington and Taipei by senior-level officials and authorities that 
advance our robust unofficial relationship and enable substantive 
exchanges on issues of mutual concern, consistent with the Taiwan 
Relations Act and the U.S. one China policy.

    Question.  It has long been the policy of the U.S. government, 
provided by the Tibetan Policy Act, to promote dialogue between the 
envoys of the Dalai Lama and the Chinese government toward a solution 
on the Tibet issue, that guarantees the respect of the ``distinct 
identity'' of the Tibetan people, who continue to suffer under China's 
oppressive rule. The dialogue is now at a standstill and, as we have 
seen, the lack of substantive progress toward a genuine resolution 
continues to be a thorny issue in U.S.-China relations.

   Would you personally commit to pressing the Chinese leadership for 
        a resolution of the Tibetan issue through a speedy resumption 
        of dialogue with the Tibetan side, without preconditions?

    Answer. If confirmed, I am committed to urging Chinese authorities 
to engage in meaningful and direct dialogue with the Dalai Lama or his 
representatives, without preconditions, to lower tensions and resolve 
differences.

    Question.  The major rivers of Asia that flow from the Tibetan 
Plateau and are subject to current and potential dam and diversion 
projects by China. These projects are planned and implemented without 
the proper involvement of the Tibetan people, who are the best stewards 
for the preservation of the delicate environment of the Tibetan 
Plateau. India and other governments in Asia are increasingly worried 
about China's plans to dam rivers originating in Tibet which serve over 
a billion people downstream.

   Would you raise the need to fully involve Tibetans in the 
        preservation of Tibet's fragile environment with the Chinese 
        authorities?

    Answer. If confirmed, I will encourage all countries to manage 
their water resources soundly and to cooperate on the management of 
shared waters. I will urge China to make decisions on dams and other 
major water-related infrastructure needs deliberatively, based on the 
best science available, and in transparent consultation with all 
affected stakeholders, including Tibetans.

    Question.  Would you call on the Chinese authorities to engage 
China's neighbors for the development of a regional framework on water 
security?

    Answer. If confirmed, I will encourage all countries, including 
China, to manage their water resources soundly and to cooperate on the 
management of shared waters. I will urge China to make decisions on 
dams and other major water-related infrastructure needs based on the 
best available science, deliberatively, and in transparent consultation 
with all affected stakeholders, including neighboring countries. I will 
also sustain our own cooperation with neighboring countries through the 
Lower Mekong Initiative and other U.S.-led mechanisms.

    Question.  Will you commit to pressing the Chinese authorities to 
allow for the opening of a U.S. consulate in Lhasa and to guarantee 
unfettered access to Tibet for American citizens as required by the 
Reciprocal Access to Tibet Act passed by Congress last year?

    Answer. If confirmed, I will press the Chinese government to allow 
the opening of a U.S. Consulate in Lhasa, consistent with the Tibetan 
Policy Act. I will also fully implement the Reciprocal Access to Tibet 
Act and I will press Chinese authorities for reciprocity regarding the 
open access that China and many other countries enjoy in the United 
States. I am committed to working closely with Congress in pursuit of 
our shared goal of seeing Americans have full access to China, 
including the Tibetan Autonomous Region and other Tibetan areas.

    Question.  During the U.S.-China Summits held to date, President 
Trump did not publicly raise the issue of Tibet. Since 1997, all U.S. 
Presidents have publicly challenged the sitting Chinese President to 
negotiate with the Dalai Lama or his representative to find a lasting 
solution to the Tibetan issue.

   If confirmed, would you recommend and make sure that President 
        Trump calls publicly on the Chinese President to address the 
        grievances of the Tibetan people through dialogue with the 
        Dalai Lama?

    Answer. I share your concerns about China's lack of respect for 
human rights and rule of law in Tibet. If confirmed, I will recommend 
that the United States express publicly, and at the highest levels of 
government, that Chinese authorities need to engage in meaningful and 
direct dialogue with the Dalai Lama or his representatives, without 
preconditions, to lower tensions and resolve differences.

Administrative
    Question.  Do you agree that any targeting of or retaliation 
against career employees based on their perceived political beliefs, 
prior work on policy, or affiliation with a previous administration, is 
wholly inappropriate and has no place in the federal government?

    Answer. Throughout my career of public service, I have had zero 
tolerance for any form of workplace harassment or discrimination based 
on political beliefs, religion, race, gender, disability, sexual 
orientation, or age. I understand that the Department has established 
procedures for reporting such incidents, and there are mechanisms to 
hold employees accountable. I will support these efforts 
wholeheartedly. The Department also has training that encourage 
bystanders to report workplace harassment or discrimination when 
victims are afraid to do so. At all levels of the organization, the 
Department provides mentoring and career counseling to help employees 
develop the skills needed to contribute to a respectful and courteous 
work culture. In addition, there are measures in place to protect 
employees from retaliation. Targeting of any career employees for their 
previous work or perceived political affiliation is not acceptable and 
I will not tolerate it. I understand the Department's Office of Civil 
Rights (S/OCR) and Bureau of Human Resources (HR) manage the 
Department's diversity and inclusion initiatives and work to propagate 
fairness, equity and inclusion at the Department of State and I will 
support their efforts.

    Question.  If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. I will refer allegations of political reprisal against any 
career employees to the Department's Office of the Inspector General. I 
will ensure all personnel practices are carried out consistent with all 
laws and regulations. I hold our Foreign and Civil Service colleagues, 
and all our employees both domestic and overseas, in the highest 
regard. If any of my employees feel that prohibited personnel practices 
are taking place, I will ensure it is reported to the Office of the 
Inspector General. If I am confirmed, the Department's employees can be 
assured of the freedom to express their views within the Department's 
policy formulation process without fear of reprisal.

    Question.  Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting?

   If so, please describe the nature of the complaint or allegation, 
        your response, and any resolution, including any settlements.

    Answer. In my personal life and throughout my military service, I 
have held myself to the highest standards of integrity and conduct in 
my interactions with others. I have never received a formal or informal 
complaint or allegation of sexual harassment, discrimination, or 
inappropriate conduct in any setting. I commit to continue to uphold 
these high standards for conduct at the Department of State and to 
comply with all relevant federal ethics laws, regulations, and rules, 
and to raise concerns that I may have or that are brought to me through 
appropriate channels.

    Question.  Have you ever addressed concerns or allegations of 
sexual harassment, discrimination (e.g., racial, ethnic, religious, 
etc.), or inappropriate conduct made against any employee over whom you 
had supervisory authority?

    Answer. I have promptly addressed through appropriate channels any 
concerns that were ever brought to me about sexual harassment or 
discrimination against employees under my supervisory authority.

    Question.  If so, please describe the outcome and actions taken.

    Answer. I complied with applicable laws, rules, and regulations 
pertaining to the protection of employees from workplace discrimination 
and harassment.

North Korea
    Question.  If confirmed, will you commit to brief all Members of 
the SFRC, if and as requested, on all aspects of the administration's 
policy towards and negotiations with North Korea?

    Answer. I understand that the Department believes congressional 
oversight of diplomacy is key, and the Department is committed to 
keeping you and other members of Congress updated on all relevant 
matters. If confirmed, I will work to ensure that EAP continues to 
value close coordination with Congress and appreciates its role in 
America's foreign relations.



                               __________


            Responses to Additional Questions for the Record
       Submitted to David Stilwell by Senator Benjamin L. Cardin

    Question.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my 35 years of service in the Air Force, and 
subsequent work in Asia-Pacific political and military affairs, I have 
extensively studied the region and worked to ensure that the promotion 
of democracy and the protection of human rights are an integral part of 
U.S. policy. The impact of such actions has been increased protection 
of the rights of vulnerable and marginalized populations, and more 
accountability for violations of those rights. Human rights and 
democracy ensure that societies are prosperous and peaceful. If 
confirmed, I intend to support fully and ensure the coordinated, whole-
of-government implementation of the Indo-Pacific Strategy's 
Transparency Initiative.

Diversity
    Question.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. I believe strongly in the value of diversity. I will 
continue to be committed to fostering a diverse and inclusive team, as 
I have throughout my career. If confirmed, I will ensure that the EAP 
Bureau promotes equal opportunities for all of our personnel, those 
from diverse backgrounds or historically underrepresented groups no 
less than anyone else. I will encourage my EAP leaders to play an 
active role in outreach to the Department of State's 13 Employee 
Affinity Groups and 19 Employee Organizations so we can recruit and 
retain a workforce that reflects the diversity of American society. I 
will foster a work environment which recognizes the contributions of 
all employees regardless of their employment status, to include Foreign 
Service, civil service, American and foreign staff hired overseas, and 
contractors.

    Question.  What steps will you take to ensure each of the 
supervisors in the Foreign Service are fostering an environment that is 
diverse and inclusive?

    Answer. I understand that diversity is a core value in EAP's 
recruitment at all levels, especially for leadership positions, and I 
believe we need to model diversity at the highest levels of government. 
If confirmed, I look forward to collaborating with the Director General 
of the Foreign Service and Director for Human Resources and my 
leadership team to make greater progress in all areas of diversity. I 
will make sure that domestic and overseas managers maintain a positive 
and productive working environment open to different ideas and 
different ways of doing business.

Conflicts of Interest
    Question.  Do you commit to bring to the committee's attention (and 
the Inspector General of the State Department and Foreign Service) any 
change in policy or U.S. actions that you suspect may be influenced by 
any of the President's business or financial interests, or the business 
or financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules and to raise concerns that I may have through 
appropriate channels.

    Question.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules and to raise concerns that I may have through 
appropriate channels.

    Question.  Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. I am committed to ensuring that my official actions will 
not give rise to a conflict of interest. I am in compliance and will 
continue comply with any guidance received from the Department's ethics 
office.

    Question.  On December 03, 2018, the Holocaust Museum announced for 
the first time that it believes there is compelling evidence that the 
Burmese military committed ethnic cleansing, crimes against humanity, 
and genocide against the Rohingya, Muslim minority population. Senator 
Young and I plan to re-introduce our Burma Human Rights and Freedom 
Act, which promotes democracy and human rights in Burma, and among 
other actions, requires a State Department report on crimes against 
humanity and other serious human rights abuses committed against the 
Rohingya and other ethnic groups in Burma.

    Answer. I am deeply concerned about and appalled by the Burmese 
military's ethnic cleansing of ethnic Rohingya and the ongoing 
humanitarian crisis that has ensued. The process for deciding whether 
and when to make a determination that certain acts may amount to 
genocide, crimes against humanity, or ethnic cleansing, has 
historically been reserved within the Executive Branch to the Secretary 
of State. I understand that the Secretary has already determined that 
abuses against the Rohingya amount to ethnic cleansing, but, if 
confirmed, I will seek to advise the Secretary on future determinations 
as they fit into the Department's overarching objectives of easing the 
humanitarian crisis, seeking accountability for those that committed 
atrocities, deterring future such atrocities, and addressing root 
causes of violence.

    Question.  What additional measures would you recommend the U.S. 
take to address allegations of genocide, crimes against humanity, and 
war crimes?

    Answer. If confirmed, I will prioritize promoting accountability 
for the perpetrators of these gross violations of human rights and 
justice for victims. I will aim to continue the United States' 
leadership of the international response to the crisis and efforts to 
deter further atrocities. In this regard, I will consider all policy 
tools at our disposal. I also will continue U.S. efforts to support 
Burma's transition to a civilian-led democracy and to address the root 
causes of the violence in all regions of Burma. Further, I will also 
seek to ensure the generous humanitarian funding from Congress is used 
effectively to relieve suffering and underwrite reconciliation and 
development efforts.

    Question.  What additional measures would you recommend the 
international community take? Would you recommend, for example, 
collaboration to establish a multilateral sanctions regime against 
Burmese military officials who aided, participated in, or were 
otherwise implicated in gross violations of internationally recognized 
human rights in Burma?

    Answer. If confirmed, I will continue the Department's efforts to 
engage, influence, and lead actions of the international community, 
including with like-minded nations, non-traditional partners, and 
international organizations, with respect to advancing U.S. interests 
and values in Burma. I will seek to further the Department's efforts 
with allies and partners to support efforts and mechanisms at the 
United Nations to foster accountability for human rights abuses in 
Rakhine State and other areas of Burma. These include the Independent 
Investigative Mechanism for Myanmar, along with the U.N. Special Envoy 
to Myanmar and the U.N. Special Rapporteur on the Human Rights 
Situation in Myanmar.

    Question.  China's shares its largest land border with Mongolia, 
the only Asian nation to successfully transform from communism to 
democracy. As such, Mongolia's success as a democracy, its strategic 
location between China and Russia, its sovereignty, territorial 
integrity, and ability to pursue an independent foreign policy are 
extremely relevant to the national security of the United States. I am 
working on a bill with Senator Sullivan to promote U.S.-Mongolia 
cashmere trade while simultaneously reducing Mongolia's reliance on 
China as its primary trading partner. Currently, 85 percent of 
Mongolia's exports go to China.

   Do you believe that bilateral trade promotion would help cement 
        this important strategic alliance? How else can the U.S. 
        demonstrate its support for this democracy?

    Answer. Mongolia is a free and democratic society and an important 
Indo-Pacific partner. I understand that the United States and Mongolia 
upgraded our bilateral relationship to an ``Expanded Comprehensive 
Partnership'' in September 2018 and created a ``Roadmap for Expanded 
Economic Partnership,'' in which the United States and Mongolia 
expressed a joint intent to seek new opportunities to increase mutually 
beneficial bilateral trade that is free, fair, and reciprocal and also 
to promote the introduction of new sectors and areas for bilateral 
trade.
    If confirmed, I look forward to working with you on continuing our 
support for Mongolia's free and democratic society.

    Question.  China has arbitrarily detained over one million Uyghur 
and Kazakh Muslims in the Xinjiang region as part of an effort to 
punish and reform those who have adhered to traditional cultural and 
religious practices. Many observers believe that this level of 
ideological indoctrination has not been seen in China since the 
Cultural Revolution over 40 years ago

   Have these events affected the overall U.S. approach toward China? 
        If not, do you believe they should? How?

    Answer. Promoting respect for human rights and fundamental 
freedoms, including freedom of religion or belief, remains a key 
component of American foreign policy. The President has made it clear 
that we want a constructive and results-oriented relationship with 
China where our prosperity and security grow together, not apart. China 
has been moving further away from this vision, including in the areas 
of respect for human rights and fundamental freedoms. I am deeply 
troubled by the Chinese government's worsening crackdown on the human 
rights and fundamental freedoms of Uighurs, ethnic Kazakhs, and other 
members of Muslim minority groups in the Xinjiang Uyghur Autonomous 
Region and elsewhere in China.

    Question.  China has arbitrarily detained over one million Uyghur 
and Kazakh Muslims in the Xinjiang region as part of an effort to 
punish and reform those who have adhered to traditional cultural and 
religious practices. Many observers believe that this level of 
ideological indoctrination has not been seen in China since the 
Cultural Revolution over 40 years ago

   Have they affected U.S. policies toward China in other areas of the 
        relationship, such as diplomacy, trade, security, and cultural 
        exchange? If not, do you believe they should? How?

    Answer. China's detention of more than one million individuals in 
Xinjiang since April 2017 is the starkest example of the worsening 
human rights situation in China, and makes it harder for democracies 
like the United States to engage with Beijing. However, China's leaders 
can still change course and return to the spirit of reform and opening. 
If confirmed, I am committed to standing up for freedom and human 
dignity and will push China to respect universal human rights and 
fundamental freedoms, including the freedom of religion. I am committed 
to working in close coordination with Congress and our like-minded 
partners to speak out against China's human rights abuses and promote 
accountability for these abuses.

    Question.  What do you see as the long-term strategic implications 
of China's building artificial islands in the South China Sea and 
converting them into military outposts?

   What do you see as the long-term impact on international norms of 
        maritime behavior?
   What are your recommendations for U.S. policymakers for addressing 
        these strategic and legal implications over the long run?

    Answer. China's efforts to assert its sovereignty claims over 
disputed land features and its unlawful maritime claims in the South 
China Sea, including through massive land reclamation, construction, 
and militarization of outposts, threaten the security and economic 
interests of our allies and partners, as well as the broader rules-
based order in the Indo-Pacific that has been vital to American 
security and prosperity. If confirmed, I plan to work with interagency 
partners to use the range of national security tools that we have--
diplomatic, economic, and military--to ensure the South China Sea 
remains free and open.

    Question.  On Sunday, February 24, President Trump delayed his 
deadline to increase tariffs on $200 billion in Chinese imports, citing 
``substantial progress'' resulting from a continued trade talks between 
U.S. and Chinese officials in Washington. U.S. Trade Representative 
Robert Lighthizer and Secretary of the Treasury Steven Mnuchin are 
continuing negotiations this week in China.

   How do you see this trade war impacting broader U.S. foreign policy 
        objectives in the Asia-Pacific region?

    Answer. The concerns that the United States is raising with China 
are concerns also shared by countries around the world. The President's 
trade policies focused on China will set the stage for long-term 
economic growth, not only in the United States, but in the Asia-Pacific 
region and globally.

    Question.  How can we be sure that China will not walk back 
commitments made in any trade deal?

    Answer. For these negotiations to be successful, China must 
demonstrate real structural changes across the range of unfair policies 
and practices that yield actual, verifiable, and enforceable results. 
These changes include stopping forced technology transfers, stronger 
protection and enforcement of intellectual property rights, and 
elimination of numerous tariff and non-tariff barriers faced by U.S. 
companies in China.

    Question.  What does a ``fair deal'' with China look like under 
this administration?

    Answer. An effective enforcement mechanism will be essential in any 
such deal to address any failure by China to properly implement its 
commitments and other related issues that may arise.

    Question.  What enforcement mechanisms will be in place to ensure 
China's compliance?

    Answer. If confirmed, I will work with our State and interagency 
colleagues to implement any enforcement mechanism in an agreement that 
is reached by U.S. Trade Representative negotiators to ensure China's 
compliance.

    Question.  To what extent is the ``maximum pressure'' strategy 
still intact?

    Answer. Even as diplomacy with the DPRK proceeds, it is critical 
that the international community continue to apply diplomatic and 
economic pressure on the DPRK, including through the full 
implementation of U.N. sanctions. As the President has made clear 
throughout this process, he expects international pressure on the DPRK 
to continue until denuclearization is achieved, and we continue to 
reinforce this message with countries around the world.

    Question.  What evidence do you have that China and Russia, in 
particular, are continuing to enforce United Nations Security Council 
sanctions?

    Answer. I understand that the Administration is seeking to improve 
the effectiveness of pressure through several lines of effort, 
including engaging China and Russia as the DPRK's largest trading 
partners.
    The United States has made clear to China and Russia that they must 
continue to hold the North Korean regime accountable through applying 
economic and diplomatic pressure to achieve our shared objective of the 
final and fully verified denuclearization of North Korea. This includes 
the continued implementation of all relevant U.N. Security Council 
resolutions, which remain critical to ensuring progress on the 
commitments North Korea made at the 2018 Singapore summit. If 
confirmed, I will continue to engage Chinese and Russian officials on 
this objective and, where appropriate, ensure that we take action 
against entities involved in DPRK sanctions evasion activity.

    Question.  What about other countries that had taken measures to 
reduce even marginal trade with North Korea?

    Answer. International solidarity and increased pressure on the DPRK 
opened the door for U.S. engagement with North Korea on 
denuclearization. Implementation of U.N. Security Council resolutions 
by the international community brought us to this moment, and continued 
implementation will be necessary to ensure a successful outcome of this 
process. President Trump has consistently emphasized to allies, 
partners, and the DPRK that the international community cannot let up 
on pressure until the DPRK denuclearizes.

    Question.  What specific steps does North Korea need to take to 
warrant some sanctions relief?

    Answer. The President has been clear that sanctions relief cannot 
occur absent final, fully verified denuclearization. He has made clear 
that the United States remains ready to proceed-in parallel with 
denuclearization-with concrete steps to transform the U.S.-North Korea 
relationship and establish a lasting and stable peace regime on the 
Korean Peninsula. The United States looks forward to building a bright 
economic future for North Korea, the region, and the world when the 
DPRK fulfills its commitments to denuclearize.
    The international community must continue to implement U.N. 
Security Council resolutions to underscore to North Korea that the only 
way to achieve the security and development it seeks is to forsake its 
weapons of mass destruction and their means of delivery.



                               __________


            Responses to Additional Questions for the Record
         Submitted to David Stilwell by Senator Jeanne Shaheen

    Question.  Last year, China increased its spending on foreign 
affairs by more than 12 percent, and recently Beijing announced that it 
would increase its foreign affairs budget by another 7.4 percent for 
next year. This comes at a time when the President's budget request 
called for a 24% reduction in the budget for the State Department and 
other international programs:

   How important is ``soft power'' in countering Chinese influence 
        today and, if confirmed, where would you prioritize investment?

    Answer. The promotion of U.S. values is critical to countering 
Chinese malign influence activities. China is employing a whole-of-
government approach to advance its interests globally. While Beijing-
friendly programs from China Radio International and China Global 
Television Network broadcast freely in the United States, U.S. 
officials, scholars, journalists, and internet companies face limited 
or no access in China. If confirmed, I am committed to ensuring the 
State Department continues to use strategic messaging, international 
exchanges, and outreach to educational institutions to address Chinese 
influence efforts. These measures will complement our Indo-Pacific 
vision, which advances market economics, good governance, and 
transparency.

    Question.  If confirmed, how would you advocate not only for U.S. 
economic and security interests but also U.S. values in contrast to the 
Chinese approach that does not take human rights or democracy promotion 
into account in its global investments?

    Answer. Promoting respect for human rights and fundamental 
freedoms, including freedom of religion or belief, is a key component 
of American foreign policy. If confirmed, I am committed to upholding 
U.S. values and practices as an alternative to China's opaque 
investments and commercial activities, and disregard for basic human 
rights, by promoting adherence to high international standards of 
transparency, anti-corruption, good governance, and labor rights and 
taking into consideration of the needs and concerns of local 
communities.

    Question.  Recent negotiations with North Korean leaders have 
focused on how best to apply ``maximum pressure'' on Pyongyang. 
However, lost in all of these recent discussions has been North Korea's 
deplorable record on human rights:

   If confirmed, what would you do to ensure that in seeking peace 
        with North Korea we do not give North Korean leaders a pass for 
        their barbaric treatment of their people?

    Answer. The DPRK is among the most repressive authoritarian states 
in the world. North Korea's human rights record is deplorable. If 
confirmed, I will work with likeminded governments and civil society to 
raise awareness, highlight abuses and violations, increase access to 
independent information, and promote respect for human rights in the 
DPRK.

    Question.  If confirmed, could you describe how you plan to 
coordinate with the Bureau on Europe and Eurasia to ensure that the 
Department has a comprehensive view of Russia's global malign efforts?

    Answer. I share your concern about Russia's global malign efforts. 
If confirmed, I will confer closely with not only our colleagues in the 
Bureau of European and Eurasian Affairs but also with the Bureau of 
Political Military Affairs, the interagency, countries with traditional 
ties with Russia in the Asia-Pacific region, and our close allies, 
including Japan and the Republic of Korea, to ensure we have a 
comprehensive view of Russia's global malign efforts.

    Question.  The local population of Okinawa, Japan seems to 
understand that the U.S. presence in Okinawa is necessary for the 
security of Japan and the United States. However, resistance to the 
U.S. presence has been gaining ground, and foreign propaganda outlets 
like Sputnik and others have spread disinformation about the U.S. 
military to play on the local population's worst fears:

   In your view, why is our presence in Okinawa critical and, if 
        confirmed, what would you do to counter efforts to malign our 
        forces there? If confirmed, how would you ensure the U.S. 
        Mission in Japan engages in more public diplomacy to improve 
        the U.S. image in Okinawa?

    Answer. Okinawa plays a crucial role in the defense of Japan and 
the preservation of peace and security in the Indo-Pacific region. U.S. 
forces in Okinawa are ready to respond to regional contingencies, 
including humanitarian crises and natural disasters. If confirmed, I 
will work to continue enhancing the U.S.-Japan Alliance and our 
operational capabilities while addressing the concerns of local base-
hosting communities. I will support the State Department's ongoing work 
with the Department of Defense and the government of Japan to ensure a 
positive impact of U.S. forces on local communities. I will also lend 
my full support to public diplomacy programs in Okinawa that build 
understanding between U.S. forces and local communities and strengthen 
people-to-people ties, including English language programs, youth 
exchanges with base personnel, and speaker programs highlighting the 
threat regional actors' malign activities pose to shared U.S. and 
Japanese values.

    Question.  Will you also commit to ensuring that our own 
administration does not engage in self-defeating policies such as 
making the Japanese government pay even more to support the U.S. troop 
presence or saying that Japan should develop its own nuclear weapons?

    Answer. Our commitment to the defense of Japan is ironclad and is 
backed by the full range of U.S. military capabilities, including 
conventional and nuclear weapons. The United States continues to 
maintain a credible nuclear umbrella extended to over 30 allies and 
partners, including Japan. Credible U.S. extended nuclear deterrence 
will continue to be a cornerstone of U.S. non-proliferation efforts.
    Japan's host nation support facilitates our force presence in Japan 
and throughout the region. If confirmed I commit to working with Japan 
to ensure that the cost of maintaining our alliance's operational 
capability is shared fairly.



                               __________


            Responses to Additional Questions for the Record
        Submitted to David Stilwell by Senator Corker A. Booker

    Question.  If confirmed, what steps will you take to ensure 
perpetrators are held accountable for the atrocities committed not just 
against the Rohingya but also against other ethnic minority groups in 
Burma, such as the Karen or the Kachin?

    Answer. If confirmed, I will prioritize promoting accountability 
for those responsible for these abuses and achieving justice for 
victims. I will aim to continue U.S. leadership of the international 
response to the crisis and efforts to deter further atrocities. In this 
regard, I will consider the utility of all policy tools at our 
disposal, including targeted sanctions. I will also continue U.S. 
support for Burma's transition to a civilian-led democracy. Further, I 
will work closely with the U.S. Mission to the U.N. and with like-
minded countries and regional partners, to press the government of 
Burma to grant unhindered access to U.N. mechanisms, including the 
International Investigative Mechanism for Myanmar, the U.N. Special 
Rapporteur, and the U.N. Special Envoy.

    Question.  How do you believe the U.S. should be engaging on the 
question of accountability for such atrocities in multilateral fora, 
such as the United Nations?

    Answer. I believe that the United States should use all appropriate 
means to pursue our goal of ensuring accountability for atrocities, 
including by engaging in multilateral fora such as the United Nations. 
If confirmed, I commit to working with other senior officials in the 
Department and the interagency to find ways to pursue this objective 
and continue the United States' global leadership in seeking justice 
for the victims of atrocities.

    Question.  Hundreds of thousands of Muslims have reportedly been 
detained, tortured, and subjected to massive surveillance in ``re-
education'' camps throughout Xinjiang. At the recent ministerial on 
religious freedom, Secretary of State Pompeo expressed grave concerns 
about the situation in Xinjiang for Uighur Muslims. Such treatment of 
religious and ethnic minorities in China is widespread. And these 
actions are part of a broader crackdown on civil society and 
independent media.

   Do you believe that senior Chinese government officials should be 
        held accountable for these human rights abuses?

    Answer. I am deeply troubled by the Chinese government's worsening 
crackdown on the human rights and fundamental freedoms, including 
religious freedom, of Uighurs, ethnic Kazakhs, and other members of 
Muslim minority groups in the Xinjiang Uyghur Autonomous Region and 
elsewhere in China. China's detention of more than one million 
individuals in Xinjiang since April 2017 is illustrative of the 
deteriorating human rights situation in China. If confirmed, I am 
committed to using all tools available as appropriate to promote 
accountability of Chinese officials responsible for these human rights 
abuses.



                               __________

Letter Submitted by Organizations Opposing the Nomination of Robert A. 
Destro to be Assistant Secretary of State for Democracy, Human Rights, 
                               and Labor

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


Letter Sent by Senators Cory Gardner and Edward J. Markey to Secretary 
   of State Mike Pompeo and Secretary of the Treasury Steven Mnuchin 
                   Regarding Sanctions on North Korea

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

                              NOMINATIONS

                              ----------                              


                         TUESDAY, APRIL 9, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:03 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Todd Young 
presiding.
    Present: Senators Young [presiding], Kaine, and Merkley.
    Senator Young. This hearing of the Senate Foreign Relations 
Committee will come to order.

             OPENING STATEMENT OF HON. TODD YOUNG,
                   U.S. SENATOR FROM INDIANA

    Senator Young. Today the committee will hold a nomination 
hearing for three very important positions.
    First we have Mr. Jeffrey Eberhardt to be Special 
Representative for the President for Nuclear Proliferation, 
with the rank of Ambassador.
    Second, we have the Honorable James Gilmore to be U.S. 
Representative to the Organization for Security and Cooperation 
in Europe, with the rank of Ambassador.
    And our third nominee is Mr. Alan Swendiman to be the 
Deputy Director of the Peace Corps.
    We also have one of our distinguished committee members, 
Senator Tim Kaine of Virginia, who will be joining us 
momentarily. He wishes to introduce one of our nominees, so we 
are going to allow him to proceed with his introduction as soon 
as he arrives. I will postpone my statement and ask the Ranking 
Member to do the same until after the nominees' introductions.
    I will go ahead and proceed in light of Senator Kaine's 
absence--we have such busy schedules here. Everyone is attuned 
to the schedules here on the Hill.
    So, welcome to each of the nominees to the committee, and 
thank you and your families for having the willingness to 
serve.
    First, I am pleased to welcome Mr. Jeffrey Eberhardt of 
Wisconsin and a career member of the Senior Executive Service 
who has been nominated to be Special Representative of the 
President for Nuclear Nonproliferation. Mr. Eberhardt is 
currently the Director of the Office of Multilateral and 
Nuclear Affairs in the Bureau of Arms Control, Verification, 
and Compliance at the State Department. Previously, Mr. 
Eberhardt served as a Foreign Affairs Officer in the Office of 
Nuclear Affairs at the State Department. He has also served as 
a Senior Military Adviser at the Pentagon; as a Foreign Area 
Officer with assignments in Europe and Asia; and as a Senior 
Fellow at the George Marshall Center; and a battery commander 
in Germany.
    At a time when the pursuit of nuclear weapons remains a 
deep ambition for the regimes in Iran and North Korea, as we 
face threats through Russia's repeated violations of the INF 
Treaty, and as China's nuclear ambitions continue to rise, it 
is critically important that we combat the proliferation of 
nuclear weapons and examine the future of the Nuclear 
Nonproliferation Treaty.
    Following the Administration's announcement that the United 
States would withdraw from the INF Treaty due to Russian 
violations and their refusal to return to compliance, I think 
it is critical for this committee to examine your views on the 
future of arms control and whether any nonproliferation 
agreement can be successful with unreliable partners like 
Russia and China.
    At this point, I would like to pivot to Senator Kaine, who 
has joined us, and I believe he would like to make an 
introduction of one of our nominees.

                 STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. Absolutely. Thank you, Mr. Chair.
    Welcome to all. We were all just coming from a classified 
briefing of the committee, but it is my pleasure to introduce 
before the committee the 68th Governor of Virginia, a personal 
friend, the Honorable Jim Gilmore, just to share a few words 
about Jim with the committee.
    He is a nominee who I strongly support to be the Ambassador 
to the Organization for Security and Cooperation in Europe, 
OSCE.
    Governor Gilmore began his public service in the military, 
where he was posted in Western Europe and became fluent in 
German. He has served as a local elected official, 
Commonwealth's Attorney, our elected prosecutor, and then the 
Attorney General of Virginia, then the Governor of Virginia, 
68th Governor of Virginia.
    He has also had additional service past his time as 
governor. From 1999 to 2003, he was Chairman of the 
congressional panel assessing America's capabilities to respond 
to terrorist attack, the Congressional Advisory Panel to Assess 
Domestic Response Capabilities. That panel was known as the 
Gilmore Commission.
    As governor, he did extensive work to build ties between 
Virginia and partners around the world, economic missions to 
nations all over Europe, all over the world, and he currently 
works in Alexandria at the American Opportunity Foundation as 
the President and CEO. This is a foundation--and its 
predecessor is the Free Congress Foundation that works to shape 
public dialogue about Congress and American society, with a 
special focus on national security issues.
    Governor Gilmore is a member of the Council on Foreign 
Relations, somebody who is well qualified for this position. I 
have had the opportunity as a member of this committee to visit 
the OSCE and dialogue about the important work, and as we have 
known from committee hearings about NATO and other important 
issues, there are a lot of equities on the table right now with 
respect to security cooperation between the United States and 
Europe, and not just the NATO members but all of Europe, and 
Governor Gilmore is very uniquely qualified to be in this 
position, and I am happy to be here to introduce him.
    Senator Young. Well, thanks so much, Senator Kaine, and 
congratulations to Governor Gilmore and to yourself on the big 
win last night at UVA's basketball game.
    You have an impressive record, sir. I will not recapitulate 
all that was just said, blessedly. But the role, again, that 
you have been nominated for is Ambassador to the Organization 
for Security and Cooperation in Europe.
    With 57 participating states and North America, Europe, and 
Central Asia, OSCE is the world's largest regional security 
organization. Headquartered in Vienna, Austria, OSCE sets 
standards in fields including military security, economic and 
environmental cooperation, and human rights and humanitarian 
concerns.
    In addition, OSCE undertakes a variety of preventive 
diplomacy initiatives designed to prevent, manage, and resolve 
conflict within and among the participating states.
    Mr. Gilmore, with the many challenges facing our world, I 
look forward to hearing more about how you envision using your 
post to advance American security interests.
    Finally, I am pleased to welcome Mr. Alan Swendiman of 
North Carolina, nominated to be Deputy Director of the Peace 
Corps.
    Mr. Swendiman currently serves as Founding Principal of the 
Capital Connection, a consulting strategy and business 
development firm. Previously, Mr. Swendiman served as a legal 
advisor and senior executive for a broad range of Federal 
agencies, including serving as Deputy Principal Legal Adviser 
and Chief of Staff for U.S. Immigration and Customs 
Enforcement, General Counsel of USAID, General Counsel and 
Acting Chief of Staff of the GSA, and General Counsel of the 
Federal Labor Relations Authority.
    Mr. Swendiman has held positions within the Executive 
Office of the President and the State of North Carolina, 
overseeing administrative services and information technology. 
In addition, he has more than 30 years of experience in private 
law practice, where he focused on corporate counseling and 
government contracting.
    Perhaps most notable, it is my understanding that Mr. 
Swendiman's daughter Shelly has served as a Peace Corps 
volunteer in Ukraine. Since President Kennedy established the 
Peace Corps in 1961, more than 230,000 Americans of all ages 
have served in 141 countries worldwide. The Peace Corps sends 
Americans with a passion for service abroad on behalf of the 
United States to work with communities and create lasting 
change. Volunteers help develop sustainable solutions to 
address challenges in education, health, community economic 
development, agriculture, environment, and youth development, 
and through their Peace Corps experience volunteers gain a 
unique cultural understanding and a lifelong commitment to 
service that positions them to succeed in today's global 
economy.
    I look forward to hearing how Mr. Swendiman will work to 
ensure that the Peace Corps remains an organization known 
around the world for their commitment to service and helping 
those in desperate need of assistance.
    With that, I would like to recognize my distinguished 
Ranking Member for his comments, Senator Merkley.

                STATEMENT OF HON. JEFF MERKLEY,
                    U.S. SENATOR FROM OREGON

    Senator Merkley. Thank you very much, Mr. Chairman. I am 
pleased to be working with you to launch the work of this 
subcommittee in this cycle.
    Many of the most pressing challenges facing the United 
States, from climate change to nuclear proliferation, are 
transnational threats that require collective solutions. 
International organizations are critical to addressing these 
challenges. The positions today's nominees will fill, if 
confirmed, are examples of this essential work.
    I join you in welcoming our three nominees, and I 
appreciate your willingness to serve, and welcome to your 
family members who might be attending with you today.
    Mr. Eberhardt and Governor Gilmore, if confirmed, you will 
have the difficult task of reasserting U.S. leadership in 
tackling key regional and international security challenges.
    At the center of much international mischief is Russia. 
Your jobs, as the President's Special Representative for 
Nonproliferation and U.S. Representative to the Organization 
for Security and Cooperation in Europe, would require leading a 
unified front with allies to push back on Russia's flouting of 
international norms and attempts to redraw boundaries.
    U.S. leadership in the arms category does not mean taking a 
trip back to the wild, wild west that we had before 
international agreements that helped control limits on both our 
regional and strategic forces. The collapse of the Intermediate 
Range Nuclear Forces Treaty in August and the lack of action to 
prepare for extending the new Strategic Arms Reduction Treaty, 
new START, past 2021 risks returning us to the instability of 
the time we had before we had such bilateral agreements.
    It is because of, not in spite of, Russia's misbehavior 
that we need to double down on diplomacy and partnership with 
our alliances around the world.
    Mr. Swendiman, it is a special joy to be able to 
participate in running the Peace Corps. This morning I met with 
the student leaders from Oregon State University in Corvallis, 
and one of them who is graduating is headed off to the Peace 
Corps in Rwanda. I was able to go to Rwanda with Chris Coons 
and several of our other senators a few years ago, and it is a 
nation that has many challenges following the intense, intense 
battles of a few years ago. And having our folks on the ground 
helping with fundamentals--clean water, education, all kinds of 
agricultural strategies--is something very important in their 
lives and important in the relationship between our two 
countries, and important in the development of the economy for 
the people there.
    Of course, this is multiplied by all the volunteers all 
over the world, so I wish you the best in that setting.
    I look forward to hearing from our nominees.
    Senator Young. Well, thank you, Senator Merkley.
    We will now turn to our first nominee, Mr. Jeffrey 
Eberhardt. Thank you for your willingness again to take on this 
critical role. Your full statement will be included in the 
record, without objection, so if you could please keep your 
remarks to no more than 5 minutes or so, we would appreciate it 
so that members of the committee can engage with you with their 
questions, sir.
    Mr. Eberhardt?

   STATEMENT OF JEFFREY L. EBERHARDT, OF WISCONSIN, A CAREER 
     MEMBER OF THE SENIOR EXECUTIVE SERVICE, TO BE SPECIAL 
REPRESENTATIVE OF THE PRESIDENT FOR NUCLEAR NON-PROLIFERATION, 
                  WITH THE RANK OF AMBASSADOR

    Mr. Eberhardt. Thank you, Mr. Chairman, Ranking Member 
Merkley.
    It is an honor to appear before this committee as President 
Trump's nominee to be the Special Representative of the 
President for Nuclear Nonproliferation. I am grateful to the 
President and Secretary Pompeo for the confidence they have 
placed in me, and for the opportunity, with your approval, to 
continue to serve this country in a new and challenging 
position of responsibility.
    I am proud to be joined today by two of my sons, Todd and 
Joshua, both of whom have the distinction of being born in what 
was then known as West Germany, during my first overseas tour.
    I joined the State Department following 23 years in the 
Army, and have worked on nuclear-related issues across three 
successive administrations. I participated in the Six-Party 
Talks beginning when I was still on active duty in the Office 
of the Secretary of Defense, and continuing when I joined the 
Department. I worked on the Iran and North Korea files for many 
years.
    Closer to our subject today, I have been involved in the 
review cycles of the Treaty on the Nonproliferation of Nuclear 
Weapons since 2005, participating in preparations for and 
working on the U.S. delegations to multiple NPT preparatory 
committees and review conferences. I was part of the State team 
contributing to both the 2010 and 2018 Nuclear Posture Reviews. 
I also contributed to numerous policy reviews over the past 
years on issues such as the proposed Fissile Material Cutoff 
Treaty, the Comprehensive Nuclear Test Ban Treaty, and the NPT 
itself.
    What has struck me from these years of serving different 
administrations, Mr. Chairman, is the strong element of 
bipartisan continuity in U.S. nuclear policy. There have been a 
few guiding principles that date back decades: for instance, 
that the United States will work to reduce the numbers and 
salience of nuclear weapons, with the ultimate goal of someday 
eliminating them, but that for so long as nuclear deterrence 
remains necessary, we will maintain an effective nuclear force.
    The United States has also remained steadfast in its 
commitment to maintaining the global nonproliferation regime, 
recognizing the enormous dangers that would arise from allowing 
the spread of nuclear weapons to additional countries. This 
remarkable continuity is a credit to the many thoughtful and 
dedicated professionals that this nation has been fortunate to 
have serving in positions of responsibility for these matters. 
I have learned a great deal from them. They have left big shoes 
to fill, but if confirmed, I will strive to do so.
    It is no secret that this NPT review cycle, which will 
culminate with the Review Conference in May 2020, is a 
challenging one. The United States has been engaged in wide-
ranging diplomatic efforts to prepare for that conference, 
stressing the importance of shoring up the nonproliferation 
regime against the challenges it faces from North Korea and 
Iran, stressing the importance to human prosperity and 
development of sharing the benefits of peaceful nuclear 
technology, and stressing the degree to which these benefits 
depend upon the solid foundation provided by adherence to best 
practices in the realm of nuclear safeguards, safety, and 
security. If confirmed, I will work to support, and to help 
lead, U.S. diplomatic efforts to protect and advance the 
important principles and objectives of the NPT.
    This may not be an easy road. There are those who believe, 
for example, that despite having reduced our nuclear arsenal by 
approximately 88 percent from its Cold War high, that the 
United States has not reduced far enough or fast enough. There 
is also the longstanding problem of how to advance toward a 
Middle East weapons of mass destruction free zone, an issue 
that dates to the Treaty's indefinite extension in 1995.
    These challenges are daunting, Mr. Chairman, but what is 
clear is that without strong U.S. leadership, achieving success 
will not be possible, and we are seeking to meet these 
challenges. Success, I believe, should begin by ensuring that 
when nations meet in 2020 to mark the 50th anniversary of the 
Treaty's entry into force, we all recommit ourselves to the NPT 
in all its aspects. The NPT has been extraordinarily successful 
in stemming what was, decades ago, expected to be rampant 
proliferation of nuclear weapons. Thankfully, that has not 
happened. There have been setbacks, most notably with North 
Korea, but we live in a much safer world thanks to the NPT. And 
the expansion of the many benefits of the peaceful uses of 
nuclear energy have been made possible by the strong 
nonproliferation norms established by the Treaty.
    The United States is also exercising leadership in the 
discussion of disarmament. Even as the obstacles to further 
progress have increased thanks to a deteriorating security 
environment, we are engaging a broad range of international 
partners in beginning to build a serious, multilateral 
discussion of what must be done to improve the security 
environment to allow further progress in reducing nuclear 
arsenals.
    If confirmed, I will work to advance these important 
objectives, striving to help ensure that the NPT, and the 
broader nonproliferation regime that has been built around that 
Treaty over the last 50 years, is positioned for continued 
success for another half century.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Eberhardt follows:]


               Prepared Statement of Jeffrey L. Eberhardt

    Thank you Mr. Chairman and members of the committee, it is an honor 
to appear before this committee as President Trump's nominee to be the 
Special Representative of the President for Nuclear Nonproliferation. I 
am grateful to the President and Secretary Pompeo for the confidence 
they have placed in me, and for the opportunity--with your approval--to 
continue to serve this country in a new and challenging position of 
responsibility. I am proud to be joined today by two of my sons, Todd 
and Joshua, both of whom have the distinction of being born in what was 
then known as West Germany, during my first overseas tour.
    I joined the State Department following my 23 years in the Army, 
and have worked on nuclearrelated issues across three successive 
administrations. I participated in the Six-Party Talks beginning when I 
was still on active duty in the Office of the Secretary of Defense, and 
continuing when I joined the Department. I worked on the Iran and North 
Korea files for many years. Closer to our subject today, I have been 
involved in the review cycles of the Treaty on the Nonproliferation of 
Nuclear Weapons (NPT) since 2005, participating in preparations for and 
working on the U.S. delegations to multiple NPT Preparatory Committees 
and Review Conferences. I was part of the State team contributing to 
both the 2010 and 2018 Nuclear Posture Reviews. I also contributed to 
numerous policy reviews over the past years on issues such as the 
proposed Fissile Material Cutoff Treaty, the Comprehensive Nuclear-
Test-Ban Treaty, and the NPT itself.
    What has struck me from these years of serving different 
administrations, Mr. Chairman, is the strong element of bipartisan 
continuity in U.S. nuclear policy. There have been a few guiding 
principles that date back decades--for instance, that the United States 
will work to reduce the numbers and salience of nuclear weapons with 
the ultimate goal of someday eliminating them, but that for so long as 
nuclear deterrence remains necessary, we will maintain an effective 
nuclear force. The United States has also remained steadfast in its 
commitment to maintaining the global nonproliferation regime, 
recognizing the enormous dangers that would arise from allowing the 
spread of nuclear weapons to additional countries. This remarkable 
continuity is a credit to the many thoughtful and dedicated 
professionals that this nation has been fortunate to have serving in 
positions of responsibility for these matters. I have learned a great 
deal from them. They have left big shoes to fill, but if confirmed, I 
will strive to do so.
    It is no secret that this NPT review cycle, which will culminate 
with the Review Conference in May 2020, is a challenging one. The 
United States has been engaged in wide-ranging diplomatic efforts to 
prepare for that conference, stressing the importance of shoring up the 
nonproliferation regime against the challenges it faces from North 
Korea and Iran, stressing the importance to human prosperity and 
development of sharing the benefits of peaceful nuclear technology, and 
stressing the degree to which these benefits depend upon the solid 
foundation provided by adherence to "best practices" in the realm of 
nuclear safeguards, safety, and security. If confirmed, I will work to 
support--and to help lead--U.S. diplomatic efforts to protect and 
advance the important principles and objectives of the NPT.
    This may not be an easy road. There are those who believe, for 
example, that--despite having reduced our nuclear arsenal by 
approximately 88 percent from its Cold War high--the United States has 
not reduced far enough or fast enough. There is also the long-standing 
problem of how to advance toward a Middle East weapons of mass 
destruction free zone, an issue that dates to the Treaty's indefinite 
extension in 1995.
    These challenges are daunting, Mr. Chairman, but what is clear is 
that without strong U.S. leadership, achieving success will not be 
possible. And we are seeking to meet these challenges. Success, I 
believe, should begin by ensuring that when nations meet in 2020 to 
mark the 50th anniversary of the Treaty's entry into force, we all 
recommit ourselves to the NPT in all its aspects. The NPT has been 
extraordinarily successful in stemming what was, decades ago, expected 
to be rampant proliferation of nuclear weapons. Thankfully, that has 
not happened. There have been setbacks, most notably with North Korea, 
but we live in a much safer world thanks to the NPT. And the expansion 
of the many benefits of the peaceful uses of nuclear energy have been 
made possible by the strong nonproliferation norms established by the 
Treaty.
    The United States is also exercising leadership in the discussion 
of disarmament. Even as the obstacles to further progress have 
increased thanks to a deteriorating security environment, we are 
engaging a broad range of international partners in beginning to build 
a serious, multilateral discussion of what must be done to improve the 
security environment to allow further progress in reducing nuclear 
arsenals.
    If confirmed, I will work to advance these important objectives, 
striving to help ensure that the NPT--and the broader nonproliferation 
regime that has been built around that Treaty over the last 50 years--
is positioned for continued success for another half century.
    Thank you, Mr. Chairman.


    Senator Young. Well, thank you, Mr. Eberhardt.
    Mr. Gilmore, you may proceed with your statement, sir.

  STATEMENT OF HON. JAMES S. GILMORE, OF VIRGINIA, TO BE U.S. 
REPRESENTATIVE TO THE ORGANIZATION FOR SECURITY AND COOPERATION 
             IN EUROPE, WITH THE RANK OF AMBASSADOR

    Mr. Gilmore. Thank you very much, Senator Young and Senator 
Merkley. I am delighted to have an opportunity to appear before 
this committee.
    I also want to thank Senator Kaine for coming here today to 
introduce me to the committee. Senator Kaine and I share a 
common background as former Governors of Virginia, and I am 
grateful for your support, Senator.
    If confirmed, it would be my pleasure to serve as the 
United States' Permanent Representative to the Organization for 
Security and Cooperation in Europe and to lead that mission 
together with allies and partners to address the comprehensive 
challenges facing Europe, Eurasia, and North America. I am 
grateful to President Trump for the opportunity to serve my 
country again, and I am grateful for his confidence in my 
ability to advance American interests and values.
    I am pleased to introduce my family members who are here 
with me today. First, my wife Roxane, my wife of 42 years, the 
former First Lady of Virginia. She holds two degrees in ancient 
history from the University of Virginia and has taught for more 
than three decades. She taught me, too. I have learned a great 
deal from her knowledge about all of this and Western 
civilization.
    I have two sons. One is able to be here with me today, my 
son Jay, who is here also. He works here in national security 
in Washington. My younger son Ashton is likewise not here 
today, but he also works in national security in 
Charlottesville.
    I have been a committed student of foreign policy since 
attending the University of Virginia. I served in the U.S. 
Army, as the Senator said, in military intelligence as a non-
commissioned officer. I have been a prosecutor, Attorney 
General, and Governor. I traveled to 18 countries on three 
continents on trade issues. I will draw on these experiences, 
if confirmed, in order to work to stand up to those who seek to 
undermine our values and the rules of the institution of the 
OSCE.
    The OSCE is an indispensable pillar of the security 
architecture that has served the United States well for 
generations. I am proud that the United States helped to 
establish this organization at the height of the Cold War in 
the `70s. If confirmed, I would strive to maintain strong 
leadership in the OSCE and defend the principles on which the 
organization was founded.
    Its unique value stems from its broad-based membership, 57 
participating states and nations across the Atlantic and 
Eurasia, its comprehensive approach to security, which 
acknowledges the relationship between security and respect for 
human rights, and the rule of law and democracy. It is the 
premier platform in Europe and Eurasia for advancing human 
rights and fundamental freedoms. It is a rich body of human 
rights that is represented in the OSCE.
    The Helsinki Final Act principles speak of respect for the 
sovereignty and territorial integrity of states, as well as for 
human rights and fundamental freedoms. These tenets are 
enduring. The contempt that Russia has shown for these 
principles and commitments, through repression at home and 
aggression abroad, should concern us all.
    Of all the challenges confronting the OSCE today, none is 
more consequential or vexing than the conflict in Ukraine. 
Russia has armed, trained, led, and fought alongside its proxy 
forces in eastern Ukraine since 2014, leading to approximately 
13,000 deaths. Russia's fueling of the conflict, its purported 
annexation of Crimea, and its provocative actions in the Kerch 
Strait and the Black Sea undermine regional stability and 
directly contravene all 10 of the foundational Helsinki 
principles. The Special Monitoring Mission to Ukraine of the 
OSCE serves as the world's eyes and ears in eastern Ukraine's 
conflict zone. If confirmed, I will call on Russia to respect 
Ukraine's sovereignty and territorial integrity within its 
internationally recognized borders.
    The unresolved conflicts in Europe weaken regional 
stability. If confirmed, I would promote progress within the 
OSCE to resolve these protracted conflicts that have undermined 
peace in Eastern Europe and the South Caucasus.
    We have to press for full implementation of existing 
agreements and arrangements to rebuild military transparency. 
If confirmed, I will work with allies and partners to restore 
transparency and predictability on the European continent among 
conventional forces.
    Respect for human rights and fundamental freedoms is an 
essential aspect of security. If confirmed, I would ensure that 
the U.S. Mission to the OSCE remains a strong voice on behalf 
of human rights defenders targeted for repression, and I would 
continue to champion the role of civil society. I am committed 
to defending religious freedom and combating anti-Semitism and 
other manifestations of intolerance, including hate crimes. I 
would draw on my personal experience in that regard.
    Congress' active, bipartisan engagement in the OSCE has 
been a tremendous strength. I commend the members of Congress 
who serve on the Helsinki Commission and participate in the 
OSCE Parliamentary Assembly. They hold leadership positions in 
each. I am pleased to see so much active participation.
    If confirmed, I will follow the path set out by the 
President and Secretary Pompeo to provide U.S. leadership to 
uphold OSCE principles and commitments. Staying true to these 
principles is now the work with allies and partners to leverage 
the capabilities and address our conventional and emerging 
threats.
    Senator, Mr. Chairman, today I am very grateful for the 
opportunity to lead the outstanding team at OSCE in Vienna. If 
confirmed, I commit to providing my best analysis and advice to 
the U.S. government and to work with the committee of the 
Helsinki Commission and Congress to advance the policies that 
promote democracy, advance human rights, and enhance the 
prosperity and security of our country.
    Thank you, Mr. Chairman. I welcome your questions.
    [The prepared statement of Mr. Gilmore follows:]


                 Prepared Statement of James S. Gilmore

    Thank you, Chairman Risch, Ranking Member Menendez, and members of 
the committee for the opportunity to appear before you. I thank Senator 
Kaine for introducing me to the committee. Senator Kaine and I share a 
common background as former Governors of Virginia, and I am grateful 
for his support. If confirmed, it would be my honor to serve as the 
United States' Permanent Representative to the Organization for 
Security and Cooperation in Europe (OSCE) and to lead the U.S. mission 
as it works with Allies and partners to address the comprehensive range 
of challenges facing Europe, Eurasia, and North America. I am grateful 
to President Trump for this opportunity to serve my country again and 
his confidence in my ability to advance U.S. interests and values.
    I am pleased to introduce my family who are here with me today. 
First, Roxane, my wife of forty-two years, the former First Lady of 
Virginia. Roxane holds two degrees in ancient history from the 
University of Virginia and has taught for more than three decades. I 
have learned a great deal from her knowledge of the beginnings of 
Western civilization. My two sons are here with me as well. Jay and 
Ashton are also University of Virginia graduates who work to defend our 
national security--Jay does so for the U.S. government, and Ashton 
works in the private sector.
    I have been a committed student of foreign policy since attending 
the University of Virginia. I also served as a U.S. Army intelligence 
officer in West Germany, practiced trial law, was elected prosecutor 
for my home county, then Attorney General of Virginia, and then 
Governor. As Governor, I traveled to eighteen countries on three 
continents on trade missions. If confirmed, I would draw on these 
experiences to serve U.S. interests, collaborate with our Allies and 
partners, and stand up to those who seek to undermine the values, 
rules, and institutions that underpin freedom, prosperity, and peace in 
the OSCE region.
    The OSCE is an indispensable pillar of the security architecture 
that has served the United States well for generations. I am proud the 
United States helped establish the organization at the height of the 
Cold War in the 1970s. If confirmed, I would strive to maintain strong 
U.S. leadership at the OSCE, defending the principles on which the 
organization was founded and strengthening it to face future 
challenges.
    The OSCE's unique value stems from its broad membership--57 
participating States across the Atlantic and Eurasia--and its 
comprehensive approach to security, which acknowledges the relationship 
between security and respect for human rights, rule of law, and 
democracy. It is the premier platform in Europe and Eurasia for 
advancing human rights and fundamental freedoms and defending civil 
society. Its rich body of human rights and security commitments, its 
network of field missions, and its independent institutions are 
strengths not replicated in any other security or regional 
organization.
    The Helsinki Final Act principles speak of respect for the 
sovereignty and territorial integrity of States as well as for human 
rights and fundamental freedoms. These tenets are enduring. The 
contempt that Russia has shown for these principles and commitments--
through repression at home and aggression abroad--should concern us 
all.
    Of all the challenges confronting the OSCE today, none is more 
consequential or vexing than the conflict in Ukraine. Russia has armed, 
trained, led, and fought alongside its proxy forces in eastern Ukraine 
since 2014, leading to approximately 13,000 deaths.
    Russia's fueling of the conflict, its purported annexation of 
Crimea, and its provocative actions in the Kerch Strait and the Black 
Sea undermine regional stability and directly contravene all ten of the 
foundational Helsinki principles. The OSCE's highly effective Special 
Monitoring Mission to Ukraine serves as the world's eyes and ears in 
eastern Ukraine's conflict zone. If confirmed, I will call on Russia to 
respect Ukraine's sovereignty and territorial integrity within its 
internationally recognized borders, extending to its territorial 
waters.
    More broadly, unresolved conflicts in Europe weaken regional 
stability. If confirmed, I would promote progress within the OSCE to 
resolve the protracted conflicts that have undermined peace and 
stability for too long, particularly in Eastern Europe and the South 
Caucasus.
    We must also press for full implementation of existing agreements 
and arrangements to rebuild military transparency. If confirmed, I will 
work with Allies and partners at the OSCE to begin to restore 
predictability, transparency, and confidence in military security 
relations.
    Respect for human rights and fundamental freedoms is an essential 
aspect of security. If confirmed, I would ensure that the U.S. Mission 
to the OSCE remains a strong voice on behalf of human rights defenders 
targeted for repression and I would continue to champion the role of 
civil society. I am committed to defending religious freedom and 
combating anti-Semitism and other manifestations of intolerance, 
including hate crimes. I would also draw on my personal experience to 
support OSCE election observation missions. Democracy can only prevail 
when the citizens of OSCE countries know they can change their 
government peacefully through genuinely free and fair elections. If 
confirmed, I also plan to support OSCE efforts to combat human 
trafficking and violence against women.
    Congress's active, bipartisan engagement in the OSCE has been a 
tremendous strength to U.S. diplomatic efforts. I commend the Members 
of Congress who serve on the Helsinki Commission, participate in the 
OSCE Parliamentary Assembly, and hold leadership positions in both. I 
am pleased to see that so many members of this committee serve on the 
Helsinki Commission. I know you recognize the value that the OSCE 
brings to U.S. foreign policy.
    If confirmed, I will follow the path set out by the President and 
Secretary Pompeo to provide U.S. leadership to uphold OSCE principles 
and commitments. Staying true to these principles and values, now is 
the time to work with Allies and partners to leverage the OSCE's 
capabilities to address both conventional and emerging threats in 
innovative and comprehensive ways.
    Mr. Chairman, I am grateful for this opportunity to lead the 
outstanding team at USOSCE in Vienna. If confirmed, I commit to 
providing my best analysis and advice to the U.S. government and to 
work with this committee, the Helsinki Commission, and Congress to 
advance policies that promote democracy, advance human rights, and 
enhance the prosperity and security of our country.
    Thank you, Mr. Chairman. I welcome your questions.


    Senator Young. Thank you, sir.
    Mr. Swendiman, please make your opening statement, sir.

STATEMENT OF ALAN R. SWENDIMAN, OF NORTH CAROLINA, TO BE DEPUTY 
                  DIRECTOR OF THE PEACE CORPS

    Mr. Swendiman. Mr. Chairman, first, with your indulgence, I 
would like to congratulate Governor Gilmore and you, Senator 
Kaine, on UVA's winning the NCAA basketball championship. I 
told the Governor I was a little surprised he was here and you 
are here, Senator Kaine. I thought you would still be 
celebrating. Truth be told, as a graduate of the University of 
North Carolina, I had hoped that the Tar Heels would be there, 
and I suspect, Senator Young, you would have liked to see 
Indiana; and you, Senator Merkley, would have liked to have 
seen Oregon or Oregon State. Obviously, this was not our year. 
Needless to say, Virginia is an ACC school. So, Senator Kaine 
and Governor Gilmore, you have my support.
    Senator Young. I am trying to forget about that Purdue-
Virginia game. So, all right.
    [Laughter.]
    Mr. Swendiman. I am sorry----
    Senator Kaine. And Oregon-Virginia.
    [Laughter.]
    Senator Young. All right, all right.
    [Laughter.]
    Mr. Swendiman. I am sorry, Mr. Chairman.
    Senator Young. This is not going in the right direction.
    [Laughter.]
    Mr. Swendiman. I am sorry, Mr. Chairman, I left Purdue out.
    Senator Young. You can proceed with your opening statement, 
sir.
    [Laughter.]
    Mr. Swendiman. Chairman Young, Ranking Member Merkley, it 
is an honor to appear before you today as the President's 
nominee to serve as Deputy Director of the Peace Corps.
    I appreciate the President's confidence in me, and Director 
Olsen's support to join her team of dedicated individuals 
working toward building stronger partnerships around the world.
    In addition, I would like to recognize my family. I am well 
aware that my public service career has been made possible 
because of the unconditional support my wife Kathy, daughter 
Shelley, and son Robert have provided over the years.
    My wife, by way of note, served for 40 years in the 
Congressional Research Service, American Law Division, 
specializing in health care, Social Security, Medicare and 
Medicaid. You may or your staff may be familiar with her work.
    My daughter regretfully could not attend today. Her 1-year-
old son is quite sick, and now she has come down with it as 
well. She would have loved to be here, Senator Merkley.
    The Peace Corps is as important and relevant as ever. It 
represents the face of this nation. Volunteers build positive 
perceptions of this country in the minds and hearts of the 
people served throughout the world. And the impact of Peace 
Corps volunteers goes far beyond their time in service.
    I have witnessed this when I visited my daughter, Shelley, 
who was a Peace Corps Volunteer in Ukraine. She worked 
alongside her Ukrainian teacher counterparts to inspire the 
next generation of students to build and improve their English 
proficiency. Some of her former students still reach out to her 
today. After she returned to the United States, she continued 
her public service. She currently works at the Department of 
Labor Office of Child Labor, Forced Labor & Human Trafficking, 
overseeing grants made by this nation to foreign countries to 
stem the tide of child labor and forced labor, and in fact just 
recently came back from the Philippines on such official 
business.
    Public service is as important to me and as meaningful to 
me as it is to her.
    I wholeheartedly believe in the idea of service above self; 
that is, to serve my country and be part of something far 
greater than me. With that sense of mission, I am here today to 
share with you my commitment to advance agency priorities, 
focusing on ensuring that the Peace Corps remains the premiere 
volunteer program in the United States, while at the same time 
continuing to improve the application experience and mechanisms 
to promote the health, safety, and security of Americans 
representing our country in the communities throughout the 
world where Peace Corps volunteers are serving.
    I am confident my years of experience with other Federal 
agencies, including USAID, will transfer to Peace Corps' 
environment and, if confirmed, those experiences will inform 
and guide my recommendations to complement Director Olsen's 
priorities, including strengthening the country portfolio 
review process. If implemented properly, this process can 
ensure that the Peace Corps is preparing volunteers to serve in 
partner countries who share the same vision of maximizing the 
impact of projects that can be completed with finite resources.
    Coupled with the passion of volunteers, Peace Corps 
programs are designed to assist communities who are working 
hard to improve their economic opportunities. As you know, this 
approach has been a core mission of Peace Corps since its 
inception and it ensures that taxpayer dollars are used wisely 
in countries that have solidified their commitment by entering 
into a bilateral country agreement with the agency to guide 
expectations of our cooperation.
    Equally important, I am committed to advancing procedures 
that have been established by subject-matter experts to 
continue assessing the training and service delivery systems 
that are responsible for the health, safety, and security of 
all volunteers. As a parent of a return Peace Corps volunteer, 
I have experienced firsthand the inspiring work a healthy and 
safe volunteer can accomplish when he or she is properly 
trained and supported.
    If confirmed, I look forward to supporting current and 
future Peace Corps volunteers in the same manner Peace Corps 
professionals supported my daughter during her pre-departure 
and field service over 10 years ago. This includes working 
closely with experts and country directors to reduce risks 
volunteers face every day, including a professional and 
compassionate response to sexual assaults and other crimes when 
they occur.
    I want families to know that, if confirmed, I will work 
diligently to ensure Peace Corps provides the best response and 
assistance in case their loved ones experience a crime during 
their service. That I have a vested interest in.
    In closing, I want to thank your staff, who have been very 
courteous to me, as well as Peace Corps staffers who have 
helped me prepare for today's hearing.
    Chairman Young, Ranking Member Merkley, thank you for the 
opportunity to appear before you today. I look forward to your 
questions.
    [The prepared statement of Mr. Swendiman follows:]


              Prepared Statement of Alan Robert Swendiman

    Chairman Young and other distinguished members of the committee, it 
is an honor to appear before you today as the President's nominee to 
serve as Deputy Director of the Peace Corps.
    I appreciate the President's confidence in me, and Director Olsen's 
support to join her team of dedicated individuals working toward 
building stronger partnerships around the world.
    In addition, I would like to recognize my family. I am well aware 
that my public service career has been possible because of the 
unconditional support my wife Kathy, daughter Shelley, and son Robert, 
have provided over the years.
    The Peace Corps is as important and relevant as ever. It represents 
the face of this nation. Volunteers build positive perceptions of this 
country in the minds and hearts of the people served throughout the 
world. And the impact of Peace Corps volunteers goes far beyond their 
time in service.
    I have witnessed this when I visited my daughter, Shelley, who was 
a Peace Corps Volunteer in Ukraine. She worked alongside her Ukrainian 
teacher counterparts to inspire the next generation of students to 
build and improve their English proficiency. Some of her now former 
students still reach out to her today. After she returned to the United 
States, Shelley continued her public service. She currently works at 
the Department of Labor--Office of Child Labor, Forced Labor & Human 
Trafficking--overseeing grants made by this nation to foreign countries 
to stem the tide of child and forced labor.
    Public service is important and meaningful to me, as it is to her.
    I wholeheartedly believe in the idea of service above self, that 
is, to serve my country and be part of something far greater than 
myself. With that sense of mission, I am here today to share with you 
my commitment to advance agency priorities focusing on ensuring that 
the Peace Corps remains the premiere Volunteer program in the United 
States, while at the same time continuing to improve the application 
experience and mechanisms to promote the health, safety and security of 
Americans representing our country in the communities throughout the 
world where Peace Corps Volunteers are serving.
    I am confident my years of experience with other federal agencies, 
including USAID, will transfer to Peace Corps' environment and, if 
confirmed, those experiences will guide my recommendations to 
complement Director's Olsen priorities, including strengthening the 
country portfolio review process.
    If implemented properly, this process can ensure that the Peace 
Corps is preparing Volunteers to serve in partner countries who share 
the same vision of maximizing the impact of projects that can be 
completed with finite resources.
    Coupled with the passion of Volunteers, Peace Corps programs are 
designed to assist communities who are working hard to improve their 
economic opportunities. As you know, this approach has been a core 
mission of Peace Corps since its inception and it ensures that taxpayer 
dollars are used wisely in countries that have solidified their 
commitment by entering into a bilateral country agreement with the 
agency to guide expectations of our cooperation.
    Equally important, I am committed to advancing procedures that have 
been established by subject matter experts to continue assessing the 
training and service delivery systems that are responsible for the 
health, safety, and security of all Volunteers. As a parent of a Return 
Peace Corps Volunteer, I have experienced first-hand the inspiring work 
a healthy and safe Volunteer can accomplish when he or she is properly 
trained and supported.
    If confirmed, I look forward to supporting current and future Peace 
Corps Volunteers in the same manner Peace Corps professionals supported 
my daughter during her pre-departure and field service ten years ago. 
This includes working closely with experts and country directors to 
reduce risks Volunteers face every day, including a professional and 
compassionate response to sexual assaults and crimes when they occur.
    I want families to know that, if confirmed, I will work diligently 
to ensure Peace Corps provides the best response and assistance in case 
their loved ones experience a crime during their service. I have a 
vested interest.
    In closing, I also want to thank your staff and Peace Corps 
staffers who helped me prepare for today's hearing.
    Chairman Young and other distinguished Members of the committee; 
again, thank you for the opportunity to appear before you today.
    I look forward to your questions.


    Senator Young. Well, gentlemen, thank you for your 
thoughtful opening statements. Since I spent a lot of time in 
the Marine Corps when I was in Virginia, I am infused with the 
spirit of allowing my troops to eat first, which is an ethic of 
the Marines. So I will defer my questioning to a bit later. I 
am going to allow Senator Merkley to proceed with his 
questioning, Senator Kaine, and we may have some other members 
come in and out in the meanwhile. Thank you.
    Senator Merkley. Mr. Swendiman, the Peace Corps strategic 
plan does not set out currently a vision for how many Peace 
Corps volunteers there will be. Will you advocate for an 
expansion of the Peace Corps programs? And if so, what do you 
see it possibly expanding into?
    Mr. Swendiman. The agency, Senator, has this country 
portfolio review process, and in utilizing that process, which 
is data driven, it seeks to determine where best to place Peace 
Corps volunteers. As we know, Congress authorizes and 
appropriates funds for the agency. And so with those funds it 
will utilize that process as to where Peace Corps volunteers 
should serve.
    As you know, I am not on staff currently, so I have not 
been briefed specifically on where the Peace Corps is looking 
at expanding. I do know and am aware that Sri Lanka is a 
country that is on the list and on the table.
    Senator Merkley. Thank you. After you are on board, you can 
whisper and----
    Mr. Swendiman. And I will be glad, Senator, to get back to 
you or your staff.
    Senator Merkley. Thank you.
    Mr. Eberhardt, Saudi Arabia is seeking to acquire more 
nuclear reactors, and the U.S. is engaged in a conversation 
about the 123 standard, the gold standard. Do you feel we 
should not do any sales if Saudi Arabia will not agree to the 
gold standard?
    Mr. Eberhardt. Thank you, Senator. I know those 
negotiations have been going on for several years now. Those 
negotiations are not an issue that falls within my normal day-
to-day work. I do believe the standard, the so-called gold 
standard, is something that we should always strive to achieve. 
I know that the Under Secretary shares that view, that we 
should always strive toward the highest nonproliferation 
standards possible in the negotiation of 123 agreements. How 
the negotiation with Saudi Arabia eventually comes out remains 
to be seen, but I absolutely agree that we should strive for 
that standard in a 123 agreement.
    Senator Merkley. But I think we should do more than strive, 
because if we make the sales without the gold standard, it is a 
whole lot of trouble ahead. And also, in terms of the 
additional protocol of the NPT, if Saudi Arabia is not willing 
to sign on to it, especially in the context of our dialogue to 
restrain and/or eliminate nuclear programs in Iran, if we give 
a bigger leash to Saudi Arabia, it is going to be very, very 
hard to maintain some higher standard for Iran.
    Do you support the development of the low-yield sea-
launched cruise missile, and is that consistent with Article 6 
of the NPT?
    Mr. Eberhardt. Senator, I know that the Department of 
Defense is looking at several options coming out of the Nuclear 
Posture Review and where we are with the INF treaty with 
Russia. Regardless of how that comes out, I think even with the 
decision to move forward in that program, we are still in good 
stead with Article 6 of the NPT. Article 6 requires good-faith 
negotiations towards cessation of the nuclear arms race, 
eventually a nuclear free world, and of course general and 
complete disarmament. The United States record on Article 6 is 
extraordinarily strong. As I mentioned in my opening remarks, 
we reduced our arsenal by 88 percent from our Cold War high. We 
continue to reduce the number----
    Senator Merkley. My time is real short, so I am going to 
cut you off there, but thank you.
    How about the new START Treaty, if we fail to extend it? Or 
do you have an opinion, a strong opinion at this point on 
whether we should extend it or not?
    Mr. Eberhardt. Senator, I know that there is an ongoing 
review of whether or not we should extend the new START Treaty. 
There are a lot of factors that are being looked at, both the 
gains that we get from the inspection regime to the issue of 
dealing with Russia when they are cheating on treaties. So 
there are a lot of competing factors on both sides that I think 
all need to be weighed carefully before we make a final 
decision on extension of the new START Treaty.
    Senator Merkley. Governor Gilmore, I have been somewhat 
frustrated by the U.S. leadership on human rights the last 
couple of years. Burma conducted a massive, massive ethnic 
cleansing campaign against a Muslim minority, and our President 
has not ever said one word of condemnation. We have had other 
members of the Administration who have said a few words 
occasionally in a few places.
    The Philippines engaged in very, very significant 
extrajudicial slaughter of thousands of young men. We have not 
taken a clear stand.
    These things are not under your purview perhaps in the 
position you would take, but they are very related. Is it not 
important for the U.S. to take a strong stand on human rights 
throughout the world?
    Mr. Gilmore. It is, Senator. I can assure you that as the 
permanent representative to the OSCE, I will be taking a strong 
stand on human rights. We are observing the abuse of people in 
Crimea, occupied Crimea. One fellow has already been arrested 
and sent to an Arctic gulag. He should be returned immediately. 
He should be released immediately.
    We are seeing an opportunity to inject human rights and 
calm down some of the ethnic tensions that we see in the 
Balkans, particularly the Balkan countries and the challenges 
that they are facing there. The Russians have not only been 
imposing violations of human rights through Europe and within 
their areas but even within their own country.
    The OSCE is the premier organization that casts a standard 
on human rights. As the permanent representative, you can be 
sure I will be vigorous in these matters.
    Senator Merkley. Thank you, I appreciate that, and I do 
feel that our voice will be much more influential if we pay 
attention to human rights in places we have not been paying 
attention to it in the last couple of years. Thank you.
    Senator Young. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman. Thanks for the 
indulgence to allow us to go.
    Mr. Swendiman, you were giving congratulations about UVA. 
There are four UVA grads in the United States Senate, but 
neither of the Virginia senators had the talent and/or judgment 
to get a degree from the University of Virginia. So Governor 
Gilmore can accept congratulations, and Roxanne can, who has a 
UVA degree, and Jay also has a UVA degree and can take 
congratulations, but the Virginia senators sadly were lacking, 
at least at that point in their life. We have tried to 
compensate for it in years since.
    Governor Gilmore, I want to ask you, OSCE plays an 
important role in a fairly challenging time in Europe. There 
are 29 nations in the EU right now, but the EU challenges, 
especially with Brexit still being so much up in the air, have 
sort of paralyzed some European politics for the last few 
years.
    There are 29 nations in NATO in the North Atlantic. The 
OSCE is much larger, as your testimony points out, 57 nations. 
So, many that are not members of the EU or that are not members 
of NATO nevertheless have come together under the OSCE banner.
    Talk a little bit about how you would attempt, should you 
be confirmed, to use the breadth of the coalition to promote 
some stability and unity in what seems, at least from this side 
of the Atlantic, to be a pretty difficult time right now.
    Mr. Gilmore. Senator Kaine, the advantage of OSCE is its 
size, and it contains not just merely our allies and 
traditional friends but also people that are just emerging out 
of authoritarian regimes and people who are still developing. 
It not only handles Europe, but it also goes into Central Asia, 
many of the former Soviet republics that are independent now 
but somewhat authoritarian that benefit from OSCE and are 
asking for help from the OSCE.
    In addition to that, the organization has offices 
throughout many of its member countries, particularly in the 
Balkans, but in other places. There is American leadership 
heading those offices in Serbia, Kosovo, Bosnia and 
Herzegovina.
    There are systems that have been put into place to deal 
with some of the thornier problems. Chechnya, for example, 
there is a Moscow mission mechanism to send OSCE people to 
investigate into the human rights violations there.
    There are problems with Georgia and the other countries 
that are there.
    The point is this, that even with Moldavia, there is a 5.2 
process where America plays a significant role. The reason I am 
saying these things is because the OSCE is working very hard to 
have processes in place to advance the interests of human 
rights but also national security, mostly in Europe and beyond, 
and that favors, of course, the United States.
    Maybe the most important thing is the special monitoring 
mission to Ukraine. As an ongoing conflict, an American was 
killed there last year. As a matter of fact, his name is Joseph 
Stone. The anniversary of his death is coming up. There are 
over a thousand people in place at the special monitoring 
mission in the Ukraine. So this is a serious opportunity to 
have eyes and ears on the ground. OSCE gives the opportunity to 
cast a light on what is going on throughout Europe and 
throughout these conflicts, and in that way to advance the 
interests of peace and security.
    Senator Kaine. I appreciate that answer.
    I want to ask you, Mr. Eberhardt, to follow up on something 
that Senator Merkley was asking you about. He was talking about 
nuclear proliferation issues in the Middle East, and you 
addressed those in your testimony as well. Just a quote from 
your written testimony, which you did also present orally here. 
``There is also the longstanding problem of how to advance 
toward a Middle East weapons of mass destruction freeze zone,'' 
an issue that dates to the Treaty's indefinite extension in 
1995.
    Some of the issues that we might deal with in terms of 
weapons of mass distraction in the Middle East will be in your 
portfolio. Some might not, but I gather what you would want us 
to do as members of the Foreign Relations Committee--I am also 
on the Armed Services Committee--is to be very focused on this 
issue. Anything dealing with nuclear proliferation or 
proliferation of missile programs in the Middle East are things 
that we need to take very seriously because, obviously, if we 
can have that part of the world be weapons of mass destruction 
free, that would be a huge weight off not only our shoulders 
but the shoulders of the entire world from a security 
standpoint. Would you not agree?
    Mr. Eberhardt. Thank you, Senator. I would. In NPT circles, 
this issue has been around for many years, and all too often it 
has tried to be cast in terms of Israel needs to join the NPT.
    There are a range of issues that are in the way of a Middle 
East weapons of mass destruction free zone, Syria's joining and 
then violating the CWC, its use of chemical weapons against its 
own people, what Iran is doing with its missile program, what 
Iran is--potentially with its breakout capability, what it can 
do with its nuclear program.
    Now, the President made a decision that the JCPOA was 
defective in that it did not take a complete approach to the 
problem of Iran and the Middle East, and that is what we are 
about now. We need to look at the full range of problems that 
are in the Middle East today, and only then, by addressing 
these problems, can you actually start to have a conversation 
about a weapons of mass destruction free zone. But that is 
going to take the participation of all states in the region 
taking a clear-eyed look at all the problems in the region and 
then working collectively to solve them.
    Senator Kaine. You would agree with me, though, as I 
conclude, you mentioned Iran, Syria, Israel just by name, but 
we ought to be concerned about any nation in the Middle East 
that is expanding a missile program or any nation that is 
expanding a nuclear program. All of those things need to be 
carefully, carefully monitored by Congress; would you not 
agree?
    Mr. Eberhardt. Yes, Senator, I would.
    Senator Kaine. Thank you.
    Thank you, Mr. Chair.
    Senator Young. Mr. Eberhardt, in my opening statement, I 
referenced some of the significant headwinds to our 
nonproliferation efforts around the globe. If you just look at 
a map--I mean, Iran, North Korea, Russia, Pakistan, India, 
there are questions about China from many. So with respect to 
nonproliferation, is there a particular country or region that 
we should really be most focused on right now? I know the 
recent news has certainly had a number of us on tenterhooks 
with respect to India and Pakistan. But what do you consider 
the region of greatest concern to you as you consider stepping 
into this position that you have been nominated for?
    Mr. Eberhardt. Thank you, Senator. That is a difficult 
question. Judging between the problem of North Korea's nuclear 
program and the path that Iran is potentially on, both are 
extremely difficult challenges that need to be addressed, and 
they require different tools to address them.
    But if there is one thing in common, it is going to require 
collective activity on the part of the broader international 
community. I do not believe the United States can solve the 
North Korean problem alone. I do not think we can solve the 
Iran problem alone. We can lead in the solution to those 
problems by bringing pressure to bear on both of those regimes 
to end the nuclear program in North Korea and ensure that Iran 
never acquires a nuclear weapon.
    Senator Young. So by way of follow-up, what do you consider 
the most effective international organization or multilateral 
organization to deal with the threat of nonproliferation? We 
have had challenges in the Security Council, of course. So how 
do we combat proliferation?
    Mr. Eberhardt. Senator, I think we need to use all the 
tools in the toolbox. There are times when the U.N. can be of 
use. There are times when agencies such as the International 
Atomic Energy Agency can be useful. There are times when a 
group of nations working with the leadership of the United 
States can be the most effective tool. So I would not point to 
any one tool that is sort of the key to the solution of the 
problem. I think you need to look at each problem on its own 
basis and then craft a strategy to deal with it.
    Senator Young. Some have expressed concerns about a 
continuing qualitative and quantitative improvement in Chinese, 
Indian, and Pakistani nuclear arsenals that might destabilize 
the strategic relationship among those three countries, and in 
recent days we have had this standoff between India and 
Pakistan continue even though it seems the risk of conflict has 
diminished. It is obviously a significant concern if tensions 
were to again rise between nuclear powers. So if confirmed, 
what policies would you continue or would you initiate to 
increase strategic stability among these three countries?
    Mr. Eberhardt. Thank you, Senator. So, within the realm of 
the responsibility of the office that I would have, if 
confirmed, I think focusing on the nuclear issues is going to 
be key. I think one of the initiatives that we have tried to 
press is to expand the group of countries that have declared a 
moratorium on the production of fissile material. Four of the 
five of the P5 have done so. China, notably amongst the P5, has 
not, and of course neither have India and Pakistan. There have 
been efforts over the years to negotiate a treaty that would 
ban the production of fissile material for use in nuclear 
weapons. Those efforts have failed largely due to the 
opposition of both China and Pakistan, but there may be an 
interim step where you can get them to at least join the 
broader community in halting the production of fissile 
material.
    I do think we also need to look at how we have a 
conversation that includes India and Pakistan. Too often in NPT 
circles, they look at the world through only NPT states' 
parties and talk about a world free of nuclear weapons as if 
you could do so only with NPT state parties. Well, of course, 
one does need to deal with India and Pakistan if one imagines 
the achievement of such a world, so we do need to find a way to 
engage with them in appropriate fora to bring them into the 
conversation to talk about how responsible nuclear powers act, 
most notably by halting arms racing and beginning to look at 
how you can bring your numbers down.
    Senator Young. Thank you.
    Mr. Gilmore, I want to note something that my colleague, 
Senator Kaine, also mentioned. There is some overlapping 
membership between different entities, the NATO and EU, United 
Nations I would add, and OSCE. You mentioned as I think a 
unique value proposition of OSCE as you have dozens more 
members. Sixty-seven, I believe, is the number. Fifty-seven. 
All right. And then you also mentioned security and rule of law 
being points of emphasis, and then human rights really looms 
largest.
    How would you characterize the future of the OSCE? Will 
that really be the distinguishing factor and the defining facet 
of its mission as compared to these other entities, human 
rights?
    Mr. Gilmore. Senator, I think that the OSCE, because it is 
so broad-based and it has everybody in it, really transatlantic 
and all the way into central Asia, it is a wonderful 
opportunity to communicate and to advocate and to pursue 
American national interests, as well as the interests of our 
allies in a broad-based way.
    If you look at the higher profile of the multilateral 
organizations, the European Union is a basic economic type of 
organization seeking to try to emerge as some kind of nation, 
but it does not include a lot of people that are in the OSCE, 
all the way into Asia.
    NATO is our allies, and they are, of course, on a potential 
confrontation mode militarily. The OSCE is an opportunity to 
get out here and talk about all these other issues, issues of 
anti-Semitism, the ideas of religious freedom, which, by the 
way, members of Congress have been very forthright in leading 
on those kinds of issues, as well as security issues. It is the 
OSCE that deals with the Vienna document that talks about the 
transparency of the conventional forces in Europe and the 
challenges that are being faced with that right now.
    But Open Skies, which is ongoing right now, these 
confidence-building measures to prevent war. And then, of 
course, the third basket is the economic basket, as well.
    So there are a lot of different--it is a broader-based 
agenda than you see in most of the other multilateral 
organizations, and the American mission there punches above its 
weight. Considering the contributions financially that are 
given to OSCE from the United States, and especially to the 
American mission, it does an awful lot and deals with an awful 
lot of issues that are matters of war and peace. And that is 
why, if confirmed, I will try to pursue all these multi-areas, 
together with the mission at my command.
    Senator Young. You mentioned the multifaceted missions--
anti-Semitism, religious freedom, Open Skies, conflict 
prevention--being some of the current issues. Do you foresee 
challenges for the organization moving forward? And if so, how 
would you characterize those challenges?
    Mr. Gilmore. I think that the countries that are in this 
organization perceive the value of it, and they understand how 
valuable it is to be a part of this. Even the Russians are 
trying to use the organization to their advantage. It is up to 
us to make sure that they cannot misuse the OSCE.
    The other countries--for example, Uzbekistan has now said 
that they want to work with the OSCE to begin to promote 
democratic values. You are not going to see that in conjunction 
with the other organizations to which you are referring.
    You have asked me a direct question, what is the future of 
the OSCE. I believe with senatorial and congressional support 
in support of the Secretary and the President, that this 
organization can be a central organization for the advancement 
not only of American interests but of multilateral interests, 
and will be, I believe. I believe there is confidence of the 
members in the organization going forward.
    Senator Young. Thank you, sir.
    Mr. Swendiman, as you know, in the 1961 Peace Corps Act, 
the Peace Corps was established as both a development 
organization to help meet the needs for trained manpower in the 
poorest areas of countries, and as a public diplomacy 
organization to help promote a better understanding of the 
American people.
    How would you assess the job the Peace Corps is doing as a 
development organization today?
    Mr. Swendiman. Senator, that is a very good question. I 
think the fact that Peace Corps has continued these many 
years--we are now 57 years, 58 years in existence--demonstrates 
its effectiveness. I think the fact that Peace Corps has sought 
to, in its country portfolio review process, to demonstrate and 
to assess its effectiveness using evidence-based data has shown 
that they have been effective. The personal stories that are 
received that come back to the agency about what the volunteers 
have done, the fact that a number of the projects that were 
started by volunteers still continue in existence when very 
easily they could have terminated, I think demonstrates the 
effectiveness of Peace Corps.
    And the fact that, although I cannot tell you specifically 
because I have not been briefed on everything, but that there 
are some countries that made a request to Peace Corps and, as 
you know, Senator, that is what starts a process--in other 
words, the country has to request that Peace Corps has the 
first step before the following process goes, the Peace Corps 
does not simply impose the fact that they want to be there, the 
country wants to have them there, I think demonstrates the 
effectiveness of the Peace Corps and the desire to have the 
Peace Corps present.
    Senator Young. Very good. I appreciate the response. And 
with respect to the evidence-based policies that they attempt 
to implement and iteratively improve, should you be confirmed, 
I look forward to working with you on seeing how we might 
enhance those moving forward.
    I thought you quite appropriately, Mr. Swendiman, discussed 
at some length the safety of volunteers, your concern about the 
safety of volunteers. I know there are a number of Hoosiers who 
I encounter who were either former Peace Corps volunteers or 
are looking to join the Peace Corps. We had a number of them 
that joined from Indiana University. We want our volunteers to 
be safe.
    In your view, what are some of the most important and 
effective steps taken by the Peace Corps in recent years to 
enhance the safety of volunteers?
    Mr. Swendiman. I think, Senator, there have been a number 
of steps with regard to that. First of all, as you pointed out, 
the health, safety, and security of the volunteers is the 
number-one priority of the agency. Through the Kate Puzey Act, 
which the agency implemented, policies in terms of sexual 
assault, for example, have been implemented. Training of the 
volunteers has been implemented. There is an Office of Victim 
Advocacy that has been established. There has been the sexual 
assault risk reduction liaisons that have been provided with 
regard to those that are subject to sexual assault.
    So the agency has done this, and what is interesting that 
has come back to me is that the Peace Corps is now becoming the 
gold standard with regard to the issue of sexual assault. There 
are other agencies that are looking to Peace Corps in terms of 
what they do.
    Now, the key thing for Peace Corps will be continuing to 
monitor and evaluate its policies, its training, its programs 
in that regard. It is much like our first responders or our men 
and women who serve in uniform, our diplomats abroad. It is 
constantly looking at what we are doing and vowing to make sure 
that we are effective and efficient.
    Senator Young. Thank you for that fulsome response. I am 
impressed by the many successes ongoing in the Peace Corps on 
that front.
    Currently, the Peace Corps has a presence in 65 countries. 
In the last decade, more than 20 countries have asked for a 
Peace Corps program to be established. You did indicate early 
on that you did not have eyeballs on that list of requested 
countries, if I recall, sir. Sri Lanka is one that you think 
may be on the list, you speculated.
    But can you give me some sense--and I think you also 
indicated you do not have committed to memory or access to the 
specific criteria for establishing a new program; is that 
correct? Or can you speak to that?
    Mr. Swendiman. Well, I think I can give you, Mr. Chairman, 
generally.
    Senator Young. Please.
    Mr. Swendiman. I mentioned, first of all, that the country, 
as you pointed out, has to request. After that, the Peace Corps 
has to assess a number of factors, approximately six, with 
regard to the feasibility of Peace Corps volunteers. They look 
at safety. They look at health. They look at effectiveness in 
terms of what is the need that the country is expressing. So, 
there are factors.
    Now, in the country portfolio review process, as I 
understand it, the process involves about 133 or so indicators. 
And the reason why they have gone to, as I understand it, have 
gone to evidence-based, first of all, people are looking, such 
as yourself, members of Congress are looking for evidence-based 
decisions. But they are looking at--the reason why it was 
implemented, among other things, was consistency, transparency, 
maintaining that there is no favoritism with regard to that.
    And by looking at a number of factors, Peace Corps is able 
to look at where is the best place for Peace Corps volunteers 
to be, and what country, if requested, can they work with in 
terms of the resources that are provided to Peace Corps.
    Senator Young. Relatedly and lastly, perhaps you could 
explain what the process is to close an existing program, if 
any.
    Mr. Swendiman. Well, I think, again, I am going to have to 
pause a moment, Mr. Chairman, because, as mentioned previously, 
I am not on staff, so I do not work intimately with the agency 
and with the people who make those decisions, and cannot be 
briefed.
    Senator Young. I understand. If confirmed----
    Mr. Swendiman. But if confirmed, I certainly would get back 
to you as to that. But I believe that the country review 
process, the portfolio review process is part of that. 
Certainly, there are external factors that are going to come 
into play with anything. For example, in terms of threats and 
the like, and under the law, current statute, the agency has to 
notify Congress in terms of opening, closing, suspending 
programs in a particular country.
    Senator Young. But I imagine there would be guideposts or 
different factors we follow.
    Mr. Swendiman. Correct.
    Senator Young. But, of course, this is an instrument of 
diplomacy, so we do need to consider external factors.
    Mr. Swendiman. Correct.
    Senator Young. Yes, sir.
    Well, that is all I have in terms of questioning, and I do 
not see any other members around waiting to ask questions, so 
congratulations to each of you for surviving this part of the 
process.
    Thank you again to all of our nominees for providing us 
with the benefit of your testimony earlier, your presence here 
today, and for bringing your family members along, as well.
    For the information of members who may be watching these 
proceedings, the record will remain open until the close of 
business on Thursday, including for members to submit questions 
for the record.
    Thanks again to members of this committee, our nominees and 
their families.
    This hearing is now adjourned.


    [Whereupon, at 4:05 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

                              ----------                              


      Responses to Additional Questions for the Record Submitted 
           to Jeffrey L. Eberhardt by Senator Robert Menendez

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights?

    Answer. I believe my greatest contribution to promoting human 
rights and democracy was my twenty-three years of service in the United 
States Army. That service included postings in West Germany from 1983 
to 1990, witnessing the fall of the Soviet Union from my post on what 
was the Inner-German Border. Later, I deployed to the Persian Gulf for 
Operations Desert Thunder II and Desert Fox.


    Question. What has been the impact of your actions?

    Answer. I had the privilege of leading and mentoring the finest men 
and women of our nation, and many of them continue to serve our nation 
in positions of leadership today.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations, to the 
extent the issues they raise have a bearing on your duties?

    Answer. Yes. In the course of my current duties, including dealing 
with issues related to the Treaty on the Nonproliferation of Nuclear 
Weapons, two Nuclear Posture Reviews, and other issues of concern to 
Civil Society, I have frequently met with such groups to hear their 
concerns and explain U.S. policies. If confirmed, I will continue to do 
so.

    Question. Will you advocate for access and inclusivity for women 
and minorities?

    Answer. Yes. Throughout my career, both military and civil, I have 
supported access and inclusivity for women and minorities. If 
confirmed, I will continue to do so.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people, no matter their 
sexual orientation or gender identity?

    Answer. Yes. If confirmed, I will continue to defend the human 
rights and dignity of all people, no matter their sexual orientation or 
gender identity.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government?

    Answer. Yes. As both a career military officer and career civil 
servant, I fully believe that any targeting of, or retaliation against, 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government.

    Question. If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?
    Has anyone ever made a formal or informal complaint or allegation 
of sexual harassment, discrimination (e.g., racial, ethnic, religious, 
etc.), or inappropriate conduct against you, in a workplace or any 
other setting?

    Answer. If confirmed, I will strive to set the example in fostering 
an environment that is diverse and inclusive. That will of course 
include making clear that any retaliation, blacklisting, or other 
prohibited personnel practices will not be tolerated. In doing so, I 
will apply the leadership lessons I learned in my twenty-three years in 
the Army.I have not received any formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against me, in a workplace 
or any other setting. I take issues of sexual harassment, 
discrimination (e.g., racial, ethnic, religious, etc.), and 
inappropriate conduct very seriously. I do not tolerate any types of 
behavior that could be considered discriminatory. I would be happy to 
meet with you to discuss these important issues further and my belief 
that everyone should be treated with respect and fairness.

    Question. If so, please describe the nature of the complaint or 
allegation, your response, and any resolution, including any 
settlements.

    Answer. Not applicable.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority?

    Answer. I am committed to ensuring that harassment, discrimination, 
and inappropriate conduct are not tolerated and any allegations are 
handled appropriately. I have, over the course of both my military 
career and my service in the State Department, had to deal with issues 
of inappropriate conduct by individuals under my command/supervision.

    Question. If so, please describe the outcome and actions taken.

    Answer. In every case, I took the appropriate counseling and/or 
disciplinary steps in accordance with Army/Department policies.

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I believe my greatest contribution to promoting human 
rights and democracy was my twenty-three years of service in the United 
States Army. That service included postings in West Germany from 1983 
to 1990, witnessing the fall of the Soviet Union from my post on what 
was the Inner-German Border. Later, I deployed to the Persian Gulf for 
Operations Desert Thunder II and Desert Fox.
    I had the privilege of leading the finest men and women of our 
nation, and many of them continue to serve our nation in positions of 
leadership today.

    Question. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. While the position to which I've been nominated does not 
include a staff, if confirmed, I will seek to have diverse 
representation on all delegations I am assigned to lead. As Head of 
Delegation, I will strive to mentor all with whom I work in order to 
build the next generation of arms control specialists.



                               __________


            Responses to Additional Questions for the Record
    Submitted to Jeffrey L. Eberhardt by Senator Benjamin L. Cardin

    Question. What steps will you take to ensure each of the 
supervisors in the Foreign Service are fostering an environment that is 
diverse and inclusive?

    Answer. While the position to which I've been nominated does not 
include a staff, if confirmed, I will strive to set the example for 
other senior leaders in fostering an environment that is diverse and 
inclusive for all delegations I lead. In doing so, I will apply the 
leadership lessons I learned in my twenty-three years in the Army, one 
of the most diverse organizations in the country.

    Question. Do you commit to bring to the committee's attention (and 
the Inspector General of the State Department and Foreign Service) any 
change in policy or U.S. actions that you suspect may be influenced by 
any of the President's business or financial interests, or the business 
or financial interests of any senior White House staff?

    Answer. Yes.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. Yes.

    Question. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.

    Question. Is the bargain of the NPT still relevant over fifty years 
later? How do you assess the effectiveness of the treaty for U.S. 
nonproliferation policy?

    Answer. Yes, the NPT is just as relevant now as it was fifty years 
ago. The NPT has provided the essential foundation for international 
efforts to stem the looming threat--then and now--that nuclear weapons 
would spread across the planet. It remains the accepted international 
basis for responses to efforts by specific countries to acquire nuclear 
weapons. The success of the NPT has been a boon to U.S. national 
security and to the security of all nations.

    Question. What is your interpretation of the United States' nuclear 
disarmament obligations under the NPT, according to which, each of the 
states-parties ``undertakes to pursue negotiations in good faith on 
effective measures relating to cessation of the nuclear arms race at an 
early date and to nuclear disarmament, and on a treaty on general and 
complete disarmament under strict and effective international 
control''?

    Answer. Of the three obligations in NPT Article VI, the first--``to 
pursue negotiations in good faith on effective measures relating to the 
cessation of the nuclear arms race at an early date''--has essentially 
been achieved through the end and reversal of the Cold War nuclear arms 
race. The second--``to pursue negotiations in good faith on effective 
measures relating to nuclear disarmament''--has seen significant 
progress, including an 88 percent reduction in the U.S. nuclear 
stockpile since its Cold War peak. This, and the obligation--``to 
pursue negotiations . on a treaty on general and complete disarmament 
under strict and effective international control''--can only feasibly 
be addressed in the context of the overall security environment.

    Question. Describing the Trump administration's ``conditions-
based'' approach to nuclear disarmament in a March 2018 speech, 
Christopher Ford, Assistant Secretary for International Security and 
Nonproliferation, argued that ``[w]e should thus not expect that any 
given articulation of `practical steps' needed for progress toward 
disarmament will necessarily remain valid over time.'' However, the NPT 
states-parties have adopted and reaffirmed practical steps toward 
nuclear disarmament in the past. What are the U.S. goals for the 2020 
Review Conference and the 2019 NPT Preparatory Committee meeting?

    Answer. We seek a positive outcome at the 2020 Review Conference 
that reflects broad-based consensus. We will emphasize that preventing 
the proliferation of nuclear weapons is a direct and fundamental 
benefit of the NPT to all its Parties, which also facilitates progress 
on nuclear disarmament and cooperation on peaceful uses of nuclear 
energy. The central provisions of the NPT--nonproliferation, 
disarmament, and peaceful uses of nuclear energy--are shared interests 
of all NPT Parties, not competing priorities. The NPT's 50th 
anniversary provides an opportunity for all NPT Parties to reaffirm 
their commitment to the NPT, reflect on how much has been accomplished 
to achieve its goals, and rededicate ourselves to those shared goals.

    Question. How might the dynamics of the Review Conference change in 
light of a potential slow-down in U.S.-Russian strategic arms control? 
Should the New START Treaty be extended?

    Answer. During the 50-year history of the Nuclear Non-Proliferation 
(NPT) Treaty there have been highs and lows in U.S.-Soviet and then 
U.S.-Russian bilateral strategic arms control, but that has not 
prevented our two governments from working with others toward common 
interests at prior NPT Review Conferences. If confirmed, I will work 
toward keeping that dynamic as much as possible for the 2020 Review 
Conference.
    The New START Treaty is scheduled to expire February 5, 2021, and 
the administration is reviewing whether to seek an extension of the 
Treaty with the Russian Federation. Central to that review is 
evaluating whether extension is in the U.S. national interest and how 
the Treaty's expiration would impact U.S. national security in the 
evolving security environment, including Russia's ongoing development 
of new strategic offensive arms and serial noncompliance with its arms 
control obligations, as well as China's continuing nuclear 
modernization.

    Question. How does the signing of the 2017 Treaty on the 
Prohibition of Nuclear Weapons (the ``nuclear ban'' treaty) by 69 
states impact the NPT?

    Answer. The United States opposes the Treaty on the Prohibition of 
Nuclear Weapons (TPNW) and argues against its ratification. No state 
possessing nuclear weapons supports the TPNW, and the treaty will not 
result in the elimination of a single nuclear weapon, nor will it 
enhance the security of any state. The TPNW risks reinforcing divisions 
in the existing nonproliferation and disarmament bodies that could 
hinder the ability of the United States to work with others to address 
the pressing proliferation and security challenges faced today.
    The United States understands and appreciates states' desires to 
make more and faster progress on nuclear disarmament. However, the TPNW 
does not take into account the international security challenges that 
continue to make nuclear deterrence necessary to preserve U.S. national 
security and to ensure the security of our allies and partners.

    Question. How should the United States ensure that current NPT non-
nuclear weapon states will not pursue these weapons in the future?

    Answer. The NPT has been successful, and will continue to be 
successful, because NPT Parties recognize that it is in their mutual 
self-interest not to acquire nuclear weapons. The nuclear 
nonproliferation regime must adapt in response to past and emerging 
proliferation challenges. This includes strengthening IAEA safeguards 
through universal adherence to the Additional Protocol, which gives the 
IAEA additional tools to respond to clandestine nuclear programs. 
Beyond that, the international community needs to make clear that 
states must comply with their nonproliferation obligations, including 
their obligations under relevant U.N. Security Council resolutions.

    Question. Several prominent commissions have recently argued that 
the IAEA lacks adequate resources to execute its missions. How would 
you work to support the mission of the IAEA, particularly in the realm 
of verification and nuclear security?

    Answer. Although the IAEA would not be one of my direct 
responsibilities, it does play a critical role in implementation of the 
Non-Proliferation Treaty, which would be my primary responsibility if 
confirmed. The IAEA's regular budget has not kept pace with the 
steadily growing demands placed upon the Agency by Member States, 
leading to a growing gap between its activities and its limited 
resources. As Director General Amano said during his April 2 briefing 
to the U.N. ``The steady increase in the amount of nuclear material and 
the number of nuclear facilities under IAEA safeguards, and continuing 
pressure on our regular budget, are among the key challenges facing the 
Agency today.'' We continue to encourage the IAEA to make a strong case 
for itself in describing what activities may be omitted if the budget 
does not keep pace with the Agency's growing responsibilities. Because 
of constraints on the IAEA regular budget, the annual U.S. Voluntary 
Contribution provides us the necessary resources to support the 
critical missions of the IAEA across the board. The IAEA's nuclear 
security program is particularly reliant on voluntary contributions, 
and we will continue to press for greater funding through the regular 
budget within existing budget constraints. A strong IAEA is in U.S. 
national security interests, not only for its important verification 
role in safeguards, but also its work in nuclear safety and security, 
and in promoting peaceful uses of nuclear energy.

    Question. What should the IAEA's role be in global efforts to 
secure nuclear and radiological materials? How should the United States 
support this?

    Answer. The IAEA is well-positioned to serve its unique role as a 
central coordinator for strengthening nuclear and radiological security 
globally. The IAEA develops guidance on nuclear security and provides 
advice, training, and other assistance to Member States to prevent, 
detect, and respond to nuclear security incidents. The IAEA can also 
play a direct role in funding or facilitating projects to secure high-
risk nuclear and radiological materials and in promoting alternatives 
to those materials. The IAEA's nuclear security programs are a vital 
component in advancing U.S. goals and objectives in nuclear security, 
and we will continue to support these efforts through political, 
technical, and financial assistance.

    Question.  How should the United States balance the goals of 
increasing non-nuclear weapon states' access to the peaceful use of 
nuclear energy with the nonproliferation goals of preventing the 
further spread of weapons technology?

    Answer. The United States supports and commits to high 
nonproliferation standards in the export of nuclear material, 
equipment, and technology and encourages other supplier states to do 
the same. Exercising responsible supply policy through the application 
of export controls--and the insistence upon high nuclear safeguards 
standards in nuclear cooperation agreements, including the recipient 
state's conclusion of an IAEA Additional Protocol--facilitates 
legitimate trade and gives confidence that items and technologies 
transferred will be used as intended in peaceful applications.

    Question. Should the United States be promoting nuclear energy in 
new countries?

    Answer. The United States encourages all countries that are 
considering pursing a nuclear energy program to do so under the highest 
standards for safeguards, nuclear security, and nuclear safety.

    Question. As Special Representative, how would you advance efforts 
to develop multilateral efforts to prevent the spread of enrichment and 
reprocessing technologies?

    Answer. Within the context of the Nuclear Nonproliferation Treaty 
Review Conference process, if confirmed, I would work to complement our 
efforts in the Nuclear Suppliers Group and elsewhere to maintain and 
strengthen international norms that limit the spread of enrichment and 
reprocessing technologies and international mechanisms that reduce the 
need for such capabilities.

    Question. The State Department leads negotiations on new (and 
renewed) civilian nuclear cooperation agreements (section 123 
agreements) with other countries. Will the Trump administration 
continue the past U.S. policy of encouraging states to pledge to 
refrain from building enrichment or reprocessing facilities as part of 
123 agreement negotiations?

    Answer. Negotiating 123 Agreements would not be one of my 
responsibilities, however, all 123 agreements include, at a minimum, 
the requirements listed in Section 123 of the Atomic Energy Act, as 
amended. Beyond these requirements, the United States has a 
longstanding policy of limiting the spread of enrichment and 
reprocessing capabilities around the world and will continue to seek 
the highest nonproliferation standards possible in all future 123 
agreements, including restrictions on enrichment and reprocessing.

    Question. Should the United States conclude a nuclear cooperation 
agreement with Saudi Arabia?

    Answer. Although negotiating 123 Agreements would not be one of my 
responsibilities, I note that the United States has significant 
strategic, commercial, and nonproliferation incentives to conclude a 
123 agreement with Saudi Arabia. Bringing into force such an agreement 
would provide substantial economic opportunities for U.S. firms and 
ensure the Saudi nuclear power program is subject to the highest 
nonproliferation, safety, and security standards required by any 
nuclear supplier in the world. In the absence of a 123 agreement, U.S. 
firms will lose the opportunity to compete and will likely be replaced 
by state-owned enterprises from other countries with lower 
nonproliferation standards.

    Question. What conditions, if any, should apply to a 123 agreement 
with Saudi Arabia?

    Answer. Negotiating 123 Agreements would not be one of my 
responsibilities, however, all 123 agreements include, at a minimum, 
the legal requirements listed in Section 123 of the Atomic Energy Act, 
as amended. On their own, these requirements represent the strongest 
nonproliferation, safety, and security standards required by any 
nuclear supplier in the world. As Secretary Pompeo has reaffirmed, the 
administration will pursue the strongest nonproliferation standards 
that are achievable in all 123 agreement negotiations, including 
negotiations with Saudi Arabia. Additionally, United States policy is 
to encourage all states, particularly those with civil nuclear 
programs, to bring into force an Additional Protocol to their 
safeguards agreements with the International Atomic Energy Agency.

    Question. Assistant Secretary Christopher Ford stated in April 2018 
that the United States ``will continue to support the commencement of 
negotiations'' on a Fissile Material Cutoff Treaty (FMCT). How would 
you propose to include the non-NPT nuclear weapons states (i.e., India, 
Pakistan, Israel) in such a treaty?Could such a treaty help address 
North Korean fissile material production?

    Answer. The United States supports the commencement of negotiations 
on a Fissile Material Cutoff Treaty in the Conference on Disarmament 
(CD). The CD's membership includes all states relevant to an FMCT, 
including India, Pakistan, and Israel.
    The United States seeks the final, fully verified denuclearization 
of the DPRK and its return to the Treaty on the Nonproliferation of 
Nuclear Weapons and IAEA safeguards. Simply obtaining the DPRK's 
adherence to an FMCT would fall short of this goal.

    Question. Should an FMCT verification regime apply to pre-existing 
fissile material stocks or just to the future production of weapons-
applicable nuclear material?

    Answer. The United States supports the commencement of negotiations 
on a Fissile Material Cutoff Treaty (FMCT) that bans the production of 
fissile material for use in nuclear weapons. The verification regime 
should therefore be focused on this basic obligation, which is future 
production. The long-standing U.S. position is that we do not support 
including legal obligations on pre-existing stocks of fissile material 
in an FMCT.

    Question.  Following its May 2018 decision to cease implementing 
U.S. commitments under the 2015 JCPOA, the administration has 
consistently attempted to build international support for U.S. efforts 
to pressure Iran. The other powers that negotiated the accord with 
Iran-Russia, China, France, Britain, and Germany-assert that the JCPOA 
is succeeding in its core objectives and that its implementation should 
not be jeopardized. On February 14, at an international conference in 
Warsaw, Poland, Secretary of State Pompeo denounced the EU's creation 
of a Special-Purpose Vehicle (SPV), designated to facilitate trade with 
Iran, calling it ``an effort to break American sanctions against Iran's 
murderous revolutionary regime. It's an ill-advised step that will only 
strengthen Iran, weaken the EU, and create still more distance between 
Europe and the United States.'' What are the prospects for Iran and the 
other parties to succeed in implementing the JCPOA without U.S. 
participation?

    Answer. President Trump ended U.S. participation in the JCPOA 
because it failed to permanently deny Iran a pathway to a nuclear 
weapon and did not address the full range of threats posed by Iran's 
destabilizing activities. The President did not believe it was in our 
national security interests to continue to provide sanctions relief to 
the Iranian regime while its threats continued to grow. The 
administration is now working with our international partners to bring 
maximum pressure on Iran to achieve a new deal that comprehensively 
addresses the full range of threats posed by Iran--including its 
support to terrorism, destabilizing regional activities, its 
development and proliferation of ballistic missiles, and its nuclear 
program.

    Question. How likely is it that the United States will be able to 
compel other parties to the JCPOA to re-impose all sanctions that were 
lifted?

    Answer. The Trump administration has imposed the toughest sanctions 
ever on the Iranian regime, including designating over 970 Iranian 
entities and individuals. While we differ with our European allies on 
the nuclear deal, we share a common assessment of the threat posed by 
Iran and have been successful in convincing other partners to join the 
pressure campaign.
    All U.N. Member States continue to be bound by the provisions of 
UNSCR 2231 that place restrictions on transfers of certain nuclear, 
missile, and conventional arms-related items to/from Iran. The United 
States is working to strictly implement these provisions, as well as 
the asset freeze and travel ban provisions on the entities and 
individuals that continue to be subject to U.N. sanctions.

    Question. How do you recommend the Trump administration proceed 
moving forward?

    Answer. As President Trump and Secretary Pompeo have made clear, 
the United States is committed to working with our partners to bring 
maximum pressure on Iran to achieve a new deal that addresses the full 
range of threats posed by Iran--including its destabilizing regional 
activities, its development and proliferation of ballistic missiles, 
and its nuclear program. We are offering Iran the possibility of full 
normalization of relations with the international community. However, 
to achieve that goal, Iran must be willing to operate like a normal 
country, change its malign behavior, and take lasting steps to 
demonstrate that its nuclear program will forever remain exclusively 
peaceful.

    Question. How do you view the importance of the NPT, Comprehensive 
Nuclear-Test Ban Treaty (CTBT) and IAEA verification in any 
denuclearization agreement with North Korea?

    Answer. Ideally, a fully denuclearized North Korea will eventually 
return to the NPT as a non-nuclear weapons state. A robust IAEA 
verification regime would almost certainly be a part of this process. 
The International Monitoring System of the CTBT Organization 
Preparatory Commission's Provisional Technical Secretariat has proven 
its value in monitoring North Korean nuclear testing and its current 
moratorium.

    Question. Would you have an advisory role in these negotiations and 
how would you advocate bringing North Korea into compliance with the 
international nonproliferation regime?

    Answer. Special Representative for North Korea Steve Biegun leads 
our negotiations. I am prepared to play whatever constructive role the 
administration sees fit for me to play, including advising in these 
negotiations when appropriate and helpful to the denuclearization 
process. In such a role, bringing North Korea into compliance with the 
international nonproliferation regime would be my top priority in order 
to ensure that through this process the international nonproliferation 
regime is strengthened and that in the future the denuclearization of 
North Korea can provide a useful example should another country be in a 
similar position.

    Question. What are the best options for the U.S. and our partners 
to bring these programs to an end and create a nuclear weapons free 
Korean Peninsula?

    Answer. We continue to work towards a comprehensive agreement with 
the DPRK, and towards its final, fully verified denuclearization. The 
President remains confident that, despite challenges, Chairman Kim 
understands that only an agreement to fully denuclearize will bring 
true security for the North Korean People. We are committed to pursuing 
this path.

    Question. How would you support the administration's efforts to 
address the possibility of nuclear conflict between India and Pakistan?

    Answer. The administration is deeply concerned about the 
possibility that conflict between India and Pakistan could escalate to 
include the use of nuclear weapons. As such, the administration reached 
out to both sides during the rise in tensions following the February 14 
terrorist attack in Kashmir that killed 40 Indian members of the 
Central Reserve Police Force. We were in regular contact with both 
sides during the situation, urging restraint from both sides and 
calling on Pakistan to take immediate, irreversible actions to crack 
down on terrorist groups. The administration encourages dialogue 
between both sides to keep lines of communication open and tensions as 
low as possible. Furthermore, we hold regular discussions with India 
and Pakistan on matters concerning regional stability and 
nonproliferation.

    Question. What steps, if any, would you take to persuade India and 
Pakistan to accede to the NPT or to reduce and /or constrain their 
nuclear arsenals?

    Answer. The United States continues to support the long-term goal 
of NPT universality, and we remain committed to efforts to strengthen 
and uphold the Treaty. We continue to encourage all states that have 
not yet done so to declare and maintain moratoria on the production of 
fissile material for use in nuclear weapons.
    We remain concerned by the growth of nuclear stockpiles and 
capabilities in Asia, and continue to encourage all states with nuclear 
weapons to exercise restraint regarding nuclear and missile 
capabilities. We welcome the steps that states have taken to bolster 
global nonproliferation efforts, including by harmonizing with, 
adhering to, and joining export control regimes and supporting efforts 
to prevent the acquisition and use of weapons of mass destruction by 
non-state actors.



                               __________


            Responses to Additional Questions for the Record
         Submitted to Jeffrey L. Eberhardt by Senator Ted Cruz

    Question.  Do you consider Iran's past possession of the Nuclear 
Archive seized by Israel last year, including the materials in the 
Archive relevant to the development of nuclear weapons, to constitute 
non-compliance by Iran of its obligations under the Treaty on the Non-
Proliferation of Nuclear Weapons (NPT). If yes, please explain why. If 
no, please explain why.

    Answer. The intelligence community currently assesses that Iran is 
not currently undertaking the key nuclear weapons-related development 
activities judged necessary to produce a nuclear device. However, 
Iran's retention of documents and files from its pre-2004 nuclear 
weapons program raises serious questions regarding whether it intended 
to preserve the option to resume elements of a nuclear weapons program 
in the future. The legal question of Iran's compliance with its 
obligations under the NPT will be addressed in this year's Compliance 
Report, which is forthcoming.

    Question. Do you consider Iran's past concealment of the Nuclear 
Archive seized by Israel last year, including the materials in the 
Archive relevant to the development of nuclear weapons, to constitute 
non-compliance by Iran of its obligations under the NPT. f yes, please 
explain why. If no, please explain why.

    Answer. The intelligence community currently assesses that Iran is 
not currently undertaking the key nuclear weapons-related development 
activities judged necessary to produce a nuclear device. However, 
Iran's retention of documents and files from its pre-2004 nuclear 
weapons program raises serious questions regarding whether it intended 
to preserve the option to resume elements of a nuclear weapons program 
in the future. The legal question of Iran's compliance with its 
obligations under the NPT will be addressed in this year's Compliance 
Report, which is forthcoming.

    Question. Do you consider Iran a member in good standing of the 
NPT? If yes, please explain why. If no, please explain why.

    Answer. The legal question of Iran's compliance with its 
obligations under the NPT will be addressed in this year's Compliance 
Report, which is forthcoming.

    Question. Do you consider Iran to be entitled to benefit from 
nuclear technology pursuant to Article IV the NPT? If yes, please 
explain why. If no, please explain why.

    Answer. Article IV of the NPT recognizes the right of all the 
Parties to the Treaty to develop research, production and use of 
nuclear energy for peaceful purposes without discrimination and in 
conformity with Articles I and II of the Treaty. While Secretary Pompeo 
stated in his May 21, 2018 speech that Iran must stop uranium 
enrichment and never pursue plutonium reprocessing, the administration 
has not stated that Iran cannot enjoy the benefits of other peaceful 
applications of nuclear technology, for example, nuclear medicine.

    Question. Do you consider Iran to be entitled to benefit from 
nuclear technology for any reason? If yes, please explain why. If no, 
please explain why.

    Answer. In his speech on May 21, 2018, Secretary Pompeo stated that 
Iran must stop uranium enrichment and never pursue plutonium 
reprocessing. However, the administration has not stated that Iran 
cannot enjoy the benefits of other peaceful applications of nuclear 
technology, for example, nuclear medicine.



                               __________


            Responses to Additional Questions for the Record
        Submitted to James S. Gilmore by Senator Robert Menendez

    Question. The OSCE does a lot of good work, but it does not receive 
much attention in part because its deliberations in Vienna are not open 
to public observation, either physically or by being live-streamed on 
the internet. Will you continue, if not strengthen, U.S. advocacy of a 
more visible OSCE by seeking to make Permanent Council sessions open to 
public observation?

    Answer. If confirmed, I would support opening more OSCE meetings to 
the public and to the media in order to increase transparency and 
accountability and help counter disinformation and malign influence. 
The United States publicly releases its statements--in English and 
Russian--at the Permanent Council and many other OSCE fora, and I would 
continue this practice.
    I agree the OSCE's excellent work is not as widely known or 
appreciated as it should be. If confirmed, I would make it a priority 
to find and create opportunities to make the OSCE's contributions to 
human rights, prosperity, and security better known and understood at 
home and abroad. By improving public awareness of the OSCE's work, we 
can better hold all participating States accountable for meeting their 
commitments under the Helsinki Final Act.

    Question. Turkey has been at the forefront of efforts to restrict 
civil society participation in the Human Dimension Implementation 
Meeting organized by the OSCE- with Russia and several other countries 
encouraging a more restrictive approach.Will you ensure that civil 
society participation in Human Dimension Implementation Meeting is 
protected and maintained?

    Answer. If confirmed, I would oppose any attempts to restrict 
unduly NGO access and participation at OSCE events. The OSCE benefits 
from civil society's contributions to its discussions. I believe it 
would send the wrong signal to restrict NGO access and participation at 
a time when civil society is under increasing pressure in many 
countries in the OSCE region. Such restrictions would send the wrong 
signal to civil society, whose role we strongly support, and to 
repressive governments, which seek to obstruct their activities.

    Question. While the OSCE must remain focused on Russian aggression 
against its neighbors, particularly Ukraine, and growing restrictions 
on human rights and democratic development in the region, the OSCE has 
the bandwidth to focus on the whole scope of issues confronting Europe 
today. We hope the United States will support continued work to address 
xenophobia, anti-Semitism, Islamophobia, racism and intolerance in 
Europe. We also hope the OSCE will maintain an active presence in the 
Western Balkans and keep some attention focused on potential 
instabilities in the region, in particularly between Serbia and Kosovo 
but also within Bosnia and Herzegovina.How will you maintain focus on 
these issues?

    Answer. The OSCE provides a venue where the United States can 
address a broad range of issues throughout the OSCE region. If 
confirmed, I will continue to support U.S. officials speaking out 
publicly in OSCE fora to condemn and combat all forms of intolerance, 
including hate crimes, against members of ethnic, racial, and religious 
groups, LGBTI individuals, persons with disabilities, and members of 
other vulnerable populations. I will also support a strong OSCE 
presence in the Western Balkans, including through budgetary support 
and the secondment of U.S. personnel to these missions.

    Question. The United States can only be credible in raising human 
rights concerns in other countries if it is honest about the 
shortcomings it has at home. Rather than take a defensive approach to 
this issues, it is to our advantage to be proactive in raising them and 
acknowledging that current U.S. policies and practices are heavily 
debated. This includes our policy on immigration, the use of the death 
penalty, the continued operations of the detention center at Guantanamo 
Bay and, the conduct of elections. The U.S. Mission has also regularly 
reported on investigations of incidents involving law enforcement when 
civilians, particularly minorities, have been shot or injured.What will 
your approach be with respect to these concerns in the United States? 
Will you continue to share U.S. insights with OSCE Participating States 
via U.S. experts on these policy and social justice issues?

    Answer. If confirmed, I look forward to highlighting the United 
States' proud support of human rights, democracy, and rule of law at 
home and abroad, including our OSCE commitments. This includes 
promoting freedom of expression, including for members of the media, 
and encouraging public debate, even on sometimes controversial issues. 
I will support the continued participation of U.S. experts in OSCE 
events related to these policy and social justice issues.

    Question. For several years, Hungary has actively used the OSCE as 
forum for attacking Ukraine: reinforcing Moscow's misrepresentations of 
Ukraine's education law, complaining that Ukrainian troop movements are 
a threat to Hungary, parroting Russian Foreign Minister Lavrov's 
ministerial statements, and holding unprecedented public ``side 
events'' where Lavrov and the Hungarian foreign minister (Szijjarto) 
jointly hold court for the press.

   Will you work closely with Amb. Cornstein in Budapest, Amb. 
        Yovanovitch in Kyiv, and Amb. Hutchison at NATO to ensure that 
        the U.S. is speaking with one voice on these issues and 
        managing, to the extent possible, this dynamic with Hungary?

    Answer. If confirmed, I will work closely with our Ambassadors 
throughout the OSCE space. The United States values our relationship 
with Hungary and has attempted to set a new, positive tone for the 
U.S.-Hungary relationship. If confirmed, I will not be shy, however, 
about raising concerns with our Allies, including about Russian malign 
influence. U.S. officials regularly speak with their Hungarian 
counterparts about the importance of upholding democracy and promoting 
human rights and fundamental freedoms. At the OSCE, the United States 
has raised these issues, including at the annual Human Dimension 
Implementation Meeting.
    The United States encourages all Allies, including Hungary, to 
refrain from bringing bilateral disputes into multilateral fora. If 
confirmed, I will work closely with Ambassadors Cornstein, Yovanovitch, 
and Hutchison to encourage Hungary to remove its block of Ukraine's 
participation at high-level events at NATO and underscore to Hungarian 
authorities the strategic importance of the NATO-Ukraine relationship 
as well as the important role that the OSCE plays in Ukraine. At the 
same time, I would encourage Ukraine to take into account the concerns 
of the Hungarian minority community.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Throughout my career in public service, I have promoted 
human rights and democracy. After a series of heinous bombings of 
African American churches swept the United States in the early 1990s, I 
convened a summit of eight Southern Attorneys General, held at Howard 
University on July 2, 1996. I recruited L. Douglas Wilder, Virginia's 
first African American governor, and Elaine Jones, president of the 
NAACP Legal Defense and Educational Fund, to deliver the keynote 
speeches. During the summit, we heard from pastors and church members 
about their experiences and suggestions for solving the crimes. After 
the summit, the attacks stopped. In 1999, I proposed and signed into 
law Virginia's first stand-alone Martin Luther King Holiday. Until that 
date, Virginia had observed a combined Lee-Jackson-King Day that 
recognized Robert E. Lee, Stonewall Jackson, and Martin Luther King on 
the same day each year. But there was no doubt in my mind that Martin 
Luther King merited his own holiday to recognize his leadership as one 
of the United States' most important and influential advocates for 
civil rights. Later, my wife Roxane and I hosted a historic reception 
(2001) in the Governor's Mansion for Coretta Scott King and announced a 
technology partnership between Virginia and the King Center for 
Nonviolence. As governor, I also increased funding for two of 
Virginia's historically black universities, Norfolk State University 
and Virginia State University. I also proposed and funded a new 
African-American History Trail in Virginia and called upon the State 
Board of Education to include a more diverse range of historical 
figures in Virginia's Social Studies curriculum.
    If confirmed, I look forward to working with my colleagues across 
the administration, as well as Members of Congress, the Helsinki 
Commission, likeminded governments, and civil society, to advance human 
rights, fundamental freedoms, and democratic principles of government 
throughout the OSCE region.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations?

    Answer. Absolutely. U.S. officials meet regularly with members of 
civil society, human rights organizations, and other non-governmental 
organizations at OSCE events. If confirmed, I would continue this 
practice.

    Question. Will you advocate for access and inclusivity for women 
and minorities?

    Answer. The United States advocates for access and inclusivity for 
women and minorities within the OSCE organization and OSCE 
participating States. This commitment is reflected in U.S. statements 
at OSCE events, including the Ministerial Council, Permanent Council, 
and Human Dimension Implementation Meetings. If confirmed, I will 
continue this practice.

    Question. Will you actively engage with governments on freedom of 
the press and address any government efforts designed to control or 
undermine press freedom through legal, regulatory or other measures?

    Answer. If confirmed, I will support OSCE efforts on media freedom 
and safety of journalists. The United States regularly promotes these 
goals publicly and privately at the OSCE and through support for the 
OSCE's Representative on Freedom of the Media. The United States 
championed the adoption of the 2018 OSCE Ministerial Council Decision 
on Safety of Journalists, which calls on participating States to ``take 
effective measures to end impunity for crimes committed against 
journalists.'' I also recognize that violence is often targeted at 
women journalists.
    If confirmed, I will press participating States to implement their 
international legal obligations and OSCE commitments to uphold freedom 
of expression, whether it is exercised online or offline, including 
those relating to media freedom. I will call out governments for 
imposing undue restrictions on media freedom and for failing to hold 
accountable those responsible for crimes against journalists.

    Question. Will you actively engage with civil society and 
government counterparts on countering disinformation and propaganda 
disseminated by foreign state or non-state actors?

    Answer. If confirmed, I will support OSCE efforts to help expose 
and counter disinformation and malign propaganda from foreign state or 
non-state actors, including Russian malign influence efforts. The OSCE 
works with participating States to develop rule of law, independent 
media, democratic institutions, civil society, respect for human 
rights, energy security, and accountable governance. This work 
contributes to more secure, stable, and resilient societies that are 
better able to recognize and resist malign external influence and 
violent extremist voices.
    The OSCE is a forum for participating States to have a frank 
dialogue on the full range of security issues, including malign 
influence efforts they are experiencing. Exposure and frank discussion 
can help counter these campaigns that thrive on secrecy and 
disinformation. USOSCE regularly cooperates with U.S. embassies 
throughout the OSCE region and with Allies and partners to identify 
Russia's and others' malign influence efforts, counter disinformation, 
and refute Russian attempts to undermine democratic governments and 
transatlantic unity.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people, no matter their 
sexual orientation or gender identity?

    Answer. If confirmed, I will defend the human rights and dignity of 
all individuals, no matter their sexual orientation or gender identity. 
This includes having U.S. officials speaking out publicly in OSCE fora 
to condemn and combat intolerance, including intolerance against LGBTI 
individuals.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government?

    Answer. Yes, I agree with that statement. As Virginia's Attorney 
General and then Governor, I worked with people from both parties and 
all walks of life. My record reflects that. When I became Virginia's 
first Republican Attorney General in twelve years, I met with all 
employees to emphasize that they should continue serving the 
Commonwealth of Virginia. I valued their institutional knowledge, and I 
told them so. As Governor, I recruited a diverse group of people to 
serve in my Cabinet and as my advisors. Their diverse perspectives and 
backgrounds enhanced our effectiveness as we worked together to govern 
Virginia.If confirmed, I will work to prevent any attempts to target or 
retaliate against career employees on the basis of their perceived 
political beliefs, prior work on policy, or affiliation with a previous 
administration. I will also take allegations of such practices 
seriously and ensure they are referred to the Department's Inspector 
General. As a leader, I value the unique perspectives and ideas that 
people from diverse backgrounds contribute, and I commit to promoting 
inclusion at the U.S. Mission to the OSCE.

    Question. If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. I commit to comply with all relevant federal laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels. If confirmed, I will make it clear to the entire 
team at the U.S. Mission to the OSCE that I am committed to promoting a 
diverse and inclusive work environment. I will emphasize that 
retaliation, blacklisting, or other prohibited personnel practices will 
not be tolerated. I value the depth of knowledge and experience within 
the Foreign Service, the Department of State, and the U.S. government. 
I know that we will be most successful if people from diverse 
backgrounds are represented throughout the ranks of the mission. I will 
encourage supervisors to recruit, mentor, and support employees that 
reflect these values.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting?

   If so, please describe the nature of the complaint or allegation, 
        your response, and any resolution, including any settlements.

    Answer. I have never been subject to a formal or informal complaint 
or allegation of sexual harassment, discrimination, or inappropriate 
conduct in a workplace or any other setting. I commit to comply with 
all relevant federal laws, regulations, and rules, and to raise 
concerns that I may have through appropriate channels.



                               __________


            Responses to Additional Questions for the Record
      Submitted to James S. Gilmore by Senator Benjamin L. Cardin

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. I have never had to address concerns or allegations of 
sexual harassment, discrimination, or inappropriate conduct made 
against any employee over whom I had supervisory authority. I commit to 
comply with all relevant federal laws, regulations, and rules, and to 
raise concerns that I may have through appropriate channels.

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my career in public service, I have promoted 
human rights and democratic principles. After a series of heinous 
bombings of African-American churches swept the United States in the 
early 1990s, I convened a summit of eight Southern Attorneys General, 
held at Howard University on July 2, 1996. I recruited L. Douglas 
Wilder, Virginia's first African-American governor, and Elaine Jones, 
president of the NAACP Legal Defense and Educational Fund, to deliver 
the keynote speeches. During the summit, we heard from pastors and 
church members about their experiences and suggestions for solving the 
crimes. After the summit, the attacks stopped. In 1999, I proposed and 
signed into law Virginia's first stand-alone Martin Luther King 
Holiday. Until that date, Virginia had observed a combined Lee-Jackson-
King Day that recognized Robert E. Lee, Stonewall Jackson, and Martin 
Luther King on the same day each year. But there was no doubt in my 
mind that Martin Luther King merited his own holiday to recognize his 
leadership as one of the United States' most important and influential 
advocates for civil rights. Later, my wife Roxane and I hosted a 
historic reception (2001) in the Governor's Mansion for Coretta Scott 
King and announced a technology partnership between Virginia and the 
King Center for Nonviolence. As governor, I also increased funding for 
two of Virginia's historically black universities, Norfolk State 
University and Virginia State University. I also proposed and funded a 
new African-American History Trail in Virginia and called upon the 
State Board of Education to include a more diverse range of historical 
figures in Virginia's Social Studies curriculum.
    If confirmed, I look forward to working with my colleagues across 
the administration, as well as Members of Congress, the Helsinki 
Commission, like-minded governments, and civil society, to advance 
human rights, fundamental freedoms, and democratic principles of 
government throughout the OSCE region.

    Question. To counter the perception that this administration does 
not actively and consistently consider human rights and rarely speaks 
of democracy in its foreign policy, will you maintain the long-held 
U.S. view that human rights in other countries is a legitimate concern 
of our country and that we consider human rights and democracy part of 
a comprehensive definition of security?

    Answer. The promotion and defense of human rights and democracy 
overseas are key elements of U.S. foreign policy. As the U.S. 
representative to the OSCE, I would maintain this long-held position 
and would support the organization's comprehensive approach to 
security, which includes respect for human rights and fundamental 
freedoms as an essential component.

    Question. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. As Virginia's Attorney General and then Governor, I worked 
with people from both parties and all walks of life. If confirmed, I 
commit to recruit, promote, mentor, and support staff that come from 
diverse backgrounds in the Foreign Service. As a leader, I value the 
unique perspectives and ideas that people from diverse backgrounds 
contribute, and I commit to promoting inclusion at the U.S. Mission to 
the OSCE.

    Question. What steps will you take to ensure each of the 
supervisors in the Foreign Service are fostering an environment that is 
diverse and inclusive?

    Answer. If confirmed, I will make it clear to the entire team at 
the U.S. Mission to the OSCE that I am committed to promoting a diverse 
and inclusive work environment. I value the depth of knowledge and 
experience within the Foreign Service, and I know that we will be most 
successful if people from diverse backgrounds are represented 
throughout the ranks of the mission. I will encourage Foreign Service 
supervisors to recruit, mentor, and support employees that reflect 
these values.

    Question. Do you commit to bring to the committee's attention (and 
the Inspector General of the State Department and Foreign Service) any 
change in policy or U.S. actions that you suspect may be influenced by 
any of the President's business or financial interests, or the business 
or financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. My investment portfolio includes diversified exchange-
traded funds and diversified mutual funds, which may hold interests in 
companies with a presence abroad, but which are exempt from the 
conflict of interest laws. My investment portfolio also includes sector 
funds, which hold interests in companies with a presence abroad, as 
well as financial interests in companies that maintain a presence 
abroad. I am committed to ensuring that my official actions will not 
give rise to a conflict of interest. I will divest all investments the 
State Department Ethics Office deems necessary to avoid a conflict of 
interest, and I have committed to seek a waiver under the conflict-of-
interest statute with respect to an investment fund that I am unable to 
divest. I will remain vigilant with regard to my ethics obligations.

    Question. Can you commit to working with me on supporting the 
United States' continued work at the OSCE to address anti-Semitism, 
racism, and intolerance, including supporting extra-budgetary projects 
for Jewish, Muslim, Roma, Afro-Europeans, migrants, refugees, and other 
vulnerable communities and women?

    Answer. If confirmed, I look forward to working closely with you 
and other members of Congress to continue the United States' efforts to 
address anti-Semitism, racism, and other forms of intolerance through 
the OSCE. This includes, resource permitting, support of extra-
budgetary projects in these areas as well as our participation in OSCE 
events such as the Ministerial Council, Permanent Council, and Human 
Dimension Implementation Meetings.

    Question. Would you work with me on a joint event in the U.S. that 
focuses on all forms of intolerance in my capacity as OSCE PA Special 
Representative on Antisemitism, Racism, and Intolerance?

    Answer. If confirmed, I would support U.S. efforts to address anti-
Semitism, racism, and intolerance through the OSCE and would welcome 
the opportunity to work with you on a joint event in the United States 
on these issues.

    Question. If confirmed, will you be proactive regarding questions 
of the U.S. record of compliance with OSCE norms, by noting not only 
the administration position on these matters, but also issues heavily 
debated by Americans, such as official investigations and judicial 
proceedings regarding disproportionate police shootings of African-
Americans, Guantanamo bay, the death penalty, etc?

    Answer. If confirmed, I look forward to highlighting the United 
States' proud support of human rights, democracy, and rule of law at 
home and abroad, including our OSCE commitments. This includes 
promoting freedom of expression, including for members of the media, 
and encouraging public debate, even on sometimes controversial issues.

    Question. The OSCE does a lot of good work, but it does not receive 
much attention in part because its deliberations in Vienna are not open 
to public observation, either physically or by being live-streamed on 
the internet. Will you continue, if not strengthen, U.S. advocacy of a 
more visible OSCE by seeking to make Permanent Council sessions open to 
public observation?

    Answer. If confirmed, I would support opening more OSCE meetings to 
the public and to the media in order to increase transparency and 
accountability and help counter disinformation and malign influence. 
The United States publicly releases its statements--in English and 
Russian--at the Permanent Council and many other OSCE fora, and I would 
continue this practice.
    I agree the OSCE's excellent work is not as widely known or 
appreciated as it should be. If confirmed, I would make it a priority 
to find and create opportunities to make the OSCE's contributions to 
human rights, prosperity, and security better known and understood at 
home and abroad. By improving public awareness of the OSCE's work, we 
can better hold all participating States accountable for meeting their 
commitments under the Helsinki Final Act.

    Question. For several years, Hungary has actively used the OSCE as 
forum for attacking Ukraine: reinforcing Moscow's misrepresentations of 
Ukraine's education law, complaining that Ukrainian troop movements are 
a threat to Hungary, parroting Russian Foreign Minister Lavrov's 
ministerial statements, and holding unprecedented public ``side 
events'' where Lavrov and the Hungarian foreign minister (Szijjarto) 
jointly hold court for the press. Will you work closely with Ambassador 
Cornstein in Budapest, Ambassador Yovanovitch in Kyiv, and Ambassador 
Hutchison at NATO to ensure that the United States manages, to the 
extent possible, the Hungarian Trojan Horse within the alliance?

    Answer. If confirmed, I will work closely with our Ambassadors 
throughout the OSCE space. The United States values our relationship 
with Hungary and has attempted to set a new, positive tone for the 
U.S.-Hungary relationship. If confirmed, I will not be shy, however, 
about raising concerns with our Allies, including about Russian malign 
influence. U.S. officials regularly speak with their Hungarian 
counterparts about the importance of upholding democracy and promoting 
human rights and fundamental freedoms. At the OSCE, the United States 
has raised these issues, including at the annual Human Dimension 
Implementation Meeting.
    The United States encourages all Allies, including Hungary, to 
refrain from bringing bilateral disputes into multilateral fora. If 
confirmed, I will work closely with Ambassadors Cornstein, Yovanovitch, 
and Hutchison to encourage Hungary to remove its block of Ukraine's 
participation in high-level events at NATO and underscore to Hungarian 
authorities the strategic importance of the NATO-Ukraine relationship 
as well as the important role that the OSCE plays in Ukraine. At the 
same time, I would encourage Ukraine to take into account the concerns 
of the Hungarian minority community.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Alan R. Swendiman by Senator Robert Menendez

Sexual Assault
    Question.  What additional work is necessary to advance Peace 
Corps' Sexual Assault Risk-Reduction and Response Program?

    Answer. As the dynamics of sexual assault prevention and response 
continues to evolve, the Peace Corps remains committed to staying aware 
of developments and leading the field in developing and incorporating 
best practices wherever possible. The agency appreciates the ongoing 
guidance received from the Sexual Assault Advisory Council as well as 
the Peace Corps' own internal subject matter experts and other 
partners. The Peace Corps is committed to the continuous evaluation of 
Volunteer- and staff-facing trainings, an on-going review of policies 
and response protocols, and the continued strengthening of risk 
reduction strategies.

    Question.  How will you approach redefining the Peace Corps culture 
to be a trauma-informed organization, specifically as it relates to 
sexual assault?

    Answer. All Peace Corps staff, both domestic and overseas, receive 
training on sexual assault response, including a focus on trauma 
informed care. Additionally, all staff who work directly with 
Volunteers who report sexual assault receive ongoing specialized 
training on trauma informed support. This fall, the Peace Corps will 
formally train select staff in Forensic Experiential Trauma Interview 
(FETI) methodologies. In addition, Peace Corps actively networks with 
other federal and non-government agencies to discuss best practices in 
applying trauma informed principles to the organizational and systems 
levels. The agency will continue to review and refine its policies, 
trainings, and protocols to ensure incorporation of these principles.

    Question.  Understanding that you are committed to establishing a 
culture of safety within the Peace Corps, how should the Peace Corps 
respond to Peace Corps Volunteer reports of living or working in 
hostile environments where they are experiencing physical, mental, or 
sexual abuse or harassment?

    Answer. First, and foremost, the Peace Corps treats all incidents 
reported by Volunteers as serious, by providing robust responses to 
such incidents. Responding to incidents, however, is only part of the 
agency's efforts. The Peace Corps begins with thorough risk assessments 
of proposed operational areas where Volunteers are placed, screens and 
reviews host families and counterparts, selects Volunteer housing and 
work sites based on established safety and security standards, and 
regularly reaches out to Volunteers with regard to their well-being. 
When incidents do occur, the Peace Corps responds immediately to 
reported incidents, prioritizing the immediate safety of Volunteers, 
invoking all necessary safety, security and medical protocols. 
Immediate responses are followed up with site specific security 
assessments to identify any residual risks to the well-being of 
Volunteers. When the Peace Corps identifies risks to a Volunteer's well 
being that cannot be mitigated, it will remove them from a site and 
seek a more suitable location for them to continue their service. And, 
finally, problematic sites are documented through the agency's site-
history files, to prevent future placements in unsafe environments. 
Throughout this process, the Volunteer's voice is a significant driver 
in how the agency responds.

Diversity
    Question.  While the Peace Corps has done an admirable job to 
improve the diversity of its recruits, including increasing recruitment 
at Historically Black Colleges and Universities, what steps do you 
think the Peace Corps must take to reduce attrition among the recruits 
who are accepted who ultimately decide not to take their Peace Corps 
assignment?

    Answer. The Peace Corps' Diversity Recruitment team understands the 
value and need of engaging and supporting candidates from Historically 
Black Colleges and Universities (HBCUs) throughout the application 
process. Peace Corps Office of Volunteer Recruitment and Selection 
(VRS) regularly connects with candidates on HBCU campuses, and notes 
opportunities to combat attrition. Most HBCU candidates, after being 
invited to serve in the Peace Corps, begin to inquire about the 
experiences they may encounter in service related to their identity. 
This is an important part of the evaluation process for students of 
color. A continued investment in Peace Corps' University Programs at 
HBCUs and additional recruitment resources could enable the agency to 
better support candidates as they move through the application process. 
VRS in collaboration with the Office of Third Goal, may also seek to 
create more formal networks or systems to connect with and support the 
inquiries of diverse applicants/invitees. However, it should be noted 
that a recent analysis of our latest survey data did not show a 
measurable increase in the dropout rate for diverse recruits.

    Question.  What do you believe are the barriers most accepted 
volunteers who opt out of accepting a volunteer assignment, or drop out 
somewhere along the application and acceptance process, and what should 
the Peace Corps do to alleviate these barriers of entry into the Peace 
Corps?

    Answer. In many communities in America, the Peace Corps' brand and 
value are still being established. While the messaging of altruism 
resonates, the landscape for local and global service opportunities 
have changed. Churches, multicultural fraternities and sororities, and 
campus groups now offer short-term global service experiences. These 
short term, low opportunity cost options can seem more attainable in 
comparison to the approximate two-year Peace Corps commitment. 
Uncertainty surrounding the value of service as it relates to career 
development or job placement is also a barrier. VRS could work closer 
with other Peace Corps entities to determine how best to address these 
and other barriers to Peace Corps service.

Healthcare
    Question.  Will you commit to working with the Department of Labor 
to improve the handling and dispensation of healthcare benefits to 
return volunteers, especially to those return volunteers who become 
disabled as a result of their service?

    Answer. Yes. The Peace Corps has increased its collaboration with 
the Department of Labor (DOL), Office of Workers' Compensation Programs 
(OWCP) to improve access to and delivery of Federal Employees' 
Compensation Act (FECA) benefits to Returned Peace Corps Volunteers 
(RPCV). In addition, the Farr-Castle Peace Corps Reform Act of 2018 
states that the Department of Labor (DOL) shall authorize the Director 
of the Peace Corps to furnish medical benefits to a Volunteer, who is 
injured during the Volunteer's period of service, for a period of 120 
days following the termination of such service if the Director 
certifies that the Volunteer's injury probably meets the requirements 
listed in the Act. The agency's Post Service Unit in the Office of 
Health Services has been proactively working with DOL to ensure this 
requirement is met and to put in place a smoother transition to FECA 
for Volunteers who have left service.

    Question.  Many returned Volunteers with service-related illnesses 
or injuries that are not caused by violence or criminal activity have 
stated that they don't have an advocate or network from the agency to 
speak on their behalf and ensure they get the health care and support 
they deserve. How can the Peace Corps improve this situation?

    Answer. The Peace Corps has conducted extensive analysis of post-
service Volunteer healthcare issues, and collaborated with DOL to 
create solutions to address concerns of RPCVs' claims under FECA. The 
Peace Corps has established a strong working relationship with DOL to 
improve FECA communication and streamline processes. The Peace Corps 
Office of Health Services, Manager, Post-Service Unit has been provided 
a specific DOL liaison to contact for unresolved medical issues 
impacting returned Volunteers.

    Question.  What do you envision to be the next key steps to 
ensuring Peace Corps' commitment to volunteer, and return volunteer, 
health and safety?

    Answer. Key steps include continued collaboration with DOL to 
develop and fine tune processes for the implementation of the Sam Farr 
and Nick Castle Peace Corps Reform Act of 2018.

Human Rights
    Question.  What would you do to strengthen Peace Corps' influence 
and ability to advance Human Rights?

    Answer. The mission of the Peace Corps is to promote world peace 
and friendship through its statutorily mandated three goals:
   To help peoples of countries where Volunteers serve in meeting 
        their needs for trained manpower, particularly the basic needs 
        of those living in the poorest areas of such countries;
   To promote a better understanding of the American people on the 
        part of the peoples served; and
   To promote a better understanding of other peoples on the part of 
        the American people.

    Peace Corps pursues its mission and goals through a wide variety of 
programs across various sectors including education, health, youth, 
environment, agriculture, and community economic development. In the 
context of these sector focuses, the Peace Corps Act further directs 
the administration of its programs to give particular attention to 
integrating women and persons with disabilities into the economies of 
developing countries.
    As Deputy Director, I will work vigorously to advance the agency's 
mission and goals, thereby contributing to human dignity and the rights 
of peoples served.

    Question.  What will you do to expand basic human rights for LGBT 
people?

    Answer. The Peace Corps assigns LGBT Volunteers overseas and 
assigns same-sex couples where legal, security and other relevant 
factors permit. As Deputy Director, I will support and advance these 
efforts. In addition, the Peace Corps has strong non-discrimination 
policies in place for LGBT staff in the workforce. LGBT employees also 
have an Employee Resource Group at the agency. As Deputy Director, I 
will ensure that the rights of LGBT staff at the Peace Corps continue 
to be enjoyed and protected.

    Question.  As a possible official of the Trump administration, will 
you condemn and oppose policies and practices that are derogatory and 
discriminatory on the basis of race, religion, nationality, gender, 
sexual orientation, or gender identity?

    Answer. As Deputy Director, I will work to ensure that all laws and 
policies affording protections to protected classes of individuals are 
upheld and enforced, and I will work to condemn and oppose any policies 
or practices that are discriminatory.

    Question.  What will you do to ensure that statements by the Trump 
campaign and transition teams that are racist, xenophobic, 
misogynistic, or otherwise denigrate human rights and support abuses, 
will not become government policy?

    Answer. As Deputy Director, I will be committed to carrying out and 
enforcing all applicable laws and policies extending protections to 
protected classes of persons. I will work to ensure that diversity at 
the Peace Corps continues to advance and is protected.

    Question.  Will you uphold the rights of all persons to equality 
and freedom from discrimination, and call on Americans to refrain from 
discrimination of any sort?

    Answer. As Deputy Director, I will uphold and seek to enforce all 
applicable laws and policies promoting equality and protecting persons 
from discrimination and, in carrying out the mission and authorities of 
the Peace Corps, I will voice support for such laws and policies.

Five-Year Rule
    Question.  The Peace Corps' five-year rule has its positive and 
negative aspects. One negative is the cost attributed to high turnover. 
According to the 2017 CRS' ``The Peace Corps: Current Issues,'' 
``Negative features of the five-year rule largely derive from the 
higher turnover and short tenure of staff. Instead of a turnover of 20 
percent each year, implied by the five-year rule, the actual rate is 
much higher-25 percent to 33 percent each year since 2004 according to 
the OIG, quadruple that of the rest of the federal government. The 
average length of service is three years.'' A 2012 report by the 
agency's OIG noted that ``costs strictly attributable to five-year rule 
turnover estimated by the OIG to be between $12.6 million and $15.5 
million in the period 2005 through 2009.''

   Considering the steep costs attributed to the five-year rule, do 
        you think the Peace Corps should pursue eliminating it, or 
        extending to other personnel those exempt from it, in order to 
        save costs, especially in the face of level or decreased 
        funding?

    Answer. I am aware that the Sam Farr and Nick Castle Peace Corps 
Reform Act of 2018 authorizes the Director to designate positions as 
critical management or management support positions that require 
specialized technical and professional skills and knowledge of Peace 
Corps operations. Positions so designated would be eligible for 
renewable five year term appointments beyond standard time limits 
imposed by the Peace Corps Act. As Deputy Director, I would work 
closely with the Director, the Chief Human Capital Officer, the Chief 
of Staff, and other relevant offices and stakeholders to assess the 
impact of the five-year rule and possible options under this new 
authority.
    The 2017 CRS link referenced above was updated on October 12, 2018, 
just three days after the Sam Farr and Nick Castle Peace Corps Reform 
Act of 2018 was signed into law. This Act gives the Director authority 
to designate positions as critical management or management support 
positions that require specialized technical or professional skills and 
knowledge of Peace Corps operations. Once designated, these positions 
are eligible for renewable five year appointments. Due to this 
language, I do not think the Peace Corps should pursue eliminating the 
five-year rule, rather it should take a thoughtful approach to 
implementing this new authority.

    Question.  How might the Peace Corps mitigate the negative impacts 
of the five-year rule?

    Answer. As Deputy Director, I would work closely with the Director, 
the Chief Human Capital Officer, Chief of Staff, and other relevant 
officers and stakeholders to assess and understand the impacts of the 
five-year rule and possible options under available authorities to 
mitigate any such impacts.

Let Girls Learn
    Question.  There is a lack of clarity as to the administration's 
stance on Let Girls Learn. Last year the Peace Corps stated: ``We have 
not received any guidance from the administration about the future of 
the [Let Girls Learn] program. We continue our focus on girls' 
education and empowerment, as we always have.''

   Can you describe the work you believe Peace Corps can and should be 
        doing to promote girls' education in host countries where Peace 
        Corps has missions?

    Answer. Since 1961, the Peace Corps has had a strong focus on 
girls' education and empowerment and will continue to do so going 
forward. The agency's work across six sectors, Agriculture, Community 
Economic Development, Education, Environment, Health, and Youth 
Development integrates and embeds considerations aimed at maximizing 
opportunities for girls and young women that includes meaningful 
participation and leadership in the classroom as well as in the broader 
community. It is through this approach that the agency will continue to 
build on its historic commitment to girls' empowerment and leverage the 
work done during LGL.

    Question.  Will you commit to making girls' education a priority 
among Peace Corps' youth and child education missions?

    Answer. Girls' and youth education have been and will remain a 
priority for the Peace Corps. As Deputy Director, I will support the 
agency's exceptional work in this space, including the agency's 
participation in the READ Act passed by Congress in 2017

Democracy
    Question.  What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. As General Counsel of the U.S. Agency for International 
Development (USAID), I was engaged in matters of civil society in 
Ukraine which included working with groups such as the American Bar 
Association on issues of rule of law, judicial ethics and accreditation 
of law institutions. I was a member of the U.S. delegation to a world 
HIV/AIDS conference in Kampala, Uganda assessing the effectiveness of 
the President's Emergency Plan for AIDS Relief (PEPFAR). This work 
continues to have an impact.

    Question.  If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society?

    Answer. As a continuation of the work I undertook at USAID, I will 
meet with civil society members, human rights and other non-
governmental organizations (NGOs).

    Question.  Will you advocate for access and inclusivity for women 
and minorities?

    Answer. The Peace Corps supports a culture of inclusion that builds 
on the strengths of the diversity of this country and of the countries 
where Volunteers serve. In support of the Director's priorities, I will 
work to ensure that the Peace Corps continues to reflect the diverse 
population of the United States.

    Question.  Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people, no matter their 
sexual orientation or gender identity?

    Answer. I am committed to upholding and supporting all anti-
discrimination laws, regulations and policies.

Administrative
    Question.  Do you agree that any targeting of or retaliation 
against career employees based on their perceived political beliefs, 
prior work on policy, or affiliation with a previous administration, is 
wholly inappropriate and has no place in the federal government? If 
confirmed, what will you do to ensure that all employees under your 
leadership understand that any retaliation, blacklisting, or other 
prohibited personnel practices will not be tolerated?

    Answer. I am committed to upholding and enforcing in the workplace 
all of the laws to prevent prohibited personnel practices set forth in 
5 USC Sec. 2302. The Peace Corps Office of General Counsel works 
annually with the U.S. Office of Special Counsel (OSC) to provide all 
employee notifications and training required by law including annual 
supervisory training on prohibited personnel practices and how to 
respond to complaints involving whistleblowers consistent with 5 U.S.C. 
Sec. 2302(c), the Dr. Chris Kirkpatrick Whistleblower Protection Act, 
and the Office of Special Counsel Reauthorization Act of 2017. The OSC 
provided its annual supervisory training to the agency on April 1.

    Question.  Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. During my tenure as a career employee at the Department of 
Homeland Security/Immigration and Customs Enforcement, I submitted 
witness affidavits in three EEO cases that were filed against the 
agency. I do not know the disposition of the claims.

    Question.  Have you ever addressed concerns or allegations of 
sexual harassment, discrimination (e.g., racial, ethnic, religious, 
etc.), or inappropriate conduct made against any employee over whom you 
had supervisory authority? If so, please describe the outcome and 
actions taken.

    Answer. During my tenure as a career employee at the Department of 
Homeland Security/Immigration and Customs Enforcement, I submitted 
witness affidavits in three EEO cases that were filed against the 
agency. I do not know the disposition of the claims.

                               __________


            Responses to Additional Questions for the Record
      Submitted to Alan R. Swendiman by Senator Benjamin L. Cardin

Human Rights
    Question.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As General Counsel of the U.S. Agency for International 
Development (USAID), I was engaged in matters of civil society in 
Ukraine, which included working with groups such as the American Bar 
Association on issues of rule of law, judicial ethics and accreditation 
of law institutions. I was also a member of the U.S. delegation to a 
global HIV/AIDS implementers' conference in Kampala, Uganda, assessing 
the effectiveness of the President's Emergency Plan for AIDS Relief 
(PEPFAR). This work has had a lasting impact.

Diversity
    Question.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. As the Peace Corps' Deputy Director, I will work closely 
with the Director and the Office of Human Resources to assist the 
agency in recruiting the best and brightest U.S. citizens from all 
walks of life to serve as Peace Corps employees. I previously served as 
Chief Human Capital Officer with the Department of Homeland Security 
and understand the importance of recruiting and retaining a diverse 
workforce that represents the American public. I will also work closely 
with the agency's more than 10 individual Employee Resource Groups 
(ERGs), which include African Americans, Asian Americans, Hispanic 
Americans, Women, and LGBTQ employees.

    Question.  What steps will you take to ensure each of the 
supervisors in the Foreign Service are fostering an environment that is 
diverse and inclusive?

    Answer. I plan to work with the Director to continue the work she 
started this year to elevate among supervisors and staff the importance 
of diversity and inclusion in the workplace and will support all 
efforts to expand training and professional development activities, 
such as Unconscious Bias training for Hiring Managers and enhanced 
training for supervisors, to ensure the managers of the agency 
understand the responsibility of creating a fair and equitable 
workplace for all employees.

Conflicts of Interest
    Question.  Do you commit to bring to the committee's attention (and 
the Inspector General of the State Department and Foreign Service) any 
change in policy or U.S. actions that you suspect may be influenced by 
any of the President's business or financial interests, or the business 
or financial interests of any senior White House staff?

    Answer. The Peace Corps is an independent agency within the federal 
government with its own Office of Inspector General. If confirmed as 
Deputy Director of the Peace Corps, I commit to reporting to 
appropriate authorities any possible violations of law or policy 
falling within the jurisdiction of the Deputy Director's office and 
authority and to upholding the statutory oath of the office.

    Question.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed as Deputy Director of the Peace Corps, I 
commit to reporting to appropriate authorities any possible violations 
of law or policy falling within the jurisdiction of the Deputy 
Director's office and authority and to upholding the statutory oath of 
the office.

    Question.  Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. I own some publicly traded mutual funds that have a small 
holding in foreign companies. They have been reported, as required, on 
the nominee public financial disclosure report.

Comprehensive Assessment and Peace Corps Reform
    Question.  The 2010 Comprehensive Assessment Report provided the 
blueprint for a series of reforms that were implemented over the 
following six years. How would you judge the success of those reforms?

    Answer. As a result of the 2010 Comprehensive Agency Assessment, 
the Peace Corps established systems and processes that have become 
institutionalized. The reforms and changes have been a success. The 
agency continues to build on the recommendations from the 2010 
assessment, and many of them formed the foundation for new business 
processes in both domestic and overseas operations.
    Examples include:

   The Country Portfolio Review process that has become the 
        cornerstone of the assessment and review process for overseas 
        posts.
   A streamlined application portal that provides prospective 
        Volunteers with more information, a shorter application 
        process, and more choice in assignments. This has resulted in 
        record application numbers and an applicant pool that reflects 
        the diversity of the American public.

    Question.  Would you support the undertaking of a new comprehensive 
assessment of Peace Corps operations?

    Answer. The Peace Corps undertakes a strategic planning process 
every four years to lay out long-term goals and objectives designed to 
advance the Peace Corps mission. The annual performance plan identifies 
the strategies to accomplish these goals and objectives, as well as the 
specific results the agency expects to achieve. I fully support this 
process.

Health and Safety
    Question.  In the past decade, the safety of volunteers has become 
an issue of significant congressional concern. What are the most 
important and effective steps taken by the Peace Corps in recent years 
to enhance the safety of volunteers?

    Answer. The effort of the Peace Corps to improve its ability to 
identify and mitigate risk to its Volunteers and general operations are 
ongoing. The agency can point to three distinct developments in the 
last five years that it believes have significantly improved Volunteer 
safety and security:

   The agency has recalibrated its approach to training Volunteers in 
        safety and security. Through guided development of individual, 
        personal safety plans, maintained throughout their service, the 
        Peace Corps prepares and empowers its Volunteers to identify 
        and mitigate risks.
   The agency has prioritized the training of its safety and security 
        professionals. Over the past three years, the agency has 
        invested in high-quality training in areas such as risk 
        assessment and management and conducting investigations. The 
        next series of security trainings for security personnel will 
        occur this fall.
   The Peace Corps has developed new and more sophisticated tools that 
        have enhanced its ability to identify and manage risk at the 
        country level. In 2018, the agency overhauled its country 
        assessment tool and associated procedures, which provide 
        country teams with a more nuanced view of potential risk.

    Question.  Are the provisions in the 2018 Peace Corps Reform Act 
aimed at improving volunteer access to health care sufficient?

    Answer. Yes. The provisions of the 2018 Peace Corps Reform Act are 
aimed at improving access to Volunteer health care through recruitment 
and retention of well-qualified medical staff, routine clinical 
oversight to ensure and maintain compliance with all relevant Peace 
Corps policies, practices and guidelines, and to expedite eligibility 
for coverage following service. These statutory requirements are now in 
the process of being implemented.

    Question.  How does Peace Corps respond to criminal acts 
perpetrated on volunteers?

    Answer. The Peace Corps' response to criminal acts perpetrated 
against Volunteers has three distinct phases: notification, response, 
and follow-up support. Through in-country staff emergency contact 
lists, duty officer systems, emergency numbers for local authorities 
and members of their communities, Volunteers have multiple ways to 
reach out for help. Once notified, Peace Corps country team members 
mobilize the necessary resources to attend to any immediate threats to 
the safety or health of a Volunteer--from deployment of Peace Corps 
safety and security managers and medical officers to local police and 
U.S. Embassy Regional Security Officers, the country team mobilizes all 
necessary personnel. With guidance and support from Peace Corps 
security experts in investigations and legal counsel, country teams 
will also work with Volunteers to navigate the local legal system 
should they wish to pursue charges against their alleged assailants.

Country Presence
    Question.  Currently, the Peace Corps has a presence in 65 
countries. In the last decade, more than 20 countries have asked for a 
Peace Corps program to be established. Do you believe that the Peace 
Corps should open programs in all of these countries?

    Answer. The Peace Corps conducts an annual Country Portfolio Review 
process that includes a comprehensive review of potential new country 
entries or reentries. I fully support this process.

    Question.  What would be your criteria for establishing new 
programs?

    Answer. Through the annual Country Portfolio Review process the 
Peace Corps undertakes a comprehensive review of internal and external 
data points in six major priority areas to determine whether or not to 
open new programs in countries that invite the agency:

   Safety and security,
   Medical care,
   Host country need and U.S. strategic interest,
   Host country commitment and engagement,
   Programmatic impact, and
   Post management and costs.

    Answer. I fully support the review process, which is evidence-
based, rigorous, and transparent.

    Question.  What should be the principal criteria for a decision to 
close existing programs?

    Answer. The agency reviews the criteria mentioned above for non-
emergency closures of programs, which are very rare. In other cases, 
circumstances beyond the Peace Corps' control, such as political 
unrest, natural disasters, or an insecure work environment, warrant the 
closing of a country program.

Returned Peace Corps Volunteers
    Question.  Do you believe that returned volunteers receive 
sufficient post-service benefits, such as student loan forgiveness, 
career assistance, and educational support?

    Answer. Yes. The Peace Corps Office of Third Goal initiates a 
program a few months prior to the end of Peace Corps Volunteer's 
service, which begins to increase awareness about the types of 
assistance available and what steps a Volunteer can take in preparation 
for leaving service. This includes a series of email notifications that 
the Peace Corps sends to each Volunteer, which is complemented and 
reinforced at a Close of Service (COS) Conference. The COS Conference 
is provided for each Volunteer approximately three months prior to 
finishing service. Some of the topics covered include non-competitive 
eligibility within the federal government and the Paul D. Coverdell 
Fellows program-a graduate degree program available at more than 100 
colleges or universities across the United States offering professional 
internships and some financial assistance.

    Question.  Are returned volunteers well-utilized by the Peace Corps 
for promoting its third goal programs?

    Answer. The Peace Corps has numerous Returned Peace Corps 
Volunteers (RPCVs) working as staff at all levels of the agency. In 
addition, the Peace Corps Office of Third Goal and other Peace Corps 
offices work in conjunction with the National Peace Corps Association 
(NPCA) and many of their 200 affiliate groups around the country. The 
Peace Corps Director has also made a priority of collecting and 
publicly amplifying examples of RPCV engagement in the U.S. and abroad.



                               __________



                              NOMINATIONS

                              ----------                              


                        THURSDAY, APRIL 11, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:33 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Ron Johnson, 
presiding.
    Present: Senators Johnson [presiding], Gardner, Portman, 
Young, Menendez, Shaheen, and Kaine.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Good afternoon. This hearing will come to 
order.
    I want to welcome the nominees. Thank you for your past 
service, for your willingness to serve in the future 
representing our nation to North Macedonia, Ireland, and to 
Turkey, three, from my standpoint, pretty important posts at 
this point in time.
    I know you have family and friends. I want to encourage you 
all in your opening statement to recognize and introduce your 
family and friends.
    We have two distinguished Senators from Ohio that are here 
to introduce Mr. Crawford. So I think without any further ado, 
why do we not do that so you can move on with your day as well. 
So I will start with Senator Portman.

                STATEMENT OF HON. ROB PORTMAN, 
                     U.S. SENATOR FROM OHIO

    Senator Portman. Well, thank you, Chairman Johnson and 
Ranking Member Shaheen, and Senator Menendez, for holding the 
hearing today. And as you say, we have got some vitally 
important roles to be filled, and one is Ireland.
    Along with my colleague, Senator Brown, it is my honor to 
introduce Ed Crawford as the nominee to serve as Ambassador to 
Ireland. I am happy to see that Mary is with us today too, his 
wife and his son and daughter-in-law and grandchildren.
    I know Ed from his business work and civic participation 
from many years of interacting with him, but when I really got 
to know him well was in 2014 when I was asked to introduce him 
at a Mayo Society event. Every year, they choose a person of 
the year, and it is always somebody from the County of Mayo. In 
this case, they made a slight exception because of Ed 
Crawford's incredible commitment to Ireland, and that was 
special.
    And at that event, which was well attended by the Irish 
American community in Cleveland, I had the honor of co-
introducing Ed Crawford along with a young man named Colin, who 
is his grandson who is with us today. He was about 3 feet 
shorter then, but he was the same Colin. So I am glad that 
Colin Crawford is with us here today too.
    Mr. Chairman, you look at Ed's biography. He has been 
President, CEO, or Director of so many successful companies, 
philanthropic organizations. He has worked tirelessly to 
improve his community not just by building his business from 
the ground up, but also being very involved in the community 
and again providing great jobs for the people of Cleveland.
    He is very proud of his Irish American heritage, as you 
might imagine, having gotten the Mayo Society award. He has 
been involved with that. It was said in 2016 that there were 
about 32 million Americans who claimed Irish heritage. I think 
half of them are in Cleveland, Ohio, and I think Ed knows most 
of them. He is really active in Irish American civic groups, 
was the driving force behind the Irish Garden Club of 
Cleveland, which is dedicated to preserving the magnificent 
Irish Cultural Garden, which some of you may have seen when you 
visited Cleveland. Ed was a founding member and served as its 
President. These affiliations represent just a small portion of 
his charitable work. So he has been so involved in the 
betterment of Cleveland and the people of Ohio and has a track 
record to prove it.
    He is highly qualified. I am confident he is the right 
person to serve as our Ambassador to Ireland. But even more 
importantly, the Irish want him and they are eager to get him 
there.
    In addition to his deep love of the country, he has got a 
keen business background I think that will be helpful in 
maintaining and deepening our economic relationships with 
Ireland in what could be some challenging times ahead. Brexit 
or no Brexit, it is going to be challenging, but if there is 
Brexit, Ireland will play a bigger and bigger role for the 
United States in so many respects, including in our economic 
relationship with Europe. It has got a dynamic, diverse economy 
already. We are their number one source of foreign direct 
investment, the United States of America. We are second in 
terms of our export goods. So Ireland and the United States 
have so many close economic ties, and as we navigate the 
challenges again associated with the future, I am glad that 
someone of his acumen and relationship with the President has 
the opportunity to be in that ambassadorial role, should he be 
confirmed.
    There is a great deal to be said about the role of personal 
relationships in international diplomacy. I have certainly seen 
that in my experience, and I will tell you Ed Crawford also has 
the natural Irish gift of gab, maybe I should say. He gets 
along with people, having kissed the Blarney Stone a time or 
two in his travels. He will be instantly respected by the Irish 
both for his background and intellect but also his love of the 
country and embracing the Irish, as he does.
    So, again, I urge my colleagues to support this nomination 
here in the committee and on the Senate floor. And I am pleased 
that he is willing to step up and serve his country.
    Senator Johnson. Thank you, Senator Portman.
    Senator Brown?

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Chairman Johnson, Ranking Member 
Shaheen, and Senator Menendez. Thank you. It is my pleasure to 
join my friend Rob Portman today to introduce a fellow 
Clevelander, Ed Crawford, and also Mary and Matt at today's 
hearing to discuss his nomination to be Ambassador to the 
Republic of Ireland.
    For 200 years, Irish Americans have been an integral part 
of the fabric of my home city of Cleveland. Ed's grandparents 
came from County Cork to the United States. Like so many 
immigrants, the Irish came for freedom, for safety from 
political oppression and from hunger. They came for opportunity 
for themselves, for their children, for their children's 
children. We should remember that some resented and opposed the 
arrival of Irish immigrants. Some politicians proclaimed that 
our country was full. Those naysayers were wrong then. Those 
naysayers are wrong today.
    Cleveland and the State of Ohio and our nation benefited 
and prospered because of the industry, the initiative, and the 
faith brought by Irish immigrants. Mr. Crawford's life makes 
clear the Irish in Cleveland often succeeded beyond their 
wildest dreams. The first Irish immigrants who came to the city 
were mostly men who worked on the Erie Canal. They found work 
on the city's docks and on the canals traveling between 
Cleveland and Akron. They built families and prosperous lives 
on the east and west sides of Cleveland. They established civic 
organizations that fostered a sense of civic purpose and of 
community.
    Ed carried on that proud tradition. He has been an integral 
part of Cleveland's Irish American community in founding the 
Irish Garden Club and devoting time and energy towards the 
Irish Cultural Garden, one of the great places to visit in our 
great city.
    It is fitting we are holding Ed's hearing today, the day 
after the 20th anniversary of the Good Friday Agreement. 
Everyone in this room knows how important that agreement was 
and is to the peace and prosperity of everyone in Northern 
Ireland and Ireland. Today it is more important than ever that 
we have a thoughtful, skilled Ambassador in Dublin to negotiate 
the intricacies of our two countries' relationship, especially 
with the UK poised to leave the European Union.
    We appreciate, Ed, your willingness to serve. Thank you. I 
am always glad when a Clevelander steps up and answers the call 
to service.
    Thank you.
    Senator Johnson. Thank you, Senator Brown and Senator 
Portman.
    As our former chairman used to say, you are welcome to stay 
but just not sitting there.
    [Laughter.]
    Senator Johnson. With that, I will turn it over to Ranking 
Member Senator Shaheen.

               STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Well, thank you, Mr. Chairman.
    In the interest of time, I will also submit my opening 
statement for the record.
    But I would like to echo your comments about the importance 
of the three countries that these ambassadorial nominees have 
been asked to serve, not just Ireland and Turkey, which have 
been allies of the United States, but certainly North 
Macedonia, given the recent agreement with Greece, is on a 
trajectory which we hope will bring an end to both NATO and the 
European Union.
    So thank you all very much. Welcome to you and your 
families. And I look forward to hearing your statements.
    [Senator Shaheen's prepared statement follows:]


               Prepared Statement of Hon. Jeanne Shaheen

    Thank you, Mr. Chairman, and thank you to the nominees before us 
today.
    Ms. Byrnes, Mr. Crawford, Mr. Satterfield, each of the respective 
countries you have been nominated to serve in are at the helm of 
crucial U.S. foreign policy priorities.
    Ms. Byrnes, given your previous experience in Greece, you are well 
aware of the strategic relevance of incorporating North Macedonia into 
NATO and the EU and the hard-fought path that both Greece and now, 
North Macedonia, have traveled to get to where we are today.
    In addition to my role as the Ranking Member of this subcommittee, 
I am also the Senate NATO Observer Group Co-Chair. In that capacity, I 
am pleased that Greece and North Macedonia were able to overcome their 
name dispute and that North Macedonia continues to make the right moves 
on defense reforms to ensure its membership in NATO and to help better 
integrate the Balkans region.
    Mr. Crawford, Ireland has also traveled a hard-fought road, 
particularly with the UK, to ensure Europe's integration.
    Unfortunately, tensions long-buried by close economic ties and the 
peace process in Northern Ireland have the potential to rise to the 
surface, once again, with the Brexit negotiations. I look forward to 
hearing more from you on this matter.
    And, Mr. Satterfield, Turkey seems to lie at the center of a host 
of political, economic and security issues-all with the potential to 
spill over into NATO, Syria, the Balkans and even, Venezuela.
    As we discussed, I am worried that President Erdogan has played 
directly into Vladimir Putin's hands as well as his own worst demons. I 
look forward to discussing how the U.S. can work with the remaining 
democratic elements of Turkish society to ensure that Turkey's once-
western, rules-based trajectory is not gone for good.
    Again, welcome and congratulations to all of the nominees today.


    Senator Johnson. Thank you, Senator Shaheen.
    I think we will start with Mr. Crawford. I do not think any 
further introduction is really necessary. I think Senator Brown 
and Senator Portman did a pretty good job.
    I am glad to see--I think when we met, you were wearing an 
orange tie, and I was a little disappointed. I see you have got 
the Irish green on there. So you look good in it.
    But Mr. Crawford.

  STATEMENT OF EDWARD F. CRAWFORD, OF OHIO, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
                       AMERICA TO IRELAND

    Mr. Crawford. Well, good afternoon, Senator Johnson, 
Senator Shaheen, Senator Menendez. Good afternoon members of 
the Foreign Relations Committee.
    I am honored to appear here before you today as President 
Trump's nominee to be the next U.S. Ambassador to the Republic 
of Ireland. I am grateful to the President for his nomination 
and Secretary Pompeo for his trust and confidence. If confirmed 
by the Senate, I will pledge to work closely with the members 
of the Foreign Relations Committee to advance U.S. interests 
and values in Ireland.
    At this time, I would like to take an opportunity to thank 
my wife Mary from high school, as well as my son Matthew, my 
daughter Debbie, my grandchildren Colin, Catherine, and Claire, 
better known in the family as the three bears.
    A few thoughts on Ireland.
    The connection between the people of the United States and 
the people of Ireland is undeniable. Over 30 million Americans 
identify themselves as having Irish heritage, more than 10 
percent of the U.S. population.
    The United States has built on hard work and sacrifice of 
immigrants, like the Irish who made significant contributions 
to the country and continue to serve as an example for all of 
us today. From the time of the nation's founding, thousands of 
Irish men and women had come to America and have had a lasting 
impact on the history and development of our country.
    Ireland is also one of our most reliable trading partners. 
More than $138 billion and growing in two-way trade in goods 
and services pass between the United States and Ireland each 
year.
    While adhering to a longstanding policy of military 
neutrality, Ireland continues to be a valuable partner in 
maintaining global security and protecting American interests 
abroad. I applaud our cooperation with the Irish government on 
strengthening Ireland's cybersecurity capacity to help 
safeguard U.S. companies and citizens located in Ireland. If 
confirmed, I will do everything I can to continue making 
progress in this area.
    The United States and Ireland have worked together through 
history to resolve conflicts and peace accord and prosperity. 
The United States views proudly its role in the events leading 
up to the Good Friday Agreement in 1998, ending years of strife 
and bloodshed in Northern Ireland. If confirmed, I would 
maintain the United States' firm commitment to the Northern 
Ireland peace process.
    A few thoughts or comments on Ed Crawford.
    In 1960, while I was attending John Carroll University 
night school, I started my first commercial effort, a company 
called Cleveland Steel Container, which manufactured 5-gallon 
steel pails. The continuation of that enterprise today has 
grown the revenues to approximately $9 billion.
    Park-Ohio currently operates manufacturing facilities in 
North America, Canada, Mexico, the Euro Zone, China, India, and 
other countries.
    We employ over 7,500 individuals. This is not a high-tech 
business we are talking about. We manufacture products for 
trucks, autos, washing machines, aerospace, and many other 
production line components. We are very proud of our 
relationships with our factory employees.
    For example, in City of Conneaut, Ohio, we employ 300 
factory workers. Conneaut has one McDonald's, no movie, just a 
race track, but there are 8,200 people living in Conneaut, 
Ohio. And the average time in service in those employees--we 
employ 300 people and the average time of service in that 
facility is 15 years. We are very, very, very positive and feel 
great about the partnership we have as owners of the company 
and our employees. It is very important to us. It has been in 
the past and will be in the future. The mere fact that they 
leave work each day--I can only say this with my heart. These 
300 people come every single day and punch a time clock at 6:30 
in the morning. They leave at 3:30 in the afternoon. And they 
have families, and they need those jobs. They depend on those 
jobs. So they go home to their families.
    What we are as a family--our family loves feeling 
commitment on both sides. It is important to us, and I think we 
did a great job with it. And why? Because they need us and we 
need them. It is a good thing. I employed a lot of hourly 
employees for a very long time. I enjoy it. I like the 
factories. I am an operating guy. I am in the buildings.
    During my 58 years of building this company, I learned a 
great deal about people, problems, and opportunities. If I am 
confirmed, I will bring this experience, knowledge, and 
enthusiasm to the post of the U.S. Ambassador to Ireland to 
strengthen the Irish relationship.
    Senators, my mother left Ireland in 1927, my father in 
1925. Both came through Ellis Island as Irish immigrants. They 
would be very proud of what we have accomplished as a family 
and our need to serve America.
    Thank you.
    [Mr. Crawford's prepared statement follows:]


                Prepared Statement of Edward F. Crawford

    Good morning Senator Johnson, Good morning Senator Shaheen and 
other Members of the Foreign Relations Committee:
    I am honored to appear before you today as President Trump's 
nominee to be the next U.S. Ambassador to the Republic of Ireland. I am 
grateful to the President for his nomination and to Secretary Pompeo 
for his trust and confidence. If confirmed by the Senate, I pledge to 
work closely with the members of the Foreign Relations Committee to 
advance U.S. interests and values in Ireland.
    At this time, I would like to take this opportunity to thank my 
wife, Mary (from high school), as well as my son, Matthew, my daughter, 
Debbie, and my grandchildren, Colin, Catherine, and Claire (better 
known as the three bears) for their love and support.
    A few thoughts on Ireland.
    The connection between the people of the United States and the 
people of Ireland is undeniable. Over 30 million Americans identify 
themselves as having Irish heritage, more than 10 percent of the U.S. 
population.
    The United States was built on the hard work and sacrifice of 
immigrants, like the Irish, who have made significant contributions to 
this country and continue to serve as an example for all of us today. 
From the time of our nation's founding, thousands of Irish men and 
women have come to America, and have had a lasting impact on the 
history and development of our country.
    Ireland is also one of our most reliable trading partners. More 
than $138 Billion (and growing) in two-way trade in goods and services 
passes between the United States and Ireland each year.
    While adhering to its long-standing policy of military neutrality, 
Ireland continues to be a valuable partner in maintaining global 
security and protecting American interests abroad. I applaud our 
cooperation with the Irish government on strengthening Ireland's 
cybersecurity capacity to help safeguard U.S. companies and citizens 
located in Ireland. If confirmed, I will do everything I can to 
continue making progress in this area.
    The United States and Ireland have worked together throughout our 
histories to resolve conflicts and promote peace and prosperity. The 
United States views proudly its role in the events leading to the Good 
Friday Agreement of 1998, ending years of strife and bloodshed in 
Northern Ireland. If confirmed, I would maintain the United States' 
firm commitment to the Northern Ireland Peace Process.
    In the 1960's while attending John Carroll University night school, 
I started my first commercial effort, a company called Cleveland Steel 
Container which manufactured five-gallon steel pails. The continuation 
of that enterprise today has grown in revenues to approximately $1.9 
billion annually.
    Park-Ohio currently operates manufacturing facilities in North 
America, Canada, Mexico, the Euro Zone, China, India and other 
countries.
    We employ over 7,500 individuals. This is not a high-tech business. 
We manufacture products for trucks, autos, washing machines, aero-space 
and many other production line components. We are very proud of our 
relationships with our factory employees.
    For example, in Conneaut, Ohio, we employ 300 factory workers. 
Conneaut has one McDonald's, no movie theater and a dirt track for auto 
racing. The population of Conneaut is approximately 8,200. The average 
time in service for our production line employees is over 15 years. 
This is a partnership with families. They come to the plant each day 
and punch a time clock. They leave work each day and go home to their 
families. Our family loves the feeling of commitment on both sides.
    During the 58 years of building the company I learned a great deal 
about people, problems and opportunities. If I am confirmed, I will 
bring this experience, knowledge and enthusiasm to the Post of the U.S. 
Ambassador to Ireland to strengthen the U.S.-Irish relationship.
    Senators, my mother left Ireland for America in 1927 and my father 
in 1925. Both came through Ellis Island as Irish immigrants. They would 
be very proud of what we have accomplished as a family and our need to 
serve America.


    Senator Johnson. Thank you, Mr. Crawford. As a fellow 
manufacturer and entrepreneur, I have nothing but respect for 
what you have accomplished in your life. And, again, thank you 
for your willingness to serve.
    Our next nominee is Ms. Kate Marie Byrnes. Ms. Byrnes is 
the President's nominee to be Ambassador to North Macedonia. 
Ms. Byrnes is a career member of the State Department's Senior 
Foreign Service and currently serves as the Deputy Chief of 
Mission at the U.S. embassy in Athens.
    Her previous service includes Deputy Permanent 
Representative to the U.S. Mission to the OSCE, as well as 
postings in Madrid, Afghanistan, and to NATO headquarters in 
Belgium.
    Ms. Byrnes is the recipient of the Secretary's 
Expeditionary Service Award and the United States Army 
Meritorious Civilian Service Award.
    She speaks Spanish, Hungarian, and Turkish.
    Ms. Byrnes?

STATEMENT OF KATE MARIE BYRNES, OF FLORIDA, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
      STATES OF AMERICA TO THE REPUBLIC OF NORTH MACEDONIA

    Ms. Byrnes. Mr. Chairman, Ranking Member Shaheen, and 
distinguished members of the committee, I am honored to appear 
before you today as President Trump's nominee for U.S. 
Ambassador to the Republic of North Macedonia. I deeply 
appreciate the trust and confidence the President and the 
Secretary of State have placed in me to represent the American 
people, and I hope to earn your trust as well. If confirmed, I 
pledge to work closely with you to advance our nation's 
interests in North Macedonia.
    Thank you for the opportunity to introduce my husband, 
retired U.S. Navy Captain Scott Gage, who is here with me 
today, and to thank him for his love and partnership. I would 
also like to thank all my family, beginning with my parents, 
Paul and Hope Byrnes. My father, a retired Foreign Service 
officer, with my mother's support, introduced my brothers, Paul 
Jr., Sean, and me to the rewards and challenges of this path of 
service. And their support continues to inspire my commitment.
    Over my 26-year career, I have worked in Washington and in 
Europe to build strong partners for the United States. As the 
Deputy Chief of Mission in Athens, I supported U.S.-Greece 
efforts to deepen regional stability and cooperation and 
encouraged Greece's leadership in its engagement with the 
Western Balkans, including North Macedonia.
    North Macedonia is on its chosen path to NATO and the 
European Union. Through the Prespa Agreement, the political 
leaders of North Macedonia and Greece overcame difficult 
historical issues by focusing on a future of progress. The 
United States supported the leaders on both sides who drove 
this process. Full implementation of the agreement is crucial 
to the region. External actors with malign intent are working 
against this progress in an effort to undermine the country and 
the confidence the people of North Macedonia have in their 
future.
    If confirmed, I will focus the work of the embassy on three 
priorities.
    First, we will promote stability through strong 
institutions. North Macedonia has made significant progress on 
updating its laws to advance reforms, including in the areas of 
judicial independence, rule of law, and accountability. Its 
political leaders need to ensure these laws are thoroughly 
implemented, making real change to meet the standards of 
membership in both NATO and the EU, as well as the expectations 
of its citizens.
    Congress has made a lasting impact on North Macedonia's 
democratic reforms and economic development. If confirmed, I 
will ensure that this U.S. government collaboration continues 
and that U.S. resources are spent effectively in support of 
U.S. goals and priorities.
    Second, we will enhance security through partnership. As a 
future NATO ally, North Macedonia must meet its commitments. If 
confirmed, I will work with members of this committee to ensure 
that North Macedonia continues to be a strong and steadfast 
contributor to the security of the North Atlantic area.
    North Macedonia has contributed to international operations 
since 2002, deploying almost 4,000 soldiers. As our strong 
partner in the Coalition to Defeat ISIS, it set an important 
example for all members of the coalition in repatriating, 
prosecuting, and sentencing foreign terrorist fighters. Our 
soldiers also courageously fought alongside each other in Iraq 
and still do so today in Afghanistan. This year, over 1,000 
U.S. troops will participate in exercises alongside North 
Macedonia's troops at the Krivolak Training Area. If confirmed, 
I will look to expand our partnership efforts in order to 
counter threats from terrorism, as well as malign actors who 
seek to disrupt and destabilize democratic systems.
    Third, we will foster prosperity through positive 
influence. North Macedonia will prosper by advancing human 
rights, diversity, inclusion, free media, and open markets. The 
United States will partner in building new opportunities for 
future generations through our Peace Corps, USAID, and other 
assistance programs, and through robust public diplomacy and 
people-to-people exchanges. There are prospects for U.S. firms 
to partner with North Macedonia. If confirmed, I will commit 
the U.S. embassy in Skopje to help make these deals happen.
    Expanding ties between the United States and North 
Macedonia will foster a positive vision of a more prosperous 
and secure future and is our strongest weapon against global 
competitors.
    The outstanding embassy team in Skopje is dedicated to 
helping North Macedonia secure a positive future. I am eager to 
join them, if confirmed, to lead their efforts moving forward.
    I pledge to the committee that I will protect American 
interests, ensure the fair treatment of American citizens, and 
promote American values with every engagement I have with the 
government of North Macedonia and its people.
    Thank you for your time. I welcome your questions.
    [The prepared statement of Ms. Byrnes follows:]


                Prepared Statement of Kate Marie Byrnes

    Mr. Chairman, Ranking Member Shaheen, and distinguished members of 
the committee, I am honored to appear before you today as President 
Trump's nominee for U.S. Ambassador to the Republic of North Macedonia. 
I deeply appreciate the trust and confidence the President and the 
Secretary of State have placed in me to represent the American people, 
and I hope to earn your trust as well. If confirmed, I pledge to work 
closely with you to advance our nation's interests in North Macedonia.
    Thank you for the opportunity to introduce my husband, retired U.S. 
Navy Captain Scott Gage, who is here today, and to recognize him for 
his love and partnership. I would also like to thank all my family 
beginning with my parents, Paul and Hope Byrnes. My father, a retired 
Foreign Service officer, with my mother's support, introduced my 
brothers Paul Jr., Sean and me to the challenges and rewards of this 
path of service. Their support continues to inspire my commitment.
    Over my 26-year career, I have worked in Washington and in Europe 
to build strong partners for the United States. As the Deputy Chief of 
Mission in Athens, I supported U.S.Greece efforts to deepen regional 
stability and cooperation, and encouraged Greece's leadership in its 
engagement with the Western Balkans, including North Macedonia.
    North Macedonia is on its chosen path to NATO and the European 
Union. Through the Prespa Agreement, the political leaders of North 
Macedonia and Greece overcame difficult historical issues by focusing 
on a future of progress. The United States supported the leaders on 
both sides who drove this process. Full implementation of the agreement 
is crucial to the region. External actors with malign intent are 
working against this progress in an effort to undermine the country and 
the confidence the people of North Macedonia have in their future.
    If confirmed, I will focus the work of the Embassy on three 
priorities:

    First, we will promote stability through strong institutions.
    North Macedonia has made significant progress on updating its laws 
to advance reforms, including in the areas of judicial independence, 
rule of law, and accountability. Its political leaders need to ensure 
these laws are thoroughly implemented, making real change to meet the 
standards of membership in both NATO and the EU, as well as the 
expectations of its citizens.
    Congress has made a lasting impact on North Macedonia's democratic 
reforms and economic development. If confirmed, I will ensure this U.S. 
government collaboration continues and that U.S. resources are spent 
effectively in support of U.S. goals and priorities.

    Second, we will enhance security through partnership.
    As a future NATO ally, North Macedonia must meet its commitments. 
If confirmed, I will work with members of this committee to ensure that 
North Macedonia continues to be a strong and steadfast contributor to 
the security of the North Atlantic area.
    North Macedonia has contributed to international operations since 
2002, deploying almost 4,000 soldiers. As our strong partner in the 
Coalition to Defeat ISIS, it set an important example for all members 
of the Coalition in repatriating, prosecuting and sentencing Foreign 
Terrorist Fighters. Our soldiers also courageously fought alongside 
each other in Iraq, and still do so today in Afghanistan. This year, 
over 1,000 U.S. troops will participate in exercises alongside North 
Macedonia's troops at the Krivolak Training Area. If confirmed, I will 
look to expand our partnership efforts in order to counter threats from 
terrorism as well as malign actors who seek to disrupt and destabilize 
democratic systems.

    Third, we will foster prosperity through positive influence.
    North Macedonia will prosper by advancing human rights, diversity, 
inclusion, free media, and open markets. The United States will partner 
in building new opportunities for future generations through our Peace 
Corps, USAID and other assistance programs, and through robust public 
diplomacy and people-to-people exchanges. There are prospects for U.S. 
firms to partner with North Macedonia. If confirmed, I will commit the 
U.S. Embassy in Skopje to help make these deals happen.
    Expanding ties between the United States and North Macedonia will 
foster a positive vision of a more prosperous and secure future and is 
our strongest weapon against global competitors.
    The outstanding Embassy team in Skopje is dedicated to helping 
North Macedonia secure a positive future. I am eager to join them, if 
confirmed, to lead their efforts moving forward.
    I pledge to the committee that I will protect American interests, 
ensure the fair treatment of American citizens, and promote American 
values with every engagement I have with the government of North 
Macedonia and its people.
    Thank you for your time today. I would be pleased to take your 
questions.


    Senator Johnson. Thank you, Ms. Byrnes.
    Our final nominee is the Honorable David Michael 
Satterfield. Mr. Satterfield is the President's nominee to be 
Ambassador to Turkey.
    Ambassador Satterfield is a career member of the State 
Department's Senior Foreign Service who has been the Acting 
Assistant Secretary of State for Near Eastern Affairs since 
2017.
    Previously he served as Director-General of the 
Multinational Force and Observers in Rome, as Special Advisor 
to the Secretary of State for Libya, as Deputy Chief of Mission 
in Baghdad, as Ambassador to Lebanon.
    Ambassador Satterfield is the recipient of the Presidential 
Distinguished Executive Rank Award, the Secretary of State's 
Distinguished Service Award, and the United States Department 
of the Army Outstanding Civilian Service Award.
    He speaks Arabic, French, and Italian.
    Ambassador Satterfield?

  STATEMENT OF HON. DAVID MICHAEL SATTERFIELD, OF MISSOURI, A 
 CAREER MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF CAREER 
MINISTER, TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF 
     THE UNITED STATES OF AMERICA TO THE REPUBLIC OF TURKEY

    Ambassador Satterfield. Chairman Johnson, Ranking Member 
Shaheen, Senators Menendez and Portman, thank you for the 
opportunity to come before you today as the President's nominee 
for Turkey. I am grateful to the President, to Secretary Pompeo 
for the confidence they have placed in me. If confirmed, I look 
forward to continuing the close consultative relationship I 
have had for many years with this committee.
    With your permission, I will submit my full testimony for 
the record.
    Next month will mark 40 years of service for me with the 
U.S. government, almost entirely as a career Foreign Service 
officer. My focus has been the Middle East. That has meant my 
overseas assignments have largely been in unaccompanied 
critical threat posts, Beirut, Baghdad, Tripoli, Libya, the 
Sinai. I am profoundly aware of the importance of family in 
today's Foreign Service and separations that the requirements 
of that service entail for most of my colleagues. In this 
regard, I want to thank my spouse, Foreign Service Officer 
Elizabeth Fritschle, for her love, understanding and support 
through many separated assignments. She and our daughter, Mary 
Parker, are at post in Tel Aviv today, but they are with me 
always in spirit.
    If confirmed, I will be going to Ankara at a complex and 
challenging moment. Today, Turkey fulfills key NATO rolls in 
Afghanistan and Iraq, stands firm in support of Ukraine's 
territorial integrity, and its critical efforts to bring about 
a political solution to the Syrian conflict and the enduring 
defeat of ISIS.
    The Turkish people also merit recognition for their hosting 
of nearly 4 million Syrian refugees.
    Our interests extend beyond U.S. national security 
priorities. Turkey hosts more than 1,700 American companies, 
particularly in the aerospace, pharmaceutical, financial, and 
insurance services industry. Bilateral trade topped $20 billion 
in 2018, and Presidents Trump and Erdogan have pledged to 
significantly increase that trade relationship.
    Nevertheless, as this committee knows very well, the 
relationship faces profound challenges. By moving ahead with 
its purchase of the Russian S-400 missile defense system and as 
Secretary Pompeo told this committee yesterday, Turkey puts its 
participation in the F-35 program at profound risk and faces 
sanctions under CAATSA. As Vice President Pence said on the 
occasion of NATO's 70th anniversary, Turkey must choose. Does 
it want to remain a critical partner in the most successful 
military alliance in history, or does it want to risk the 
security of that partnership by making such reckless decisions 
that undermine our Alliance? If confirmed, I will press Turkey 
to make the right strategic choice.
    Mr. Chairman, Ranking Member, members of the committee, if 
confirmed, my highest priority, of course, will be the safety 
and security of American citizens in Turkey.
    Let me express in that regard the administration's 
appreciation to Congress and to this committee for your 
sustained efforts to help us achieve the release of Pastor 
Andrew Brunson. If confirmed, I will not rest until all of our 
people, including NASA physicist Dr. Serkan Golge, and Mission 
Turkey local employees are at home with their families and 
free.
    More broadly, the United States is troubled by the state of 
Turkish democracy and respect for individual freedoms in 
Turkey. Rebuilding confidence in the rule of law would go far 
towards expanding the potential, which Turkey very much has, 
for economic investment and partnership. If confirmed, I will 
work to challenge Turkey to uphold its domestic and 
international human rights commitments while pushing Turkey to 
live up in full to its status as a NATO ally.
    Mr. Chairman, Ranking Member, members of the committee, 
thank you again for the opportunity to testify today. I look 
forward to taking your questions.
    [The prepared statement of Ambassador Satterfield follows:]


            Prepared Statement of Hon. David M. Satterfield

    Chairman Johnson, Ranking Member, members of the committee, thank 
you for the opportunity to come before you today as the President's 
nominee to Turkey. I am grateful to President Trump and Secretary 
Pompeo for the confidence they have placed in me. If confirmed I look 
forward to continuing a close, consultative relationship with the 
committee.
    Next month will mark forty years of my service with the U.S. 
government, almost entirely as a career Foreign Service Officer with 
focus upon the Middle East. My overseas assignments have been largely 
in unaccompanied critical threat assignments--Beirut, Baghdad, Tripoli, 
the Sinai--and I am profoundly aware of the importance of family as 
such service and the separations it entails have become routine for all 
in the Foreign Service. In this regard, I want to thank my spouse, 
Elizabeth Fritschle, also a career Foreign Service Officer with her own 
three decades of service, including in those same posts I noted, for 
her love, understanding and support in what has been a rewarding but 
very challenging life. She and our daughter Mary Parker are at post in 
Tel Aviv today, but they are with me always in spirit.
    If confirmed, I will be going to Ankara at a particularly complex 
and challenging moment in U.S.-Turkey relations. As this committee is 
aware, in the 66 years since Turkey became a NATO Ally, we have worked 
closely with the Turks to advance key national security interests, from 
Korea to Kosovo and beyond. Our partnership with Turkey--which has the 
second largest standing military in NATO and is a G-20 economy--enables 
us to defend NATO's eastern flank and project U.S. power in the region.
    Today, Turkey hosts the NATO Land Component Command in Izmir, 
serves as one of four Framework Nations for Operation Resolute Support 
in Afghanistan, and fills the deputy commander position in NATO's new 
training mission in Iraq. Turkey has stood firm in support of Ukraine's 
sovereignty and territorial integrity, refusing to recognize Russia's 
attempted annexation of Crimea. We have worked together to counter 
terrorism. Turkey has been integral to our efforts to bring about a 
political solution to the Syrian conflict and achieve the lasting 
defeat of ISIS, not least because of our access to Turkish air bases. 
Meanwhile, the Turkish people merit recognition for their generosity in 
hosting nearly four million Syrian refugees. As the President has made 
clear, as we draw down U.S. forces in Syria, we are determined to 
ensure that those who fought with us will not come to harm. At the same 
time, we will continue to work with Turkey to address its legitimate 
security concerns.
    Our interests extend beyond U.S. security priorities. Turkey is an 
important economic partner hosting more than 1,700 U.S. companies, 
particularly in the aerospace, pharmaceutical, and financial and 
insurance services industries. Bilateral trade topped $20 billion in 
2018. Presidents Trump and Erdogan have pledged to significantly 
increase our trade.
    As this committee is all too aware, the relationship faces profound 
challenges.The administration has worked tirelessly with Congress to 
address Turkey's legitimate security needs. However, by moving ahead 
with its purchase of the Russian S-400 missile defense system, Turkey 
puts its participation in the F-35 program at risk and faces potential 
sanctions under CAATSA. As Vice President Pence said April 4 on the 
occasion of NATO's 70th anniversary, ``Turkey must choose. Does it want 
to remain a critical partner in the most successful military alliance 
in history, or does it want to risk the security of that partnership by 
making such reckless decisions that undermine our Alliance?'' If 
confirmed, I will ensure we continue to press Turkey to make the right 
strategic choice by procuring NATO interoperable military equipment.
    Chairman Johnson, Ranking Member, if confirmed my highest priority 
will be the safety and security of American citizens in Turkey.
    The Trump administration has worked tirelessly to achieve the 
release of our staff and U.S. citizens. Let me express our appreciation 
to Congress and to this committee for your sustained efforts. While we 
are grateful that Pastor Andrew Brunson and one local employee are out 
of jail and reunited with their families, the United States cannot 
accept Turkey's continued detention and prosecution of other U.S. 
citizens--including NASA physicist Dr. Serkan Golge--and Mission Turkey 
local employees. If confirmed, you have my assurance that I will be 
clear that this is unacceptable and will urge a swift and fair 
resolution to these cases.
    The United States, along with many others in the international 
community, is troubled by the negative trajectory of democracy and 
respect for freedom of expression, association, and peaceful assembly 
in Turkey. Turkey currently incarcerates more journalists than any 
other country in the world. No democracy can flourish without a 
vibrant, diversely-owned, and free press. Accountable and responsive 
government, an independent judiciary, and respect for individual rights 
are pillars of established democracies. Turkey should protect freedom 
of expression, especially for those voices that are critical of the 
government, and release journalists imprisoned for their work.
    Rebuilding confidence in the rule of law in Turkey would go far 
towards expanding the potential for economic investment and 
partnership. The U.S.-Turkish partnership is strongest when Turkish 
democracy is thriving. If confirmed, I will work to challenge Turkey to 
uphold its domestic and international human rights commitments while 
pushing Turkey to live up to its status as a NATO Ally and EU aspirant.
    Despite the very real challenges in U.S.-Turkish relations, Turkey 
remains an essential partner in a complicated geostrategic position, 
presenting both opportunities and challenges. There is no alternative 
to an 80-million strong Ally on the edge of a region in constant flux. 
The United States and Turkey must work together to confront the very 
real threats to global peace and security that emanate from Russia, 
Iran, and elsewhere in the region. If confirmed, I am committed to 
working to advance our national security interests.
    Chairman Johnson, Ranking Member, members of the committee, thank 
you again for the opportunity to testify before you. I look forward to 
taking your questions.


    Senator Johnson. Thank you, Ambassador Satterfield.
    I am going to be here for the duration of the hearing. So 
out of respect for my colleagues' time--and I do appreciate 
people showing up for the hearings--I will defer to Senator 
Shaheen.
    Senator Shaheen. Well, thank you, Mr. Chairman.
    I want to begin with you, Mr. Crawford, because as I am 
sure all of us have been following, the outcome of Brexit will 
have a direct impact on what happens with Ireland and whether 
there needs to be a hardened border between Ireland and 
Northern Ireland. I visited there when I was Governor, and we 
visited both Ireland and Northern Ireland. And I can remember 
going across that border at the time. And there were actually 
checkpoints. So you knew that you were going across.
    So can you talk about how we should engage in the cross-
border efforts to ensure continued peace and trade relations 
between Ireland and whatever happens with the outcome of 
Brexit?
    Mr. Crawford. Senator, it is unfortunate we have two of our 
closest allies, EU and UK, in this situation. It has been going 
on well over a year, results that were not anticipated. What is 
very important about this is also it has affected Ireland in 
very strange ways.
    But this is something I believe has to be settled by the 
two parties most concerned, and that is the EU and the UK. 
Westminster--they have to work to solve this problem. I think 
our involvement in it is, from my viewpoint, steadfast that we 
should let them work this problem out themselves.
    Senator Shaheen. Do you not think we should weigh in 
publicly in a way that suggests that we hope they will work it 
out and urge them to do that so that they understand clearly 
that we think that is in everyone's best interest?
    Mr. Crawford. Well, I think they realize it is in their 
best interests because we have made it very clear that we are 
behind the agreement. We have said that is where we stand. I 
think that is representative. I am not a diplomat. I am only a 
person that has limited information.
    Senator Shaheen. You are about to be a diplomat if you get 
confirmed. So it will be very important to----
    Mr. Crawford. Yes. But have I answered your question?
    Senator Shaheen. I think I would say I hope that if you are 
confirmed, that you will make it very clear that we support the 
Good Friday Agreements and that that should be maintained as 
part of any Brexit deal.
    Mr. Crawford. Yes, I will do that.
    Senator Shaheen. Thank you.
    Ms. Byrnes, you mentioned in your opening statement forces 
that are trying to continue to sow dissent within the Republic 
of North Macedonia in its efforts to look West towards the EU 
and NATO.
    One of those countries that we have heard from, of course, 
is Russia. They tried to engineer a coup in Montenegro before 
it joined NATO. They have continued to sow dissent in other 
parts of the Western Balkans.
    So can you talk about what efforts you could encourage as 
Ambassador that could help address those concerns?
    Ms. Byrnes. Thank you, Senator, for that question.
    As you note, Russia does not share the same vision of 
Western integration that we hold and is one held by the people 
of North Macedonia. They do seek to create divisions and 
distrust. They were actively opposing the Prespa Agreement. 
They have been vocal in their opposition to North Macedonia's 
accession to NATO, often misrepresenting the facts. The embassy 
in Skopje worked very hard to present the truth, to present 
those facts, to work closely with the media, that it would be 
free and fair in reporting on that.
    If confirmed, I would like to continue those efforts to 
make sure that we speak the truth, that we support independent 
media and civil society voices that speak the truth, and also 
that we make very clear that our aspirations match those of the 
people of North Macedonia, that we are in alignment in that 
respect, and that what we are seeking is not only in U.S. 
strategic interests but in the strategic interests of the 
country and the region.
    Thank you.
    Senator Shaheen. Well, thank you.
    And I would like to applaud Prime Minister Zaev and Prime 
Minister Tsipras for their willingness to take stands that were 
difficult for them to reach an agreement. I think in the long 
term, it is going to be in the best interests of both 
countries.
    Mr. Satterfield, obviously, Turkey has been an important 
ally but one where we have seen backsliding with respect to 
democracy. As we discussed when you were in my office, they 
have the highest number of reporters imprisoned of any country 
in the world. They have just had recent elections that are now 
being contested by President Erdogan's party.
    So what should be the response of the United States and the 
embassy if President Erdogan is allowed to manipulate 
Istanbul's election results and is able to get an entirely new 
election? How do you think we should respond?
    Ambassador Satterfield. Senator, I will not comment, of 
course, on the hypothetical. But I will tell you what our 
position is right now and will continue be.
    Senator Shaheen. Good.
    Ambassador Satterfield. A free, fair, and transparent 
electoral process is a fundamental pillar of any democracy. 
Turkey is a democracy. We look to that pillar. We look to that 
transparent process to be fully respected by all involved so 
that the will of those who went to the polls is acknowledged in 
terms of the results. We will be watching this as it unfolds 
over the days ahead very closely.
    Senator Shaheen. Thank you.
    I was pleased to hear in your opening statement that you 
mentioned not just Pastor Brunson, who I think was released 
because of the whole-of-government approach, the bipartisan 
effort that involved both Congress and the administration to 
try and pressure and urge Turkey to release him. And I was 
pleased to hear you talk about the other American citizens and 
the diplomatic officials who are currently in jail.
    Can you talk about what more you might be able to do as 
Ambassador to urge Turkey to release those citizens and also 
any Turkish citizens that are being improperly jailed?
    Ambassador Satterfield. Senator, we made very clear by our 
physical presence in the court proceedings for those who are 
part of our mission in Turkey and for our public engagement--
indeed, the public engagement, not just the administration, 
executive branch, but also of this body and of the House--in 
registering that this is an important relationship for us with 
Turkey. But it is a relationship that can only flourish as it 
might if there is full respect, not just for democratic 
principles and practices in Turkey with respect to Turkish 
citizens, but also, of course, with respect to American 
citizens.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Portman?
    Senator Portman. Thank you, Mr. Chairman.
    So, Mr. Crawford, sometimes we have nominees come before us 
and they have not had much opportunity to visit the countries 
they are being selected for and, therefore, do not have 
familiarity with the people and the customs of those countries.
    Can you just talk briefly about any trips you have made to 
Ireland and any familiarity you have with Ireland?
    Mr. Crawford. I have been to Ireland many, many times. 
Again, my mother and father were both born there, and I have 
lots of first cousins.
    I have been active there in the past in a small business 
down in Cork City. It employs 17 people. It is a distribution 
business. So I have had some contact with the working persons 
or people. Again, my experience in building our company has 
given me the tools I believe to understand really the Irish, 
and if there is any change in this Brexit situation, I think I 
am able and will be able to contact and get along with the 
Irish leadership, as well as the Irish people. And I think I 
can be a very positive, positive force for the goal, which is 
to make the relationship stronger between Ireland and America.
    I have an industrial background and a manufacturing 
background, but I also have a business background. And it is 
very important to Ireland and to America that we increase the 
trade to make this thing a better relationship between the two 
countries. And I think some of the background I have--but I 
love Ireland. It is a great place, and I think I can play an 
important role there because of my background but my ability to 
bring some things to the table that will help enhance the 
relationship between America and Ireland.
    Senator Portman. Excellent. Well, thank you. I think you 
are right. I said earlier the Irish want you too. I mean, the 
Irish were looking for an ambassador, and they have been very 
pleased to have you step up.
    So, Ms. Byrnes, first of all, thank you to you and to your 
husband, a Navy fighter pilot, who is hanging out behind you 
there, for your service to our country.
    And you have had some really interesting roles. You are 
going to a fascinating country at a time when it is, although a 
small country, really a microcosm of what is happening all 
throughout Eastern and Central Europe with regard to Russia. 
And specifically the two issues that I want to talk to about 
briefly are the dependency that they have on natural gas from 
Russia, and second is the referendum and what might happen with 
regard to the NATO ascendancy.
    With regard to the first question, it seems to me you have 
an opportunity while you are there to be sure that Russia does 
not do to Northern Macedonia what they have done to other 
countries in Eastern and Central Europe, which is to use their 
leverage by withholding access to natural gas unless certain 
other priorities of Russia were met and therefore enhancing 
their opportunity to receive other supplies.
    Have you thought about that, and specifically what would 
you do as Ambassador to encourage them to look to the West and 
maybe even to the United States for LNG?
    Ms. Byrnes. Thank you, Senator.
    As you note, North Macedonia does need to diversify its 
energy sources and routes. It also needs to develop a 
competitive, efficient, and transparent energy market and then 
to integrate its energy market into the region.
    Right now, there is only one pipeline for gas, and the gas 
comes from Russia, as you note. There is a projected project to 
build an interconnector with Greece that would allow North 
Macedonia not only to diversify its supplies but also to 
perhaps gasify other parts of the country that do not have that 
situation right now.
    Another opportunity is in the energy sector as a result of 
a new energy law. With USAID assistance, the government passed 
a new energy law that will bring it in line with EU directives, 
including the common third energy package.
    We are also looking to support efforts to reform the energy 
market through an incentive scheme, and if confirmed, I would 
like to continue that work not only to create opportunities for 
the private sector to fully engage there but, in fact, to 
engage some U.S. companies hopefully in bidding on some of 
those renewable energy projects.
    Senator Portman. That is terrific. And I think that is an 
appropriate role for an ambassador to try to encourage them to 
look to the West.
    On the Prespa Agreement and the referendum on it last year, 
the Russians did what they have done in so many elections, 
including our own, and that is attempt, through disinformation 
and propaganda, to try to change the result. They were not 
successful. But it was certainly an eye-opener for a lot of 
smaller countries in the region.
    Are you aware of the Global Engagement Center at the State 
Department?
    Ms. Byrnes. Yes, Senator, I am aware of the Global 
Engagement Center. And in my current capacity in Greece, we 
have worked on some proposals with them.
    Senator Portman. Excellent. I am glad to hear that. We have 
been promoting this for the last several years, and we think it 
is part of the answer to provide a pushback and have the U.S. 
government help countries like North Macedonia be able to 
respond. So I assume you would be looking to them for some 
guidance as to how you could push back against that 
disinformation coming from Russia.
    Ms. Byrnes. Senator, yes. Thank you.
    I have already looked into possibilities for North 
Macedonia so that, if I were confirmed, I would be able to 
continue those projects, as well as projects that would help 
the broader region, so have the countries in the Western 
Balkans, including in Southeast Europe, working together to 
combat Russian misinformation and develop media that can 
provide an alternative source of information.
    Senator Portman. Thank you.
    Mr. Satterfield, you are going into also a very interesting 
situation. Turkey persists in acquiring this Russian S-400 
system. I think it is impossible for us to continue with the F-
35 contract. I hate to see us begin to distance ourselves 
further from Turkey because it is such a critical country and 
in the past it has been such a critical ally.
    How do you approach that issue? How would you effectively 
try to get the Turks to see that it is in their interests to 
align not just with us, with NATO and with NATO compatibility?
    Ambassador Satterfield. Senator, what we do is what the 
President, the Vice President, the Secretary of State Acting 
Secretary Shanahan, what all of you here in the Congress have 
done, which is to message the Turkish government at the highest 
levels in public and privately in the clearest possible terms 
that if they proceed with the acquisition of the S-400, then 
they will not be able to participate in the F-35 program, the 
program itself or receipt of the F-35 platforms, that there 
will be no Patriot sale if they acquire the S-400. That message 
has been reinforced as clearly as it can be. It needs to 
continue to be reinforced. This would be a very unwise step 
from the immediate and a long-term perspective were the Turks, 
indeed, to go ahead with this decision. But we are doing 
everything in our power at every level available to us to make 
quite clear what the consequences are but also what the 
alternative is, which is an extraordinarily attractive proposal 
for the Patriot sale.
    Senator Portman. And broader compatibility with NATO. 
Correct?
    Ambassador Satterfield. And, of course, absolute 
compatibility with NATO.
    Senator Portman. Thank you, Mr. Chairman.
    Senator Johnson. Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Congratulations to all of the nominees and your families.
    Ambassador Satterfield, I was disappointed that you had to 
cancel your meeting with me, which I would have looked forward 
to going through a series of things. So I came to the hearing 
to ask you them.
    Let me start off with do you acknowledge that from 1915 to 
1923, nearly 1.5 million Armenian men, women, and children were 
killed by the Ottoman Empire?
    Ambassador Satterfield. We are certainly aware, Senator, of 
the facts of that atrocity.
    Senator Menendez. So you acknowledge it. Is that correct?
    Ambassador Satterfield. Yes, sir.
    Senator Menendez. And do you acknowledge it as a genocide?
    Ambassador Satterfield. Senator, the President has stated 
this is one of the most horrific atrocities in the 20th 
century, and I will abide by those remarks.
    Senator Menendez. It undoubtedly is an atrocity. The 
question is, is it a genocide?
    Ambassador Satterfield. Those remarks stand as a reflection 
of the U.S. government's position, sir.
    Senator Menendez. All right. So you will not tell me it is 
a genocide.
    Let me ask you this. Do you acknowledge that in 1915, the 
allied powers of England, France, and Russia jointly issued a 
statement explicitly charging for the first time ever another 
government of committing crimes against humanity and 
civilization?
    Ambassador Satterfield. I am a historian, sir, and well 
aware of the events at that time.
    Senator Menendez. So you acknowledge that fact.
    Do you acknowledge that Henry Morgenthau, the United States 
Ambassador to the Ottoman Empire at the time, said that the 
Turkish government's deportation order for the Armenians was, 
quote, a death warrant to a whole race and in a way in which 
they made no particular attempt to conceal their discussions 
with him?
    Ambassador Satterfield. I am aware of that quote, sir.
    Senator Menendez. So this is an inartful dance that we do 
as a nation in which we do not recognize the historical fact 
that even the U.S. Holocaust Museum, which is a quasi-
governmental entity, acknowledges the facts of the Armenian 
genocide, but we are incapable of mouthing the comments of an 
Armenian genocide. And we cannot ultimately move to the future 
if we cannot recognize the past as a simple reality.
    And so I just bring to your attention that Senator Cruz, a 
member of this committee, and I, along with others, have 
introduced a resolution to ensure the foreign policy of the 
United States reflects appropriately the understanding and 
sensitivity and the reality of what was an Armenian genocide. 
And I commend it to your attention.
    Let me turn to the S-400. You spoke about this quite a bit. 
I appreciate your comments, but it is my hope--and, Mr. 
Chairman, I would like to include in the record an op-ed that 
the chair and ranking member of this committee, myself, and 
Senator Risch, along with the chair and the ranking member of 
the Senate Armed Services Committee wrote together, Senator 
Inhofe and Senator Reed, in which basically we say Turkey must 
choose. I would like it to be included in the record at this 
time.
    Senator Johnson. Without objection.

    [The material referred to above follows:]



                                  The New York Times--April 9, 2019

        A U.S. FIGHTER JET OR A RUSSIAN MISSLE SYSTEM, NOT BOTH

        by Jim Inhofe, Jack Reed, Jim Risch, and Bob Menendez\1\
---------------------------------------------------------------------------

    \1\ Mr. Inhofe and Mr. Reed are the chairman and ranking member of 
the Senate Armed Services Committee. Mr. Risch and Mr. Menendez are the 
chairman and ranking member of the Senate Foreign Relations Committee.

          If Turkey accepts delivery of a Russian S-400 missle system, 
---------------------------------------------------------------------------
        sanctions will be required by American Law.


          By the end of the year, Turkey will have either F-35 advanced 
        fighter aircraft on its soil or a Russian S-400 surface-to-air 
        missile defense system. It will not have both.
          The choice made by President Recep Tayyip Erdogan of Turkey 
        will have profound consequences for his country's place in the 
        world, its relationship with the United States and its standing 
        in NATO.
          The F-35 program is the world's largest fifth-generation 
        fighter aircraft program, with more than a trillion dollars in 
        investment from a dozen international partners, including 
        Turkey, and customers. In large part, the ability of the United 
        States and its allies to maintain a military advantage in the 
        skies is riding on the program.
          In July 2017, Turkey announced that it would purchase the S-
        400 surface-to-air missile defense system from Russia. The S-
        400 is the most advanced system produced to date in Russia's 
        quest to defeat stealth technology--the system Russia built to 
        shoot down the F-35 fighters.
          Turkey's purchase of the S-400 would be incompatible with its 
        commitments to NATO and reduce its interoperability with 
        allies. Purchasing the S-400 would create an unacceptable risk 
        because its radar system could enable the Russian military to 
        figure out how the F-35 operates. That threat compelled the 
        Pentagon to suspend some activities associated with Turkey's F-
        35s last week.
          Turkey has legitimate air defense needs. The United States, 
        since 2012, has offered the Patriot air defense system as an 
        alternative to the S-400, but Turkey has rejected that offer. 
        With the S-400 scheduled to arrive in Turkey in July and the F-
        35s scheduled to arrive in November, it is time for President 
        Erdogan to choose. It is our hope he will choose to abandon the 
        S-400, defend Turkish skies with the Patriot system and save 
        the F-35 arrangement.
          If President Erdogan fails to make this choice and accepts 
        delivery of the S-400, sanctions will be imposed as required by 
        United States law under the Countering America's Adversaries 
        Through Sanctions Act. Sanctions will hit Turkey's economy 
        hard--rattling international markets, scaring away foreign 
        direct investment and crippling Turkey's aerospace and defense 
        industry.
          Further, no F-35s will ever reach Turkish soil. And Turkish 
        participation in the F-35 program, including manufacturing 
        parts, repairing and servicing the fighters, will be 
        terminated, taking Turkish companies out of the manufacturing 
        and supply chain for the program.
          We are committed to taking all necessary legislative action 
        to ensure this is the case. Turkey is an important partner in 
        the F-35 program, but it is not irreplaceable.
          Abandoning the F-35 will have severe consequences for Ankara. 
        Turkey has already invested more than $1.25 billion in the F-35 
        program, and that will be squandered. It will not receive the 
        more than 100 F-35s it planned to purchase, and it will be 
        forced to settle for a less-capable fighter aircraft that will 
        not arrive for many years.
          Turkish companies that produce parts for the F-35 will see 
        their orders dry up completely. The country's F-35 engine 
        maintenance, repair, overhaul and upgrade facility will see all 
        its work go to other facilities in Europe. President Erdogan's 
        hope to make the Turkish defense industry a pillar of economic 
        growth for the future will be dashed.
          We do not seek to harm our Turkish friends. Indeed, we hope 
        it will be possible to enhance American-Turkish cooperation on 
        Syria, the Black Sea, counterterrorism and other issues of 
        mutual concern. We seek only to protect the F-35 program and 
        the capabilities of the NATO alliance, including allies like 
        Turkey.
          We understand that Turkey has a relationship of necessity 
        with Russia--on Syria, energy, agriculture, tourism and more. 
        If President Erdogan walks away from the S-400, Mr. Putin may 
        retaliate in one or more of these areas. In that unfortunate 
        event, we commit to do all we can to assist Turkey as it 
        weathers the storm.
          Paying tribute to the Kremlin with the purchase of the S-400 
        is not in Turkey's interests. Mr. Putin is not an ally of 
        Turkey any more than the Soviets or the czars. His aggression 
        in Georgia, Ukraine and Syria has made Turkey less safe. Now 
        Mr. Putin is trying to divide Turkey from the West with the S-
        400s.
          If he succeeds, what little regard he has for Turkey's 
        interests will shrink further. The more isolated Turkey is from 
        its allies, the more power Mr. Putin will have in the 
        relationship: Russia does what it can, Turkey suffers what it 
        must.
          Mr. Putin fears and respects a Turkey strategically anchored 
        in the West and committed to NATO. We hope President Erdogan 
        will choose that future for Turkey by rejecting Mr. Putin's 
        divisive S-400 ploy, meeting its air defense requirement with 
        the Patriot system and moving forward as a critical partner in 
        the F-35 program.


    Senator Menendez. I hope that President Erdogan clearly 
understands that the U.S. is not bluffing. I helped write 
CAATSA. It is not a question of if. It is a question that it 
will face sanctions. And if it does, which I do not seek, it is 
going to hit the Turkish economy hard. It is going to rattle 
international markets. It is going to scare away foreign direct 
investment. It is going to cripple Turkey's aerospace and 
defense industry. So I expect that I can rely upon you, if you 
are confirmed, to make it very sure to President Erdogan that 
he understands the risks and the implication of this deal in an 
unvarnished way.
    Ambassador Satterfield.  Without question, sir.
    Senator Menendez. Let me turn to the question of democratic 
backsliding in Turkey. I am alarmed by the rapid and sharp 
decline of human rights in Turkey. It is leading the world in 
the most jailed journalists. Recently Human Rights Watch 
reported Turkey is arbitrarily jailing hundreds of lawyers. Now 
that is something that I expect from oppressive regimes like 
Tajikistan. I do not expect it from a NATO ally.
    Your written testimony makes note of this trajectory, which 
is a good starting point. But what will you do specifically to 
engage the government of Turkey to reverse this trend, if 
confirmed?
    Ambassador Satterfield. Senator, the U.S. mission in 
Turkey--all of our posts--have, in their average in their 
contacts and their physical presence at certain proceedings, 
registered very clearly the United States supports a very 
different vision of how rights and liberties should be 
practiced in any democracy, including in Turkey. We have not 
hesitated to speak directly about our concerns to the most 
senior members of the Turkish government, and I assure you, if 
confirmed, I will continue to do so, as will the mission in 
Turkey.
    Senator Menendez. This is a less of a question but more of 
a rejoinder to something you said that I agree with. Turkey 
continues to detain a U.S. citizen and embassy employees. And I 
appreciate in your written testimony that you underlined, if 
confirmed, you will be clear with the government of Turkey this 
is unacceptable and to urge swift and fair resolution. Bogus 
charges against an essentially hostage taking of a U.S. citizen 
and mission employs is not what we expect of a NATO ally. And 
they should be very clear in understanding that this is another 
irritant in our relationship. You do not take our people and 
arbitrarily and capriciously jail them at the end of the day 
and use them as hostages. It is just not acceptable anywhere in 
the world, and it is certainly not acceptable of a NATO ally.
    Let me turn to Mr. Crawford. Mr. Crawford, Tom Quinn is a 
pain in the neck.
    Mr. Crawford. I agree.
    Senator Menendez. There we go.
    [Laughter.]
    Senator Menendez. So we can agree on a little Irish humor 
there.
    So if he came to me one more time about your nomination, 
you might have never had a hearing at the rate he was going. 
But I am glad you are here today.
    And I just want to say I have been involved in Irish issues 
for a long time in the 27 years I have been in Congress. I was 
one of the leaders or the ad hoc Irish Caucus in the House of 
Representatives. We got Bill Clinton to give Gerry Adams his 
first visa to the United States to move away from the gun and 
the bomb and to follow a path of peace that ultimately led to 
the Good Friday Accords.
    And so there is a lot at stake here beyond the economic 
realities that we have with Ireland. There is a lot at stake if 
in fact we do not have a resolution, a good resolution as it 
relates to Brexit. So I hope that you will be committed to 
making sure that we solidify, whatever happens, the resolution 
of the Good Friday Accords, the commitment to our efforts for 
peace and justice in Northern Ireland. Do I have that 
commitment from you?
    Mr. Crawford. Yes, I will.
    Senator Menendez. And I hope that you will commit to me 
that you will, in fact, meet before you leave to Ireland, if 
confirmed, with American civil society leadership here.
    Mr. Crawford. Yes, I will.
    Senator Menendez. And finally, I ask you to maintain a 
direct line with me as Ireland moves through this potentially 
tumultuous period of time. Do I have that commitment from you?
    Mr. Crawford. Yes. I would appreciate that opportunity.
    Senator Menendez. Thank you very much.
    Ms. Byrnes, I have questions for you, but since I am going 
to see you in Greece, I will ask you there. But I will submit 
them for the record. But primarily I want to know how you will 
be involved in following up on the accords that were reached in 
order to perform what we hope for Macedonia. I appreciate your 
career service.
    Senator Johnson. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And thanks to the witnesses. Congratulations to Ambassador 
Satterfield and you, Ms. Byrnes, for a good longstanding 
careers of service in the State Department. And to you, Mr. 
Crawford, congratulations on the nomination. With your family 
background, I know your family is particularly proud of this 
and they ought to be.
    My questions, Ambassador Satterfield, are mostly going to 
be for you. Other questions have been asked that I was going 
to. I really want to talk to you about the Kurds.
    So I sort of want to understand--and you have such 
expertise--sort of the set of equities and issues between the 
Turkish government and the Kurds. So in Turkey, there is a 
sizable Kurdish population. Turkey has dealt with terrorist 
incidents by some Kurds, but there are massive amounts of the 
Kurdish population that is peaceful. There are Kurdish 
representatives in the Turkish national legislature. I worry 
that sometimes in the effort to go after terrorist activities, 
Kurds more generally have been targeted who are peaceful, who 
are exercising their right in a democracy to form their own 
political parties and have representation.
    Then we get to the situation of the Kurds in northern 
Syria. The U.S. has partnered well with the Kurds to defeat 
ISIS. That has been incredibly important. That partnership has 
been a real flashpoint of tension between the United States and 
Turkey. I am on the Armed Services Committee as well. Every 
time we have hearings with either CENTCOM or EUCOM regional 
commands and we talk about Turkey and we talk about Syria, we 
are always told this is one of the toughest issues that they 
are trying to resolve, how to maintain a military alliance with 
Turkey, that NATO membership, the use of the air base in Adana 
that has been helpful to us in campaigning against ISIS. But 
the Turks have been very, very distraught over the 
relationships that we have had with the Kurds in northern 
Syria.
    So I was wondering if you could talk a little bit about 
domestic Turkish politics and the Kurds and the way we should 
understand what Turkey's legitimate concerns are and then 
possibly illegitimate, and then what you might do on the 
diplomatic front to work with our military leadership over the 
issue of the U.S. alliance with Kurds in northern Syria.
    Ambassador Satterfield. Senator, with respect to the 
domestic Kurdish issue, Turkey does, indeed, have a legitimate 
concern over terror from the PKK. Like Turkey, we regard the 
PKK as a foreign terrorist organization. And we have partnered 
with Turkey. We continue to partner with Turkey at many 
different levels and in an operational sense against that 
terrorist organization and their targeting of innocent Turks 
throughout the country.
    We have welcomed Turkish efforts to integrate their Kurdish 
community as a whole into Turkish society, to respect and 
regard Turkish culture as part of Turkey in a broad sense, and 
positive steps have, indeed, been taken in that regard.
    But when it comes to the PKK and terror, we are in exactly 
the same position. There are quite legitimate Turkish concerns.
    To pivot to the Syrian issue, the mission of Jim Jeffrey 
that has gone on now for the past several months is to try to 
achieve several objectives in northeast Syria, along the 
Turkish border, and in partnership with both the Turkish 
government and also in consultation with Syrian Democratic 
Forces, which are largely but not entirely Kurdish in their 
makeup.
    The objectives of that mission are several, but one of them 
is the protection of those partners who fought and died with 
and for us in the campaign against the caliphate and continue 
to engage in what we might call the enduring campaign for the 
enduring defeat of ISIS in northeast Syria. Now, that is a 
critical objective, and it can only be established in 
conjunction with negotiations with the Turks over how their 
legitimate security needs along that border, that long fraught 
border can best be done.
    And I would praise the Turkish government, its national 
security leadership because they have given the time and the 
space to Ambassador Jeffrey to proceed with these negotiations. 
And I will not in this forum go into greater detail, but I 
certainly think the ability to achieve a success, which meets 
all of the U.S. goals, protection of our partners in the SDF, 
the avoidance of a vacuum in northeast Syria into which, with 
certainty, Russia, Iran, and the Syrian regime would promptly 
move, the continuation of stabilization efforts and the 
enduring campaign against ISIS--all of those goals can be 
achieved. We hope they will be achieved in the near future.
    Senator Kaine. Thank you for that. And I think that will be 
a significant part of your work because it is certainly a 
military effort, but it is probably more diplomatic than it is 
defense or military. And I think that will be an important part 
of your work.
    One other question about Turkey. There has been reporting 
in the last few years that the administration has contemplated, 
possibly in connection with the return of Pastor Brunson or 
another instance just independently, the return of the cleric, 
Gulen, who is a U.S. resident to Turkey pursuant to the 
requests of the Turkish government. I am sure I know the answer 
to this question, the way you are going to answer.
    My sense is we are a nation of laws not men. There are laws 
about extradition that if evidence is presented to the United 
States about anyone that is sufficient for them to be 
extradited somewhere because they need to face responsibility 
in a lawful manner for their actions, that we will follow 
extradition laws. But we are not in the business of handing 
people over if there has not been a demonstration that is 
sufficient for extradition. And that has been my understanding 
of the sort of legal position of this matter, the controversy 
with Cleric Gulen. And I just want to understand if you agree 
with it as I have stated it.
    Ambassador Satterfield. Senator, you have quite accurately 
stated our position. We have requirements to meet judicial 
sufficiency standards under U.S. law. We welcome the provision 
from the government of Turkey, as we would with any government 
with whom we have an extradition treaty, material that can 
contribute to a finding of that sufficiency. And we are 
continuing to engage the Turks and to ask for any additional 
information they may have.
    Senator Kaine. Great. Thank you.
    I have no further questions, Mr. Chair. Thanks.
    Senator Johnson. Thank you, Senator Kaine.
    Ambassador Satterfield, I want to kind of follow up again 
the situation in Syria. Again, I do not really want to ask a 
hypothetical, but what is your assessment in terms of the long-
term commitment of some type of coalition force in that buffer 
zone in order to protect the PDF to provide the kind of 
stability? Is that going to require, I mean, years and years 
and years?
    Ambassador Satterfield. Senator, your question really 
breaks into two different parts. The first is the ability to 
have a coalition. We do have a coalition. There are other boots 
on the ground apart from U.S. boots. There are today and we 
very much believe there will be looking through the rest of 
this year and into the future. That coalition, that ability to 
sustain those other boots on the ground, is very much dependent 
on there being U.S. boots on the ground, not in large numbers. 
That is not a requirement. But a U.S. presence is an essential 
component as we hear from our coalition partners.
    How long does this campaign go on? I spoke with Senator 
Kaine on the enduring character of the efforts to achieve the 
lasting defeat, the permanent defeat of ISIS. I would speak 
that way in terms of Iraq. I certainly would speak that way in 
terms of northeast Syria. And I cannot give you a time limit, a 
terminus ad quem, to that campaign. ISIS is powerful. Its 
physical caliphate has been defeated. I cannot color a map 
anymore and show you towns held by ISIS, but I assure you in 
northeast Syria, as well as in northern Iraq. ISIS as a brand, 
as a coherent entity with funding and with arms, continues to 
be a challenge and a threat, and that will require coherent 
strategically patient sustained engagement to defeat.
    Senator Johnson. Those of us that were over at the Munich 
conference--we heard that loud and clear from coalition 
partners that it required a U.S. presence. And a bunch of us 
were rather vocal publicly in terms of supporting that U.S. 
presence.
    Do you envision a point in time, though, where things 
stabilize to the point where other coalition partners can take 
that up and not necessarily have U.S. presence? Or do you 
really think it is going to require that long-term?
    Ambassador Satterfield. We would very much like to see 
exactly the goal you just described, Mr. Chairman, achieved. 
That is a situation where stabilization efforts could have 
proceeded to the point where it is not necessary to have U.S. 
boots on the ground, at least in a dwell status, and that 
others can take on this burden. That has been the whole thrust 
of our policy for the past year and a half.
    Senator Johnson. It is good to hear that would be the goal.
    Ms. Byrnes, because you are serving in Athens, you have 
seen--and now you are going over to North Macedonia. You have 
seen both sides of that really--you know, the Prespa 
Agreement--to those of us in America, if you take a look at 
that, and you go this is a dispute over a name? Can you talk 
about really how deep-seated that problem was and the political 
courage it took on the leaders on both sides of those to reach 
that agreement?
    Ms. Byrnes. Thank you, Senator.
    As you note, this was an extremely difficult process on 
both sides of the border for both countries. North Macedonia 
has been unable to pursue its path towards Euro-Atlantic 
integration for years because of the failure to reach an 
agreement on the name issue.
    What the leaders in both Skopje and Athens did, in terms of 
coming together and working over a long period of time to come 
to an agreement, to show that kind of political courage and 
vision, and to focus on the future rather than on the past, was 
a tremendous diplomatic achievement. We encouraged that effort. 
We supported the leaders. Obviously, it was a U.N.-facilitated 
process, but it was really the leaders in both capitals that 
made that commitment and then were able to deliver on what has 
been the historic agreement and we think one that will bring 
great stability to the broader region.
    Senator Johnson. It is my hope that success will breed 
success. We saw Kosovo and Montenegro resolve their border 
dispute, and now we have seen Greece and North Macedonia 
resolve that. Next up, Serbia, Kosovo, a far more difficult 
problem.
    One of my concerns is we take a look at Brexit and the EU, 
the EU probably not anytime soon looking at adding membership. 
But as you are well aware, in North Macedonia, the ascension 
to, the aspiring to, be it NATO or be it EU, leads to all kinds 
of positive reforms. It is actually the desire of their 
population that actually provides the political support to do 
the tough reforms that otherwise would not be possible.
    Can you just talk a little bit about another path? 
Obviously, I will do everything I can to make sure that North 
Macedonia--you know, we confirm that ascension here in the 
United States Senate. But just talk about other nations that 
aspire for this type of membership, what those paths could be.
    Ms. Byrnes. Thank you.
    What I would say--and I thank you, first of all, for your 
support in this process because North Macedonia will need our 
support as it moves forward in both processes.
    With NATO accession, there are clear standards of 
membership that relate not only to the security contributions 
that North Macedonia would make as a future NATO ally, but the 
way that it organizes its security sector and its intelligence 
reform. So this has been a major focus not only of North 
Macedonia's government for some time, but of our U.S. 
assistance and support and coordination of that.
    We look forward to, hopefully, a very positive decision in 
June from the EU to begin the accession negotiations with North 
Macedonia. That begins a process of opening and closing 
chapters that will help with the reform process both by 
providing the framework, but also the impetus for moving some 
of those reforms not just to passing the laws, but then to 
actually implementing them and seeing real change on the 
ground.
    And it is important for the people in the country, to see 
positive benefits of that cooperation soon. So the sooner that 
they can get started on that process--and again, our assistance 
is intended to coordinate not only with the efforts of the 
government of North Macedonia but our EU allies and NATO 
partners to make sure that we are all coordinating towards that 
effort.
    Senator Johnson. Mr. Crawford, as a business person, you 
understand the importance of tax rates. And from my 
standpoint--I am sure this could be disputed, but I think one 
of the successes of the Ireland economy is they have recognized 
the fact that you want to keep business tax rates quite low. As 
a result, that has attracted an awful lot of investment. But 
that has also been an irritant to Ireland's trading partners.
    Can you just comment on that a little bit?
    Mr. Crawford. Ireland's lower tax rate that is in place 
today--I do not really believe I have enough information 
available to me of quality to be able to give you an opinion on 
the currencies in that particular issue because it is very, 
very complicated. The currencies keep changing all around 
Europe. Brexit has put pressure on this whole situation. But 
clearly, if I am confirmed, I am going to support the current 
laws around it and support the business as it stands. And then 
people with more responsibility and more authority and more 
information will change the rules, and I will play by those 
rules.
    Senator Johnson. Fair enough.
    Any other member have further questions?
    [No response.]
    Senator Johnson. Well, then with that, again I want to 
congratulate the nominees for being nominated. Thank you for 
your past service. Thank you for your willingness to serve. I 
want to thank the families as well.
    Ambassador Satterfield, Ms. Byrnes, I certainly recognize 
you have already experienced that sacrifice. Mr. Crawford, you 
might as well. These are important positions and it is a family 
level of service and sacrifice. So, again, thank you all very 
much for your service and for appearing before our committee 
today.
    The hearing record will remain open for statements or 
questions until the close of business on Friday, April 12th.
    The hearing is adjourned.


    [Whereupon, at 3:36 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

                              ----------                              


            Responses to Additional Questions for the Record
        Submitted to Edward Crawford by Senator Robert Menendez

    Question. Do I have your commitment, if confirmed, to maintain a 
direct line with me as Ireland moves through this potentially 
tumultuous period?

    Answer. Yes. If confirmed, I look forward to engaging with you and 
other members of the Senate and the House.


    Question. If confirmed, do I have your commitment to meet with 
Irish American civil society leadership here before you leave for 
Dublin?

    Answer. If confirmed, I plan to meet with Irish American civil 
society leadership.


    Question. What are the top U.S. policy interests as it relates to 
Brexit?

    Answer. The United States supports a Brexit outcome that maintains 
global economic and financial stability, minimizes disruption to 
Transatlantic commercial and security ties, preserves the gains of the 
Good Friday Agreement in Northern Ireland, and allows sufficient 
British autonomy to negotiate an ambitious U.S.-UK trade agreement.


    Question. In the event that the UK crashes out of the EU, what will 
your priorities be as Ambassador to Ireland, if confirmed, with respect 
to the fallout from Brexit?

    Answer. If confirmed, I would work with the Irish government, as 
one of the co-guarantors of the Good Friday Agreement, to ensure 21 
years of gains in the peace process are safeguarded and to ensure that 
Transatlantic security, stability, and prosperity are maintained.


    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. A cornerstone of my business philosophy is building 
companies that are part of communities. Whether that company is in 
Cleveland or Japan, the companies I build create jobs and opportunities 
for communities. Employees of my companies are always treated with 
respect and dignity. I am proud of the relationships we have with our 
employees and their families and grateful to serve the communities 
where we operate.


    Question. What issues are the most pressing challenges to democracy 
or democratic development in Ireland? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. Ireland has strong democratic institutions. However, the 
2018 U.S. Country Report on Human Rights Practices in Ireland noted 
societal discrimination and violence against immigrants and racial and 
ethnic minorities remained a problem. If confirmed, I will engage with 
Irish authorities and civil society to promote tolerance and 
nondiscrimination.


    Question. What steps will you take--if confirmed--to support 
democracy in Ireland? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, my team at the Embassy in Dublin would 
continue to engage Irish officials at all levels of government in 
support of tolerance and nondiscrimination. Through the International 
Visitors Leadership Program and other exchange programs, Irish citizens 
with aspirations to serve in government and other elements of civil 
society travel to the United States and meet with Americans engaging in 
similar work to share best practices and develop relationships that 
will last throughout their careers. If confirmed, I would further these 
efforts with the goal of addressing the issues raised in the 2018 U.S. 
Country Report on Human Rights Practices in Ireland. This effort will 
need to involve engagement with both the Irish government as well as 
members of civil society.


    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes. If confirmed, I would ensure my employees abide by 
U.S. law, as well as the Department's rules and regulations.


    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. I have never had a formal or informal complaint or 
allegation of sexual harassment, discrimination, or inappropriate 
conduct raised against me.


    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. I am not aware of any formal or informal concerns or 
allegations of sexual harassment, discrimination, or inappropriate 
conduct made against any employee over whom I have had supervisory 
authority. Park-Ohio Holdings and its operating subsidiaries are 
engaged in heavy manufacturing around the world, employing over 6,000 
people. The companies are involved in routine civil litigation and 
administrative proceedings involving employment matters. These routine 
matters are handled by other senior executives without my involvement.



                               __________


       Responses to Additional Questions for the Record Submitted
            to Edward Crawford by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. A cornerstone of my business philosophy is building 
companies that are part of communities. Whether that company is in 
Cleveland or Japan, the companies I build create jobs and opportunities 
for communities. Employees of my companies are always treated with 
respect and dignity. I am proud of the relationships we have with our 
employees and their families and grateful to serve the communities 
where we operate.


    Question. What are the most pressing human rights issues in 
Ireland? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Ireland? What do 
you hope to accomplish through these actions?

    Answer. Ireland has a strong human rights record. However, the 2018 
U.S. Country Report on Human Rights Practices in Ireland noted societal 
discrimination and violence against immigrants and racial and ethnic 
minorities remained a problem. If confirmed, I will engage with Irish 
authorities and civil society and encourage cooperation to promote 
tolerance and nondiscrimination.


    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Ireland in 
advancing human rights, civil society and democracy in general?

    Answer. If confirmed, I and my team at the Embassy in Dublin would 
continue to engage Irish officials at all levels of government, as well 
as civil society to promote tolerance and nondiscrimination. Through 
the International Visitors Leadership Program and other exchange 
programs, Irish citizens with aspirations to serve in government and 
other elements of civil society travel to the United States and meet 
with Americans engaging in similar work to share best practices and 
develop relationships that will last throughout their careers. If 
confirmed, I would further these efforts with the goal of addressing 
the issues raised in the 2018 U.S. Country Report on Human Rights 
Practices in Ireland. This effort will need to involve engagement with 
both the Irish government as well as members of civil society.


    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Ireland? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes. If confirmed, I will engage with civil society and 
non-governmental organizations both in the United States and in Ireland 
on a range of human rights and other issues of mutual interest. I will 
also ensure all the required vetting is carried out for any security 
assistance and security cooperation activities.

    Question. Will you and your embassy team actively engage with 
Ireland to address cases of key political prisoners or persons 
otherwise unjustly targeted by Ireland?

    Answer. Yes.


    Question. Will you engage with Ireland on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes.


    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.


    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.


    Question. Do you or do any members of your immediate family have 
any financial interests in Ireland?

    Answer. My and my spouse's investment portfolio includes interests 
in entities that have a presence in the Republic of Ireland. This 
includes a financial interest in Park-Ohio Holdings Corp, an entity I 
currently serve as President and Director. Through its subsidiaries, 
Park-Ohio Holdings Corporation conducts activities throughout the 
world, including in the Republic of Ireland. I am committed to ensuring 
that my official actions will not give rise to a conflict of interest. 
I will divest all investments the State Department Ethics Office deems 
necessary to avoid a conflict of interest, and I will remain vigilant 
with regard to my ethics obligations.


    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, one of my first actions as ambassador will be 
to meet the entire team at our Embassy in Dublin. People are the 
foundation of my businesses. Diversity and inclusion on teams is very 
important to me. Diversity not only enhances our effectiveness but also 
promotes a workplace culture that values the efforts of all members and 
enhances the professional experience of our valued public servants. At 
my companies we employ a diverse worldwide workforce, and if confirmed, 
I commit to promoting the Department's goal of ensuring its workforce 
reflects the rich composition of the American people all over the world 
of different races, ethnicities, genders, and religions.


    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I would lead by example and promote the 
highest standards from our management team. Any behavior that hinders 
an inclusive environment will not be tolerated.


    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Ireland 
specifically?

    Answer. Corruption erodes public trust and institutions. Ireland 
has strong democratic institutions, established rule of law, and a free 
press. The law provides criminal penalties for corruption, and the 
government generally implements the laws effectively.


    Question. What is your assessment of corruption trends in Ireland 
and efforts to address and reduce it by that government?

    Answer. Ireland has a strong record of combating corruption. 
Ireland enacted legislation in 2018 that overhauled Ireland's 
anticorruption laws. According to the 2018 Investment Climate Statement 
for Ireland, corruption is not a serious problem for foreign investors 
operating in Ireland.


    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Ireland?

    Answer. If confirmed, I will work with my team at the Embassy in 
Dublin to engage Irish officials at all levels of government in support 
of good governance and anticorruption. Through the International 
Visitors Leadership Program and other exchange programs, Irish citizens 
with aspirations to serve in government and other elements of civil 
society travel to the United States and meet with Americans engaging in 
similar work to share best practices and develop relationships that 
will last throughout their careers. If confirmed, I would further these 
efforts.


    Question. To what extent is the United States concerned about 
Brexit's potential political and economic repercussions on Ireland and 
Northern Ireland?

    Answer. The United States is concerned with the impact Brexit will 
have on Ireland, and how in turn it could impact the broad and deep 
trade and investment ties the United States presently enjoys with the 
Republic of Ireland, Northern Ireland, the United Kingdom, and of 
course the EU writ large. The U.S. government has urged both the UK and 
EU to pursue a path that will result in as minimal disruption as 
possible to the free flow of goods and services between the UK and 
Ireland. If confirmed, I will work with the government of Ireland in 
support of a Brexit outcome that maintains global economic and 
financial stability, minimizes disruption to Transatlantic commercial 
and security ties, and preserves the gains of the Good Friday Agreement 
in Northern Ireland.


    Question. In your view, could a ``hard'' border on the island of 
Ireland inflame sectarian tensions and pose a security concern?

    Answer. Brexit will impact Ireland, as well as Northern Ireland, 
and opportunistic extreme groups could take advantage of uncertainty to 
attempt to advance what they perceive as political agendas. If 
confirmed, I will work with the Irish government, as one of the co-
guarantors of the Good Friday Agreement, to ensure 21 years of gains in 
the peace process are not jeopardized by the exit of the UK from the 
EU.


    Question. Even if the UK parliament were to agree to the negotiated 
withdrawal agreement or other arrangements with the EU to help ensure 
the border remains invisible, to what extent might Brexit affect the 
economies of Northern Ireland and Ireland?

    Answer. Brexit will have an impact on the economies of Ireland and 
Northern Ireland. While it is difficult to calculate the exact impact 
any disruption to trade will have following the UK's exit from the EU, 
it is in the UK and Ireland's interest that their economic ties remain 
strong. The U.S. government has urged both the UK and EU to pursue a 
path that will result in as minimal disruption as possible to the free 
flow of goods and services between the UK and Ireland. If confirmed, I 
will work with the government of Ireland in support of a Brexit outcome 
that maintains global economic and financial stability, minimizes 
disruption to Transatlantic commercial and security ties, and preserves 
the gains of the Good Friday Agreement in Northern Ireland.


    Question. Some analysts suggest that Brexit has increased momentum 
and support for a united Ireland in Northern Ireland. How do you assess 
the degree of support for a united Ireland in the Republic of Ireland?

    Answer. I think it will be important to first understand the impact 
Brexit will have on Northern Ireland. The immediate challenge that 
exists for Northern Ireland is returning devolved government to 
Stormont. It is important for people in Northern Ireland to be 
represented in this critical time.


    Question. Some in the UK, especially those in favor of a ``hard 
Brexit'' or a ``no deal Brexit,'' claim that the Good Friday Agreement 
and concerns about Northern Ireland are being exploited by Ireland and 
the EU to impede Brexit. Some of this view have suggested that it also 
might be time to reexamine the Good Friday Agreement. How do you 
respond to such suggestions?

    Answer. The United States supports the Good Friday Agreement, and 
if confirmed, I will continue to work with the Irish government, as a 
co-guarantor of the Agreement to safeguard and build on the 21 years of 
stability, reconciliation, and economic development that the Good 
Friday Agreement facilitated.


    Question. How might the United States and Ireland work together to 
minimize any possible future negative impacts of Brexit on Ireland and 
Northern Ireland?

    Answer. If confirmed, I would work with Irish officials to support 
a Brexit that maintains global economic and financial stability, 
minimizes disruption to Transatlantic commercial and security ties, and 
preserves the gains of the Good Friday Agreement in Northern Ireland.



                               __________


            Responses to Additional Questions for the Record
         Submitted to Edward Crawford by Senator Jeanne Shaheen

    Question. Brexit is expected to impact Ireland more than any other 
EU member state due in large part to the land border shared with the 
UK. Given your experience as a businessman, what consequences could be 
expected from a sudden inability of goods and services to move freely 
between two communities and countries so reliant on the free-flow of 
trade?

    Answer. I am concerned with the impact Brexit will have on Ireland, 
and how in turn it could impact the broad and deep trade and investment 
ties the United States presently enjoys with the Republic of Ireland, 
Northern Ireland, the United Kingdom, and of course the EU writ large. 
The U.S. government has urged both the UK and EU to pursue a path that 
will result in as minimal disruption as possible to the free flow of 
goods and services between the UK and Ireland. While it is difficult to 
calculate the exact impact any disruption to trade will have on Ireland 
following the UK's exit from the EU, it is in the UK and Ireland's 
interest that their economic ties remain strong. If confirmed, I will 
work with the government of Ireland in support of a Brexit outcome that 
maintains global economic and financial stability, minimizes disruption 
to Transatlantic commercial and security ties, and preserves the gains 
of the Good Friday Agreement in Northern Ireland.


    Question. The Irish government has expressed concern over trade 
tensions with the U.S. resulting from retaliatory sanctions and subsidy 
practices. If confirmed, how would you address Irish concerns about the 
impact of the Trump Administration's trade policies?

    Answer. The United States and Ireland have a strong trading 
relationship, and it is in both countries' interest to maintain this. 
The Administration is committed to the ongoing U.S-EU trade discussions 
with the goal of concluding a comprehensive U.S.-EU trade agreement. If 
confirmed, I would listen to the Irish government's concerns, and 
convey the Administration's policy to promote free, fair, and 
reciprocal trade.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Kate Marie Byrnes by Senator Robert Menendez

    Question. As a future NATO ally, North Macedonia must meet its 
commitments. North Macedonia has not yet met its 2% of GDP goal, and of 
course the 20% threshold is as important, if not more:

   If confirmed, what steps will you take to ensure the government 
        meets its commitments?

    Answer. North Macedonia is a steadfast security partner of the 
United States. It sent troops to fight alongside ours in Iraq and 
Afghanistan. It plans to spend approximately 1.2 percent of its GDP on 
defense in 2019, has a clear and credible plan to reach 2 percent by 
2024 in line with NATO's Wales Pledge, and is on track to meet its 20 
percent commitment on capabilities spending even earlier. North 
Macedonia permits NATO Allies and Partners to use the Krivolak Training 
Area, which provides terrain for maneuver exercises not available 
elsewhere in Europe. In 2019, North Macedonia will host its largest 
joint multinational exercise (``Decisive Strike'') since the breakup of 
Yugoslavia; over 1,000 U.S. troops will participate over the course of 
the exercise.
    If confirmed, I will ensure that this remains at the top of our 
bilateral agenda. I will urge North Macedonia to meet all its 
commitments to the Alliance and contribute to our collective security. 
This will advance stability and security in the region.


    Question. The Prespa Agreement signifies a historic moment in which 
the political leaders of North Macedonia and Greece overcame difficult 
historical issues by focusing on the future-including opening the door 
to NATO. This agreement is fragile, and steps need to be taken to 
implement provisions of the agreement: What do you envision your role, 
if confirmed, in ensuring this agreement is fully implemented?

    Answer. The Prespa Agreement lays out a timeline for full 
implementation of the agreement and mechanisms for expanding bilateral 
cooperation, covering the technical and political phase-in of the name. 
A bilateral joint commission on historic and educational matters is 
already meeting. A group of experts will be established, within the 
context of the EU, to advise on commercial and trademark use.
    North Macedonia and Greece are building on the Prespa Agreement to 
expand bilateral cooperation across a range of areas, both officially 
and between private businesses and organizations. If confirmed, I will 
remain committed to working with North Macedonia to guarantee the 
success and full implementation of the Prespa Agreement, including the 
implementation of continuing reforms, and to see that North Macedonia 
integrates fully into the Western community of nations.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Promoting human rights and democracy has been central to 
every one of my Foreign Service assignments. In Turkey, Bolivia, 
Hungary and Spain, I engaged actively as a Public Diplomacy Officer to 
ensure that our Embassy programs, working with host country 
institutions and non-governmental organizations, strengthened rule of 
law and democratic processes and promoted freedom, democracy, 
individual liberty, and human dignity. I set guidelines to ensure our 
exchange programs emphasized diversity. In all my assignments, I 
engaged civil society representatives, the public and media to bring 
attention to minority groups, including Muslim and Roma minorities, 
refugees and migrants, LGBTQ, and disabled persons. Through outreach 
and joint programming, we amplified their voices and supported their 
inclusion, contributing to our partner countries' democracies.
    At the OSCE, I led team efforts to underscore U.S. policy concerns 
and urge human rights violations and abuses that threaten stability in 
Europe were addressed. In the context of North Macedonia, as well as 
other OSCE participating states, I coordinated with EU counterparts to 
craft OSCE policy statements reiterating the importance of reform 
implementation to North Macedonia's future. I worked with the 
Department of State's Office of the Coordinator for U.S. Assistance to 
Europe and Eurasia to direct U.S. government resources to rule of law, 
electoral reform, and other programs at OSCE field missions that 
strengthened democratic institutions and advanced U.S. security 
interests. Our efforts protected the access to, and representation of, 
human rights organizations and other civil society groups at the OSCE/
ODIHR Human Dimension Implementation Meeting and other OSCE meetings, 
in the face of opposition from some OSCE participating states. I helped 
establish the Democracy Defender Award in 2016 with a small group of 
like-minded OSCE delegations, which is now in its fourth year with 36 
co-sponsors. Our delegation's strong voice brought international 
attention to abuses and human rights violations in Crimea and Chechnya 
and supported new efforts to combat trafficking in human beings, anti-
Semitism, and discrimination across the OSCE region. We also worked to 
protect the OSCE's independent institutions, maintain focus on 
preserving and advancing the Helsinki principles, and ensure that U.S. 
resources, and to the greatest extent possible those of the OSCE, 
addressed U.S. national priorities.


    Question. What issues are the most pressing challenges to democracy 
or democratic development in North Macedonia? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. A lack of judicial independence and corruption are among 
the most pressing challenges facing North Macedonia. The State 
Department's 2018 Human Rights Report also noted other significant 
human rights concerns in North Macedonia included the Council of 
Europe's Committee for Prevention of Torture's assessment that prison 
conditions could be described as constituting cruel, inhuman, or 
degrading treatment, and allegations of discrimination against some 
minorities and LGBTQ persons. If confirmed, I will work to strengthen 
adherence to our shared values, and provide appropriate support to the 
government of North Macedonia's ongoing reform efforts, especially in 
rule of law, anti-corruption, and public administration. To this end, I 
will engage not only government officials and political parties, but 
also civil society and citizens in North Macedonia, utilizing the full 
range of our diplomatic, foreign assistance, and public diplomacy 
tools.


    Question. What steps will you take--if confirmed--to support 
democracy in North Macedonia? What do you hope to accomplish through 
these actions? What are the potential impediments to addressing the 
specific obstacles you have identified?

    Answer. If confirmed, I will support North Macedonia on its Western 
trajectory. The Administration strongly supports the historic Prespa 
Agreement with Greece, which unblocks the path for North Macedonia's 
integration into NATO and the European Union. Over the past year, the 
government of North Macedonia made significant progress in implementing 
reforms needed for the country to align with NATO and EU values. This 
included strengthening rule of law and judicial independence, media 
freedom, transparency, and government accountability. At the 
government's request, we are supporting these important reform efforts.
    If confirmed, I will encourage the government of North Macedonia to 
increase accountability at all levels, break the cycle of corruption, 
and unleash the country's economic potential, thus advancing the 
country's strategic goals.


    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. I agree with that statement. If confirmed, I will work to 
prevent any attempts to target or retaliate against career employees 
based on their perceived political beliefs, prior work on policy, or 
affiliation with a previous administration. If confirmed, I will ensure 
that each of the supervisors at the Embassy in North Macedonia fosters 
an environment that is diverse and inclusive, including by making my 
own commitment and my expectations clear from the very first country 
team and town hall meeting. I will not tolerate retaliation, 
blacklisting, or other prohibited personnel practices. I take 
allegations of such practices seriously and will ensure their referral 
to the Department's Inspector General, as appropriate.


    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. I have never been subject to a formal or informal complaint 
or allegation of sexual harassment, discrimination, or inappropriate 
conduct in a workplace or any other setting. I commit to comply with 
all relevant federal laws, regulations, and rules, and to raise 
concerns that I may have through appropriate channels.


    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. As a Deputy Chief of Mission, I have had a role in 
supporting the Equal Employment Opportunity (EEO) process for employees 
under my overall supervision and have worked with the Department's 
Office of Civil Rights per its guidance to address those situations 
appropriately. If confirmed, I commit to continue complying with all 
relevant federal laws, regulations, and rules, and to raise concerns 
that I may have through appropriate channels.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Kate Marie Byrnes by Senator Benjamin L. Cardin


    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. Promoting human rights and democracy has been central to 
every one of my Foreign Service assignments. In Turkey, Bolivia, 
Hungary and Spain, I engaged actively as a Public Diplomacy Officer to 
ensure that our Embassy programs, working with host country 
institutions and non-governmental organizations, strengthened rule of 
law, democratic processes, and promoted freedom, democracy, individual 
liberty, and human dignity. I set guidelines to ensure our exchange 
programs emphasized diversity. In all my assignments, I engaged civil 
society representatives, the public, and media to bring attention to 
minority groups, including Muslim and Roma minorities, refugees and 
migrants, LGBTQ and disabled persons. Through outreach and joint 
programming, we amplified their voices and supported their inclusion, 
contributing to our partner countries' democracies.
    At the OSCE, I led team efforts to underscore U.S. policy concerns 
and urge human rights violations and abuses that threaten stability in 
Europe were addressed. In the context of North Macedonia, as well as 
other OSCE participating states, I coordinated with EU counterparts to 
craft OSCE policy statements reiterating the importance of reform 
implementation to North Macedonia's future. I worked with the 
Department of State's Office of the Coordinator for U.S. Assistance to 
Europe and Eurasia to direct U.S. government resources to rule of law, 
electoral reform, and other programs at OSCE field missions that 
strengthened democratic institutions and advanced U.S. security 
interests. Our efforts protected the access to and representation of 
human rights organizations and other civil society groups at the OSCE/
ODIHR Human Dimension Implementation Meeting and other OSCE meetings, 
in the face of opposition from other OSCE participating states. I 
helped establish the Democracy Defender Award in 2016 with a small 
group of like-minded OSCE delegations, which is now in its fourth year 
with 36 co-sponsors. Our delegation's strong voice brought 
international attention to abuses and human rights violations in Crimea 
and Chechnya, and supported new efforts to combat trafficking in human 
beings, anti-Semitism, and discrimination across the OSCE region. We 
also worked diligently to protect the OSCE's independent institutions, 
maintain their focus on preserving and advancing the Helsinki 
principles, and ensure that U.S. resources, and to the greatest extent 
possible those of the OSCE, addressed U.S. national priorities.


    Question. What are the most pressing human rights issues in North 
Macedonia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in North Macedonia? 
What do you hope to accomplish through these actions?

    Answer. The State Department's 2018 Human Rights Report noted that 
the most significant human rights concerns in North Macedonia included 
the Council of Europe's Committee for Prevention of Torture's 
assessment that prison conditions could be described as constituting 
cruel, inhuman, or degrading treatment; high-level corruption; and 
allegations of discrimination against some minorities and LGBTQ 
persons. If confirmed, I will support efforts to strengthen the rule of 
law in North Macedonia and combat intolerance and promote inclusivity 
for all, regardless of ethnicity, religion, or sexual orientation. I 
will utilize the full range of our diplomatic, assistance, and public 
diplomacy tools to continue supporting the office of the independent 
human rights ombudsman and advancing implementation of democratic 
reforms by the government, including those that strengthen the 
judiciary and rule of law, bolster media freedom, and increase the 
competence and accountability of the public administration. The United 
States has been vocal about increasing transparency and public 
involvement in governance in North Macedonia. If confirmed, I will 
continue my engagement with government, political parties, civil 
society, and ordinary citizens to raise awareness of, and promote 
adherence to, our shared values of democracy, human rights, and the 
rule of law.


    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in North Macedonia in 
advancing human rights, civil society and democracy in general?

    Answer. Since emerging in 2017 from a protracted political crisis, 
North Macedonia has made significant progress in implementing 
democratic reforms and increasing transparency and accountability. This 
progress was made by the government of North Macedonia, in close 
cooperation with the United States, the European Union, and other 
members of the international community. More work remains. The 
government must keep its focus on implementing reforms that deliver 
sustainable and concrete results in combating high-level corruption and 
impunity, restoring public trust in state institutions, and bolstering 
the fairness and integrity of the judiciary.
    Challenges remain to address the causes of negative public 
perception of, and widespread societal discrimination against, 
minorities, LGBTQ persons, and persons with disabilities. It will 
require time and effort to overcome deep-seated biases common 
throughout the region. However, our encouragement and the support of 
civil society organizations, the government of North Macedonia is 
taking necessary steps to increase alignment with international human 
rights standards. This includes the March 11 adoption of an updated Law 
on Prevention and Protection Against Discrimination.


    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in North Macedonia? If confirmed, what steps 
will you take to pro-actively support the Leahy Law and similar 
efforts, and ensure that provisions of U.S. security assistance and 
security cooperation activities reinforce human rights?

    Answer. Civil society plays an indispensable role in free and 
democratic societies by promoting respect for human rights, rule of 
law, and transparency. If confirmed, I am committed to deepening the 
Embassy's long-standing relationships with civil society and continuing 
to work with the non-governmental sector to promote support for 
democracy in North Macedonia. The Leahy law plays a pivotal role in 
ensuring that respect for human rights remains a core precept in our 
promotion of global security. If confirmed, I will reinforce this 
commitment to human rights by ensuring the Embassy continues to follow 
the Leahy law, including by thoroughly vetting all individuals and 
units nominated to receive U.S. security assistance and participate in 
U.S.-funded security cooperation activities.


    Question. Will you and your embassy team actively engage with North 
Macedonia to address cases of key political prisoners or persons 
otherwise unjustly targeted by North Macedonia?

    Answer. The U.S. Embassy in North Macedonia takes very seriously 
any allegation or instance where individuals may be prosecuted for the 
exercise of their human rights, such as freedom of opinion or belief 
and freedom of expression, and regularly engages to demand independent, 
accountable judicial action. In the event there were credible reports 
of prisoners of conscience, or indications that the government or its 
agents committed arbitrary or unlawful killings or caused 
``disappearances,'' if confirmed, I would utilize every resource at my 
disposal to engage with government and other officials to remedy the 
situation, as appropriate.


    Question. Will you engage with North Macedonia on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will continue the work of the Embassy to 
work with the government of North Macedonia, political parties, ethnic 
and religious groups, members of civil society, and domestic and 
international organizations to advance North Macedonia's aspirations of 
joining the European Union and NATO as a country that upholds its 
obligations and commitments regarding human rights, including civil 
rights, and governance.


    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.


    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.


    Question. Do you or do any members of your immediate family have 
any financial interests in North Macedonia?

    Answer. My investment portfolio includes funds that may have or 
acquire investments in companies in North Macedonia; however, these 
funds are exempt from the conflicts of interest rules and have been 
reviewed by the State Department Ethics Office. I am committed to 
ensuring that my official actions will not give rise to a conflict of 
interest. I will divest my interests in any investments the State 
Department Ethics Office deems necessary in the future to avoid a 
conflict of interest, and I will remain vigilant with regard to my 
ethics obligations.


    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Today's Foreign Service is more diverse, more creative, and 
more effective than my father's Foreign Service, and I consider it a 
personal responsibility to ensure that it continues to grow in that 
direction, even more expeditiously, to better represent today's diverse 
America. The strongest message our overseas Missions or delegations to 
multilateral institutions can send to foreign counterparts is that we 
represent the full strength of the United States and the diversity of 
all its citizens. The Department's formal programs are a first step in 
recruiting talented, diverse individuals into the system; it is up to 
managers to ensure that diversity and inclusion become a part of their 
daily decision making and thought processes in the workplace.
    In my formal and informal mentoring of officers and specialists I 
seek first to understand the perspectives of my colleagues. I ask about 
their background, why they chose this path of service, and what they 
hope to contribute, in order to support their career aspirations. There 
is no single path of success in the Foreign Service; there are many. I 
work with individuals under my supervision to ensure that in their 
current assignments they have opportunities to express their views, 
test their initiatives, and receive constructive feedback. I believe in 
the value of after-action discussions to ensure that team members 
understand how and why decisions are ultimately made, particularly when 
a diversity of views are expressed, to ensure transparency and promote 
professional learning.
    If confirmed, I will ensure that staff members in my Mission rotate 
leadership responsibilities as control officers, project coordinators, 
reporting officers, and public outreach officers, to strengthen their 
tradecraft and expose them to different aspects of our diplomatic 
world. I will continue to encourage the officers and specialists who 
work in my Mission, or who reach out to me from other assignments, to 
consider bidding strategies that open up new opportunities to expand 
their skill sets as well as their professional networks. Additionally, 
I will ensure that my Mission's professional development programs 
provide opportunities to personnel at every stage of their career as 
they move beyond the entry level.


    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will ensure that each of the supervisors at 
the Embassy in North Macedonia fosters an environment that is diverse 
and inclusive by making my own commitment and my expectations clear 
from the very first country team and town hall meeting. I will set a 
leadership example by seeking input from all members of the country 
team. I will encourage challenging questions and reflection and 
analysis among staff members. I will establish a ``no-fault'' policy 
for good ideas, tabling all issues and inviting collaboration.
    I will demonstrate interest in how my country team members interact 
with their own teams and encourage my Deputy Chief of Mission to do the 
same, by encouraging them and their subordinates to structure meetings 
and other Mission processes to create an environment in which all staff 
members can express their views. I will ensure all supervisors are held 
to the same standards, working with them to broaden input into our 
policies and programs. During the Open Season and other assignment and 
hiring periods, I will work with them on their recruitment strategies 
and position choices. My commitment is to building a team that is 
diverse and representative of all of America and to fostering an 
environment that is inclusive, collaborative and an engine for the best 
ideas to further U.S. interests in North Macedonia.


    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in North 
Macedonia specifically?

    Answer. As noted by the global anti-corruption watchdog 
organization Transparency International, when corruption seeps into the 
democratic system, corrupt leaders will seek to bypass democratic 
checks and balances to remain in power and thwart the public will. Weak 
anti-corruption mechanisms and an atmosphere of impunity lead to weak 
public institutions and weak rule of law, eroding public trust and 
confidence in their democratic institutions and the state. To fight 
corruption and strengthen democratic institutions and governance, we 
must champion democratic checks and balances, strong laws but also 
their strong implementation, judicial independence and integrity, and 
public accountability and media freedom.
    With respect to North Macedonia, numerous international reports 
cite the country's failures to uphold the rule of law over the last 
decade. Political interference, inefficiency, favoritism, prolonged 
processes, and corruption weakened the country's judicial system and 
led to state capture under the previous government. The current 
government is taking steps to address these weaknesses. The United 
States is supporting these efforts as well as civil society initiatives 
that hold the government accountable for progress.


    Question. What is your assessment of corruption trends in North 
Macedonia and efforts to address and reduce them by the government of 
North Macedonia?

    Answer. Following a prolonged political crisis caused by a 
wiretapping scandal that revealed widespread corruption and abuses by 
the previous government, the current government took power in June 
2017. It has worked to combat corruption and restore accountability. 
One key step was the enactment of a new Law on Prevention of Corruption 
and Conflict of Interest in January 2019 that provided for the re-
constitution of the State Commission for Prevention of Corruption and 
Conflict of Interest with greater independence and strengthened 
competencies. It can now examine public officials' bank records, 
political party and election campaign finances, and all political 
appointments, as well as request prosecutions. As a result of efforts 
such as these by the government of North Macedonia, the country moved 
up 14 places between 2017 and 2018 in Transparency International's 
Public Perception of Corruption Index, to rank 93rd out of 180 
countries surveyed. More is necessary, and the government of North 
Macedonia has committed to intensifying anti-corruption efforts and is 
cooperating with the State Commission for Prevention of Corruption and 
Conflict of Interest's inquiry into alleged nepotism cases involving 
the employment of current and former government officials or their 
relatives.


    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in North Macedonia?

    Answer. If confirmed, I will continue to lead the Embassy in 
supporting programming that will help North Macedonia implement reforms 
that strengthen its democracy, the rule of law, and government 
accountability. U.S. assistance will focus on helping North Macedonia 
develop an effective and transparent justice sector that reduces 
corruption and impunity and restores citizens' trust in public 
institutions. Embassy Skopje will advise, assist, and deliver projects 
to augment the separation of powers with functional checks and 
balances, strengthen and build an effective criminal justice system, 
and fight public corruption, tied directly to the strategic interests 
of the United States. To avoid duplication of effort, we will 
coordinate our assistance with other donors.


    Question. As you know, the Helsinki Commission has taken a leading 
role in advocating greater respect for the rights of Roma throughout 
Europe. Commission co-chairman Senator Roger Wicker and I have recently 
introduced Senate Resolution 141, celebrating the heritage of Roma in 
this country. North Macedonia has a large and relatively vibrant Romani 
community, even though its members may face discrimination in 
employment, education, housing and other areas similar to Roma in other 
countries.
    If confirmed as Ambassador, will you ensure the U.S. embassy 
continues its active engagement of the Romani community in North 
Macedonia and speak out when human rights violations or other problems 
reflecting prejudice occur?

    Answer. If confirmed, I will continue longstanding efforts to 
ensure the rights of all people--including the Romani community as well 
as other members of ethnic and religious minority communities--are 
protected. If confirmed, I will continue to promote the values of 
freedom, democracy, individual liberty, and human dignity. U.S. 
assistance includes grants to local groups that promote the protection 
of human rights and fundamental freedoms of members of targeted 
populations, including minority groups.


    Question. While progress will hopefully convince a broad majority 
of Macedonian citizens of the wisdom of the name-change, in the short-
term there is considerable opposition. How might this affect the 
Macedonian presidential elections in April or obtaining sufficient 
support for still-needed internal reforms?

    Answer. The Prespa Agreement represents the committed efforts of 
leaders of both North Macedonia and Greece to find a solution to a 
longstanding problem that advances stability and prosperity in both 
countries. It involves compromises that were difficult for both sides. 
While many citizens support the Prespa Agreement and what it will 
achieve for the country, some citizens are still disappointed with 
those compromises. We believe the Prespa Agreement advances stability, 
security, and prosperity throughout the region, as it opens a door for 
North Macedonia's full Western integration.
    The Prespa Agreement is an issue of national interest in North 
Macedonia and is therefore a topic of discussion among the presidential 
candidates. All three candidates support a NATO and EU future for North 
Macedonia.
    If confirmed, I will remain committed to working with North 
Macedonia to guarantee the Prespa Agreement's full implementation and 
the implementation of continuing reforms, to see that North Macedonia 
is fully integrated into the Western community of nations.


    Question. Now that the Greek and Macedonian parliaments have 
ratified the Prespa Agreement, what are the next steps for the 
Macedonian government to formalize the name change and join NATO? Do 
you anticipate any potential complications?

    Answer. The Prespa Agreement sets out a timeline for full 
implementation of the Agreement and mechanisms for expanding bilateral 
cooperation, covering the technical and political phase-in of the name. 
A joint commission on historic and educational matters is already 
meeting. A group of experts will be established, within the context of 
the EU, to advise on commercial and trademark use.
    NATO Allies signed the Accession Protocol for North Macedonia in 
Brussels on February 6. Allies are proceeding with their domestic 
processes necessary to ratify North Macedonia's NATO accession 
protocol. To date, eleven countries have ratified the Accession 
Protocol. On March 27, the White House submitted to Congress the report 
on the Republic of North Macedonia's Accession to NATO for Senate 
review.
    Importantly, North Macedonia and Greece are building on the Prespa 
Agreement with expanded bilateral cooperation in a range of areas, both 
officially and between private businesses and organizations. The United 
States is supporting both North Macedonia and Greece as they move 
forward with implementation to ensure the success of the Prespa 
Agreement and to strengthen their bilateral ties.


    Question. Do you see opposition to North Macedonia's integration 
from countries other than Russia, such as Hungary or Turkey?

    Answer. Both Hungary and Turkey have been supportive of the Prespa 
Agreement. North Macedonia deserves these countries' continued support 
as it moves along its chosen path of Western integration.


    Question. What role should the United States play in North 
Macedonia, and in the Western Balkans as a whole, especially to counter 
Russian and other destabilizing influences?

    Answer. Russia does not accept the post-Cold War settlement in 
Europe and is pushing back with a variety of tools, both overt and 
covert, to forestall the region's Western integration. It seeks to 
incite divisions. In contrast, the United States supports EU membership 
for all countries of the Western Balkans and NATO membership for those 
who want it.
    In the case of North Macedonia, Russia has been vocal in speaking 
out against the country's democratically chosen NATO path and attempted 
to undermine effort to reach an agreement on the name issue. We are 
supporting North Macedonia's further steps towards Western integration 
and pushing back on Russia's attempts to hinder these efforts. The 
United States firmly believes that North Macedonia's interests and 
those of its Western Balkans neighbors--as well as ours--are best 
served by their cementing democratic norms, rule of law, and 
cooperation, based on common values and a shared future.

    Question.  North Macedonia was directly impacted by the mass 
migration into Europe from Africa and the Middle East in recent years. 
What have been the effects of the migrants and refugees who have 
transited through North Macedonia? What challenges does the country 
continue to face regarding migration?

    Answer. During the 2015-2016 European migration crisis, the U.S. 
government worked with the United Nations and other international 
organizations, as well as EU institutions and member states, to provide 
a comprehensive, coordinated response that protected lives, upheld 
respect of human rights, and ensured proper screening and registration 
procedures. The number of new migrants and asylum seekers in North 
Macedonia has significantly fallen since 2016. The United States has 
contributed equipment and training on border management in response to 
Western Balkan requests, and we will work to support the government of 
North Macedonia as it continues to respond to the effects of migration.

    Question.  The Helsinki Commission is also active in efforts to 
combat human trafficking. North Macedonia has been a Tier 2 country 
since 2016 for not meeting the minimum standards for the elimination of 
trafficking in persons, even if it is making significant efforts to do 
so. Prior to that, and despite its other problems, it had been the only 
country in the Western Balkans to have Tier 1 status:

   As North Macedonia seeks to join the NATO Alliance, are we pressing 
        that country--as frankly we should all NATO members who are not 
        in the Tier 1 category--to devote more resources to the 
        prevention of tracking, the protection of victims and the 
        prosecution of the culprits? What will it take for North 
        Macedonia to again warrant Tier 1 status? What can the U.S. 
        Embassy in Skopje do to help?

    Answer. The government of North Macedonia does not fully meet the 
minimum standards for the elimination of trafficking; however, it is 
making significant efforts to do so. The government demonstrated 
increased efforts in 2018 compared to the previous year; therefore, 
North Macedonia remained a Tier 2 country in our annual Trafficking in 
Persons report.
    If confirmed, I will work with our Embassy to encourage the 
government to vigorously investigate, prosecute, and convict 
traffickers and impose strong sentences, as well as improve victim 
identification, protection, and compensation. We will continue to 
encourage the government to work closely with non-government 
organizations to achieve these goals.


    Question. What is your assessment of the extent to which North 
Macedonia has implemented the Ohrid Agreement (the agreement that ended 
Macedonia's armed conflict between Albanian rebels and Macedonian 
security forces in August 2001) and taken steps to integrate ethnic 
Albanians in government and respect their rights regarding language?

    Answer. If confirmed, I will continue to support full 
implementation of the Ohrid Framework Agreement. Our Embassy in Skopje 
regularly engages to advocate for the advancement of interethnic 
cooperation. There are continuing efforts to build a functional multi-
ethnic society based on full implementation of the Ohrid Framework 
Agreement, and we encourage further efforts in this area.


    Question. Similarly, how would you assess the commitment of those 
belonging to the large Albanian community in North Macedonia to the 
unity and integration of the country?

    Answer. Citizens need to be able to interact easily with their 
government and with each other. Multi-ethnic democracies around the 
world have chosen to address this issue in different ways. If 
confirmed, the Embassy and I will support the ongoing efforts of the 
ethnic communities and the government of North Macedonia to work 
towards a stronger, functional, multi-ethnic society.


    Question. Are there concerns about the influence of Albania and 
Kosovo in North Macedonia's Albanian community?

    Answer. There are strong, historic, cultural, and linguistic ties 
among ethnic Albanians, and this is natural. However, calls for 
political unification across borders, and other language insinuating 
the pursuit of such unification, narrow opportunities for a European 
path. Full integration into Euro-Atlantic institutions coupled with 
strong rule of law and unfettered commerce throughout the region 
remains our vision of a future in which all the people of the region 
thrive.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Kate Marie Byrnes by Senator Jeanne Shaheen

    Question. The foreign aid budget for North Macedonia has declined 
steadily in recent years from $21.6 million in FY 2017 to a budget 
request this year for FY 2020 of only $5.7 million. In your view where 
has U.S. foreign aid been effective in North Macedonia and why has aid 
declined so dramatically in the past few years?

    Answer. North Macedonia, on the threshold of joining NATO, is 
committed to a path that aligns with Western principles and is focused 
on partnering with the Western alliance, including the United States, 
to advance regional prosperity and stability. Bilateral U.S. assistance 
programs have facilitated North Macedonia's progress by supporting the 
government's efforts to improve governance and strengthen the rule of 
law, fostering electoral reforms and political party capacity, 
bolstering civil society's role in advocating for reforms, and 
supporting access to objective media content. Regional U.S. assistance 
programs have advanced private sector-led economic development, 
including through support to improve North Macedonia's business 
environment, and strengthened independent media's business viability 
through improved digital strategies.
    The FY 2020 Request for North Macedonia is $5.7 million, which is 
$640,000 (10 percent) below the FY 2019 Request. U.S. assistance will 
facilitate citizen-responsive governance; strengthen the rule of law, 
governance, and democratic institutions; stimulate economic growth, 
trade, and investment; promote reconciliation; increase energy 
independence; and increase the resilience of civil society and media to 
disinformation and malign external influence.
    While the Administration views the State Department and USAID's 
roles in diplomacy and development as critical to national security, 
the Administration remains committed to restraining overall non-defense 
discretionary spending, including for the State Department and USAID. 
If confirmed, I look forward to continuing discussions with Congress on 
funding for our diplomacy and assistance programs, including for FY 
2020.



                               __________


            Responses to Additional Questions for the Record
       Submitted to David Satterfield by Senator Robert Menendez

Cyprus
    Question. Jane Holl Lute was recently in Cyprus meeting with 
President Anastasiades regarding the peace process, and the ``terms of 
reference'' document is slated to be delivered to the U.N. Secretary 
General on April 15. If it were not for Turkey's obstructive role in 
the peace process, Greek Cypriots and Turkish Cypriots would have 
likely reached a settlement.

   If confirmed, how will you engage with the government of Turkey to 
        mitigate its adverse role in the peace process in Cyprus?

    Answer. This Administration continues to support a Cypriot-led, 
U.N.-facilitated process to reunify the island as a bizonal, bicommunal 
federation.
    We hope the leaders of the two communities will demonstrate their 
full resolve to a comprehensive settlement not only through their 
engagement with U.N. Senior Official Jane Holl Lute, but also by 
meeting again in the near future in order to make progress towards 
other confidence-building measures (CBMs) which they agreed to in 2015.
    If confirmed, I will encourage Turkey to engage in the 
international effort to reach a negotiated settlement.


    Question. Cyprus Peace Process: My position on this is very clear. 
I oppose Turkey's ongoing occupation of Northern Cyprus, and I believe 
that if it were not for Turkey obstructive role in the peace process, 
Greek Cypriots and Turkish Cypriots would have found its way to a 
settlement:

   If confirmed, what do you envision your role in this peace process?

    Answer. If confirmed, I will encourage Turkey to play a productive 
role in a Cypriot-led, U.N.-facilitated process to reunify the island 
as a bizonal, bicommunal federation.

Syria--Safe Zone
    Question. I am concerned about the potential ``safe zone'' in 
northeast Syria being discussed with the Turkish government, which 
Ambassador Jeffrey recently said would exclude the YPG. The Turks have 
reportedly planned to repopulate the border areas, potentially pushing 
Syrian Kurds out of their ancestral homes. Moreover, the Kurds are very 
concerned about their wellbeing and lasting safety if such a zone were 
to be created under Turkey's administration:

   What commitments can we make to the Kurdish communities who have 
        fought alongside the United States?

    Answer. Turkey is a NATO ally and a key partner in the Global 
Coalition to Defeat ISIS. We are fully committed to its security. We 
also want to ensure that our partners who continue to fight with us to 
ensure the enduring defeat of ISIS are protected. The President has 
been clear that Turkish forces should not militarily engage against the 
Syrian Democratic Forces (SDF), including the Kurdish component of the 
SDF.


    Question. What guarantees would we seek to ensure that Kurdish 
rights, property, and security are protected?

    Answer. The President, the Secretary of State, and Ambassador 
Jeffrey have engaged extensively with their Turkish counterparts on how 
to ensure a stabilized northeast Syria. Stability requires that people 
are able to stay in their homes if they choose and that any return of 
refugees or internally displaced persons is safe, voluntary, and 
dignified.

Syria--Turkish Incursions
    Question. Turkish incursions into Syria, such as in Afrin, have 
reportedly occurred jointly with jihadist militias and other groups 
opposed to the Syrian Kurds. Support for and facilitation of these 
groups are counterproductive for regional stability and exacerbate the 
human suffering in Syria:

   What is your assessment of these reports?

    Answer. Turkey has worked with a number of different Syrian 
opposition groups over the course of the conflict. We are aware of 
reports that certain groups have engaged in actions that undermine 
stability and share your concerns about the consequences of such 
actions.
    We have raised these concerns with Turkish counterparts while 
emphasizing that it is the responsibility of Turkish authorities to 
ensure the protection of civilians and property in its operations, 
including safeguarding civilians from unlawful activities.


    Question. Do you think the Turkish military, the military of a 
NATO-allied country, would have any reason to associate with these 
kinds of militias?

    Answer. Turkey is a NATO ally and a key partner in the Global 
Coalition to Defeat ISIS. Turkey has legitimate security concerns along 
its border, which this Administration remains committed to addressing. 
The Administration has emphasized that stability and security 
throughout opposition-controlled areas of Syria depend on security and 
governance structures being acceptable to residents of these areas.


    Question. What steps can the United States take to deter this 
behavior?

    Answer. We have made clear to Turkey that it is the responsibility 
of Turkish authorities to ensure the protection of civilians and 
property in the areas in which it operates, including safeguarding 
civilians from unlawful activities. In our Syria-focused discussions 
with Turkey, we have and will continue to assert that stability and 
security throughout opposition-controlled areas of Syria depend on 
security and governance structures being acceptable to residents of 
these areas.

Syria--Humanitarian Corridor
    Question. I am pleased to see that Turkey has played a critical 
role in maintaining the ceasefire in Idlib. While the fighting may be 
temporarily on hold, there remains a humanitarian crisis there. 
government and nongovernment organizations have had significant 
difficulty opening and maintaining a safe humanitarian corridor to 
facilitate assistance to the people there. With the United States 
withdrawing our own START teams from providing direct assistance, we 
are increasingly reliant on others to carry out this vital work that 
provides relief and advances stability:

   Can you describe Turkey's role in providing assistance or in 
        cooperating with operating partners on providing assistance?

    Answer. Turkey hosts over four million refugees, 3.6 million of 
whom are Syrian, opening their schools, hospitals, and other public 
services and allowing refugees the right to work. Over 60% of school-
age refugee children are back in school, given the language barrier 
this is particularly notable. The government of Turkey estimates that 
it has spent over $30 billion hosting refugees.
    In northwest Syria, Turkey plays a critical role in authorizing and 
facilitating assistance for much of the population of nearly three 
million, over half of whom were previously displaced from other parts 
of Syria and depend on cross border humanitarian assistance. In 
Turkish-controlled areas of northern Syria, the Turkish government 
along with international, Syrian and Turkish NGOs provide assistance on 
the ground. We continue to work with Turkish authorities to advocate 
for better access for increased humanitarian actors in those areas and 
for more visibility on the full picture of whether the most urgent 
needs are being met in those areas.


    Question. Do you believe it is in our interest to stop the direct 
delivery of aid?

    Answer. Our goals in Syria remain the enduring defeat of ISIS, a 
lasting political solution in accordance with U.N. Security Council 
Resolution 2254, and the removal of Iran and its proxies from Syria. 
Our ongoing assistance, supported by the START and the Southern Syria 
Assistance Program platforms, along with contributions from our 
partners in the International Coalition, provides us with the tools 
necessary to achieve those goals.
    The more than $9.5 billion of humanitarian assistance provided by 
the United States to the people of Syria has undoubtedly saved hundreds 
of thousands, if not millions of lives. Last month, the United States 
announced more than $397 million in additional humanitarian assistance 
for the people of Syria, reflecting the steadfast commitment of the 
United States to providing lifesaving support to the people of Syria 
impacted by conflict, both inside Syria and throughout the region. The 
U.N. and partner NGOs reach over four million people inside Syria each 
month with aid that we provide.
    Throughout northeast Syria, the United States continues to provide 
critical humanitarian assistance and stabilization work, such as 
restoring electricity grids, providing psychosocial support for 
children, supporting justice and accountability, removing rubble, 
restoring water delivery, and other essential services. Additional aid 
has rehabilitated damaged schools and allowed hundreds of thousands of 
children to get back to school, while providing livelihood and 
agricultural support. Our assistance has removed thousands of acres of 
territory of the left-behind explosive remnants of war (ERW) and the 
clearance of corpses and rubble from streets.


    Question. Can you talk more about the ways in which we can leverage 
our assets?

    Answer. One of the ways we have leveraged our assets in Syria is 
through the programs managed by our regional platforms, the Turkey-
based Syria Transition Assistance Response Team (START) and the 
Southern Syria Assistance Platform based in Amman. The networks and on-
the-ground connections forged by our stabilization programs have 
provided insight into the ever changing conditions in northern Syria 
while forging connections with the Syrian people.
    Ensuring the enduring defeat of ISIS will require continued 
stabilization assistance in the region to alleviate human suffering and 
to make progress in the political process outlined in UNSCR 2254.

PKK
    Question. Turkey indeed faces legitimate and serious security 
threats from the PKK, a terrorist group designated by the United States 
as such since 1997. However, Turkey's recent ground incursions into and 
attacks in Iraqi Kurdistan have been particularly destabilizing in 
recent months, especially considering the fragile state of the joint 
KDP-PUK Kurdish Regional government that faces a tough economic 
recovery from the war against ISIS and ongoing counter-ISIS operations. 
A stable and secure Kurdish Regional government with a stable Iraqi 
border is in Turkey's best interests:

   What levers do we have to reduce the PKK threat to Turkey while 
        working to strengthen Iraqi territorial integrity against 
        foreign attack?

    Answer. Over the last two years, the Administration has increased 
our assistance in support of Turkey's national defense against the PKK, 
in addition to the assistance we have consistently provided to the 
Turkish government since 2007.
    In November 2018, the Department announced the listing of three 
senior PKK members under the Rewards for Justice program, offering up 
to $12 million for identification or information leading to their 
capture. In March 2019, the Department renewed the designation of the 
PKK as a foreign terrorist organization.
    We have encouraged the Turkish and Iraqi governments--including 
those in the Kurdistan Regional government--to increase their 
communication and coordination in order to address the destabilizing 
presence of the PKK in the Iraqi Kurdistan Region. We have seen 
increased bilateral Iraqi-Turkish engagement on this topic, and will 
continue to advocate for further cooperation.


    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. In all of my previous posts, I have engaged with human 
rights activists, representatives of civil society, and foreign 
government leaders to promote human rights and democracy. The promotion 
of democracy and human rights is central to our national interests and 
an essential element of our foreign policy. Societies that respect and 
defend human rights, fundamental freedoms, and the rule of law are more 
stable, secure, and prosperous and make stronger allies.


    Question. What issues are the most pressing challenges to democracy 
or democratic development in Turkey? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. The Department's 2018 Human Rights Report for Turkey 
includes reports of arbitrary killing; suspicious deaths in custody; 
forced disappearances; torture; arbitrary arrests and detentions; 
political prisoners; closure of media outlets and criminal prosecution 
of individuals for criticizing government policies or officials; 
blocking websites and content; severe restrictions on freedoms of 
expression, peaceful assembly, association and movement; and violence 
against women and lesbian, gay, bisexual, transgender, and intersex 
(LGBTI) persons, and members of other minorities.
    If confirmed, I intend to speak out privately and publicly on 
issues of human rights and fundamental freedoms in Turkey, including 
those listed above.


    Question. What steps will you take--if confirmed--to support 
democracy in Turkey? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. We should press other governments, despite obstacles and 
challenges, to adhere to their human rights obligations. If confirmed, 
I will urge the Turkish government in public and in private to respect 
and ensure freedom of expression and the media, fair trial guarantees, 
judicial independence, and other human rights and fundamentals of 
democratic rule. Accountable and responsive government, rule of law, 
and respect for fundamental freedoms are bulwarks of sovereignty and 
internal and international stability. Protecting these rights and 
institutions expands the potential for investment and partnership.


    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will continue the Department's engagement 
with the government of Turkey and its ongoing work with Turkish civil 
society groups on strengthening rule of law. democracy, and good 
governance, such as ensuring protections for journalists and civil 
society leaders, academics, and anti-corruption NGOs, as well as 
growing the space for freedom of expression. If confirmed, I will use 
all available resources at my disposal to pursue these objectives.


    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Turkey? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes. If confirmed, I will work with groups that are 
supporting democratic governance, rule of law, human rights, and 
fundamental freedoms in Turkey. I would continue the U.S. Mission's 
important ongoing work of tracking the human rights situation in 
Turkey, monitoring trials, engaging with civil society leaders, and 
working with like-minded partners to underscore the importance of 
respect for rule of law and fundamental freedoms.


    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I will meet with peaceful opposition groups 
and political figures committed to promoting democracy and the rule of 
law in Turkey. The United States values engaging with groups and 
individuals that voice diverse opinions and has a long history of 
engaging leaders both inside and outside the government, a tradition I 
will continue. I will also be clear with the Turkish government in 
public and in private that the United States views transparency, a free 
press, freedom of expression, freedom of assembly and association, and 
rule of law as essential elements to the health of Turkish democracy. I 
will also continue our support for access and inclusivity for women, 
minorities and youth within political parties.


    Question. Will you and your embassy team actively engage with the 
government of Turkey on freedom of the press and address any government 
efforts designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Turkey?

    Answer. I share your concern about Turkey's negative trajectory on 
media freedom. Respect for the rule of law, human rights, and 
fundamental freedoms, such as freedom of expression, as well as media 
freedom, are pillars of established democracies. Freedom of 
expression--especially for speech which many may find controversial or 
uncomfortable--should and must be protected for everyone. If confirmed, 
I will promote these universal values, and I am committed to meeting 
regularly with independent, local press in Turkey. I would continue 
Mission Turkey's work to engage the government of Turkey to address 
specific cases of violations and laws that unduly restrict freedom of 
expression. I would regularly emphasize to the Turkish government that 
freedom of expression strengthens democracy and needs to be protected.


    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Combatting disinformation and propaganda is a priority for 
the Department. If confirmed, I look forward to working closely with 
the Department's Global Engagement Center and other U.S. government 
programs to help stop disinformation and enable larger audiences to 
gain greater access to accurate information about U.S. culture and 
policy. In doing so, I hope to build upon Mission Turkey's support for 
international public broadcasters such as the Voice of America to 
bolster diverse and independent sources of programming in the absence 
of a strong, independent media in Turkey, and the use of social media 
platforms to amplify this content.


    Question. Will you and your embassy teams actively engage with the 
government of Turkey on the right of labor groups to organize, 
including for independent trade unions?

    Answer. Yes. If confirmed, I will continue Mission Turkey's active 
engagement with the government of Turkey on the right of labor groups 
to organize, including for independent trade unions. Protecting labor 
rights are a key component of the Department's efforts to promote 
democracy and human rights around the world. Mission Turkey and the 
Department closely track labor rights, including the freedom of 
association and the right to collective bargaining, in the Department's 
annual Human Rights Report and elsewhere.


    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Turkey, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Turkey? What specifically will you commit to do to help LGBTQ people in 
Turkey?

    Answer. Yes. If confirmed, I commit to using my position to defend 
the human rights and dignity of all people in Turkey, no matter their 
sexual orientation or gender identity. The 2018 Human Rights Report 
documents violence and other acts of discrimination and abuse against 
lesbian, gay, bisexual, transgender, and intersex (LGBTI) persons, and 
members of other minorities. If confirmed, I look forward to advancing 
respect for the human rights and fundamental freedoms of all, including 
LGBTI persons. I would use the full range of tools at my disposal--
including bilateral and multilateral diplomatic engagement--to protect 
the rights of LGBTI persons in Turkey.


    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes. By setting a personal example, communicating the 
relevant laws and rules directly to my staff, and taking appropriate 
action when necessary, I will ensure that all employees under my 
leadership understand that any retaliation, blacklisting, or other 
prohibited personnel practices will not be tolerated. I will also take 
allegations of such practices seriously and ensure they are referred to 
the Department's Inspector General.


    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No.


    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. I have handled such cases as a supervisor over the past 
three decades. All such cases were dealt with in accordance with the 
relevant laws and Department policies and in as prompt a manner as 
possible. Harassment, discrimination and misconduct are unacceptable 
and allegations of such must be addressed--and I have done so in all 
such cases throughout my career--in a thorough and effective manner. I 
will continue to do so if confirmed.



                               __________


            Responses to Additional Questions for the Record
      Submitted to David Satterfield by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. In all of my previous posts, I have engaged with human 
rights activists, representatives of civil society, and foreign 
government leaders to promote human rights and democracy. The promotion 
of democracy and human rights is central to our national interests and 
an essential element of our foreign policy. Societies that respect and 
defend human rights, fundamental freedoms, and the rule of law are more 
stable, secure, and prosperous and make stronger allies.


    Question. What are the most pressing human rights issues in the 
Republic of Turkey? What are the most important steps you expect to 
take--if confirmed--to promote human rights and democracy in the 
Republic of Turkey? What do you hope to accomplish through these 
actions?

    Answer. The Department's 2018 Human Rights Report for Turkey 
includes reports of arbitrary killing; suspicious deaths in custody; 
forced disappearances; torture; arbitrary arrests and detentions; 
political prisoners; closure of media outlets and criminal prosecution 
of individuals for criticizing government policies or officials; 
blocking websites and content; severe restrictions on freedoms of 
expression, peaceful assembly, association and movement; and violence 
against women and lesbian, gay, bisexual, transgender, and intersex 
(LGBTI) persons, and members of other minorities.
    If confirmed, I intend to speak out privately and publicly on 
issues of human rights and fundamental freedoms in Turkey, including 
those listed above.


    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Republic of 
Turkey in advancing human rights, civil society and democracy in 
general?

    Answer. It is always challenging to balance the promotion of human 
rights, civil society and democracy while advancing our other bilateral 
objectives, such as security and economic cooperation, with our 
partners. This is particularly true in Turkey, which is a NATO Ally 
facing numerous challenges related to human rights and the rule of law. 
That said, I believe that we should press other governments, despite 
obstacles and challenges, to adhere to their human rights obligations. 
If confirmed, I will urge the Turkish government in public and in 
private to respect and ensure freedom of expression and the media, fair 
trial guarantees, judicial independence, and other human rights and 
fundamentals of democratic rule. Accountable and responsive government, 
rule of law, and respect for fundamental freedoms are bulwarks of 
sovereignty and internal and international stability. Protecting these 
rights and institutions expands the potential for investment and 
partnership.


    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the Republic of Turkey? If confirmed, what 
steps will you take to pro-actively support the Leahy Law and similar 
efforts, and ensure that provisions of U.S. security assistance and 
security cooperation activities reinforce human rights?

    Answer. If confirmed, I will work with groups that are helping to 
move Turkey forward on a path towards democratic governance and rule of 
law, and respect for human rights and fundamental freedoms. I would 
continue the U.S. Mission's important ongoing work of closely following 
the human rights situation in Turkey, monitoring trials, engaging with 
civil society leaders, and working with like-minded partners to 
underscore the importance of respect for rule of law and fundamental 
freedoms. If confirmed, I will ensure the U.S. Mission continues to 
enforce the Leahy Law and ensures provision of U.S. security assistance 
and security cooperation activities reinforces human rights.


    Question. Will you and your embassy team actively engage with the 
Republic of Turkey to address cases of key political prisoners or 
persons otherwise unjustly targeted by the Republic of Turkey?

    Answer. Yes. If confirmed, I will urge Turkey to respect and uphold 
human rights and fundamental freedoms, maintain judicial independence, 
and to release those held for their political beliefs and those 
unjustly detained including civil society activists, opposition 
leaders, and journalists.
    I would make it a particular priority to secure the release of Dr. 
Serkan Golge, a U.S. citizen and NASA physicist, and locally employed 
staff of the U.S. Mission--all of whom we believe have been detained 
unjustly.


    Question. Will you engage with the Republic of Turkey on matters of 
human rights, civil rights and governance as part of your bilateral 
mission?

    Answer. Yes. If confirmed, I intend to speak out privately and 
publicly on matters of human rights, civil rights and governance.


    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise any concerns that I 
may have through appropriate channels.


    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise any concerns that I 
may have through appropriate channels.


    Question. Do you or do any members of your immediate family have 
any financial interests in the Republic of Turkey?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence in Turkey, but 
which are exempt from the conflict of interest laws. My investment 
portfolio also includes a sector fund, which may hold interests in 
companies with a presence in Turkey. Finally, my investment portfolio 
includes financial interests in companies with a presence in Turkey. I 
am committed to ensuring that my official actions will not give rise to 
a conflict of interest. I will divest all investments the State 
Department Ethics Office deems necessary to avoid a conflict of 
interest. I will remain vigilant with regard to my ethics obligations.


    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. In my current position as Acting Assistant Secretary for 
the Bureau of Near Eastern Affairs, I have made clear that the U.S. 
government's commitment to equal employment opportunity should be 
respected and promoted. I have encouraged and supported the Equal 
Employment Opportunity Counselor program and I will continue this 
approach if confirmed as Chief of Mission for Turkey.


    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will convey to all supervisors at Mission 
Turkey my expectation that they will promote and respect an inclusive 
climate that fosters diversity, including the commitment to equal 
employment opportunity, and will reinforce this message through my 
example.


    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in the 
Republic of Turkey specifically?

    Answer. Political corruption has a deleterious effect upon the rule 
of law, and fighting against corruption helps to strengthen democratic 
institutions.
    Corruption remains a serious concern in Turkey, a reality reflected 
in Turkey's falling score in recent years in Transparency 
International's annual Corruption Perceptions Index, where it ranked 78 
of 180 countries and territories around the world in 2018. government 
mechanisms to investigate and punish alleged abuse and corruption by 
state officials remained inadequate, and impunity remained a problem. 
Though independent in principle, the judiciary remained prone to 
government interference, including with respect to the investigation 
and prosecution of major corruption cases. In some cases, the 2016-2018 
state of emergency amplified pre-existing concerns about judicial 
independence.


    Question. What is your assessment of corruption trends in the 
Republic of Turkey and efforts to address and reduce it by that 
government?

    Answer. Turkey's score in Transparency International's Perceptions 
of Corruption Index has dropped from 50 in 2013 to 41 in 2018, ranking 
it 78 of 180 countries. We have seen no pattern or mechanism for 
investigating, indicting, and convicting individuals accused of 
corruption, and there are concerns regarding the impartiality of the 
judiciary in the handling of corruption cases. There are no reports 
that senior government officials faced official investigations for 
alleged corruption, and journalists accused of publicizing corruption 
allegations have at times faced criminal charges.


    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in the Republic of Turkey?

    Answer. If confirmed, I will continue the Department's engagement 
with the government of Turkey as well as work with Turkish civil 
society groups on issues of importance to Turkish citizens, including 
those related to good governance and anti-corruption, such as 
increasing legal protections for journalists, particularly 
investigative journalists, civil society members, anti-corruption NGOs, 
and growing the space for freedom of expression.

Democracy/Human Rights/Rule of Law
    Question. According to the most recent State Department Human 
Rights Report, since 2016 Turkey has purged more than 130,000 
government employees, jailed more than 80,000 individuals, closed more 
than 1,500 NGOs, shuttered more than 200 media outlets, and imprisoned 
scores of journalists. The Committee to Protect Journalists ranks 
Turkey as the world's worst jailer of journalists, with at least 68 
reporters behind bars at the end of last year. Particularly over the 
past two years, we have seen a steady stream of farcical indictments 
alleging involvement in terrorism, espionage, coup attempts, and 
``insulting the president'' levied against every manner of peaceful 
activist, reporter, politician, and even innocent Americans and the 
local staff of our consulates in the country.

   Given this state of affairs, in your opinion, is Turkey a 
        democracy? What effective checks remain on Erdogan's 
        presidency?

    Answer. As described in the Department's 2018 Human Rights Report, 
Turkey is a constitutional republic with an executive presidential 
system and a 600-seat legislature. Although the constitution and law 
provide citizens the ability to change their government through free 
and fair elections, the government restricted equal competition and 
placed restrictions on the fundamental freedoms of assembly and 
expression.


    Question. What do you believe the United States should do to 
preserve and strengthen the remaining elements of Turkish civil society 
that defend democracy and human rights?

    Answer. If confirmed, I will show support to civil society members, 
human rights groups, and other non-governmental organizations in 
Turkey. The United States values the voice and opinions of civil 
society and has a long history of engaging leaders both inside and 
outside the government, a tradition I will continue. I will also be 
clear with the Turkish government in public and in private that the 
United States views transparency, a free press, freedom of expression, 
and rule of law as important elements to the health of Turkish 
democracy.


    Question. Will you raise the issue of politically motivated 
prosecutions of democratically elected officials with Turkey in your 
capacity as ambassador?

    Answer. Yes. The Department has repeatedly expressed serious 
concern about the pattern of actions by Turkish officials, which appear 
to target those whose views differ from the government's, including 
opposition politicians, public intellectuals, civil society actors, 
lawyers, and journalists. If confirmed, I will underscore the 
importance of transparency and respect for rule of law.


    Question. What role do you see for the U.S. Mission to Turkey in 
advocating for respect for the human rights and fundamental freedoms of 
Turkish citizens and in raising specific cases of violations? How would 
you balance the use of private engagement with public messaging?

    Answer. If confirmed, I will urge Turkey, publicly and privately at 
the highest levels, to respect and uphold human rights and fundamental 
freedoms, and support judicial independence. I will use whatever form 
of messaging and engagement that is most effective at achieving results 
under the particular circumstances of each case.

Detentions
    Question. As you know, Turkish authorities continue to interfere 
with the work of the U.S. Mission to Turkey by holding two veteran 
local employees--Metin Topuz and Mete Canturk--of the U.S. Consulate 
General in Istanbul in jail and under house arrest. U.S. citizen and 
NASA scientist Serkan Golge is one of several American citizens caught 
up in the sweeping government-led purge that followed the 2016 coup 
attempt in Turkey. Senator Wicker and I introduced legislation last 
week that would impose visa denials and asset freezes on the officials 
responsible for this ongoing injustice.

   Bearing in mind that justice delayed is justice denied, what do you 
        plan to do to secure the prompt release of these local staff 
        and a timely, fair, and transparent adjudication of their 
        cases?

    Answer. If confirmed, I will continue Mission Turkey's ongoing 
engagement to ensure fair, timely treatment of all detainees and the 
release of all those held arbitrarily. I am committed to taking 
whatever steps are necessary to ensure the fair resolution of these 
cases. I will also continue to raise the cases of wrongfully detained 
U.S. citizens and local employees of the U.S. Mission in Turkey at the 
highest levels.


    Question. How will you protect your other locally employed staff 
and their families from similar legal jeopardy?

    Answer. If confirmed, I will engage the Turkish government at the 
highest levels to make it clear that arbitrarily detaining our local 
staff or their families is unacceptable and undermines our ability to 
cooperate on other elements of the bilateral relationship.


    Question. Can Congress play a role in giving you the tools you need 
to let the Turkish government know this kind of behavior will not be 
tolerated?

    Answer. If confirmed, I intend to utilize all resources at my 
disposal. I am looking forward to working with Congress and hope to 
utilize any resources or tools that Congress provides to the Department 
of State to help strengthen rule of law and respect for human rights in 
Turkey. If confirmed, I would also welcome Congressional delegations to 
help reinforce the United States' position that accountable and 
responsive government, rule of law, and respect for fundamental 
freedoms are bulwarks of sovereignty and internal and international 
stability.

Demographic Change/North Syria Intentions
    Question. Turkish leadership has repeatedly threatened unilateral 
military action in northern Syria to create a buffer zone or otherwise 
seize strategically important territory from Kurdish militias in 
northern Syria. It has threatened to use force against the Syrian 
Democratic Forces--U.S. partners in the fight against ISIS--and has 
often preferred force to negotiations in handling its own Kurdish 
question:

   What do you think the consequences of a unilateral Turkish military 
        incursion into northern Syria would be on the local populations 
        in Syria and on the broader dynamics within Syria's Civil War?

    Answer. We are fully committed to Turkey's security. As we have 
said before, however, unilateral military strikes into northeast Syria 
by any party, particularly as U.S. personnel may be present or in the 
vicinity, are of great concern to us. We have made clear that any 
actions that could destabilize areas liberated from ISIS could bring 
about a resurgence of ISIS, which remains a threat in northern Syria.


    Question. How can the United States encourage Turkey to seek 
diplomatic, rather than military, solutions in this regard?

    Answer. The President, the Secretary of State, and Ambassador 
Jeffrey have engaged extensively with their Turkish counterparts on how 
to ensure a stabilized northeast Syria. At every opportunity, the 
Administration has emphasized that we believe it is possible to reach 
an arrangement that meets Turkish national security priorities while 
allowing for ongoing Coalition efforts to defeat ISIS. We are engaged 
in ongoing military-to-military and diplomatic consultations with our 
Turkish counterparts to achieve these objectives.


    Question. Do you believe Turkey intends to take delivery of an S-
400 air defense system from Russia? What can the Administration do to 
prevent this from happening?

    Answer. The Administration has made it clear that procurement of S-
400 will put Turkey's continued participation in the F-35 program and 
other potential future arms transfers to Turkey at risk, as well as 
lead to potential actions under the Countering America's Adversaries 
through Sanctions Act (CAATSA) upon any individuals or entities 
involved in such a transaction.
    As Vice President Pence said at the NATO 70th Anniversary event, 
``Turkey must choose. Does it want to remain a critical partner in the 
most successful military alliance in history, or does it want to risk 
the security of that partnership by making such reckless decisions that 
undermine our alliance?''


    Question. Is the Administration's decision to end Turkey's 
preferential trade status in March 2019 at all related to the S-400 
issue?

    Answer. The General System of Preferences (GSP) is a unilateral 
trade benefit program intended to help the world's poorest countries 
grow economically. USTR's review found that Turkey is sufficiently 
economically developed and should no longer benefit from preferential 
market access to the United States market. Turkey's increase in Gross 
National Income per capita, declining poverty rates, and export 
diversification are evidence of Turkey's higher level of economic 
development since the United States designated Turkey as a GSP 
beneficiary country in 1975.


    Question. According to the State Department's annual human rights 
report, at the end of 2018, 6,000 lawmakers, executives, and party 
members from the pro-Kurdish Peoples' Democratic Party (HDP) were in 
prison on politicized charges. Will you raise the issue of politically 
motivated prosecutions of democratically elected officials with Turkey 
in your capacity as ambassador?

    Answer. The Administration is seriously concerned by the pattern of 
actions by Turkish officials, which appear to target those whose views 
differ from the government, including opposition politicians. If 
confirmed, I will underscore the importance of transparency and respect 
for due process. Fair and non-politicized judicial process will 
reinforce confidence in the Turkish judicial system among citizens.


    Question. According to the text of the North Atlantic Treaty, NATO 
states commit to safeguard the freedom, common heritage and 
civilization of their peoples, founded on the principles of democracy, 
individual liberty and the rule of law." The government of Turkey has 
fallen short of this standard in its treatment of ethnic minority 
populations, like Kurds and Armenians, and of its political opposition:

   As Ambassador to Turkey, how would you encourage the current 
        government to better uphold principles of pluralism and 
        democracy?"

    Answer. Turkey has long been a multi-ethnic, multi-religious state 
and we welcome the government's recognition of the richness these 
communities provide.
    The Administration is concerned about Turkey's negative trajectory 
on democracy, rule of law, and respect for human rights and fundamental 
freedoms. Transparency, respect for the rule of law, and freedom of the 
press, expression, association, and of peaceful assembly are pillars of 
established democracies. If confirmed, I will continue to promote these 
values.


    Question. According to the text of the North Atlantic Treaty, NATO 
states commit to ``settle any international dispute in which they may 
be involved by peaceful means in such a manner that international peace 
and security and justice are not endangered, and to refrain in their 
international relations from the threat or use of force in any manner 
inconsistent with the purposes of the United Nations.'' Turkey has 
repeatedly threatened to use force against the Syrian Democratic 
Forces--U.S. partners in the fight against ISIS--and has often 
preferred force to negotiations in handling its own Kurdish question:

   Is this in line with Turkey's NATO commitments and values?

    Answer. Turkey is a NATO ally and a key partner in the Global 
Coalition to Defeat ISIS. We are fully committed to its security. We 
also want to ensure that our partners who continue to fight with us are 
not attacked, and that forces acting in Syria are not able to attack 
Turkey, all while protecting the safety of civilians.


    Question. How can the United States encourage Turkey to seek 
diplomatic, rather than military, solutions in this regard?

    Answer. The President, the Secretary of State, and Ambassador 
Jeffrey have engaged extensively with their Turkish counterparts on how 
to ensure a stabilized northeast Syria. At every opportunity, this 
administration has emphasized that we believe it is possible to reach 
an arrangement that meets Turkish national security priorities while 
allowing for ongoing Coalition efforts to defeat ISIS. We are engaged 
in ongoing military-to-military and diplomatic consultations with our 
Turkish counterparts to achieve these objectives.



                               __________


            Responses to Additional Questions for the Record
        Submitted to David Satterfield by Senator Jeanne Shaheen

    Question. Should the United States be prepared to counter the 
expansion of Gazprom's TurkStream pipeline as well as the nuclear 
reactors being financed by Russia in Turkey's southeast?

    Answer. Turkstream does not advance Europe's need for greater 
energy diversification. When complete, the first line of TurkStream 
will transit gas exclusively to Turkey's large and relatively 
diversified domestic market, replacing volumes that are currently 
shipped by Gazprom to Turkey via the Trans Balkan Pipeline. However, 
the second line would increase Europe's reliance on Russian gas. 
Rosatom's construction of the Akkuyu nuclear power plant in Turkey's 
southeast may also deepen Turkey's dependence on Russian energy 
sources, as Russian suppliers would provide all of the nuclear fuel for 
the reactors. If confirmed, I will engage with government of Turkey on 
the need for energy diversification and security, including through the 
importation of more U.S. liquefied natural gas.
    The Department of State takes the implementation and enforcement of 
the Countering America's Adversaries through Sanctions Act (CAATSA) 
seriously. If confirmed, it will be the highest priority for me and the 
mission to closely monitor Gazprom's TurkStream pipeline projects as 
well as other projects by Russia that may deepen Turkey and Europe's 
reliance on Russian energy.


    Question. According to the NGO We Will Stop Femicides (Kadin 
Cinayetlerini Durduracagiz Platformu), a total of 440 women lost their 
lives through violence (mostly committed by male relatives or spouses) 
in Turkey in 2018. The organization said that in 88 percent of these 
cases, it was ``not clear'' whether the state protected the woman under 
threat. What do you think is driving this increasing trend of violence 
against women in Turkey, and if confirmed, what are your plans to 
address this matter? How will you work with the government of Turkey to 
ensure that they are addressing this growing problem in Turkey? Are 
there particular organizations that you plan to work with?

    Answer. Mission Turkey closely tracks the issue of violence against 
women. The Mission publicly and vocally engages on this issue, from 
speaking directly with the government to partnering with NGOs that 
empower and educate young women and girls, as well as engaging with the 
public via social and traditional media.
    NGOs have reported that the annual rate of women who lost their 
lives through violence in the country has steadily increased since 
2002. Some assess that the increase may be the result of greater 
awareness and reporting. Some activists have also raised concerns about 
social trends that advocate more traditional roles for women and 
restrictive conditions on independent women's organizations.
    Mission Turkey actively engages with a range of women's rights and 
advocacy groups. If confirmed, I will continue to work with 
organizations committed to addressing the problem of violence against 
women in Turkey. I will also encourage the Turkish government to 
improve services for victims of violence, including improving 
psychosocial services for victims of such forms of violence.


    Question. I was pleased by your testimony and statements regarding 
Sekan Golge, Hamza Ulucay, Metin Topuz, and Mete Canturk. If confirmed, 
do you pledge to visit this American citizen and these Mission Turkey 
employees? As you know, they are either in jail or under house arrest. 
If you feel like you cannot commit to a visit to each, please explain 
why.

    Answer. If confirmed, I will continue Mission Turkey's ongoing 
engagement to ensure the fair, timely, and transparent treatment of 
Serkan Golge and the remaining two detained Mission Turkey employees. I 
am committed to taking whatever steps are necessary to ensure the fair 
resolution of these cases, including attending trials and visiting 
wrongfully detained persons when legally appropriate and helpful for 
securing their just treatment and release. I will also continue to 
raise the cases of wrongfully detained U.S. citizens and local 
employees of the U.S. Mission in Turkey at the highest levels.


    Question. The 2018 State Department Human Rights Report highlighted 
that Turkish authorities had dismissed or suspended more than 130,000 
civil servants from their jobs, arrested or imprisoned more than 80,000 
citizens and closed more than 1,500 non-governmental organizations 
(NGOs) on terrorism-related grounds since the coup attempt in 2016. 
However, the human rights issues were not limited to the purge but also 
included arbitrary killings; suspicious deaths of persons in custody; 
forced disappearances; torture; arbitrary arrest and detention of tens 
of thousands of persons, including opposition members of parliament, 
lawyers, journalists, foreign citizens, and three Turkish-national 
employees of the U.S. Mission to Turkey for purported ties to 
``terrorist'' groups or peaceful legitimate speech; political 
prisoners, including numerous elected officials and academics; closure 
of media outlets and criminal prosecution of individuals for 
criticizing government policies or officials; blocking websites and 
content; severe restriction of freedoms of assembly and association; 
restrictions on freedom of movement; and violence against women, and 
lesbian, gay, bisexual, transgender, and intersex (LGBTI) persons, and 
members of other minorities. The detailed country report also provided 
many concrete examples of human rights abuses such as 28 disappearance 
cases across the country.

   Despite these damning statistics, last year, I had to step in when 
        the State Department canceled a very small funding stream meant 
        to go to Turkish civil society organizations (to help them 
        engage with other civil society actors outside of Turkey). I 
        understand that the space for civil society engagement in 
        Turkey is narrowing by the day, but what can we do to continue 
        working with those elements of Turkish society that share our 
        values and are willing to risk their lives to build a more 
        democratic Turkey?

    Answer. If confirmed, I will continue the Department's engagement 
with the government of Turkey as well as its work with Turkish civil 
society groups on the respect for fundamental freedoms and rule of law, 
improving protections for journalists and civil society members, 
workers' rights, and growing the space for freedom of expression.

    Question.  Will you advocate for Osman Kavala's release, who is 
being held in solitary confinement, and the release of other civil 
society actors, including those in Amnesty International, who have been 
jailed without adequate evidence and largely bogus charges?

    Answer. The Department has expressed grave concern about the case 
of Osman Kavala and the 15 other civil society and media leaders that 
prosecutors in Turkey indicted earlier this year, as well as other 
similar cases. If confirmed, I will continue to advocate for the rights 
to freedom of expression, peaceful assembly, and association. These 
rights are fundamental to any healthy democracy, and I will continue to 
urge Turkey to respect these freedoms and to release all those held 
arbitrarily.


    Question. Do you plan to prioritize cultural programming to help 
represent American culture in a positive light in Turkey? I am 
concerned that average Turks only have the perception of the U.S. that 
is portrayed on largely Erdogan-owned media which depicts the U.S. in a 
very negative light?

    Answer. There is considerable misinformation circulating in Turkish 
media concerning U.S. policy and American culture. Cultural programming 
and exchange programs are effective means of correcting misconceptions 
and misinformation. If confirmed, I will use every resource at my 
disposal to help represent the United States and American culture in an 
accurate light.


    Question. Studies by the DFRLab and Rand have pointed to the rise 
of Sputnik Turkiye as an ``independent news source'' in Turkey. How 
will you bolster Voice of America and other truly independent sources 
of news in Turkey? Will you incorporate Voice of America, etc. in the 
Embassy's social media platforms, etc.?

    Answer. I am aware of Sputnik Turkiye's role in the Turkish media 
space, as well as others like it. If confirmed, I look forward to 
working closely with the Department's Global Engagement Center and 
other U.S. government programs to help stop disinformation and enable 
larger audiences to gain greater access to accurate information about 
U.S. culture and policy. In doing so, I hope to build upon Mission 
Turkey's support for international public broadcasters such as the 
Voice of America to bolster diverse and independent sources of 
programming in the absence of a strong, independent media in Turkey, 
and the use of social media platforms to amplify this content.



                               __________


                              NOMINATIONS

                              ----------                              


                         THURSDAY, MAY 16, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:00 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Mitt Romney, 
presiding.
    Present: Senators Romney [presiding], Cardin, Shaheen, 
Udall, and Kaine.

            OPENING STATEMENT OF HON. MITT ROMNEY, 
                     U.S. SENATOR FROM UTAH

    Senator Romney. This hearing of the Senate Foreign 
Relations will come to order.
    Today the committee will hold a nominations hearing for 
four ambassadorial positions. I appreciate that each of you has 
answered a call to serve our country.
    First, we are going to hear from Ms. Bridget A. Brink, to 
be Ambassador to the Slovak Republic. Ms. Brink previously 
served as Deputy Assistant Secretary for the Bureau of European 
and Eurasian Affairs and as Deputy Chief of Mission at the U.S. 
Embassy in Uzbekistan. Her career has been devoted to European 
affairs, and I hope to hear how this experience could shape her 
time in Slovakia and will help her meet the challenges that 
Russia is posing in the region.
    Second, we have Mr. Kenneth A. Howery, to be Ambassador to 
the Kingdom of Sweden. As the co-founder of PayPal, as well as 
an early investor in major Silicon Valley companies such as 
Facebook and SpaceX, Mr. Howery has helped shape Silicon 
Valley, and I am interested to hear how he plans to approach 
this new challenge. I am especially interested in Mr. Howery's 
views on the challenges Russia poses to Sweden today and how we 
can continue to strengthen the relationship with that great 
country.
    Our third nominee is Colonel Matthew S. Klimow, to be 
Ambassador to Turkmenistan. Colonel Klimow, thank you for your 
service to our country, first for your career in the Army and 
also for your time as Deputy Assistant Secretary for NATO and 
the Senior Advisor for the Under Secretary of Management at the 
State Department. Turkmenistan lies bordering both Iran and 
Afghanistan and, of course, has a long history with Russia 
given that it was formerly part of the Soviet Union. It also 
has deep ties to China. I look forward to hearing from you on 
how you might preserve U.S. strategic interests in the area 
given the many adversaries at its doorstep.
    Our fourth nominee is Mr. John Jefferson Daigle, to be 
Ambassador to the Republic of Cabo Verde. Mr. Daigle is a 
Foreign Service officer who currently serves as the Designated 
Federal Official for the United States Advisory Commission on 
Public Diplomacy. Previously, Mr. Daigle has served in places 
like Cambodia and Iraq. Cabo Verde is a prime example of how an 
island chain small in size can still have strategic value. I 
look forward to hearing your thoughts on how we can strengthen 
our relationship with this nation.
    With that, I would like to recommend that we recognize the 
distinguished ranking member for her comments. Senator Shaheen?

               STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Thank you, Mr. Chairman.
    And congratulations to each of you, and thank you for your 
willingness to be considered for these nominations to these 
very important posts.
    I am going to submit my opening statement for the record 
and look forward to hearing your comments as nominees and the 
discussion that follows. Thank you.
    [Senator Shaheen's prepared statememt follows:]


               Prepared Statement of Hon. Jeanne Shaheen

    Thank you, Mr. Chairman, and thank you to the nominees before us 
today and their families. Ms. Brink, Mr. Howery, Colonel Klimow and Mr. 
Daigle, each of the respective countries you have been nominated to 
serve in are at the helm of critical U.S. foreign policy priorities.
    Ms. Brink, given your extensive experience in the European Bureau 
and in Georgia, you are well aware of the strategic relevance of 
Central Europe and of the U.S. and EU's energy diversification goals in 
that region. Further, I was particularly pleased to see the Slovak 
Republic elect its first woman and youngest-ever president last March. 
I am looking forward to hearing your input on these matters today.
    Mr. Howry, Sweden is not only a critical counterterrorism partner 
in Iraq, but it is on the frontlines of the fight against Russian 
malign influence. I will be interested to hear your thoughts on how we 
can better support Sweden in its dealings with Russian flyovers, 
disinformation and other hostile actions and ensure that the 
administration's rhetoric is not amplifying the false narratives that 
the Kremlin is circulating.
    Colonel Klimkow, Turkmenistan's strategic location is undoubtedly 
important for U.S. security interests, particularly as they relate to 
Afghanistan and Iran, but Turkmenistan's record on human rights and 
reliance on China is of extreme concern. I am interested to hear how 
the U.S. can best balance its priorities in that country.
    And, Mr. Daigle, as you know well, the State Department considers 
Cabo Verde to be ``one of Africa's success stories.'' Given the 
strategic location of Cabo Verde, the U.S. investment made in that 
country and the sizable Cabo Verdean diaspora in the United States, it 
is definitely in our interest to continue Cabo Verde's progress. I look 
forward to your thoughts on that matter.
    Again, welcome and congratulations to all of the nominees today. I 
look forward to hearing your testimony and answers to our questions.


    Senator Romney. Thank you, Senator Shaheen.
    We are now going to turn to our first nominee, Ms. Bridget 
Brink. Thank you for your willingness to take on this important 
role. Your full statement will be included in the record, 
without objection. So if you could please keep your remarks to 
no more than 5 minutes, we would appreciate it so that members 
of the committee can engage you with their questions. Ms. 
Brink?

STATEMENT OF BRIDGET A. BRINK, OF MICHIGAN, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
            STATES OF AMERICA TO THE SLOVAK REPUBLIC

    Ms. Brink. Thank you, Mr. Chairman, Ranking Member Shaheen, 
distinguished members of the Foreign Relations Committee, for 
the opportunity to appear before you today.
    I am honored to be President Trump's nominee for the 
position of U.S. Ambassador to the Slovak Republic. I am 
grateful for the trust and confidence the President and 
Secretary Pompeo have placed in me. If confirmed, I pledge to 
work with you to advance our nation's interests in the Slovak 
Republic.
    I first want to introduce and thank my husband, Nicholas 
Higgins, for his love and support for over 26 years. A fellow 
Foreign Service officer, Nick has served in Afghanistan, India, 
and Georgia, and has traveled from Armenia to be here today. We 
are so proud of our children, Jack and Cole, who are also here 
today. As part of a diplomatic family that has moved every few 
years for their entire lives, I want to thank them for their 
own service to our country.
    Coming from Michigan, I know these careers have taken us 
far from those who gave us so much. I want to acknowledge and 
thank my mother, Gwen Brink; father and stepmother, John and 
Judy Brink; sister, Joanna Brink; nephews, Andrew and Andre 
Brink; aunt and uncle, Mary and Patrick Sayne, as well as my 
in-laws, Adrienne and Kingsley Foster; and my brothers and 
sisters-in-law, all of whom have been bedrocks of support every 
step of the way.
    I have worked closely with our NATO allies and EU partners 
to advance U.S. interests in Europe throughout my nearly 23-
year career.
    If confirmed, my number one priority would be to ensure the 
security and safety of my embassy team, as well as any and all 
U.S. citizens living and traveling in the Slovak Republic. I 
would also focus the work of the embassy on three main 
priorities.
    First, I would reinforce our defense partnership with 
Slovakia. As a member of NATO, Slovakia contributes to NATO 
missions in Afghanistan, Iraq, and Latvia. Slovakia also plans 
to meet the NATO Wales Pledge of spending 2 percent of GDP 
ahead of schedule. If confirmed, I will work to deepen our 
defense cooperation, which shores up security on NATO's eastern 
flank. I will also encourage increased energy security as a key 
part of any nation's national security.
    Second, I would promote increased trade and investment 
opportunities. If confirmed, I will prioritize the continued 
health of Slovakia's business climate for U.S. investors and 
work to improve transparency and accountability.
    Third, I would underscore and promote our shared values. 
Since the end of the Cold War, Slovakia has anchored itself 
solidly within the democratic family of nations. If confirmed, 
I will support the strengthening of democratic institutions and 
the rule of law that underpin our transatlantic bond.
    With Secretary Pompeo's visit to Bratislava in February and 
President Trump's Oval Office meeting with Prime Minister 
Pellegrini earlier this month, the United States is deepening 
our partnership with Slovakia. If confirmed, it would be my 
highest honor to lead our talented team in Slovakia to build on 
this diplomatic investment and advance our country's interests 
there and across the region.
    Mr. Chairman, Ranking Member Shaheen, and members of the 
committee, thank you again for the opportunity to appear before 
you today. I welcome your questions.
    [The prepared statement of Ms. Brink follows:]


                 Prepared Statement of Bridget A. Brink

    Mr. Chairman, Ranking Member Shaheen, distinguished members of the 
Foreign Relations Committee, thank you for the opportunity to appear 
before you today. I am honored to be President Trump's nominee for the 
position of U.S. Ambassador to the Slovak Republic. I am grateful for 
the trust and confidence the President and Secretary Pompeo have placed 
in me. If confirmed, I pledge to work with you to advance our nation's 
interests in the Slovak Republic.
    I first want to introduce and thank my husband Nicholas Higgins for 
his love and support for over 26 years. A fellow Foreign Service 
officer, Nick has served in Afghanistan, India, and Georgia, and has 
traveled from Armenia to be here today. We are so proud of our 
children, Jack and Cole, who are also here today. As part of a 
diplomatic family that has moved every few years for their entire 
lives, I want to thank them for their own service to our country.
    Coming from Michigan, I know these careers have taken us far from 
those who gave us so much. I want to acknowledge and thank my mother 
Gwen Brink, father and stepmother, John and Judy Brink, sister Joanna 
Brink, nephews Andrew and Andre Brink, aunt and uncle Mary and Patrick 
Sayne as well as my in-laws Adrienne and Kingsley Foster and my 
brothers and sisters-in-law, all of whom have been bedrocks of support 
every step of the way.
    As a new officer serving in Belgrade during the Balkan wars, a 
political officer supporting historic reform in Georgia, and a 
policymaker in Washington during Russia's attempts to redraw the 
borders of Europe, I have worked closely with our NATO Allies and EU 
partners to advance U.S. interests in Europe throughout my nearly 23-
year career. As a student in London in 1989, I remember clearly that 
November day when the Berlin Wall fell. Eight days later, the Velvet 
Revolution began. In the three decades since, the United States has 
been proud to support Slovakia's transition to democracy and its NATO 
accession.
    If confirmed, my number one priority would be to ensure the safety 
and security of my Embassy team as well as any and all U.S. citizens in 
the Slovak Republic. I would also focus the work of the Embassy on 
three priorities:
    First, I would reinforce our defense partnership with Slovakia. As 
a member of NATO, Slovakia contributes to NATO missions in Afghanistan, 
Iraq, and Latvia. Slovakia is also modernizing its military with NATO-
interoperable equipment. Last year's purchase of 14 U.S.-made F-16s was 
the largest defense procurement in Slovakia's history and signaled 
Slovakia's commitment to strengthening its relationship with the United 
States. Slovakia plans to meet the NATO Wales Pledge of spending two 
percent of its GDP on defense ahead of schedule. If confirmed, I will 
prioritize this cooperation, which shores up security on NATO's Eastern 
Flank.
    I will also encourage increased energy security, a key part of any 
nation's national security.
    Second, I would promote increased trade and investment 
opportunities. Since joining the EU in 2004, Slovakia's economy has 
become one of the fastest growing in Europe. If confirmed, I will 
pursue U.S. investment and export promotion efforts to maximize the 
many commercial opportunities in the Slovak market. I will also 
prioritize the continued health of Slovakia's business climate for U.S. 
investors, and work to improve its transparency and predictability. I 
will promote opportunities for Slovak firms seeking to invest in the 
United States.
    Third, I would prioritize our shared values. Since the end of the 
Cold War, Slovakia has anchored itself solidly within the democratic 
family of nations. I understand that the people of Slovakia care deeply 
about safeguarding their hard-won freedoms. I am proud of the support 
that America has offered to Slovakia at critical moments in its 
history. If confirmed, I would support the strengthening of democratic 
institutions and rule of law with the knowledge that accountability and 
transparency are essential to modern democracies and economic 
prosperity.
    With Secretary Pompeo's visit to Bratislava in February--the first 
such visit in almost 20 years--and President Trump's Oval Office 
meeting with Prime Minister Pellegrini earlier this month, the United 
States is deepening our partnership with Slovakia. If confirmed, it 
would be my highest honor to lead our talented team in Slovakia to 
build on this diplomatic investment and advance our country's interests 
there and across the region.
    Mr. Chairman, Ranking Member Shaheen, and members of the committee, 
thank you again for the opportunity to appear before you today. I 
welcome your questions.


    Senator Romney. Thank you, Ms. Brink.
    Mr. Howery?

  STATEMENT OF KENNETH A. HOWERY, OF TEXAS, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
                AMERICA TO THE KINGDOM OF SWEDEN

    Mr. Howery. Mr. Chairman, Ranking Member, distinguished 
members of the committee, thank you for the honor and privilege 
of addressing the committee as the President's nominee to be 
the United States Ambassador to the Kingdom of Sweden.
    I thank President Trump and Secretary Pompeo for their 
trust in me for this important nomination. I also thank the 
professionals at the White House, State Department, and the 
U.S. embassy in Sweden.
    My mother, Karen Howery, is here, and my father, Ken 
Howery, is watching from overseas. I owe them my thanks as 
well. They embody integrity, hard work, and giving back, and 
instilled those values in their children, as my sister 
Christina can attest. She is here today, and her husband John 
and their daughters, Emma and Eden, are watching in Austin.
    Family taught me the importance of public service. My 
grandfathers are no longer with us, but their legacies remain. 
Both served in World War II: Fred Howery in the Navy in the 
Pacific theater and Hubert Jurek in the Army in Europe and 
North Africa. Without the encouragement of my family and the 
examples they set, I would not be here today. I am grateful to 
them all, and I believe my grandfathers would be pleased that I 
might also serve, in a different way, the nation they loved.
    A visit to the Capitol is a reminder that ideas and 
determination can shape the world. I hope my own experience 
reflects those principles. When I graduated from Stanford, I 
co-founded PayPal. Our idea was simple: to make online 
transactions easy.
    PayPal started small. We drafted our first business plan in 
a windowless broom closet. Today, PayPal is one of the world's 
large e-payments systems, operating in over 200 regions and 
countries with over 18,000 employees. But what is extraordinary 
about that story is how ordinary it is. America's tremendous 
talent pool and business climate encourage constant innovation. 
That is true for Sweden too.
    After PayPal, I co-founded a venture capital firm that has 
supported hundreds of new companies, helping create tens of 
thousands of jobs and fostering innovation in space 
exploration, quantum computing, biotechnology, virtual reality, 
alternative energy, and consumer technologies. One of them is 
Spotify, which was born in Sweden, has operations in the U.S., 
and trades on the New York Stock Exchange.
    International issues have always been important to me in 
business and more broadly. I have participated in the World 
Economic Forum and am a member of the Explorers Club, which 
promotes scientific exploration. I also advise Kiva, a 
nonprofit that helps individuals make micro-loans to fight 
poverty in over 80 nations.
    I have had the good fortune to travel to 99 countries, 
including trips to Sweden, a country for which, like many 
Americans, I have great affinity. Our two nations share long 
ties of kinship and common values. The formal American-Swedish 
relationship dates to 1783 when Sweden became one of the first 
nations to recognize the United States in the Treaty of Amity 
and Commerce, cosigned by Benjamin Franklin, our first envoy to 
Sweden.
    If confirmed, I will devote myself to deepening that 
legacy, emphasizing economic and security partnerships. 
American-Swedish trade already encompasses everything from 
medicines and machine parts to clothing and furniture. We can 
expand established trade while creating entirely new 
opportunities. Our nations are leaders in technological 
innovation and transnational investment, providing ample 
opportunities for mutual benefit, which I will vigorously 
promote.
    Another priority I will work to advance, if confirmed, is 
our nation's mutual commitment to security, exemplified by our 
cooperation on everything from counterterrorism to Arctic 
concerns.
    Security and the prosperity it permits are pillars of the 
American-Swedish relationship. Strengthening those pillars 
allows us to build great things upon them, including expansion 
of our artistic, scientific, and cultural exchanges.
    While there is no perfect preparation to serve as an 
ambassador, I believe my experience and outlook would prove 
particularly useful in Sweden. I have spent my career thinking 
about technology, which is increasingly central to growth. I 
also firmly believe that many goals, even those that seem 
impossible, can be achieved through cooperation, always being 
mindful that the preconditions for success are, as Franklin 
showed, friendship and shared priorities.
    An ambassadorship is a position of honor and trust. I take 
those ideals seriously. If confirmed, I will strive to do 
credit to the office, always faithful to the values of decency, 
progress, and freedom that are responsible for the successes of 
the United States of America, the Kingdom of Sweden, and our 
236 prosperous years as global partners.
    Thank you for allowing me to appear before the committee 
today. I welcome your questions.
    [The prepared statement of Mr. Howery follows:]


                Prepared Statement of Kenneth A. Howery

    Mr. Chairman, Ranking Member, distinguished members of the 
committee, thank you for the honor and privilege of addressing the 
committee as the President's nominee to be the United States Ambassador 
to the Kingdom of Sweden.
    I thank President Trump and Secretary Pompeo for their trust in me 
for this important nomination. I also thank the professionals at the 
White House, State Department, and the U.S. Embassy in Sweden for 
sharing their expertise and guidance.
    My mother, Karen Howery, is here, and my father, Ken Howery, is 
watching from overseas. I owe them my thanks as well. They embody 
integrity, hard work, and giving back, and instilled those values in 
their children--as my sister, Christina, can attest. She's here today, 
and her husband, John, and their daughters, Emma and Eden, are watching 
in Austin.
    Family taught me the importance of public service. My grandfathers 
are no longer with us, but their legacies remain. Both served in World 
War II: Fred Howery in the Navy in the Pacific Theater and Hubert Jurek 
in the Army in Europe and North Africa. Without the encouragement of my 
family, and the examples they set, I would not be here today. I'm 
grateful to them all--and I believe my grandfathers would be pleased 
that I might also serve, in a different way, the nation that they 
loved.
    A visit to the Capitol is a reminder that ideas and determination 
can and have shaped our country and the world for the better. I hope 
that my own experience reflects those inspirational principles. When I 
graduated from Stanford, I co-founded PayPal. Our idea was simple: to 
make on-line payments convenient and secure.
    PayPal started small: we drafted our first business plan in a 
windowless broom closet. Today, PayPal is one of the world's largest e-
payments systems, operating in over 200 regions and countries, with 
over 18,000 employees. But what's extraordinary about that story is how 
ordinary it is. America's tremendous talent pool and business climate 
encourage constant innovation; new ideas, companies, and jobs emerge 
daily. That's true for Sweden, too.
    After PayPal, I co-founded a venture capital firm that has and 
continues to support hundreds of new companies, helping create tens of 
thousands of jobs, and fostering innovation in space exploration, 
quantum computing, biotechnology, virtual reality, alternative energy, 
and consumer technologies. One of those companies is Spotify, the 
popular music streaming platform, which was born in Sweden, has 
operations in the U.S., and trades on the New York Stock Exchange.
    International issues have always been important to me, in business 
and more broadly. I've participated in the World Economic Forum and am 
a member of the Explorers Club, which promotes scientific exploration. 
I also advise Kiva, a non-profit that helps individuals to fight 
poverty by making micro-loans to people in over 80 countries. Kiva has 
helped more than 3 million people, over three-quarters of whom are 
women, to build better lives.
    I've had the good fortune to travel to 99 countries, including 
trips to Sweden, a country for which, like many Americans, I have great 
affinity. Our two nations share long ties of kinship and common values. 
Swedish settlers first arrived in North America in 1638, settling along 
the Delaware River and today, over four million Americans claim Swedish 
ancestry. In addition to family, Sweden provided our young nation with 
one of its earliest friends. In 1783, Sweden became one of the first 
nations to formally recognize the United States, in the Treaty of Amity 
and Commerce co-signed by Benjamin Franklin, our first envoy to Sweden.
    If confirmed, I will devote myself to deepening that legacy, 
emphasizing economic and security partnerships. American-Swedish trade 
already encompasses everything from medicines and machine parts to 
clothing and furniture; you can find iPhones in H&M pockets, and IKEA 
desks in American homes. The depth of our nations' commerce affirms the 
strength of our shared values and our commitments to free and fair 
trade. The United States is Sweden's largest trading partner outside of 
Europe, and some 1,300 American companies operate in Sweden, the 
largest foreign contingent that Sweden hosts. Our ties are reciprocal: 
Sweden is a major investor in the United States, supporting over 
200,000 jobs here. Indeed, on a per capita basis, Sweden is one of the 
biggest investors in America, a testimony to the Swedes' enduring faith 
in the American endeavor. We can expand on those relationships, 
furthering existing trade, while paving new avenues to promote growth 
and employment.
    In particular, American and Swedish leadership in science, 
technology and entrepreneurship offers considerable opportunities for 
mutual benefit, which I will vigorously pursue. Stockholm is already 
home to the second-highest number of billion-dollar technology 
companies per capita after Silicon Valley, creating tremendous 
potential for further cooperation. Our two nations also partner on 
everything from polar science to cancer research. And, of course, the 
Nobel Prize famously attests to Sweden's essential role in fostering an 
international climate that rewards scientific and artistic excellence, 
as America's many Nobel Laureates can confirm.
    Another priority I will work to advance, if confirmed, is our 
nations' mutual commitment to security. Our countries are committed to 
a safe Arctic, and partner on regional security in the Baltic Sea. 
Sweden is also a NATO Enhanced Opportunities Partner, and has 
participated in international security operations in Afghanistan, 
Libya, and the Balkans. Our nations are close partners in the fight 
against terrorism, and are both members of the Global Coalition to 
Defeat ISIS. Sweden has long served as the United States' protecting 
power in North Korea, and continues to play an important role in 
helping to bring detained Americans home.
    Security, and the prosperity it permits, are pillars of the 
American-Swedish relationship. Strengthening those pillars allows us to 
build great things upon them, including the expansion of our artistic, 
scientific, and cultural exchanges.
    While there is no perfect preparation to serve as an ambassador, I 
believe that my experience and outlook would prove particularly useful 
in Sweden. I've spent my career thinking about technology, which is 
increasingly central to growth and a priority for both nations. I also 
firmly believe that many goals, even those that seem impossible, can be 
achieved through cooperation-always being mindful that the pre-
conditions for success are, as Franklin showed, friendship and shared 
priorities.
    An ambassadorship is a position of honor and trust. I take those 
ideals seriously. If confirmed, I will strive to do credit to the 
office, always faithful to the values of decency, progress, and freedom 
that are responsible for the successes of the United States of America, 
the Kingdom of Sweden, and our 236 prosperous years as global partners.
    Thank you for allowing me to appear before the committee today. I 
welcome your questions.


    Senator Romney. Thank you, Mr. Howery.
    Colonel Klimow?

 STATEMENT OF COLONEL MATTHEW S. KLIMOW, USA, RETIRED, OF NEW 
 YORK, A CAREER MEMBER OF THE SENIOR EXECUTIVE SERVICE, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
               STATES OF AMERICA TO TURKMENISTAN

    Mr. Klimow. Mr. Chairman, Ranking Member Shaheen, and 
distinguished members of the committee, I am honored to appear 
before you today as President Trump's nominee to be the next 
United States Ambassador to Turkmenistan.
    If confirmed, I pledge to work with this committee to 
advance our nation's interests in Turkmenistan and in the vital 
region of Central Asia.
    Before I proceed, I would like to recognize my wife Edie. 
Edie is here today. She is a retired Army nurse, and in the 
course of serving our nation together, we have had 18 household 
moves and we hope to have the privilege to do so again.
    Our son Daniel is with us. He is an attorney at the State 
Department, and he is here with his wife Beth, who is also 
serving at the State Department. I am just incredibly proud of 
both of them. So, as you can see, diplomacy is all in the 
family for us.
    Mr. Chairman, the United States has long-term interests in 
Central Asia, and Turkmenistan presents both opportunities and 
challenges in furthering our policy objectives.
    Turkmenistan's geopolitical significance is obvious. It has 
long borders with Afghanistan and Iran. It possesses some of 
the world's largest natural gas reserves, and it serves as a 
bridge between the Caucasus, Central Asia, and the regions 
beyond.
    The reality is that Turkmenistan is situated in a tough 
neighborhood. Porous borders, terrorism, drug trafficking are 
all potential threats to Turkmenistan.
    Both China and Russia exert enormous economic and political 
pressure on the government in Ashgabat.
    Since its independence, Turkmenistan has embraced a policy 
of positive neutrality to ensure its sovereignty and 
territorial integrity.
    Within those parameters, Turkmenistan has supported efforts 
by the United States to increase regional stability, especially 
in regard to Afghanistan. If confirmed, I will work to support 
Turkmenistan's contributions to a stable Afghanistan and ensure 
that our partnership in this area continues.
    I will also work diligently to bolster America's influence 
with the government of Turkmenistan. We have an opportunity to 
act as a counterweight and a positive alternative to Russia and 
China's unrelenting push to further their economic and 
political objectives at the expense of the Turkmen people.
    If confirmed, I will also encourage Turkmenistan's 
increased integration in regional and global markets, which 
promotes greater stability and creates opportunities for U.S. 
trade and investment. I will make every opportunity to promote 
diversification of Turkmenistan's gas export markets across the 
Caspian Sea, as well as to South Asia.
    Economic development, however, is a challenge in 
Turkmenistan given its weak regulatory environment and 
excessive bureaucracy. Also troubling are concerted attempts to 
control access to information, to include the Internet and 
independent news sources.
    If confirmed, I will work toward making steady progress in 
those areas, and that effort would include encouraging access 
to uncensored information and taking advantage of U.S. cultural 
exchanges and educational opportunities.
    If confirmed, I will also engage the government of 
Turkmenistan assertively and constructively across the full 
spectrum of human rights issues, to include the use of forced 
labor in cotton harvesting and undue restrictions on religious 
practices. I believe that progress in those areas is possible 
through forthright, consistent, pragmatic dialogue.
    Mr. Chairman, in 1948, tens of thousands of people died in 
an earthquake that devastated the capital of Ashgabat, and that 
seismic fault line is still active.
    I have spent a great deal of my life living and working 
overseas, often in dangerous places.
    If confirmed, I will make the safety of our embassy a top 
priority, incorporating situational awareness and meticulous 
crisis response planning in all aspects of embassy life.
    I am not a stranger to Central Asia. In the crucial months 
following the terrorist attacks of 11 September 2001, I 
traveled throughout South and Central Asia with the Chairman of 
the Joint Chiefs of Staff, meeting with heads of state, chiefs 
of defense to solidify basing rights, gain political support, 
and to articulate U.S. national interests. And although much 
has changed in the following years, those national interests 
endure.
    I can imagine no greater honor than returning to Central 
Asia and representing our nation at this critical time.
    But the greatest privilege that any person can ask for is 
to simply be entrusted to lead others. If confirmed, I will 
work tirelessly to make a difference in the lives of our staff, 
to forge a cohesive team that strengthens the institutions we 
deeply care about, and to do so in an atmosphere of mutual 
respect with dignity as our byword. That is a leader's sacred 
trust instilled in me at West Point, at the heart of my service 
as a soldier, and at the core of what we do every day as 
diplomats and professionals at the United States Department of 
State.
    Thank you, Senator, and I look forward to your questions.
    [The prepared statement of Colonel Klimow follows:]


                Prepared Statement by Matthew S. Klimow

    Mr. Chairman and distinguished members of the committee. I am 
honored to appear before you today as President Trump's nominee, to be 
the next United States Ambassador to Turkmenistan.
    If confirmed, I pledge to work with this committee to advance our 
nation's interests in Turkmenistan and in the vital Central Asia 
region.
    I'd like to recognize my wife, Edie, a retired Army nurse who is 
with me today. In the course of serving our nation, we have had 18 
household moves, and we hope to have the privilege to do so again.
    Our son, Daniel, is with us--he is an attorney at the State 
Department--also his wife Beth, who serves at the State Department as 
well. So, as you can see, diplomacy is a family affair for us.
    The United States has long-term interests in Central Asia, and 
Turkmenistan presents opportunities and challenges in furthering U.S. 
policy objectives.
    Turkmenistan's geo-political importance is clear:

   it has long borders with Afghanistan and Iran;
   it possesses some of the world's largest natural gas reserves; and
   it serves as a bridge between the Caucasus, Central Asia, and the 
        regions beyond.

    The reality is that Turkmenistan is situated in a tough 
neighborhood. Porous borders, terrorism, and drug trafficking are all 
potential threats to Turkmenistan.
    Both China and Russia exert enormous economic and political 
pressure on the government in Ashgabat.Since its independence, 
Turkmenistan has embraced a policy of ``positive neutrality'' to ensure 
its sovereignty and territorial integrity.
    With those parameters, Turkmenistan has supported efforts by the 
United States to increase regional stability, especially in regard to 
Afghanistan.
    If confirmed, I will work to support Turkmenistan's contributions 
to a stable Afghanistan and ensure that our partnership in this area 
continues.
    I will also work diligently to bolster America's influence with the 
government of Turkmenistan.
    We have an opportunity to act as a counterweight and positive 
alternative to Russia and China's unrelenting push to further their 
economic and political objectives at the expense of the Turkmen people.
    If confirmed, I will also encourage Turkmenistan's increased 
integration in regional and global markets, which promotes greater 
stability and creates opportunities for U.S. trade and investment.
    I will make every effort to promote diversification of 
Turkmenistan's gas export markets-across the Caspian Sea as well as to 
South Asia.
    Economic development, however, is a challenge in Turkmenistan given 
its weak regulatory environment and excessive bureaucracy.
    Also troubling are concerted attempts to control access to 
information, to include the internet and independent news sources.
    If confirmed, I will work toward making steady progress in those 
areas. That effort would include encouraging access to uncensored 
information and taking advantage of U.S. cultural exchanges and 
educational opportunities.
    If confirmed, I will also engage the government of Turkmenistan 
assertively and constructively across the full spectrum of human rights 
issues, to include the use of forced labor in cotton harvesting and 
undue restrictions on religious practices.
    I believe progress in those areas is possible through consistent, 
pragmatic dialogue.
    In 1948, tens of thousands of people died in an earthquake that 
devastated the capital of Ashgabat. That seismic fault line is still 
active.
    I have spent a great deal of my life living and working overseas, 
often in dangerous places.
    If confirmed, I will make the safety of our embassy staff a top 
priority, incorporating situational awareness and meticulous crisis 
response planning into all aspects of embassy life.
    I am not a stranger to Central Asia. In the crucial months after 
the terrorist attacks of September 11, 2001, I traveled throughout 
South and Central Asia with the Chairman of the Joint Chiefs of Staff, 
meeting with heads of state and chiefs of defense to solidify basing 
rights, gain political support, and articulate U.S. national interests. 
Although much has changed in the following years, those interests 
endure.
    I can imagine no greater honor than returning to Central Asia and 
representing our nation at this critical time.
    But, the greatest privilege that any person can ask for is to 
simply be entrusted to lead others.
    If confirmed, I will work tirelessly to:

   make a difference in the lives of our staff;
   forge a cohesive team that strengthens the institutions we deeply 
        care about; and
   do so in an atmosphere of mutual respect with dignity as our 
        byword.

    That is a leader's sacred trust,instilled in me:

   at West Point;
   at the heart of my service as a soldier; and
   at the core of what we do every day as diplomats and professionals 
        at the United States Department of State.

    Thank you, Senator. I look forward to your questions.


    Senator Romney. Thank you, Colonel Klimow.
    Mr. Daigle?

  STATEMENT OF JOHN JEFFERSON DAIGLE, OF LOUISIANA, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
 COUNSELOR, TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY 
 OF THE UNITED STATES OF AMERICA TO THE REPUBLIC OF CABO VERDE

    Mr. Daigle. Thank you very much, Mr. Chairman, Ranking 
Member Shaheen, and members of the committee.
    It is my honor to appear here today as the President's 
nominee to be the next U.S. Ambassador to the Republic of Cabo 
Verde. I am grateful for the confidence that the President and 
Secretary of State have placed in me with this nomination. If 
confirmed by the Senate, I pledge to do my utmost to uphold 
this trust and to advance U.S. national interests.
    Over the past 2 decades, I have been privileged to 
represent the United States at U.S. missions on four 
continents. Any measure of success that I have achieved during 
those postings would not have been possible without the love 
and support of my family. So I would like to start by 
expressing my sincerest gratitude to them. I come from a very 
large Louisiana family. I have 10 sisters, one brother, and 
more than 70 nieces and nephews, so I will not name them all 
here. But I do want to single out my wonderful mother, Carole 
Daigle; my father, World War II naval hero, Warren Daigle; and 
of course, my partner and spouse of 18 years, Matthew Cuenca-
Daigle, who is here with me today, as he has been for almost 
all of my Foreign Service postings except the very first one.
    Over the course of my career, I have worked with 
governments that are allies of the United States and with those 
that have had strained ties with our country. I have worked in 
developing nations and in rich ones. Irrespective of the host 
country environment, the one constant I have witnessed 
throughout my service is the positive impact the United States 
has on people around the world by staying true to our values as 
we further our national interests. As a public diplomacy 
officer, I am keenly aware of the direct relationship that 
exists between advancing U.S. national interests and 
strengthening our ties with foreign peoples and supporting them 
in their aspirations for a better life for themselves and their 
children.
    Cabo Verde is a true success story in lifting up the lives 
of its people, having transitioned to a lower middle-income 
economy in recent years. The country enjoys a vibrant, multi-
party democracy, and has had an unbroken history of civilian 
rule since its independence in 1975. This year, we are 
celebrating 200 years of relations between our two countries, 
which stretch back to December 1818 when the United States 
established in Cabo Verde the first U.S. consulate in sub-
Saharan Africa. Since then, many people of Cabo Verdean descent 
have settled in the United States, with New England now home to 
a large and vibrant Cabo Verdean diaspora.
    Increasing economic growth and development is the top U.S. 
priority in Cabo Verde, which has the distinction of being the 
first country to complete two Millennium Challenge Corporation 
compacts. Both compacts focused on improving Cabo Verde's 
openness to investment and the private sector, which are 
playing vital roles in the country's development. Cabo Verde 
now aspires to have a bilateral trade agreement with the United 
States and, if confirmed, I will vigorously support efforts to 
increase trade and investment between our two countries. A key 
focus will be continuing to support Cabo Verde in strengthening 
its business environment in support of the administration's 
Africa Strategy and Prosper Africa objectives.
    Cabo Verde has set an ambitious target to produce 100 
percent of its energy using renewable resources by 2040. And in 
December 2018, Cabo Verde also announced new plans to 
capitalize on its geostrategic location to attract private 
sector investment in such areas as tourism, air transport, and 
maritime activity to advance the country's strategic plan for 
sustainable development. Both of these initiatives present 
exciting opportunities for U.S. companies and entrepreneurs to 
partner with Cabo Verde and help the country reach its goals.
    In February, Boston's mayor led a delegation to Cabo Verde, 
and I look forward to welcoming other U.S. delegations and 
business people to the country wishing to explore trade and 
investment opportunities. U.S. investors will soon be able to 
take advantage of the new support and opportunities presented 
by the BUILD Act and the new Development Finance Corporation. I 
will promote these new tools as a means of attracting U.S. 
investment to Cabo Verde, and I will champion the country's 
continued efforts to improve its business climate and achieve 
self-reliance.
    Our other top objective in Cabo Verde is strengthening 
security cooperation between our countries, which is reflected 
in our strong maritime security and law enforcement 
partnerships. Cabo Verde has hosted U.S. military exercises 
such as Epic Guardian 2016 and Africa Endeavor 2018, and the 
Boston police are providing training on community policing 
practices. AFRICOM and the U.S. Coast Guard also conduct 
training and exercises and share best practices with their Cabo 
Verdean counterparts to enhance the country's capacity to 
interdict illicit maritime vessels and carry out search and 
rescue operations. The success of this training was 
dramatically illustrated by Cabo Verde's interception in late 
January of 9 tons of cocaine bound for Europe.
    Cabo Verde has also made excellent advances in recent years 
in combating sexual and gender-based violence and violence 
against children, as well as improving prison conditions. If 
confirmed, I pledge to sustain U.S. support and encouragement 
for Cabo Verde's admirable efforts to continue making progress 
on these and other civil and human rights issues.
    Finally, if confirmed, no responsibility will be more 
important to me than that of protecting the lives, interests, 
and welfare of the thousands of American citizens who live in 
Cabo Verde and the thousands more who visit the country each 
year.
    Mr. Chairman, Ranking Member Shaheen, if confirmed, I look 
forward to working with you and the honorable members of this 
committee to advance U.S. interests in Cabo Verde and to 
sustain and expand the progress we have achieved in our long 
and positive relationship.
    Again, thank you for the opportunity to appear before you 
today. I would be pleased to answer any questions you may have.
    [The prepared statement of Mr. Daigle follows:]


              Prepared Statement of John Jefferson Daigle

    Thank you very much Mr. Chairman, Ranking Member, and members of 
the committee. It is my honor to appear here today as the President's 
nominee to be the next U.S. Ambassador to the Republic of Cabo Verde. I 
am grateful for the confidence that President Trump and Secretary of 
State Pompeo have placed in me with this nomination. If confirmed by 
the Senate, I pledge to do my utmost to uphold this trust and to 
advance U.S. national interests.
    Over the past two decades, I have been privileged to represent the 
United States at U.S. missions on four continents. Any measure of 
success that I achieved during these postings would not have been 
possible without the support of my family, so I would like to start by 
expressing my sincerest gratitude to them. I come from a very large 
Louisiana family--I have 10 sisters, one brother, and more than 70 
nieces and nephews--so I won't name them all, but I do want to single 
out my mother, Carole Daigle; my father, World War II naval hero Warren 
Daigle; and of course my partner and spouse of 18 years, Matthew 
Cuenca-Daigle, who has been with me through every posting but one.
    Over the course of my career, I have worked with governments that 
are allies of the United States and with those that have had strained 
ties with our country. I have worked in developing nations and in rich 
ones. Irrespective of the host country environment, the one constant I 
have witnessed throughout my service is the positive impact the United 
States has on people around the world by staying true to our values as 
we further our national interests. As a Public Diplomacy officer, I am 
keenly aware of the direct relationship that exists between advancing 
U.S. national interests and strengthening our ties with foreign peoples 
and supporting them in their aspirations for a better life for 
themselves and their children.
    Cabo Verde is a true success story in lifting up the lives of its 
citizens, having transitioned to a lower middle-income economy in 
recent years. The country enjoys a vibrant, multi-party democracy and 
has had an unbroken history of civilian rule since its independence in 
1975. This year we are celebrating 200 years of relations between our 
two countries, which stretch back to December 1818 when the United 
States established in Cabo Verde the first U.S. consulate in subSaharan 
Africa. Since then, many people of Cabo Verdean descent have settled in 
the United States, with New England now home to a large and vibrant 
Cabo Verdean diaspora.
    Increasing economic growth and development is the top U.S. priority 
in Cabo Verde, which has the distinction of being the first country to 
complete two Millennium Challenge Corporation compacts. Both compacts 
focused on improving Cabo Verde's openness to investment and the 
private sector, which are playing vital roles in the country's 
development. Cabo Verde now aspires to have a bilateral free trade 
agreement with the United States, and, if confirmed, I will vigorously 
support efforts to increase trade and investment between our two 
countries. A key focus will be continuing to support Cabo Verde in 
strengthening its business environment in support of the 
administration's Africa Strategy and Prosper Africa objectives.
    Cabo Verde has set an ambitious target to produce 100 percent of 
its energy using renewable resources by 2040. And in December 2018, 
Cabo Verde also announced new plans to capitalize on its geo-strategic 
location to attract privatesector investment in such areas as tourism, 
air transport, and maritime activity to advance the country's Strategic 
Plan for Sustainable Development. Both of these initiatives present 
exciting opportunities for U.S. companies and entrepreneurs to partner 
with Cabo Verde and help the country reach its goals.
    In February, Boston's mayor led a delegation to Cabo Verde, and I 
look forward to welcoming other U.S. delegations and businesspeople to 
the country wishing to explore trade and investment opportunities. 
Investors will soon be able to take advantage of the new support and 
advantages presented by the BUILD Act and the new Development Finance 
Corporation. I will promote these new tools as a means of attracting 
U.S. investment to Cabo Verde, and I will champion the country's 
continued efforts to improve its business climate and achieve 
selfreliance.
    Our other top objective in Cabo Verde is strengthening security 
cooperation between our countries, which is reflected in our strong 
maritime security and law enforcement partnerships. Cabo Verde has 
hosted U.S. military exercises such as Epic Guardian 2016 and Africa 
Endeavor 2018, and the Boston Police are providing training on 
community policing practices. AFRICOM and the U.S. Coast Guard also 
conduct training and exercises and share best practices with their Cabo 
Verdean counterparts to enhance the country's capacity to interdict 
illicit maritime vessels and carry out search and rescue operations. 
The success of this training was dramatically illustrated by Cabo 
Verde's interception in late January of nine tons of cocaine bound for 
Europe.
    Our Status of Forces Agreement with Cabo Verde entered into force 
in November 2018. The agreement enables the U.S. military to respond 
more rapidly to humanitarian or disaster-related emergencies and 
enhances our ability to conduct military training exercises in 
coordination with our partners in West Africa, and AFRICOM continues to 
explore new ways to deepen our cooperation under the agreement. Cabo 
Verde is a model in the region for forging successful security 
partnerships, and if confirmed, it is my goal to not just maintain but 
to expand our collaboration with Cabo Verde in this area by working 
with AFRICOM and others in the inter-agency to explore all options 
available to us.
    Cabo Verde has made excellent advances in recent years in combating 
sexual and gender-based violence and violence against children, as well 
as improving prison conditions. If confirmed, I pledge to sustain U.S. 
support and encouragement for Cabo Verde's admirable efforts to 
continue making progress on these and other civil and human rights 
issues.
    Finally, if confirmed, no responsibility will be more important to 
me than that of protecting the lives, interests, and welfare of the 
thousands of American citizens who live in Cabo Verde and the thousands 
more who visit the country each year.
    Mr. Chairman, Ranking Member, if confirmed, I look forward to 
working with you and the honorable members of this committee to advance 
U.S. interests in Cabo Verde and to sustain and expand the progress we 
have achieved in our long and positive relationship.
    Again, thank you for the opportunity to appear before you today. I 
would be pleased to answer any questions you may have.


    Senator Romney. Thank you so much for your testimony, and 
that is true for each of you. Thank you also to your families 
for being here where that was possible. I mentioned earlier 
that we appreciate the sacrifice you have made in behalf of our 
country and our national interests. But I also want to 
underscore the appreciation we have for the members of your 
family and for their contributions and supporting you in these 
important roles.
    I get 5 minutes to ask questions, and I have a question to 
ask each of you. So with a little math, you can figure out how 
much time I would like you to spend on the answer.
    Ms. Brink, Russia is meddling in Slovakia, obviously, tried 
to disseminate information that is untrue there. The 
presidential elections saw a pro-Russia candidate get a good 
deal of support.
    What do you think we can do or you can do to help combat 
Russia's malign interest in Slovakia?
    Ms. Brink. Thank you, Mr. Chairman, for that question. This 
is a really important question.
    Slovakia has come a very long way since independence. One 
of the key areas where more work needs to be done is on anti-
corruption and strengthening the transatlantic bond. With the 
recent presidential election you mentioned of a person with a 
reputation as a strong anti-corruption fighter, I think there 
will be an opportunity for us to work together on that.
    With regard specifically to malign influence and 
misinformation, in my experience corruption offers an 
opportunity, an opening for that, which we must try to close. 
And we have many programs that we work on as part of the 
administration with support and funding from Congress to try to 
fight this influence. And to be quick, I will just say we have 
programs that help to support independent journalists and also 
civil society. We use our own platforms to call out this 
misinformation, and we also work with the Slovak government to 
help the government identify and find countermeasures.
    Senator Romney. Thank you.
    Mr. Howery, we obviously have a very strong relationship 
with Sweden. It is a country that is committed defense in a 
region which is dangerous from time to time.
    Are there ways you think we need to strengthen or deepen 
our security partnership with the nation of Sweden?
    Mr. Howery. Thank you for the question, Chairman Romney.
    As you mentioned, the current relationship between Sweden 
and the United States is very strong. The two countries have 
signed a bilateral statement of intent for defense cooperation. 
They have purchased the Patriot missile system. We participate 
together in trainings and exercises. And so we already have a 
strong base upon which to build.
    If confirmed, I would seek to continue strengthening 
bilateral ties between the U.S. and Sweden, as well as 
strengthening ties between Sweden and NATO; Sweden is a NATO 
partner, not a NATO member, but strengthening that relationship 
as well and work closely with Swedish officials on 
strengthening national security ties.
    Senator Romney. Thank you.
    Colonel Klimow, do you have a perspective of what China is 
trying to do in Turkmenistan? Obviously, the Russians have long 
had interest in what is happening there, but is China playing a 
role there? And is there an effort on our part that should try 
and dissuade them from becoming too close to any malign intent?
    Mr. Klimow. Thank you for your question, Senator. And also 
thank you for your membership and leadership in the 
subcommittee that oversees Central Asia.
    You are correct, Senator. China has a big influence in 
Turkmenistan, and that is understandable. They have historic 
trading links that go back centuries.
    Turkmenistan is a relatively young country, and I believe 
it is in our national interest to help them feel secure in 
their sense of sovereignty, independence, and territorial 
integrity, especially when they are dealing not only with China 
but with Russia as well. That is good for the entire Central 
Asia region to have Turkmenistan feel that they are strong 
enough to resist the malign efforts of the powers in the 
region, to include China and Russia.
    It is also in our interest to help them with reforms. A 
stable country is based on the support of its people. It is in 
our interest to help them bring the Turkmen people into the 
21st century marketplace of ideas and technology. I think in 
that way, they are better prepared to deal with China. We offer 
them a very positive alternative, one without strings attached, 
and if confirmed, I will work hard to make that a reality.
    Senator Romney. Thank you very much, Colonel.
    With regard to Mr. Daigle and Cabo Verde, I have to tell 
you that it is hard for me to pronounce that properly because 
as a former resident of Massachusetts, I had a number of 
friends there that called themselves Cape Verdeans. So I think 
of it being called Cape Verde. It is Cabo Verde, which is a 
different pronunciation, but I appreciate your willingness to 
be of service there.
    Clearly the location geographically of this nation is of 
great strategic significance to anyone considering maritime 
trade or perhaps even naval ambition. And it is not surprising 
to understand that China is making a substantial investment in 
the country.
    I wonder if there are efforts on your part--and hopefully, 
there will be--to dissuade the leadership there from getting 
involved perhaps with ports and predatory loans that China has 
been known for and instead focus them on projects that can 
build the economy for the nation but not lead them to become 
involved in an unfortunate way with China.
    Mr. Daigle. Yes, sir. Thank you for that question.
    As Cabo Verde exercises its sovereign right to choose its 
own partners, if I am confirmed, I would really advocate with 
the country's leaders the importance of pursuing stronger trade 
ties with the United States, as well as a broader range of 
trade partners, and also stress upon them the importance of 
selecting foreign investment that is high quality, inclusive, 
sustainable, and transparent. So I think those are the 
important things to stress with the country so that they do 
choose things that are in their best interests.
    At this point, China is very active in Cabo Verde, and they 
have made investments in their infrastructure. But at this 
point, the Chinese do not hold a significant percentage of 
their external debt.
    Senator Romney. Thank you so much.
    We will now turn to the ranking member for questions that 
she may have.
    Senator Shaheen. Well, thank you, Mr. Chairman.
    I would like to begin with you, Ms. Brink. I recently 
introduced legislation with a number of the members of this 
committee to sanction vessels that are engaged in laying deep 
sea pipe for Russia's pipeline, Nordstream 2 pipeline.
    Given your experience in the European Bureau and the fact 
that there has been no sign that the construction of Nordstream 
2 is slowing down, do you think that the EU member states in 
Central Europe are doing enough to express their concerns about 
Nordstream 2?
    Ms. Brink. Thank you, Senator Shaheen.
    This is a really important question. Energy security is 
national security. And I think we all can always do more. And I 
would say with regard to Slovakia, this is one area that I 
intend to focus on. Slovakia could increase its energy 
independence and its national security by doing a couple 
things, including by continuing its opposition vocally to Nord 
Stream 2, which it has been. So I would encourage that.
    We, as an administration, are also opposed to the second 
stream of Turk Stream. In addition to that area, I would also 
support interconnectors. There are some possibilities of 
interconnectors to Poland and potentially other neighboring 
states. We believe the free flow of gas in the region is 
beneficial to Slovakia and to Slovakia's security.
    And then finally, there is potential for U.S. LNG and 
bringing U.S. LNG to Europe, which also could change the 
balance and the dependence on a single country. There is also 
nuclear energy and trying to bring that down from 100 percent 
dependence on Russia which would, in our view at least, be in 
Slovakia's interest. So I would prioritize that.
    Senator Shaheen. Well, thank you. I appreciate your 
response. I think it is very important that we do everything we 
can to encourage Europe to diversify its electricity production 
and to not have another generation that is dependent on Russian 
oil and gas.
    Mr. Howery, one of the challenges in Sweden has been 
Russia's effort to spread disinformation throughout the 
country. Some of the instances that have gained traction there 
have been stories about adopted Russian children who are 
abused, horrible stories about crimes committed by migrants.
    If confirmed, how will you help to counter these false 
narratives?
    Mr. Howery. Thank you for the question, Ranking Member 
Shaheen.
    This is a really important question and one that Sweden, 
like ourselves, has been dealing with. Sweden has been the 
target of, as you mentioned, Russian disinformation, as well as 
cyber intrusions from Russia. And they have been a partner of 
ours in pushing back. We do share information in the 
information space with Sweden.
    They have taken a number of steps, internally, to try to 
push back on Russian disinformation, everything from training 
election officials to look for election meddling in the most 
recent election. And they have actually set up a national board 
for psychological defense. These are just a few of the 
countermeasures I know that Sweden has implemented.
    If confirmed, I would want to speak with Embassy Stockholm 
and Swedish officials to find out if these or other 
countermeasures they have taken have been effective in pushing 
back against Russia. So, if confirmed, I would commit to 
prioritizing working closely with Sweden to push back against 
Russian--their destabilizing activities.
    Senator Shaheen. I hope you will also plan to meet with the 
Global Engagement Center at the State Department to talk about 
what we are doing to push back against disinformation as well.
    Mr. Howery. I plan on doing that. Thank you.
    Senator Shaheen. Colonel Klimow, in your written testimony, 
you talk about the importance of Turkmenistan for its 
geopolitical presence and the importance of the relationship 
that we have.
    How do you balance that relationship with the human rights 
challenges that Turkmenistan is facing?
    Mr. Klimow. Ranking Member Shaheen, thank you very much for 
that very thoughtful and important question.
    Let me start by saying that I believe there is nothing more 
fundamental than human dignity. I also believe it is the duty 
of every American diplomat, whether it is a junior officer 
reporting for his or her first tour at an embassy or the chief 
of staff, to be a champion for American values, and those 
include, of course, human rights, freedom of expression, good 
governance and democracy. If I am confirmed, this will be one 
of the highest priorities of my portfolio, and I believe that I 
have a role to play in that regard as well.
    I think part of the first things that I would need to do is 
to establish rapport at the highest levels of the Turkmenistan 
government. There are three or four areas, to include of 
freedom of religion, that I would like to focus on, as well as 
trafficking in persons where they are a tier 3 country. These 
are issues of great import, and I believe that through 
forthright, consistent, pragmatic, and disciplined messaging 
and engagement, we can make a difference.
    Thank you, Senator.
    Senator Shaheen. Well, thank you. I am out of time, but 
your last comment about the consistent, disciplined messaging I 
think is a good reminder of what good diplomacy includes.
    Thank you, Mr. Chairman.
    Senator Romney. Thank you.
    Senator Udall?
    Senator Udall. Thank you, Mr. Chairman.
    And thank all of you for your service. I know three of you 
have been longtime career folks.
    Mr. Daigle, small, low-lying islands such as those that 
comprise Cabo Verde are at the highest risk of suffering from 
climate change. With rising sea levels, these islands really 
risk extinction.
    As Ambassador to Cabo Verde, how will you work with the 
government and the people of Cabo Verde to encourage them to do 
what they can to address climate change and its impending 
effects on the islands?
    Mr. Daigle. Thank you for that question, sir.
    In Cabo Verde's instance at least, the islands are 
volcanic. So they are a little bit more elevated than some of 
the lower-lying islands in the Pacific. So the risk of the 
islands being completely inundated is a little bit less.
    But nevertheless, the effects of climate change are real in 
the country. They have experienced severe droughts over the 
past several years. Cabo Verde in Portuguese means the Green 
Cape, and that is certainly not the case any longer. There is 
not a lot of greenery left in Cabo Verde. So it is an issue 
that the government is seized with.
    At this point, the country no longer qualifies for U.S. 
development assistance because it has become a lower middle-
income country. But I will certainly look to partner with USAID 
and see what else we might be able to do to assist them in 
coping with climate change, particularly through USAID's 
regional hub in West Africa.
    Senator Udall. And how would you describe this 
administration's climate change policy to the country of Cabo 
Verde?
    Mr. Daigle. There is a discussion underway as to what is 
the cause of climate change within the government and how we 
should deal with it. At this point, I think we have made 
efforts to assist countries in coping with climate change and 
adjusting to it. And I will certainly see what else we might be 
able to do with Cabo Verde, should I be confirmed and head out 
there.
    Senator Udall. Mr. Howery and Mr. Daigle, is climate change 
a real emergency, or is it an opportunity, as Secretary Pompeo 
described it, because the melting ice will open up new routes 
to trade even as it floods coasts and low-lying areas? That was 
a comment made about the Arctic.
    Mr. Daigle. Mr. Howery or Mr. Daigle?
    Senator Udall. Both of you. Mr. Howery, why do you not 
start on that one?
    Mr. Howery. Thank you, Senator.
    Climate change is real, but my personal views are not what 
is important. My job, if confirmed, will be to represent the 
United States and our foreign policy in Sweden. It will not be 
my job to set policy or to promote my personal views.
    Senator Udall. So what would you describe this 
administration's climate change policy as to the country that 
you are going to serve, which is actively been one of the 
leaders in the world in terms of climate change and believes it 
is an urgent threat and that we should move forward with it 
very deliberately? So what are you going to tell them what is 
the United States' policy, as you understand it?
    Mr. Howery. Thank you, Senator.
    If confirmed, I would help explain that regarding the Paris 
Agreement specifically, the President has announced his 
intention to withdraw the country from the Paris Agreement, 
absent the identification of terms more favorable to the 
American people.
    If confirmed as Ambassador, my job would be to find points 
of overlap and intersection on environmental policy. Like many 
challenges we have faced in the past, I believe that the role 
of innovation and new technologies will have to play a critical 
role. Given my background, I will look for ways to engage the 
private sector. I believe this is an opportunity to leverage 
the ingenuity of individuals and businesses instead of just 
relying on regulation to help protect the environment while 
growing the economy. So, if confirmed, I look forward to 
working on this issue with Swedish officials.
    Senator Udall. And the two other panelists, would you 
describe your description of this administration's climate 
policy and how you will relate that to the country you are 
serving?
    Mr. Klimow. Thank you, Senator.
    Turkmenistan is a relatively young country. I would go to 
first principles in engaging with Turkmenistan, especially in 
regard to water management and the effects that climate change 
may have on what is a dire situation throughout Central Asia. I 
would also work with them in terms of smart energy. 
Surprisingly, I found as I began my quest to become Ambassador 
to Turkmenistan, that they are interested in solar power and 
wind power. These things, of course, will be part and parcel of 
the bigger energy program.
    Thank you, Senator.
    Senator Udall. Mr. Chairman, with your permission, I would 
just ask the last witness to----
    Senator Romney. Absolutely, please.
    Senator Udall. Thank you for the courtesies.
    Ms. Brink. Thank you, Mr. Senator.
    Slovakia was disappointed that the United States--President 
Trump--announced our intention to withdraw from the Paris 
Agreement. Slovakia had the EU presidency at the time of the 
conclusion of the agreement and adheres to the EU position.
    If confirmed, my goal would be to try to find areas where 
we can work with Slovakia to address climate change, but also 
address other issues. And I think there are some areas where we 
could do both. For example, in the energy sphere, renewable 
energy is a real area where we can work with Slovakia to try to 
bring down dependence on a single country with regard to their 
own energy needs.
    Also, we already have a lot of cooperation in the 
technology sector, and I think that could offer some areas of 
exploration as well. And I would look for any and all areas 
where we can continue to work together.
    Senator Udall. Thank you for the courtesies, Mr. Chairman. 
I appreciate it.
    Senator Romney. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And thanks to the witnesses. Congratulation on your 
nominations.
    Just a couple of questions, Ms. Brink, first for you with 
respect to Slovakia.
    Slovakia has a number of challenges, and one of them is in 
their military, replacing obsolete Soviet era equipment. We 
supported the accession of Slovakia to NATO in 2004.
    How could the State Department work together with Slovakia 
to help them make the transition to equipment that is more 
compatible with those of NATO allies?
    Ms. Brink. Thank you, Mr. Senator.
    This is going to be, if confirmed, one of my key 
priorities. We have some good news here in that Slovakia has 
prioritized modernizing its military as a NATO member and 
moving away from Soviet era military equipment. And just last 
year, Slovakia purchased 14 F-16's, which is a very significant 
purchase. They are also continuing military modernization 
needs. And if confirmed, I would do what I can to advocate for 
U.S. businesses because that would be good, obviously, for our 
business, but to continue to have NATO interoperable equipment 
is also good for Slovakia's military.
    Senator Kaine. Thank you for that.
    Mr. Howery, with respect to Sweden, there was news this 
week in the ``Jerusalem Post'' and elsewhere about a hate crime 
committed in Sweden, the stabbing of a 60-year-old woman who 
was a leading figure in one of Sweden's largest cities' Jewish 
community. And it highlights how pervasive hate crimes 
perpetrated against Jews have become around the country and in 
our own country.
    I introduced a resolution in the last 2 weeks with Senator 
Cruz to focus upon the need for all of us to band together 
regardless of nationality or party to condemn and combat anti-
Semitism.
    As Ambassador, how would you work to try to make sure that 
anti-Semitism is on the decrease and not on the increase in 
Sweden?
    Mr. Howery. Thank you, Senator Kaine.
    I agree this is a very important issue.
    As you mentioned, Sweden does struggle with, in some cases, 
anti-Semitism just like we have some here at home. Jews in 
Sweden are the most frequently targeted group relative to their 
size of religiously motivated hate crimes. So it is an issue.
    If confirmed, I would work with Swedish officials to 
reiterate our support for both religious tolerance and 
religious freedom and work together closely with them and would 
welcome your involvement as well, if I am confirmed.
    Senator Kaine. Thank you, Mr. Howery.
    Ms. Brink, the issue has been one slightly different, but 
also one in Slovakia. In 2015, the foreign minister of Slovakia 
said, with respect to refugees, that they wanted just to take 
Christians. They were particularly antipathetic to taking 
Muslim refugees. And they cited the small Muslim population. 
There were not many mosques. But the notion of something like 
humanitarian aid you would condition it upon people's religion 
is very abhorrent to me, and I hope it is to you.
    Sadly, this is becoming a feature in all of the hearings we 
are having, is what we can do at home and abroad to try to 
promote respect for that important American value that you are 
neither preferred nor punished based on how you worship or do 
not worship. And I hope you will also in Slovakia stand strong 
for that principle.
    Ms. Brink. Yes, sir. Senator, this has always been 
something that I have promoted through over 20 years of my 
foreign service career. I will continue to do so when I go to 
Slovakia, and I know that members of the Hill, but also our 
public cares about this issue since it is a key American value 
and it underpins the transatlantic bond that we have with 
Slovakia and also the rest of Europe.
    Senator Kaine. It is very important. When Senator Cruz and 
I introduced the bill, I said we came in the Senate on the same 
day, but I am not sure we have ever found common cause enough 
on a single issue to introduce a bill together. But on this 
one, we were very much in common cause. And I am excited that 
it has picked up so many bipartisan cosponsors.
    Colonel, let me ask you a question about Turkmenistan. 
Since 2015, the U.S.-Turkmenistan bilateral relationship has 
been assisted and complemented by the C5 Plus 1 Framework, 
which is the U.S. engagement, really a forum for the U.S. and 
the five Central Asian countries. And we have used that 
framework to talk about issues like security and economic 
connections and trade and environmental issues. Talk a little 
bit about how that framework might assist in your work, should 
you be confirmed as Ambassador to Turkmenistan.
    Mr. Klimow. Thank you for that question, Senator.
    In fact, a C5 Plus 1 meeting is taking place this week. 
This is an encouraging sign that we are making some progress I 
believe with the government of Turkmenistan. They recently 
volunteered to co-chair committees on environment. And we 
believe that the fact that they stepped forward is an 
indication that there may be other opportunities to work with 
them on some of the pressing issues regarding human rights.
    But the C5 Plus 1 forum is a centerpiece. It allows us to 
engage with Turkmenistan where in many instances, it is very 
difficult to reach the government of Turkmenistan in a 
meaningful way.
    Senator Kaine. Great. Thank you.
    Mr. Chair, thank you.
    Senator Romney. Thank you.
    Thank you to all of the nominees for your very thoughtful 
and well reasoned responses to the questions that have come 
from the members. I appreciate that very much. We want to 
appreciate also the questions that have been asked.
    And at this stage, just note that for information of the 
members, that the record will remain open until the close of 
business on Friday, including for members to submit questions 
for the record.
    And so with the thanks of the committee, the hearing is now 
adjourned.


    [Whereupon, at 2:50 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

                              ----------                              


            Responses to Additional Questions for the Record
        Submitted to Bridget A. Brink by Senator Robert Menendez

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. As Deputy Assistant Secretary of State, I worked across 
Eastern Europe and the Caucasus in support of democracy and human 
rights in Ukraine, Moldova, Belarus, Georgia, Azerbaijan, and Armenia. 
I led anti-corruption efforts in Ukraine and Moldova. In both 
countries, our support for conditioning IMF assistance on reforms 
resulted in important institutional steps forward, including the 
creation of an anti-corruption court in Ukraine and cleaning up the 
banking sector in Moldova. In Azerbaijan, I advocated vigorously for 
the release of human rights and democracy activists, and was gratified 
to see the release of high-profile activists Leyla and Arif Yunus and 
Khadija Ismailova during my tenure.As Deputy Chief of Mission in 
Georgia, I supported the first democratic transfer of power in that 
country's history with the change of power in 2012. With this peaceful 
transfer, Georgia was able to continue its contribution to the NATO 
mission in Afghanistan as well its support of European energy security 
with the Southern Gas Corridor. As the Chief of the Political and 
Economic Section, I supported the reforms of the Rose Revolution that 
turned around a nearly failed state. While there, I led our team to 
help Georgia combat trafficking-in-persons and attain ``Tier 1'' status 
on the annual Trafficking in Persons report for the first time. For our 
overall efforts to promote human rights, my ambassador nominated me and 
our human rights officer for the State Department's annual human rights 
award.


    Question. What issues are the most pressing challenges to democracy 
or democratic development in the Slovak Republic? Please be as specific 
as possible.

    Answer. The 2018 U.S. Country Report on Human Rights Practices in 
Slovakia highlighted several ongoing human rights issues of concern, 
including: corruption; violence or hate speech targeting lesbian, gay, 
bisexual, transgender, and intersex (LGBTI) persons; widespread 
discrimination against Roma; and security force violence against ethnic 
and racial minorities.


    Question. What steps will you take--if confirmed--to support 
democracy in the Slovak Republic? What do you hope to accomplish 
through these actions? What are the potential impediments to addressing 
the specific obstacles you have identified?

    Answer. If confirmed, I will work to strengthen democratic 
institutions and the rule of law in Slovakia, reinforcing that 
accountability and transparency are necessary to modern democracy and 
economic prosperity. I will also stress that corruption enables malign 
actors to undermine Slovakia's hard-fought independence.In my 
experience, three factors are needed to improve rule of law and fight 
corruption in this region: political will, strong institutions, and 
public accountability. The election in March of President-elect Zuzana 
Caputova, with her strong reputation as a fighter against corruption, 
suggests the Slovak people wish to see more progress in this area. 
Slovakia has an adequate legal structure, but democracies need an 
independent, impartial, and accountable judiciary whose first 
obligation is to uphold the law. If confirmed, I will use this 
opportunity to support an independent and accountable judiciary as well 
as other actions to strengthen Slovakia's democratic institutions.


    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. As an EU member and World Bank-designated ``high income 
country,'' Slovakia has ``graduated'' from U.S. development assistance. 
If confirmed, I will use the full range of public diplomacy and other 
resources at our disposal to support small-scale projects to promote 
democracy and good governance as well as to counter Russian 
disinformation.


    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
Slovak Republic?

    Answer. If confirmed, I will engage with civil society in Slovakia, 
including with human rights organizations. If confirmed, I will 
actively monitor the health of the civil society sector and will oppose 
any efforts to restrict NGOs or civil society through legal or 
regulatory measures.


    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I will meet with a broad array of 
democratically-oriented political opposition figures and parties and 
will advocate for their broad access to and inclusion in political 
processes. I will advocate for access and inclusivity for women, 
minorities, and youth within political parties.


    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Russia uses disinformation and other hybrid tactics in 
Slovakia to exploit historical and cultural ties. Russia also exploits 
broad displeasure with corruption and the rule of law within Slovakia 
to erode Slovak citizens' confidence in democratic institutions as well 
as the progress Slovakia has made as a member of the Transatlantic 
community. If confirmed, I will engage with civil society and 
government counterparts to counter disinformation and propaganda in 
Slovakia. I will also continue to make public messaging about the 
shared values, history, and experiences that unite the American and 
Slovak people a key Mission priority.


    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in the Slovak 
Republic, no matter their sexual orientation or gender identity? What 
challenges do the lesbian, gay, bisexual, transgender and queer (LGBTQ) 
people face in the Slovak Republic? What specifically will you commit 
to do to help LGBTQ people in the Slovak Republic?

    Answer. If confirmed, I will work to protect and defend human 
rights for all, including by broadening and deepening efforts to 
address the bias-motivated violence and discrimination LGBTI persons 
face in areas such as employment and occupation, housing, and access to 
government services. I will also continue our Embassy's long-standing 
public support for the human rights of LGBTI persons. The 2018 U.S. 
Country Report on Human Rights Practices in Slovakia noted a number of 
concerns, including anti-LGBTI violence, online harassment, and the 
forced or coerced sterilization of transgender persons in order to 
obtain legal gender recognition.


    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes. If confirmed, I will make sure all employees know 
their rights and responsibilities as set out by U.S. law and the 
Department's rules and regulations.


    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. I have never had a formal or informal complaint or 
allegation of sexual harassment, discrimination, or inappropriate 
conduct raised against me.


    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. Throughout my career, I have immediately addressed any 
issues with regard to sexual harassment, discrimination, or 
inappropriate conduct by anyone over whom I have had supervisory 
authority in accordance with the Department of State's policies and 
practices in dealing with such conduct.
    In cases of inappropriate conduct, I have followed the Department's 
established practices. With regard to discrimination, I am aware of an 
informal concern about conduct made against two employees at missions 
where I served as Deputy Chief of Mission (DCM). As DCM, I was made 
aware of concerns regarding any potential conduct that could be 
considered as a concern regarding an EEO protected category. I take any 
allegation seriously and follow established protocols on how such 
concerns should be addressed. In my role as DCM, I regularly 
communicated our Mission's commitment to proactively addressing any 
possible EEO concern and if confirmed, I am committed to continuing 
this practice.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Bridget A. Brink by Senator Benjamin L. Cardin


    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. As Deputy Assistant Secretary of State, I worked across 
Eastern Europe and the Caucasus in support of democracy and human 
rights in Ukraine, Moldova, Belarus, Georgia, Azerbaijan, and Armenia. 
I led anti-corruption efforts in Ukraine and Moldova. In both 
countries, our support for conditioning IMF assistance on reforms 
resulted in important institutional steps forward, including the 
creation of an anti-corruption court in Ukraine and cleaning up the 
banking sector in Moldova. In Azerbaijan, I advocated vigorously for 
the release of human rights and democracy activists, and was gratified 
to see the release of high-profile activists Leyla and Arif Yunus and 
Khadija Ismailova during my tenure.As Deputy Chief of Mission in 
Georgia, I supported the first democratic transfer of power in that 
country's history with the change of power in 2012. With this peaceful 
transfer, Georgia was able to continue its contribution to the NATO 
mission in Afghanistan as well its support of European energy security 
with the Southern Gas Corridor. As the Chief of the Political and 
Economic Section, I supported the reforms of the Rose Revolution that 
turned around a nearly failed state. While there, I led our team to 
help Georgia combat trafficking-in-persons and attain ``Tier 1'' status 
on the annual Trafficking in Persons report for the first time. For our 
overall efforts to promote human rights, my ambassador nominated me and 
our human rights officer for the State Department's annual human rights 
award.


    Question. What are the most pressing human rights issues in 
Slovakia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Slovakia? What do 
you hope to accomplish through these actions?

    Answer. The 2018 U.S. Country Report on Human Rights Practices in 
Slovakia highlighted several ongoing human rights issues of concern, 
including: corruption; violence or hate speech targeting lesbian, gay, 
bisexual, transgender, and intersex (LGBTI) persons; widespread 
discrimination against Roma; and security force violence against ethnic 
and racial minorities. If confirmed, I will engage with Slovak 
authorities and civil society and encourage cooperation to promote 
tolerance and nondiscrimination and to address ongoing corruption 
concerns.


    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Slovakia in 
advancing human rights, civil society and democracy in general?

    Answer. Strengthening the rule of law and addressing corruption are 
long-term, ongoing, and complex challenges. While Slovakia has come a 
long way since independence, more remains to be done. If confirmed, I 
will work to strengthen democratic institutions and the rule of law in 
Slovakia, reinforcing that accountability and transparency are 
necessary to modern democracy and Slovakia's continued economic 
success. This effort will need to involve engagement with both the 
Slovak government as well as members of civil society.


    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Slovakia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes. If confirmed, I will engage with civil society and 
non-governmental organizations both in the United States and in 
Slovakia on a range of human rights and other issues of mutual 
interest. With my experience in the Balkans, I appreciate the 
importance of the Leahy Law and will ensure all the required vetting is 
carried out for any security assistance and security cooperation 
activities.


    Question. Will you and your embassy team actively engage with 
Slovakia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Slovakia?

    Answer. According to the 2018 Country Report on Human Rights 
Practices, there were no reports of political prisoners or detainees in 
Slovakia. However, I have always prioritized such cases in the past, 
and, if confirmed, I pledge to actively engage with Slovakia to address 
any such cases should they arise.


    Question. Will you engage with Slovakia on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes.


    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.


    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.


    Question. Do you or do any members of your immediate family have 
any financial interests in Slovakia?

    Answer. No.


    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I have actively promoted diversity as a principle of 
leadership and driver of productivity in every managerial position I 
have held in the Department of State. I believe that leaders need to 
lead by example. If confirmed, I will actively seek diversity in 
recruitment, continue to mentor more junior staff and encourage those I 
supervise to do the same, and work to ensure that leadership positions 
in the mission reflect the diversity of our institution.


    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. As I have in previous leadership positions, I will 
underscore my expectation of a commitment to diversity and inclusion as 
a key aspect of achieving our foreign policy goals. If confirmed, I 
will relay my own ``zero tolerance'' for violations of Equal Employment 
Opportunity laws and State Department rules and regulations on 
harassment. I will also encourage supervisors to foster an environment 
that is diverse and inclusive by focusing on recruitment, mentoring 
more junior officers, and creating a working environment that is based 
on respect.


    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Slovakia 
specifically?

    Answer. Corruption erodes citizens' confidence in democratic 
institutions, enables malign actors, increases their influence, and 
weakens economic growth. The February 2018 murder of investigative 
journalist Jan Kuciak brought the issue of corruption to the center of 
Slovakia's political debate and resulted in the collapse of the 
government and the election in March 2019 of President-elect Zuzana 
Caputova. Although Slovakia enacted a number of new measures to fight 
corruption in the last year, including a whistleblower protection law 
and risk assessments of corruption vulnerabilities in government 
offices, implementation remains key.


    Question. What is your assessment of corruption trends in Slovakia 
and efforts to address and reduce it by that government?

    Answer. The 2018 U.S. Country Report on Human Rights Practices in 
Slovakia noted corruption remained a concern. According to the report, 
the Slovak government did not always implement its anti-corruption laws 
effectively, and high-level officials were rarely prosecuted for 
corruption. While the recent enactment of a whistleblower protection 
law is a step in the right direction, its effectiveness will depend on 
successful implementation. The election in March of President-elect 
Zuzana Caputova, with her strong reputation as a fighter against 
corruption, suggests the Slovak people wish to see more progress in 
this area. If confirmed, I will seek to continue our work in support of 
anti-corruption efforts as an important aspect of Slovakia's political 
stability and economic prosperity.


    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Slovakia?

    Answer. If confirmed, I will work with my team at the Embassy in 
Bratislava to engage Slovak officials at all levels of government to 
support good governance and anti-corruption programming. The Embassy 
promotes awareness of the importance of the rule of law to building a 
strong country and a strong economy and supports efforts by Slovak 
officials and non-governmental organizations to promote transparency, 
combat fraud, and encourage accountability. This support comes through 
grants and awards to NGOs and individuals working in the field. The 
Embassy also brings in substantive experts to offer training to Slovak 
judges, police, and prosecutors. If confirmed, I will continue to build 
on these efforts.



                               __________


      Responses to Additional Questions for the Record Submitted 
            to Kenneth A. Howery by Senator Robert Menendez


    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have been a long-time advisor to Kiva, a non-profit with 
the goal to ``expand financial access to help underserved communities 
thrive.'' They achieve this by allowing individuals to fight poverty by 
making micro-loans to people around the world. Kiva has raised more 
than $1.3 billion in loans to help more than 3 million people in over 
80 countries, 81 percent of whom are women.
    Kiva has also funded loans to thousands of refugees and internally 
displaced people (IDPs) around the globe. Kiva's goal is to address 
refugees' needs by offering access to loans that allow them to pay for 
critical medical needs, continue their education, or start a business 
in an effort to rebuild their lives.


    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Sweden has a strong record on human rights issues. If 
confirmed, I will utilize all U.S. government resources at my disposal 
to continue supporting democracy and good governance in Sweden. As much 
of our cooperation on human rights issues with Sweden occurs in other 
countries (e.g., emerging democracies and developing countries), I will 
prioritize ensuring that our human rights and assistance agendas are 
coordinated and do not duplicate resources or lines of effort.


    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in 
Sweden?

    Answer. Yes.


    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes. If confirmed, I will stress the importance of having 
genuine political competition during my meetings with government and 
civil society leaders. I will also advocate for access and inclusivity 
for women, minorities and youth within political parties.


    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes.


    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Sweden, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Sweden? What specifically will you commit to do to help LGBTQ people in 
Sweden?

    Answer. Sweden has strong antidiscrimination laws in place that 
protect the rights of lesbian, gay, bisexual, transgender, and intersex 
(LGBTI) individuals. As a result, they do not face the same challenges 
found in less democratic countries. If confirmed, I commit to using my 
position to defend the human rights and dignity of all people in Sweden 
and continue Embassy Stockholm's engagement with members of the LGBTI 
community in Sweden.


    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes. If confirmed, I will do everything possible to ensure 
that all employees understand that any retaliation, blacklisting, or 
other prohibited practices will not be tolerated. I will do this by 
ensuring that existing federal and Department rules and regulation are 
clearly understood and enforced.


    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No.


    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. No.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Kenneth A. Howery by Senator Benjamin L. Cardin


    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. I have been a long-time advisor to Kiva, a non-profit with 
the goal to ``expand financial access to help underserved communities 
thrive.'' They achieve this by allowing individuals to fight poverty by 
making micro-loans to people around the world. Kiva has raised more 
than $1.3 billion in loans to help more than 3 million people in over 
80 countries, 81 percent of whom are women.
    Kiva has also funded loans to thousands of refugees and internally 
displaced people (IDPs) around the globe. Kiva's goal is to address 
refugees' needs by offering access to loans that allow them to pay for 
critical medical needs, continue their education, or start a business 
in an effort to rebuild their lives.


    Question. What are the most pressing human rights issues in Sweden? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Sweden? What do you hope to 
accomplish through these actions?

    Answer. Sweden has a strong human rights record. However, one 
challenge facing Swedish society is anti-Semitism. According to the 
U.S. Department of State's 2017 International Religious Freedom Report 
(the latest available), Jews in Sweden are the most frequently targeted 
group relative to the size of its community of religiously motivated 
hate crimes. If confirmed, I will engage with Swedish authorities and 
civil society and encourage cooperation to promote religious tolerance 
and nondiscrimination.


    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Sweden in advancing 
human rights, civil society and democracy in general?

    Answer. If confirmed, I will continue Mission Sweden's engagement 
with Swedish officials at all levels of government, as well as civil 
society to promote religious tolerance and nondiscrimination. One 
potential obstacle is the difficulty of maintaining good communication 
between our Embassy in Stockholm and Jewish groups outside of 
Stockholm. If confirmed, I will deepen the Embassy's outreach to Jewish 
groups across Sweden, including those outside of Stockholm, to support 
their efforts to maintain community security and combat anti-Semitism 
and use my position as the U.S. Ambassador to continue to call 
attention to this important issue.


    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Sweden? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes. If confirmed, I will engage with civil society and 
non-governmental organizations both in the United States and in Sweden 
on a range of human rights and other issues of mutual interest. I will 
also ensure all the required vetting is carried out for any security 
assistance and security cooperation activities.


    Question. Will you and your embassy team actively engage with 
Sweden to address cases of key political prisoners or persons otherwise 
unjustly targeted by Sweden?

    Answer. Yes.


    Question. Will you engage with Sweden on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes.


    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.


    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.


    Question. Do you or do any members of your immediate family have 
any financial interests in Sweden?

    Answer. My investment portfolio includes interests in entities that 
have a presence in Sweden. This includes stock holdings, mutual funds 
or exchange traded funds, and private investment funds that hold 
interests in companies with a presence in Sweden. I am committed to 
ensuring that my official actions will not give rise to a conflict of 
interest. If confirmed, I will divest all investments the State 
Department Ethics Office deems necessary and recuse myself from matters 
when required to avoid a conflict of interest, and I will remain 
vigilant with regard to my ethics obligations.


    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Supporting diversity in the workplace is not only a good 
practice in advancing American values, it is also a boon to 
productivity, as diverse perspectives often reveal unexpected 
opportunities. I support diversity and advocate for people with 
different experiences and backgrounds. If confirmed, I will take steps 
to create a culture based on respect, teamwork, and inclusivity to 
ensure people of different ages, races, genders, and sexual 
orientations feel supported.


    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. People take cues from the leader of their organization, and 
I understand the importance of my actions and words. If confirmed, I 
will work to create a positive work environment first by modeling 
respect for diversity and inclusion in my own work, but also by 
engaging directly with the supervisors and employees at the Embassy to 
convey the importance of these values. I will also ensure they are 
promoting and supporting team members from diverse backgrounds and 
underrepresented groups.


    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Sweden 
specifically?

    Answer. Corruption erodes public trust and institutions. Sweden has 
strong democratic institutions, established rule of law, and a free 
press. The law provides criminal penalties for corruption, and the 
government generally implements the laws effectively.


    Question. What is your assessment of corruption trends in Sweden 
and efforts to address and reduce it by that government?

    Answer. Sweden has a strong record of combating corruption. 
According to Transparency International's 2018 Corruption Perceptions 
Index, Sweden was ranked as the third least corrupt country in the 
world out of 180 countries. If confirmed, I will continue to engage 
Swedish officials on this important issue to ensure the country remains 
free from corruption.


    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Sweden?

    Answer. If confirmed, I will continue Embassy Stockholm's 
engagement with officials at all levels of the Swedish government in 
support of good governance and anticorruption. Through the 
International Visitor Leadership Program and other public diplomacy 
programs, I will deepen and expand our engagement with Sweden on ways 
to promote transparency and the rule of law, which are core elements of 
both our societies.



                               __________


            Responses to Additional Questions for the Record
         Submitted to Matthew Klimow by Senator Robert Menendez


    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. From 1995-2000, I was member of a team of United States 
diplomats and senior military leaders that traveled throughout the 
conflict region in the Balkans, to include Kosovo and Bosnia-
Herzegovina, pursuing peace and justice in that war-torn region. In 
Srebrenica, site of genocidal mass murder of Bosniaks, I met with 
families of the survivors. In Brcko, I witnessed the wanton destruction 
of homes that had occurred based on ethnic and religious hatred. I 
heard the testimonials of women who were subject to brutal mass rape 
used as a weapon of war. Our work in the region brought stability and 
safety for a populace that experienced some of the worst human rights 
violations in the last decade of the 20th century. Those events and my 
work in the Balkan region strengthen my commitment to support democracy 
and human rights.


    Question. Do you commit to engaging the government on the release 
of political prisoners and prisoners of conscience in Turkmenistan? In 
particular, do you commit to raise the case of long-held political 
prisoner Gulgeldy Annaniyazov?

    Answer. If confirmed, I commit to maintaining an open and frank 
dialogue with the government of Turkmenistan on our values and concerns 
about human rights and fundamental freedoms, and this includes raising 
the cases of Gulgeldy Annaniyazov and other individual political 
prisoners. Working with my Embassy staff, if confirmed, I would 
continue to urge Turkmenistan to uphold its obligations and commitments 
on human rights, fundamental freedoms, and adherence to the rule of 
law, including its obligations with respect to substantive and 
procedural trial safeguards under the International Covenant on Civil 
and Political Rights (ICCPR).


    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, under my leadership the Embassy will continue 
to use the full range of available resources to support democracy and 
governance with our partners in Turkmenistan. This includes utilization 
of the Democracy Commission Small Grants program, USAID's civil society 
and governance strengthening programming funding, and other State 
Department funding sources in accordance with relevant U.S. laws and 
regulations to support more accountable and inclusive democratic 
institutions that can deliver tangible benefits to all citizens. 
Central to these efforts will be support to civil society along with 
programs to eliminate trafficking in persons.


    Question. If confirmed, do you commit to meet with civil society 
and non-governmental organizations doing work in/on Turkmenistan?

    Answer. Yes. If confirmed, I commit to developing and maintaining 
regular contact with human rights activists, civil society leaders, and 
other representatives of domestic and international non-governmental 
organizations in Turkmenistan, as is appropriate and safe for those 
involved, with the goal to strengthen Turkmenistan's democratic 
development, stability, and prosperity.


    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I will actively engage with civil society and 
my government counterparts to counter disinformation and propaganda 
disseminated by foreign states or non-state actors in Turkmenistan. 
This will include supporting accreditation for trained independent 
journalists. I further commit to coordinating public diplomacy 
programming in Turkmenistan to promote people-to-people exchanges and 
increase access to accurate information about the United States, 
countering the impact of foreign state-sponsored disinformation.


    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Turkmenistan, no 
matter their sexual orientation or gender identity?

    Answer. I pledge to uphold our values and defend human rights and 
dignity, regardless of sexual orientation or gender identity. If 
confirmed, I commit to working with civil society and NGOs that address 
LGBTI issues and to have a frank dialogue with the government of 
Turkmenistan on the obligation of governments to respect the human 
rights of everyone in their countries.


    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes. I agree that targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, has no place 
in the federal government. I commit to comply with all relevant federal 
ethics laws, regulations, and rules. If confirmed, I will communicate 
these expectations and values to all Embassy staff.


    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. In 2011, an employee filed a complaint with the U.S. 
Department of State Office of Civil Rights (S/OCR). I was the 
employee's second-line supervisor. The S/OCR investigation did not find 
any evidence of discrimination, harassment, or misconduct, and the case 
was closed without further action. I take any allegation seriously and 
follow established protocols on how such concerns should be addressed 
and if confirmed, I am committed to continuing this practice.


    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. I take the issues of sexual harassment, discrimination 
(e.g., racial, ethnic, religious, etc.), and inappropriate conduct with 
the utmost seriousness and do not tolerate any types of behavior that 
could be considered discriminatory. As a battalion commander in the 
U.S. Army from 1992-1994, I administered non-judicial punishment under 
Article 15 of the Uniform Code of Military Justice and, in one 
instance, referred a soldier for court martial for inappropriate 
relations with a subordinate.



                               __________


     Responses to Additional Questions for the Record Submitted to
              Matthew Klimow by Senator Benjamin L. Cardin


    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. From 1995-2000, I was a member of a team of United States 
diplomats and senior military leaders that traveled throughout the 
conflict region in the Balkans, to include Kosovo and Bosnia-
Herzegovina, pursuing peace and justice in that war-torn region. In 
Srebrenica, site of genocidal mass murder of Bosniaks, I met with 
families of the survivors. In Brcko, I witnessed the wanton destruction 
of homes that had occurred based on ethnic and religious hatred. I 
heard the testimonials of women who were subject to brutal mass rape 
used as a weapon of war. Our work in the region brought stability and 
safety for a populace that experienced some of the worst human rights 
violations in the last decade of the 20th century. Those events and my 
work in the Balkan region strengthen my commitment to support democracy 
and human rights.


    Question. What are the most pressing human rights issues in 
Turkmenistan? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Turkmenistan? What 
do you hope to accomplish through these actions?

    Answer. I am particularly concerned about restrictions on religious 
freedom, freedom of expression by the media and civil society, freedom 
of assembly, and freedom of movement as well as prison conditions and 
the use of forced labor in Turkmenistan's cotton harvest. If confirmed, 
I pledge to engage in an open, pragmatic and consistent dialogue with 
the government of Turkmenistan on our values and concerns about human 
rights and fundamental freedoms, including freedom of religion or 
belief, and the rule of law.


    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Turkmenistan in 
advancing human rights, civil society and democracy in general?

    Answer. Sharing long borders with Iran and Afghanistan, 
Turkmenistan is in a challenging neighborhood. Its government does not 
acknowledge that it is repressing human rights and fundamental 
freedoms, including the freedoms of association, expression, religion 
and assembly. It also has a tradition dating back to Soviet times of 
utilizing forced labor in the cotton harvest. If confirmed, I will 
continue to engage the government of Turkmenistan on new or current 
laws that restrict human rights and fundamental freedoms in the 
country. I will seek out every opportunity, using the programs and 
mechanisms available to me, to urge the government to protect these 
rights and freedoms, strengthen the rule of law and civil society, and 
increase respect for rights.


    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Turkmenistan? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I commit to developing and maintaining 
regular contact with human rights activists, civil society leaders, and 
other representatives of domestic and international non-governmental 
organizations in Turkmenistan, as is appropriate and safe for those 
involved. If confirmed, I will support the Embassy's Leahy program for 
vetting security force units and individual recipients of U.S. foreign 
assistance. I will further ensure that all U.S. security and law 
enforcement assistance activities will continue to reinforce the 
importance of human rights.


    Question. Will you and your embassy team actively engage with 
Turkmenistan to address cases of key political prisoners or persons 
otherwise unjustly targeted by Turkmenistan?

    Answer. If confirmed, I pledge to continue to raise key individual 
cases with the government of Turkmenistan and urge the protection of 
human rights and fundamental freedoms, including its obligations with 
respect to substantive and procedural trial safeguards and the rule of 
law.


    Question. Will you engage with Turkmenistan on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes. The United States has full and robust dialogue with 
Turkmenistan on the range of bilateral issues, including human rights 
and good governance. The Department consistently raises specific human 
rights concerns with the government of Turkmenistan, and underscores 
those concerns through official statements at the U.N. the OSCE, and 
other bodies, as well as in our annual reports on Human Rights, 
International Religious Freedom, and Trafficking in Persons. If 
confirmed, I will continue to use these reports and other tools to 
document human rights problems and encourage Turkmenistan to make 
progress in areas of concern.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.


    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.


    Question. Do you or do any members of your immediate family have 
any financial interests in Turkmenistan?

    Answer. Neither I nor any members of my family have any financial 
interests in Turkmenistan.

Diversity
    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I will make a priority of encouraging the 
recruitment and professional development of a diverse staff that 
represents the United States. Working with my staff, I will encourage 
the recruitment of a diverse, qualified group of applicants for each 
job opening, and I will continue the mentoring program for entry-level 
officers to include specialists and eligible family member employees.


    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will communicate to Embassy senior staff 
that I will have zero tolerance for discrimination and sexual 
harassment. In addition, ahead of our annual personnel selection 
season, I will communicate my expectation that we invite applications 
from the broadest possible slate of qualified candidates to ensure that 
we foster a diverse and inclusive community. I will ask our supervisors 
to reinforce these principles with their American and Turkmen staff to 
ensure we set appropriate expectations.

Corruption
    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in 
Turkmenistan specifically?

    Answer. Corruption and the arbitrary application of law are 
problems in Turkmenistan and hindrances to good governance and economic 
growth. The Department of State's Investment Climate Statement clearly 
outlines these obstacles. If confirmed, this is an area where I will 
continue to push the government of Turkmenistan to pursue needed 
reforms and build respect for the rule of law.


    Question. What is your assessment of corruption trends in 
Turkmenistan and efforts to address and reduce it by that government?

    Answer. As outlined in the Department of State's Investment Climate 
Statement, a lack of established rule of law, an opaque regulatory 
framework, and rampant corruption are serious problems in Turkmenistan. 
The report also notes that rules and procedures lack transparency and 
although Turkmenistan has legislation to combat corruption, these laws 
are not generally enforced. Monitoring or investigating corruption is 
difficult in Turkmenistan. If confirmed, this is an area where I will 
continue to push the government of Turkmenistan to pursue needed 
reforms and build respect for the rule of law.


    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Turkmenistan?

    Answer. Turkmenistan has much to gain by removing the barriers to a 
truly democratic process presented by endemic corruption. Corruption is 
a serious impediment to development. If confirmed, I would continue 
programming and high-level engagement efforts to improve rule of law in 
the interests of establishing and maintaining a fair playing field for 
all actors, as well as to urge the government to move forward with the 
democratic reforms necessary to support political pluralism, a vibrant 
civil society, and an improved investment climate.



                               __________


            Responses to Additional Questions for the Record
     Submitted to John Jefferson Daigle by Senator Robert Menendez

    Question. Cape Verde was upgraded to Tier 2 in the 2018 Trafficking 
in Persons (TIP) Report. Cabo Verde does not meet the minimum standards 
in part because it ``did not train law enforcement or judiciary 
officials on trafficking investigations and prosecutions; officials 
remained without formal procedures to identify trafficking victims and 
refer them to care; and the Ministry of Justice and Labor (MJT) did not 
receive any funding specifically for anti-trafficking efforts.''

   Does the United States support any activities focused on training 
        for judges or law enforcement on trafficking investigation and 
        prosecutions?

    Answer. The United States has provided funding to the United 
Nations Office of Drugs and Crime (UNODC) in 2018 and now we are 
processing a second grant to the International Organization for 
Migration (IOM) to combat TIP in Cabo Verde. Both grants were provided 
to the United Nations but in close coordination with the Ministry of 
Justice and Labor (MJT).
    The United States has funded TIP and other related human rights 
training for Cabo Verde's police investigators, prosecutors, and judges 
to TIP and other related human rights trainings in Ghana, the U.S., and 
elsewhere. The United States sent eight Cabo Verdean professionals to 
an International Visitor Leadership Program on demand to learn about 
how the United States responds to incidents involving victims of 
violent crime. The United States also funded an IVLP on sexual violence 
response for two other professionals.


    Question. Has the United States provided funding to the Ministry of 
Justice for anti-trafficking efforts?

    Answer. Yes, indirectly through grants for UNODC and IOM.


    Question. What organizations on the ground provide care for 
trafficking victims and how are they funded?

    Answer. government-funded agencies provide emergency services, 
temporary shelter, and psycho-social care to female and child 
trafficking victims, as well as other at-risk populations, in 
partnership with the IOM and several strong local nongovernmental 
organizations. In general the Cabo Verdean Institute for Children and 
Adolescents assists child victims, the Cabo Verdean Institute for 
Gender Equality assists women victims, the Public Ministry assists 
victims requiring long-term care, and the IOM provides services to 
foreign nationals who are victims of trafficking in Cabo Verde.


    Question. What further steps could the government of Cabo Verde 
take to improve its TIP ranking next year?

    Answer. The United States recommends that the Cabo Verdean 
government take the following steps to improve its TIP ranking next 
year:

   Vigorously investigate and prosecute trafficking offenses and 
        convict and punish traffickers-including Cabo Verdean-American 
        sex traffickers and sex tourists.
   Develop and train officials on standardized procedures to identify 
        trafficking victims-including adults and victims among 
        vulnerable populations-and to refer victims to services.
   Train law enforcement and judiciary officials on the 2015 anti-
        trafficking amendment, article 271-A.
   Consistently refer potential trafficking victims to the appropriate 
        shelters to ensure all identified trafficking victims receive 
        care and collect data on such efforts.
   Increase efforts to raise public awareness of human trafficking, 
        including child sex trafficking and domestic servitude.
   Develop a system to compile and share comprehensive anti-
        trafficking law enforcement and victim identification data 
        among agencies.
   Increase collaboration with foreign governments on cases of 
        transnational trafficking and child sex tourism involving 
        foreign nationals.


    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Over my 20-year career as a Public Diplomacy officer, I 
have worked closely with government and civil society organizations in 
a number of countries--including Nigeria, Iraq, and Cambodia--to 
implement programs that promoted human rights and democracy, including 
through press conferences, media professionalization and literacy 
training, and capacity building. As the Charge d'Affaires, a.i., and 
Deputy Chief of Mission in Cambodia, I was also able to directly engage 
government leaders regarding human rights concerns, which opened up 
space for civil society action and freedom for public expression in the 
lead-up to contentious national elections.


    Question. What issues are the most pressing challenges to democracy 
or democratic development in Cabo Verde? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. The United States views Cabo Verde as one of the 
Continent's strongest multi-party democracies; however, improvement is 
always possible. We would like to do more to help Cabo Verde to take a 
more active role in encouraging democracy in West Africa and among 
Portuguese-speaking African countries. Cabo Verde will continue to be 
one of Africa's best political and economic success stories. It has one 
of the highest literacy rates, a vibrant two-party political system, 
and a low level of corruption (as noted by Transparency International). 
Challenges to Cabo Verde's democracy include its small market, which 
limits the number of private-sector employment opportunities, which 
leads journalists and others to self-censor to avoid problems with 
future employability, and complicates decentralization models in this 
resource-poor economy with significant variations among the islands.


    Question. What steps will you take--if confirmed--to support 
democracy in Cabo Verde? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Cabo Verde serves as a regional example of democracy and 
good governance. If confirmed I will encourage Cabo Verde to continue 
this trend. If confirmed, I will continue to support Cabo Verde's 
efforts to distribute wealth and prosperity, and I will prioritize 
voices from outside the capital in reporting and in program 
participation.


    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. We can use ESF, Public Diplomacy, Self-Help, and other 
funds to support democracy and governance. We will seek to apply these 
resources to people and projects throughout the archipelago, drawing 
voices from all the islands to form our opinions and shape our 
policies.
    Cabo Verde will hold legislative, municipal, and presidential 
elections in 2021 and one of my priorities, if confirmed, will be to 
encourage free, fair, and credible elections.


    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Cabo Verde? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes, if confirmed, I commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Cabo Verde. Embassy Praia currently has a robust and growing 
relationship with civil society in Cabo Verde. As appropriate I will 
meet with local contacts in the capital, around the archipelago, and 
the government to address efforts to restrict NGOS and civil society. I 
will encourage Cabo Verde to serve as a leader in democracy, good 
governance, and human rights.


    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes, if confirmed, I commit to meet with democratically 
oriented political opposition figures and parties. Cabo Verde enjoys a 
vibrant, multi-party democracy and has had an unbroken history of 
civilian rule since its independence in 1975, and if confirmed I would 
encourage Cabo Verde to continue serving as an example of democracy, 
good governance, and human rights.
    If confirmed, I would also advocate for access and inclusion for 
women, minorities, and youth within political parties. Embassy Praia 
continually seeks to promote opportunities for women and youth, and 
under my leadership I would continue this trend.


    Question. Will you and your embassy team actively engage with Cabo 
Verde on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Cabo Verde?

    Answer. Yes. Embassy Praia has a strong relationship with the Cabo 
Verdean press and the United States has funded training for journalists 
on investigative journalism and elections. If confirmed I will continue 
to encourage freedom of the press and meet with them regularly.


    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes. Embassy Praia has worked directly with the government 
and the local media to counter disinformation. If confirmed, I would 
continue to ensure training on accurate reporting is provided for the 
press and government officials, particularly spokespersons.


    Question. Will you and your embassy teams actively engage with Cabo 
Verde on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes. If confirmed, I will continue to ensure my country 
team remains actively engaged on the right of labor groups to organize 
and that they increase their knowledge on the labor conditions in Cabo 
Verde. Currently, the embassy engages with government and civil society 
actors on questions of child labor, forced labor, and labor in the 
informal sector. Cabo Verde's labor unions are strong and established. 
They face few institutionalized obstacles to operation. Unions tend to 
represent their members' interests reasonably well.


    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Cabo Verde, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Cabo Verde? What specifically will you commit to do to help LGBTQ 
people in Cabo Verde?

    Answer. Yes. If confirmed, I would work with existing civil society 
and governmental organizations to promote the basic humanity of all 
citizens and residents of Cabo Verde.
    The LGBTQ community enjoys a relatively good status in Cabo Verde 
but faces discrimination in obtaining work and housing. There is 
significant, culturally accepted dark humor about the LGBTQ community 
that will be difficult to change in the short term. In recent years, 
there have been no known acts of violence perpetrated against members 
of the LGBTQ community. Cabo Verde adhered to the Equal Rights Campaign 
in 2018, and the embassy facilitated a trip by the president of the 
Institute on Equity and Equality of Gender to Vancouver, where she met 
with State Department officials. The embassy routinely seeks 
opportunities to support LGBTQ civil society organizations with 
training and funding opportunities. If confirmed, I would encourage 
Cabo Verde to continue its positive trend serving as a regional leader 
on this issue and to continue setting the example on human rights.


    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes, I agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government. If confirmed, 
I would clearly state at my very first Country Team meeting with 
section heads and my first Town Hall with all Mission staff that any 
retaliation, blacklisting, or other prohibited personnel practices will 
not be tolerated, and I would continue to reinforce this message 
through word and deed throughout my tenure as Chief of Mission.


    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. I take the issues of sexual harassment, discrimination 
(e.g., racial, ethnic, religious, etc.), and inappropriate conduct with 
the utmost seriousness and throughout my career, I have immediately 
addressed any issues raised to me in accordance with the Department of 
State's policies and practices in dealing with such conduct.
    With regard to discrimination, I am aware of two instances when EEO 
complaints were filed regarding one of my direct reports and my 
involvement in the cases. In both of these instances, I followed 
Department protocols fully and cooperated with the Department's Office 
of Civil Rights. At the conclusion of both investigations, OCR 
determined that there was no evidence of discrimination or harassment 
and closed the cases.


    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. I take the issues of sexual harassment, discrimination 
(e.g., racial, ethnic, religious, etc.), and inappropriate conduct with 
the utmost seriousness and throughout my career, I have immediately 
addressed any issues raised to me in accordance with the Department of 
State's policies and practices in dealing with such conduct.
    With regard to discrimination, I am aware of two instances where 
EEO complaints were filed involving one of my direct reports. In both 
of these instances, I followed Department protocols fully and 
cooperated with the Department's Office of Civil Rights. At the 
conclusion of both investigations, OCR determined that there was no 
evidence of discrimination or harassment and closed the cases.



                               __________


      Responses to Additional Questions for the Record Submitted 
         to John Jefferson Daigle by Senator Benjamin L. Cardin


    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. Over my 20-year career as a Public Diplomacy officer, I 
have worked closely with government and civil society organizations in 
a number of countries--including Nigeria, Iraq, and Cambodia--to 
implement programs that promoted human rights and democracy, including 
through press conferences, media professionalization and literacy 
training, and capacity building. As the Charge d'Affaires, a.i., and 
Deputy Chief of Mission in Cambodia, I was also able to directly engage 
government leaders regarding human rights concerns, which opened up 
space for civil society action and freedom for public expression in the 
lead-up to contentious national elections.


    Question. What are the most pressing human rights issues in Cabo 
Verde? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Cabo Verde? What do 
you hope to accomplish through these actions?

    Answer. Cabo Verde has made excellent advances in recent years in 
combating sexual and gender-based violence and violence against 
children, as well as improving prison conditions. If confirmed, I 
pledge to sustain U.S. support and encouragement for Cabo Verde's 
admirable efforts to continue making progress on these and other civil 
and human rights issues. I hope to engage resources to improve media 
freedoms--including training for journalists on mis- and 
disinformation--and to highlight the role of citizens in a robust 
democracy. I would encourage the government to prioritize equitable 
growth and distribution of its economic gains.


    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Cabo Verde in 
advancing human rights, civil society and democracy in general?

    Answer. Cabo Verde struggles with a perennial lack of resources, 
and vulnerable elements of society tend to suffer the most from neglect 
and invisibility. Its small market and a legacy of government 
involvement in all sectors results in a tendency toward self-
censorship: few Cabo Verdeans are eager to speak publicly and frankly 
about issues for fear of alienating a potential future employer. 
Finally, although conditions in Cabo Verde are improving slowly, 
complacency about some of the issues hinders more rapid progress in 
addressing them.


    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Cabo Verde? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, if confirmed, I commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
United States and with local human rights NGOs and other members of 
civil society in Cabo Verde. Embassy Praia currently has a robust and 
growing relationship with civil society in Cabo Verde. As appropriate, 
I would meet with local contacts in the capital, around the 
archipelago, and with the government to address challenges faced by 
NGOs and civil society. I would encourage Cabo Verde to continue 
serving as a leader in democracy, good governance, and human rights.


    Question. Will you and your embassy team actively engage with Cabo 
Verde to address cases of key political prisoners or persons otherwise 
unjustly targeted by Cabo Verde?

    Answer. Cabo Verde has no tradition of political prisoners or 
political targeting. There has never been a violent conflict on Cabo 
Verdean soil, and political transitions have all been peaceful and 
transparent. If confirmed, I would build on the solid foundation 
Embassy Praia has developed with security services, correctional 
personnel, and political actors to advance and advocate for the best 
human rights environment possible.


    Question. Will you engage with Cabo Verde on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes


    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.


    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.


    Question. Do you or do any members of your immediate family have 
any financial interests in Cabo Verde?

    Answer. No.


    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As a member of a minority group myself, I deeply appreciate 
how critically important it is for leaders to promote, mentor, and 
support all staff members, irrespective of their gender, ethnic 
background, sexual orientation, or religious beliefs. If confirmed, I 
would work with the Mission's Deputy Chief of Mission to ensure post 
has a robust mentoring program in place for all entry level officers, 
and I would regularly discuss mentoring with the Mission's supervisory 
team. To promote an environment of transparency and equality, I would 
also institute an open-door policy and encourage all Mission staff to 
come directly to me for guidance and support as desired and to make me 
aware of any issues as needed.


    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, during my very first Country Team meeting, I 
would stress the importance that I place on fostering an inclusive and 
diverse environment and that this would be an important criteria upon 
which I will evaluate supervisors as part of the annual employee review 
process. I would also stress these values in my introductory Town Hall 
meeting with all Mission staff and continue to do so throughout my 
tenure at Embassy Praia.


    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Cabo Verde 
specifically?

    Answer. Cabo Verde regularly ranks in the top five African 
countries in Transparency International's index. In 2018 it was #3 
(behind Seychelles and Botswana) and #45 globally. The opposition 
parties regularly claim that the government is corrupt, but to date we 
haven't seen actionable evidence of the sort. The current government is 
often accused of non-transparency, and it sometimes fails to 
communicate legitimate business clearly and in a timely manner.


    Question. What is your assessment of corruption trends in Cabo 
Verde and efforts to address and reduce it by that government?

    Answer. Corruption by the government is not a big issue in Cabo 
Verde, although the current government fails sometimes to communicate 
its plans and methods clearly. Prime Minister Ulisses Correia e Silva 
requested and received support from the National Democratic Institute 
for creating a more robust and investigative press corps during his 
tenure as Mayor of Praia; that program continues today. As Cabo Verde's 
2020 and 2021 electoral cycles approach, political actors will likely 
talk more about transparency and corruption, but much of it will be 
grandstanding.


    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Cabo Verde?

    Answer. Cabo Verde needs resources to address the small indicators 
of corruption that remain, and it needs a broader and less government-
dependent market. If confirmed, I would continue to push for support to 
fight mis- and disinformation campaigns; encourage participation in 
local, regional, and international events for civil society actors; and 
pursue professional development opportunities and training for Cabo 
Verde's security and judicial sectors.

                              __________



                              NOMINATIONS

                              ----------                              


                         TUESDAY, MAY 21, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:04 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
presiding.
    Present: Senators Rubio [presiding], Gardner, Young, 
Menendez, Cardin, Udall, Murphy, and Kaine.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. This is the Senate Foreign Relations 
Committee hearing on the nominations of Ms. Pamela Bates of 
Virginia to be the U.S. Representative to the Organization for 
Economic Cooperation and Development, with the rank of 
Ambassador; Christopher Landau of Maryland, to be the U.S. 
Ambassador to Mexico; Ms. Jennifer Nordquist of Virginia, to be 
the U.S. Executive Director for the International Bank for 
Reconstruction and Development; and Mr. Eliot Pedrosa of 
Florida, to be U.S. Executive Director of the Inter-American 
Development Bank.
    I would also add that Mr. Pedrosa, who is a Florida native, 
is currently serving as the alternate Inter-American Bank 
Executive Director and was previously a principal shareholder 
of the law firm of Greenberg Traurig where he was the chair of 
the Miami firm's litigation department. This is the second 
hearing for you, so welcome back.
    Ms. Nordquist is currently the Chief of Staff at the 
Council of Economic Advisors. She was previously the Chief of 
Staff for the Economics Program at the Brookings Institution.
    Christopher Landau, nominated to be U.S. Ambassador to 
Mexico, will play a critical role in a country with strong ties 
to the United States. I had the opportunity to speak to him. We 
had a great conversation about the challenges and opportunities 
in the relationship between the U.S. and our southern neighbors 
in Mexico.
    Ms. Bates served for 24 years as a career member of the 
United States Foreign Service before assuming her current role 
as a partner at Securitas Global Risk Solutions in Wayne, 
Pennsylvania. 2017 is when she joined.
    I welcome the nominees here with us today. Thank you, all 
four of you, for the willingness to serve and continue to serve 
our country. If confirmed, each of you will have important 
roles and responsibilities in advancing our nation's foreign 
policy objectives and in protecting our national security 
interests, as well as our values.
    Before us are four very different positions that will each 
help advance economic growth and stability in our own 
hemisphere and beyond. This will be especially true for those 
countries in the western hemisphere that are undergoing 
democratic transitions and are taking important steps to 
improve their economy, security, and bilateral relations with 
the United States.
    I will start with Mexico where the U.S. and Mexico share 
not just the long border, but a long history and a critical 
relationship on a number of fronts.
    Last year, Mexico elected a candidate from the Movimiento 
Regeneracion Nacional, the MORENA party, that was created in 
2014. President Obrador's election broke with the two 
traditional parties in Mexico that had ruled Mexican politics 
for years. In the coming days, it will be important to find 
areas where our cooperation together can be strengthened. We 
are partners in security cooperation and intelligence sharing 
as a result of the Merida Initiative. The U.S. and Mexico are 
trading partners, with the U.S. being Mexico's most important 
export market for goods. 80 percent of Mexico's exports come to 
the United States. We should continue to find ways to enhance 
our cooperation on existing initiatives to fight the production 
and distribution of opioids and illicit fentanyl that cause far 
too many deaths in the U.S. each year.
    We also need to work with Mexico to improve trade practices 
to ensure that it remains a fair trade partner with the U.S.
    The Mexican government has committed to increasing 
government subsidies, which by the way is in violation of WTO 
rules, to promote more agricultural acreage and greenhouse and 
irrigation infrastructure with the intent to export more fruits 
and vegetables into the U.S. across a longer marketing season.
    Mexican producers are dumping produce in select U.S. 
markets at select times of the year to try to outmaneuver U.S. 
antidumping laws.
    Concerns are rising with respect to the role transnational 
criminal organizations are playing to commingle drug shipments 
and launder money with legitimate Mexican agricultural 
operations.
    We also need to engage the Mexican government on Venezuela, 
and we should work with the Mexican and Guatemalan governments 
to bolster security in the border areas between these two 
countries.
    Finally, the U.S. needs to press the government of Mexico 
and have conversations about ongoing human rights violations in 
the country such as the targeting and the murder of 
journalists.
    In general, for all of our nominees, your positions 
representing the U.S. in countries and at multilateral 
organizations are essential to advancing our objectives 
worldwide. The ongoing challenges posed around the world by 
increasingly aggressive governments, such as the Chinese 
Communist government and the Russian government under Vladimir 
Putin, make the case even further for U.S. engagement and 
leadership in the world and in organizations, such as the three 
that you are nominated here for today.
    We must find ways to support developing countries, our 
friends, and our allies who are targets of Chinese economic 
bullying and pressure.
    We have a real opportunity to strengthen the U.S. role and 
partnerships on an array of important foreign policy matters. 
Your roles will be critical to ensuring that U.S. interests are 
advanced here in our own region and across the world.
    Once again, thank you and your families for your commitment 
to our country.
    And now I will recognize the ranking member for his opening 
comments.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Mr. Chairman, for 
convening this hearing.
    It is interesting that we have a Marylander and a Floridian 
and two Virginians that happen to be thrown into the mix. But 
we welcome all of you here.
    As I told Mr. Landau, if I was not ranking, I would have 
been pleased to introduce him to the committee as a Marylander. 
I think your background, your family background--as I 
understand, you have lived in Canada, Paraguay, Chile, and 
Venezuela. Your father was involved in diplomatic services. So 
I think that is going to be important background in regards to 
serving as Ambassador to Mexico.
    I welcome all four of the nominees here today, and I thank 
you for your willingness to, in some cases, continue to serve 
our country; in some cases, to make this commitment of public 
service during an extremely difficult time. And I very much 
recognize that you cannot do this without the support of your 
families. So we thank your families for being willing to share 
your significant other in public service.
    As the chairman has mentioned, all four of these positions 
are critically important to our national security and our 
economic welfare. So each of these positions, in its own right, 
are important.
    The Ambassador to Mexico is particularly of importance to 
us on the Western Hemisphere Subcommittee that Senator Rubio 
and I chair and are ranking. I know this is a full committee 
hearing, but we are particularly concerned about the 
relationship with Mexico.
    It has been too long without a confirmed Ambassador. So, 
Mr. Chairman, I hope that we can expedite this nomination and 
get it moving because I think it is important that we have a 
confirmed Ambassador in our neighbor, Mexico.
    I did have the opportunity to meet with Mr. Landau. I 
enjoyed our conversation. I went over a lot of the issues that 
I think are critically important. The chairman has already 
mentioned some. The U.S.-Mexico-Canada trade agreement is here 
now. It is going to be submitted to us very shortly. Then the 
Congress is going to have to take that up, and your role in 
that regard could be very, very important.
    We have gone over the migration issues. The challenge is 
going to be greater. I was in Mexico City not too long ago. I 
met with my counterparts in the Mexican Senate. They were 
outraged by President Trump's language and the concept of a 
medieval wall. That is going to make your job more challenging, 
and we look forward to how you can use diplomacy so that we can 
work together with Mexico to deal with the migration issues, 
which is critically important.
    Mexico is confronting criminal elements and drug activity 
that we have to work in partnership. One of the areas that I 
ask every nominee for Ambassador to be committed to--and I 
asked you in my office--is to advance human rights. There are 
challenges in Mexico on human rights. No question about it. It 
is not safe to be a journalist. It is not safe to be a social 
activist in a large part of Mexico. And we would expect that 
you will find ways that we can advance the protection of these 
values in our bilateral relationship with Mexico.
    As the chairman pointed out, there is a new administration 
in Mexico, a different party. So I think it does present 
opportunities, and we look forward to how you believe you can 
advance those interests on behalf of the United States.
    In regards to Eliot Pedrosa, the Executive Director for the 
Inter-American Development Bank, a very important position to 
improve lives in Latin America and the Caribbean. The challenge 
is Venezuela. It is a challenge for our whole hemisphere and 
the economic impact and the migration issues, people leaving 
Venezuela, the economic impact of the humanitarian crisis 
there.
    And the unresolved issues in the Northern Triangle that 
some of us are working very hard to develop the type of 
partnership between the United States and the Northern Triangle 
to deal with their security issues, to deal with their economic 
issues, to deal with their basic problems of good governance. 
So that is an issue that we need to explore as to how we can 
use the Inter-American Development Bank to meet those types of 
challenges.
    It is interesting to focus, as I am sure all of us are 
aware, for social inclusion and equality, productivity and 
innovation, and economic integration. These are principles we 
all agree on and I welcome how you believe we can use the bank 
in that regard.
    As is true with all the international bank activities, the 
player that is presenting the greatest interest to us is China. 
China's involvement in this hemisphere is one in which we would 
welcome your thoughts as to how the bank can deal with that 
opportunity or challenge, the way you look at it.
    The Executive Director of the International Bank for 
Reconstruction and Development, Jennifer Nordquist, again a 
position that is critically important. It is the largest lender 
among the world banks. We have been presented a plan for 
recapitalization. The administration is supportive of the 
recapitalization with reform. The decision will be Congress' to 
make on recapitalization and reform, and we welcome your 
comments as to how you see the reforms taking place within the 
bank and how the recapitalization, which falls heaviest on the 
United States because of our share, is in our national security 
interests.
    In regards to the OECD, Pamela Bates, first of all, thank 
you for your career service. That is a commitment that you have 
made moving on to an extremely important position. The OECD is 
committed to market economies backed by democratic 
institutions, and that is being challenged in our regions as 
well as globally. So how does the OECD protect market economies 
and the democratic institutions in the work that you do? You 
have key interests today from China, again. How do you deal 
with that? Brazil, India, Indonesia, South Africa. Challenges 
are great in the global community, and OECD can play an 
extremely important role. And I look forward to our 
conversation in regards to those matters.
    Bottom line, four very important positions, and we thank 
each of you for being willing to serve.
    Senator Rubio. Thank you.
    Ms. Bates, we will begin with you.

STATEMENT OF PAMELA BATES, OF VIRGINIA, TO BE REPRESENTATIVE OF 
 THE UNITED STATES OF AMERICA TO THE ORGANIZATION FOR ECONOMIC 
    COOPERATION AND DEVELOPMENT, WITH THE RANK OF AMBASSADOR

    Ms. Bates. Chairman Rubio, Ranking Member Cardin, and 
distinguished members of the Senate Committee on Foreign 
Relations.
    It is an honor and a privilege to appear before you today 
as the nominee to serve as the Representative of the United 
States of America to the Organization for Economic Cooperation 
and Development, the OECD. I deeply appreciate the trust and 
confidence placed in me by President Trump and Secretary Pompeo 
by nominating me for this responsibility.
    On a personal note and as a prior member of the career 
foreign service, I would like to thank the many family members, 
friends, and colleagues who have encouraged me in my journey 
which has led to this room today. I would like to thank my 
husband and son for adapting to and making the most of serving 
overseas with the Department of State. I would especially like 
to thank our son, who bravely attended new schools, sometimes 
in a foreign language, and who skillfully and diplomatically 
enjoys correcting my French pronunciation.
    I would also like to acknowledge my family members who 
could not be here today, many of whom served our wonderful 
country. My two grandfathers, who fought in World War I in the 
Army and my uncles who fought in World War II in Korea; my two 
grandmothers and my aunts who worked tirelessly on the home 
front; my father, a proud graduate of the United States Naval 
Academy; and my mother, the first person that I know of in my 
family to endeavor to take the foreign service exam.
    I would also like to thank my brother, a colonel in the 
United States Marine Corps, and his family, who are currently 
serving our country.
    My family, and especially my parents, instilled in me a 
deep appreciation for the freedoms that we enjoy as citizens of 
the United States, as well as the duty to serve our country.
    Finally, I would also like to thank many friends and 
colleagues, some of whom are here today. You have helped me to 
be a better diplomat and, if confirmed, representative of our 
great nation.
    Mr. Chairman, I believe that my life experience, including 
more than 2 decades of experience with the Department of State, 
has prepared me well to take on this important challenge.
    As a Foreign Service officer, I devoted most of my career 
to advancing U.S. economic interests across the globe. From 
working to secure greater access to international markets for 
U.S. firms, to supporting energy security and promoting U.S. 
trade and investment, I have gained a deep understanding of the 
intersection between government and the private sector and the 
role international organizations can play in advancing U.S. 
interests. Through my work at the OECD, the International 
Energy Agency, and the World Trade Organization, I have worked 
with likeminded countries to build support for policies that 
benefit the United States. I have also spent time in the 
private sector, an experience that will be valuable to ensuring 
that private sector perspectives inform the work of the U.S. 
mission to the OECD.
    Since its founding in 1961, the OECD has played a unique 
role among international organizations as a valuable source of 
market-friendly, evidence-based research and policy advice. 
Through economic analysis, peer reviews, and development of 
policy standards, the OECD encourages sound economic policies 
that support economic growth and open markets for U.S. trade 
and investment. The OECD also serves as a platform to convene 
likeminded governments to cooperate on approaches to common 
challenges. It provides a venue where networks of regulators 
and government officials agree on market-enhancing rules on 
export credits, anti-bribery, sovereign wealth funds, 
international investment and competition policy. This work 
helps to promote U.S. job creation and expand international 
trade, investment, and financing and create opportunities for 
U.S. business and workers.
    The National Security Strategy calls on international 
organizations to be more accountable. If confirmed, I will work 
with other member countries to make the OECD accountable, 
transparent, member-driven, and cost-effective. I will advocate 
for improving the OECD's working methods to ensure member-
driven prioritization, increase efficiency, and improve 
management practices to bring the OECD to the forefront of 
leading international organizations.
    If confirmed, I will press the OECD to focus on its core 
work of improving the functioning of markets and governments, 
encouraging fair and efficient systems of taxation, competition 
and investment; reinforcing mechanisms for combating 
corruption; and promoting the openness, integrity, and 
transparency of business and governments. I will ensure that 
the OECD's leadership responds to members' concerns rather than 
pursuing its own agenda.
    Over the past 50 years, the OECD has expanded its 
membership from the original 20 countries to 36. It is 
currently considering additional members. We need to proceed 
carefully to support qualified candidates without undermining 
the core work of the OECD. The OECD derives its global 
relevance not from universal membership but from the quality 
and impact of its policy instruments and best practice 
recommendations.
    If confirmed, I look forward to consulting with this 
committee and its staff both here in Washington and during the 
visits of congressional delegations to Paris.
    I thank the committee for this opportunity to appear today. 
If confirmed, my primary goal will be to leverage our 
participation in the OECD to advance U.S. economic interests.
    I would be happy to answer your questions. Thank you.
    [The prepared statement of Ms. Bates follows:]


                   Prepared Statement of Pamela Bates

    Chairman Rubio, Ranking Member, and distinguished members of the 
Senate Committee on Foreign Relations, it is an honor and a privilege 
to appear before you today as the nominee to serve as the 
Representative of the United States of America to the Organization for 
Economic Cooperation and Development, the OECD. I deeply appreciate the 
trust and confidence placed in me by President Trump and Secretary 
Pompeo by nominating me for this responsibility.
    On personal note, and as a prior member of the career foreign 
service, I would like to thank the many family members, friends and 
colleagues who have encouraged me in my journey which has led to this 
room today. I would like to thank my husband and son for adapting to 
and making the most of serving overseas with the Department of State. I 
would especially like to thank our son, who bravely attended new 
schools, sometimes in a foreign language--and who skillfully and 
diplomatically enjoys correcting my French pronunciation. I would also 
like to acknowledge my family members who could not be here today, many 
of whom served our wonderful country. My two grandfathers, who fought 
in World War I and my uncles who fought in World War II and Korea, my 
two grandmothers and my aunts who worked tirelessly on the home front, 
my father, a proud graduate of the United States Naval Academy, and my 
mother, the first person that I know of in my family to endeavor to 
take the foreign service exam. I would also like to thank my brother, 
and his family, who are currently serving with the United States Marine 
Corps. My family, and especially my parents, instilled in me a deep 
appreciation for the freedoms we enjoy as citizens of the United 
States, as well as the duty to serve our country. Finally, I would also 
like to thank many friends and colleagues, some of whom are here today. 
You have helped me to be a better diplomat and, if confirmed, 
representative of our great nation.
    Mr. Chairman, I believe that my life experience--including more 
than two decades of experience with the Department of State--has 
prepared me well to take on this challenge.
    As a Foreign Service Officer, I devoted most of my career to 
advancing U.S. economic interests across the globe. From working to 
secure greater access to international markets for U.S. firms, to 
supporting energy security and promoting U.S. trade and investment, I 
have gained a deep understanding of the intersection between government 
and the private sector, and the role international organizations can 
play in advancing U.S. interests. Through my work at the OECD, the 
International Energy Agency and the World Trade Organization, I have 
worked with likeminded countries to build support for policies that 
benefit the United States. I have also spent time in the private 
sector, an experience that will be valuable to ensuring that private 
sector perspectives inform the work of U.S. Mission to the OECD.
    Since its founding in 1961, the OECD has played a unique role among 
international organizations as a valuable source of market-friendly, 
evidence-based research and policy advice. Through economic analysis, 
peer reviews and development of policy standards, the OECD encourages 
sound economic policies that support sustainable economic growth and 
open markets for U.S. trade and investment. The OECD also serves as a 
platform to convene likeminded governments to cooperate on approaches 
to common challenges. It provides a venue where networks of regulators 
and government officials agree on market-enhancing rules on export 
credits, anti-bribery, sovereign wealth funds, international investment 
and competition policy. This work helps to promote U.S. job creation 
and expand legitimate international investment, financing and trade 
opportunities for U.S. business.
    The National Security Strategy calls on international organizations 
to be more accountable. If confirmed, I will work with other member 
countries to make the OECD accountable, transparent, member-driven, and 
cost-effective. I will advocate for improving the OECD's working 
methods to ensure member-driven prioritization, increase efficiency and 
improve management practices to bring the OECD to the forefront of 
leading international organizations.
    If confirmed, I will press the OECD to focus on its core work of 
improving the functioning of markets and of governments, encouraging 
fair and efficient systems of taxation, competition and investment; 
reinforcing mechanisms for combating corruption; and promoting the 
openness, integrity, and transparency of business and governments. I 
will ensure that the OECD's leadership responds to members' concerns 
rather than pursues its own agenda.
    Over the past 50 years, the OECD has expanded its membership from 
the original 20 countries to 36. It is currently considering additional 
members. We need to proceed carefully to support qualified candidates 
without undermining the core work of the OECD. The OECD derives its 
global relevance not from universal membership but from the quality and 
impact of its policy instruments and best practice recommendations.
    If confirmed, I look forward to consulting with this committee and 
its staff, both here in Washington and during the visits of 
congressional delegations to Paris.
    I thank the committee for this opportunity to appear today. If 
confirmed, my primary goal will be to leverage our participation in the 
OECD to advance U.S. economic interests. I would be happy to answer 
your questions.


    Senator Rubio. Thank you very much.
    Mr. Landau?

STATEMENT OF CHRISTOPHER LANDAU, OF MARYLAND, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
              AMERICA TO THE UNITED MEXICAN STATES

    Mr. Landau. Mr. Chairman, Ranking Member, and distinguished 
members of this committee, I am honored to appear before you 
today as the nominee for Ambassador to Mexico. I am very 
grateful to both President Trump and Secretary Pompeo for their 
trust and confidence' and I appreciate the time that the 
members of this committee and your staff have spent with me. 
The confirmation process has only reaffirmed my respect for our 
Founders' wisdom in requiring the advice and consent of the 
Senate for ambassadorial nominations. If confirmed, I look 
forward to working closely with all of you.
    This hearing brings my life full circle. As an 8-year-old 
boy, I attended my father's hearing as nominee for Ambassador 
to Paraguay. I am here today, 47 years later, with my wife 
Caroline and our two children, Nathaniel and Julia. I am 
incredibly grateful for their love and support, as well as 
their enthusiasm, for this opportunity to serve our great 
country.
    My dad, George Landau, was a career Foreign Service 
officer. For him and for our family, the Foreign Service was 
more than just a job; it was the path to the American dream. 
Both of my parents were immigrants who came to this country 
with nothing. My father fled Austria when the Nazis took over 
in 1938 and made his way to Colombia, South America, and then 
to New York City. He became a U.S. citizens and Army 
intelligence officer in World War II.
    He later joined the Foreign Service and ultimately served 
as U.S. Ambassador to Paraguay, Chile, and Venezuela. He was 
nominated by and served under Presidents of both political 
parties.
    My parents devoted their lives to strengthening the bonds 
between the U.S. and Latin America. I would not be here today 
but for the opportunities that this country and particularly 
the Foreign Service afforded my family.
    I can think of no greater honor or privilege than the 
opportunity to represent our country in Mexico and to continue 
my family's mission of building bridges between the U.S. and 
Latin America. I grew up in the region and speak Spanish 
fluently. I focused on Latin American studies as an 
undergraduate and fully intended to join the Foreign Service 
myself.
    Ironically, it was my dad who urged me to go to law school 
and get a professional degree. My 30-year career in the law, in 
which I had the opportunity to brief and argue cases in the 
U.S. Supreme Court, all of the federal courts of appeals, and 
many State courts, has given me a profound respect for the rule 
of law, the importance of resolving disputes civilly, and the 
dignity of the individual. If confirmed, I will bring these 
passions to my job in Mexico.
    Our relationship with Mexico is one of paramount importance 
and complexity. We share a nearly 2,000-mile border from San 
Diego, California to Brownsville, Texas. More than 10 percent 
of all Americans, some 36 million people, are of Mexican 
heritage. Our cultures have grown increasingly intertwined from 
the Starbucks in Mexico City to Hollywood blockbusters directed 
by Mexicans. There is a lot to celebrate in our relationship 
with Mexico that often gets lost amidst discussion of the 
challenges.
    If confirmed, I will continue this administration's focus 
on a number of key priorities. The first will be to ensure the 
rule of law at the border. That is obviously a huge job that 
involves many agencies. My role, if confirmed, will be to 
foster cooperation with the Mexican people and authorities, 
neither country can solve the challenge of illegal immigration 
alone, and I am convinced that we can find common ground.
    Another key priority, if confirmed, will be the protection 
of the American people. The scourge of illegal drugs is 
devastating both our communities and the Mexican communities. 
Again, I see this as an area where we share a common interest 
with Mexico and pledge, if confirmed, to strengthen our 
partnership in fighting drugs. I would also like to underscore 
the importance of protecting the many millions of U.S. citizens 
who live in or visit Mexico.
    Finally, I would like to emphasize the importance of our 
economic relationship with Mexico. One of the most dramatic 
changes in my lifetime has been the integration of the U.S. and 
Mexican economies. When I was in college, the leading book on 
U.S.-Mexico relations was called ``Distant Neighbors.'' We used 
to have our backs to each other. Now the leading book is called 
``Vanishing Frontiers,'' and Mexico recently became our largest 
trading partner in the world. This transformation offers 
benefits, but it also presents challenges. If confirmed, I look 
forward to working for passage of the USMCA and to promote fair 
and reciprocal trade.
    Mr. Chairman, Ranking Member Cardin, and distinguished 
members of this committee, our relationship with Mexico is 
unique in its direct impact on the security and prosperity of 
the American people. If confirmed, I pledge to be a good and 
faithful steward of that relationship.
    Thank you.
    [The prepared statement of Mr. Landau follows:]


                 Prepared Statement Christopher Landau

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, I'm honored to appear before you today as the nominee for 
Ambassador to Mexico. I'm very grateful to both President Trump and 
Secretary Pompeo for their trust and confidence. And I appreciate the 
time that the members of this committee and your staff have spent with 
me. The confirmation process has only reaffirmed my respect for our 
Founders' wisdom in requiring the advice and consent of the Senate for 
Ambassadorial nominations. If confirmed, I look forward to working 
closely with all of you.
    This hearing brings my life full circle. As an eight-year old boy, 
I attended my father's hearing as nominee for Ambassador to Paraguay. 
I'm here today, 47 years later, with my wife, Caroline, and our two 
children, Nathaniel and Julia. I'm incredibly grateful for their love 
and support, as well as their enthusiasm for this opportunity to serve 
our great country.
    My dad, George Landau, was a career Foreign Service Officer. For 
him, and for our family, the Foreign Service was more than just a job; 
it was the path to the American dream. Both of my parents were 
immigrants who arrived here with nothing. My dad fled Austria alone, at 
age 18, shortly after the Nazi takeover in 1938, and was able to get a 
visa for Colombia, South America. He arrived there by boat, without 
speaking a word of Spanish. That was the beginning of my family's close 
connection with Latin America. My dad had two main objectives in 
Colombia: to get his parents safely out of Austria, and to get himself 
to the United States. Within three years, he managed to accomplish 
both. With the help of the Catholic Church, he extracted his parents 
from Nazi-occupied Austria, thereby saving them from certain death, and 
they lived happily in Colombia for the rest of their lives and are 
buried there. And with the help of the Otis Elevator Company, my dad 
obtained a job in New York City, and arrived in this country in July 
1941, just months before Pearl Harbor. After the war broke out, he 
joined the Army, and soon became both a military intelligence officer 
and an American citizen. He met my mother, Maria, on active duty in 
occupied Austria, and she came over as a war bride in 1947.
    It was always my father's dream to join the Foreign Service, and he 
took and passed the exam in 1946, but wasn't allowed to join because he 
hadn't been a citizen long enough. Eventually, he met the citizenship 
requirements, and joined in 1957. Within 15 years, he became U.S. 
Ambassador to Paraguay, and then to Chile, and finally to Venezuela. He 
was nominated by, and served under, Presidents of both political 
parties. My parents devoted their lives to strengthening the bonds 
between the U.S. and Latin America. I wouldn't be here today but for 
the opportunities that this country, and particularly the Foreign 
Service, afforded my family. There's no other country in the world 
where immigrants like my parents could--through sheer talent, 
determination, and hard work--rise so fast and so far. For that, I'm 
deeply grateful.
    I can think of no greater honor or privilege than the opportunity 
to represent our country in Mexico, and to continue my family's mission 
of building bridges between the U.S. and Latin America. I grew up in 
the region, and speak Spanish fluently. I focused on Latin American 
studies as an undergraduate, and fully intended to join the Foreign 
Service myself. Ironically, it was my dad who urged me to go to law 
school and get a professional degree. My 30-year career in the law, in 
which I had the opportunity to brief and argue cases in the U.S. 
Supreme Court, all of the federal courts of appeals, and many state 
courts, has given me a profound respect for the rule of law, the 
importance of resolving disputes civilly, and the dignity of the 
individual. If confirmed, I'll bring these passions to my job in 
Mexico.
    Our relationship with Mexico is of one of paramount importance and 
complexity. We share a nearly 2,000 mile border from San Diego, 
California, to Brownsville, Texas. More than 10 percent of all 
Americans--some 36 million people--are of Mexican heritage. Our 
cultures have grown increasingly intertwined, from the Starbucks in 
Mexico City to Hollywood blockbusters directed by Mexicans. There's a 
lot to celebrate in our relationship with Mexico that often gets lost 
amidst discussion of the challenges.
    If confirmed as Ambassador, I'll continue this administration's 
focus on a number of key priorities. The first will be to safeguard 
American sovereignty and ensure the rule of law at the border. That's 
obviously a huge job that involves many agencies. My role, if 
confirmed, will be to foster cooperation with the Mexican people and 
authorities. Neither country can solve the challenge of illegal 
immigration alone, and I'm convinced that we can find common ground.
    Another key priority, if confirmed, will be the protection of the 
American people. The scourge of illegal drugs is devastating both our 
communities and Mexican communities. Again, I see this as an area where 
we share a common interest with Mexico, and pledge if confirmed to 
focus on strengthening our partnership in fighting drugs, with a 
particular focus on fentanyl, heroin, and methamphetamine. I'd also 
like to underscore the importance of protecting the many millions of 
U.S. citizens who live in, and visit, Mexico. The U.S. Mission in 
Mexico is the largest consular operation in the world, and I fully 
understand and appreciate the value of those consular services to our 
fellow Americans and your constituents.
    Finally, I'd like to emphasize the importance of our economic 
relationship with Mexico. One of the most dramatic changes in my 
lifetime has been the integration of the U.S. and Mexican economies. 
When I was in college, the leading book on U.S.-Mexico relations was 
called ``Distant Neighbors.'' We used to have our backs to one another. 
Now, the leading book is called ``Vanishing Frontiers,'' and Mexico 
recently became our largest trading partner in the world. This 
transformation offers benefits, but also presents challenges. If 
confirmed, I look forward to working for passage of the USMCA and to 
promote fair and reciprocal trade.
    Mr. Chairman, Ranking Member, and members of this committee, our 
relationship with Mexico is unique in its direct impact on the security 
and prosperity of the American people. If confirmed, I pledge to be a 
good and faithful steward of that relationship. Thank you.


    Ms. Nordquist?

 STATEMENT OF JENNIFER D. NORDQUIST, OF VIRGINIA, TO BE UNITED 
    STATES EXECUTIVE DIRECTOR OF THE INTERNATIONAL BANK FOR 
     RECONSTRUCTION AND DEVELOPMENT FOR A TERM OF TWO YEARS

    Ms. Nordquist. Chairman Rubio, Ranking Member Cardin, as 
well as full committee Chairman Risch and Ranking Member 
Menendez, and all distinguished members of the committee, thank 
you for the opportunity to testify before you today.
    I would also like to thank President Trump for nominating 
me to serve as Executive Director of the International Bank for 
Reconstruction and Development, which forms a major component 
of the World Bank.
    I would not be sitting here today were it not for the love 
and support of my family, who are both literally and 
figuratively behind me: my husband and my rock Nels--and since 
this is a Foreign Service panel, I will also mention that he 
was in the Foreign Service and naval officer and is currently 
in the intelligence community--our three children, Annika, who 
flew in from Stanford University to be here, Lars and Britt 
Marie, who both are happily missing school today; my parents, 
my father Henry Berinstein is here visiting from New York; and 
my in-laws, Myron and Barbara Nordquist, who are your 
constituents, Senator Cardin. And I have a few friends and 
colleagues in the audience who are here or watching online 
today. So thank you, everybody, for your support.
    As this committee sees every day, the world faces many 
difficult and complex issues. These challenge the World Bank 
Group as never before. The United States has played a leading 
role in the bank since its founding at Bretton Woods, New 
Hampshire 75 years ago, and I look forward to keeping the U.S. 
actively engaged in the bank, using our voice and vote to 
advance the bank's mission to ameliorate poverty around the 
globe while also ensuring that the bank works in the best 
interests of U.S. taxpayers.
    I have had a deep interest in responding to poverty ever 
since I was a graduate student in Chicago, volunteering at 
Cabrini Green, then one of the nation's most dangerous housing 
developments. Later, while living and working in Thailand, I 
helped lead a national health education campaign to stem the 
AIDS epidemic that was ravaging the country at all 
socioeconomic levels. Subsequently in government service, I 
helped work to rebuild the Gulf Coast after Hurricane Katrina, 
which hit the lowest income residents particularly hard, and I 
continued to work on related issues while at HUD.
    Research into the causes and impact of poverty was a large 
part of my portfolio at Brookings, where I spent almost 9 years 
in the economic studies program. In my current role at the 
Council of Economic Advisers, I counsel on the development of 
policies that promote opportunity and economic growth based on 
the latest economic research and analysis. I also have a 
background in macroeconomics, evidence-based policy, and 
banking and finance regulation, and plan to bring these 
valuable perspectives to my work, should you confirm me.
    Poverty remains an intractable problem. If there were easy 
policy solutions, they would have been implemented long, long 
ago. In the U.S., we have made a lot of progress since the War 
on Poverty was launched over half a century ago. Both 
bilaterally and through multilateral institutions, such as the 
World Bank, the U.S. has played a leading role in supporting 
the progress that the rest of the world has made in lifting 
people out of poverty and generating economic growth.
    The World Bank Group's loans and grants have helped 
diminish extreme poverty and improve human capital and health 
outcomes in countless countries, helping establish the 
necessary ingredients for prosperity. These efforts not only 
allow people to lead better, more productive and fulfilled 
lives, but they also open up markets to American firms--40 
percent of our exports go to the developing world--not only 
supporting American jobs, but also promoting stability and, of 
course, peace.
    The World Bank now faces the challenge of promoting 
development and stability in an environment where other 
lenders, both bilateral and multilateral, push developing 
countries into unsustainable debt and dependence, forcing these 
sovereign borrowers to accept poor quality projects that do not 
meet high quality environmental and social standards. In that 
regard, it is difficult to understand how any nation can be 
both a lender to the developing world while also taking 
advantage of the taxpayer-supported loans that the bank 
provides at the same time.
    If you allow me the privilege to serve as U.S. Executive 
Director, my goal would be to ensure the bank rises to these 
challenges. If Congress approves the capital increase requested 
in the President's budget, that means implementing the reforms 
that the U.S. negotiated as part of that package. These include 
stronger financial discipline, constraints on overhead costs at 
the bank itself, and focusing resources away from more 
developed countries and towards the less developed, more 
vulnerable ones, which is indeed the bank's core mission. These 
reforms should ensure that the bank does not ask for another 
capital increase in the near future.
    It would be an honor and a privilege to put my background 
in economic policy and government to work ensuring that the 
World Bank implements these reforms and develops a laser-like 
focus on sound, sustainable projects that eliminate extreme 
poverty, empower women, and help prevent violence and conflict.
    Thank you for this opportunity to testify before you today, 
and I look forward to your questions.
    [The prepared statement of Ms. Nordquist follows:]


              Prepared Statement of Jennifer D. Nordquist

    Chairman Rubio, Ranking Member Cardin--as well as full committee 
Chairman Risch and Ranking Member Menendez--and all distinguished 
members of the committee, thank you for the opportunity to testify 
before you today. I'd also like to thank President Trump for nominating 
me to serve as Executive Director of the International Bank for 
Reconstruction and Development--which forms a major component of the 
World Bank.
    I would not be sitting here today were it not for the love and 
support of my family, who are literally and figuratively behind me: my 
husband and my rock, Nels; our three children--Annika (who flew in from 
Stanford to be here), Lars and Britt (who are happily missing school 
today); my parents (my dad is here visiting from New York); and my in-
laws.
    As this committee sees every day, the world faces many difficult 
and complex issues. These challenge the World Bank Group as never 
before. The United States has played a leading role in the Bank since 
its founding at Bretton Woods, New Hampshire 75 years ago, and I look 
forward to keeping the U.S. actively engaged, using our voice and vote 
to advance the Bank's mission to ameliorate poverty around the globe, 
while also ensuring that the Bank works in the best interests of U.S. 
taxpayers.
    I have had a deep interest in responding to poverty ever since I 
was a graduate student in Chicago, volunteering at Cabrini Green, then 
one of the nation's most dangerous housing developments. Later, while 
living and working in Thailand, I helped lead a large health education 
campaign to stem the AIDS epidemic that was ravaging the country at all 
socio-economic levels. In subsequent government service, I helped work 
to rebuild the Gulf Coast after Hurricane Katrina, which hit the lowest 
income residents particularly hard. I continued to work on related 
issues at HUD.
    Research into the causes and impact of poverty was a large part of 
my portfolio at Brookings, where I spent almost nine years. In my 
current role at the Council of Economic Advisers, I advise on the 
development of polices that promote opportunity and economic growth, 
based on the latest economic research and analysis. I also have a 
background in macroeconomics, evidence-based policy, and banking 
finance and regulation, and plan to bring these valuable perspectives 
to my work, should you confirm me.
    Poverty remains an intractable problem. If there were easy policy 
solutions, they would have been implemented long ago. In the U.S., we 
have made a lot of progress since the War on Poverty was launched over 
half a century ago. Both bilaterally and through multilateral 
institutions such as the World Bank, the U.S. has played a leading role 
in supporting the progress that the rest of the world has made in 
lifting people out of poverty and generating economic growth.
    The World Bank Group's loans and grants have helped diminish 
extreme poverty and improved human capital and health outcomes in 
countless countries, helping establish the necessary ingredients for 
prosperity. These efforts not only allow people to lead better, more 
productive, fulfilled lives, but they also open up markets to American 
firms--40 percent of our exports go to the developing world--not only 
supporting American jobs, but also promoting stability and, of course, 
peace.
    The World Bank now faces the challenge of promoting development and 
stability in an environment where other lenders, both bilateral and 
multilateral, push developing countries into unsustainable debt and 
dependence, forcing these sovereign borrowers to accept poor quality 
projects that do not meet high quality environmental and social 
standards. In that regard, it is difficult to understand how any nation 
can be both a lender to the developing world while also taking 
advantage of the taxpayersupported loans that the Bank provides at the 
same time.
    If you allow me the privilege to serve as the U.S. Executive 
Director, my goal would be to ensure the Bank rises to these 
challenges. If Congress approves the capital increase requested in the 
President's Budget, this means implementing the reforms that the U.S. 
negotiated as part of that package. These include stronger financial 
discipline, constraints on overhead costs at the Bank itself, and 
focusing resources away from more developed countries and towards the 
less developed, more vulnerable ones--which is indeed the Bank's core 
mission.
    It would be an honor and a privilege to put my background in 
economic policy and government to work ensuring that the World Bank 
implements these reforms and develops a laser-like focus on sound, 
sustainable projects that eliminate extreme poverty, empower women, and 
help prevent violence and conflict.
    Thank you for this opportunity to testify before you today, and I 
look forward to your questions.


    Senator Rubio. Thank you.
    Mr. Pedrosa?

  STATEMENT OF ELIOT PEDROSA, OF FLORIDA, TO BE UNITED STATES 
EXECUTIVE DIRECTOR OF THE INTER-AMERICAN DEVELOPMENT BANK FOR A 
                        TERM OF 3 YEARS

    Mr. Pedrosa. Thank you, Chairman Rubio and Ranking Member 
Cardin. Thank you to Chairman Risch, Ranking Member Menendez, 
and all of the members of the Senate Foreign Relations 
Committee.
    I was privileged last year to be advanced by this committee 
and confirmed by the full Senate to represent the United States 
on the board of the Inter-American Development Bank as its 
Alternate Executive Director. Today I am before you again as 
President Trump's nominee to serve as Executive Director. I was 
humbled to be nominated and confirmed last year, doubly so now. 
I want to thank the President and Secretary Mnuchin for their 
continued confidence in me, and I would like to thank each of 
the distinguished members of this committee for giving me the 
opportunity to present my qualifications for your consideration 
as you discharge your important constitutional role in 
providing advice and hopefully giving consent on the 
nominations before you today.
    I also want to thank my family for their love and support. 
My wife Nilda is here with me. She is my inspiration, my hero, 
and my love. Our 9-month-old twins, Emma Rose Adlin and Elias 
Augustus, are at home today, and although they are still far 
too young to watch this hearing live, during the many, many 
times that I plan to bore them with it when they are older, I 
have a message for them. Emma Rose, Elias, Mom and Dad love you 
very much. We are proud of you today, and we will be proud of 
you every single day as you grow up.
    I also want to thank my parents, Elier and Ines, and my in-
laws, Ricardo and Nilda, who are live-streaming this hearing 
back home in Florida. Chairman Rubio and Ranking Member 
Menendez, my parents, just like yours, risked everything to 
escape tyranny so that their son could be born and live in the 
land of freedom and opportunity. This country welcomed my 
family and yours and thousands like them, offering liberty, 
equality, and the opportunity for prosperity. I am forever 
grateful to my family and my country for the life they have 
given me.
    Over the past year, I have had the honor of representing my 
country on the board of the IDB. During that time and 
throughout my 18 years of legal practice in the private sector, 
I was blessed by the opportunity to work with stakeholders 
throughout the Americas from Mexico down to the Southern Cone. 
This is a region blessed with incredible promise and 
opportunity, with rich natural resources, and with warm, 
dynamic people.
    But I have seen firsthand some of the challenges that the 
region faces. In too many places, weak institutions, unchecked 
corruption, political instability, and economic uncertainty 
throttle investment and prevent sustained growth. Since the 
IDB's founding 60 years ago, millions have been lifted out of 
poverty, but tens of millions in our region still live below 
the poverty line. The power of free markets and democratic 
institutions have together unleashed prosperity on 
unprecedented levels, but still too many citizens of the 
Americas are deprived of their basic rights to life, liberty, 
and economic opportunity by corrupt and oppressive governments, 
violent criminal gangs, and the crushing weight of economic 
hopelessness.
    As Americans, it is in our vital national interest to run 
towards these challenges, not away from them, and to work to 
help our neighbors create, nourish, and sustain stable, 
prosperous democracies in every corner of our shared 
hemisphere.
    If I am fortunate enough to be confirmed again today, I 
will devote myself to continue to work in partnership with my 
colleagues both in the executive branch and the Congress and 
particularly with this committee and your staff to ensure that 
the IDB continues to be an important part of the solution to 
regional problems. I firmly believe that American leadership 
and investment, both public and private, can change outcomes in 
the region for the better, and I hope to continue to have the 
opportunity work with you and your staffs to achieve that goal.
    Mr. Chairman, Ranking Members Menendez and Cardin, I thank 
you again for the opportunity to appear before you and the 
other members of this committee, and I welcome your questions. 
Thank you.
    [The prepared statement of Mr. Pedrosa follows:]


                  Prepared Statement of Eliot Pedrosa

    Chairman Risch, Chairman Rubio, Ranking Members Menendez and 
Cardin, and members of the Senate Foreign Relations Committee, I was 
privileged last year to be advanced by this committee and confirmed by 
the full Senate to represent the United States as Alternate Executive 
Director of the Inter-American Development Bank. Today, I am before you 
again as President Trump's nominee to serve as Executive Director.
    I was humbled to be nominated and confirmed last year; doubly so 
now. I want to thank the President and Secretary Mnuchin for their 
continued confidence in me, and I would like to thank each of the 
distinguished members of this committee for giving me the opportunity 
to present my qualifications for your consideration as you again 
discharge your important constitutional role in providing advice and 
consent on the nominations before you today.
    I also I want to thank my family for their love and support. My 
wife, Nilda, is here. She is my inspiration, my hero, and my love. Our 
nine-month old twins, Emma Rose Adlin and Elias Augustus, are at home 
today, and although they are still too young to watch this hearing 
live, during the many, many times, I bore them with it when they are 
older, I have a message for them. Emma Rose, Elias, Mom and Dad love 
you very much. We are proud of you today and we will be proud of you 
every single day as you grow up.
    I also want to thank my parents, Elier and Ines, and my in-laws, 
Ricardo and Nilda, who also could not be here today but are 
livestreaming the proceedings back home in Florida. Chairman Rubio and 
Ranking Member Menendez, my parents, like yours, risked everything to 
escape tyranny so that their son could be born and live in a land of 
freedom and opportunity. This country welcomed my family and yours and 
thousands like them, offering liberty, equality, and the opportunity 
for prosperity. I am forever grateful to my family and to my country, 
for the life they've given me.
    Over the past year, I've had the honor of representing my country 
on the Board of the IDB. During that time, and throughout my 18-year 
career in private legal practice, I have been blessed by the 
opportunity to work with stakeholders throughout the Americas, from 
Mexico down to the Southern Cone. This is a region blessed with 
incredible promise and opportunity, rich natural resources, and warm, 
dynamic people.
    But I have seen first-hand some of the challenges the region faces. 
In too many places, weak institutions, unchecked corruption, political 
instability, and economic uncertainty throttle investment and prevent 
sustained growth. Since the IDB's founding 60 years ago, millions have 
been lifted out of poverty, but tens of millions still live below the 
poverty line. The power of the free market and democratic government 
have together unleashed prosperity on unprecedented levels, but too 
many citizens of the Americas are still deprived of their basic rights 
to life, liberty, and economic opportunity by corrupt and oppressive 
governments, violent criminal gangs, and the crushing weight of 
hopelessness.
    As Americans, it is in our vital national interest to run towards 
these challenges, not away from them, and to work to help our neighbors 
create, nourish, and sustain stable, prosperous democracies in every 
corner of our shared hemisphere.
    If I am fortunate enough to be confirmed, I will devote myself to 
working in partnership with my colleagues, both in the Executive Branch 
as well as the Congress--and particularly in this committee--to ensure 
that the IDB continues to be an important part of the solution to 
regional problems. I firmly believe that American leadership and sound 
investment, both public and private, can change outcomes in the region 
for the better, and I hope to continue to have the opportunity to work 
with you and your staffs to achieve that goal.
    Mr. Chairman and Ranking Members Menendez and Cardin, I thank you 
again for this opportunity to appear before you and the other members 
of the committee, and I look forward to your questions.


    Senator Rubio. Thank you.
    Mr. Landau, let me just begin with you. I would start out 
by saying against some of the conventional wisdom, the 
relationship with the Obrador administration has been generally 
friendly. There are still some key issues, however, and trade 
disputes and tariffs, immigration and border security issues, 
obviously, the decision to remain neutral in the crisis in 
Venezuela which are potential or existing irritants.
    In fairness, the Mexican government and the Obrador 
administration has accommodated U.S. migration and border 
security policies and done so despite significant domestic 
criticism that it has received for agreeing to allow migrants, 
asylum seekers to await our immigration proceedings while still 
in Mexico, and for rapidly increasing deportation.
    So in light of all this, if confirmed, what do you view are 
our priorities in our relationship with Mexico, and what do you 
view are the areas that we need to improve?
    Mr. Landau. Senator, I think there are three key priorities 
that I would focus on, and I was relieved to hear that they 
were the same three priorities that Senator Cardin mentioned in 
his opening remarks as well and that you alluded to as well, 
Senator.
    The first is to address the common challenge of migration, 
particularly the Central American caravans that we have been 
seeing over the last several months.
    The second is drugs and transnational criminal 
organizations.
    And the third is trade.
    I think on all of those three issues, Senator, there is a 
lot of room for us to find common ground with Mexico. I think 
these are challenges, but I think at the same time, if I am 
confirmed, my role as a diplomat will be to look for that 
common ground, to work with the new administration in Mexico, 
to listen respectfully to what they have to say, to make our 
case persuasively to them. I am optimistic that we can find 
common ground that yields mutual benefits.
    Senator Rubio. Ms. Nordquist, a similar question. What 
would be your priorities, if confirmed as the U.S. Executive 
Director?
    Ms. Nordquist. Thank you, Senator.
    Well, the most pressing issue before the bank is the 
capital increase, which I mentioned in my testimony. I think in 
exchange for the capital increase, which as Senator Cardin 
mentioned, the United States is a very large share of it, the 
Treasury has negotiated to put in place some good reforms to 
ensure that the bank is not overextending itself, to keep its 
overhead costs under control, to make sure that there is 
organic capital accumulation from the loans and that they can 
be sustained over a 10-year window. So that would be my top 
priority.
    Also, I would like to focus on better coordination between 
the World Bank Group and some of our bilateral aid 
organizations within the U.S. government.
    Senator Rubio. Ms. Bates, what role, if any, can the OECD 
play alongside the WTO, the World Trade Organization, to reduce 
the growing tensions in global trade?
    Ms. Bates. Thank you for that question, Senator.
    The OECD has a tradition of data-driven analysis and making 
neutral policy recommendations.
    Senator Rubio. But that is so boring.
    [Laughter.]
    Ms. Bates. Well, what I was going to say in the trade 
context----
    Senator Rubio. I am kidding. I am joking. Somebody might be 
watching C-SPAN. I am sorry.
    [Laughter.]
    Ms. Bates. In the trade context, the organization has 
served in a capacity of allowing a forum where likeminded 
countries can discuss trade issues that is not a negotiating 
setting. My understanding is that USTR has found this very 
helpful to air a variety of issues in the OECD setting and to 
take a look at OECD recommendations which can then be used to 
formulate appropriate positions to the trade negotiations that 
are taking place.
    Senator Rubio. And, Mr. Pedrosa, obviously I am curious as 
to your views on the massive effort that will be required to 
help Venezuela rebuild after this catastrophe. They had--I 
think it was--an 18 percent contraction last year in their 
economy, projected to be another 25 percent this year. Some 
estimates are running in the $60 billion-$70 billion range to 
rebuild a completely archaic and non-functioning electric grid. 
There is a lot of work to be done. People view Venezuela as a 
wealthy country with a lot of oil resources, but it requires 
infrastructure to utilize that to build its future. So what 
plans are you aware of or what is your view of the role that 
the Inter-American Development Bank can play in that process?
    Mr. Pedrosa. Thank you, Mr. Chairman, for the question.
    I entirely agree with you. We have to get the 
reconstruction of Venezuela right not only for the sake of the 
Venezuelans, who have been living under a tyrannical and 
corrupt government for too long and who have suffered inhuman 
levels of poverty. Estimates are that 90 percent of Venezuelans 
now live in poverty, down from what used to be the richest 
country in the hemisphere.
    The IDB, I hope, will be a central player in the 
reconstruction of Venezuela. We are currently the first 
institution among the multilateral development banks and the 
IMF that have recognized and accepted a governor and executive 
director appointed by interim President Juan Guaido. The staff 
and the teams at the IDB are working closely with Governor 
Hausmann for Venezuela and his executive director on the 
planning for reconstruction efforts, and the United States 
government is working closely to understand the information 
that the IDB has and its plans so that members of the 
administration are fully briefed on what the IDB is thinking 
and doing. Certainly the IMF will play a critical role, one 
would hope, but the IDB can move in and help to improve lives, 
which is ultimately the core function of the institution. We 
will have the opportunity in Venezuela, I hope, to do it and we 
have to get it right.
    Senator Rubio. Senator Cardin?
    Senator Cardin. Again, I thank all of our witnesses for 
your testimony.
    Mr. Landau, I want to start first with the statement that 
you made on border issues, that the Ambassador will be to 
foster cooperation with the Mexican people and authorities. 
Neither country can solve the challenge of immigration alone, 
and I am convinced that we can find common ground.
    I can tell you that over recent times when we have had 
cooperation between the Mexicans and Americans, we have had 
much more stable circumstances on our border, and the sharing 
of information, the working together, working with Mexico on 
its southern border rather than our southern border has all 
been in our interest in dealing with the migration issues.
    But as I said in my opening statement, in my visit to 
Mexico City, there are some hard feelings between the 
government officials of Mexico and the United States.
    So, can you just share with me some thoughts as to how you 
can go about finding that common ground between Mexico and the 
United States?
    Mr. Landau. Absolutely, Senator. If confirmed, my role 
would be to be a diplomat, and what a diplomat does is 
articulates the position of his or her country effectively, 
communicates that to the people of the host country, and 
listens respectfully to what the authorities and the people of 
the host country say to look for common ground on these issues. 
I do think that public diplomacy is a very important tool in an 
ambassador's toolbox, and I look forward, if confirmed, to 
using that tool to the maximum extent I can. I think 
establishing personal relationships of trust and confidence 
down there will be absolutely critical and getting out to see 
the Mexican people and to forming, again, relationships with 
the new government will be my top priority.
    Senator Cardin. Mexico being our neighbor, I would just 
urge you to work with Members of Congress and see whether we 
can assist you in some of these efforts. We are looking at ways 
of improving OAS and helping with parliamentary dimensions 
because I do think engaging us can help you with your 
diplomatic mission. I just make that offer to you.
    Mr. Landau. Senator, I appreciate those words. I could not 
agree with you more. Certainly if I cannot find common ground 
here.I think it will be much harder to find common ground with 
the Mexicans and with people from other countries if we as 
Americans cannot find common ground amongst ourselves. And, if 
confirmed, I can certainly pledge to you that I will do 
everything I can in that regard, and I certainly look forward 
to having a very constructive and ongoing relationship with 
this committee.
    Senator Cardin. And I want to ask all the nominees in 
regards to basic human rights issues. So let me just start 
again with Mr. Landau, and then on my second round, I might get 
around to the others in regards to human rights.
    As I mentioned in my opening statement, Mexico has 
challenges. Every country in the world has challenges. In our 
bilateral relationships, we hope that we can advance basic 
values of human rights, good governance, anti-corruption, rule 
of law. So will you commit to work with this committee to 
advance human rights in Mexico particularly the safety of 
journalists and social activists? And to work to fight 
corruption in that country so that we can find ways that we can 
partner with Mexico in order to advance human rights and to 
fight the corruption?
    Mr. Landau. One hundred percent, Senator. The human rights 
and the support for democracy is a basic pillar of American 
foreign policy and has been so across administrations of both 
political parties here in our country. And I certainly come to 
this job, if confirmed, with a passion for the values that you 
just mentioned in terms of the rule of law. From my own 
professional background, I have litigated First Amendment 
cases. I understand the values that you just spoke of, and I am 
very committed to upholding them.
    Senator Cardin. Thank you.
    Ms. Bates, you mentioned in your statement that you will do 
what you can, reinforcing mechanisms for combating corruption 
and promoting the openness, integrity, transparency of business 
and governments. OECD stands for a market economy, stands for 
democratic values, and yet we are fighting trends of so many 
countries where we find the rise of corruption and the 
weakening of democratic institutions.
    So how can you use your role to advance those values of 
open markets and good governance in a way that is consistent 
with the mission of the OECD?
    Ms. Bates. Thank you, Senator, for that question.
    As you mentioned, there are a number of issues here on 
which the OECD can help to play a role in advancing accountable 
and transparent government.
    For OECD members, as I am sure the Senator is aware, the 
OECD is home to the Anti-Bribery Convention, and all 36 
members, plus an additional 4 countries who are not members of 
the OECD, are a party to that treaty, which uses a peer 
mechanism to review each other's anti-bribery and anti-
corruption efforts.
    In terms of developing nations, there is also the 
Development Advisory Committee, the DAC, which puts out best 
policy and practices and recommendations that countries can 
adopt to help improve accountability of their government 
transparency and efficient functioning of their government. So 
there are tools and options available that the U.S. 
participates in currently that can be used to help ameliorate 
and improve the situation for governments that are facing 
challenges through these mechanisms at the OECD.
    Senator Cardin. I would ask that you would keep us informed 
as to how you are using those mechanisms to advance good 
governance, anti-corruption. We are considering legislation in 
this committee that would establish certain standards for all 
countries in regards to fighting corruption, as we do for anti-
trafficking issues. And I think if you could keep us informed 
as to how you are using the convention in the OECD, it could be 
very helpful to us in our work.
    Ms. Bates. I would be happy to keep the committee informed. 
Thank you.
    Senator Cardin. Thank you.
    Senator Rubio. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And congratulations to all the nominees. You are very well 
qualified for the positions to which you have been nominated.
    Ms. Bates, since we have kind of a Latin America theme on 
this panel and that is a passion area of mine, I want to begin 
with you.
    Brazil would like to be an OECD member. Recently Colombia 
became the third member of the OECD--Colombia, Chile, Mexico--
from the Americas.
    Talk a little bit about the path to accession for a nation 
like Brazil. In my view, it is a real positive that the OECD is 
kind of moving out of sort of just a northern American/European 
body to include more nations from other parts of the world. So 
just talk a little bit about that.
    Ms. Bates. Thank you, Senator.
    Accession at the OECD is a process that is agreed to by the 
current members of the OECD, and there are several steps to 
that process. One of the main goals of that process is to 
ensure that accession candidates are adopting what is called 
the OECD key, the criteria, the policies the ways of governing 
that meet OECD standards. So it is very helpful for countries 
that are moving into a Western democracy type of economy 
because these road maps are very detailed. I believe the one 
that was for Colombia had over 200 separate items that Colombia 
needed to engage upon and complete in order to be able to join 
the OECD. So it creates best practices, common standards, and a 
way of doing things that has been tried and true for the most 
part for the existing members, and it creates likemindedness.
    So for the accession process, it is part of the 
multilateral process within the organization that all members 
engage on not only in terms of invitations but also in terms of 
evaluating a country's readiness.
    Thank you.
    Senator Kaine. I know you have not been confirmed for the 
position yet and you cannot assume anything about confirmation. 
I know that President Trump has indicated his desire that 
Brazil would have that opportunity, and I imagine this will be 
something that will proceed according to the multilateral 
process you described. And we would like to continue to sort of 
stay in touch about that status, that progress.
    Mr. Landau, congratulations to you. I want to ask you a 
question about the U.S.-Mexico-Canada agreement.
    The ITC issues a report, and then that kind of triggers a 
period for Congress to respond. And their report on the pending 
agreement suggests that the deal will have a marginal positive 
effect on the American economy. I think marginal because the 
status quo was NAFTA. And so it was not, you know, should we 
not do it or do the USMCA. It is like compared to NAFTA, what 
would the effect be, and I think they say it would be a 
marginal positive agreement. That is good. But they indicate 
that that is only the case if the deal is effectively enforced.
    If you are confirmed, what might you tell us about how you 
would--without engaging in Mexico domestic politics, what could 
you do as the Ambassador to make sure that the commitments made 
in the agreement, particularly around things like labor and 
others, are effectively enforced by the Mexican government so 
that that net positive effect could be realized by Americans?
    Mr. Landau. Senator, that is a very important question. 
Certainly the Mexican legislature has just passed very 
significant labor reforms for Mexico. I think your question 
highlights the ongoing issue to make sure that those agreements 
and commitments are implemented. And if confirmed, I will work 
closely with this committee, with the U.S. Trade 
Representative, and Ambassador Lighthizer's team to make sure 
that all of the commitments are in fact fully and fairly 
implemented.
    Senator Kaine. I should know the answer to this question. I 
do not. Was a general way to describe the labor provisions of 
the renegotiated NAFTA is that Mexico would be required to have 
provisions that would accord with the ILO international labor 
standards?
    Mr. Landau. Senator, like you, I do not know if they are 
specifically ILO standards. I know that they are improved labor 
standards. There are higher wages at least in certain parts of 
Mexico, and I can get you the answer to that specific question 
after the hearing.
    Senator Kaine. I can find that out on my own, but I 
appreciate your answer to the general idea that if we do not 
enforce these, then people not only become cynical about trade 
deals, they become cynical about trade itself. And we really 
cannot afford to have that happen when so much of the economy 
relies on trade.
    Last thing, Mr. Pedrosa, talk a little bit about the IDB. 
Do we have a sufficient competitive alternative to Chinese 
investments in the Americas in the IDB now?
    Mr. Pedrosa. Thank you for the question, Senator.
    I think it is a critically important area. It is something 
that the IDB can do, and it is something that the IDB can do in 
partnership with the United States. I was thrilled that the 
House and Senate passed the BUILD Act last year, doubling the 
capacity of OPIC and transforming it into the DFC. I was 
actually in Colombia with the then-president of OPIC on the day 
that the Senate was voting on the bill. They are looking at 
opportunities for IDB and OPIC to work together.
    I think that it is critically that lenders like the IDB, 
like OPIC that adhere to international best practices, that are 
committed to transparency, that are committed to making sure 
that borrowers do not undertake unsustainable debt levels, we 
got to work together. We got to work together to provide a 
credible alternative to China and also to help strengthen the 
institutional capacity in the ministries of the countries that 
are being approached by China for lending so that they are 
better able to protect themselves against predatory lending.
    Senator Kaine. Great. Thank you.
    Thank you, Mr. Chair.
    Senator Rubio. Thank you.
    Senator Udall?
    Senator Udall. Thank you, Mr. Chair.
    Thank you to all of the panelists here today and the 
experience that you bring before the committee.
    And my question directed to Mr. Landau--I want to thank you 
for meeting in my office last week. You obviously have a 
distinguished legal career that has brought you before the 
Supreme Court many times and you have worked on behalf of your 
clients to solve many issues.
    Now, if confirmed, you will need to bring these skills to 
the post in Mexico City, a post that I believe is one of the 
most important, if not the most important, for the United 
States speaking as a border State Senator. Mexico is our 
southern neighbor, an important trading partner, a country that 
we share a long and varied history and culture--the United 
States and Mexico--and the border States in particular have a 
long history with Mexico, including a long history of 
intermingling and cultural sharing.
    As a well respected attorney, you have the opportunity to 
work with Mexican legal officials at all levels as they 
continue to reform their judiciary. This work will help Mexico 
address many of the structural issues that were addressed in 
the past and which continue to haunt many Mexican communities 
today.
    How will you work to leverage those skills to help Mexico 
during its transformation to an adversarial system, and what do 
you think should be the biggest priorities in terms of 
addressing procedure and due process in Mexico?
    Mr. Landau. Senator, thank you for that question.
    I do come to this job, if confirmed, with 30 years of legal 
practice under my belt and certainly a profound commitment to 
basic values of due process and fairness and respect for the 
rule of law. These are issues that Mexico, as you noted in your 
question, has been working on. They have made some significant 
steps in recent years to reform their own internal justice 
system. I think those kind of efforts are critical to 
increasing the security and prosperity within Mexico and, if 
confirmed, I would certainly draw on my legal background and my 
connections in the U.S. legal community, judges, prosecutors, 
State attorneys general, the entire panoply, to offer Mexico 
whatever partnership we can as they work to develop their own 
institutions.
    Senator Udall. It is interesting that you mention also 
State attorneys general. When I was an attorney general in the 
1990s, we actually would detail several people to Mexico. I 
think other border States did the same thing, of our four 
border States, in order to try to help them with these issues 
of moving to a different type of judiciary. So I think they are 
also a very important partner in this.
    The incoming or new Mexican administration has made 
combating corruption a major issue. This is, of course, a very 
important issue for U.S. companies doing business or investing 
in Mexico. How will you address corruption in Mexico?
    Mr. Landau. Senator, as you noted in your question, the 
Mexican government itself has focused on issues of corruption 
that they have had in that country. Certainly I will make it a 
priority to let the Mexican authorities and people understand 
that we stand ready, willing, and able to be a partner with 
Mexico, if asked, to work with them in this area, which is so 
important to the development of their economy because 
corruption issues are a huge deterrent to economic prosperity. 
At the end of the day, a strong, stable, and prosperous Mexico 
is very much in the interest of the United States.
    Senator Udall. Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Congratulations to all of the nominees and their 
nominations.
    Let me start with you, Mr. Landau. I appreciate you can by 
and visited with me. We had a good conversation I thought, and 
I appreciated hearing your Spanish and making sure it is for 
real.
    [Laughter.]
    Mr. Landau. Esta verdad, Senator.
    Senator Menendez. [Spanish spoken.]
    [Laughter.]
    Senator Menendez. Last month, I cosponsored the Fentanyl 
Sanctions Act with Leader Schumer because I, like many 
Americans, are concerned about the massive amounts of fentanyl 
and heroin that is coming into the United States and the 
catastrophic effect it is having on Americans.
    Now, the President claims that building a wall at the 
Mexican border will help address the flow of drugs coming into 
our country, but the problem is--I want to ask you, are you 
aware that the Drug Enforcement Administration's 2018 National 
Drug Threat Assessment has repeatedly reported that the 
majority of illegal drugs coming from Mexico into the United 
States are coming through our legal points of entry?
    Mr. Landau. Senator, we need a holistic approach to the 
border that allows for trade to go, for people to be able to 
cross, and certainly one of my priorities would be to do what I 
can to improve the efficiency of the border. Efficiency in a 
way that also promotes our security. And as you noted, there is 
a very significant issue of fentanyl coming over the border, as 
well as other illegal drugs. Certainly I am aware that a large 
percentage of the fentanyl comes through legal points of entry.
    Senator Menendez. Okay. So as such, will you commit, if you 
are confirmed, to working with me and other members of this 
committee to advance a comprehensive solution that addresses 
all the steps in the production and trafficking process so that 
we can try to meet this challenge?
    Mr. Landau. Absolutely.
    Senator Menendez. Are you aware that Mexico is the second 
largest market for the United States' goods and services in the 
world?
    Mr. Landau. Yes, Senator.
    Senator Menendez. In the world.
    Mr. Landau. In the world.
    Senator Menendez. Now, as such, our trade with Mexico then 
is incredibly important in our economic interests as well. And 
so that is something I hope you are going to pay attention to.
    A group of Democratic colleagues and I introduced the 
Central American Reform and Enforcement Act which proposes I 
think responsible solutions to address the root causes driving 
individuals to flee their home countries and to strengthen our 
own mechanisms to ensure fairness and efficiency for those who 
do reach our border.
    In that context, I would like to ask you the following. Do 
you agree that migration from Central America's Northern 
Triangle is a complex issue that requires a multifaceted 
solution that tackles both strengthening our own mechanisms 
while also addressing the root causes that drive individuals to 
flee?
    Mr. Landau. Yes, Senator.
    Senator Menendez. Do you agree that Mexico plays a key role 
in addressing issues of migration from Central America?
    Mr. Landau. Yes, Senator.
    Senator Menendez. President Lopez Obrador has expressed an 
interest in working with the United States to address the root 
causes driving migration from Central America. Will you work 
with our partners in Mexico on these issues?
    Mr. Landau. Absolutely, Senator.
    Senator Menendez. Now, I am concerned about the confidence 
gap that exists. You and I discussed this a little bit. In the 
poll last year by the Pew Research Center, an overwhelming 
majority of respondents in Mexico--78 percent, in fact--said 
they had no confidence at all with reference to what the 
administration would do when it comes to global affairs. And 
negative views like this only increase the political costs for 
Mexican officials to work closely with the United States on a 
wide range of policies, which we need them to work with us.
    How do you plan to address this confidence gap, and how 
will you convince Mexican officials to cooperate with you and 
U.S. counterparts when you have this environment which you are 
walking into?
    Mr. Landau. Senator, I have tremendous respect for Mexico's 
history, its culture, its people, and certainly if I were to be 
confirmed, I would want to very aggressively pursue a program 
of public diplomacy so that the Mexican people and government 
would understand our positions, where we are coming from. I see 
public diplomacy as absolutely critical to the mission of a 
successful Ambassador and would use all of the tools at my 
disposal. And certainly my family and I cannot think of 
anything we would rather do than enjoy living in Mexico and 
experiencing the country and the hospitality of the Mexican 
people.
    Senator Menendez. And lastly, will you commit to myself and 
to the committee that if you are confirmed, that you will, when 
called upon, give honest and accurate information about 
circumstances in Mexico when you are called upon to do so and 
work with us when we have some legislative ideas to get your 
perspectives on it?
    Mr. Landau. Absolutely, Senator. I look forward, if 
confirmed, to welcoming you and other members of this committee 
to Mexico.
    Senator Menendez. Mr. Chairman, I have one or two other 
questions, and I do not know what the timing is.
    Senator Rubio. That is good. Let us go ahead.
    Senator Menendez. Thank you. I do not want the rest of you 
feel that I have left you out.
    So, Mr. Pedrosa, earlier this year, an IDB bank meeting in 
China fell apart when the Chinese government refused to 
accredit Venezuelan interim President Juan Guaido's governor to 
attend the meeting. As I understand it, the IDB lost millions 
of dollars in the last minute cancellation of the event.
    What lessons should the United States take away from these 
events, and what does it say about Chinese engagement in the 
hemisphere and at the IDB?
    Mr. Pedrosa. Thank you for the question, Senator.
    I think it says that China is not yet fully committed to 
playing by international rules. And I think it is an example of 
a phenomenon that we have seen elsewhere, and it was 
personified in that decision by the Chinese to refuse entry to 
a duly acknowledged and accepted governor of an international 
institution. Their failure to honor their commitment as a host 
country I think shows that they are not yet willing to abide by 
the international rules surrounding multilateral organizations, 
and I think we have seen other examples where they are not 
willing to abide----
    Senator Menendez. And so as such, I hope at the IDB, you 
are going to take that into consideration. I know we want their 
money in the bank, but by the same token, they have to live 
under the rules that all of us live under.
    Mr. Pedrosa. Absolutely, Senator.
    Senator Menendez. And finally, for Ms. Bates and Ms. 
Nordquist, I am increasingly concerned that the United States 
is not well positioned to engage in economic statecraft for the 
21st century, including promoting U.S. jobs, businesses, and 
economic interests, engaging in development financing for 
infrastructure and other needs, including climate change-
related resiliency and setting standards for emergent 
technologies in the digital economy areas where we lead the 
world. But if we are not at the table, then others write the 
standards.
    Can you share with me how you view your role and your 
institution's role, if you are confirmed, in helping to renew 
and replenish U.S. economic statecraft instruments? What do you 
see as the biggest challenges? What do you see as the biggest 
opportunities?
    Ms. Bates. Thank you, Senator, for that question.
    Economic statecraft, as previously defined and as will be 
defined as I am sure in ongoing conversations, is extremely 
important. Good economic policies that we promote to the rest 
of the world through an institution such as the OECD help to 
grow the American economy, help create jobs, help create a 
foundation for strong economic relationships between our 
country and others.
    I look forward to working with the committee in that 
capacity to look for new ways, as well as to work within the 
institution, if confirmed, to define the goals that would be 
appropriate, as I said, in conversation with the committee for 
economic statecraft.
    Within the mission itself, I think there are a number of 
tools. There are a number of committees within the OECD where 
we can promote U.S. views on the best practices and best 
approaches to foster an environment that creates sustainable 
economic growth.
    Senator Menendez. Ms. Nordquist?
    Ms. Nordquist. Thank you, Senator.
    So I am a huge believer in the mission of the World Bank. 
And the U.S. is the largest contributor to the World Bank, and 
we have a long history with the bank, one of its founding 
members, and obviously, the president is an American. And so I 
hope to continue to represent the United States interests as 
best as possible and be a good steward of taxpayer dollars 
while representing the U.S. interests at the bank.
    The U.S. also has taken a leading role in the environmental 
and social framework and pushing for anti-corruption efforts. 
And I also believe that the reforms that would be part of the 
increased capital package would really improve things at the 
bank. I think the bank is not a perfect entity, but it is 
certainly better than most of the Chinese loans that are out 
there that are forcing borrowers into bankruptcy and then the 
Chinese are seizing the assets.
    Senator Menendez. Well, I look forward to both of you and 
your institutions having some sense of how do we meet--you 
know, Chinese investment is manipulative at best and coercive 
at worst. And so I look forward to see how we use these 
institutions not only as a counter to compete successfully 
against them so they do not undermine countries that ultimately 
cannot afford what they get from the Chinese under the terms 
and then go into deep debt, but also how do we use our tools in 
international financial institutions to ultimately promote the 
U.S. interests abroad. And I would like to hear a little bit 
more from you on that maybe for the record.
    Senator Rubio. Senator Cardin?
    Senator Cardin. Thank you.
    Ms. Nordquist, let me follow up on this point: the 
recapitalization reform. You indicate the reform is to 
concentrate more on the less developed countries, which I agree 
with completely, carrying out the mission of the bank, which is 
to make sure we have stable regimes to reduce poverty, to help 
women--which I strongly support--and to reduce the violence. I 
absolutely agree with those types of reforms that would lead us 
to those conclusions.
    But it is one thing to say that we are going to do it. It 
is another thing, in fact, to be able to be accountable in this 
area.
    You mentioned anti-corruption several times. To me, 
corruption is the fuel for instability in these countries. We 
have a lot of less developed countries that do not have 
sophisticated governments. They may even have resources. Those 
resources are used to fuel corruption rather than to help the 
people.
    So how do you see the reforms at the bank actually being 
carried out and practiced to help less developed countries 
develop the type of governance that can benefit the people of 
that country for a more stable life?
    Ms. Nordquist. Thank you, Senator.
    One thing that I have not really mentioned is that the 
whole idea of the World Bank is to help stabilize these 
countries so that private capital can come in. And I think that 
private capital is not going to come into a country that is 
endemically riddled with corruption.
    So the World Bank actually does have an inspection panel 
and an ombudsman, that they are actually increasing the funding 
towards those two entities to make sure that there is 
accountability and that there is not corruption. I do not know 
if you are familiar with the Jam v. IFC case, but obviously 
that was a project in India that went awry. The same thing 
happened in Uganda, and the warning signs were there, but there 
was not enough accountability in the bank to ensure that it did 
not happen. Right now, I think that those accountability 
mechanisms are much stronger and should hopefully prevent that 
in the future.
    I would say I am a little bit of a research nerd. There was 
a great paper last year in the ``Journal of Economic 
Perspectives'' that actually compared World Bank loans in 
Africa to Chinese-led loans in Africa. And they found that the 
Chinese loans not only had zero positive economic impact on the 
area, but they were corrupt and they spread the corruption 
exactly around where that project had taken place.
    Senator Cardin. I think I will challenge you on one point, 
and that is, there are extractive industries that go into 
corrupt countries because they know they can work out their 
deals and get the minerals that they want. And we have tried to 
take action to prevent that from happening.
    So I do not think we can just say that private investment 
will not go into corrupt regimes because we have seen that 
happen over and over again. But I do agree with you stable 
regimes need to be able to fight corruption because they will 
not stay stable.
    So I guess my question is what in the reforms give us 
confidence that, in fact, we will see a commitment in the less 
developed countries to deal with good governance?
    Ms. Nordquist. So I do know that particularly in the 
African region, the majority of World Bank loans go towards 
administrative, which is really focusing on developing strong 
governance tools and teaching these countries how to fight 
corruption. So there are mechanisms in place. And certainly, 
Senator, should you confirm me, I pledge to you to work to 
focus more of the World Bank resources on that issue.
    Senator Cardin. Would you commit to keep this committee 
informed, assuming the reforms go forward, as to how you are 
making progress or not making progress in dealing with 
corruption and good governance in less developed countries as a 
result of the recapitalization, the result of these efforts?
    Ms. Nordquist. Absolutely, Senator.
    Senator Cardin. We will hold you to that.
    Ms. Nordquist. Okay.
    Senator Cardin. Mr. Pedrosa, you mentioned the problems of 
fighting corruption in our hemisphere, and that goes well 
beyond Venezuela. We have many democratic governments that are 
plagued with corruption in our hemisphere.
    So how do you see your role in development assistance 
dealing with rooting out corruption so we have less impunity 
and more safety for the people in our region? It will also help 
us, by the way, in regards to the migration issues.
    Mr. Pedrosa. Senator, thank you for the question.
    I entirely agree with your last statement, that that will 
help us with the migration issues.
    As you know and as you mentioned at the beginning of your 
opening statement, one of the IDB's signature cross-cutting 
issues is anti-corruption, transparency, and rule of law. It 
means that every project that comes to the IDB board gets 
scored as to whether or not it is actually having some impact 
on that issue. I think that is vitally important. I think the 
work that we do to strengthen institutional capacities at the 
ministries is vitally important and it is something that we 
need to continue to do.
    I think we stand at a point of enormous opportunity. I 
think the light that has been shed on corruption in the region 
by the series of scandals that rocked it from Odebrecht to the 
Cuaderno scandal in Argentina put us in a position where the 
governments are finally--many of them willing to face this 
issue, which is not an easy on for government officials in 
these countries. Sometimes facing this issue means putting 
relatives and friends in legal jeopardy, but it is important 
work that has to be done. And I look forward to continuing to 
work within the IDB system to make sure that we are a part of 
that solution.
    Senator Cardin. And again, I would ask, as I have asked 
other witnesses, please keep us informed as to your success or 
lack of success in that regard. As I mentioned earlier, we are 
working on legislation here to try to identify best practices 
so that countries know that they are being watched on their 
efforts to fight corruption. And our bilateral relationship 
should always be aimed at reducing corruption and the 
mechanisms to provide for stability against corruption.
    Thank you, Mr. Chairman.
    Senator Rubio. We want to thank all four of you for being 
here.
    The record will remain open for 48 hours. If you get 
questions for the record, the quicker you can respond to them, 
the faster the chairman can move on to the business hearing, 
which is the next step in this process.
    But, again, I want to thank you all for giving us the time, 
for your willingness to serve.
    And with that, the hearing is adjourned.


    [Whereupon, at 12:18 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

                              ----------                              


            Responses to Additional Questions for the Record
          Submitted to Pamela Bates by Senator Robert Menendez

Economic Statecraft
    Question. As I mentioned during the hearing, I am increasingly 
concerned that the United States is not well positioned to engage in 
economic statecraft for the twenty-first century, including promoting 
U.S. jobs, business and economic interests, engaging in development 
financing for infrastructure and other needs, including climate change-
related resiliency, and setting standards for emergent technologies and 
the digital economy.

   Can you expand upon how you view your role and your institutions 
        role, if you are confirmed, in helping to renew and replenish 
        U.S. economic statecraft instruments?

    Answer. The OECD promotes market-based policies and market-friendly 
regulations that contribute directly to expanding market opportunities 
and lowering costs for U.S. firms. By working with the OECD, the United 
States is able to make sure those recommendations reflect U.S. 
interests and priorities, and gain agreement on those recommendations 
among like-minded countries. This helps create and expand legitimate 
investment and financing opportunities for U.S. business and promote 
U.S. job creation.


    Question. Where do you see the biggest challenges? Biggest 
opportunities?

    Answer. In a rapidly changing economic, social, and technological 
landscape, determining policies that will promote the highest 
sustainable economic growth as stated in the OECD charter is a central 
challenge. It is important to keep the OECD focused on its strengths of 
high-quality, unbiased data collection and analysis to make those 
policy recommendations. U.S. engagement and leadership in the work and 
the governance of the OECD will ensure that the organization remains an 
effective, relevant institution and that its work continues to benefit 
the American people.


    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government?

    Answer. Yes. I agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government. I believe 
that it is important for government decision makers to be presented 
with an array of different policy views and perspectives, and if 
confirmed I would seek to encourage rather than stifle the presentation 
of such views. Moreover, any personal political beliefs of career 
employees are not relevant as long as they are able to fulfill the 
needs of their position and remain in compliance with all applicable 
laws, such as the Hatch Act.


    Question. If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. If confirmed, I would make certain all employees at the 
U.S. Mission to the OECD have taken necessary training to support 
diversity in the workplace and maintain Equal Employment Opportunity 
principles. I will also work to ensure that supervisors are promoting 
those principles through example and instruction and are handling any 
complaints through appropriate channels and mechanisms.


    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting?

    Answer. No.


    Question. If so, please describe the nature of the complaint or 
allegation, your response, and any resolution, including any 
settlements.

    Answer. Not applicable.


    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority?

    Answer. No.


    Question. If so, please describe the outcome and actions taken.

    Answer. Not applicable.

    follow-up questions submitted to pamela bates by senator robert 
                                menendez

    Question. In your response to my Questions for the Record, you 
stated: ``In a rapidly changing economic, social, and technological 
landscape, determining policies that will promote the highest 
sustainable economic growth as stated in the OECD charter is a central 
challenge. It is important to keep the OECD focused on its strengths of 
high-quality, unbiased data collection and analysis to make those 
policy recommendations. U.S. engagement and leadership in the work and 
the governance of the OECD will ensure that the organization remains an 
effective, relevant institution and that its work continues to benefit 
the American people:''

   When you say ``It is important to keep the OECD focused on its 
        strengths of high-quality, unbiased data collection and 
        analysis,'' does that include data and information based on the 
        scientific community's consensus on climate change?

    Answer. The OECD should focus on providing data, information and 
analysis on a variety of technical issues, as agreed by member states, 
including those related to climate change such as emissions data and 
financing of low-carbon investments. The OECD provides value to its 
members by collecting information to produce data and analysis that 
informs decision-makers and supports negotiations and cooperation in 
other fora.

    Question.  What purpose do you believe is being served by the 
following policies and actions affecting the quality and integrity of 
U.S. data?

   the ``red team vs. blue team'' climate science review proposed by 
        former EPA Administrator, Scott Pruitt;
   limiting the scope of computer-generated climate change impact 
        models used by U.S. government agencies making climate related 
        policy decision to only project through 2040 (rather than 
        through the end of the century as is accepted by the broader 
        scientific community);
   eliminating the publication of ``worst case scenarios'' from 
        reports on climate change effects;
   or the work within the White House, led by Dr. William Happer, to 
        review the role climate science serves in U.S. national 
        security planning?

    Answer. The U.S. Mission to the OECD relies on technical experts 
from more than 25 U.S. agencies to participate in the sharing of data 
and information at the OECD. If confirmed, I would work with relevant 
U.S. government agencies to support U.S. participation in OECD 
technical committees working on environmental policy and climate change 
issues. These agencies have the expertise to evaluate technical 
questions regarding the quality and integrity of U.S. data.

    Question.  Are you concerned with the effect the actions taken in 
the question above could have on the quality and integrity of U.S. 
(produced) climate change data?

    Answer. I would defer to subject matter experts from relevant U.S. 
government agencies to evaluate technical issues affecting the quality 
and integrity of U.S. data.

    Question.  What will you do to protect the integrity, impartiality, 
and quality of the scientific data on climate change the U.S. 
contributes to the OECD, especially in light of the aforementioned 
policies and reviews, which appear designed to limit publication and 
collection of scientific data in the interest of a biased political 
agenda to minimize, obfuscate, and deny the risks posed by climate 
change?

    Answer. If confirmed, I would support the participation of 
technical experts from relevant U.S. government agencies in sharing 
data related to climate change and reviewing technical issues affecting 
the quality and integrity of U.S. data.

    Question.  Do you support the findings and agree with the concerns 
raised by the ``OECD Environmental Outlook to 2050: The Consequences of 
Inaction'' report, and would you support the OECD producing more high-
quality and unbiased reports on the significant development and 
security risks associated with climate change?

    Answer. I would defer to subject matter experts to comment on the 
findings of this report and other OECD technical reports. If confirmed, 
I would support a process for producing high-quality and unbiased 
reports that have been reviewed by technical experts from the United 
States and other member states through OECD technical committees.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Pamela Bates by Senator Benjamin L. Cardin

    Question. What is the OECD's role in strengthening democratic 
institutions and promoting good governance?

    Answer. The OECD promotes best practices that support sound 
democratic institutions and good governance in areas such as rigorous 
government audits and financial controls, transparency in government 
contracting and procurement, and combatting bribery. For example, the 
OECD Anti-Bribery Convention reflects U.S. priorities as encapsulated 
in the 1977 Foreign Corrupt Practices Act (FCPA) and helps to level the 
global playing field for U.S. business. U.S. efforts have led to a 
notable improvement in the legal, regulatory and enforcement efforts of 
the major trading countries of the world. As of 2018, 44 countries have 
acceded to the Anti-Bribery Convention, representing more than 60 
percent of world GDP.


    Question. If confirmed, how would you work to bolster the OECD's 
efforts in this area (strengthening democratic institutions and 
promoting good governance)?

    Answer. If confirmed, I would support projects that evaluate and 
improve the recommendations on best practices in these areas. I would 
also look for ways to encourage non-member countries to adhere to these 
practices, including through active enforcement and potential accession 
to the Anti-Bribery Convention.


    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. In my previous work as a career foreign service officer, I 
promoted market-based policy approaches at the OECD, which advance 
sustainable economic growth. Strengthening and expanding economic 
opportunities helps to enhance human rights and democracy by empowering 
the individual and improving his or her standard of living.


    Question. How would you characterize the OECD's engagement with 
emerging economies that are not members of the Organization, like 
China, Brazil, and India?

    Answer. Brazil, China, and India are all part of the OECD Key 
Partner program. Key Partners are encouraged to share data and 
participate actively in mutually beneficial OECD work areas including 
competition, investment, and taxation. Most of these countries already 
adhere to at least some of OECD's policy standards and legal 
instruments, but the objective of the Key Partner program is to help 
them adhere to more. By encouraging high standards for a wide range of 
economic policies, the OECD can help level the playing field for U.S. 
businesses.


    Question. What more should the Organization do to involve large 
non-members such as Brazil, China, and India in its work?

    Answer. The OECD should do more to make sure large non-members like 
Brazil, China, and India are adopting more OECD standards to provide a 
stronger foundation for economic growth and expand commercial 
opportunities for U.S. firms. Countries such as Brazil have 
demonstrated a commitment to OECD-inspired economic reforms while 
others, such as China and India, have shown less interest in adopting 
OECD norms. OECD members, including the United States, use the Key 
Partner program as a way to leverage the OECD to achieve our bilateral 
policy priorities including by promoting transparency, open markets and 
investment regimes, and a level playing field for U.S. business.


    Question. In recent weeks and months, we have seen some of the 
initial effects of how disruptive trade disputes can be for the U.S. 
economy. What role, if any, can the OECD play alongside the World Trade 
Organization (WTO) to reduce global trade tensions?

    Answer. The OECD can complement the WTO by providing evidence-based 
analysis of the OECD Trade Committee and being a forum that advocates 
policies aimed at opening markets and promoting free and fair trade. 
The OECD provides the United States with a forum for building support 
for initiatives at the WTO such as the digital trade discussions and 
fisheries subsidies negotiations. The OECD produces the most precise 
indicators available for monitoring countries' compliance with the WTO 
Trade Facilitation Agreement.


    Question. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups at 
the OECD?

    Answer. If confirmed as the Chief of Mission, I would seek to 
recruit staff for the Mission from a broad range of backgrounds and to 
foster an environment of tolerance, respect, and professionalism that 
complies with U.S. law. As part of the governing Council of the OECD, I 
would push to make certain the OECD is doing the same.


    Question. What steps will you take to ensure each of the 
supervisors at the OECD are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I would work closely with the OECD on all 
employment issues, including fostering a diverse and inclusive work 
environment, and the hiring of American citizens. I would ensure that 
OECD management understands the importance we place on equal employment 
opportunity and seek to influence OECD hiring policies to closely match 
U.S. standards in this area.


    Question. Do you commit to bring to the committee's attention any 
change in policy or U.S. actions that you suspect may be influenced by 
any of the President's business or financial interests, or the business 
or financial interests of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through the appropriate channels.


    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through the appropriate channels.


    Question. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. My investment portfolio includes interests in diversified 
mutual funds and a diversified Real Estate Investment Trust which may 
hold interest in companies located outside the United States, but which 
are exempt from the conflict of interest laws by regulation. My 
investment portfolio also includes interests in U.S. companies that may 
have a presence abroad. I am committed to ensuring that my official 
actions will not give rise to a conflict of interest. I will divest all 
investments the State Department Ethics Office deems necessary to avoid 
a conflict of interest, and I will remain vigilant with regard to my 
ethics obligations.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Christopher Landau by Senator Robert Menendez

    Question.  The President's repeated and public criticism of Mexico 
and the Mexican people continue to raise the political cost for Mexican 
authorities that cooperate with the United States on issues including 
securing our border, addressing unauthorized migration or challenges 
related to narcotics trafficking, which are contributing to the heroin 
and fentanyl epidemic plaguing our country.

   As our principal diplomat for the Americas, do you intend to 
        formulate a strategy to make Mexico pay for a border wall 
        between our countries?

    Answer. I understand that a border wall is one part of a 
comprehensive approach to further improve security on our southern 
border. I further understand that the State Department is engaged in an 
ongoing dialogue with our Mexican partners to ensure coordination and 
to exchange information on joint efforts to secure and modernize the 
border. If confirmed, I would work with U.S. interagency partners and 
the Mexican government to improve security for both countries along our 
common border.


    Question. Do you believe that the United States can address border 
security, migration, and drug trafficking without a productive 
partnership with Mexican authorities?

    Answer. I believe that Mexican cooperation is vital to the success 
of U.S. policy on issues of border security, migration, and drug 
trafficking. In fact, that is why I seek this job: I believe that these 
are shared challenges that neither country can successfully overcome on 
its own.

    Question. The day of your confirmation hearing, the President 
tweeted--
          I am very disappointed that Mexico is doing virtually nothing 
        to stop illegal immigrants from coming to our Southern Border 
        where everyone knows that because of the Democrats, our 
        Immigration Laws are totally flawed & broken. Mexico's attitude 
        is that people from other countries, including Mexico, should 
        have the right to flow into the U.S. & that U.S. taxpayers 
        should be responsible for the tremendous costs associated w/
        this illegal migration. Mexico is wrong and I will soon be 
        giving a response!

   What is your assessment of how this tweet was received by the 
        government of Mexico?

    Answer. I do not know how this tweet was received by the government 
of Mexico. I understand that the United States and Mexico are committed 
to working closely together to address our shared challenges. If 
confirmed, I pledge to work with our Mexican counterparts to find 
common ground to advance our important bilateral priorities, including 
illegal immigration.


    Question. During a hearing before the Senate Foreign Relations 
Committee in 2018, Secretary Pompeo affirmed that presidential 
statements are official U.S. positions and policy; therefore, is it is 
your assessment that Mexico is doing virtually nothing to stop 
undocumented migrants from entering the United States?

    Answer. I understand that the United States works closely with 
Mexico to address illegal immigration. Stopping illegal immigration and 
promoting safe, legal, and orderly forms of migration is a shared 
challenge for both countries. I believe that neither country can solve 
this challenge alone, and that we can find common ground with the 
government of Mexico on this critical issue.
    Question. According to the Center for Disease Control, more than 
42,000 Americans lost their lives to opioid overdoses in 2016--more 
than 20,000 of those deaths were related to fentanyl and more than 
15,000 were related to heroin. As you know, the majority of the heroin 
coming into the U.S. originates from Mexico and much of illicit 
fentanyl entering the U.S. comes from China and transits through 
Mexico.

   What is your assessment of the importance of U.S.-Mexico 
        cooperation to address illicit heroin and fentanyl trafficking 
        and transnational organized crime?

    Answer. I believe that Mexican cooperation is vital to address 
illicit heroin and fentanyl trafficking and transnational organized 
crime and, if confirmed, I will seek to foster our security partnership 
with Mexico. Neither country can successfully confront transnational 
organized crime or the scourge of drugs alone.


    Question. Do you think the U.S. can address heroin and fentanyl 
trafficking without Mexico's cooperation?

    Answer. No. I believe that neither country can successfully 
confront transnational organized crime or the scourge of illegal drugs 
alone.


    Question. Are you aware that DEA's 2018 National Drug Threat 
Assessment states that the majority of illegal drugs coming from Mexico 
into the U.S. are coming through our legal ports of entry?

    Answer. Yes, I am aware of the statements in DEA's 2018 National 
Drug Threat Assessment.


    Question. If confirmed, do you commit to advancing a comprehensive 
solution that includes addressing all steps in the production and 
trafficking processes, as well as common sense efforts to reduce 
demand?

    Answer. Yes. If confirmed, I commit to advancing a comprehensive 
solution that includes addressing all steps in the production and 
trafficking processes, as well as common sense efforts to reduce 
demand. I understand that the State Department will continue to 
coordinate with the Office of National Drug Control Policy, which has 
the lead on reducing demand in the United States.


    Question. Immigration is one of the most complex issues in the 
national debate. Do you agree that migration from Central America's 
Northern Triangle through Mexico is a complex issue that requires a 
multifaceted solution that tackles both strengthening our own 
mechanisms while also addressing the root causes that drive individuals 
to flee?

    Answer. Yes. I understand that the Department of State is committed 
to working with Mexico and Northern Triangle countries on shared 
security and development challenges. If confirmed, I look forward to 
continued dialogue on these issues.


    Question. Do you agree that Mexico plays a key role in addressing 
issues of migration from Central America?

    Answer. Yes. I believe that Mexico plays a key role with respect to 
migration from Central America, and that continued cooperation between 
Mexico and the United States is essential to address the security and 
humanitarian dimensions of such migration from Central America.


    Question. President Lopez Obrador has expressed an interest in 
working with the United States to address the root causes driving 
migration from Central America; do you commit to working with our 
partners in Mexico on these issues?

    Answer. Yes. I understand that the State Department is committed to 
working with Mexico on shared security and development challenges. If 
confirmed, I would seek to continue dialogue on these issues.


    Question. Do you believe that toxic rhetoric against Mexicans, 
Mexican Americans, and Central Americans is helpful in helping address 
these challenges?

    Answer. Our ties to both Mexico and Central America are grounded in 
our long, shared history. Our commitment to working together to achieve 
mutual goals of prosperity, security, and democracy is steadfast. If 
confirmed, I would seek to communicate with our Mexican neighbors in a 
fashion consistent with that tradition of cooperation and friendship.


    Question. What is your assessment of corruption in the federal and 
state governments of Mexico?

    Answer. Corruption is a universal challenge and I understand that 
the Mexican government is committed to fighting corruption and 
fostering good governance at the federal and state levels. I understand 
that Mexico has undertaken an historic transition to an oral accusatory 
justice system that will provide greater transparency, accountability, 
and efficiency in the administration of justice. If confirmed, I will 
be committed to working with the Mexican government to support efforts 
to fight corruption and enhance the rule of law.


    Question. What is your assessment of corruption in the main 
political parties in Mexico?

    Answer. I understand that Mexican voters have repeatedly cited 
corruption as a major concern and that President Lopez Obrador ran for 
office on an anti-corruption platform and stated he will not tolerate 
it in his administration. If confirmed, I will support Mexico's efforts 
to fight corruption in every context.


    Question. What steps will you take to support efforts by the 
government of Mexico to combat corruption?

    Answer. I have dedicated my career to the rule of law. I understand 
that the United States has supported Mexico's transition to an oral 
accusatory system that will provide greater transparency, 
accountability, and efficiency in the administration of justice. If 
confirmed, I will support this and other good governance and anti-
corruption efforts in Mexico.


    Question. In a poll last year by the Pew Research Center, an 
overwhelming majority of respondents in Mexico--78 percent, in fact--
said they had no confidence at all that President Trump would do the 
right thing when it came to global affairs. Negative views like this 
only increase the political cost for Mexican officials to work closely 
with the United States on a wide range of policy officials.

   How do you plan to address this confidence gap and how will you 
        convince Mexican officials to cooperate with their U.S. 
        counterparts when they don't trust our President?

    Answer. Mexico is one of the United States' closest and most valued 
partners. Our two countries share unbreakable bonds of geography, 
history, culture, economy, and family. If confirmed, my job will be to 
highlight these transcendent bonds, and to find common ground to 
address our shared challenges. I would use all the public diplomacy and 
outreach tools at my disposal to ensure that the Mexican people and 
government understand our positions and interest in fostering an even 
closer and mutually beneficial relationship.


    Question. How can they trust you, when you are his representative?

    Answer. If confirmed, I will devote myself to building personal 
relationships across Mexican society and communicating my deep respect 
for Mexico's history, culture, and people.


    Question. There are currently more than 37,000 missing or 
disappeared people in Mexico. In 2014, this issue shocked the 
conscience of Mexico and the world, when we heard of 43 students who 
disappeared in Iguala, a case that is symptomatic of a much larger 
issue. Additionally, the Committee to Protect Journalists reported the 
murder of a fifth Mexican journalist last week and has documented how 
Mexican journalists feel vulnerable as a result of President Obrador's 
anti-press comments.

   What is your assessment of the more than 37,000 Mexican citizens 
        that are missing or disappeared?

    Answer. The issue of the missing and disappeared people is a major 
human rights challenge for Mexico. I understand that President Lopez 
Obrador has pledged that his administration will increase efforts to 
search for such people and also to identify the remains of the deceased 
in the possession of authorities. If confirmed, I will explore 
opportunities to support the Mexican government's efforts to address 
this challenge.


    Question. If confirmed, do you commit to raising concerns about the 
number of journalists who have been victims of violence?

    Answer. Yes. A free press is essential for any democracy. If 
confirmed, I commit to exploring ways that the United States can assist 
Mexican efforts to protect journalists.
    Question. If confirmed, what steps will you take to provide support 
in the resolution of the case of the 43 missing students?

    Answer. I understand that both the Inter-American Commission on 
Human Rights and the Office of the U.N. High Commissioner for Human 
Rights have reached agreements to assist the Mexican government's 
investigation of the Iguala case. If confirmed, I would look to 
continue ongoing U.S. assistance to Mexico's law enforcement and 
justice sectors to enhance the capability of Mexican authorities to 
investigate and prosecute cases such as the disappearance of the 43 
students.
    Violence in Mexico is a serious challenge, and violence against 
women is a particularly alarming problem. In 2018, 3,580 women and 
girls were killed in Mexico, three times as many as were killed in 
2007, according to Mexican government statistics. During the same 
period, 14,558 women were raped, a figure that has risen steadily from 
12,638 in 2014. In several prominent cases, Mexican authorities have 
investigated killings of women first as suicides, a practice that 
places blame on the victim and absolves their killers of responsibility 
long before the facts of the case have even been determined. Mexican 
women's rights groups say authorities meet violence against women with 
indifference and impunity, and even the Lopez Obrador administration 
admitted in March that it had failed to do enough to protect women and 
girls.


    Question. What is your assessment of violence against women in 
Mexico?

    Answer. Violence against women is an abhorrent crime which 
unfortunately, occurs in all corners of the world, including Mexico. It 
is an issue that deeply concerns me. I understand that President Lopez 
Obrador has made the promotion of human rights and the elimination of 
corruption and impunity a priority for his administration. I further 
understand that the U.S. supports Mexican law enforcement with training 
assistance to be able to better detect, investigate, and prosecute 
crimes, including violence against women. If confirmed, I will look 
forward to fostering this close cooperation.


    Question. What steps will you personally take to address the 
challenge of violence against women in Mexico?

    Answer. If confirmed, I will work closely with our Mexican 
partners, including government, civil society, and others, to combat 
violence against women and other human rights abuses. I will continue 
Mission Mexico's work to support Mexico's justice sector and other 
organizations by offering training assistance, engaging in public 
messaging efforts, and supporting initiatives to help ensure 
perpetrators of these crimes face justice before the law and victims 
are able to obtain the services they need.
    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. As a lawyer, I have devoted my career to promoting the rule 
of law and the civil resolution of disputes. I have handled cases 
seeking to promote judicial independence, see Beer v. United States, 
696 F.3d 1174 (Fed. Cir. 2012) (en banc), and the First Amendment, see 
Boehner v. McDermott, 484 F.3d 573 (D.C. Cir. 2007) (en banc). I have 
also handled pro bono cases seeking to protect individuals from 
arbitrary or unlawful government action. See e.g.,Maslenjak v. United 
States, 137 S. Ct. 1975 (2017); Perry v. Merit Systems Protection 
Board, 137 S. Ct. 1975 (2017). I revere the U.S. Constitution, and if 
confirmed all my actions as an officer of the United States will be 
animated by fidelity to that document.


    Question. What has been the impact of your actions?

    Answer. As a lawyer in private practice, my actions have had the 
impact of civilly resolving disputes over my clients' rights and 
advancing their interests. If confirmed, I will seek to advance the 
interests of the United States, including our interest in promoting 
democracy and the rule of law in cooperation with our Mexican partners.


    Question. What issues are the most pressing challenges to democracy 
or democratic development in Mexico? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. I believe that institutionalization of the rule of law and 
addressing corruption are two of the most important challenges facing 
Mexico. The continued transition to a fair, prompt, effective and 
transparent justice system is essential to promote public confidence in 
Mexican institutions and to protect and promote human rights. In 
addition, the day-to-day safety and security of many Mexicans is 
threatened by criminal violence perpetrated by powerful transnational 
criminal organizations.


    Question. What steps will you take--if confirmed--to support 
democracy in Mexico? What do you hope to accomplish through these 
actions?

    Answer. As an initial matter, I believe that it is important to 
underscore how far Mexico has advanced in this regard over the past 
generation. For most of my life, Mexico was a one-party state. That 
began to change in the 1980s and 1990s, and the change really took hold 
in 2000. During this period, Mexico has made tremendous strides to 
establish a competitive multi-party democracy, as underscored by the 
fact that political power has shifted between different parties at both 
the federal and state levels. Of course, ongoing challenges remain, 
including finalizing the transformation of the justice system and 
addressing impunity and corruption. If confirmed, I will work closely 
with U.S. and Mexican government officials and different elements of 
civil society to support the consolidation of democracy and rule of 
law.


    Question. What are the potential impediments to addressing the 
specific obstacles you have identified?

    Answer. Mexico's historic efforts to strengthen democracy and the 
rule of law face impediments ranging from criminal violence to 
corruption to economic and social inequality.


    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. I understand that the Department of State and USAID support 
democracy and governance programs in Mexico at the federal and state 
levels. If confirmed, I would explore available assistance resources 
and programs to continue to support Mexico's efforts to counter 
impunity, protect human rights, promote transparency, and prevent crime 
and violence, including near the U.S.-Mexico border. I will prioritize 
efforts that have a direct and lasting impact on our shared security.


    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Mexico?

    Answer. Yes. If confirmed, I commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Mexico.


    Question. What steps will you take to proactively address efforts 
to restrict or penalize NGOs and civil society via legal or regulatory 
measures?

    Answer. If confirmed, I would certainly want to hear from civil 
society and NGOs any concerns they may have about any legal or 
regulatory measures that they believe might restrict or penalize their 
efforts.


    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties?

    Answer. Yes. If confirmed, I commit to meet with democratically 
oriented political opposition figures and parties, understanding that 
such meetings do not entail endorsement, but merely underscore our 
support for meaningful political competition in a flourishing civil 
society.


    Question. What steps will you take to encourage genuine political 
competition? Will you advocate for access and inclusivity for women, 
minorities and youth within political parties?

    Answer. If confirmed, I will meet with democratically oriented 
political opposition figures and parties, listen to their concerns, and 
if appropriate raise those concerns with government officials. I will 
also use these interactions, as well as exchange programs funded by the 
USG, to advocate access and inclusivity for women, minorities, and 
youth within political parties.


    Question. Will you advocate for access and inclusivity for women, 
minorities and youth within political parties?

    Answer. Yes. If confirmed, I will advocate for access and 
inclusivity for women, minorities and youth within political parties.


    Question. Will you and your embassy team actively engage with 
Mexico on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures?

    Answer. Yes. If confirmed, the embassy team and I will actively 
engage with Mexico on freedom of the press and address any government 
efforts designed to control or undermine press freedom through legal, 
regulatory, or other measures.


    Question. Will you commit to meeting regularly with independent, 
local press in Mexico?

    Answer. Yes. If confirmed, I will commit to meeting regularly with 
independent, local press in Mexico.


    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes. If confirmed, I will work with my embassy team and I 
will actively engage with civil society and government counterparts on 
countering disinformation and propaganda disseminated by foreign state 
or non-state actors in Mexico.


    Question. Will you and your embassy teams actively engage with 
Mexico on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes. If confirmed, the embassy team and I will actively 
engage with Mexico on the right of labor groups to organize, including 
the right for independent trade unions to organize.


    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Mexico, no matter 
their sexual orientation or gender identity?

    Answer. Yes. If confirmed, I commit to using my position to defend 
the human rights and dignity of all people in Mexico, regardless of 
their sexual orientation or gender identity.


    Question. What challenges do the lesbian, gay, bisexual, 
transgender and queer (LGBTQ) people face in Mexico?

    Answer. I understand that LGBTQ people face challenges in Mexico, 
just as in other parts of the world, including discrimination and 
violence.


    Question. What specifically will you commit to do to help LGBTQ 
people in Mexico?

    Answer. If confirmed, I commit to continuing the Mission's outreach 
to and engagement with LGTBQ organizations, to listening to their 
concerns, and if appropriate raising those concerns with government 
officials.


    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government?

    Answer. Yes, I agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government. I believe 
that this is important for government decision makers to be presented 
with an array of different policy views and perspectives, and if 
confirmed I would seek to encourage rather than stifle the presentation 
of such views.


    Question. If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. If confirmed, I will ensure that prohibited personnel 
practices, including retaliation and blacklisting, will not be 
tolerated. As a leader, I will demonstrate by example that I believe 
that the presentation of different policy views and perspectives should 
be encouraged, not stifled.May 21, 2019


    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements?

    Answer. No.


    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial ethnic, religious, etc.) or 
inappropriate conduct made against any employee over whom you had 
supervisory authority?

    Answer. No.


    Question. If so, please describe the outcome and actions taken.

    Answer. Given my response to the previous question, this is not 
applicable.

 follow-up question submitted to christopher landau by senator robert 
                                menendez

    Question. I posed this question previously, and would ask that you 
re-answer the following question.

        The President's repeated and public criticism of Mexico and the 
        Mexican people continue to raise the political cost for Mexican 
        authorities that cooperate with the United States on issues 
        including securing our border, addressing unauthorized 
        migration or challenges related to narcotics trafficking, which 
        are contributing to the heroin and fentanyl epidemic plaguing 
        our country:

   As our principal diplomat for the Americas, do you intend to 
        formulate a strategy to make Mexico pay for a border wall 
        between our countries?

    Answer. If confirmed as Ambassador to Mexico, I will work to 
strengthen cooperation between our two countries on a broad range of 
political, security, migration, and economic issues involving our 
common border. Like the President, I am committed to improving border 
security, which is essential for the safety of our people. I believe 
that a secure and efficient border is in the interest of both 
countries, as it would facilitate legitimate trade and travel, while 
preventing the movement of illicit goods and travelers. I further 
believe that improved border infrastructure, to include walls, is a 
critical piece of strengthening control of the border, and defer to the 
President and Congress on funding decisions.



                               __________


            Responses to Additional Questions for the Record
     Submitted to Christopher Landau by Senator Benjamin L. Cardin

    Question.  Mexican journalists, civil society leaders, and human 
rights defenders face higher risks than in almost any country in the 
world. A tragic number have been killed. Your predecessors worked hard 
to engage with civil society groups across the political spectrum. They 
also used the Embassy's powerful public platform to highlight human 
rights defenders who were at risk.

   If confirmed, how would you engage with civil society 
        organizations?

    Answer. An active, engaged civil society is a vital part of a 
vibrant democracy. If confirmed, I would follow in my predecessors' 
steps by maintaining regular dialogue with civil society organizations, 
including journalists and human rights defenders, and look for ways to 
provide appropriate assistance, support, and training.


    Question. Do you commit to using the prominent, public nature of 
your position to help protect those at risk?

    Answer. Yes. If confirmed, I commit to using the prominent public 
nature of my position to help protect those at risk.


    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. As a lawyer, I have devoted my career to promoting the rule 
of law and the civil resolution of disputes. I have handled cases 
seeking to promote judicial independence, see Beer v. United States, 
696 F.3d 1174 (Fed. Cir. 2012) (en banc), and the First Amendment, see 
Boehner v. McDermott, 484 F.3d 573 (D.C. Cir 2007) (en banc). I have 
also handled pro bono cases seeking to protect individuals from 
arbitrary or unlawful government action. See e.g., Maslenjak v. United 
States, 137 S. Ct. 1975 (2017); Perry v. Merit Systems Protection 
Board, 137 S. Ct. 1975 (2017). I revere the U.S. Constitution, and if 
confirmed all my actions will be animated by fidelity to that document.
    As a lawyer in private practice, my actions have had the impact of 
civilly resolving disputes over my clients' rights and advancing their 
interests. If confirmed, I will seek to advance the interests of the 
United States, including our interest in promoting democracy and the 
rule of law in cooperation with our Mexican partners.


    Question. What are the most pressing human rights issues in Mexico? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Mexico? What do you hope to 
accomplish through these actions?

    Answer. I understand that the most pressing human rights issues in 
Mexico include unlawful or arbitrary killing, forced disappearances, 
torture, arbitrary detention, impunity, and violence directed against 
journalists. I believe that the most important steps we can take are to 
continue to support ongoing Mexican efforts to strengthen the justice 
sector to promote accountability for violators of human rights. 
Enhancing the capability and independence of the police, prosecutors, 
and the courts is essential to strengthen the rule of law and address 
impunity. The national search commission holds promise to address the 
problem of forced disappearances. I believe that my background and 
experience as a lawyer will enhance my ability to make a positive 
impact in these areas.


    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Mexico in advancing 
human rights, civil society and democracy in general?

    Answer. I understand that Mexico is continuing to carry out an 
historic transformation of its justice system as it completes the 
transition from an inquisitorial to an accusatorial system and 
establishes a new Prosecutor General designed to have higher 
professional standards and greater independence. In addition, I 
understand that Mexico has also passed major legislation addressing 
torture and disappearances over the last two years. These changes will 
take years to fully implement, and at the same time Mexico faces 
historic levels of criminal violence, largely driven by transnational 
criminal organizations. In light of these challenges, I believe our 
continuing support for Mexican efforts is critical.


    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Mexico? If confirmed, what steps will you 
take to proactively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes. If confirmed, I pledge to meet with human rights 
groups, civil society and other non-governmental organizations in the 
United States and Mexico. In fact, if confirmed, I plan to begin 
meetings with U.S.-based human rights organizations even before I 
arrive in Mexico. If confirmed, I also pledge to fully support the 
Leahy Law to ensure that any potential Mexican recipient of U.S. 
security assistance is thoroughly vetted. Also in this regard, if 
confirmed, I will explore ways in which we can continue to make human 
rights training a part of our broader security assistance efforts.


    Question. Will you and your embassy team actively engage with 
Mexico to address cases of key political prisoners or persons otherwise 
unjustly targeted by Mexico?

    Answer. While I am not aware of any credible reports of political 
prisoners or detainees in Mexico, if confirmed, I will ensure the 
Embassy takes all appropriate steps to address any such cases. In 
addition, if I am confirmed, the protection and well-being of 
incarcerated U.S. citizens will be a top priority.


    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns through appropriate 
channels.


    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns through appropriate 
channels.


    Question. Do you or do any members of your immediate family have 
any financial interests in Mexico?

    Answer. My investment portfolio includes diversified exchange-
traded funds and diversified mutual funds, which may hold interests in 
companies with a presence in Mexico, but which are exempt from the 
conflict of interest laws. My investment portfolio also includes sector 
funds, which may hold interests in companies with a presence in Mexico, 
as well as financial interests in companies that maintain a presence in 
Mexico. I am committed to ensuring that my official actions will not 
give rise to a conflict of interest. I will divest all investments the 
State Department Ethics Office deems necessary to avoid a conflict of 
interest, and I will remain vigilant with regard to my ethics 
obligations.


    Question. You will be managing one of our largest missions with 
more than 2,500 staff spread across the Embassy and consulates in ten 
cities. You will be responsible for large numbers of American families 
and the many Mexican locally engaged staff the Mission depends on to 
function.

   Can you tell me about your management experience and how you plan 
        to lead such a large, diverse, and geographically scattered 
        team?

    Answer. I have been a partner at two of the largest law firms in 
the world for almost 25 years. In that role, I have led innumerable 
teams of lawyers on cases, sometimes multiple lawyers at different 
firms in a single case. I understand the importance of effective 
leadership, especially in the context of a large and sprawling Mission 
like Mexico: setting clear priorities, ensuring all members of the team 
know how they contribute to the success of the mission, and 
establishing clear channels for communication. If confirmed, I look 
forward to working with the country team to ensure the success of 
Mission Mexico.
    Having grown up in a Foreign Service family, I am familiar with the 
operation of an embassy, and the importance of keeping up the morale of 
all the various team components, including employees of different 
federal agencies, foreign national employees, and employees at the 
various consulates throughout the country.


    Question. What steps would you take to ensure the continued 
motivation and morale of the Mission's hundreds of Mexican staff in 
light of potentially harsh rhetoric between our countries' leaders?

    Answer. Managing the diverse workforce of Mission Mexico, to 
include both Embassy and Consulate staff, multiple U.S. government 
agencies, contractors, direct-hires, U.S. citizens and Mexican 
nationals, will be a top priority for me if confirmed as Ambassador. 
Having grown up in a Foreign Service family, and having worked 
shoulder-to-shoulder with foreign national staff during my summer 
breaks, I am keenly aware of the critical contributions of such staff 
to the embassy's mission.
    I believe maintaining a positive work environment, open 
communication, and respecting the richness that diversity brings to our 
organization and work is an important part of being a good leader. If 
confirmed, I look forward to meeting the team in Mission Mexico, 
learning from them, and working together with that talented staff to 
strengthen the vital U.S.-Mexico relationship.Research from private 
industry demonstrates that, when managed well, diversity makes business 
teams better both in terms of creativity and in terms of productivity.


    Question. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. If confirmed, I look forward to leading the diverse team at 
Mission Mexico and to tapping the unique talents of each individual to 
advance our bilateral relationship and promote U.S. foreign policy 
objectives. If confirmed, I will prioritize training and mentoring to 
ensure that all employees have the skills and support necessary for 
current and future career development.


    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will make clear that a diverse and 
inclusive work environment is a key priority.
    I understand that the State Department is fully committed to equal 
employment opportunity (EEO) and ensuring the Department's work 
environment is free from prohibited discrimination and harassment. I 
further understand this includes improving and enhancing mentorship 
programs, expanding outreach to managers who make hiring decisions, and 
encouraging collaboration with external partners. If confirmed, I will 
ensure that the Department's EEO policies in Mission Mexico are 
understood and followed, and will take advantage of the variety of 
programs the Department offers to help supervisors work with a 
multicultural staff.


    Question. Combatting corruption is important everywhere, but in few 
places more so than Mexico. Eliminating corruption ensures 
transnational criminal groups do not find safe haven in Mexico and it 
levels the playing field for U.S. companies doing business in Mexico. 
President Lopez Obrador was elected in large part due to his pledges to 
root out corruption, but thus far he has done comparatively little to 
complete the National Anti-Corruption system or implement promises his 
promises.

   How do you believe political corruption impacts democratic 
        governance and the rule of law generally, and in Mexico 
        specifically?

    Answer. Corruption is a challenge for all countries, including 
Mexico. Addressing corruption, promoting transparency and abiding by 
the rule of law are essential to good governance in any country. If 
confirmed, I commit to working with the Mexican government to support 
efforts in these areas.


    Question. What is your assessment of corruption trends in Mexico 
and efforts to address and reduce it by that government?

    Answer. Corruption is a challenge for all countries, and I 
understand that the Mexican government is working to fight impunity and 
corruption and promote good governance at the federal and state levels. 
I understand that Mexico is in the midst of an historic transition to 
an open, accusatorial system of justice, and that successful 
implementation of this effort will require substantial dedication and 
perseverance. I also understand that President Lopez Obrador ran for 
office on an anti-corruption platform, stated that he will not tolerate 
it in his administration, and recently appointed the first independent 
prosecutor general for Mexico. If confirmed, I will support these and 
other efforts to help Mexico fight corruption.


    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Mexico?

    Answer. I have dedicated my career to promoting the rule of law. If 
confirmed, I will support good governance and anti-corruption efforts 
in Mexico. I will continue to work with our partners in Mexico to 
strengthen an independent judiciary and will be ready to support 
Mexico's efforts as appropriate with my own professional experience and 
contacts throughout various branches of the U.S. federal and state 
governments.


    Question. We have worked closely with Mexico to confront shared 
security challenges. Through the Merida Initiative, a bilateral 
security and rule of law partnership, Congress has provided Mexico 
approximately $3.0 billion since 2008. President Lopez Obrador has been 
highly critical of Merida and has called for a different approach.

   How do you view the overall security situation in Mexico?

    Answer. I understand that Mexico continues to confront the threat 
posed by transnational criminal organizations. I further understand the 
United States and Mexico are committed to work together to address our 
shared security challenges, including confronting transnational 
criminal organizations, human smuggling and trafficking, the 
trafficking of illicit drugs, and illegal migration. If confirmed, I 
will work with our Mexican counterparts to advance these shared 
priorities.


    Question. What are your views on the Merida Initiative?

    Answer. I believe that the Merida Initiative established a vital 
framework for ongoing cooperation and dialogue between U.S. and Mexican 
officials on security matters of mutual concern. As with any such 
initiative, I believe that it is important from time to time to review 
whether specific programs are effective and worthwhile. If confirmed, I 
look forward to engaging in such a review with appropriate U.S. and 
Mexican officials.


    Question. How can we best partner with Mexico on shared security 
issues of concern?

    Answer. I believe that we can best partner with Mexico on shared 
security issues of concern by identifying such issues and working 
closely together to develop a strategy that yields mutually beneficial 
results.


    Question. Are adjustments needed in our security partnership?

    Answer. I believe adjustments are a fact of life in any 
partnership. The Merida Initiative has evolved over the years, and I 
will look for opportunities with Mexico to make additional adjustments 
where necessary and appropriate to reflect changes in conditions and 
priorities.


    Question. Over-militarizing law enforcement creates human rights 
concerns and is limited in its effectiveness. President Lopez Obrador 
pledged to demilitarize policing during the campaign, but he now 
appears to be backtracking on this pledge.

W   hat role do you believe the Mexican military should have in 
        internal security and law enforcement?

    Answer. I share the concern about over-militarization of law 
enforcement. By the same token, I recognize that transnational criminal 
organizations pose a substantial security threat to both the United 
States and Mexico, and that, to date, civilian police forces in Mexico 
have not been able to adequately meet this threat. If confirmed, I look 
forward to discussions with officials in both Mexico and the United 
States, including you and other interested Members of Congress, 
regarding this important issue.


    Question. How do you plan to engage the Mexican government on this 
issue?

    Answer. If confirmed, I will prioritize discussing ways in which 
the United States and Mexico can best align our law enforcement and 
security cooperation efforts, within the framework of how the Mexican 
government, through its democratic processes, chooses to organize its 
public security forces. I will, of course, always work to support 
Mexican efforts to advance human rights and promote democratic 
governance, and look forward to discussing the role of the military in 
internal security and law enforcement activities in this context.


    Question. One of the strengths of NAFTA was its incorporation of 
labor standards. These are critical as they both ensure protections for 
Mexican workers and a level playing field for American businesses.

   What is your assessment of the labor provisions in the USMCA?

    Answer. I understand that the USMCA includes a fully revised labor 
chapter with the strongest, most advanced, and most comprehensive set 
of enforceable labor obligations of any U.S. trade agreement, as well 
as a special annex on worker representation in collective bargaining in 
Mexico. On May 1, 2019, the government of Mexico--consistent with its 
2017 Constitutional reforms and in adherence with its USMCA 
commitments--approved groundbreaking reforms that will overhaul the 
country's system of labor justice and provide for the effective 
recognition of the right to bargain collectively.


    Question. In your view, were Mexico's most recent labor reforms 
sufficient?

    Answer. I understand the Mexican labor legislation is fully 
consistent with the obligations Mexico undertook in the USMCA. I 
believe that these reforms will promote better working conditions and 
higher wages for Mexican workers, and create the conditions for fairer 
competition between U.S. workers and their Mexican counterparts.


    Question. If confirmed, how would you help to ensure Mexican 
compliance with the provisions of the USMCA if the agreement is 
ratified?

    Answer. If confirmed, I look forward to facilitating U.S. 
government efforts to ensure Mexico's compliance and to working closely 
with the Mexican government as it implements these important reforms.


    Question. In December 2018, the Trump administration announced a 
new policy, the Migration Protection Protocols, to require asylum 
seekers who arrive at our southern border to wait in Mexico while 
United States immigration courts process their cases. Under the 
``Remain in Mexico'' plan, asylum seekers could remain in limbo for a 
year or more in a country that has offered few details on how it will 
ensure immigrants adequate protections.
    As documented by the American Immigration Council, the American 
Immigration Lawyers Association, and Catholic Legal Immigration Network 
in a February 2019 letter to then-Department of Homeland Security 
Secretary Nielsen, there is substantial evidence that Mexican border 
towns are ``not safe places for asylum seekers'' and that the Migration 
Protection Protocols will cause serious harm to those affected by its 
implementation.

   So long as the ``Remain in Mexico'' plan is in place, what specific 
        steps will you take to work with the Mexican government and 
        ensure that asylum seekers are provided protection, as well as 
        the opportunity to obtain a job, adequate housing, and other 
        services?

    Answer. I understand that the State Department maintains an ongoing 
dialogue and close cooperation with Mexico on a wide range of issues, 
including border security efforts, immigration, and humanitarian 
assistance.
    I also understand that the Department is working with the 
government of Mexico to provide opportunities within Mexico, including 
working through multilateral partners such as the U.N. High 
Commissioner for Refugees to bolster Mexico's Refugee Commission, so 
that persons in need of international protection can find safety 
without continuing the journey to the U.S. southern border. If 
confirmed, I intend to engage the government of Mexico and our 
international partners on these important efforts.



                               __________


      Responses to Additional Questions for the Record Submitted 
          to Jennifer D. Nordquist by Senator Robert Menendez

Economic Statecraft
    Question.  As I mentioned during the hearing, I am increasingly 
concerned that the United States is not well positioned to engage in 
economic statecraft for the twenty-first century, including promoting 
U.S. jobs, business and economic interests, engaging in development 
financing for infrastructure and other needs, including climate change-
related resiliency, and setting standards for emergent technologies and 
the digital economy.

   Can you expand upon how you view your role and your institutions 
        role, if you are confirmed, in helping to renew and replenish 
        U.S. economic statecraft instruments?

    Answer. As the largest shareholder at all of the World Bank Group 
institutions, the United States is well-placed to use its voice and 
vote to ensure that our long-term economic and security interests are 
at the forefront of the Bank's mission. The World Bank is already one 
of the most important sources of financial assistance and policy advice 
to many of our strategic partners in the developing world and plays a 
vital role in helping to address many of the biggest economic and 
development challenges we face, from creating jobs for youth, to 
building quality infrastructure to help expand markets, investing in 
health and education, and tackling fragility, conflict, and violence. 
If confirmed, I look forward to ensuring that the World Bank remains a 
leader in advancing progress on these issues. To be effective, it is 
paramount that the Bank adhere to the Environmental and Social 
Framework, and the many U.S. legislative requirements passed by 
Congress, to ensure only high-quality projects are approved.

    Question.  Where do you see the biggest challenges? Biggest 
opportunities?

    Answer. It is critical to address the increasing debt burdens among 
many middle and low-income countries, which stem in part from the 
opening of many new sources of finance to these countries, including 
from non-traditional official creditors. Many non-traditional lenders, 
specifically China, do not appear to have the same goals as the Bank, 
or the United States for that matter, because they do not adhere to a 
rule-based system in any international fora. They underwrite 
infrastructure initiatives that push developing countries into 
unsustainable debt and dependence. Many of these projects are of poor 
quality, with low environmental and social standards, and may indeed be 
harmful to the countries receiving the loan or grant. As I mentioned at 
the hearing, research published in the Journal of Public Economics last 
year found that African countries taking these loans suffered from 
increased corruption and had zero impact on local economic activity. 
The opportunity is to show developing nations that the World Bank, with 
a higher set of standards, has a track record of delivering positive 
development results with its projects and that the Bank should be among 
the first place these countries approach for development finance and 
knowledge, not China.

Administrative
    Question.  Do you agree that any targeting of or retaliation 
against career employees based on their perceived political beliefs, 
prior work on policy, or affiliation with a previous administration, is 
wholly inappropriate and has no place in the federal government? If 
confirmed, what will you do to ensure that all employees under your 
leadership understand that any retaliation, blacklisting, or other 
prohibited personnel practices will not be tolerated?

    Answer. Yes, I agree. I have worked with a great many civil 
servants and have the highest respect for them. In fact my husband is a 
civil servant. I pledge to protect all civil servants under me from any 
of the prohibited practices above, should you confirm me. I was also 
proud to gain the trust of my colleagues as noted in a letter in 
support of my nomination which was signed by 38 bipartisan policymakers 
and scholars, stating that I am ``respectful of diverse viewpoints, and 
accepting of what evidence-based research shows without political 
bias.''

    Question.  Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. In my current role, I discovered an anomaly on our books: 
an employee had taken funds in a questionable way immediately prior to 
my start date. Because this was highly unusual, I reported it to the 
Office of Administration counsel who confronted the employee and began 
an investigation. The employee then retaliated against me by lodging an 
informal complaint of discrimination which was then investigated by the 
EEO staff as well as our ethics officer, who informed me that he did 
not find evidence of wrongdoing on my part, and the complainant was 
uncooperative with his investigation. She then withdrew her EEO 
complaint, with prejudice, as part of an agreement terminating her 
employment.

    Question.  Have you ever addressed concerns or allegations of 
sexual harassment, discrimination (e.g., racial, ethnic, religious, 
etc.), or inappropriate conduct made against any employee over whom you 
had supervisory authority? If so, please describe the outcome and 
actions taken.

    Answer. In my current role, some female interns complained of a 
toxic work environment created by some male interns. Our general 
counsel and I interviewed the entire intern class to get to the bottom 
of it. Our investigation concluded that three of our male interns 
behaved inappropriately, and we removed them from workplace immediately 
and relieved them of their positions. I also talked to the female 
interns afterwards to counsel them and further conferred with multiple 
female members of our staff to determine measures to prevent this from 
ever happening again; those measures were implemented immediately.



                               __________


      Responses to Additional Questions for the Record Submitted 
         to Jennifer D. Nordquist by Senator Benjamin L. Cardin

Human Rights and Corruption
    Question.  What are the most important actions you have taken in 
your career to date to promote human rights, good governance, and 
democracy? What has been the impact of your actions?

    Answer. To date, I have mainly worked in the macroeconomic space, 
focusing on academic research within the U.S. government and at the 
Brookings Institution. However, in prior government service, I worked 
to ensure good governance in the aftermath of Hurricane Katrina, 
working with state and local authorities to put systems in place to 
help rebuild the Gulf Coast and help get those devastated by the storm 
back on their feet. In addition, while living in Thailand, I did pro-
bono work on AIDS education and prevention, doing outreach to sex 
workers about using protection. From my time living within an emerging 
market and my background in economic research, I understand how 
critical it is for countries to establish good governance and improve 
public service delivery in order to reduce poverty and spur long-term 
economic growth.

    Question.  How can the World Bank help to promote good governance 
and safeguard human rights?

    Answer. Multilateral institutions like the World Bank Group (WBG) 
can help developing countries understand the importance of good 
governance, rule of law, and human rights for poverty reduction, job 
creation, and economic growth. governments should protect everyone 
regardless of their race, creed, color, religion, or sexual 
orientation. The most successful countries in the world have good 
governance and protect human rights, while fragility, conflict, and 
violence are inextricably linked to poor governance and abuse of human 
rights. The WBG has technical expertise, combined with funds, to help 
countries advance prosperity for the poorest, especially targeting the 
least advantaged in these countries.

    Question.  If confirmed, how would you use this position to advance 
human rights and good governance?

    Answer. If confirmed, I will use my role as the U.S. representative 
to the WBG to advance these goals, uphold standards that promote 
transparency and protect human rights, and use the voice and vote of 
the United States to oppose assistance to governments identified as 
gross violators of human rights or not taking sufficient steps to 
combat trafficking in persons, among others.

World Bank Capitalization
    Question.  On October 12, 2018, World Bank members, including the 
United States, approved a $60.1 billion capital increase for the IBRD, 
which would raise its capital from $268.9 billion to $329 billion. 
While the Trump administration supports a U.S. contribution to the 
capital increase, Congress must ultimately approve the use of U.S. 
funds.

   What are the benefits of increasing the IBRD's capital?

    Answer. The capital increase package negotiated by the U.S. 
Treasury institutes significant reforms at the International Bank for 
Reconstruction and Development (IBRD) in exchange for taxpayer funding 
of $1.2 billion as our share of the increase over six years. If 
Congress approves U.S. participation in the increase, it will be my job 
to ensure that World Bank Management implements the reforms, should you 
confirm me. The much-needed reforms that are part of the capital 
increase package include: a financial sustainability framework that 
prevents the IBRD from over lending; differentiated loan prices that 
require better-off borrowers to pay more; increasing the proportion of 
annual lending to the poorest IBRD borrowers; making sure the Bank 
takes a stronger position on graduating countries that do not need IBRD 
funds; and constraining overhead costs at the Bank itself, especially 
by restraining salary growth. The additional funding from shareholders 
will allow the Bank to maintain its recent levels of support to 
developing countries in real terms without jeopardizing its triple-A 
credit rating, while doing more to focus that support on countries 
without access to other sources of development finance. The Bank needs 
to be transparent, accountable and focused on sound, sustainable 
projects that are economically robust and use evidence-based research 
to ensure results meet the mission of eliminating extreme poverty.

    Question.  What repercussions would we see if the U.S. does not 
contribute towards the capital increase?

    Answer. Our voting share at the IBRD will be diluted, which makes 
our voice and vote harder to hear and will make us less effective. 
Furthermore, it will allow other shareholders such as China to have a 
larger role, which is not in our national security nor economic 
interests. The United States was a founding member of the Bretton Woods 
system that created the World Bank and IMF. We should not cede our 
leadership role. Further, the IBRD will have fewer resources to provide 
to it its borrowers. For FY18, the Middle East and North Africa region 
was the largest recipient of IBRD funds, which provide stability and 
support U.S. priorities in the region, including through education 
reforms, increasing youth and women's employment, and establishing more 
stable, inclusive macroeconomic frameworks.

Diversity
    Question.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups at 
the IBRD?

    Answer. I have lived and worked in culturally, religiously, and 
ideologically diverse environments in Asia, Europe, and the United 
States and hope to bring that background with me to the Bank, should 
you confirm me. In particular, I have worked to mentor younger women my 
entire career, especially at Brookings as a founding member of the 
Women's Mentoring Network. I have counseled countless women elsewhere 
in my career as well, including in my current job, encouraging younger 
women to stay in economic policy, given the dearth of female and 
minority economists in the United States. Staff diversity in any 
organization is important, and more so in a multilateral, multicultural 
institution.

    Question.  What steps will you take to ensure each of the 
supervisors at the IBRD are fostering an environment that is diverse 
and inclusive?

    Answer. Should you confirm me, I would like to see what systems 
IBRD already has in place to foster diversity and inclusion. I would 
then take that framework and discuss it with staff, particularly those 
involved in hiring decisions.

Conflicts of Interest
    Question.  Do you commit to bring to the committee's attention any 
change in policy or U.S. actions that you suspect may be influenced by 
any of the President's business or financial interests, or the business 
or financial interests of any senior White House staff?

    Answer. Yes

    Question.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. Yes

    Question.  Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. Other than stock ownership in some international companies, 
any of which will be divested subject to agreement with OGE, I do not 
have any interest of which I am aware.



                               __________


            Responses to Additional Questions for the Record
         Submitted to Eliot Pedrosa by Senator Robert Menendez.

Economic Statecraft
    Question. As I mentioned during the hearing, I am increasingly 
concerned that the United States is not well positioned to engage in 
economic statecraft for the twenty-first century, including promoting 
U.S. jobs, business and economic interests, engaging in development 
financing for infrastructure and other needs, including climate change-
related resiliency, and setting standards for emergent technologies and 
the digital economy.

   Can you expand upon how you view your role and your institutions 
        role, if you are confirmed, in helping to renew and replenish 
        U.S. economic statecraft instruments?

    Answer. If confirmed, I will work to leverage the United States' 
leadership position as the largest shareholder of the IDB to promote 
U.S. interests and its profile in the region. By promoting partnerships 
between the IDB Group and the newly-created Development Finance 
Corporation (DFC), the U.S. can magnify its impact throughout the 
region. In my current role as Alternate Executive Director, I have 
worked closely with my colleagues at OPIC to enhance cooperation and 
deal sharing between OPIC and the IDB Group, and if confirmed as 
Executive Director, I will continue to work with the DFC to expand and 
deepen this cooperation.

    Question.  Where do you see the biggest challenges? Biggest 
opportunities?

    Answer. A significant challenge and opportunity will be working to 
rebuild economies encumbered by unsustainable debt levels, often 
because of non-market predatory lending by China. The crushing debt 
burdens faced by countries like Venezuela, Ecuador and Argentina serve 
as a potent warning to others in the region. The United States, working 
with responsible partners in the G7 and the IFIs, should use this 
opportunity to assist regional developing countries to improve the 
institutional capacity of their ministries, demand transparency from 
their lenders, and adopt responsible policies that channel borrowing 
towards investment rather than consumption.

Administrative
    Question.  Do you agree that any targeting of or retaliation 
against career employees based on their perceived political beliefs, 
prior work on policy, or affiliation with a previous administration, is 
wholly inappropriate and has no place in the federal government? If 
confirmed, what will you do to ensure that all employees under your 
leadership understand that any retaliation, blacklisting, or other 
prohibited personnel practices will not be tolerated?

    Answer. I agree and if confirmed will work to ensure that all 
employees under my leadership are fully and properly trained in all 
applicable policies and legal and ethical rules and that they abide by 
their letter and spirit scrupulously.

    Question.  Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No allegations or complaints have been made against me.

    Question.  Have you ever addressed concerns or allegations of 
sexual harassment, discrimination (e.g., racial, ethnic, religious, 
etc.), or inappropriate conduct made against any employee over whom you 
had supervisory authority? If so, please describe the outcome and 
actions taken.

    Answer. I have not received complaints or allegations of this 
nature against an employee over whom I had supervisory authority.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Eliot Pedrosa by Senator Benjamin L. Cardin

Human Rights
    Question.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As United States Alternate Director of the InterAmerican 
Development Bank, I have used my voice and vote on the IDB Board to 
promote human rights (including the rights of victims of human 
trafficking, the disabled, and religious minorities), gender equality, 
democracy, transparency and rule of law. I am particularly proud of our 
office's work to have the IDB recognize representatives of Interim 
President Guaido as the legitimate representatives of Venezuela at the 
IDB. I also continue to work to restrain IDB assistance to Nicaragua, 
given the deterioration in respect for human rights and democracy 
occurring there. Outside the boardroom, I have spoken to groups such as 
the Council of the Americas and the United States Global Leadership 
Coalition about the importance of human rights and rule of law and of 
the important role the IDB and other MDBs can play in their promotion.
    Previous to my current role, I worked on projects for the promotion 
of democracy and human rights throughout my career. As a law student, I 
had the opportunity to serve as a research assistant for the Harvard 
Institute for International Development's Central America Project, 
contributing to the publication of a book on legal reform in Central 
America. More recently, I spoke as a panelist at Harvard Law School on 
the continued failure of the Cuban government to respect democracy and 
human rights. Finally, through my service as Chairman of the Dean's 
Advisory Council of the Green School of International and Public 
Affairs at Florida International University, I provided support for the 
education and scholarship generated under the Green School's umbrella, 
such as the V clav Havel Program for Human Rights & Diplomacy.

Diversity
    Question.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups at 
the IDB?

    Answer. If confirmed as Executive Director I will continue to 
promote, mentor, and support staff who come from diverse backgrounds 
and underrepresented groups, consistent with fair management practices 
and relevant U.S. government and IDB policies.

    Question.  What steps will you take to ensure each of the 
supervisors at the IDB are fostering an environment that is diverse and 
inclusive?

    Answer. If confirmed, I will continue to use my oversight role on 
the IDB's Board of Directors to try to ensure that IDB management 
fosters an environment that is diverse and inclusive. I will also 
continue to advocate for these issues to be considered, as appropriate, 
in the implementation and execution of IDB's human resources policies.

Conflicts of Interest
    Question.  Do you commit to bring to the committee's attention any 
change in policy or U.S. actions that you suspect may be influenced by 
any of the President's business or financial interests, or the business 
or financial interests of any senior White House staff?

    Answer. If confirmed, I commit to continue to carry out my duties 
consistent with applicable conflict of interest laws and policies, and 
to reporting any potential misconduct of which I become aware to the 
appropriate authorities.

    Question.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to continue to carry out my duties 
consistent with applicable conflict of interest laws and policies, and 
to reporting any potential misconduct of which I become aware to the 
appropriate authorities.

    Question.  Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.

China in Latin America
    Question.  Latin America and the Caribbean's economic relationship 
with China is increasing quickly, with exports to China increasing by 
30 percent in 2017 according to IDB data. As China-Latin America trade 
has increased over the past several years, China has increased its 
financial contributions to various IDB financing mechanisms and China 
was chosen as the site for the 2019 IDB annual meetings.

   How can the U.S. respond to China's increasing influence in the 
        Western Hemisphere, especially in light of the U.S. decision to 
        scale back contributions to the IDB?

    Answer. The United States should leverage its leading role in the 
relevant multilateral development banks--especially the IDB--to 
coordinate multilateral efforts with the efforts of the U.S. private 
sector and U.S. bilateral financing to provide a credible alternative 
to Chinese lending to the developing nations of the Western Hemisphere. 
The United States and the IDB can also provide technical assistance and 
cooperation to improve the institutional capacities of regional 
governments so that they can better protect themselves from predatory 
lending practices.
    The economic importance of China to the region has been growing 
quickly, but its impact has not fairly benefited the region's 
developing economies. China's demand for commodities positively 
contributed to Latin America's growth over the past decade, but has 
also deepened the region's dependence on commodities exports and 
exposure to volatility. The region must have a clear vision for what it 
hopes the relationship with China will be and ensure that Chinese trade 
and investment do not undercut the incentives to improve business 
environments, governance structures, and macroeconomic policies.

BUILD Act
    Question.  As you know, The BUILD Act is part of the U.S. policy 
response to China's growing economic influence in developing countries. 
It aims to provide an alternative to China's state-directed investment 
financing model--which many U.S. policymakers view as lacking 
transparency, operating under inadequate environmental and social 
safeguards for projects, and employing questionable lending practices 
that may lead to unsustainable debt burdens in some poorer countries 
(``debt diplomacy'').

   What can you do to make multilateral development bank financing 
        more attractive to developing countries relative to bilateral 
        financing by China?

    Answer. Multilateral development banks should focus on their core 
value proposition to borrowers, which relies on lending that is 
sustainable and targets development impact in the borrowing country. By 
pairing sustainable, responsible lending with technical expertise and 
advice, the MDBs offer full-service development solutions that benefit 
the borrower, in contrast to Chinese bilateral lending, which primarily 
benefits China. MDBs should also continue to provide technical 
assistance and cooperation to improve the institutional capacities of 
regional governments so that they can better protect themselves from 
predatory lending practices. Finally, MDBs should continue to promote 
debt transparency and support their borrowers in demanding transparency 
from their bilateral lenders as well.

    Question.  What are opportunities for synergies between the new DFC 
and the IDB in collaborating on infrastructure and other projects in 
countries along China's Belt and Road Initiative?

    Answer. The synergies between the DFC and the IDB's private sector 
window, IDB Invest, are vast. The two organizations share common 
values, common safeguards for environmental, social and governance 
standards, and a common approach to development effectiveness that 
makes them natural partners and co-investors. As United States 
Alternate Executive Director at the IDB, I have been working to 
increase coordination between OPIC and the IDB Group, and if confirmed 
as Executive Director, I will continue to work with the DFC towards 
that goal.

Northern Triangle of Central America
    Question. The IDB has worked extensively in Central America's 
Northern Triangle.
   How would you gauge the effectiveness at these efforts in 
        increasing security, good governance, and prosperity to address 
        the root causes of migration?

    Answer. The IDB's work with the Northern Triangle countries--both 
as a lender and as the technical secretariat of the Alliance for 
Prosperity--has provided important support for regional initiatives 
aimed at strengthening all three countries, including for example, 
strengthening the countries' push towards a customs union and an 
integrated regional market for electricity. However, much work remains 
to be done both on citizen security, rule of law, and creating economic 
opportunity so that the citizens of the Northern Triangle countries can 
feel both a sense of personal safety and fair opportunity, which can 
lower their vulnerability to migration. If confirmed, I will continue 
to support the IDB's efforts and focus on improving the effectiveness 
of these programs.

    Question.  What more can the IDB do to address the root causes of 
migration?

    Answer. The IDB should continue to support the governments of the 
Northern Triangle countries as they push for greater regional 
integration, more transparency and enhanced rule of law. In addition, 
IDB Invest should support the private sector in these countries to help 
promote greater investment and economic development. Historically, 9 
out of 10 new jobs are created by the private sector, and the 
participation of the private sector in the Northern Triangle is 
critical to addressing the root causes of migration.

    Question.  If confirmed, how would you work to ensure the IDB 
effectively channels resources and technical assistance to the region?

    Answer. If confirmed, I will continue to work with IDB management 
and my colleagues from the other IDB members to ensure that IDB lending 
is targeted to projects whose impact can improve conditions for those 
vulnerable populations who are victimized by organized trafficking 
rings. In addition, I will continue to work to ensure that technical 
assistance resources are effectively targeted to improve security and 
rule of law in order to create an environment receptive to investment 
and economic development.

Venezuela Crisis
    Question.  What role does the IDB have in ensuring the region is 
equipped to handle the effects of the Venezuela crisis, including the 
influx of millions of fleeing Venezuelans?

    Answer. Recovery of the Venezuelan economy will require fundamental 
economic policy change, but also immediate humanitarian assistance and 
external financing to reactivate severely eroded productive capacity. 
International participation will be important, including from the IDB 
and other IFIs, and coordination with the region will be a critical 
component to any assistance effort. The IDB's role will be central 
within this broad framework, and the IDB is already engaged in a 
dialogue with the representatives of Venezuela's legitimate government, 
appointed by Interim President Juan Guaido, on the planning for that 
effort.
    In addition, the IDB has an important role to play in assisting 
Venezuela's neighbors to mitigate the regional impacts of Venezuela's 
crisis. This year, the IDB--with United States support--authorized the 
use of up to $100 million in grant resources, to be deployed alongside 
ordinary lending, to support IDB borrowing members who have been the 
destination for large and sudden migration of Venezuelans fleeing the 
crisis in their homeland. As IDB commits and disburses these funds, it 
will be important that they be used to maximum effect to mitigate the 
impacts of this regional crisis.

    Question.  Do you believe the IDB has the resources it needs to 
respond to the Venezuela crisis?

    Answer. The IDB is well-capitalized and operates with a disciplined 
long-term financial plan, which places it in a strong position to 
marshal the resources needed to fill this role as part of a coordinated 
response to the crisis.



                               __________



                              NOMINATIONS

                              ----------                              


                        THURSDAY, JUNE 20, 2019

                                       U.S. Senate,
                             Committee on Foreign Relations
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:50 a.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. James E. Risch, 
chairman of the committee, presiding.
    Present: Senators Risch [presiding], Rubio, Gardner, 
Romney, Barrasso, Paul, Young, Cruz, Menendez, Cardin, Shaheen, 
Murphy, Kaine, and Markey.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The committee will come to order.
    Good morning, everyone. We have four nominations to hear 
this morning.
    And just a friendly reminder for our guests in the audience 
that we invite everyone's participation here as guests. 
Expressions of approval or disapproval, et cetera, of course, 
are not permitted. There is an appropriate process for dealing 
with this. We hope that is not necessary.
    So with that, we are going to hear four important 
positions. Our nominees today are Mr. Andrew Bremberg to be 
Ambassador to the U.N. mission in Geneva; the Honorable Philip 
Goldberg to be Ambassador to Colombia; Mr. Doug Manchester to 
be Ambassador to The Bahamas; and Mr. Adrian Zuckerman to be 
Ambassador to Romania.
    First, we have Mr. Bremberg, nominated to serve as 
Ambassador to the Office of the United Nations and other 
international organizations in Geneva. Mr. Bremberg has a long 
history of public service and currently serves as Assistant to 
the President and Senior Advisor for Domestic Policy at the 
White House. He previously worked, as many of us here know, as 
policy advisor and counsel for Leader McConnell. He has also 
worked at the Department of Health and Human Services for 8 
years in a variety of capacities.
    The U.S. Ambassador to the U.N. in Geneva is a critical 
role, which represents the U.S. at over 20 U.N. agencies based 
there. These agencies include the World Health Organization, 
the U.N. Refugee Agency, the International Organization for 
Migration, and the International Labor Organization, all very 
important organizations, and others besides.
    Right now, the World Health Organization is facing a 
serious problem with the Ebola outbreak in DRC and Uganda. It 
is critical the U.S. continues to work closely with the World 
Health Organization to prevent the spread of this serious 
disease. The spread, of course, is also complicated by the 
political disruptions in the area.
    Also, as the world is facing a large refugee crisis now, 
the U.S. needs to work closely with the U.N. Refugee Agency and 
International Organization for Migration to ensure that the 
growing needs are being addressed.
    I look forward to hearing from you on these and many other 
issues during today's hearing.
    Next, we have Ambassador Philip S. Goldberg, nominated to 
serve as Ambassador to Colombia. Ambassador Goldberg is a 
Career Minister in the U.S. Foreign Service and has received 
numerous presidential, State Department, and intelligence 
community awards. Ambassador Goldberg served as U.S. Ambassador 
to the Philippines and Bolivia, Chief of Mission in Kosovo, and 
Assistant Secretary of State for Intelligence and Research.
    Colombia is a key U.S. ally and the oldest democracy in 
Latin America with a growing international footprint. Our 
bilateral relations are anchored in the security framework of 
the 1999 Plan Colombia and the 2012 U.S.-Colombia Free Trade 
Agreement. Colombia is going through a significant 
transformation as it seeks to implement the 2016 peace 
agreement between the Santos government and the FARC terrorist 
organization. Colombian peace and prosperity continues to be 
threatened by criminal organizations inside its territory. 
Terrorist groups operating from Venezuela such as the National 
Liberation Army and the massive influx of refugees from the 
political and humanitarian crisis in Venezuela, which all of 
us, particularly I think myself and the ranking member, are 
very concerned.
    If confirmed, Ambassador Goldberg would fill a key role in 
strengthening our diplomatic relations with Colombia.
    Next, we have Mr. Doug Manchester, nominated to serve as 
Ambassador to The Bahamas. Mr. Manchester is a successful 
businessman and prominent philanthropist in his community. He 
is the former chairman of the Manchester Financial Group and 
former chairman and publisher of the San Diego Union Tribune.
    The United States has traditionally enjoyed close economic 
ties and cooperative relations with The Bahamas, which lies 45 
miles from Florida. Like other countries in the hemisphere, The 
Bahamas has become a destination of interest for Chinese 
investment and engagement. The U.S. has not had an Ambassador 
in The Bahamas since 2011, the longest gap in nearly 50 years.
    Some areas of productive engagement with the Bahamian 
authorities and people include energy investment, strengthening 
security cooperation, and support to counter Chinese predatory 
economic practices.
    I look forward to hearing from Mr. Manchester about how he 
plans to continue U.S. engagement with The Bahamas.
    Finally, we have Mr. Adrian Zuckerman of New Jersey, 
nominated to be the Ambassador to Romania. Mr. Zuckerman is a 
partner in the international law firm of Seyforth Shaw. A 
member of the New York Bar, he has practiced law since 1984. 
Mr. Zuckerman immigrated to the United States from communist 
Romania when he was 10 years old.
    Romania is a key U.S. partner in Europe and currently holds 
the rotating presidency of the Council of the European Union. 
While they have been a NATO member since 2004 and an EU member 
since 2007, rampant corruption still remains an issue in the 
country. Romania continues to have difficulty with rule of law 
and has been designated a tier 2 country by the State 
Department for its continuing problems with trafficking in 
persons, a serious situation.
    Despite these domestic issues, Romania has been an 
excellent military partner for the U.S. and NATO.
    And I look forward to hearing your ideas about how the U.S. 
can both deepen our bilateral relationship and continue to 
encourage positive reforms in Romania.
    Thank you for being with us here today.
    Now I will turn it over to Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    To all the nominees, welcome and thank you for your 
willingness to serve.
    Now, normally I would use this time to praise the nominees 
before us for their deep knowledge and understanding of the 
region or institution where they will serve their extensive 
service to our country and the fine example we expect them to 
set as representatives of the United States abroad. However, 
with the exception of Ambassador Goldberg, I have strong 
concerns about each of these nominees today on this panel from 
policy grounds and lack of diplomatic experience to concerns on 
matters of character. And I hope the nominees can convince me 
today that my concerns are groundless and mistaken.
    Let me be clear. While I will be raising concerns about the 
backgrounds and views of the individual nominees who are here 
today, my real qualm is with the White House, which continues 
to send us nominees that, frankly, call into question whether 
the administration is conducting any due diligence before 
deciding who should be entrusted with the honor of serving the 
American people.
    Mr. Bremberg, if confirmed, you will represent the United 
States at the United Nations mission in Geneva at a time when, 
in some parts of the world, including here in Congress, there 
is concern about the administration's commitment to 
multilateral institutions and international organizations and 
the values they are championing at these forums.
    Geneva is home to some of the most important U.N. entities 
and international organizations, including the International 
Labor Organization, the International Organization for 
Migration, the U.N. Office of the U.N. High Commissioner for 
Human Rights, the Office of the U.N. High Commissioner for 
Refugees, the U.N. Population Fund, the World Health 
Organization, and many others. If confirmed, you will be 
responsible for advancing a wide range of U.S. interests at 
these organizations.
    I have no doubt that you have expertise on a number of 
domestic policy issues, but I have concerns about your 
nomination to such a prominent diplomatic role, given your lack 
of experience in international diplomacy and on foreign policy 
issues more broadly.
    In addition, I have serious reservations about your 
suitability for this position based on some of the domestic 
policies you have advanced. While at the White House, you were 
involved in a number of troubling policies, including efforts 
to restrict access to birth control, to add a citizenship 
question to the Census. You also played a lead role in 
championing a deregulatory agenda that has repealed measures to 
protect women's health, retirement security, workplace safety, 
clean water, and anti-corruption safeguards.
    If these are the American values you will seek to 
championing in Geneva, I believe we are in a world of trouble. 
As I stated earlier, I hope you can convince me otherwise, and 
I look forward to hearing from you today.
    Mr. Manchester, frankly I am surprised to see you back 
here. After your last appearance before the committee, you made 
statements that I could not find fathomable, including that The 
Bahamas was a protectorate of the United States.
    Subsequent to your hearing and committee vote last 
Congress, information came out about a hostile work environment 
you fostered towards women at the San Diego Union Tribune.
    So I look forward to exploring those issues with you after 
your testimony.
    Mr. Zuckerman, when looking at Romania, I am concerned 
about the rule of law and corruption. Transparency 
International ranks Romania as one of the bottom four members 
of the European Union in terms of corruption, and I have heard 
from members of the American business community that problems 
with due process and rule of law hinder U.S. business 
investments there. The U.S. Ambassador to Romania must press 
the government of Romania on addressing corruption and 
strengthening its institutions to create a friendlier climate 
not only for Romania's people and businesses, but for U.S. 
companies as well. I intend to raise these and some other 
issues that I think you are familiar with during your 
questioning.
    Finally, I am pleased that we are considering the 
nomination for our next Ambassador to Colombia, one of the 
United States' closest partners in the Americas. Over 2 
decades, our countries have built a close-knit partnership, and 
the U.S. was proud to have stood with Colombia as it signed a 
historic peace accord in 2016. However, achieving peace 
requires a strategic vision and enduring commitment.
    So I look forward to hearing from Ambassador Goldberg as to 
how he envisions U.S. support for Colombia at this key moment, 
especially given the continued counternarcotics challenges and 
threats to social leaders around the country. I welcome the 
Ambassador's comments on how the U.S. can best support Colombia 
as it responds to the humanitarian crisis in Venezuela and the 
impact of more than 4 million refugees and migrants that are 
fleeing that country.
    Thank you all, and I look forward to your testimony.
    The Chairman. Thank you, Senator Menendez.
    We will start with Mr. Bremberg.

      STATEMENT OF ANDREW P. BREMBERG, OF VIRGINIA, TO BE 
REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE OFFICE OF 
  THE UNITED NATIONS AND OTHER INTERNATIONAL ORGANIZATIONS IN 
              GENEVA, WITH THE RANK OF AMBASSADOR

    Mr. Bremberg. Chairman Risch, Ranking Member Menendez, 
distinguished members of this committee, thank you for the 
opportunity to be considered to represent the United States of 
America to the United Nations and other international 
organizations in Geneva.
    I want to thank the President for nominating me for this 
position and for the trust he has placed in me.
    I would not be here today without the support of my family. 
My wife Maria; my children, Paul, Lucy, Jane, and Annie; and 
other members of my family that are here with me today. I 
cannot thank them enough for their love and support and the 
sacrifices that they have made on my behalf. In particular, I 
want to thank my mother Rebecca for coming from New Jersey 
today. While growing up in Summit, her daily example of love 
and service to others has been the most formative experience of 
my life.
    Public service to our country has been my life's calling. I 
have served in government for more than a decade, both in the 
Senate and during two administrations. I have worked at the 
Department of Health and Human Services, and most recently I 
served as the Director of the Domestic Policy Council at the 
White House where I ran the interagency process for domestic 
policy issues, similar to the National Security Council.
    I have worked on a wide range of domestic and foreign 
policy issues in these positions, but through all of them, I 
have learned key skills that have served me well: the 
importance of consensus building and creating coalitions to 
support key initiatives: the value our career foreign and civil 
services can bring to address technical and complex policy 
issues; and the necessity of putting the American people first 
at every decision point.
    If confirmed to be the U.S. Ambassador to the U.N. in 
Geneva, I intend to focus on promoting human rights and 
advocating for key reforms in the U.N. system on behalf of the 
American people.
    American leadership was critical to the formation of the 
United Nations and adoption of the Universal Declaration of 
Human Rights. When we consider the ethnic cleansing of the 
Rohingya in Burma, the detention of 1 million Uighurs in China, 
and the growing crisis in Venezuela, it is clear that America's 
voice and moral clarity on human rights is needed to today as 
much as ever.
    Regrettably, the United Nations Human Rights Council in 
Geneva has not lived up to its noble mission or its name. The 
only permanent item on the council's agenda is criticism of 
Israel, which is a beacon of democracy and protection of human 
rights in a region that has little of either.
    If confirmed, I commit to giving voice to human rights 
issues that the council is either incapable or unwilling to 
address. I will continue to work productively with the Office 
of the High Commissioner for Human Rights, and I will meet with 
human rights advocates and ensure that American leadership is 
consistently present on human rights.
    To legitimately fulfill its mandate, the Human Rights 
Council must be a fair, reliable, and impartial advocate for 
human rights and fundamental freedom. This is not possible if 
countries like China are allowed to use its influence campaign 
to undermine the work of the HRC. For example, we cannot stand 
for Chinese threats to missions in Geneva urging them to stay 
away from an event organized on March 13th about China's 
internment of Uighurs and other Muslim minorities in Xinjiang.
    American leadership was essential to the creation of the 
United Nations and we must pursue reforms to international 
organizations to protect the universal values these 
institutions were created to foster and defend in the first 
place.
    If confirmed, I will advocate for reforms at U.N. 
organizations to protect U.S. sovereignty and the broader world 
order we have fought so hard to create. We contribute more to 
the United Nations than any other country. It is our duty to 
ensure these funds are spent effectively, efficiently, and in a 
manner consistent with American values and interests.
    An example of the kind of reform I am talking about is an 
effort I spearheaded at the White House to address unfair 
postal rates in the Universal Postal Union. The UPU sets rates 
that foreign postal operators, such as the China Post, 
compensate the U.S. Postal Service for shipping small packages 
once they arrive in the United States. Under the current 
system, these rates are set so low that certain foreign 
shippers pay 70 percent less compared to what a U.S. small 
business has to pay to ship a package the same distance within 
the United States. In practice, this allows some Chinese 
sellers to sell for less their product, including shipping, 
than an American business must pay for shipping costs alone. 
The administration is currently seeking to renegotiate the UPU 
conventions to address this issue, and I am committed to 
working with our international partners to fix this problem.
    If confirmed, I commit to bring the same eye and initiative 
to other international organizations to seek reforms that will 
better protect Americans and people around the world.
    Thank you again for the opportunity to appear before this 
committee today, and I will be happy to answer your questions.
    [The prepared statement of Mr. Bremberg follows:]


                Prepared Statement of Andrew P. Bremberg

    Chairman Risch, Ranking Member Menendez, distinguished Members of 
the committee. Thank you for the opportunity to be considered to 
represent the United States of America to the United Nations and Other 
International Organizations in Geneva. I want to thank the President 
for nominating me for this position and for the trust he has placed in 
me.
    I would not be here today without the support of my family. My wife 
Maria, my children Paul, Lucy, Jane and Annie, and other members of my 
family that are here with me today. I cannot thank them enough for 
their love and support, and the sacrifices they have made on my behalf. 
In particular, I want to thank my mother Rebecca for coming from New 
Jersey today. While growing up in Summit, her daily example of love and 
service to others has been the most formative experience of my life.
    Public service to our country has been my life's calling. I have 
served in government for more than a decade, both in the Senate and 
during two administrations. I have worked at the Department of Health 
and Human Services, and most recently, I served as the Director of the 
Domestic Policy Council at the White House, where I ran the interagency 
process for domestic policy issues similar to the National Security 
Council.
    I have worked on a wide range of domestic and foreign policy issues 
in these positions, but throughout all of them I learned key skills 
that have served me well:


   The importance of consensus-building and creating coalitions to 
        support key initiatives;

   The value our career foreign and civil services can bring to bear 
        to address technical and complex policy issues; and

   The necessity of putting the American people first at every 
        decision point.


    If confirmed to be the U.S. Ambassador to the U.N. in Geneva, I 
intend to focus on promoting Human Rights, and advocating for key 
reforms in the U.N. system on behalf of the American people.
    American leadership was critical to the formation of the United 
Nation and adoption of the Universal Declaration of Human Rights. When 
we consider the ethnic cleansing of the Rohingya in Burma, the 
detention of one million Uighurs [wee-gurs] in China, and the growing 
crisisin Venezuela, it is clear that America's voice and moral clarity 
on human rights is needed today as much as ever.
    Regrettably, the United Nations Human Rights Council in Geneva has 
not lived up to its noble mission or its name. The only permanent item 
on the Council's agenda is criticism of Israel, which is a beacon of 
democracy and protection of human rights in a region that has little of 
either.
    If confirmed, I commit to giving voice to human rights issues that 
the Council is either incapable or unwilling to address. I will 
continue to work productively with the Office of the High Commissioner 
for Human Rights, and I will meet with human rights advocates and 
ensure that American leadership is consistently present on human 
rights.
    To legitimately fulfill its mandate, the Human Rights Council must 
be a fair, reliable, and impartial advocate for human rights and 
fundamental freedom. This is not possible if counties like China are 
allowed to use its influence campaign to undermine the work of the HRC. 
For example, we cannot stand for Chinese threats to missions in Geneva 
urging them to stay away from an event organized onMarch 13 about 
China's internment of Uighurs and other Muslim minorities in Xinjiang.
    American leadership was essential to the creation of the United 
Nations and we must pursue reforms to international organizations to 
protect the universal values these institutions were created to defend 
in the first place.
    If confirmed, I will advocate for reforms at U.N. organizations to 
protect U.S. sovereignty and the broader world order we have fought so 
hard to create. We contribute more to the United Nations than any other 
country. It is our duty to ensure these funds are spent effectively, 
efficiently, and in a manner consistent with American values and 
interests.
    An example of the kind of reform I am talking about is an effort I 
spearheaded at the White House to address unfair postal rates in the 
Universal Postal Union (UPU).
    The UPU sets the rates that foreign postal operators, such as the 
China Post, compensates the U.S. Postal Service for shipping small 
packages once those packages arrive in the United States. Under the 
current system, these rates are set so low that certain foreign 
shippers pay 70 percent less compared to what U.S. small businesses 
have to pay to ship a package the same distance within the United 
States. In practice, this allows some Chinese sellers to charge less 
for their product (including shipping and handling) than an American 
business must pay for shipping costs alone.
    The administration is currently seeking to renegotiate the UPU 
conventions to address this issue, and I am committed to working with 
our international partners to fix this problem.
    If confirmed, I commit to bring the same eye and initiative to 
other international organizations to seek reforms that will better 
protect Americans and people around the world.
    Thank you again for the opportunity to appear before this committee 
today, and I will be happy to answer your questions.


    The Chairman. Thank you, Mr. Bremberg.
    Ambassador Goldberg?

STATEMENT OF THE HONORABLE PHILIP S. GOLDBERG, OF THE DISTRICT 
  OF COLUMBIA, A CAREER MEMBER OF THE SENIOR FOREIGN SERVICE, 
CLASS OF CAREER AMBASSADOR, TO BE AMBASSADOR EXTRAORDINARY AND 
    PLENIPOTENTIARY OF THE UNITED STATES TO THE REPUBLIC OF 
                            COLOMBIA

    Ambassador Goldberg. Chairman Risch, Ranking Member 
Menendez, members of the committee, I am greatly honored to 
appear before you today as the President's nominee to serve as 
U.S. Ambassador to Colombia.
    This is the fourth time I have come before this committee 
over the past 13 years to ask for your advice and consent to 
serve in a presidential appointment. I deeply appreciate the 
vital constitutional role played by the Senate and the Congress 
as a whole in the foreign policy process. If confirmed, I will 
work closely with Congress on all aspects of our relationship 
with Colombia.
    30 years ago, I received a miniature flag of Colombia and 
was informed that I would be assigned to Bogota as a consular 
and political officer. The country at the time was racked with 
drug-fueled violence, urban bombings, and political 
assassinations that threatened the future of democratic 
governance and stability. Through hard work and perseverance, 
the Colombian government and people with the assistance of the 
government and people of the United States, disbanded the drug 
cartels of that era.
    In 2000, I returned to the embassy in Bogota on a temporary 
assignment to coordinate our contribution to Plan Colombia, an 
integrated approach to deal with the deteriorating political, 
economic, and security situation in the country. Through Plan 
Colombia, the Colombian government and people again organized 
to address the lawlessness and violence associated with 
criminal groups and the drug production that sustained them. 
Kidnapping and homicides were reduced substantially. Drug 
production and trafficking decreased. Again, the United States 
stood at the side of the Colombian government and people as 
they averted the potential collapse of the state.
    In both periods, the success of our efforts was the result 
of unwavering support from successive American administrations 
and bipartisan backing from the U.S. Congress. In my diplomatic 
career, Colombia has served as a model for how bipartisan 
foreign policy can achieve results that serve American 
interests, American values, and the American people.
    Now Colombia has entered a challenging but also very 
hopeful period in its history. In 2016, the Colombian 
government reached a historic peace agreement with the FARC. 
While implementation of the peace agreement has proven 
difficult and at times uneven, it represents the best 
opportunity to progress even further in key areas, particularly 
in extending rule of law and economic development to large 
areas of rural Colombia where human rights abuses and the 
plight of the displaced continue to be serious problems.
    Another urgent task is reducing the coca cultivation and 
drug production that increased alarmingly from 2013 to 2017. To 
reverse this troubling trend, the United States and Colombia 
agreed in 2018 to a plan that aims to cut cultivation and drug 
production in half by the end of 2023. Aggressive Colombian 
efforts under the Duque government have already led to 
substantially increased eradication of coca plants and 
interdiction of coca paste.
    And then there is Venezuela where a corrupt and 
undemocratic regime has driven well over a million desperate 
refugees and migrants into a generous Colombia, causing social, 
economic, and budgetary challenges that exacerbate existing 
problems and create whole new ones.
    As the security situation in Colombia has improved over the 
past 20 years so too has the economy. Colombia has become an 
important destination U.S. trade and investment. Colombian GDP 
has almost quadrupled in the past 20 years. Foreign investment 
has increased during that time almost tenfold, and the poverty 
rate cut from 64 to 28 percent. Our two-way trade of close to 
$30 billion supports over 100,000 U.S. jobs and represents a 
trade surplus in goods in our favor. With improved security, 
tourism has grown, including to places that 30 years ago would 
have been unimaginable. If confirmed, I will do all I can to 
increase this side of our relationship, the economic 
relationship.
    I would be honored to return to Colombia to lead the 
outstanding men and women who serve at our large and 
multifaceted mission. If confirmed, I pledge to work with our 
team to carry out a bilateral agenda rooted in a shared 
commitment to democracy, security, and prosperity.
    I look forward to your questions.
    [The prepared statement of Ambassador Goldberg follows:]


                   Prepared Statement Philip Goldberg

    Chairman Risch, Ranking Member Menendez, Members of the committee, 
I am greatly honored to appear before you today as the President's 
nominee to serve as United States Ambassador to Colombia. I appreciate 
the confidence shown by the President and Secretary Pompeo in asking me 
to take on this important responsibility.
    This is the fourth time I have come before this committee over the 
past 13 years to ask for your advice and consent to serve in a 
presidential appointment. I fully understand and deeply appreciate the 
vital constitutional role played by the Senate--and the Congress as a 
whole--in the foreign policy process. If confirmed I look forward to 
working closely with this committee and the entire Congress on our 
relationship with Colombia.
    Thirty years ago I received a miniature flag of Colombia and was 
informed that I would be assigned to Bogota as a consular and political 
officer. The country at the time was racked with drug-fueled violence, 
urban bombings and political assassinations that threatened the future 
of democratic governance and stability. Through hard work and 
perseverance, the Colombian government and people--with the assistance 
of the government and people of the United States--disbanded the drug 
cartels of that era.
    In 2000, I returned to the embassy in Bogota on a temporary 
assignment to coordinate our contribution to Plan Colombia, an 
integrated approach to deal with the deteriorating political, economic 
and security situation in the country. Through Plan Colombia, the 
Colombian government and people again organized to address the 
lawlessness and violence associated with insurgent groups and the drug 
production that sustained them. Kidnapping and homicides were reduced 
substantially. The Colombian government established a presence in the 
32 departments. Drug production and trafficking were reduced. During 
this period, the United States stood at the side of the Colombian 
government and people as they averted the potential collapse of the 
state.
    In both periods, the success of our efforts in Colombia was the 
result of unwavering support from successive American administrations 
and bipartisan backing from the U.S. Congress. In my diplomatic career, 
it has served as a model for how bipartisan foreign policy can achieve 
results that serve American interests, American values and the American 
people.
    Now, Colombia has entered a challenging but also very hopeful 
period in its history. Much has been accomplished over the past 20 
years but much remains to be done. In 2016, the Colombian government 
reached a historic peace agreement with the FARC. While implementation 
of the peace agreement has proven difficult and at times uneven, it 
represents the opportunity to progress even further in key areas, 
particularly in extending rule of law and economic development to large 
swaths of rural Colombia, where human rights abuses and the plight of 
the displaced have disproportionally impacted the Indigenous and Afro-
Colombian populations.
    Another urgent task is reducing the coca cultivation and drug 
production that increased alarmingly from 2013-2017. To reverse this 
troubling trend, the United States and Colombia agreed in 2018 to a 
plan that aims to cut cultivation and drug production in half by the 
end of 2023. Aggressive Colombian efforts under the Duque government 
have already led to substantially increased eradication of coca plants 
and interdiction of coca paste. Our assistance continues to be 
essential in supporting all aspects of the Colombian government's 
integrated approach.
    And then there is Venezuela, where a corrupt and undemocratic 
regime has driven well over a million desperate refugees and migrants 
into a generous Colombia--and up to four million to the region--causing 
social, economic and budgetary challenges that exacerbate existing 
problems and create whole new ones. Colombia and President Duque have, 
not surprisingly, been stalwart partners in our diplomatic and 
humanitarian efforts to restore democracy and provide safe haven to the 
people of Venezuela. Mr. Chairman, Ranking Member Menendez,
    As the security situation in Colombia has improved over the past 20 
years, so too has the economy. Colombia has become an important 
destination for U.S. trade and investment. Colombian GDP has almost 
quadrupled in the past 20 years. Foreign investment has increased 
during that time almost tenfold--and the poverty rate cut from 64% to 
28%. Our two-way trade of close to $30 billion supports over 100,000 
U.S. jobs. We are Colombia's largest trading partner, and in 2018 our 
bilateral trade in goods created a $1.2 billion surplus in favor of the 
United States. Meanwhile, Colombia has entered the Organization for 
Economic Cooperation and Development as an upper middle income country, 
a step that will lead to greater policy alignment with free market 
economies. With improved security, tourism has grown, including to 
places that 30 years ago would have been unthinkable. On a festering 
trade dispute--the so-called ``truck scrappage law'' that imposed non-
tariff barriers for the sale of new U.S. trucks--the Colombian 
government is committed to resolving the issue and removing those 
barriers by the end of June.
    I would be honored to return to Colombia to lead the outstanding 
men and women who serve at our large and multi-faceted mission. If 
confirmed, I pledge to work with our team to carry out a bilateral 
agenda rooted in a shared commitment to democracy, security and 
prosperity.
    I look forward to answering your questions.


    The Chairman. Mr. Manchester?

 STATEMENT OF DOUG MANCHESTER, OF CALIFORNIA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
           AMERICA TO THE COMMONWEALTH OF THE BAHAMAS

    Mr. Manchester. Chairman Risch, Ranking Member Menendez, it 
is good to be back here, and I will answer your questions.
    I am honored to appear before you today as President 
Trump's nominee to serve as the next U.S. Ambassador to the 
Commonwealth of The Bahamas. I am deeply grateful to the 
President and Secretary Pompeo for the support and confidence 
that they have placed in me. If confirmed, I pledge to work 
closely with you and this committee and its staff and other 
Members of Congress to advance our nation's interests in The 
Bahamas, which is so very, very important.
    We live in the greatest country in the world. I am blessed 
to have been brought up here and born here. And I am blessed 
with eight children and 13 grandchildren.
    I have also been blessed to be in this country to have 
success in insurance, real estate, medical instrumentation, 
broadcasting, publishing, construction, hotel ownership, 
development and oil drilling. I have operated 27 companies over 
the last 55 years with a total workforce of 6,000 people, 
surrounded myself with outstanding and diverse group of 
employees and advisors. I believe this experience is integral 
and essential in managing a successful U.S. mission in The 
Bahamas as well as prepared me for the duties of an Ambassador 
to the Commonwealth of The Bahamas.
    Since its independence as a sovereign nation in 1973, The 
Bahamas has been a steadfast partner and neighbor of the United 
States. And given our shared interests--at its nearest point, 
the country lies barely 50 miles from the coast of Florida--we 
have cooperated as partners on security, commercial, and 
cultural and other issues. Together, we are confronting shared 
challenges such as illicit trafficking in narcotics, arms, and 
people, as well as the need to bolster the rule of law. If 
confirmed as Ambassador, I affirm my intention to maintain and 
strengthen the United States' collaboration with The Bahamas.
    If confirmed, I would take charge of the mission that has 
forged strong diplomatic and political ties with the government 
in Nassau. The Bahamas has been a leader in our drive to 
restore democracy in Venezuela, which is so very important. 
They have bravely staked a position supporting the government 
there under the leadership of interim President Guaido. The 
Bahamas has taken the lead in the Caribbean and setting a bold 
example for the nations in the regions to follow. The Prime 
Minister of The Bahamas joined President Trump last March at 
Mar-a-Lago, reinforcing our shared ties and steadfast 
commitment to democracy and prosperity in this hemisphere.
    Through those political, economic, and cultural ties, the 
United States and The Bahamas has forged a strong bilateral 
relationship that has served both countries well. Bahamians 
regularly travel to the United States to visit friends and 
family and conduct business. Approximately 23,000 United States 
citizens have residences in The Bahamas and 6 million travel 
there annually for tourism.
    If confirmed, I will strive to ensure the safety and 
security of American citizens living in or visiting The 
Bahamas. I will work closely with the Bahamian authorities, 
civil society groups, and guide the U.S. mission to promote 
innovative, effective, and whole-of-government efforts to 
reduce crime and other illegal activities.
    I will also continue to promote greater economic ties 
between the United States and The Bahamas for our mutual 
benefit. The Bahamas is an attractive destination for U.S. 
businesses when Bahamian authorities offer stable and 
transparent regulations for procurement and investment. We can, 
in fact, provide wonderful business opportunities for U.S. 
businesses. And we can create the engine for their own 
development. Earlier this month, the embassy participated in a 
business conference that highlighted the advantages and 
opportunities for American businesses to develop investments 
and export markets in The Bahamas. If confirmed, I intend to 
support efforts to further U.S. economic interests abroad.
    While, generally speaking, geography and history have 
forced strong bonds between our countries, The Bahamas also 
maintains close economic ties with other nations. We strongly 
believe that American companies can successfully compete with 
anybody in the world.
    In closing, I am confident that I will have the experience, 
commitment to lead our bilateral relationship with the people 
and the government of the Commonwealth of The Bahamas. If 
confirmed, I pledge to uphold the tradition and high standards 
of public service expected of a U.S. Ambassador. I look forward 
to the opportunity to continue to serve my country in this new 
capacity.
    Chairman Risch, Ranking Member Menendez, and committee 
members, I thank you and I am open for questions.
    [The prepared statement of Mr. Manchester follows:]


                Prepared Statement of Douglas Manchester

    Chairman Risch, Ranking Member Menendez, and distinguished Members 
of the committee, I am honored to appear before you today as President 
Trump's nominee to serve as the next U.S. Ambassador to the 
Commonwealth of The Bahamas. I am deeply grateful to the President and 
Secretary Pompeo for the support and confidence they have placed in me. 
If confirmed, I pledge to work closely with you, with this committee 
and its staff, and other Members of Congress to advance our nation's 
interests in The Bahamas.
    I would like to take this opportunity to thank my family for all 
their support over the years. My children and grandchildren could not 
be here, but it is my family's love and support that has made this 
possible. I have had the wonderful fortune of success in insurance, 
real estate, medical instrumentation, broadcasting, publishing, 
construction, hotel ownership and development, and oil drilling. I have 
operated 27 companies, with a total workforce of more than 6,000 
people, surrounded myself with an outstanding and diverse group of 
employees and advisors. I believe this experience is integral and 
essential in managing a successful U.S. mission in the Bahamas and has 
well prepared me for the duties of Ambassador to the Commonwealth of 
The Bahamas.
    The Bahamas, since its independence as a sovereign nation in 1973, 
has been a steadfast partner and neighbor to the United States. Given 
our shared interests--at its nearest point, the country lies barely 50 
miles from the coast of Florida--we have cooperated as partners on 
security, commercial, cultural, and other issues. Together we are 
confronting shared challenges such as illicit trafficking in narcotics, 
arms, and people, as well as the need to bolster the rule of law. If 
confirmed as Ambassador, I affirm my intention to maintain and 
strengthen the United States' collaboration with The Bahamas.
    If confirmed, I would take charge of a Mission that has forged 
strong diplomatic and political ties with the government in Nassau. The 
Bahamas has been a leader in our drive to restore democracy in 
Venezuela. In bravely staking a position supporting a government there 
under the leadership of interim president Guaid", The Bahamas has taken 
the lead in the Caribbean, setting a bold example for nations in the 
region to follow. The Prime Minister of The Bahamas joined President 
Trump last March at a Mar a Lago summit, reinforcing our shared ties 
and steadfast commitment to democracy, security, and prosperity in this 
hemisphere.
    Through close political, economic, and cultural ties, the United 
States and The Bahamas have forged a strong bilateral relationship that 
has served both countries well. Bahamians regularly travel to the 
United States to visit friends and family and to conduct business. And 
approximately six million U.S. citizens travel to The Bahamas annually.
    If confirmed, I will strive to ensure the safety and security of 
American citizens living in or visiting The Bahamas. I will work 
closely with Bahamian authorities, civil society groups, and guide the 
U.S. Mission, to promote innovative, effective, and whole-of-government 
efforts to reduce crime and other illegal activities.
    I will also continue to promote greater economic ties between the 
United States and The Bahamas for our mutual benefit. The Bahamas is an 
attractive destination for U.S. businesses when Bahamian authorities 
offer stable and transparent regulations for procurement and 
investment. The Bahamas can offer our businesses a place to grow while 
we offer them an ``engine'' for their own development. Earlier this 
month, the Embassy participated in a business conference that 
highlighted the advantages and opportunities for American businesses to 
develop investments and export markets in The Bahamas. If confirmed, I 
intend to support efforts to further U.S. economic interests abroad.
    While geography and history have forged strong bonds between our 
countries, The Bahamas also maintains close economic ties with many 
other nations. We strongly believe that American companies can 
successfully compete with anybody in the world when transparent 
regulations and practices and steadfast respect for the rule of law 
prevail. If confirmed, I will continue our work to ensure the United 
States remains the commercial partner of choice in The Bahamas. I will 
also prioritize monitoring China's growing engagement in the region.
    Expanding educational exchanges is one of the best ways to deepen 
the already existing cultural and historical ties between the United 
States and The Bahamas. At present, approximately 2,100 students from 
The Bahamas study in the United States, and more than 950 students from 
the United States study in The Bahamas. And in the year ahead, we will 
resume our sponsorship of Fulbright scholarships for Bahamians, 
scholarships that allow experts to research and explore more about our 
two nations, deepening our understanding and cooperation. If confirmed, 
I will seek to increase levels of educational exchange between our two 
countries, including through enhancing existing partnerships and the 
building of new ones to achieve greater understanding and ties between 
our people.
    If confirmed, I look forward to enhancing U.S.--Bahamian relations 
and exploring every opportunity to engage with the government and 
people of The Bahamas to advance U.S. and shared interests. I will also 
work closely with Congress to broaden our engagement under the U.S.-
Caribbean Resilience Partnership and U.S.-Caribbean 2020 strategy.
    Finally, as a matter of the highest priority, I would like to 
emphasize that my number one priority as Ambassador will be to protect 
U.S. Mission personnel, private U.S. citizens, and visiting American 
tourists throughout The Bahamas.
    In closing, I am confident that I have the experience, commitment, 
and energy to lead our bilateral relationship with the people and the 
government of the Commonwealth of The Bahamas. If confirmed, I pledge 
to uphold the tradition and high standards of public service expected 
of a U.S. ambassador. I look forward to the opportunity to continue to 
serve my country in this new capacity if confirmed.
    Chairman Risch, Ranking Member Menendez, and committee Members, I 
thank you again for the opportunity to appear before you today, and I 
welcome your questions.


    The Chairman. Thank you, Mr. Manchester.
    Mr. Zuckerman?

STATEMENT OF ADRIAN ZUCKERMAN, OF NEW JERSEY, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
                       AMERICA TO ROMANIA

    Mr. Zuckerman. Thank you, Chairman Risch, Ranking Member 
Menendez, and distinguished members of the Senate Foreign 
Relations Committee.
    I am honored to appear before you today as President 
Trump's nominee to be the United States Ambassador to Romania. 
I am humbled and very grateful for the confidence President 
Trump has placed in me. I am also thankful to all of you for 
your consideration.
    Please allow me to introduce my daughter Natalie. She 
represents our future, and I am fortunate she is with me here 
today.
    My voyage starts with two people who are here in spirit 
only: my beloved parents, Emil and Aura. Were it not for their 
courage, wisdom, and sacrifice, I would not be here. Both were 
teenagers in Bucharest during the Second World War. Like so 
many of their contemporaries, their families were dislocated 
and their property was confiscated. Against all odds and 
against continuing discrimination against Jewish people in the 
post-war communist regime, they both survived and attended 
college and medical school.
    I was born in Bucharest, Romania. I can read, write, and 
speak Romanian fluently.
    Aware of the brutal shortcomings of the communist regime, 
my parents decided to emigrate about the time I was born. Some 
9 years later, we were allowed to do so with little more than 
the clothes on our backs.
    My parents cherished American values, hard work, and hope 
for a better future, freedom of speech, and utmost respect for 
life, liberty, and individual rights. Their proudest day was 
when they became American citizens. They made sure I always 
knew and remembered to appreciate and live by these hard fought 
for principles.
    Romania finally shed its horrific communist regime in 
December 1989, less than 30 years ago, a day I had always hoped 
for but never thought I would live to see.
    Since 1989, Romania established a democratic parliamentary 
form of government, joined NATO, joined the European Union, and 
has become a strategic ally of the United States. The strongest 
aspect of the U.S.-Romania relationship is our military 
cooperation. There is an American Aegis missile defense battery 
at Deveselu. U.S. Army personnel are rotationally deployed at 
Kogalniceanu Joint military base. U.S. Air Force units 
routinely deploy to Romania, and U.S. naval vessels dock at the 
Black Sea deepwater port of Constanta.
    Romania has stood in solidarity with the United States to 
condemn Russian intervention and aggression in Ukraine and 
strongly supports Ukraine's independence, sovereignty, and 
territorial integrity.
    Romania is also a wonderful host and partner to other NATO 
member state forces. Romania is a robust contributor to NATO 
missions and operations in Afghanistan, Iraq, and other 
countries. Romania has committed to meet its financial 
commitment to NATO.
    The Romanian economy has been among the fastest growing in 
the EU. Our trade and investment relationship has been 
increasing as well. Romania is rich in timber, agriculture, 
minerals, oil, natural gas, and other natural resources. Recent 
exploration in the Black Sea has discovered substantial oil and 
gas reserves, which have the potential to bolster Romania's and 
Europe's energy security.
    Romania needs to continue to fight against corruption, 
create a more investment-friendly business climate, invest in 
infrastructure, health, education, and strengthen public 
administration.
    If confirmed, I would offer continued support for Romania's 
noteworthy anti-corruption efforts. Fighting corruption and 
supporting judicial independence are vital to Romania's long-
term prosperity and security.
    The perils of an aggressive Russia seeking to destabilize 
democracies in Europe from within and without are substantial 
and cannot be underestimated. I am confident that with 
proactive American leadership and assistance to educate, 
support, and encourage democratic institutions, Romania will 
meet these challenges and prosper.
    If I am confirmed, I pledge to use all of my knowledge and 
experience to advance our country's interests in Romania.
    Thank you for your consideration, which will allow me, if 
confirmed, the opportunity to serve and repay at least in part 
the enormous debt of gratitude I have for everything America 
has given me and my family.
    I would be happy to answer any questions you may have.
    Senator Menendez, I wish to point out that this morning, 
unfortunately, due to the endemic corruption issues that you 
referred to, Romania was downgraded to tier 2 watch status in 
the TIP Report, which is unfortunate, and if I am fortunate 
enough to be confirmed, I will make one of my chief priorities. 
Thank you.
    [The prepared statement of Mr. Zuckerman follows:]


                 Prepared Statement of Adrian Zuckerman

    Thank you, Chairman Risch, Ranking Member Menendez, and 
distinguished Members of the Senate Foreign Relations Committee.
    I am honored to appear before you today as President Trump's 
nominee to be the United States Ambassador to Romania. I am humbled and 
very grateful for the confidence President Trump has placed in me. I am 
also thankful to all of you for your consideration.
    Please allow me to introduce my daughter, Natalie. She is a 
graduate of the University of Edinburgh and has always been interested 
in our family's Romanian heritage. We traveled there together when she 
was in high school. To me, she represents our future and I am fortunate 
she is with me here today.
    My voyage starts with two people who are here in spirit only: my 
beloved parents, Emil and Aura. Were it not for their courage, wisdom, 
and sacrifice, I would not be here. Both were teenagers in Bucharest 
during the Second World War. Like so many of their contemporaries, 
their families were dislocated and their property was confiscated. 
Against all odds and in the face of persistent anti-Semitism in the 
post-war communist regime, they both attended college and medical 
school. Emil became a senior academician and researcher at the 
University of Bucharest. He achieved international acclaim for his 
research on epilepsy. Aura pursued research in the field of 
endocrinology.
    Shortly after I was born, my parents, aware of the brutal 
shortcomings of the communist system, decided their only child should 
have the opportunity of a better life. Upon filing a request to leave 
Romania, they were terminated from their elite academic positions. They 
began a new life on the edge of poverty, living from hand to mouth.
    I remember the occasional gratitude of my parents' patients 
bringing a fish or a live chicken. We lived on the fourth floor of a 
walk-up building, in two small rooms, each heated by a wood burning 
terra cotta fireplace. The heat stored in the terra cotta never lasted 
through morning. Water for bathing was heated in a pot on a bottled gas 
stove top.
    We were finally allowed to emigrate when I was nine years old. We 
left with little more than the clothes on our backs. We were not 
allowed to take any valuables or currency, not that we had anything of 
consequence. Following friends' advice, my parents took two salamis 
that could be either sold or eaten when we arrived in Rome, Italy.
    We remained in Rome for the next nine months while my parents 
sought work in the United States. My father was finally offered a 
position as an assistant professor of medicine at Yale Medical School. 
Arriving in New Haven, Connecticut in May of 1966, we started living 
the American dream. My parents worked as physicians and I enrolled in 
third grade and started learning to speak English.
    My parents were beyond proud to seek American citizenship. Emil and 
Aura pursued the American dream with the vigor, zeal, and energy of 
wide-eyed youngsters. I remember their joy at buying their first car, 
their first house and the ubiquitous backyard staple--the barbecue. 
Their proudest day came seven years later when they actually became 
American citizens. They cherished American values--a belief in hard 
work and a better future, a regard for freedom of speech, and the 
utmost respect for life, liberty and individual rights. They made sure 
I always knew and remembered to appreciate and live by these hard-
fought for principles.
    Romania shed its horrific Communist regime in December 1989, less 
than thirty years ago--a day I had always hoped for, but never thought 
I would live to see. However, the Romanian democratic state is still in 
its infancy.
    Romania is of great economic, military and geo-political strategic 
importance. Located in southeast Europe, it is an economic entry point 
to Europe and a staunch American military ally.
    Since 1989, Romania has established a democratic parliamentary form 
of government, joined NATO, joined the European Union, and has become a 
strategic ally of the United States. The strongest aspect of the U.S.--
Romania relationship is our military cooperation. There is an American 
Aegis Missile Defense battery at Deveselu; U.S. Army personnel are 
rotationally deployed at the Mihail Kogalniceanu joint military base; 
U.S. Air Force units routinely deploy to Romania; and U.S. naval 
vessels dock at the Black Sea deep water port of Constanta.
    In addition to being a committed partner of the United States, 
Romania is a wonderful host and partner to other NATO member states 
forces. Romania is a robust contributor to NATO missions and operations 
in Afghanistan, Iraq and other countries. Romania is already the 4th 
largest contributor to the Resolute Support Mission in Afghanistan, and 
at the recent NATO Summit in Brussels it pledged additional substantial 
commitments to the mission in 2019.
    Romania has undertaken to meet its financial commitment to NATO and 
has made major strides toward this goal.
    Romania has also stood in solidarity with the United States to 
condemn Russian intervention and aggression in Ukraine, Romania's 
neighbor. In addition to supporting American sanctions against Russia, 
Romania has provided various humanitarian and development aid to 
Ukraine, and strongly supports its independence, sovereignty, and 
territorial integrity.
    The Romanian economy has been among the fastest growing in the EU, 
and our trade and investment relationship has been increasing as well. 
There are approximately five hundred American companies conducting 
business in Romania, including Fortune 500 companies, numerous smaller 
companies, and a continually growing number of information technology 
companies.
    Romania is a country of abundant farmland, minerals, oil, natural 
gas, and other natural resources, and it is blessed with a well-
educated, multilingual and industrious populace. In addition to its 
onshore oil and gas reserves, recent exploration in the Black Sea has 
discovered substantial off-shore oil and gas reserves, which have the 
potential to bolster Romania's energy security. The Romanian education 
system, with high-quality schools and universities, has produced an 
educated workforce and internationally respected professionals.
    Although much has been achieved in Romania, there is still room for 
improvement. In order for Romania to further the incredible progress it 
has made over the past 29 years, Romania needs to continue to fight 
against corruption, create a more investment friendly business climate, 
invest in infrastructure, health, and education, and strengthen public 
administration. Investors want a relationship with Romanian decision-
makers based on mutual trust. They seek a business climate that enables 
their businesses to contribute to Romania's sustained economic growth, 
to create jobs, to earn profits, and to grow their enterprises.
    If confirmed, I would offer continued support for Romania's 
noteworthy anti-corruption efforts. Fighting corruption and supporting 
judicial independence are vital to the region's long-term prosperity 
and security, as well as to the extraordinary law enforcement and 
security cooperation that exists between the United States and Romania.
    There is much work to be done to foster, support, and encourage 
democratic institutions. The perils of an aggressive Russia seeking to 
destabilize democracies in Europe, from within and without, are 
substantial and cannot be underestimated. I am confident that with 
proactive American leadership, assistance, and friendship, Romania will 
meet these challenges and prosper.
    If I am confirmed, I pledge to use all my energy to advance our 
country's interests in Romania. I will apply all of my experience and 
knowledge to address the issues and vulnerabilities Romania faces. I 
look forward to bringing the American values I was lucky enough to be 
raised with to the country from which I hail.
    Thank you for your consideration which will allow me, if confirmed, 
the opportunity to serve and repay, at least in part, the enormous debt 
of gratitude I have for everything America has given me and my family.
    I would be happy to answer any questions you may have.


    The Chairman. Thank you, Mr. Zuckerman.
    We are now going to conduct a round of 5-minute questions, 
and we will start with Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Manchester, when you were last before this committee, 
you said that The Bahamas was a protectorate of the United 
States. The Bahamas is a sovereign nation. How do you expect to 
go to a country who you described as a protectorate and is a 
sovereign nation with its own democracy, elected leadership, 
and whatnot and be thought of in a way that will treat them 
with respect?
    Mr. Manchester. Well, I answered that question, and the 
bottom line was the fact that I have been going there for 
years. And I know that it is a sovereign, independent country. 
As I said in my previous testimony, I certainly know the fact 
that it is a sovereign and independent nation. And what I was 
referring to was the fact that we have joint defense forces and 
we are joined at the hip, as we should be, to defending our 
mutual shores.
    Senator Menendez. Well, being a protectorate of the United 
States--words matter, especially when you are going to be an 
Ambassador. Being a protectorate of the United States is not 
about mutual defense. Being a protectorate of the United States 
is almost like you are a ward of the United States. And so The 
Bahamas is not a ward of the United States.
    Mr. Manchester. I understand that, and I corrected my 
statement.
    Senator Menendez. Well, I did not hear you correct your 
statement. I just heard you say that now you recognize it is a 
sovereign nation. I am glad that we have come to that point.
    Let me ask you this. I want to talk about your time running 
the San Diego Union Tribune. A 2018 ``Washington Post'' article 
described the environment for women who worked at the paper and 
its affiliated TV station, U-T TV, as toxic. Speaking of you, 
one woman said that, quote, you do not want to get caught alone 
in the elevator with him. Others described the environment as 
madman style and the hiring meetings were like a boys club, and 
the boys picked which women they wanted. To be clear, we are 
talking about 2011 to 2015, not 10, 20, or 30 years ago.
    Is this type of culture appropriate?
    Mr. Manchester. I have been involved with 55 years of 
business, 27 different companies, 6,000 employees. And that is 
a salacious and inaccurate depiction. I have never been accused 
of sexual harassment ever.
    Senator Menendez. So do you have any objection then, if 
that is the case, to diplomatic security or the FBI examining 
the accusations related to the workplace environment you 
fostered or you were alleged to have fostered at the Union 
Tribune and sharing their findings with members of this 
committee prior to the committee voting your nomination?
    Mr. Manchester. I do not have any objection and never have.
    Senator Menendez. Let me ask you this. You were cited in 
the ``Washington Post'' article, which you said is salacious--
this is an article that was based on the conversations with 
more than 20 women and men--as saying that you took action to 
address, quote/unquote, egregious mistakes by the staff at the 
San Diego Union Tribune. What were those mistakes?
    Mr. Manchester. What I was referring to there is the fact 
that, once again, I have not ever been involved in any kind of 
sexual harassment, a claim in 55 years of business and 6,000 
employees. I do not know what they are referring to there. That 
was a salacious----
    Senator Menendez. This is your direct quote. You said that 
you took action to address, quote, egregious mistakes by the 
staff at the San Diego Union Tribune. Now, I am asking you if 
you took action to address egregious mistakes, what were those 
actions. What were the mistakes that you were correcting? Did 
you institute any disciplinary actions? Did you fire anybody? I 
mean, you are going to be head, if you are confirmed, of a 
mission that is going to have a diverse both in gender, race, 
ethnicity workforce. And we have got to know that at the very 
beginning, that the person who is heading the embassy is going 
to create an environment that is worthy of working in. So I 
want to understand, based upon your own remarks, what were the 
mistakes that the staff that you hired--what were the mistakes 
they created, and what did you do to correct those mistakes?
    Mr. Manchester. We have instituted policies in every one of 
the companies that I have been involved with that in fact if 
somebody, in fact, did something wrong, we in fact fired them.
    Senator Menendez. Who did you fire at the San Diego Union 
Tribune then?
    Mr. Manchester. I cannot recall because of the fact that I 
did not work on a day-to-day basis for the individuals that 
were running the TV station I think that they are referring to.
    Senator Menendez. Well, you are going to have to give me 
better answers than that.
    Mr. Bremberg, this is the problem with four panelists and 5 
minutes. So I know there will be another round at least.
    In your written answers to my pre-hearing questions about 
adding a citizenship question to the Census, you stated that 
you, quote, discussed your opinion on including the citizenship 
status Census question with other White House staff. What is 
your opinion on including a citizenship question on the Census?
    Mr. Bremberg. Senator, given my employment in the White 
House as an advisor to the President, I do not think it would 
be appropriate for me to discuss the confidential
    Senator Menendez. I did not ask you that. I asked you your 
opinion. I did not ask you what you said to the President. I 
asked you what your opinion is. What is your opinion?
    Mr. Bremberg. Yes. And I believe disclosing my opinion on 
the matter would disclose--open up for any further inquiry into 
advice I may----
    Senator Menendez. What type of privilege are you asserting 
here?
    Mr. Bremberg. Senator, I am not asserting any privilege.
    Senator Menendez. Well, if you are not asserting any 
privilege, then how is it that you failed to answer a question 
of the committee at your confirmation hearing?
    Mr. Bremberg. Senator, I am happy to discuss any policy or 
I----
    Senator Menendez. This is a policy. You are going to be 
going to an institution that has, among a wide array of issues, 
the questions of people in refugee status, the questions of 
people in a series of ways in which views such as this are 
insightful for the committee to understand how you are going to 
act at that location.
    Mr. Bremberg. I understand. And I am happy to describe the 
policy. I just want to be careful. I know other nominees who 
have come before the committee that have served in the White 
House have not gone down the road of providing their personal 
opinion, but I am happy to articulate the administration's 
position. It is not an attempt to distance myself from it. I am 
just being clear that I am not providing my personal opinion. I 
can describe the reason behind the policy that the Census 
department put forward, if that is what you would like to hear, 
Senator.
    Senator Menendez. No. I asked a specific question. You are 
smart enough to give me a specific answer.
    So I am sending a letter to you today, which I ask 
unanimous consent to be entered into the record.
    The Chairman. It will be.


    [The information referred to above is located at the end of 
this hearing's transcript.]


    Senator Menendez. I have to understand, as I continue to 
ask you questions of this and other nature, if you are going to 
assert privileges, you are going to tell me what privilege you 
are asserting because as far as I am concerned, there is no 
rational basis for a privilege to be asserted when I ask you 
things that are not directly in conversations with the 
President of the United States, but that go to insights into 
the policy views you will hold at a critical institution.
    The Chairman. Thank you, Senator. We will have a second 
round with enough time.
    After that, we will go to Senator Paul.
    Senator Paul. They say beauty is in the eye of the 
beholder. And I am not saying you are beautiful, but I am 
saying that each of you seem to have attributes that I think 
would be good as ambassadors.
    I was told by people who jump to conclusions that I could 
not be a Senator because I had just been a doctor, that a 
doctor was not somehow smart enough unless I had been a State 
rep or a State senator or this and that. And I really think we 
all bring attributes from different walks in life.
    I have dealt with Mr. Bremberg in the White House. I find 
him to be intelligent, forthright, and I think he will do a 
good job.
    I do not know Mr. Goldberg, but his resume sounds 
impeccable, you know, as a career.
    But I think we have career people and we also have 
political people.
    Mr. Manchester has been successful in business. What does 
that mean? Well, capitalism is very, very selective. Most 
businesses fail. To succeed with 6,000 employees and 27 
companies means that on a day-to-day basis he is running a 
business and making the decisions that not just please him. 
Capitalists have to please their customers and everybody that 
invests in them. They have to make a profit. Capitalism is a 
very demanding sort of person to work for. And so to have 
succeeded through all those years meant that Mr. Manchester has 
made many wise decisions over time.
    Mr. Zuckerman, I was impressed not only with your 
background and your family background, but I think languages 
are important. The fact that you speak the language will be a 
big asset to being an Ambassador to Romania.
    So I am actually very impressed with the panel, very 
impressed with the President. People said President Trump could 
not be President because he had not been a State representative 
or a governor or this and that. And so I do not think that 
really intelligence or your ability to figure out problems 
comes from having a previous position. It comes from your 
desire, your background, and also to acknowledge sometimes we 
do not know things and you ask for advice. I get help from my 
staff on a daily basis who know things that I do not know, and 
I ask for that advice. And I think it is the same with an 
ambassador as well.
    I do think it is important, though, in an era where people 
make accusations that are very personal--and I think the 
accusations against Mr. Manchester are very personal. It does 
not sound like he had any personal involvement. He was sort of 
the owner of a company that had probably 10 layers between him 
and the employees. He has never been accused of anything. But 
all of a sudden, he is caught up in something that I think is 
really bad because he is judged without having a chance to 
defend himself.
    And we live in an era where people are making these 
accusations all the time. 40 years ago, somebody in high school 
said this. And it is like we live in this world. Do people not 
deserve some sort of due process before people--you know, Mr. 
Manchester is well known in San Diego. He is not only a 
successful businessman and makes a profit at businesses by 
pleasing customers, but he is a philanthropist. And I think it 
is wrong to drag his name through the mud particularly for 
something that there has never been a personal accusation 
against Mr. Manchester.
    So I just hope as we go through this that we will give 
people the benefit of the doubt and also to consider that 
people have attributes from their different backgrounds that do 
not always they have been an ambassador to this or that in the 
past.
    Mr. Manchester, is there anything else you wanted to say 
about how difficult it is to succeed in business, how you got 
started in business?
    Mr. Manchester. No. I just want to make it clear that I 
actually am in a position where I really believe that it is 
important for us to have U.S. representation in The Bahamas 
because of the Chinese influence and other reasons. And I am 
volunteering for that assignment, and I recognize that it is 
going to be a hard job, but it is a needed job. And it is a way 
in which I can pay back my country for all of the blessings 
that I have received for my family and myself.
    Senator Paul. Thank you.
    No further questions.
    The Chairman. Senator Shaheen?
    Senator Shaheen. Well, thank you, Mr. Chairman.
    You know, Senator Paul, I certainly agree with you--and I 
think all of us do--that people bring different attributes to 
the job and that to get to this point, everyone has significant 
attributes. But I do believe when there are personal 
allegations made against nominees, that it is very important to 
reassure the public about the integrity of the process and the 
people who will be representing this country, for anyone who is 
the subject of those accusations to be able to rebut them 
adequately to persuade the public that they are not true and 
that they will not influence the ability to do the job. So I 
think it is very important for the committee to be able to 
reassure people about the integrity of the individuals we 
support.
    So I hope, Mr. Manchester, that you will be able to rebut 
those accusations in a way that make it clear that you were not 
involved.
    Mr. Manchester. Once again, I have been involved 55 years 
of business in 27 different companies, over 6,000 employees, 
and I have never had a sexual harassment claim against me. And 
we have hired and promoted to the highest level all ethnic and 
sexual orientation employees and we are very proud--very 
proud--of the success that we have had in the companies that we 
have been involved with.
    Senator Shaheen. Good. I look forward to hearing more about 
that.
    Mr. Bremberg, for decades, the United States has been the 
leader in advocating for human rights, especially the rights of 
women and girls. If confirmed as the U.S. Representative to the 
U.N. in Geneva, you will lead a team that is responsible for 
advancing U.S. policy on human rights and global health. Do you 
recognize reproductive rights and the rights of the LGBT 
community as human rights?
    Mr. Bremberg. Senator, I do recognize and accept that 
reproductive rights, as defined by the 1995 Beijing Conference 
Strategic Objective and under the objective in line with the 
program of action of the International Conference on Population 
and Development as important rights. But those state that in no 
case should abortion be promoted as a method of family 
planning. So, yes, to your question with that important caveat.
    Senator Shaheen. I am not asking about abortion, but just 
that you recognize that reproductive rights are important human 
rights around the world.
    And how about the LGBTQ community?
    Mr. Bremberg. Yes, Senator.
    Senator Shaheen. You recognize. And if you are confirmed 
for this position, will you defend those rights in your new 
position?
    Mr. Bremberg. Yes, Senator.
    Senator Shaheen. In your capacity as the Director of the 
Domestic Policy Council, were you ever involved in discussions 
to expand the global gag rule that restricts foreign assistance 
to groups that provide a full range of family planning 
services?
    Mr. Bremberg. Senator, yes, I participated in the 
development and implementation of the President's expanded 
Mexico City policy, which you are referring to.
    Senator Shaheen. Have you seen any of the reports about the 
impact of that expanded policy on women and families in 
countries that are affected? And have you made any attempt to 
get information about what the real impact of those policies 
have been?
    Mr. Bremberg. Yes, Senator. And I look forward to learning 
more. In my time in the White House, I was briefed on its 
implementation I believe approximately a year into its 
implementation. One particular question that I and others were 
asking was was this actually a difficult policy for our 
grantees and contractors to implement or adopt or was it 
relatively easy. I am happy to get the number for you, but I 
recall at the time of hundreds, I believe upwards of 500 
entities, I think they only had concerns raised or problem 
with, I believe, three to five. I do not have the precise 
number. I am happy to get back to you, Senator.
    Senator Shaheen. I would very much like to have you get 
back to me because when I have asked that question of the USAID 
Administrator and of the Department of State, I have been told 
by both of those that they are awaiting reports on what the 
impact is of those policies and that we do not have that 
information yet. So if that information exists within the White 
House and it is not being shared, I think that is a huge 
oversight. So I would very much like to see. Mr. Chairman, I 
hope that that information will be shared with the full 
committee.
    The Chairman. Thank you, Senator.
    Senator Shaheen. Now, Ambassador Goldberg, you talked about 
the commitment that had been made to Colombia and about the 
progress that has been made in that country. And I think we 
would all agree that that has been very important.
    But despite that commitment, what we have seen is that 
Colombia remains an origin of a lot of the poppy growing that 
we are dealing with and the drug trafficking that has such a 
huge impact in the United States on States like mine in New 
Hampshire where we have the third highest overdose death rate 
in the country.
    So I wonder if you can tell me as Ambassador what you will 
do to try and continue to work with the Colombian government to 
address this huge problem that is affecting the United States.
    Ambassador Goldberg. The Colombian government at the moment 
and we have agreed, as I mentioned in my statement, to a 5-year 
plan to cut production of coca and interdict coca paste and the 
finished product. That is underway. And we have seen some 
progress in that regard. It is a difficult problem, obviously, 
especially since wide areas of the country remain under control 
of criminal elements, whether they are the dissident FARC or 
they are ELN or they are paramilitaries or they are drug 
cartels. And so the government has this program, and we are 
assisting with it to try to reduce the production of coca and 
the drugs that come out of Colombia.
    We also have a commitment to reduce demand in Colombia and 
here, and that is an important element as well. It is an 
integrated approach. They have a very sophisticated way about 
going after money laundering. And so as Ambassador, if 
confirmed, I would want to work very closely with them as they 
go about carrying out this plan.
    Senator Shaheen. Well, thank you. I would like to hear 
more. I am out of time. So we will submit some questions for 
the record to try and get more information. Thank you very 
much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Young?
    Senator Young. Well, thank you, gentlemen, for your desire 
to serve our country as ambassadors. I am most grateful.
    Ambassador Goldberg, Venezuelans continue to flee into 
Colombia after the reopening of the border in the past month. 
Colombia is now hosting more than 1.2 million Venezuelan 
migrants, as you know, according to most estimates. What do you 
view as the immediate challenges and priorities for managing 
the arrival of Venezuelans such as the provision of shelter, 
food, and emergency health care?
    Ambassador Goldberg. As the situation has developed, 
Senator, the population of Venezuelan migrants and refugees has 
dispersed from the border region into other areas. But it is a 
problem. It is a huge budgetary requirement for the Colombians. 
Estimates are anywhere from $1 billion to $1.3 billion this 
year. So the immediate needs are in health and education, and 
as you mentioned, shelter. They are huge challenges.
    And we have helped very strongly in that regard directing 
more than half of the humanitarian assistance that we have 
committed to to help with the Venezuelan situation to Colombia 
about $143 million, thanks to action in Congress.
    So those are the challenges, and the Colombians are going 
about it. USAID is very much involved in trying to help. But 
you know, this is ultimately a challenge that the Colombians 
will have to bear the great brunt of, as well as, by the way, 
the NGOs that are very active, UNHCR and all of the 
humanitarian groups that are there. So it is an active and 
ongoing effort.
    Senator Young. So what additional support do you anticipate 
the multilaterals, those you mentioned and others, needing to 
provide Colombia and the host communities in the coming months?
    Ambassador Goldberg. I would not put a figure on it, but 
substantial. And I was somewhat concerned when I heard the U.N. 
representative say that the commitments are only resulting in 
about 30 percent of what was pledged. So we have to continue to 
try to help the Colombians as they take on this huge burden. 
And so it is an effort for governments, and we have to do it 
diplomatically as well as with the Colombians to make sure that 
they have the resources necessary.
    Senator Young. Mr. Bremberg will, of course, need to be 
working through the United Nations on this and many other 
matters. That will include the U.N. mission in Geneva.
    The United States is currently assessed 22 percent of the 
U.N. regular budget and 28.4 percent of U.N. peacekeeping 
operations--the budget there.
    So over the years, members of this committee and on the 
Multilateral Institutions Subcommittee, which I chair, have 
debated appropriate levels of U.S. support for the United 
Nations. Are you satisfied with the current process and 
formulas for determining U.S. assessments?
    Mr. Bremberg. No, Senator. Thank you for the question.
    No, and I think the administration has put forward a strong 
case for transforming the current assessed model of assessed 
contributions towards a voluntary contribution model. I think 
that would serve the interests of the United States and in fact 
I believe over the term, serve the interests of the various 
U.N. international organizations more by helping to make sure 
they become more efficient and accountable to member states.
    Senator Young. Do you pledge to work with me on that and 
allow me to be supportive of your efforts on that front, should 
you be confirmed?
    Mr. Bremberg. Yes, Senator. I would appreciate any support 
you could provide, and I pledge to work with you on this and 
other topics.
    Senator Young. Thank you much.
    I yield back.
    The Chairman. Thank you, Senator Young.
    Senator Cardin?
    Senator Cardin. Well, I join in thanking you all for your 
willingness to serve our nation and thank your families because 
we know this is a family matter.
    Mr. Goldberg, we had a chance to talk as the ranking 
Democrat on our hemisphere. Having a confirmed Ambassador in 
Colombia is critically important, and I appreciate your 
background. And I hope we can move your nomination quickly.
    Mr. Bremberg, this committee--I worked on, with Senator 
Lugar, the transparency in the extractive industries, section 
1504 of the Dodd-Frank Act. Regulations took a long time to be 
promulgated. We ultimately got regulations, and after a long 
process, in which other nations of the world followed the U.S. 
leadership in regards to requiring extractive industry 
companies to disclose their contracts, amounts so that the 
revenues could go to the country rather than to corruption, we 
made progress.
    And then under President Trump a decision was made to use 
the CRA to eliminate many of the regulations that were adopted 
in the previous administration. This, of course, came out of 
the SEC.
    Were you aware of the strategy to use the CRA in regards to 
section 1504?
    Mr. Bremberg. Yes, Senator.
    Senator Cardin. And the concerns that were expressed at the 
time that they thought the regulation was overly broad and 
required information that was proprietary. I disagree with that 
analysis, but that was the major justification given. And there 
was a lot of interest to get the SEC to issue a regulation 
consistent with those concerns.
    What efforts have you made to get the SEC to act on 1504?
    Mr. Bremberg. In my time in the White House, after the 
repeal of the regulation to the CRA, the domestic policy 
portfolio view did not cover the SEC. The National Economic 
Council covers the SEC. So that was not something that was in 
my----
    Senator Cardin. Were you involved at all in the CRA 
involving 1504? Did you have any conversations with that?
    Mr. Bremberg. Yes, Senator. Can I describe that briefly?
    Senator Cardin. Well, I am interested in your views as to 
how you are going to represent our nation in multilateral 
discussions when the extractive industries and dealing with 
corruption and dealing with the poverty nations that have 
resource wealth. How do you intend to deal with that if the 
only action I have seen is to block efforts for disclosure here 
in America where other countries have already acted on 
disclosure?
    Mr. Bremberg. Thank you, Senator. I believe the 
administration worked with Congress to pass the CRA to repeal 
that regulation because we and many felt it was overly 
burdensome of the extraction industry in the United States and 
would lead to substantial potential job losses in the United 
States and putting U.S. companies at an unfair disadvantage 
versus foreign competitors.
    Senator Cardin. And of course, it is up to Congress to make 
the policy decision. You are supposed to implement it in the 
executive branch.
    Mr. Bremberg. Absolutely. As a firm believer in the Article 
1 power, I am a firm believer in that. In fact--and I could 
describe a little bit of my work on the CRA.
    Senator Cardin. I would like to know your work on 
implementing 1504.
    Mr. Bremberg. I believe the CRA is an excellent tool and 
actually empowered by Congress. It is a way of Congress 
correcting what they believed----
    Senator Cardin. But you encouraged us to correct this, and 
then the President signed it. And do you know when 1504 became 
law? Do you know how many years ago it was?
    Mr. Bremberg. I believe 9 years ago.
    Senator Cardin. And do we have regulations under 1504?
    Mr. Bremberg. This is not an area of my expertise. But I 
believe the first regulations that were implemented under the 
Obama administration I believe were challenged in the courts 
and I believe were struck down, had problems.
    Senator Cardin. For technical reasons, not on substantive.
    Mr. Bremberg. Understood. And I think the final regulation 
that the CRA actually undid--I mean, the Obama administration I 
do not believe finalized it until----
    Senator Cardin. What action have you taken to comply with 
what was said to Congress that you favored 1504. You thought 
the regulations were wrong. Now we do not have any regulations 
at all. It has been now almost 2 years since the CRA passed.
    Mr. Bremberg. I do not want to speak just for myself. I 
think the administration would look forward to working with 
Congress on amending the law to put in place an appropriate 
disclosure method.
    Senator Cardin. We do not want to amend the law. We want 
regulations. We spoke. It is not your job to interpret whether 
we did the right thing or not. Your job is to implement that.
    Mr. Bremberg. And with respect, Senator, then Congress then 
spoke again.
    Senator Cardin. On the regulation but not on the law.
    Mr. Bremberg. Right, and amended----
    Senator Cardin. So is it your position that you will not 
enforce a law passed by Congress?
    Mr. Bremberg. No, Senator. Absolutely not.
    And to your specific point about the SEC's rulemaking 
part--I am not trying to dodge your question, Senator--my role 
as the domestic policy side--within the White House policy 
structure, we have the National Security Council. There is a 
National Economic Council, which was previously headed by Gary 
Cohn and is now headed by Larry Kudlow. The National Economic 
Council is the chief policy part of the White House that works 
with the SEC. The SEC was never part of my policy portfolio. I 
am sorry for the confusion, Senator.
    Senator Cardin. Well, Mr. Chairman, I would like to have--I 
would like you to inform us as to what the administration's 
policy is in regards to 1504, implementing a law that was 
passed by Congress 9 years ago. We are not interested in 
amending the law. We are interested in enforcing the law. Can 
you get me that?
    Mr. Bremberg. I would be happy to provide a response for 
the record to a question about what the administration whatever 
your question is, Senator. What the plan is to move forward? Is 
that your question?
    Senator Cardin. Yes, to implement the law.
    Mr. Bremberg. I would be happy to provide a response for 
the record.
    Senator Cardin. Thank you.
    Mr. Bremberg. Thank you.
    The Chairman. Thank you, Senator Cardin.
    Senator Rubio?
    Senator Rubio. Thank you.
    Thank you all for being here, for being willing to serve 
our country.
    I wanted to focus my questions primarily on the situation 
with Colombia as it regards Venezuela. I think of all the 
places we are talking about today, it is the most urgent before 
us at this moment and has the highest national urgency for our 
national interests.
    Ambassador Goldberg, it is impossible to separate the 
challenges and the work that we do with Colombia from the 
conflict in Venezuela. That would be an accurate assessment.
    Ambassador Goldberg. Yes, it is.
    Senator Rubio. And I think most people are not aware that 
the elements that threaten the state of Colombia and that are 
most responsible in many ways for the trafficking of billions 
of dollars of drugs into the United States, Europe, and around 
the world operate openly and with impunity and, in fact, with 
the support and cooperation of the Maduro regime just across 
the Colombian-Venezuelan border. Right?
    Ambassador Goldberg. Correct.
    Senator Rubio. I mean, so what we have in Colombia is not 
just our strongest counter-drug partner in the region, probably 
our strongest ally on multiple fronts in the region, we have a 
country that literally has, just on the other side of its 
border, armed groups that seek to kill their citizens and 
conduct violent attacks within their territory. We have these 
armed groups operating in camps and facilities openly with the 
protection, the assistance, and the cooperation of a 
neighboring government.
    Ambassador Goldberg. Largely correct.
    Senator Rubio. The reason why I ask that is because related 
to that, when you add that to the migrant flow, that is the 
capability of the ELN and these dissident FARC groups to 
operate openly with a safe space in a neighboring country, 
combined with the incompetence, corruption, mismanagement of 
the Maduro regime leading to the outflow of 4 million of its 
citizens, including at this point I guess over 1.5 million into 
one country alone, the combination of these two things--and I 
think you have alluded to this already both in your opening 
statement and your answer to several questions--are placing 
almost an existential challenge to all of the progress that has 
been made in Colombia and potentially to the ability of the 
state long-term.
    Ambassador Goldberg. As I mentioned, Senator, in fact, I 
consider that the problems brought by the Venezuela crisis 
exacerbate everything that Colombia is trying to do and creates 
whole new issues. So it is a huge problem for Colombia.
    I would just add that some of the dissident FARC are also 
in Colombian territory and, of course, are also involved in 
some of the drug trade and have returned to that business.
    Senator Rubio. Right, but at least when it comes to--those 
groups are dangerous as well. But at least when it comes to the 
groups that are in Colombian territory, the Colombians can get 
to them and can conduct operations against them.
    Ambassador Goldberg. Right.
    Senator Rubio. They basically cannot do anything without 
going to war.
    Ambassador Goldberg. That is right.
    Senator Rubio. So the point I think when it comes to 
Venezuela policy, perhaps one of the failures has been, because 
of how quickly it has moved, I do not think we have done a good 
enough job of explaining to the American people why it is in 
our national interest to care about it beyond the fact that we 
support democracy and the suffering of the people there. But 
why does it matter to America?
    And one of the arguments I have tried and others have as 
well is this is not just about Venezuela. This is spiraling 
into a regional crisis that directly impacts the national 
security and national interests of the United States.
    And I would ask, because you have expertise in this part of 
the world and are going to be serving our country hopefully 
from Colombia, what would our efforts against the flow of drugs 
into the United States look like if we did not have a strong 
partner in Colombia with the capability and the resources that 
they need to help us confront those challenges?
    Ambassador Goldberg. Well, as I mentioned to Senator 
Shaheen, we are now engaged in a very active effort to try to 
lower the production. It is difficult because of these areas 
that are not yet under government control. So while that 
situation continues and if it becomes greater, then there is an 
almost mathematical proposition that the drugs would be more 
difficult to eradicate and to interdict. So it would be a worse 
problem.
    Senator Rubio. I think the Colombians deserve a tremendous 
amount of credit for all they have done to receive these people 
who have come across the border, suffering people, people that 
are scared.
    But I would just want to close with this point. I do not 
think you would disagree with it, and that is the more 
resources they have had to dedicate to that and the strains it 
places on the health care system and the like, the less 
resources that are potentially available to confront this 
challenge. And that ultimately spills over to us. And so I just 
do not want us to underestimate what is going to happen to 
Colombia--I know you do not--in the years to come and the 
months to come if the situation in Venezuela continues on the 
trajectory that it is on now. The situation in Venezuela poses 
a direct threat not just to Colombia but ultimately to U.S. 
national interests in the region.
    Ambassador Goldberg. I agree.
    Senator Rubio. Thank you.
    The Chairman. Thank you, Senator Rubio.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much. Thank 
you for this hearing.
    Mr. Bremberg, if you are confirmed, you will be working 
with the Office of the U.N. High Commissioner for Refugees, 
UNHCR. Yesterday UNHCR reported that more than 70 million 
people worldwide have been forced from their homes, the highest 
number of displaced people on record. Yet, under this 
administration, as outlined in a report from Amnesty 
International that was also released yesterday, refugee 
resettlement in the United States dropped 71 percent over the 
last 2 and a half years.
    I have a copy of the Amnesty International report, Mr. 
Chairman. I would ask unanimous consent that it be included in 
the record.
    The Chairman. It will be included.


    [The information referred to above is located at the end of 
this hearing's transcript.]


    Senator Markey. Thank you.
    And the Trump administration has proposed a $2 billion cut 
to U.N. humanitarian agencies like UNHCR that has helped these 
displaced populations overseas.
    Yes or no, Mr. Bremberg. Do you believe that it is in the 
United States' national interests to help address this historic 
humanitarian crisis?
    Mr. Bremberg. Absolutely, Senator. I think I think it is 
absolutely in the American interest, not just in our security 
interest, but part of our greater humanitarian/human rights 
example. And I am proud that the United States is the largest 
funder of humanitarian efforts around the world.
    Senator Markey. But again, the Trump administration has 
proposed a $2 billion cut in U.N. humanitarian agency help. So 
you wind up with saying the right thing on the one hand and, on 
the other hand, proposing a cut that would be even more 
devastating than what we are already living through.
    Mr. Bremberg. So I think part of the issue is that we need 
to see other countries to step up and do their fair share as it 
relates to helping address these humanitarian crises around the 
world. I believe even if you suppose those cuts, I believe that 
just shows the level of our generosity. I believe the United 
States would still be the largest single donor for humanitarian 
efforts around the world. And what we really need to do--and I 
look forward to doing this, if confirmed--is work with other 
countries to increase the level of support that they are 
willing to provide to address these issues.
    Senator Markey. I appreciate that. But at the same time, we 
are at a historic high in terms of the number of refugees. So 
there in my opinion has to be concomitant increase in our 
commitment not a $2 billion cut.
    So even national security officials, whether they be 
Democrat or Republican administrations, they all agree that our 
refugee programs help our recruitment of intelligence assets 
abroad. They counter anti-Western propaganda, promote regional 
stability in foreign countries hosting large numbers of 
refugees.
    And that is why I recently introduce a bill, the GRACE Act, 
to prevent this administration from continuing its efforts to 
slash refugee admissions and dismantle our resettlement 
infrastructure. There has just been a dramatic reduction in the 
number of refugees which the United States has accepted over 
the last 2 and a half years since Donald Trump took over. And 
this new budget is just a further continuation of that.
    So UNHCR has encouraged the United States to maintain its 
historic leadership role supporting refugees. What do you 
intend to do about the United States' position if you are 
handcuffed by having to advocate for cuts in our programs while 
simultaneously saying to other countries that they should 
increase? How in the world can you maintain such a 
contradictory position and hope to be successful in eliciting a 
response from these other countries?
    Mr. Bremberg. Thank you, Senator, for the opportunity to 
address that.
    The reduction in the refugee cap is only one part of our 
larger not just humanitarian effort but also our effort to 
bring in individuals from other countries here into the United 
States. As we have seen, we face an asylum crisis largely at 
our southern border. The United States still welcomes more 
refugees and asylees than any other country in the world. I 
recognize these are two different legal distinctions. But as we 
have seen this asylum crisis grow unchecked and we are 
struggling with resources and legal authorities to address the 
asylum crisis, I think it makes sense then that unfortunately 
we are having to pull back on some of our other refugee 
activities. So I think--I am sorry.
    Senator Markey. No. I was just going to say there is a 
humanitarian crisis out there right now. It is unprecedented, 
and the United States should not be going backwards. We have to 
step up. We are the wealthiest country in the world. The 
President says we are the wealthiest country ever right now. So 
we should just, out of the generosity of our spirit, be 
reaching out to these people and not waiting for other 
countries but leading by our example and then saying to the 
other countries that they should be stepping up. It is just a 
complete disaster out there, Mr. Bremberg.
    My hope is that you could be an advocate internally, but 
that is not what I am hearing from you. I am hearing you 
reflecting that philosophy that we have to cut our own aid in 
order to ultimately see increases from other countries. And I 
just do not think that is sound thinking.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Markey.
    Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Congratulations to each of you on your nominations.
    Mr. Goldberg, I want to ask you some questions about the 
opportunities and the challenges in Colombia. The country is 
our largest foreign aid recipient in the region. We have spent 
upwards of $10 billion since 2000. And Colombia is our only 
NATO partner in Latin America.
    Nevertheless, there are a range of challenges that pose 
direct threats to American national security from 
narcotrafficking to the cascading effects of what is happening 
in Venezuela.
    First, I want to ask you just very basically, what do you 
perceive as our national security interests and our objectives 
in Colombia?
    Ambassador Goldberg. Well, I think there are a nexus of 
interests, Senator Cruz, one of them clearly is the drug 
problem. Another is what is going on in Venezuela and the 
dangers that that represents to the United States national 
security.
    There are possibilities and opportunities to move the 
process in Colombia forward. Part of the problem, as I was 
discussing with Senator Rubio, is that the Venezuela situation 
draws resources from what might be used for doing other things 
that are important on the peace process, on drugs.
    But the opportunity is the challenge that has always 
existed in Colombia and something that we have worked 
throughout time, at least the 30 years I have been involved 
with it, trying to make sure that Colombia has the resources 
and the training and the military cooperation and the police 
cooperation to extend the state and the state presence in 
larger parts of the country so that there is more rule of law, 
there is more economic development. And those are all crucial 
factors in how Colombia can handle many of the problems that it 
faces at a much reduced level, thanks to everything that has 
happened in the last 20 years but still exist and that still 
need to be dealt with.
    Senator Cruz. One of the many challenges in Colombia is the 
FARC retains designated as a foreign terrorist organization 
under U.S. law. How does this impact our government interests 
and how we interact with the government of Colombia now that 
FARC is politically represented?
    Ambassador Goldberg. Well, the FARC, Senator, has 
representatives in the Congress, in the Senate, and the House 
that were designated by the peace agreement. So we, in dealing 
with the political situation, can have some contact. It would 
be very difficult in most interactions, especially when it 
comes to U.S. assistance, to deal with the FARC because it is 
still listed as a terrorist organization.
    Senator Cruz. Mr. Bremberg, the Geneva post is always a 
challenging and delicate post for our diplomats. It is a place 
where enormous good work can be done to advance human rights. 
But unfortunately, many of the U.N.'s human rights 
organizations have been taken over by people with atrocious 
human rights records who do not particularly care about 
protecting human rights.
    How do you intend to navigate that challenge?
    Mr. Bremberg. Thank you for the question, Senator.
    That is clearly something that the Trump administration has 
taken on head on. That is largely part of the reason why the 
administration withdrew from the Human Rights Council 1 year 
ago last summer and, if confirmed, is why I wish to make 
advancing human rights one of my priorities in Geneva.
    The United States does not need to be a member of the 
council to lead on human rights. Every country looks to the 
United States and our voice on human rights, and if confirmed, 
I commit to you speaking on human rights in Geneva, building on 
the good work the mission has already begun to do. Recently our 
mission in Geneva held a conference to highlight the gross 
human rights violations going on against Uighurs in China. It 
was quite disturbing to hear reports of the Chinese mission 
there threatening other multilateral missions, trying to 
prevent them from participating and attending. But that type of 
leadership on that and other human rights issues will be my 
priority, if I am confirmed.
    Senator Cruz. Well, I certainly encourage you in that 
regard. And let me, in particular, encourage you the power of 
highlighting dissidents is something I have tried to do in the 
Senate of naming and shining a light on courageous heroes who 
stand up to oppression. And one of the most potent tools 
against tyranny, against human rights abuses is telling the 
stories of these dissidents who risk everything. And that has 
enormous, enormous power, and it is something that tyrannies 
consistently fear.
    Mr. Bremberg. I certainly agree. I believe the power that 
dissidents coming here to Congress and meeting with elected 
members--I think that is a great platform. I also think so many 
human rights activists come through Geneva specifically, and 
the importance of having a U.S. Ambassador there that will meet 
with them, hear their concerns, and then give voice to that 
both publicly and then privately in bilateral conversations 
with other countries I think is really important. And, if 
confirmed, you have my commitment that I will do that. And I 
would just like to ask you and other members of the committee 
that if there are individuals that you have already met with or 
that you know that are in Geneva that would be important for us 
as the United States to highlight and speak to, I would really 
look forward to working with you.
    Senator Cruz. Terrific. I appreciate that.
    Thank you.
    The Chairman. Thank you, Senator Cruz.
    Senator Kaine is going to yield I understand to Senator 
Menendez.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman. Unfortunately I 
have to go to the floor on the Saudi arms sales shortly.
    Mr. Bremberg, I am trying to understand your logic. We have 
the highest number of refugees in the history of the world, 70 
million. You are suggesting that cutting $2 billion is a way to 
show American leadership. I do not understand that. I know you 
say you want to get other countries to pay more. Of course, we 
always want to do that. But cutting $2 billion somehow creates 
the incentive for other countries to gain more?
    And you are wrong about the United States being the 
greatest recipient of refugees and asylees. Germany alone took 
a million asylees. So that is not the case.
    Let me ask you this. Do you know a gentleman named Thomas 
Hofeller?
    Mr. Bremberg. I am sorry. Could you repeat that?
    Senator Menendez. A guy by the name Thomas Hofeller, H-o-f-
e-l-l-e-r.
    Mr. Bremberg. I do not believe so, Senator.
    Senator Menendez. You have never had a conversation with 
him?
    Mr. Bremberg. Could you identify his background or who he 
is?
    Senator Menendez. He is the gentleman who came up with the 
idea for the Census question. It is a citizenship question on 
the Census.
    Mr. Bremberg. No, Senator. I do not know nor have I ever 
met or spoken or communicated with----
    Senator Menendez. Let me ask you this. You authored a draft 
executive order on January 23rd of 2017, 3 days after the 
President was inaugurated, which would have directed the Census 
Bureau to add a question on citizenship and immigration status. 
How did you get the idea to include the citizenship issue in 
the draft EO?
    Mr. Bremberg. Senator, it would not be appropriate for me 
to comment on alleged leaked draft White House documents. But I 
am happy to discuss again the policy issue, if you wish.
    Senator Menendez. Well, when you say it is not appropriate, 
there was a draft--do you deny there was a draft executive 
order that you prepared?
    Mr. Bremberg. Senator, I do not believe it is appropriate 
for me to talk about draft deliberative documents.
    Senator Menendez. Under what type of privilege are you 
saying you cannot answer my questions?
    Mr. Bremberg. Senator, I very much wish to answer your 
question about the policy, but I believe it is the custom, 
under both Republican and Democrat administrations, that when 
White House aides come to testify for nominations, they do 
not----
    Senator Menendez. On what type of privilege are you saying 
you cannot answer my questions?
    Mr. Bremberg. I am not exerting a privilege, Senator.
    Senator Menendez. You are not exerting a privilege. So if 
you are not exerting a privilege, how is that you fail to 
answer my questions?
    Mr. Bremberg. I would very much like to answer your 
question.
    Senator Menendez. Then please do so.
    Mr. Bremberg. Can you just repeat the policy question, 
Senator?
    Senator Menendez. Where did you get the idea to include the 
citizenship issue in the draft executive order?
    Mr. Bremberg. Can I just talk about the--I believe you 
suggested there is a draft executive order dated very early in 
the administration that you are suggesting I wrote. I cannot 
comment on this alleged draft. But can I tell you about my work 
in the transition and right into the immediate context of the 
administration about what work I did?
    Senator Menendez. No. That would take forever.
    Mr. Bremberg. I can be very brief.
    Senator Menendez. I want to know about the citizenship 
question, but you do not want to answer that.
    Let me ask you----
    Mr. Bremberg. I answered.
    Senator Menendez. You have not answered it.
    Let me ask you this. You authored a draft memo to the 
President which said that, quote, households headed by aliens 
are much more likely than households headed by native born 
citizens to use federal means tested public benefits. Do you 
agree with that statement?
    Mr. Bremberg. No, Senator, I do not.
    Senator Menendez. Okay. So what changed your mind?
    Mr. Bremberg. Nothing has ever changed my mind on that 
topic. Again, I wish I could talk about it.
    Senator Menendez. Do you deny that you authored such a 
memo?
    Mr. Bremberg. I have never written that sentence, Senator.
    Senator Menendez. You have never written that sentence. Did 
such a memo go under your name?
    Mr. Bremberg. Senator, when I came into the White House, 
there were many, many memos and draft executive orders that had 
been prepared for consideration for President Trump during the 
presidential transition--many memos and executive orders.
    Senator Menendez. Let me go to another issue. In my 
prehearing questions for the record, I asked whether you 
participated in any meetings related to the administration's 
decision to terminate TPS designations for El Salvador, Haiti, 
and Honduras. You said you do not recall participating in any 
meetings. Yet, the fact is that we have information that the 
Domestic Policy Council, of which you are the Director, sought 
repeatedly to influence the decision-making process at the 
State Department and DHS to ensure that TPS designations for El 
Salvador, Haiti, and Honduras were terminated. Is that true?
    Mr. Bremberg. I believe you asked did I say was not 
participating. That is true.
    Senator Menendez. Is it true, first of all, that the 
Domestic Policy Council was actively engaged in trying to 
influence the results of ending TPS designations for El 
Salvador, Haiti, and Honduras?
    Mr. Bremberg. I do not believe so, Senator. I had staff 
that worked on many of these issues----
    Senator Menendez. Did you check your calendar records based 
upon my question to see if you participated in any meetings on 
TPS?
    Mr. Bremberg. I am happy to do that for the record.
    Senator Menendez. Would you please and submit it?
    Did you check your email records to see if you had any--
expressed an opinion on terminating TPS designations?
    Mr. Bremberg. I would be happy to do that, Senator.
    Senator Menendez. Please submit that for the record.
    Should victims of sexual violence be able to terminate the 
pregnancy where legal?
    Mr. Bremberg. Senator, I do not believe abortion is a moral 
solution to any problem.
    Senator Menendez. So the U.S. recently made an egregious 
and extraordinary threat to veto a U.N. Security Council 
resolution on gender-based violence in conflict over a 
reference to survivor's access to sexual and reproductive 
health. So if in conflict a woman gets raped and ultimately, as 
a result of that rape, ends up with a child, a pregnancy she 
did not seek and was forcibly put on her, you are telling me 
that it will be your position and the position that you will 
have to say that that woman ultimately cannot have access to a 
legal abortion?
    Mr. Bremberg. Senator, I am pro-life. I believe that all 
human life is sacred and that human life begins at conception.
    Senator Menendez. So when you are raped, a woman has no 
rights.
    Mr. Bremberg. Senator, I find that suggestion horrific to 
suggest that a rape victim has no rights.
    Senator Menendez. Well, I find it horrific that a woman who 
is raped cannot choose what to do with the consequences of that 
rape. And that is exactly what you are suggesting is 
acceptable.
    Let me ask you this----
    Mr. Bremberg. Senator----
    Senator Menendez. No. I have limited time and you are 
really not being very helpful in answering questions.
    Would you, if confirmed, speak out against laws that 
criminalize same sex relationships and women's personal health 
decisions in public and private settings as part of your 
representation of the U.S. at the U.N. abroad?
    Mr. Bremberg. Yes, Senator.
    I must say any suggestion that I do not have care for 
victims of rape I find horrendous. I have had family members 
that were raped, Senator.
    Senator Menendez. And I am deeply sorry.
    Mr. Bremberg. I accept your apology.
    Senator Menendez. I am not apologizing.
    Mr. Bremberg. Oh, I am sorry.
    Senator Menendez. You should apologize to the women who are 
raped that you say have to live with the rape. It is pretty 
outrageous that you at a U.N. organization are going to take 
that position on behalf of the United States. I do not think 
that is the view of the United States. Even those who share 
your view about the question of life very often have exceptions 
for victims of rape as part of it. You do not suggest that that 
exception exists. It is very difficult to understand how you 
are going to promote U.S. views that are broadly held even in 
that context.
    And lastly, Ambassador Goldberg, this position is 
incredibly important. I have heard some of your answers. Some 
of the waterfront I am concerned about has been covered very 
much.
    Mr. Zuckerman, I have two questions. One is that U.S. 
companies keep coming to me telling me how they are abused in 
Romania, how they arbitrarily and capriciously have their 
properties confiscated, how their contracts are interceded 
with. If you are confirmed, I would expect you to make that 
your highest priority.
    Mr. Zuckerman. I will, Senator.
    Senator Menendez. And secondly, I will submit for the 
record some questions I have about a lawsuit that took place. I 
want a thorough accounting of it so that I understand what took 
place. I know that you believe that it was wrongfully brought, 
but I want to have the information as well.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez.
    The record will remain open until the close of business on 
Friday, including for members to submit questions.
    I thank all four of you for your patience with us. Thank 
you for your willingness to serve.
    With that, the committee is adjourned.
    [Pause.]
    Senator Romney [presiding]. The hearing of the Senate 
Foreign Relations Committee will come to order.
    And before we begin, I want to mention that we have votes 
on the Senate floor that begin at 11:30, and that means that we 
will probably take a pause from time to time to go out and 
vote. We have three votes in a row. Votes are usually held 
every 15 or 20 minutes. So my apology to those of you who are 
about to testify and also those in the audience. I hope you 
understand that because of the voting schedule today, we will 
be having to take two or three pauses or recesses during these 
hearings. We will come back and finish the process.
    Today the committee is going to hold a nomination hearing 
for three very important issues in a very important part of the 
world.
    First, we are going to hear from Ambassador Richard Norland 
to be Ambassador to Libya. Ambassador Norland is the Foreign 
Policy Advisor to the Chairman of the Joint Chiefs of Staff. He 
previously served as Ambassador to Georgia and Uzbekistan and 
as the Deputy Chief of Mission in Afghanistan and Latvia.
    Among many other diplomatic posts in his lengthy and 
distinguished career in the Foreign Service, Ambassador Norland 
was recognized for his service in 2010, receiving the 
Presidential Distinguished Service Award.
    Secondly, we will hear from Ambassador Jonathan Cohen to be 
Ambassador to Egypt. Ambassador Cohen was the Deputy Ambassador 
to the United Nations and following the resignation of 
Ambassador Haley, he became the Acting Ambassador to the U.N.. 
He served in a number of roles as a career diplomat, including 
as Deputy Assistant Secretary of State for European and 
Eurasian Affairs, Deputy Chief of Mission at the U.S. embassy 
in Baghdad, Iraq, and Deputy Chief of Mission at the U.S. 
embassy in Nicosa, Cyprus, in addition to in other missions 
around the world.
    Our third nominee is Mr. John Rakolta, Jr., to be 
Ambassador to the United Arab Emirates. John Rakolta, Jr. is 
the Chairman and CEO of Walbridge, a global construction firm 
based in Detroit, Michigan. Walbridge serves clients in a wide 
variety of industries from automotive, aviation, and 
manufacturing to government, power, and energy markets. He was 
also the co-chair of the Coalition for the Future of Detroit 
School Children and the Chairman of New Detroit, an 
organization focused on racial equality and the economic 
revitalization of the city.
    We are privileged to be joined by our distinguished 
colleague, Senator Marco Rubio of Florida, who will be 
introducing Mr. Rakolta. Therefore, I am going to postpone my 
opening statement, and I ask the ranking member to do the same 
after the nominee introduction.
    I want to thank all of the individuals for their presence 
here today, but we are going to begin by recognizing Senator 
Rubio.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Mr. Chairman, for convening this 
hearing today on the nominees to these very important posts 
around the world.
    I want to briefly take a moment to introduce John Rakolta, 
who is nominated to be the Ambassador to the United Arab 
Emirates. As you have already outlined, he is a successful 
business executive and also a leader in the civic community. 
Since 1993, as you have already said, he is the Chief Executive 
Officer of a construction firm that has been very successful.
    The United States and the UAE have a strong bilateral 
relationship on a range of issues that are topical even at this 
very moment, and the two countries have worked together in the 
past on key security and economic issues. But there is a lot of 
work to be done.
    We must fill this position as quickly as possible, and I 
have no doubt that Mr. Rakolta will serve his country with 
great distinction and will represent the United States 
honorably and effectively in Abu Dhabi, hopefully, once he is 
confirmed.
    So thank you.
    Senator Romney. Thank you, Senator Rubio.
    Ambassador Norland, Ambassador Cohen, Mr. Rakolta, thank 
you for your past service to our country and for your 
willingness to be here today and to accept these assignments. I 
want to express my gratitude for your willingness to serve the 
United States of America.
    Each of you will be serving in nations that fit with the 
jurisdiction of the Middle East Subcommittee, but the issues 
that you face within each of your countries will vary greatly. 
Your work will be critical in maintaining and strengthening our 
alliances with key partners in the region.
    Ambassador Norland, in Libya, you will face a fractured 
state with warring parties set on gaining control over the 
territory. I look forward to hearing your views on how to best 
address the current situation in Libya, particularly your 
thoughts on pursuing a ceasefire and supporting a U.N. process.
    Ambassador Cohen, while I concur with the administration 
that we should strive to strengthen our military and trade 
relationships with Egypt, ongoing human rights abuses are 
simply unacceptable there. Egypt's government still jails 
thousands of its political dissidents, including Americans. It 
must be a high priority to secure the release of these 
individuals. I look forward to hearing how you will influence 
the Egyptian government on the issue of egregious human rights 
abuses.
    Let me preface my introduction of Mr. Rakolta by saying 
that he has been a long-term friend of my family. John has had 
a long and successful career in the private sector, as I have 
indicated earlier. I appreciate his achievements in that 
capacity. I am grateful for his friendship.
    He is also someone who has given back to his community, 
leading economic development and revitalization efforts in 
Detroit. I am confident that our country will be well served by 
his experience and leadership.
    Mr. Rakolta, as you know, the United Arab Emirates is a 
critical partner for the United States in the Middle East. The 
UAE has three U.S. bases, including a significant naval base, 
and is a key partner for counterterrorism efforts. In addition 
to security, the UAE is a significant trading partner with the 
U.S., including with my home State of Utah. I look forward to 
hearing how you will work to maintain a strong national 
security and trade relationship with our partner in the Middle 
East.
    As you acclimate in your roles, I hope that you will each 
remain open and candid with the Senate and our committees to 
any changes on the ground you witness or ways that we can 
support you in maintaining and strengthening our relationships 
with your areas of jurisdiction in the Middle East.
    Again, I appreciate you all being here today, and I look 
forward to hearing from you.
    With that, I would like to recognize the distinguished 
ranking member for his comments, Senator Murphy.

             STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Thank you very much, Senator Romney.
    Thank you to the nominees and to your families for being 
willing to serve in the case of our two career public servants 
not for the first time. And thank you, Mr. Rakolta, for being 
willing to step up for your country.
    Let me just add on briefly to Senator Romney's remarks.
    Mr. Norland, if you are confirmed, you are going to 
confront a country that has essentially tipped into civil war. 
8 years after the February 17th revolution that deposed 
Qaddafi, Libya has yet to find peace or stability, much less 
attain its aspirations for democracy and prosperity.
    Most recently, the renegade commander of the so-called 
Libyan National Army, Khalifa Haftar, has tried and failed to 
take Tripoli by force and at great cost, more than 650 killed 
and 3,500 wounded just since April 5th. And in the wake of 
President Trump's outreach to Haftar, there is more uncertainty 
now than ever as to where the United States stands as this 
chaotic civil war spirals out of control.
    Next door in Egypt, as Senator Romney mentioned, we are 
increasingly seeing authoritarianism and relentless repression 
in the Arab world's most populous nation. Through a widely 
discredited referendum this April, President Sisi succeed in 
amending the constitution to allow for an exception to term 
limits so that he can stay in office until at least 2030. He 
has crushed his political opposition, tightened repressive 
policies targeting the LGBT community, rounded up writers, 
journalists, artists, and activists for peaceful criticism.
    Yet, President Trump has praised Sisi for doing an 
outstanding job, and Egypt remains the second largest recipient 
of the U.S. aid in the world. With that much money at stake 
and, again, with this much confusion about where the United 
States stands with respect to this campaign of repression, we 
need strong leadership in our embassy.
    And lastly, the United Arab Emirates is one of our most 
important partners in the region in terms of counterterrorism, 
political and military cooperation, and trade and investment. 
But that relationship is also amongst our most challenging. The 
UAE leadership has asserted an increasingly risky militaristic 
foreign policy, and many of us have a list of growing concerns 
with the UAE's conduct in Yemen, its aggressive isolation of 
Qatar, its role in Sudan, and inhumane and unfair detention 
practices and trials at home.
    It is not insignificant that this will be the first 
political appointee to represent us in the UAE, a post that has 
traditionally been reserved for career diplomats, I would argue 
for good reason. But I look forward to hearing from the 
nominee.
    Thank you for agreeing to accept these very challenging 
assignments, and I look forward to your testimony.
    Senator Romney. Thank you, Senator Murphy.
    We will now turn to our first nominee, Ambassador Norland.
    Again, we express appreciation to all of you for your 
willingness to take on these critical roles. Your full 
statements will be included in the record, without objection. 
So if you could please keep your remarks to no more than 5 
minutes, we would appreciate it so that the members of the 
committee can engage you with questions.
    Ambassador Norland, you may begin.

STATEMENT OF HON. RICHARD B. NORLAND, OF IOWA, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
                   STATES OF AMERICA TO LIBYA

    Ambassador Norland. Chairman Romney, Ranking Member Murphy, 
Senators, this hearing will be the subject of immediate 
attention by the people of Libya as they look for signs of hope 
that the persistent violence in Tripoli will come to an end and 
a more secure and prosperous future for all Libyans will be 
achieved.
    The interests of the American people are also at stake with 
respect to ending innocent suffering, countering terrorism, 
stabilizing oil markets, stemming the human misery and 
political de-stabilization of large-scale migration and forging 
closer economic cooperation.
    I am honored by the confidence shown in me by the President 
and the Secretary of State in nominating me to serve as the 
next U.S. Ambassador to Libya. If confirmed, I pledge to you 
that I will do my utmost to bring U.S. diplomacy to bear on 
stabilizing the situation and promoting these U.S. interests.
    The principal task at hand is bringing the latest round of 
fighting, which started in early April, to an end through an 
immediate ceasefire in Tripoli. Lasting peace and stability in 
Libya can only come through a political solution, and halting 
the current violence is a critical step to create the 
conditions for a return to political negotiations. Deescalating 
the conflict requires engagement with a broad range of Libyan 
stakeholders, including not only Tripoli and Benghazi, but also 
key constituencies like Misrata, Zawiya, and Zintan. Equally 
critical is frank U.S. engagement with outside parties that 
have influence in Libya, some with a presence on the ground, in 
an effort to ensure that foreign involvement serves to reduce 
rather than promote violence.
    I am committed to working with a wide array of Libyan and 
international partners and in support of United Nations Special 
Representative to the Secretary-General Ghassan Salame to 
reestablish an effective U.N. mediation process. This effort 
should build on the constructive talks between Prime Minister 
al-Sarraj and General Haftar that took place in Abu Dhabi in 
February.
    I would like to stress the United States does not see Libya 
as the play thing of foreign interests. Libya emerged from 
colonial rule in 1951, and a strong sense of independence and 
self-sufficiency still fuels the people of this young and 
fragile country. We respect this. The United States approach to 
Libya is pragmatic and rooted in the clear vision of a unified 
Libyan state that can stand on its own as a force for stability 
and deliver prosperity to all Libyans from Ajdabiya to Zwara 
and Awbari to Tobruk.
    I have no illusion that the is task will be easy, but if 
confirmed, I will led my team to build upon the work done by my 
immediate predecessor, Ambassador Peter Bodde, and the 
hardworking staff of the Libya External Office temporarily 
based at the U.S. Embassy Tunis and capably by interim Charge 
d'Affaires Natalie Baker. I am very conscious--very conscious--
that, if confirmed, I would be carrying forward the work of 
Ambassador Chris Stevens, who gave his life trying to bring 
peace to the people of Libya. I will do my best to ensure that 
Chris Stevens, Glen Doherty, Sean Smith, and Tyrone Woods did 
not die in vain.
    I would like to thank my wife, Mary Hartnett, for her 
unfailing support throughout my career and our children, Daniel 
and Kate, for their service to our nation growing up as Foreign 
Service kids. They and their spouses, Jen and Phil, and our 
four grandchildren, Ellie, Cam, Mary, and Owen, bring great joy 
to our lives. Mary and Daniel are here today. Daniel came from 
San Diego. Kate is actually living in the Middle East working 
on refugee issues.
    Chairman, Ranking Member, Senators, in closing, it is 
perhaps fitting to note that I was born in North Africa in 
Rabat, my father's first Foreign Service post. His last posting 
as Ambassador to Chad was cut short when rebels based in Libya 
advanced on Chad's capital, toppled the government, and forced 
our diplomats to flee on French military transports after being 
pinned down for 3 days.
    So in my lifetime, I have seen North Africa begin its 
remarkable transformation. I have also seen it experience the 
vagaries of self-serving political leadership and the predatory 
behavior of external forces, including those employing 
terrorism in their distorted view of Islam. I have seen how 
instability in Libya can spill over into neighboring countries. 
In my own Foreign Service career, I have had the opportunity to 
serve in majority Muslim countries, to work on conflict 
resolution, and to address the challenges of great power 
competition.
    Taken together, I hope that, if confirmed, serving as 
Ambassador to Libya will enable me to bring a lifetime of 
experience to bear in a way that will advance our interests and 
promote lasting peace and friendship for the United States and 
Libya.
    Thank you. I stand ready to respond to your questions.
    [The prepared statement of Ambassador Norland follows:]

                Prepared Statement of Richard B. Norland

    Mr. Chairman, Ranking Member, Senators: This hearing will be the 
subject of immediate attention by the people of Libya as they look for 
signs of hope that the persistent violence in Tripoli will come to an 
end and a more secure and prosperous future for all Libyans will be 
realized. The interests of the American people are also at stake, with 
respect to ending innocent suffering, countering terrorism, stabilizing 
oil markets, stemming the human misery and political de-stabilization 
of large-scale migration, and forging closer economic cooperation as 
Libya looks beyond decades of instability and isolation. I am honored 
by the confidence shown in me by President Trump and Secretary Pompeo 
in nominating me to serve as the next U.S. Ambassador to Libya. If 
confirmed, I pledge to you that I will do my utmost to bring U.S. 
diplomacy to bear on stabilizing the situation and promoting these U.S. 
interests.
    The principal task at hand is bringing the latest round of 
fighting, which started in early April, to an end through an immediate 
ceasefire in Tripoli. Lasting peace and stability in Libya can only 
come through a political solution, and halting the current violence is 
a critical step to create the conditions for a return to political 
negotiations. De-escalating the conflict requires engagement with a 
broad range of Libyan stakeholders, including not only Tripoli and 
Benghazi but also key constituencies like Misrata, Zawiya, and Zintan. 
Equally critical is frank U.S. engagement with outside parties that 
have influence in Libya, many of whom have a presence on the ground, in 
an effort to ensure that foreign involvement serves to reduce rather 
than promote violence.
    Stabilizing the situation also requires re-launching a political 
process that will result in a government that enjoys legitimacy in the 
eyes of the people of Libya. We are committed to working with a wide 
array of Libyan and international partners, under the effective 
leadership of U.N. Special Representative of the Secretary-General 
Ghassan Salame, to reestablish such a U.N. mediation process. This 
effort should build on the constructive talks between Prime Minister 
alSarraj and General Haftar in Abu Dhabi in February. Achieving a long 
overdue political solution will not be quick, and ongoing violence has 
hardened positions on all sides. If confirmed, I would work with the 
key parties to the conflict in an effort to advance this Libyan-led, 
U.N. facilitated process and help the Libyans move toward credible and 
secure elections.
    Any political progress will be fleeting without attention to the 
economic and security dimensions of this conflict. Increasing oil 
production is a necessary investment in Libya's own future, and if 
confirmed, I would further support Libyan efforts to develop their 
country's energy potential and promote greater transparency and 
accountability in the distribution of Libya's considerable wealth. I 
would also advocate strongly for the U.S. private sector as we seek to 
expand trade and investment for the mutual benefit of Libyans and 
Americans. Reaching the full potential of our economic relationship 
will require greater security. To this end, if confirmed, I would 
reinforce our partnerships with a range of Libyan actors to ensure 
terrorist groups find no safe haven in Libya. We are fortunate to build 
on an effective counterterrorism partnership with the government of 
National Accord and its aligned forces, which were instrumental to 
defeating ISIS in Sirte in 2016, as well as the important contributions 
of the ``Libyan National Army'' to the fight against ISIS and al-Qa'ida 
elements in Libya.
    The United States does not see Libya as the plaything of foreign 
interests. Libya emerged from colonial rule in 1951, and a strong sense 
of independence and self-sufficiency still fuels the people of this 
young and fragile country. We respect this. The U.S. approach to Libya 
is pragmatic and rooted in the clear vision of reinforcing a unified 
Libyan state that can stand on its own as a force for stability and 
deliver prosperity to all Libyans, from Ajdabiya to Zwara and Awbari to 
Tobruk. Our only goal is thus to help Libya establish a stable 
government with popular legitimacy, enabling the country to counter 
real threats from ISIS-Libya and Al-Qa'ida, to control its borders and 
the flow of desperate migrants, to enjoy economic growth for all its 
citizens, and to respect fundamental human rights.
    I have no illusion that this task will be easy, but, if confirmed, 
I will lead my team to build upon the work done by my immediate 
predecessor, Ambassador Peter Bodde, and the hardworking staff of the 
Libya External Office temporarily based at U.S. Embassy Tunis and 
capably led by interim Charge d'Affaires Natalie Baker. I am very 
conscious that, if confirmed, I would be carrying forward the work of 
Ambassador Chris Stevens, who gave his life trying to bring peace to 
the people of Libya. I would be determined to ensure that Chris 
Stevens, Sean Smith, Tyrone Woods and Glen Doherty did not die in vain.
    I would like to thank my wife, Mary Hartnett, for her unfailing 
support throughout my career, and our children, Daniel and Kate, for 
their service to our nation growing up as Foreign Service kids. They 
and their spouses Jen and Phil, and our four grandchildren, Ellie, Cam, 
Mary and Owen, bring great joy to our lives.
    Mr. Chairman, Ranking Member, Senators--in closing, it is perhaps 
fitting to note that I was born in North Africa--in Rabat, my father's 
first Foreign Service post. His last posting, as Ambassador to Chad, 
was cut short when rebels based in Libya advanced on Chad's capital, 
toppled the government, and forced our diplomats to flee on French 
military transports after being pinned down for three days. So, in my 
lifetime, I have seen North Africa begin its remarkable transformation. 
I have also seen it experience the vagaries of self-serving political 
leadership, and the predatory behavior of external forces, including 
those employing terrorism in their distorted view of Islam. I have seen 
how instability in Libya can spill over into neighboring countries. In 
my own Foreign Service career, I have had the opportunity to serve in 
majority Muslim countries, to work on conflict resolution, and to 
address the challenges of Great Power competition.
    Taken together, I hope that, if confirmed, serving as Ambassador to 
Libya will enable me to bring a lifetime of experience to bear in a way 
that will advance our interests and promote lasting peace and 
friendship for the United States and Libya. Thank you, and I stand 
ready to respond to your questions.


    Senator Romney. Thank you, Ambassador Norland.
    Ambassador Cohen?

STATEMENT OF JONATHAN R. COHEN, OF CALIFORNIA, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
        STATES OF AMERICA TO THE ARAB REPUBLIC OF EGYPT

    Ambassador Cohen. Mr. Chairman, Ranking Member, members of 
the committee, it is an honor to appear before you today as the 
President's nominee to be Ambassador to Egypt. I am grateful to 
President Trump and Secretary Pompeo for their continuing 
confidence in me, and if confirmed, I look forward to working 
closely with you and your colleagues to advance U.S. interests 
in Egypt and the region.
    Serving our nation as a Foreign Service officer for the 
past 33 years has been and continues to be a great privilege. I 
want to thank my amazing family, who unfortunately could not be 
here today, for their love and support over the years. And I 
also want to thank my Foreign Service mentors, ambassadors, 
deputy chiefs of mission, and assistant secretaries with whom I 
have served. In particular, I would like to thank Ambassador 
Ryan Crocker, who encouraged me to join the Foreign Service in 
the mid-1980s and with whom I had the honor of serving in 
Baghdad in 2003; my friend, Stuart Jones who, as Ambassador to 
Iraq, when I was his Deputy Chief of Mission from 2014 to 2016, 
set an example that I hope to emulate, if confirmed; and 
Ambassador Jim Jeffrey, a national treasure who has been a 
steady source of wisdom, strategic thinking, friendship, and 
support since we first met over 25 years ago.
    As I had the honor of telling the committee the last time I 
appeared before you, I grew up in a California family that paid 
little attention to foreign affairs, and I began my journey to 
the Foreign Service in high school through involvement in Model 
United Nations and as an AFS exchange student. My journey 
continued in college, studying international relations and near 
eastern affairs. Serving for the past 6 months as the Acting 
U.S. Representative to the United Nations has been a remarkable 
experience that exceeded what I dreamed possible in my Model 
U.N. days. However, I joined the Foreign Service with the 
intention of serving our nation in the Middle East, and I am 
particularly honored to have been nominated to be the next U.S. 
Ambassador to Egypt.
    America's strategic relationship with Egypt is crucial to 
our national security interests. The U.S. is affected by 
Egypt's geostrategic influence on regional political, economic, 
and military affairs; its governance of the Suez Canal; and its 
demographic weight as the most populous Arab country. It hosts 
the headquarters of the Arab League and in February became the 
chair of the African Union for the year. Egypt continues to 
meet its obligations under the 1979 Egypt-Israel Treaty of 
Peace, which is the model for regional cooperation and 
stability. If confirmed, my primary concern will be to continue 
to shape our strategic relationship with Egypt in order to 
advance U.S. interests.
    Egypt is a key partner in countering potential threats to 
the United States and our allies. The Sinai Peninsula is the 
home to one of the most capable ISIS affiliates, and the 
Egyptian military campaign against ISIS-Sinai Province 
continues. In combating terrorism and promoting regional 
stability, President el-Sisi frequently acknowledges the 
importance of the U.S. role. If confirmed, I will seek to 
ensure our counterterrorism partnership with Egypt continues to 
reduce threats to the United States' interests.
    Egypt is the second largest recipient of U.S. security 
assistance and one of the top 10 of U.S. economic assistance. 
The Departments of State and Defense ensure that U.S. security 
assistance is well targeted to achieve bilateral security 
objectives, including encouraging Egypt to use its defense 
budget to purchase more U.S.-produced military equipment, 
supplies, and services. As Secretary Pompeo said during his 
testimony to Congress in April, we have told Egypt that CAATSA 
requires sanctions on any person who knowingly engages in a 
significant transaction with Russia's defense or intelligence 
sectors. If confirmed, I will carry that message forward. The 
United States should have greater insight into the Sinai 
Peninsula to verify that U.S.-provided weapons are being used 
appropriately. If confirmed, I will request additional travel 
for U.S. officials into the Sinai as security conditions 
permit. I will also urge Egypt to grant journalists more access 
to the Sinai.
    I know this committee shares our deep concern about Egypt's 
restrictions on the freedoms of expression, association, 
peaceful assembly, and the press; about protecting the rights 
of vulnerable populations, particularly religious minorities 
and women; about restrictions on civil society, including the 
NGO law; and about allegations of abuses by Egyptian security 
forces. I know that you are concerned about the reasons for and 
the conditions of imprisonment of U.S. citizens in Egypt. Let 
me assure you that I strongly share all these concerns. If 
confirmed, I will emphasize the vital role that protection for 
fundamental freedoms and rule of law play in the progress of 
democracies and in building prosperous economies. I will echo 
the call of Secretary Pompeo from Cairo for President el-Sisi 
to unleash the creative energy of Egypt's people, unfetter the 
economy, and promote a free and open exchange of ideas. For 
that same reason, I will also commend President el-Sisi for his 
support of religious tolerance and of the participation of 
women in politics.
    Embassy Cairo is one of our largest embassies, and it 
offers consular services to more than 68,000 U.S. citizens in 
Egypt. The embassy staff, both American and Egyptian, is 
committed to furthering U.S. priorities and strengthening our 
partnership with Egypt in sometimes difficult conditions. If 
confirmed, I look forward to joining in their efforts. My 
highest priority will always be the safety and security or all 
U.S. citizens in Egypt.
    I thank you again for the opportunity to testify before you 
today, and I look forward to your questions.
    [The prepared statement of Ambassador Cohen follows:]


                Prepared Statement by Jonathan R. Cohen

    Chairman, Ranking Member, Members of the committee: It is an honor 
to appear before you today as the President's nominee to be Ambassador 
to Egypt. I am grateful to President Trump and Secretary Pompeo for 
their continuing confidence in me. If confirmed, I look forward to 
working closely with you and your colleagues to advance U.S. interests 
in Egypt and the region.
    Serving our nation as a Foreign Service Officer for the past 33 
years has been and continues to be a great privilege. I want to thank 
my wonderful wife, Lidija, and our amazing daughters, Alexandra and 
Gabriella, for their love and support over the years. I also want to 
thank my Foreign Service mentors, Ambassadors, Deputy Chiefs of 
Mission, and Assistant Secretaries with whom I have served. In 
particular, I would like to thank Ambassador Ryan Crocker, who 
encouraged me to join the Foreign Service in the mid-1980s and with 
whom I had the honor of serving in Baghdad in 2003; my friend, Stuart 
Jones, who, as Ambassador to Iraq when I was his Deputy Chief of 
Mission from 2014 to 2016, set an example that I hope to emulate if 
confirmed; and Ambassador Jim Jeffrey, a national treasure, who has 
been a steady source of wisdom, strategic thinking, friendship, and 
support since we met over 25 years ago.
    As I had the honor of telling the committee the last time I 
appeared before you, I grew up in aCalifornia family that paid little 
attention to foreign affairs, and I began my journey to the Foreign 
Service in high school, through involvement in Model United Nations and 
as an AFS exchange student. My journey continued in college, studying 
international relations and near eastern affairs. Serving for the past 
six months as the Acting U.S. Representative to the United Nations has 
been a remarkable experience that exceeded what I dreamed possible in 
my Model U.N. days. However, I joined the Foreign Service with the 
intention of serving our nation in the Middle East, and I am 
particularly honored to have been nominated to be the next U.S. 
Ambassador to Egypt.
    America's strategic relationship with Egypt is crucial to our 
national security interests. The United States is affected by Egypt's 
geostrategic influence on regional political, economic, and military 
affairs; its governance of the Suez Canal, through which nearly 10 
percent of global maritime trade transits; and its demographic weight 
as the most populous Arab country, with almost a quarter of the world's 
Arab population. It hosts the headquarters of the Arab League and, in 
February, became the chair of the African Union for the year. Egypt 
continues to meet its obligations under the 1979 Egypt-Israel Treaty of 
Peace, which is a model for regional cooperation and stability. If 
confirmed, my primary concern will be to continue to shape our 
strategic relationship with Egypt in order to advance U.S. interests.
    Egypt is a key partner in countering potential threats to the 
United States and our allies from ISIS and al-Qa'ida and faces serious 
terrorist threats in its mainland, in its western desert, along its 
lengthy borders with Libya and Sudan, and in its Sinai Peninsula. 
Terrorist groups frequently attack Egyptian military and government 
targets in the Sinai and periodically attack civilian targets there and 
in mainland Egypt. The Sinai Peninsula is the home base of one of the 
most capable ISIS affiliates, and the Egyptian military campaign 
against ISIS-Sinai Province continues. In combatting terrorism and 
promoting regional stability, President al-Sisi frequently acknowledges 
the importance of the U.S. role. If confirmed, I will seek to ensure 
our counterterrorism partnership with Egypt continues to reduce threats 
to U.S. interests.
    Egypt is the second-largest recipient of U.S. security assistance 
and one of the top-ten of U.S. economic assistance. The Departments of 
State and Defense ensure that U.S. security assistance is well targeted 
to achieve bilateral security objectives, including encouraging Egypt 
to use its defense budget to purchase more U.S.-produced military 
equipment, supplies, and services. As Secretary Pompeo said during his 
testimony to Congress in April, we have told Egypt that CAATSA requires 
sanctions on any person who knowingly engages in a significant 
transaction with Russia's defense or intelligence sectors. If 
confirmed, I will carry that message forward. The United States should 
have greater insight into the Sinai Peninsula to verify whether 
U.S.provided weapons are being used appropriately. If confirmed, I will 
request additional travel for U.S. officials into the Sinai as security 
conditions permit. I also will urge Egypt to grant journalists more 
access to the Sinai.
    Egypt publicly supports U.S. policy towards Syria; it has played a 
vital role negotiating repeated ceasefires in Gaza between Hamas and 
Israel. Egypt can be a strong force for good in the Middle East and 
Africa. We have encouraged Egypt to play a positive role in resolving 
the Gulf Rift with Qatar and to join us in developing the Middle East 
Strategic Alliance. If confirmed, I will press for greater Egyptian 
support of U.S. efforts to increase regional cooperation.
    U.S. exports to Egypt have sustained, in recent years, an estimated 
25 thousand U.S. jobs. President al-Sisi has taken bold action on 
difficult but essential economic reforms that should offer U.S. 
companies and investors greater opportunities in Egypt. If confirmed, I 
will encourage Egypt to continue implementing reforms that make doing 
business in Egypt easier, and I will encourage more U.S. companies to 
trade with and invest in Egypt as these changes create a more 
hospitable investment climate.
    The defeat of terrorism requires a comprehensive approach that 
includes preventing others from falling victim to the false allure of 
violent extremism. In my work at the U.N., I have seen Egypt lead 
efforts in this regard. I also have witnessed disagreements between the 
United States and Egypt on human rights issues and peacekeeping reform. 
Our relationship can be complicated even as we pursue many shared 
interests. However, our continuing work on counterterrorism and 
regional stability, despite our disagreements, demonstrates the 
strength of our enduring partnership. If confirmed, I will strive for 
achievement of U.S. priorities, as well as objectives the United States 
and Egypt share.
    I know this committee shares our concerns about Egypt's 
restrictions on the freedoms of expression, association, peaceful 
assembly, and the press; about protecting the rights of vulnerable 
populations, particularly religious minorities and women; about 
restrictions on civil society, including the NGO law; and about 
allegations of abuses by Egyptian security forces. I know that you are 
concerned about the reasons for and conditions of imprisonment of U.S. 
citizens in Egypt. Let me assure you that I strongly share all these 
concerns. If confirmed, I will emphasize the vital role that protection 
for fundamental freedoms and rule of law play in the progress of 
democracies and the building of prosperous economies. I will point out 
that opportunities for nonviolent political dissent are necessary and 
can help prevent insecurity and political instability by allowing 
citizens to participate more in their civic affairs and have a stronger 
voice in their future. I will echo the call Secretary Pompeo made in 
Cairo for President al-Sisi to ``unleash the creative energy of Egypt's 
people, unfetter the economy, and promote a free and open exchange of 
ideas.'' For that same reason, I also will commend President al-Sisi 
for his support of religious tolerance and the participation of women 
in politics.
    Embassy Cairo is one of our largest embassies, and it offers 
consular services to more than 68,000 U.S. citizens in Egypt. The 
embassy staff, both American and Egyptian, is committed to furthering 
U.S. priorities and strengthening our partnership with Egypt in 
sometimes-difficult conditions. If confirmed, I look forward to joining 
in their efforts. My highest priority will always be the safety and 
security of all U.S. citizens in Egypt.
    I want thank you again for the opportunity to testify before you 
today, and I look forward to taking your questions.


    Senator Romney. Thank you, Ambassador Cohen.
    Mr. Rakolta?

 STATEMENT OF JOHN RAKOLTA, JR., OF MICHIGAN, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
              AMERICA TO THE UNITED ARAB EMIRATES

    Mr. Rakolta. Chairman Romney, Ranking Member Murphy, 
members of the committee, I would like to thank President Trump 
and Secretary Pompeo for the trust and confidence that they 
have shown in me, and I am humbled by this extraordinary 
opportunity to serve my country. It will represent the 
interests and values of the United States and strengthen our 
nation's bonds with the government and the people of the United 
Arab Emirates. This relationship is critical to our national 
security interests and is a moderating and stabilizing force in 
one of the world's most volatile regions.
    I would like to thank my family, without whom I would never 
have been in a position to be considered for this job, 
particularly without the love, support, and inspiration of my 
family, especially my wonderful wife Terry for 43 years. She is 
here today with three of my four children, Eileen, Lauren, and 
Paige. I also have three of 11 grand children and many friends 
and extended family who are in the room today, and I could not 
be prouder of all of them for supporting me.
    My grandparents came to America from Romania seeking 
freedom and a chance for a better life. Our nation's values of 
hard work and gratitude, combined with love of our country, 
were instilled in my father. These served him well during World 
War II when he was held prisoner of war in Germany after his B-
26 bomber was shot down. He ultimately moved back to Detroit, 
acquired a construction company by the name of Walbridge, and I 
am privileged to lead that company today.
    Having grown this regional firm into a multinational 
enterprise of over 2,000 employees, this experience has allowed 
me to understand the complexities of international business and 
commerce. These large and complex projects have given me 
experiences and insights which will be extremely helpful to 
U.S. business interests. If confirmed, promoting and developing 
U.S. business interests in UAE will be one of my top 
priorities. If confirmed, I will lead the embassy in 
continuation of efforts to promote and maintain fair and 
reciprocal trade with the UAE.
    The World Expo 2020 in Dubai offers great potential to 
showcase America's story, ingenuity, and technology in the 
Middle East. I look forward to advancing American values to 
millions of visitors, many of them youth, that visit our 
national pavilion.
    If confirmed, my highest priority will be ensuring the 
safety and security of Americans in the United Arab Emirates, 
including all private citizens who live and work in the UAE, as 
well as employees under the Chief of Mission's authority. I 
also believe that continuing our dialogue with the UAE on human 
rights and religious freedom represents another priority, which 
I will work continuously to advance, if confirmed.
    I understand that the UAE has been a key security partner 
for the United States and has joined us in several U.S.-led 
coalition operations, including against ISIS and al Qaeda. I 
would work closely with the embassy team, as well as with the 
members of this committee to ensure that our security 
partnership remains strong.
    If confirmed, I will fully support the U.N.-led peace 
efforts by U.N. Special Envoy for Yemen Martin Griffiths. The 
war in Yemen has taken on larger regional implications with the 
involvement of Iran and has created immense suffering among the 
Yemeni people. The administration's position on bringing an end 
to the conflict has been clear: only a negotiated settlement 
can end this protracted war and unify Yemen. If confirmed, I 
will work to continue support for U.N.-led efforts to achieve a 
lasting end of hostilities and a comprehensive peace agreement 
in Yemen.
    I will also support efforts to address the dire 
humanitarian consequences of the conflict. I understand that 80 
percent of Yemenis are in some need of humanitarian assistance. 
The international community must remain coordinated and strong 
in our response and in our efforts. All parties, especially the 
Houthi authorities, have to commit to lifting unnecessary 
impediments that slow down deliveries of aid.
    The President has been clear. Iran is responsible for the 
May 12th and the June 13th attacks on six vessels off the coast 
of UAE and in the Gulf of Oman. The Iranian regime poses a 
major threat to freedom of navigation and maritime security 
from the Persian Gulf to the Red Sea. If confirmed, I will work 
and support the administration's efforts to keep the Straits of 
Hormuz open where 20 percent of the global petroleum passes.
    If confirmed, I will work tirelessly with President Trump, 
my State Department colleagues, and this committee to protect 
and advance the interests of the American people. I will 
passionately and diligently represent our service men and 
women, business community, tourists, academics, the 50,000 
American citizens living in the UAE, and others wishing to 
engage with the people of the United Arab Emirates.
    Chairman Romney, Ranking Member Murphy, and members of this 
committee, thank you for the privilege and opportunity appear 
before you today, and I look forward to answering your 
questions.
    [The prepared statement of Mr. Rakolta follows:]


                 Prepared Statement of John Rakolta Jr.

    Chairman, Ranking Member, Members of the committee, it is an honor 
to come before you today as President Trump's nominee to be the United 
States Ambassador to the United Arab Emirates.
    I would like to thank President Trump and Secretary Pompeo for the 
trust and confidence that they have shown in me. I am humbled by this 
extraordinary opportunity to serve my country. If confirmed to serve as 
the next U.S.Ambassador to the United Arab Emirates, I will represent 
the interests and values of the United States and strengthen our 
nation's bonds with the government and people of the United Arab 
Emirates. This relationship is critical to our national security 
interests and is a moderating and stabilizing force in one of the 
world's most volatile regions.
    I would like to take this opportunity to thank my family, without 
whom I would never have been in a position to be considered for this 
job. Particularly, without the love, support and inspiration of my 
family, especially my wonderful wife of 43 years, Terry. She is here 
today with three of our four children, Eileen, Lauren and Paige. I 
could not be more proud of them.
    My grandparents came to America from what is today Romania seeking 
freedom and a chance for a better life. They raised my father to work 
hard and be grateful for the blessings our nation made possible. These 
were qualities that served him well during World War II when he was 
imprisoned in a German prison camp after the B-26 bomber he was 
navigating crashed. After the war, he returned to Detroit more 
optimistic and determined to build his family and career, ultimately 
acquiring and running Walbridge, the 100-year-old construction company 
I've had the privilege to lead for the last 39 years.
    Having grown this company into a $40 million regional company into 
a $1.6 billion international enterprise of nearly 2,000 employees, I 
have successfully managed assets and motivated teams of talented people 
to achieve great goals in highly competitive global economic 
environments. Walbridge projects have been completed throughout North 
and South America, as well as Asia and the Middle East for U.S. and 
foreign-based companies. We constructed Maritime City in Dubai, the 
largest complex for ship repair on the Indian Ocean.
    The UAE is the largest market for U.S. goods and services in the 
Middle East. My experience in the private sector has allowed me to 
understand the complexities and opportunities of international finance 
and commerce. Having overseen large and complex international projects 
has given me insights into foreign business risk, competing on a 
foreign stage, and dealing with currency volatility, all of which will 
be extremely helpful to U.S. business interests. If confirmed, I will 
use my experience in identifying and utilizing local joint ventures as 
a means and method of entering a foreign market to help American 
businesses expand into the UAE and beyond. Promoting and developing the 
expansion of U.S. business interests will be a top priority. If 
confirmed, I will lead the Embassy in the continuation of efforts to 
promote and maintain fair and reciprocal trade with the UAE. The U.S. 
has enjoyed a healthy trade surplus with the UAE for the past nine 
years, and I would like to see that continue. If confirmed, I will work 
to promote U.S. business opportunities as well as direct investment in 
U.S. industries.
    The World Expo 2020 in Dubai offers great potential to showcase 
America's story, ingenuity, and technology in the Middle East. I look 
forward to advancing American values to millions of visitors--many of 
them youth--that visit our national pavilion.
    If confirmed, my highest priority will be ensuring the safety and 
security of all Americans in the United Arab Emirates, including all 
private citizens who live and work in the UAE, as well as employees 
under Chief of Mission authority. I also believe that continuing our 
dialogue with the UAE on human rights and religious freedom represents 
another priority, which I will work continuously to advance if 
confirmed. I understand that the UAE has been a key security partner 
for the U.S., and has joined us in several U.S.-led coalition 
operations including Kosovo, Afghanistan, and Somalia, as well as the 
ongoing fight against ISIS and Al Qaeda. I would work closely with the 
Embassy team, as well as with the members of this committee, to ensure 
that our security partnership remains strong.
    If confirmed, I will fully support the U.N.-led peace efforts by 
U.N. Special Envoy for Yemen Martin Griffiths. The war in Yemen, which 
began among Yemenis, then drew in neighboring countries, has taken on 
larger regional implications with the involvement of Iran, and has 
created immense suffering among the Yemeni people. The administration's 
position on bringing an end to the conflict has been clear: only a 
negotiated settlement can end this protracted war and unify Yemen. If 
confirmed, I will work to continue the administration's support for 
U.N.-led efforts to achieve a lasting cessation of hostilities and a 
comprehensive peace agreement in Yemen. I will also support efforts to 
address the dire humanitarian consequences of the conflict. I will 
continue to work with the UAE to ensure humanitarian efforts are 
prioritized, particularly in their role in the Saudi-led Coalition, 
continuing efforts such as ensuring the Red Sea ports remain open and 
operational. Other examples of such efforts include when the Saudi-led 
Coalition worked with the U.S. government to deliver the World Food 
Programme cranes in December 2017. In this regard, all parties need to 
increase access so that critical commercial and humanitarian goods 
reach all areas of Yemen. I understand that 80 percent of Yemenis are 
in need of some form of humanitarian assistance, and therefore the 
international community must remain coordinated in our response. All 
parties, especially the Houthi authorities, have to commit to lifting 
unnecessary impediments that slow down deliveries of aid.
    The President has been clear Iran is responsible for the May 12 
attacks on four commercial vessels off the coast of Fujairah, UAE and 
the June 13 attacks on two vessels in the Gulf of Oman. The Iranian 
regime poses a major threat to freedom of navigation and maritime 
security from the Persian Gulf to the Red Sea. If confirmed, I will 
work to support the administration's efforts to keep the Strait of 
Hormuz open, the narrow waterway in the Persian Gulf where 20 percent 
of global petroleum passes.
    If confirmed, I will work tirelessly with President Trump, my State 
Department colleagues and this committee to protect and advance the 
interests of the American people, passionately representing our service 
men and women, business community, tourists, academics, the 50,000 
American citizens living in the UAE, and others wishing to engage with 
the people of the United Arab Emirates.
    Chairman, Ranking Member, and Members of the committee, thank you 
for the privilege and opportunity to appear before you today and I look 
forward to answering your questions.


    Senator Romney. Thank you, Mr. Rakolta.
    The ranking member and I are going to both yield our time 
for purposes of voting and letting Senator Kaine offer the 
first questions.
    Senator Kaine. Thank you, and I will do that as long as you 
tell the floor to keep the vote until I get there.
    Senator Romney. I will.
    Senator Kaine. Thank you, and congratulations to all of 
you. These are very, very important nominations. And it is hard 
to ask all the questions that I want to in 5 minutes before 
going to vote. I think I am going to focus on Egypt, if I might 
start with you, Ambassador Cohen. It is good to see you again.
    The death of former President Morsi in a courtroom this 
week has got a lot of attention. There has been significant 
attention before his death to inadequate treatment of prisoners 
in Egyptian prisons. This is likely to be an issue of 
significance. The U.N. has called for an investigation into the 
circumstances of his death.
    Do you believe there should be such an investigation?
    Ambassador Cohen. Senator, thank you for raising the issue. 
It is, of course--prison conditions in Egypt are a broader 
issue of concern.
    Senator Kaine. Right.
    Ambassador Cohen. We have American citizens who are 
incarcerated there, and a top priority has to be insisting that 
the conditions of their incarceration are decent, humane, meet 
international standards, and that they are treated fairly under 
the law.
    In the case of President Morsi, I have seen the comments 
calling for an investigation, and I believe that if there are 
allegations of abuse anytime, investigations should be pursued.
    Senator Kaine. The danger of not having an investigation 
that would have some credibility would be that this could 
easily lead to additional political turmoil, violence. A 
predictable response of folks in the Muslim Brotherhood side 
would be to try to ratchet up protests, even violent protests 
against the government. So the idea of an investigation--it is 
always important to get accountability, but also a credible 
investigation can be something that can help maintain some 
order. Would you not agree?
    Ambassador Cohen. Yes, sir.
    Senator Kaine. Let me ask you about the imprisonment of 
journalists in Egypt. I was in Egypt and had a very candid 
dialogue about this with President el-Sisi when he was running 
for president, before he was president. And I basically 
expressed to him, look, you have got internal challenges with 
dealing with terrorism and things like that. And the U.S. will 
probably give you a great deal of deference in trying to make 
decisions about how you police internal security. But just 
friend to friend, we have a very difficult time, because of our 
culture, understanding journalists being thrown in jail for 
long periods of time. And these are not just journalists for 
Egyptian publications. Journalists have been in jail for 
international publications, wire services like Reuters, and 
otherwise.
    I have been disappointed. We had a pretty candid exchange 
about it, but I have been very disappointed with the Egyptian 
government's record of continuing to imprison journalists.
    Since this is such a key value to the United States, the 
First Amendment, as Ambassador what would you do--you cannot 
dictate internal politics in that country, but what would you 
do to uphold the important values of freedom of the press and 
encourage the Egyptian government to up their game in that 
regard?
    Ambassador Cohen. Senator, in public and private, I would 
make clear that the United States believes and I personally 
believe that having a strong democracy, having a prosperous 
country, having a stable country requires creating space for 
public opinion to express itself, including when that opinion 
is dissenting, without fear of retribution. And the case of 
journalism is at the center of that discussion. And if 
confirmed, I would be very happy to continue a conversation 
with this committee about how we can work together to advance 
that agenda with the Egyptians. But I would intend to raise it 
at the most senior levels on a regular basis.
    Senator Kaine. Thank you.
    Mr. Rakolta, I want to ask a question about your opening 
testimony regarding flow of oil through the Straits of Hormuz. 
Do you know what percentage of American energy comes through 
the straits? What percentage of American energy comes through 
the straits?
    Mr. Rakolta. I am not familiar with exactly the number, but 
I believe it is low. It is not crucial to our country. We are 
pretty much self-producing right now.
    Senator Kaine. That is correct.
    40 years ago, it would have been 70 or 80 percent, you 
know, nearly existential if there was anything challenging in 
the Straits of Hormuz to the United States economy. And now it 
is relatively low because of the good fortunate of American 
innovation in producing domestic energy.
    That said, there is an important global economic effect of 
problems in the Straits of Hormuz, obviously. But do you think 
it is the U.S.'s primary responsibility to be the guarantor of 
safe passage through the straits, or is that more appropriately 
an international responsibility the United States should play a 
part in because it is more other countries' energy resources 
that are at stake in this issue?
    Mr. Rakolta. I believe both, that the United States plays a 
very significant role due to the malign activities of Iran 
today, and we have a special relationship with our allies, both 
UAE and others, but also there is an international 
responsibility, given the fact that they consume most of the 
oil that comes through the straits.
    Senator Kaine. I think that is an important point. I just 
want to make sure that we do not take up on the world's burden 
of being the guarantor when the Straits of Hormuz are no longer 
of the same existential importance that they were to the United 
States a few decades ago. We do have a role. That is an 
important thing, but we need to call upon other countries to 
shoulder significant portions of the burden.
    Thank you for the testimony.
    And, Mr. Chair, I am going to yield it back to the lonely 
Senator Rubio as I leave and go vote.
    Senator Rubio. Yes. I hope you will tell them that I need 
to vote as well. And at some point if the folks do not get back 
in time, we may have to briefly recess till they get here 
because we have an important vote.
    I wanted just to focus on Libya. I do not think most 
Americans are aware of what a catastrophe this has turned into 
and how bizarre it is in some ways. Mr. Norland, I am sure in 
your current role as an advisor to the Joint Chiefs, you have 
watched closely a lot of the events there unfold.
    You know, briefly, we have a stalemate between the LNA and 
the GNA, the LNA controlling the vast majority of the 
territory, but the GNA posing a greater threat to their hold on 
that. And largely, it is unlike many of the other conflicts in 
parts nearby. It is not about sectarianism. It is just a raw 
power calculation.
    And then you got all these proxies. And it is kind of a 
weird standoff. On the LNA side, you have the UAE involved. You 
have the Russians, who have about $4 billion of oil contracts 
and are trying to get more. You have the French, and then you 
have Egyptian help primarily because they are concerned about 
their border and instability and so forth triggering over to 
them.
    And then on the other side, on the GNA side, you have the 
Turks who want to position themselves at least as a regional 
and play big boy as a global power. And then you have the 
Italians who are apparently involved to thwart the French and 
vice versa. So I do not fully understand that one.
    But our national interest concern there involves what 
appears to be a growing effort, still nascent, but nonetheless 
one we have to be very cognizant of, that both al Qaeda and 
ISIS are taking advantage of this sort of stalemate in fighting 
to look for an opportunity to reconstitute an area of operation 
that was eliminated. And they are doing two things now where 
they are using the conflict as a way to do it, but they are 
also I believe taking advantage of the fact that because the 
LNA is now facing off with the GNA, the counterterrorism 
pressure against them is, at this point, virtually nonexistent.
    So if you could share with us some of your insights or 
views about what we can do from the post to sort of keep an eye 
on all this.
    Ambassador Norland. Well, Senator, I think you have 
characterized the situation extremely accurately. The fact is 
that the fighting that is underway now cannot possibly produce 
a successful outcome for any side in this situation. Any 
victory would be pyrrhic.
    And the United States is absolutely committed to working 
all of the parties both inside Libya and with, as you say, a 
number of the interested outside countries, some of whom have a 
presence on the ground, to move with U.N. support and 
leadership in the direction of a negotiated settlement. The 
United States does have influence in this situation, both 
through the vision that we have, the neutral vision--we do not 
take sides in this equation--but also through economic 
sanctions and other measures we are able to apply. And if 
confirmed, it would be my role to do everything, to bring 
everything to bear that we can diplomatically and otherwise to 
try to end what, as you say, is a needless and terrible 
conflict.
    Senator Rubio. Thank you.
    And I apologize. We are going to have to recess briefly. So 
the committee will stand in brief recess until the chair 
returns.
    [Recess.]
    Senator Romney. The short recess is over.
    Ambassador Norland, given the fighting within Libya and the 
disarray that exists in that country, what do you believe 
should be our highest or higher priorities as you look to 
leading our post there?
    Ambassador Norland. Senator, I think the highest priority 
right now is to achieve a ceasefire and to get the key parties 
on the ground that are currently in conflict to move to the 
negotiating table and search for a political solution to the 
situation in Libya.
    The United Nations has been playing a very effective role 
under Ghassan Salame to try to get a process going. There was 
an initial meeting in Abu Dhabi some months ago that had 
prospects for success but has not panned out.
    And I think, if confirmed, my goal would be to apply all 
the diplomatic interests and leverage that we can both with 
parties inside Libya, in the east and in the west, as well as 
the local parties, and then with outside countries in the 
region to influence the situation in the direction of a 
political settlement.
    Senator Romney. Thank you.
    Ambassador Cohen, Egypt has obviously been a long-term 
partner of ours and plays a critical role in the region. But 
Egypt has recently flirted with the possibility of buying 
fighter jets, as you know, from Russia. Secretary Pompeo notes 
that if that sale were to happen, the Countering America's 
Adversaries Through Sanctions Act would require sanctions on 
the Egyptians. I and 16 of my colleagues have called on 
President Sisi to reconsider the sale.
    How do you believe and how would you approach Egypt on this 
issue?
    Ambassador Cohen. Senator, I think the conversation begins 
right where you started with CAATSA and the consequences of 
going forward with it. But it very quickly goes into promoting 
American goods. I think we have better stuff. We have a better 
product. And we are right now Egypt's partner of choice across 
the board, and we need to make sure that we remain a partner of 
choice. So my engagement would be to underscore for the 
Egyptians the fact that about half of their military inventory 
is American is for a good reason because they chose the best 
they could get, and I think it is important that we continue to 
encourage them to buy our goods.
    Senator Romney. I would presume as well that our continued 
financial commitment to Egypt, particularly to their military 
effort, would obviously be influenced by a decision on their 
part to buy equipment from a geopolitically hostile power.
    Ambassador Cohen. The Egyptians have a longstanding and 
broad relationship with Russia on the commercial side, 
including military commerce. But the U.S. relationship with 
them I believe is stronger, and we will continue to strengthen 
that and grow our side of the account, work with them, and 
press them, and encourage them to reduce the Russian side.
    Senator Romney. Do you have any prospect about how we could 
encourage them to reconsider their human rights policies, 
particularly with regard to imprisoning dissidents?
    Ambassador Cohen. As I alluded to in my prepared statement, 
my belief is that we need to underscore for them over and over 
again at a high level publicly and privately that progress, 
prosperity, and stability requires them to create space for a 
variety of views, including dissenting views without fear of 
retribution. And that will continue to be my theme as I discuss 
this with the Egyptians.
    Senator Romney. Thank you.
    Mr. Rakolta, what are your perspectives on the priorities 
for the U.S. with regard to our security relationship with the 
UAE, and how might you hope to advance those priorities?
    Mr. Rakolta. Thank you for the question, Senator.
    Our priorities with the UAE continue to revolve around our 
own national security and the security of the UAE itself. They 
are being threatened existentially by Iran, and the closer and 
the deeper that our relationship can be would be advantageous 
both to us and to them.
    Secondly, we have a significant trade relationship with the 
UAE. Today we enjoy the second largest trade surplus at over 
$15 billion. And as I said in my opening remarks, if confirmed, 
I have every intention to see us continue that advantage.
    And thirdly, the UAE is a moderating force in terms of 
human rights and religious freedom in the Gulf and in the 
broader Mid-East. And I would continue to encourage them at the 
highest level to continue to make modifications and reforms to 
join the Western world in terms of the democracies and freedoms 
that we have as U.S. citizens.
    Senator Romney. Thank you.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Mr. Norland, thank you for your commitment to the country 
and taking on this very difficult job. You are going to face a 
very fluid situation when you arrive in Libya. And as I 
mentioned in my opening remarks, in April President Trump 
called Khalifa Haftar, as he was leading his failed offensive 
on Tripoli, and a public readout of the call made no reference 
to that offensive. Instead, the President seemed to praise 
Haftar for his ongoing counterterrorism efforts, a message that 
deeply perplexed our international partners since he has been 
actively attacking groups we worked with to dislodge ISIS.
    Can you clarify for this committee the U.S. position on 
Khalifa Haftar?
    Ambassador Norland. Yes, Senator. Thank you.
    As you can imagine, as part of my consultations, I have 
been exploring that theme. And it is clear to me that we 
consider the Libyan National Army to be a key player in any 
effort to produce a political solution to the situation in 
Libya. And it was I think, as I understand it, in that respect 
that there was a conversation between the President and Haftar. 
I understand that discussion revolved around counterterrorism, 
oil market stability, and the role of the LNA precisely in a 
political solution.
    What I found in the course of my consultations is unanimous 
consent across the U.S. government. There has to be a 
ceasefire. There has to be a movement towards a political 
settlement, that the United Nations' role in this process is 
key. And if confirmed, that is the path that I will be embarked 
on.
    Senator Murphy. I am glad you are willing to take on this 
job. You, I think, can understand how a phone call in the 
middle of an offensive that does not mention the ceasefire or 
the offensive would be interpreted by the international 
community and our partners as an endorsement of that offensive, 
not a move towards a ceasefire. But that is not your phone 
call. That is the President's. And I appreciate your 
willingness to take up this job.
    Mr. Cohen, you talk about the importance of our security 
relationship with Egypt. Let me just ask you a general 
question. Do you believe that it is appropriate to use U.S. aid 
and the threat of cutoff of U.S. aid as a means to try to push 
a human rights agenda in Egypt? The situation is getting worse 
not better. And I think the fundamental question is, are we 
willing to deliver a message to el-Sisi that there is a line 
you can cross, at which point we are no longer comfortable or 
bound to be a partner with them if they continue to ratchet up 
this campaign against political dissidents?
    Ambassador Cohen. Thank you, Senator. Let me take this in 
two parts.
    The first is that I believe in and, if confirmed, I will, 
of course, be supporting the law. And the law that the Congress 
passes that provides the financing has human rights provisions 
in it, and consequently we currently have a significant amount 
of money that has not been released because those conditions 
have not been either met or waived by the administration. So I 
think the path we have taken is completely appropriate.
    I also believe that the counterterrorism assistance that we 
provide is in our own national security interests. So we need 
to be sure as we go forward that we are protecting and 
defending American national security interests which are served 
by ensuring that the Egyptians can prosecute counterterrorism 
against ISIS in the Sinai, address the terrorism in their 
western desert, address terrorism in Egypt's heartland. It is 
not just Egypt's interests that are at stake there. It is 
America's.
    Senator Murphy. Let me just sneak in a couple questions for 
Mr. Rakolta.
    You disclosed as part of your process before the committee 
having some business interests in the UAE that may require you, 
under UAE law, to keep some of those companies open. Can you 
just talk about the projects that you have participated in, 
your company has participated in UAE and the steps that you 
have taken in coordination with this nomination?
    Mr. Rakolta. Yes, thank you for the question, Senator.
    From 2003 to 2013, my company did a significant amount of 
business in the UAE. We stopped bidding in 2011. We finished 
the final project in 2013. All of our staff and everything was 
removed from the UAE and sent elsewhere in the world.
    Secondly, there are contractual obligations and guarantee 
both contractually and by law that require us to give a 
corporate guarantee on those projects, if you will, the fact 
that if something were to go wrong, they could come back at us. 
That is the only thing. And we could have closed down our LLC 
that was working there, but as a practice for tax purposes, we 
leave those open until the final guarantees are completed.
    Senator Murphy. Have you had other business in the Middle 
East over that period of time?
    Mr. Rakolta. We did work in Doha on one project, but the 
projects were primarily in the UAE and in Doha. And the Doha 
project was, obviously, back then conducted out of the Dubai 
office. But everything has been shut down, and we have 
absolutely no intentions of going back. In fact, I will make it 
a little stronger. We will not be going back to doing business 
there.
    Senator Murphy. In the region, in the Middle East.
    Mr. Rakolta. Yes.
    Senator Murphy. And will you make that commitment once you 
leave this post as well?
    Mr. Rakolta. Yes, I would personally.
    Senator Murphy. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Romney. Thank you, Senator Murphy.
    Mr. Rakolta, in just a moment Senator Menendez, who is the 
regular ranking member, will be joining us and wants to ask 
questions of the three. But anticipating his arrival, let me 
first ask you.
    It is a departure from some precedent to have an individual 
serve as Ambassador to UAE other than a career Foreign Service 
representative. What are your thoughts about that assignment? 
Does it represent a disadvantage not having that Foreign 
Service background to be able to serve in this regard, or do 
you believe that your experience will prepare you appropriately 
to serve in this critical spot?
    Mr. Rakolta. I think the difference between a career 
ambassador and a political appointee ambassador are quite 
different. I think each brings different qualifications to the 
job. I certainly will be at somewhat of a disadvantage on the 
career side of all of the experiences that they have, but on 
the other hand, I bring other experiences that I think will be 
very, very beneficial.
    On the side of perhaps being a bit at a disadvantage, I 
would submit to you that I will be using the embassy staff and 
the State Department to probably a greater degree, relying on 
them, at least in the initial phases, for a lot of advice and 
guidance. That is pretty much my answer.
    Senator Romney. Thank you.
    Ambassador Norland, I appreciate that in your opening 
statement, you made reference to the loss of life associated 
with those who served in Libya and want to underscore the debt 
that we owe to them and their families and appreciate your 
recognition of those individuals.
    Now having seen what happened there and recognizing your 
assignments in other ambassadorial posts around the world, how 
confident are you in the effectiveness and the sufficiency of 
our security resources in protecting the lives of our men and 
women who serve in the Foreign Service in Libya and in this 
part of the world?
    Ambassador Norland. Well, thanks for your concern, Senator, 
and your interest.
    In fact, because of the security situation in Libya in the 
recent few years, our diplomatic activities regarding Libya 
have been conducted out of our embassy in Tunis for security 
reasons. Our Chief of Mission has periodically gone into Libya 
in cooperation with the military forces from AFRICOM on short 
day trips to try to conduct some diplomatic activity on the 
ground. But that is a heavy security load to conduct missions 
like that. And at the moment, I think we are grappling with the 
question of how do we maintain an effective diplomatic presence 
with a finger on the pulse of what is going on in Libya but in 
a way that protects our people. And if confirmed, that is the 
balance I would need to strike, putting primary emphasis, of 
course, on the security of our people, but also trying to find 
a way to maximize the effectiveness of our diplomatic presence.
    Senator Romney. Thank you, Ambassador.
    I am going to yield the rest of my time to Ranking Member 
Menendez, who has just joined us. He will ask questions, if you 
are ready for that, of the panel. And, Senator Menendez, when 
you finish asking your questions, you can complete the panel. 
The rest of us have all had our questions, and we have had our 
opening statements.
    I am going to have to run and go vote. But for the benefit 
of those in my care, I will come back to express my 
appreciation to each of you if you are still here. It will not 
take me that long to vote. Thank you.
    Senator Menendez. Thank you, Mr. Chairman. Thank you for 
the courtesy in keeping the hearing open.


  Statement for the Record on the Nominations of Jonathan Cohen to be 
Ambassador to Egypt, Richard Norland to be Ambassador to Libya and John 
         Rakolta to be Ambassador to the United Arab Emirates.

    Today we consider three important nominations: Jonathan Cohen to be 
Ambassador to Egypt, Richard Norland to be Ambassador to Libya and John 
Rakolta to be Ambassador to the United Arab Emirates.
    Egypt, an important security partner and regional actor, has been 
without a confirmed ambassador for more than two years now. 
Nevertheless, Mr. Cohen, a career foreign service officer, was only 
nominated fewer than three months ago.
    The UAE, another important security partner, has not had a 
confirmed ambassador in over a year. Breaking with precedent for 
ambassador positions to the UAE, Mr. Rakolta is not a career diplomat, 
and I had some significant concerns about elements of his file, 
including a number of omissions and inconsistencies in the information 
he provided to the Committee. Among other things, he failed to fully 
disclose business ties he held abroad. Mr. Rakolta has been forthcoming 
in his responses to my inquiries, specifically those regarding his 
involvement in a non-profit organization from 2009 to 2011, which was 
involved in questionable payments to a government official. 
Nonetheless, I am still concerned by some of the facts, including that 
he did not initially disclose that he served on the board of the 
organization and that he approved payments to an official who was 
involved in selecting his company as the recipient of a county 
contract.
    The United States and Egypt have a longstanding and important 
strategic partnership. From Libya to the Sinai, Egypt faces a number of 
serious and legitimate security threats that we in the U.S. are 
committed to helping Egypt overcome. However, this partnership is 
complicated by the continuous erosion of political and human rights in 
Egypt, as well as Egypt's openness to pursuing deals with strategic 
adversaries like Russia and China. I am particularly concerned about 
Egyptian efforts to purchase Russian military equipment, which would 
trigger negative consequences laid out in U.S. law. Furthermore, I am 
concerned that repression that stifles all legitimate means of dissent 
is itself a threat to Egyptian peace and prosperity, as are misguided 
military and counter-terrorism operations. While the Egyptian 
government took the promising step of announcing the repeal of its 
problematic NGO law, I am concerned about the lack of response from 
this Administration to the overall downward trend for civil society in 
Egypt. Arrests of political dissenters, civil society activists, 
attacks on press freedom, and the targeting LGBTQ people have become 
more common in recent years.
    In Libya, fighting between various factions amid the war and chaos 
is having significant negative impacts on regional security across 
North Africa, the Middle East, and Southern Europe. The ongoing 
military offensive by Khalifa Haftar and his Libyan National Army 
threatens civilians and could reignite a more violent civil war that 
destabilizes the rest of North Africa. Meanwhile, regional actors, 
including Egypt and the UAE, have converged on the country, pouring in 
significant resources to support various political actors and militias 
across the country, sometimes at cross-purposes with United States 
efforts. U.S. engagement on Libya has been hampered by the lack of a 
permanent diplomatic presence in the country since the deadly attack 
that resulted in the deaths of Ambassador Christopher Stephens, Sean 
Smith, Glenn Doherty and Tyrone Woods in Benghazi in September, 2012. 
More recently, U.S. engagement has been muddied by President Trump's 
April 15 telephone call with General Heftar, which appeared to embolden 
the General in his advance on Tripoli, in spite of the U.S.'s 
previously established support for the internationally recognized 
government of National Accord as well as the U.N.-brokered political 
process. Finally, I remain gravely concerned by the plight of the 
thousands of refugees and nearly 700,000 displaced Libyans and 
migrants.
    In the UAE, America has an important security partner but one with 
whom we've had a range of challenges and even countermanding policy 
objectives around the region. I placed a hold on a proposed sale of 
Precision-Guided Munitions in response to the UAE's participation in 
the Saudi-led coalition in Yemen that has resulted in civilian 
casualties from airstrikes and as well as disturbing reports of 
detainee abuse at UAE-run detention centers. I am also deeply troubled 
by credible reports of illicit transfers of U.S. origin weapons and 
armored vehicles to armed Yemeni groups, some of which the United 
States considers terrorist organizations. The Trump Administration is 
now trying to circumvent that hold and the entire Congressional review 
process for arms sales using an emergency declaration that fails the 
smell test. In Libya, Emirati support, including airstrikes, for 
General Haftar emboldened the General in his ill-considered assault on 
Tripoli. In Sudan, UAE support for the Transitional Military Council 
has emboldened the delay to a civilian-led transition, facilitating a 
violent crackdown on peaceful protesters.
    I believe it is imperative that we have strong, empowered 
ambassadors across the world to promote our interests and to advocate 
for Americans and American values.


    Gentlemen, congratulations on your nominations.
    I was delayed on the floor because of votes that we are 
having on rejecting Saudi arms sales. So I had to be there for 
that.
    Mr. Cohen, I appreciate your distinguished service to our 
nation, most recently at the United Nations.
    This assignment to Egypt is one of the critical ones in my 
view. I have serious concerns about the erosion of political 
and human rights in Egypt, the systematic choking off of 
avenues for legitimate dissent and the threat that poses for 
Egyptian stability. I am concerned about Americans who seem to 
be arbitrarily and capriciously imprisoned. I am concerned 
about the ability of Egyptian civil society to speak. I am 
concerned about the protection of Coptic Christians inside of 
Egypt. I am concerned about Egypt's moves through changes to 
its constitution in a way that seeks to extend indefinitely 
almost the time in which President el-Sisi can be in office. 
And I am seriously concerned about what Egypt is doing with 
General Haftar in Libya, which I think sends us in all the 
wrong direction. So this is an incredibly important assignment.
    So speak to me about what points of leverage do you see the 
United States being able to use with the Egyptian government to 
improve its human rights record. If you are confirmed, will you 
commit to publicly raising concerns regarding political and 
human rights in Egypt and meet with Egyptian civil society 
actors?
    Ambassador Cohen. Yes, Senator, I do.
    Senator Menendez. Okay. You have not perfected the State 
Department's endless answers. So I appreciate that.
    [Laughter.]
    Senator Menendez. That works great.
    Will you help us address challenges facing the Coptic 
community in the context of broader human rights concerns in 
Egypt?
    Ambassador Cohen. I will, Senator, and let me say this 
about the Coptic community. We have seen some progress. There 
is a way to go, but President el-Sisi has undertaken a reform 
of public school textbooks. He has instituted a national 
committee to combat incidents of sectarian violence. He has 
granted permits to some 900 previously unlicensed Coptic 
churches and has permitted the construction of some new--14 new 
churches I believe over the last couple of years. So there is 
some progress. There is more work to be done but this will be a 
high item on my agenda.
    Senator Menendez. Thank you.
    With the recent amendments to Egypt's constitution eroding 
the independence of Egypt's judiciary, giving President el-Sisi 
the power to hand select the heads of judicial bodies and allow 
him to extend his rule, which also expand the military's 
influence over government politics and society, what avenues 
are left for free and transparent political processes? What 
implications does that kind of political repression have for 
long-term stability?
    Ambassador Cohen. Senator, my personal goal, if confirmed, 
will be to promote a prosperous and stable Egypt, and a 
prosperous and stable Egypt needs to be one where, as I have 
said several times today--excuse me for repeating myself--one 
that makes space for a range of opinions, for dissenting voices 
that can be expressed without fear of retribution, for a 
marketplace that has a more level playing field between public 
and private sectors, for one where abuses by security forces 
are met with accountability. I share many of the concerns that 
you outlined in your initial statement, and if confirmed, I 
will work tirelessly and make statements both in public and 
private along these lines.
    Senator Menendez. Thank you.
    Let me ask you finally, at least in this public session. I 
will have some questions for the record. But how will you 
engage the Egyptian government, as well as your colleagues on 
this panel in neighboring countries, if they are confirmed, to 
push for a ceasefire and a political solution in Libya?
    Ambassador Cohen. Senator, in my work at the U.N., we have 
been pushing for this for many months. And if confirmed and if 
by the time I get to post, we are not back at a political 
track, I will continue to push the Egyptian officials at a high 
level and try and rally as much support from my colleagues in 
Washington, including on this committee, to do so.
    Senator Menendez. So let me ask you one overarching 
question. So, yes, we have some interests aligned with Egypt. 
They are doing some critical work particularly in our 
collective fight against terrorism. They seem to have a good 
relationship with our ally, the State of Israel, at least in 
the Sinai. They have the opportunity for exploration in oil 
that could be a game changer with others in the region to help 
diversify particularly European energy and move it away from 
Russia.
    By the same token, I am deeply concerned that we have an 
Ambassador who will, yes, understand those interests, but at 
the same time not be hesitant to urge President el-Sisi and the 
Egyptian government to move in a different direction on civil 
society, on political freedoms, on the lack of repression, on 
not the arbitrary detention of U.S. citizens, on all of these 
things and our interests as it relates to Libya. Will you feel 
free to do that?
    Ambassador Cohen. Absolutely.
    Senator Menendez. Mr. Rakolta, we are concerned about the 
United Arab Emirates in a whole host of ways. Part of it has 
been they are part of a coalition that has created an 
unprecedented humanitarian disaster inside of Yemen. There are 
credible reports about Yemeni detainee abuse allegations. I 
have real concerns about their transfer of weapons that we have 
sold to them to entities we consider terrorist organizations. 
Are you familiar with these issues?
    Mr. Rakolta. I am. Thank you, Senator. I am familiar.
    Senator Menendez. And so talk to me about what you will do, 
if confirmed, on the detainee abuse allegations and about the 
weapons transfers.
    Mr. Rakolta. Well, let us start with torture. I am very, 
very aware and I would press for a credible, transparent, and 
open investigation to the highest levels of the Emirati 
government. I am not a hesitant person. I have very strong 
beliefs and will make both my personal voice and the voice of 
our nation heard loud and clear as far up as I can possibly 
make it.
    Would you please remind me what the second part of your 
question was?
    Senator Menendez. The weapon transfers.
    Mr. Rakolta. Yes.
    Senator Menendez. There are published reports that weapons 
that we sold to the United Arab Emirates have then been 
transferred illegally to entities and individuals who we have 
on our list of terrorists. That is not what an ally does when 
we are trying to help them with weapons sales.
    Mr. Rakolta. I agree with you. Weapons sales and the misuse 
is a very serious allegation. I would again press for very in-
depth investigation, prompt, thorough, and I will uphold the 
law of the United States of America in the strongest possible 
way and will work with my colleagues and the Senate to bring 
this to the attention of the Emiratis and to hold them 
accountable.
    Senator Menendez. I hope this will be two of your major 
undertakings. We have allies, but those alliances are not carte 
blanches. It is not carte blanches to violate human rights. It 
is not carte blanches to take our weapons, sophisticated as 
they are, like precision-guided missiles and other weapons, and 
then transfer them to entities that may be in the Emiratis' 
interest but is not in the interest of the people of the United 
States of America.
    So I have your commitment that, if confirmed, you will 
vigorously pursue both of these issues.
    Mr. Rakolta. You have my commitment.
    Senator Menendez. There is also a question of the hiring of 
U.S. mercenaries. I am very concerned by reports that the UAE 
has hired a U.S. firm with retired military personnel to 
conduct assassinations in Yemen and has hired former National 
Security Agency employees to build a mercenary espionage 
hacking unit that has targeted dissidents and opposition 
figures, including United States citizens. Are you familiar 
with this information?
    Mr. Rakolta. I am sorry, Senator. I am not aware of those 
allegations.
    Senator Menendez. I would ask you to become familiar with 
it because we need to take steps to investigate the role of 
U.S. citizens that may be playing in this mercenary context and 
particularly in the spying of U.S. citizens.
    Lastly, are you familiar with the challenge that we are 
having in the Gulf of Qatar and the GCC rift?
    Mr. Rakolta. I am.
    Senator Menendez. What steps do you think you can have the 
UAE take to resolve this conflict? Because at this point, all 
we are doing is pushing Qatar into the hands of the Iranians.
    Mr. Rakolta. I would agree, first, that this is not in the 
U.S.'s best interest. The quad blockade is, secondly, not 
working. And thirdly, I will commit to you that I would work 
tirelessly to solve what the underlying issues may be and to 
try to bring the Emiratis and the Qataris to a closer and 
better solution for both of them.
    Senator Menendez. I have other questions for the record. I 
ask you to respond to them substantively.
    Ambassador Norland, what do you think you will be able to 
do, if confirmed, to promote the prospects of a ceasefire and 
resumption of the U.N.-led political process? And particularly, 
I share in this regard the administration's concern about 
General Haftar. I had a conversation with the Secretary of 
State the other night on this and Egypt's role in this. What do 
you think you will be able to do, if you are confirmed, in this 
regard?
    Ambassador Norland. Well, that is a really important 
question, Senator.
    Senator Menendez. I only ask important ones.
    [Laughter.]
    Senator Menendez. At least I like to think so. You have to 
have humor here.
    Ambassador Norland. I can tell you that I would try to lend 
the voice of the United States firmly and clearly in support of 
a ceasefire, rededicate ourselves to that process in support of 
the U.N. Special Representative to the Secretary-General, Mr. 
Salame.
    This process involves engagement not just with the parties 
in Libya, east and west, but also with outside actors whose 
involvement needs to be shaped to pursue a positive outcome and 
to promote a reduction in violence rather than promoting it. 
And so I think we are talking about a full court press, which I 
detect across the U.S.
    government an interest in pursuing that. And I think having 
an Ambassador in the region in Tunis next door, until we can 
get on the ground in Libya, can lend added impetus to that 
process.
    Senator Menendez. I have several other questions for you, 
but there is a new vote going on on these resolutions. So I 
would ask you to substantively answer the questions I am going 
to pose to you. It would be helpful for me in terms of agreeing 
to move your process forward.
    And with that, in accordance with the chairman's request, 
the record will close at the close of business tomorrow for 
members to ask any questions. If questions are posed to you, I 
would ask you to answer them expeditiously so your nominations 
can be considered at a business meeting.
    And with that, the hearing is adjourned.


    [Whereupon, at 12:30 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

                              ----------                              


            Responses to Additional Questions for the Record
        Submitted to Andrew Bremberg by Senator Robert Menendez

                  pre-hearing questions and responses
Sexual and Reproductive Health/Human Rights
    Question. The United States has joined the international community 
in identifying reproductive rights as human rights, including in 
connection with the 1994 International Conference on Population and 
Development, the 1995 Beijing World Conference on Women, and through 
its ratification of the International Covenant on Civil and Political 
Rights (ICCPR). Implicit in the right to reproductive health is the 
right of men and women to be informed and to have access to safe, 
effective, affordable and acceptable methods of family planning of 
their choice, including information and access to the full range of 
modern contraceptive services such as hormonal contraception, condoms 
and barrier methods, and long-acting reversible contraception.

   Do you believe that the United States and other countries should 
        work to ensure that women, young people and LGBTI individuals 
        receive accurate information about, and access to a full range 
        of information and services about their sexual and reproductive 
        health? If so, how? If not, why?

    Answer. The United States is the most generous funder of maternal 
and child health, including family planning programs, in the world. I 
agree that this strong record of leadership should continue, and that 
it should continue to do so within the longstanding ethical parameters 
that govern our foreign assistance today. Those parameters include the 
decades-old protections against taxpayer support for abortion, and the 
preservation of parental rights when it comes to the information and 
care provided to children, including the provision of culturally 
sensitive, age-appropriate, optimal health-focused sex education.

    Question. Should the U.S. government leverage its diplomatic and 
assistance tools to promote, protect, and defend the sexual health and 
reproductive rights of women and girls? If so, how? If not, why?

    Answer. The United States leads the world in the forceful use of 
diplomatic tools and funding measures to advance women's equality, 
protect the civil and human rights of women and girls, promote women 
and youth empowerment programs, and support women's health across their 
lifespan. The United States is the largest donor of women's health and 
family planning assistance. We support and fund women's health 
initiatives inclusive of, but not limited to, needs related to maternal 
health, voluntary family planning, and HIV and HPV prevention and 
treatment. We fund programs to prevent and address systemic sources of 
human trafficking, violence against women and girls, female genital 
mutilation, and other human rights abuses. If confirmed, I will 
continue this strong leadership.

    Question. Over the last two years, the Trump administration has re-
imposed and expanded the Global Gag Rule, withheld funding from UNFPA, 
and deleted reporting on reproductive rights from the State 
Department's Country Reports on Human Rights Practices by narrowing 
discussion to coerced abortion, involuntary sterilization or coercive 
population control methods. Additionally, the State Department has 
instructed American diplomats to withdraw support for programs and 
language supporting sexual and reproductive health.

   Do you support the expansion of the Mexico City Policy? If so, how 
        do you reconcile that with the repeated recognition by the U.S. 
        government that human rights includes reproductive rights?

    Answer. The Mexico City Policy is a critical protection for 
taxpayers and for the women and girls that we support around the world 
against collusion with the global abortion industry in the guise of 
foreign assistance. Taxpayers expect us to use the billions of dollars 
managed by our maternal and child health, family planning, HIV/AIDS, 
malaria, child nutrition and many other programs to save lives, not 
take them.

    Question. If confirmed, will you support maintaining the ban on 
UNFPA funding and the continued reduction of support to sexual and 
reproductive health programs and language?

    Answer. The administration made a determination that UNFPA's work 
with Chinese population authorities violated statutory funding 
restrictions. This is not new, and previous Administrations have made 
similar determinations. If confirmed, I will continue to examine 
closely the activities of UNFPA in the context of the funding decision, 
and will take every opportunity to remind other nations that the United 
States is and will be at the forefront of improving women's health 
across the lifespan, including continued access to family planning 
methods and preventing maternal and child deaths

    Question. According to the Washington Post, you played a lead role 
in drafting and overseeing the policy process for May 2017 Executive 
Order ``Promoting Free Speech and Religious Liberty,'' which encouraged 
federal agencies to expand exemptions to the Affordable Care Act's 
preventive services guarantee, allowing virtually any employer or 
insurer with religious or moral objections to deny women access to 
birth control.

   Please describe your role in developing policy across federal 
        agencies in relation to those exemptions. If confirmed, will 
        you use your position to further policies that deny access to 
        birth control?

    Answer. As the Director of the DPC, I helped coordinate the 
development and drafting of several Executive Orders, including 
Executive Order 13798 ``Promoting Free Speech and Religious Liberty.'' 
The order required certain cabinet officials to ``consider issuing 
amended regulations, consistent with applicable law, to address 
conscience-based objections to the preventive-care mandate promulgated 
under section 300gg-13(a)(4) of title 42, United States Code.'' The 
order could not and did not contradict any statutes or controlling case 
law with respect to employee access to birth control provided or 
covered by employers. This administration has advanced policies in 
support of women's access to comprehensive family planning services in 
accordance with law. If confirmed, I will not use my position in a 
manner that departs from these policies.

    Question. Should health care providers in developing countries who 
receive U.S. funds be allowed to refuse to provide women, girls, and 
LGBTI individuals with information about modern contraception? If so, 
why?

    Answer. The United States is the most generous supporter of global 
health assistance, including family planning programs. When it comes to 
HIV/AIDS, there is no program on earth that has saved more lives than 
the President's Emergency Plan for AIDS Relief--a program started by 
President Bush and the leaders of this committee. You can be assured 
that I stand strongly in favor of continuing the unmatched leadership 
of the United States in ensuring access for all people living with or 
at risk of HIV/AIDS to life-saving and lifeenhancing healthcare 
including women, girls, and LGBTI individuals. Some of our strongest 
and most cost-effective partners in delivering these programs are 
faith-based organizations. The United States has led the world in 
showing that partnerships with faith-motivated organizations can 
simultaneously deliver world-class compassionate care, while also 
honoring their faith traditions and protected conscience rights.

    Question. Should health care providers who receive U.S. funds be 
allowed to discriminate against LGBTI people, unmarried adolescent 
girls, or other minority groups in the delivery of services? If so, 
why?

    Answer. This administration has and will continue to support 
policies furthering the health and well being of all people, including 
minority groups, unmarried adolescent girls, and LGBTI individuals. 
Congress has passed numerous federal laws prohibiting discrimination by 
recipients of federal funds on the basis of race, color, national 
origin, disability, age, sex, religion, the exercise of conscience, and 
other protected classes. I intend to continue the Administration's 
policy on this question and abide by all applicable laws if confirmed.

    Question. Should health care providers who receive U.S. funds be 
allowed to deny providing information to LGBTI people information about 
condoms, pre-exposure prophylaxis, or methods to prevent transmission 
of HIV? If so, why?

    Answer. This administration has and will continue to ensure that 
all people living with or at risk of HIV/AIDS, including women, girls, 
and LGBTI individuals, have access to comprehensive information on how 
to prevent transmission of HIV. Congress has passed numerous federal 
laws prohibiting discrimination by recipients of federal funds on the 
basis of race, color, national origin, disability, age, sex, religion, 
the exercise of conscience, and other protected classes. I intend to 
continue the Administration's policy on this question and abide by all 
applicable laws if confirmed.

    Question. In your role as a senior advisor on health policy for the 
transition team at HHS and your leadership of the White House Domestic 
Policy Council, you played a lead role in championing a deregulatory 
agenda that has resulted in cutbacks on public health and consumer 
safety protections. This zeal for deregulation has not extended to the 
area of reproductive health care however, as this administration has 
introduced burdensome new regulations and policies imposing new 
barriers to accessing essential health care services like family 
planning and abortion.

   Please describe your views on access to fundamental reproductive 
        health care and services including contraception and abortion.

    Answer. The United States is the leading funder of maternal and 
child health and family planning programs internationally. I support 
women's health throughout the life cycle, as is also reflected in the 
1995Beijing Conference Strategic Objective C.1. Furthermore, under that 
objective and in line with the Program of Action of the International 
Conference on Population and Development, "[i]n no case should abortion 
be promoted as a method of family planning."

    Question. Do you support the Trump Administration's regulations and 
policies that have expanded restrictions on accessing essential health 
care services like family planning and abortion, effectively creating 
new barriers, and if so, how do you reconcile that with your support 
for deregulation in other sectors?

    Answer. I am unaware of any policies that restrict access to 
essential, life-saving, life-affirming healthcare. On the contrary, the 
United States taxpayers are the most generous in the world when it 
comes to providing access to a broad range of family planning methods 
and any number of life-saving and life-enhancing services, such as STI 
testing and treatment, HPV and cervical cancer screening, treatment for 
other gynecological and urological conditions, prenatal care, attended 
labor and delivery, and newborn care for moms and babies, as well as 
medical and mental health care for survivors of sexual assault. 
Throughout my government service, I have consistently supported 
regulatory reform to ensure that the government achieves important 
public policy outcomes through the least restrictive means possible.

    Question. You have stated your first priority in Geneva will be 
advancing human rights.

   What does the term ``human rights'' mean to you?

    Answer. Human rights are those rights which are endowed by our 
Creator--usually expressed as freedoms that no government anywhere may 
abridge, which the U.S. Declaration of Independence speaks of as 
``unalienable'' and can also be found in our Bill of Rights. One 
definitional source that many look to is the 1948 Universal Declaration 
of Human Rights, which includes rights of conscience, expression, 
religious exercise, freedom of movement, to marry, to form families 
free from government coercion, to be free from slavery and torture, to 
own property, and to due process applied equally to all.
    government respect for the universal human rights of all citizens 
fosters free and open societies in which all people can flourish. 
Advancing human rights means committing to defend the human rights and 
dignity of all people, no matter who they are. For example, as 
Secretary Pompeo has said: "standing up for human rights is hardwired 
into who we are as Americans. Promoting human rights is in the best 
interests of the United States. Societies that respect human rights and 
the rule of law are more stable, and make better allies."
    In accordance with international human rights treaties, if 
confirmed, I will vigorously advocate to protect the inalienable rights 
that all people share because of our shared human dignity.

    Question. How did you use your role as Director of Domestic Policy 
at the White House to advance human rights in the United States?

    Answer. During my time as the Director of the Domestic Policy 
Council, I worked on several issues that speak to human rights: 
advocating for the right to life of every human being, protecting 
religious liberty, reforming our Federal criminal justice system, the 
successful removal from the U.S. of former Nazi labor camp guard Jakiw 
Palij to Germany, expanding treatment for mental health, and calling 
for the eradication of new HIV infections in the U.S. I am proud to 
have helped President Trump advance the cause of unalienable human 
rights, particularly in his commitment to protecting the sanctity of 
life and human dignity around the world, including his impressive 
record on religious liberty and support for persecuted religious 
minorities.

    Question. Would you characterize access to healthcare as a human 
right?

    Answer. The United States supports the right to the enjoyment of 
the highest attainable standard of health. Likewise, the United States 
recognizes the importance and challenges of meeting basic needs for 
water and sanitation to support human health, economic development, and 
peace and security.

    Question. What about access to clean water?

    Answer. The United States is committed to addressing the global 
challenges relating to water and sanitation and has made access to safe 
drinking water and sanitation a priority in our development assistance 
efforts. While not legally binding, the United States believes that 
everyone should have a standard of living adequate for his or her 
health and well-being, one component of which is safe drinking water 
and sanitation.

Immigration
    Question. In a meeting with SFRC staff on March 06, 2019 you stated 
that you could provide data supporting the assertion that ``the 
unlawful employment of aliens has had a devastating impact on the wages 
and jobs of American workers, especially low-skilled, teenage, and 
African-American and Hispanic workers.''

   Please provide the data supporting that assertion.

    Answer. U.S. Commission on Civil Rights 2010 Report ``The Impact of 
Illegal Immigration on the Wages andEmployment Opportunities of Black 
Workers''

          ``Illegal immigration to the United States in recent decades 
        has tended to depress both wages and employment rates for low-
        skilled American citizens, a disproportionate number of whom 
        are black men. Expert economic opinions concerning the negative 
        effects range from modest to significant. Those panelists that 
        found modest effects overall nonetheless found significant 
        effects in industry sectors such as meatpacking and 
        construction.

    The bottom line here is that immigration is predicted to raise 
native wages in the case where immigrant and native workers are 
complements, meaning their productivity rises from working together. 
Native workers who are substitutes for immigrants, however, will 
experience negative wage effects.

    Question. Do you agree with the statement that ``households headed 
by aliens (legal and illegal) are much more likely than households 
headed by native-born citizens to use federal means-tested public 
benefits?'' If so, please provide the data supporting that assertion.

    Answer. No, I do not.

    Question. The Domestic Policy Council has reportedly proposed 
changing how several categories of visas are processed, allocated, or 
monitored, including B-1, E-2, H-1B, H-2A, J-1, and L-1. Not on that 
list are two visa categories, H-2B and EB-5, which have been used by 
the Trump Organization and Kushner Companies for seasonal workers at 
real estate properties and foreign investment in real estate 
properties, respectively.

   Did any private business interests of any individuals in the White 
        House play any role in not proposing reforms or enhanced 
        monitoring of H-2B and EB-5 visas, similar to the other six 
        categories listed above?

    Answer. I am not aware of any private business interests of any 
individuals in the White House that played any role regarding reforms 
for any visa categories.

    Question. If not, why were these visa categories not considered for 
similar reforms or enhanced monitoring?

    Answer. As has been publicly reported, these visa categories are 
being considered for reforms.

    Question. Secretary of Commerce Wilbur Ross testified to Congress 
in March 2018 that, in December 2017, the Department of Justice 
``initiated the request'' for census questions about immigration and 
citizenship status in a letter to the Census Bureau. A federal judge 
found that assertion was ``potentially untrue'' and, in a June 2018 
litigation filing, Secretary Ross admitted that he considered adding a 
citizenship question to the census "soon after" his February 2017 
confirmation. According to a federal court filing, you proposed adding 
census questions to determine immigration and citizenship status in 
January 2017, before Secretary Ross's confirmation.

   Did the Domestic Policy Council play any role in advocating for or 
        coordinating the addition of census questions about immigration 
        and citizenship status? If so, please describe.

    Answer. Yes, I discussed my opinion on including the census 
question with other White House staff. In light of the confidentiality 
interests that attach to executive branch decision making, I am unable 
to further answer this question.

    Question. Did you have any contacts or communications with 
officials from the Department of Commerce, the Department of Justice, 
Steve Bannon, Kris Kobach, or Stephen Miller in 2017 about adding 
questions about immigration and citizenship status to the census? If 
so, please describe.

    Answer. Yes, I discussed my opinion on including the census 
question with other White House staff. In light of the confidentiality 
interests that attach to executive branch decision making, I am unable 
to answer this question.

    Question. According to a deposition of Kathy Kovarik, a senior 
official at USCIS, officials from the Domestic Policy Council attended 
regular immigration meetings that also included White House Senior 
Advisor Stephen Miller, as well as officials from the Department of 
Justice and, occasionally, the Department of State. According to 
Kovarik's testimony, Temporary Protected Status (TPS) was discussed at 
these meetings. In addition, an SFRC Democratic staff investigation 
``determined that the White House Domestic Policy Council sought 
repeatedly to influence the decisionmaking processes at the State 
Department and DHS in order to ensure a pre-determined outcome: the 
termination of TPS designations for [El Salvador, Haiti, and 
Honduras].''

   Did you supporting terminating the TPS designation for El Salvador, 
        Haiti, and Honduras? If so, why?

    Answer. I do not recall having or expressing an opinion on this 
subject.

    Question. Did you participate in meetings at the Domestic Policy 
Council related to the administration's decisions to terminate the TPS 
designations for El Salvador, Haiti and Honduras? If so, please list 
the dates and a description of the meetings.

    Answer. I do not recall participating in any meetings.

    Question. Did you participate in meetings or phone calls between 
members of the Domestic Policy Council and then Secretary of State 
Tillerson's personal staff related to the administration's decisions to 
terminate the TPS designations for El Salvador, Haiti and Honduras? If 
so, please list the dates and a description of the meetings.

    Answer. No.

    Question. Did you participate in meetings or phone calls between 
members of the Domestic Policy Council and the Department of State's S/
P office related to the administration's decisions to terminate the TPS 
designations for El Salvador, Haiti and Honduras? If so, please list 
the dates and a description of the meetings.

    Answer. No.

    Question. Did you participate in meetings or phone calls between 
members of the Domestic Policy Council and the State Department's 
Bureau of Western Hemisphere Affairs (WHA) related to the 
Administration's decisions to terminate the TPS designations for El 
Salvador, Haiti and Honduras? If so, please list the dates and a 
description of the meetings.

    Answer. No.

    Question. Did you participate in meetings or phone calls between 
members of the Domestic PolicyCouncil and the State Department's Bureau 
of Populations, Refugees and Migration Affairs (PRM) related to the 
Administration's decisions to terminate the TPS designations for El 
Salvador, Haiti and Honduras? If so, please list the dates and a 
description of the meetings.

    Answer. No.

    Question. As you know, TPS statute (8 USC 1254a) requires the U.S. 
to assess whether ``foreign state that prevent aliens who are nationals 
of the state from returning to the state in safety.'' Do you believe 
that the governments of El Salvador, Haiti and Honduras have the 
capacity ensure the safety of returning TPS beneficiaries?

    Answer. The TPS statute (Immigration and Nationality Act [INA] 244, 
8 U.S.C. 1254a) commits TPS designations and extensions, and associated 
findings, to the Secretary of DHS, after consultation with appropriate 
agencies. Without prejudice to any determinations made by the Secretary 
of DHS, the governments of El Salvador, Haiti, and Honduras have the 
ability to facilitate the return of their citizens who have benefitted 
from TPS. As a part of its review, DHS decided on a delayed effective 
date of 18 months for all three countries to permit an orderly 
transition, both for those returning home and for the country receiving 
them. The phase-out period has provided time for TPS beneficiaries to 
arrange for their departure and for the governments to prepare for the 
reception and reintegration of their citizens.

    Question. Are you aware that then Secretary of State Tillerson's 
letter to then Acting DHS Secretary Duke recommending the termination 
of the TPS designations for El Salvador, Haiti and Honduras recognized 
that ending these designations could 1) have negative consequences for 
U.S. national security interests, 2) increase unauthorized migration to 
the United States from Central America, and 3) leave TPS beneficiaries 
and their U.S. citizen children vulnerable to violence, extortion and 
gang recruitment if they are returned to these countries. Do you agree 
with then Secretary Tillerson's assessment?

    Answer. I have never seen this letter, so I cannot say if I agree 
with it or not.

U.N. Special Rapporteurs
    Question. According to publically available data, the United States 
has failed to respond to any requests for official visits from U.N. 
monitors since January 20, 2017, and as of May 7, 2018, has ceased 
responding to formal queries from U.N. Special Rapporteurs altogether.

   Please describe your assessment of the work that is conducted by 
        U.N. Special Rapporteurs.

    Answer. With 44 thematic and 12 country specific mandates created 
by the Human Rights Council alone, the relative value and 
appropriateness of U.N. Special Rapporteurs and their human rights 
mandates is not uniform.
    Several of these special rapporteurs had mandates created with the 
express support and advocacy of the United States. For example, in 
March and April 2019, we hosted well-received events in Geneva to raise 
awareness of the dire human rights situations in Xinjiang, China; 
Nicaragua; and Venezuela. These are some examples where special 
rapporteurs' execution of their mandate--and where the actual 
mandates--advance the cause of human rights, bringing credit upon both 
the mandate holders and the U.N. system.
    There are other special rapporteurs whose mandates contradict 
directly U.S. values and policies. One example of a flawed mandate is 
that of the Special Rapporteur on the Negative Impact of Unilateral 
Coercive Measures on the Enjoyment of Human Rights Idriss Jazairy. Mr. 
Jazairy's mandate and work presupposes that targeted human rights 
sanctions such as those provided under the Magnitsky Act (Pub.L. 112-
208) harm, rather than benefit the overall state of human rights. We 
strongly disagree with this position.

    Question. Do you support the U.S. government's blocking access by 
U.N. Special Rapporteurs to the United States?

    Answer. The United States has not blocked U.N. Special Rapporteurs' 
access to the United States. In February 2019, the Department met 
separately with Special Rapporteur for Extrajudicial, Summary or 
Arbitrary Executions Agnes Callamard and Special Rapporteur on the 
Rights to Freedom of Peaceful Assembly and of Association Clement Voule 
at their request. In March 2019, the Department met with the 
Independent Expert on Sexual Orientation and Gender Identity Victor 
Madrigal. In line with the United States principled withdrawal from the 
Human Rights Council in June 2018, the U.S. has worked to prioritize 
carefully interactions and responses to HRC-created mandates, 
preferring to communicate with and respond to those requests that most 
clearly align with U.S. priorities and internationally recognized 
rights.

Deregulation
    Question. In 2017, Congress used the Congressional Review Act (CRA) 
to repeal fifteen regulations, including measures to protect women's 
health, retirement security, workplace safety, clean water, and anti-
corruption safeguards.

   Did you have any role in developing the CRA strategy?

    Answer. Yes.

    Question. Did you have any role (including coordination, strategy, 
advocacy, etc.) in the effort to repeal the SEC rule required by 
Section 1504 of the Dodd-Frank Act (P.L. 111-203), also known as the 
Cardin-Lugar anti-corruption provision? Did you agree with the removal 
of this regulation that promoted transparency in global payments by 
oil, gas, and mining companies? If so, why?

    Answer. Yes. President Trump signed into law House Joint Resolution 
41 that repealed the Extraction Payment Disclosure Rule that the last 
administration had put in place in 2016. This eliminated a burdensome 
regulation that threatened to put domestic extraction companies and 
their employees at an unfair disadvantage. By halting this regulation, 
the President has removed a costly impediment to American extraction 
companies helping their workers succeed.

    Question. Before you began work at the White House's Domestic 
Policy Council to roll back regulations, one of your clients at Right 
Policy LLC was the Freedom Partners Chamber of Commerce, which 
advocates a deregulatory agenda.

   During your time at the White House, have you had any contact or 
        communications with representatives or agents of the Freedom 
        Partners Chamber of Commerce? If so, what did those contacts or 
        communications consist of?

    Answer. I participated in several meetings that were open to all 
interested parties (roundtable and listening session) as part of the 
President's Prison Reform agenda. At several of these meetings, Mark 
Holden participated in his capacity as the Senior Vice President and 
General Counsel for Koch Industries. While Mr. Holden holds a position 
with Freedom Partners, he was not there to represent Freedom Partners.



                                 ______
                                 


                  post-hearing questions and responses

    Question. On May 30, 2019, a notice of intent to establish a State 
Department Commission on Unalienable Rights appeared on the Federal 
Register. From its charter, the commission's duties include providing 
``advice and recommendations, for the secretary's approval, to guide 
U.S. diplomatic and foreign policy decisions and actions with respect 
to human rights in international settings.'' According to Secretary 
Pompeo, he is trying to quote ``make sure that we have a solid 
definition of human rights upon which to tell all our diplomats around 
the world:'' Has the State Department not had a solid definition of 
human rights in its work so far, including in its annual human rights 
reports?

    Answer. The United States has been and remains the world's guiding 
force for human rights around the world. This leadership takes many 
forms, including through constructive public advocacy, such as the 
State Department's annual human rights and religious freedom reporting. 
The new Commission on Unalienable Rights extends that leadership by 
refreshing our discourse on human rights, including where that 
discussion may have departed from our nation's founding principles of 
natural law and natural rights.

    Question. What would be a solid definition of human rights in your 
view?

    Answer. Human rights are those rights which are endowed by our 
Creator--usually expressed as freedoms that no government anywhere may 
abridge, which the U.S. Declaration of Independence speaks of as 
``unalienable'' and can also be found in our Bill of Rights. One 
definitional source that many look to is the 1948 Universal Declaration 
of Human Rights, which includes rights of conscience, expression, 
religious exercise, freedom of movement, to marry, to form families 
free from government coercion, to be free from slavery and torture, to 
own property, and to due process applied equally to all.
    government respect for the universal human rights of all citizens 
fosters free and open societies in which all people can flourish. 
Advancing human rights means committing to defend the human rights and 
dignity of all people, no matter who they are. For example, as 
Secretary Pompeo has said: ``standing up for human rights is hardwired 
into who we are as Americans. Promoting human rights is in the best 
interests of the United States. Societies that respect human rights and 
the rule of law are more stable, and make better allies.''
    In accordance with international human rights treaties, if 
confirmed, I will vigorously advocate to protect the inalienable rights 
that all people share because of our shared human dignity.

    Question. Should women's human rights, including the right to be 
free from domestic violence and to access reproductive healthcare, be a 
part of a quote ``solid definition of human rights?''

    Answer. I believe all human beings, including women, are endowed 
with the same fundamental rights and liberties. This includes the right 
to be free from all forms of violence, including domestic violence, and 
to access voluntary reproductive healthcare, to exclude abortion.

    Question. Did you consult or discuss with anyone in the State 
Department the creation of this Commission?

    Answer. No, I was not involved in the creation of the Commission.

    Question. What is your opinion on establishing such a Commission?

    Answer. I support this initiative, and do not believe we should be 
afraid of discourse surrounding our nation's founding principles.

    Question. In your role as the Director of the Domestic Policy 
Council, were you involved in any discussions about the zero-tolerance 
policy that resulted in family separation?

    Answer. I had no role in setting the zero tolerance policy. 
Subsequently, I was involved in discussions and meetings regarding the 
reunification of children and their parents, and in the implementation 
of Executive Order 13841 that states ``the policy of this 
administration to maintain family unity, including by detaining alien 
families together where appropriate and consistent with law and 
available resources'' and specifically directed ``The Secretary of 
Homeland Security, shall, to the extent permitted by law and subject to 
the availability of appropriations, maintain custody of alien families 
during the pendency of any criminal improper entry or immigration 
proceedings involving their members.''

    Question. Did you ever participate in any meetings regarding the 
administration's zero tolerance policy on immigration? If so, how many? 
What was the extent of your role?

    Answer. After the zero tolerance policy was established, I was 
involved in discussions and meetings regarding the reunification of 
children and their parents, and in the implementation of Executive 
Order 13841.

    Question. Would you recommend re-instituting the administration's 
zero tolerance policy that forcibly separated nearly 2,800 children 
from their parents and maybe thousands more that have yet to be 
identified?

    Answer. I support the President's policy as stated in Executive 
Order 13841.

    Question. Will you refuse to endorse or defend any future family 
separation policy and will you encourage other countries to similarly 
refuse to adopt these cruel policies as a means to deter families 
seeking legal asylum protection?

    Answer. I support the President's policy as stated in Executive 
Order 13841.

    Question. What message do you think the zero tolerance policy has 
sent to other nations around the world?

    Answer. There is a humanitarian crisis on our southern border. The 
U.S. needs additional cooperation from other countries and additional 
resources and changes to the law from the Congress to address it.

    Question. Do you think this policy has affected other countries' 
approaches on immigration? How so?

    Answer. The President encourages all nations to embrace their 
sovereignty and manage their national security interests accordingly.

    Question. Can you explain the how UNFPA has violated Kemp-Kasten 
because I have not been able to get a clear answer how the 
administration went about making the determination against UNFPA?

    Answer. The determination to withhold funding from UNFPA was made 
based on the fact that China's family planning policies still involve 
the use of coercive abortion and involuntary sterilization practices 
and that UNFPA partners on family planning activities with the Chinese 
government agency responsible for these coercive policies. The 
Secretary has determined that UNFPA therefore ``supports or 
participates in the management of a program of coercive abortion or 
involuntary sterilization.''
    If confirmed, I will continue to examine closely the activities of 
UNFPA in the context of the funding decision, and will take every 
opportunity to remind other nations that the United States is and will 
be at the forefront of improving women's health across the lifespan, 
including continued access to family planning methods and preventing 
maternal and child deaths.

    Question. The U.S. sits on UNFPA's Executive Board, which approves 
country programs. If the U.S. was really concerned about UNFPA's China 
country program, wouldn't it use its position to bring the program into 
compliance of U.S. statutory funding restrictions?

    Answer. The United States remains engaged with UNFPA leadership to 
discuss its country-based programs, and as noted by Ambassador Kelly 
Craft in her June 19 confirmation hearing, the administration will 
continue to examine UNFPA's compliance with U.S. statutory 
requirements.

    Question. During the hearing, you seemed to suggest that switching 
to a voluntary funding model towards the U.N. was in the U.S. interest. 
Separating out the violation of our treaty commitments, as you may 
know, assessed funding structures require other countries to share in 
the financial burden. All U.N. member states, no matter how big or 
small, rich or poor, are required to help shoulder the U.N.'s regular 
and peacekeeping budgets at specified levels. This, in turn, prevents 
U.S. taxpayers from being saddled with the majority of these expenses. 
Successive administrations and outside experts have recognized the 
limitations inherent in voluntary funding structures. In June 2005, the 
House passed The United Nations Reform Act of 2005 which would 
automatically withhold dues from the U.N. unless certain specific 
reforms are met, including switching to a voluntary system. The Bush 
administration issued a Statement of Administration Policy (SAP) which 
said that it has ``serious concerns'' about the legislation because it 
``could detract from and undermine our efforts,'' and ``asks that 
Congress reconsider this legislation.'' In addition, the 2005 
Congressionally-mandated Newt Gingrich-George Mitchell report on U.N. 
reform, for example, noted that such schemes are often slow and lead to 
U.S. priorities being underfunded: Are you aware that the U.S. often 
pays more under voluntary funding arrangements?

    Answer. Yes.

    Question. Are you aware that Congress and previous Republican and 
Democratic administrations have counselled against because it that 
would slow down funding and undermine our interests?

    Answer. I certainly appreciate the importance of assessed funding 
as a means of ensuring that all member states are invested in U.N. 
organizations. However, I also believe that, where possible, the United 
States should look for ways to shift to a voluntary funding model. Such 
a model has numerous benefits, including targeting U.S. resources to 
specific priorities and objectives.

    Question. During your confirmation hearing, you talked about the 
importance of meeting with dissidents and highlighting their work, and 
pledged to do so if confirmed. As you may know, U.N. treaty bodies-
which monitor international implementation of a number of human rights 
treaties that the U.S. is party to, including conventions banning 
torture and extrajudicial killings, as well as requiring countries to 
protect fundamental civil and political rights-provide a critical forum 
for dissidents and victims of human rights abuses to register 
complaints against individual countries. In FY'18, the administration 
unilaterally withheld $18.9 million from its U.N. regular budget 
payments in order to target the Office of the U.N. High Commissioner of 
Human Rights (OHCHR). Partially as a result of these withholdings, 
OHCHR was almost forced to cancel the meetings of six of these human 
rights treaty bodies, which would have, in the words of the 
International Commission of Jurists (ICJ), ``allowed violators of human 
rights to avoid scrutiny and accountability.'' In fact, the well-
respected ICJ organized a letter that hundreds of organizations signed 
onto, which stated, ``It is with a sense of urgency that we convey our 
deep concern regarding the critical funding situation affecting the 
U.N.'s human rights mechanisms and OHCHR. Against the worrying 
background of a global pushback against the promotion and protection of 
human rights, we urge all U.N. member states to pay their assessed 
contributions without further delay:''
    Given your expressions of support for dissidents and human rights 
defenders, can you explain how it is in our interest to effectively 
silence U.N. bodies that provide a platform to challenge their 
governments?

    Answer. The U.S. voluntary contribution to OHCHR activities remains 
one of, if not the, largest voluntary contribution to OHCHR activities. 
Our aim is to focus voluntary funding on OHCHR activities that advance 
U.S. policy objectives and priorities, such as work to address 
continuing egregious human rights violations in Burma, the DRC, and 
South Sudan, and to support fundamental freedoms such as the freedoms 
of expression, association, and religion and belief, among others. We 
are no longer funding work that is not in the interest of the United 
States or our allies. While the United States earmarked funds for many 
of the areas we support, we did not earmark voluntary funding for all 
activities we support in recognition that OHCHR receives funding from 
various sources. We look forward to continued engagement on critical 
human rights issues of importance to the United States and the entire 
international community.

    Question. Why would you advocate for something that so many human 
rights organizations are vehemently opposed to and allow violators of 
human rights to avoid scrutiny and accountability?

    Answer. There is no more active proponent of human rights 
accountability than the United States. We withdrew from the U.N. Human 
Rights Council to underscore that very truth--nations with clear 
records of human rights abuses should not allowed to become members of 
such a body. I would also question whether routine meetings of treaty 
bodies is the most effective means of promoting meaningful 
accountability.

    Question. How exactly do you plan to promote the issue of human 
rights in Venezuela-and follow up on the September 2018 UNHRC 
resolution-from the outside looking in?

    Answer. The United States has and will continue to strongly 
advocate for recognition for the legitimate interim government and for 
involvement of the United Nations in both documenting the crimes 
perpetrated against the Venezuelan people by the former Maduro regime, 
and in easing the effects of the humanitarian crisis caused by the 
regime's employment of violence, oppression, and malign neglect.
    If confirmed, I will press this issue forcefully with Geneva-based 
organizations actively involved in work on the ground, both in 
Venezuela and neighboring countries, including the U.N. offices of the 
High Commissioners for Human Rights and Refugees, the World Health 
Organization, and the International Organization for Migration. U.S. 
efforts will continue in other pertinent bodies as well, including both 
in New York and in the Organization for American States.

    Question. Yesterday, Agnes Callamard, the U.N. special rapporteur 
on extrajudicial, summary or arbitrary executions, released a much 
anticipated report on the murder of Jamal Khashoggi. In it, Ms. 
Callamard supports evidence suggesting premeditation for the killing at 
the highest levels of the Saudi government, noting that ``[it is] 
inconceivable that an operation of this scale could be implemented 
without the Crown Prince being aware, at a minimum, that some sort of 
mission of a criminal nature, directed at Mr. Khashoggi, was being 
launched.'' In her confirmation hearing on June 19th, President Trump's 
nominee to be U.S. Ambassador to the U.N., Kelly Craft, stated that she 
had ``full confidence in the special rapporteur:'' Do you share her 
view?

    Answer. I have not read the rapporteur's report, and cannot speak 
to its elements or conclusions. I can say that the United States 
remains committed to full accountability for the murder of Jamal 
Khashoggi, and the administration has indicated that it will continue 
to assess related evidence.

    Question. Ms. Callamard's report also calls on the Human Rights 
Council to establish a ``Standing Investigatory and Accountability 
Mechanism'' to investigate violence or targeted killings against 
journalists and human rights defenders: Do you support such a proposal? 
If so, how will the U.S. Mission in Geneva go about pushing for its 
adoption, given our absence from the Council?

    Answer. I support press freedom and the protection of journalists, 
and the United States is a longstanding leader in promoting both. While 
I have no immediate reaction to the idea of a standing mechanism, if 
confirmed I look forward to exploring all options to strengthen 
international accountability for violence against journalists and human 
rights defenders.

    Question. Last June, the Trump administration withdrew the U.S. 
from the U.N. Human Rights Council (UNHRC), citing anti-Israel bias and 
concerns over the composition of the Council's membership. While the 
UNHRC is certainly not a perfect institution, U.S. engagement with and 
membership on the Council did deliver a number of positive results over 
the years. The Council voted to dispatch a team to investigate 
atrocities committed by ISIS in Iraq; continues to scrutinize and bring 
attention to the dire human rights situation in Iran; authorized a 
groundbreaking investigation into human rights violations in North 
Korea; and has taken action on a variety of other human rights crises 
in Myanmar, Yemen, South Sudan, DR Congo, Burundi, and Eritrea, to name 
a few. At the same time, U.S. membership on the Council helped us more 
effectively push back against instances of anti-Israel bias. According 
to the American Jewish Committee's Jacob Blaustein Institute for the 
Advancement of Human Rights, there was a 30 percent decline in country-
specific resolutions on Israel during U.S. membership versus the period 
when we were off the Council. The number of special sessions on Israel 
also dropped significantly-six during the three years before we joined 
the Council in 2009 versus one in the last four years. In March 2018, 
the State Department itself reported that the UNHRC saw ``the largest 
shift in votes towards more abstentions and no votes on Israel related 
resolutions since the creation of the [Council]:'' Do you agree that 
there is a positive correlation between U.S. engagement and policy 
outcomes that reflect our nation's interests and values?

    Answer. The United States withdrew from the U.N. Human Rights 
Council (UNHRC) because of concerns related to its focus and 
composition, We noted then that ``Countries that aggressively violate 
human rights at home should not be in a position to guard the human 
rights of others'' and that the Council's persistent, unfair bias 
against Israel detracts attention and resources away from the HRC's 
mandate to promote universal respect for the protection of human rights 
and fundamental freedoms. If meaningful reforms are undertaken by 
member states that address our longstanding concerns with the Human 
Rights Council, we would consider the possibility of re-engaging at 
that time.
    The United States has, for decades, led global efforts to promote 
human rights, including through multilateral institutions. We will 
continue to pursue a robust human rights agenda at the United Nations 
General Assembly's Third Committee as well as other U.N. bodies, as we 
did during other periods we were not a HRC member. We will also 
redouble our efforts to bring human rights issues to the attention of 
the Security Council, as we did during our 2018 presidency, when we 
held the first ever session on the linkage between human rights abuses 
and threats to international peace and security.

    Question. The UNHRC was established in 2006 to replace a previous 
U.N. human rights body which had been criticized as ineffective, 
politicized, and biased against Israel. During its first several years, 
the U.S. refused to run for a seat on the Council, fearing it would be 
no better than its predecessor. This became a self-fulfilling prophecy: 
in 2007, the Council voted to place ``the human rights situation in 
Palestine and other occupied Arab territories'' on its permanent 
agenda, in effect making Israel the only country subject to scrutiny 
under a stand-alone agenda item (also known as ``Item 7''). More than a 
decade later, the U.S. is once again side-lining itself in Geneva, with 
a familiar pattern of consequences: during the Council's most recent 
regular session, a representative of a pro-Israel NGO was prevented 
from completing a speech at the Item 7 debate after several member 
states, including Cuba, challenged his remarks on procedural grounds. 
Had the U.S. actually been in the room and able to intervene, it's 
unlikely this incident would have played out the way it did. 
Unfortunately, it seems as though history is repeating itself: just 
like in 2006, the U.S. is forfeiting its seat at the table, and as a 
result, Israel is left even more isolated and exposed to criticism than 
before. What makes this all the more frustrating is that, during the 
years when we engaged constructively with the Council (2009-2018), 
UNHRC actions targeting Israel actually declined. Clearly, the current 
policy of disengagement and isolation is less than helpful: The U.S. is 
the strongest country in the world-shouldn't we fight for our allies?

    Answer. When the United States made the decision to withdraw from 
the U.N. Human Rights Council, the Israel government called it a 
``courageous decision against hypocrisy and lies.''

    Question. In response to the decision to withdraw from the UNHRC, 
12 civil society organizations sent a letter to Secretary Pompeo urging 
the Department of State to review this decision, to seek reelection to 
the UNHRC in 2019, and to continue to advance reforms in the Human 
Rights Council. These groups noted that the ``decision is 
counterproductive to American national security and foreign policy 
interests and will make it more difficult to advance human rights 
priorities around the world. In fact, a 2017 study by the Council on 
Foreign Relations found that two successive terms of U.S. membership on 
the U.N. Human Rights Council improved its performance in several ways. 
First, U.S. involvement strengthened the Council's commitment to action 
within specific countries like Burundi, Iran, Myanmar, North Korea, and 
Syria fortifying norms like freedom of association, assembly and 
religion as well as the protecting the rights of at-risk populations. 
Second, the CFR Report noted a significant decline in anti-Israel 
resolutions during U.S. membership and concluded that U.S. 
participation in the UNHRC can advance U.S. interests and lessen anti-
Israel bias while supporting measures to avert and de-escalate human 
rights crises, thus reducing the likelihood of costly military 
interventions:'' Do you agree that being part of body that enhances our 
interests and reduces anti-Israel bias is a good outcome?

    Answer. The administration made a concerted effort to encourage 
Human Rights Council members to undertake significant reforms to 
improve its membership guidelines and end its history of anti-Israel 
bias. When those reform recommendations fell on deaf ears, the United 
States decided the time had come to withdraw.

    Question. Given the recent attack on human rights globally, 
shouldn't we pursue policies that human rights organizations deem in 
our interest?

    Answer. The United States is the global leader in promoting and 
defending human rights and liberties. Membership in a defective 
international body would not complement that effort.

    Question. Since the outbreak of the Syrian civil war in 2011, 
Russia has repeatedly used its Security Council veto to block efforts 
to refer war crimes and crimes against humanity committed by the Assad 
regime to the International Criminal Court. The UNHRC, by contrast, has 
been at the forefront of efforts in the U.N. system to hold parties 
accountable for international crimes in Syria. The U.N. Commission of 
Inquiry (COI) on Syria, first established by the UNHRC in 2011, has 
assiduously documented human rights violations carried out by all 
parties to the conflict-including the Syrian government and its Russian 
and Iranian allies-over the years. At the most recent regular session 
of the UNHRC earlier this year, the COI reported that it is actively 
assisting countries pursuing accountability for war crimes committed in 
Syria, including processing 15 requests for evidence it has gathered 
for prosecutorial and other investigations in five countries. The U.S. 
strongly supported the creation of the COI and the reauthorization of 
its mandate throughout its time as a member of the UNHRC:
    Now that the administration has withdrawn from the Council, what is 
it doing to support the work of this vital body?

    Answer. The United States is pleased that Council members 
overwhelmingly renewed the mandate of the COI in March 2018 for another 
year. The United States has and will continue a strong working 
relationship with another critical body: the U.N. International, 
Impartial and Independent Mechanism to Assist in the Investigation and 
Prosecution of Persons Responsible for the Most Serious Crimes under 
International Law Committed in the Syrian Arab Republic since March 
2011 (Syria IIIM). U.S. support of the Syria IIIM is both practical and 
material; the most recent announcement of U.S. funding for the 
mechanism was made on March 14, 2019, in Brussels, Belgium. This 
support exemplifies the United States' commitment and ongoing support 
for justice and accountability in Syria.

    Question. Do you think it is important to have an independent and 
impartial entity like the COI investigating and publicly reporting on 
serious violations of human rights in Syria?

    Answer. The United States supports, on a case-by-case basis, U.N. 
investigatory mechanisms designed to enhance accountability for human 
rights violations and to end impunity. In particular, the United States 
believes that the Syria IIIM is a critical component of overall efforts 
to achieve justice for those murdered, missing, and abused by the 
criminal Assad regime.

    Question. Over the last few years, the U.N. has played an important 
role in the fight against opioids and synthetics. For example, in 2017, 
the U.N. Office on Drugs and Crime (UNODC) voted to put international 
controls on two primary ingredients that are used to produce fentanyl. 
As the State Department made clear at the time, ``This action will make 
it harder for the criminals that are illicitly producing fentanyl to 
access the necessary resources,'' while simultaneously making it easier 
for countries to monitor suspicious orders and transactions:'' The 
State Department and U.N. are working together on this issue--will you 
continue to support this work and ensure that funding levels are not 
cut which may make progress more difficult?

    Answer. If confirmed, I will be actively engaged on this important 
matter, as I was during my tenure at the Domestic Policy Council.

    Question. You praised the U.S. decision to pull out of the 
Universal Postal Union (UPU). Besides that it may lead to higher costs 
for U.S. consumers, pulling out of this will set back our efforts to 
combat the opioid crisis. By pulling out of the UPU, the White House 
would negate U.S. Postal Service ability to access the (AED) shared by 
all those within the UPU. Such a move would harm individuals and 
businesses across the country: Given the severity of the opioid crisis, 
why pursue an approach that could make the situation worse?

    Answer. The administration is hopeful that its efforts to reform 
international postal rates will result in our continuing membership in 
the Universal Postal Union. Should those efforts prove unsuccessful, 
any and all resulting postal agreements established on a bilateral 
basis would unquestionably include required access to advanced 
electronic data.

    Question. How will you work toward Universal Health Coverage that 
ensures that no one, including women and girls, is left behind?

    Answer. The United States believes that health care systems must be 
accessible by all in a country, including through access to primary 
healthcare for women, men, boys and girls, and strong health systems. 
We applaud efforts to accelerate progress toward universal health 
access, understanding efforts to expand access do not imply government-
centric solutions or mandates, and countries will choose to pursue 
universal health coverage (UHC) in line with their national contexts 
and priorities. Pathways to achieving UHC can include strengthening the 
role of private markets and infusing competition and innovation; 
efficient financing; enhancing consumer choice; and promoting the 
appropriate role for regulations and governance. If confirmed, I will 
work with other members states, and the WHO to explore how partnerships 
with the private sector and civil society could help other countries 
achieve UHC.

    Question. For some time, the United States has been the leading 
funder of global health and, specifically, of family planning and 
reproductive health. However, this administration has repeatedly 
proposed catastrophic reductions of funding to family planning/
reproductive health programs (zeroing out the program in the first 
budget and this year requesting an over 55% reduction compared to 
enacted levels), while also pursuing policies, including the Mexico 
City Policy/Global Gag Rule, that numerous studies have shown make 
contraception and family planning harder and most costly for women to 
access: Do you believe that the United States can continue to be a 
leader on global health if we scale back financial commitments to 
programs that have proven critical to promoting the health of women and 
girls?

    Answer. The United States is the most generous funder of maternal 
and child health, including family planning programs, in the world. I 
agree that this strong record of leadership should continue, and that 
it should continue to do so within the longstanding ethical parameters 
that govern our foreign assistance today. Those parameters include the 
decades-old protections against taxpayer support for abortion, and the 
preservation of parental rights when it comes to the information and 
care provided to children, including the provision of culturally 
sensitive, age-appropriate, optimal health-focused sex education.

    Question. The Trump administration has actively sought to expand 
protections for healthcare providers who cite moral or religious 
objections to providing certain services or serving certain 
populations: Do you believe that the personal views of a medical 
provider should affect an individual's right to access quality and 
affordable healthcare?

    Answer. As the Director of the DPC, I helped coordinate the 
development and drafting of several Executive Orders, including 
Executive Order 13798 ``Promoting Free Speech and Religious Liberty''. 
The order required certain cabinet officials to ``consider issuing 
amended regulations, consistent with applicable law, to address 
conscience-based objections to the preventive-care mandate promulgated 
under section 300gg-13(a)(4) of title 42, United States Code.'' The 
order could not and did not contradict any statutes or controlling case 
law with respect to employee access to birth control provided or 
covered by employers. Congress has passed numerous federal laws 
prohibiting discrimination by recipients of federal funds on the basis 
of race, color, national origin, disability, age, sex, religion, the 
exercise of conscience, and other protected classes. I intend to 
continue the administration's policy on this question and abide by all 
applicable laws if confirmed.

    Question. Should providers who refuse to provide critical services 
to women, or to LGBTQ persons, or any other population be allowed to 
continue to receive U.S. funding?

    Answer. This administration has and will continue to support 
policies furthering the health and wellbeing of all people, including 
women, and LGBTI individuals. Congress has passed numerous federal laws 
prohibiting discrimination by recipients of federal funds on the basis 
of race, color, national origin, disability, age, sex, religion, the 
exercise of conscience, and other protected classes. I intend to 
continue the administration's policy on this question and abide by all 
applicable laws if confirmed.

    Question. Does that include a full range of contraceptive methods?

    Answer. The United States is the most generous supporter of global 
health assistance, including family planning programs that provide a 
broad range of family planning methods and services. Congress has 
passed numerous federal laws prohibiting discrimination by recipients 
of federal funds on the basis of race, color, national origin, 
disability, age, sex, religion, the exercise of conscience, and other 
protected classes. I intend to continue the administration's policy on 
this question and abide by all applicable laws if confirmed.

    Question. The Trump administration continues to request that 
Congress completely cut funding to International Organizations and 
Programs Account and severe cuts to the Contributions to International 
Organizations Account. While even allies of the administration continue 
to call these budget cuts dead on arrival, they do represent this 
administration's priorities. As you said in earlier conversations, the 
U.S. is the most generous country in the world but how will you be able 
to confidently work with our allies in multilateral forums when the 
administration continues to threaten the stability of these bodies with 
these massive funding cuts?

    Answer. The President's budget requests underscore his 
determination to reduce the financial burden on the American taxpayer 
by encouraging other member states to do more. For far too long, the 
United States has shouldered an outsized burden on behalf of the 
international community, and the President simply feels that it is time 
that this burden be more equitably shared.

    Question. In addition to threatening funding cuts, the United 
States has taken a hard-line against long-standing agreements on sexual 
and reproductive health at the United Nations. Specifically, U.S. 
negotiators at the U.N. have repeatedly sought the removal of agreed 
language on sexual and reproductive access for communities worldwide. 
If confirmed, how will you work to ensure that the U.S. upholds and 
advances international commitments on sexual and reproductive health 
and rights globally, rather than seeking to roll them back?

    Answer. The administration has concerns about the terms ``sexual 
and reproductive health services'' and ``sexual and reproductive 
rights''. Over the years, these references have become associated with 
support for abortion as an alleged right. The administration will do 
all it can do to protect and respect the sanctity of life around the 
globe.
    In its advocacy for women, the administration continues to hold to 
the commitments laid out in the 1995 Fourth World Conference on Women's 
Beijing Declaration and Platform for Action as well as in the 1994 
International Conference on Population and Development's Programme of 
Action. The United States moreover remains the largest bilateral donor 
of women's reproductive health and family planning assistance 
worldwide.
    Moving forward at the U.N., the administration seeks to find 
consensus with a wide group of Member States on clear terminology that 
would better promote women's health without promoting abortion. We are 
committed to meeting the health care needs of women, men, girls, and 
boys, as well as the health-education needs of children and adolescents 
around the globe, and avoid issues that offend human dignity.

    Question. The U.S. recently made an egregious and extraordinary 
threat to veto a U.N. Security Council Resolution on gender-based 
violence in conflict over a reference to survivors' access to sexual 
and reproductive health care. Media reports also suggest that during 
negotiations, the U.S. sought to remove a mechanism that would have 
provided funding for survivors of sexual violence in conflict with 
services over fears it could be used by survivors for abortions, where 
legal. These negotiations at the U.N. have real world impact on women 
and girls around the world:
    Do you believe victims of sexual violence should be able to 
terminate the pregnancy, where legal?

    Answer. I have tremendous sympathy for any woman victimized by 
sexual violence and support the U.S. efforts to help victims of sexual 
violence become thriving survivors. The United States will not support 
abortion services, but that does not equate to denying women who have 
been raped access to legal medical care. The U.S. opposition to the 
resolution in question was intended to ensure that U.N. organizations 
did not interpret that language to begin assuming a right to abortion 
as a method of family planning.

    Question. The global gag rule allows international organizations 
who receive U.S. global health funding to provide abortions in the case 
of rape, incest, and life endangerment of the woman with non-U.S. 
funding: Do you support these exceptions or would you recommend and 
seek to close them?

    Answer. Yes, I support the existing Mexico City policy, which 
includes these exceptions.

    Question. In countries around the world, LGBTQ people are 
criminalized for who they love. There are also women who are in jail in 
places like El Salvador and Senegal for having miscarriages or 
abortions. These are gross human rights violations:
    If you are confirmed, will you speak out against laws that 
criminalize same-sex relationships and women's personal health 
decisions in public and private settings as part of the United States 
human rights and diplomacy agenda?

    Answer. The United States has made clear its commitment to 
protecting and defending the human rights of all, including LGBTI 
persons, and has condemned the fact that in many parts of the world, 
LGBTI individuals and their supporters continue to face violence, 
arrest, harassment and intimidation for standing up for their human 
rights, participating in peaceful marches and rallies, and expressing 
their views. As Secretary Pompeo has stated, LGBTI persons--like all 
persons--must be free to enjoy their human rights and fundamental 
freedoms, including freedom of expression, peaceful assembly, and 
association, without fear of reprisal.

    Question. For the past two years the State Department's annual 
human rights report failed to highlight the full range of abuses and 
human rights violations experienced most especially by women, girls, 
LGBTQI people, and other marginalized peoples around the world. Human 
rights are indivisible and universal. Threats to the human rights of 
women and LGBTQI people cannot be stricken from the report without 
sending a broader message to abusive governments that the United States 
will not hold them to account for such violations. Scaling back 
discussion of discrimination and women's health issues, such as access 
to contraception and abortion and rates of preventable maternal deaths, 
undermines the credibility of the Human Rights Reports as a whole and 
signals to the rest of the world that the United States does not value 
the human rights of all people. It also undermines the integrity of the 
State Department as a whole and further emphasizes statements that have 
been made by yourself and others in this administration that human 
rights are ``obstacles'' to development and prosperity as opposed to 
their bedrocks:
    Do you recognize reproductive rights and the rights of LGBTQ people 
as human rights? Do you believe that States have human rights 
obligations to eliminate gender-based violence, including domestic 
violence, sexual violence and harassment, in public and private life?

    Answer. The Department has been clear and consistent in affirming 
that human rights are universal, and that no one should face violence, 
criminalization, or severe official discrimination because of who they 
are. We will continue to stand up and speak out in support of the human 
rights and fundamental freedoms of all people, including LGBTI persons 
in all corners of the globe, and to press for perpetrators of human 
rights violations and abuses to be held accountable.

    Question. The Trump administration has twice expanded the global 
gag rule--implementing a version of the policy that is unprecedented in 
scope. Recent research indicates the global gag rule is disrupting 
health care services, weakening civil society, and halting national 
policy progress on health and human rights:
    Were you involved in decisions to expand the global gag rule?

    Answer. I was involved in President Trump's decision to reinstate 
the Mexico City policy through his Protecting Life in Global Health 
Assistance policy.

    Question. Have you made any efforts to understand the impact of 
these decisions in terms of access to a range of health services, 
effective partnership in the field, and the silencing of medical 
professionals and advocates?

    Answer. After implementation of the Protecting Life in Global 
Health Assistance policy, the administration conducted a review at all 
affected departments and agencies. This review found that only four 
prime partners declined to agree to the conditions of the policy out of 
733 awards.

    Question. Do you believe the policy should be expanded even 
further?

    Answer. I support the existing policy.

    Question. In your written answers for the Committee, you stated 
that, ``The administration made a determination that UNFPA's work with 
Chinese population authorities violated statutory funding 
restrictions:''
    Can you explain the how UNFPA has violated Kemp-Kasten because I 
have not been able to get a clear answer how the administration went 
about making the determination against UNFPA?

    Answer. The determination to withhold funding from UNFPA was made 
based on the fact that China's family planning policies still involve 
the use of coercive abortion and involuntary sterilization practices 
and that UNFPA partners on family planning activities with the Chinese 
government agency responsible for these coercive policies. The 
Secretary has determined that UNFPA therefore ``supports or 
participates in the management of a program of coercive abortion or 
involuntary sterilization.''
    If confirmed, I will continue to examine closely the activities of 
UNFPA in the context of the funding decision, and will take every 
opportunity to remind other nations that the United States is and will 
be at the forefront of improving women's health across the lifespan, 
including continued access to family planning methods and preventing 
maternal and child deaths.

    Question. The U.S. sits on UNFPA's Executive Board, which approves 
country programs. If the U.S. was really concerned about UNFPA's China 
country program, wouldn't it use its position to bring the program into 
compliance of U.S. statutory funding restrictions?

    Answer. The United States remains engaged with UNFPA leadership to 
discuss its country-based programs, and as noted by Ambassador Kelly 
Craft in her June 19 confirmation hearing, the administration will 
continue to examine UNFPA's compliance with U.S. statutory 
requirements.

    Question. Emergency contraception can prevent pregnancy up to five 
days after a rape has occurred, yet is it illegal in some countries, 
such as Honduras. A United Nations treaty body has recommended, such as 
in the case of Honduras, that such bans on emergency contraception be 
lifted. Human Rights Watch recently issues a report on the impact of 
this ban, and the ban on abortion. It cited government data that in 
2017, 820 girls ages 10 to 14 gave birth in Honduras. Many of these 
girls became pregnant from rape. Do you believe victims of rape have a 
right to access emergency contraception?

    Answer. The United States is the most generous supporter of global 
health assistance, including family planning programs. All people have 
a right to compassionate and appropriate medical care. The United 
States has led the world in showing that partnerships with faith-
motivated organizations can simultaneously deliver world-class 
compassionate care, while also honoring their faith traditions and 
protected conscience rights.

    Question. According to the World Health Organization, approximately 
16 million girls aged 15 to 19 years and 2.5 million girls under age 16 
years give birth in developing regions. A United Nations agency 
released technical guidance on comprehensive sexuality education last 
year, focused on ensuring adolescents have access to evidence-based 
information: Do you believe that youth have a right to access to 
evidence-based information about sexual and reproductive health and 
rights?

    Answer. The United States is the most generous funder of maternal 
and child health, including family planning programs, in the world. I 
agree that this strong record of leadership should continue, and that 
it should continue to do so within the longstanding ethical parameters 
that govern our foreign assistance today. Those parameters include the 
decades-old protections against taxpayer support for abortion, and the 
preservation of parental rights when it comes to the information and 
care provided to children, including the provision of culturally 
sensitive, age-appropriate, optimal health-focused sex education.

    Question. In your testimony Thursday, you stated clearly that you 
do not believe victims of rape have a right to access abortion: Do you 
believe women and girls forced to continue pregnancies should receive 
compensation from the state to raise children born from that pregnancy?

    Answer. Yes.

    Question. Do you believe that governments should provide financial 
and legal assistance to women and girls who deliver children born of 
rape to seek payment from the men responsible for the rape?

    Answer. Yes.

    Question. In the context of conflict, how do you believe this would 
work in practice?

    Answer. The U.S. is the most generous funder of services for women 
and girls who have been victimized by conflict, and I strongly support 
continuation of that funding. At the same time, we must continue to 
work to prevent such conflicts from occurring.

    Question. Returning to the U.S.'s threat to veto a U.N. Security 
Council Resolution on gender-based violence in conflict over a 
reference to survivors' access to sexual and reproductive health care: 
What exact services do you believe survivors of sexual violence in 
conflict should have a right to access?

    Answer. The United States is the most generous funder of maternal 
and child health, including family planning programs, in the world. I 
agree that this strong record of leadership should continue, and that 
it should continue to do so within the longstanding ethical parameters 
that govern our foreign assistance today. Those parameters include the 
decades-old protections against taxpayer support for abortion, and the 
preservation of parental rights when it comes to the information and 
care provided to children, including the provision of culturally 
sensitive, age-appropriate, optimal health-focused sex education.

    Question. In your pre-hearing QFRs, you wrote about ``collusion 
with the global abortion industry in the guise of foreign assistance:'' 
Please describe how you believe such ``collusion'' has taken place in 
the past and define what you mean by the ``global abortion industry.''

    Answer. The Mexico City Policy is a critical protection for 
taxpayers and for the women and girls that we support around the world. 
Foreign assistance overseas raises concerns about the fungibility of 
resources that could be used to indirectly support abortion services, 
particularly when given to foreign NGOs that perform and promote 
abortion as a core part of their work. Taxpayers expect us to use the 
billions of dollars managed by our maternal and child health, family 
planning, HIV/AIDS, malaria, child nutrition and many other programs to 
save lives, not take them.

    Question. In your hearing, I asked you repeatedly what your opinion 
is on including a citizenship question to the census. You initially 
stated that ``I don't think it would be appropriate for me to discuss 
the confidential interactions,'' yet you admitted that you were ``not 
asserting any privilege.'' Please provide your opinion on including a 
citizenship question to the census, and please answer the question 
fully. I am not asking about your conversations with the president, or 
for any deliberative discussions in the White House.

    Answer. My current, personal opinion is that the inclusion of the 
citizenship question will provide a more accurate and detailed 
accounting of where U.S. citizens live within the United States.

    Question. In your opinion, is there any added value? Are there any 
risks?

    Answer. Yes, there is added value. Inclusion of the question will 
provide a more accurate and detailed accounting of where U.S. citizens 
live within the United States. Yes, there is some risk the inclusion of 
an additional question makes the survey longer and could potentially 
reduce the initial response rate, which would require additional 
outreach and follow up by the Census.

    Question. As I stated in your nomination hearing, I would like more 
information about your response to questions I submitted to you in 
advance of your nomination hearing.
    Specifically, I asked, ``Did you have any contacts or 
communications with officials from the Department of Commerce, the 
Department of Justice, Steve Bannon, Kris Kobach, or Stephen Miller in 
2017 about adding questions about immigration and citizenship status to 
the census? If so, please describe.''
    You answered: ``Yes, I discussed my opinion on including the census 
question with other White House staff. In light of the confidentiality 
interests that attach to executive branch decision making, I am unable 
to answer this question.'' On what basis are you claiming such 
communications would be confidential? Please be specific.

    Answer. As I stated during my hearing, I discussed my opinion on 
including the census question with other White House staff at the time. 
I did not have any communications with Mr. Kobach about adding 
questions about immigration and citizenship status to the census. I 
also did not participate in any meeting with the Department of 
Commerce, the Department of Justice, Steven Bannon, or Stephen Miller 
about the census question. I did discuss my personal opinion on 
including the census question with Mr. Miller.

    Question. Did you ask the President or White House Counsel whether 
the President was seeking to exert any privilege over any such 
communications?

    Answer. No.

    Question. On what basis are you claiming that any communications 
with Kris Kobach, who is neither a White House nor a government 
official, would be subject to any executive branch protections? I note 
that an OLC opinion the White House has cited for such broad privilege 
claims involved communications regarding a `quintessential and 
nondelegable Presidential power,' such as the authority to nominate or 
to remove U.S. Attorneys''--here, the subject in question is a 
statutorily-designated function delegated to a federal agency, not a 
core Presidential power. Please be specific.

    Answer. I did not have any communications with Mr. Kobach about 
adding questions about immigration and citizenship status to the 
census.

    Question. Your answer indicates that the White House was engaged in 
decision-making on adding a citizenship question to the census. Is that 
the case? Please note that the fact of any decision-making is not 
subject to any claim of privilege.

    Answer. Not that I am aware of.

    Question. Did you participate in any meetings with the Department 
of Commerce regarding adding a citizenship question to the census?

    Answer. No.

    Question. Did you participate in any meetings with the Department 
of Justice regarding adding a citizenship question to the census?

    Answer. No.

    Question. Did you participate in any meetings with Steve Bannon 
regarding adding a citizenship question to the census?

    Answer. No.

    Question. Did you participate in any meetings with Kris Kobach 
regarding adding a citizenship question to the census?

    Answer. No.

    Question. Did you participate in any meetings with Stephen Miller 
regarding adding a citizenship question to the census?

    Answer. No, however, I did discuss my opinion on including the 
census question with Mr. Miller.

    Question. In response to my question regarding a draft memo 
purportedly authored by you, you stated that ``you had never written'' 
the sentence, ``households headed by aliens are much more likely than 
households headed by native-born citizens to use federal means-tested 
benefits.''You also stated that, ``when I came into the White House 
there were many, many memos and draft executive orders that had been 
prepared for consideration for President Trump during the presidential 
transition. Many memos and executive orders.'' Was the sentence cited 
above drafted before the President took office?

    Answer. In light of the confidentiality interests that attach to 
executive branch decision-making, I am unable to answer this question. 
Moreover, it would be inappropriate for me to comment on an alleged 
draft internal White House document.

    Question. Who wrote it?

    Answer. In light of the confidentiality interests that attach to 
executive branch decision-making, I am unable to answer this question. 
Moreover, it would be inappropriate for me to comment on an alleged 
draft internal White House document.

    Question. Did you work, draft, consult, or advise on any draft 
memos or executive orders during the transition? If so, which ones?

    Answer. Yes, I worked on several draft memos and executive orders 
during the transition that dealt with domestic policy issues, but did 
not include immigration.

    Question. Did you ultimate finalize or submit a memo on means-
tested benefits?

    Answer. It would be inappropriate for me to comment on alleged 
draft internal White House documents.

    Question. Did memos go out with your name on it that you did not 
review?

    Answer. No.

    Question. At your hearing, you stated that you would check your 
calendars to confirm whether you ever participated in any meetings 
regarding TPS (Temporary Protected Status). Have you consulted your 
calendars?

    Answer. Yes.

    Question. Did you have any record of participating in any meetings 
regarding TPS?

    Answer. Yes, I participated in one meeting regarding TPS.

    Question. Did you review your notes and files to see if you had any 
documents related to TPS? Did you?

    Answer. Yes. I do not have any documents related to TPS.Question 
72:Do you commit to respond promptly to all requests for information by 
Members of this committee?

    Answer. Yes.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. Yes.

    Question. Please list any outside positions and affiliations you 
plan to continue to hold during your term of appointment.

    Answer. If confirmed, I do not intend to hold any positions or 
affiliations that would constitute a breach of my ethics agreement.

    Question. Have you ever been an officer or director of a company 
that has filed for bankruptcy? If so, describe the circumstances and 
disposition.

    Answer. No.

    Question. If you leave this position before the completion of your 
full term of the next presidential election, do you commit to meeting 
with the Committee to discuss the reasons for your departure?

    Answer. Yes.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. No.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes. If confirmed, I will make it clear to all employees of 
Mission Geneva that they are valued members of the team, and that 
retaliation, blacklisting, or other prohibited personnel practices are 
unacceptable.

    Question. What is your assessment of the impact of the 
administration's zero-tolerance family separation policy on the 
children that were separated from their families and do you believe 
that separation caused these children any type of emotional or mental 
distress?

    Answer. The migration of whole communities and vast numbers of 
families throughout the Northern Triangle has had a profound impact on 
children. The journey north has been widely documented as one that is 
both physically perilous and emotionally taxing. Trauma--including 
emotional and mental distress--is seen among both adults and children 
who make the dangerous journey to the U.S.

    Question. Are you aware that the administration's zero-tolerance 
family separation policy separated children under the age of one year 
from their parents?

    Answer. Yes.

    Question. Did you participate in any conversations related to U.S. 
policy regarding the care of migrant children that were separated from 
their families and what is your assessment about whether these children 
received sufficient care while in custody of the U.S. government?

    Answer. Yes, I participated in discussions and meetings regarding 
the reunification of children and their parents, and in the 
implementation of Executive Order 13841.

    Question. Did you participate in any conversations related to the 
reunification of migrant children and their families that were 
separated under the administration's zero-tolerance family separation 
policy?

    Answer. Yes, I participated in discussions and meetings regarding 
the reunification of children and their parents, and in the 
implementation of Executive Order 13841.

    Question. Is it your assessment that all migrant children that were 
separated from their families as a result of the administration's zero-
tolerance family separation policy have been re-united with their 
families?

    Question. No. I believe the Department of Health and Human Services 
is still caring for one child, and is currently working with the ACLU 
to help facilitate that reunification.

    Question. Did you participate in any conversations related to the 
administration's Migrant Protection Protocols and the policy of forcing 
asylum seekers to Remain in Mexico while their asylum claims are 
adjudicated in the United States?

    Answer. No.

    Question. Do you assess that individuals requesting asylum in the 
U.S. that are forced to remain in Mexico during their adjudication 
process are safe in Mexico or whether they face risks to their personal 
safety?

    Answer. Because I did not participate in conversations related to 
the administration's Migrant Protection Protocols I have not made any 
assessment.

    Question. Did the Domestic Policy Council (DPC) include assessments 
about the risks to the personal safety of asylum seekers forced to 
Remain in Mexico during their adjudication process in its decision 
making process when it formulated the administration's Migrant 
Protection Protocols?

    Answer. Because I did not participate in conversations related to 
the administration's Migrant Protection Protocols I did not make any 
assessment.

    Question. Did you or anyone on the Domestic Policy Council (DPC) 
engage with the Department of State or Department of Homeland Security 
regarding the TPS designations for El Salvador, Honduras, or Haiti, or 
any other countries? If yes, please describe any such engagement.

    Answer. Yes, I participated in one interagency meeting regarding 
TPS where the Department of State and Department of Homeland Security 
participated.

    Question. Did the DPC have a position regarding the termination, 
extension or re-designation of the TPS designations for El Salvador, 
Honduras, or Haiti? If yes, please describe any such position.

    Answer. Yes. In light of the confidentiality interests that attach 
to executive branch decision-making, I am unable to further answer this 
question.

    Question. Did the DPC provide the Department of State or Department 
of Homeland Security with any assessment about whether the ongoing 
presence in the U.S. of TPS beneficiaries from El Salvador, Honduras 
and Haiti posed any challenges to U.S. national interests? If so, 
please describe any such assessment.

    Answer. I did not.

    Question. When providing any input on the TPS designations for El 
Salvador and Honduras, did the DPC consider the risks to the personal 
safety and well-being of TPS beneficiaries from El Salvador and 
Honduras if they were deported to their countries of origin, given the 
elevated levels of crime and violence present in both countries?

    Answer. Yes.

    Question. When providing any input on the TPS designations for El 
Salvador and Honduras, did the DPC consider the risks to the personal 
safety and well-being of the U.S. citizen children of TPS beneficiaries 
from El Salvador and Honduras if they accompanied their parents to 
their countries of origin, given the elevated levels of crime and 
violence present in both countries?

    Answer. Yes.

    Question. Did the DPC conduct any assessment of what the impact of 
terminating TPS designations for El Salvador and Honduras would be on 
the personal safety and well-being of the U.S. citizen children of TPS 
beneficiaries? If so, what were those findings, and to whom did DPC 
provide them?

    Answer. I did not.



                               __________


            Responses to Additional Questions for the Record
     Submitted to Andrew P. Bremberg by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. During my time as the Director of the Domestic Policy 
Council, I worked on several issues that speak to human rights: 
advocating for the right to life of every human being, protecting 
religious liberty, reforming our Federal criminal justice system, the 
successful removal from the U.S. of former Nazi labor camp guard Jakiw 
Palij to Germany, expanding treatment for mental health, and calling 
for the eradication of new HIV infections in the U.S. I am proud to 
have helped President Trump advance the cause of unalienable human 
rights, particularly in his commitment to protecting the sanctity of 
life and human dignity around the world, including his impressive 
record on religious liberty and support for persecuted religious 
minorities.

    Question. What are the most pressing human rights issues at the 
Office of the United Nations? What are the most important steps you 
expect to take--if confirmed--to promote human rights and democracy at 
the Office of the U.N.? What do you hope to accomplish through these 
actions?

    Answer. Violations and abuses of human rights and fundamental 
freedoms are serious and require attention. At present, the most 
pressing of these include the massive and systematic violations and 
abuses occurring in China, where over one million Uighurs, ethnic 
Kazaks, Kyrgyz, and other Muslins in Xinjiang have been detained in 
camps since April 2017. We remain gravely concerned by the horrors 
perpetrated by the Assad regime in Syria, where hundreds of thousands 
of Syrian civilians have been detained, and over 120,000 reportedly 
remain missing as a result of an ongoing effort to silence calls for 
reform and change. In Venezuela, the illegitimate Maduro regime thwarts 
the democratic aspirations of millions through violence and repression, 
all the while starving its own people. In Burma, atrocities committed 
against Rohingya Muslims have recently displaced more than 730,000 
Rohingya refugees to Bangladesh alone.
    If confirmed, I will rally fellow U.N. member states to press 
jointly for changes in state practice and, as we have recently done 
with the case of Burma, to support, on a case-by-case basis, 
independent U.N. monitoring and investigation mechanisms to establish 
accountability and end impunity.
    I would also continue to press U.S. concerns regarding the 
violations of human rights and fundamental freedoms, including the 
right to freedom of religious belief, peaceful assembly and 
association, and freedom of expression. Upholding these fundamental 
freedoms is a prerequisite for global development and stability, which, 
in turn, helps guarantee U.S. national security.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face at the Office of the 
United Nations in advancing human rights, civil society and democracy 
in general?

    Answer. As we have seen in the unfortunate case of the U.N. Human 
Rights Council, it is often too easy for malign actors to become part 
of U.N. mechanisms, only to block criticism and thwart consensus on the 
need for meaningful engagement and reform.
    It will be critical, moving forward, to take a serious look at 
reforming the functioning of U.N. mechanisms and, if confirmed, I would 
be honored to lead these efforts on behalf of the United States.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S.? If 
confirmed, what steps will you take to pro-actively support the Leahy 
Law and similar efforts, and ensure that provisions of U.S. security 
assistance and security cooperation activities reinforce human rights?

    Answer. The United States has made clear its commitment to 
protecting and defending the human rights of all. We work closely with 
U.S. NGOs in this effort, as demonstrated by our advocacy at the 
biannual NGO Committee meetings at the United Nations. The U.S. is also 
a strong backer of efforts to deepen human rights in the security 
sphere, as evidenced by our support for human rights in U.N. 
peacekeeping missions.

    Question. Will you and your team actively engage with other nations 
to address cases of key political prisoners or persons otherwise 
unjustly targeted?

    Answer. The United States will remain a leader in human rights 
advocacy, including in the multilateral system through our engagement 
in the Security Council, General Assembly, and other U.N. and regional 
fora. We are a strong advocate for human rights, including support for 
political prisoners and human rights defenders, in countries such as 
Iran and China.

    Question. You have stated your first priority in Geneva will be 
advancing human rights. What does term ``human rights'' mean to you?

    Answer. Human rights are those rights which are endowed by our 
Creator--usually expressed as freedoms that no government anywhere may 
abridge, which the U.S. Declaration of Independence speaks of as 
``unalienable'' and can also be found in our Bill of Rights. One 
definitional source that many look to is the 1948 Universal Declaration 
of Human Rights, which includes rights of conscience, expression, 
religious exercise, freedom of movement, to marry, to form families 
free from government coercion, to be free from slavery and torture, to 
own property, and to due process applied equally to all. government 
respect for the universal human rights of all citizens fosters free and 
open societies in which all people can flourish. Advancing human rights 
means committing to defend the human rights and dignity of all people, 
no matter who they are. For example, as Secretary Pompeo has said: 
``standing up for human rights is hardwired into who we are as 
Americans. Promoting human rights is in the best interests of the 
United States. Societies that respect human rights and the rule of law 
are more stable, and make better allies.'' In accordance with 
international human rights treaties, if confirmed, I will vigorously 
advocate to protect the inalienable rights that all people share 
because of our shared human dignity.

    Question. How did you use your role as Director of Domestic Policy 
at the White House to advanced human rights in the United States?

    Answer. During my time as the Director of the Domestic Policy 
Council, I worked on several issues that speak to human rights: 
advocating for the right to life of every human being, protecting 
religious liberty, reforming our Federal criminal justice system, the 
successful removal from the U.S. of former Nazi labor camp guard Jakiw 
Palij to Germany, expanding treatment for mental health, and calling 
for the eradication of new HIV infections in the U.S. I am proud to 
have helped President Trump advance the cause of unalienable human 
rights, particularly in his commitment to protecting the sanctity of 
life and human dignity around the world, including his impressive 
record on religious liberty and support for persecuted religious 
minorities.

    Question. Would you characterize access to housing as a human 
right? Why or why not?

    Answer. As set forth in Article 25 of the Universal Declaration of 
Human Rights (UDHR), ``everyone has the right to a standard of living 
adequate for the health and well-being of himself and of his family, 
including . . . housing.'' Access to housing is therefore facilitated 
by realization of the right to an adequate standard of living, as well 
as by equality before the law.

    Question. Would you characterize access to health services, 
including reproductive health services, as a human right? Why or why 
not?

    Answer. The United States supports the right to the enjoyment of 
the highest attainable standard of health. Likewise, the United States 
recognizes the importance and challenges of meeting basic needs for 
water and sanitation to support human health, economic development, and 
peace and security.

    Question. International Human Rights NGOs play a critical role in 
highlighting abuses and pressing for accountability in many forums 
including the United Nations: Will you commit to working closely with 
human rights and humanitarian civil society organizations and to 
briefing the NGO Working Group on the Security Council?

    Answer. The United States will remain a leader in human rights 
advocacy, including in the multilateral system through our engagement 
in the Security Council, General Assembly, and other U.N. and regional 
fora. We are actively involved in the work of the Third Committee of 
the U.N. General Assembly, which covers social, humanitarian, and human 
rights issues. In that context we are advocating strongly in support of 
human rights in Iran, Crimea, Syria, the DPRK, and Burma among others. 
We will also continue our efforts to bring human rights issues to the 
attention of the Security Council, as we did during our recent 
presidency when we held the first ever session on the linkage between 
human rights abuses and threats to international peace and security.

    Question. Some Human Rights Council critics have argued that the 
United States should pursue its human rights priorities in other U.N. 
fora. For example, U.S. Permanent Representative to the United Nations 
Nikki Haley has stated that the Security Council should play a greater 
role in addressing human rights issues; however, others maintain that 
the Council should focus on its mandate of maintaining international 
peace and security. Some Administration officials have also raised the 
possibility of discussing human rights in the General Assembly's Third 
Committee which addresses human rights as part of the Assembly's 
broader mandate: What is your view on this issue? What are the 
advantages and disadvantages of using these alternate mechanisms?

    Answer. The United States will remain a leader in human rights 
advocacy, including in the multilateral system through our engagement 
in the Security Council, General Assembly, and other U.N. and regional 
fora. We are actively involved in the work of the Third Committee of 
the U.N. General Assembly, which covers social, humanitarian, and human 
rights issues. In that context we are advocating strongly in support of 
human rights in Iran, Crimea, Syria, the DPRK, and Burma among others. 
We will also continue our efforts to bring human rights issues to the 
attention of the Security Council, as we did during our recent 
presidency when we held the first ever session on the linkage between 
human rights abuses and threats to international peace and security. If 
confirmed, I will continue U.S. advocacy for human rights at every 
appropriate opportunity.

    Question. Please provide your assessment of Human Rights Council 
reforms completed so far and what additional reforms the U.S. deems 
necessary for its future participation. Have additional reform 
benchmarks been laid out? Has a timetable been specified?

    Answer. Ongoing reform efforts at the Human Rights Council have 
centered on working practices and have refrained from tackling the hard 
issues, namely the Council's pervasive anti-Semitic bias and the 
structural deficiencies that allow the worst human rights offenders to 
simultaneous use the Council as a shield from criticism and a sword for 
unjust criticism of U.S. allies. There is no path for U.S. 
reconsideration of its withdrawal without significant progress on both 
of these fronts. This must include the elimination of the Council's 
Agenda Item 7, an agenda item that uniquely and persistently targets 
Israel for criticism above all other U.N. member states.

    Question. What challenges does the Human Rights Council face in 
achieving its reforms and why?

    Answer. The chief obstacle to meaningful Council reform is the 
self-interest of malign actors, who seek to perpetuate their protected 
status on the Council while, simultaneously, using the body as a weapon 
with which to attack Israel. Reform is further complicated by those 
countries who believe, mistakenly, that even a misguided and fully 
inadequate Council is better than none.

    Question. Is there a process outlined by which the United States 
would return to the Human Rights Council?

    Answer. The United States will only consider the possibility of 
returning to the Human Rights Council if member states deal 
successfully with the bias and structural issues that grossly undermine 
the Council's legitimacy. This must include, not only the elimination 
of the anti-Semitic Agenda Item 7, but also fundamental changes to the 
rules governing election to the Council.

    Question. Do you agree with the administration's decision to 
withhold assessed funding to the Human Rights Council and OHCHR? Why or 
why not?

    Answer. The Department withheld from the U.N. regular budget an 
amount equivalent to the U.S. proportional share of the funding that 
the Office of the High Commissioner for Human Rights receives from the 
U.N. regular budget. This withholding was based on policy 
considerations. There should be minimal impact on OHCHR, because the 
withholding was from the U.N. regular budget, not from the OHCHR 
budget. The Department is continuing to make voluntary contributions to 
the OHCHR budget.
    Following our withdrawal from the Human Rights Council, we have 
also reduced our funding to the U.N. to account for the share of the 
U.S. contribution that would have gone to the HRC. We do, however, 
remain supportive of specific mandates created by the Council that 
support U.S. human rights objectives.
    Our approach is to provide targeted voluntary funding towards OHCHR 
activities that advance U.S. policy objectives and priorities, such as 
focusing on work to address continuing egregious human rights 
violations and abuses around the world and to support fundamental 
freedoms such as the freedoms of expression, association, and religion 
or belief, among others.

    Question. To your knowledge, under what authority did the 
administration withhold FY2018 funding? What is the impact of the 
withholdings on the operations of these bodies?

    Answer. The Department withheld from the U.S. assessed contribution 
to the U.N. regular budget an amount equivalent to the U.S. 
proportional share of the U.N. regular budget funding that the Office 
of the High Commissioner for Human Rights receives. This withholding 
was based on policy considerations. There should be minimal impact on 
OHCHR, because the withholding was from the U.N. regular budget, not 
from the OHCHR budget. The Department is continuing to make voluntary 
contributions to the OHCHR budget.

    Question. To your knowledge, why did the United States withhold 
funding from the OHCHR? Do you agree with the decision? If so, what 
OHCHR actions do you find most concerning and why? What OHCHR actions, 
if any, do you support?

    Answer. The Department withheld from the U.N. regular budget an 
amount equivalent to the U.S. proportional share of the funding that 
the Office of the High Commissioner for Human Rightsreceives from the 
U.N. regular budget. This withholding was based on policy 
considerations. There should be minimal impact on OHCHR, because the 
withholding was from the U.N. regular budget, not from the OHCHR 
budget. The Department is continuing to make voluntary contributions to 
the OHCHR budget.
    Our approach is to provide targeted voluntary funding towards OHCHR 
activities that advance U.S. policy objectives and priorities, such as 
focusing on work to address continuing egregious human rights 
violations and abuses around the world and to support fundamental 
freedoms such as the freedoms of expression, association, and religion 
or belief, among others.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in industries that could compromise your work 
at the United Nations?

    Answer. No.

    Question. In 2017, you authored a memorandum for the President 
regarding immigration policy. In the memo, your reasoning for 
implementing certain policy was to, ``fulfill several key campaign 
promises:'' If confirmed, will your mission be to represent the 
American people, or fulfill the agenda and campaign promises of 
President Trump?

    Answer. If confirmed, I will represent the interests of the 
American people by fulfilling the policies of the Trump administration.

    Question. As Representative to the U.S. Mission in Geneva, what 
will be your commitment to consulting with and engaging in dialogue 
with Congress and civil society on critical international issues?

    Answer. If confirmed, I look forward to frequent occasions to 
engage with Members of Congress and civil society on important matters 
addressed at U.N. venues in Geneva.

    Question. How will you avoid alienating other member states that 
have traditionally been U.S. allies in the promotion of human rights, 
democracy and peace and security?

    Answer. If confirmed, I will develop strong working relationships 
across the international community in Geneva, including with close 
allies and strategic competitors. I believe that among my key roles as 
U.S. Permanent Representative to the U.N. is communicating clearly U.S. 
values and objectives. Those values formed the foundation of the U.N. 
system, and remain a clarion call to the world.

    Question. U.S. foreign assistance is vital in helping to reach the 
world's most marginalized people living in some of the most challenging 
contexts with life-saving health interventions, food assistance, access 
to education, and the tools with which to become more self-reliant over 
time:

   As Representative to the U.S. Mission in Geneva, how will you 
        ensure that U.S. foreign assistance is used wisely by 
        international organizations to reach the most vulnerable people 
        around the world?

    Answer. As a major donor to United Nations development assistance, 
the United States has a strong interest to ensure our funding is used 
to help the most vulnerable and most in need and that U.S. taxpayers' 
dollars are used effectively and efficiently to achieve these purposes. 
If confirmed, I will work with the United Nations organizations in 
Geneva to undertake reforms and improve transparency and accountability 
to ensure that our development assistance through these organizations 
will continue to reach those most in need.

    Question. The Famine Early Warning Systems Network reports, 
``Across 46 countries, 85 million people require emergency food 
assistance in 2019, 80% more than in 2015.'' Earlier this month, the 
U.N. warned that 2 million people in Somalia alone could face 
starvation by summer's end if sufficient international humanitarian 
assistance does not arrive soon: As Representative to the U.S. Mission 
in Geneva, how will you push for a strong collective response to the 
most urgent crises impacting food security?

    Answer. The United States government is committed to addressing 
global crises in food security and is on the Executive Boards of the 
U.N. Rome-based agencies: the Food and Agriculture Organization (FAO), 
the World Food Program (WFP), and the International Fund for 
Agricultural Development (IFAD). The United States is the largest donor 
to the FAO, providing over $190 million per year: almost 20% of the 
total budget. We are the largest donor to the WFP, providing over $2.5 
billion in 2018: more than 34% of the budget. We are also the largest 
historic donor to IFAD, and contributed $30 million in 2019. If 
confirmed, I will work closely with our Ambassador to U.N. Agencies in 
Rome Kip Tom to urge other donors to do their fair share as well to 
address humanitarian crises around the globe.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will embrace every opportunity to promote 
diversity and inclusion in the workplace. I agree with the research 
that indicates that diverse teams are richer in creativity and 
perspective, and I believe all leaders should embrace a wide range of 
input, viewpoints, and backgrounds.

    Question. What steps will you take to ensure each of the 
supervisors in your staff are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will ensure that all supervisors at Mission 
Geneva have undertaken the required workplace management training, 
including the Department's Equal Employment Opportunity coursework. In 
addition, I will lead by example, creating an inclusive working 
environment where all backgrounds and perspectives are treated as 
valid.

    Question. Religion has played a major role in your higher 
education. You attended Franciscan University and Catholic University 
during your time as a student. Reports have also stated that these 
religious routes are what shape your policy. How will your religion 
impact your ability to represent American people of all beliefs in 
Geneva?

    Answer. I am a person of faith and an American with an abiding 
belief in freedoms of religion and expression. If confirmed, I will 
welcome people of all faiths to my team and represent proudly Americans 
of all backgrounds, religious or otherwise.

    Question. The Trump administration has compromised U.S. energy 
security interests and our leadership role on climate change in the 
eyes of the world. Do you accept climate change is real, is caused by 
humans, and that immediate Congressional action is needed to address 
it?

    Answer. Climate change is a complex global challenge. I believe the 
climate is changing, and that there is likely a human component to 
that. If confirmed, I will ensure the United States continues to be a 
world leader in providing affordable, abundant, and secure energy to 
our citizens, while protecting the environment and reducing emissions 
through job-creating innovation.

    Question. As Representative to the U.S. Mission in Geneva, how will 
you repair the United States' standing in multinational climate 
discussions now that we have left the Paris Climate Accords?

    Answer. The United States will remain a party to the UNFCCC. If 
confirmed, I will seek to maintain U.S. leadership to advance and 
protect U.S. economic and environmental interests, including by 
participating in international negotiations to ensure a level playing 
field for all countries.

    Question. Do you believe the U.S. should play a leadership role in 
addressing climate change?

    Answer. The United States is a world leader in reducing emissions. 
U.S. energy-related CO2 emissions fell by 14 percent between 2005 and 
2017, even as our economy grew by 19.4 percent--largely due to the 
development and deployment of innovative energy technologies.

    Question. The U.N. plays a large role in global climate change 
initiatives. In conjunction with its member states, the U.N. implements 
policies aimed at decreased the effects of climate change. On multiple 
occasions during your time in the Trump administration, you have 
actively sought to repeal regulations aimed at protecting the 
environment:

   Do you believe in the existence of climate change? Why or why not?

    Answer. I believe that climate change is a complex global 
challenge. I believe the climate is changing, and that there is likely 
a human component to that.

    Question. Do you believe climate change is largely a manmade issue 
that can be dealt with by changing human behavior? Why or why not?

    Answer. I believe the climate is changing, and that there's warming 
taking place. There is likely a human component to that. If confirmed, 
I support decisions that are informed by the best scientific and 
intelligence assessments as we develop and implement relevant 
international policies.

    Question. Over the last two years, the Center on Family and Human 
Rights, better known as C-Fam, has seen its influence grow and was even 
part of the official U.S. delegation to the Commission on the Status of 
Women (CSW) in 2017. As a Southern Poverty Law Center designated hate 
group, whose work focuses disproportionately on denying rights to the 
LGBTQ community and demonizing women's health and rights, will you 
ensure that C-Fam and other groups that espouse this type of hate and 
bigotry will not be given any official capacity in any future 
conference?

    Answer. The United States opposes violence and discrimination 
against all persons. The public delegates to the CSW are not U.S. 
government employees, and they are not authorized to negotiate or speak 
on behalf of the United States. The Trump Administration continues to 
respect the rights of all persons, including women and those who 
identify as LGBT. The United States will continue to support the rights 
of all people to be free of violence and oppression.

    Question. Over the last two years, the U.S. has staked out 
positions on sexual and reproductive health and rights during 
negotiations on important resolutions and outcome documents that have 
alienated our allies. The most egregious example was during the 
Security Council resolution on Sexual Violence in Conflict that the 
United States almost vetoed until two last-minute changes. The first 
was removal of the mechanism that would have allowed women who had been 
victims of sexual violence in conflict access to health care and other 
forms of redress. The second was removal of the words ``sexual and 
reproductive health and rights.'' Can you commit to this committee that 
you will work closely with our allies to ensure these important 
resolutions and outcome documents will be given the appropriate 
attention and that you will protect the rights of women and girls 
around the world?

    Answer. The United States is committed to promoting the rights and 
well-being of women. In negotiating U.N. documents, U.S. delegation 
members often include senior officials and subject matter experts who 
seek to work constructively with other Member States toward achieving 
consensus. The administration has concerns about terminology related to 
sexual and reproductive health that do not enjoy international 
consensus. The use of these phrases by U.N. agencies and U.N. 
affiliates often implies abortion. The administration will do all it 
can do to protect and respect the sanctity of life around the globe. In 
its advocacy for women, the administration continues to hold to the 
commitments laid out in the 1995 Fourth World Conference on Women's 
Beijing Declaration and Platform for Action, as well as in the 1994 
International Conference on Population and Development's Programme of 
Action. The United States moreover remains the largest bilateral donor 
of women's health and family planning assistance worldwide. Moving 
forward at the U.N. and elsewhere, the administration will continue to 
build consensus with a wide group of Member States on clear terminology 
that would better promote women's health without also promoting 
abortion. We are committed to focusing on the health care and health 
education needs of women, men, girls, and boys, including adolescents 
around the globe, while avoiding issues that do not enjoy international 
consensus and do not support human dignity.

    Question. Armed conflict, political instability, climate change, 
and other factors have led to an unprecedented growth in global 
humanitarian needs. U.N. agencies like the World Food Program (WFP), 
U.N. Refugee Agency (UNHCR), U.N. Children's Fund (UNICEF), and U.N. 
Population Fund (UNFPA) are leading the global response, providing 
food, shelter, medical care, education, maternal health care, and other 
forms of life-sustaining aid to tens of millions of people around the 
world. Because the U.S. doesn't have the capacity or reach to lead 
every humanitarian response, it works closely with the U.N., which 
brings together member states, NGOs, faith-based organizations, the 
private sector, and others to address crises. The U.S. helped create 
these agencies, and has long been the largest donor to U.N. 
humanitarian appeals: Do you believe that it is important for the U.S. 
to continue to work with the U.N. to address humanitarian crises around 
the world?

    Answer. The United States is a global leader in humanitarian 
assistance, having provided more than $8 billion in humanitarian aid in 
2018. However, despite significant progress in addressing crises, 
humanitarian needs remain high and outpace funding levels. Crises 
affect more people and for longer periods of time, and the number of 
people targeted to receive assistance through U.N.-led humanitarian 
response plans increased in 2018 from 77 million in 2014 to 101 
million. 2019 is on track to be a year of record high humanitarian 
needs, and burden sharing will be more essential than ever. In 2019, 
nearly 132 million people will need humanitarian assistance, the 
majority as a result of conflict. Per the Global Humanitarian Overview 
of 2018, a record $25 billion was needed to meet humanitarian needs in 
2018; the U.N. Office of the Office for the Coordination of 
Humanitarian Affairs (OCHA) and other U.N. agencies helped mobilize 
funding for $15 billion. The United States is a strong supporter of 
U.N. agencies such as OCHA and their work in coordinating and providing 
protection and life-saving assistance to the millions of people 
displaced by conflict, natural disasters, and other causes. As global 
humanitarian needs continue to increase, we will continue to work to 
maximize the impact of our collective humanitarian efforts, and we 
support the humanitarian reform commitments made by OCHA and other U.N. 
agencies to increase efficiency, transparency, accountability, and 
effectiveness of humanitarian assistance for improved outcomes for all 
populations in need of humanitarian assistance.

    Question. Due to the ever-increasing scale of needs in recent 
years-brought on by conflict in Yemen, Syria, Iraq, South Sudan, DR 
Congo, Myanmar, and Afghanistan, among other places-UN humanitarian 
appeals are chronically underfunded: If confirmed, will you press for 
the U.S. to continue to provide robust financial support to the work of 
these activities, and will you push other countries to do the same?

    Answer. Having provided more than $8 billion in humanitarian aid in 
2018, the United States is a global leader in humanitarian assistance. 
If confirmed, I will push to reinforce U.S. leadership while 
encouraging greater burden-sharing from other donors. Despite 
significant progress in addressing crises, humanitarian needs remain 
high and outpace funding levels. Crises affect more people and for 
longer periods of time, and the number of people targeted to receive 
assistance through U.N.-led humanitarian response plans increased in 
2018 from 77 million in 2014 to 101 million. 2019 is on track to be a 
year of record high humanitarian needs, and burden sharing will be more 
essential than ever. In 2019, nearly 132 million people will need 
humanitarian assistance, the majority as a result of conflict. Per the 
Global Humanitarian Overview of 2018, a record $25 billion was needed 
to meet humanitarian needs in 2018; the U.N. Office of the Office for 
the Coordination of Humanitarian Affairs (OCHA) and other U.N. agencies 
helped mobilize funding for $15 billion. The United States is a strong 
supporter of U.N. agencies such as OCHA and their work in coordinating 
and providing protection and life-saving assistance to the millions of 
people displaced by conflict, natural disasters, and other causes. As 
global humanitarian needs continue to increase, we will continue to 
work to maximize the impact of our collective humanitarian efforts, and 
we support the humanitarian reform commitments made U.N. agencies to 
increase efficiency, transparency, accountability, and effectiveness of 
humanitarian assistance for improved outcomes for all populations in 
need of humanitarian assistance.

    Question. A High-Level Commission on Health Employment and Economic 
Growth called by the U.N. Secretary-General in 2016 concluded that 
investments in health have a nine-fold return and accounted for about 
one quarter of economic growth between 2000 and 2011 in low- and 
middle-income countries, having an outsized impact for women, who make 
up about 70% of the health and social workforce worldwide. As a result 
of the Commission, the WHO, ILO, and OECD have undertaken joint efforts 
to address a projected shortfall of 18 million health workers by 2030, 
which threatens to derail the tremendous progress the United States has 
spearheaded in saving lives around the world and also leaves us more 
vulnerable to infectious disease threats like Ebola. How will you 
prioritize U.S. leadership in Geneva, especially with the WHO and ILO, 
to help focus investments needed in health employment to drive economic 
growth and women's economic empowerment while simultaneously tackling 
our greatest global health challenges?

    Answer. The United States welcomed the Report of the High-Level 
Commission on Health Employment and Economic Growth; we continue to 
support its important recommendations regarding measures to address the 
global shortfall of trained health workers. The Commission's work has 
helped guide action that advances employment and economic growth in low 
and middle-income countries. The World Health Organization Global 
Health Workforce Network is a key mechanism to implement the 
Commission's recommendations through a five-year action plan. The 
United States will continue to support these focused investments to 
help countries increase their health workforce and share data on 
workforce issues for decision-making.

    Question. A May 2019 report of the Safeguarding Health in Conflict 
Coalition documents at least 973 attacks on health workers, health 
facilities, health transports, and patients in 23 countries in conflict 
around the world in 2018--from the DRC to Yemen, Syria, to the 
Philippines. At least 167 health workers died and at least 710 were 
injured. This marks an increase in the number of documented attacks 
compared to 2017, when the Coalition reported 701 such attacks. In 
January 2018 the WHO took an important step to document attacks on 
health and provide information for action to protect health services by 
launching its Surveillance System for Attacks on Healthcare and 
collecting and sharing data on attacks in nine countries in conflict--
but the impact of this system is still very limited:

   Will the United States push for expansion of WHO's Surveillance 
        System for Attacks on Healthcare, including providing 
        information to describe the basic facts of the incident--
        withholding location information if needed for security 
        reasons--and taking steps to enable identification of the 
        perpetrator where known? And what more can and should be done 
        to ensure compliance of U.N. Security Council Resolution 2286 
        passed in May 2016 to document and conduct investigations of 
        attacks on health workers and facilities?

    Answer. The United States has repeatedly urged member states to 
renew their commitment to the implementation of U.N. Security Council 
resolution 2286, which the Security Council passed unanimously in 2016. 
The Security Council demanded that the international community mobilize 
in an effort to prevent attacks on health services in armed conflict 
and hold those responsible for such attacks accountable. Three years 
later, however, a staggering number of attacks on health facilities, 
health workers, ambulances, and patients continue to take place across 
the globe. Impunity for such violations and abuses must come to an end. 
The United States strongly supports efforts to promote access to 
humanitarian relief, including medical care, for civilians in 
situations of armed conflict. If confirmed, I will work with other 
members of the U.N. Security Council to ensure the full implementation 
of resolution 2286.

    Question. In 2017, Congress used the Congressional Review Act (CRA) 
to repeal fifteen common-sense regulations, including measures to 
protect women's health, retirement security, workplace safety, clean 
water, and anti-corruption safeguards. What was your role in developing 
the CRA strategy and your rationale for undoing regulations including 
the rule implementing the Cardin-Lugar 1504 provision on transparency 
of global payments by oil, gas and mining companies?

    Answer. I worked with other White House and Congressional staff to 
identify regulations that were finalized at the very end of the Obama 
administration, including many ``midnight regulations'' that were 
finalized after the election, that we believed were overly burdensome.

    Question. As the Representative to the U.S. Mission in Geneva, you 
will be working closely with the U.N. Human Rights commission. The U.N. 
has made it clear that the access to an abortion is a human right that 
must be protected. The U.N. has even called on the United States to 
make sure that Americans still have the right and protections for safe 
abortions: In previous works, you have made it difficult for certain 
citizens to obtain an abortion. Do you believe abortion is a human 
right? If not, will you work to change the declaration by the U.N.?

    Answer. In its advocacy for women, the administration continues to 
hold to the commitments laid out in the 1995 Fourth World Conference on 
Women's Beijing Declaration and Platform for Action, as well as in the 
1994 International Conference on Population and Development's Programme 
of Action. As noted at the time, these documents do not establish a 
right to abortion. Similarly, human rights instruments to which the 
United States is party do not establish abortion as a right; neither do 
binding humanitarian instruments. In short, there is no international 
consensus on a right to abortion. Decisions on abortion are those of 
individual sovereign states.
    Moving forward at the U.N. and elsewhere, the administration will 
continue to build consensus with a wide group of Member States on clear 
terminology that would better promote women's health without also 
promoting abortion. We are committed to focusing on the health care and 
health education needs of women, men, girls, and boys, including 
adolescents around the globe, while avoiding issues that do not enjoy 
international consensus and do not support human dignity.

    Question. You have said that the United States ``supports the right 
to the enjoyment of the highest attainable standard of health.'' 
Currently, roughly half of the world's population--3.5 billion people--
forgoes essential health services due to financial constraints or lack 
of accessible facilities. Throughout this year, the international 
community is addressing this issue through the consideration of 
Universal Health Coverage, culminating in a High Level Meeting at the 
United Nations in September. Universal Health Coverage guarantees 
access to quality health services, essential medicines, and vaccines, 
and insures people against catastrophic and routine health costs, 
ensuring they will not face financial ruin because of health care 
costs: How will you work toward Universal Health Coverage that ensures 
that no one, including women and girls, is left behind?

    Answer. The United States looks forward to the U.N. Meeting on 
Universal Health Coverage. We believe health care systems must be 
accessible by all in a country, including through access to primary 
healthcare for women, men, boys and girls, and strong health systems. 
We need to accelerate progress toward universal health access, while 
understanding efforts to expand access do not imply government-centric 
solutions or mandates, and countries will choose to pursue UHC in line 
with national contexts and priorities. Pathways to achieving UHC can 
include strengthening the role of private markets; innovation and 
efficient financing to reduce out of pocket costs; enhancing consumer 
choice; and appropriate regulations/governance.

    Question. For some time, the United States has been the leading 
funder of global health and, specifically, of family planning and 
reproductive health. However, this Administration has repeatedly 
proposed catastrophic reductions of funding to family planning/
reproductive health programs, zeroing out the program in the first 
budget, and this year requesting an over 55 percent reduction compared 
to enacted levels. It has also pursuing policies, including the Mexico 
City Policy/Global Gag Rule, that numerous studies have shown make 
contraception and family planning more difficult and costly for women 
to access. Do you believe that the United States can continue to be a 
leader on global health if we scale back financial commitments to 
programs that have proven critical to promoting the health of women and 
girls?

    Answer. The United States is the most generous funder of maternal 
and child health, including family planning programs, in the world. I 
agree that this strong record of leadership should continue, and that 
it should continue to do so within the longstanding ethical parameters 
that govern our foreign assistance today. Those parameters include the 
decades-old protections against taxpayer support for abortion, and the 
preservation of parental rights when it comes to the information and 
care provided to children, including the provision of culturally 
sensitive, age-appropriate, optimal health-focused sex education.

    Question. The Trump administration has actively sought to expand 
protections for healthcare providers who cite moral or religious 
objections to providing certain services or serving certain 
populations:

   Do you believe that the personal views of a medical provider should 
        affect an individual's right to access quality and affordable 
        healthcare? Should providers who refuse to provide critical 
        services to women, or to LGBTQ persons, or any other population 
        be allowed to continue to receive U.S. funding? Does that 
        include a full range of contraceptive methods?

    Answer. As the Director of the DPC, I helped coordinate the 
development and drafting of several Executive Orders, including 
Executive Order 13798 ``Promoting Free Speech and Religious Liberty.'' 
The order required certain cabinet officials to ``consider issuing 
amended regulations, consistent with applicable law, to address 
conscience-based objections to the preventive-care mandate promulgated 
under section 300gg-13(a)(4) of title 42, United States Code.'' The 
order could not and did not contradict any statutes or controlling case 
law with respect to employee access to birth control provided or 
covered by employers. Congress has passed numerous federal laws 
prohibiting discrimination by recipients of federal funds on the basis 
of race, color, national origin, disability, age, sex, religion, the 
exercise of conscience, and other protected classes. I intend to 
continue the administration's policy on this question and abide by all 
applicable laws if confirmed.
    This administration has and will continue to support policies 
furthering the health and wellbeing of all people, including women, and 
LGBTI individuals. Congress has passed numerous federal laws 
prohibiting discrimination by recipients of federal funds on the basis 
of race, color, national origin, disability, age, sex, religion, the 
exercise of conscience, and other protected classes. I intend to 
continue the administration's policy on this question and abide by all 
applicable laws if confirmed.
    The United States is the most generous supporter of global health 
assistance, including family planning programs that provide a broad 
range of family planning methods and services. Congress has passed 
numerous federal laws prohibiting discrimination by recipients of 
federal funds on the basis of race, color, national origin, disability, 
age, sex, religion, the exercise of conscience, and other protected 
classes. I intend to continue the administration's policy on this 
question and abide by all applicable laws if confirmed.

    Question. In addition to threatening funding cuts, the United 
States has taken a hard-line against long-standing agreements on sexual 
and reproductive health at the United Nations. Specifically, U.S. 
negotiators at the U.N. have repeatedly sought the removal of agreed 
language on sexual and reproductive access for communities worldwide:

   If confirmed, how will you work to ensure that the U.S. upholds and 
        advances international commitments on sexual and reproductive 
        health and rights globally, rather than seeking to roll them 
        back?

    Answer. The administration has concerns about the terms ``sexual 
and reproductive health services'' and ``sexual and reproductive 
rights''. Over the years, these references have become associated with 
support for abortion as an alleged right. The administration will do 
all it can do to protect and respect the sanctity of life around the 
globe.
    In its advocacy for women, the administration continues to hold to 
the commitments laid out in the 1995 Fourth World Conference on Women's 
Beijing Declaration and Platform for Action as well as in the 1994 
International Conference on Population and Development's Programme of 
Action. The United States moreover remains the largest bilateral donor 
of women's reproductive health and family planning assistance 
worldwide.
    Moving forward at the U.N., the administration seeks to find 
consensus with a wide group of Member States on clear terminology that 
would better promote women's health without promoting abortion. We are 
committed to meeting the health care needs of women, men, girls, and 
boys, as well as the health-education needs of children and adolescents 
around the globe, and avoid issues that offend human dignity.

    Question. The U.S. recently made an egregious and extraordinary 
threat to veto a U.N. Security Council Resolution on gender-based 
violence in conflict over a reference to survivors' access to sexual 
and reproductive health care. Media reports also suggest that during 
negotiations, the U.S. sought to remove a mechanism that would have 
provided funding for survivors of sexual violence in conflict with 
services over fears it could be used by survivors for abortions, where 
legal. These negotiations at the U.N. have real world impact on women 
and girls around the world:

   Do you believe victims of sexual violence should be able to 
        terminate the pregnancy, where legal? The global gag rule 
        allows international organizations who receive U.S. global 
        health funding to provide abortions in the case of rape, 
        incest, and life endangerment of the woman with non-U.S. 
        funding--do you support these exceptions or would you recommend 
        and seek to close them?

    Answer. I have tremendous sympathy for any woman victimized by 
sexual violence and support the U.S. efforts to help victims of sexual 
violence become thriving survivors. As I stated during the hearing, I 
do not believe that abortion is ever a moral answer to a problem. The 
U.S. opposition to the resolution in question was intended to ensure 
that U.N. organizations did not interpret that language to begin 
assuming a right to abortion as a method of family planning. In 
addition, I support the existing Mexico City policy, which includes the 
exceptions you identified in the question.

    Question. On May 30, 2019, a notice of intent to establish a State 
Department Commission on Unalienable Rights appeared on the Federal 
Register. According to a version of the draft charter reviewed by Just 
Security, the commission's duties include providing ``advice and 
recommendations, for the secretary's approval, to guide U.S. diplomatic 
and foreign policy decisions and actions with respect to human rights 
in international settings.'' According to remarks by Secretary Pompeo, 
he is trying to ``make sure that we have a solid definition of human 
rights upon which to tell all our diplomats around the world.''

   Do you believe that the State Department has failed to provide this 
        solid definition of human rights in its work, including in its 
        annual human rights reports? How so? Do you believe the 
        multilateral human rights institutions are failing in this 
        regard? Please state how. Also, do you believe that women's 
        human rights, including the right to be free from domestic 
        violence and to access reproductive health care, are a part of 
        a ``solid definition of human rights?''

    Answer. The United States has been and remains the world's guiding 
force for human rights around the world. This leadership takes many 
forms, including through constructive public advocacy, such as the 
State Department's annual human rights and religious freedom reporting. 
The new Commission on Unalienable Rights extends that leadership by 
refreshing our discourse on human rights, including where that 
discussion may have departed from our nation's founding principles of 
natural law and natural rights.
    Human rights are those rights which are endowed by our Creator--
usually expressed as freedoms that no government anywhere may abridge, 
which the U.S. Declaration of Independence speaks of as ``unalienable'' 
and can also be found in our Bill of Rights. One definitional source 
that many look to is the 1948 Universal Declaration of Human Rights, 
which includes rights of conscience, expression, religious exercise, 
freedom of movement, to marry, to form families free from government 
coercion, to be free from slavery and torture, to own property, and to 
due process applied equally to all.
    government respect for the universal human rights of all citizens 
fosters free and open societies in which all people can flourish. 
Advancing human rights means committing to defend the human rights and 
dignity of all people, no matter who they are. For example, as 
Secretary Pompeo has said: ``standing up for human rights is hardwired 
into who we are as Americans. Promoting human rights is in the best 
interests of the United States. Societies that respect human rights and 
the rule of law are more stable, and make better allies.''
    In accordance with international human rights treaties, if 
confirmed, I will vigorously advocate to protect the inalienable rights 
that all people share because of our shared human dignity. I believe 
all human beings, including women, are endowed with the same 
fundamental rights and liberties. This includes the right to be free 
from all forms of violence, including domestic violence, and to access 
voluntary reproductive healthcare.

    Question. In countries around the world, LGBTQ people are 
criminalized for who they love. There are also women who are in jail in 
places like El Salvador and Senegal for having miscarriages or 
abortions. These are gross human rights violations: If you are 
confirmed, will you speak out against laws that criminalize same-sex 
relationships and women's personal health decisions in public and 
private settings as part of the United States human rights and 
diplomacy agenda?

    Answer. The United States has made clear its commitment to 
protecting and defending the human rights of all, including LGBTI 
persons, and has condemned the fact that in many parts of the world, 
LGBTI individuals and their supporters continue to face violence, 
arrest, harassment and intimidation for standing up for their human 
rights, participating in peaceful marches and rallies, and expressing 
their views. As Secretary Pompeo has stated, LGBTI persons--like all 
persons--must be free to enjoy their human rights and fundamental 
freedoms, including freedom of expression, peaceful assembly, and 
association, without fear of reprisal.

    Question. Do you recognize reproductive rights and the rights of 
LGBTQ people as human rights? Do you believe that States have human 
rights obligations to eliminate gender-based violence, including 
domestic violence, sexual violence and harassment, in public and 
private life?

    Answer. The Department has been clear and consistent in affirming 
that human rights are universal, and that no one should face violence, 
criminalization, or severe official discrimination because of who they 
are. We will continue to stand up and speak out in support of the human 
rights and fundamental freedoms of all people, including LGBTI persons 
in all corners of the globe, and to press for perpetrators of human 
rights violations and abuses to be held accountable.

    Question. The Trump administration has twice expanded the global 
gag rule--implementing a version of the policy that is unprecedented in 
scope. Recent research indicates the global gag rule is disrupting 
health care services, weakening civil society, and halting national 
policy progress on health and human rights:

   Were you involved in decisions to expand the global gag rule? Have 
        you made any efforts to understand the impact of these 
        decisions in terms of access to a range of health services, 
        effective partnership in the field, and the silencing of 
        medical professionals and advocates? Do you believe the policy 
        should be expanded even further?

    Answer. I was involved in President Trump's decision to reinstate 
the Mexico City policy through his Protecting Life in Global Health 
Assistance policy. After implementation of the Protecting Life in 
Global Health Assistance policy, the administration conducted a review 
at all affected departments and agencies. This review found that only 
four prime partners declined to agree to the conditions of the policy 
out of 733 awards. I support the existing policy.

    Question. In your written answers for the committee, you stated 
that, ``The administration made a determination that UNFPA's work with 
Chinese population authorities violated statutory funding 
restrictions:''

   Can you explain the how UNFPA has violated Kemp-Kasten because I 
        have not been able to get a clear answer how the administration 
        went about making the determination against UNFPA? The U.S. 
        sits on UNFPA's Executive Board, which approves country 
        programs. If the U.S. was really concerned about UNFPA's China 
        country program, wouldn't it use its position to bring the 
        program into compliance of U.S. statutory funding restrictions?

    Answer. The determination to withhold funding from UNFPA was made 
based on the fact that China's family planning policies still involve 
the use of coercive abortion and involuntary sterilization practices 
and that UNFPA partners on family planning activities with the Chinese 
government agency responsible for these coercive policies. The 
Secretary has determined that UNFPA therefore ``supports or 
participates in the management of a program of coercive abortion or 
involuntary sterilization.''
    If confirmed, I will continue to examine closely the activities of 
UNFPA in the context of the funding decision, and will take every 
opportunity to remind other nations that the United States is and will 
be at the forefront of improving women's health across the lifespan, 
including continued access to family planning methods and preventing 
maternal and child deaths.

    Question. NGOs have already reported that compliance with the 
Global Gag Rule has increased their administrative costs due to adding 
complicated compliance mechanisms. How much will this broad 
interpretation increase this burden for these NGOs? How much will this 
new compliance burden affect the amount and quality of health services 
this funding is intended for?

    Answer. The United States is and will remain the leading funder of 
maternal and child health and family planning programs internationally, 
and without that support, millions of women would lose access to vital 
health programs. After implementation of the Protecting Life in Global 
Health Assistance policy, the administration conducted a review at all 
affected departments and agencies. This review found that only four 
prime partners declined to agree to the conditions of the policy out of 
733 awards.

    Question. Have you discussed these expansions with our global 
bilateral donors like DFID or SIDA? How does this impact our ability to 
work and coordinate effectively with their global health and 
development programs?

    Answer. I have not met with global bilateral donors like DFID or 
SIDA. I look forward to learning how this policy could impact our work 
with their programs.

    Question. The State Department stated they would complete a second 
review of the Mexico City Policy, also known as the global gag rule, by 
the end of 2018, yet we are still waiting on that report. Recent 
research from civil society groups indicates the global gag rule is 
disrupting health care services, weakening civil society, and halting 
national policy progress on health and human rights. For example, under 
the Mexico City Policy, Family Life Association of Swaziland has been 
forced to nearly eliminate its services to reach youth with family 
planning, treat STIs, screen for reproductive cancers, and provide 
maternal and child care:

   Especially given the further expansion of the policy, is anyone 
        able to meet the needs of young people and vulnerable 
        populations in these specific communities? What actions have 
        been taken to address these gaps in services and how are these 
        needs being filled?

    Answer. The Mexico City Policy is a critical protection for 
taxpayers and for the women and girls that we support around the world. 
Taxpayers expect us to use the billions of dollars managed by our 
maternal and child health, family planning, HIV/AIDS, malaria, child 
nutrition and many other programs to save lives, not take them. After 
implementation of the Protecting Life in Global Health Assistance 
policy, the administration conducted a review at all affected 
departments and agencies. This review found that only four prime 
partners declined to agree to the conditions of the policy out of 733 
awards. The second review is still underway.

    Question. How will the next review assess and evaluate these types 
of service disruptions and inefficiencies created by switching health 
care service partners?

    Answer. If confirmed, as Ambassador to the U.N. in Geneva, I do not 
believe that I would be involved in such a review process.

    Question. Recent research by amfAR documented that the expanded 
global gag rule has resulted in many PEPFAR implementing partners 
altering the health services and information that they provide, 
including non-abortion related services such as contraception and HIV, 
and their partnerships on the ground. These disruptions were reported 
in 31 of the 45 countries surveyed and common in areas with high HIV-
prevalence, such as South Africa, Eswatini and Mozambique. The 
disruptions span multiple types of services, including altering HIV 
programs such as voluntary medical male circumcision. Their research 
indicates that there may be a disproportionate impact on key and 
vulnerable populations, such as adolescent girls, young women, and men 
who have sex with men, who are more reliant on outreach services and 
integrated care models that are adversely impacted by the global gag 
rule because those organizations who provided comprehensive 
reproductive health care are also often the ones to best able to serve 
and reach key and vulnerable populations:

   How are you monitoring the impact of the expanded global gag rule 
        on HIV programs and how do you expect to meet the ambitious 
        goals and targets set out under PEPFAR if the policy impedes 
        our ability to work with effective partners and prompts 
        widespread disruption of services and information?

    Answer. This administration has and will continue to ensure that 
all people living with or at risk of HIV/AIDS, including women, girls, 
and LGBTI individuals, have access to comprehensive information on how 
to prevent transmission of HIV. Congress has passed numerous federal 
laws prohibiting discrimination by recipients of federal funds on the 
basis of race, color, national origin, disability, age, sex, religion, 
the exercise of conscience, and other protected classes. I intend to 
continue the administration's policy on this question and abide by all 
applicable laws if confirmed.

    Question. In his September 2018 speech to the U.N. General 
Assembly, President Trump highlighted the importance of national 
sovereignty and emphasized his ``American First'' foreign policy. How 
might this impact U.S. participation in the United Nations? How can the 
United States balance sovereignty concerns and its engagement with 
multilateral institutions such as the United Nations?

    Answer. As a founding member of the United Nations, the United 
States stands firm on our overall commitment to the core values of the 
U.N. Charter--to save succeeding generations from the scourge of war, 
to reaffirm faith in human rights and the dignity and worth of the 
human person, to maintain international peace and security, and to 
promote economic advancement for all people. This commitment is rooted 
in U.S. interests, because the U.N. directly advances a number of top 
U.S. policy priorities.
    While the United States remains committed to advancing the ideals, 
President Trump has made clear that we will never surrender our 
interests to an unelected, unaccountable, global bureaucracy. The 
United States will continue to unapologetically advance its own values 
and interests in the U.N. system, and will not hesitate to withdraw 
from a U.N. body when we assess our sovereign rights are at risk. The 
United States will also continue to press for reforms to the U.N. 
system, especially to the U.N. budget and management system. As the 
single largest donor to the U.N., the United States will always have a 
strong voice in the system--and will raise its voice when decisions 
taken in this institution run counter to our value set and our national 
interests.

    Question. What, if any, are the key U.N. issues that overlap with 
U.S. national interests? In what ways do action or inaction by U.N. 
bodies affect these interests?

    Answer. The United Nations is important to U.S. national security 
interests. Engagement in the U.N. multiplies our impact and spreads the 
costs of international action. It is in the U.S. national security 
interest to partner closely with the United Nations, while working to 
reform the institution in a serious and meaningful way, particularly on 
peacekeeping, budget, management, and development issues, as well as on 
ending the disturbing anti-Israel bias that permeates much of the U.N. 
system.
    First, U.S. support for U.N. peacekeeping protects our security 
interests while sharing costs and risks with other member states. U.N. 
peacekeeping missions deploy to countries such as the Central African 
Republic and South Sudan, where U.N. troops protect civilians and 
promote regional stability.
    Second, U.S. engagement in U.N. bodies, including the Security 
Council and General Assembly, highlights our priorities and holds 
others accountable. For example, the United States has demanded 
accountability for the use of chemical weapons in Syria. The United 
States has promoted General Assembly resolutions on North Korea, Syria, 
and Iran that have been adopted with broad cross-regional support. The 
United States actively defends Israel from unbalanced criticism 
throughout the U.N. system.
    Third, the United States supports the U.N. as it leads the 
international response to humanitarian emergencies around the globe, 
including South Sudan, the Lake Chad Basin, and many other places. At a 
time when the world faces the risk of famine in no fewer than six 
countries, as well as the largest movement of forcibly displaced 
persons since the Second World War, the U.N.'s humanitarian leadership 
role has never been more important.
    Finally, the U.N. system includes a range of technical and 
specialized agencies that are central to setting international 
standards and norms innumerous fields that have a direct impact on the 
safety, security, and economic well-being of our citizens, including in 
the areas of intellectual property, civil aviation, shipping, 
telecommunications, and nuclear safety and security.

    Question. What steps, if any, might be taken to strengthen U.S. 
influence in U.N. fora, particularly in UNOG?

    Answer. Geneva, as the hub for dozens of U.N. and international 
organizations, is an important location for promoting U.S. values and 
influence throughout the U.N. system--from advocating for human rights, 
to helping recruit and place qualified Americans at posts throughout 
the multilateral agencies, to countering any nation's attempts to push 
agendas that go against U.S. interests and undermine international 
norms, standards, and institutions.
    If confirmed, I will coordinate closely with my colleagues in the 
State Department as well as with other U.S. agencies to promote U.S. 
interests in Geneva, including with the U.N. Office at Geneva.

    Question. What, if any, are the priorities the United States shares 
with U.N. Secretary-General Antonio Guterres of Portugal? How do you 
plan to work with the Secretary-General and the Director-General of 
UNOG to further U.S. interests in the United Nations?

    Answer. The United States is committed to advancing the U.N. 
Secretary-General's reform agenda throughout the U.N. system through 
U.S. representation in the U.N. General Assembly and relevant governing 
bodies, as well as direct engagement with U.N. agencies, including in 
Geneva.
    The United States continues to promote the modernization of 
management practices within the U.N. and other international 
organizations. This includes successful functioning of audit processes, 
timely public access to audit reports, robust protections for 
whistleblowers, and increased transparency and oversight by member 
states.
    If confirmed, I will closely monitor these issues, including 
raising shortcomings in these and other management categories with 
senior leadership and other member states at the Geneva organizations, 
including with the Director General of the U.N. Office at Geneva.

    Question. How, if at all, will the U.N. Secretary-General's reform 
priorities impact UNOG operations and procedures?

    Answer. The impact on UNOG will be similar to that at other U.N. 
duty stations. Changes such as increased delegations of authority 
should improve the efficiency and effectiveness of the office.

    Question. To what extent, if any, is UNOG involved in broader, U.N. 
system-wide reforms? To your knowledge, is the U.S. Mission in Geneva 
participating in these discussions?

    Answer. The U.S. Mission in Geneva and UNOG are both highly 
involved in U.N. reform discussions, especially the management reforms 
related to the U.N. secretariat. The U.S. Mission is also highly 
involved in discussions about the reforms underway in the U.N. 
Development System, such as creation of the new Resident Coordinator 
System.

    Question. What do you view as reform priorities for UNOG and the 
broader U.N. system?

    Answer. The highest reform priority is ensuring that the United 
Nations is efficient, effective and accountable. The reform efforts 
underway throughout the U.N. System are working toward those ends.

    Question. U.N. members have been unable to achieve consensus on how 
to implement certain elements of U.N. reform. These disagreements have 
emerged in the General Assembly and other U.N. fora-particularly 
between developing countries and developed countries:

   Please discuss how these disagreements have impacted progress. Can 
        these differences be overcome? Why or why not?

    Answer. The differences in the General Assembly and other U.N. fora 
are often an obstacle to achieving meaningful reform. Developing 
countries have the greatest interest in seeing the U.N. become more 
efficient and effective, because they benefit directly from much of the 
work that the U.N. and U.N. agencies do. The United States and other 
developed countries share that interest. Yet the divide remains great 
over how to make changes to the status quo.

    Question. The United States has withdrawn from the U.N. Human 
Rights Council, but appears to be participating in the Council's 
Universal Periodic Review (UPR) process. What is your assessment of the 
UPR? Do you think it is an effectiveness mechanism for addressing human 
rights?

    Answer. The UPR process is an invaluable tool: each of the 193 U.N. 
member states reviewed has the opportunity to state actions taken to 
improve the human rights situations in their countries, and to provide 
an assessment of the human rights situation in other countries. We take 
this process seriously, as we view it as a powerful means to shine a 
spotlight on human rights violations and abuses, recommend concrete 
actions to prevent such violations and abuses, and to follow up on 
implementation of recommendations.

    Question. The last time the United States was reviewed by the 
Universal Periodic Review (UPR) Committee was in May 2015. Should the 
United States undergo another review? Why or why not?

    Answer. Yes. The United States is rightfully proud of its human 
rights record. It has served and will continue to serve as a model for 
other nations. Our previous reports have discussed that record, 
including areas of strength, such our record on core freedoms of 
speech, association and belief. We have also previously addressed a 
range of challenges, including issues of discrimination and topics 
related to civil liberties in the context of national security.
    The U.S. UPR report is just one element of a broad U.S. effort to 
engage broadly, substantively, and constructively on human rights 
issues.

    Question. What role can the United Nations play in maintain 
international peace and security when the perceived interests of a 
permanent member and those of other Security Council members diverge? 
How do you plan to portray the role of the Security Council in 
discussions with the President and other senior administration 
officials? What factors influence U.S. policy to seek Security Council 
action?

    Answer. While imperfect, the U.N. Security Council remains one of 
the United States' most effective tools in tackling international 
crises and confronting threats to U.S. national security. There is no 
equivalent mechanism to harness international consensus and obligate 
U.N. member states to support U.S-led efforts to resolve crises. The 
Security Council utilizes U.N. Charter Chapter VII powers to authorize 
the use of military force; establish, modify, and draw down U.N. 
peacekeeping operations; and impose U.N. sanctions that all member 
states are legally required to implement. Under President Trump, the 
United States has used the Security Council to advance U.S. priorities, 
including non-proliferation, human rights, and anti-corruption.
    The Security Council, however, has failed to confront many of the 
most pressing challenges to global peace and security in the 21st 
century, from Venezuela to Syria to Ukraine. Despite this paralysis, 
the United States will continue to bring issues of concern to us--and 
to many around the world--before the Security Council, even if other 
member states threaten to block our efforts. If confirmed, I will 
ensure that my team in Geneva works closely on these matters with 
colleagues at the U.S. Mission to the U.N. in New York and in 
Washington.

    Question. President Trump has suggested tying U.S. foreign 
assistance to recipient countries' voting records in U.N. fora such as 
the Security Council and General Assembly. What is your opinion of this 
proposal?

    Answer. Representatives of the U.S. government have a 
responsibility to ensure that taxpayer resources are advancing U.S. 
national interests. As such, I agree that the practice of voting for or 
against U.S. priorities in U.N. fora should be a consideration in 
government decision-making about the best use of taxpayer resources.

    Question. Over the years, U.S. policymakers have debated 
appropriate levels of U.S. funding to the United Nations. Do you think 
the current U.S. assessment rates for the U.N. regular budget and U.N. 
peacekeeping are fair? Should other countries pay more? Why or why not?

    Answer. Since the inception of the United Nations, multiple 
administrations have asserted that the United Nations and other 
international organizations should not be overly dependent on a single 
major contributor. We have also seen that countries that increase the 
amounts of their financial contributions take a greater interest in the 
good stewardship of resources and achievement of results by 
international organizations.

    Question. The United States is currently assessed 22 percent of the 
U.N. regular budget (which includes funding for UNOG), and 28.4 percent 
of the U.N. peacekeeping operations budget. Over the years, U.S. 
policymakers have debated appropriate levels of U.S. funding to the 
organization:

   Are you satisfied with the current process and formulas for 
        determining U.S. assessments? Why or why not? If not, what 
        alternative processes would you propose, if confirmed?

    Answer. Since the inception of the United Nations, multiple 
administrations have asserted that the United Nations and other 
international organizations should not be overly depending on a single 
major contributor. The current scale of assessments methodology has led 
to a situation where one country contributes significantly more than 
any other country, and the vast majority of countries contribute very, 
very small amounts.

    Question. The ``Strategic Heritage Plan (SHP)'' is a multiyear 
project to renovate and construct new buildings at the United Nations' 
Palais des Nations complex in Geneva, which is home to UNOG. The plan 
was approved by the U.N. General Assembly in 2013 due to health and 
safety concerns stemming from the overall deterioration of the existing 
buildings:

   To your knowledge, what steps is the U.S. government taking to 
        ensure the Strategic Heritage Plan runs efficiently and 
        effectively?

    Answer. The U.S. Missions to the United Nations in New York and 
Geneva are closely monitoring the Strategic Heritage Plan. Since the 
U.S. government will contribute 22 percent of the costs of the project, 
both missions are working to ensure that the project is accomplished 
within budget and on schedule.

    Question. In a March 2019 report to the U.N. General Assembly, U.N. 
Secretary-General (SG) Antonio Guterres expressed concern regarding the 
``deteriorating financial health'' of the United Nations. He stated 
that the organization's financial challenges were not only the product 
of U.N. member state ``payment patterns and arrears,'' but also 
``structural weaknesses in [UN] budget methodology.'' What is your view 
on the SG's statement?

    Answer. Secretary-General Guterres is correct that the current 
financial difficulties at the U.N. are the result of both 
irregularities in the receipt of member state contributions and also a 
lack of flexibility with respect to utilizing the financial resources 
that are within the U.N.'s control. This issue is currently being 
discussed in the Fifth Committee of the General Assembly.

    Question. Many experts agree that U.N. peacekeeping operations need 
to strengthen and modernize to develop the capacity, flexibility, and 
resources to fulfill their increasingly broad and challenging mandates. 
Common weaknesses identified by experts include troop shortages, slow 
deployments, and lack of critical equipment and other materiel:

   What steps have U.N. members taken to combat these problems, and 
        were they effective? In your view, how can these efforts be 
        improved, and what areas should be prioritized?

    Answer. While the U.N. has made strides to ensure peacekeeping 
missions have the capabilities they need to achieve increasingly 
complex mandates, we continue to see examples of poorly trained, poorly 
equipped, and underperforming units. There remain challenges in 
soldiering and policing skills, human rights and protection of 
civilians, logistics and sustainment operations, and availability of 
key enablers such as aviation, medical, and counter-IED resources. The 
United States' peace operations capacity building efforts--like the 
Global Peace Operations Initiative (GPOI) and the International Police 
Peacekeeping Operations Support (IPPOS) program--are playing a 
significant role in helping troop and police contributing countries 
realize their pledges. Our programming also works to strengthen the 
operational readiness and performance of contributors already deploying 
to missions. We are also working at the U.N. to enhance the role of 
performance-data driven decision-making in the force generation, 
deployment, and evaluation processes.

    Question. Congress has been particularly interested in U.N. reforms 
related to sexual exploitation and abuse (SEA) and exploitation by U.N. 
peacekeepers. Recent legislation requires that the United States 
withhold assistance from ``any unit of the security forces of a foreign 
country'' if the Secretary of State determines such unit has engaged in 
sexual abuse while serving in a U.N. peacekeeping operation:

   What is your perspective on these efforts? Do you think they will 
        be effective in combatting SEA by peacekeepers? Why or why not

    Answer. The United States takes incidents of SEA very seriously and 
is committed to supporting the U.N.'s zero tolerance policy. While the 
U.N. has taken important recent steps to strengthen accountability 
measures, there is still work to be done. The U.N. now regularly 
updates information on SEA allegations online, including progress on 
investigations, the nationality of alleged perpetrators and any 
accountability measures taken by the U.N. and sending countries. While 
the U.N. has responsibility for administrative accountability and 
conducting certain investigations, responsibility for criminal 
accountability lies with the sending country. Many investigations 
remain pending for far too long and pursuing legal action against 
perpetrators can be difficult. As such, the United States engages 
bilaterally with countries to press for credible investigations and 
accountability for individuals who have been found to commit SEA. If 
confirmed, I commit to continuing these efforts to hold the U.N. and 
troop- and police-contributing countries accountable.

    Question. Although the U.N. Relief and Works Agency for Palestine 
Refugees in the Near East (UNRWA) managed to secure enough funding to 
cover its costs for 2018, are there strategies under consideration for 
the longer-term financial stability of the organization?

    Answer. I understand that for years, the United States has urged 
UNRWA to seek out new voluntary funding streams, increase financial 
burden-sharing among donors, and find ways to reduce expenditures. The 
USG reiterated this when it made its final $60 million contribution to 
UNRWA in January 2018, and stressed the need to institute such reforms 
directly to UNRWA, as well as to the regional and international 
stakeholders who make up UNRWA's largest contributors. I understand the 
USG is ready to explore with key regional partners how the United 
States can assist in transitioning UNRWA services to host governments, 
or to other international or local non-governmental organizations as 
appropriate.

    Question. What challenges does U.N. Relief and Works Agency for 
Palestine Refugees in the Near East (UNRWA) face as a humanitarian 
organization working in such a highly politicized environment? What are 
the potential security concerns and risks?

    Answer. The U.N. General Assembly gave UNRWA a mandate that the 
international community has not been able or willing to sustain. 
Cyclical budget shortfalls that routinely threaten essential services 
do not help to build a brighter future for the Palestinian people. If 
confirmed, I will continue to work closely with Israel and key regional 
partners on ways to improve economic and humanitarian conditions in 
Gaza. Hamas is primarily responsible for those conditions, having put 
its own interests above those of Gaza's residents.

    Question. Under what circumstances, if any, do you think the United 
States should fund U.N. Relief and Works Agency for Palestine Refugees 
(UNRWA)?

    Answer. I understand the USG has made it clear that the United 
States will no longer bear a disproportionate share of UNRWA's costs. 
While several donors increased their contributions in 2018, including 
UAE, Kuwait, Qatar, and Saudi Arabia, UNRWA's business model--which is 
tied to an expanding community of beneficiaries--is unsustainable. 
Palestinians deserve better than a service provision model that 
operates in permanent crisis mode.

    Question. In recent years, Palestine Liberation Organization (PLO) 
Chairman and Palestinian Authority President Mahmoud Abbas has sought 
to achieve international recognition for Palestinian statehood by 
changing its status in the United Nations:

    Question. Please comment on these efforts. What is your view on the 
role of the United Nations in recognizing statehood, and how, if at 
all, does it apply to the PLO's membership efforts?

    Answer. I believe that efforts by the Palestinians to join 
international entities are premature and counterproductive. The United 
States does not currently recognize a Palestinian state and does not 
believe that it is eligible to join U.N. organizations as a Member 
State. The United States opposes the treatment of the Palestinians as a 
``state'' in multilateral meetings and Palestinian accession to, or 
membership in, treaties and organizations open only to States. I agree 
with and will uphold these policies if confirmed.

    Question. On December 19, 2018, the U.N. General Assembly voted to 
endorse the Global Compact on Migration (GCM). The U.S. was one of the 
few countries that voted against. The GCM paves the way for an ordered 
international response to migration and would serve as a template to 
ensure the rights and dignity of migrants around the world:

    Question. Do you support U.S. opposition to the GCM?

    Answer. The United States does not support the Global Compact on 
Migration (GCM) or the process that led to it, because they included 
goals and objectives inconsistent and incompatible with U.S. law, 
policy, and the interests of the American people.
    As the U.S. national statement on the GCM noted, ``While the United 
States honors the contributions of the many immigrants who helped build 
our nation, we cannot support a `Compact' or process that imposes or 
has the potential to impose international guidelines, standards, 
expectations, or commitments that might constrain our ability to make 
decisions in the best interests of our nation and citizens.'' Further, 
I understand there is lack of consensus among U.N. member states 
regarding the GCM. When it came up for endorsement at the U.N. General 
Assembly on December 19, 2018, the United States, the Czech Republic, 
Hungary, Israel, and Poland voted against it, another 12 other 
countries abstained, and 24 did not vote.

    Question. The U.N. Migration agency defines a migrant as any person 
who is moving or has moved across an international border o within a 
State away from his/her habitual place of residence, regardless of (1) 
the person's legal status; (2) whether the movement is voluntary or 
involuntary; (3) what the causes for the movement are; or (4) what the 
length of the stay is. The IOM agenda states that one of the core 
principles is to ``leave no one behind'' including migrants:

    Question. The immigration policy you proposed has done more than 
leave migrants behind. If confirmed, would you continue an agenda that 
is tough on migrants trying to enter the U.S. and globally?

    Answer. If confirmed, I would continue to support the 
administration's approach to this complex challenge, framed by the 
President's tireless commitment to the safety and security of the 
American people.

    Question. What is your view on a path to citizenship for 
undocumented people living in the United States?

    Answer. I support the President's vision for legal immigration to 
this country.

    Question. What is your view on undocumented people living in the 
United States being able to work? Should undocumented migrants in other 
countries be allowed to work?

    Answer. I support the President's vision for legal immigration to 
this country.

    Question. The Trump administration continues to request that 
Congress completely cut funding to International Organizations and 
Programs Account and severe cuts to the Contributions to International 
Organizations Account. While even allies of the administration continue 
to call these budget cuts dead on arrival, they do represent this 
administration's priorities. As you said in earlier conversations, the 
U.S. is the most generous country in the world:

    Question. How will you be able to confidently work with our allies 
in multilateral forums when the administration continues to threaten 
the stability of these bodies with these massive funding cuts?

    Answer. As stated in the President's budget request to Congress, 
the administration is calling on other countries to take on more of the 
financial responsibility at international organizations. This call for 
increased burden sharing is occurring within the context of 
multilateral and bilateral working relationships where there are many 
overlapping interests beyond the distribution of financial 
responsibility.

    Question. How might the administration's proposed funding cuts to 
international organizations negatively impact the work of the 
International Bureau of Education, which is headquartered in Geneva?

    Answer. The International Bureau of Education appears to be an 
affiliate of UNESCO. As such, the Department may not be able to make 
financial contributions to the Bureau as a result of the legislative 
restrictions on funding for U.N. entities that grant the Palestinians 
membership.

    Question. How might the administration's proposed funding cuts to 
international organizations negatively impact the work of the 
International Labour Organization, which is headquartered in Geneva?

    Answer. As stated in the President's budget requests to Congress, 
the administration is calling upon other countries to assume greater 
financial responsibility at international organizations. The 
International Labor Conference has recently agreed to a 2020-2021 
increase that includes an increase in member contributions and does not 
reflect increased burden sharing.

    Question. How might the administration's proposed funding cuts to 
international organizations negatively impact the work of the 
International Trade Centre, which is headquartered in Geneva?

    Answer. As stated in the President's budget requests to Congress, 
the administration is calling upon other countries to assume greater 
financial responsibility at international organizations. The 
International Trade Centre receives the vast majority of its funding 
from the U.N. regular budget and the regular budget of the World Trade 
Organization.

    Question. How might the administration's proposed funding cuts to 
international organizations negatively impact the work of the United 
Nations High Commissioner for Refugees, which is headquartered in 
Geneva?

    Answer. As stated in the President's budget requests to Congress, 
the administration is calling upon other countries to assume greater 
financial responsibility at international organizations. The Office of 
the High Commissioner for Refugees receives voluntary contributions 
from a large array of governments and non-governmental donors.

    Question. How might the administration's proposed funding cuts to 
international organizations negatively impact the work of the United 
Nations Office on Sport for Development and Peace, which is 
headquartered in Geneva?

    Answer. News reports indicate that the Office on Sport for 
Development and Peace closed in 2017.

    Question. How might the administration's proposed funding cuts to 
international organizations negatively impact the work of the World 
Health Organization, which is headquartered in Geneva?

    Answer. As stated in the President's budget requests to Congress, 
the administration is calling upon other countries to assume greater 
financial responsibility at international organizations. The World 
Health Organization receives voluntary contributions from a large array 
of governments and non-governmental donors.

    Question. How might the administration's proposed funding cuts to 
international organizations negatively impact the work of the World 
Intellectual Property Organization, which is headquartered in Geneva?

    Answer. As stated in the President's budget requests to Congress, 
the administration is calling upon other countries to assume greater 
financial responsibility at international organizations. The World 
Intellectual Property Organization depends on fees from trademark and 
patent applicants for over 95 percent of its revenue.

    Question. How might the administration's proposed funding cuts to 
international organizations negatively impact the work of the World 
Meteorological Organization, which is headquartered in Geneva?

    Answer. As stated in the President's budget requests to Congress, 
the administration is calling upon other countries to assume greater 
financial responsibility at international organizations. The World 
Meteorological Organization receives contributions from a variety of 
governmental and non-governmental donors.

    Question. How might the administration's proposed funding cuts to 
international organizations negatively impact the work of the United 
Nations Research Institute For Social Development, which is 
headquartered in Geneva?

    Answer. As stated in the President's budget requests to Congress, 
the administration is calling upon other countries to assume greater 
financial responsibility at international organizations. The Research 
Institute For Social Development depends entirely on voluntary 
contributions from governments and non-governmental donors for its 
financing.

    Question. How might the administration's proposed funding cuts to 
international organizations negatively impact the work of the United 
Nations Human Rights Council, which is headquartered in Geneva?

    Answer. As stated in the President's budget requests to Congress, 
the administration is calling upon other countries to assume greater 
financial responsibility at international organizations. The Human 
Rights Council, which the United States is no longer part of, receives 
funding from the U.N. regular budget and from governments and non-
governmental donors.

    Question. How might the administration's proposed funding cuts to 
international organizations negatively impact the work of the United 
Nations Economic Commission for Europe, which is headquartered in 
Geneva?

    Answer. As stated in the President's budget requests to Congress, 
the administration is calling upon other countries to assume greater 
financial responsibility at international organizations. The Economic 
Commission for Europe receives funding primarily from the U.N. regular 
budget.

    Question. How might the administration's proposed funding cuts to 
international organizations negatively impact the work of the Joint 
United Nations Programme on HIV/AIDS, which is headquartered in Geneva?

    Answer. As stated in the President's budget requests to Congress, 
the administration is calling upon other countries to assume greater 
financial responsibility at international organizations. The U.N. 
Program on HIV/AIDS receives funding from a wide array of governmental 
and non-governmental donors.

    Question. How might the administration's proposed funding cuts to 
international organizations negatively impact the work of the United 
Nations Non-governmental Liaison Service, which is headquartered in 
Geneva?

    Answer. As stated in the President's budget requests to Congress, 
the administration is calling upon other countries to assume greater 
financial responsibility at international organizations. The Department 
does not contribute funding directly to the Non-governmental Liaison 
Service.



                                 ______
                                 


    responses to follow-up questions from senator benjamin l. cardin
    Question. In response to my question about your role in developing 
the CRA strategy and your rationale for undoing regulations including 
the rule implementing the Cardin-Lugar 1504 provision, you stated that 
you, ``worked with other White House and Congressional staff to 
identify regulations that were finalized at the very end of the Obama 
administration, including many `midnight regulations' that were 
finalized after the election, that we believed were overly 
burdensome.''
   Were you aware that the 1504 regulation was mandated by a 
        bipartisan Congressional provision of the Dodd-Frank Act, which 
        was passed into law in 2010, and therefore not a ``midnight 
        regulation'' nor sought solely by the Obama administration ? If 
        not, why not? Were those factors at all considered in your 
        strategy?

    Answer. Yes. I would not characterize the Extraction Payment 
Disclosure Rule as a midnight regulation.

    Question. When you identified the 1504 regulation as a target for 
your CRA strategy, were you aware that the 1504 provision, and 
subsequent rulemaking was supported by human rights and anti-corruption 
advocates as well as by investors, many major oil and mining companies, 
think tanks, and academics? If not, why not? Was that factor at all 
considered in your strategy?

    Answer. No, as this was not my area of expertise. When I worked on 
the administration's overall CRA strategy, I did not personally provide 
policy advice or analysis of every regulation that was considered. 
Other White House components would work with the SEC on this issue.

    Question. When you identified the 1504 regulation as a target for 
your CRA strategy, were you aware that disclosure sought by the 1504 
rulemaking has been happening for up to 4 years in other countries--
including by European subsidiaries of U.S.-based international 
companies Exxon and Chevron, so American companies are complying with 
these transparency disclosure requirements elsewhere? If not, why not? 
Was that factor at all considered in your strategy?

    Answer. No, as this was not my area of expertise. When I worked on 
the administration's overall CRA strategy, I did not personally provide 
policy advice or analysis of every regulation that was considered. 
Other White House components would work with the SEC on this issue.

    Question. Note that U.S.-based companies like Kosmos Energy had 
already voluntarily disclosed for years. What is particularly 
burdensome about the SEC requiring disclosures that American companies 
are already complying with in 30 other countries?

    Answer. The Extraction Payment Disclosure Rule was estimated to 
have an initial cost of up to $700 million and put domestic extraction 
companies and their employees at an unfair disadvantage compared to 
foreign government owned companies. The regulation would have been less 
burdensome if it had been more similar to the European Union's 
disclosure rules, or built off of the Extractive Industries 
Transparency Initiative.

    Question. Were you aware that thirty other countries, including the 
28 members of the European Union, Canada and Norway are implementing 
mandatory disclosure? If so, was that factor at all considered in your 
strategy?

    Answer. No, as this was not my area of expertise. When I worked on 
the administration's overall CRA strategy, I did not personally provide 
policy advice or analysis of every regulation that was considered. 
Other White House components would work with the SEC on this issue.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Andrew P. Bremberg by Senator Jeanne Shaheen

    Question. This administration has taken a hardline against long-
standing agreements on sexual and reproductive health at the United 
Nations. Specifically, U.S. negotiators at the U.N. have repeatedly 
sought the removal of agreed language on sexual and reproductive access 
for communities worldwide. If confirmed, will you work to ensure that 
the U.S. upholds and advances international commitments on sexual and 
reproductive health and rights globally, rather than seeking to roll 
them back? If so, what specifically will you do?

    Answer. The administration has concerns about the terms ``sexual 
and reproductive health services'' and ``sexual and reproductive 
rights''. Over the years, these references have become associated with 
support for abortion as an alleged right. The administration will do 
all it can do to protect and respect the sanctity of life around the 
globe.
    In its advocacy for women, the administration continues to hold to 
the commitments laid out in the 1995 Fourth World Conference on Women's 
Beijing Declaration and Platform for Action as well as in the 1994 
International Conference on Population and Development's Programme of 
Action. The United States moreover remains the largest bilateral donor 
of women's reproductive health and family planning assistance 
worldwide.
    Moving forward at the U.N., the administration seeks to find 
consensus with a wide group of Member States on clear terminology that 
would better promote women's health without promoting abortion. We are 
committed to meeting the health care needs of women, men, girls, and 
boys, as well as the health-education needs of children and adolescents 
around the globe, and avoid issues that offend human dignity.

    Question. The U.S. recently made an egregious and extraordinary 
threat to veto a U.N. Security Council Resolution on gender-based 
violence in conflict over a reference to survivors' access to sexual 
and reproductive health care. Media reports also suggest that during 
negotiations, the U.S. sought to remove a mechanism that would have 
provided funding for survivors of sexual violence in conflict with 
services over fears it could be used by survivors for abortions, where 
legal. These negotiations at the U.N. have real world impact on women 
and girls around the world.

   Do you believe victims of sexual violence should be able to 
        terminate a pregnancy where legal? The global gag rule allows 
        international organizations who receive U.S. global health 
        funding to provide abortions in the case of rape, incest and 
        life endangerment of the woman with non-U.S. funding. Do you 
        support these exceptions or would you recommend and seek to 
        close them?

    Answer. I have tremendous sympathy for any woman victimized by 
sexual violence and support the U.S. efforts to help victims of sexual 
violence become thriving survivors. The United States will not support 
abortion services, but that does not equate to denying women who have 
been raped access to legal medical care. The U.S. opposition to the 
resolution in question was intended to ensure that U.N. organizations 
did not interpret that language to begin assuming a right to abortion 
as a method of family planning. Additionally, I support the existing 
Mexico City policy, which includes the exceptions noted.

    Question. Over the last few years, the U.N. has played an important 
role in the fight against opioids and synthetics. For example, in 2017, 
for example, the U.N. Office on Drugs and Crime (UNODC) voted to put 
international controls on two primary ingredients that are used to 
produce fentanyl. As the State Department made clear at the time, 
``This action will make it harder for the criminals that are illicitly 
producing fentanyl to access the necessary resources,'' while 
simultaneously making it easier for countries to monitor suspicious 
orders and transactions.''

   The State Department and U.N. are working together on this issue--
        will you support this work and ensure that funding levels 
        aren't cut which may make progress more difficult?

    Answer. If confirmed, I will be actively engaged on this important 
matter, as I was during my tenure at the Domestic Policy Council.

    Question. You praised the U.S. decision to pull out of the 
Universal Postal Union (UPU). Besides that it may lead to higher costs 
for U.S. consumers, pulling out of this will set back our efforts to 
combat the opioid crisis. By pulling out of the UPU, the White House 
would negate U.S. Postal Service ability to access the advanced 
electronic data (AED) shared by all those within the UPU. Such a move 
would harm individuals and businesses across the country. Given the 
severity of the opioid crisis, why pursue an approach that could make 
the situation worse?

    Answer. The administration is hopeful that its efforts to reform 
international postal rates will result in our continuing membership in 
the Universal Postal Union. Should those efforts prove unsuccessful, 
any and all resulting postal agreements established on a bilateral 
basis would unquestionably include required access to advanced 
electronic data.

    Question. Last June, the Trump administration withdrew the U.S. 
from the U.N. Human Rights Council (UNHRC), citing anti-Israel bias and 
concerns over the composition of the Council's membership. While the 
UNHRC is certainly not a perfect institution, U.S. engagement with and 
membership on the Council did deliver a number of positive results over 
the years. The Council voted to dispatch a team to investigate 
atrocities committed by ISIS in Iraq; continues to scrutinize and bring 
attention to the dire human rights situation in Iran; authorized a 
groundbreaking investigation into human rights violations in North 
Korea; and has taken action on a variety of other human rights crises 
in Myanmar, Yemen, South Sudan, DR Congo, Burundi, and Eritrea, to name 
a few. At the same time, U.S. membership on the Council helped us more 
effectively push back against instances of anti-Israel bias. According 
to the American Jewish Committee's Jacob Blaustein Institute for the 
Advancement of Human Rights, there was a 30 percent decline in country-
specific resolutions on Israel during U.S. membership versus the period 
when we were off the Council. The number of special sessions on Israel 
also dropped significantly--six during the three years before we joined 
the Council in 2009 versus one in the last four years. In March 2018, 
the State Department itself reported that the UNHRC saw ``the largest 
shift in votes towards more abstentions and no votes on Israel related 
resolutions since the creation of the [Council].''

   Do you agree that there is a positive correlation between U.S. 
        engagement and policy outcomes that reflect our nation's 
        interests and values?

    Answer. The United States withdrew from the U.N. Human Rights 
Council (HRC) because of concerns related to its focus and composition, 
We noted then that ``Countries that aggressively violate human rights 
at home should not be in a position to guard the human rights of 
others'' and that the Council's persistent, unfair bias against Israel 
detracts attention and resources away from the HRC's mandate to promote 
universal respect for the protection of human rights and fundamental 
freedoms. If meaningful reforms are undertaken by member states that 
address our longstanding concerns with the Human Rights Council, we 
would consider the possibility of re-engaging at that time.
    The United States has, for decades, led global efforts to promote 
human rights, including through multilateral institutions. We will 
continue to pursue a robust human rights agenda at the United Nations 
General Assembly's Third Committee as well as other U.N. bodies, as we 
did during other periods we were not a HRC member. We will also 
redouble our efforts to bring human rights issues to the attention of 
the Security Council, as we did during our 2018 presidency, when we 
held the first ever session on the linkage between human rights abuses 
and threats to international peace and security.

    Question. The UNHRC was established in 2006 to replace a previous 
U.N. human rights body which had been criticized as ineffective, 
politicized, and biased against Israel. During its first several years, 
the U.S. refused to run for a seat on the Council, fearing it would be 
no better than its predecessor. This became a self-fulfilling prophecy: 
in 2007, the Council voted to place ``the human rights situation in 
Palestine and other occupied Arab territories'' on its permanent 
agenda, in effect making Israel the only country subject to scrutiny 
under a stand-alone agenda item (also known as ``Item 7''). More than a 
decade later, the U.S. is once again side-lining itself in Geneva, with 
a familiar pattern of consequences: during the Council's most recent 
regular session, a representative of a pro-Israel NGO was prevented 
from completing a speech at the Item 7 debate after several member 
states, including Cuba, challenged his remarks on procedural grounds. 
Had the U.S. actually been in the room and able to intervene, it's 
unlikely this incident would've played out the way it did. 
Unfortunately, it seems as though history is repeating itself: just 
like in 2006, the U.S. is forfeiting its seat at the table, and as a 
result, Israel is left even more isolated and exposed to criticism than 
before. What makes this all the more frustrating is that, during the 
years when we engaged constructively with the Council (2009-2018), 
UNHRC actions targeting Israel actually declined.

   The U.S. is the strongest country in the world, shouldn't we fight 
        for our allies?

    Answer. When the United States made the decision to withdraw from 
the U.N. Human Rights Council, the Israel government called it a 
``courageous decision against hypocrisy and lies.''

    Question. In response to the decision to withdraw from the Council, 
12 civil society organizations sent a letter to Secretary Pompeo urging 
the Department of State to review this decision, to seek reelection to 
the U.N. Human Rights Council in 2019, and to continue to advance 
reforms in the Human Rights Council. These groups noted that the 
``decision is counterproductive to American national security and 
foreign policy interests and will make it more difficult to advance 
human rights priorities around the world. In fact, a 2017 study by the 
Council on Foreign Relations found that two successive terms of U.S. 
membership on the U.N. Human Rights Council improved its performance in 
several ways. First, U.S. involvement strengthened the council's 
commitment to action within specific countries like Burundi, Iran, 
Myanmar, North Korea, and Syria; fortifying norms like freedom of 
association, assembly and religion; as well as the protecting the 
rights of at-risk populations. Second, the CFR Report noted a 
significant decline in anti-Israel resolutions during U.S. membership 
and concluded, U.S. participation in the UNHRC can advance U.S. 
interests and lessen anti-Israel bias while supporting measures to 
avert and de-escalate human rights crises, thus reducing the likelihood 
of costly military interventions.''

   Do you agree that being part of body that enhances our interests 
        and reduces anti-Israel bias is a good outcome? Given the 
        recent attack on human rights globally, shouldn't we pursue 
        policies that human rights organizations deem in our interest?

    Answer. The administration made a concerted effort to encourage 
Human Rights Council members to undertake significant reforms to 
improve its membership guidelines and end its history of anti-Israel 
bias. When those reform recommendations fell on deaf ears, the United 
States decided the time had come to withdraw.


                               __________


            Responses to Additional Questions for the Record
      Submitted to Andrew P. Bremberg by Senator Edward J. Markey

    Question. In 2017, nearly 29,000 Americans died from overdosing on 
a synthetic opioid, such as fentanyl. To date, the administration's 
policies have not been effective in stemming the flow of fentanyl into 
the United States. If confirmed, how would you use your role at the 
U.N. to advocate for meaningful diplomatic action to stop fentanyl from 
entering this country?

    Answer. If confirmed, I would use the existing U.N. drug control 
treaty framework to facilitate international cooperation to curb the 
illicit production, trafficking, and distribution of fentanyl, and to 
accelerate the rate at which dangerous synthetic drugs are placed under 
international control. I would also promote cooperation with the 
Universal Postal Union to increase the exchange of advanced electronic 
data that can detect and deter fentanyl in the international mail.
    I would urge countries to support programming within the World 
Health Organization, U.N. Office on Drugs and Crime, and International 
Narcotics Control Board to build foreign capacity to stop fentanyl 
before it reaches our shores.

    Question. If confirmed, you will also be working with the World 
Health Organization to address U.S. health priorities. The WHO says 
that preventing opioid overdoses will involve increasing access to 
treatment for opioid dependence. Medicaid is the U.S.'s largest payer 
of mental health services, which include treatments for substance use 
disorder. And the Affordable Care Act included key consumer 
protections--like guaranteed coverage for individuals with pre-existing 
conditions--that makes access to opioid use disorder treatment much 
easier for the individuals who need it most. As the Director of the 
Domestic Policy Council, you signed off on policies that would 
undermine these health care lifelines and would ultimately hamper our 
domestic response to the opioid overdose crisis. How would you 
reconcile the differences between the WHO's recommendations to expand 
access to opioid treatment and your support of policies that would 
restrict access to this life-saving treatment?

    Answer. The Trump administration has led unprecedented efforts to 
ensure that everyone who needs treatment for opioid use disorder (OUD) 
receives it. We have emphasized that medication-assisted treatment 
(MAT) is the cornerstone of treatment for OUD, and now over 1.1 million 
people are receiving MAT. Since President Trump's inauguration, there 
has been a 25 percent increase in patients receiving buprenorphine, and 
monthly prescriptions for naltrexone are up 48 percent. Most 
importantly, overdose deaths have begun to decline.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Philip S. Goldberg by Senator Robert Menendez

Colombia Peace Process
    Question. Achieving peace after decades of conflict is always a 
challenging and complicated endeavor, but during the last several 
months, implementation of Colombia's historic peace accord has been 
uneven and the subject of intense debate between political stakeholders 
in Colombia. After an initial phase of demobilization and disarmament, 
Bogot  is struggling with the more costly stages of reintegration of 
ex-fighters, soaring illicit drug production, rural underdevelopment, 
and reparations to victims. Meanwhile, some combatants are returning to 
arms and human rights defenders and social leaders are being killed at 
alarming rates:

   If confirmed, what steps will you take as Ambassador to support the 
        Colombian government in its efforts to overcome these obstacles 
        and help ensure full implementation of the peace accord?

    Answer. The United States strongly supports a sustainable peace in 
Colombia, one of our strongest partners in the Western Hemisphere. If 
confirmed, I will maximize the embassy's use of available resources, 
use funding as efficiently as possible to support the Colombian 
government in its pursuit of peace, and continue longstanding U.S. 
support for peace in Colombia. U.S. assistance to Colombia is vital to 
our efforts to combat narcotics trafficking and achieve lasting peace 
in Colombia. Our assistance constitutes only a fraction of Colombia's 
own investment in its peace, but between FY 2000 and FY 2017, U.S. 
assistance totaled roughly $10 billion to support Plan Colombia and its 
follow-on programs. At the same time, Colombia invested billions more, 
achieving notable progress in combating drug trafficking and terrorist 
activities and reestablishing government control over much of its 
territory.

Colombian Coca Cultivation and Cocaine Production
    Question. Colombian coca cultivation and cocaine production are at 
historic levels. While the Duque administration is expanding Colombia's 
response, the effects are widespread. More coca yields more cocaine, 
which yields more illicit profits and, in turn, leads to greater 
violence and criminal activity. It would seem that we've thrown 
everything at the problem and it continues unabated.

   As our next Ambassador, if you are confirmed, what concrete steps 
        would you take to ensure that we are working in close 
        collaboration with our Colombian partners to on a comprehensive 
        response that attacks every link of the production chain, 
        including cultivation, interdiction, violence, and related 
        money laundering and financial crimes?

    Answer. If confirmed, I would continue to ensure effective U.S. 
support for Colombia's whole-of-government counternarcotic strategy in 
order to meet the U.S.-Colombia goal to cut coca cultivation and 
cocaine production by half of 2017 levels by the end of 2023. Because 
of the U.S.-Colombia partnership, there is already progress towards 
this goal. For example, Colombia destroyed over 60 percent more coca in 
2019 than the same period in 2018. Still, the Colombian and U.S. 
governments need to do more to meet our goal.
    If confirmed, I will encourage the Colombian government to increase 
civilian eradication groups, maritime interdiction, push for the 
extradition to the United States of high-level drug traffickers, and 
strengthen support for rule of law programs that will help Colombians 
prosecute complex money laundering and financial crimes cases. If 
confirmed, I would also work to ensure the United States supports 
Colombians' efforts to expand state presence into rural areas to 
enhance development and security in high-coca growing regions.

The Impact of Venezuela's Crisis on Colombia
    Question. Venezuela's tragic humanitarian crisis is having a 
destabilizing impact on the region and the U.N. reports that more than 
four million Venezuelans have fled their country in recent years. 
Colombia is the largest recipient of Venezuelan refugees, with more 
than one million Venezuelan migrants now residing there. This year, the 
World Bank announced concessional funding for Colombia to respond to 
the Venezuelan migrant and refugee crisis-a process that was supported 
by various countries, even though the U.S. abstained. While the 
Administration has provided approximately $250 million to respond to 
this humanitarian crisis, I'm concerned that more will be needed to 
address the crisis:

   What is your assessment of the role the United States in addressing 
        the Venezuelan crisis, particularly as it refers to the more 
        than one million Venezuelans that now reside in Colombia? In 
        your view, what else can the United States do to support 
        Colombia in addressing this issue?

    Answer. The USG has committed nearly $130 million in aid to respond 
to the influx of Venezuelans in Colombia since FY 2017, including 
approximately $37 million in development assistance and more than $91 
million in humanitarian assistance. This funding supports Colombia's 
efforts to assist Venezuelan refugees and the communities that host 
them. In addition to this support, the FY 2019 appropriation includes 
$418.3 million in bilateral assistance for Colombia. This includes 
robust support for priorities such as our joint goal to reduce coca 
cultivation and cocaine production by 50 percent by the end of 2023, as 
well as peace implementation.
    If confirmed, I would encourage Colombia to increase Colombia's 
regional collaboration with international partners to address the 
crisis.

Responsiveness
    Question. Do you commit to respond promptly to all requests for 
information by Members of this committee?

    Answer. Yes.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. Yes.

Administrative
    Question. Please list any outside positions and affiliations you 
plan to continue to hold during your term of appointment.

    Answer. I do not have any outside positions and affiliations I plan 
to continue to hold during my term of appointment.

    Question. Have you ever been an officer or director of a company 
that has filed for bankruptcy? If so, describe the circumstances and 
disposition.

    Answer. No.

    Question. If you leave this position before the completion of your 
full term of the next presidential election, do you commit to meeting 
with the committee to discuss the reasons for your departure?

    Answer. Yes.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. No.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes, I agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government.



                               __________


            Responses to Additional Questions for the Record
     Submitted to Philip S. Goldberg by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. The promotion of human rights and democracy has been 
central to my career as a Foreign Service Officer, Chief of Mission, 
and Assistant Secretary of State for INR. In Colombia, I worked with 
former M-19 guerrillas returning to the legal, democratic political 
process: they ultimately took seats in the constitutional assembly and 
integrated into civilian life. During the lead up to democratic, non-
racial elections in South Africa, I was a liaison with the African 
National Congress, working with USAID and other U.S. agencies to 
prepare the party's economic officials on free market and democratic 
principles, as they got ready to enter government. As a Chief of 
Mission in Kosovo, I was an advocate for promoting minority rights in 
the Serb community and assuring the transition to democratic elections 
and independence. In Bolivia, I maintained contact with the democratic 
opposition and independent journalists despite fierce resistance from 
the Morales government. In the Philippines, I helped the Aquino 
government establish a unit to investigate human rights cases involving 
attacks against journalists and reinstated assistance to NGOs to serve 
as election observers. When President Duterte came to office, I 
challenged publicly and privately the human rights abuses associated 
with his anti-drug campaign and authorized increased human rights 
training for police officials.
    Under my leadership in INR, we expanded the work of our 
Humanitarian Affairs Unit, focusing on the crisis in Syria and other 
war zones, and increased efforts on the treatment of women and minority 
groups around the world.

    Question. What are the most pressing human rights issues in 
Colombia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Colombia? What do 
you hope to accomplish through these actions?

    Answer. Colombia continues to make progress on human rights issues, 
including through its efforts to implement the historic 2016 peace 
accord with the FARC. It is hard to overstate the human rights benefits 
of ending the hemisphere's longest-running armed conflict, which cost 
the lives of more than 250,000 and displaced millions. Ending this 
conflict has permitted the Colombian government to take steps to bring 
justice to victims and their families, fight narcotrafficking and 
organized crime by extending the reach of state institutions to former 
conflict zones, reduce violence, and protect human rights in Colombia.
    The United States has a clear interest in supporting a stronger, 
stable Colombia that protects human rights. The implementation of a 
comprehensive plan to provide government services in remote areas will 
be important to sustain peace, increase counternarcotics and counter-
transnational crime efforts, ensure citizen security, and prevent 
violence against defenders of human rights and social activists. 
Addressing human rights challenges is essential to build the just and 
lasting peace the Colombian people deserve. If confirmed, I will engage 
with the Colombian government, civil society, the private sector, 
journalists, and the international community to support and encourage 
Colombia's efforts to secure continued progress on human rights.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Colombia in 
advancing human rights, civil society and democracy in general?

    Answer. Colombia is a consolidated democracy undertaking laudable 
efforts to improve the transparency and accountability of its own 
governance and defend democracy abroad. The Colombian government has 
prioritized human rights and made advances on some important cases, but 
some challenges remain. I consider human rights and social inclusion to 
be issues central to Colombia's ability to secure a just and lasting 
peace. If confirmed, I would stress to the Colombian government the 
need to fill power vacuums in areas formerly controlled by the FARC. 
The Colombian government's challenge is to establish a comprehensive 
state presence to provide not only security services but also 
education, infrastructure, local governance, and victims' assistance to 
deny criminal groups a foothold. I would also continue to support the 
Colombian government's efforts to dismantle the illegal armed groups 
responsible for many crimes against human rights defenders, and to urge 
thorough investigations and prosecutions into these crimes.
    Colombia's marginalized populations, including Afro-Colombians, 
indigenous people, internally displaced persons, women, and children, 
continue to suffer disproportionately from forced displacement, sexual 
violence, and social exclusion. If confirmed, I will encourage the 
Colombian government to implement measures to guarantee the rights of 
those most affected by conflict and include marginalized populations in 
all phases of peace implementation.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Colombia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes. The protection of human rights has long been a core 
component of U.S.-Colombian relations and a central value of our 
foreign policy. The NGO community plays a vital role in shining a light 
on human rights issues and challenges, and has valuable contributions 
and perspectives to share. There is a vibrant community of NGOs and 
civil society organizations focused on human rights issues in Colombia. 
If confirmed, I will continue the United States' longstanding tradition 
of engaging regularly on these issues with NGOs based in the United 
States and in Colombia and Colombian civil society organizations to 
understand their concerns and seek their input and proposals.
    The Leahy Law not only advances our human rights agenda but also 
promotes the professionalization of the security forces with which we 
partner, making them better security partners. If confirmed, I will 
work closely with the Embassy Team, Colombian government, and civil 
society to ensure we direct all U.S. assistance to rights-respecting 
security forces in an efficient and effective manner in accordance with 
U.S. law. In accordance with the Leahy law, I will ensure no assistance 
or equipment is provided to Colombia security forces that commit gross 
violations of human rights. Leahy vetting plays an important role in 
furthering U.S. government programs and objectives on human rights and 
encourages security force professionalization.

    Question. Will you and your embassy team actively engage with 
Colombia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Colombia?

    Answer. It is my understanding that the United States is not aware 
of any political prisoners in Colombia, or unjust targeting of 
individuals. If confirmed, I would certainly engage the government in 
the event this becomes an issue.

    Question. Will you engage with Colombia on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will engage with Colombia on matters 
of human rights, civil rights, and governance as part of our bilateral 
mission. Colombia is a close friend of the United States, and our 
countries have long enjoyed outstanding cooperation on a range of 
issues. As a close partner, I will work with the Colombian government 
to continue to encourage improvements on matters of human rights, civil 
rights, and governance through a variety of approaches, including 
programming, regular diplomatic engagement, and high-level dialogues 
with the Colombian government. I look forward to continuing and 
expanding upon our close collaboration on these issues in multiple 
fora.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Colombia?

    Answer. No. Nonetheless, I am committed to ensuring that my 
official actions will not give rise to a conflict of interest and I 
will remain vigilant with regard to my ethics obligations.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I commit to promote, mentor and support all 
staff, including those from diverse backgrounds and underrepresented 
groups. I will be guided by U.S. law and policies, but also by my 
personal appreciation that discrimination can harm not only individual 
employees but also the workplace and the larger institution. I 
recognize that each individual employee brings unique strengths and 
weaknesses; and I will encourage each to do, and achieve, their best, 
and to help foster a work environment that both reflects and draws upon 
the rich composition of America's citizenry.
    I assure you that, if confirmed, I will consider diversity when 
seeking to fill high-level positions at the U.S. Mission in Colombia, 
as I have done in past assignments. I am committed to mentoring all 
staff members, but especially those from diverse backgrounds and under-
represented groups.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will ensure that Embassy supervisors hear 
from me, and see from my own behavior, that encouragement of such an 
environment is expected from all Embassy leaders. I will ensure that 
Country Team members--as well as lower-level supervisors--understand 
their individual responsibilities to provide mentoring and guidance to 
all members of their teams, with specific emphasis on diversity and 
inclusiveness. I will ensure that performance, as it relates to such 
issues, is covered as appropriate, in ratings and evaluations, as these 
supervisors seek to advance their own careers and serve as examples for 
their employees and our institution.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Colombia 
specifically?

    Answer. Corruption is a worldwide problem and a growing political 
issue in many nations. Combatting corruption is linked closely to 
strengthening justice and rule of law. In Colombia, revenues from 
transnational organized crime, including drug trafficking, also 
exacerbate corruption challenges. Expanding justice services to rural 
areas, combatting narcotrafficking, and strengthening rule of law have 
been essential components of peace implementation efforts and are key 
to continued progress on combatting corruption.

    Question. What is your assessment of corruption trends in Colombia 
and efforts to address and reduce it by that government?

    Answer. Colombia has undertaken serious efforts to address 
corruption concerns. The breaking of the Odebrecht scandal launched 
corruption to the forefront of Colombia's political dialogue. In 2018, 
Colombian voters made clear that they strongly supported anti-
corruption measures, with more than 11.5 million citizens voting in 
favor of proposals on accountability and transparency measures.
    Since taking office, President Duque has sought congressional 
support for his anti-corruption initiatives. The offices of the 
attorney general and inspector general have publicly identified 
anticorruption efforts as priorities for their institutions and have 
achieved some important results. At a June 2018 forum, the Inspector 
General signed a transparency and anti-corruption pact with business 
community representatives. The Attorney General's office launched the 
``Bolsas de Cristal'' anticorruption initiative and it continues to 
investigate and prosecute cases related to the Odebrecht scandal. In 
March 2018, the Colombian Supreme Court sentenced former top 
anticorruption official Luis Gustavo Moreno Rivera to four years and 10 
months in prison on corruption charges. Reducing corruption in Colombia 
will require continuing and building on such efforts.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Colombia?

    Answer. If confirmed, I will work with the Colombian government and 
its citizens to promote public transparency, accountability, and 
integrity. Key to advancing these priorities, in partnership with the 
Department of Justice, would include programming and efforts to 
strengthen rule of law and the capacity of our law enforcement 
partners; ensuring a level playing field for U.S. investors; and 
denying corrupt individuals access to U.S. financial systems and 
resources.

Venezuela Crisis
    Question. Colombia's response to the Venezuelan migration crisis 
should serve as a model to other countries:

   How can we highlight Colombia's example to other countries in the 
        region?

    Answer. Colombia's leadership on Venezuela is extraordinary and 
their generosity in hosting fleeing Venezuelans has been a vital 
component of the regional response to the Venezuelan crisis. The United 
States strongly supports Colombia and governments in the region. If 
confirmed, I will work with them to restore democracy to Venezuela and 
mitigate the ongoing humanitarian crisis.

    Question. How can the United States support Colombia's efforts?

    Answer. The U.S. government has committed nearly $130 million in 
aid to respond to the influx of Venezuelans in Colombia since FY 2017, 
including $37.1 million in development assistance and $91 million in 
humanitarian assistance. This funding supports Colombia's efforts to 
assist Venezuelan refugees as well as the communities that host them. 
The United States continues to encourage additional contributions from 
donors to international organizations to meet growing needs. If 
confirmed, I will work with Colombia on efforts to restore democracy to 
Venezuela and mitigate the ongoing humanitarian crisis.

    Question. Are you concerned that the Venezuela crisis could detract 
from Colombia's ability to fully implement the peace accords?

    Answer. Colombia is a vital strategic partner. The United States 
and Colombia share many priorities, including coordinating a regional 
response to the crisis in Venezuela, supporting sustainable peace in 
Colombia, and combatting narcotics trafficking and transnational crime. 
U.S. foreign assistance is crucial to support Colombia's efforts both 
to respond to the Venezuela crisis and to implement peace.
    The FY 2019 appropriation includes $418.3 million in bilateral 
assistance for Colombia, which includes robust support for priorities 
such as peace implementation and our joint goal to reduce coca 
cultivation and cocaine production by 50 percent by the end of 2023. 
Separately, to support Colombia in its response to the Venezuelan 
crisis, the U.S. government has committed nearly $130 million in aid to 
respond to the influx of Venezuelans in Colombia since FY 2017. If 
confirmed, I will work with the Colombian government to advance peace 
implementation and to work with partners to ensure a coordinated 
regional response to the Venezuelan crisis.

    Question. If so, how would you work to help Colombia balance these 
competing priorities?

    Answer. The United States strongly supports Colombia's efforts to 
secure a lasting peace. Colombia remains one of our strongest partners 
in the region, including on pressuring the former Maduro regime and 
responding to the Venezuelan crisis, and successful implementation of 
the peace accord is in the national interest of both our nations.
    If confirmed, I will work with the Colombian government to support 
our joint efforts to implement the peace accord and to restore 
democracy to Venezuela. Regarding Venezuela, if confirmed, I will work 
with partners to encourage a coordinated regional response to the 
Venezuelan crisis, as well as encourage additional contributions from 
donors to international organizations such as IOM, PAHO, and UNCHR to 
meet growing needs and effectively support efforts--particularly those 
of front-line states such as Colombia.

    Question. Colombia is increasingly serving as a strategic partner 
for the United States internationally from Central America to 
Afghanistan:

   Where do you anticipate us expanding this cooperation in coming 
        years?

    Answer. Colombia is one of our strongest and most capable partners 
in the hemisphere. If confirmed, I would encourage Colombia's continued 
support for U.S. regional and global security objectives. For example, 
if confirmed, I would work with the Colombian government to advance the 
administration's strategy to enhance regional cooperation against 
transnational criminal networks and expand the promotion rule of law 
and democracy in the region. In addition, Colombia's efforts in areas 
such as U.N. peacekeeping operations, security force training in 
Central America, and sharing peace-building expertise in Afghanistan 
are complementary and advance security throughout the hemisphere and 
beyond.

    Question. I am concerned about the high number of attacks against 
human rights defenders.

   How would you engage with the Colombian government to protect those 
        facing threats?

    Answer. A strong, stable Colombia that protects human rights is in 
the U.S. interest. I share your concern for the killing of human rights 
defenders, who have an essential role to play in building a durable 
peace in Colombia. I understand the Attorney General's Office has made 
important efforts to improve accountability by prioritizing 
investigations into recent cases of killings of human rights defenders. 
It is important that those responsible for these crimes be held 
accountable. I understand the U.S. government is supporting the 
Colombian government's efforts to carry out prompt and effective 
investigations of these cases, and to improve the security situation 
where these killings are taking place and disrupt the illegal activity 
that contributes to continued violence. Introducing state services and 
extending economic opportunity in conflict-affected areas is 
fundamental to ensure that citizens' rights are protected and to deny a 
foothold to illegal armed groups and criminal organizations.
    The U.S. government has long encouraged Colombia to improve its 
human rights environment through a variety of approaches, including 
foreign assistance programming, regular diplomatic engagement, and 
high-level dialogues with the Colombian government and civil society. 
If confirmed, I will continue to support Colombia's efforts to ensure 
human rights defenders and social leaders can accomplish their vital 
work towards a just and lasting peace.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Hon. Philip Goldberg by Senator Jeanne Shaheen

    Question. How would you propose expanding efforts to intercept 
ships heading out of Colombian waters, and how best can we increase 
coordination between Colombia, SOUTHCOM, the Mexican government and 
other Central American governments?

    Answer. If confirmed, I would make the Colombian Pacific coast an 
area of key focus for our joint counternarcotics efforts, since the 
majority of cocaine shipped to the United States flows through this 
corridor. The best way to tackle this challenge is by helping Colombia 
expand its multilateral approach to maritime interdiction and go after 
key drug traffickers in this region. Over the past year, the Colombian 
Navy led three impressive multi-nation maritime interdiction 
operations, which included Mexico and several Central American 
countries, and led to the seizure of nearly 100 metric tons of cocaine, 
denying narcotraffickers approximately $3.2 billion in revenue. If 
confirmed, I would support efforts to build on these successes and 
increase coordination between Colombia, SOUTHCOM, Mexico, and Central 
America to better disrupt the flow of drugs and prevent siphon off 
revenue to these criminal groups.

    Question. What additional steps would you recommend in order for 
the U.S. to provide resources and technical assistance to the 
government of Colombia to investigate and, if necessary, freeze assets 
and step up asset forfeiture procedures?

    Answer. The United States and Colombia have both provided 
significant resources to address our shared priorities. In particular, 
the Colombian government is a committed partner in cracking down on 
money laundering. President Duque's counternarcotics strategy 
prioritizes countering money laundering and financial crimes as one of 
its five pillars. If confirmed, I would work with the Colombians to 
develop mechanisms to re-invest liquidated assets into the relevant 
institutions in order to transform its asset forfeiture system into a 
self-sustaining ``virtuous circle'' that can further support 
counternarcotics efforts.

    Question. How would you assess the commitment and capability of the 
Colombian government to crack down on money laundering?

    Answer. Colombia is one of our strongest partners in the Western 
Hemisphere, and President Duque's government has demonstrated 
commitment in cracking down on money laundering. Specifically, 
President Duque's counternarcotics strategy prioritizes countering 
money laundering and financial crimes as one of its five pillars. If 
confirmed, I would ensure the U.S. government continues to work closely 
with Colombia to support this pillar with robust law enforcement and 
judicial support in order to expand Colombia's capacity to investigate 
and prosecute complex financial crimes and most effectively address 
money laundering challenges.Question 4:
    Colombia has taken in thousands of Venezuelan refugees since the 
escalation of the crisis there. In your assessment, does Colombia have 
the assistance and resources it needs to meet the needs of the refugee 
population?

    Answer. Colombia's leadership on Venezuela is extraordinary and the 
generosity of Colombians in hosting fleeing Venezuelans has been a 
vital component of the regional response to the Venezuelan crisis. To 
help Colombia respond to this influx of Venezuelans, the U.S. 
government has committed nearly $130 million in aid to Colombia since 
FY 2017, including approximately $37 million in development and 
economic assistance and more than $91 million in humanitarian 
assistance. This funding complements Colombia's own efforts to assist 
Venezuelan refugees and migrants and the communities that host them.

    Question. If confirmed, how will you work to ensure that U.S. 
policy in Colombia and across the region addresses the root causes of 
migration?

    Answer. The United States continues to engage all diplomatic and 
economic options to support Venezuela's Interim President Guaido. Only 
through a peaceful democratic transition can Venezuela resolve the root 
causes of the forced displacement of millions of migrants and refugees. 
To that end, the United States government has made clear that all 
options remain on the table while it continues to engage on all 
diplomatic and economic fronts to support Interim Venezuelan President 
Juan Guaido and the Venezuelan people's pursuit of freedom.
    If confirmed, I will work with Colombia on efforts to restore 
democracy to Venezuela and encourage Colombia to continue their strong 
engagement with regional partners to ensure a coordinated regional 
response to the Venezuelan crisis.



                               __________


           Response to an Additional Question for the Record
     Submitted to Hon. Philip Goldberg by Senator Edward J. Markey

    Question. Should you be confirmed, you will need to address human 
rights concerns that the United States has in Colombia, including 
reports of abuses by security forces and threats against human rights 
defenders, journalists, and indigenous groups.   During your time as 
ambassador to the Philippines, you saw first-hand a government that was 
committing similar forms of abuses. The Duterte government, which has 
carried out extrajudicial killings in its war on drugs, has weaponized 
the legal system to go after journalists and opposition leaders.

   Can you give us your assessment of the state of human rights in the 
        Philippines, and how your experience there will affect how you 
        handle human rights issues in Colombia, if you are confirmed?

    Answer. Under my tenure as Ambassador to the Philippines, the 
United States consistently engaged the Philippine government on human 
rights issues. This was particularly true during my last few months in 
the Philippines, when I and the embassy engaged publicly and privately 
on many occasions to address the new Duterte government's actions. The 
U.S.-Philippines relationship is built on a history of shared values 
for democracy and human rights. The United States supported the 
capacity of Philippine institutions, including through U.S. judicial 
sector training aimed to strengthen the rule of law, due process, and 
respect for human rights.
    If confirmed, as in the Philippines, I will continue to engage with 
the Colombian government, civil society, the private sector, and the 
international community to support Colombia's efforts to secure 
continued progress on human rights.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Douglas Manchester by Senator Robert Menendez

Addressing Employee Complaints
    Question. In a Washington Post article describing the work 
environment at the San Diego Union-Tribune and U-T-TV, you were quoted 
as saying when you learned of ``egregious mistakes'' by staff, you took 
action.

   What were those mistakes?

    Answer. I did not manage the day-to-day operations of the company 
and its subsidiary, but when I learned of the possible mistakes, I 
directed Human Resources personnel to take appropriate action towards 
those individuals. Please see, as an addendum to this answer, the San 
Diego Union Tribune, LLC Employee Handbook, page 24. According to Human 
Resources, there were violations of our policies as stated in the 
Employee Handbook.

    Question.  What actions, specifically, did you take? Did you 
institute any disciplinary actions? Did you fire anyone?

    Answer. I advised Human Resources to take appropriate disciplinary 
action including termination. I was advised there were two 
terminations.

    Question.  Did you institute any reforms or training in response to 
the concerns that were raised at the San Diego Union-Tribune or U-T-TV?

    Answer. Yes, we instituted mandatory multi-hour sexual harassment 
training required of each employee within six months of employment and 
continued training every two years.

    Question.  Did anyone ever raise complaints or concerns with you 
personally? Did you learn of concerns or complaints through others?

    Answer. I have never had any complaints or concerns raised about me 
personally. In 55 years of business, having founded 27 companies and 
employed over 6,000 employees, I have never personally been named in 
any sexual misconduct claims.

    Question.  Do you commit that, if confirmed, you will take 
immediate steps to address any claims of harassment or discrimination 
brought to your attention, and that you will work to foster a 
professional environment for all employees, regardless of gender or 
background?

    Answer. Yes, you have my commitment that, if confirmed, I will take 
immediate steps to address any claims of harassment or discrimination 
brought to my attention, and I will work to foster a professional 
environment for all employees, regardless of gender or background.

    Question.  If confirmed, you will be chief of mission in the 
Bahamas, meaning you will be in charge of a large staff of U.S. and 
foreign service national employees, men and women from all different 
backgrounds.
    What are your plans to foster a healthy and inclusive work 
environment? Please provide concrete examples indicative of your 
thinking in this area.

    Answer. If confirmed, I will work extremely hard to remind everyone 
that they are doing an incredible job for our country and to build a 
cooperative team environment that is all-inclusive to all genders, 
religions and ethnic backgrounds. I will work to foster mutual respect 
and will remind the employees that their work is appreciated by all 
those in the United States and the Sovereign nation of the Bahamas. To 
achieve this I will adopt an open door policy and encourage direct 
communication.

    Question.  Have you familiarized yourself with federal government 
rules and regulations designed to prevent sexual and other forms of 
harassment and to appropriately respond to claims of such harassment?

    Answer.Yes, I have familiarized myself with federal government 
rules and regulations designed to prevent sexual and other forms of 
harassment and to appropriately respond to claims of such harassment.

    Question.  What assurances can you provide to this committee that 
you will treat all employees, regardless of gender, race, ethnicity, or 
background, fairly, equally, and with respect?

    Answer. With a proven record of 55 years in business, I have always 
believed that two heads are better than one and three are better than 
two, etc. I would encourage a team-like atmosphere that would call on 
all mission personnel to contribute to the success of the mission. 
Specifically, I would create an environment where all personnel are 
encouraged to express any concerns or criticism without fear of 
reprisal.

    Question.  Did you, in your personal capacity, hire a lobbying or 
public affairs group to support your nomination process? If so, please 
provide the name of the entity, the dates of the contract, payment 
amounts and dates.

   Did Manchester Financial Group hire a lobbying or public affairs 
        group to support your nomination process? If so, please provide 
        the name of the entity, the dates of the contract, and payment 
        amounts and dates.

    Answer. Manchester Financial hired Banner Public Affairs in March 
2018, initially for a two-month period for an amount of $20,000. Their 
professional services have included discussions about options for 
branding and marketing hotels owned by Manchester Financial Group, 
advocacy options for regulatory issues related to the construction and 
operation of hotels, public affairs issues related to the nomination of 
the company's founder to be Ambassador to The Bahamas, rebuttal of 
inaccurate and misleading statements about the chairman emeritus that 
appeared in the media as a result of his nomination, and 
representational contact to gain information about the status of the 
nomination and seek a vote on the nomination.

    Question. In the event that the Manchester Financial Group hired a 
lobbying or public affairs group to support your nomination process:

   Did you direct the Manchester Financial Group to hire a lobbying or 
        public affairs group to support your nomination? If not, who 
        made that decision?

    Answer. Yes

    Question.  What benefit did the Manchester Financial Group stand to 
gain from hiring a lobbying or public affairs group on your behalf?

    Answer. Manchester Financial Group benefitted from better awareness 
of options related to its brand and marketing activities, as well as 
the accurate public perception of its operations and chairman emeritus, 
including as a result of media stemming from his nomination, which is 
essential to the operations of the company.

    Question.  Did you or Manchester Financial Group seek guidance, 
authorization, or approval from the U.S. Department of State prior to 
hiring a lobbying or public affairs group to support your nomination 
process? If not, why not? If yes, did you receive guidance, 
authorization, or approval from the U.S. Department of State? If so, 
please provide a copy and any supporting documentation.

    Answer. No, I was not and am not aware of any requirement to do so.

    Question.  Did a lobbying or public affairs group assist you with 
your answers to these questions or any other written questions for the 
record submitted to you by members of the Senate Foreign Relations 
Committee related to your confirmation hearing on June 20, 2019? If so, 
please describe what assistance the entity provided you.

    Answer.Yes, the lobbying and public affairs group listed above 
reviewed questions and answers related to its services and provided 
feedback on questions stemming from media reports.

    Question.  Do you commit to respond promptly to all requests for 
information by Members of this committee?

    Answer.Yes. I will work through the Department's Bureau of 
Legislative Affairs to respond to Congressional requests.

    Question.  Do you commit to appear before this committee upon 
request?

    Answer.Yes.

    Question.  If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer.I am committed to the highest standards of government 
accountability. Should I become aware of any waste, fraud, or abuse, I 
will report it to the appropriate Department authorities to include the 
Inspector General.

    Question.  Please list any outside positions and affiliations you 
plan to continue to hold during your term of appointment.

    Answer. I do not plan to hold any positions or affiliations during 
my term of appointment and if confirmed, I commit to fully comply with 
all stipulations as outlined in my ethics agreement.

    Question.  Have you ever been an officer or director of a company 
that has filed for bankruptcy? If so, describe the circumstances and 
disposition.

    Answer.No, I have not been an officer or director of a company that 
has filed for bankruptcy.

    Question.  If you leave this position before the completion of your 
full term of the next presidential election, do you commit to meeting 
with the committee to discuss the reasons for your departure?

    Answer.Yes.


    Question. Other than the claims referred to above, has anyone ever 
made a formal or informal complaint or allegation of sexual harassment, 
discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct against you, in a workplace or any other setting? 
If so, please describe the nature of the complaint or allegation, your 
response, and any resolution, including any settlements.

    Answer. I have never had any complaints or concerns raised about me 
personally in a workplace or any other setting. In 55 years of 
business, having founded 27 companies and employed over 6,000 
employees, I have never personally been named in any sexual misconduct 
claims.

    Question.  Have you ever addressed concerns or allegations of 
sexual harassment, discrimination (e.g., racial, ethnic, religious, 
etc.), or inappropriate conduct made against any employee over whom you 
had supervisory authority? If so, please describe the outcome and 
actions taken.

    Answer. I did not manage the day-to-day operations of the company, 
but when I learned of possible accusations of sexual harassment, 
discrimination or inappropriate conduct by any employee, I directed 
Human Resources personnel to investigate the allegations and if 
necessary, take appropriate action towards those individuals, including 
termination. Please see, as an addendum to this answer, the San Diego 
Union Tribune, LLC Employee Handbook, page 24.

    Question.  Do you agree that any targeting of or retaliation 
against career employees based on their perceived political beliefs, 
prior work on policy, or affiliation with a previous administration, is 
wholly inappropriate and has no place in the federal government? If 
confirmed, what will you do to ensure that all employees under your 
leadership understand that any retaliation, blacklisting, or other 
prohibited personnel practices will not be tolerated?

    Answer. Yes, I do agree that any targeting of or retaliation 
against career employees based on their perceived political beliefs, 
prior work on policy, or affiliation with a previous administration, is 
wholly inappropriate and has no place in the federal government.
    I will follow established procedures necessary to assure that 
anyone that feels that they have been subjected to any retaliation, 
blacklisting or other prohibited personnel practices is aware of the 
Department's policies, resources, and procedures that ensure reporting 
without retaliation.


    Question. Following up on one of the answers from Manchester's 
QFRs, we would like to review copies of any contracts between 
Manchester Financial Group and Banner Public Affairs.

    Answer. Manchester Financial Group entered into an oral contractual 
agreement with Banner Public Affairs in March 2018. Banner Public 
Affairs was to advise regarding options for branding and marketing 
hotels owned by Manchester Financial Group, advocacy options for 
regulatory issues related to the construction and operation of hotels, 
public affairs issues related to the nomination of the company's 
founder to be Ambassador to The Bahamas, rebuttal of inaccurate and 
misleading statements about the chairman emeritus that appeared in the 
media as a result of his nomination, and representational contact to 
gain information about the status of the nomination and seek a vote on 
the nomination.
    I personally paid Banner Public Affairs $10,000.00 on behalf of 
Manchester Financial Group on March 27, 2018 by wire transfer. 
Manchester Financial Group also paid a total of $30,000.00 to Banner 
Public Affairs. The first check was for $10,000.00 on May 14, 2018 and 
the second check was for $20,000.00 on July 31, 2018.

  Relevant Excerpts from the San Diego Union-Tribune Employee Handbook

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              



            Responses to Additional Questions for the Record
     Submitted to Douglas Manchester by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. With a long history in the newspaper business, I am a firm 
believer that an independent media plays a critical role in exposing 
human rights violations and building strong democratic systems. If 
confirmed, I will leverage my experience to address concerns in The 
Bahamas about due process for migrants without legal status and rights 
of the Haitian community; judicial system reforms; conditions in 
prisons and detention centers; and gender-based violence. I believe 
these challenges to human rights and democracy require close U.S. 
coordination with local human rights organizations, civil society, the 
media, international organizations, and the Bahamian government, and if 
confirmed, I will look to leverage my background in the media to 
support the Bahamian government in addressing these challenges.

    Question. What are the most pressing human rights issues in the 
Bahamas? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in the Bahamas? What 
do you hope to accomplish through these actions?

    Answer. The Bahamas is a constitutional, parliamentary democracy 
with a long history of respect for the rule of law, human rights, and 
effective civilian control over the security forces. Nevertheless, 
several human rights issues deserve attention. If confirmed, I will 
engage with the government on ensuring due process for migrants and 
rights of the Haitian community; judicial system reforms; improving 
conditions in prisons and detention centers; and working to end gender-
based violence.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Bahamas in 
advancing human rights, civil society and democracy in general?

    Answer. The Bahamas' challenge is to use its limited resources to 
promote respect for the rule of law while respecting human rights in a 
high-crime environment. If confirmed, I will work with my embassy staff 
to ensure existing training programs for Bahamian justice-sector 
officials are as effective as possible, and I would champion U.S. 
efforts to promote human rights in the country and support the Bahamian 
government's efforts in this area to achieve lasting results.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the Bahamas? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes. I am committed to meeting with human rights, civil 
society, and non-governmental organizations in the United States and 
The Bahamas. If confirmed, I would champion U.S. efforts to promote 
human rights in the country, as well as comply with all requirements 
under the Leahy Law to ensure provisions of U.S. security assistance 
and security cooperation activities reinforce human rights.

    Question. Will you and your embassy team actively engage with the 
Bahamas to address cases of key political prisoners or persons 
otherwise unjustly targeted by the Bahamas?

    Answer. The State Department's 2018 Human Rights Report states 
there were no political prisoners or detainees in The Bahamas in 2018. 
If confirmed, I will work actively with the embassy team to address any 
cases of political prisoners or persons unjustly targeted by government 
entities to ensure their rights and fundamental freedoms are respected.

    Question. Will you engage with the Bahamas on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will engage with The Bahamas on 
matters of human rights, civil rights, and governance as part of my 
bilateral mission.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules and to raise concerns that I may 
have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in the Bahamas?

    Answer. I have owned a home in The Bahamas for many years. My 
investment portfolio includes diversified mutual funds that may have 
investments in companies with a presence in The Bahamas; however, these 
funds are exempt from the conflicts of interest rules. I am committed 
to ensuring that my official actions will not give rise to a conflict 
of interest and I will remain vigilant with regard to my ethics 
obligations.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As the owner of multiple businesses across many sectors, I 
am a firm believer in a well-managed, diverse workforce. I have 
promoted to the highest levels of my companies employees and 
supervisors of all races, gender, ethnicity, religions, national 
origin, and sexual orientation. If confirmed, I commit to promote, 
mentor and support all staff, including those from diverse backgrounds 
and underrepresented groups. I will be guided by U.S. law and policies, 
but also by my personal appreciation that discrimination can harm not 
only individual employees but also the workplace and the larger 
institution. I recognize that each individual employee brings unique 
strengths and weaknesses; and I will encourage each to do, and achieve, 
their best, and to help foster a work environment that both reflects 
and draws upon the rich composition of America's citizenry.
    I assure you that, if confirmed, I will consider diversity when 
seeking to fill high-level positions at the U.S. Mission in The 
Bahamas. I am committed to mentoring all staff members, but especially 
those from diverse backgrounds and under-represented groups.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. I believe a diverse and inclusive environment is critical 
to ensuring every person at our Embassy has the tools necessary to do 
their work and advance the interests of the United States. If 
confirmed, I will set the example encouraging such an environment and 
letting supervisors know it is expected from all Embassy leaders. I 
will ensure that all Embassy supervisors understand their individual 
responsibilities to provide mentoring and guidance to all members of 
their teams, with specific emphasis on diversity and inclusiveness and 
that performance as it relates to such issues is covered, as 
appropriate, in ratings and evaluations, as these supervisors seek to 
advance their own careers and serve as examples for their employees and 
our institution.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in the Bahamas 
specifically?

    Answer. Corruption saps economic growth, hinders development, 
destabilizes governments, undermines democracy, and provides openings 
for dangerous groups like criminals, traffickers, and terrorists. The 
Department has made anti-corruption efforts a national security 
priority and works across the globe to prevent graft, promote 
accountability, and empower reformers. Ranking 29 out of 180 on 
Transparency International's Corruption Perceptions Index, The Bahamas 
faces continued challenges in addressing corruption and lack of 
transparency with the aim of leveling the playing field and improving 
ease of doing business for both domestic investment as well as ensuring 
The Bahamas' reputation as a good place to do business and maintain 
access to international financial markets. Prime Minister Hubert Minnis 
has indicated that anti-corruption efforts are a priority for his 
administration. If confirmed, I commit to working to address any 
corruption and strengthen democratic governance and rule of law in The 
Bahamas.

    Question. What is your assessment of corruption trends in the 
Bahamas and efforts to address and reduce it by that government?

    Answer. According to Transparency International's Corruption 
Perception indices, the Bahamas ranks 29 out of 180. Prime Minister 
Hubert Minis of the Free National Movement won elections in a landslide 
in May 2017 on an anti-corruption, pro-reform platform. The Prime 
Minister has stated his intent to instill greater transparency and 
accountability in government operations, reduce the debt and grow the 
economy, and improve citizen security. If confirmed, I am committed to 
working with the Bahamian government to address any corruption and 
strengthen democratic governance and rule of law in The Bahamas.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in the Bahamas?

    Answer. If confirmed, I would prioritize issues of good governance 
and anti-corruption in U.S. relations with The Bahamas. Prime Minister 
Minnis has made fighting corruption a key focus of his administration. 
Working with my Embassy team, I would draw on the expertise and 
resources of the U.S. government to support those efforts where 
appropriate. I would also work with civil society and the private 
sector to promote transparency and good governance and ensure the U.S. 
Embassy's programs and actions support strong democratic institutions, 
rule of law, free press, and respect for government transparency and 
accountability.

    Question. I have long advocated for more strategic U.S. diplomatic 
engagement in the Caribbean. The region is geographically close to the 
United States and share so many of our values. It is unacceptable that 
so many have become susceptible to outside foreign interests and vote 
against the United States and its partners in multilateral fora. If 
confirmed, how would you help to ensure a closer U.S.-Bahamas 
partnership?

    Answer. The United States and The Bahamas enjoy a deep, broad 
relationship driven by geographic proximity as well as social, 
economic, and cultural ties that enable close cooperation and make The 
Bahamas one of our most enduring partners in the Western Hemisphere. 
This partnership includes promoting our shared values throughout the 
region on important U.S. policy priorities such as Venezuela and 
Nicaragua. If confirmed, I would consult with experts in the 
Department, in the U.S. interagency community, and this committee on 
additional ways to advance key U.S. priorities for the bilateral 
relationship. I would also engage with the U.S. private sector and the 
Bahamian diaspora to build and strengthen those bilateral ties. I would 
also consult with my Embassy team to implement the integrated country 
strategy, promote U.S. goals, and draw on my knowledge of the country 
to engage with the government and the people.

    Question. How would you engage with your fellow chiefs of mission 
in other Caribbean island nations as part of a concerted effort to 
engage the region?

    Answer. As I understand it, under the new U.S.-Caribbean Resilience 
Partnership the Department launched a few months ago, the U.S.--
Caribbean 2020 Strategy, the Caribbean Basin Security Initiative 
(CBSI), and multiple other U.S. lines of effort, the United States is 
deepening its engagement across the Caribbean on both bilateral and 
regional issues. I would support those efforts and coordinate with my 
fellow Chiefs of Mission to help promote and implement issues jointly 
as appropriate. The new U.S.-Caribbean Resilience Partnership offers 
opportunities to collaborate closely across U.S. embassies in the 
Caribbean, as does the security-focused Caribbean Basin security 
initiative. I would also work to support The Bahamas as a leader in 
CARICOM to advance our shared foreign policy priorities and address 
challenges in the region.

    Question. The Bahamas faces high levels of insecurity that pose a 
risk to the United States by facilitating drug trafficking and a direct 
threat to the safety of millions of American visitors every year. What 
is your assessment of the Caribbean Basin Security Initiative (CBSI), 
our primary program for addressing regional citizen security?

    Answer. It is my understanding that the United States has advanced 
U.S. security priorities in the Caribbean through the Caribbean Basin 
Security Initiative (CBSI) since 2010. CBSI has provided more than $600 
million in foreign assistance programming to counter the flow of 
narcotics, combat transnational criminal organizations, strengthen 
judicial systems, and engage in crime and violence prevention programs 
targeting at-risk youth and their communities. A key way to counter 
organized crime is to go after the assets of Transnational Criminal 
Organizations (TCOs). An example of a successful CBSI multinational 
interdiction effort is Operation Bahamas, Turks & Caicos (OPBAT), in 
which U.S. and local law enforcement have worked together to increase 
interdictions by 755% in FY2019, compared to that seized in all of 
FY2018. Programs and engagement under CBSI work in concert with efforts 
to increase engagement with the region. The government Accountability 
Office issued a review of CBSI in early 2019 that called for increased 
monitoring and evaluation (M&E) of CBSI programs. If confirmed, I would 
work closely with the Embassy team to ensure CBSI programs are as 
effective as possible, that M&E is coordinated among all U.S. agencies 
working in this space to achieve sustainable results, and that CBSI 
efforts are connected with increased U.S. engagement in the region.

    Question. What adjustments, if any, need to be made to CBSI's 
implementation in the Bahamas?

    Answer. It is my understanding that through CBSI in the Bahamas, we 
have strengthened our mutual national security and increased citizen 
security through programs that have effectively worked to dismantle 
transnational criminal and terrorist organizations, curb the 
trafficking and smuggling of illicit goods and people, strengthen the 
rule of law, improve citizen security, and counter vulnerability to 
terrorist threats. It is also my understanding that CBSI in the Bahamas 
has worked to professionalize the Royal Bahamas Police Force (RBPF) and 
Royal Bahamas Defense Force (RBDF) so that they are better able to 
prevent, disrupt, and dismantle violent and transnational criminal 
activity, particularly via OPBAT. In particular, as I understand it, 
U.S. assistance through CBSI has grown the capacity of the RBPF Marine 
Support Services Unit (MSSU), Canine Unit (K-9), and Drug Enforcement 
Unit (DEU), and Firearms Tracing and Investigation Unit (FTIU) to stem 
the flow of trafficking through The Bahamas, enhance citizen security, 
and improve security along the United States' ``Third Border.'' CBSI 
has also funded Foreign Military Financing (FMF) projects with the RBDF 
to enhance maritime domain awareness, long range communications, and 
maintenance to improve interoperability and combined operations with 
U.S. forces in the region. While I will want to assess these efforts 
personally if confirmed, I do plan to prioritize ensuring that all U.S. 
programs in the Bahamas are effective in meeting U.S. interests.

    Question. How would you utilize your position and the Embassy's 
resources to improve citizen security?

    Answer. If confirmed, I will prioritize cooperation with The 
Bahamas on efforts to strengthen citizen security, promote social and 
economic development, and reduce illicit trafficking and other 
transnational crime because a safer Bahamas makes the United States 
more secure. If confirmed, I do plan to prioritize ensuring that all 
U.S. programs in the Bahamas are effective in meeting U.S. interests, 
including those focused on improving citizen security.

    Question. As many as 80,000 Haitians currently reside in the 
Bahamas given the poor economic and security circumstances in Haiti. 
What is the Bahamian government's ability to address these high 
migration figures?

    Answer. It is my understanding that irregular migration has long 
been among The Bahamas' highest national priorities, particularly given 
the large number of Haitians living there without legal status. 
Interdictions of nationals from other countries such as Cuba, China, 
and the Dominican Republic occur as well. An estimated 60-80,000 
Haitians live in The Bahamas, many of them without legal status. The 
Bahamas views the magnitude of Haitian migration as a crisis given its 
population of 351,000. The Bahamas has partnered with the United States 
to deal effectively with such large migrant flows, taken steps to 
regularize the status of certain Haitian migrants, and provided due 
process to those newly interdicted. The government has also reached out 
to international organizations for assistance in providing humanitarian 
services to migrants after they arrive. If confirmed, I commit to 
working with the Bahamian government and international organizations to 
address this issue.

    Question. What is your assessment of the current migration trends? 
Do you expect the numbers to continue to rise?

    Answer. It is my understanding that addressing irregular migration 
has long been among The Bahamas' highest national priorities given the 
relatively large number of migrants traveling to and through The 
Bahamas. The majority of these migrants are Haitian although 
interdictions of nationals from other countries such as Cuba, China, 
and the Dominican Republic occur as well. From December 2018 to 
February 2019, there was a surge in Haitian migration there illegally, 
and further flows from Haiti will depend on the political and economic 
situation in Haiti. An estimated 60-80,000 Haitians live in The 
Bahamas, many of them without legal status. Other countries in the 
Caribbean have seen increased Venezuelan migrant flows; however, this 
has not been the case in The Bahamas.

    Question. If confirmed, how would you work with the Bahamian 
government to address these migration flows and ensure adequate 
protections for those Haitians already in the Bahamas?

    Answer. It is my understanding that addressing irregular migration 
has long been among The Bahamas' highest national priorities given the 
relatively large number of migrants traveling to and through The 
Bahamas. The Minnis government is taking steps to regularize the status 
of certain Haitian migrants while providing both humanitarian services 
and due process to those newly interdicted. If confirmed, I commit to 
working with The Bahamas and international organizations, such as the 
International Organization for Migration and the U.N. High Commissioner 
for Refugees in this effort, as well as continue our strong cooperation 
under Operation Bahamas Turks & Caicos (OPBAT). Since October 2018, our 
joint forces interdicted 41 migrant sea vessels, resulting in the 
repatriation of over 1,700 migrants there.

    Question. Millions of Americans visit the Bahamas every year and 
the mission you would be running would be responsible for providing a 
range of consular services to the many visitors who find themselves in 
need of assistance. How has your experience helped prepare you for this 
major responsibility?

    Answer. Given my long experience in the hospitality and tourism 
business, I am well prepared to lead the U.S. Embassy team to ensure 
the safety and security of American citizens visiting The Bahamas. The 
Bahamas is one of the top overseas tourist destinations for U.S. 
citizens with over six million Americans visiting The Bahamas in 2018 
mostly by cruise ship. Estimates are similar for 2019. Nassau is one of 
the busiest cruise ship ports in the world. I understand the Embassy is 
in direct communication with the shipping agents and cruise ship 
companies about safety and security concerns of U.S. citizens on those 
ships. Embassy consular officers also work with the Bahamian government 
to provide services to incarcerated U.S. citizens. If confirmed, I 
would make the Mission's top priority the safety and security of the 
large numbers of U.S. citizens traveling through or residing in The 
Bahamas.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Douglas Manchester by Senator Jeanne Shaheen

    Question. In September 2017, President Trump designated The Bahamas 
as a major illicit drug producing and money laundering country due to 
its role as a significant transshipment point for illicit drugs bound 
for the U.S. I appreciate that there appears to be strong political 
will within the government of The Bahamas to tackle drug trafficking an 
organized crime, and U.S. law enforcement agencies have worked closely 
with their counterparts in The Bahamas to target trafficking 
organizations. If confirmed as Ambassador, how will you use the post to 
facilitate the continued coordination between U.S. and Bahamian 
agencies and officials, including the use of U.S. financial and 
technical assistance?
    Answer. Although Volume I of the 2019 Money Laundering and 
Financial Crimes Report lists The Bahamas as a major illicit drug 
producing and money laundering country, its inclusion on the Majors 
List is not necessarily a reflection of the Bahamian government's 
counternarcotics efforts or level of cooperation with the United 
States. The Bahamas remains one of our most enduring partners in the 
Western Hemisphere, especially in our efforts to counter illicit 
trafficking to the United States.
    Anti-money laundering and counter terrorist financing (AML/CFT) has 
been a priority for the Bahamian government as it works to come off the 
Financial Action Task Force's gray-list in October 2019 and generally 
meet international standards. If confirmed, I will build on the 
Embassy's strong relationships with the Bank Supervision Department of 
the Central Bank of The Bahamas, the Financial Investigations Unit, and 
the Identified Risk Framework (IRF) Steering Committee, all government 
institutions that focus on AML/CFT, as well as the Bahamas Financial 
Services Board, an independent association of local financial 
institutions, including foreign companies with Bahamian operations, to 
monitor AML/CFT, identify areas for technical assistance, and convey 
U.S. expectations and requirements.
    It is my understanding that through the Caribbean Basin Security 
Initiative (CBSI), we cooperate closely with The Bahamas to counter the 
flow of narcotics, combat transnational criminal organizations, 
strengthen judicial systems, and engage in crime and violence 
prevention programs targeting at-risk youth and their communities. An 
example of a successful CBSI multinational interdiction effort is 
Operation Bahamas, Turks & Caicos (OPBAT), in which U.S. and local law 
enforcement have worked together to increase interdictions by 755% in 
FY 2019, compared to that seized in all of FY 2018.
    If confirmed, I will prioritize these programs and coordinate 
closely with the Department of Treasury, the private sector, and other 
agencies and regulatory bodies to provide U.S. financial and technical 
assistance to Bahamian institutions that combat drug trafficking and 
money laundering in the country.


    Question. Do you have any concerns about the use of financial 
institutions in the Bahamas to launder money related to drug-
trafficking?

    Answer. As noted in Volume II of the 2019 Money Laundering and 
Financial Crimes Report, due to its proximity to Florida, The Bahamas 
remains a transit point for trafficking in illegal drugs, firearms, and 
persons to and from the United States. Money may be laundered through 
purchase of real estate, as well as through Designated Non-Financial 
Businesses or Professions. As an international financial center, the 
country is also vulnerable to money laundering through financial 
service companies.
    In 2018, The Bahamas took significant steps toward strengthening 
identified Anti-Money Laundering (AML) deficiencies. The government 
passed an enhanced Financial Transactions Reporting Act strengthening 
rules, procedures, and risk assessment obligations for financial 
institutions and Designated Non-Financial Businesses or Professions. An 
enhanced Proceeds of Crime Act introduced unexplained wealth orders and 
non-conviction-based forfeiture, while a comprehensive Anti-Terrorism 
Act addresses terrorist financing and proliferation. However, The 
Bahamas needs to address recognized deficiencies in its AML/CFT regime 
by demonstrating risk-based supervision of non-bank financial 
institutions and ensuring timely access to adequate beneficial 
ownership information. If confirmed, I will work with relevant U.S. 
government departments and agencies, the private sector, and the 
Bahamian government to make progress in these areas and advance key 
U.S. priorities.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Adrian Zuckerman by Senator Robert Menendez

    Question. American businesses have faced serious challenges in 
Romania. I appreciate that during your hearing you committed to making 
this issue your highest priority if confirmed. What specific steps will 
you take to encourage the Romanian government to create a fair 
environment for U.S. businesses if confirmed?

    Answer. If confirmed, I will coordinate with the relevant agencies 
in Washington to advocate for a fair, expeditious, and transparent 
resolution of the existing or future concerns of U.S. companies, as 
appropriate. I will also work closely and diligently with the business 
community to ensure that Romania complies with its bilateral and 
multilateral trade obligations, and to minimize market access problems 
affecting U.S. firms. If confirmed, I will encourage Romania to 
implement policies and practices to improve its business and investment 
climate and foster a stronger environment for entrepreneurship and 
innovation.

    Question. In April when Romania proposed emergency decrees that 
would have made it harder to tackle corruption and undermined the 
judicial system, the U.S. Embassy in Bucharest issued a joint statement 
with 11 other embassies urging Romania not to enact the decrees. I 
would expect that as Ambassador, you would take a similar action in 
such a situation. If confirmed, do you commit to doing everything in 
your power to oppose efforts, such as those decrees, that would 
undermine the rule of law in Romania?

    Answer. Recent legislative amendments and emergency ordinances 
issued by the Romanian government threaten the independence of the 
judiciary and have prompted widespread protests by members of the 
public and magistrates. The National Anticorruption Directorate is 
unable to effectively pursue prosecutions against corrupt officials. If 
confirmed, I will seek to strengthen Romania's democratic institutions 
and support Romania's progress in fighting corruption.

    Question. What specific steps will you take, if confirmed, to 
support rule of law and anti-corruption efforts in Romania? What would 
you hope to accomplish through these actions?

    Answer. If confirmed, supporting Romania's progress on fighting 
corruption and supporting rule of law will be among my top priorities. 
Fighting corruption and supporting judicial independence are vital to 
the region's long-term prosperity and security as well as to the 
extraordinary law enforcement and security cooperation between the 
United States and Romania. I will support Romania's efforts to fight 
corruption and strengthen its democratic institutions through my 
advocacy, as well as a whole-of-Mission approach that encompasses our 
law enforcement programs, security cooperation and other assistance, 
and Mission Bucharest's cooperation with Romania's anticorruption 
institutions. If confirmed, I will continue to pay close attention to 
developments in areas such as court reform, criminal code reform, and 
media legislation. I will also continue to coordinate closely with our 
partners in the international community to help strengthen democratic 
institutions and the rule of law.

    Question. On August 22, 2018, President Trump's personal lawyer, 
Rudy Giuliani, sent a letter to Romania's president, Klaus Iohannis, 
criticizing Romania's National Anticorruption Directorate (DNA) and 
supporting amnesty for individuals who had been prosecuted and 
convicted by the DNA. Mr. Giuliani sent his letter less than two months 
after the U.S. Embassy in Romania published a joint statement declaring 
that ``Romania has shown considerable progress in combatting corruption 
and building effective rule of law.'' Do you believe it is proper for 
individuals who represent President Trump in his personal capacity to 
publicly oppose U.S. foreign policy in Romania, or any other country?

    Answer. The United States is concerned about the deterioration of 
rule of law in Romania. If confirmed, I will support Romania's efforts 
to fight corruption and strengthen its democratic institutions through 
my advocacy, as well as a whole-of-Mission approach that encompasses 
our law enforcement programs, security cooperation and other 
assistance, and Mission Bucharest's cooperation with Romania's 
anticorruption institutions. The U.S. government, as a general matter, 
does not endorse or support the views or conclusions of private 
citizens.

    Question. If confirmed as Ambassador, would you make a point in 
such a situation to publicly state that the views of individuals who 
represent President Trump in his personal capacity do not reflect the 
views of the U.S. government?

    Answer. As a general matter, the U.S. government does not endorse 
or support the views or conclusions of private citizens. If confirmed, 
it is my role to represent the American people and advance the U.S. 
government's policy in Romania.

    Question. If confirmed as Ambassador, would you direct or allow 
U.S. Embassy staff to provide support to individuals who represent 
President Trump in his personal capacity if they planned to travel to 
Romania?

    Answer. It is the role of U.S. embassies to assist private citizens 
traveling abroad in the event of an emergency or a need for routine 
assistance, but it is not the role of embassies to facilitate private 
citizens' personal travel outside of emergency situations.

    Question. Romania announced that it will auction off the frequency 
spectrum needed for 5G wireless networks in the fourth quarter of this 
year, and it will allow companies that use Huawei technology to 
participate. Romania is a member of NATO, and I am deeply concerned 
about the security implications of a company using Huawei technology 
winning this auction. If confirmed, how would you communicate the 
U.S.'s security concerns regarding Huawei to the Romanian government 
and urge them to reconsider allowing companies that use Huawei 
technology to potentially control their 5G frequency?

    Answer. The United States advocates for secure telecoms networks 
and supply chains that are free from suppliers that are subject to 
foreign government control or undue influence in order to reduce the 
risks of unauthorized access and malicious cyber activity. If 
confirmed, I will urge Romania, as a NATO ally, to consider such risks 
and exercise vigilance in ensuring the security of its own telecoms 
networks and supply chains. U.S. concerns related to the security and 
resiliency of 5G systems are applicable to any supplier or vendor that 
is subject to inappropriate influence or that has a demonstrated record 
of malign or deceptive behavior. In making decisions on suppliers or 
vendors for 5G systems, all countries, including Romania, should take 
prior behavior into account. I will make this a top priority consistent 
with the Administration's position.

    Question. I understand that in recent years that American companies 
and business people have expressed concern about the rule of law and 
due process in Romania. This, combined with ongoing corruption concerns 
in the country, only serve to diminish U.S. business investment and 
engagement with Romania. Are you familiar with these concerns?

    Answer. I am aware of concerns about respect for rule of law in 
Romania. If confirmed, I would be an advocate for anti-corruption, 
transparency, and good governance efforts that increase public 
confidence in democratic institutions and the rule of law. If I am 
confirmed as ambassador, assisting U.S. businesses in Romania will be a 
top priority for me.

    Question. What will you do to encourage the Romanian government to 
create a fair environment for U.S. businesses?

    Answer. If confirmed, I will be personally involved in advocating 
and supporting our companies to promote prosperity for the American 
people. Developing the economic dimension of the U.S.-Romania Strategic 
Partnership is a key priority. Business plays an important role in 
advancing our partnership. I also will encourage and promote Romania's 
efforts to foster a more investment-friendly and transparent business 
climate that will help Romania prosper and provide a predictable and 
legally sound environment in which U.S. companies may operate. 
Additionally, I will work to promote U.S. values related to 
entrepreneurship and innovation.

    Question. Mr. Zuckerman, in 2008, you were sued for sexual 
harassment by a legal secretary at your former firm. A number of the 
claims are very disturbing. The case was settled in 2009, and I 
understand you maintain the claims are false, but they are a matter of 
public record and I would like to you ask you a few questions related 
to that. Have you ever engaged in any inappropriate discussions or 
behavior with any women that you have worked with, such as showing 
pictures of women that are not fully clothed, or joking about someone 
carrying your child?

    Answer. I have never engaged in any inappropriate discussions or 
behavior with any women that I have worked with, such as showing 
pictures of women that are not fully clothed, or joking about someone 
carrying my child.

    Question. Do you think that type of behavior is appropriate in a 
work setting?

    Answer. I do not think that type of behavior is appropriate in a 
work setting.

    Question. Would you have any objection to Diplomatic Security or 
the FBI examining this matter prior to your committee vote?

    Answer. I do not have any objection to Diplomatic Security or the 
FBI examining this matter prior to my committee vote.

    Question. Does the settlement agreement in the sexual harassment 
lawsuit include a confidentiality provision that would prevent the 
plaintiff from speaking to the committee and/or discussing the case 
publicly? If yes, will you agree to waive that provision in writing 
prior to the committee vote?

    Answer. Yes. Yes, I agree to waive that provision in writing prior 
to the committee vote.

    Question. Has anyone, other than the plaintiff in that case, ever 
told you that you have engaged in inappropriate behavior or made them 
feel uncomfortable in the workplace?

    Answer. No.

    Question. Have you engaged in any other behavior in the workplace 
that may be viewed as unacceptable?

    Answer. No.

    Question. Have you entered into any other settlements, other than 
the 2009 settlement I mentioned, regarding any claims of sexual 
harassment, workplace discrimination, or inappropriate conduct against 
you?

    Answer. No.

    Question. Do you commit to respond promptly to all requests for 
information by Members of this committee?

    Answer. Yes, I will work promptly through the Department's Bureau 
of Legislative Affairs to respond to Congressional requests.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, I commit to appear before this committee upon request.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. I commit to comply with all relevant federal laws, 
regulations, and rules, including with regard to waste, fraud, and 
abuse, and to raise concerns that I may have through appropriate 
channels.

    Question. Please list any outside positions and affiliations you 
plan to continue to hold during your term of appointment.

    Answer. Except for maintaining my bar admissions to the Courts of 
the State of New York, Federal Courts for the Eastern and Southern 
District of New York, Second Circuit Court of Appeals and Supreme Court 
of the United States, I will not hold any outside positions and 
affiliations if confirmed.

    Question. Have you ever been an officer or director of a company 
that has filed for bankruptcy? If so, describe the circumstances and 
disposition.

    Answer. No.

    Question. If you leave this position before the completion of your 
full term of the next presidential election, do you commit to meeting 
with the committee to discuss the reasons for your departure?

    Answer. Yes.

    Question. Other than the claims referred to above, has anyone ever 
made a formal or informal complaint or allegation of sexual harassment, 
discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct against you, in a workplace or any other setting? 
If so, please describe the nature of the complaint or allegation, your 
response, and any resolution, including any settlements.

    Answer. No.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. No.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. I believe, as Secretary Pompeo has outlined in his policy 
on diversity and equal employment opportunity, that all employees 
should work in a professional, supportive, and teamwork-oriented 
community where everyone can contribute to the mission. The workplace 
should be an environment of civility and respect. If confirmed, I would 
hold myself and all U.S. Embassy staff accountable to uphold equal 
employment opportunity principles by promoting fairness, equity, and 
inclusion in the workplace and to help ensure a workplace free of 
discrimination and bullying. I would not tolerate retaliation and other 
prohibited personnel practices.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Adrian Zuckerman by Senator Benjamin L. Cardin

    Question.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. In my over thirty years of legal practice, I have 
represented corporate and individual clients in a wide variety of 
transactional and civil litigation matters. The fair, transparent, and 
impartial administration of justice in all legal matters is a bedrock 
of democracy. In 2017, I chaired the Democratic Party civil court 
judicial screening committee for the 18th judicial district in New York 
City--I am proud to say that I was able to guide the twelve-member 
panel representing the diverse constituencies of New York City to 
achieve unanimity in its recommendations. To promote human rights, I 
represented various clients on a pro bono basis. Among those was a 
Jewish congregation I represented in the purchase of a building to be 
used as its synagogue and community center and a Korean religious group 
I represented against efforts of having it evicted from the space it 
used for church/religious purposes as a result of neighborhood 
residents alleging various violations of zoning and land use laws and 
regulations. I have also supported various charitable causes. I was a 
member of the board of Kids' Corp. which provided support to Newark, NJ 
underprivileged children to stay in school by providing books, 
tutoring, clothes, medical care, and summer camp programs.


    Question.  What are the most pressing human rights issues in 
Romania? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Romania? What do 
you hope to accomplish through these actions?

    Answer. Among the challenges Romania faces, according to the State 
Department's annual Human Rights and International Religious Freedom 
Reports, are endemic official corruption, police violence against the 
Roma, and Holocaust-era restitution issues. Romania has established a 
working group made up of the local Jewish community, World Jewish 
Restitution Organization, and the government, under the leadership of 
the Secretary General of the government, to make progress on pensions 
for Holocaust survivors and the resolution of private properties, 
communal properties and conduct research into heirless property. In 
addition, trafficking in persons is also of great concern, as Romania 
was downgraded to Tier 2 Watch List in the 2019 Trafficking in Persons 
Report. If confirmed, I will support Romania's efforts to fight 
corruption, protect members of vulnerable minorities, and strengthen 
its democratic institutions and urge that Romania resolve its remaining 
restitution issues. I will also work with the government to combat and 
prevent trafficking in persons.


    Question.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Romania in 
advancing human rights, civil society and democracy in general?

    Answer. Romania and the United States share common values, 
including the importance of respecting human rights and supporting 
democracy. The country has a diverse and active civil society, with 
independent groups that report and advocate on the issues they care 
about around the country. If confirmed, I will continue the U.S. 
Embassy's regular engagement with these groups on some of the most 
pressing issues, and I will continue our work with Romania to ensure 
the coordination of our efforts on promoting tolerance through civil 
society empowerment and coalition building. By ensuring that we keep 
lines of communication open, we will maximize our joint impact on this 
and other challenges.


    Question.  Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Romania? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I am committed to sustaining engagement with 
a broad spectrum of civil society in Romania, including human rights 
activists and religious groups and the organizations that represent 
them. I will also make sure the Embassy follows all appropriate laws 
and regulations to ensure compliance with the Leahy law.


    Question.  Will you and your embassy team actively engage with 
Romania to address cases of key political prisoners or persons 
otherwise unjustly targeted by Romania?

    Answer. The State Department's 2018 Human Rights Report states that 
there were no reports of political prisoners in Romania.


    Question.  Will you engage with Romania on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I am committed to sustaining engagement with 
a broad spectrum of civil society in Romania, including human rights 
activists and religious groups, and the organizations that represent 
them.


    Question.  Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.


    Question.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.


    Question.  Do you or do any members of your immediate family have 
any financial interests in Romania?

    Answer. My investment portfolio includes interests in diversified 
mutual funds which may hold an interest in companies with a presence in 
Romania, but which are exempt from the conflict of interest laws by 
regulation. My investment portfolio also includes a security interest 
in a company that has a presence in Romania. If confirmed, I have 
already undertaken that I will divest of this interest. I am committed 
to ensuring that my official actions will not give rise to a conflict 
of interest. I will divest all investments the State Department Ethics 
Office deems necessary to avoid a conflict of interest, and I will 
remain vigilant with regard to my ethics obligations.


    Question.  Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed I will implement the same principles of 
diversity, inclusivity, and respect that I have put into place during 
my over thirty years of law practice and civic engagement. I have 
worked with and enjoyed the support of people of different ethnic 
groups, different genders and different gender identities, various ages 
and various seniorities throughout my professional life. I will 
continue to emphasize teamwork, implement a set of values that applies 
to all, and seek to recruit staff that reflects a priority on diversity 
and inclusivity.


    Question.  What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will work diligently to make sure that all 
people working in the embassy are treated with respect, civility and 
dignity. I believe, as Secretary Pompeo has outlined in his policy on 
diversity and equal employment opportunity, that all employees should 
work in a professional, supportive, and teamwork-oriented community 
where everyone can contribute to the mission. I will work with 
supervisors, as well as with the rest of our team, to create an 
environment that is inclusive for all. All staff regardless of 
seniority will enjoy an inclusive work environment that complies with 
our shared values and expectations.


    Question.  How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Romania 
specifically?

    Answer. Despite numerous high-profile prosecutions of officials for 
corruption, corrupt practices remain widespread in Romania. Bribery is 
common in the public sector, especially in health care. Corruption is 
widespread in public procurement. Laws were not always implemented 
effectively, and officials sometimes engaged in corrupt practices with 
impunity. Verdicts in corruption cases were often inconsistent, with 
sentences varying widely for similar offenses. Enforcement of court 
procedures lagged mostly due to procedural and administrative problems, 
especially with respect to asset forfeiture.


    Question.  What is your assessment of corruption trends in Romania 
and efforts to address and reduce it by that government?

    Answer. The United States is concerned about the deterioration of 
rule of law in Romania. Recent executive orders by the current 
administration in Romania have threatened the independence of the 
judiciary and prompted widespread protests by members of the public and 
magistrates. The National Anticorruption Directorate is unable to 
pursue effectively prosecutions against corrupt officials. If 
confirmed, I will seek to strengthen Romania's democratic institutions 
and support Romania's progress in fighting corruption.


    Question.  If confirmed, what steps will you take to strengthen 
good governance and anticorruption programming in Romania?

    Answer. If confirmed, supporting Romania's progress on fighting 
corruption and supporting rule of law will be among my top priorities. 
Fighting corruption and supporting judicial independence are vital to 
the region's long-term prosperity and security as well as to the 
extraordinary law enforcement and security cooperation between the 
United States and Romania. I will support Romania's efforts to fight 
corruption and strengthen its democratic institutions through my 
advocacy, as well as a whole of Mission approach that encompasses our 
law enforcement programs, security cooperation and other assistance, 
and Mission Bucharest's cooperation with Romania's anticorruption 
institutions. If confirmed, I will continue to pay close attention to 
developments in areas such as court reform, criminal code reform, and 
media legislation. I also will encourage and promote Romania's efforts 
to foster a more investment-friendly and transparent business climate 
that will help Romania prosper and provide a predictable and legally 
sound environment in which U.S. companies may operate.


    Question.  In early 2017 and again in the summer of 2018, the 
Romanian government faced large public protests against legislative 
proposals to decriminalize corruption offenses and possibly constrain 
the independence of the judiciary. How do you assess the judicial 
reforms being pursued by the current government?

    Answer. Recent executive orders by the current administration in 
Romania have threatened the independence of the judiciary and prompted 
widespread protests by members of the public and magistrates. The 
National Anticorruption Directorate is unable to pursue effectively 
prosecutions against corrupt officials. If confirmed, I will seek to 
strengthen Romania's democratic institutions and support Romania's 
progress in fighting corruption.


    Question.  What steps, if any, is the Trump Administration taking 
to support the rule of law and judicial independence in Romania?

    Answer. The U.S. government supports Romania's efforts to fight 
corruption and strengthen its democratic institutions through advocacy, 
as well as a whole of Mission approach that encompasses law enforcement 
programs, security cooperation, and other assistance, and Mission 
Bucharest works in cooperation with Romania's anticorruption 
institutions. If confirmed, I will continue to pay close attention to 
developments in areas such as court reform, criminal code reform, and 
media legislation.


    Question.  If confirmed, how would you advance ongoing efforts to 
support the rule of law and judicial independence in Romania?

    Answer. If confirmed, supporting Romania's progress on fighting 
corruption and supporting rule of law will be among my top priorities. 
Fighting corruption and supporting judicial independence are vital to 
the region's long-term prosperity and security as well as to the 
extraordinary law enforcement and security cooperation between the 
United States and Romania.


    Question.  Romania has the largest Romani minority of any country 
in the EU and Roma are the largest minority in Romania. Many American 
Roma trace their roots to Romania. If confirmed, will you maintain 
robust engagement with Romani civil society and elected officials in 
Romania?

    Answer. Embassy Bucharest has played an active role in promoting 
Roma rights and showing our support for the community, and if 
confirmed, I will ensure that the Embassy continues this work. 
Marginalization of the Roma minority remains among the most pressing 
human rights concerns in Romania. In Romania and elsewhere, the United 
States calls on governments to take steps to combat intolerance against 
the Roma and other marginalized groups and enable their full 
participation in civic and economic life, as doing so promotes 
stability and democracy.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Adrian Zuckerman by Senator Jeanne Shaheen

    Question. How has Russia been using different forms of soft power 
in Romania and the region and how have these efforts been working 
against the priorities of the United States and its allies?

    Answer. Russia uses disinformation and other malign tactics in 
Romania to exploit historical and cultural ties, which include similar 
eastern Orthodox Christian traditions. Russia also exploits official 
corruption accompanying political unrest within Romania to erode 
Romanian citizens' confidence in democratic institutions as well as the 
progress Romania has made as a member of the Transatlantic community.
    Our Embassy in Bucharest works closely with Washington and other 
embassies throughout the region to counter Russian destabilization 
efforts. If confirmed, I will engage with civil society and government 
counterparts to counter disinformation and malign propaganda in 
Romania. I also will continue to highlight the shared values, history, 
and experiences that unite the American and Romanian people.

    Question. What do you think are the most vulnerable sectors of 
Romanian society to Russian influence and meddling?

    Answer. Romania's view of Russia has been shaped by history. 
Repeated Russian incursions into historically Romanian territory 
throughout the past 200 years have left many Romanians wary of Russia. 
The imposition of the communist regime upon Romania after World War II 
continues to inform Romanian perceptions about Russia's malign role in 
the region. In general, Romanians view Russia as their greatest threat. 
Romania seeks to cooperate with Russia where it can, especially given 
that the two countries share a maritime border, the Black Sea. Romania 
remains highly skeptical of Russian intentions, however, especially of 
the Russian military buildup in Crimea.
    One potential vulnerability for Romania, remains endemic 
corruption. Corruption erodes public confidence in democratic 
institutions and poses a serious challenge to the rule of law and could 
open the door for malevolent actors like enemy states, terrorists, and 
organized criminal elements to influence Romanian decision makers. If I 
am confirmed, I will make it a top priority to continue the Embassy's 
strong support for Romania's anti-corruption initiatives and encourage 
Romanian leaders to undertake reforms in a transparent manner.
    Additionally, Russia's efforts encompass a suite of ``hybrid'' 
tools used to gain influence. Disinformation poses problems throughout 
the world: its origins are often hard to trace, affording a degree of 
deniability. We have seen disinformation that questions the motives 
behind the presence of U.S. and NATO troops in Romania and suggests 
that American troops somehow endanger Romania. We have also seen 
disinformation that tries to sow distrust between Romania and its 
neighbors, especially between Romania and ethnic Hungarians living in 
Transylvania.

    Question. In your written testimony, you note both the progress 
that has been made in Romania in the last 30 years as well as what 
still needs to be done. You mention fighting corruption, creating a 
business-friendly environment, investing in infrastructure, health and 
education and strengthening public administration. But last October, 
Romania held a failed referendum to essentially ban gay marriage, which 
I find very concerning. If confirmed, will you use your post to support 
civil society in Romania, including same-sex advocacy groups? Will you 
fully support LGBTI staff who work for you at the Embassy in Bucharest?

    Answer. If confirmed, I am committed to sustaining engagement with 
a broad spectrum of civil society in Romania. I am also committed to 
using my position, if confirmed, to defend the human rights and dignity 
of all people in Romania, no matter their sexual orientation or gender 
identity. While Romanian law prohibits discrimination based on sexual 
orientation, there is still societal discrimination. If confirmed, I 
will pay close attention to developments in this sector and I am 
prepared to speak privately--and publicly if necessary--about the 
importance of human rights and dignity of all people in Romania, no 
matter their sexual orientation or gender identity.
    Yes, I will fully support LGBTI staff. I believe, as Secretary 
Pompeo has outlined in his policy on diversity and equal employment 
opportunity, that all employees should work in a professional, 
supportive, and teamwork-oriented community where everyone can 
contribute to the mission. The workplace should be an environment of 
civility and respect. If confirmed, I would hold myself and all U.S. 
Embassy staff accountable to uphold equal employment opportunity 
principles by promoting fairness, equity, and inclusion in the 
workplace and to help ensure a workplace free of discrimination and 
bullying.

    Question. Romania joined NATO in 2004 along with six other 
countries from Eastern and Central Europe. This round of enlargement 
brought into NATO several of the smallest members of the Alliance-both 
geographically and in terms of military capability. What has NATO 
membership meant for Romania in the fifteen years since it joined the 
Alliance?

    Answer. Romania is a reliable NATO Ally that bears its fair share 
of NATO's defense burden, contributing to the strength and security of 
the Alliance. Along with the U.S.-Romania bilateral security 
partnership and membership in the European Union, NATO membership is 
one of the three pillars of Romanian foreign policy and has provided 
the country with enhanced security, opportunities for multilateral 
engagement and cooperation, and greatly strengthened its military 
modernization and procurement programs. Romania fully supports U.S. and 
NATO actions to bolster collective defense in Eastern Europe, and it is 
doing its part as well. In 2018 the Romanian Parliament budgeted 2 
percent of its estimated GDP to defense. Of this money, more than 34 
percent went to buying new military equipment, much of it from American 
companies. Romania leads NATO's tailored Forward Presence (tFP) 
initiatives to protect the southeast flank. tFP efforts include a 
Multinational Brigade, a Combined Joint Enhanced Training Center, and 
enhanced Air Policing activities in the Black Sea region. Romania's 
involvement in the Bucharest Nine, an effort by Eastern Flank countries 
to coordinate policies and priorities to be more effective members of 
NATO, reaffirms Romania's commitment to NATO. Romania has undertaken an 
ambitious multi-year, multi-billion dollar defense modernization 
program across all of its services. This modernization program reflects 
Romania's commitment to share defense burdens and enhance NATO 
capabilities.

    Question. How should NATO's experience with the 2004 enlargement 
not only inform our evaluation of North Macedonia but also other 
potential candidates in the Balkans or Eastern Europe?

    Answer. Since its founding in 1949, NATO's membership has increased 
from 12 to 29 countries through seven rounds of enlargement. The 2004 
round of enlargement included Bulgaria, Estonia, Latvia, Lithuania, 
Romania, Slovakia, and Slovenia, and it demonstrated that NATO's door 
is open to European democracies that can meet NATO's high standards and 
contribute to our common security. Since that time, Romania has been an 
active and engaged Ally that has contributed to the strength and 
security of the Alliance.
    The invitation to North Macedonia illustrates that NATO's Open Door 
policy remains strong and will inspire other countries to undertake the 
reforms and commitments necessary to enhance domestic and regional 
stability. North Macedonia's membership in the Alliance will solidify 
two decades of positive momentum towards regional security in the heart 
of the Balkans, advance the Balkans towards Western integration, and 
help to ensure long-term self-sustaining stability in the region.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Richard Norland by Senator Robert Menendez

    Question. Libya's stability continues to deteriorate, with 
implications for regional security across the North Africa, the Middle 
East, and Southern Europe. General Haftar's advance on Tripoli against 
the internationally recognized government of National Accord has dealt 
a tremendous setback to U.N.-brokered peace talks while constant and 
ongoing violations of the U.N. arms embargo sustain the fighting. What 
are the prospects for a ceasefire and resumption of the U.N.-led 
political process? What compromises must each side make?

    Answer. If confirmed, I will support efforts to achieve an 
immediate ceasefire agreement and return to U.N. political mediation as 
soon as possible. U.N. Special Representative of the Secretary-General 
Ghassan Salame remains in contact with leaders on all sides of the 
conflict as he works toward a de-escalation of the violence. However, I 
am under no illusion that a ceasefire will be easy to achieve. The 
United States should continue to use its influence to get the parties 
back to the negotiating table and to ensure international unity in 
support of the U.N.'s efforts. Until negotiations have restarted, I 
believe it is prudent to refrain from prejudging the specific 
compromises each side will need to make.

    Question. What steps can the U.S. take to enforce the U.N. arms 
embargo on Libya?

    Answer. The United States supports Security Council Resolution 
2292, which provides vital authorities for member states to limit the 
destabilizing flows of arms to and from Libya. The Security Council 
renewed these authorities most recently in June 2019. If confirmed I 
would carefully consider how these authorities could be used to hold 
individuals responsible for arms embargo violations accountable.

    Question. Until recently, the U.S. was consistent in its support 
for the internationally recognized government of National Accord as 
well as the U.N.-brokered political process. However, that record was 
muddied by President Trump's April 15 telephone call with General 
Heftar, which appeared to embolden the General in his advance on 
Tripoli. Soon after that, the U.S. reportedly vetoed a U.K.-drafted 
U.N. Security Council Resolution calling for a ceasefire in Libya. What 
is the Administration's current approach to Libya?

    Answer. The United States did not veto a U.N. Security Council 
Resolution on Libya and, if confirmed, I would support U.S. engagement 
with partners on the Security Council to advance a Libyan peace 
process. Consistent with the longstanding approach of the United States 
with regard to Libya, the U.S. government engages with a range of 
Libyan leaders, including Prime Minister al-Sarraj and General Haftar, 
to press all parties to agree to a ceasefire and return to political 
mediation.

    Question. Is it still U.S. policy to back the GNA?

    Answer. There has been no change to U.S. policy with regard to 
recognition of the Libyan government of National Accord (GNA).

    Question. It appears the U.S. has not publicly called for a 
ceasefire since Secretary Pompeo's April 7 press statement. Why?

    Answer. In May 21 remarks at a U.N. Security Council briefing on 
the U.N. Support Mission in Libya (UNSMIL), Ambassador Jonathan Cohen, 
the Acting U.S. Permanent Representative to the United Nations, stated, 
``All parties should return to U.N. political mediation, the success of 
which depends upon a ceasefire in and around Tripoli.'' Ambassador 
Cohen made a similar statement on U.S. policy at a May 8 U.N. Security 
Council meeting on Libya and the International Criminal Court. Then-
Charge d'Affaires Ambassador Peter Bodde stated on May 23, ``I firmly 
believe that lasting peace and stability in Libya will only come 
through a political solution derived from an inclusive dialogue 
representing the perspectives and concerns of communities across Libya: 
North, South, East and West. The success of that dialogue will depend 
upon a ceasefire in and around Tripoli.'' I echoed this position in my 
own remarks to the Senate Foreign Relations Committee on June 20, and 
if confirmed would make achieving a ceasefire the principal task at 
hand.

    Question. Does the U.S. support a ceasefire and resumption of U.N.-
brokered talks in Libya

    Answer. Yes. The United States continues to make clear this 
position, in public and private.

    Question. The U.S. has not had a permanent presence in Libya since 
the assassination of Ambassador Christopher Stephens on September 11, 
2012. If confirmed, what steps will you take to increase U.S. 
diplomatic presence in Libya?

    Answer. The United States suspended Embassy operations in Tripoli 
in July 2014 due to significant fighting in the capital. If confirmed, 
my highest priority will be the safety and security of U.S. citizens, 
including U.S. government personnel. I am very mindful of my nomination 
for the position once held by Ambassador Stevens, who together with 
three colleagues gave his life in pursuit of U.S. efforts in Libya. The 
volatile security situation has thus far prevented the return of a 
permanent U.S. diplomatic presence in Libya. While the Libya External 
Office has conducted a number of ``daytrips'' into Libya, this lack of 
a permanent presence is a significant obstacle to achieving our foreign 
policy objectives there. If confirmed, I will work toward the 
reestablishment of a U.S. presence in Libya when security conditions 
allow.

    Question. What conditions are necessary in order to resume a 
permanent U.S. diplomatic presence in Tripoli?

    Answer. The most important factors in order to resume a permanent 
U.S. diplomatic presence in Tripoli are the security situation and the 
availability of adequate facilities. If confirmed, I will work closely 
with the Department's Bureaus of Diplomatic Security and Overseas 
Building Operations, among others, to determine appropriate steps that 
can be taken toward an eventual resumption of a permanent U.S. 
diplomatic presence in Libya.

    Question. Recognizing that diplomatic security must be a top 
priority for all our foreign service posts, what are the implications 
of not having a permanent U.S. presence?

    Answer. The Libya External Office in Tunis is advancing U.S. policy 
priorities in Libya, and its relationships with key Libyan political, 
commercial, and civil society leaders are strong. Nevertheless, the 
lack of a permanent U.S. diplomatic presence in Libya is a significant 
obstacle to the realization of U.S. foreign policy objectives in Libya. 
It is impossible to fully replicate the access to local leaders and 
citizens, influence, public diplomacy opportunities, and deep 
understanding of a country that an in-country diplomatic presence 
provides.

    Question. Regional actors have invested significant resources in 
support of various political actors and militias across the country, 
sometimes at cross-purposes with United States efforts. Given the 
current constraints on our diplomatic presence in Libya, how will you 
engage with all Libyan and regional stakeholders, specifically Egypt, 
the United Arab Emirates, and Qatar?

    Answer. Senior Department officials are engaging with a range of 
international partners to press them to support a de-escalation of the 
conflict, including a ceasefire, and the establishment of the 
conditions necessary for a return to the political process. If 
confirmed, I will continue this work through direct engagement with the 
range of international actors with interests in Libya, including 
through the P3+1 (Italy) and P3+3 (Egypt, Italy, UAE) formats, as well 
as with Turkey and Qatar among others.

    Question. Which of Haftar's external backers holds the most 
influence with him? How will you engage with those backers to push 
Haftar to agree to a ceasefire and reaffirm the U.N. process?

    Answer. General Haftar maintains relationships to varying degrees 
with a range of countries. It is not clear that any single country 
holds outsized influence over him. If confirmed, I will prioritize 
engagement with foreign backers of the Libyan parties as an essential 
part of our diplomatic strategy to press for a ceasefire and a return 
to U.N.-facilitated political mediation. It is important to emphasize 
to these countries that the ongoing conflict is endangering our shared 
interests, particularly by degrading counterterrorism cooperation, 
fostering instability in Libya's oil sector, and renewing migration 
pressures across the region.

    Question. Libya has long been a destination for migrants seeking 
work as well as a transit country for migrants, asylum seekers, and 
refugees. There are currently a few thousand refugees in Libya, but 
close to 700,000 migrants and IDPs. How would you plan to work with 
Libyan authorities to ensure that the human rights of ALL those 
forcibly replaced are protected?

    Answer. If confirmed, I will work with my team to continue to 
address the plight of migrants and refugees detained in Libya and 
continue to encourage Libyan authorities to coordinate closely with 
international humanitarian organizations to ensure migrant protection, 
prevent human rights abuses including human trafficking, and provide 
humanitarian assistance to vulnerable migrants, IDP's, and refugees. 
The current conflict in and around Tripoli has exacerbated this 
problem, highlighting the urgent need for a de-escalation of the 
violence and achievement of a ceasefire.

    Question. What plans would you have for engaging Libyan authorities 
to improve oversight of and humane treatment in refugee detention 
centers?

    Answer. I take very seriously the troubling allegations of 
mistreatment and inadequate conditions for migrants and refugees in 
detention centers in Libya. If confirmed, I will prioritize this issue 
in my engagements with Libyan authorities at the most senior levels. 
Targeted U.S. assistance also plays a critical role in addressing 
humanitarian needs, including of migrants and refugees. Our ability to 
make progress on these issues will also depend on prospects for ending 
the current fighting.

    Question. How would you diplomatically engage with European 
governments to persuade humane treatment of refugees and migrants 
rescued at sea as well as to permit humanitarian NGOs to conduct search 
and rescue operations without fear of reprisal?

    Answer. The Libya External Office meets regularly with European 
partners on foreign assistance issues, providing a useful forum to 
address these concerns at the embassy-level in Tunis. If confirmed, I 
will also work with my colleagues in the Bureau of European Affairs to 
engage European countries and the European Union to ensure humane 
treatment of migrants and refugees.

    Question. Do you commit to respond promptly to all requests for 
information by Members of this committee?

    Answer. Yes.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Please list any outside positions and affiliations you 
plan to continue to hold during your term of appointment.

    Answer. None.

    Question. Have you ever been an officer or director of a company 
that has filed for bankruptcy? If so, describe the circumstances and 
disposition.

    Answer. No.

    Question. If you leave this position before the completion of your 
full term of the next presidential election, do you commit to meeting 
with the committee to discuss the reasons for your departure?

    Answer. Yes.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. No.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. I would not tolerate retaliation and, if confirmed, would 
ensure embassy employees are aware of their responsibilities and are 
held accountable, including through the rating and evaluation process.



                               __________


            Responses to Additional Questions for the Record
    Submitted to Hon. Richard Norland by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. Advancing human rights has been an important thread 
throughout my Foreign Service career, from battling apartheid while on 
the South Africa Desk, to taking part in the struggle against Soviet 
communism while in Moscow, to promoting an end to sectarian violence in 
Northern Ireland while in Dublin, to resisting the Taliban while in 
Afghanistan, to promoting democracy and civil society in Uzbekistan and 
Georgia. I believe my involvement contributed in some measure to the 
progress American foreign policy has made in each of these cases. I 
take particular satisfaction in having helped secure the release of 
political prisoner Sanjar Umarov in Uzbekistan in 2010.

    Question. What are the most pressing human rights issues in Libya?

    Answer. The ongoing fighting in Tripoli has resulted in nearly 700 
fatalities, including more than 40 civilians, and displaced over 90,000 
people. Indiscriminate attacks have been reported on civilian 
infrastructure including schools, hospitals, migrant detention centers, 
and public utilities. International NGOs state there has also been an 
increase in the number of arbitrary detention, abduction, and 
kidnapping cases as well as the targeting of health professionals in 
Libya. Migrants and refugees have experienced deteriorating conditions 
and abuses in detention centers. Impunity for human rights violations 
is commonplace.

    Question. What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Libya? What do you 
hope to accomplish through these actions?

    Answer. A ceasefire in Tripoli and a return to U.N. political 
mediation is necessary to address the deteriorating humanitarian 
situation, support human rights, and build democratic institutions in 
Libya. If confirmed, I will make the promotion of human rights in Libya 
one of my highest priorities and work closely with Libyan leaders to 
press for prompt and transparent government investigations to hold 
perpetrators of abuses accountable. U.S. assistance also plays a 
critical role in addressing humanitarian needs, supporting national 
reconciliation and good governance, and empowering civil society and 
journalists. Since 2011, the State Department and USAID have provided 
over $383 million in non-security assistance to Libya in addition to 
over $169 million in humanitarian assistance. If confirmed, I will 
continue to ensure U.S. funds are well spent to promote political 
reconciliation and human rights in Libya.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Libya in advancing 
human rights, civil society and democracy in general?

    Answer. Ongoing conflict and instability in Libya limit the ability 
of Libyan authorities to address a deteriorating humanitarian 
situation, advance human rights, and build democratic institutions. The 
United States has called for an immediate ceasefire and a return to 
U.N.-facilitated political mediation to allow Libyans to rebuild 
infrastructure and improve governance. Only a political solution can 
bring lasting peace and stability to Libya. If confirmed, this goal 
will be one of my highest priorities.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Libya? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I am committed to continuing my predecessors' 
tradition of meeting with key human rights, civil society, and other 
non-governmental organizations that work in Libya. The U.S. Libya 
External Office (LEO) in Tunis regularly engages with Libyan civil 
society and human rights defenders to learn about alleged human rights 
abuses and hear their views on how the United States can be more 
effective in promoting our human rights agenda in Libya. U.S. 
assistance and public diplomacy programs also work closely with civil 
society actors by partnering with international and local NGOs in Libya 
to carry out activities. If confirmed, I plan to regularly engage with 
non-governmental organizations that work on Libya.
    The Department of State is committed to ensuring that security 
force units or members that commit gross violations of human rights do 
not receive U.S. training or assistance. If confirmed, I will continue 
our strong compliance with the Leahy law, including maintaining robust 
vetting procedures.

    Question. Will you and your embassy team actively engage with Libya 
to address cases of key political prisoners or persons otherwise 
unjustly targeted by Libya?

    Answer. Yes. If confirmed, my embassy team and I will engage with 
Libyan authorities to free any political prisoners unjustly detained by 
Libya. We will also continue to address the plight of migrants and 
refugees detained in Libya and continue to encourage Libyan authorities 
to coordinate closely with international humanitarian organizations to 
ensure migrant protection, prevent human rights abuses including human 
trafficking, and provide humanitarian assistance to vulnerable migrants 
and refugees.

    Question. Will you engage with Libya on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will make promoting human and civil 
rights and good governance one of my highest priorities. The United 
States supports a political solution to the conflict in Libya that 
would allow Libya to transition to a stable, unified, and inclusive 
government capable of providing security and prosperity for its people 
and responding to citizens' needs.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Libya?

    Answer. Neither I nor any member of my immediate family has any 
financial interests in Libya.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I fully recognize the importance of promoting diversity and 
as Ambassador will prioritize efforts to ensure that all laws and 
regulations that promote diversity, protect against discrimination and 
enhance equal opportunity for all employees are observed and enforced. 
If confirmed, this will begin with introductory calls with all new 
members of the staff in which I will remind incoming officers of the 
standards to which we will all be held, and it will extend to the 
rating and evaluation process as well. Town hall meetings and mentoring 
sessions with entry level as well as supervisory staff will also be 
useful tools in this regard. I will work to ensure that violations of 
Equal Employment Opportunity (EEO) principles and merit system 
principles are reported and investigated in accordance with Department 
policy.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. I will make clear to all section chiefs and agency heads 
that they have a responsibility to help foster a diverse and inclusive 
work environment, that the Deputy Chief of Mission and I will be 
reviewing their performance in this respect as well as with respect to 
upholding equal employment opportunity principles, and that the rating 
and evaluation process will reflect supervisors' performance in these 
areas.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Libya 
specifically?

    Answer. I believe corruption fundamentally undermines the 
democratic process and rule of law. With respect to Libya specifically, 
corruption, lack of transparency in distribution of Libya's oil wealth, 
and graft by political and non-state actors fuel the conflict in Libya 
and limit Libya's economic potential. Alleged infiltration by militias 
of key government economic institutions, including the Central Bank of 
Libya and Libya's sovereign wealth fund, presents a significant 
challenge for effective governance and future efforts at security 
sector reform and disarmament, demobilization, and reintegration of 
armed groups (SSR/DDR).
    The United States has continually engaged Libyan authorities to 
encourage increased fiscal transparency and a dialogue on equitable 
resource distribution between regions. The Department of State, 
together with the Department of Treasury, has convened a series of 
``Economic Dialogues'' bringing together Libyan economic actors, 
government officials, and international experts from the World Bank and 
International Monetary Fund (IMF) to discuss needed economic reforms to 
combat corruption and increase transparency. The United States has also 
supported a U.N. effort to launch an audit of the Central Bank of Libya 
and its rival in the east.
    U.S. assistance programs support efforts to improve public 
financial management at the national and municipal level, rule of law 
development, and planning for eventual SSR/DDR.

    Question. What is your assessment of corruption trends in Libya and 
efforts to address and reduce it by that government?

    Answer. Ongoing conflict and instability in Libya has limited the 
government of Libya's ability to address issues related to corruption 
and diversion of economic resources by state and non-state actors. 
Militias' role providing security in Tripoli allows them to exert 
control over economic resources. Lack of rule of law and effective 
policing has also contributed to economic diversion outside of Tripoli. 
The National Audit Bureau in Libya investigates and documents cases of 
illegitimate use of government funds, but has limited ability to 
investigate such offenses or refer them for prosecution.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Libya?

    Answer. If confirmed, I will encourage Libyan authorities to adopt 
measures aimed at increasing fiscal transparency, fighting corruption, 
and limiting militia influence. As conditions allow, I will continue to 
convene Libyan actors in the ``Economic Dialogue'' format to address 
these issues. Under my leadership, the State Department and USAID will 
also continue to support assistance programs aimed at improving public 
financial management and rule of law development and capacity building.

    Question. Human Rights Watch's World Report 2019 outlines the 
Libyan National Army's documented record of indiscriminate attacks on 
civilians, summary executions of captured fighters, and arbitrary 
detention. According to the U.N. Office for the Coordination of 
Humanitarian Affairs (OCHA) there have been a minimum of 167 civilian 
casualties, including 42 civilian deaths as of June 10.
    If confirmed, will you ensure that the United States seeks to hold 
individuals responsible for human rights abuses in Libya accountable?

    Answer. Yes. If confirmed I will engage Libyan authorities to press 
for accountability for individuals responsible for human rights abuses 
in Libya. I will also carefully evaluate the applicability of the many 
tools the United States has to hold individuals responsible for human 
rights violations accountable.

    Question. If confirmed, will you ensure that the United States 
seeks to hold individuals responsible for arms embargo violations 
involving Libya accountable? If so, how?

    Answer. The United States supports U.N. Security Council Resolution 
2292, which provides vital authorities for member states to limit the 
destabilizing flows of arms to and from Libya. On June 10, the United 
States voted in favor of U.N. Security Council Resolution 2473, which 
extends authorizations for Member States to inspect vessels on the high 
seas off the Libyan coast when reasonable grounds exist to believe they 
violated the arms embargo. These measures are important tools to 
prevent a destabilizing flow of weapons to Libya. If confirmed I would 
carefully consider how these authorities could be used to hold 
individuals responsible for arms embargo violations accountable.

    Question. If confirmed, what will be your human rights priorities 
as Ambassador to Libya?

    Answer. If confirmed, I will continue the U.S. government's efforts 
to assist all parties to achieve an immediate ceasefire in Tripoli and 
return to U.N. political mediation, which is crucial to restore 
stability and address violations of human rights in Libya. Impunity is 
a major concern in Libya and I will work closely with Libyan leaders, 
including civil society, to press for prompt and transparent government 
investigations to hold perpetrators of abuses accountable.

    Question. How will you engage with the Libyan government to advance 
those priorities?

    Answer. If confirmed, I will continue my predecessors' efforts to 
engage a range of Libyan authorities to address both specific cases of 
human rights violations as well as systemic problems. I will encourage 
Libyan authorities to coordinate closely with international 
humanitarian organizations and international human rights organizations 
to ensure protection of vulnerable populations and prevention of human 
rights abuses.

    Question. Should the Libyan National Army Forces of Khalifa Haftar 
cease their operations near Tripoli? Under what conditions, if any?

    Answer. Yes, military operations in and around Tripoli should cease 
in the context of U.N.-facilitated political mediation. The United 
States continues to press the parties to agree to a ceasefire, ideally 
without conditions, and return to U.N.-facilitated political mediation.

    Question. If confirmed, how will you propose to better assist 
Libyan authorities in eliminating the role of militias in security in 
the capital, Tripoli?

    Answer. The role of militias in Libya, including in Tripoli, poses 
a number of challenges for Libyan authorities. Armed groups have 
engaged in economic predation of resources that should rightfully 
benefit the Libyan people, as well as violence against and arbitrary 
detention of civilians. The lack of effective government control has 
led to impunity in many cases. If confirmed, I will support efforts to 
end the current conflict in Tripoli, which is further entrenching the 
role of militias. I plan to work closely with the U.N. Support Mission 
in Libya on future security sector reform and disarmament, 
demobilization, and reintegration (SSR/DDR) activities. The Department 
is currently implementing FY 2017 Peacekeeping Operations programming 
that aims to develop and implement a comprehensive Libyan SSR/DDR 
strategy, by providing technical advisory mechanisms and other 
strategic-level support.

    Question.  What is your view of the continuation of the U.N. arms 
embargo and asset freeze for Libya?

    Answer. On June 10, the United States voted in favor of U.N. 
Security Council Resolution 2473, which extends authorizations for 
Member States to inspect vessels on the high seas off the Libyan coast 
when reasonable grounds exist to believe they violated the arms 
embargo. These measures are important tools to prevent a destabilizing 
flow of weapons to Libya, and to protect Libyan assets for the benefit 
of the Libyan people.

    Question. If confirmed, will you propose that the President use 
U.S. executive orders to impose additional sanctions against those 
undermining Libya's transition? If so, what sanctions would you 
suggest?

    Answer. As part of a broader diplomatic strategy and in 
coordination with international partners, U.S. sanctions have been an 
important tool in preventing the misuse of Libyan resources, upholding 
human rights, and imposing consequences for those who threaten Libya's 
peace, security, and stability or undermine its transition. If 
confirmed, I will follow the proper interagency process for the 
consideration of potential sanctions and ensure any proposed sanctions 
support our broader strategic objectives of restoring stability 
andabling Libyan authorities to provide a more secure and prosperous 
future for all Libyans.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Hon. Richard Norland by Senator Jeanne Shaheen

    Question. In your view, what is the potential risk of a 
humanitarian disaster with General Haftar's recent advance on Tripoli 
and how can U.S. leadership in the international community mitigate 
that risk?

    Answer. Ongoing fighting in Tripoli between the ``Libyan National 
Army'' and government of National Accord has resulted in nearly 700 
fatalities, including more than 40 civilians, and displaced over 90,000 
people. Attacks on critical infrastructure have resulted in electricity 
and water interruptions among other services. Prolonged fighting risks 
fueling a greater humanitarian emergency that could affect as many as 
1.5 million civilians, including 500,000 children based on U.N. 
estimates. To help address the deteriorating humanitarian situation, 
the United States has called for an immediate ceasefire in Tripoli and 
a return to U.N.-mediated political negotiations. The United States has 
also provided more than $36 million in humanitarian assistance for 
Libya since fiscal year 2018, including to those affected by the 
conflict in Tripoli. If confirmed, I will work with our Libyan and 
international partners to press for a cessation of hostilities in 
Tripoli and a return to the political process.T

    Question. The Administration took an important step by unveiling 
the mandated Women, Peace and Security Strategy, but now we need to 
implement that policy in the most serious conflicts that we face. As 
Ambassador, how would you ensure that women are involved in any 
negotiation that finally brings peace and stability to Libya?

    Answer. The Women, Peace, and Security Strategy shows U.S. 
leadership in promoting women's equality and increasing women's 
leadership in political and civic life in conflict environments like 
Libya. The meaningful inclusion of women in the political and peace 
processes in Libya is critical to building a stable, inclusive 
government in Libya. If confirmed, I will advocate for women's 
participation in political negotiations, as well as for a reduction in 
barriers that prevent women from having a formal say in the shaping of 
their society. Libyan women have long been active in informal peace 
processes, and must now be included at the negotiating table to inform 
the conflict resolution and decision-making processes. U.S. assistance 
to Libya promotes inclusion of women in political reconciliation and 
governance at the national and sub-national level. U.S. public 
diplomacy programs complement these foreign assistance efforts, with a 
focus on outreach to women and programs to advance their contributions 
to civil society.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Hon. Richard Norland by Senator Jeanne Shaheen

    Question. In your view, what is the potential risk of a 
humanitarian disaster with General Haftar's recent advance on Tripoli 
and how can U.S. leadership in the international community mitigate 
that risk?

    Answer. Ongoing fighting in Tripoli between the ``Libyan National 
Army'' and government of National Accord has resulted in nearly 700 
fatalities, including more than 40 civilians, and displaced over 90,000 
people. Attacks on critical infrastructure have resulted in electricity 
and water interruptions among other services. Prolonged fighting risks 
fueling a greater humanitarian emergency that could affect as many as 
1.5 million civilians, including 500,000 children based on U.N. 
estimates. To help address the deteriorating humanitarian situation, 
the United States has called for an immediate ceasefire in Tripoli and 
a return to U.N.-mediated political negotiations. The United States has 
also provided more than $36 million in humanitarian assistance for 
Libya since fiscal year 2018, including to those affected by the 
conflict in Tripoli. If confirmed, I will work with our Libyan and 
international partners to press for a cessation of hostilities in 
Tripoli and a return to the political process.T

    Question. The Administration took an important step by unveiling 
the mandated Women, Peace and Security Strategy, but now we need to 
implement that policy in the most serious conflicts that we face. As 
Ambassador, how would you ensure that women are involved in any 
negotiation that finally brings peace and stability to Libya?

    Answer. The Women, Peace, and Security Strategy shows U.S. 
leadership in promoting women's equality and increasing women's 
leadership in political and civic life in conflict environments like 
Libya. The meaningful inclusion of women in the political and peace 
processes in Libya is critical to building a stable, inclusive 
government in Libya. If confirmed, I will advocate for women's 
participation in political negotiations, as well as for a reduction in 
barriers that prevent women from having a formal say in the shaping of 
their society. Libyan women have long been active in informal peace 
processes, and must now be included at the negotiating table to inform 
the conflict resolution and decision-making processes. U.S. assistance 
to Libya promotes inclusion of women in political reconciliation and 
governance at the national and sub-national level. U.S. public 
diplomacy programs complement these foreign assistance efforts, with a 
focus on outreach to women and programs to advance their contributions 
to civil society.



                               __________


            Responses to Additional Questions for the Record
         Submitted to Jonathan Cohen by Senator Robert Menendez

Sinai/Security Assistance/Human Rights
    Question. In addition to the worrying state of human rights in 
mainland Egypt, I am increasingly concerned about civilian casualties 
and other human rights abuses in the north of the Sinai Peninsula as 
Egypt continues its campaign against ISIS there.

   If confirmed, what steps will you take to increase U.S. oversight 
        over the use of U.S. weapons systems in North Sinai and to 
        ensure that all Egyptian military units that receive U.S.-
        origin weapons receive appropriate vetting, including Leahy 
        vetting, when appropriate?

    Answer. Egypt faces a real terrorist threat in the Sinai, which 
U.S.-Egypt counterterrorism cooperation and the continuing strong 
military-to-military partnership is helping to counter. Egypt has 
increasingly acknowledged the need for a more comprehensive approach in 
its Sinai counterterrorism campaign and announced its intent to use 
economic and social development to counter the effects of the campaign 
on Sinai residents.
    If confirmed, I look forward to discussing these development 
efforts with the Egyptian government, and will continue to emphasize 
the need for protection of the civilian population and the importance 
of implementing a more holistic counterterrorism approach. To help the 
United States have greater insight into the Sinai Peninsula to verify 
whether U.S.-provided weapons are being used appropriately, I also will 
continue to request appropriate travel for relevant U.S. officials into 
the Sinai as security conditions permit, and urge Egypt to grant 
journalists and NGOs more access to the Sinai.

    Question. Do you believe that withholding some foreign military 
financing, as required under current appropriations law, is a useful 
point of leverage in pushing the Egyptian government to improve human 
rights and political freedom in Egypt? What other points of leverage 
are available?

    Answer. Our support to Egypt furthers U.S. national security 
interests by countering terrorism and its causes in Egypt and by 
accelerating Egyptian recovery from the effects of terrorism. If 
confirmed, I will uphold all laws pertaining to our assistance and 
continue to ensure that we work with Egypt in planning for the 
effective use of U.S. security assistance to support counterterrorism, 
border security, and other shared security interests, and I will work 
with Egypt both publicly and privately to encourage Egypt's respect for 
and protection of basic rights and freedoms. I will take up the message 
Secretary Pompeo delivered in his speech in Cairo in January, 
encouraging President al-Sisi to ``unleash the creative energy of 
Egypt's people, unfetter the economy, and promote a free and open 
exchange of ideas.'' I also will discuss with civil society and NGO 
leaders as well as members of Congress how else we can advance the 
human rights agenda, and will carefully consider relevant suggestions.

    Question. Do you believe that the end of cash flow financing for 
Egypt and the provision of foreign military financing for specific 
categories such as counter terrorism and border security have been 
helpful in addressing Egypt's current security threats? How will you 
engage with the Egyptian government to ensure that these two assistance 
policies remain and increase in effectiveness?

    Answer. To support Egypt's counterterrorism efforts, U.S. 
government assistance should remain flexible and responsive to Egypt's 
fluid security requirements. The Department has found that we can help 
Egypt plan for emerging threats, secure its borders, and counter 
terrorism and its causes without cash flow financing. If confirmed, I 
will work with Egypt to ensure U.S. security assistance is well 
targeted to achieve bilateral security objectives. I also will work 
with Egypt to ensure our counterterrorism partnership continues to 
reduce threats to U.S. interests.

    Question. As the United States provides significant military 
assistance to Egypt, I am concerned about their deepening relationship 
with Russia. I am specifically concerned about Egypt's reported 
purchase of 20 Russian Sukhoi SU-35s and the loan that Moscow has 
provided to construct the nuclear power plant at Dabaa. If confirmed, 
how will you engage with the Egyptian government to stress that these 
sorts of deals run against the spirit of that partnership and, in the 
case of the Sukhois, make it liable for sanctions under CAATSA?

    Answer. As Secretary Pompeo testified on April 9, we have been very 
clear with senior levels of the Egyptian government that CAATSA Section 
231 requires the imposition of sanctions on any person that knowingly 
engages in a significant transaction with the Russian defense or 
intelligence sectors. Egyptian officials have indicated that they 
understood. U.S.-Egypt ties remain strong, and if confirmed, I will 
continue to engage Egypt to ensure the United States remains its 
partner of choice.

    Question. How much influence does Egypt have with General Haftar?

    Answer. Egypt has a national security interest in Libyan security 
and stability. Within that context, Egypt has influence with a number 
Libyan parties and leaders including Khalifa Haftar. The Department is 
encouraging Egypt and other partners to use their influence to press 
Libyans including Haftar and Prime Minister al-Sarraj to de-escalate 
the conflict and support implementation of an immediate ceasefire and 
work for a peaceful solution.

    Question. If confirmed, how will you engage with the Egyptian 
government, to push for a ceasefire and political solution in Libya? 
What leverage do you think we have to do that?

    Answer. Egypt is a key partner in seeking regional stability and 
building a sustainable government in Libya and has said that Libya is 
its number one security concern. This shared interest provides space 
for us to work jointly to engage Libyan leaders to de-escalate the 
conflict and support implementation of an immediate ceasefire and work 
for a peaceful solution. If confirmed, I will prioritize further 
outreach with Egypt to align our approaches to Libya

    Question. What are Egypt's main interests in Sudan and what 
leverage do we have to encourage the Egyptians to support fully the 
establishment of a civilian-led transitional authority in keeping with 
the calls from the AU PSC?

    Answer. We believe that a civilian-led government in Sudan is not 
only in the best interest of the Sudanese people, but also necessary 
for the stability of the region, which is key for Egypt. The United 
States is actively and frequently engaging Egypt on the Sudan crisis 
via our Undersecretary for Political Affairs, Special Envoy to Sudan 
Ambassador Booth, and our U.S. Embassy. In our discussions, we have 
encouraged coordination of effort and the use of our collective 
leverage to press the Transitional Military Council to stop violence 
and come to agreement with the Forces for Freedom and Change on a 
civilian-led government, and we welcomed Egypt's recent statements 
condemning the June 3 violence and calling for renewed dialogue. As 
Sudan's neighbor and current chair of the African Union Assembly, Egypt 
is in a position to encourage collaborative efforts with the African 
Union and to influence other Gulf States' thinking on transition 
efforts in Sudan.

    Question. What specific steps will you take, if confirmed, to bring 
Egypt in line with U.S. diplomatic efforts related to a democratic 
transition in Sudan?

    Answer. If confirmed, I am committed to raising the issue of Sudan 
at the highest levels with Egyptian officials and working with Special 
Envoy Ambassador Booth and other U.S. officials to help align efforts 
and coordinate international support.

    Question. What immediate steps, if confirmed, will you take to 
prevent Egypt from engaging in efforts that encourages ``forum 
shopping'' by parties to the political dialogue in Sudan?

    Answer. We have encouraged Egypt to engage with the Forces for 
Freedom and Change directly, and welcomed its recent engagement. Our 
Embassy in Cairo is supporting the travel of U.S. Envoy to Sudan 
Ambassador Booth to Cairo to engage directly and influence helpful 
behavior from Egyptian interlocutors who have insights and direct 
contacts with the various parties in Sudan.

    Question. Will you commit to raising the need for a civilian-led 
transition in Sudan at the highest levels in Egypt upon your arrival 
and accreditation as ambassador to Egypt?

    Answer. If confirmed, I am committed to raising at the highest 
levels in Egypt the need for a civilian-led transition in Sudan and the 
need for Egypt to work with us to promote regional cooperation and 
security.

    Question. Do you commit to respond promptly to all requests for 
information by Members of this committee?

    Answer. Yes.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. Yes.

    Question. Please list any outside positions and affiliations you 
plan to continue to hold during your term of appointment.

    Answer. None.

    Question. Have you ever been an officer or director of a company 
that has filed for bankruptcy? If so, describe the circumstances and 
disposition.

    Answer. No.

    Question. If you leave this position before the completion of your 
full term of the next presidential election, do you commit to meeting 
with the committee to discuss the reasons for your departure?

    Answer. Yes.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. No.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes, I agree. The commitment to diversity, inclusiveness 
and EEO will be embedded in the work requirements of each supervisor 
under my charge, will be raised by me often, from introductory meetings 
to counseling sessions to routine work reviews, and will be underscored 
by my own comportment and my insistence that all employees under my 
supervision take required courses relevant to these principles. Plus, I 
will uphold and publicly underscore my insistence on a zero tolerance 
policy when it comes to retaliation, blacklisting, and other prohibited 
personnel practices.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Jonathan Cohen by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. Through 33 years in the Foreign Service, I have promoted 
human rights and democracy in virtually every assignment, including by 
contributing to country human rights, trafficking in persons and 
religious freedom reports: as a refugee protection officer in Thailand; 
as the Desk Officer responsible for the OSCE's Human Dimension at the 
State Department; developing Holocaust Education, Remembrance, and 
Research to counter the growth of neo-Nazism in Sweden; helping to 
establish the first post-Saddam government in Iraq as part of the 
Coalition Provisional Authority; supporting the Committee on Missing 
Persons and preserving cultural heritage in Cyprus; hosting programs to 
support women's rights, speaking out in support of minorities and 
religious freedoms, and developing a stabilization program to get 
Internally Displaced People home to areas liberated from ISIS as DCM in 
Baghdad; leading U.S. delegations seeking the liberation from wrongful 
imprisonment of U.S. citizens and U.S. government employees in Turkey; 
pressing the Turks to end their extended State of Emergency; arguing 
for the restoration of press freedoms in Turkey and testifying before 
the Helsinki Commission on the weakening of democracy in Turkey under 
the State of Emergency. In my current position, I have used the 
Security Council to shine a light on world's most egregious human 
rights abuses and have hosted events on human rights in Burma and North 
Korea, as well as a commemoration of the Minsk Ghetto's liberation and 
a window display seen by thousands in USUN's First Avenue windows to 
commemorate Tiananmen Square.
    I believe my contributions in this field have underscored the 
commitment of the U.S. government and the American people to advancing 
human rights and democracy, improved conditions for thousands of 
Vietnamese, Cambodia and Lao refugees in Thai camps, put neo-Nazism in 
context for school children throughout Europe, placed Iraq on a path 
toward democratic governance, helped over a million Iraqi IDPs get home 
quickly and safely after ISIS had deprived them of their most basic 
human rights and caused them to flee their homes, and underscored the 
impact of human rights abuses on international peace and security and 
the merit of addressing human rights in the U.N. Security Council. If 
confirmed, I will continue to champion human rights and democracy in 
Egypt.

    Question. What are the most pressing human rights issues in Egypt? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Egypt? What do you hope to 
accomplish through these actions?

    Answer. The Egyptian political environment has become severely 
constrained in recent years, leaving limited outlet for peaceful 
dissent. To ensure Egypt's long-term stability and prosperity, it is 
crucial that the Egyptian people be allowed space to express their 
views without reprisal and that the security forces be held accountable 
for any abuses of power. If confirmed, I will continue to work with 
Egypt to advance our strategic partnership and address our common 
challenges, which includes encouraging Egypt's respect for and 
protection of basic rights and freedoms. I will emphasize the vital 
role that respect for fundamental freedoms and rule of law have played 
in the progress of democracies and building prosperous and stable 
nations.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Egypt in advancing 
human rights, civil society and democracy in general?

    Answer. I share your concerns about the human rights situation in 
Egypt. If confirmed, I will deliver sensitive messages about our 
concerns, in public and private, and I trust that diplomatic engagement 
on these issues can make an impact. One of my most important 
responsibilities would be to deliver these messages, and I would look 
forward to leading the Mission in engaging with civil society and 
government counterparts consistently and at the highest possible levels 
on these issues.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Egypt? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. A critical component of stability is respect for and 
protection of human rights and fundamental freedoms, accountability, 
and greater political space for civil society and dissenting views. If 
confirmed, I will welcome meetings with a diverse array of 
stakeholders, including Egyptian human rights, civil society, and other 
activists to hear their valuable perspectives.
    All security assistance, including to Egypt, is subject to the 
Leahy laws and end use monitoring requirements. Units that commit gross 
violations of human rights are ineligible for assistance. Embassy 
Cairo, and the Department as a whole, continues to vet such assistance 
and to develop and implement procedures to enhance this vetting. If 
confirmed, I will join their efforts and continue to ensure that our 
assistance meets these requirements.

    Question. Will you and your embassy team actively engage with Egypt 
to address cases of key political prisoners or persons otherwise 
unjustly targeted by Egypt?

    Answer. If confirmed, I will continue to raise our concerns with 
the Egyptian government's restrictions on peaceful dissent in general, 
as well as specific cases of key political prisoners or persons 
otherwise unjustly targeted by Egypt.

    Question. Will you engage with Egypt on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Societies are strengthened by expressions of opinion and 
dissent, and freedom of expression plays an important role in ensuring 
more prosperous, stable countries--a key U.S. goal for Egypt. The 
United States continues to encourage Egypt to allow space for its 
citizens to express their views without reprisal and hold security 
forces accountable for any abuses of power. As the Secretary said in 
his speech in Cairo in January, ``we encourage President Al-Sisi to 
unleash the creative energy of Egypt's people, unfetter the economy, 
and promote a free and open exchange of ideas.'' If confirmed, I will 
continue to raise these issues to the Egyptian government at senior 
levels.

    Question. In many ways, Egypt is a strong U.S. partner, but their 
record on human rights, including religious freedom and freedom of 
expression, is concerning to say the least. According to an April 
report from Reuters, Egypt blocked a petition website after it reached 
60,000 signatures against an upcoming constitutional referendum. This 
is not the first time such action has been taken. If confirmed, how 
would you use our partnership with Egypt to advocate for better human 
rights protections?

    Answer. If confirmed, I am committed to continuing to work with 
Egypt to advance our strategic partnership and to strengthen Egypt's 
stability and prosperity. Ensuring that fundamental human rights are 
respected and space is allowed for Egyptians to express their views is 
a vital part of that, and in Egypt's own interest. I look forward to 
working with you on ways to advance these fundamental freedoms in 
Egypt, including raising these issues both publicly and privately.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Egypt?

    Answer. Neither I nor any members of my immediate family have any 
financial interests in Egypt.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. In 2017-2018, I was selected and served actively as a 
mentor in a pilot program connecting underrepresented groups in the 
Foreign Service with senior officers to help them chart a course to the 
senior ranks. I have played similar mentoring roles for subordinates of 
diverse backgrounds throughout my career and will continue to do so in 
the future. I highly value the diversity of our outstanding workforce 
at USUN and am a strong supporter of EEO. I will ensure that EEO 
principles are applied enthusiastically without exception in any 
workplace I supervise.
    In 2011, I was nominated for the Arnold Raphel Award given to the 
State Department's most outstanding mentor. The nomination cited me for 
``sustained and exemplary leadership and mentoring of Foreign Service 
employees in all phases of career development.'' I was also commended 
for mentoring by the Office of Inspector General, whose lead for the 
2010 Embassy Nicosia inspection wrote, ``I have not seen a more 
conscientious or effective mentor of First and Second Tour employees in 
the many embassies I have inspected over the last five years.''

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. The commitment to diversity, inclusiveness, and Equal 
Employment Opportunity (EEO) will be embedded in the work requirements 
of each supervisor under my charge, will be raised by me often, from 
introductory meetings to counseling sessions to routine work reviews, 
and will be underscored by my own comportment and my insistence that 
all employees under my supervision take required courses relevant to 
these principles.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Egypt 
specifically?

    Answer. Political corruption constrains citizens' ability to 
participate in their government and advocate for needed change. The 
Egyptian government has spoken out publicly against corruption. If 
confirmed, I will raise these issues to the Egyptian government 
consistently and at the highest possible levels.

    Question. What is your assessment of corruption trends in Egypt and 
efforts to address and reduce it by that government?

    Answer. Over the past few years, the Egyptian political environment 
has become increasingly constrained, impeding citizens' ability to act 
as watchdogs on their government. Egypt has, however, minimized its 
off-budget accounts, authorized government institutions to combat 
corruption, and expressed interest in moving toward more transparent, 
less corruptible government processes, which the U.S. supports, 
including through assistance.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Egypt?

    Answer. If confirmed, I will advocate at the highest levels for the 
Egyptian people to be allowed space to express their views about their 
government without reprisal and for the Egyptian government to move 
toward greater fiscal transparency--not only because these are the 
right things to do, but also because they will make Egypt more stable 
and prosperous in the long-term.

    Question. A 2016 GAO report detailed major gaps in Egypt's 
compliance with end-use verifications of the use and security of 
certain equipment transferred or sold to the Egyptian military. What 
specific can the State Department take to improve verification of U.S. 
weapons and equipment transferred to Egyptian security forces to ensure 
that weapons have not been transferred illegally to pro-government 
militias in North Sinai?

    Answer. The Department examines all-source information reporting 
for evidence of misuse of U.S. weapons and equipment. As we examine 
this all-source information reporting, if we identify potential 
incidents of concern, we attempt to investigate further to identify any 
additional information that might corroborate the allegations, and we 
respond to discourage any misuse in the future. If confirmed, I will 
continue to implement end-use monitoring procedures, and to help the 
United States have greater insight into the Sinai Peninsula to verify 
whether U.S.-provided weapons are being used appropriately, I will 
continue to request appropriate travel for relevant U.S. officials into 
the Sinai as security conditions permit, and I will urge Egypt to grant 
journalists and NGOs more access to the Sinai to increase the chances 
of observing misuse.

    Question. What additional steps would you recommend be taken to 
ensure that U.S. weapons and equipment are not being used to further 
human rights abuses in North Sinai?

    Answer. Egypt faces a real terrorist threat in the Sinai, which 
U.S.-Egypt counterterrorism cooperation and the continuing strong 
military-to-military partnership is helping to counter. To help the 
United States have greater insight into the Sinai Peninsula to verify 
whether U.S.-provided weapons are being used appropriately, if 
confirmed, I will continue to request appropriate travel for relevant 
U.S. officials into the Sinai as security conditions permit, and I will 
urge Egypt to grant journalists and NGOs more access to the Sinai to 
increase the chances of observing misuse.

    Question. If confirmed, what specific steps will you recommend that 
the administration take to improve processes of end-use verifications 
of equipment used by the Egyptian army in North Sinai? What specific 
steps will you recommend that the administration take to improve the 
vetting of Egyptian military units per Leahy law requirements?

    Answer. All security assistance, including to Egypt, is subject to 
the Leahy laws and end use monitoring requirements. Units that commit 
gross violations of human rights are ineligible for assistance. Embassy 
Cairo, and the Department as a whole, continues to vet such assistance 
and to develop and implement procedures to enhance this vetting. If 
confirmed, I will join their efforts and continue to ensure that our 
assistance meets these requirements, and to help the United States have 
greater insight into the Sinai Peninsula to verify whether U.S.-
provided weapons are being used appropriately, I will continue to 
request appropriate travel for relevant U.S. officials into the Sinai 
as security conditions permit, and I will urge Egypt to grant 
journalists and NGOs more access to the Sinai to increase the chances 
of observing misuse.

    Question. President Trump has hosted Egyptian President al-Sisi at 
the White House multiple times since coming into office, most recently 
in April 2019, two days prior to a public referendum in Egypt on 
constitutional amendments that dramatically expanded President Sisi's 
power. Do you believe that the Trump administration has been successful 
in utilizing private tactics to encourage Egyptian officials to be 
rights-respecting? If so, please outline specifically how these tactics 
have been successful.

    Answer. The Administration continues to work with President al-Sisi 
to advance our strategic partnership and address our common challenges, 
which includes encouraging Egypt's respect for and protection of human 
rights and fundamental freedoms, accountability, and greater political 
space for civil society and dissenting views. The Administration 
engages publicly and privately with the Egyptian government on these 
issues, including regarding our serious concerns about restrictions on 
civil society and cases concerning American citizens. Egypt has 
released detained American citizens and in December 2018, an Egyptian 
court acquitted U.S. NGO employees previously convicted in the Case 173 
NGO trial. President al-Sisi has spoken out publicly about the need for 
religious equality, and Egypt has continued the steady if slow 
licensing of new churches.

    Question. Will you commit to using, if confirmed, both public and 
private tactics to advocate for human rights protections?

    Answer. I share your concerns about the human rights situation in 
Egypt. If confirmed, I will work with Egypt both publicly and privately 
to advance our strategic partnership and address our common challenges, 
which includes encouraging Egypt's respect for and protection of basic 
rights and freedoms. I will emphasize the vital role that respect for 
fundamental freedoms and rule of law have played in the progress of 
democracies and building of prosperous economies. One of my most 
important responsibilities would be to deliver that message, and I 
would look forward to leading the Mission in engaging with civil 
society and government counterparts on these issues.

    Question. Egypt is a vital ally for regional stability and, in 
fact, after a recent visit to the White House a statement was released 
noting ``Egypt's longstanding role as a lynchpin of regional 
stability.'' What is your assessment of how Egypt, under President al-
Sisi, can be an essential ally for regional stability given the 
dramatic uptick in repression over the last few years, draconian 
restrictions on civil society, and ongoing crisis in the Sinai?

    Answer. Egypt remains an important partner and its stability is 
critical to U.S interests. To aid Egypt's and the region's stability, 
including Egypt's maintenance of a productive relationship with Israel, 
we focus on strengthening Egypt's counterterrorism effectiveness and 
border security, economic reforms that attract investment and lead to 
inclusive growth, and encouraging Egypt to play a constructive role 
regionally. Addressing challenging human rights issues is a component 
of each of these lines of effort, such as encouraging the Egyptian 
government to allow space for its people to express their views without 
reprisal and to hold security forces accountable for any abuses of 
power. If confirmed, I will take up the message Secretary Pompeo 
delivered in his speech in Cairo in January, encouraging President al-
Sisi to ``unleash the creative energy of Egypt's people, unfetter the 
economy, and promote a free and open exchange of ideas.''

    Question. In late April, Egypt hosted African leaders on emergency 
talks on the upheavals in Sudan and Libya, at which time Sisi called 
for ``African solutions to African problems'' and urged the country's 
political actors to ``safeguard the state's institutions . . . in order 
to prevent a slide into chaos.'' What role is Egypt playing with regard 
to the unrest and transition in neighboring Sudan?

    Answer. The United States is actively and frequently engaging Egypt 
on the Sudan crisis via our Undersecretary for Political Affairs, 
Special Envoy to Sudan Ambassador Booth, and our Embassy in Cairo. In 
our discussions, we have encouraged coordination of effort and the use 
of our collective leverage to press the Transitional Military Council 
to stop violence and come to agreement with the Forces for Freedom and 
Change on a civilian-led government. As Sudan's neighbor and current 
chair of the African Union Assembly, Egypt is in a position to 
encourage collaborative efforts with the African Union and to influence 
other Gulf States' thinking on transition efforts in Sudan.

    Question. How could Egypt play a more constructive role in Sudan's 
transition?

    Answer. We believe that a civilian-led government in Sudan is not 
only in the best interest of the Sudanese people, but also necessary 
for the stability of the region, which is key for Egypt. We have 
encouraged Egypt to engage with the Forces for Freedom and Change 
directly, and welcome its recent engagement and its statements 
condemning the June 3 violence and calling for renewed dialogue. Our 
Embassy in Cairo is supporting the travel of U.S. Envoy to Sudan 
Ambassador Booth to Egypt to engage directly and influence helpful 
behavior from Egyptian interlocutors who have insights and direct 
contacts with the various parties in Sudan.

    Question. During the late April talks, President Sisi met with 
Khalifa Haftar, the commander of eastern-based Libyan forces, who is 
under international pressure to halt an advance on the capital Tripoli:

   What role is Egypt playing with regard to the Libyan National 
        Army's operations in neighboring Libya?

    Answer. Egypt has a national security interest in Libyan security 
and stability. Within that context, Egypt has influence with a number 
Libyan parties and leaders including Khalifa Haftar. The Department is 
encouraging Egypt and other partners to use their influence to press 
Libyans including Haftar and Prime Minister al-Sarraj to de-escalate 
the conflict and support implementation of an immediate ceasefire and 
work for a peaceful solution.

    Question. How could Egypt play a more constructive role in bringing 
peace to Libya?

    Answer. Egypt is a key partner in seeking regional stability and 
building a sustainable government in Libya and has said that Libya is 
its number one security concern. This shared interest provides space 
for us to work jointly to engage Libyan leaders to de-escalate the 
conflict and support implementation of an immediate ceasefire and work 
for a peaceful solution. If confirmed, I will prioritize further 
outreach with Egypt to align our approaches to Libya.

    Question. As you know, the Egyptians have recently allowed a few 
U.S. government officials--including the USAID administrator--into 
Sinai. These are important but insufficient developments given the 
opacity that surrounds the situation in the Sinai:

   What steps would you take to convince the Egyptians to go a step 
        further and grant regular and consistent access to humanitarian 
        organizations, human rights organizations, and independent 
        media to North Sinai?

    Answer. Egypt faces a real terrorist threat in the Sinai, which 
U.S.-Egypt counterterrorism cooperation and the continuing strong 
military-to-military partnership is helping to counter. Egypt has 
increasingly acknowledged the need for a more comprehensive approach in 
its Sinai counterterrorism campaign and announced its intent to use 
economic and social development to counter the effects of the campaign 
on Sinai residents.
    If confirmed, I look forward to discussing these development 
efforts with the Egyptian government, and will continue to emphasize 
the need for protection of the civilian population and the importance 
of implementing a more holistic counterterrorism approach. To help the 
United States have greater insight into the Sinai Peninsula to verify 
whether U.S.-provided weapons are being used appropriately, I also will 
continue to request appropriate travel for relevant U.S. officials into 
the Sinai as security conditions permit, and urge Egypt to grant 
journalists and NGOs more access to the Sinai.

    Question. Will you commit to raising this in each meeting with 
Egyptian officials, if confirmed?

    Answer. If confirmed, I commit to raising this matter with senior 
Egyptian officials. I would look forward to discussing development 
efforts with the Egyptian government, and will continue to emphasize 
the need for protection of the civilian population and the importance 
of implementing a more holistic counterterrorism approach. To help the 
United States have greater insight into the Sinai Peninsula to verify 
whether U.S.-provided weapons are being used appropriately, I also will 
continue to request appropriate travel for relevant U.S. officials into 
the Sinai as security conditions permit, and urge Egypt to grant 
journalists and NGOs more access to the Sinai.

    Question. Egypt has been a strong ally in combatting ISIS in the 
Sinai Peninsula and other terrorist groups, but there have similarly 
been reports of human rights abuse and civilian targeting by security 
forces:

   If confirmed, how would you work to ensure Egypt's security 
        services better respect human rights in their counter-terror 
        efforts?

    Answer. Egypt faces a real terrorist threat in the Sinai, which 
U.S.-Egypt counterterrorism cooperation and the continuing strong 
military-to-military partnership is helping to counter. Egypt has 
increasingly acknowledged the need for a more comprehensive approach in 
its Sinai counterterrorism campaign and announced its intent to use 
economic and social development to counter the effects of the campaign 
on Sinai residents. If confirmed, I look forward to discussing these 
development efforts with the Egyptian government, and will continue to 
emphasize the need for protection of the civilian population and the 
importance of implementing a more holistic counterterrorism approach. 
To help the United States have greater insight into the Sinai Peninsula 
to verify whether U.S.-provided weapons are being used appropriately, I 
also will continue to request appropriate travel for relevant U.S. 
officials into the Sinai as security conditions permit, and urge Egypt 
to grant journalists and NGOs more access to the Sinai.



                               __________


            Responses to Additional Questions for the Record
        Submitted Jonathan Cohen to by Senator Edward J. Markey

    Question. Could you give me your assessment of how Egypt, under 
President al-Sisi, can be an essential ally for regional stability 
given the dramatic uptick in repression over the last few years, 
draconian restrictions on civil society, and ongoing crisis in Sinai?

    Answer. Egypt remains an important partner and its stability is 
critical to U.S interests. To aid Egypt's and the region's stability, 
we focus on strengthening Egypt's CT effectiveness and border security, 
economic reforms that attract investment and lead to inclusive growth, 
and encouraging Egypt to play a constructive role regionally. 
Addressing challenging human rights issues is a component of each of 
these lines of effort, such as encouraging the Egyptian government to 
allow space for its people to express their views without reprisal and 
to hold security forces accountable for any abuses of power. If 
confirmed, I will take up the message Secretary Pompeo delivered in his 
speech in Cairo in January, encouraging President al-Sisi to ``unleash 
the creative energy of Egypt's people, unfetter the economy, and 
promote a free and open exchange of ideas.''

    Question. If confirmed, how specifically do you intend to use your 
public position and the resources of the embassy to address Egypt's 
troubling human rights and democracy record?

    Answer. I share your concerns about the human rights situation in 
Egypt. If confirmed, I will continue to work with Egypt to advance our 
strategic partnership and address our common challenges, which includes 
encouraging Egypt's respect for and protection of basic rights and 
freedoms. I will emphasize the vital role that respect for fundamental 
freedoms and rule of law have played in the progress of democracies and 
building of prosperous economies. One of my most important 
responsibilities would be to deliver that message, and I would look 
forward to leading the Mission in engaging with civil society and 
government counterparts on these issues.

    Question. Do you believe that the Trump Administration has been 
successful in utilizing private tactics to encourage Egyptian officials 
to be rights-respecting? If so, please outline specifically how these 
tactics have been successful.

    Answer. The Administration continues to work with President al-Sisi 
to advance our strategic partnership and address our common challenges, 
which includes encouraging Egypt's respect for and protection of human 
rights and fundamental freedoms, accountability, and greater political 
space for civil society and dissenting views. The Administration 
engages publicly and privately with the Egyptian government on these 
issues, including regarding our serious concerns about restrictions on 
civil society and cases concerning American citizens. Egypt has 
released detained American citizens and in December 2018, an Egyptian 
court acquitted U.S. NGO employees previously convicted in the Case 173 
NGO trial.



                               __________


            Responses to Additional Questions for the Record
       Submitted to John Rakolta, Jr. by Senator Robert Menendez

    Question. UAE involvement in a number of regional conflicts risks 
prolonging or intensifying them. From Yemen where they are a major 
partner in the Saudi-led coalition to Libya, where they have provided 
significant support, including airstrikes for General Khalifa Heftar to 
Sudan, where UAE support for the Transitional Military Council has 
emboldened the delay to a civilian-led transition, facilitating a 
violent crackdown on peaceful protesters.

   What steps can the UAE take to play a more productive role in each 
        of these conflicts?

    Answer. I understand the UAE regularly participates in multilateral 
diplomatic fora such as the Yemen Quad (US-UK-Saudi Arabia-UAE) and 
with the P3+3 on Libya (France, Italy, UK, Egypt, the UAE, and the 
United States). The UAE government has publicly expressed continued 
support for the efforts of the U.N. Special Envoy to Yemen, and in 
April 2019 the UAE issued a joint statement on Libya with France, 
Italy, the UK, and the United States, urging all parties to immediately 
de-escalate tensions and expressing strong support for the efforts of 
U.N. Special Representative Ghassan Salame. The Administration is 
engaged with the UAE on Sudan issues, including high-level calls and a 
recent Quad meeting on Sudan in London. The UAE should continue to 
closely coordinate its humanitarian assistance to Yemen with the United 
Nations and its Humanitarian Response Plan. Constructive actions such 
as these are more likely to lead to a negotiated peace process in all 
three conflicts.

    Question. If confirmed, how will you engage with the UAE government 
to push it to take those steps?

    Answer. If confirmed, I will seek opportunities to engage regularly 
with diplomatic and military leadership to encourage them to coordinate 
closely.

    Question. Foreign diplomacy under this Administration has been 
frequently carried out by unofficial diplomats, including Jared 
Kushner, the president's son-in-law and White House senior advisor. 
Given Kushner's close relationship with senior Emirati leaders, how to 
you plan to navigate those challenges?

    Answer. If confirmed, I look forward to developing good working 
relations with senior Emirati leaders in my capacity as the President's 
official envoy to the United Arab Emirates.

    Question. The Associated Press, Human Rights Watch, Amnesty 
International, and the U.N. Panel of Experts on Yemen have all issued 
reports detailing the torture of Yemeni detainees by Yemeni forces 
receiving support from the UAE. There are also allegations that at 
times UAE forces themselves have directly participated in the torture 
and illegal detention of Yemeni detainees in a network of secret 
prisons. Have you read these reports?

    Answer. Yes.

    Question. Given the findings of these reports, do you agree or 
disagree with their conclusions that the UAE has responsibility for the 
torture and disappearances of detainees in Yemen by its own forces or 
by Yemeni forces under the UAE's effective control or direction?

    Answer. The United States takes all allegations of abuse seriously. 
These reports are disturbing, however, I am not in a position to make 
such a determination at this time. If confirmed, I would consult with 
experts in the Department of State and the Administration in order to 
better understand the allegations and underlying facts. Once I have a 
more complete understanding, I will urge UAE officials to take 
appropriate actions, which could include conduct a thorough 
investigation.

    Question. If confirmed as the Ambassador to the UAE, what will your 
role be in investigating the allegations of illegal detention and 
torture?

    Answer. If confirmed, I would consult with experts in the 
Department of State and the Administration in order to better 
understand the allegations and underlying facts. Once I have a more 
complete understanding, I will urge UAE officials to conduct a thorough 
investigation.

    Question. What steps will you take to push the UAE to release any 
and all unjustly held individuals in UAE-run facilities in Yemen and to 
hold accountable those responsible for arbitrary detention and torture?

    Answer. I understand that the administration has raised concerns 
about these allegations with UAE government and military officials. If 
confirmed, I will seek to better understand the underlying facts and 
will urge UAE officials to conduct a thorough and transparent 
investigation and to hold those responsible accountable.

Yemen Weapons Transfers
    Question. I remain concerned over reports that the UAE has 
transferred U.S. origin weapons, including small arms, anti-tank 
missiles and armored vehicles to armed Yemeni groups that include 
affiliates of al Qaeda fighters and hardline Salafi militias. Such 
transfers are in direct violation of sales agreements made between the 
U.S. and the UAE.

   To date, I do not have confidence that the Department's 
        investigation is sufficiently thorough. If confirmed, what will 
        your role be in ensuring there is a thorough investigation into 
        these transfers and ensuring that they do not happen again?

    Answer. I understand the Department continues to investigate the 
allegations regarding transfers from the UAE to groups in Yemen. If 
confirmed, I will ensure that we continue to reiterate our end-use 
requirements to our partners, and to facilitate investigations in the 
event that we become aware of allegations of end-use violations.

    Question. Going forward, what steps should the U.S. take to prevent 
such transfers that were not taken in this instance?

    Answer. If confirmed I would seek to reiterate the end-use 
responsibilities of our partners, resolve any potential 
misunderstandings our partners may have regarding their end-use 
obligations, and promptly investigate any allegations of violations in 
the future.

    Question. I am very concerned by reports that the UAE has hired a 
U.S. firm with retired U.S. military personnel to conduct 
assassinations in Yemen and has hired former National Security Agency 
employees to build a mercenary cyberespionage/hacking unit that has 
targeted dissidents and opposition figures, including U.S. citizens.

   Please confirm that you are now familiar with these reports.

    Answer. I am now familiar with these reports and share your 
concerns. Reports of the extrajudicial killings of clerics in and 
around Aden are very troubling. The Administration condemns all 
unlawful or extrajudicial killings, including the killing of religious 
or political rivals. These acts greatly undermine the prospects for a 
Yemen political settlement that is legitimate and representative. The 
security situation in Aden continues to be tenuous. Presence of a 
variety of violent extremist organizations and the lack of U.S. 
government representation on the ground in Yemen hampers our ability to 
get more information to make relevant assessments. I also agree reports 
of NSA employee involvement in building UAE hacking units are 
disturbing. If confirmed, I will give them greater scrutiny.

    Question. If confirmed, what steps will you take to investigate the 
role that U.S. citizens have played in these efforts and to ensure that 
they are not involved in assassinations or cyber-espionage?

    Answer. If confirmed, I will work within the Department of State 
and in coordination with other relevant U.S. government agencies to 
evaluate any evidence of violations of law as they become available.

    Question. The 2018 State Department Human Rights report highlighted 
human rights concerns in the UAE that included allegations of torture 
in detention as well as arbitrary arrest and detention, including 
incommunicado detention, by government agents.

   If confirmed, what steps will you take to push the UAE government 
        to address these and other allegations of human rights abuses?

    Answer. If confirmed, I will make clear that the United States 
takes all allegations of abuse seriously. I will urge the government of 
the United Arab Emirates to ensure freedom from arbitrary and unlawful 
detention, transparency, and rule of law. If confirmed as Ambassador, I 
will call on the government of the United Arab Emirates to treat 
prisoners and detainees humanely, and to ensure that allegations of 
abuse are investigated quickly and thoroughly and anyone found 
responsible is held accountable.

    Question. China's interest in the Persian Gulf has expanded beyond 
the region's hydrocarbon resources to encompass its One Belt One Road 
project. Chinese companies have recently signed a number of deals in 
the Persian Gulf, including a new terminal for COSCO Shipping Ports in 
Abu Dhabi's al-Khalifa Port.

   What challenges does Chinese expansion into the UAE and the rest of 
        the Persian Gulf raise for U.S. interests in the UAE and the 
        region as a whole?

    Answer. The UAE has an expanding trade and investment relationship 
with China.
    If confirmed, I look forward to learning more about the ways in 
which this relationship is growing, and to working with our embassy 
staff to ensure U.S. business interests, policy priorities, and 
national security concerns are clearly communicated to the UAE 
government.

    Question. What are the prospects for limiting Chinese influence in 
the UAE and how will you engage with the Emirati government to counter 
growing Chinese influence there?

    Answer. The UAE is an important trade and security partner of the 
United States. Open and fair competitiveness is the strength of U.S. 
business. If confirmed, I will work to ensure U.S. business interests 
and policy priorities are prioritized. This includes U.S. concerns 
about non-proliferation as well as U.S. commercial interests.

    Question. The UAE has sided firmly with Saudi Arabia in the GCC 
rift with Qatar, which shows no sign of ending even as tensions rise 
with Iran.

   What steps do you think the UAE can take to resolve the conflict? 
        What steps do you think the UAE wants to see Qatar take?

    Answer. The President and Secretary Pompeo have been clear that the 
Gulf dispute has gone on too long. The dispute benefits our adversaries 
and harms our mutual interests. The Administration continues to 
underscore to the parties the shared political, economic, security, and 
social benefits of Gulf unity, especially in light of the threat from 
Iran.

    Question. If confirmed, what role do you think you can play in 
facilitating a resolution? How will you engage with the Emirati 
government to push them to resolve the conflict?

    Answer. I understand there have been some positive signs, but no 
moves by any of the parties that would suggest a readiness to address 
and resolve rift's core issues. GCC+2 countries have participated 
together in many events and exercises, most recently at a June meeting 
of the Middle East Strategic Alliance in Washington. While aware of the 
deep divisions that led to the rift, I am hopeful the parties will take 
additional steps to build confidence and end the dispute, and if 
confirmed I look forward to engaging with the Emirati government on 
this and other matters. Significant political, economic, security, and 
human linkages underpin Gulf relations, and an immediate end to the 
dispute will help all parties involved and rekindle the unity of the 
Gulf.

    Question. Are you familiar with the financial and business 
interests of the Trump Organization in the UAE, including former and 
current business partners?

    Answer. My knowledge of the Trump Organization's financial and 
business interests in the UAE is limited to public media reporting.

    Question. What steps will you take to ensure that you do not in any 
way provide preferential treatment to the President's financial 
interests or business partners?

    Answer. If confirmed, I will adhere to all applicable ethics rules, 
legal standards of neutrality, and due diligence when performing my 
duties as the Chief of Mission.

    Question. The U.N. Special Rapporteur for extrajudicial, summary or 
arbitrary executions released her report this week. She found that 
there is ``credible evidence warranting further investigation of high-
level Saudi officials' individual liability, including the crown 
prince's.''

   Have you read the report? If not, will you commit to reading it 
        before you arrive at post?

    Answer. I have not read the report. If confirmed, I commit to 
reading it before I arrive at post.

    Question. Do you commit to assisting any U.S. government efforts to 
investigate the cause of Khashoggi's murder?

    Answer. Yes.

    Question. Do you believe that any individuals, regardless of who 
they are, should be held responsible?

    Answer. Yes.

    Question. Do you commit to advocating within the Emirati government 
to urge Saudi Arabia to conduct trials that are free and fair, and to 
investigate the individuals responsible for Khashoggi's murder?

    Answer. Yes.

    Question. Saudi Arabia and the United Arab Emirates agreed to 
provide $3 billion in aid to the Sudanese military junta that took 
power after ousting longtime President Omar al-Bashir. Critics suggest 
that the financial lifeline along with hosting Abdul Fattah al-Burhan, 
head of Sudan's Transitional Military Council. What is the relationship 
between UAE and leaders of the Transitional Military Council-
specifically al-Burhan, and Mohamed Hamdan Dagalo, or ``Hemeti'', and 
how is that impacting UAE's actions with regards to the political 
crisis in Sudan?

    Answer. The UAE has been active in Sudan, including after the April 
11, 2019 ouster of former President Bashir and through the tenure of 
the Transitional Military Council (TMC). Sudan provides military 
personnel to the Saudi-led Coalition's operations in Yemen, which gives 
Sudan some leverage with the UAE and Saudi Arabia.

    Question. What leverage do we have to encourage the Emiratis to 
fully support the establishment of a civilian-led transitional 
authority in keeping with the calls from the African Union Peace and 
Security Council?

    Answer. The Administration has met with all stakeholders to press 
for a political outcome that is acceptable to the people of Sudan. The 
Sudanese demonstrators and political negotiators have demanded a 
civilian-led government, achieved through either a majority on a 
sovereign council or through a free and fair electoral process.
    It is my understanding that the U.S. has engaged with the UAE on 
its policy in support of a transition to a civilian-led interim 
government as soon as possible. As part of those discussions, I 
understand that the Administration has encouraged the UAE to be prudent 
in its support of the Transitional Military Council, including by way 
of judicious handling of the reported $3 billion assistance package 
reported in late April. I further understand that the Administration 
welcomed and encouraged the UAE's participation in dialogue with 
international partners such as the late June ``Friends of Sudan'' 
meeting hosted by the German government.

    Question. What specific steps will you take, if confirmed, to bring 
the Emirates in line with U.S. diplomatic efforts related to a 
democratic transition in Sudan?

    Answer. If confirmed, I look forward to working closely with my 
Department colleagues to continue to engage Emirati leadership on this 
important issue, through consistent messaging and regular discussions 
with senior UAE officials, participation in multilateral engagements, 
and close coordination.

    Question. What immediate steps, if confirmed, will you take to 
prevent the Emirates from engaging in efforts that encourages ``forum 
shopping'' by parties to the political dialogue in Sudan?

    Answer. I am not in a position at this time to develop a specific 
plan of diplomatic engagement with the Emiratis on this question.

    Question. Will you commit to raising the need for a civilian-led 
transition in Sudan at the highest levels of government upon your 
arrival and accreditation as ambassador to the United Arab Emirates?

    Answer. Yes.

    Question. Do you commit to respond promptly to all requests for 
information by Members of this committee?

    Answer. Yes.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. Yes.

    Question. Please list any outside positions and affiliations you 
plan to continue to hold during your term of appointment.

    Answer. I hold membership in the following organizations which will 
continue during my term of appointment. I intend to ask if my 
membership can be inactive during my absences.

   Oakland Hills Country Club--Bloomfield, MI
   Bloomfield Hills Country Club--Bloomfield Hills, MI
   The Bear's Club--Jupiter, FL
   Harbor Point Golf Club--Harbor Springs, MI
   Detroit Athletic Club--Detroit, MI

    Question. Have you ever been an officer or director of a company 
that has filed for bankruptcy? If so, describe the circumstances and 
disposition.

    Answer. No.

    Question. If you leave this position before the completion of your 
full term of the next presidential election, do you commit to meeting 
with the committee to discuss the reasons for your departure?

    Answer. Yes.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. There have never been any concerns or allegations of 
harassment, discrimination or inappropriate conduct against any 
employee over whom I have direct supervisory authority. With respect to 
individuals over which I do not have direct supervisory authority there 
is a strict code administered by the HR department of my company. Every 
employee is required to sign this code. It emphasizes respect for 
people, values diversity and contains a strong policy against 
harassment and discrimination. It includes a ``hotline'' where 
individuals can anonymously report a concern. Every employee is 
required to review and re-affirm their commitment to the code of 
conduct every year, as part of mandatory training.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. I agree that targeting or retaliation against individuals 
due to their political beliefs, role in policy-making, or involvement 
in prior administrations is wholly inappropriate and has no place in 
the federal government or elsewhere. In my role as CEO of Walbridge, I 
have always had direct reports that do not share my political views and 
I welcome their opinions. I have championed dissenting and alternative 
viewpoints as they are the bedrock of any society and organization. 
They are essential to successfully capture the best ideas and create an 
culture of equal opportunity, innovation, respect and world class 
results. If confirmed, I will continue this philosophy and will strive 
to make sure that all individuals feel safe with their beliefs and 
understand that their differing views are welcomed and valued.



                               __________


            Responses to Additional Questions for the Record
      Submitted to John Rakolta, Jr. by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. I was chairman of New Detroit, Inc., an organization whose 
purpose was to close the gap in terms of income, education and health 
care between Detroit citizens and others, from 2003 to 2010. This 
organization was formed after the riots in Detroit in 1967. I ushered 
in a new era of commitment, responsibility, transparency and openness 
to difficult dialogue. I started a ``Dinner Series'' that brought 800 
corporate, government, labor, education, and not-for-profit individuals 
together for over 80 dinners to discuss race and its impact not only on 
Detroit, but on America today. It was a defining moment for our 
community, as it opened a pathway for Detroit to move forward. In doing 
so, it opened my eyes to the possibility of identifying and 
implementing far-reaching solutions never before thought possible.In 
2014, the Detroit Public School System was on the verge of bankruptcy 
and collapse. Successive administrations of Emergency Managers had 
failed to turn the system around academically; instead of focusing on 
the schoolchildren, they focused on balancing an impossible budget at 
the expense of what they should have been doing. If you can't master 
the fundamentals of education there is no hope of a bright and thriving 
future. Eighth grade proficiency level in 12th grade just won't cut it 
in today's world. There is no way out for them. I was asked to join the 
Coalition for the Future of Detroit's Schoolchildren (CFDSC) and help 
save the system and put it on a more successful pathway. I was one of 
five co-chairs and, more importantly, the public face of the effort to 
convince the Republican-controlled Legislature to save the system 
through a massive injection of new capital by the State of Michigan. I 
used my political capital, hard work and sound arguments and was proud 
to take a public position on this. Children of Detroit have a right to 
a bright future. Despite staggering odds, we prevailed and won 
legislation that was landmark in nature. The effort also led to Launch 
Michigan tackling the broader issue of K-12 education on a statewide 
basis.

    Question. What are the most pressing human rights issues in the 
U.A.E.? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in the U.A.E.? What do 
you hope to accomplish through these actions?

    Answer. The State Department's most recent Human Rights Report on 
the United Arab Emirates documents significant restrictions on freedom 
of expression and civil society. Human rights issues included 
allegations of torture in detention. arbitrary arrest, and detention. 
The United Nations, human rights groups, and others alleged that some 
UAE military operations as part of the Saudi-led Coalition in Yemen 
have killed civilians, damaged civilian infrastructure, and exercised 
bias in the delivery of humanitarian aid. Further, human rights groups 
alleged UAE-backed security forces in Yemen committed torture, sexual 
assault, and mistreatment against detainees. The UAE government 
rejected allegations that members of its security forces serving in 
Yemen had committed human rights abuses, and there was no publicly 
available information on whether the government carried out any 
investigations into these reported incidents.If confirmed, I will make 
clear that the United States takes all allegations of abuse seriously. 
I will urge the government of the United Arab Emirates to thoroughly 
and quickly investigate allegations of abuse, ensure fair trial 
guarantees, freedom from unlawful and extrajudicial detention, 
transparency, and rule of law. If confirmed as Ambassador, I will call 
on the government of the United Arab Emirates to treat prisoners and 
detainees in line with international obligations and 
commitments.Questions for the Record Submitted to

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the U.A.E. in 
advancing human rights, civil society and democracy in general?

    Answer. I am not currently in a position to speak authoritatively 
to these questions, however, I understand that the ongoing conflict in 
Yemen presents challenges for those seeking to ascertain the underlying 
facts with respect to the treatment of detainees. In addition, the 
Administration's advocacy is challenged by the absence of any UAE law 
protecting freedoms of religion and thought, expression, peaceful 
assembly, and association.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the U.A.E.? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes. If confirmed, I intend to meet with the full range of 
Emirati society, as well as non-governmental organizations in the 
United States that work on issues related to the United Arab Emirates. 
I will make clear to Emirati leadership that the United States supports 
the important role civil society plays in every country. I will commit 
to uphold the Leahy Law, and will also commit to our Conventional Arms 
Transfer policies that require human rights to be considered as a 
factor in any arms transfer or licensing decision.

    Question. Will you and your embassy team actively engage with the 
U.A.E. to address cases of key political prisoners or persons otherwise 
unjustly targeted by the U.A.E.?

    Answer. Yes.

    Question. Will you engage with the U.A.E. on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes.

    Question. As the world's oldest democracy and the largest arms 
exporter, would you agree that the human rights standards the U.S. sets 
on arms transfers has global ramifications?

    Answer. I understand the United States weighs human rights in arms 
transfer decisions. This reflects our values, serves our nationals 
security interests, and sets an important model for the world. If 
confirmed, I will keep human rights issues and U.S. security in mind on 
all potential arms sales.

    Question. Should the United States continue to facilitate arms 
sales to foreign governments like the U.A.E credibly suspected of acts 
that may amount to war crimes?

    Answer. I understand the United States weighs human rights in arms 
transfer decisions, and is working with partners including the UAE to 
provide training and other support related to human rights and avoiding 
civilian harm in combat. If confirmed, I will support these efforts.

    Question. What are your views on the position put forth by 
Secretary Pompeo that, in effect, continuing to arm and otherwise 
support Saudi Arabia and the U.A.E in Yemen is the best way to support 
human rights there?

    Answer. Our military cooperation with the UAE supports U.S. 
strategic interests. We provide training and other support related to 
human rights and avoiding civilian harm in combat. If confirmed, I will 
support these efforts.

    Question. Conflicts of Interest: Do you commit to bring to the 
committee's attention (and the State Department Inspector General) any 
change in policy or U.S. actions that you suspect may be influenced by 
any of the President's business or financial interests, or the business 
or financial interests of any senior White House staff?

    Answer. Yes.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. Yes.

    Question. Do you or do any members of your immediate family have 
any financial interests in the U.A.E.?

    Answer. Yes. In 2014 I made a passive private equity commitment to 
Abraaj Growth Markets Trust, a Delaware statutory trust feeder 
constructed to invest all of its investible assets in Abraaj Global 
Growth Markets Fund, L.P., a Cayman Island exempted limited 
partnership. To the best of my knowledge, the fund previously owned 
three investments based in the UAE, all of which have been divested. 
Abaaj Growth Markets Trust is on my OGE Ethics Agreement Divestiture 
list, meaning I will divest from this fund within 90 days if confirmed.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. It is my firm belief, based on years of successful efforts 
in my own company that all stakeholders to any effort should benefit 
from their collective efforts. Only when all stakeholders have equal 
access to opportunity and success does the ``extended enterprises 
chain'' stay competitive and sustainable for the long term. There are 
no shortcuts; I don't believe in them. When harmony is threatened, 
results are compromised. Diverse thinking makes for better decisions. 
As a society we have a lot of work to do in this realm. I feel an 
inherent responsibility to this and it is foundational to my very 
being. It starts with core values, embraced by and fully supported by 
the leadership. It must be implemented across all management and 
endorsed by all employees and other stakeholders. If confirmed, I 
pledge to lead from the top, as the Ambassador.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I would begin with a written plan, personal 
involvement, and sufficient resources. I would follow my tried and 
proven methodology of PDCA--Plan (in writing), Do (assign 
implementation responsibility), Check (short time out to measure 
results), Act (make corrections and start the process again). I would 
assign a senior level embassy officer the responsibility to manage its 
implementation. My leadership team and I would provide mentoring and 
networking opportunities. I would work closely with section chiefs to 
ensure that all supervisors foster a diverse and inclusive environment.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in the U.A.E. 
specifically? What is your assessment of corruption trends in the 
U.A.E. and efforts to address and reduce it by that government? If 
confirmed, what steps will you take to strengthen good governance and 
anticorruption programming in the U.A.E.?

    Answer. Political corruption undermines the legitimacy of any form 
of governance, especially democratic governance, by eroding support for 
public institutions and undermines popular confidence in the rule of 
law. If confirmed, I will engage with the UAE authorities to encourage 
increased political and fiscal transparency and a dialogue on 
responsive governance. I will also work to ensure that U.S. assistance 
programs promote professionalism among the UAE's public servants and 
efforts to improve public financial management as well as rule of law 
development.

    Question. U.A.E and Saudi Arabia have come under substantial 
international criticism for contributing to a humanitarian crisis in 
Yemen. Both chambers of Congress have separately passed resolutions 
directing the Trump Administration to reduce logistical support for the 
Arab coalition fighting in Yemen. To what extent are the humanitarian 
effects and other consequences of the war in Yemen an irritant in the 
U.S.-U.A.E relationship?

    Answer. I am told the UAE has been among the largest donors to 
international efforts to provide relief to Yemenis affected by the 
ongoing conflict. We have encouraged Saudi Arabia and the UAE to 
contribute to the humanitarian response in Yemen by channeling 
contributions through the United Nations; on February 26, the U.N. 
announced that Saudi Arabia and the UAE each pledged $750 million 
toward the 2019 response. The UAE is also an important political, 
economic, and military partner of the United States on our most 
pressing regional challenges, including Syria, Iraq, Iran, Afghanistan, 
and in the global fight against ISIS and al-Qa'ida. I understand the 
Administration coordinates closely with UAE leadership on its policy in 
Yemen, as it does on other key areas of concern.

    Question. In your view, should the U.S. contemplate changing its 
level of support for the Saudi-led coalition in that war, of which the 
U.A.E is a key part?

    Answer. As I understand it, U.S. support to and engagement with the 
Coalition has played an important role in facilitating the U.N.-led 
political track to end the Yemen conflict, minimizing harm to 
civilians, addressing the dire humanitarian crisis. The Coalition 
partners have engaged the parties at key junctures to ensure their 
constructive participation in the U.N. process, and the threat of 
Coalition military pressure has ensured the Houthis--who have backed 
out of numerous prior agreements--remain at the negotiating table. 
Ongoing U.S. support to the Coalition is also vital to deterring Iran's 
ambitions on the Arabian Peninsula. If confirmed, I will work through 
my offices to ensure U.S. support to the Coalition promotes long-term 
U.S. interests of stability in Yemen and in the region as a whole.

    Question. Should the U.S. push to have the U.A.E commit additional 
funds for U.N. humanitarian operations in Yemen and to ensure low food 
prices so that Yemeni people can afford to feed their families?

    Answer. I understand that the Emiratis have been among the largest 
humanitarian donors to Yemen, but that they are still in the process of 
disbursing the funds they pledged during the February 26 U.N. 
Conference in Geneva, and that State Department officials support calls 
for the Saudis and Emiratis to disburse the remaining funds immediately 
to avoid a gap in the humanitarian response. If confirmed, I will 
continue to emphasize to my Emirati counterparts the important role 
that their humanitarian contributions play in preventing the worsening 
of the humanitarian crisis, and explore the potential for greater UAE 
engagement with the Central Bank of Yemen on capacity building to 
forestall the depreciation of the Yemeni riyal, so that Yemenis can 
afford the food they desperately need.

    Question. The 2018 State Department Country Reports on Human Rights 
list several human rights issues associated with the U.A.E. Among them 
include allegations of torture in detention, arbitrary arrest and 
detention, undue restrictions on free expression and the press, and 
substantial interference with the rights of peaceful assembly and 
freedom of expression. If confirmed, what is your plan to tackle this 
list of issues? To what extent is the country's treatment of dissenters 
and activists who a factor in U.S. policy toward the U.A.E? If 
confirmed, how would you wish to change this, if at all?

    Answer. I understand from the Human Rights Report released by the 
State Department that the UAE's constitution prohibits torture and 
arbitrary arrest and detention, but authorities reportedly often hold 
persons in custody for extended periods without charge, access to an 
attorney, or a preliminary judicial hearing--including some reportedly 
detained because of their political views or affiliations. I also 
understand citizens and noncitizens have access to the courts to seek 
damages for, or cessation of, human rights violations. If confirmed, my 
embassy team and I will engage with credible civil society groups and 
human rights advocates, as well as UAE authorities to uphold their 
constitutional obligations to respect human rights and civil 
liberties.Questions for the Record Submitted to

    Question. To date, the GCC rift has defied U.S., Kuwaiti, and other 
mediation efforts. If confirmed, what further steps would you take to 
advance the U.S. objective of ending the intra-GCC rift with Qatar? 
What are the key obstacles to resolving that dispute?

    Answer. The President and Secretary Pompeo have been clear that the 
Gulf dispute has gone on too long. The dispute benefits our adversaries 
and harms our mutual interests. The Administration continues to 
underscore to the parties the political, economic, security, and social 
benefits of Gulf unity, especially in light of the threat from Iran. I 
believe having the Ambassador at post will add strength and frequency 
to our argument. If confirmed, I would make this a top priority.

    Question. To your knowledge, what are the Administration's main 
goals for a U.S.-GCC summit that has been long delayed?

    Answer. Significant political, economic, security, and human 
linkages underpin Gulf relations, and the Administration's view is that 
greater cooperation and more dialogue between the Gulf countries is in 
U.S. interests. The U.S. is actively working to strengthen our 
partnership with the GCC states via significant engagement on regional 
security, nonproliferation, alternative energy development (including 
nuclear energy and renewables), and support for economic 
diversification.
    On the political front, I understand the Administration consults 
with our Gulf partners to coordinate efforts to manage regional 
political, diplomatic, and security challenges, including threats posed 
by Iran.

    Question. What preconditions are there, if any, for the summit? Do 
you believe there should be preconditions?

    Answer. I am not aware of any preconditions for a GCC Summit. If 
confirmed, I look forward to learning more about the underlying 
positions and policy concerns of individual GCC member countries. I 
believe dialogue is important and if confirmed, I would fully support 
the Administration's efforts to bring the GCC countries together for a 
summit.

    Question. Do you expect the meeting to be held in 2019?

    Answer. I am not yet in a position to predict when such a meeting 
might be held. The Administration hosted a successful GCC+2 (Egypt and 
Jordan) Ministerial in September 2018, and GCC members have convened 
since then in several different fora. On that basis, it seems 
reasonable to expect the GCC Summit could be held in 2019.

Trafficking in Persons
    Question. The U.A.E is considered a ``destination country'' for 
women trafficked from Asia and the former Soviet Union. In your view, 
what does the U.A.E need to do to improve its efforts to counter 
trafficking in persons?

    Answer. In the annual Trafficking in Persons report it releases to 
the public, the Department said the UAE continued to make important 
progress toward meeting the minimum standards for the elimination of 
trafficking enshrined in the Trafficking Victims Protection Act. The 
report states that in order to continue to improve on their ongoing 
efforts, the UAE needs to increase the number of investigations, 
especially by investigating potential forced labor crimes indicators, 
the trafficking of domestic workers, and officials complicit in 
trafficking crimes, and that it also needs to finish implementing 
regulations and implement the domestic worker law that expands 
protections for domestic workers, expand reforms to the sponsorship-
based employment system, and regularly employ standard victim 
identification procedures. If confirmed, I will seek to better 
understand the ways in which sponsorship laws contribute to 
vulnerability to trafficking, particularly for domestic employees, by 
restricting the ability of employees to leave or change employers, and 
giving employers the power to cancel residence permits, deny employees 
permission to leave the country, and threaten employees with abuse of 
legal processes.



                               __________


            Responses to Additional Questions for the Record
        Submitted John Rakolta, Jr. to by Senator Jeanne Shaheen

    Question. In the fiscal year 2019 National Defense Authorization 
Act, Congress established firm benchmarks for recipients of U.S. 
military sales on avoiding civilian casualties in Yemen.

   In your view, has the UAE in its coalition with Saudi Arabia 
        undertaken appropriate measures to mitigate humanitarian strife 
        and to support a diplomatic solution?

    Answer. I understand the UAE pledged to contribute $750 million in 
2019 to support United Nations efforts to provide relief to Yemenis 
affected by the ongoing conflict. I also understand the Department has 
encouraged Saudi Arabia and the UAE to fulfill these pledges 
immediately. These contributions are critical to enable the U.N. to 
continue supporting life-saving health, nutrition, and food assistance 
programs. The UAE continues to support U.N.-led efforts to bring both 
sides to the conflict together for negotiations. I understand the 
Administration coordinates closely with UAE leadership on its policy in 
Yemen, as it does on other key areas of concern.

    Question. As Ambassador, how would you ensure that the UAE adheres 
to its commitments on humanitarian concerns?

    Answer. I understand that the Emiratis are still in the process of 
disbursing the funds they pledged during the February 26 U.N. 
Conference in Geneva, and that State Department officials support calls 
for the Saudis and Emiratis to disburse the remaining funds immediately 
to avoid a gap in the humanitarian response. If confirmed, I will 
emphasize to my Emirati counterparts the important role that their 
humanitarian contributions play in preventing the worsening of the 
humanitarian crisis, and explore the potential for greater UAE 
engagement with the Central Bank of Yemen on capacity building to 
forestall the depreciation of the Yemeni riyal, so that Yemenis can 
afford the food they desperately need.



                               __________

 Letter from Ranking Member Senator Robert Menendez to Andrew Bremberg
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Amnesty International Report Submitted for the Record by Senator Markey

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

  Relevant Excerpts from the San Diego Union-Tribune Employee Handbook

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, JULY 17, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:05 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Lindsey Graham, 
presiding.
    Present: Senators Graham [presiding], Gardner, Young, 
Shaheen, Coons, and Kaine.

           OPENING STATEMENT OF HON. LINDSEY GRAHAM, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Graham. Thank you. Sorry we are late. We had to 
vote.
    My opening remarks will be very quick. I have been working 
with Senator Coons and many others, and Senator Kaine has a lot 
of interest in this. From an American point of view, our 
policies in Africa, we need to up our game, and it is a 
wonderful opportunity for the United States to be a better 
partner for the continent of Africa, a lot of opportunities, a 
lot of challenges. This is where the war against radical Islam 
is going to go, as you make it harder for them to reside in the 
Mideast. And I just cannot tell you how much I enjoyed visiting 
the continent. And each of you in your own way will be our 
voice, and I just hope you will understand that from American 
point of view, the 21st century, the big prize is trying to 
have a better relationship with Africa before the Chinese take 
the place over.
    Senator Kaine?

                 STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. Thank you, Mr. Chair.
    And it is good to be with each of you. Congratulations on 
your nominations.
    This is my first time in the Senate where I am serving on 
the Africa Subcommittee, and I am really looking forward to 
learning from my colleagues and learning from you.
    To Ambassador Leonard, Mr. Bell, and Ms. Lapenn, you have 
all recently left leadership positions in Africa to come here. 
Your careers in representing our country all over the world are 
very long and very impressive, and I am very appreciative of 
the opportunity and the experience that each of you bring from 
your service on the continent.
    Ambassador Leonard served as our representative to the 
African Union in Addis Ababa and previously as Ambassador to 
Mali, as well as service in South Africa, Togo, Namibia, 
Cameroon.
    Mr. Bell was charge d'affaires in N'Djamena in Chad, also 
having served in Niger, Ethiopia, Madagascar, and then at 
AFRICOM.
    Ms. Lapenn, charge d'affaires in Pretoria, having also 
served in Rwanda, and this in addition to many other positions. 
And I want to acknowledge, Ms. Lapenn, you are a former Pearson 
Fellow on Capitol Hill with this committee, and I have a 
Pearson Fellow, Mimi Estes, behind me, and today is her last 
day before she goes back to the State Department. And it is a 
wonderful, and the State Department folks who are loaned as 
Pearson Fellows to the Hill--we could not get our work done 
without them.
    To Ms. Bekkering, you have been doing the job for which you 
have been nominated in an acting capacity and we thank you for 
your service both to this administration and also to the 
administration of President George W. Bush. I look forward to 
sharing your insider's perspective on USAID operation and 
funding.
    And finally, Ms. Marks, we look forward to hearing about 
your unique background and experience and your thoughts on the 
important U.S. relationship with South Africa.
    Many challenges. Senator Graham addressed a few. I have 
heard him talk in the past and share his concern about 
instability in the Sahel and how that could pose a threat to 
the relative stability, good governance, and economic revival 
in Cote d'Ivoire. The African Union is an important body 
managing significant crises, numerous crises and conflicts 
affecting its members, and we need to figure out the right way 
to strategize to work in partnership going forward.
    I think this is going to be a good hearing. I, again, 
congratulate each of you on your nomination and look forward to 
hearing your opening statements and moving to questions.
    Senator Graham. Thank you. That was a good overview.
    You do not have to get sworn in, but do not lie.
    [Laughter.]
    Senator Graham. All right. Ms. Marks, go ahead.

     STATEMENT OF LANA MARKS, OF FLORIDA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
            AMERICA TO THE REPUBLIC OF SOUTH AFRICA

    Ms. Marks. Mr. Chairman, Ranking Member, distinguished 
members of the committee, I am honored to appear before you 
today as President Trump's nominee to be the next U.S. 
Ambassador to the Republic of South Africa. I am thankful to 
the President and to Secretary Pompeo for the confidence and 
trust they have placed in me through my nomination to this very 
important role.
    My family is here with today, and I would like to thank my 
husband, Dr. Neville Marks, who has stood by my side for 43 
years of marriage; my son, Martin Marks, for his tireless 
support throughout this process; and my amazing daughter, 
Tiffany Marks; my son-in-law Simon; and my grandchildren, 
Asher, Skyla, and Mia.
    I am blessed in my family. For many reasons, we represent 
the American dream, one that has been achieved through hard 
work, determination, and perseverance.
    My father was a good and fair man. He escaped the anti-
Semitism of Lithuania in the 1930s and emigrated to South 
Africa where he worked his way through university, earned a 
degree in engineering, and then went into real estate 
development. When the apartheid laws came into effect, he 
realized that the values of his adopted country did not match 
the values he held dear.
    I married my husband when I was 22 years old, and we moved 
to Bermuda where he established himself as a psychiatrist. When 
my husband was offered a professorship in America, we decided 
to leave everything behind for our new home. We settled in 
Miami where I started a small artisanal handbag business from 
the kitchen table of our two-bedroom apartment. In the last 15 
years, I visited 110 countries as I grew that business into a 
global brand. I am honored to have served as a member of 
Harvard University's Kennedy School of government's Women's 
Leadership Board, as a distinguished speaker for Georgetown 
University's Women's Leadership Initiative, and to have 
represented the United States in Helsinki, Finland for the 
Women Business Leaders Summit.
    In 1994, I became an American citizen. By coincidence, this 
is also the year that Nelson Mandela became President of South 
Africa. In just 25 years, the country of my birth has undergone 
a miraculous transformation through its peaceful transition 
away from the brutal apartheid regime and now stands as a 
pillar of democracy. It fills me with great personal pride to 
witness the legacy of Nelson Mandela in this remarkable 
evolution of South Africa.
    South Africa has joined the ranks of the G-20 group of the 
world's most important economies, and it currently sits on the 
United Nations Security Council as an elected member. It has 
not only become an engine of economic growth for Africa and 
beyond, but also leads by example in the region, including by 
contributing over 1,000 troops to peacekeeping operations in 
the Democratic Republic of the Congo.
    If confirmed, my top priority would undoubtedly be the 
safety and security of all Americans in South Africa, a 
priority enunciated by Secretary Pompeo. I would also work to 
further cultivate the already robust relationship the United 
States enjoys with South Africa, deepening both our government 
dialogue and our important trade and investment ties. South 
Africa is our most developed trading partner in sub-Saharan 
Africa. American firms contribute about 10 percent of South 
Africa's GDP, and I will work tirelessly to expand markets in 
South Africa for American businesses.
    The ongoing battle against HIV and AIDS, which affects more 
than 7 and a half million South Africans, is one that we can 
win. Since 2004, Congress has appropriated more than $6 billion 
in funding through the U.S. President's Emergency Plan for AIDS 
Relief, or PEPFAR, just in South Africa. We should use the 
momentum of this generous funding and continued bipartisan 
support to put an end to the scourge of HIV and AIDS and to 
reach epidemic control by 2020.
    The issues of women's and youth empowerment, 
entrepreneurship, and economic opportunities are ones that I 
personally hold dear. The future of South Africa can be seen in 
the faces of its young citizens, and I will work tirelessly, if 
confirmed, to ensure that the prospects every person deserves 
should not be out of reach for any South African.
    I have witnessed both the struggles and the triumphs of the 
land that Archbishop Desmond Tutu called ``the rainbow 
nation.'' After centuries of hardship and colonialism, South 
Africa has embraced democratic ideals and serves as a beacon of 
hope for the rest of Africa. It is further heartening to see 
the recent election of President Ramaphosa. In this renewed era 
of democracy, we must reinforce that we are true partners on 
the road ahead.
    There are deep, longstanding, and genuine ties of affection 
that bind Americans and South Africans. If confirmed, I would 
be deeply honored to use my knowledge and skills to strengthen 
these ties.
    Thank you for the honor and privilege of allowing me to 
appear before the committee today. I welcome your questions.
    [The prepared statement of Ms. Marks follows:]


                  Prepared Statement of Lana J. Marks

    Mr Chairman, Ranking Member, distinguished members of the 
committee: I am honored to appear before you today as President Trump's 
nominee to be the next U.S. Ambassador to the Republic of South Africa. 
I am thankful to the President and to Secretary Pompeo for the 
confidence and trust they have placed in me through my nomination to 
this very important role.
    My family is here with me today, and I would like to thank my 
husband, Dr. Neville Marks, who has stood by my side for 43 years of 
marriage; my son, Martin Marks, for his tireless support throughout 
this process; my amazing daughter, Tiffany Isaacs; my son-in-law, 
Simon; and my grandchildren, Asher, Skyla, and Mia.
    I am blessed in my family. For many reasons, we represent the 
American Dream, one that has been achieved through hard work, 
determination, and perseverance.
    My father was a good and fair man. He escaped the antisemitism of 
Lithuania in the 1930s, and emigrated to South Africa, where he worked 
his way through university, earned a degree in engineering, and then 
went into real estate development. When the apartheid laws came into 
effect, he realized that the values of his adopted country did not 
match the values he held dear.
    I married my husband when I was 22 years old, and we moved to 
Bermuda, where he established himself as a psychiatrist. When my 
husband was offered a professorship in America, we decided to leave 
everything behind for our new home. We settled in Miami, where I 
started a small, artisanal handbag business from the kitchen table of 
our two-bedroom apartment. In the last 15 years, I visited 110 
countries as I grew that business into a global brand. I am honored to 
have served as a member of Harvard University's Kennedy School of 
government's Women's Leadership Board, as a distinguished speaker for 
Georgetown University's Women's Leadership Initiative, and to have 
represented the United States in Helsinki for the Women Business 
Leaders Summit.
    In 1994, I became an American citizen. By coincidence, this was 
also the year that Nelson Mandela became president of South Africa. In 
just 25 years, the country of my birth has undergone a miraculous 
transformation through its peaceful transition away from the brutal 
apartheid regime, and now stands as a pillar of democracy. It fills me 
with great personal pride to witness the legacy of Nelson Mandela in 
this remarkable evolution of South Africa.
    South Africa has joined the ranks of the G-20 group of the world's 
most important economies, and it currently sits on the United Nations 
Security Council as an elected member. It has not only become an engine 
of economic growth for Africa and beyond, but also leads by example in 
the region, including by contributing over 1,000 troops to peacekeeping 
operations in the Democratic Republic of the Congo.
    If confirmed, I will work to encourage the government of South 
Africa to continue its leadership in the region, including by promoting 
respect for human rights and good governance.
    If confirmed, my top priority would undoubtedly be the safety and 
security of all Americans in South Africa, a priority well-enunciated 
by Secretary Pompeo. I would also work to further cultivate the already 
robust relationship the United States enjoys with South Africa, 
deepening both our government dialogue and our important trade and 
investment ties. South Africa is our most developed trading partner in 
sub-Saharan Africa; deepening those ties would directly support one of 
the Administration's key objectives in the Africa Strategy. Considering 
that American firms already contribute about 10 percent of South 
Africa's GDP and employ about 200,000 South Africans in direct and 
indirect positions, I will work tirelessly to expand markets in South 
Africa for American exporters and ensure our businesses and products 
are treated fairly.
    The ongoing battle against HIV and AIDS, which affects more than 
seven and a half million South Africans, is one that we can win. Since 
2004, Congress has appropriated more than $6 billion in funding through 
the U.S. President's Emergency Plan for AIDS Relief, or PEPFAR, just in 
South Africa. We should use the momentum of this generous funding and 
continued bipartisan support to put an end to the scourge of HIV and 
AIDS once and for all. If confirmed, I will work intensively with our 
PEPFAR team and our South African partners and the government to ensure 
our funding is applied in the most efficient and effective ways 
possible to reach epidemic control by 2020.
    The issues of women's and youth empowerment, entrepreneurship, and 
economic opportunities are ones that I personally hold dear. The future 
of South Africa can be seen in the faces of its young citizens, and I 
will work tirelessly, if confirmed, to ensure that the prospects every 
person deserves should not be out of reach for any South African.
    I have witnessed both the struggles and the triumphs of the land 
that Archbishop Desmond Tutu called ``the rainbow nation.'' After 
centuries of hardship and colonialism, South Africa has embraced 
democratic ideals, and serves as a beacon of hope for the rest of 
Africa. It is further heartening to see the recent election of 
President Ramaphosa. In this renewed era of democracy, we must 
reinforce our message to the South African people that we are true 
partners on the road ahead.
    There are deep, long-standing, and genuine ties of affection that 
bind Americans and South Africans. If confirmed, I would be deeply 
honored to use my knowledge and skills to strengthen these ties.
    Thank you for the honor and privilege of allowing me to appear 
before the committee today. I welcome your questions.


STATEMENT OF JESSICA E. LAPENN, OF NEW YORK, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
 REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE AFRICAN 
UNION, WITH THE RANK AND STATUS OF AMBASSADOR EXTRAORDINARY AND 
                        PLENIPOTENTIARY

    Ms. Lapenn. Mr. Chairman, Ranking Member Kaine, 
distinguished members of the Senate Foreign Relations 
Committee, thank you for this opportunity to appear before you 
today. I am honored to be the President's nominee for the 
position of U.S. Ambassador to the African Union and 
Representative to the United Nations Economic Commission for 
Africa. I am grateful for the trust and confidence the 
President and Secretary Pompeo have placed in me. If confirmed, 
I pledge to work with you to advance our nation's interests at 
these institutions.
    My parents, Joyce and Jim Lapenn, are with me today, as 
they have been every step of my almost 25 years in the Foreign 
Service. In country after country, they have visited me, often 
volunteering in local organizations, helping me more fully 
reflect American values of service, of generosity, and 
partnership.
    I am not joined today by my 10-year-old son Jasper, though 
he has fully shared in my Foreign Service life. He was born in 
Jerusalem and has spent almost half his life on the African 
continent. He is not here because he is reconnecting to 
American life at summer camp in New Hampshire.
    I entered the Foreign Service for both the ``foreign'' and 
the ``service.'' I was attracted by the prospects of foreign 
experiences and by the opportunities for meaningful service, 
and I have found both in equal measure. Across my posts, I have 
had the privilege to represent, to advance vital American 
security, political, and economic interests. From Jerusalem to 
Johannesburg, I have strived to do so in a way that 
communicated shared American values and in service to the 
American people. If confirmed by this body, my tenure in Addis 
would be defined and shaped by those experiences.
    The African Union is a unique and influential forum. It 
brings together 55 member states to discuss and take action on 
the continent's foremost issues and to formulate and establish 
standards by which all members can hold each other accountable. 
It is a forum where our voice needs to be heard.
    If confirmed, I would focus on three key priorities: 
expanding trade and investment; advancing peace and security; 
and supporting democracy, human rights, and good governance 
across the continent.
    Africa is, in part, defined by its youthful population. 
Economic transformation is essential to ensure that this is an 
asset, not a vulnerability. The private sector can generate the 
jobs that young Africans need and want. By helping American 
business and investment succeed in Africa, we can foster 
prosperity on the continent, as well as here at home. From the 
passage by this body the BUILD Act to the recent rollout of 
Prosper Africa, the United States has expanded its toolkit for 
economic engagement. We have done so in stark contrast to the 
more predatory and debt diplomacy of others.
    The recent establishment of the African Continental Free 
Trade Area, or AfCFTA, represents an exciting opportunity for 
African governments to reduce trade barriers and increase trade 
and investment. The AU will be at the center of its 
implementation. If confirmed, I will focus on creating 
opportunities for U.S. business and expanding U.S.-Africa trade 
and investment.
    My second priority, if confirmed, will be advancing peace 
and security. Fragility, ongoing conflicts threaten global and 
national security. The African Union has made significant 
strides to prevent, respond to, and resolve armed conflict and 
counter transnational threats. Over the past decade plus, the 
AU, sub-regional organizations, and member states have played a 
key role as first responders to regional conflicts, and we have 
been with them throughout. If confirmed, I will continue 
building and integrating the AU's counterterrorism and conflict 
prevention capabilities.
    Finally, if confirmed, I will work with the AU to encourage 
democracy and good governance practices, which are so critical 
for peace, security, and sustained economic growth. Our shared 
commitment to democratic principles, including open and 
accountable governance, credible elections, peaceful 
transitions of power and respect for human rights and the rule 
of law--these are the very foundation of the U.S.-AU 
relationship.
    The outstanding USAU team has been dedicated to partnering 
with the African Union and its member states to ensure a secure 
and prosperous future and to deepening U.S.-African ties. If 
confirmed, I look forward to leading their efforts.
    Mr. Chairman, Ranking Member Kaine, members of the 
committee, thank you again for this opportunity. I look forward 
to your questions.
    [The prepared statement of Ms. Lapenn follows:]


                  Prepared Statement of Jessica Lapenn

    Mr. Chairman, Ranking Member, distinguished members of the Foreign 
Relations Committee, thank you for the opportunity to appear before you 
today. I am honored to be the President's nominee for the position of 
the U.S. Ambassador to the African Union and Representative to the 
United Nations Economic Commission for Africa. I am grateful for the 
trust and confidence the President and Secretary Pompeo have placed in 
me. If confirmed, I pledge to work with you to advance our nation's 
interests at these institutions.
    My parents, Joyce and Jim Lapenn, are with me today--as they have 
been every step of my career for the last almost twenty-five years. In 
country after country, they have visited me and often volunteered in 
local organizations, helping me to more fully reflect American values 
of service, generosity, and partnership.
    I'm not joined today by my ten-year-old son Jasper, who has fully 
shared in my Foreign Service life. Indeed, he has lived more than half 
his life on the African continent. Unfortunately for me, Jasper isn't 
here because he's at summer camp, reconnecting to American life.
    Today is significant for me. I entered the Foreign Service for both 
the ``Foreign'' and the ``Service.'' I was attracted by the prospects 
of foreign experiences and by the opportunities for meaningful service, 
and I have found both in equal measure over nearly a quarter of a 
century in posts in the Middle East, the United Nations, Washington, 
DC, and Africa. Across my posts, I have had the privilege to represent 
and advance vital American security, economic, and political interests. 
From Jerusalem to Johannesburg, I have strived to do so in a way that 
communicated shared American values and in service to the American 
people. If confirmed by this body, my service in Addis Ababa would be 
defined and shaped by these experiences.
    The African Union (AU) is a unique and influential forum that 
brings together all 55 member states to discuss and take action on the 
continent's foremost issues, and to formulate and establish standards 
by which all members can hold each other accountable. It is a forum 
where our voice needs to be heard.
    If confirmed, I would focus on three key priorities: expanding 
trade and investment opportunities; advancing peace and security; and 
supporting democracy, human rights, and good governance across the 
continent.
    One of Africa's greatest assets is its youth. An estimated 70 
percent of sub-Saharan Africa's population is under the age of 30. 
Economic transformation is essential to ensure that Africa's youth is 
an asset, not a vulnerability.
    Only the private sector can generate the jobs that young Africans 
need and want. By helping American business and investment succeed in 
Africa, we can foster prosperity on the continent and here at home. 
From the passage by this body of the BUILD Act to the recent rollout of 
Prosper Africa, the United States has expanded its tool-kit for 
economic engagement with Africa, and we have done so in stark contrast 
to the more predatory debt diplomacy of other countries.
    The recent establishment of the African Continental Free Trade Area 
(AfCFTA) represents an exciting opportunity for African governments to 
reduce trade barriers and increase trade and investment, and the AU 
will be at the center of its implementation. If confirmed, my 
leadership of the U.S. Mission to the African Union will focus on 
building bridges between the U.S. and African private sectors, reducing 
barriers to American investment, and fostering entrepreneurship to 
deepen and expand U.S.-Africa trade and investment.
    If confirmed, I will also prioritize advancing peace and security. 
Fragility and ongoing conflicts in Africa threaten global and U.S. 
national security. They stifle economic growth, enable the spread of 
radical extremism and pandemic disease, and trigger destabilizing 
migration flows. The African Union has made significant strides to 
prevent, respond to, and resolve armed conflict and to counter 
transnational threats. Over the past decade plus, the AU, sub-regional 
organizations, and AU member states have played a key role as first 
responders to regional conflicts, and we have been with them 
throughout. We have provided capacity building in peacekeeping and 
counterterrorism and supported almost all current and past AU-
sanctioned operations. Because of U.S. support, Africans now comprise 
more than 60 percent of peacekeepers on the continent, up from 40 
percent just ten years ago. If confirmed, I intend to continue building 
and integrating the AU's counterterrorism and conflict prevention 
capabilities.
    Finally, if confirmed, I will work with the AU to encourage 
democracy and good governance practices, which are critical for peace, 
security, and sustained economic growth. Our shared commitment to 
democratic principles--including open and accountable governance; 
credible elections and peaceful transitions of power; respect for human 
rights and the rule of law; and expanding access to justice--are the 
foundation of the United States and African Union's excellent 
relationship. If confirmed, I will work to facilitate frank dialogue 
around these goals--which will necessarily entail communicating clearly 
to AU members the need for inclusive and transparent democratic 
processes that include civil society and youth participation.
    The outstanding USAU team in Addis is dedicated to partnering with 
the African Union and its member states to ensure a secure and 
prosperous future for the continent's 1.3 billion people and to 
deepening U.S.-African ties. If confirmed, I will look forward to 
leading their efforts.
    Mr. Chairman, Ranking Member, and members of the committee, thank 
you again for the opportunity to appear before you today. I look 
forward to answering your questions.


STATEMENT OF RICHARD K. BELL, OF PENNSYLVANIA, A CAREER MEMBER 
   OF THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
       STATES OF AMERICA TO THE REPUBLIC OF COTE D'IVOIRE

    Mr. Bell. Mr. Chairman, Ranking Member, distinguished 
members of the committee, I am honored and humbled to appear 
before you today and I am grateful to the President and 
Secretary Pompeo for the confidence they have placed in me as 
their nominee to be the next U.S. Ambassador to the Republic of 
Cote d'Ivoire. If confirmed, I will dedicate myself to 
furthering this important bilateral relationship and advancing 
America's interests in Cote d'Ivoire.
    I would like to thank my parents, Bill and Cathy Bell, who 
gave my brothers and me an enriching upbringing on three 
continents, an unwavering example of integrity, humility, and 
grace, and a love for our country that our international 
experiences only served to strengthen. My brothers, Mark and 
Paul, have been inspiring me for decades.
    I am the proud father of Annis and Will and so grateful to 
their mother Vicky, without whom I probably never would have 
joined the Foreign Service.
    I would like to say a special thanks to Ambassador Don 
Yamamoto, currently our Ambassador in Somalia. When he was 
running the Africa Bureau, he really went above and beyond 
advocating for an ambassadorship for me.
    I would also like to note the presence of Ms. Hannah 
Ingleton, the desk officer for Cote d'Ivoire, who has done such 
a fine job preparing me for this hearing.
    In my 28 years as a Foreign Service officer, I have had the 
privilege of serving on or near four continents, including 
three full tours in Africa: Madagascar, Ethiopia, and Niger 
where I was charge d'affaires for a year. Since September, I 
have been serving as the charge d'affaires in Chad.
    Cote d'Ivoire has seen immense success since 2011 after 
emerging from civil conflict and is once again an engine of 
growth in West Africa. The country went from negative growth 
and stagnation during a decade-long conflict to real GDP growth 
of 7 to 9 percent annually since 2012. Cote d'Ivoire is the 
world's largest exporter of cocoa beans and raw cashews and one 
of the best performing economies in the world. The U.S. 
government is supporting the Ivoirians in this growth. In 2017, 
a $525 million Millennium Challenge Corporation Compact was 
signed to support the country's education and transportation 
sectors. In addition, in December 2018, Secretary of Commerce 
Wilbur Ross and the foreign minister of Cote d'Ivoire signed a 
memorandum of understanding which aims to help U.S. companies 
increase investment in Cote d'Ivoire. And Cote d'Ivoire will 
host the 2019 African Growth and Opportunity Act Annual Forum 
in Abidjan next month.
    Cote d'Ivoire is the United States' largest Francophone 
Africa trading partner, and the United States imports 15 
percent of Cote d'Ivoire's cocoa. Almost every M&M and Snickers 
bar that Mars sells here in the United States contains Ivoirian 
cocoa. I am aware of concerns about child labor in the cocoa 
sector and know that the embassy is working closely with the 
Ivoirian government, NGOs, and the chocolate industry to 
address these concerns. Much of our engagement with Cote 
d'Ivoire addresses factors that can contribute to child labor. 
We are thus active in supporting women's economic empowerment, 
improving access to education, and improving health services. 
Our efforts to increase law enforcement capacity will help Cote 
d'Ivoire deal with those who use child labor and exploit 
children in forced labor.
    Cote d'Ivoire aims to become an emerging economy by 2020, 
but to meet this goal, the country must sustain its impressive 
economic growth, distribute benefits more broadly, improve 
government services, strengthen democratic institutions, 
improve security sector governance, and conduct free and 
credible elections in 2020.
    A strong democracy, political inclusiveness, and 
reconciliation will be necessary to solidify Cote d'Ivoire's 
economic success and ensure the country does not fall back into 
civil conflict. If confirmed, I will work with the government 
of Cote d'Ivoire to strengthen governance, enhance 
transparency, and become increasingly responsive to citizen 
needs. I will also support democratic institutions and advocate 
for 2020 presidential elections that are free, fair, and thus 
credibly reflect the will of the Ivoirian people.
    Thank you, Mr. Chairman, Ranking Member, and distinguished 
members of the committee, for this opportunity to appear before 
you. The Ivoirian people from the president and his government 
to the humblest cocoa farmers are friends of America. If 
confirmed, I will strive to keep it that way, to reinforce our 
interests in a stable, prosperous, and peaceful Cote d'Ivoire. 
I warmly welcome any questions.
    [The prepared statement of Mr. Bell follows:]


                   Prepared Statement of Richard Bell

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, I am humbled to have been selected to appear before you 
today and am grateful to the President and Secretary Pompeo for the 
confidence they have placed in me as their nominee to be the next U.S. 
Ambassador to the Republic of Cote d'Ivoire. If confirmed, I will 
dedicate myself to furthering this important bilateral relationship, 
and advancing America's interests in Cote d'Ivoire.
    I would like to thank my parents, Bill and Cathy Bell, who gave my 
brothers and me an enriching upbringing on three continents, an 
unwavering example of integrity, humility and grace, and a love for our 
country that our international experiences only served to strengthen. 
My brothers Mark and Paul have been inspiring me for decades. I am the 
proud father of Annis and Will, and so grateful to their mother Vicky, 
without whom I probably never would have joined the Foreign Service. I 
would also like to thank Ambassador Don Yamamoto, now our ambassador to 
Somalia: when he was running the Africa Bureau of the State Department, 
he went above and beyond in advocating for an ambassadorship for me.
    In my twenty-eight years as a Foreign Service Officer, I've had the 
privilege of serving on or near four continents, including three full 
tours in Africa: Madagascar, Ethiopia, and Niger--where I was Charge 
d'Affaires for a year. Since September 2018, I've been serving as the 
Charge d'Affaires in Chad. Not coincidentally, three of those African 
postings were in Francophone countries, where I was able to put my 
French fluency to good use. I look forward to getting to know 
personally the ``jewel of West Africa,'' Cote d'Ivoire.
    Cote d'Ivoire has seen immense success since 2011, after emerging 
from civil conflict, and is once again an engine of growth in West 
Africa. The country went from negative growth and stagnation during a 
decade-long conflict, to real GDP growth of seven to nine percent 
annually since 2012. Cote d'Ivoire is the world's largest exporter of 
cocoa beans and raw cashews, and one of the best-performing economies 
in the world. The U.S. government is supporting the Ivoirians in this 
growth. In 2017, a 525 million dollar Millennium Challenge Corporation 
Compact was signed to support the country's education and 
transportation sectors. In addition, in December 2018, Secretary of 
Commerce Wilbur Ross and the Foreign Minister of Cote d'Ivoire signed a 
memorandum of understanding which aims to help U.S. companies increase 
investment in Cote d'Ivoire. Cote d'Ivoire will host the 2019 African 
Growth and Opportunity Act Annual Forum in Abidjan this August.
    Cote d'Ivoire is the United States' largest Francophone Africa 
trading partner, and the United States imports 15 percent of Cote 
d'Ivoire's cocoa. Almost every M&M and Snickers bar that Mars sells 
here in the United States contains Ivoirian cocoa. I am aware of 
concerns about child labor in the cocoa sector and know that the 
Embassy is working closely with the Ivoirian government, NGOs and the 
chocolate industry to address these concerns. Much of our engagement 
with Cote d'Ivoire addresses factors that can contribute to child 
labor. We are thus active in supporting women's economic empowerment, 
improving access to education, and improving health services. Our 
efforts to increase law-enforcement capacity will help Cote d'Ivoire 
deal with those who use child labor and exploit children in forced 
labor.
    Energy and economic growth are key areas of engagement for the 
U.S.-Ivoirian relationship. USAID supports the expansion of the Power 
Africa initiative to Cote d'Ivoire, with a focus on helping the 
Ivoirian government's program to increase connectivity to the national 
power grid, especially in rural areas. In 2019, the U.S. Trade and 
Development Agency approved three feasibility-study projects in 
biomass, hydro, and smart grid. USAID is implementing a Trade Africa 
program that includes promoting regional trade in key value chains 
under the Ivoirian national export strategy.
    If confirmed, I will support Cote d'Ivoire's economic efforts to 
achieve inclusive growth through a diversified, modern economy. I would 
encourage Cote d'Ivoire to create an environment that is even more 
conducive to private-sector-led growth and that creates employment 
opportunities for its people, including women and youth.
    Cote d'Ivoire aims to become an emerging economy by 2020, but to 
meet this goal the country must sustain its impressive economic growth, 
distribute benefits more broadly, improve government services, 
strengthen democratic institutions, improve security sector governance, 
and conduct free and credible elections in 2020.
    Our Embassy is actively promoting good governance and respect for 
human rights in Cote d'Ivoire. USAID, for example, supports an 
increasingly capable, professional, and organized civil society and 
media active across the political landscape. USAID focuses on 
strengthening the electoral process and encouraging greater voter 
participation, particularly among youth and women, urgent needs in the 
lead-up to the 2020 presidential election.
    A strong democracy, political inclusiveness, and reconciliation 
will be necessary to solidify Cote d'Ivoire's economic success and 
ensure the country does not fall back into civil conflict. If 
confirmed, I will work with the government of Cote d'Ivoire to 
strengthen governance, enhance transparency, and become increasingly 
responsive to citizen needs. I will also support democratic 
institutions and advocate for 2020 presidential elections that are 
free, fair, and thus credibly reflect the will of the Ivoirian people.
    I would also continue U.S. support for the Ivoirian people through 
our significant investments in Health. U.S. global health assistance is 
by far the largest area of U.S. development assistance in Cote 
d'Ivoire, programmed through multiple U.S. agencies, including CDC, 
USAID and DoD. The U.S. government, through the President's Emergency 
Plan for AIDS Relief (PEPFAR), supports the majority of Cote d'Ivoire's 
national HIV response, nearly $1.6 billion since 2004 in assistance 
provided by the United States to help Cote d'Ivoire achieve control and 
eventual elimination of its HIV/AIDS epidemic.
    Cote d'Ivoire is entering a critical phase in its post-conflict 
recovery process. The country will need strong support and smart 
bilateral cooperation from the United States and other international 
partners to consolidate the democratic and economic gains it has made 
since the end, in 2011, of more than a decade of conflict. With the 
right support, Cote d'Ivoire will serve as an engine for economic 
growth and a model for private-sector-led development in West Africa. 
We are expanding our security cooperation with Cote d'Ivoire--a troop-
contributing country to the U.N. peacekeeping mission in neighboring 
Mali--to strengthen its capacity to play a crucial stabilizing role in 
a region that is increasingly at risk due to terrorism and other 
transnational threats.
    Thank you, Mr. Chairman, Ranking Member, and distinguished members 
of the committee for this opportunity to appear before you. The 
Ivoirian people--from the president and his government to the humblest 
cocoa farmers--are friends of America. If confirmed, I will strive to 
keep it that way, to reinforce our interests in a stable, prosperous 
and peaceful Cote d'Ivoire. I warmly welcome any questions.


STATEMENT OF HON. MARY BETH LEONARD, OF MASSACHUSETTS, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
 COUNSELOR, TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY 
  OF THE UNITED STATES OF AMERICA TO THE FEDERAL REPUBLIC OF 
                            NIGERIA

    Ambassador Leonard. Mr. Chairman, Ranking Member, 
distinguished members of the committee, I am so deeply honored 
to appear before you today as the nominee to be the next U.S. 
Ambassador to the Republic of Nigeria.
    I would like to thank my family, who are with me through 
the miracle of live-streaming, and I would also like to thank 
some Foreign Service family who are here today, including among 
my most cherished mentors, Ambassador Johhny Young and Terry 
McCulley, who was a distinguished past Ambassador in both 
Nigeria and Cote d'Ivoire.
    I am grateful to President Trump and Secretary Pompeo for 
the trust and confidence they have shown in nominating me for 
this position. If confirmed, I will strive to marshal the 
experiences from over 2 decades of African postings in a 31-
year Foreign Service career, including two tours as chief of 
mission. As U.S. Ambassador in Mali, I addressed converging 
issues of governance and security. In my current assignment as 
Ambassador to the African Union, I have regularly witnessed 
Nigeria's diplomatic heft and agility, as well as regional 
coordination to address its security challenges. If confirmed, 
I look forward to working closely with members of the committee 
and your staffs to promote and protect U.S. interests with 
Nigeria.
    Nigeria is a country of many paradoxes. Its vast oil 
revenues help fuel a huge economy. Yet corruption and failures 
of governance have blocked meaningful health services, 
educational opportunities, and prosperity for too many of its 
citizens. Serious security challenges stand in counterpoint to 
vibrant entrepreneurs and cultural achievements. The challenge 
for the U.S. relationship with this strategically important 
partner is how Nigeria can successfully validate its 
inestimable promise for peace and prosperity for its citizens 
and the broader region. President Buhari shares our priorities 
of expanding economic growth, increasing security, and 
countering corruption. If confirmed, I will be committed to 
harnessing U.S. diplomacy, foreign assistance, and the 
ingenuity and appeal of the U.S. private sector to partner with 
Nigeria toward these goals.
    Nigeria is our second largest trading partner on the 
continent with over $8 billion in two-way trading. In President 
Trump's April 2018 meeting with President Buhari at the White 
House, the first African head of state to be welcomed there, he 
emphasized the potential for expanded U.S.-Nigerian trade. That 
is why the U.S. government welcomes Nigeria's recent decision 
to sign on to the African Continental Free Trade Area. As I 
have stated often in my role as Ambassador to the AU, by 
opening African markets and lowering barriers to trade and 
investment, this agreement can pave the way for increased U.S.-
Africa trade. If confirmed, I would look to harness U.S. tools 
ranging from the African Growth and Opportunity Act to the 
coming Development Finance Corporation's increased budget for 
insurance, loans and loan guarantees, and equity investments to 
promote our mutual prosperity.
    Nigerians in nearly all of the country's 36 states are 
plagued by insecurity, from terrorism in the northeast to 
militant attacks and maritime piracy in the south, to inter-
communal violence, kidnapping and crime across the country. 
Vice President Pence and Nigerian Vice President Osinbajo 
discussed these security challenges as well as ways to better 
protect citizens during their June 26 White House meeting. If 
confirmed, I will keep firmly in mind our long-term goal of a 
more operationally capable and professional military and police 
services that respect human rights, protect civilians, and hold 
those responsible for abuses and violations to account, as only 
such forces can truly deliver security to the people of 
Nigeria.
    Escalating inter-communal conflict is frequently based in 
resource competition, but inflamed by conflation of ethnic and 
religious overlays. If confirmed, I will work to ensure the 
U.S. government helps Nigeria address these conflicts' root 
causes, enhance the security and justice sector response, and 
support Nigerian inter-faith efforts.
    Nigeria needs to build trust between the government and its 
people to succeed in fulfilling its great promise and to 
strengthen its democracy. A large share of our roughly $500 
million annual bilateral assistance portfolio targets Nigerian 
human capital to create a more productive and stable African 
partner. Nigeria's 2015 elections contributed to positive 
democratic trends in much of West Africa, and despite some 
flaws, the 2019 elections demonstrated Nigeria's commitment to 
improving its democracy. If confirmed, as Nigeria passes the 
20-year mark of a return to democratic rule, I will ensure the 
United States continues to be a stalwart partner of the 
Nigerian people as they work to solidify their country's place 
a democratic leader in Africa.
    Mr. Chairman, Ranking Member, members of the committee, I 
would be honored to be confirmed to the privilege of directing 
the U.S. relationship with Nigeria. I thank you for this 
opportunity to appear before you, and I look forward to your 
questions.
    [The prepared statement of Ambassador Leonard follows:]

                Prepared Statement of Mary Beth Leonard

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee,
    I am so deeply honored to appear before you today as the nominee to 
serve as the U.S. Ambassador to the Federal Republic of Nigeria. I 
would like to thank my family, of both the actual and Foreign Service 
trees, who are with me in spirit and virtually through the magic of 
live streaming.
    Indeed, the list of prior U.S. ambassadors to Nigeria includes many 
of my most valued mentors and professional idols in the Foreign 
Service, and I am grateful to President Trump and Secretary Pompeo for 
the trust and confidence they have shown in nominating me for this 
position. Having completed seven tours in Africa and two domestic 
Africa-related assignments in the course of my 31-year Foreign Service 
career, if confirmed I will strive to marshal these experiences to 
follow successfully in their storied footsteps. As U.S. Ambassador in 
Mali, I addressed converging issues of governance and security; in my 
current assignment as Ambassador to the African Union, I have regularly 
witnessed Nigeria's diplomatic heft and agility, as well as regional 
coordination to address its security challenges. If confirmed, I look 
forward to working closely with members of the committee and your 
staffs to promote and protect U.S. interests with Nigeria.
    With the continent's largest population, democracy, and economy, 
Nigeria fully merits the sobriquet of ``Africa's giant,'' and our 
relationship with Nigeria is arguably the most important one in sub-
Saharan Africa. It is no understatement to say that overarching U.S. 
policy priorities for Africa in trade, counter-terrorism, good 
governance, human rights, and responsible use of U.S. government 
resources can only be met if we meet them in Nigeria.
    As I began my preparations for the confirmation process, I was 
struck by the depth of passion evinced by those who follow Nigeria's 
many paradoxes. Its vast oil revenues help fuel a huge economy, yet 
corruption and failures of governance have blocked meaningful health 
services, educational opportunities, prosperity, and access to justice 
for too many of its citizens. Security challenges including communal 
violence and terrorism stand in counterpoint to wellsprings of vibrant 
entrepreneurs and cultural achievements in film, literature, and 
academia more broadly. The challenge for this strategically important 
partner--and the U.S. relationship with it--is how Nigeria can 
successfully validate its inestimable promise for peace and prosperity 
for its own citizens and the broader region. President Buhari, recently 
elected to a second term, shares our priorities of expanding economic 
growth, increasing security, and countering corruption. If confirmed, I 
will be committed to harnessing U.S. diplomacy, foreign assistance, and 
the ingenuity and appeal of the U.S. private sector to partner with 
Nigeria toward these goals.
    Nigeria is our second-largest trading partner in Africa with over 
$8 billion in total trade in goods in 2018; hundreds of U.S. companies 
do business in Nigeria. President Trump in his meeting with President 
Buhari at the White House in April 2018--the first African head of 
state he welcomed there--emphasized the potential for expanded U.S.-
Nigerian trade. By adopting more market-oriented economic policies, 
improving infrastructure and the investment climate, and tackling 
corruption, the government of Nigeria can present great opportunities 
for both of our countries. That is why the U.S. government welcomes 
Nigeria's recent decision to sign on to the African Continental Free 
Trade Area. As I've stated often in my role as Ambassador to the 
African Union, by opening African markets and lowering barriers to 
trade and investment, this agreement can pave the way for increased 
U.S.-Africa trade. If confirmed, I would look to harness U.S. tools--
from existing ones like the African Growth and Opportunity Act and our 
hard-working Foreign Commercial and Agriculture Service Officers--to 
newer ones like Prosper Africa and the Development Finance 
Cooperation's increased budget for insurance, loans and loan 
guarantees, and equity investments to promote our mutual prosperity.
    Nigerians in nearly all of the country's 36 states are plagued by 
insecurity: terrorism in the Northeast, banditry and inter-communal 
conflict in the Northwest and Middle Belt, militant attacks in the 
Niger Delta, maritime crime and piracy in the Gulf of Guinea, and 
kidnapping and criminal gangs throughout the country. Vice President 
Pence and Nigerian Vice President Osinbajo discussed these security 
challenges as well as ways to better protect civilians during their 
June 26 White House meeting. Nigeria is working with its neighbors to 
improve the stability of the Lake Chad Basin, counter Boko Haram, and 
put down the attempted rise of ISIS- West Africa. If confirmed, I will 
keep firmly in mind our long-term goal of a more operationally capable 
and professional Nigerian military and police services that respect 
human rights, protect civilians, and hold those responsible for abuses 
and violations to account, as only these kinds of security forces can 
truly deliver security to the people of Nigeria. The Nigerian 
government must continue to work to ensure that the almost eight 
million people still reliant on humanitarian assistance can safely 
return to their communities and restart their livelihoods. Separately, 
I have also been alarmed by reports of escalating farmer-herder and 
inter-communal conflict frequently based in resource competition, but 
enflamed by conflation of ethnic and religious overlays. If confirmed, 
I will work to ensure the U.S. government is using its full range of 
tools to help Nigerians address these conflicts' root causes, enhance 
security and justice sector response, and support Nigerian inter-faith 
and inter-communal efforts.
    Nigeria's ability to succeed in fulfilling its inestimable promise 
depends heavily on building trust between the government and its 
people, as well as strengthening its democracy and respect for human 
rights. A large share of our almost $520 million FY 2018 bilateral 
assistance portfolio helps Nigeria build human capital, fight poverty 
and promote health, and it creates a more productive and stable African 
partner. Youth employment and education for women and girls are also 
key elements of these efforts. Nigeria's 2015 elections contributed to 
a positive West African trend toward increasingly democratic elections 
and peaceful transfers of power.
    Despite some flaws, the 2019 elections demonstrated Nigeria's 
commitment to improving its democracy. As it passes the 20-year mark of 
a return to democratic rule, I, if confirmed, will ensure the United 
States continues to be a stalwart partner of the Nigerian people as 
they work to solidify their country's place as a democratic leader in 
Africa.
    Nigeria's regional and global impact is enormous, and its dynamic 
people are the greatest asset of a nation whose resources are equal in 
scale to its considerable challenges. Like Americans, Nigerians are 
hard-working, inventive, and entrepreneurial. Nigeria's youth are 
fueling exceptional endeavors in areas from Information Technology to 
agriculture, offering the promise of the opportunities the country will 
need to meet the challenge of its youthful demographics. If confirmed 
to the privilege of directing the U.S. relationship with Africa's 
giant, I look forward to channeling our own nation's dynamism with the 
full range of our diplomatic, assistance, and commercial tools to 
support Nigeria toward the prosperity and security on which our and the 
continent's shared futures depend.
    Mr. Chairman, Ranking Member, members of the committee, I thank you 
for this opportunity to appear before you, and I look forward to your 
questions.


    STATEMENT OF MICHELLE A. BEKKERING, OF THE DISTRICT OF 
COLUMBIA, TO BE AN ASSISTANT ADMINISTRATOR OF THE UNITED STATES 
AGENCY FOR INTERNATIONAL DEVELOPMENT, ECONOMIC POLICY, ECONOMIC 
               GROWTH, EDUCATION, AND ENVIRONMENT

    Ms. Bekkering. Senator Graham, Ranking Member Kaine, 
distinguished members of the committee, I am honored to appear 
before you today as the President's nominee for Assistant 
Administrator for Economic Growth, Education and Environment at 
the U.S. Agency for International Development.
    I would like to start by thanking President Trump and 
Administrator Mark Green for their support and confidence in my 
ability to serve in this role.
    I would also like to thank E3's Acting Assistant 
Administrator Carrie Thompson and the entire E3 management team 
for their outstanding leadership.
    I am pleased to be joined here today by my friends and 
colleagues who took the time to come and cheer me on. I want to 
especially note Eddy Acevedo, Casey Redmon, Curtrice Dorsey, 
Elizabeth Montgomery, and Ranta Russell, who have shepherded me 
throughout this nomination process.
    I also want to recognize my parents, family, and friends 
back home in Iowa who are here with me in spirit and watching 
this via video stream.
    And most importantly, I would like to thank my husband Mark 
and our 4-year-old daughter Hadley who are here with me today. 
This moment was made possible because of your love, 
encouragement and support, and for that I thank you.
    My career path has uniquely prepared me for this position. 
I have had the pleasure of serving at USAID for the past 2 
years, and I share Administrator Green's mission and vision for 
international development and the values this agency holds 
dear. Prior to joining USAID, I spent 12 years at the 
International Republican Institute, or IRI, which is an 
international democracy development organization dedicated to 
promoting democracy and freedom across the world. I carried out 
assignments in both Washington, as well as in the field, which 
provided me with a greater appreciation and understanding of 
how to work with our partners to foster locally led development 
and achieve sustainable impact in our shared development goals.
    If confirmed, I will also bring my previous U.S. government 
experience to this position. I spent several years working in 
the House of Representatives, and during the Bush 
administration, I worked in the European and Eurasian Affairs 
Directorate of the National Security Council. If confirmed, I 
look forward to working closely with Congress to advance our 
shared priorities in a bipartisan manner.
    This professional experience will serve me well if I am 
confirmed as Assistant Administrator for E3. The E3 Bureau is a 
complex portfolio of offices that cut across all aspects of our 
development work to tackle the key challenges that inhibit a 
country's ability to meet its development goals. We do this by 
providing technical leadership, research, and field support to 
our regional missions across the world.
    If confirmed, I will focus on the following priority areas.
    Economic growth and trade. We will continue to help our 
partner countries catalyze and sustain growth while building 
their capacity to mobilize and manage domestic resources in an 
effective, transparent, and accountable manner that benefits 
all citizens. We will continue to work with our partner 
governments to ensure that their trade and regulatory regimes 
are efficient and transparent in order to level the playing 
field and promote the access of U.S. business interests to 
markets overseas. We will continue to support energy programs 
that help our partner countries transition to a more secure, 
reliable, affordable, and sustainable sector. Finally, we are 
committed to working hand in hand with the private sector to 
design and deliver our development and humanitarian programs in 
all areas.
    Education. We will continue working towards the goals 
outlined in the U.S. government Strategy on International Basic 
Education, as mandated by the READ Act of 2017. The goal of the 
strategy and our new education policy is to achieve a world in 
which educational institutions enable all individuals to 
acquire the education and skills necessary to be productive 
members of society, with a particular focus on the marginalized 
and vulnerable populations.
    Environment and natural resources. We will continue to 
invest in the conservation of our natural resources while 
simultaneously tackling environmental crimes, including 
wildlife trafficking, illegal fishing, and illegal logging. We 
will also continue our quest to reduce ocean plastics pollution 
by working with our local partners to stop waste from entering 
the oceans while improving recycling and the proper collection 
of waste. Finally, we recognize that changes in climate pose 
new challenges for development, and we will continue to assist 
our partner countries' capacity to anticipate and withstand 
weather extremes which can reduce the need for costly 
humanitarian response.
    And finally and maybe most importantly, we recognize that 
promoting the equality and empowerment of women and girls is 
not simply a part of development, but the core of all of our 
development work. To that end, we will continue our commitment 
to supporting women and girls by integrating gender equality 
and women's empowerment across every sector of our work.
    As you are aware, through the USAID transformation, the E3 
Bureau will change structurally, but the new successor bureau, 
the Bureau for Development, Democracy, and Innovation, will 
continue E3's focus on technical leadership. If confirmed, I 
look forward to implementing Administrator Green's vision for a 
transformed USAID.
    Senator Graham, Ranking Member Kaine, distinguished members 
of the committee, as you can see, the leadership of the E3 
bureau is critical to our development goals at USAID. It is, 
therefore, my honor to be here today as the administration's 
nominee for the position of Assistant Administrator of E3. If 
confirmed, I will work tirelessly on behalf of the American 
people to carry out USAID's mission to promote and demonstrate 
our democratic values abroad, while advancing a free, 
prosperous, and peaceful world.
    Thank you and I look forward to answering your questions.
    [The prepared statement of Ms. Bekkering follows:]


              Prepared Statement of Michelle A. Bekkering

    Senator Graham, Senator Kaine, and distinguished members of the 
committee, I am honored to appear before you today as the President's 
nominee for Assistant Administrator for Economic Growth, Education and 
Environment (E3) at the United States Agency for International 
Development (USAID). I thank President Trump and Administrator Green 
for their support and confidence in my ability to serve in this role.
    I would like to start by thanking Acting Assistant Administrator 
Carrie Thompson and the entire E3 management team for their outstanding 
leadership. E3 consists of more than 200 of the most experienced and 
passionate development officials with whom I have had the pleasure of 
working, and I look forward to re-joining this incredible team if 
confirmed.
    I am pleased to be joined here today by my friends and colleagues 
who took the time to come and cheer me on. I also want to recognize my 
parents, family and friends back home in Iowa who are here with me in 
spirit and watching this via videostream. And most importantly, I would 
like to thank my husband, Mark, and our four-year-old daughter, Hadley, 
who are here with me today. This moment was made possible because of 
your love, encouragement and support, and for that I thank you.
    I have had the pleasure of serving at USAID for the past two years, 
and I share Administrator Green's mission and vision for international 
development, and the values this Agency holds dear: excellence, 
integrity, respect, empowerment, inclusion, human dignity, and a 
commitment to learning.
    My career path has uniquely prepared me for this position. I spent 
twelve years at the International Republican Institute (IRI), an 
international democracy-development organization dedicated to promoting 
freedom and democracy worldwide. During my career at IRI, I managed a 
variety of programs, including cross-sectoral global ones, with a focus 
on citizen-responsive, democratic governance; civil-society and 
parliamentary strengthening; leadership development; and people-to-
people exchanges. I carried out assignments in both Washington, as well 
as in the field, which provided me with valuable experience across the 
entire cycle of program design, implementation and management. In my 
role as Residential Country Director for Indonesia, I developed a 
greater appreciation and understanding of how to work with our partners 
to foster locally-led development and achieve sustainable impact in our 
shared development goals.
    Importantly, I also was charged with increasing the political 
inclusion of women and youth; causes about which I am passionate. I 
have had the great privilege of working with women all around the world 
who are striving to make a positive difference in their communities and 
countries, often in the face of great adversity. Their endurance, 
passion, and commitment inspire me to this day. If confirmed, I look 
forward to continuing to champion USAID's programming to promote gender 
equality and female empowerment.
    If confirmed, I will also bring my previous U.S. government 
experience to this position. I spent several years working in the House 
of Representatives, and during the Bush Administration, I worked in the 
European and Eurasian Affairs Directorate of the National Security 
Council. Having served in both the legislative and executive branches 
of the U.S. government, I have a deep understanding of the relationship 
between the branches of our government, as well as profound respect for 
the responsibilities endowed upon each. If confirmed, I look forward to 
working closely with Congress to advance our shared priorities in a 
bipartisan manner.
    This professional experience will serve me well if I am confirmed 
as Assistant Administrator of the Bureau for Economic Growth, Education 
and Environment (E3). The E3 Bureau is a complex portfolio of offices 
that cut across all aspects of development and aim to tackle the key 
challenges that inhibit a country's ability to meet its development 
goals by providing technical leadership, research, and field support to 
our geographical bureaus and regional missions across the world. In 
many ways, the breadth and depth of the technical leadership embedded 
in E3 is the engine that drives USAID forward in advancing the Journey 
to Self-Reliance and ending the need for foreign assistance.
    I would like to briefly highlight a few of the issues I will 
prioritize if confirmed as Assistant Administrator for E3.


    Economic Growth and Trade: Broad-based economic growth is critical 
for creating high-quality livelihoods, fostering stability, and helping 
countries become increasingly self-reliant. As an economy grows, so 
does a country's ability to provide for the needs of its people--such 
as basic education, clean drinking water, and high quality health care. 
We need to continue to help our partner countries catalyze and sustain 
growth, while building their capacity to mobilize and manage domestic 
resources in an effective, transparent, and accountable manner that 
benefits all citizens.
    As our partner countries' economies grow, so does their demand for 
U.S. exports, which multiplies opportunities for U.S. firms and creates 
more jobs for American workers. We will continue to work with our 
partner governments and the private sector to promote business- 
friendly markets, including fair and efficient regulatory and trade 
regimes that encourage competition, safeguard private property, and 
allow commercial enterprises to grow. These actions support U.S. 
business interests by leveling the playing field and promoting market 
access overseas.
    Finally, we recognize the role of the private sector in meeting our 
vast array of development goals. Today, over 90 percent of resource 
flows to emerging and developing economies comes from the private 
sector. The private sector also creates nine out of every ten jobs in 
the developing world. These facts prove what our Administrator Mark 
Green has often said, that ``Private enterprise is the single most-
powerful force for lifting lives, strengthening communities, and 
accelerating self-reliance.'' Through USAID's new Private-Sector 
Engagement Policy, we are institutionalizing private-sector engagement 
as a core tenet of our operating model. We are committed to working 
hand-in-hand with the private sector to design and deliver our 
development and humanitarian programs in all areas. This policy signals 
an intentional shift towards enterprise-driven development as a more 
sustainable way to assist countries on their Journey to Self-Reliance.

    Education: Education is a foundational driver of development, and 
transformational for individuals and societies, because it creates 
pathways to better health outcomes, economic opportunities, and 
peaceful, democratic societies. In 2018, E3 led the development of the 
U.S. government Strategy on International Basic Education mandated by 
the READ Act of 2017. The goal of the Strategy is to achieve a world in 
which educational institutions in partner countries enable all 
individuals to acquire the education and skills needed to be productive 
members of society, with particular focus on improving learning 
outcomes and expanding access to education for all, particularly the 
most marginalized and vulnerable populations. It also served as the 
foundation for USAID's new Education Policy, which sets priorities and 
direction for our investment in this sphere. I want to thank this 
committee for its support of USAID's education programming and look 
forward to continuing USAID's strong partnership with Congress on 
education.

    Environment and Natural Resources: Prosperity and peace depend on 
healthy ecosystems, and the conservation of biodiversity is critical to 
achieving equitable and sustainable development. We will continue to 
invest in this sector as fundamental to achieving our objectives in 
public health, food security and economic growth, while simultaneously 
tackling environmental crimes, including wildlife trafficking, illegal 
fishing, and illegal logging. We will also continue our quest to reduce 
ocean plastics pollution by working with our local partners to stop 
plastics and other mismanaged waste from entering the ocean while 
improving recycling and the proper collection and disposal of solid 
waste. We also recognize the importance of a water-secure world, in 
which people and nations have the water they need to be healthy, 
prosperous, and resilient. We will continue to lead the Agency's 
implementation of the Water for the World Act of 2014, by assisting 
governments, civil society, and the private sector in our partner 
countries to plan, finance, and deliver safe water and sanitation 
services for the neediest, while sustainably managing water resources. 
Finally, we also recognize that changes in climate pose new challenges 
for development, and we will continue to assist our partner countries' 
capacity to anticipate and withstand weather extremes, which can reduce 
the need for costly humanitarian response.

    Energy and Infrastructure: Resilient infrastructure, including a 
sustainable energy sector, is the critical foundation for inclusive, 
sustainable growth and essential to a country's self-reliance. We will 
continue to help utilities in partner countries procure and produce 
sufficient power at affordable prices and institute the internal 
reforms necessary to improve their delivery of service, while 
supporting financially self-sustaining operations. We will also 
continue to support the establishment of strong legal and regulatory 
frameworks necessary to strengthen international energy systems and 
create economic opportunity for U.S. entities.

    Gender Equality and Female Empowerment: Finally, at USAID, we 
recognize that promoting the equality and empowerment of women and 
girls is not simply a part of development, but the core of our 
development work. As the President's 2017 National Security Strategy 
notes, ``Societies that empower women to participate fully in civic and 
economic life are more prosperous and peaceful.'' To that end, we will 
continue our commitment to supporting women and girls by integrating 
gender equality and female empowerment across every sector of USAID's 
work.


    As you aware, through the USAID Transformation, USAID is re-
orienting our structure and processes around the Administrator's vision 
for ending the need for foreign assistance. The E3 Bureau will change 
structurally, but the new successor bureau--the Bureau for Development, 
Democracy, and Innovation--will continue E3's focus on technical 
leadership, research, and field support across these sectors. If 
confirmed, I look forward to implementing Administrator Green's vision 
for a transformed USAID.
    Senator Graham, Senator Kaine, and distinguished members of the 
committee, as you can see, the leadership of the E3 Bureau is critical 
to achieving our development goals at USAID. It is therefore my honor 
to be here today as the Administration's nominee for the position of 
Assistant Administrator for Economic Growth, Education and Environment. 
If confirmed, I will work tirelessly on behalf of the American people 
to carry out USAID's mission to promote and demonstrate our democratic 
values abroad, while advancing a free, peaceful, and prosperous world. 
I look forward to your questions.


    Senator Graham. Well, thank you all. Congratulations to you 
and your family members. This is a big day in your life, and I 
think you have earned this honor. A very impressive group of 
people.
    So you have a job to do in Africa. Here is my question. If 
we reduce the developmental aid budget by 22 to 24 percent, Ms. 
Bekkering, does that help your job or does it hurt it?
    Ms. Bekkering. Well, thank you, Senator Graham, for your 
continued support of USAID funding, and I know as Administrator 
Green has told you before, there is probably never going to be 
enough resources to meet all the development challenges we are 
facing.
    Senator Graham. Is it a good time to cut funding?
    Ms. Bekkering. We will continue to program efficiently and 
effectively the dollars you are so generously providing to us.
    Senator Graham. I just think it is nuts to do that.
    So, Ms. Leonard, 90 percent of the revenue for Nigeria is 
the oil economy. Right?
    Ambassador Leonard. Yes.
    Senator Graham. It is their country to run, but part of 
what she wants to do is try to diversify economies. Do you 
think it would be a good place to start is Nigeria?
    Ambassador Leonard. Absolutely, and I think the government 
of Nigeria is overwhelmingly dependent, as you mentioned, on 
oil revenues. But there is also--and the U.S. mission also 
supports efforts to diversify the economy, including through 
agriculture, which is the occupation of many Nigerians.
    I think an interesting new wrinkle in this is, as I 
mentioned in my remarks, Nigeria's adherence to the African 
Continental Free Trade Area. Nigeria has often taken a rather 
protectionist view----
    Senator Graham. Can you do me a favor and report back to 
the committee in 6 months your efforts to help Nigeria 
diversify their economy?
    Ambassador Leonard. If I am confirmed, I would be delighted 
to get back to you in 6 months.
    [Laughter.]
    Senator Graham. Good answer. Assuming you get the job. If 
not, do it anyway.
    [Laughter.]
    Senator Graham. Mr. Bell, I just got back from Cote 
d'Ivoire with Senator Coons on a trip. A beautiful place. One 
of the things that we are talking about is there is a coastal 
road being envisioned in West Africa that could actually 
connect up to some of the countries of the Sahel. Are you 
familiar with this project?
    Mr. Bell. Thank you, Senator.
    I am aware of interest in a road across the coastal part of 
West Africa and of the MCC compact----
    Senator Graham. So here is what I want you to do. I want 
you to make this like a big priority because I want us to do 
this, not the Chinese. I think it will transform that part of 
western Africa, and there really is no port for the Sahel 
unless it is Cote d'Ivoire. So I think this committee is very 
interested in that project.
    Ms. Lapenn, what is the Trump administration's policy 
toward Africa?
    Ms. Lapenn. Thank you, Senator. The priorities that I laid 
out are fully consistent with the administration's agenda. It 
is a focus on opening up politically, on, as you just talked 
about, diversifying economy, and supporting market reforms, and 
also ensuring security.
    Senator Graham. Do you think it is smart to cut the 
developmental budget by 22 percent?
    Ms. Lapenn. So for me in the field, my role is to use the 
money that you give us, taxpayer money, as well as I possibly 
can, and I will do that, if confirmed.
    Senator Graham. So the African Union is marching down the 
road of trying to create a more professional peacekeeping 
force. They are talking about trying to collect $400 million 
among the member nations of the African Union. I am very 
excited about this. They want sort of a regular funding from 
assessed contributions to the U.N. I do not know if that is a 
good idea or not. Do you think this is a great step in the 
right direction?
    Ms. Lapenn. Thanks, Senator. I do. I think the instinct to 
self-finance and have regular, predictable, sustainable 
financing is exactly right. It is one that we can be supportive 
of. And then how we get there, as you say, we will need to work 
out.
    Senator Graham. From a national security perspective, 
Africa is a place to keep our eye on. Do you agree with that?
    Ms. Lapenn. Yes, I do, sir.
    Senator Graham. There is a lot of opportunity for 
terrorists to go there, and I want to get ahead of--get there 
before they do.
    South Africa. Ms. Marks, you are the only non-career person 
here. How did you get the nomination and why should I vote for 
you?
    Ms. Marks. Thank you for the question, Senator.
    The day after the election, I called the President to 
congratulate him and was told I would make an ideal candidate 
for an ambassador and would I be interested. And I said I was 
deeply honored, and yes, of course, I would be interested.
    I have started a business from scratch throughout the 
United States and globally. I have set up all the supply chains 
for everything. I have done all the negotiations throughout the 
United States and globally. And I feel this would hold me in 
good stead in increasing business between the United States and 
South Africa, if confirmed.
    I have also had a knowledge of South Africa, born and 
raised in South Africa. I speak three of the four most widely 
spoken of the 11 official languages. I have a knowledge of 
South Africa, and I feel this would hold me in good stead. I 
have also served on various boards internationally. I have 
interfaced socially and with media and communications, and all 
of these together, if confirmed, I would utilize to the best of 
my ability in that position. Thank you, Senator.
    Senator Graham. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And again, congratulations to the nominees.
    Ms. Marks, I want to follow up with you on South Africa.
    President Trump waded into a controversy about a year ago 
when he tweeted that he had instructed Secretary Pompeo to, 
quote, closely study the South Africa land and farm seizures 
and expropriations and the large-scale killing of farmers. That 
quote was widely condemned. The Anti-Defamation League said 
that it was deeply troubling and that it was a white 
supremacist talking point.
    You mentioned positively the administration of President 
Ramaphosa. The land reform, as I understand it, is an effort to 
deal with the situation. Whereas, because of a 1913 Native 
Lands Act, Africans were prohibited from owning land. And so 
today in 2019, 80 percent of the population of the nation is 
black South Africans and they own 4 percent of the land.
    Domestic politics are for the country, not the Ambassador 
to figure out. But from your understanding of South Africa, do 
you generally support the efforts to find some equity in land 
that President Ramaphosa's proposes and what might the U.S. do 
to be helpful in that regard so that if it is done, it is done 
the right way?
    Ms. Marks. Senator Kaine, you have raised two issues. One 
with the land. It is a historically fraught issue, a 
complicated issue in which there are legitimate grievances by 
the majority. And on the other hand, you have to consider 
security, economy, productivity not only for South Africans but 
American companies doing business there. That is on the one 
hand. It is being dealt with in a transparent manner, which the 
administration approves of, and I think it is important that we 
engage them with this going forward to the best of our ability. 
If confirmed, I will put all my efforts in that regard with our 
policy.
    And then second of all, no farms have been confiscated at 
this time. But second of all, with murders and all of that, it 
is shocking--the murders in South Africa. It is unacceptable. 
Farm murders and other murders. And the new President Ramaphosa 
has said that it is a very, very consideration of his to get 
this under control.
    We have the program, the facility Illia in Botswana and we 
have other facilities. I would encourage the police force there 
to get involved in this in a much more meaningful way. And if 
confirmed, I will engage and I would very much appreciate, 
Senator Kaine, if I could engage with you going forward on this 
issue.
    Senator Kaine. Excellent.
    I do not know the answer to those questions. Is it your 
understanding that murders of farmers are dramatically higher 
than they were decades ago, dramatically lower, about the same?
    Ms. Marks. Senator, any murders of farmers is shocking. Any 
murders in general are shocking.
    Senator Kaine. Absolutely.
    Ms. Marks. The ratio goes up. It goes down. It is less than 
1 percent of the total murders of the country, but they are all 
unacceptable.
    Senator Kaine. But I am talking about trends. Is this a 
trend that you understand is getting worse, getting better, or 
about the same?
    Ms. Marks. The trend has gone down. However, it is not 
acceptable.
    Senator Kaine. Thank you.
    Let me ask, if I could, Ambassador Leonard a question about 
Nigeria. In 2015, the leaders of Boko Haram pledged that they 
were a unit of ISIS. Talk a little bit about the Boko Haram-
ISIS connection. Is that just a claimed affiliation or is there 
something more to it than that? Boko Haram, obviously, is such 
a problem in Nigeria and surrounding nations as well.
    Ambassador Leonard. Thank you, Senator, for the question.
    In terms of the security threats in the north of Nigeria, 
the two organizations of concern are, of course, Boko Haram and 
ISIS West Africa. And I think that the latter is perhaps the 
one with the more pernicious connections or potential 
connections. And if confirmed, I would continue to work very 
hard to help the government of Nigeria to address those 
security threats, making sure that they do so in ways that 
respect human rights of citizens, that protect civilians, that 
hold people who committed abuses to account.
    Senator Kaine. Can I just interrupt you there and ask you 
about that? I think that is a very good point because some 
allege that human rights abuses by the Nigerian Security Forces 
can be a driver of extremism. So what might the U.S. do in 
partnership with Nigeria to make sure that the appropriate 
focus on security includes respect for human rights?
    Ambassador Leonard. Absolutely. Yes, it can become a 
driver, which is a reason why it needs to be fixed.
    The way that the mission has approached this to date is to 
keep our security assistance to date in a very defensive 
posture in the sense of defensive as in providing intelligence, 
air surveillance, anti-mining, and making sure that all of our 
security assistance contains a component of human rights 
compliance and training. You know, there is the obvious 
incentive for the government of Nigeria, who needs to make this 
problem smaller not bigger, to make sure that their security 
forces adhere to that and, by the way, that we structure our 
rather narrowly focused security assistance. We can help bring 
that along.
    Senator Kaine. Great. Thank you.
    Senator Graham. Senator Coons?
    Senator Coons. Thank you, Chairman Graham. Thank you, 
Ranking Member Kaine. Thank you to all of you for your 
willingness to serve our nation and for those of you who have 
dedicated decades of your lives to careers in foreign service 
across the continent.
    As some of you know, I have traveled to 30 countries on the 
continent. I have visited several of you in posts overseas. I 
look forward to visiting several of you in posts overseas, and 
time spent in South Africa and in Kenya, Uganda, Tanzania as a 
young man really shaped my life and gave me deep insights into 
the promise, the potential, and the challenges that face 
Africa.
    I am particularly concerned with working in a bipartisan 
and sustained way for us to promote the most positive aspects 
of the U.S.-Africa relationship both in public health, in 
prosperity, and security and in the promotion of democracy and 
human rights.
     I am going to work from the right to the left, if I might, 
and try and stay within my time, but I may go a minute or 2 
over, Mr. Chairman, if you will forgive me.
    Ms. Bekkering, in USAID, one of the, I think, more 
significant bills of this Congress will be the work that 
Chairman Graham is leading, which I am supporting, on a 
bipartisan, bicameral bill called the Global Fragility Act. 
This would require a coordinated strategy between our 
Department of Defense, State Department, and USAID, and it 
would invest in stabilizing the most fragile countries that are 
most at risk of the destabilizing forces of terrorism, 
extremism, poverty, desertification, and poor governance.
    Can I count on your support for this effort? Can you tell 
me how you would see this effort playing out and what, if any, 
questions or concerns you have about an effort that would seek 
to better coordinate the currently siloed efforts of DOD, 
State, and AID in this area?
    Ms. Bekkering. Well, first of all, thank you for your 
support on this issue and Senator Graham as well.
    You know, it is a matter of fact that a majority of the 
countries right now where USAID has programming are conflict-
affected. And so this is really not only restricting our 
development--or the success of our development goals, but in 
many cases, it is reversing it. So for us, it is necessary that 
we work with the interagency and civil society because there 
are roles for all of us to play here, increasingly since that 
nexus between development assistance, conflict and humanitarian 
assistance is becoming blurred.
    For us, yes, we would support the bill. I think we would 
say that we just would want to continue to have the flexibility 
needed to adjust since the situations on the ground do change 
so rapidly.
    Senator Coons. And how can we ensure that the new 
Development Finance Corporation that is the outcome of the 
BUILD Act actually gets stood up by October 1st and is as 
effective as it can possibly be? You will play a significant 
role because this is $60 billion worth of new potential private 
sector investment in doing development and infrastructure 
right.
    Ms. Bekkering. And again, we want to thank Congress, the 
Senate. This is another great example of bipartisan support for 
a bill.
    So we are on track to stand up the new DFC by October 1st. 
There is still more work to be done. Since the passage of the 
bill, we have worked very closely with our colleagues in OPIC 
on the operational aspects of setting up the new DFC, as well 
as working in the interagency through a policy process which is 
being led by the NSC and OMB.
    Our chief concern is that the DFC remain what it is in 
name, which is a development corporation. And so we are working 
very hard to ensure linkages to make sure that development 
remains the first goal.
    It also dovetails really nicely: as you know, in December, 
we launched our new private sector engagement strategy at 
USAID. So these two things tied together are very significant 
for us as an agency as we carry out our work. It frankly 
recognizes that 90 percent of the resource flows around the 
world are now not from the public sector. And so we need to be 
better at working with the private sector in co-designing and 
co-financing our initiatives, and better asking them up front 
what their interests are and better understanding of where we 
as a government come in and what specific role we have to play.
    Senator Coons. Thank you.
    Ms. Marks, if I might, you are nominated for literally one 
of the best jobs in the world, which is U.S. Ambassador to 
South Africa. And I hope you appreciate, as I believe you do 
from your testimony, the long and deep and significant ties 
between the United States and South Africa and the ways in 
which we can and should grow together as we seek to address 
both the legacy of apartheid and the potential of a country 
with a remarkable constitution, a multi-lingual, multi-ethnic, 
multi-faith nation endowed with tremendous human resources and 
natural resources.
    During the reauthorization of AGOA, I worked closely with 
my friend and colleague, Senator Isakson, to eliminate 
longstanding barriers to the export of U.S. poultry to the 
South African market. Today poultry producers in my home State 
of Delaware, as well as many other States, are now benefiting 
from a quota of U.S. poultry into South Africa that are 
excluded from an antidumping tariff. And South Africa is now 
one of the top 10 export markets for U.S. poultry.
    But there are some recent tensions, understandable 
discomfort or unhappiness on the part of South Africans with 
the steel and aluminum tariffs that were applied by the 
administration, as well as pressure from domestic partners in 
South Africa producers.
    How will you work to sustain this critical market 
opportunity? I heard your passion for keeping markets open. How 
will you focus on this one in particular? And what would be 
your broader priorities for the U.S.-South Africa relationship 
economically?
    Ms. Marks. Senator Coons, thank you for this very important 
question.
    I followed your trip recently when you went to the South 
African constitution, by the way.
    Senator Coons. The Constitutional Court.
    Ms. Marks. The Constitutional Court, yes.
    Senator Coons. A wonderful visit.
    Ms. Marks. Yes.
    I have been following the poultry exports and your 
interests and Senator Isakson's, and if confirmed, I will 
ensure South Africa continues to fulfill this very important 
quota. And if there are any problems or any rumblings, I will 
immediately address those, if confirmed. And I would very much 
if I could engage with you going forward and Senator Isakson on 
this matter and possibly even come and visit in Delaware to 
have an even greater understanding of this, if confirmed.
    In terms of the greater trade, I think we have to, if 
confirmed, look across Africa at all the different tools that 
we have within the mission, within South Africa, with the 
United States, and with South Africa and once--if I am 
confirmed--on the ground look at all of these tools and see 
where we can dramatically increase trade in all the different 
areas whether it is manufacturing, whether it is energy, 
whether it is services, whether it is a communication 
technology, all these areas that we in the United States are 
interested in in increasing our trade with South Africa. If 
confirmed, I would look at that very carefully.
    Senator Coons. Thank you. I think there are huge 
opportunities for us to strengthen South Africa's economy, its 
potential both for historically disadvantaged populations and 
for those who have long experience in agriculture and in other 
sectors. And I think it is a tremendous export opportunity for 
the entire American economy. So I look forward to working with 
you on this.
    Thank you, Mr. Chairman.
    Senator Graham. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you all very much for being here today and for 
your willingness to consider taking on these tremendous 
responsibilities at this challenging time.
    Ms. Lapenn, you have considerable experience in Africa, and 
I am sure that you know the importance of the United States' 
role in mediating and being engaged in conflict negotiations. 
As you are probably aware, in 2017, the President signed into 
law the Women, Peace, and Security Act. And the administration 
has now unveiled its strategy for implementing that law. And we 
know from data the importance of having women at the table when 
we are negotiating an end to conflict.
    So as Ambassador, how would you work with the leadership of 
the African Union to ensure that women are involved in any 
conflict mediation, and where do you think those efforts could 
be most effective today as we look at the challenges on the 
African continent?
    Ms. Lapenn. Thanks so much, Senator.
    I am familiar with the legislation and the strategy and 
some of the history on UNSCR 1325.
    I think the story in Addis right now has been a pretty good 
one. There has been work being done by the AU, including with 
U.S. support particularly around the Continental Results 
Framework, basically holding the regional economic communities 
and member states accountable for their commitments under WPS. 
The AU has also created a special envoy.
    So I think there is interest, there is openings, and if 
confirmed, it is an area that I would certainly be focused on 
and looking towards the 2020 anniversary as well as hopefully a 
forcing function to continue the good work the team has already 
been doing.
    Senator Shaheen. Are the particular conflict areas 
countries where you think it is particularly important to 
ensure that the strategy is implemented?
    Ms. Lapenn. I think there is interest in encouraging the AU 
to engage more in Cameroon. There was discussion about the 
fragility risks, and we are watching that closely. And so I 
would seek to engage the AU at the commission and members of 
the PSC on that issue.
    Senator Shaheen. Thank you. I think that is going to be 
particularly important as we look at the challenges ahead in 
Africa.
    My next question is going to be for Ambassador Leonard 
because one thing that I had been very concerned about is the 
impact of the current administration's expanded global gag 
rule. The information that we have on Nigeria is that as the 
result of this expanded global gag rule, one of the 
organizations has lost millions of dollars for programs to 
deliver counseling and long-acting reversible contraceptives. 
They are forced to end a project that engaged close to 2,000 
government health care providers to be able to provide 
competent, voluntary, balanced counseling, and that program has 
ended and the women who were participating have lost access to 
those services.
    So if confirmed, will you work with USAID, with the 
Nigerian government, and civil society to try and lessen the 
harmful impacts of this policy? And can you tell me how you 
envision possibly doing that?
    Ambassador Leonard. Thank you for that question, Senator.
    I will tell you I was not aware of a specific organization 
losing funding as you have described, although I am obviously 
familiar with----
    Senator Shaheen. We are happy to share with you our 
information on that.
    Ambassador Leonard. Thank you.
    The lion's share of U.S. government bilateral assistance in 
Nigeria is in the area of health. And clearly, I agree with you 
entirely that women's health and its various ramifications are 
an enormously important part of that. So I would be very happy 
to work hard to be able to address the needs of women in such 
circumstances. Thank you.
    Senator Shaheen. Thank you.
    I should ask each of you who are going to be serving as 
Ambassadors in Africa, if you are confirmed, if you will take a 
look at these policies as well because the information we have 
received--and this is something that I have had an opportunity 
to ask Administrator Green about in terms of USAID's 
information. But our information is that it is having a 
tremendous impact on access to health care in a variety of 
areas not just reproductive health, but because of the impact 
of this new expanded gag rule, it is having impacts in other 
areas as well.
    So, Ms. Marks, would you take a look at what the impact of 
that policy is?
    And I guess I would ask, Mr. Chairman, if since they are 
going to be reporting back to you in 6 months, maybe they could 
report back to the entire committee on this issue so that we 
would all have that information.
    Ms. Marks. Senator Shaheen, if confirmed, I do undertake to 
look into this and report back within 6 months. And thank you 
for that question.
    Senator Shaheen. And Mr. Bell?
    Mr. Bell. Yes, Senator, absolutely. Thank you.
    Senator Shaheen. And Ms. Leonard, I would assume that based 
on your previous response, you would agree with that. Thank you 
very much.
    Thank you, Mr. Chairman.
    Senator Graham. Thank you.
    I think we have a few more questions. Senator Gardner is on 
the way.
    Ms. Bekkering, I really appreciate what you an Ivanka Trump 
have been doing, trying to look at laws in Africa but really 
throughout the world, but particularly in Africa because this 
is what the hearing is about, about laws that deny women the 
ability to inherit property, to do certain kind of jobs. You 
know, it is a big impediment to economic growth of that country 
and certainly a big impediment to women having a stronger 
voice.
    Where do you see that going if you get this job?
    Ms. Bekkering. Well, thank you for your support of the 
Women's Economic Empowerment Initiative, which I know is shared 
by Senator Shaheen and the other members.
    So the initiative you are referring to, the Women's Global 
Development and Prosperity Initiative is something we are very 
excited about. It was launched in February. It is a whole-of-
government approach to women's economic empowerment.
    We have lofty goals. We aim to economically enable 50 
million women in the developing world by 2025. And we feel good 
about our prospects of doing this. This is in line with the 
work at USAID that we have long focused on, which is 
recognizing that investing in women and girls, frankly, has a 
multiplier effect, and it does have a return on our investment 
no matter in what sector we are looking at.
    So we are going to focus on three things.
    The first is workforce development. We need to make sure 
women have the skills and the opportunities necessary to enter 
the formal labor market.
    Number two, we need to recognize there is a huge credit gap 
for women entrepreneurs. Estimates vary, but it is around $300 
billion. So we need to connect them to support, to finance, to 
networks.
    And third, in an area that I am really passionate about 
with my background in democracy, rights and governance is, as 
you said, the regulatory, and legal environments that are 
restricting women. We also recognize that there is a huge role 
to play here working with our partners in civil society as we 
are working on cultural and social issues as well that may 
prevent women from realizing their goals.
    Senator Graham. Ms. Lapenn, if confirmed, which I am sure 
you will be, you will be the Ambassador to the African Union. 
What I want to know from you is if you can kind of give us some 
idea of how prevalent these laws are and take it up with the 
member nations of the African Union. It is not our job to run 
other people's countries, but if I have a limited amount of 
dollars to invest in, I do not want to invest in an environment 
where half the population really cannot succeed. So we can let 
them know that this subcommittee and the appropriators, which 
most of us are on the Appropriations Committee, will be looking 
long and hard at laws and practices that stifle business 
opportunities and economic opportunity in general for women. So 
if you could deliver that message, I would appreciate it.
    And with that, I am done.
    Senator Kaine?
    Senator Kaine. Just quickly, Ms. Bekkering, you are 
involved in a current restructuring effort, as I understand, 
that the Economic Growth, Education, and Environment Bureau 
that you are nominated to lead is being consolidated in with 
some other entities to create a new Bureau for Democracy, 
Development and Innovation. Could you just report to the 
committee on the status of that restructuring effort?
    Ms. Bekkering. Yes, that is correct, Senator.
    So right now all congressional holds have been lifted and 
so we are working on what we are calling a standup package at 
USAID to put the new bureau into place. As you can imagine, 
there are a lot of aspects we are looking at, such as staffing, 
budgets, operational policies, et cetera. We are currently in 
the process of that, and I would be happy to follow back up 
with you and your staff in writing as we continue to progress 
with our benchmarks.
    Senator Kaine. I think that is something that the entire 
committee would be interested in. We would appreciate that.
    Mr. Bell, in your opening comments, you talked about some 
real positive economic and other advances in Cote d'Ivoire. 
Regional issues will intrude and there is instability in the 
region. Talk to us about Cote d'Ivoire's strategy for dealing 
with instability in the Sahel and Mali and how are they 
prepared and what can we do to help them?
    Mr. Bell. Thank you very much, Senator.
    Until last August, I was the foreign policy advisor at 
AFRICOM, and so I have some familiarity with this issue.
    Just next month, Cote d'Ivoire is going to something like 
triple its contribution to the U.N. peacekeeping mission in 
Mali, from a company to a battalion. And tragically, MINUSMA 
has become the deadliest U.N. peacekeeping mission in the 
world. So that is a significant contribution.
    I firmly believe that the more the U.S. military is able to 
work with these African partner militaries, the better it is 
for the entire country because of the professionalism that our 
people bring to that. In every training we do, we always 
emphasize the importance of protecting the civilian population, 
respecting human rights. These are insurgencies, and rule 
number one of counter-insurgency is it has to be you and the 
population against the enemy.
    So I hope that addresses your question, sir.
    Senator Kaine. I think some of the best investments that we 
make in my other committee, the Armed Services Committee, is 
the work that we do in tandem with partners around the world, 
that we are still such a partner of choice for nations in 
Africa and elsewhere on training, including human rights 
training. It is something as a portion of the Pentagon's budget 
is just a fraction of a fingernail, but it actually produces 
real value. And your experience in AFRICOM I think will be very 
valuable in that.
    Ms. Lapenn, in the African Union, my understanding is that 
the current chair or incoming chair is President el-Sisi of 
Egypt, and there are a number of issues that the African Union 
are dealing with on Egypt's borders, Libya and Sudan. And in 
some of those issues, Egypt's position and the U.S. position is 
not quite aligned.
    Could you share with us what you would predict or project 
about President el-Sisi's leadership, chairmanship of the 
African Union?
    Ms. Lapenn. Thanks, Senator.
    Yes, he is the current chair of the African Union.
    If confirmed, my approach would be, I would say, similar at 
the AU effectively to a bilateral mission, trying to move our 
agenda where and how we can through relationships, through 
getting a sense of who is who, who are our partners, where can 
we move the needle. So, if confirmed, I would look seriously at 
those particular policy issues and see how we can move African 
Union members along with us, as well as others at the 
commission.
    Senator Kaine. Thank you.
    Thank you, Mr. Chair.
    Senator Graham. Senator Coons?
    Senator Coons. Thank you, Chairman Graham.
    Let me ask just a follow-up question for each, if I might.
    Ms. Lapenn, thank you again for your excellent to my visit 
to South Africa and your service as charge in Pretoria. And I 
am encouraged that you are going on to what I think is, as I 
think Ambassador Leonard will tell you, a wonderful and a 
challenging post. I would be interested in hearing from both 
Ambassador Leonard, as you depart the AU, and you as you head 
there. I think, as Chairman Graham mentioned, that the AU and 
the U.N. should deepen our collaboration. I think our 
engagement in supporting and funding and assisting AU-led 
peacekeeping efforts is a great way to facilitate African-led 
solutions to African security challenges.
    How would you plan to use your role, if confirmed as our 
Ambassador to the African Union, to support peacekeeping 
operations? And to you and to Ambassador Leonard, do you think 
the United States should provide increased financial support 
for the AU peace support operations through the U.N. budget, 
and do you think we have made enough progress in providing 
accountability around a number of very troubling incidents of 
misbehavior by peacekeepers, criminal and abusive and 
inappropriate behavior by peacekeepers, of a variety of 
nations, both Western, African, and otherwise?
    Ms. Lapenn, if I might, first.
    Ms. Lapenn. Thank you, Senator.
    On the peacekeeping support, I think we are doing a lot of 
good work particularly around training, around the capacity 
building that a number have spoke to already, and particularly 
with a focus on human rights, which is a U.S. value. It is 
something that we bring. I think we have done a lot of good 
work on that, and the results are positive.
    We are seeing three things, I would say, in the 
peacekeeping space from the African Union. We are seeing the 
AMISOM mission in Somalia, political support for non-AU, non-UN 
missions in the Sahel, and then also an identification of 
standards, of norms, of institutions that are required. And we 
are a crucial partner in all those efforts.
    On your question about accountability, I think we need to 
hold firm. We need to be very, very strong on this issue. And 
that is additionally a reflection of our values, but it is also 
what peacekeepers need to do to keep populations safe. And so 
that I think will also have to be considered as our 
conversations around the funding, conversations that 
necessarily will come back here requiring congressional 
consent.
    Senator Coons. Thank you.
    Ambassador Leonard, if you would.
    Ambassador Leonard. Thank you for that question. It is 
providing me the opportunity to feel, I do not know, 
valedictory or something.
    [Laughter.]
    Ambassador Leonard. But I think that part of the story line 
of my time in the last 3 years at the AU was their successful 
efforts to build a much closer working relationship with the 
U.N. I think the Secretary-General and the chairperson at the 
commission worked very well together, and that is a very 
positive trend for thinking about the way that the world 
addresses the challenges that face us.
    The issue of accountability is huge. During the various 
sort of U.N. operation renewals that have come up, we have 
worked very hard, for example, like in a unibid, to have a lot 
of granularity in the discussion about what it is that we mean 
by the performance indicators to find things that are 
achievable.
    I think that the AU, in terms of the current conversation 
going on about how we might change or what other approaches 
might be taken to providing money for AU-led peace support 
operations, has been working hard to come up with the answers 
to the question, how have they further institutionalized those 
performance standards. I think there is an interesting debate 
to be had about what is the most productive way in which to 
fund. Is it through our bilateral efforts or is there a case to 
be made through the U.N.?
    And in any of those circumstances, and particularly for the 
U.N. there is also the question of financial accountability of 
how those funds are used. That is a question that is posed by 
us and other U.N. members. It is also the question being posed 
by AU member states as they are being asked to contribute more. 
So I think it is a conversation that is going in a positive 
direction, and it is sort of a watch this space to see how it 
ends, but probably in the near term.
    Senator Coons. Well, thank you, Ambassador. You have 
represented us well in Addis, and I think the AU is a 
particularly important mission and relationship. And if 
confirmed, you go to Abuja, which is in some ways an equally, 
if not more, challenging and important post, a very complex 
nation, Nigeria, with huge potential.
    If confirmed, how will you ensure that Nigeria continues on 
the path towards democracy and use the tools that you will have 
available to you to ensure that we confront together what I 
think is the serious security challenge of ISIS West Africa and 
promote transparency and human rights compliance by the 
Nigerian Security Forces?
    Ambassador Leonard. Thank you for those very seminal 
questions.
    I think on the question of promoting democracy, I think the 
best thing that we have going for us in our relationship with 
Nigeria on the issue of democracy is the overwhelming support 
of Nigerians towards that. You know, in sort of Afro-barometer 
polling, there is a great attachment to the idea of elections 
matter, results should be respected. This is something that 
Nigerian citizens want.
    Before I went to Mali, I was the Director for West African 
Affairs, and I think the 2000 elections were the first time 
that, although not anywhere near as good as the 2015--it was 
the first time that things like parallel vote counts--this is 
when Ambassador McCulley was there--were being used and having 
measures to sort of track how that was going. I think people 
were all very satisfied with what happened in 2015.
    And in 2019, the issues of delay and some logistics 
problems and some intimidation factors disappointed a lot of 
people. I sometimes wonder if that disappointment is--you know, 
it is not as if nothing better happened between 2015 and 2019. 
There were a lot of process issues that were improved, 
automaticity in registering new voters. And I sometimes wonder 
if the disappointment was absolute or just that one had gotten 
used to seeing a much increased trajectory across the 
elections, and maybe we did not quite go there.
    But as people in this room know, elections every 4 years 
happen very quickly. So there is an awful lot of work to be 
done to help that as we look towards 2023.
    And the other part of your question was on peace and 
security, yes. And as I mentioned before previously, I think 
there is an incentivizing factor in the idea of focusing quite 
narrowly now on the capabilities that we can provide that 
encourage the Nigerian military and security services towards a 
better approach to their duties and making sure that we are not 
giving any assistance that can aid and abet some of the more 
pernicious behaviors as a way to move it forward in a positive 
direction. And so I think that, obviously, one does need to 
continue to engage with them because the security challenges 
such as ISIS West Africa are significant, not going to go away, 
and cannot be ignored. But I think that we have come on a good 
construct for moving forward with them both in terms of 
addressing that challenge and in terms of reforming the way 
they do business.
    Senator Coons. Thank you.
    I think the Global Fragility Act approach that Chairman 
Graham and I are working on will help significantly with 
stabilizing northern Cote d'Ivoire, northern Nigeria, and some 
of the regional issues.
    Mr. Bell, I will talk to you afterwards, if I can, about 
the cocoa industry and child labor. I know I am well over my 
time and am delaying my colleagues. But I am quite concerned 
about the ways in which the industry has missed a number of key 
deadlines, and I think there continue to be concerns about how 
we work together to assure that children are not mistreated in 
labor in the cocoa industry. We had a wonderful meeting with 
the First Lady of Cote d'Ivoire about this issue, and I am 
optimistic it is possible, but we need engagement.
    And I think South Africa is a country of enormous 
potential. I am encouraged, Ms. Marks, to hear you recognize it 
correctly as a model that many other countries can learn from 
of reconciliation after periods of great tension and 
difficulty. And I look forward to meeting with you before we 
get to a vote.
    Thank you very much, Mr. Chairman.
    Senator Graham. Senator Shaheen?
    Senator Shaheen. Thank you.
    Ms. Bekkering, a year or so ago, along with another of 
other women Senators, I had a chance to meet with two young 
women who had been kidnapped by Boko Haram. They were both from 
Nigeria. And they had tragic stories to tell about seeing 
family members murdered in front of them, being raped, being 
taken away, being kidnapped and held in captivity for several 
years.
    And I asked them at the end of their story what they would 
like us to tell the people of this country and the government 
about what we should do to respond to that kind of situation 
and to help young women in their situation. And they were both 
very clear. They said education is the most important thing you 
can do to help us.
    So I know that that is part of your portfolio in your new 
position, if you are confirmed. So can you talk about how 
important education is for girls and young women in empowering 
them and ensuring economic opportunities for them?
    Ms. Bekkering. Well, thank you, Senator Shaheen, for 
meeting with and being a voice for those young women.
    This is an area of critical importance. 132 million girls 
around the world are out of school. When we look at areas of 
conflict and crisis, they are 90 percent more likely to be out 
of school than boys. So it is a pervasive issue for us. We know 
education is foundational to all of our development goals.
    And so when we are looking at these staggering statistics, 
the first thing we are doing is asking ourselves what are the 
barriers that are keeping girls from going to school? We need 
to first assess what those barriers are, and those barriers are 
many, as I am sure you know, as is the whole field of women's 
empowerment. We are looking at, first of all, can girls go to 
school safely? Is there gender-based violence? Do they have 
adequate water, sanitation, hygiene (WASH) facilities that 
allow them to go to school? And then thirdly and very 
importantly, we are looking at the cultural aspects, which 
might say, ``a girl is not as important as a boy to go to 
school or our family does not have the money to send both of 
them.'' So in all of our programming, we do these analyses to 
look at what are the various factors that are keeping girls 
from being able to go to school and then working with our 
partners to design the correct interventions to address those 
barriers.
    If confirmed, this is an area I confirm to you right now 
that I will give utmost importance, and I look forward to 
working with you and your staff very closely on this issue.
    Senator Shaheen. So one of the things that I was surprised 
at is looking at the World Economic Forum's Global Gender Gap 
report and seeing that Pakistan has come in second to last on 
that report, that USAID's own journey to self-reliance country 
road map shows Pakistan lagging behind the world on gender 
equality.
    Can you speak to why it may be worse in Pakistan than some 
other countries and what specifically we can do there to 
support more education and closing that gap between girls and 
boys?
    Ms. Bekkering. So the Global Gender Gap Report is something 
that we also look at, and it looks at four areas, as you know. 
It is political participation and representation. It is health. 
It is education, and it is economic participation.
    So for Pakistan, I will be honest. I am not quite familiar 
with why they rank so low. Is it on education specifically or 
is it an average of the four pillars?
    Senator Shaheen. I do not know the answer to that. I cannot 
tell that from what I have in my briefing here. Roughly 50 
percent of women and girls over the age of 10 have never 
attended school, and 96 percent drop out by grade 12.
    Ms. Bekkering. So let us talk about education, and that 
makes sense. One of the areas that we have been increasingly 
concerned about especially in Pakistan and other areas where we 
have seen prolonged conflict is, first of all, simply that 
there was such a huge destruction of schools. And in Pakistan, 
as you know, especially in the regions, there were not girls-
only schools, and in a lot of areas, there were not schools 
that were safe or of easy access to girls. This was one of our 
big problems.
    So we have invested significant funding in Pakistan. While 
I am not the lead on those issues, since our mission takes the 
lead on those issues, I do know that we have offered them 
support on how to, one, re-enroll girls in schools, especially 
in areas where they may have, for a time, been prohibited from 
going to schools. We are also looking, of course, at the 
economic opportunities since there is such a linkage there. But 
I would be happy to talk to my colleagues in the Regional 
Mission and Geographic Bureau and come back to you with some 
more specifics.
    Senator Shaheen. I think that would be helpful. Do we think 
that the growth of madrasas and having so many children in 
madrasas to go to school as opposed to in other schools is part 
of what is contributing to this since girls would not be 
included there?
    Ms. Bekkering. That could very well be a factor. I am not 
sure of the particulars, and I would rather be well informed 
with my answers. So let me commit to looking into that and 
coming back to you.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Graham. Thank you all very much. You accorded 
yourselves well. Congratulations to you and your family.
    We will keep the record open for questions until July the 
18th.
    The hearing is adjourned.


    [Whereupon, at 4:40 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

                              ----------                              


            Responses to Additional Questions for the Record
           Submitted to Lana Marks by Senator Robert Menendez

U.S.-South Africa Relations
    Question. U.S.-South Africa bilateral relations are generally 
friendly, but there are periodic differences over foreign policy 
issues. In multilateral forums, South Africa often backs developing 
country and emerging country positions that are sometimes at odds with 
stated U.S. interests. What do you view as the Trump Administration's 
main bilateral priorities vis-a-vis South Africa? How would you seek to 
advance them if confirmed?

    Answer. A top priority in South Africa is to strengthen and deepen 
our important trade and investment ties. Trade between our two 
countries grows every year, and the United States remains South 
Africa's third largest bilateral trading partner. We are major 
investors in South Africa, where over 600 American companies account 
for an estimated 10 percent of South Africa's gross domestic product. 
In Cape Town, for example, U.S. investments over the last 15 years are 
currently valued at U.S. $2.3 billion and have created nearly 8,000 
jobs. For their part, South African investors, such as the energy and 
chemical company Sasol, have mounted major projects in the United 
States. Another South African firm, Nando's Peri-Peri Chicken, has 
brought South African cuisine to American consumers. This economic 
relationship creates opportunities for American companies, and jobs for 
American workers. If confirmed, I would seek to make the United States 
the number one trading partner for South Africa and the partner of 
choice for the growth of its vibrant economy.
    Another top priority is the decades-long U.S. investment in the 
health of South Africans, specifically in fighting the HIV epidemic 
that continues to affect over seven million South Africans. If 
confirmed, I would uphold our vital effort in partnership with the 
South African government to achieve epidemic control by the end of 
2020.
    In addition, the Trump Administration seeks to cultivate the long-
standing, deep, and genuine ties of affection that bind the American 
and South African people. If confirmed, I would promote cultural ties 
through youth-oriented programs like the Young African Leaders 
Initiative, and through programs that share American music, sports, and 
dance with local audiences. I would deepen our educational ties with 
South Africa, which proudly stands as the number one contributor of 
sub-Saharan African exchange students in our U.S. universities. I would 
strengthen university partnerships, scholarships, and exchange programs 
to ensure strong collaborative relationships between South African 
researchers and their American counterparts. I would give special 
attention to integrated projects, like the IBM Research Lab in 
Johannesburg, that focus on innovation and opportunity for South 
Africa's youth.

    Question. What is the status of and what has been accomplished 
under the bilateral Strategic Dialogue? Around what issues can the 
U.S.-South African relationship be strengthened? What issues will you 
recommend be part of the Dialogue if confirmed?

    Answer. The United States and South Africa held ministerial-level 
Strategic Dialogue (SD) meetings in 2010, 2012, and 2015. As a sub-
component of the SD, we have also held three Under Secretary-level 
Working Group on African and Global Issues (WGAGI) meetings, in 2012, 
2013, and 2019. The Annual Bilateral Forum (ABF), another component of 
the SD process, involves South Africa-based staff from the U.S. Mission 
and South African government officials and has taken place in Pretoria 
every year since 2010. SD meetings have involved a wide range of 
interlocutors from a variety of U.S. and South African government 
agencies, and discussions have ranged from trade, investment, 
agriculture, and health, to transportation, law enforcement, and cyber 
security. Special sessions have focused on multilateral relations, 
human rights, and African peace and security.
    If confirmed, I would seek to continue our important bilateral 
Strategic Dialogue and focus on key priority issues including trade and 
investment, multilateral affairs, peace and security, and information 
technology.

    Question. What outcomes have resulted from the trilateral program, 
under which the United States supported South African aid to other 
African countries to address shared U.S.-South African concerns? Should 
this program be continued? If so, what should be the areas of focus? 
What will your role be if confirmed as Ambassador?

    Answer. The Trilateral Assistance Program has supported South 
Africa as a leader in regional and continental contexts in a manner 
that is consistent with broader U.S. foreign policy objectives. For 
example, In FY 2017, USAID supported South Africa to expand solar 
resource mapping in Botswana and Namibia to help move the entire region 
toward exploitation of renewable sources of energy for the future. 
USAID also collaborated with South African universities and the South 
African Department of Science and Technology to partner with numerous 
African universities to expand knowledge on soil chemistry and 
microbiology for improved agricultural production. If confirmed, I 
would welcome a dialogue about programming in this area.

    Question. President Donald J. Trump threatened to withhold U.S. aid 
from countries that voted in favor of a non-binding resolution 
rejecting the Administration's rejection of Jerusalem as the capital of 
Israel, or otherwise vote against U.S. positions in the United Nations. 
South Africa is currently on the United Nations Security Council. 
Should the U.S. cut off aid to South Africa if it votes against U.S. 
positions in the Security Council? If so, should that extend to 
assistance provided under the Emergency Plan for AIDS Relief?

    Answer. I have taken note of South Africa's voting record at the 
United Nations. In 2018, 110 resolutions required a vote in the U.N. 
General Assembly, and voting coincidence between the United States and 
South Africa on those votes was 21 percent. It is important for South 
Africans to consider whether their government's voting record 
accurately reflects their values and commitment to human rights. If 
confirmed as Ambassador to the Republic of South Africa, I would build 
upon efforts already underway to improve multilateral cooperation with 
South Africa and seek to work closely with the South African government 
during its current tenure on the U.N. Security Council.

    Question. Last August, President Trump tweeted, ``I have asked 
Secretary of State @SecPompeo to closely study the South Africa land 
and farm seizures and expropriations and the large scale killing of 
farmers. South African government is now seizing land from white 
farmers.'' @TuckerCarlson @FoxNews. What was the reaction to this tweet 
in South Africa, to the best of your knowledge? To your knowledge, did 
Secretary Pompeo examine the issue? If so, what were the findings?

    Answer. The President asked the Secretary to look closely at the 
current state of action in South Africa related to land reform. In a 
statement, the South African foreign ministry indicated it was 
``disappointed'' with the President's message.
    Yes, the State Department has continued to follow these issues 
closely. Deputy Secretary of State Sullivan visited South Africa in 
March, followed by a visit by Assistant Secretary for African Affairs 
Tibor Nagy in June. Both senior officials met with a wide range of 
stakeholders to discuss the issue of land reform in order to increase 
our understanding of this sensitive and important issue. I am aware 
that the U.S. Mission to South Africa also engages on a regular basis 
with South Africans on all sides of the debate in order to inform our 
position. There is no doubt that debates on land reform in post-
apartheid South Africa are difficult and longstanding. South Africa is 
working through this difficult process, and we are encouraged that it 
is happening in an open manner, including through public hearings.

    Question. ANC-led efforts to address the country's many challenges 
have had a mixed record of success, and citizen expectations for rapid, 
positive socio-economic transformation have broadly exceeded what the 
state has been able to provide. Despite large state investments in 
housing, services, and infrastructure, the quality of public goods and 
services has often been poor, often spurring protests. In recent years, 
university students protesting education fees also mounted large 
protests. Recurrent allegations of corruption and cronyism at various 
levels of government have also fueled public discontent. Opposition 
parties have successfully exploited growing voter discontent with the 
ANC, and won significant victories in local elections in 2016, 
suggesting challenges for the ANC ahead of 2019 elections.
    How do you interpret the meaning and extent of ``state capture'' 
under former president Zuma? In what ways, if at all, does Zuma remain 
politically influential? In what ways, if any, do you expect that 
influence to affect policies developed by the President Cyril 
Ramaphosa's Administration?

    Answer. I understand "state capture" to refer to systemic political 
corruption, in which private interests shape the rules of the game and 
influence decision-making processes to their own advantage. From 2010 
to 2018, South Africa suffered from state capture under the 
administration of former President Jacob Zuma, resulting in a series of 
high-profile scandals, diminished economic opportunity, and a loss of 
confidence in government institutions. In February 2018, President 
Cyril Ramaphosa replaced Zuma and began taking steps to counter 
corruption, such as by appointing a widely respected (independent) 
National Director of Public Prosecutions and a new commissioner of the 
South African Revenue Service. In addition, several high-level judicial 
commissions of inquiry are underway. However, Zuma remains politically 
influential among some factions of the ruling African National 
Congress, as well as among some in his home province of KwaZulu-Natal. 
His continued political influence could stymie or prevent the full 
implementation of anti-corruption policies.

    Question. What are the Ramaphosa Administration's main governance 
reform priorities? What role if any, should the United States play in 
assisting with reforms?

    Answer. President Ramaphosa has pledged to undertake good 
governance, anti-corruption, and market-friendly reforms in order to 
rebuild trust in institutions and set the economy on a path toward 
growth. President Ramaphosa's efforts signal a promise to put in place 
sustainable anti-corruption structures, for the benefit of South 
Africa's voting public as well as investors who point to anti-
corruption measures as key to economic growth.
    If confirmed, I will build on the efforts already underway across 
the U.S. Mission in South Africa to report and engage on good 
governance and anti-corruption efforts. I will ensure top-level support 
for the Mission's good governance working group, an interagency 
mechanism that leverages expertise across agencies and sections. I will 
support ongoing programs that address corruption and governance, and I 
will advocate for additional resources in these areas.

    Question. What is the status of efforts to amend the constitution 
to allow for expropriation of private land without compensation? What 
impact might such a change have on racial relations and private sector 
investment, including potential investment from the United States?

    Answer. At this time efforts to amend the constitution have paused. 
The previous Parliament created the Ad Hoc Committee to Amend Section 
25 of the Constitution and tasked it with drafting language for the 
proposed constitutional amendment. The new Parliament has yet to issue 
a mandate to reconvene the Ad Hoc Committee to continue the prior 
committee's work. We expect to see some movement when Parliament 
returns for its second term on August 20.
    A multiplicity of land reform initiatives have been ongoing since 
the end of apartheid, and most South Africans support such efforts. 
However, the prospect of land expropriation without compensation 
specifically is contentious because it creates economic uncertainty 
around the country's protection of property rights. The South African 
government is aware of the formidable challenge of finding solutions to 
redress a century of wrongs to black South Africans without 
compromising property rights, and has moved forward through 
consultations with broad and diverse stakeholders. While a legal 
framework for land reform continues to be worked out through a 
legislative process, President Ramaphosa and other members of his 
administration have publicly discussed expropriation in the context of 
targeted circumstances, such as on abandoned buildings or underutilized 
land. President Ramaphosa has repeatedly stated his commitment to 
ensuring that land reform efforts do not undermine future investment, 
agricultural production, or food security.

    Question. How would you approach USG work to counter the violent 
crime challenges in South Africa, and support the country's criminal 
justice capacity?

    Answer. South Africa faces daunting, complex challenges of violent 
crime and an overburdened criminal justice system. If confirmed, I 
would support the U.S. government's multi-pronged engagement on these 
issues. For example, I would seek to increase South African 
participation in U.S. training programs, such as through judicial 
sector participation in U.S. public affairs exchange programs and 
security force participation in the International Law Enforcement 
Academy (ILEA) in Gaborone, Botswana. Moreover, I would search for 
strategic windows of opportunity to further support South Africa's 
National Prosecuting Authority, independent judiciary, and civil 
society organizations, each of which plays a critical role in promoting 
accountability and supporting victims of violent crime.

    Question. What efforts is the U.S. government making to assist with 
anti-corruption and transparency efforts in South Africa? Are our 
actions commensurate with the challenge facing South Africa in these 
areas?

    Answer. If confirmed, I will build on the efforts already underway 
across the U.S. Mission in South Africa to report and engage on good 
governance and anti-corruption efforts. I will ensure top-level support 
for the Mission's good governance working group, an interagency 
mechanism that leverages expertise across agencies and sections. I will 
support ongoing programs that address corruption and governance, and I 
will advocate for additional resources in these areas.

    Question. In mid-2018, the State Department reported that South 
Africa's government does not meet minimum U.S. standards for the 
elimination of trafficking in persons (TIP), a longstanding problem in 
the country. The Department reports that the government is making 
significant efforts to address TIP activity, but has insufficiently 
funded anti-trafficking efforts for a second year in a row. It was thus 
downgraded to U.S. Tier 2 Watch List country under a system set out in 
the Trafficking Victims Protection Act, as amended.
    How would you describe the scope of trafficking in persons (TIP) in 
South Africa?

    Answer. As reported in the 2019 Trafficking in Persons Report for 
South Africa, human traffickers exploit domestic and foreign victims in 
South Africa, and traffickers exploit victims from South Africa abroad. 
Traffickers recruit victims from poor countries and poor and/or rural 
areas within South Africa to urban centers, such as Johannesburg, Cape 
Town, Durban, and Bloemfontein, where traffickers force victims into 
sex trafficking, domestic servitude, criminal activities, and 
agriculture. Syndicates-often dominated by Nigerians-facilitate 
trafficking in the commercial sex industry. Traffickers increasingly 
force women from Lesotho into sex trafficking in South Africa. To a 
lesser extent, syndicates recruit South African women to Europe and 
Asia, where traffickers force some into prostitution, domestic 
servitude, or drug smuggling.

    Question. What specific actions will you recommend we undertake to 
support South Africa in improving its efforts to stop trafficking in 
persons if confirmed?

    Answer. If confirmed, I will recommend a set of specific goals and 
objectives to further the government of South Africa's anti-trafficking 
efforts. Key lines of effort will include investigating and prosecuting 
officials suspected of complicity in trafficking crimes; increasing 
efforts and capacity to investigate, prosecute, and convict traffickers 
involved in organized crime syndicates that facilitate trafficking; 
and, improving implementation of a variety of South African TIP-related 
legislation. If necessary, I will advocate for U.S. government funding 
to help advance these goals.

    Question. What support have we provided to train officials to 
investigate and prosecute those facilitating child sex trafficking or 
adult forced prostitution?

    Answer. The State Department's Office to Monitor and Combat 
Trafficking in Persons currently has two projects, totaling U.S. 
$1,575,000 that support the training of officials to investigate and 
prosecute traffickers.
    In 2019, the State Department's Office to Monitor and Combat 
Trafficking in Persons awarded U.S. $825,000 to the United Nations 
Office on Drugs and Crime (UNODC) for an anti-TIP program focused on 
southern Africa, including South Africa. The program will train 
criminal justice personnel, including judges, magistrates, prosecutors, 
and law enforcement at the national and regional level to increase the 
number of systematized, victim-centered human trafficking 
investigations and prosecutions.
    UNODC was also awarded U.S. $750,000, in 2016, to build the 
capacity of the INTERPOL Regional Bureau for Southern Africa to support 
the Southern Africa Development Community member states in victim-
centered investigations and prosecutions of trafficking in persons 
cases. This project seeks to develop skills and support intelligence 
driven bilateral and regional operations to combat TIP.

    Question. What additional activities should we be undertaking to 
assist South Africa in these areas?

    Answer. If confirmed, I will ensure that the U.S. Mission in South 
Africa provides policy and, if possible, program support to further the 
goals of the South African Department of Justice's National Policy 
Framework on Trafficking in Persons. We will commit to routine 
engagement with our South African counterparts to stress the importance 
of these actions and in support of a robust partnership between our 
governments for progress in addressing this crime.

    Question. What U.S. assistance activities will be cut off should 
South Africa be sanctioned under the Trafficking Victims Protection Act 
for being on Tier Three?

    Answer. The Trafficking Victims Protection Act (TVPA) restrictions 
apply to the obligation of non-trade, non-humanitarian U.S. assistance 
to the governments of Tier 3 countries. Trade-related and humanitarian 
assistance are excepted from the restrictions, as are specific types of 
security assistance related to counter narcotics, anti-terrorism, and 
nonproliferation. The applicability of the restrictions, or a waiver 
from the restrictions, is subject to a Presidential determination each 
year.

    Question. What specific actions will you take to help address the 
scourge of trafficking if confirmed?

    Answer. If confirmed, I will support the efforts of the State 
Department's Office to Monitor and Combat Trafficking in Persons to 
address the scourge of trafficking. This will include setting goals and 
objectives to further the government of South Africa's anti-trafficking 
efforts and, if necessary, advocating for U.S. government funding to 
help advance these goals.
    While the South African economy is large and complex, annual real 
Gross Domestic Product (GDP) growth (i.e., growth as output as measured 
in constant Rand) has been far lower in recent years than it was in the 
mid-2000s, when growth in the 5% range was typical. Growth averaged 
1.3% from 2014 through 2017 and is forecast at 0.8% in 2018. GDP as 
measured in dollars-a key factor in current account transactions, 
notably trade-also trended downward between 2011 and 2016 due to a weak 
Rand. Domestic factors include high public deficits and debt, an 
inadequately educated workforce, and rigid labor markets. In addition, 
in 2014 and 2015 electricity generation deficits led to rolling power 
blackouts, and such power shortages have recently resumed. The country 
has also faced significant droughts, including one that caused severe 
water shortages in Cape Town, a major global tourist destination.

    Question. Why has South Africa's economy grown so slowly?

    Answer. Although South Africa is the United States' most developed 
trade and investment partner on the continent, it continues to struggle 
with low economic growth and profound fiscal challenges. Forecasts for 
economic growth generally are in the 1.3%-1.5% range for 2019 and 1.5%-
1.7% range for 2020, and for the budget deficit to be between 4.5%-4.9% 
in 2019. In the first quarter of 2019, the unemployment rate in the 
country rose to 27.6% (up half a percentage point from the previous 
quarter) and to 55.2% for youth (aged 15-24), who represent 17 percent 
of the population. The reasons for South Africa's economic challenges 
are many and complex, but international ratings agencies have often 
cited concern that the government's budget is increasingly 
unsustainable, driven in part by large contingent liabilities to the 
country's many large state-owned enterprises (SOEs). In addition, South 
Africa's education system struggles to produce the number of high 
school graduates needed for employment by key sectors of the economy. 
The country's former engines of growth and tax revenue--manufacturing 
and mining--still account for 70% of total exports, but have declined 
in recent years. Over the last 30 years, manufacturing has fallen from 
30% of GDP to 12% today, mining has fallen from 13% of GDP to 7.5%, and 
services have grown from 51% to 65%.

    Question. What are President Ramaphosa's economic reform and growth 
priorities? What are the most promising areas for greater bilateral 
trade, both regarding U.S. export opportunities and South Africa 
exports to the United States, including under AGOA?

    Answer. President Ramaphosa has indicated his plans to implement 
structural economic reforms such as reducing the public sector wage 
bill and restructuring state-owned enterprises (SOEs). These reforms 
could help put the economy on a sustainable path of growth, but are 
controversial.
    As the largest export market for U.S. goods in sub-Saharan Africa, 
South Africa has the greatest potential for growth of U.S. exports and 
investment in our key sectors of economic strength, including 
information and communication technologies (ICT), advanced 
manufacturing, energy, and services.
    South Africa is the greatest non-oil beneficiary and the most 
diversified exporter under the African Growth and Opportunity Act 
(AGOA). South African exports under AGOA totaled U.S. $1.5 billion in 
2018. South Africa is the world's fourth biggest citrus exporter to the 
United States.

    Question. What are the implications of the Trump Administration's 
tariff increases on U.S.-South Africa trade relations? How would 
potential new tariffs on U.S. imports of South African autos affect 
South Africa's economy?

    Answer. The President's action under Section 232 is to protect U.S. 
national security given massive and persistent global excess capacity 
for, and resulting excessive imports of, steel and aluminum. Countries 
have discussed with us possible alternative means to address our 
concern. The President is considering the national security aspects of 
these alternatives on a case-by-case basis.
    On May 17, the President issued a proclamation that concurs with 
the findings and conclusion of the Secretary of Commerce that the 
quantities and circumstances of imports of automobiles and certain 
automobile parts have weakened our internal economy and threaten to 
impair the national security. Pursuant to Section 232 the President has 
determined to pursue negotiation of agreements to address the 
threatened impairment to national security.
    The President has directed the United States Trade Representative 
to lead the negotiation process and to update him within 180 days of 
the status of those negotiations. If no agreements are reached by that 
time, the President could decide then whether further action under 
section 232 is appropriate.

    Question. Mark Green launched Prosper Africa in Maputo, Mozambique 
in June. Please explain how Prosper Africa is supposed to operate, and 
how you as Ambassador will take advantage of the initiative in South 
Africa if confirmed.

    Answer. Prosper Africa will mobilize resources from across the U.S. 
government to unlock the United States' unmatched competitive 
advantages to vastly accelerate two-way investment and trade with 
Africa states.
    Prosper Africa draws on a broad range of tools, including the new 
Development Finance Corporation, both to help African governments 
improve the business environment in their countries and to support U.S. 
companies interested in investing in Africa.
    By expanding investment and trade with partner countries in Africa 
and establishing a more level playing field for American businesses, 
Prosper Africa aims to create jobs and strengthen African countries' 
progress towards self-reliance.
    If confirmed as Ambassador to the Republic of South Africa, I will 
aggressively use Prosper Africa and other mechanisms to expand markets 
in South Africa for American exporters and ensure our businesses and 
products are treated fairly.

    Question. Will you commit, if confirmed, to ensuring that you fully 
brief Members of Congress and/or their staff when you are in Washington 
for visits or consultations during your tenure as Ambassador to South 
Africa?

    Answer. Yes, if confirmed, I would be pleased to appropriately 
brief Members of Congress and/or their staff during my tenure as 
Ambassador to South Africa when I am in Washington.

    Question. What do you consider the status of South Africa's state 
of gender equality? What actions and programs will you promote to 
support the improvement of the status of women and girls if confirmed?

    Answer. South Africa's constitution contains strong protections for 
human rights, including for gender equality. Women's rights are also 
protected and upheld in South Africa by the Minister of Women in the 
Presidency, the Commission for Gender Equality, the Commission for 
Employment Equity, and a number of other government bodies, numerous 
non-governmental organizations (NGOs), and labor unions. The U.S. 
government, through the President's Emergency Plan for AIDS Relief 
(PEPFAR), also invests in protecting adolescent girls and young women 
in South Africa through its DREAMS (Determined, Resilient, Empowered, 
AIDS-free, Mentored, and Safe) public-private partnership to address 
many of the factors that make girls and young women particularly 
vulnerable to HIV, including gender-based violence and exclusion from 
economic opportunities.
    However, South Africa continues to struggle with gender-based 
violence against women: between 25 and 40 percent of South African 
women have experienced sexual and/or physical violence at the hands of 
an intimate partner, according to the South African government's 
Demographic and Health Survey.

    Question. How will you ensure that existing and longstanding U.S. 
policy commitments to ending gender-based violence, advancing the 
rights of adolescent girls, and promoting women's leadership and 
participation will be respected and advanced in South Africa?

    Answer. While sexual violence is a global issue, the rate of sexual 
violence in South Africa is among the highest in the world. If 
confirmed, I would seek to leverage all U.S. government programs, 
including development programs, exchange programs, security assistance, 
and our sizeable HIV/AIDS assistance to deepen the impact of U.S. 
support to help South Africa address many of the factors that impede 
women's advancement in South Africa. This includes addressing factors 
that make girls and young women particularly vulnerable to HIV, 
including gender-based violence and exclusion from economic 
opportunities, as well as promoting more broadly efforts to prevent 
gender-based violence against women and assist those women who seek 
counseling, medical, legal, or financial assistance. Additionally, I 
would use public statements, speeches, and the press to add my voice--
and that of the United States of America--to this cause.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. My professional experience is based entirely in the private 
sector, where I started an artisanal handbag business in Miami, Florida 
and grew it into a global brand. My work involved global travel, cross-
cultural negotiation, and hard-nosed advocacy for my own rights and 
intellectual property.
    In business negotiations across the span of my career, I have 
always advanced the values of honesty, fairness, and a firm belief in 
the power of free markets. In certain countries where I did business, 
these values had not fully taken hold, and it is no coincidence that 
these countries tended to fall short on human rights and democracy. 
Although I was operating in the capacity of a business leader, not an 
activist or government official, I would like to think that my 
adherence to these values-honesty, fairness, and free markets-served to 
move the hearts and minds of my interlocutors in a direction more 
favorable to human rights and democracy.
    In addition, in my career I have negotiated with foreign public and 
private sector leaders who were unaccustomed to the sight of women in 
power. I dealt with these individuals personally, and in doing so, I 
believe I influenced their views on the role of women in society. In 
this way I contributed to the promotion of global women's rights, a key 
component of human rights and democracy.
    I have shared lessons learned through these experiences through my 
participation in Harvard University's Kennedy School of government's 
Women's Leadership Board, as a distinguished speaker for Georgetown 
University's Women's Leadership Initiative, and by representing the 
United States in Helsinki for the Women Business Leaders Summit.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in South Africa? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Although South Africa is a vibrant democracy with a free 
press and strong democratic institutions, it continues to face 
challenges including corruption, gender-based violence against women, 
attacks on lesbian, gay, bisexual, transgender, and intersex (LGBTI) 
persons, and trafficking in persons (TIP).

    Question. What steps will you take--if confirmed--to support 
democracy in South Africa? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed as Ambassador to the Republic of South Africa, 
I would make the promotion of human rights and good governance a key 
objective in order to strengthen South Africa's democracy. Corruption 
scandals related to the administration of former President Jacob Zuma 
are the subject of ongoing judicial proceedings, and the current 
administration of President Cyril Ramaphosa has taken important steps 
to fight corruption. If confirmed, I would support President 
Ramaphosa's efforts through Mission programs and support from 
Washington-based agencies. I would continue the U.S. Mission's ongoing 
efforts to report on human rights abuses, gender-based and anti-LGBTI 
violence, and trafficking in persons (TIP), through reporting cables as 
well as public reports like the annual Country Report on Human Rights 
Practices and Trafficking in Persons Report.
    South Africa continues to address these complex, multi-pronged 
challenges with the support of partners like the United States. My 
greatest challenge in this regard, if confirmed, would be to match 
existing U.S. resources, which are necessarily finite, with this wide 
range of urgent reform priorities.

    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed as Ambassador to the Republic of South Africa, 
I would direct Mission staff to use Public Diplomacy, Self-Help, Africa 
Regional Democracy Fund, and other sources of funding to support 
democracy and governance. We would seek to apply these resources to 
people and projects throughout South Africa, drawing voices from across 
the country to form our opinions and shape our policies.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in South Africa? What steps will you take to pro-actively 
address efforts to restrict or penalize NGOs and civil society via 
legal or regulatory measures?

    Answer. If confirmed, I will meet with human rights, civil society, 
and other non-governmental organizations (NGOs) in the United States 
and in South Africa. I will ensure the U.S. Mission monitors any 
attempt to restrict or penalize NGOs and civil society via legal or 
regulatory measures.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I would meet with democratically oriented 
political opposition figures and parties. I would publicly encourage 
and support South Africa's vibrant democracy and genuine political 
competition, and I would advocate for access and inclusivity for women, 
minorities and youth within political parties.

    Question. Will you and your embassy team actively engage with South 
Africa on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in South Africa?

    Answer. South Africa enjoys a robust and independent press in a 
sophisticated media landscape. That said, if confirmed I would ensure 
that the U.S. Mission is vigilant to spot and address any government 
efforts designed to control or undermine press freedom through legal, 
regulatory or other measures. I would engage regularly with South 
Africa's independent media.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes, if confirmed I would seek to counter disinformation 
and propaganda disseminated by foreign state or non-state actors in 
South Africa.

    Question. Will you and your embassy teams actively engage with 
South Africa on the right of labor groups to organize, including for 
independent trade unions?

    Answer. South Africa has long benefited from strong and independent 
trade unions. If confirmed, I would actively engage with South Africa's 
labor groups.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in South Africa, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in South Africa? What specifically will you commit to do to help the 
LGBTQ people in South Africa achieve equal rights?

    Answer. South Africa continues to suffer attacks on lesbian, gay, 
bisexual, transgender, and intersex (LGBTI) persons. If confirmed as 
Ambassador to the Republic of South Africa, I would continue the U.S. 
Mission's ongoing programming and reporting efforts to address human 
rights abuses, including gender-based and anti-LGBTI violence, through 
reporting cables as well as public reports like the annual Country 
Report on Human Rights Practices and Trafficking in Persons Report. I 
would also commit to continue to support addressing their HIV services 
through the PEPFAR program,
    One of the greatest obstacles to advancing women's empowerment and 
gender equity is a lack of quality healthcare, including access to 
reproductive health services. The U.S. government has historically led 
global efforts to combat preventable maternal deaths through 
investments in maternal and child health, nutrition, family planning, 
and other critical health interventions. However, the Administration's 
actions in the area of global health, such as expanding the Global Gag 
Rule, have severely undermined these efforts.

    Question. Has the expanded Global Gag rule affected program 
implementation in South Africa? If so, how specifically?

    Answer. The United States remains deeply committed to the people of 
South Africa, including through our PEPFAR program, which represents 
the vast majority of U.S. assistance to South Africa. Since 2004, in 
partnership with South Africa, the United States has invested more than 
U.S. $6 billion to control the HIV/AIDS epidemic in South Africa. South 
Africa, with the support of the United States, has the largest HIV 
treatment program in the world.

    Question. What specifically will you do support South African women 
and girls in gaining full access to the full range of health services 
they require?

    Answer. If confirmed, I will work closely with the State 
Department's Office of the Global AIDS Coordinator, USAID, CDC, Peace 
Corps, and others to ensure that the PEPFAR program continues its 
successful efforts to help all South Africans--including women and 
girls--live longer, healthier, and more productive lives by working 
together with the South African government to prevent and treat HIV and 
AIDS. A key part of this support is the PEPFAR-led Determined, 
Resilient, Empowered, AIDS-free, Mentored and Safe (DREAMS) public-
private partnership that addresses many of the factors that make girls 
and young women particularly vulnerable to HIV, including gender-based 
violence and exclusion from economic opportunities.

    Question. How do you characterize the current state and trajectory 
of the HIV/AIDS epidemic in South Africa? What do you see as the 
primary barrier(s) to achieving epidemic control in South Africa?

    Answer. South Africa has the largest HIV epidemic in the world with 
an estimated 7.5 million people living with HIV (PLHIV). In 2016, South 
Africa had 270,000 new HIV infections and 110,000 AIDS-related deaths. 
Currently, with U.S. government support, there are more than 4.4 
million on life-saving antiretroviral therapy (ART) and 3.1 million 
PLHIV not on ART in South Africa. In FY 2018, the PEPFAR team worked 
together with the government of South Africa to identify 939,704 PLHIV 
and started 752,934 new patients on treatment, resulting in 4,484,288 
PLHIV currently on treatment across all 52 districts.
    While we celebrate these successes, we also note that progress has 
been insufficient to reach epidemic control and there are critical 
barriers to ensuring success. The program is struggling to ensure every 
person who starts on HIV treatment remains on it. If confirmed, I would 
make it a top priority to coordinate efforts of U.S. and South African 
stakeholders to achieve epidemic control by the end of 2020.
    Violent crime is a significant problem across South Africa, as are 
criminal justice system capacity challenges. There are periodic reports 
of vigilante and mob violence, and police sometimes use heavy-handed, 
abusive tactics. Broader challenges to social cohesion are manifest in 
periodic xenophobic attacks on African immigrants and their businesses, 
criminal attacks on white farmers, and the de facto racial segregation 
of many residential areas.

    Question. Is there a role for the United States in helping South 
Africa address violent crimes and improve security?

    Answer. South Africa faces daunting, complex challenges of violent 
crime and an overburdened criminal justice system. If confirmed, I 
would seek to increase South African participation in U.S. training 
programs, such as through judicial sector participation in U.S. public 
affairs exchange programs and security force participation in the 
International Law Enforcement Academy (ILEA) in Gaborone, Botswana. 
Moreover, I would search for strategic windows of opportunity to 
further support South Africa's National Prosecuting Authority, 
independent judiciary, and civil society organizations, each of which 
plays a critical role in promoting accountability and supporting 
victims of violent crime.

    Question. What programs will you prioritize aimed at increasing the 
capacity of an independent and effective judicial system?

    Answer. If confirmed, I would strongly support ongoing U.S. Mission 
efforts to increase the capacity of South Africa's independent and 
effective judicial system. The Mission has undertaken extensive 
engagement with various elements of the South African court system in 
recent years with a goal of building judicial capacity. For example, 
the U.S. Mission to South Africa provided a U.S. $15,000 grant to the 
U.S. National Center for State Courts to provide training workshops to 
South African justices, and has facilitated numerous exchange visits 
and justice system collaborations.

    Question. How would you describe the state of xenophobia in South 
Africa? If confirmed, as an appointee of President Trump, what actions 
could you credibly take to speak against xenophobia in light of 
President Trump's recent tweets telling four members of the House of 
Representatives-all U.S. citizens--``who originally came from countries 
whose governments are a complete and total catastrophe'' to ``go back 
and help fix the totally broken and crime infested places from which 
they came,'' which appear to rest on the presumption that people of 
color must not be U.S. citizens?

    Answer. Xenophobic violence remains a problem in South Africa. 
According to the State Department's 2018 Country Report on Human Rights 
Practices for South Africa, an open-source system for information 
collection on xenophobia-related incidents reported that 27 persons 
were killed, 77 persons were assaulted, 588 shops were looted, and 
1,143 persons were displaced due to xenophobic incidents during the 18 
months between February and August 2017. Xenophobic violence in South 
Africa is largely directed against refugees from Somalia, Ethiopia, or 
the Democratic Republic of the Congo. In many cases the victims are 
owners or managers of small, informal grocery stores in poor 
residential areas.
    If confirmed as Ambassador to the Republic of South Africa, I would 
continue the U.S. Mission's efforts to direct programs and reporting to 
address this ongoing problem.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government?

    Answer. Yes, I believe that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government.

    Question. If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. If confirmed, I will remain vigilant in this regard and 
will instruct agency and section leadership across the U.S. Mission, 
including the Deputy Chief of Mission and the Human Resources Officer, 
to ensure that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting)?

    Answer. No.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority?

    Answer. No, I have not. I take any potential issue of sexual 
harassment, discrimination, and inappropriate conduct with the utmost 
seriousness. While I have addressed concerns about workplace policies 
related to compensation, I am not aware of any concerns regarding 
harassment, discrimination, or inappropriate conduct. In the event I do 
become aware of such concerns, I commit to addressing them quickly and 
appropriately.



                               __________


            Responses to Additional Questions for the Record
         Submitted to Lana Marks by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?
    Answer. My professional experience is based entirely in the private 
sector, where I started an artisanal handbag business in Miami, Florida 
and grew it into a global brand. My work involved global travel, cross-
cultural negotiation, and hard-nosed advocacy for my own rights and 
intellectual property.
    In business negotiations across the span of my career, I have 
always advanced the values of honesty, fairness, and a firm belief in 
the power of free markets. In certain countries where I did business, 
these values had not fully taken hold, and it is no coincidence that 
these countries tended to fall short on human rights and democracy. 
Although I was operating in the capacity of a business leader, not an 
activist or government official, I would like to think that my 
adherence to these values-honesty, fairness, and free markets-served to 
move the hearts and minds of my interlocutors in a direction more 
favorable to human rights and democracy.
    In addition, in my career I have negotiated with foreign public and 
private sector leaders who were unaccustomed to the sight of women in 
power. I dealt with these individuals personally, and in doing so I 
believe I influenced their views on the role of women in society. In 
this way I contributed to the promotion of global women's rights, a key 
component of human rights and democracy.
    I have shared lessons learned through these experiences through my 
participation in Harvard University's Kennedy School of government's 
Women's Leadership Board, as a distinguished speaker for Georgetown 
University's Women's Leadership Initiative, and by representing the 
United States in Helsinki for the Women Business Leaders Summit.

    Question. What are the most pressing human rights issues in South 
Africa? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in South Africa? What 
do you hope to accomplish through these actions?
    Answer. Although South Africa is a vibrant democracy with a free 
press and strong democratic institutions, it continues to face 
challenges including corruption, gender-based violence against women, 
attacks on lesbian, gay, bisexual, transgender, and intersex (LGBTI) 
persons, and trafficking in persons (TIP).
    If confirmed as Ambassador to the Republic of South Africa, I would 
make the promotion of human rights and good governance a key objective 
in order to strengthen South Africa's democracy. Corruption scandals 
related to the administration of former President Jacob Zuma are the 
subject of ongoing judicial proceedings, and the current administration 
of President Cyril Ramaphosa has taken important steps to fight 
corruption. If confirmed, I would support President Ramaphosa's efforts 
through Mission programs and support from Washington-based agencies. I 
would continue the U.S. Mission's ongoing efforts to report on human 
rights abuses, gender-based and anti-LGBTI violence, and TIP, through 
reporting cables as well as public reports like the annual Country 
Report on Human Rights Practices and Trafficking in Persons Report.
    Specifically, I would seek to focus attention on the issue of 
gender-based violence against women--between 25 and 40 percent of South 
African women have experienced sexual or physical violence at the hands 
of an intimate partner. While sexual violence is a global issue, the 
rate of sexual violence in South Africa is among the highest in the 
world. I would seek to leverage all U.S. government programs, including 
development programs, exchange programs, security assistance, and our 
sizeable HIV/AIDS assistance to deepen our impact to help prevent 
gender-based violence against women and assist those women who seek 
counseling, medical, legal, or financial assistance. Additionally, I 
would use public statements, speeches, and the press to add my voice--
and that of the United States of America--to this cause.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in South Africa in 
advancing human rights, civil society and democracy in general?
    Answer. South Africa's constitution is celebrated for its strong 
protections of human rights, and South African courts and institutions 
generally perform well. However, resource constraints prevent South 
African courts and institutions from fully living up to the 
constitution's ideals. As noted in the 2018 Country Report on Human 
Rights Practices for South Africa, the judiciary remains understaffed 
and underfunded, resulting in up to two-thirds of criminal cases never 
resulting in verdicts. In cases of gender-based violence against women, 
low conviction rates result from poor police training, insufficient 
forensic lab capacity, lack of trauma counseling for victims and 
witnesses, and overburdened courts.
    South Africa continues to address these complex, multi-pronged 
challenges with the support of partners like the United States. My 
greatest challenge in this regard, if confirmed, would be to match 
existing U.S. resources, which are necessarily finite, with this wide 
range of urgent reform priorities.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in South Africa? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?
    Answer. If confirmed, I would meet with human rights, civil 
society, and other non-governmental organizations in the United States 
and in South Africa. I would uphold the Leahy Law and similar efforts 
by ensuring that the U.S. Embassy maintains robust vetting practices, 
and I would ensure that U.S. security assistance and security 
cooperation activities reinforce human rights.

    Question. Will you and your embassy team actively engage with South 
Africa to address cases of key political prisoners or persons otherwise 
unjustly targeted by South Africa?
    Answer. I am unaware of any such cases at the moment, but if 
confirmed I would actively address any such cases should they arise.

    Question. Will you engage with South Africa on matters of human 
rights, civil rights and governance as part of your bilateral mission?
    Answer. Yes. If I am confirmed as Ambassador to the Republic of 
South Africa, I would ensure that human rights, civil rights, and 
governance remain a central aspect of the U.S. Mission's engagement 
with South Africa.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?
    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?
    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in South Africa?
    Answer. I am one of two trustees of a family trust, which holds 
commercial and mixed-use real estate in South Africa. I am currently in 
the process of transferring my trusteeship to a non-family member. If 
confirmed, I will comply with all stipulations as outlined in my ethics 
agreement and resign from this position.
    Other than the above, neither I nor my immediate family members 
have any financial interests in South Africa.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?
    Answer. I strongly believe that diversity makes business teams 
better. If confirmed, I would strongly encourage mentoring for staff 
members from diverse backgrounds and underrepresented groups, and I 
would ensure that agency and section leaders throughout the U.S. 
Mission engage in leadership practices that support diversity.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?
    Answer. A diverse and inclusive workforce is stronger, more 
effective, and more representative of the wide diversity of the United 
States. If confirmed, I would use the robust performance management 
tools at my disposal to hold agency and section heads across the U.S. 
Mission accountable to ensure they foster an environment that is 
diverse and inclusive. I would lead by example, modeling inclusive 
teambuilding and offering an open-door policy to any staff who would 
wish to share a concern with me. Finally, I would ensure that all staff 
are aware of their rights and responsibilities as federal employees.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in South 
Africa specifically?
    Answer. Political corruption has exerted a negative effect on 
democratic governance and the rule of law in South Africa. Following 
nearly a decade of corrupt practices under the administration of former 
President Jacob Zuma, and the scandals that followed, many South 
African voters lost faith in the democratic rights that were so hard-
won a generation ago. The fewest number of South Africans since the 
country's first democratic elections in 1994 voted in the country's 
most recent national election (66 percent of all registered voters), 
which analysts have attributed to a ``perfect storm'' of multiple 
corruption scandals, rampant unemployment, especially among youth, a 
stagnant economy, and recurrent power failures following mismanagement 
at the national energy utility. Political corruption also contributes 
to the enrichment of the few at the expense of the many, exacerbating 
economic inequality that is already the world's most severe, according 
to the World Bank.

    Question. What is your assessment of corruption trends in South 
Africa and efforts to address and reduce it by that government?
    Answer. From 2010 to 2018, South Africa saw a rise in corrupt 
practices under the administration of former President Jacob Zuma, 
resulting in scandals and a loss of confidence in government 
institutions. Since February 2018, when President Cyril Ramaphosa 
replaced Zuma and began taking steps to roll back corruption, the trend 
has been significantly more positive. A number of high-level judicial 
commissions, most notably a commission headed by Deputy Chief Justice 
Raymond Zondo, are examining the extent of Zuma's corruption. President 
Ramaphosa's anti-corruption efforts hold out promise for the benefit of 
South Africa's voting public as well as investors who point to 
successful anti-corruption measures as critical to sustainable economic 
growth.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in South Africa?
    Answer. If confirmed, I would build on the efforts already underway 
across the U.S. Mission in South Africa to report and engage on good 
governance and anti-corruption efforts. I would ensure top-level 
support for the Mission's good governance working group, an interagency 
mechanism that leverages expertise across agencies and sections. I 
would support ongoing programs that address corruption and governance, 
use public statements, speeches and the press to call attention to 
these issues, and advocate for additional resources in these areas.



                               __________


            Responses to Additional Questions for the Record
           Submitted to Lana Marks by Senator Jeanne Shaheen

    Question. Thank you for your commitment to look into the impact of 
the President's Protecting Life in Global Health Assistance (PLGHA) 
policy in South Africa. As you may know, South Africa has the largest 
HIV epidemic in the world, with 19% of the global number of people 
living with HIV, 15% of new infections and 11% of AIDS-related deaths. 
Several detailed and credible studies have demonstrated that the impact 
of the PLGHA extends beyond family planning services to other global 
health concerns, including HIV/AIDS. In interviews conducted by the 
International Women's Health Coalition, many NGOs described the clear 
and devastating impact of this policy. The Executive Director of one 
organization in South Africa said that ``When the U.S. pulls out 
[organizations close] down services, it is not just the abortion 
services. It is the information to women, it is HIV services, it is 
pregnancy services, teenage pregnancy and related stuff. So what has 
happened is that women's lives have become much more vulnerable, they 
don't have access the way they did--and it is always the most poor 
marginalized who suffer the most.''

   In addition to examining the impact of the PLGHA on health systems, 
        will you commit to looking specifically at the impact of the 
        policy on the President's Emergency Plan for AIDS Relief 
        (PEPFAR) and malaria and Tuberculosis programs?

    Answer. The United States remains deeply committed to the people of 
South Africa, including through our PEPFAR program, which represents 
the vast majority of U.S. assistance to South Africa. Since 2004, in 
partnership with South Africa, the United States has invested more than 
U.S. $6 billion to control the HIV/AIDS epidemic in South Africa. South 
Africa, with the support of the United States, has the largest HIV 
treatment program in the world.
    If confirmed, I will work tirelessly to ensure that health 
programs, including those supported by PEPFAR and those focused on 
malaria and tuberculosis, are maximally effective to save lives, 
achieve epidemic control, and improve health outcomes in South Africa.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Jessica E. Lapenn by Senator Robert Menendez

    Question.  What are the most notable successes and shortcomings in 
the African Union's efforts to resolve conflicts in Africa? What types 
of U.S. support could most effectively enhance such efforts?

    Answer. The African Union (AU) provides an excellent forum for our 
African partners to proactively work through diplomatic and security 
challenges before they arise and to provide credible, African-led, 
multilateral responses to resolve ongoing conflicts and other security 
challenges. The AU has had its greatest successes in missions in which 
there is significant internal political support and, when necessary, 
international partner resourcing. Through the AU Mission in Somalia 
(AMISOM), the AU has provided the Somali government and people with an 
opportunity to begin to achieve political goals and take its first 
steps as a functioning state. The AU's greatest shortcomings are the 
lack of human, technical, and financial capacity to fully support all 
AU Commission-mandated activities. Continuing to assist the AU's 
ability to carry out its missions through the provision of U.S. 
advisory, technical, and limited operational assistance in coordination 
with like-minded partners is the most effective way to support the 
self-sufficiency of the AU.

    Question.  How effectively has U.S. support for AMISOM been 
coordinated with that of other donors? What are the key lessons learned 
from current or past AU peace operations?

    Answer. U.S. support to AMISOM is coordinated at multiple levels to 
ensure efficient and effective use of U.S. resources and avoid 
duplication of effort. We have regular capital-level discussions on 
AMISOM with the European Union (EU), which funds AMISOM troop salaries, 
and AU counterparts. There is also extensive on-the-ground coordination 
in Mogadishu via the Comprehensive Approach to Security process, which 
brings together all the major security donors to AMISOM, including the 
EU, United States, United Kingdom and the U.N. to enable timely and 
comprehensive coordination of assistance. It is important for 
international partners, such as the United States and EU, to work at 
both the political and working levels to ensure there is sufficient 
political support; avoid duplicative support efforts; and recognize the 
comparative advantages of each donor.

    Question.  What role, if any, do you see for the United States in 
supporting the AU's stymied mediation effort in Burundi, or in 
bolstering regional peace efforts in South Sudan? What are the 
impediments to the establishment of the hybrid court for South Sudan, 
and how could the AU address them? What concrete actions will you take, 
if confirmed, to

    Answer. The United States fully supports regional mediation 
efforts, including those by the AU, and regularly urges the government 
of Burundi to engage productively.
    The United States will continue to press the AU, the 
Intergovernmental Authority on Development (IGAD), regional states, and 
the government of South Sudan to support implementation of the South 
Sudan peace agreement signed on September 12, 2018. We are also 
coordinating closely with our Troika partners (United Kingdom and 
Norway), the EU, and the U.N. We are committed to ensuring robust 
enforcement of the U.N. arms embargo, and to encouraging South Sudan's 
neighbors to play a positive role.
    The United States supports accountability and is working with the 
AU to encourage the government of South Sudan to establish the Hybrid 
Court as articulated in the September 2018 Revitalized Agreement on the 
Resolution of the Conflict in the Republic of South Sudan. The United 
States is pressing the AU to step up efforts to operationalize the 
Hybrid Court, including hiring key personnel.
    If confirmed, I will continue to advocate the AU do more to 
implement establishment of the Court.

    Question.  Please discuss the role of the AU Commission with regard 
to ensuring the success of AMISOM, the MNJTF, and the G5 Sahel joint 
force initiative. What actions, if any, could USAU pursue-as a 
complement to the substantial U.S. military assistance provided to 
these three forces-to support that end?

    Answer. The AU Commission provides both direct (e.g. Somalia) and 
indirect (e.g. MNTF and G5 Sahel) oversight of missions mandated by the 
AU Peace and Security Council (PSC). The AU Commission supports AMISOM, 
the MNJTF, and the G5 Sahel Joint Force by mobilizing African and 
international partners' political backing and resources to provide 
material and technical support for these forces. In addition, it 
provides assistance and administrative support to the sub-regional 
organizations in support of their missions. If confirmed, I will work 
with the AU and like-minded international partners to ensure the 
missions work on comprehensive approaches toward addressing AU 
responses to insecurity.

    Question.  In December 2018, Ethiopia proposed a U.N. Security 
Council resolution proposing to use U.N. assessed contributions to fund 
AU peace support operations, and South Africa, which replaced Ethiopia 
on the Council in January, may offer a similar resolution while it 
holds the Council presidency in October. What concerns does the U.S. 
have about such a proposal and what is the current status of 
negotiations? If confirmed, what actions will you recommend the U.S. 
take to address the issues of reliable steady funding from 
international partners for African Union peace keeping missions?

    Answer. The Administration values the African Union's (AU) 
essential contribution to maintaining peace and security on the African 
continent and supports its goal to have predictable and sustainable 
funding for AU-led peace support operations (PSOs). Any proposed U.N. 
Security Council resolution to use U.N. assessed contributions to 
support AU PSOs must have sufficient safeguards to ensure it does not 
cross U.S. red lines, including UNSC primacy, oversight, and 
accountability.
    In large part because the resolution, as introduced in December, 
did not address U.S. concerns, and subsequent intensive discussions 
failed to address those concerns, the Security Council did not take 
action on this resolution. While the issue has not formally been taken 
up by the Security Council, it is likely one of the AU countries may 
introduce a similar resolution in October during the South African 
presidency in the U.N. Security Council. At this time, the South 
Africans have not introduced a draft for negotiation.
    If confirmed, I will work with AU Member States to ensure U.S. 
concerns and priorities are addressed when considering proposals to use 
U.N. funding to support AU-led PSOs.

    Question.  What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. As the Office Director for Human Rights and Humanitarian 
Affairs in the Bureau of International Organizations, I led our team to 
champion and support numerous human rights resolutions, including on 
LGBTI human rights and country specific situations. As the Chief of 
Staff for the Under Secretary of State for Civilian Security, 
Democracy, and Human Rights, I supported the Under Secretary to direct 
the bureaus which fell under her purview. In that role, I focused on 
cross-cutting issues with strong human rights equities, including work 
on the Atrocity Prevention Board, ensuring our efforts to counter 
violent extremism included non-security tools and approaches; and 
highlighted corruption concerns as a source of legitimate grievances 
and a risk to stability and security.
    I have also advocated for these issues in my last several overseas 
leadership positions. As DCM in Rwanda, I led the Embassy's first ever 
work on the human rights of LGBTI individuals, navigated challenges to 
democratic consolidation, and supported civil society. I also managed 
the surrender at the U.S. Embassy of Bosco Ntaganda, who was 
subsequently convicted of war crimes and crimes against humanity. As 
Charge d'Affaires in South Africa, I have supported efforts to 
strengthen South Africa's democratic institutions. I have led the 
Mission to use the full range of diplomatic tools, including exchange 
programs, public statements, private encouragement, and foreign 
assistance-funded programs.

    Question.  What issues are the most pressing challenges to 
consistent diplomatic support by the African Union for democracy or 
democratic development on the continent?

    Answer. Democratic deficiencies contribute to transnational threats 
across the region; therefore we must help communities foster 
legitimate, inclusive political systems that respect human rights and 
the rule of law, reduce fragility, mitigate risks of violent conflict 
and instability, and create enabling environments for economic growth. 
The African continent has made important gains in democracy and 
institution building over the last few decades, but those gains are 
fragile and require support.
    Repressive laws, often in the name of security, restrict freedom of 
expression and peaceful assembly and undercut efforts to support 
nascent civil society. These laws can provide legal cover for 
harassment of opposition politicians, journalists, and civil society. 
As a result, they curb internal dissent, stem legitimate criticism, and 
limit the development of viable political competition.
    Although elections are widely accepted as the norm in the region, 
an increasing frequency of electoral events have contributed to 
democratic backsliding instead of consolidation. In many countries, 
corruption is endemic, and state institutions remain weak. In addition 
to corruption, fiscal indiscipline and unaccountable public financial 
management systems in Africa undermine economic growth and democratic 
governance. Strong, accountable, and democratic institutions, sustained 
by a deep commitment to the rule of law, are most successful at 
generating greater prosperity and stability, and mitigating conflict 
and ensuring security.

    Question.  What steps will you take--if confirmed--to support more 
robust African Union diplomatic support for greater respect for 
democracy and democratic principles by member states? What do you hope 
to accomplish through these actions? What are the potential impediments 
to addressing the specific obstacles you have identified?

    Answer. If confirmed, I will work with the African Union (AU), as 
well as member states, to support democratic institutions, respect for 
human rights, accountability, access to justice, and good governance. 
This includes supporting and improving the effectiveness of the 
Department of Political Affairs, Office of Legal Counsel, and the 
Democracy and Electoral Assistance Unit (DEAU), all of which play a 
critical role to promote democratic values within the AU and the 
region.
    In particular, I commit to working with the DEAU to improve its 
elections observation expertise, and press it, as well as like-minded 
member states, to be critical of flawed elections and political 
processes. I will utilize the U.S.-AU High Level Dialogue, and the 
Democracy and Governance technical working group, to advance support 
for free and fair elections, rule of law, transitional justice, 
protection of marginalized populations, and anti-corruption efforts. I 
will also work with the AU's Peace and Security Council to ensure 
civilian protection and respect for human rights are the cornerstones 
of its approach to peace and security in Africa.
    There will be challenges. Capacity remains weak and resources 
scarce within AU institutions. The leadership of some member states do 
not share American values of democracy and respect for human rights, 
and thus, achieving consensus within the AU for these issues could be 
difficult. If confirmed, I commit to identifying influential decision-
makers who embrace U.S. values who can help advocate for why these 
values are in the best interest of Africa and Africans.

    Question.  If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations while 
ambassador to the African Union?

    Answer. If confirmed as Ambassador to the AU, I commit to working 
with a broad spectrum of actors from civil society, human rights 
organizations, and other non-governmental organizations. A robust and 
diverse civil society able to do its work unhindered is imperative for 
a peaceful and prosperous Africa. I will strive to empower all 
Africans, with particular emphasis on women and youth, to 
constructively shape and participate in their social, political, and 
economic environments.

    Question.  Will you and your embassy team actively engage with 
African Union on consistent advocacy for freedom of the press in member 
states?

    Answer. Yes, I commit to advocate actively and consistently for 
freedom of expression, including for members of the press in member 
states. As disinformation and manipulation work best in a monopolized 
information space, I will work with allies and partners to encourage 
and promote professional, balanced, and fact-based reporting while 
respecting the independence of the media, and expose and counter 
hostile disinformation campaigns.

    Question.  Will you commit to using your position, if confirmed, to 
encourage appropriate the African Union organs to defend the human 
rights and dignity of all people in member states, no matter their 
sexual orientation or gender identity? What challenges do the lesbian, 
gay, bisexual, transgender and queer (LGBTQ) people face in the African 
Union? What specifically will you commit to do to help LGBTQ people in 
the African Union?

    Answer. If confirmed, I commit to protecting the human rights and 
fundamental freedoms of all persons, particularly members of 
historically marginalized or persecuted populations. The safety and 
security of all marginalized groups, including LGBTI persons, is of the 
utmost importance; therefore, I will ensure our approach within the AU, 
first and foremost, does no harm. I will work with the AU to develop 
strategies that prioritize regular discussions with local LGBTI 
communities and civil society partners. I will also raise the human 
rights of LGBTI persons and related issues in the context of broader 
human rights and democracy concerns wherever possible. And finally, I 
will support and encourage the development of African voices in support 
of the human rights of LGBTI persons.

    Question.  Will you commit, if confirmed, to ensuring that you 
fully brief Members of Congress and/or their staff each time you are in 
Washington for visits or consultations during your tenure as Ambassador 
to African Union?

    Answer. I will always seek the opportunity to appropriately brief 
Members of Congress and their staffs while in Washington for official 
consultations.

    Question.  Do you agree that any targeting of or retaliation 
against career employees based on their perceived political beliefs, 
prior work on policy, or affiliation with a previous administration, is 
wholly inappropriate and has no place in the federal government?

    Answer. Yes. I agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government.

    Question.  If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. I will set the tone from the top to model professional 
supervision studiously consistent with all Federal government 
requirements. I will articulate clearly my expectations of supervisors 
and of appropriate, professional workplace behaviors. In previous 
positions, I have communicated my expectations explicitly in different 
formats, including at Country Team meetings with senior staff, at all 
staff Mission Town Halls and through formal Management Notices and 
written communications. I will also work directly with supervisors, 
especially any first time supervisors, to ensure that they are 
communicating effectively and appropriately, encouraging feedback from 
their direct reports, and are sufficiently self-aware in their 
interactions with staff. I will promptly and decisively address any 
concerns raised around such practices.

    Question.  Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting)? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. Not to my knowledge.

    Question.  Have you ever addressed concerns or allegations of 
sexual harassment, discrimination (e.g., racial, ethnic, religious, 
etc.), or inappropriate conduct made against any employee over whom you 
had supervisory authority? If so, please describe the outcome and 
actions taken.

    Answer. I take the issues of sexual harassment, discrimination 
(e.g., racial, ethnic, religious, etc.), and inappropriate conduct with 
the utmost seriousness. Throughout my career, I have immediately 
addressed any issues raised to me in accordance with the Department of 
State's policies and practices in dealing with such conduct. While the 
actions taken and the outcomes have differed based on the specifics of 
each situation, I have always acted swiftly and decisively, seeking 
guidance from the Department as appropriate, and also made every effort 
to ensure the wellbeing of the claimant.



                               __________


            Responses to Additional Questions for the Record
      Submitted to Jessica E. Lapenn by Senator Benjamin L. Cardin

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As the Office Director for Human Rights and Humanitarian 
Affairs in the Bureau of International Organizations, I led our team to 
champion and support numerous human rights resolutions, including on 
LGBTI human rights and country specific situations within the U.N. 
system. As the Chief of Staff for the Under Secretary of State for 
Civilian Security, Democracy, and Human Rights, I supported the Under 
Secretary to direct the bureaus which fell under her purview. In that 
role, I focused on cross-cutting issues with strong human rights 
equities, including work on the Atrocity Prevention Board, ensuring our 
efforts to counter violent extremism included non-security tools and 
approaches; and highlighted corruption concerns as a source of 
legitimate grievances and a risk to stability and security.I have also 
advocated for these issues in my last several overseas leadership 
positions. As DCM in Rwanda, I led the Embassy's first ever work on the 
human rights of LGBTI individuals, navigated challenges to democratic 
consolidation, and supported civil society. I also managed the 
surrender at the U.S. Embassy of Bosco Ntaganda, who was subsequently 
convicted of war crimes and crimes against humanity. As Charge 
d'Affaires in South Africa, I have supported efforts to strengthen 
South Africa's democratic institutions. I have led the Mission to use 
the full range of diplomatic tools, including exchange programs, public 
statements, private encouragement, and foreign assistance-funded 
programs.

    Question. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups?

    Answer. As Charge d'Affaires in South Africa, I have ensured the 
tone of an inclusive work place is set from the top. I have strived to 
develop and inculcate a corporate culture that emphasizes respect for 
others, transparency, teamwork, and collaboration through an ongoing, 
active effort. I spend a lot of time and energy encouraging and 
rewarding inclusion and collaboration. At USAU, I commit to promoting a 
culture of inclusion and leading by example. If confirmed, I will 
ensure that all staff feel they have a voice and know that diversity is 
indeed a core strength of our organization. I will work to get to know 
staff--who they are, where they are from, and what motivates them. I 
will address any EEO or related concerns brought to my attention 
rapidly and ensure that all staff are familiar with the processes 
available to them as Federal employees. I will communicate my 
expectations of work clearly, so people confidently understand what is 
expected of them. I will also emphasize my own availability to any 
staff member who wishes to bring a concern directly to me. I have done 
that with great effect in previous positions, enabling me to address 
concerns directly and decisively.

    Question. What steps will you take to ensure each of the 
supervisors in the Foreign Service are fostering an environment that is 
diverse and inclusive?

    Answer. If confirmed, I will set the tone from the top and model 
supervision rooted in my own values as well as those of the Federal 
government around diversity and inclusion. I will use the systems and 
tools available within government, including the Federal Women's 
Program. I will underscore my expectations of workplace and supervisory 
behaviors. In previous positions, I have communicated my expectations 
explicitly in different formats, including at Country Team meetings 
with senior staff, at all staff Mission Town Halls, and through formal 
Management Notices and written communications. I will also work 
directly with supervisors, especially first time supervisors, to ensure 
that they are communicating effectively and appropriately, encourage 
feedback from their direct reports, and are sufficiently self-aware in 
their interactions with staff.

    Question. Do you commit to bring to the committee's attention (and 
the Inspector General of the State Department) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. My investment portfolio includes diversified mutual funds 
that may hold interests in companies with a presence abroad. The 
diversified mutual funds are exempt from the conflict of interest laws. 
I am committed to ensuring that my official actions will not give rise 
to a conflict of interest, and I will remain vigilant with regard to my 
ethics obligations.



                               __________


            Responses to Additional Questions for the Record
          Submitted to Richard Bell by Senator Robert Menendez

    Question. Political competition in advance of Cote d'Ivoire's 
presidential election in 2020 could be destabilizing, especially if 
former President Laurent Gbagbo seeks re-election.

   Please share status of Cote d'Ivoire's preparations. What 
        assistance is the U.S. providing to support credible elections, 
        including conflict mitigation?

    Answer. Let me stress that Cote d'Ivoire is an important partner 
with a pro-American president and government. We supported the 
international community's efforts to ensure the will of the Ivoirian 
people was respected during the 2010 post-electoral crisis, and I 
believe we must remain invested in the country's continued recovery and 
the consolidation of its democratic gains.
    The biggest challenges to democracy in Cote d'Ivoire will come in 
relation to the high-stakes presidential election in 2020. The 2018 
local elections raised concerns due to well-documented irregularities, 
vote tampering, violence, and intimidation of voters by those 
affiliated with political parties. Given Cote d'Ivoire's recent history 
of violence, elections not perceived as free and fair risk plunging the 
country into further violence.
    If confirmed, I would first urge the government to ensure that 
governance reforms remain front and center on their agenda, as Cote 
d'Ivoire prepares for the presidential election in 2020. We are 
assisting this effort, including through a four-year USAID Political 
Transition and Inclusion (PTI) program being implemented by the 
National Democratic Institute, as well as a range of other assistance 
tools.
    Second, I would also push for the government of Cote d'Ivoire to 
make good on promises of national reconciliation.
    Third, I would push for reform of the electoral commission--
something linked to reconciliation--and which would pave the way for a 
new generation to lead the country, ultimately improving the lives of 
the Ivoirian people.
    In the context of this, I would ensure we wisely use U.S. 
government funds, through MCC, USAID, PEPFAR, and other assistance 
mechanisms provided to the country. We have provided approximately $140 
million to Cote d'Ivoire in FY 2018 to promote good governance, 
economic growth, security reforms, and improved health systems.


    Question. How should the United States respond if former President 
Gbagbo were to repatriate and seek re-election-and/or if Ouattara were 
to run again?

    Answer. Laurent Gbagbo is on conditional release in Belgium pending 
the prosecutor's possible appeal of the acquittal. There are a number 
of hurdles that Laurent Gbagbo would need to overcome before an 
eventual return to Cote d'Ivoire, one of which is that there is 
currently an arrest warrant for him in Cote d'Ivoire.
    In August 2018, in his National Day speech, President Ouattara 
himself called for the transition of the country's leadership to a new 
generation, and we commended that statement. President Ouattara himself 
pledged early in his presidency to hold power for only two terms, a 
position we support. We believe that regular, democratic transitions of 
power yield more accountability, stronger institutions, and less 
corruption.
    The United States does not support any particular candidate for the 
2020 Presidential election. We support a democratic process that is 
genuinely free, fair, and transparent, and a result that is viewed as 
legitimate by Ivoirian voters. Given Cote d'Ivoire's recent history of 
violence, elections not perceived as free and fair risk plunging the 
country into further violence.
    Cote d'Ivoire faces international terrorism threats, as indicated 
by a 2016 attack near Abidjan by a regional Al Qaeda affiliate that 
killed 19. Broader domestic challenges arise from longstanding communal 
tensions over land and state resources. This is notably in the unstable 
western forest cocoa belt, where indigenous and migrant farming 
communities have often clashed, and where limited attacks by small 
rogue pro-Gbagbo armed elements have occurred.


    Question. How would you assess the threat from violent Islamist 
extremism in Cote d'Ivoire? If confirmed, what steps do you plan to 
take to help the government address such threats?

    Answer. Cote d'Ivoire remains relatively calm despite an increase 
in incidents of inter-communal violence stemming from years of crisis 
and conflict from which the country continues to recover. There is a 
risk that some politicians are seeking to exploit ethnic tensions as 
the country prepares for its 2020 presidential election. The threat of 
violent extremism from the Sahel is also approaching Cote d'Ivoire's 
northern border with an increase in attacks in Mali and Burkina Faso. 
The U.S. government, through USAID's Political Transition and Inclusion 
(PTI) program, is addressing governance and post-conflict grievances, 
including vulnerabilities to violent extremism in northern, western, 
central, and southern Cote d'Ivoire. PTI includes programming focused 
on increasing moderate voices in social media and community radio, 
providing economic opportunities to vulnerable youth and women, and 
encouraging intercommunal dialogue in marginalized areas. In addition, 
in April 2019 Cote d'Ivoire was approved to participate in the Global 
Peace Operation Initiative (GPOI). This will allow the country's new 
peacekeeping battalion scheduled for deployment in Mali to receive 
modest training, construction, and equipping support for future 
peacekeeping contingents. The government of Cote d'Ivoire has requested 
more security sector reform (SSR) support from the United States and we 
are examining how to strengthen and expand security cooperation.


    Question. To what extent, if at all, do elements of the military 
continue to engage in human rights abuses, extra-legal taxation, or 
roadside extortion? To what extent is the military subservient to 
civilian authority?

    Answer. Corruption remains a problem, with allegations that former 
rebel leaders who supported President Ouattara during the conflict 
period and now serve as military commanders extract rents from economic 
activities in some regions of the country. In January and May 2017, 
former rebels integrated into the military staged mutinies, blocking 
access to major cities and halting economic activity until the 
government caved to demands for overdue bonuses. These mutinies exposed 
the threat posed by soldiers and other former fighters, who sacrificed 
their youth to fight for the current government but have not seen their 
livelihoods improve since the crisis ended. Weapons are readily 
available and circulate freely throughout the country. There are 
numerous incidents of highway banditry and other attacks in the 
countryside. During the holiday season, there is typically an increase 
in violent and opportunistic crimes.


    Question. In light of the multiple mutinies by state security force 
elements in recent years, please discuss the current status of security 
sector reform (SSR). What are Cote d'Ivoire's main unmet SSR needs? Is 
the government taking credible steps to address SSR? If confirmed, what 
steps will you take to encourage meaningful reforms?

    Answer. Hailed as a post-conflict success story following a decade-
long civil crisis that ended in 2011, Cote d'Ivoire's impressive gains 
remain at risk due to an incomplete security sector reform (SSR) 
process and inadequacies in the demobilization, disarmament, and 
reintegration (DDR) process. Mutinies by former rebels integrated into 
the armed forces and protests by demobilized former fighters in 2017 
exposed the threat posed by former rebel fighters and other security 
personnel, who, like many of the country's youth, women and working 
class, have not seen their livelihoods improve since the crisis ended. 
To consolidate the country's post-conflict recovery, the U.S. 
government and other key security partners, particularly France and the 
European Union, must continue to provide support to Cote d'Ivoire's 
ongoing SSR efforts. The State Department is supporting the broader SSR 
mission through funding from the Bureau of International Narcotics and 
Law Enforcement Affairs (INL) for community policing projects. INL is 
examining how to expand these efforts, which may require the addition 
of staff in Abidjan for program management and oversight.


    Question. Please assess the relative effectiveness of Ivoirian 
efforts to ensure accountability for human rights abuses and crimes 
against the state arising from the 2010-2011 crisis.

    Answer. Reconciliation from the 2010-2011 post-electoral crisis is 
an ongoing issue as none of those who ultimately prevailed in the 
conflict has been held accountable for any crimes allegedly committed.


    Question. How many of those convicted of such crimes remain 
imprisoned following the government's August 2018 amnesty of roughly 
800 such persons?

    Answer. In August 2018, President Ouattara announced an immediate 
amnesty for 800 prisoners held for their participation in the 2010-11 
post-electoral crisis, including several ex-cabinet members, military 
officers, and Simone Gbagbo, the wife of former president Laurent 
Gbagbo. In December, President Ouattara granted a presidential pardon 
to more than 2,500 criminals imprisoned for misdemeanors. It is unclear 
exactly how many political prisoners are in Cote d'Ivoire, but the 800 
who received amnesty exclude those convicted of a ``blood crime.'' The 
names of the 800 who received amnesty have also not been released. If 
confirmed, I will stress the need for justice for the victims of the 
post-electoral violence, and accountability for those responsible for 
serious crimes on all sides of the post-election conflict in Cote 
d'Ivoire.


    Question. What contributions has the United States made to 
strengthen the justice system? How would you assess the impact of the 
Dialogue, Truth, and Reconciliation Commission (DTRC) and other 
reconciliation efforts?

    Answer. U.S. and international assistance has provided crucial 
support to the region's recovery. In 2016, through USAID's Office of 
Transition Initiatives, or OTI, the U.S. government completed a 5-year 
program focused on reconciliation and social cohesion. In partnership 
with opinion leaders, traditional and religious networks, youth and 
women's groups, and local officials, OTI has worked primarily at the 
grassroots level to issue grants in various technical sectors, with the 
goal of consolidating political stability and promoting peace and 
reconciliation.
    With the end of this program, engagement has not stopped, however, 
and the embassy continued to support and fund citizen round-tables, 
organized by the National Democratic Institute to encourage political 
party leaders' engagement on national reconciliation. Moving beyond 
recovery to rebuild confidence, stability, and economic opportunities 
in the region will require a commitment by the government to reconcile 
the political differences and social cleavages that persist from the 
country's tumultuous past, as well as a greater sense of engagement by 
communities. How to define and prove Ivoirian nationality will play a 
prominent role in this effort, as will better access to official 
documentation and other state services.
    If confirmed, I will encourage the government of Cote d'Ivoire to 
make this a priority and encourage grassroots-led and government-led 
reconciliation efforts.
    Upon assuming the presidency in 2011, President Alassane Ouattara 
established the Dialogue, Truth, and Reconciliation Commission (CDVR). 
Widely judged to have failed to fulfill its mandate to reconcile the 
country's conflict-ridden past, CDVR was succeeded in 2015 by a new 
body, the National Commission for the Reconciliation and Compensation 
of Victims (CONARIV), which was mandated to identify and compensate 
victims of the 1999-2011 conflict. In its final report before it closed 
in 2016, CONARIV reported, to Ouattara's acclaim, that just 36 percent 
of the more than 800,000 applications for compensation were valid, with 
the rest dismissed for fraud, duplication, lack of supporting evidence, 
or other reasons. With the end of CONARIV, the government passed the 
task of reconciliation to Minister of Solidarity Mariatou Kone, who, 
while committed to reconciliation and supporting victims, does not have 
genuine high-level political or financial support for her efforts.
    The 2018 State Department Trafficking in Persons Report classifies 
The government of Cote d'Ivoire as Tier 2, not fully meeting the 
minimum standards for the elimination of trafficking but is making 
significant efforts to do so.


    Question. What will you do if confirmed to continue increasing 
support for the government of Cote d'Ivoire to investigate, prosecute, 
and convict traffickers following due process; including complicit 
officials, and apply significant prison terms as prescribed by law to 
those convicted?

    Answer. The government acknowledges the problem of human 
trafficking and has demonstrated political will to combat it, with 
several high-profile events featured in the government-run press. The 
Ivoirian government also adopted the Anti-Trafficking Law in 2016. The 
government partnered with First Lady Ouattara's NGO to build and 
operate a new shelter for child labor and child trafficking victims in 
Soubre. In addition, the Prime Minister convened the inter-ministerial 
Anti-Trafficking Committee in February 2019. If confirmed, I will work 
with the office of the First Lady, the Prime Minister, and other 
appropriate government institutions to explore capacity-building 
measures with industry and other partners. I will encourage ministries 
to take a more active role in the lead-up to the 2020 elections when 
Dominique Ouattara's tenure as first lady is set to expire.


    Question. What actions can you take to help ensure law enforcement 
respects the security of NGOs providing services to victims and enforce 
trafficking victims' right to receive care free from violence and 
intimidation?

    Answer. Our Embassy is intimately involved in promoting an end to 
trafficking. Five gendarmes and two military firefighters reportedly 
unlawfully abducted at gunpoint a 14-year-old rape and trafficking 
victim from an NGO shelter for trafficking victims. At the urging of 
Post, offices in Washington, and the U.N. Office on Drugs and Crime, 
the First Lady's Office intervened and the girl was located and 
determined to be safe. The gendarmes' leadership is investigating how 
the five gendarmes came to be involved, and the NGO filed an official 
complaint against the gendarmes with the Military Tribunal. The results 
of the judicial proceedings will demonstrate the extent of the Ivoirian 
government's ability to hold law enforcement officers who break the law 
accountable. This is the type of intervention and advocacy I would 
promote if confirmed.


    Question. Authorities estimate there are more than 2,000 Ivoirian, 
Burkinabe, Malian, Nigerien, and Senegalese talibes (students in 
Quranic schools) in northern and central Cote d'Ivoire, and corrupt 
teachers force many of them to beg. NGOs and officials report drug 
traffickers use children-some of whom may be forced-to sell and traffic 
drugs in restaurants and nightclubs. How do you propose we effect our 
programs in Cote d'Ivoire to protect vulnerable children?

    Answer. Child exploitation among talibe children, many of whom are 
brought to Cote d'Ivoire from Mali and Burkina Faso and are forced to 
beg in the streets, remains a major issue. Much of our engagement with 
Cote d'Ivoire addresses factors that can contribute to child 
trafficking labor. We are thus active in supporting women's economic 
empowerment, improving access to education, and improving health 
services. Our efforts to increase law enforcement capacity will help 
Cote d'Ivoire deal with those who use and traffic in child labor.


    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Over my career, I have committed myself to forthright 
reporting on conditions in my countries of assignment. I have held 
fraught dialogue with host governments regarding steps to address 
difficult issues including Trafficking in Persons. At our Embassy in 
Chad, I initiated a public reminder of key principles that are integral 
to a free and fair electoral process. I have been an accredited 
international observer in multiple elections in several countries, 
including Haiti, Madagascar, and Iraq. I have held dialogue with a 
range of political parties, notably in Iraq, regarding characteristics 
of a responsible party system. This appeared to facilitate losing 
parties' acceptance of legitimate election outcomes and commitment to 
peaceful politics. In at least one country (Chad), the government took 
positive steps, shortly after my interventions, to establish a drafting 
committee for a countering trafficking in persons plan, and they 
proposed legislation for greater accountability regarding restrictions 
on the right of peaceful assembly.


    Question. What issues are the most pressing challenges to democracy 
or democratic development in Cote d'Ivoire? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. The biggest challenges to democracy in Cote d'Ivoire will 
come in relation to the high-stakes presidential election in 2020. The 
2018 local elections raised concerns due to well-documented 
irregularities, vote tampering, violence and intimidation of voters by 
those affiliated with political parties. Given Cote d'Ivoire's recent 
history of violence, elections not perceived as free and fair risk 
plunging the country into further violence.


    Question. What steps will you take--if confirmed--to support 
democracy in Cote d'Ivoire? What do you hope to accomplish through 
these actions? What are the potential impediments to addressing the 
specific obstacles you have identified?

    Answer. If confirmed, I would first urge the government to ensure 
that governance reforms remain front and center of their agenda, as 
Cote d'Ivoire prepares for the presidential election in 2020. We are 
assisting this effort, including through a four-year USAID Political 
Transition and Inclusion (PTI) program being implemented by the 
National Democratic Institute, as well as a range of other assistance 
tools.
    Second, I would also push for the government of Cote d'Ivoire to 
make good on promises of national reconciliation.
    Third, I would push for reform of the electoral commission--
something linked to reconciliation--and which would pave the way for a 
new generation to lead the country, ultimately improving the lives of 
the Ivoirian people.


    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. In the context of this, I would ensure we wisely use U.S. 
government funds, through MCC, USAID, PEPFAR, and other assistance 
mechanisms provided to the country. We have provided approximately $140 
million to Cote d'Ivoire in FY 2018 to promote good governance, 
economic growth, security reforms, and improved health systems.


    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Cote d'Ivoire? What steps will you take to pro-actively 
address efforts to restrict or penalize NGOs and civil society via 
legal or regulatory measures?

    Answer. Meeting with human rights, civil society and other non-
governmental organizations in the U.S. and with local human rights NGOs 
in Cote d'Ivoire will be a priority of mine if confirmed as U.S. 
Ambassador to the Republic of Cote d'Ivoire. This is a great privilege 
of those of us who serve overseas and is a key component to 
understanding the political and human rights situation in country.


    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I commit to meeting with democratically 
oriented political opposition figures and parties and would consider it 
a great privilege.
    A strong democracy, political inclusiveness, and reconciliation 
will be necessary to solidify Cote d'Ivoire's economic success and 
ensure the country does not fall back into civil conflict. If 
confirmed, I will work with the government of Cote d'Ivoire to 
strengthen governance, enhance transparency, and become increasingly 
responsive to citizen needs. I will also support democratic 
institutions and advocate for 2020 presidential elections that are free 
and fair, thus credibly reflect the will of the Ivoirian people.
    Our Embassy is actively promoting good governance and respect for 
human rights in Cote d'Ivoire. USAID, for example, supports an 
increasingly capable, professional, and organized civil society and 
media active across the political landscape. USAID focuses on 
strengthening the electoral process and encouraging greater voter 
participation, particularly among youth and women, urgent needs in the 
lead-up to the 2020 presidential election.
    If confirmed, I will encourage all citizens and political parties 
to participate in the electoral process and--just as importantly--to do 
so peacefully from now throughout the 2020 presidential elections.


    Question. Will you and your embassy team actively engage with Cote 
d'Ivoire on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Cote d'Ivoire?

    Answer. The independent media is active and expresses a wide 
variety of views. Newspapers aligned politically with the opposition 
are known to occasionally publish inflammatory editorials against the 
government or even fabricate stories to defame political opponents. 
There are numerous independent radio stations. The law prohibits 
transmission of political commentary by community radio stations, but 
the regulatory authority allows community radio stations to run 
political programs if they employ professional journalists.
    If confirmed, I will actively engaged with Cote d'Ivoire on freedom 
of expression and advocate against any government efforts to control or 
undermine press freedom. I commit to meeting regularly with the 
independent local press in Cote d'Ivoire.


    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes, if confirmed, the Embassy team and I will actively 
engage with civil society and government to counter disinformation and 
malign propaganda disseminated by foreign state or non-state actors.


    Question. Will you and your embassy teams actively engage with Cote 
d'Ivoire on the right of labor groups to organize, including for 
independent trade unions?

    Answer. The law, including related regulations and statutory 
instruments, provides for the right of workers, except members of 
police and military services, to form or join unions of their choice, 
provides for the right to conduct legal strikes and bargain 
collectively, and prohibits antiunion discrimination by employers or 
others against union members or organizers. The law prohibits firing 
workers for union activities and provides for the reinstatement of 
dismissed workers within eight days of receiving a wrongful dismissal 
claim. The law allows unions in the formal sector to conduct their 
activities without interference. Worker organizations were independent 
of the government and political parties. Nevertheless, according to the 
International Trade Union Confederation, the law does not have any 
objective criteria to establish recognition of representative trade 
unions, which could allow public and private employers to refuse to 
negotiate with unions on the grounds they were not representative. 
Foreigners are required to obtain residency status, which takes three 
years, before they may hold union office. If confirmed, I will continue 
to advocate for the right of workers to organize, including independent 
trade unions.


    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Cote d'Ivoire, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Cote d'Ivoire? What specifically will you commit to do to help LGBTQ 
people in Cote d'Ivoire?

    Answer. Violence targeting lesbian, gay, bisexual, transgender, 
intersex persons remains a challenge in the country. If confirmed, I 
will call on the government of Cote d'Ivoire to respect the principle 
of non-discrimination, and investigate allegations of violence and 
serious levels of discrimination targeting LGBTQ persons.


    Question. Will you commit, if confirmed, to ensuring that you fully 
brief Members of Congress and/or their staff each time you are in 
Washington for visits or consultations during your tenure as Ambassador 
to Cote d'Ivoire?

    Answer. Yes, if confirmed, I would work with my Department of State 
colleagues to ensure Congress is appropriately briefed on issues 
related to Cote d'Ivoire, including my own briefings to members and 
staff when appropriate.


    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government?

    Answer. Yes, I agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government.


    Question. If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. If confirmed, I would clearly state at my very first 
Country Team meeting with section heads and my first Town Hall with all 
Mission staff that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated, and I would continue to 
reinforce this message through word and deed throughout my tenure as 
Chief of Mission.


    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting)? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No, to my knowledge I have never had anyone make a formal 
or informal complaint or allegation of sexual harassment, 
discrimination, or inappropriate conduct against me.


    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. I take all allegations of sexual harassment, 
discrimination, and in appropriate conduct seriously and am committed 
to addressing any such allegations promptly and appropriately. For 
example, when I learned of an employee possibly being verbally abusive 
to a subordinate, I immediately consulted the Department of State on 
proper process to address these concerns and counseled involved staff 
appropriately.



                               __________


            Responses to Additional Questions for the Record
        Submitted to Richard Bell by Senator Benjamin L. Cardin


    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. Over my career, I have committed myself to forthright 
reporting on conditions in my countries of assignment. I have held 
dialogue with host governments regarding steps to address difficult 
issues including Trafficking in Persons. At our Embassy in Chad, I 
initiated a public reminder of key principles that are integral to a 
free and fair electoral process. I have been an accredited 
international observer in multiple elections in several countries, 
including Haiti, Madagascar, and Iraq. I have held dialogue with a 
range of political parties, notably in Iraq, regarding characteristics 
of a responsible party system. This appeared to facilitate losing 
parties' acceptance of legitimate election outcomes and commitment to 
nonviolence in politics. In at least one country (Chad), the government 
took positive steps, shortly after my interventions, to establish a 
drafting committee for a trafficking in persons plan, and they proposed 
legislation for greater accountability regarding restrictions on 
freedom of peaceful assembly.


    Question. What are the most pressing human rights issues in Cote 
d'Ivoire? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Cote d'Ivoire? What 
do you hope to accomplish through these actions?

    Answer. Statelessness is believed to be an extensive problem; the 
government's estimate of some 700,000 stateless persons in the country 
is likely a drastic understatement of the scale of the problem. Among 
stateless persons are long-term migrants, their descendants, and 
approximately 300,000 abandoned children who are ineligible for 
Ivoirian citizenship under current laws, as citizenship is based on 
Ivoirian parentage, rather than birth in the country. The country's 
borders are porous and migrants from its troubled neighbors are able to 
enter easily.
    Other issues include reports of abuses and violations of human 
rights by security forces; arbitrary detention; harsh prison 
conditions; abuse of detainees; political prisoners; irregularities in 
electoral processes; widespread corruption in government; gender based 
violence, including female genital mutilation and cutting, early and 
forced marriage, domestic violence, and sexual violence against women 
and girls, with few crimes being reported to police; and the worst 
forms of child labor.


    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Cote d'Ivoire in 
advancing human rights, civil society and democracy in general?

    Answer. The biggest challenges to democracy in Cote d'Ivoire will 
come in relation to the high-stakes presidential election in 2020. The 
2018 local elections raised concerns due to well-documented 
irregularities, vote tampering, violence and intimidation of voters by 
those affiliated with political parties. Given Cote d'Ivoire's recent 
history of violence, elections not perceived as free and fair risk 
plunging the country into further violence.
    If confirmed, I would first urge the government to ensure that 
governance reforms remain front and center of their agenda, as Cote 
d'Ivoire prepares for the presidential election in 2020. We are 
assisting this effort, including through a four-year USAID Political 
Transition and Inclusion (PTI) program being implemented by the 
National Democratic Institute, as well as a range of other assistance 
tools.
    Second, I would also push for the government of Cote d'Ivoire to 
make good on promises of national reconciliation.
    Third, I would push for reform of the electoral commission--
something linked to reconciliation--and which would pave the way for a 
new generation to lead the country, ultimately improving the lives of 
the Ivoirian people.
    In the context of this, I would ensure we wisely use U.S. 
government funds, through MCC, USAID, PEPFAR, and other assistance 
mechanisms provided to the country. We have provided around $140 
million to Cote d'Ivoire in FY 2018 to promote good governance, 
economic growth, security reforms, and improved health systems.


    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Cote d'Ivoire? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Meeting with human rights, civil society and other non-
governmental organizations in the U.S. and with local human rights NGOs 
in Cote d'Ivoire will be a priority of mine if confirmed as U.S. 
Ambassador to the Republic of Cote d'Ivoire. This is a great privilege 
of those of us who serve overseas and is a key component to 
understanding the political and human rights situation in country.
    The United States maintains a good relationship with the Ivoirian 
military, which has been a willing partner in key areas such as 
peacekeeping. Our assistance to the Ivoirian armed forces is designed 
to develop the professionalism of its ranks. All participants are 
vetted in accordance with the Department's Leahy vetting policy to 
ensure that there is no credible information that any participants 
committed gross violations of human rights. This also reinforces our 
message that human rights violations by security forces will not be 
tolerated. If confirmed, I will actively support our Embassy in 
gathering information to contribute to important reports such as the 
Human Rights Report and Trafficking in Persons report to highlight 
areas of weakness and opportunities for further cooperation between the 
United States and Cote d'Ivoire.


    Question. Will you and your embassy team actively engage with Cote 
d'Ivoire to address cases of key political prisoners or persons 
otherwise unjustly targeted by Cote d'Ivoire?

    Answer. If confirmed, I will actively engage with Cote d'Ivoire to 
address cases of key political prisoners or persons otherwise unjustly 
targeted by Cote d'Ivoire.


    Question. Will you engage with Cote d'Ivoire on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. As Cote d'Ivoire prepares for elections in 2020, we 
underscore the importance of increasing protections for journalists, 
opposition leaders, and civil society, to ensure their human rights are 
protected and that they are able to exercise their fundamental freedoms 
without threat of reprisal. Such improvements are essential to 
promoting genuinely free and fair elections.


    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.


    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.


    Question. Do you or do any members of your immediate family have 
any financial interests in Cote d'Ivoire?

    Answer. My investment portfolio includes diversified exchange-
traded funds and diversified mutual funds, which may hold interests in 
companies with a presence in Cote d'Ivoire, but which are exempt from 
the conflict of interest laws. My investment portfolio also includes 
financial interests in companies that maintain a presence in Cote 
d'Ivoire. I am committed to ensuring that my official actions will not 
give rise to a conflict of interest, will divest my interests in those 
companies as outlined in ethics agreement, and will remain vigilant 
with regard to my ethics obligations.


    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I wholeheartedly embrace diversity as enriching, will do my 
utmost to promote equitable treatment for all staff, and will 
proactively facilitate frank communication to identify and address 
issues as they arise.


    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. My first in-house priority is to persuade staff to speak 
truth to power, especially when I am the power. Among the most 
fundamental guidance I will give all supervisors is the importance of 
their cultivation of a similar spirit of open, respectful, responsive 
two-way communication and commitment to equitable treatment for all.. I 
will meet regularly face-to-face with more junior staff to hear 
directly from them, while respecting chain of command relationships.


    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Cote 
d'Ivoire specifically?

    Answer. Good governance is the foundation for economic growth and 
free societies. While Cote d'Ivoire has made major strides in economic 
growth, corruption is a challenge that everyone, including the 
government, could do more to address.

   Corruption reduces the amount of funding available to create jobs, 
        build schools, and provide social services.
   Corruption harms citizens' faith in government, leading to 
        disenchantment and creating instability.
   Corruption deters foreign investment, thus robbing Ivoirians of 
        jobs and products that would otherwise be available.


    Question. What is your assessment of corruption trends in Cote 
d'Ivoire and efforts to address and reduce it by that government?

    Answer. Cote d'Ivoire remains the fastest growing economy in 
Francophone Africa and one of the fastest in the world, with seven to 
nine percent growth since 2012. Unfortunately, women, youth, and the 
working class have been largely left out of Cote d'Ivoire's economic 
recovery, and 46 percent of the population lives below the poverty 
line.This growth rate demonstrates that there are tremendous 
opportunities here for investors, both domestic and foreign.
    That said, the continued growth of the economy will depend heavily 
on three things: First, it will depend on a peaceful 2020 presidential 
election and transition of power.
    Second, future economic growth depends on creating opportunities 
for people at all levels of society across the country--particularly 
youth, because almost 60 percent of the population is under 25 years 
old--as well as women and rural Ivoirians. The recent updates to Cote 
d'Ivoire's family code are a very positive step, but Cote d'Ivoire's 
gender inequality is striking for a country that has made such 
impressive economic and political strides, and women face myriad 
challenges, abuse, and cultural stereotypes that impede their full 
economic participation.
    And third, it will depend on the government's commitment to good 
governance. By fighting corruption, and improving the transparency and 
predictability of the business environment, both domestic and foreign 
businesses will be able to be more profitable, hire more employees and 
spur economic growth.


    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Cote d'Ivoire?

    Answer. Corruption must be addressed to attract additional U.S. 
investment to Cote d'Ivoire. The MCC program has been a key way we have 
encouraged Cote d'Ivoire to improve its business climate and address 
corruption. If confirmed, I would also leverage at every opportunity 
the need for the government of Cote d'Ivoire to make the country more 
favorable to U.S. investment.
    I would also tackle corruption by engaging with civil society and 
promoting our exchange programs. Last year, an alumnus of one the State 
Department's Young African Leaders Initiative (YALI) fellowships 
launched a newspaper that has emerged as perhaps the most important 
voice against corruption in Cote d'Ivoire. The paper revealed 
corruption scandals and resulted in prosecutions of dozens of customs 
officials. In October, he ran for and was elected mayor of his hometown 
where he once received death threats for an investigation into cashew 
industry corruption. In addition to high-level engagement, I, if 
confirmed, would promote these influential exchange programs, which 
build the capacity of future African leaders to act and govern 
honestly.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Mary Beth Leonard by Senator Robert Menendez

    Question. What steps will you take to support conditions conducive 
to transparent, and credible elections in the future if confirmed?

    Answer. If confirmed, I will continue working with Nigeria's 
leaders, institutions, civil society organizations, and the Nigerian 
people to ensure genuinely free and fair elections without violence. In 
my understanding, as the result of tireless work by countless 
Nigerians, bolstered by U.S. support, Nigerian election administration 
and institutions are stronger than ever. Nigerian civil society 
organizations support more robust election monitoring efforts and 
political engagement, political parties are being encouraged to engage 
citizens on issue-based platforms, and Nigerian civil society 
organizations are better able to educate voters, increase participation 
in the democratic process, and reduce violence. If confirmed, I will 
aim to use U.S. government influences and assistance to further this 
progress.

    Question.  What if any progress have you seen in Buhari's efforts 
to reform the petroleum sector? What additional steps should be taken 
to reform the sector and what role should the U.S. play to help 
facilitate such reforms if any?

    Answer. In my understanding, reform of Nigeria's petroleum sector 
has been a high-profile topic over the past year. In 2018, the Nigerian 
House of Representatives and Senate passed the Petroleum Industry 
Governance Bill which many had hoped would be a critical first step in 
reforming the petroleum sector, improving transparency in a notoriously 
opaque sector. Although President Buhari did not assent to the bill, if 
confirmed, I look forward to encouraging action from President Buhari 
and the National Assembly on legislation that will increase 
transparency in this critical sector and improve Nigeria's 
competitiveness. If confirmed, I will continue to urge Nigeria's 
leadership to make progress towards a more transparent, fair, and 
competitive marketplace for U.S., Nigerian, and international 
investors.

    Question.  How would you assess Buhari's anti-corruption efforts? 
What steps will you take, if confirmed, to assist in that sector?

    Answer. President Buhari, recently elected to a second term, 
continues to emphasize tackling corruption as a priority. Nevertheless, 
corruption remains a serious impediment to Nigeria's prosperity, from 
health, to education, to its justice sector. In my understanding, 
President Buhari has taken positive steps to combat corruption, 
including through the Economic and Financial Crimes Commission (EFCC), 
which has increased its rate of convictions since Buhari took office. 
The EFCC is also prosecuting high level officials once thought to be 
above the law, but I recognize that some Nigerians believe the choice 
and timing of cases reflect political motives. If confirmed, I will 
work closely with the Nigerian government and its people to combat 
corruption in all of its forms, directly through capacity building and 
ensuring that private sector firms are aware of the Foreign Corrupt 
Practices Act and its requirements.

    Question. Has the Buhari Administration taken credible steps to 
investigate and prosecute those suspected of involvement in the illegal 
trade? What more could the Nigerian government do to address 
transnational crime networks operating there? How should the United 
States be involved in these efforts if at all?

    Answer. In my understanding, President Buhari has taken steps to 
crack down on those suspected of illegal trade, including through an 
increased rate of convictions. These are positive steps, but corruption 
remains pervasive in Nigeria. The federal, state, and local governments 
need to hold those who violate the law accountable. If confirmed, I 
will continue U.S. efforts to improve the transparency and 
accountability in particular of Nigerian customs and tax systems.

    Question.  Have the Buhari Administration's efforts to address the 
rising violence between pastoralist and settled communities in central 
and northern Nigeria been successful? What steps, if any, should the 
U.S. take to help Nigerian's mitigate, reduce and end such 
intercommunal violence?

    Answer. In my understanding, Nigerian Vice President Osinbajo has 
said publicly that there are two aspects to the violence: (1) conflict 
over land, which his government is working to address through economic 
and resource policies and programs, including a National Livestock 
Transformation Plan, and (2) a criminal element of banditry, 
kidnapping, and cattle rustling, which his government is working to 
address through law enforcement measures. The Nigerian government 
surged military forces, police, and investigative teams to conflict-
affected areas, and arrested those it believes are perpetrating 
violence. If confirmed, I will ensure the U.S. government continues to 
help Nigerians prevent and mitigate conflict through our diplomacy, 
public messaging, peacebuilding, dialogue efforts, and development 
programs, including by connecting U.S. agriculture and livestock 
experts to Nigerian policy makers and supporting strong Nigerian inter-
faith networks.

    Question.  What are the major obstacles to the Nigerian military's 
effectiveness in countering Boko Haram and ISIS West Africa Province in 
northeastern Nigeria?

    Answer. In my understanding, Nigeria's military is under staffed, 
under trained, and under equipped; it is also overstretched. With 
limited police capacity, the military is conducting operations in the 
vast majority of Nigeria's 36 states and thus not fully able to focus 
on countering terrorist groups in the Northeast. Further, the soldiers 
in the Northeast are deployed for years at a time and generally not 
rotated out, creating a largely unmet need for post-traumatic stress 
disorder care and restorative leave. At the same time, ISIS-West Africa 
is attacking military bases, seizing (or destroying) materiel, armored 
vehicles, weapons, and ammunition, placing further stress on Nigeria's 
already strained military readiness and capabilities. A perceived lack 
of professionalism, poor civil-military relations, and inconsistent 
accountability for allegations of human rights violations and abuses 
contribute to a lack of civilian trust in the security forces and can 
even fuel their enemy's recruitment.

    Question.  To what extent has the Nigerian government reasserted 
stability and security in areas ``liberated'' from Boko Haram? What are 
the obstacles to doing so?

    Answer. In my understanding, the status of areas formerly held by 
Boko Haram remains in flux and difficult to decipher. While Boko Haram 
controls less territory than it did at its height in 2014-2015, both it 
and ISIS are still able to move across borders to conduct attacks. In 
fact, ISIS is attacking with greater sophistication than in years' past 
and Boko Haram's efforts are waning in comparison. Nevertheless, the 
situation remains fluid.
    The Nigerian military and police are not fully able to protect the 
population across the Northeast. The obstacles to securing 
``liberated'' territory are rooted in the large area of the territory 
in question, the limited number and capacity of the Nigerian police, 
and the fact that Nigeria's military is under staffed, under trained, 
and under equipped, while still being overstretched. Further, poor 
civil-military relations and inconsistent accountability for 
allegations of human rights violations and abuses contribute to a lack 
of civilian trust in the security forces and can even fuel recruitment 
for their enemies.

    Question.  What is Nigeria doing to improve accountability for 
security sector abuses? What concrete steps has the government of 
Nigeria taken to hold accountable those accused of the 2015 Zaria 
massacre in keeping with the recommendations in the Kaduna State 
Commission of Judicial Inquiry? Has the report of the Nigerian Air 
Force's inquiry into the January 2017 accidental bombing in Rann, Borno 
State of a camp of internally displaced persons been made public? If 
not, why not? What steps has the government of Nigeria taken to hold 
accountable security forces responsible for disproportionate use of 
force against members of the Shia Islamic Movement of Nigeria--
including firing live ammunition into a processional-in October of 
2018?

    Answer. I understand that the Nigerian government established an 
independent, civilian-led Presidential Investigative Panel in 2017 with 
a broad mandate to investigate allegations of human rights abuses by 
the military, but its findings have not yet been made public. I have 
not heard of any of the security force officials accused of wrongdoing 
by the Kaduna state Judicial Commission of Inquiry being found 
responsible and held accountable for the Zaria attacks.
    In regards to the tragic accident at Rann, the Nigerian Air Force 
established a six-person panel to investigate the January 2017 bombing. 
The Defense HQ also set up a Board of Inquiry in early 2017; their 
results were released publicly in July 2017 and acknowledged the 
unfortunate airstrike, contributing factors that resulted in the 
mistaken targeting, and noted operational changes to reduce the risk of 
such accidents.
    Regarding the ongoing tension between Nigerian government security 
forces and the Islamic Movement of Nigeria, I understand that the 
embassy continues to raise U.S. government concerns with the Nigerian 
government at the highest levels privately as well as publicly. The 
State Department has called for thorough and transparent investigations 
into these incidents, which resulted in abuse and deaths. Those 
responsible for injuries and killings should be held accountable. I do 
not have any information on whether an investigation has been launched, 
but if confirmed, I will look into this important matter.
    If confirmed, I will continue the U.S. government's prioritization 
of human rights and accountability for those found responsible for 
human rights violations and abuses throughout our engagements with the 
Nigerian government.

    Question.  Has the Nigerian military's respect for human rights 
improved under President Buhari? What steps will you take if confirmed 
to encourage concrete steps be taken to hold human rights abusers 
accountable in a credible transparent manner?

    Answer. I have heard that under President Buhari, the Nigerian 
government has taken some positive steps to improve respect for human 
rights and has become much more willing to engage with the U.S. 
government on the topic and to undertake human rights-related training. 
The Nigerian Army set up a full-time, staffed hotline to receive and 
investigate specific civilian complaints of misconduct by military 
personnel and, where appropriate, recommend court martial proceedings. 
The Nigerian Army and Air Force have also used social media to promote 
respect for human rights among their forces and with the public.
    Nonetheless, allegations of human rights abuses and violations 
continue, and more remains to be done. If confirmed, I would work with 
my colleagues at Mission Nigeria, in Washington, and partners in 
Nigeria to advance our military professionalization efforts, with 
respect for human rights and the protection of Nigerian civilians at 
its core.

    Question.  What concrete steps do you plan to take to help ensure 
that USG security assistance, particularly assistance channeled to 
Nigeria's armed forces, helps with efforts to prevent and mitigate 
potential human rights abuses?

    Answer. If confirmed, I would continue to build on the training we 
provide to Nigeria's armed forces, which emphasizes 
professionalization, improving respect for human rights, and mitigating 
harm to civilians. I understand that the recently sold A-29 aircraft 
package includes human rights and law of armed conflict training as a 
backbone of that partnership and, if confirmed, I would work to 
incorporate and implement the inclusion of that model in future 
efforts.

    Question.  What will you do to help ensure that the Nigerian 
military has ceased unlawful use of children, including in 
collaboration with the Civilian Joint Task Force (CJTF), and 
investigate any reports of military personnel's use of children; work 
with CJTF and the U.N. to implement fully the child soldier action plan 
to remove all children from CJTF's ranks and, if it is not, cut 
provision of financial and in-kind support to CJTF?

    Answer. My understanding is that, for the first reporting period 
since 2014, there have not been any verified cases of the Civilian 
Joint Task Force (CJTF) or the Nigerian military using child soldiers. 
As a result, Nigeria was not listed in the 2019 Child Soldiers 
Prevention Act List.
    The 2019 Trafficking in Persons (TIP) Report notes that the CJTF 
continues to implement a 2017 action plan it has with UNICEF to end its 
recruitment or use of child soldiers. According to UNICEF, 1,727 
children and young people have been released as a part of that effort. 
If confirmed, I would work with the relevant Nigerian government 
entities to implement the Prioritized Recommendations included in the 
most recent TIP report.
    Meanwhile, Boko Haram and ISIS continued to forcibly recruit, 
abduct, and use child soldiers as young as 12-years-old as cooks, 
spies, messengers, bodyguards, armed combatants, and increasingly as 
suicide bombers in attacks in Nigeria and neighboring countries. If 
confirmed, I will continue to work with Nigerian military and civilian 
officials to enhance their efforts to combat these despicable groups.

    Question.  What assistance stands to be suspended should Nigeria be 
designated Tier Three under the Trafficking Victims Protection Act next 
year?

    Answer. The Trafficking Victims Protection Act restrictions apply 
to the obligation of non-trade, non-humanitarian U.S. assistance to the 
governments of Tier 3 countries. Trade-related and humanitarian 
assistance are excepted from the restrictions, as are specific types of 
security assistance related to counter narcotics, anti-terrorism, and 
nonproliferation. The applicability of the restrictions, or a waiver 
from the restrictions, is subject to a Presidential determination each 
year.

    Question.  What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. I have had the privilege of addressing human rights 
concerns throughout my Foreign Service career, from my very first tour 
following the trial of a Cameroonian opposition figure. As Ambassador 
to the African Union, I worked to promote a United Nations Security 
Council (UNSC) arms embargo against South Sudan and to press for the 
establishment of a Hybrid Court on South Sudan (HCSS). As Ambassador to 
Mali, I received the Diplomacy for Human Rights prize in 2013. My 
actions there included speaking out early and forcefully for a rapid 
return to elected governance after the 2012 coup; forestalling 
potential human rights violations and abuses by engaging leaders from 
groups with records of violations in previous political eras to make 
clear both U.S. disapproval and dispel any notion that inter-communal 
violence was consistent with any concept of Malian patriotism; seeking 
accountability for crimes and excesses by the military junta; and 
calling out mistreatment of journalists.

    Question.  What issues are the most pressing challenges to 
democracy or democratic development in Nigeria? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. In the 2018 Human Rights Report, the State Department 
highlighted examples of electoral interference and malpractice, 
including widespread vote buying and selling and ballot hijacking by 
party agents despite the presence of Independent National Electoral 
Commission (INEC) and security agents. Independent observers reported 
thugs and members of security services engaged in intimidation of 
voters and harassment of party monitors, journalists, and domestic 
observers. Civil society organizations reported no legal restrictions 
on their ability to comment or observe parts of the electoral process, 
but reported that aspects of the electoral process remained opaque, 
allegedly because of deliberate attempts to undermine or circumvent the 
integrity of the process by stakeholders or because of INEC's financial 
or logistical constraints. While no laws limit participation of women 
in the political process, the number of women candidates was 
disproportionally low. INEC points to the scale of national elections, 
with more than 82 million registered voters and over 119,000 polling 
units, as a major logistical and technical challenge.

    Question.  What steps will you take--if confirmed--to support 
democracy in Nigeria? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed I will continue to advance the U.S. 
government's elections-related diplomacy and programs that seek to 
improve Nigeria's ability to carry out a genuinely free and fair 
electoral process, prevent and mitigate electoral violence, and support 
civic and political engagement. If confirmed I will engage all 
stakeholders, including the Nigerian government and electoral 
officials, political parties, candidates, civil society, as well as 
Nigerian business, religious and community leaders, to work towards our 
shared goal of supporting a robust democracy in Nigeria. The logistic 
challenge of organizing elections in Africa's most populous country 
with more than 82 million registered voters and over 119,000 polling 
units is one impediment to these goals, the areas of insecurity and 
displaced people are another challenge. If confirmed, my team and I 
will look into how best to help the Nigerians tackle these challenges.

    Question.  How will you utilize U.S. government assistance 
resources at your disposal, including the Democracy Commission Small 
Grants program and other sources of State Department and USAID funding, 
to support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. While the Democracy Commission Small Grants program is only 
for countries in Europe, if confirmed, I will ensure that all U.S. 
government democracy and governance assistance for Nigeria is used 
effectively and efficiently. I will ensure that State Department and 
USAID democracy and governance funding is prioritized in the ways that 
it can best be harnessed to advance U.S. government interests and 
strategic goals in Nigeria, including improving good governance; 
increasing civilian security; strengthening democratic institutions and 
increasing rule of law, respect for human rights, and transparency and 
accountability in government; and reducing endemic corruption in 
Nigeria. I will ensure that our resources support Nigerian electoral 
reforms to ensure genuinely free and fair elections in 2023 without 
violence.

    Question.  If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Nigeria? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes, if confirmed, I commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with Nigerian human rights NGOs, and other members of civil 
society in Nigeria. As appropriate, I will raise concerns with the 
Nigerian government over attempts to unduly restrict NGOs and civil 
society. I will encourage Nigerians to ensure their country remains a 
democratic leader on the continent, by working with both government and 
civil society to improve democratic processes, promote good governance, 
and ensure respect for human rights.

    Question.  If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes, if confirmed, I commit to meet with democratically 
oriented political opposition figures and parties. Nigeria enjoys a 
vibrant, multi-party democracy and 2019 is the 20th anniversary of its 
return to democratic rule.
    If confirmed, I will advocate in favor of improvements to Nigeria's 
young democracy such as more democratic selection processes within 
political parties; the institution of electoral reform legislation; as 
well as greater access to and equal opportunity for women, minorities, 
and youth within political parties. If confirmed, I will continue 
Mission Nigeria's efforts to promote opportunities for women and youth. 
Last year, in my understanding, a coalition of youth civil society 
advocates led a successful nation-wide campaign to amend the Nigerian 
constitution to lower the age at which Nigerians are eligible to hold 
elected office. If confirmed, I will encourage Nigeria to continue to 
implement reforms to open access for youth, women, and minorities as it 
deepens its role as a democratic leader on the continent.

    Question.  Will you and your embassy team actively engage with 
Nigeria on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Nigeria?

    Answer. Yes. Nigeria has a robust and vibrant press sector and 
tradition of public discourse and debate. Mission Nigeria has a strong 
relationship with the Nigerian press and the United States has funded 
many types of training for journalists. If confirmed, I will continue 
to encourage freedom of the press, work to address any government 
efforts designed to control or undermine freedom of expression, and my 
team and I will engage frequently with independent, local press in 
Nigeria.

    Question.  Will you and your embassy team actively engage with 
civil society and government counterparts on countering disinformation 
and propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes. If confirmed, my team and I will actively engage with 
civil society and government counterparts on countering disinformation 
and malign propaganda disseminated by foreign state or non-state 
actors. Mission Nigeria supports training on accurate and independent 
reporting for the Nigerian press. Mission Nigeria also harnesses public 
diplomacy and countering violent extremism programs and funding to 
counter propaganda from Boko Haram and ISIS, and I would aim to 
continue this programming if confirmed.

    Question.  Will you and your embassy teams actively engage with 
Nigeria on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes, if confirmed, my Embassy team and I will actively 
engage with the government of Nigeria, employers, and civil society to 
promote internationally recognized worker rights, including freedom of 
association. Moreover, ensuring U.S. trade partners respect 
internationally recognized worker rights and adhere to high labor 
standards promotes a level playing field for U.S. workers and helps 
create stronger trading partners for the United States.

    Question.  Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Nigeria, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Nigeria? What specifically will you commit to do to help LGBTQ people 
in Nigeria?

    Answer. Yes. If confirmed, I would work with existing civil society 
and governmental organizations to promote the basic humanity of all 
citizens and residents of Nigeria, regardless of sexual orientation or 
gender identity.
    The 2014 Same Sex Marriage Prohibition Act (SSMPA), a Nigerian law 
prohibiting marriages and civil unions among persons of the same sex, 
criminalizes the free association of any persons through so-called gay 
organizations. Citizens suspected of same-sex activities are frequently 
harassed, intimidated, and arrested. The 2014 SSMPA effectively renders 
illegal all forms of activity supporting or promoting lesbian, gay, 
bisexual, transgender, and intersex (LGBTI) rights. According to the 
SSMPA, anyone convicted of entering into a same-sex marriage or civil 
union may be sentenced to up to 14 years' imprisonment.
    Following passage of the SSMPA, LGBTI persons reported increased 
harassment and threats against them based on their perceived sexual 
orientation or gender identity. News reports and LGBTI advocates 
reported numerous arrests, but detainees were in all cases released 
without formal charges after paying a bond.
    If confirmed, I will convey the importance on defending the human 
rights and dignity of all people. I will also support Mission Nigeria's 
continued efforts to train and fund opportunities for LGBTI civil 
society organizations.

    Question.  Will you commit, if confirmed, to ensuring that you 
fully brief Members of Congress and/or their staff each time you are in 
Washington for visits or consultations during your tenure as Ambassador 
to Nigeria?

    Answer. If confirmed, I am committed to ensuring that the State 
Department is in close contact with Congress about topics related to 
Nigeria. If confirmed, I commit to work with my colleagues in the State 
Department to ensure that the Department appropriately briefs Members 
of Congress and their staff on a regular basis, including briefs, as 
appropriate, when I am in Washington on official business.

    Question.  Do you agree that any targeting of or retaliation 
against career employees based on their perceived political beliefs, 
prior work on policy, or affiliation with a previous administration, is 
wholly inappropriate and has no place in the federal government?

    Answer. If confirmed, I will work to prevent any attempts to target 
or retaliate against career employees on the basis of their perceived 
political beliefs, prior work on policy, or affiliation with a previous 
administration. I take allegations of such practices seriously and will 
ensure they are referred to the Department's Inspector General.

    Question.  If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. If confirmed, I would clearly state at my very first 
Country Team meeting with Mission Nigeria leadership and my first Town 
Hall with all Mission staff that U.S. government and State Department 
personnel policies must be respected and adhered to, and I would 
continue to reinforce this message through word and deed throughout my 
tenure as Chief of Mission.

    Question.  Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting)? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. I take the issues of sexual harassment, discrimination 
(e.g., racial, ethnic, religious, etc.), and inappropriate conduct with 
the utmost seriousness and throughout my career, I have immediately 
addressed any issues raised to me in accordance with the Department of 
State's policies in dealing with such conduct.
    In 2006, an employee filed an EEO complainant alleging that an 
ambassador and I used insensitive language. We denied this. The EEOC 
found no discrimination or harassment in that case. In 2009, an 
employee who was denied tenure filed an EEO complaint, which I 
understand was subsequently closed with no finding of discrimination. 
In 2014, I was asked for information as a witness on an EEO matter. I 
had no further involvement and I understand the case was settled in 
November 2015.

    Question.  Have you ever addressed concerns or allegations of 
sexual harassment, discrimination (e.g., racial, ethnic, religious, 
etc.), or inappropriate conduct made against any employee over whom you 
had supervisory authority? If so, please describe the outcome and 
actions taken.

    Answer. I take the issues of sexual harassment, discrimination 
(e.g., racial, ethnic, religious, etc.), and inappropriate conduct with 
the utmost seriousness and throughout my career, I have immediately 
addressed any issues raised to me in accordance with the Department of 
State's policies in dealing with such conduct.
    With regard to discrimination, I have counseled a number of 
employees on EEO issues. In these instances, I followed Department 
protocols fully.

            Responses to Additional Questions for the Record
      Submitted to Mary Beth Leonard by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. I have had the privilege of addressing human rights 
concerns throughout my Foreign Service career, from my very first tour 
following the trial of a Cameroonian opposition figure. As Ambassador 
to the African Union, I worked to promote a United Nations Security 
Council (UNSC) arms embargo against South Sudan and to press for the 
establishment of a Hybrid Court on South Sudan (HCSS). As Ambassador to 
Mali, I received the Diplomacy for Human Rights prize in 2013. My 
actions there included speaking out early and forcefully for a rapid 
return to elected governance after the 2012 coup; forestalling 
potential human rights violations and abuses by engaging leaders from 
groups with records of violations to make clear both U.S. disapproval 
and dispel any notion that inter-communal violence was consistent with 
any concept of Malian patriotism; seeking accountability for crimes and 
excesses by the military junta; and calling out mistreatment of 
journalists.

    Question. What are the most pressing human rights issues in 
Nigeria? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Nigeria? What do 
you hope to accomplish through these actions?

    Answer. The 2018 Human Rights Report identified several human 
rights concerns, including abuses and violations by both government and 
nonstate actors, prolonged arbitrary detention, harsh and life 
threatening prison conditions, interference with the rights of peaceful 
assembly and freedom of association, in particular for lesbian, gay, 
bisexual, transgender, and intersex persons, refoulement of refugees, 
and corruption. If confirmed, I will continue to raise U.S. government 
concerns at the highest levels of the Nigerian government and publicly 
call for justice and accountability. If confirmed, I will support State 
Department efforts that enable the development of effective and 
professional law enforcement actors who prevent, detect, and 
investigate crime while respecting and protecting human rights.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Nigeria in 
advancing human rights, civil society and democracy in general?

    Answer. In my understanding, while Nigeria has taken steps to 
investigate allegations of human rights abuses and violations by 
security forces, including establishing an independent, civilian-led 
Presidential Investigative Panel, the U.S. government frequently does 
not see the results of those investigations. As stated in the 2018 
Human Rights Report, impunity for human rights violations and abuses 
remains widespread at all levels of government. If confirmed, I will 
prioritize raising our concerns at the highest levels of government and 
target our programs in areas where the Nigerians have demonstrated 
political will to build capacity while respecting and protecting human 
rights.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Nigeria? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. As I did in both Mali and at the African Union, if 
confirmed, I will engage with both U.S. and Nigerian human rights, 
civil society, and other non-governmental organizations. These 
organizations and the work that they do are essential to strengthening 
human rights adherence and meeting U.S. objectives in Africa. I will 
continue to ensure that the U.S. government does not provide assistance 
to security force units or individuals where there is credible 
information that they committed gross violations of human rights in 
accordance with the Leahy Law. If confirmed, I will continue our 
engagement with civil society partners to ensure that our limited 
security assistance is in accordance with the law.

    Question. Will you and your embassy team actively engage with 
Nigeria to address cases of key political prisoners or persons 
otherwise unjustly targeted by Nigeria?

    Answer. If confirmed, yes, my team will engage with Nigeria to 
address cases of key persons unjustly targeted. As Ambassador to Mali, 
I became the first to denounce the March 6, 2013 arrest of local editor 
Boukary Daou, who was tortured after his newspaper printed a letter 
criticizing coup leader Sanogo. Within hours of his disappearance, I 
spearheaded efforts to coordinate a diplomatic community effort to 
press the Malian government to respect human rights, including freedom 
of expression, and press freedom, and called out in public events for 
his release. Mr. Daou credits this activism with helping secure his 
freedom, and linked the end of his physical mistreatment in detention 
to his jailors' acknowledgment of my public expressions of interest and 
concern.

    Question. Will you engage with Nigeria on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Human rights, civil rights, and governance are key 
priorities of the U.S. government policy with respect to Nigeria. If 
confirmed, I will continue to engage on those priorities.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Nigeria?

    Answer. No.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I deeply appreciate how critically important it is for 
leaders to promote, mentor, and support all staff members, irrespective 
of their gender, ethnic background, sexual orientation, or religious 
beliefs. If confirmed, I would work with the Mission's Deputy Chief of 
Mission to ensure post has a robust mentoring program in place for all 
entry-level officers, and I would regularly discuss mentoring with the 
Mission's supervisory team. To promote an environment of transparency 
and equality, I would also institute an open-door policy and encourage 
all Mission staff to come directly to me for guidance and support as 
desired and to make me aware of any issues as needed.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, during my very first Country Team meeting, I 
would stress the importance that I place on fostering an inclusive and 
diverse environment and that this is an important criteria upon which I 
will evaluate supervisors as part of the annual employee review 
process. I would also stress these values in my introductory Town Hall 
meeting with all Mission staff and continue to do so throughout my 
tenure at Embassy Abuja.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Nigeria 
specifically?

    Answer. Political corruption negatively affects democratic 
governance and rule of law throughout the world, but in Nigeria, 
Africa's most populous country-with an estimated 87 million people 
living in extreme poverty--political corruption is literally taking 
food out of the mouths of the neediest. If confirmed, I will continue 
to support programs that combat political corruption, including through 
the Bureau of International Narcotics and Law Enforcement Affairs and 
USAID, including USAID's efforts to increase transparency and 
participation in Nigeria's election processes. I understand that 
Nigerian organizations are doing great work in this sector, including 
the Youth Initiative for Advocacy, Growth, and Advancement (YIAGA), 
which deployed more than 3,000 observers to every local government area 
and conducted parallel vote tabulations (PVT) during the Presidential 
and National Assembly elections earlier this year.

    Question. What is your assessment of corruption trends in Nigeria 
and efforts to address and reduce it by that government?

    Answer. Corruption is not an easy problem; if it was, we would no 
longer be dealing with it across the world. While corruption remains an 
endemic problem in Nigeria, the government is making progress in 
addressing it through creating a Treasury Single Account, enacting 
government payroll reform, increasing prosecutions by the Economic and 
Financial Crimes Commission (EFCC), and drafting legislation to 
increase transparency in the petroleum sector. If confirmed, I will 
continue to encourage all members of our country team to engage their 
interlocutors to reduce corruption in every sector where we work 
closely with the Nigerian government, from health, to civilian 
security, to the military.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Nigeria?

    Answer. Good governance and anticorruption programming are a 
cornerstone of the priorities for Mission Nigeria. If confirmed, I will 
work closely with my Nigerian interlocutors from the President to the 
National Assembly to civil society and the private sector to encourage 
progress in combatting corruption throughout Nigeria. I will support 
our USAID, Bureau of International Narcotics and Law Enforcement 
Affairs (INL), and Democracy, Human Rights, and Labor (DRL) programs 
that focus on increasing the capacity of Nigerians to develop effective 
and professional government institutions, especially in the justice and 
law enforcement spheres that are responsive to citizens needs and to 
strengthen anticorruption efforts throughout the country.

                               __________


            Responses to Additional Questions for the Record
        Submitted to Mary Beth Leonard by Senator Jeanne Shaheen

    Question. From your extensive experience within the State 
Department, including in your current post to the African Union, what 
is the extent to which the Department examines the impact of youth 
bulges and gender inequality on U.S. foreign policy and security 
objectives on the continent? What metrics are used to determine where 
the problem is most acute and would benefit the most from U.S. aid? 
Does this inform programmatic spending in the Sahel and across Sub-
Saharan Africa?

    Answer. Addressing youth bulges and gender inequality are an 
important part of all U.S. foreign policy, development, and security 
objectives throughout the globe, but particularly in Africa. The 
Department works to ensure that efforts to promote gender equality and 
advance the status of women and girls are incorporated across the full 
range of foreign assistance and public diplomacy programming. We use 
publically available and reputable metrics, including from 
international partner organizations such as the U.N. the World Bank, 
and the IMF, to determine where problems are most acute and to 
determine which areas would benefit most from U.S. aid. This informs 
our programmatic spending throughout the Sahel as well as across Sub-
Saharan Africa. If confirmed, I will encourage Mission Nigeria to 
design and evaluate policy and programs with Nigeria's demographic 
dynamics in mind. I would also emphasize female education as a proven 
method to address these important issues.

    Question. If confirmed, how would you engage with the Bureau of 
African Affairs, the Department of Defense, regional organizations and 
civil society to ensure that this is a priority issue that has wide 
collaboration in addressing?

    Answer. If confirmed, I would seek to integrate a whole of 
government approach to make youth and gender a priority. I will tap 
into the knowledge and studies of regional organizations and civil 
society as well. As U.S. Ambassador to the African Union (AU), I helped 
develop innovative ways to address these pressing issues, designing 
adjunct youth components with U.S. government and third party entities. 
I supported events on youth and gender preceding our Trade and 
Investment Forum and an energy conference. We included a full day event 
prior to these conferences on brainstorming youth/women's input 
involving our Young African Leaders Initiative (YALI) and African Union 
youth volunteers. Their participation and input were mainstreamed into 
the formal program. If confirmed, I will spearhead similarly 
comprehensive and impactful approaches.



                               __________


            Responses to Additional Questions for the Record
     Submitted to Michelle A. Bekkering by Senator Robert Menendez

Economic Statecraft
    Question. I am increasingly concerned that the United States is 
losing ground on engaging in economic statecraft for the twenty-first 
century, including promoting U.S. jobs, business and economic 
interests, engaging in development financing for infrastructure and 
other needs, including climate change-related resiliency, and setting 
standards for emergent technologies and the digital economy.

   Can you expand upon how you view your role and your institutions 
        role, if you are confirmed, in helping to renew and replenish 
        U.S. economic statecraft instruments? Where do you see the 
        biggest challenges? Biggest opportunities?

    Answer. We strongly believe the U.S. Agency for International 
Development (USAID) is at the forefront of the U.S. government's 
efforts to improve and expand our economic statecraft around the world. 
Addressing the need for development finance for infrastructure, for 
example, was one of the principal motivations behind the creation of 
the new United States International Development Finance Corporation 
(``DFC'') which resulted from bipartisan passage of the Better 
Utilization of Investments Leading to Development (BUILD) Act last 
year. The new DFC will combine USAID's Office of Development Credit, 
which is currently within the Bureau of Economic Growth, Education and 
Environment (E3), with the Overseas Private Investment Corporation 
(OPIC). The E3 Bureau, and its planned successor under USAID's 
Transformation, the Bureau for Democracy, Development, and Innovation, 
will be the primary organizational interface between USAID and the DFC. 
If confirmed, I will ensure USAID will forge and retain strong 
institutional linkages with the new DFC, to ensure continued U.S 
government leadership in development and economic statecraft.
    Under its One Belt, One Road Initiative, the People's Republic of 
China has been augmenting its investments in transport and trade 
infrastructure--railways, roads, bridges, and airports--and investing 
heavily in digital infrastructure. These investments are unprecedented 
in scale, and the Chinese are making them in countries that are 
traditional USAID partners. However, the potential for the U.S. private 
sector to address these challenges is significant.
    If confirmed, I will ensure a robust focus on creating business-
friendly environments that facilitate access to new markets for U.S. 
companies. We will advance our partnership with private-sector 
companies under the Global Alliance for Trade Facilitation to identify 
opportunities to address delays and unnecessary red tape at borders, 
and design and deploy targeted reforms that deliver commercially 
quantifiable results. In addition, we recognize that the digital 
revolution is opening opportunities for small businesses to engage in 
cross-border trade, grow into multinational sellers, and craft their 
own global supply-chains. If confirmed, I will explore opportunities to 
improve the enabling environments in our partner countries to expand 
platform-enabled trade. I will also ensure USAID's continued robust 
engagement with the interagency Digital Connectivity and Cybersecurity 
Partnership initiative, which aims to increase U.S. investments in the 
telecom and cyber security sectors in developing countries, including 
the Indo-Pacific region.
    If confirmed, I will prioritize work with the interagency to 
promote and unleash the potential of the U.S. private sector by 
fostering access to new markets and promoting its leadership in 
critical and emergent industries.

Climate Change
    Question. I am encouraged by the positive overtures you made 
towards USAID's work to address climate change and your acknowledgement 
of how climate change is increasing risks and challenges to economic 
growth around the world. Given the skepticism and cynicism the 
President expresses towards the need take seriously the threat 
challenge presents to the world, and his hostility towards U.S. action 
on climate change I fear that despite your well-reasoned personal 
beliefs on the matter, you may be challenged to act appropriately.

   How will the efforts being led by Senior Advisor on the National 
        Security Council, Dr. William Happer, to ``reevaluate'' to 
        utility of climate science in national security planning impact 
        USAID's development missions?

    Answer. I personally believe that climate impacts human health, the 
environment, and climate-dependent livelihoods. If confirmed, I will 
continue to support USAID programs that help developing countries 
manage and adapt to risks from the environment; protect, manage and 
restore forests and other landscapes; and develop and deploy energy 
systems that are clean, reliable, and resilient.
    My knowledge of the efforts to which you refer comes mostly from 
press reports. Generally speaking, as a development agency, USAID is a 
consumer, rather than a producer, of science and scientific data. USAID 
draws on validated scientific information from a variety of U.S. 
government and other sources to inform our development work. If 
confirmed, I will work to ensure that E3 maintains its technical 
leadership on environmental and related development challenges.

    Question. How important is high-quality, unbiased data collection 
and analysis to informing USAID's policies and programs?

    Answer. It is essential. USAID has a long-standing commitment to 
evidence-based development assistance, and to using the best available 
scientific and technical information to inform our work. If confirmed, 
I will continue to support this commitment.

    Question. What purpose do you believe is being served by the 
following policies and actions affecting the quality and integrity of 
U.S. data?:

   the ``red team vs. blue team'' climate science review proposed by 
        former EPA Administrator, Scott Pruitt;
   limiting the scope of computer-generated climate change impact 
        models used by U.S. government agencies making climate related 
        policy decision to only project through 2040 (rather than 
        through the end of the century as is accepted by the broader 
        scientific community);
   eliminating the publication of ``worst case scenarios'' from 
        reports on climate change effects;
   or the work within the White House, led by Dr. William Happer, to 
        review the role climate science serves in U.S. national 
        security planning; and
   Are you concerned with the effect these actions could have the 
        quality and integrity of U.S. (produced) climate change data?

    Answer. To the best of my knowledge, the U.S. Agency for 
International Development (USAID) has not been tracking these efforts 
closely, nor have they affected our day-to-day work. Generally 
speaking, as a development agency, USAID is a consumer, rather than a 
producer, of science and scientific data. USAID continues to base its 
development programs on the best available scientific and technical 
information, and I do not expect this to change. Within the Executive 
Branch of the U.S. government, scientific agencies such as the National 
Oceanographic and Atmospheric Administration within the U.S. Department 
of Commerce, the U.S. Geological Survey within the U.S. Department of 
the Interior, and the National Aeronautics and Space Administration 
(NASA) generally play lead roles in developing and publishing climate-
related data. USAID works in countries where the data and analysis 
required for long-term investments in sustainable development are often 
lacking, and we value deeply the investments of U.S. science agencies 
and universities to improve the quality of data and analysis around the 
world. SERVIR, our joint venture with NASA that provides state-of-the-
art, satellite-based Earth monitoring data, geospatial information and 
tools to help improve environmental decision-making among developing 
nations, is an example of this.

    Question. What will you do to protect the integrity, impartiality, 
and quality of the scientific data on climate change that USAID 
utilizes in making policy and program decisions and provides to its 
implementing partners in program beneficiaries?

    Answer. Generally speaking, the U.S. Agency for International 
Development (USAID) is a consumer, rather than a producer, of science 
and scientific data. USAID relies on climate science to support early-
warning systems, disaster assistance, the promotion of drought-
resistant crops, and other strategies to help countries cope with 
drought, extreme weather, or other climate-related conditions. If 
confirmed, I will support USAID's technical teams in continuing their 
technical leadership based on the highest-quality scientific data and 
information.

Northern Triangle
    Question. In March, the Administration froze all foreign assistance 
to Guatemala, Honduras and El Salvador.

   Do you believe freezing or ending foreign assistance to the 
        Northern Triangle is an effective or appropriate action to 
        prevent or lessen the number of migrants we see at the U.S. 
        southern border from these countries?

    Answer. As Administrator Green stated when he testified before the 
Senate Foreign Relations Committee on May 8, 2019, we are frustrated by 
the situation at the Southern border. We have been working with the 
U.S. Department of State to implement the Administration's policy 
related to the Northern Triangle.
    The U.S. Agency for International Development (USAID) is confident 
that we are part of the answer to address the situation, but our 
assistance is most effective when we see buy-in from host-country 
governments. USAID is working hard to develop new metrics specifically 
tied to migration so that our programs in Central America can be more 
targeted and effective.

    Question. Does the freeze advance El Salvador, Guatemala, and 
Honduras on the journey to self-reliance?

    Answer. As you know, globally, the U.S. Agency for International 
Development (USAID) is reorienting its strategies, partnership models, 
and programmatic practices to achieve greater development outcomes. Our 
vision is to end the need for foreign assistance; we call this ``the 
Journey to Self-Reliance.'' As partners on this Journey, we are 
empowering host-country governments and our partners to achieve 
locally-sustained results, helping countries mobilize public and 
private revenues, strengthening local capacities, and accelerating 
enterprise-driven development. This approach fosters stable, resilient, 
and prosperous countries that are more self-reliant, and prioritizes 
enduring partnerships. It is an approach that is good for our partner 
countries worldwide, U.S. national security, and the American taxpayer.
    As part of their Journeys to Self-Reliance, we need more commitment 
from the governments of the Northern Triangle to curb outmigration, 
corruption, impunity, and violence. Our programs are most effective 
when coordinated closely with, and supported by, the governments of 
these countries, as well as with civil society and the private sector.

    Question. Do you believe that the governments of these countries 
are sending migrants to the U.S. as the President has asserted?

    Answer. I have not seen any evidence to suggest the governments of 
the Northern Triangle countries are sending migrants to the United 
States, and I commit to working with my colleagues in the Bureau for 
Latin America and the Caribbean at the Agency who are the lead in this 
matter.

    Question. What do you believe are the root causes of migration from 
these countries?

    Answer. I believe extreme poverty, corruption, violence, the lack 
of economic opportunity, food-insecurity, and the threat of gang 
violence are drivers of migration from Central America. Effective 
development assistance should address economic prosperity and the 
security of citizens in local communities and include migration-related 
data as a key metric of progress.

    Question. How are USAID's development programs in the Northern 
Triangle working to address the root causes of migration from the 
Northern Triangle?

    Answer. Senator, I would defer you to our Bureau for Latin America 
and the Caribbean for specific information regarding targeted programs 
in the Northern Triangle. However, generally, programming in Central 
America funded by the U.S. Agency for International Development (USAID) 
advances the U.S. Strategy for Central America (Strategy), which 
addresses the economic, security, and governance drivers of illegal 
migration. With funding appropriated by Congress, USAID has supported 
efforts by the Northern Triangle governments to reduce poverty and 
improve their own security conditions.

    Question. Do you believe these programs are effective?

    Answer. My colleagues in the Bureau for Latin America and the 
Caribbean can better speak to the efficacy of our specific programs 
but, in general, I believe programs funded by the U.S. Agency for 
International Development (USAID) in the Northern Triangle are in our 
national interest. USAID's programs address some of the drivers we 
believe contribute to illegal migration by creating opportunities in 
Northern Triangle countries for their citizens, and also work to 
address challenges like transnational crime, corruption, and the lack 
of safe spaces for families.

    Question. How is the freeze in foreign assistance to these 
countries affecting USAID's programs in these countries and what will 
you do, if confirmed, in your capacity as AA for E3 to keep E3s 
programs effective and operational as the freeze is realized?

    Answer. The U.S. Agency for International Development (USAID) has 
been working with our implementing partners to understand the entire 
picture of the programmatic implications of this decision. We expect 
this will vary by program and each implementing partner. If confirmed, 
I will work with the USAID Bureau for Latin. America and the Caribbean 
(LAC) on how to proceed programmatically as we implement this policy 
decision.

    Question. Will you travel to the missions in these region to meet 
USAIDs personnel who's jobs are effected by the freeze, and meet with 
USAID's implementing partners in these countries, and visit projects 
that are at risk in order to see both the importance of these programs 
and the risks that arise from abruptly ending these programs?

    Answer. Yes.

Overall Commitment to Gender Equality and Integration
    Question. Sustainable international development rests on the 
recognition and promotion of human rights, including the equal rights 
of women and girls. As you are aware from your previous role as the 
Senior Coordinator for Gender Equality and Women's Empowerment, USAID's 
concerted investment in empowering women and girls and integrating 
gender equality throughout USAID's work is critical to lasting change 
and development.

   If you are confirmed as the Assistant Administrator for the E3 
        Bureau, what will you specifically do to ensure that gender 
        equality is elevated, prioritized, and integrated into the 
        wide-reaching work USAID does globally?

    Answer. Equality between women and men and female empowerment is a 
priority for the Administration and the U.S. Agency for International 
Development (USAID). The President's National Security Strategy clearly 
identifies women's empowerment as one of its five priority actions, 
noting its commitment to `` . . . support efforts to advance women's 
equality, protect the rights of women and girls, and promote women and 
youth empowerment programs.'' Gender equality and female empowerment 
are also core to the Agency's development goals, and serve as a tenet 
of the Agency's approach to the Journey to Self-Reliance.
    The Women's Entrepreneurship and Economic Empowerment (WEEE) Act of 
2018 bolsters USAID's efforts to elevate, prioritize and integrate 
gender equality across USAID programs by codifying the requirement of 
the Agency Gender Equality and Female Empowerment Policy that a gender 
analysis must shape all of our strategies and programs.
    If confirmed, I will continue to uphold and strengthen USAID's 
commitment to gender equality and female empowerment. I will ensure we 
adhere to the principles and parameters set forth in the WEEE Act, all 
relevant Agency policies and strategies, and the recently-launched 
Women's Global Development and Prosperity initiative. As part of USAID 
leadership, I will ensure to communicate clearly our expectations 
regarding the integration of gender equality and female empowerment 
into all policies and programs within the Bureau for Economic Growth, 
Education and Environment and across the Agency, and that we fully meet 
them.

    Question. How will you ensure that existing and longstanding U.S. 
policy commitments to ending gender-based violence, advancing the 
rights of adolescent girls, and promoting women's leadership and 
participation will be respected and advanced as Assistant 
Administrator?

    Answer. The U.S. Agency for International Development (USAID) is 
committed to promoting gender equality and female empowerment. Existing 
law, such as the Women's Entrepreneurship and Economic Empowerment 
(WEEE) Act, and USAID's policies, such as the Gender Equality and 
Female Empowerment Policy, direct our work; the objectives and 
promising interventions tied to each are reflected in and will serve to 
enhance, the goals and structure of the Agency's Transformation. The 
U.S. Strategy to Prevent and Respond to Gender-Based Violence (GBV) 
Globally continues to guide USAID's work on GBV, including child, 
early, and forced marriage (CEFM), and the U.S. Global Strategy to 
Empower Adolescent Girls shapes USAID's ``whole-of-girl'' approach, 
which encompasses the interconnected events across a girl's life from 
birth to adulthood and across sectors.
    If confirmed, I will continue to uphold and strengthen USAID's 
commitment in this sphere. I will ensure we adhere to the principles 
and parameters set forth in the WEEE Act, all relevant Agency policies 
and strategies, and the recently-launched Women's Global Development 
and Prosperity initiative. As part of USAID leadership, I will ensure 
to communicate clearly our expectations regarding the integration of 
gender equality and female empowerment into all policies and programs 
within the Bureau for Economic Growth, Education and Environment and 
across the Agency, and that we fully meet them.

    Question. How will you ensure that the Senior Coordinator for 
Gender Equality and Women's Empowerment and the Office of Gender and 
Development, which would be under your purview if confirmed as 
Assistant Administrator of the E3 Bureau, successfully integrate gender 
equality principles throughout USAID's work even outside of E3, 
particularly as it relates to core USAID issues such as food and 
nutrition security, agricultural development and livelihoods, water and 
sanitation access, humanitarian response, and global health?

    Answer. As noted, the Senior Coordinator for Gender Equality and 
Women's Empowerment and the Office of Gender Equality and Women's 
Empowerment (GenDev) are housed within the Bureau for Economic Growth, 
Education and Environment (E3). If confirmed, I will fully support the 
Senior Coordinator's role and GenDev's mandate for the benefit of the 
entire Agency, including the design and oversight of training courses 
on gender integration, gender-based violence (GBV), and women's 
economic empowerment; the development and delivery of technical 
assistance, programming, and communications resources across Bureaus 
and the field; and guiding and coordinating work on key cross-cutting 
issues such as women's economic empowerment and GBV.
    E3 provides technical assistance, research and field support across 
the Agency. This provides the Bureau the opportunity to elevate, 
prioritize and integrate equality between women and men in the Agency's 
entire portfolio through close collaboration and information-exchange.
    For example, we collaborate with the Water Office, the Bureau for 
Global Health, and the Regional Bureaus to ensure the integration of 
gender considerations across all the Agency's activities in water, 
sanitation, and hygiene. The two governing documents for the activities 
of the U.S. Agency for International Development (USAID) in water and 
sanitation, the U.S. government Global Water Strategy and the Senator 
Paul Simon Water for the World Act, reinforce the importance of gender 
equality and women's empowerment.
    The same close partnership for gender integration exists with the 
Bureau for Food Security (BFS). One of the key guidance documents for 
the U.S. government Global Food Security Strategy is the Technical 
Guidance on Advancing Gender Equality and Female Empowerment. GenDev 
coordinates with BFS on technical gender issues, such as supporting the 
implementation of a framework for monitoring and evaluation to measure 
women's empowerment. We also recognize the integral role that health 
plays in empowering women, and work closely with the Bureau for Global 
Health to advance our shared goals. If confirmed, I commit to ensure 
the continued integration of gender throughout USAID's work by 
collaborating with my counterparts in BFS, and the Bureaus for 
Democracy, Conflict, and Humanitarian Assistance and Global Health.
    Finally, USAID benefits from an organizational structure that 
includes more than 70 Gender Advisors at USAID Missions around the 
world. If confirmed, under my leadership, we will continue to support 
our Gender Advisors located in each Bureau within Washington, as well 
as in our field Missions, as they carry out USAID's policies and 
programs in the field of gender equality and female empowerment.

Commitment to Comprehensive Approaches to Gender Equality and Women's 
        Empowerment
    Question. GBV and Reproductive Rights: This administration has 
clearly made a commitment to advancing women's economic empowerment as 
its signature initiative for women's rights and prosperity. While this 
initiative is highly focused on issues related to women's 
entrepreneurship, workforce development, and establishing an enabling 
environment, we see very little (if any) emphasis on some of the key 
areas in which women are being held back from economic independence--
namely, access to reproductive rights and services and the right to 
live free from violence.

   If you are confirmed as the Assistant Administrator of the E3 
        Bureau, what will you commit to doing to ensure a comprehensive 
        view of women's empowerment that includes access to 
        reproductive rights and freedom from gender-based violence?

    Answer. I recognize that achieving equality between women and men 
and women's empowerment depends on inputs and outcomes across several 
spheres, and at the individual, community and national levels. The 
robust programming of the U.S. Agency for International Development 
(USAID) in multiple regions and sectors, including agriculture, crisis 
and conflict, democracy and governance, education, economic growth, 
environment, and health, provide ample opportunities to ensure the 
Agency's investments address every facet of gender equality and women's 
empowerment.
    USAID is committed to increasing access to high-quality health care 
for women, their children and their families. Investments in women's 
health yield a return of up to 20 times in the form of societal and 
economic benefits. When women have access to basic health care for both 
themselves and their families, and are empowered to make healthy, 
positive choices, the well-being of the entire community improves.
    Preventing and responding to gender-based violence (GBV) is also a 
priority for USAID, integrated across development programming and 
humanitarian assistance. We know that conflict and natural disasters 
often exacerbate the vulnerability of individuals, particularly women 
and girls, and GBV can escalate in these scenarios. As such, at the 
onset of an emergency, USAID prioritizes specialized GBV interventions 
to address the immediate impact of the situation on women and girls' 
health, psychosocial well-being and safety.
    If confirmed, I will ensure that the leadership of the Bureau for 
Economic Growth, Education and Environment (E3) in advancing gender 
equality and women's empowerment includes recognition and support for 
efforts in this area across sectors, and will make certain that USAID 
programming continues to address the prevention of, and response to, 
GBV, coordinated effectively by E3.

    Question. Women's Health: One of the greatest obstacles to 
advancing women's empowerment and gender equity is a lack of quality 
healthcare, including access to reproductive health services. The U.S. 
government had led global efforts to combat preventable maternal deaths 
through investments in maternal and child health, nutrition, family 
planning, and other critical health interventions, however, the United 
States' global health policies since 2017, such as the Global Gag Rule, 
have severely undermined these efforts.

   If you are confirmed as Assistant Administrator for the E3 Bureau, 
        what specifically will you do support your counterpart in the 
        Global Health Bureau to ensure USAID's commitment to these 
        efforts?

    Answer. Equality between men and women and women's empowerment 
depends on inputs and outcomes across several spheres, and at the 
individual, community and national levels. The robust programming of 
the U.S. Agency for International Development (USAID) in multiple 
regions and sectors, including agriculture, crisis and conflict, 
democracy and governance, education, economic growth, environment, and 
health, provide ample opportunities to ensure our work gives attention 
to addressing the many facets of gender equality and women's 
empowerment. We know that multi-sectoral efforts to address these 
issues reap a multitude of development outcomes--in health, education, 
gender equality, women's empowerment, and economic and social 
development. If confirmed, I will continue these efforts.
    As the world's largest bilateral donor to global health programs, 
the United States remains committed to helping women and their children 
thrive. When women have access to basic health care for both themselves 
and their families, and are empowered to make healthy, positive 
choices, the well-being of the entire community improves. While 
voluntary family planning and reproductive-health programming is under 
the purview of the USAID Bureau for Global Health, if confirmed, I 
commit to continuing collaboration by the Bureau for Education, 
Economic Growth and Environment with our Global Health counterparts on 
our programming.



    Question. Property Rights: Rights organizations have documented how 
women in communities displaced by large scale commercial agriculture 
suffer distinctive and disproportionate harmful impacts due to their 
social roles and status, and had the least opportunity to negotiate and 
assert their rights. Women face enormous struggles to sustain their 
families after losing safe water for drinking and household use, access 
to fertile land for cultivating food crops, and hunting or foraging 
grounds. In many countries, divorced women and widows face many 
challenges in asserting equal property rights. Widows may be evicted 
from their homes and land, and their property is stolen by in-laws when 
their husbands die or by their former spouses if they seek a divorce.

   As Assistant Administrator, how will you ensure U.S. policy and 
        programs will support and promote women's land and property 
        rights? And, how will you ensure that programs support by USAID 
        will not work to undermine women's land and property rights?

    Answer. The U.S. Agency for International Development (USAID) views 
good governance of land and natural resources as a critical foundation 
for successful U.S. foreign assistance in all technical areas and 
regions. USAID's Office of Land and Urban (LU) within the Bureau for 
Economic Growth, Education and Environment leads the Agency's efforts 
on ensuring land rights with the mandate to improve the governance of 
land and resources and strengthen property rights for all members of 
society, especially women. Strengthening women's land rights continues 
to be an integral component of all LU land activities. Furthermore, the 
Women's Global Development and Prosperity (W-GDP) Initiative recognizes 
the necessity of improving the enabling environment, including securing 
land and property rights for women. Other U.S. government and USAID 
policies and programs that include an explicit focus on land rights for 
all, including women, are the U.S. government's Global Food-Security 
Strategy, and USAID's new Environmental and Natural-Resources 
Management (ENRM) Framework. Through these existing policies, 
frameworks and practices, I will, if confirmed, be able to ensure the 
U.S. government's policy and programs will support and promote women's 
land and property rights.
    Equipped with the above policies and a clear focus on intentionally 
strengthening women's land rights, USAID will be able to ensure our 
programs will not undermine women's land and property rights. 
Furthermore, if confirmed, I will continue to support the deployment of 
existing best practices to strengthen women's land rights purposefully. 
For instance, when working with communities to map and document their 
land, USAID always insists that women be at least equally represented 
on the mapping teams, which encourages women landholders to participate 
in the process. Also, good practice dictates that, in all USAID 
programs, two or more spaces for landholder names are included on land 
documentation, at a minimum, so titles can name both husband and wife. 
These are just two examples of the ways in which USAID programs 
purposefully focus on women's land rights.
    If confirmed, I will support USAID's continued exploration and 
expansion of new best practices to continue this critical work.

Sexual and Reproductive Health and Rights
    Question. Siljander: As you may be aware from recent State 
Department announcements, a policy known as the Siljander amendment 
prohibits the use of foreign assistance funds to lobby for or against 
abortion. Repeatedly at the U.N. representatives of the State 
Department, USAID, and U.S. Mission to the U.N. including your Senior 
Advisor Bethany Kozma, have made statements that ``we do not support 
abortion,'' spreading false information that comprehensive sex 
education programs ``promote abortion as a solution to teen 
pregnancy,'' and ``the U.S. is a pro-life country'' despite that fact 
that for over 40 years the right to abortion has been established in 
the this country under Roe v. Wade.

   Can you explain to me how these statements directly made by 
        employees of the U.S. State Department are not considered to be 
        lobbying against abortion, and thus a direct violation of the 
        Siljander amendment?

    Answer. Consistent with longstanding practice, the United States 
routinely describes its foreign-policy position on issues before 
multilateral bodies.

    Question. What will you do to hold your employees accountable for 
complying with the Siljander prohibition on lobbying against abortion?

    Answer. The U.S. Agency for International Development (USAID) takes 
compliance with the Siljander Amendment very seriously, and I will 
ensure that staff are familiar with its provisions. We would address 
any specific response to a compliance issue on a case-by-case basis.

    Question. Removing sexual and reproductive health from U.N. 
agreements: I am deeply concerned by the reports that the U.S. 
consistently advocated for removing references from sexual and 
reproductive health care from international agreements, including in 
critical spaces like the annual Commission on the Status of Women. I 
understand this administration has argued they have other priorities 
for these meetings, like economic empowerment and entrepreneurship.

    Answer. The United States routinely describes its foreign-policy 
position on issues before multilateral bodies, including on issues 
related to sexual and reproductive health.

    Question. How can women develop and lead their own businesses and 
participate in the economy if they are not able to have autonomous 
control of their own bodies, supported by comprehensive access to 
sexual and reproductive health care?

    Answer. I recognize that equality between men and women and women's 
empowerment depends on inputs and outcomes across several spheres, and 
at the individual, community, and national levels. The robust 
programming of the U.S. Agency for International Development (USAID) in 
multiple regions and sectors, including agriculture, crisis and 
conflict, democracy and governance, education, economic growth, 
environment, and health, provide ample opportunities to address every 
facet of gender equality and women's empowerment in our work.
    USAID is committed to increasing access to high-quality health care 
for women, their children and their families. Investments in women's 
health yield a return of up to 20 times in the form of societal and 
economic benefits. When women have access to basic health care for both 
themselves and their families, and are empowered to make healthy, 
positive choices, the well-being of the entire community improves. 
While voluntary family planning and reproductive-health programming is 
under the purview of the USAID Bureau for Global Health, I commit to 
continuing collaboration by the Bureau for Economic Growth, Education 
and Environment with our Global Health counterparts in our programming.

Adolescent Girls/Child Marriage
    Question. The E3 Bureau (Bureau for Economic Growth, Education, and 
Environment) provides research and technical leadership on economic 
growth and empowerment, gender equality and women's empowerment, 
education, and more. In addition to the large portfolio, the Bureau 
represents the Agency to Congress, donors, multilaterals, and other 
outside partners. Child marriage is any formal marriage or informal 
union where one or both parties are under the age of 18. Each year, 12 
million girls are married before they turn 18. Child marriage traps 
girls in cycles of poverty and increases the likelihood that they will 
be pregnant earlier and more often, and that they will experience 
intimate partner violence. It also has enormous economic impacts, and 
inaction on the issue will cost the global economy trillions of 
dollars. A country like Ethiopia could reduce their reliance on 
overseas development assistance by a sixth if they were to end child 
marriage, which is money that could potentially be reinvested into the 
country and increase development outcomes in a number of key areas.

   As the Assistant Administrator of E3 for USAID, how will you ensure 
        that the needs of adolescent girls are being met in the areas 
        of economic growth, education and environment in a holistic 
        way? Specifically, how do you anticipate implementing the U.S. 
        Global Strategy to Empower Adolescent Girls and to otherwise 
        ensure that U.S. foreign assistance is part of a holistic 
        solution to ensuring that girls get the education and training 
        they need to succeed now and if they are ever to become 
        economically empowered women later?

   As the Assistant Administrator of E3 for USAID, how will you ensure 
        that the USAID Child Marriage Resource Guide is implemented, 
        and that the impact projects and programs may have on child 
        marriage rates is better documented and understood?

    Answer. Empowering adolescent girls is fundamental to achieving our 
development goals and unlocking the full potential of societies. The 
U.S. Agency for International Development (USAID) is the lead agency 
for the implementation of the U.S. Global Strategy to Empower 
Adolescent Girls across sectors, including health, education, water, 
and sanitation. USAID uses a ``whole-of-girl'' approach to see the 
overlapping areas of vulnerability in an adolescent girl's life. The 
Agency defines the whole-of-girl approach as enhancing girls' access to 
high-quality education in safe environments; providing economic 
opportunities and incentives for girls and their families; empowering 
girls with information, skills, services, and support; and mobilizing 
and educating communities.
    If confirmed, I will ensure USAID's programs address the 
differentiated needs of girls in specific stages of adolescence, by 
recognizing that the challenges young adolescents encounter are 
distinct from those experienced by older adolescents who are 
approaching adulthood, and will work to support and enhance current 
activities, such as efforts to increase access to early-childhood 
education, and using geographic information system technology to map 
areas where adolescent girls are at high risk of female genital 
mutilation and cutting.
    USAID recognizes the harmful impact associated with child, early or 
forced marriage (CEFM) and annually attributes at least $11 million to 
address this practice. To tackle this issue, USAID has looked to 
support programming to prevent and respond to CEFM through a multi-
pronged approach as outlined in the Agency's Child, Early, and Forced 
Marriage Resource Guide. Not only does USAID fund stand-alone CEFM 
activities, it works to integrate them in four main areas: education 
and economic opportunities, health care, regulatory reform, and public-
awareness campaigns. If confirmed, I will ensure that USAID's efforts 
in CEFM, coordinated by the Bureau for Economic Growth, Education and 
Environment, continue to adhere to best practices in this area, and 
that we compile and share lessons from these programs.

    Question. In your previous role as Senior Deputy Assistant 
Administrator, it was unclear whether USAID was working to prevent 
child marriage and address the needs of already married girls, 
including the provision of youth-friendly reproductive health services 
for already married adolescents and sexuality education as a key part 
of learning in areas where child marriage is highly prevalent. How will 
you address these gaps in your elevated role as the Assistant 
Administrator of E3 for USAID?

    Answer. As part of our work, the U.S. Agency for International 
Development (USAID) funds a number of health-related interventions for 
young girls to deal with the consequences of child marriage. For 
example, USAID's partners provide care to young girls who endure 
pregnancy and delivery before their bodies are fully matured, as they 
are more likely to develop obstetric fistula (OF) than older women. OF 
is an issue most pervasive in countries and communities with high rates 
of child marriage. Additionally, poverty and malnutrition in children 
contribute to the condition of stunting (one's body does not fully 
mature), which exacerbates OF in those patients.
    If confirmed, I will ensure that CEFM programming, coordinated out 
of the Bureau for Economic Growth, Education and Environment, continue 
to provide support for married adolescents in addition to advancing 
prevention efforts. Additionally, if confirmed, I will ensure that 
USAID continues to implement the Agency's Child Marriage Resource 
Guide.

    Question. It has been well-documented that climate change and the 
humanitarian impacts of natural disasters has implications for child 
marriage. In times of conflict and crisis, child marriage increases as 
parents often see it as the only way to keep their daughters safe-
economically and physically. And yet we know that child marriage is not 
protective and actually increases the likelihood that a girl will never 
escape a cycle of poverty, and that she is more likely than her peers 
that wait until adulthood to marry to experience intimate partner 
violence. As the Assistant Administrator of E3 for USAID, how will you 
connect the dots between economic growth, environment and education to 
ensure that this generation of girls has alternatives to child 
marriage, including access to quality education tied to real workforce 
opportunities if and when she is ready to enter the workforce, and a 
healthy climate where risks of disasters do not derail her education or 
ability to participate in safe and formal sector work when she is 
legally able to do so?

    Answer. Empowering adolescent girls is fundamental to achieving our 
development goals and unlocking the full potential of societies. The 
U.S. Agency for International Development (USAID) is the lead agency 
for the implementation of the U.S. Global Strategy to Empower 
Adolescent Girls across sectors, including health, education, water, 
and sanitation. USAID uses a ``whole-of-girl'' approach to see the 
overlapping areas of vulnerability in an adolescent girl's life. The 
Agency's programs address the differentiated needs of girls in specific 
stages of adolescence, by recognizing that the challenges young 
adolescents encounter are distinct from those experienced by older 
adolescents who are approaching adulthood.
    These include the risk of child, early, and forced marriage (CEFM). 
USAID's efforts to curtail this harmful cultural practice include 
testing the effectiveness of various community-based approaches to 
prevent child marriage through community education, educational 
support, health care, and economic incentives. In Ethiopia, for 
example, USAID is addressing the high prevalence of child marriage 
through a number of programs that address its root causes, including 
education, empowerment of women and girls, and health care. In one such 
program, USAID trained 875 members of the judiciary and law-enforcement 
communities on child marriage. As a result, courts annulled 748 early 
child marriages in the Amhara region, where this illegal activity is 
widely practiced.
    If confirmed as Assistant Administrator for Economic Growth, 
Education and Environment, I will ensure that USAID continues its 
whole-of-girl approach, a platform to ensure our programs for younger 
and adolescent girls--and their communities--in education, environment, 
and economic growth contribute in tandem to create the conditions to 
ensure girls have access to quality education tied to real workforce 
opportunities, if and when they are ready to enter the workforce, and 
that they are able to participate in safe and formal work when legally 
able to do so.

DDI
    Question. As part of the re-organization of USAID, the E3 Bureau 
will now become part of the larger DDI (Development, Democracy and 
Innovation) Bureau. DDI will combine a number of important areas of 
work like democracy promotion, economic growth, gender equality, youth 
and several others.

   When E3 transforms into DDI, will you be the Assistant 
        Administrator for DDI?

    Answer. Yes.

    Question. Under what authorities will your confirmation to head E3 
transfer to DDI?

    Answer. There are two different legal authorities that identify 12 
Presidentially appointed, Senate-confirmed (PAS) positions at the U.S. 
Agency for International Development (USAID). First, Section 624 of the 
Foreign Assistance Act of 1961 (Section 2384 of Title 22 of the United 
States Code [USC]) states that ``the President may appoint, by and with 
the advice and consent of the Senate, twelve officers in the agency . . 
. '' The statute does not give any of these positions a name or title. 
Instead, the 1998 Foreign Affairs Restructuring and Reform Act that 
established USAID as a statutory entity only gives one PAS position a 
title: ``the Administrator.''
    Second, Sections 5313-5351 of Title 5 of the USC lists 12 USAID PAS 
positions by Executive Schedule Level, identified in the following 
ways:

          Administrator, Agency for International Development (Section 
        5313 of Title 5 of the USC);
          Deputy Administrator, Agency for International Development 
        (Section 5314 of Title 5 of the USC);
          Assistant Administrators, Agency for International 
        Development (six) (Section 5315 of Title 5 of the USC); and
          Regional Assistant Administrators, Agency for International 
        Development (four) (Section 5315 of Title 5 of the USC)

    Please note that neither of these statutes identifies a position 
called ``Assistant Administrator for the Bureau of Economic Growth, 
Education and Environment (E3)''
    In the past, the President has submitted nominees as either 
``Assistant Administrator for E3 Bureau'' or as ``Assistant 
Administrator (E3).'' USAID has interpreted the former nomination as 
being to a specific organizational entity (i.e., E3), while the latter 
allowed mutability in the organizational elements the nominee would 
lead.
    In this case, the President nominated me after USAID submitted the 
Congressional Notification (CN) that specifically explained the 
transformation of E3 into the Bureau for Democracy, Development, and 
Innovation (DDI), but before Congress cleared the CN. Under that 
circumstance, the President could not nominate me for a Bureau that did 
not yet exist (DDI), so the nomination was made to allow USAID the 
flexibility to change her responsibility if the Congress concurred in 
the creation of the DDI Bureau. USAID has informed Congress 
consistently, on numerous occasions, that the President's intent was 
for me to serve in the position of the Assistant Administrator for DDI 
if Congress cleared the CN.

    Question. How do you see programmatic priorities like climate 
change adaptation, energy, and education programs changing under DDI?

    Answer. The Bureau for Democracy, Development, and Innovation (DDI) 
will continue to prioritize these and other areas of work. DDI will be 
the home of the Agency Environment Coordinator and Senior Coordinator 
for United States International Basic Education, as well as the 
functions previously performed by the Higher Education and Climate 
Change Coordinators. DDI will have a Center for Environment, Energy, 
and Infrastructure and a Center for Education that will allow continued 
technical leadership in these domains while fostering the kind of 
cross-cutting work that is especially needed today. While our team that 
works on climate adaptation is moving to the new Bureau for Resilience 
and Food Security, DDI will continue to play a coordinating role on 
this issue internally and with the State Department and other parts of 
the Federal government. Under DDI, I also welcome the opportunity to 
lead the increased integration of priorities like innovation, private-
sector engagement, and women's empowerment across the entire breadth of 
the Agency's programming.

    Question. How would you suggest that USAID use the additional 
resources of the DDI Bureau to amplify the reach of gender equality 
across the Agency's programming and ensure it is not downgraded within 
the larger Bureau?
    The current work of the U.S. Agency for International Development 
(USAID) in gender equality and women's empowerment (GEWE) will grow and 
thrive in the new Bureau for Democracy, Development, and Innovation 
(DDI). DDI will provide Agency-wide support and services, his including 
leadership and coordination of expertise found throughout the 
organization, assistance to field Missions and other Operating Units at 
all phases of the Program Cycle, and global engagement to advance GEWE. 
The operations of the Office of Gender Equality and Women's Empowerment 
within the current Bureau for Economic Growth, Education and 
Environment will also serve as a model for other DDI Hubs also tasked 
with integrating core issues and values throughout USAID's sectoral 
programming. USAID stands ready and willing to implement all current 
and future gender-related policies and strategies. DDI will manage 
funds and programs, including funds for Missions that incentivize the 
inclusion of GEWE in programming as well as to improve the knowledge, 
practices, and skills of staff in GEWE.

    Question. What will you do to expand basic human rights for LGBT 
people?

    Answer. If confirmed as Assistant Administrator, I will oversee the 
work of the Coordinator for Lesbian, Gay, Bisexual, Transgender, and 
Intersex (LGBTI) programming and the LGBTI team in the Inclusive 
Development Hub in the new Bureau for Democracy, Development, and 
Innovation. By placing the LGBTI Coordinator in DDI, we are making an 
intentional effort to integrate and institutionalize inclusive 
development as a critical lens to apply across the breadth of the 
Agency's programs. I will ensure that the team leads the Agency's 
analyses and programming to help protect LGBTI people from violence, 
discrimination, stigma, and criminalization.

    Question. As a possible official of the Trump administration, will 
you condemn and oppose policies and practices that are derogatory and 
discriminatory on the basis of race, religion, nationality, gender, 
sexual orientation, or gender identity?

    Answer. Yes, I will condemn and oppose policies and practices that 
are derogatory and discriminatory on the basis of race, religion, 
nationality, gender, sexual orientation, or gender identity.

    Question. What will you do to ensure that statements by the Trump 
campaign and transition teams that are racist, xenophobic, 
misogynistic, or otherwise denigrate human rights and support abuses, 
will not become government policy?

    Answer. If confirmed, I will support all existing laws, case law, 
and policies that support the dignity, respect, and equality of 
treatment for all peoples.

    Question. Will you uphold the rights of all persons to equality and 
freedom from discrimination, and call on Americans to refrain from 
discrimination of any sort?

    Answer. Yes. I am committed to our Agency's values of integrity, 
respect, empowerment, and inclusion. Under my leadership, we will 
continue to recognize that our strength comes from diversity. We will 
value all of our employees equally, and all employees in the current 
Bureau for Economic Growth, Education and Environment and its successor 
Bureau for Democracy, Development, and Innovation will be expected to 
demonstrate professionalism and respect in their communications and 
behavior. I will foster an environment that empowers every team member 
to meet his or her full potential. I will also work to advance equal 
opportunity and address inequality within our Agency, and in our work 
in the field.

Political Targeting
    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government?

    Answer. Yes. I have a reputation within the U.S. Agency for 
International Development of deep respect for all my colleagues. I will 
carry forward this history of collegiality, professionalism, and 
respect into my new role if confirmed.

    Question. If confirmed, what will you do to ensure that all 
employees under your leadership understand that any retaliation, 
blacklisting, or other prohibited personnel practices will not be 
tolerated?

    Answer. Leadership starts from the top. If I am confirmed, my staff 
within the Bureau for Economic Growth, Education and Environment and 
its successor Bureau for Democracy, Development, and Innovation will 
know that I expect us to uphold the Agency's values of integrity, 
respect, empowerment and inclusion, and that I will not tolerate such 
behavior as retaliation, blacklisting, or other prohibited personnel 
practices. If confirmed, I will hold all staff, but especially those in 
leadership and supervisory positions, accountable for protecting these 
values in fulfilling their responsibilities. I will also lead by 
example, and hold myself to the highest standards of accountability.

Harassment
    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting)?

   If so, please describe the nature of the complaint or allegation, 
        your response, and any resolution, including any settlements.

    Answer. No, not to my knowledge.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority?
   If so, please describe the outcome and actions taken.

    Answer. I have not addressed any concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom I have had 
supervisory authority. While I have served at the U.S. Agency for 
International Development (USAID), there was an allegation of 
inappropriate behavior between two employees who worked in the Bureau 
for Economic Growth, Education and Environment, but the employees' 
immediate supervisor and the Agency Office of Civil Rights and 
Diversity handled it. While I did closely monitor the allegation and 
investigation, the ultimate resolution did not require me to intervene 
and address the matter.

Let Girls Learn
    Question. There is a lack of clarity as to the Administration's 
stance on Let Girls Learn.

   Will you commit to making girls education a priority among USAID's 
        youth and child education missions?

    Answer. The U.S. Agency for International Development (USAID) 
recognizes that education is a force-multiplier for all our development 
work. However, 132 million girls are out of school around the globe, 
and in conflict-affected countries, adolescent girls are at particular 
risk. Moreover, gender and social norms, along with inadequate or 
inaccessible infrastructure--including poor water, sanitation, and 
hygiene facilities--often prevent girls from continuing their 
education. USAID's programs work to overcome these restraints.
    The U.S. government International Basic Education Strategy, 
launched in September 2018, sets a comprehensive approach to 
international basic education for ten U.S. government Agencies and 
Departments, including USAID. The Strategy sets one of its two 
objectives as ``Expand access to quality basic education for all, 
particularly marginalized and vulnerable populations.'' Girls' access 
to quality education is at the core of this goal. Similarly, USAID's 
new Education Policy, launched in November 2018, established promoting 
equity and inclusion as one of its main principles, and specifically 
notes the unique barriers girls face in accessing and continuing 
education.
    If confirmed, I will continue to make girls' education a priority 
of USAID's portfolio.



                               __________


            Responses to Additional Questions for the Record
    Submitted to Michelle A. Bekkering by Senator Benjamin L. Cardin

Human Rights
    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. My career has been founded in promoting human rights and 
democracy, and, if confirmed, I will continue to make the defense and 
promotion of democracy, human rights, and governance a priority.
    Prior to joining USAID, I spent twelve years at the International 
Republican Institute (IRI), an international democracy-development 
organization dedicated to promoting freedom and democracy worldwide. We 
worked to strengthen citizen voices and help make their leaders more 
accountable and responsive.
    I served as an election observer multiple times in Afghanistan, 
Jordan, Tunisia, and Ukraine to monitor whether the elections took 
place in a transparent and open manner and that the results truly 
represented citizen votes.
    During my time at IRI, I also led programs charged with increasing 
the political inclusion of women; a cause about which I am passionate. 
I served as director of the Women's Democracy Network (WDN), an office 
that focuses on the empowerment of women to participate in political 
processes and equips them with the skills needed to assume greater 
leadership roles in government, political parties, and civil society. 
Our work recognized the need for women to be present at decision-making 
tables to ensure the issues that face them were not only heard, but 
addressed. We accomplished our goals through mentoring, capacity-
building, and most important, by fostering a global network of women 
leaders who could encourage and support each other through their shared 
problems and triumphs. Under my leadership, WDN expanded its reach 
exponentially in every region of the world. I also elevated the profile 
of the gender-equality and women's empowerment portfolio across the 
organization so that it became a priority across the breadth of IRI 
programs. Through our work in Bangladesh, we supported women's micro-
finance, and put procedures in place to protect women in the markets 
from harassment and extortion. In Cameroon, we worked with women 
activists who successfully worked with tribal leaders to change 
customary laws to recognize women's independence and equality. In Peru, 
we supported the members of the Women's Peruvian Parliamentary Caucus 
to work with teachers and community advocates to identify gender-based 
violence, offer treatment to victims, and increase the capacity of law-
enforcement officials and the judiciary to apprehend and prosecute 
perpetrators of these crimes. These are but a few of many examples of 
how I worked to advance the empowerment and equality of women.
    I also gained valuable field experience as IRI's Resident Country 
Director in Indonesia. I oversaw efforts to support the development of 
the country's political sphere, and my portfolio included a focus on 
public-opinion polling to encourage political parties to focus on 
constituent concerns and aid them in developing issue-based platforms.
    If confirmed, I look forward to continuing the important 
investments by the U.S. Agency for International Development promote 
democracy, human rights, and citizen-responsive governance.

Diversity
    Question. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups at 
USAID?

    Answer. I am committed to our Agency's values of integrity, 
respect, empowerment, and inclusion. Under my leadership, we will 
continue to recognize that strength that comes from diversity. We will 
value all of our employees equally, and all employees of the Bureau for 
Economic Growth, Education and Environment will be expected to 
demonstrate professionalism and respect in their communications and 
behavior. I will foster an environment that empowers every team member 
to meet his or her full potential. I will also advance equal 
opportunity and address inequality within our Agency and in our work in 
the field.

    Question. What steps will you take to ensure each of the 
supervisors at USAID are fostering an environment that is diverse and 
inclusive?

    Answer. I commit to ensuring that all supervisors under my purview 
complete the mandatory U.S. Agency for International Development 
(USAID) University Supervisory Certification Course, a two-week class 
designed to target both management and leadership competencies to equip 
our supervisors with the skills and tools needed to perform in their 
role as supervisors of an inclusive diverse and multicultural 
workforce.
    Additionally, the Bureau for Economic Growth, Education and 
Environment and the future Bureau for Democracy, Development, and 
Innovation will engage closely with USAID's Office of Civil Rights and 
Diversity to prioritize our focus on diversity and inclusion, through 
explicit attention to best practices and opportunities to execute on 
these issues across all levels of the organization. We will create 
opportunities for training on inclusiveness, diversity, and leadership 
at all levels.

Commitment to Gender Equality and Integration
    Question. Sustainable international development rests on the 
recognition and promotion of human rights, including the equal rights 
of women and girls. As you are aware from your previous role as the 
Senior Coordinator for Gender Equality and Women's Empowerment, USAID's 
concerted investment in empowering women and girls and integrating 
gender equality throughout USAID's work is critical to lasting change 
and development.

   If you are confirmed as the Assistant Administrator for the E3 
        Bureau, what will you specifically do to ensure that gender 
        equality is elevated, prioritized, and integrated into the 
        wide-reaching work USAID does globally?

    Answer. Equality between women and men and female empowerment is a 
priority for the Administration and the U.S. Agency for International 
Development (USAID). The President's National Security Strategy clearly 
identifies women's empowerment as one of its five priority actions, 
noting its commitment to ``... support efforts to advance women's 
equality, protect the rights of women and girls, and promote women and 
youth empowerment programs.'' Gender equality and female empowerment 
are also core to the Agency's development goals, and serve as tenets of 
the Agency's approach to the Journey to Self-Reliance.
    The Women's Entrepreneurship and Economic Empowerment (WEEE) Act of 
2018 bolsters USAID's efforts to elevate, prioritize, and integrate 
gender equality across USAID programs by codifying the requirement of 
the Agency Gender Equality and Female Empowerment Policy that a gender 
analysis must shape all of our strategies and programs.
    If confirmed, I will continue to uphold and strengthen USAID's 
commitment to gender equality and female empowerment. I will ensure we 
adhere to the principles and parameters set forth in the WEEE Act, all 
relevant Agency policies and strategies, and the recently-launched 
Women's Global Development and Prosperity initiative. As part of USAID 
leadership, I will ensure to communicate clearly our expectations 
regarding the integration of gender equality and female empowerment 
into all policies and programs within the Bureau for Economic Growth, 
Education and Environment and across the Agency, and that we fully meet 
them.

    Question. How will you ensure that existing and longstanding U.S. 
policy commitments to ending gender-based violence, advancing the 
rights of adolescent girls, and promoting women's leadership and 
participation will be respected and advanced as Assistant 
Administrator?

    Answer. The U.S. Agency for International Development (USAID) is 
committed to promoting gender equality and female empowerment. Existing 
law, such as the Women's Entrepreneurship and Economic Empowerment Act, 
and USAID's policies, such as the Gender Equality and Female 
Empowerment Policy, direct our work; the objectives and promising 
interventions tied to each are reflected in and will serve to enhance, 
the goals and structure of the Agency's Transformation. The U.S. 
Strategy to Prevent and Respond to Gender-Based Violence (GBV) Globally 
continues to guide USAID's work on GBV, including child, early, and 
forced marriage (CEFM), and the U.S. Global Strategy to Empower 
Adolescent Girls shapes USAID's ``whole-of-girl'' approach, which 
encompasses the interconnected events across a girl's life from birth 
to adulthood and across sectors.
    If confirmed, I will continue to uphold and strengthen USAID's 
commitment in this sphere. I will ensure we adhere to the principles 
and parameters set forth in the WEEE Act, all relevant Agency policies 
and strategies, and the recently-launched Women's Global Development 
and Prosperity initiative. As part of USAID leadership, I will ensure 
to communicate clearly our expectations regarding the integration of 
gender equality and female empowerment into all policies and programs 
within the Bureau for Economic Growth, Education and Environment and 
across the Agency, and that we fully meet them.

    Question. How will you ensure that the Senior Coordinator for 
Gender Equality and Women's Empowerment and the Office of Gender and 
Development, which would be under your purview if confirmed as 
Assistant Administrator of the E3 Bureau, successfully integrate gender 
equality principles throughout USAID's work even outside of E3, 
particularly as it relates to core USAID issues such as food and 
nutrition security, agricultural development and livelihoods, water and 
sanitation access, humanitarian response, and global health?

    Answer. As noted, the Senior Coordinator for Gender Equality and 
Women's Empowerment (E3) and the Office of Gender Equality and Women's 
Empowerment (GenDev) are housed within the Bureau for Economic Growth, 
Education and Environment. If confirmed, I will support fully the 
Senior Coordinator's role and GenDev's mandate for the benefit of the 
entire Agency, including the design and oversight of training courses 
on gender integration, gender-based violence (GBV), and women's 
economic empowerment; the development and delivery of technical 
assistance, programming, and communications resources across Bureaus 
and the field; and guiding and coordinating work on key cross-cutting 
issues such as women's economic empowerment and GBV.
    E3 provides technical assistance, research, and field support 
across the Agency. This provides the Bureau the opportunity to elevate, 
prioritize and integrate gender equality in the Agency's entire 
portfolio through close collaboration and information-exchange.
    For example, we collaborate with the Water Office, the Bureau for 
Global Health, and the Regional Bureaus to ensure the integration of 
gender considerations across all the Agency's activities in water, 
sanitation, and hygiene. The two governing documents for the activities 
of the U.S. Agency for International Development (USAID) in water and 
sanitation, the U.S. government Global Water Strategy and the Senator 
Paul Simon Water for the World Act, reinforce the importance of gender 
equality and women's empowerment.
    The same close partnership for gender-integration exists with the 
Bureau for Food Security (BFS). One of the key guidance documents for 
the U.S. government Global Food-Security Strategy is the Technical 
Guidance on Advancing Gender Equality and Female Empowerment. GenDev 
coordinates with BFS on technical gender issues, such as supporting the 
implementation of a framework for monitoring and evaluation to measure 
women's empowerment. We also recognize the integral role that health 
plays in empowering women and work closely with the Bureau for Global 
Health to advance our shared goals. If confirmed, I commit to ensure 
the continued integration of gender throughout USAID's work by 
collaborating with my counterparts in BFS and the Bureaus for 
Democracy, Conflict, and Humanitarian Assistance and Global Health.
    Finally, USAID benefits from an organizational structure that 
includes more than 70 Gender Advisors at USAID Missions around the 
world. If confirmed, under my leadership, we will continue to support 
our Gender Advisors located in each Bureau within Washington, as well 
as in the field Missions, as they carry out USAID's policies and 
programs in the field of gender equality and female empowerment.

Gender Equality and Women's Empowerment
    Question. As the previous USAID Senior Coordinator for Gender 
Equality and Women's Empowerment, you know well that U.S. government 
investments in gender equality and women's and girls' empowerment are 
critical to achieving U.S. foreign policy objectives, strengthening our 
national security, and increasing economic opportunities. Recently 
USAID has authorized an update of its Gender Equality and Female 
Empowerment (GE/FE) Policy, which has been a critical foundation for 
progress on the promotion of gender equality throughout development and 
humanitarian assistance efforts over the last seven years.

   How will you use your new role to continue strengthening USAID's 
        advancement of gender equality globally, and specifically how 
        will you ensure that the review and update process of the GE/FE 
        Policy includes meaningful, substantive consultations with 
        civil society organizations with proven expertise in global 
        gender equality issues?

    Answer. The efforts of the U.S. Agency for International 
Development (USAID) to advance equality between men and women and 
female empowerment are significantly bolstered when the Senior 
Leadership of the Agency affirms the importance of these goals and our 
expectations for their inclusion in our programming. If confirmed, I 
will ensure the policies and programs of the Bureau for Economic 
Growth, Education and Environment meet the highest standards regarding 
gender equality and gender integration. Furthermore, if confirmed, I 
will collaborate with other Bureau Leadership to maintain the Agency at 
the forefront of work in gender equality and women's empowerment 
globally.
    USAID'S Gender Equality and Female Empowerment Policy has been 
instrumental to the Agency's leadership in this area, and to the 
integration of this work in our programming across sectors and regions. 
Current efforts to update the policy serve as an opportunity to 
reaffirm and build on USAID's structure and experience, incorporate the 
most recent information on best practices and innovation, and reflect 
the priorities of the Administration and Administrator Green. USAID's 
long-standing and productive partnerships with civil society have been 
vital to the success of our work in gender equality and female 
empowerment. USAID's current Senior Gender Coordinator and Office of 
Gender Equality and Women's Empowerment have prioritized including 
substantive consultation with civil society as part of the update; if 
confirmed, I will ensure this continues to be the case.

Sexual and Reproductive Health and Rights
    Question. If you are confirmed as the Assistant Administrator of 
the E3 Bureau, what will you commit to doing to ensure a comprehensive 
view of women's empowerment that includes access to reproductive rights 
and freedom from gender-based violence?

    Answer. I recognize that achieving gender equality and women's 
empowerment depends on inputs and outcomes across several spheres, and 
at the individual, community and national levels. The robust 
programming of the U.S. Agency for International Development (USAID) in 
multiple regions and sectors, including agriculture, crisis and 
conflict, democracy and governance, education, economic growth, 
environment, and health, provide ample opportunities to ensure the 
Agency's investments address every facet of gender equality and women's 
empowerment.
    USAID is committed to increasing access to high-quality health care 
for women, their children and their families. Investments in women's 
health yield a return of up to 20 times in the form of societal and 
economic benefits. When women have access to basic health care for both 
themselves and their families, and are empowered to make healthy, 
positive choices, the well-being of the entire community improves.
    Preventing and responding to gender-based violence (GBV) is also a 
priority for USAID, integrated across development programming and 
humanitarian assistance. We know that conflict and natural disasters 
often exacerbate the vulnerability of individuals, particularly women 
and girls, and GBV can escalate in these scenarios. As such, at the 
onset of an emergency, USAID prioritizes specialized GBV interventions 
to address the immediate impact of the situation on women and girls' 
health, psychosocial well-being, and safety.
    If confirmed, I will ensure that the leadership of the Bureau for 
Economic Growth, Education and Environment (E3) in advancing gender 
equality and women's empowerment includes recognition and support for 
efforts in this area across sectors and will make certain that USAID 
programming continues to address the prevention of, and response to, 
GBV, coordinated effectively by E3.

Siljander Amendment
    Question. As you may be aware from recent State Department 
announcements, a policy known as the Siljander amendment prohibits the 
use of foreign assistance funds to lobby for or against abortion. 
Repeatedly at the U.N. representatives of the State Department, USAID, 
and U.S. Mission to the U.N. including your Senior Advisor Bethany 
Kozma, have made statements that ``we do not support abortion,'' 
spreading false information that comprehensive sex education programs 
``promote abortion as a solution to teen pregnancy,'' and ``the U.S. is 
a pro-life country'' despite that fact that for over 40 years the right 
to abortion has been established in the this country under Roe v. Wade.

   In your opinion, how are these statements, directly made by 
        employees of the U.S. State Department, not considered to be 
        lobbying against abortion, and thus a direct violation of the 
        Siljander amendment?

    Answer. Consistent with longstanding practice, the United States 
routinely describes its foreign-policy position on issues before 
multilateral bodies, including on issues related to abortion.

    Question. What will you do to hold your employees accountable to 
complying with the Siljander prohibition on lobbying against abortion?

    Answer. The U.S. Agency for International Development (USAID) takes 
compliance with the Siljander Amendment very seriously. I will ensure 
that staff are familiar with guidance and resources on the Siljander 
Amendment. We would address any specific response to a compliance issue 
on a case-by-case basis.

Adolescent Girls/Child Marriage
    Question. As the Assistant Administrator of E3 for USAID, how will 
you ensure that the needs of adolescent girls are being met in the 
areas of economic growth, education and environment in a holistic way?

   How do you anticipate implementing the U.S. Global Strategy to 
        Empower Adolescent Girls and to otherwise ensure that U.S. 
        foreign assistance is part of a holistic solution to ensuring 
        that girls get the education and training they need to succeed 
        now and if they are ever to become economically empowered women 
        later?

   As the Assistant Administrator of E3 for USAID, how will you ensure 
        that the USAID Child Marriage Resource Guide is implemented, 
        and that the impact projects and programs may have on child 
        marriage rates is better documented and understood?

    Answer. Empowering adolescent girls is fundamental to achieving our 
development goals and unlocking the full potential of societies. The 
U.S. Agency for International Development (USAID) is the lead agency 
for the implementation of the U.S. Global Strategy to Empower 
Adolescent Girls across sectors, including health, education, water, 
and sanitation. USAID applies a ``whole-of-girl'' approach to see the 
overlapping areas of vulnerability in an adolescent girl's life. We 
define the whole-of-girl approach as enhancing girls' access to quality 
education in safe environments; providing economic opportunities and 
incentives for girls and their families; empowering girls with 
information, skills, services, and support; and mobilizing and 
educating communities.
    If confirmed, I will ensure that USAID's programs address the 
differentiated needs of girls in specific stages of adolescence, by 
recognizing that the challenges young adolescents encounter are 
distinct from those experienced by older adolescents who are 
approaching adulthood, and will work to support and enhance our current 
activities, such as efforts to increase access to early-childhood 
education, and using geographic information system technology to map 
areas where adolescent girls are at high risk of female genital 
mutilation and cutting.
    USAID recognizes the harmful impact associated with Child, Early or 
Forced Marriage (CEFM), and annually attributes at least $11 million to 
address this practice. To tackle this issue, USAID has looked to fund 
programming to prevent and respond to CEFM through a multi-pronged 
approach as outlined in the Agency's Child, Early, and Forced Marriage 
Resource Guide. Not only does USAID finance stand-alone CEFM 
activities, it works to integrate CEFM activities in four main areas: 
education and economic opportunities, health care, regulatory reform, 
and public-awareness campaigns. If confirmed, I will ensure that 
USAID's efforts in CEFM, coordinated by the Bureau for Economic Growth, 
Education and Environment, continue to adhere to best practices in this 
area, and that we compile and share lessons from these programs.

USAID Reorganization
    Question. As part of the re-organization of USAID, the E3 Bureau 
will now become part of the larger DDI (Development, Democracy and 
Innovation) Bureau. DDI will combine a number of important areas of 
work like democracy promotion, economic growth, gender equality, youth 
and several others.

   How would you suggest that USAID use the additional resources of 
        the DDI Bureau to amplify the reach of gender equality across 
        the Agency's programming and ensure it is not downgraded within 
        the larger Bureau?

    Answer. The current work of the U.S. Agency for International 
Development (USAID) in gender equality and women's empowerment (GEWE) 
will grow and thrive in the new Bureau for Democracy, Development, and 
Innovation (DDI). DDI will provide Agency-wide support and services, 
including leadership and coordination of expertise found throughout the 
organization, assistance to field Missions and other Operating Units at 
all phases of the Program Cycle, and global engagement to advance GEWE. 
The operations of the Office of Gender Equality and Women's Empowerment 
within the current Bureau for Economic Growth, Education and 
Environment will also serve as a model for other DDI Hubs also tasked 
with integrating core issues and values throughout USAID's sectoral 
programming. USAID stands ready and willing to implement all current 
and future gender-related policies and strategies. DDI will manage 
funds and programs, including funds for Missions that incentivize the 
inclusion of GEWE in programming, as well as to improve the knowledge, 
practices, and skills of staff in GEWE.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the Inspector General of USAID) any change in policy or U.S. actions 
that you suspect may be influenced by any of the President's business 
or financial interests, or the business or financial interests of any 
senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.

                               __________


            Responses to Additional Questions for the Record
    Submitted to Michelle A. Bekkering by Senator Benjamin L. Cardin

Human Rights
    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. My career has been founded in promoting human rights and 
democracy, and, if confirmed, I will continue to make the defense and 
promotion of democracy, human rights, and governance a priority.
    Prior to joining USAID, I spent twelve years at the International 
Republican Institute (IRI), an international democracy-development 
organization dedicated to promoting freedom and democracy worldwide. We 
worked to strengthen citizen voices and help make their leaders more 
accountable and responsive.
    I served as an election observer multiple times in Afghanistan, 
Jordan, Tunisia, and Ukraine to monitor whether the elections took 
place in a transparent and open manner and that the results truly 
represented citizen votes.During my time at IRI, I also led programs 
charged with increasing the political inclusion of women; a cause about 
which I am passionate. I served as director of the Women's Democracy 
Network (WDN), an office that focuses on the empowerment of women to 
participate in political processes and equips them with the skills 
needed to assume greater leadership roles in government, political 
parties, and civil society. Our work recognized the need for women to 
be present at decision-making tables to ensure the issues that face 
them were not only heard, but addressed. We accomplished our goals 
through mentoring, capacity-building, and most important, by fostering 
a global network of women leaders who could encourage and support each 
other through their shared problems and triumphs. Under my leadership, 
WDN expanded its reach exponentially in every region of the world. I 
also elevated the profile of the gender-equality and women's 
empowerment portfolio across the organization so that it became a 
priority across the breadth of IRI programs. Through our work in 
Bangladesh, we supported women's micro-finance, and put procedures in 
place to protect women in the markets from harassment and extortion. In 
Cameroon, we worked with women activists who successfully worked with 
tribal leaders to change customary laws to recognize women's 
independence and equality. In Peru, we supported the members of the 
Women's Peruvian Parliamentary Caucus to work with teachers and 
community advocates to identify gender-based violence, offer treatment 
to victims, and increase the capacity of law-enforcement officials and 
the judiciary to apprehend and prosecute perpetrators of these crimes. 
These are but a few of many examples of how I worked to advance the 
empowerment and equality of women.
    I also gained valuable field experience as IRI's Resident Country 
Director in Indonesia. I oversaw efforts to support the development of 
the country's political sphere, and my portfolio included a focus on 
public-opinion polling to encourage political parties to focus on 
constituent concerns and aid them in developing issue-based platforms.
    If confirmed, I look forward to continuing the important 
investments by the U.S. Agency for International Development promote 
democracy, human rights, and citizen-responsive governance.

Diversity
    Question. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups at 
USAID?

    Answer. I am committed to our Agency's values of integrity, 
respect, empowerment, and inclusion. Under my leadership, we will 
continue to recognize that strength that comes from diversity. We will 
value all of our employees equally, and all employees of the Bureau for 
Economic Growth, Education and Environment will be expected to 
demonstrate professionalism and respect in their communications and 
behavior. I will foster an environment that empowers every team member 
to meet his or her full potential. I will also advance equal 
opportunity and address inequality within our Agency and in our work in 
the field.

    Question. What steps will you take to ensure each of the 
supervisors at USAID are fostering an environment that is diverse and 
inclusive?

    Answer. I commit to ensuring that all supervisors under my purview 
complete the mandatory U.S. Agency for International Development 
(USAID) University Supervisory Certification Course, a two-week class 
designed to target both management and leadership competencies to equip 
our supervisors with the skills and tools needed to perform in their 
role as supervisors of an inclusive diverse and multicultural 
workforce.
    Additionally, the Bureau for Economic Growth, Education and 
Environment and the future Bureau for Democracy, Development, and 
Innovation will engage closely with USAID's Office of Civil Rights and 
Diversity to prioritize our focus on diversity and inclusion, through 
explicit attention to best practices and opportunities to execute on 
these issues across all levels of the organization. We will create 
opportunities for training on inclusiveness, diversity, and leadership 
at all levels.

Commitment to Gender Equality and Integration
    Question. Sustainable international development rests on the 
recognition and promotion of human rights, including the equal rights 
of women and girls. As you are aware from your previous role as the 
Senior Coordinator for Gender Equality and Women's Empowerment, USAID's 
concerted investment in empowering women and girls and integrating 
gender equality throughout USAID's work is critical to lasting change 
and development.

   If you are confirmed as the Assistant Administrator for the E3 
        Bureau, what will you specifically do to ensure that gender 
        equality is elevated, prioritized, and integrated into the 
        wide-reaching work USAID does globally?

    Answer. Equality between women and men and female empowerment is a 
priority for the Administration and the U.S. Agency for International 
Development (USAID). The President's National Security Strategy clearly 
identifies women's empowerment as one of its five priority actions, 
noting its commitment to ``... support efforts to advance women's 
equality, protect the rights of women and girls, and promote women and 
youth empowerment programs.'' Gender equality and female empowerment 
are also core to the Agency's development goals, and serve as tenets of 
the Agency's approach to the Journey to Self-Reliance.
    The Women's Entrepreneurship and Economic Empowerment (WEEE) Act of 
2018 bolsters USAID's efforts to elevate, prioritize, and integrate 
gender equality across USAID programs by codifying the requirement of 
the Agency Gender Equality and Female Empowerment Policy that a gender 
analysis must shape all of our strategies and programs.
    If confirmed, I will continue to uphold and strengthen USAID's 
commitment to gender equality and female empowerment. I will ensure we 
adhere to the principles and parameters set forth in the WEEE Act, all 
relevant Agency policies and strategies, and the recently-launched 
Women's Global Development and Prosperity initiative. As part of USAID 
leadership, I will ensure to communicate clearly our expectations 
regarding the integration of gender equality and female empowerment 
into all policies and programs within the Bureau for Economic Growth, 
Education and Environment and across the Agency, and that we fully meet 
them.

    Question. How will you ensure that existing and longstanding U.S. 
policy commitments to ending gender-based violence, advancing the 
rights of adolescent girls, and promoting women's leadership and 
participation will be respected and advanced as Assistant 
Administrator?

    Answer. The U.S. Agency for International Development (USAID) is 
committed to promoting gender equality and female empowerment. Existing 
law, such as the Women's Entrepreneurship and Economic Empowerment Act, 
and USAID's policies, such as the Gender Equality and Female 
Empowerment Policy, direct our work; the objectives and promising 
interventions tied to each are reflected in and will serve to enhance, 
the goals and structure of the Agency's Transformation. The U.S. 
Strategy to Prevent and Respond to Gender-Based Violence (GBV) Globally 
continues to guide USAID's work on GBV, including child, early, and 
forced marriage (CEFM), and the U.S. Global Strategy to Empower 
Adolescent Girls shapes USAID's ``whole-of-girl'' approach, which 
encompasses the interconnected events across a girl's life from birth 
to adulthood and across sectors.
    If confirmed, I will continue to uphold and strengthen USAID's 
commitment in this sphere. I will ensure we adhere to the principles 
and parameters set forth in the WEEE Act, all relevant Agency policies 
and strategies, and the recently-launched Women's Global Development 
and Prosperity initiative. As part of USAID leadership, I will ensure 
to communicate clearly our expectations regarding the integration of 
gender equality and female empowerment into all policies and programs 
within the Bureau for Economic Growth, Education and Environment and 
across the Agency, and that we fully meet them.

    Question. How will you ensure that the Senior Coordinator for 
Gender Equality and Women's Empowerment and the Office of Gender and 
Development, which would be under your purview if confirmed as 
Assistant Administrator of the E3 Bureau, successfully integrate gender 
equality principles throughout USAID's work even outside of E3, 
particularly as it relates to core USAID issues such as food and 
nutrition security, agricultural development and livelihoods, water and 
sanitation access, humanitarian response, and global health?

    Answer. As noted, the Senior Coordinator for Gender Equality and 
Women's Empowerment (E3) and the Office of Gender Equality and Women's 
Empowerment (GenDev) are housed within the Bureau for Economic Growth, 
Education and Environment. If confirmed, I will support fully the 
Senior Coordinator's role and GenDev's mandate for the benefit of the 
entire Agency, including the design and oversight of training courses 
on gender integration, gender-based violence (GBV), and women's 
economic empowerment; the development and delivery of technical 
assistance, programming, and communications resources across Bureaus 
and the field; and guiding and coordinating work on key cross-cutting 
issues such as women's economic empowerment and GBV.
    E3 provides technical assistance, research, and field support 
across the Agency. This provides the Bureau the opportunity to elevate, 
prioritize and integrate gender equality in the Agency's entire 
portfolio through close collaboration and information-exchange.
    For example, we collaborate with the Water Office, the Bureau for 
Global Health, and the Regional Bureaus to ensure the integration of 
gender considerations across all the Agency's activities in water, 
sanitation, and hygiene. The two governing documents for the activities 
of the U.S. Agency for International Development (USAID) in water and 
sanitation, the U.S. government Global Water Strategy and the Senator 
Paul Simon Water for the World Act, reinforce the importance of gender 
equality and women's empowerment.
    The same close partnership for gender-integration exists with the 
Bureau for Food Security (BFS). One of the key guidance documents for 
the U.S. government Global Food-Security Strategy is the Technical 
Guidance on Advancing Gender Equality and Female Empowerment. GenDev 
coordinates with BFS on technical gender issues, such as supporting the 
implementation of a framework for monitoring and evaluation to measure 
women's empowerment. We also recognize the integral role that health 
plays in empowering women and work closely with the Bureau for Global 
Health to advance our shared goals. If confirmed, I commit to ensure 
the continued integration of gender throughout USAID's work by 
collaborating with my counterparts in BFS and the Bureaus for 
Democracy, Conflict, and Humanitarian Assistance and Global Health.
    Finally, USAID benefits from an organizational structure that 
includes more than 70 Gender Advisors at USAID Missions around the 
world. If confirmed, under my leadership, we will continue to support 
our Gender Advisors located in each Bureau within Washington, as well 
as in the field Missions, as they carry out USAID's policies and 
programs in the field of gender equality and female empowerment.

Gender Equality and Women's Empowerment
    Question. As the previous USAID Senior Coordinator for Gender 
Equality and Women's Empowerment, you know well that U.S. government 
investments in gender equality and women's and girls' empowerment are 
critical to achieving U.S. foreign policy objectives, strengthening our 
national security, and increasing economic opportunities. Recently 
USAID has authorized an update of its Gender Equality and Female 
Empowerment (GE/FE) Policy, which has been a critical foundation for 
progress on the promotion of gender equality throughout development and 
humanitarian assistance efforts over the last seven years.

   How will you use your new role to continue strengthening USAID's 
        advancement of gender equality globally, and specifically how 
        will you ensure that the review and update process of the GE/FE 
        Policy includes meaningful, substantive consultations with 
        civil society organizations with proven expertise in global 
        gender equality issues?

    Answer. The efforts of the U.S. Agency for International 
Development (USAID) to advance equality between men and women and 
female empowerment are significantly bolstered when the Senior 
Leadership of the Agency affirms the importance of these goals and our 
expectations for their inclusion in our programming. If confirmed, I 
will ensure the policies and programs of the Bureau for Economic 
Growth, Education and Environment meet the highest standards regarding 
gender equality and gender integration. Furthermore, if confirmed, I 
will collaborate with other Bureau Leadership to maintain the Agency at 
the forefront of work in gender equality and women's empowerment 
globally.
    USAID'S Gender Equality and Female Empowerment Policy has been 
instrumental to the Agency's leadership in this area, and to the 
integration of this work in our programming across sectors and regions. 
Current efforts to update the policy serve as an opportunity to 
reaffirm and build on USAID's structure and experience, incorporate the 
most recent information on best practices and innovation, and reflect 
the priorities of the Administration and Administrator Green. USAID's 
long-standing and productive partnerships with civil society have been 
vital to the success of our work in gender equality and female 
empowerment. USAID's current Senior Gender Coordinator and Office of 
Gender Equality and Women's Empowerment have prioritized including 
substantive consultation with civil society as part of the update; if 
confirmed, I will ensure this continues to be the case.

Sexual and Reproductive Health and Rights
    Question. If you are confirmed as the Assistant Administrator of 
the E3 Bureau, what will you commit to doing to ensure a comprehensive 
view of women's empowerment that includes access to reproductive rights 
and freedom from gender-based violence?

    Answer. I recognize that achieving gender equality and women's 
empowerment depends on inputs and outcomes across several spheres, and 
at the individual, community and national levels. The robust 
programming of the U.S. Agency for International Development (USAID) in 
multiple regions and sectors, including agriculture, crisis and 
conflict, democracy and governance, education, economic growth, 
environment, and health, provide ample opportunities to ensure the 
Agency's investments address every facet of gender equality and women's 
empowerment.
    USAID is committed to increasing access to high-quality health care 
for women, their children and their families. Investments in women's 
health yield a return of up to 20 times in the form of societal and 
economic benefits. When women have access to basic health care for both 
themselves and their families, and are empowered to make healthy, 
positive choices, the well-being of the entire community improves.
    Preventing and responding to gender-based violence (GBV) is also a 
priority for USAID, integrated across development programming and 
humanitarian assistance. We know that conflict and natural disasters 
often exacerbate the vulnerability of individuals, particularly women 
and girls, and GBV can escalate in these scenarios. As such, at the 
onset of an emergency, USAID prioritizes specialized GBV interventions 
to address the immediate impact of the situation on women and girls' 
health, psychosocial well-being, and safety.
    If confirmed, I will ensure that the leadership of the Bureau for 
Economic Growth, Education and Environment (E3) in advancing gender 
equality and women's empowerment includes recognition and support for 
efforts in this area across sectors and will make certain that USAID 
programming continues to address the prevention of, and response to, 
GBV, coordinated effectively by E3.

Siljander Amendment
    Question. As you may be aware from recent State Department 
announcements, a policy known as the Siljander amendment prohibits the 
use of foreign assistance funds to lobby for or against abortion. 
Repeatedly at the U.N. representatives of the State Department, USAID, 
and U.S. Mission to the U.N. including your Senior Advisor Bethany 
Kozma, have made statements that ``we do not support abortion,'' 
spreading false information that comprehensive sex education programs 
``promote abortion as a solution to teen pregnancy,'' and ``the U.S. is 
a pro-life country'' despite that fact that for over 40 years the right 
to abortion has been established in the this country under Roe v. Wade.

   In your opinion, how are these statements, directly made by 
        employees of the U.S. State Department, not considered to be 
        lobbying against abortion, and thus a direct violation of the 
        Siljander amendment?

    Answer. Consistent with longstanding practice, the United States 
routinely describes its foreign-policy position on issues before 
multilateral bodies, including on issues related to abortion.

    Question. What will you do to hold your employees accountable to 
complying with the Siljander prohibition on lobbying against abortion?

    Answer. The U.S. Agency for International Development (USAID) takes 
compliance with the Siljander Amendment very seriously. I will ensure 
that staff are familiar with guidance and resources on the Siljander 
Amendment. We would address any specific response to a compliance issue 
on a case-by-case basis.

Adolescent Girls/Child Marriage
    Question. As the Assistant Administrator of E3 for USAID, how will 
you ensure that the needs of adolescent girls are being met in the 
areas of economic growth, education and environment in a holistic way?

   How do you anticipate implementing the U.S. Global Strategy to 
        Empower Adolescent Girls and to otherwise ensure that U.S. 
        foreign assistance is part of a holistic solution to ensuring 
        that girls get the education and training they need to succeed 
        now and if they are ever to become economically empowered women 
        later?

   As the Assistant Administrator of E3 for USAID, how will you ensure 
        that the USAID Child Marriage Resource Guide is implemented, 
        and that the impact projects and programs may have on child 
        marriage rates is better documented and understood?

    Answer. Empowering adolescent girls is fundamental to achieving our 
development goals and unlocking the full potential of societies. The 
U.S. Agency for International Development (USAID) is the lead agency 
for the implementation of the U.S. Global Strategy to Empower 
Adolescent Girls across sectors, including health, education, water, 
and sanitation. USAID applies a ``whole-of-girl'' approach to see the 
overlapping areas of vulnerability in an adolescent girl's life. We 
define the whole-of-girl approach as enhancing girls' access to quality 
education in safe environments; providing economic opportunities and 
incentives for girls and their families; empowering girls with 
information, skills, services, and support; and mobilizing and 
educating communities.
    If confirmed, I will ensure that USAID's programs address the 
differentiated needs of girls in specific stages of adolescence, by 
recognizing that the challenges young adolescents encounter are 
distinct from those experienced by older adolescents who are 
approaching adulthood, and will work to support and enhance our current 
activities, such as efforts to increase access to early-childhood 
education, and using geographic information system technology to map 
areas where adolescent girls are at high risk of female genital 
mutilation and cutting.
    USAID recognizes the harmful impact associated with Child, Early or 
Forced Marriage (CEFM), and annually attributes at least $11 million to 
address this practice. To tackle this issue, USAID has looked to fund 
programming to prevent and respond to CEFM through a multi-pronged 
approach as outlined in the Agency's Child, Early, and Forced Marriage 
Resource Guide. Not only does USAID finance stand-alone CEFM 
activities, it works to integrate CEFM activities in four main areas: 
education and economic opportunities, health care, regulatory reform, 
and public-awareness campaigns. If confirmed, I will ensure that 
USAID's efforts in CEFM, coordinated by the Bureau for Economic Growth, 
Education and Environment, continue to adhere to best practices in this 
area, and that we compile and share lessons from these programs.

USAID Reorganization
    Question. As part of the re-organization of USAID, the E3 Bureau 
will now become part of the larger DDI (Development, Democracy and 
Innovation) Bureau. DDI will combine a number of important areas of 
work like democracy promotion, economic growth, gender equality, youth 
and several others.

   How would you suggest that USAID use the additional resources of 
        the DDI Bureau to amplify the reach of gender equality across 
        the Agency's programming and ensure it is not downgraded within 
        the larger Bureau?

    Answer. The current work of the U.S. Agency for International 
Development (USAID) in gender equality and women's empowerment (GEWE) 
will grow and thrive in the new Bureau for Democracy, Development, and 
Innovation (DDI). DDI will provide Agency-wide support and services, 
including leadership and coordination of expertise found throughout the 
organization, assistance to field Missions and other Operating Units at 
all phases of the Program Cycle, and global engagement to advance GEWE. 
The operations of the Office of Gender Equality and Women's Empowerment 
within the current Bureau for Economic Growth, Education and 
Environment will also serve as a model for other DDI Hubs also tasked 
with integrating core issues and values throughout USAID's sectoral 
programming. USAID stands ready and willing to implement all current 
and future gender-related policies and strategies. DDI will manage 
funds and programs, including funds for Missions that incentivize the 
inclusion of GEWE in programming, as well as to improve the knowledge, 
practices, and skills of staff in GEWE.

Conflicts of Interest
    Question. Do you commit to bring to the committee's attention (and 
the Inspector General of USAID) any change in policy or U.S. actions 
that you suspect may be influenced by any of the President's business 
or financial interests, or the business or financial interests of any 
senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.

                               __________


            Responses to Additional Questions for the Record
      Submitted to Michelle A. Bekkering by Senator Jeanne Shaheen

    Question. Sustainable international development rests on the 
recognition and promotion of human rights, including the equal rights 
of women and girls. As I'm sure you are aware from your previous role 
as the Senior Coordinator for Gender Equality and Women's Empowerment, 
USAID's investment in empowering women and girls and integrating gender 
equality is critical to lasting change and development. If you are 
confirmed as the Assistant Administrator for the E3 Bureau, what will 
you specifically do to ensure that gender equality is elevated, 
prioritized and integrated into the wide-reaching work USAID does 
globally?

    Answer. Equality between women and men and female empowerment are 
priorities for the Administration and the U.S. Agency for International 
Development (USAID). The President's National Security Strategy clearly 
identifies women's empowerment as one of its five priority actions, 
noting its commitment to `` . . . support efforts to advance women's 
equality, protect the rights of women and girls, and promote women and 
youth empowerment programs.'' Gender equality and female empowerment 
are also core to the Agency's development goals, and serve as tenets of 
the Agency's approach to the Journey to Self-Reliance.
    The Women's Entrepreneurship and Economic Empowerment (WEEE) Act of 
2018 bolsters USAID's efforts to elevate, prioritize and integrate 
gender equality across USAID programs by codifying the requirement of 
the Agency Gender Equality and Female Empowerment Policy that a gender 
analysis must shape all of our strategies and programs.
    If confirmed, I will continue to uphold and strengthen USAID's 
commitment to gender equality and female empowerment. I will ensure we 
adhere to the principles and parameters set forth in the WEEE Act, all 
relevant Agency policies and strategies, and the recently-launched 
Women's Global Development and Prosperity initiative. As part of USAID 
leadership, I will ensure to communicate clearly our expectations 
regarding the integration of gender equality and female empowerment 
into all policies and programs within the Bureau for Economic Growth, 
Education and Environment and its successor Bureau for Democracy, 
Development, and Innovation and across the Agency, and that we fully 
meet them.

    Question. As you know, if confirmed, the Senior Coordinator for 
Gender Equality and Women's Empowerment and the Office of Gender and 
Development would fall under your purview. Given your experience in the 
role of Senior Coordinator, what needs to be done to further integrate 
gender equality principles throughout USAID's work? If confirmed, how 
will you support the Senior Coordinator and gender perspective 
integration within your bureau but also outside of E3, particularly as 
it relates to food and nutrition security, water and sanitation access, 
humanitarian response and global health?

    Answer. As noted, the Senior Coordinator for Gender Equality and 
Women's Empowerment (E3) and the Office of Gender Equality and Women's 
Empowerment (GenDev) are housed within the Bureau for Economic Growth, 
Education and Environment. If confirmed, I will support fully the 
Senior Coordinator's role and GenDev's mandate for the benefit of the 
entire Agency, including the design and oversight of training courses 
on gender integration, gender-based violence (GBV), and women's 
economic empowerment; the development and delivery of technical 
assistance, programming, and communications resources across Bureaus 
and the field; and guiding and coordinating work on key cross-cutting 
issues such as women's economic empowerment and GBV.
    E3 provides technical assistance, research and field support across 
the Agency. This provides the Bureau the opportunity to elevate, 
prioritize and integrate equality between women and men in the Agency's 
entire portfolio through close collaboration and information exchange.
    For example, we collaborate with the Water Office, the Bureau for 
Global Health, and the Regional Bureaus to ensure the integration of 
gender considerations across all the Agency's activities in water, 
sanitation and hygiene. The two governing documents for the activities 
of the U.S. Agency for International Development (USAID) in water and 
sanitation, the U.S. government Global Water Strategy and the Senator 
Paul Simon Water for the World Act, reinforce the importance of gender 
equality and women's empowerment.
    The same close partnership for gender integration exists with the 
Bureau for Food Security (BFS). One of the key guidance documents for 
the U.S. government Global Food Security Strategy is the Technical 
Guidance on Advancing Gender Equality and Female Empowerment. GenDev 
coordinates with BFS on technical gender issues, such as supporting the 
implementation of a framework for monitoring and evaluation to measure 
women's empowerment. We also recognize the integral role that health 
plays in empowering women and work closely with the Bureau for Global 
Health to advance our shared goals. If confirmed, I commit to ensure 
the continued integration of gender throughout USAID's work by 
collaborating with my counterparts in the BFS and the Bureaus for 
Democracy, Conflict, and Humanitarian Assistance and Global Health.
    Finally, USAID benefits from an organizational structure that 
includes more than 70 Gender Advisors at USAID Missions around the 
world. If confirmed, under my leadership, we will continue to support 
our Gender Advisors located in each Bureau within Washington, as well 
as in the field Missions, as they carry out USAID's policies and 
programs in the field of gender equality and female empowerment.


    Question. Gender-based violence is one of the most pervasive human 
rights violations in the world. Gender-based violence and gender 
inequality are enduring impediments to development, security, economic 
advancements and democratic governance. In addition to administering 
crucial programs that work to prevent GBV and increase access to vital 
services for GBV survivors, USAID is a critical player in implementing 
the U.S. Strategy to Prevent and Respond to Gender-Based Violence. This 
is a longstanding and important policy intended to prioritize the 
response to GBV in foreign assistance and foreign policy.

   As Assistant Administrator, how would you build on the work of your 
        predecessors to prioritize gender analysis into U.S. foreign 
        policy, which includes attention to gender-based violence?

    Answer. If confirmed, I will build on the work of my predecessors 
and will continue to prioritize gender analysis. The Women's 
Entrepreneurship and Economic Empowerment (WEEE) Act of 2018 codified 
the integration of gender analysis across the programming of the U.S. 
Agency for International Development (USAID), a requirement I intend to 
reinforce in my tenure at USAID as Assistant Administrator, if 
confirmed. Specifically, I will ensure that Agency continues to 
integrate gender analysis into programming at every stage of the 
Program Cycle, which will strengthen our efforts to promote equality 
between women and men and women's empowerment.
    Gender-based violence (GBV) is an important part of our current 
programmatic efforts. If confirmed, I will continue to support the 
Agency's investments designed to prevent and respond to GBV.

    Question. How will you ensure gender-focused metrics such as 
constraints on women's mobility, levels of violence against women, 
rates of child marriage and girls' access to quality education, are 
integrated into programs and assessments?

    Answer. The U.S. Agency for International Development (USAID) 
requires that a gender analysis inform all of our strategies and 
projects. These analyses include assessing national and sub-national 
data on the key barriers to equality between women and men and women's 
empowerment, such as women's mobility, rates of child marriage and 
violence against women, and girls' access to quality education. The 
Agency's programmatic activities and interventions are expected to 
address the issues identified in these analyses, and to monitor their 
progress as part of a monitoring plan.
    As part of our standard internal management system, USAID's 
Missions, Bureaus and Independent Offices are required to disaggregate 
all individual-level indicators by sex to assess whether we are 
reaching men and women with programs and services across all sectors. 
Missions and Bureaus also report on the Standard Foreign Assistance (F) 
indicator related to GBV, namely, ``Number of people reached by a U.S. 
government-funded intervention providing GBV services (e.g.) health, 
legal, psycho-social counseling, shelters, hotlines, other.'' This 
includes activities related to the prevention of child, early, and 
forced marriage and programs for married adolescents. USAID programs 
also report on a number of F, as well as custom, performance indicators 
that measure access to high-quality primary, secondary, and tertiary 
education by male and female students. USAID also funds program and 
impact evaluations on specific gender programs to build the evidence 
base for our work. For example, the Office of Gender Equality and 
Women's Empowerment in the Bureau for Economic Growth, Education and 
Environment is conducting an evaluation on the effects of ``whole-of-
girl'' programmatic interventions in Tanzania and Malawi aimed at 
increasing school enrollment, retention, safety and well-being for 
adolescent girls. If confirmed, I will work to ensure we fulfill the 
legal requirement to conduct gender analyses by collaborating with 
colleagues in E3 and its successor Bureau for Democracy, Development, 
and Innovation; the Bureau for Policy, Planning; and Learning, and 
other Bureaus. I will also emphasize that USAID's efforts at monitoring 
and evaluation and our metrics continue to address the most-pressing 
issues related to gender equality and women's empowerment.

    Question. If you are confirmed as the Assistant Administrator, what 
will you do in order to ensure a comprehensive view of women's 
empowerment that includes access to reproductive rights and freedom 
from gender-based violence?

    Answer. I recognize that achieving equality between women and men 
and women's empowerment depends on inputs and outcomes across several 
spheres, and at the individual, community and national levels. The 
robust programming of the U.S. Agency for International Development 
(USAID) in multiple regions and sectors, including agriculture, crisis 
and conflict, democracy and governance, education, economic growth, 
environment, and health, provide ample opportunities to ensure the 
Agency's investments address every facet of gender equality and women's 
empowerment.
    USAID is committed to increasing access to high-quality health care 
for women, their children and their families. Investments in women's 
health yield a return of up to 20 times in the form of societal and 
economic benefits. When women have access to basic health care for both 
themselves and their families, and are empowered to make healthy, 
positive choices, the well-being of the entire community improves.
    Preventing and responding to gender-based violence (GBV) is also a 
priority for USAID, integrated across development programming and 
humanitarian assistance. We know that conflict and natural disasters 
often exacerbate the vulnerability of individuals, particularly women 
and girls, and GBV can escalate in these scenarios. As such, at the 
onset of an emergency, USAID prioritizes specialized GBV interventions 
to address the immediate impact of the situation on women and girls' 
health, psychosocial well-being, and safety.
    If confirmed, I will ensure that the leadership of the Bureau for 
Economic Growth, Education and Environment (E3) and its successor 
Bureau for Democracy, Development, and Innovation (DDI) in advancing 
gender equality and women's empowerment includes recognition and 
support for efforts in this area across sectors, and will make certain 
that USAID's programming continues to address the prevention of, and 
response to, GBV, coordinated effectively by E3 and DDI.

    Question. The State and Foreign Operations Appropriations bill 
annually allocates $150 million to GBV prevention efforts. In your 
former capacity as Senior Coordinator, where did you see that 
assistance have the greatest impact? Where do we need to devote more 
resources? How will you support the continued development and 
implementation of the U.S. Strategy to Prevent and Respond to Gender-
Based Violence Globally?

    Answer. Gender-based violence (GBV) requires serious attention and 
integration throughout foreign assistance because it harms millions of 
individuals every year, undermines development progress, and threatens 
the resilience and recovery of countries affected by crisis and 
conflict. We also know that conflict and natural disasters often 
exacerbate the vulnerability of individuals, particularly women and 
girls, and GBV can escalate in these scenarios. As such, the U.S. 
Agency for International Development (USAID) prioritizes specialized 
GBV interventions to address the immediate impact of the situation on 
women and girls' health, psychosocial well-being, and safety at the 
onset of an emergency.
    If confirmed, I will remain strongly committed to supporting 
USAID's GBV efforts through my leadership role in the Bureau for 
Economic Growth, Education and Environment; its successor Bureau for 
Democracy, Development, and Innovation; and the entire Agency. I will 
continue to support the integration of efforts to prevent and respond 
to GBV efforts into cross-cutting and stand-alone programming. We will 
also continue to focus on changing the social norms that perpetuate 
violence, while also fostering environments within communities that 
ensure girls and women are valued as key members of society, to 
eliminate some of the drivers of GBV. USAID will also continue robust 
efforts to prevent and respond to a range of types of GBV, including 
child, early, and forced marriage, female genital cutting and 
mutilation, sexual violence, school-related gender-based violence, and 
violence against children.

    Question. This administration has made a strong and commendable 
commitment to advancing women's economic empowerment. A key factor in 
supporting the achievement of women's economic empowerment is ensuring 
that the barriers that prevent them from access are addressed as well. 
If you are confirmed as the Assistant Administrator of the E3 Bureau, 
what will you do to ensure a comprehensive view of women's empowerment 
also includes access, a full education, reproductive rights and freedom 
from gender-based violence?

    Answer. Women's empowerment requires more than just economic 
empowerment. It is critical that women and girls have access to 
education, protection from gender-based violence, are healthy, and have 
access to, control over and benefit from all resources. If confirmed, I 
will make sure the Bureau for Economic Growth, Education and 
Environment (E3) and its successor Bureau for Democracy, Development, 
and Innovation (DDI) will continue to prioritize women's empowerment 
across these intersecting spheres. While voluntary family planning and 
reproductive-health programming is under the purview of the Bureau for 
Global Health, I commit to continuing collaboration by E3 and DDI with 
our Global Health counterparts in this field.
    We also recognize that investing in women's economic empowerment 
has a multiplier effect on positive development outcomes, including 
health, not just for themselves, but for their families. To that end, 
we will continue our robust efforts to implement the Women's Global 
Development and Prosperity (W-GDP) Initiative, launched in February 
2019. The first pillar of W-GDP recognizes the role that education and 
vocational training in science, technology, engineering, and 
mathematics have on women's ability to prosper in the workforce. In 
addition, the third pillar recognizes the necessity of removing the 
legal, regulatory, and cultural barriers, including gender-based 
violence, that constrain women from being able to participate fully and 
freely in the economy. W-GDP applies across the wide portfolio of the 
U.S. Agency for International Development (USAID), and thus requires 
close coordination within and across Bureaus and Operating Units to 
design and implement programming. USAID's already extensive work on 
women's health issues and education, for example, can thus work in 
tandem with USAID's portfolio of investments in economic growth to 
advance women's empowerment broadly.

    Question. Rights organizations have documented how women in 
communities displaced by large scale commercial agriculture suffer 
distinctive and disproportionate harmful impacts due to their social 
roles and status, and had the least opportunity to negotiate and assert 
their rights. Women face enormous struggles to sustain their families 
after losing safe water for drinking and household use, access to 
fertile land for cultivating food crops, and hunting or foraging 
grounds. In many countries, divorced women and widows face many 
challenges in asserting equal property rights. Widows may be evicted 
from their homes and land, and their property is stolen by in-laws when 
their husbands die or by their former spouses if they seek a divorce. 
As Assistant Administrator, how will you ensure U.S. policy and 
programs will support and promote women's land and property rights? 
And, how will you ensure that programs support by USAID will not work 
to undermine women's land and property rights?

    Answer. The U.S. Agency for International Development (USAID) views 
good governance of land and natural resources as a critical foundation 
for successful U.S. foreign assistance in all technical areas and 
regions. USAID's Office of Land and Urban (LU) within the Bureau for 
Economic Growth, Education and Environment leads the Agency's efforts 
on ensuring land rights with the mandate to improve the governance of 
land and resources and strengthen property rights for all members of 
society, especially women. Strengthening women's land rights continues 
to be an integral component of all LU's activities. Furthermore, the 
Women's Global Development and Prosperity (W-GDP) Initiative recognizes 
the necessity of improving the enabling environment, including securing 
land and property rights for women. Other U.S. government and USAID 
policies and programs that include an explicit focus on land rights for 
all, including women, are the U.S. government's Global Food-Security 
Strategy, and USAID's new Environmental and Natural Resources 
Management (ENRM) Framework. Through these existing policies, 
frameworks and practices, I will, if confirmed, be able to ensure the 
U.S. government's policy and programs will support and promote women's 
land and property rights.
    If confirmed, I will make sure our programs will continue to 
support and promote women's land and property rights. Furthermore, if 
confirmed, I will continue to support the deployment of existing best 
practices to strengthen women's land rights purposefully. For instance, 
when working with communities to map and document their land, USAID 
always insists that women be at least equally represented on the 
mapping teams, which encourages women landholders to participate in the 
process. Also, good practice dictates that, in all USAID programs, two 
or more spaces for landholder names should be included on land 
documentation, at a minimum, so titles can name both husband and wife. 
These are just two examples of the ways in which USAID programs 
purposefully focus on women's land rights.
    If confirmed, I will support USAID's continued exploration and 
expansion of new best practices to continue this critical work.

    Question. As the Assistant Administrator of E3 for USAID, how will 
you ensure that the needs of adolescent girls are being met in the 
areas of economic growth, education and environment in a holistic way? 
Specifically, how do you anticipate implementing the U.S. Global 
Strategy to Empower Adolescent Girls and to otherwise ensure that U.S. 
foreign assistance is part of a holistic solution to ensuring that 
girls get the education and training they need to succeed now and if 
they are ever to become economically empowered women later? How will 
you ensure that the USAID Child Marriage Resource Guide is implemented, 
and that the impact projects and programs may have on child marriage 
rates is better documented and understood?

    Answer. Empowering adolescent girls is fundamental to achieving our 
development goals and unlocking the full potential of societies. The 
U.S. Agency for International Development (USAID) is the lead agency 
for the implementation of the U.S. Global Strategy to Empower 
Adolescent Girls across sectors, including health, education, water, 
and sanitation. USAID applies a ``whole-of-girl'' approach to see the 
overlapping areas of vulnerability in an adolescent girl's life. We 
define the whole-of-girl approach as enhancing girls' access to quality 
education in safe environments; providing economic opportunities and 
incentives for girls and their families; empowering girls with 
information, skills, services, and support; and mobilizing and 
educating communities.
    If confirmed, I will ensure that USAID's programs address the 
differentiated needs of girls in specific stages of adolescence, by 
recognizing that the challenges young adolescents encounter are 
distinct from those experienced by older adolescents who are 
approaching adulthood, and will work to support and enhance our current 
activities, such as efforts to increase access to early-childhood 
education, and using geographic information system technology to map 
areas where adolescent girls are at high risk of female genital 
mutilation and cutting.
    USAID recognizes the harmful impact associated with child, early or 
forced marriage (CEFM), and annually attributes at least $11 million to 
address this practice. To tackle this issue, USAID has looked to fund 
programming to prevent and respond to CEFM through a multi-pronged 
approach as outlined in the Agency's Child, Early, and Forced Marriage 
Resource Guide. Not only does USAID finance stand-alone CEFM 
activities, it works to integrate CEFM activities in four main areas: 
education and economic opportunities, health care, regulatory reform, 
and public-awareness campaigns. If confirmed, I will ensure that 
USAID's efforts in CEFM, coordinated by the Bureau for Economic Growth, 
Education and Environment and later its successor Bureau for Democracy, 
Development, and Innovation, continue to adhere to best practices in 
this area, and that we compile and share lessons from these programs.

    Question. Do you believe that climate change is a real and present 
threat to our health, environment, economy and way of life? If 
confirmed, will you support, empower and protect the Global Climate 
Change Office? What more can the U.S. do to support developing 
countries as they fight the effects of climate change?

    Answer. Yes, I personally believe that climate impacts human 
health, the environment, and climate-dependent livelihoods. If 
confirmed, I will continue to support USAID's programs that help 
developing countries manage and adapt to climate risks from the 
environment; protect, manage and restore forests and other landscapes; 
and develop and deploy energy systems that are clean, reliable and 
resilient.
    If confirmed, I will also challenge the Bureau for Economic Growth, 
Education and Environment (E3) and its successor Bureau for Democracy, 
Development, and Innovation (DDI) to work with USAID's Missions and 
other Operating Units to address a wide range of issues that concern 
the environment and the management of natural resources in an 
integrated fashion. This will require collaboration with governments, 
civil society and the private sector actors at the national, regional, 
and municipal levels. In this respect, the leadership of the Agency's 
Private-Sector Engagement Strategy by E3 and DDI can help to leverage 
additional domestic resources in developing countries in addressing 
this challenge. These measures can help to ensure sustained success at 
the scale required for transformational impact.

                              __________


                              NOMINATIONS

                              ----------                              


                         TUESDAY, JULY 30, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Ron Johnson, 
presiding.
    Present: Senators Johnson [presiding], Gardner, Young, and 
Shaheen.

             OPENING STATEMENT OF HON. RON JOHNSON,
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson.  Good afternoon. This hearing of the 
Senate Foreign Relations Committee will come to order.
    We are meeting to hear the statements and ask questions of 
four nominees for the ambassadorships of--ambassadorships to 
Latvia, Serbia, Bulgaria, Papua New Guinea, the Solomon 
Islands--and I will not pronounce this right--Van---somebody 
help me----
    Ms. McKee. Vanuatu.
    Senator Johnson [continuing]. Vanuatu, okay. Close enough. 
My excuse is, it is not in the European Subcommittee's 
jurisdiction.
    [Laughter.]
    Senator Johnson.  But, I really want to welcome our 
nominees. I want to thank you for your prior to service. You 
are all long-term, professional, career Foreign Service. I like 
to see that in ambassadorships. I do want to encourage you to 
introduce your families in your opening statements. We realize, 
you know, really, what big responsibilities these are, how this 
is--you know, your careers have taken your away from your 
families, in many respects. And so, we realize this truly is 
a--an act of family service to this Nation, as well, and we 
truly do appreciate it.
    I will ask that my written opening statement be entered 
into the record.
    [The prepared statement of Senator Johnson follows:]


                Opening Statement of Senator Ron Johnson

    Good afternoon and welcome.
    The Senate Foreign Relations Committee is meeting today to consider 
the nomination of ambassadorships to Latvia, Serbia, Bulgaria, and 
Papua New Guinea, the Solomon Islands, and Vanuatu. Our nominees today, 
if confirmed, will represent U.S. interests in six important 
relationships.
    Latvia is a stalwart NATO ally of the United States. In 2018, 
Latvia reached the two percent of gross domestic product defense 
spending threshold pledged at the 2014 NATO Wales Summit. Latvian 
soldiers have deployed alongside U.S. forces in both Afghanistan and 
Iraq where they continue to serve with distinction. As the U.S. and 
NATO look to blunt further Russian aggression towards its neighbors, 
Latvia has become a critical part of the West's deterrent posture. It 
has provided host-nation support to rotating Operation Atlantic Resolve 
units and a NATO enhanced forward presence multinational battle group. 
Riga has also taken an active leadership role in advancing the NATO 
Cooperative Cyber Defense Center of Excellence in Estonia, the NATO 
Strategic Communications Center of Excellence in Latvia, and the NATO 
Energy Security Center of Excellence in Lithuania. Latvia's record of 
political and economic reform since the fall of the Soviet Union stands 
as a model for other countries struggling to cast off the bitter legacy 
of communist rule.
    Bulgaria is a committed NATO ally in a region of increasing 
strategic importance to the United States. Over the past three decades, 
Bulgarian armed forces have played important roles in NATO, EU, and 
coalitions operations in Afghanistan, Libya, Kosovo, Bosnia, and Iraq, 
and Bulgarian soldiers continue to serve in Afghanistan as part of 
NATO's Resolute Support mission. In 2006, the U.S. and Bulgaria signed 
the U.S.-Bulgarian Defense Cooperation Agreement, giving the U.S. 
military access to and shared use of select Bulgarian military 
facilities. With Russia's occupation of Crimea and concerns over U.S.-
Turkish relations, Bulgaria will continue to grow in geo-strategic 
importance as a Black Sea littoral state.
    Serbia is a key country in Southeast Europe. Serbia's leaders have 
stated that their country's prosperity will best be achieved by 
embracing Western political and economic reforms and joining the 
European Union, which is their goal. This would have a tremendous 
stabilizing effect on Southeast Europe, but Belgrade and Pristina must 
first reach an agreement to settle their disputes and normalize 
relations between their countries. The U.S. needs to take a more active 
role in the region and support the leaders of these countries returning 
to dialogue to reach an accord that can bring peace and greater 
stability to the region.
    U.S. relations with Papua New Guinea, the Solomon Islands, and 
Vanuatu have taken on renewed significance in light of China's growing 
assertiveness in the Western Pacific. Papua New Guinea and Vanuatu have 
signed on to significant Belt Road Initiative infrastructure projects 
and the Solomon Islands is currently considering switching its 
diplomatic relations from Taiwan to China so it can do the same. 
China's use of covert, corrupt, and coercive means to interfere in the 
affairs of countries in the region is troubling. The U.S. needs to 
redouble its diplomatic and development efforts in the region both to 
inform countries about the dangers of Chinese infrastructure 
development aid and to stress the benefits of close relations with the 
U.S. and our allies in the region.


    Senator Johnson.  And I will turn it over to Senator 
Shaheen, because we do have votes that are going to definitely 
affect this hearing.
    Senator Shaheen.

               STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Well, thank you, Mr. Chairman.
    And, congratulations to each of our nominees. I look 
forward to your statements.
    I will also submit my opening statement for the record.
    Thank you.
    [The prepared statement of Senator Shaheen follows:]


              Opening Statement of Senator Jeanne Shaheen

    Thank you, Mr. Chairman, and thank you to the nominees before us 
today and to their families. We appreciate your service to the United 
States through long, successful careers in the Foreign Service and 
USAID. Your resumes speak to your dedication and sacrifice.
    Mr. Carwile, Ms. McKee, Mr. Godfrey and Ms. Mustafa, in the diverse 
countries you have been nominated to serve in, you will have to 
advocate for U.S. foreign policy priorities in the face of significant 
challenges, not only Russian and Chinese influence, but domestic 
challenges as well.
    Mr. Godfrey, the accession of Montenegro and, soon, North Macedonia 
into NATO has been the greatest success story for Europe and the 
Western Balkans in recent years. Our work, however, is far from 
complete.
    Serbia lies at the heart of the difficult issues the United States 
will have to negotiate to make further progress: to normalize relations 
between Serbia and Kosovo, to ensure strong European Union support for 
the Western Balkans and to address Russian influence.
    If confirmed, I hope that you will press Serbia on the deeply 
concerning backsliding of independent media, opposition voices and 
civil society. These trends are inconsistent with Serbia's long and 
vibrant history, and the U.S. should ensure that we do not turn a blind 
eye to authoritarian tendencies in Serbia.
    Mr. Carwile, our perspective on Europe has changed dramatically 
since 2014 and there are few places where that is more significant than 
in Latvia, where our close ally is on the front line with Russia in all 
respects. From its experience, Latvia can surely teach us how to 
address Russian interference in the United States.
    Ms. Mustafa, like Latvia, Bulgaria has a long and complicated 
relationship with Russia that also involves considerable energy 
independence. I am interested to hear how the United States can help 
make its allies strong and independent so that they become more 
resistant to malign foreign influence.
    And finally, Ms. McKee, your experience in development will be 
valuable, if confirmed, as the ambassador to Papua New Guinea, the 
Solomon Islands and Vanuatu.
    I look forward to hearing how development in these countries and 
countering Chinese influence is very much in the interest of the United 
States. And since today is the National Day of independence in Vanuatu, 
it is particularly appropriate that we have you here today!
    Again, welcome and congratulations to all of the nominees today. I 
look forward to your testimony and answers to our questions.


    Senator Johnson.  Well, we will just hop right into it.
    Our first nominee is Mr. John Leslie Carwile. Mr. Carwile 
is the President's nominee to be Ambassador to Latvia. Mr. 
Carwile--by the way, am I pronouncing that right?
    Mr. Carwile. Yes, sir.
    Senator Johnson.  Mr. Carwile is a career member of the 
State Department's Senior Foreign Service, and currently serves 
as Deputy Director of the Office of Career Development and 
Assignments. Previously, he served as Deputy Chief of Mission 
at the U.S. Embassies in Brunei and Nepal, Minister-Counselor 
for Economic Affairs at the U.S. Embassy in Italy, and 
Counselor for Economic Affairs at the U.S. Embassies in Iraq 
and Canada.
    Mr. Carwile.

STATEMENT OF JOHN LESLIE CARWILE, OF MARYLAND, A CAREER MEMBER 
  OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, 
 NOMINEE TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF 
     THE UNITED STATES OF AMERICA TO THE REPUBLIC OF LATVIA

    Mr. Carwile. Mr. Chairman, Ranking Member, distinguished 
members of the committee, I am honored and privileged to be 
addressing the committee as the President's nominee to be the 
United States Ambassador to the Republic of Latvia. I deeply 
appreciate the trust and confidence that President Trump and 
Secretary Pompeo are placing in me with this nomination.
    If confirmed, I promise to focus my time and attention on 
advancing the interests of the United States in the Republic of 
Latvia. My number-one priority will be the security and welfare 
of U.S. citizens and that of the extraordinary Embassy team in 
Latvia. I will place the utmost importance on strengthening the 
robust partnership between our two great countries and 
friendship between our people. And I pledge to work closely 
with this committee, your staffs, and other Members of 
Congress, to achieve these goals.
    I would like to thank my friends, family, and colleagues 
for their support during my career. I also want to acknowledge 
our two daughters: Katherine, who is here today, and Madeline, 
who is in Boston. I am so proud of them as good people and for 
their accomplishments. I especially want to thank my wife and 
partner, Karin Hauschild, an outstanding representative of the 
United States during nine overseas tours, for her wisdom and 
constant support, and to whom I owe so much.
    After 32 years in the Foreign Service, I bring experiences 
and skills that have prepared me well, if confirmed, to serve 
as the U.S. Ambassador to Latvia. I have successfully led large 
teams, both in Washington and overseas, including heading the 
State Department's economic effort in Baghdad and serving as 
Economic Minister-Counselor at Embassy Rome. I have twice been 
Deputy Chief of Mission, first in Brunei and later in Nepal, 
when the 2015 earthquake struck and we sheltered over 500 
Americans and worked with the U.S. military to provide disaster 
assistance throughout much of the country.
    Mr. Chairman, the United States and Latvia have been close 
friends for nearly a century. This was shown most clearly in 
the 1940 Sumner Welles Declaration, which stated the United 
States' refusal to recognize the forced annexation of Latvia, 
Estonia, and Lithuania by the Soviet Union. From 1940 until the 
full restoration of Latvian independence, a half a century 
later, the flag of the Republic of Latvia continued to fly in 
Washington. The Welles Declaration made clear our steadfast 
commitment to Latvia's freedom, sovereignty, and territorial 
integrity. If confirmed, I pledge to strengthen this commitment 
and further show that the United States will always remain a 
friend to, and ally of, Latvia.
    Today, Latvia has proven itself one of our strongest 
allies. It contributes to security missions across the globe, 
including in Afghanistan and Iraq. It is among a select group 
of NATO allies that meets its commitment to spend at least two 
percent of GDP on defense and at least 20 percent of defense 
expenditures on major equipment. Latvia is among our most 
knowledgeable and active partners in combating Russian malign 
influence. Latvia advocates for Ukraine and other states 
threatened by Russia's aggressive activities.
    President Trump celebrated 100 years of Latvian, Estonian, 
and Lithuanian independence at the White House on April 3, 
2018. As the President affirmed that day in a joint declaration 
with the Presidents of Latvia, Estonia, and Lithuania, the 
United States appreciates the tremendous progress achieved by 
Latvia and the other Baltic states in political stability, 
economic growth, and security cooperation, and their 
contributions to European and international security and 
advancement of shared democratic values.
    Mr. Chairman, if confirmed by the Senate, I intend to 
strengthen the U.S.-Latvian relationship while advocating for 
and advancing U.S. interests in Latvia and throughout Europe. I 
will strengthen our robust security cooperation. I will work to 
increase our bilateral trade and investment. I will expand upon 
our strong cooperation in advancing democracy, rule of law, and 
developments in eastern partnership states and across Central 
Asia.
    Strengthening our relationship also means addressing 
difficult and complicated issues with Latvia. If confirmed, I 
will press the Latvian government to develop, enact, and 
implement reforms addressing critical corruption and money-
laundering threats that persist in the country. And I will 
support efforts to address Holocaust-era legacies such as 
Jewish communal property restitution.
    I recognize and fully appreciate the honor bestowed upon me 
by this nomination. If confirmed, I will do my utmost to reward 
the trust that you, your fellow congresspersons, the President, 
Secretary Pompeo, and the American people are placing in me. I 
will focus wholeheartedly in--on advancing the interests of the 
United States in Latvia while strengthening our bilateral 
partnership.
    Thank you for your time, Mr. Chairman, and for inviting me 
to appear before you today. I look forward to answering your 
questions.
    [The prepared statement of Mr. Carwile follows:]


               Prepared Statement of John Leslie Carwile

    Mr. Chairman, Ranking Member, distinguished members of the 
committee: I am honored and privileged to be addressing the committee 
as the President's nominee to be the United States Ambassador to the 
Republic of Latvia.
    I deeply appreciate the trust and confidence President Trump and 
Secretary Pompeo are placing in me with this nomination. If confirmed, 
I promise to focus my time and attention on advancing the interests of 
the United States in the Republic of Latvia. My number one priority 
will be the security and welfare of U.S. citizens and that of the 
extraordinary Embassy team in Latvia. I will place the utmost 
importance on strengthening the already robust partnership between our 
two great countries and friendship between our people. And I pledge to 
work closely with this committee, your staffs, and other Members of 
Congress to achieve these goals.
    I would like to thank my family, friends, and colleagues for their 
support during my career. I also want to acknowledge our two daughters, 
Katherine (who is here today) and Madeline (who is in Boston). I am so 
proud of them as good people and for their accomplishments. I 
especially want to thank my wife, Karin Hauschild, who has been an 
outstanding representative of the United States during nine overseas 
tours.
    After 32 years in the Foreign Service, I bring experience and 
skills that have prepared me well, if confirmed, to serve as the U.S. 
ambassador to Latvia. I have successfully led large teams both in 
Washington and overseas, including heading the State Department's 
economic effort in Baghdad and serving as the Economic Minister-
Counselor at Embassy Rome. I have twice been Deputy Chief of Mission, 
first in Brunei and later in Nepal when the 2015 earthquakes struck as 
we sheltered over 500 Americans and worked with the U.S. military to 
provide disaster assistance throughout much of the country.
    Mr. Chairman, the United States and Latvia have been close friends 
for nearly a century. This was exemplified most clearly in the 1940 
Sumner Welles Declaration, which forcefully stated the United States' 
refusal to recognize the forced annexation of Latvia, Estonia, and 
Lithuania by the Soviet Union. From 1940 until the full restoration of 
Latvian independence half a century later, the flag of the Republic of 
Latvia continued to fly in Washington. The Welles Declaration made 
clear America's steadfast commitment to Latvia's freedom, sovereignty, 
and territorial integrity. If confirmed, I pledge to strengthen this 
commitment and further exhibit that the United States will always 
remain a friend to--and Ally of--Latvia.
    Today, Latvia has proven itself one our strongest Allies. It 
contributes to security missions across the globe, including in 
Afghanistan and Iraq. It is among a select group of NATO Allies that 
meets its commitment to spend at least two percent of GDP on defense 
and at least 20 percent of defense expenditures on major equipment. 
Latvia is amongst our most knowledgeable and active partners in 
combating Russian malign influence not just in Europe, but across the 
world. It advocates for Ukraine and other states threatened by Russia's 
aggressive activities.
    The ties binding the United States and Latvia are unbreakable. We 
lead together in NATO with our commitment to collective defense and our 
defense spending investments. Our economic ties are vibrant. We 
cooperate throughout Europe and Central Asia in the promotion of 
democracy, good governance, market economies, and the rule of law. And 
we collaborate daily to ensure our transatlantic community remains 
strong and resilient.
    President Trump celebrated 100 years of Latvian, Estonian, and 
Lithuanian independence at the White House on April 3, 2018. As the 
President affirmed that day in a joint declaration with the Presidents 
of Latvia, Estonia, and Lithuania, the United States is appreciative of 
the ``tremendous progress achieved by Latvia [and the other Baltic 
states] in political stability, economic growth, and security 
cooperation and [their] contributions.to European and international 
security and advancement of [shared] democratic values.'' If confirmed, 
I hope to continue assisting Latvia in advancing across political, 
economic, and security fields.
    Mr. Chairman, if confirmed by the Senate, I intend to strengthen 
the U.S.-Latvian relationship while advocating for and advancing U.S. 
interests in Latvia and throughout Europe. I will strengthen our robust 
security cooperation. I will work to increase our bilateral trade and 
investment. I will expand upon our already strong cooperation in 
advancing democracy, rule of law, and development in Eastern 
Partnership states and across Central Asia.
    Strengthening our relationship also means addressing difficult and 
complicated issues with Latvia. If confirmed, I will press the Latvian 
government to develop, enact, and implement reforms addressing critical 
corruption and money laundering threats that persist in the country. 
And I will support efforts to address Holocaust-era legacies, such as 
Jewish communal property restitution.
    Just over 100 years ago, Latvia declared independence. Throughout 
those years, the United States remained amongst Latvia's strongest 
partners. I am honored to have the opportunity, if confirmed, to 
preserve and enrich that partnership.
    I recognize and fully appreciate the honor bestowed upon me by this 
nomination. If confirmed, I will do my utmost to reward the trust you, 
your fellow Congresspersons, the President, Secretary Pompeo, and the 
American people are placing in me. I will focus wholeheartedly on 
advancing the interests of the United States in Latvia while 
strengthening our bilateral partnership.
    Thank you for your time and inviting me to appear before you today. 
I look forward to answering your questions.


    Senator Johnson.  Thank you, Mr. Carwile.
    We will just keep going right down the table there.
    Our next nominee is Ms. Erin Elizabeth McKee. Ms. McKee is 
the President's nominee to be the Ambassador of Papua New 
Guinea, the Solomon Islands, and Vanuatu--close, not even--not 
really close. Ms. McKee is a career member of the Foreign 
Service--Senior Foreign Service, and currently serves as 
USAID's Mission Director in Indonesia. Previously, she was 
Senior Deputy Assistant Administrator and Chief Human Capital 
Officer in USAID's Office of Human Capital and Talent 
Management, and Senior Deputy Assistant Administrator for the 
Bureau of Policy, Planning, and Learning. Ms. McKee has also 
served at USAID missions in Kazakhstan, Iraq, Peru, Bolivia, 
Israel, and Russia.
    Ms. McKee.

  STATEMENT OF ERIN ELIZABETH McKEE, OF CALIFORNIA, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
     COUNSELOR, NOMINEE TO BE AMBASSADOR EXTRAORDINARY AND 
    PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE 
      INDEPENDENT STATE OF PAPUA NEW GUINEA, AND TO SERVE 
CONCURRENTLY AND WITHOUT ADDITIONAL COMPENSATION AS AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
AMERICA TO THE SOLOMON ISLANDS AND AMBASSADOR EXTRAORDINARY AND 
PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE REPUBLIC 
                           OF VANUATU

    Ms. McKee. Mr. Chairman, Ranking Member, distinguished 
members of the committee, it is a great honor to appear before 
you today as the President's nominee to be Ambassador to the--
of the United States to Papua New Guinea, Solomon Islands, and 
Vanuatu.
    I am grateful to the members of the committee for the 
opportunity to speak to you today about my qualifications and 
goals. If confirmed, I pledge to work with you to advance our 
Nation's interests in these three Pacific Island nations.
    With the Chairman's permission, I would like to quickly 
introduce my family. My father, Stu Kinder; my husband, Sean 
McKee; and my daughter Caitlin are here with me today. Their 
unconditional love and support have been my rock throughout my 
public service career. From Moscow to Lima, from Baghdad to 
Jakarta, they have stood by my side and shared in the sacrifice 
and adventure of nearly 25 years in the Foreign Service. I am 
so pleased that they could join me today. I could not have made 
this journey without them. And for that, I am truly grateful.
    Since 1995, I have had the privilege of serving and 
representing the United States in eight overseas assignments, 
as well as here in Washington, D.C., with the U.S. Agency for 
International Development. It has been my honor to serve the 
American people and advance our country's interests, promote 
our values and principles, and offer host-country nations a 
model for hope, security, and prosperity across a variety of 
diverse contexts. I am currently serving as the USAID Mission 
Director to Indonesia and ASEAN, which I resumed after filling 
the role of Deputy Chief of Mission at Embassy Jakarta last 
year.
    Throughout my tenure in the Foreign Service, I have proven 
my ability to work with host countries to advance our shared 
goals and principles. In multiple posts, I have developed 
mission and host-country strategies, securing broad interagency 
support. I successfully led our interagency and mission 
partners to strategically plan and, more importantly, 
successfully execute our development and security assistance 
budgets. If confirmed, my technical background and development 
expertise have prepared me well to guide my country team as we 
work on issues affecting Papua New Guinea, the Solomon Islands, 
and Vanuatu to tackle economic inequality, poor governance, and 
underdeveloped capacity while furthering American partnerships.
    If confirmed, I am committed to advancing our vision of a 
free and open Indo-Pacific, which we share with other 
democracies in the Pacific region, including Australia, New 
Zealand, Taiwan, and Japan.
    The Solomon Islands is one of six Pacific Island nations 
that has diplomatic relations with Taiwan. I will stress the 
importance of maintaining cross-Strait relations and work with 
regional partners to support increased economic engagement 
initiatives.
    Free, fair, and transparent economies are open, 
accountable, and rules-based, and governments must also be. 
Papua New Guinea, the Solomon Islands, and Vanuatu are young 
democracies. Our shared history provides us with opportunities 
we can further build upon to help these nations attract high-
quality private investment and secure their sovereignty.
    However, we must also be realistic and operate with the 
understanding that competing models of assistance do not share 
our democratic values. China's relationships with Papua New 
Guinea, Solomon Islands, and Vanuatu have deepened dramatically 
over the last 2 years. The United States should increase its 
visibility and sustain its commitments to become a stronger 
partner of choice for these three countries, as we did with our 
commitment to support the Papua New Guinea Electrification 
Program, which aims to increase household electrification from 
15 percent today to 70 percent by 2030.
    If confirmed, I will work to offer a shared partnership and 
use the tools provided by this committee to help the people of 
these countries expand and grow and realize their full 
potential. The long and distinguished history of the Peace 
Corps in the region, the Asia Reassurance Initiative Act, and 
the BUILD Act further expand this toolkit. Together, these 
equip us to further deliver sustained engagement and action 
behind our declarations of support to these countries.
    If confirmed, I will also do more to support the private 
sector and increase investment in the region. I will use these 
tools to expand our cooperation, promote fair and inclusive 
growth, and increase opportunities for U.S. investment, 
strengthen our presence, and amplify our message, backed by 
concrete deliverables, that the United States cares about the 
Pacific and is there to stay.
    If confirmed, I will make taking care of my team and 
fostering a high-performing, healthy, and secure workplace a 
priority, with zero tolerance for misconduct, including sexual 
harassment. I will prioritize the safety and security of all 
American citizens living in or visiting these island nations.
    Thank you for this invitation to appear before you. I 
welcome the opportunity to answer your questions.
    [The prepared statement of Ms. McKee follows:]


               Prepared Statement of Erin Elizabeth McKee

    Mr. Chairman, Ranking Member, and distinguished members of the 
committee, it is a great honor to appear before you today as the 
President's nominee to be Ambassador of the United States to Papua New 
Guinea, Solomon Islands, and Vanuatu. I am grateful to the members of 
the committee for the opportunity to speak with you today about my 
qualifications and goals. If confirmed, I pledge to work with you to 
advance our nation's interests in these three Pacific Island nations.
    With the Chairman's permission, I would like to quickly introduce 
my family. My father, Stu Kinder, my husband, Sean McKee, and my 
daughter Caitlin, are here with me today. Their unconditional love and 
support have been my rock throughout my public service career--from 
Moscow to Lima--from Baghdad to Jakarta, they have stood by my side and 
shared in the sacrifice and adventures of nearly 25 years in the 
Foreign Service. I am so pleased that they could join me today. I could 
have not made this journey without them, and for that I am truly 
grateful.
    Since 1995, I have had the privilege of serving and representing 
the United States in eight overseas assignments, as well as here in 
Washington, D.C., with the U.S. Agency for International Development. 
It has been my honor to serve the American people and advance our 
country's interests, promote our values and principles, and offer host-
country nations a model for hope, security, and prosperity across a 
variety of diverse contexts. I am currently serving as the USAID 
Mission Director to Indonesia and ASEAN, which I resumed after filling 
the role of Acting Deputy Chief of Mission of Embassy Jakarta last 
year.
    Throughout my tenure in the Foreign Service, I have proven my 
ability to work with host countries to advance our shared goals and 
principles. In multiple posts, I have developed mission and host-
country strategies, securing broad interagency support. I successfully 
led our interagency and mission partners to strategically plan and--
more importantly--successfully execute our development and security 
assistance budgets. If confirmed, my technical background and 
development expertise have prepared me well to guide my Country Team as 
they work on issues affecting Papua New Guinea, the Solomon Islands, 
and Vanuatu, and to tackle economic inequality, poor governance, and 
underdeveloped capacity, while furthering American partnerships.
    Papua New Guinea, the Solomon Islands, and Vanuatu are important to 
U.S. national security and to peace and security in the Pacific. To 
enhance these countries' stability as U.S. partners and help them 
realize their full potential, we should continue to support their 
efforts to improve transparency and good governance, to combat 
trafficking in persons, to adapt to the impacts of climate change, to 
responsibly manage their rich natural resources, to protect and promote 
human rights and fundamental freedoms, to improve public health, and to 
promote gender equality.
    If confirmed, I would work with the host countries, the 
interagency, and our many other partners to bolster environmental 
security, health systems, economic growth, and women's empowerment, 
among other critical areas. I am committed to advancing our vision of a 
free and open Indo-Pacific region, which we share with other 
democracies in the Pacific region, including Australia, New Zealand, 
Taiwan, and Japan.
    The Solomon Islands is one of six Pacific Island nations that has 
diplomatic relations with Taiwan. I will stress the importance of 
maintaining cross-Strait relations and work with regional partners to 
support economic engagement initiatives.
    Free, fair, and transparent economies are open, accountable, and 
rules-based, and governments must also be. Papua New Guinea, the 
Solomon Islands, and Vanuatu are young democracies. Our shared history 
provides us with opportunities we can further build upon to strengthen 
democratic systems, include civil society partners, combat corruption, 
protect and promote human rights and fundamental freedoms, and fortify 
institutions to help these nations attract high-quality private 
investment and secure their sovereignty.
    However, we must also be realistic and operate with the 
understanding that competing models of assistance do not share our 
democratic values. China's relationships with Papua New Guinea, the 
Solomon Islands, and Vanuatu deepened dramatically over the past two 
years. The United States should increase its visibility and sustain its 
commitments to become a stronger partner of choice for these three 
countries, as we did with our commitment to support the PNG 
Electrification Partnership (PEP), which aims to increase household 
electrification from the current level of 15% to 70% by 2030.
    The United States offers a shared partnership and a wide range of 
tools to develop opportunities for the people of these countries, which 
are expanding thanks to this committee. The long and distinguished 
history of the Peace Corps in the region, the Asia Reassurance 
Initiative Act (ARIA), and the Build Act further expand our tool kit. 
Together, these tools provide us the ability to deliver sustained 
engagement and action behind our declarations of support to these 
countries. We must also do more to support and promote private sector 
investment in the region. If confirmed, I will use these tools to 
expand our cooperation, promote fair and inclusive growth and increased 
opportunities for U.S. investment, strengthen our presence and amplify 
the message--backed by concrete deliverables--that the United States 
cares about the Pacific and is there to stay.
    In every position that I have served, I ensured that the highest 
standards for accountability and integrity were set-and met. If 
confirmed, I will make taking care of my team and fostering a high-
performing, healthy, and secure workplace a priority, with zero 
tolerance for misconduct, including sexual harassment. I will also 
prioritize the safety and security of all American citizens living in 
or visiting these island nations. I will work closely with our partners 
to promote peace and security, advance economic prosperity, and promote 
respect for fundamental freedoms and human rights, building an enduring 
presence and lasting partnership with our host-countries in the 
process.
    Thank you for this invitation to appear before you, I welcome the 
opportunity to answer your questions.


    Senator Johnson.  Thank you, Ms. McKee.
    ``Vanuatu,'' it is really not that hard, is it? Just got to 
listen to it a couple of times.
    [Laughter.]
    Senator Johnson.  Totally blew it, Cory, before you got 
here.
    [Laughter.]
    Senator Johnson.  Our next nominee is Mr. Anthony F. 
Godfrey. Mr. Godfrey is the President's nominee to be the 
Ambassador to Serbia. Mr. Godfrey is a 12-year U.S. Navy 
veteran and a career member of the Senior Foreign Service. He 
currently serves as Deputy Chief of Mission at the U.S. Embassy 
in Moscow. Previously, Mr. Godfrey served as Director of the 
Office of Iraq Affairs in the Bureau of Near East Affairs and 
as Minister-Counselor for Political Affairs in the U.S. Embassy 
in Baghdad. He speaks Russian, Turkish, and Serbo-Croatian.
    Mr. Godfrey.

 STATEMENT OF ANTHONY F. GODFREY, OF VIRGINIA, A CAREER MEMBER 
  OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER COUNSELOR, 
 NOMINEE TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF 
     THE UNITED STATES OF AMERICA TO THE REPUBLIC OF SERBIA

    Mr. Godfrey. Mr. Chairman, Ranking Member Shaheen, 
distinguished members of the committee, it is a great honor to 
appear before you today as the President's nominee for U.S. 
Ambassador to the Republic of Serbia. I deeply appreciate the 
trust and confidence President Trump and Secretary Pompeo have 
placed in me to represent the American people. And I hope to 
earn your trust, as well. If confirmed, I pledge to work 
closely with you to advance our Nation's interests in Serbia.
    This hearing is an important event for my family, and I am 
very proud that my wife, Anne, and two of our three children, 
our sons, Peter and Jamie, are with me today. They have served 
overseas with me through postings in Croatia, Armenia, Turkey, 
and Russia. And, although they were not with me in Iraq or in 
Chechnya, their support was essential for my success. My 
sister, Dr. Katy Godfrey, and my niece, Rosemary, are also 
present in the room today. And not present, but hopefully 
watching by live stream, is our daughter, Eilis, who lives in 
California.
    In nearly 40 years of service, both as a member of the 
Foreign Service and in the U.S. Navy, I have dedicated my 
professional life to improving America's security, prosperity, 
and position in the world. We have sought out challenging 
assignments, where America's active diplomacy can make a 
difference in advancing our goals. In domestic assignments, I 
am proud of the work I did to develop the International 
Coalition to Defeat ISIS. My work at the National Security 
Council helped advance our missile defense capability.
    Mr. Chairman, as you know, I have just left Moscow. And, 
after serving first as the head of the policy team and then, 
for two years as Ambassador Huntsman's Deputy Chief of Mission, 
I am fully aware of Russia's aggressive behavior, malign 
influence, and disinformation campaigns throughout much of 
Europe. Our team has been an important part of U.S. efforts to 
confront these challenges. I believe the sum of these 
experiences has prepared me well to serve as Chief of Mission 
in Serbia.
    Serbia is a political and economic leader and plays a key 
role in influencing regional stability and cooperation. It is 
in the strategic interest of the United States that Serbia 
develops as a modern democratic, prosperous European nation at 
peace with its neighbors, demonstrating full respect for the 
rule of law and rights of all its citizens. We fully support 
Serbia's stated goal of European integration and EU membership. 
Serbia now stands at a critical inflection point, and political 
leaders in Belgrade must undertake serious reforms to advance 
Serbia on its EU path.
    Most importantly, Serbia must normalize its relationship 
with Kosovo in order to advance both countries' European 
integration. The United States continues to support the EU-
facilitated dialogue aimed at comprehensive normalization of 
relations. We remain ready to help the parties in any way as 
they pursue a locally owned agreement that is durable, 
implementable, and increases regional stability. If confirmed, 
I am committed to promoting normalization of relations between 
Pristina and Belgrade as a top U.S. priority in the region. 
Together with my colleagues in Pristina and Washington, our 
European partners, and this committee, I will work to encourage 
the parties to return to the table in good faith.
    An important element of the United States work in Serbia is 
promoting and defending our shared democratic values. Violence 
and threats of violence against journalists in Serbia are 
increasing self-censorship and hindering journalists' ability 
to faithfully inform the public. If confirmed, I will lead my 
team in helping our Serbian partners to strengthen their 
democratic institutions, protect the rights of members of 
minority communities, combat corruption, and improve media 
freedom. Serbians must take the lead in these efforts, but the 
United States can be an important partner, and, if confirmed, I 
will ensure that we are.
    Serbia has enormous potential, with an educated and 
talented workforce, a location at an important trading 
crossroads for Europe, and a long culture of hospitality. 
Strengthening the rule of law will enable Serbia to further 
attract investment and curb the debilitating emigration of its 
youngest and brightest. While Serbia has made great strides in 
reforming its economy, it needs to do more, particularly to 
combat the corrosive consequences of corruption, to make it a 
more attractive environment for business.
    Serbia is also an important partner in international 
stability, and contributes hundreds of military personnel to 
U.N. and EU peacekeeping operations. Serbia's contribution of 
peacekeeping troops and medical professionals is among the 
highest per capita in all of Europe.
    If confirmed, I will continue to seek resolution to a 
persistent irritant in our bilateral relationship. To date, 
there have been no prosecutions for the murder of three 
Americans--Ylli, Agron, and Mehmet Bytyqi--executed while in 
Serbian police custody in 1999. I am committed to pressing the 
Serbian government to complete a thorough investigation, ensure 
that all who were involved in these crimes are brought to 
justice, regardless of rank or position.
    The United States and Serbia have a long and, in some ways, 
a complicated history. We were allied during two World Wars. In 
1918, President Wilson raised the Serbian flag over the White 
House. But, the 1990s were a difficult time, and we must work 
together to find a way to come to terms with that legacy. 
Nevertheless, the broader arc of our ties has been positive and 
mutually beneficial.
    It is an ambitious agenda, but, if confirmed, I would be 
supported by an incredibly talented team of Americans and 
locally employed staff at Embassy Belgrade and interagency 
partners in Washington. With the support of the legislative 
branch, I am committed to doing my utmost to promote our shared 
goal, a democratic Serbia providing growth and security for its 
citizens, at peace with all of its neighbors, and firmly set on 
a path of European integration.
    Thank you once again for granting me the opportunity to 
be--appear before this committee today. And I look forward to 
your questions.
    [The prepared statement of Mr. Godfrey follows:]


                Prepared Statement of Anthony F. Godfrey

    Mr. Chairman, Ranking Member Shaheen, and distinguished members of 
the committee, it is a great honor to appear before you today as the 
President's nominee for U.S. Ambassador to the Republic of Serbia. I 
deeply appreciate the trust and confidence President Trump and 
Secretary Pompeo have placed in me to represent the American people, 
and I hope to earn your trust as well. If confirmed, I pledge to work 
closely with you to advance our nation's interests in Serbia.
    This hearing is an important event for my family, and I'm very 
proud that my wife Anne and two of my three children, our sons Peter 
and Jamie, are present with me today; they've served overseas with me 
through postings in Croatia, Armenia, Turkey, and Russia; although they 
weren't with me in Iraq or in Chechnya, their support was essential for 
my success. My sister, Dr. Katy Godfrey, and my niece Rosemary are 
present in the room today. Not present, but surely watching by 
livestream, is my Dad, Bill Godfrey, who at 90 years young just finally 
retired from 52 years of teaching at the State University of New York 
at Stony Brook.
    In nearly forty years of service, both as a member of the Foreign 
Service and in the U.S. Navy, I have dedicated my professional life to 
improving America's security, prosperity, and position in the world. We 
have sought out challenging assignments, where America's active 
diplomacy can make a difference in advancing our goals. In domestic 
assignments I am proud of the work I did to develop the international 
coalition to defeat ISIS; my work at the National Security Council 
helped advance our missile defense capability. Mr. Chairman, as you 
know, I've just left Moscow, and after serving first as the head of the 
policy team, and then for two years as Ambassador Huntsman's Deputy 
Chief of Mission, I am fully aware of Russia's aggressive behavior, 
malign influence, and disinformation campaigns throughout much of 
Europe; our team has been an important part of U.S. efforts to confront 
those challenges. I believe the sum of these experiences has prepared 
me well to serve as Chief of Mission in Serbia.
                          european integration
    Serbia is a political and economic leader and plays a key role in 
influencing regional stability and cooperation. It is in the strategic 
interest of the United States that Serbia develops as a modern, 
democratic, prosperous European nation at peace with its neighbors, 
demonstrating full respect for the rule of law and rights of all its 
citizens. We fully support Serbia's stated goal of European integration 
and EU membership. Serbia now stands at a critical inflection point, 
and political leaders in Belgrade must undertake serious reforms to 
advance Serbia on its EU path.
                           regional relations
    Most importantly, Serbia must normalize its relationship with 
Kosovo, in order to advance both countries' European integration. The 
United States continues to support the EU-facilitated Dialogue, aimed 
at comprehensive normalization of relations. We remain ready to help 
the parties in any way, as they pursue a locally-owned agreement that 
is durable, implementable, and increases regional stability. If 
confirmed, I am committed to promoting normalization of relations 
between Belgrade and Pristina as a top U.S. priority in the region. 
Together with my colleagues in Pristina and Washington, our European 
partners, and this committee, I will work to encourage the parties to 
return to the table in good faith.
    Serbia's relations with its other neighbors require attention too. 
If confirmed, I will work with Serbia to resolve legacy issues with 
Bosnia and Herzegovina, Montenegro, and Croatia--to provide all 
citizens of the Western Balkans a more stable, secure, and prosperous 
future.
                       democracy and rule of law
    An important element of the United States' work in Serbia is 
promoting and defending our shared democratic values. Violence and 
threats of violence against journalists in Serbia are increasing self-
censorship and hindering journalists' ability to faithfully inform the 
public. If confirmed, I will lead my team in helping our Serbian 
partners to strengthen their democratic institutions, protect the 
rights of members of minority communities, combat corruption, and 
improve media freedom. Serbians must take the lead in these efforts, 
but the United States can be an important partner, and if confirmed, I 
will ensure that we are.
                          economic development
    Serbia has enormous potential, with an educated and talented 
workforce, a location at an important trading crossroads for Europe, 
and a long culture of hospitality. Strengthening the rule of law will 
enable Serbia to further attract investment and curb the debilitating 
emigration of its youngest and brightest. While Serbia has made great 
strides in reforming its economy, it needs to streamline the process of 
doing business, reduce bureaucratic impediments, and combat the 
corrosive consequences of corruption to make it a more attractive 
environment for businesses. If confirmed, I will be committed to 
supporting American companies as they explore opportunities in Serbia 
and look to build on the significant U.S. investment in Serbia, which 
has created over 20,000 jobs since 2000.
                  peacekeeping and military relations
    Serbia is an important partner in international stability and 
contributes hundreds of military personnel to U.N. and EU peacekeeping 
operations in the Central African Republic, Somalia, Cyprus, and 
Lebanon. Serbia's contribution of peacekeeping troops and medical 
professionals is among the highest per capita in all of Europe. The 
Ohio National Guard's engagement with Serbia, through the State 
Partnership Program, is among the most successful in Europe.
                           bilateral concerns
    If confirmed, I will continue to seek resolution to a persistent 
irritant in our bilateral relationship. To date there have been no 
prosecutions for the murder of three Americans--Ylli, Agron, and Mehmet 
Bytyqi, executed while in Serbian police custody in 1999. I am 
committed to pressing the Serbian government to complete a thorough 
investigation and ensure that all who were involved in these crimes are 
brought to justice, regardless of rank or position.
                                closing
    The United States and Serbia have a long and in some ways a 
complicated history. We were allied during two world wars. In 1918, 
President Wilson raised the Serbian flag over the White House. During 
World War II, Serbian families saved the lives of 500 American and 
Allied pilots and crew members. Our assistance--in the form of food, 
military equipment, and technical programs--helped Yugoslavia maintain 
its independence from the Soviet bloc. The 1990s were a difficult time, 
and we must work together to find a way to come to terms with that 
legacy. Nevertheless, the broader arc of our ties has been positive and 
mutually beneficial.
    This is an ambitious agenda, but if confirmed, I would be supported 
by an incredibly talented team of Americans and locally employed staff 
at Embassy Belgrade, and interagency partners in Washington. With the 
support of the Legislative Branch, I am committed to doing my utmost to 
promote our shared goal--a democratic Serbia providing growth and 
security for its citizens, at peace with all of its neighbors, and 
firmly set on a path of European integration.
    Thank you once again for granting me the opportunity to appear 
before this committee today. I look forward to your questions.


    Senator Johnson.  Thank you, Mr. Godfrey.
    Our fourth nominee is Ms. Herro Mustafa. Ms. Mustafa is the 
President's nominee to be the Ambassador to Bulgaria. Ms. 
Mustafa is a career member of the Senior Foreign Service and 
currently serves as Deputy Chief of Mission at the U.S. Embassy 
in Lisbon. Previously, she served as Political Minister-
Counselor at the U.S. Embassy in New Delhi, Advisor in the 
Office of the Vice President, as a Director at the National 
Security Council. Ms. Mustafa speaks nine languages--only 
nine----
    [Laughter.]
    Senator Johnson.  ----including Arabic, Russia--Russian, 
Hindi, and Farsi, and is the recipient of the Matilda W. 
Sinclaire Award for Excellence in Foreign Language.
    Ms. Mustafa. In English, please.
    [Laughter.]

 STATEMENT OF HERRO MUSTAFA, OF CALIFORNIA, A CAREER MEMBER OF 
 THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, NOMINEE TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
         STATES OF AMERICA TO THE REPUBLIC OF BULGARIA

    Ms. Mustafa. Chairman Johnson, Ranking Member Shaheen, and 
distinguished members of the committee, I am honored to appear 
before you as the President's nominee to serve as Ambassador to 
the Republic of Bulgaria. I am thankful to the President and 
Secretary Pompeo for the confidence they have placed in me to 
undertake this role. And, if confirmed, I pledge to work 
closely with the Congress to advance our Nation's interests in 
Bulgaria.
    Family is extremely important to me, and I am blessed to 
have so much love and support. I am proud to be the first 
American of Kurdish descent to be nominated as Ambassador. In 
the audience is my father, an incredible man who gave so much 
of his life so that we could live in freedom and have access to 
opportunity. Also in the audience is my mother, a courageous, 
strong woman, the bedrock of our family. My parents' one 
request of me and my siblings as we were growing up in Minot, 
North Dakota, was to always do good. They taught us to set our 
goals high in every aspect of life, whether career or personal, 
to achieve those goals and then aim even higher. That approach 
and optimism are what have shaped me into the person that I am 
today and, if confirmed, will guide my vision for achieving 
success for America in Bulgaria. My loving husband, Ravneesh 
Garg, is with our 4-year-old daughter, Ariana, watching via 
live stream with all my in-laws in India. Also in the audience 
are my incredibly hard-working brother, Hawro, my sister-in-
law, Willow, my beautiful niece, Zara, and my 2-year-old 
daughter, Ashna. She is with my mother.
    I have dedicated over two decades to serving the United 
States in the Department of State. Much of my work has promoted 
rule of law, democratization, energy security, and anti-
corruption efforts. Before joining the Foreign Service, I 
worked as an election supervisor with the OSCE in Bosnia, and 
my first Foreign Service assignment was in Greece. I have 
worked throughout my career with my European colleagues on 
issues of mutual interest, such as Iraq, Afghanistan, and Iran. 
My last assignment was in Portugal, where I was the Deputy 
Chief of Mission and served as Charge d-Affaires.
    I am honored now to have the opportunity, if confirmed, to 
serve in Bulgaria, a country renowned for its hospitable 
people, incredibly beautiful mountains, and rich cultural 
heritage. If confirmed, my top priority will be ensuring the 
safety and security of U.S. citizens. I will also take 
seriously my role as Chief of Mission to manage our most 
precious resource, our people at the Embassy, including our 
local staff, who are an important part of our mission.
    In addition, I will focus the work of the Embassy on the 
following priorities that I like to categorize as the three 
C's: Connectivity, Collaboration, and Corruption.
    First, on connectivity. If confirmed, I will work to deepen 
the bonds between Bulgaria and the West on all fronts, to 
include economic, military, commercial, cultural, and people-
people ties. This extends to civil society, including women and 
youth.
    Bulgaria is a strong NATO ally, and I am pleased to share 
that the government of Bulgaria today, under the leadership of 
Prime Minister Borissov, has just finalized the process to 
ratify a deal to procure eight F-16 fighter aircraft from the 
United States. This marks a significant step forward towards 
modernizing Bulgaria's armed forces to NATO standards, and we 
appreciate the pivotal role that the Congress has played in 
supporting this deal.
    I am also committed to expanding our economic relationship. 
Increased transparency, predictability, and stability in the 
investment climate are key to increased economic ties. And, if 
confirmed, I will work to level the playing field for U.S. 
businesses in Bulgaria.
    Second, on collaboration, I would like to work with all my 
colleagues across the region to promote regional collaboration. 
Bulgaria has been a positive player in the region and a leader 
in advancing Western-Balkan integration. They have also been 
supportive of the recent Prespa Agreement between Greece and 
the Republic of North Macedonia.
    Energy security is also a critical part of national 
security. Bulgaria imports most of its energy from Russia, 
including nearly all of its nuclear fuel and natural gas. If 
confirmed, I will work to support Bulgaria's efforts to 
diversify its energy supply to include the Greece-Bulgaria 
interconnector.
    Third, on corruption, if confirmed, I will work with 
Bulgaria on fighting corruption and advancing rule of law, 
which is key to Bulgaria's continued growth.
    Thank you again for this opportunity. I look forward to 
your questions and, if confirmed, to working with you to build 
the relations between our two nations.
    [The prepared statement of Ms. Mustafa follows:]


                  Prepared Statement of Herro Mustafa

    Chairman Johnson, Ranking Member Shaheen, and distinguished members 
of the committee, I am honored and humbled to appear before you as the 
President's nominee to serve as Ambassador to the Republic of Bulgaria. 
I am thankful to President Trump and Secretary Pompeo for the 
confidence they have placed in me to undertake this role. If confirmed, 
I pledge to work closely with the Congress to advance our nation's 
interests in Bulgaria.
    Family is extremely important to me and I'm blessed to have the 
love and support of so many members of my family, some with me here 
today and others watching via livestream in various parts of the world. 
I am proud to be the first American of Kurdish descent to be nominated 
as Ambassador. In the audience is my father, who is an incredible man 
who gave so much of his life so that we could live in freedom and have 
access to opportunity. My strong, courageous mother, who is the bedrock 
of our family, is also here today. My parents' one request of me and my 
siblings as we grew up in Minot, North Dakota was to always do good. 
They taught us to set our goals high, in every aspect of life, whether 
career or personal, to achieve those goals, and then aim even higher. 
That approach and optimism are what have shaped me into the person I am 
today and, if confirmed, will guide my vision for achieving success for 
America in Bulgaria.
    Also in the audience are my incredibly hard-working brother, Helo, 
and sister-in-law, Willow, along with my niece Zara, and my almost two-
year-old daughter Ashna. My two other brothers, Hawro and Barzan, are 
watching from California and Virginia. My loving husband, Ravneesh 
Garg, is with our almost four-year-old daughter Ariana watching with my 
in-laws and expanded family in India. Families of Foreign Service 
Officers sacrifice much, and being apart is sometimes a consequence of 
our service. I thank my entire family for the love and support and 
wisdom they show each and every day.
    I have dedicated over two decades to serving the United States in 
the Department of State. During that time, much of my work has promoted 
rule of law, democratization, energy security, and anti-corruption 
efforts. Before joining the Foreign Service, I worked as an Elections 
Supervisor in Bosnia and my first Foreign Service assignment was in 
Athens, Greece. My experience with Europe has continued throughout my 
career, as I have worked with my European colleagues on issues of 
mutual interest, such as Iraq, Afghanistan, and Iran. My last 
assignment was in Western Europe, in Lisbon, Portugal, where I was the 
Deputy Chief of Mission and served for long periods as Charge 
d'Affaires. I am honored now to have the opportunity, if confirmed, to 
serve in Bulgaria, a country renowned for its incredibly beautiful 
mountains, hospitable people, and rich cultural heritage in a strategic 
part of the world.
    If confirmed, my top priority will be ensuring the safety and 
security of U.S. citizens, including travelers and residents in 
Bulgaria, and my Embassy team. In addition, I will focus the work of 
the Embassy on the following priorities that I like to categorize as 
Connectivity, Collaboration, and Corruption, (the three Cs):


    On Connectivity: If confirmed I will work to strengthen and deepen 
the bonds between Bulgaria and the West, particularly the United 
States, on all fronts to include economic, military, commercial, 
cultural, and people-to-people ties. This connectivity should extend to 
civil society, including women and youth.
    Bulgaria is a strong NATO Ally. Fifteen years ago this year, 
Bulgaria joined the Alliance, sealing its security bonds with the West 
and affirming its commitment to a strong and free Europe. Bulgaria has 
accompanied the United States in operations--and taken casualties--in 
both Iraq and Afghanistan. Bulgaria has also participated in coalition 
operations in Libya, Kosovo, and Bosnia. Bulgaria is actively taking 
steps to increase defense spending and modernize its military, to make 
Bulgaria an even stronger and more capable NATO Ally. If confirmed, I 
will work to sustain and expand our security relationship and encourage 
Bulgaria to play a greater role, especially in transitional Forward 
Presence on NATO's Southeast flank.
    I am also committed to expanding our economic relationship. Overall 
bilateral trade between Bulgaria and the United States jumped from $963 
million in 2014 to $1.36 billion in 2018. Increased transparency, 
predictability, and stability in the investment climate are key to 
increased economic ties. One way Bulgaria can enhance its appeal to 
U.S. businesses is by increasing transparency and ensuring good 
corporate governance. Greater transparency would benefit not only U.S. 
firms, but also Bulgaria as a whole. I want to see U.S. businesses 
thrive, and if confirmed I will work to ensure a level playing fieldfor 
U.S. business in Bulgaria.

    On Collaboration: If confirmed, I would like to work with my 
counterparts across the region to promote regional collaboration. 
Bulgaria has been a positive player in the region and a leader in 
advancing Western Balkan integration. They have also been supportive of 
the recent Prespa Agreement between the Hellenic Republic of Greece and 
the Republic of North Macedonia. It is exactly this type of vision and 
collaboration that is needed to strengthen the sovereignty of each of 
these nations and to bring peace and stability to the region.
    Energy security is also a critical part of national security. 
Bulgaria imports most of its energy from Russia, including nearly all 
of its nuclear fuel and natural gas, which raises a range of economic, 
energy security, and NATO Alliance concerns. If confirmed, I will 
support Bulgaria's efforts to diversify its energy supply and foster 
increased energy collaboration across the region, in particular the 
Greece-Bulgaria interconnector.

    On Corruption: If confirmed, I will also work with Bulgaria on 
fighting corruption and advancing rule of law, which is key to 
Bulgaria's continued growth. Rule of law reform is a long-term, 
multifaceted, and challenging process. Bulgaria has demonstrated a 
commitment to reform and taken some steps to build a more open, 
inclusive, and prosperous society. More needs to be done, however. If 
confirmed, I am committed to working closely with Bulgaria together to 
find ways to promote civil society, media freedom, an independent 
judiciary, and the rule of law.


    If confirmed, I will take seriously my role as Chief of Mission to 
manage and safeguard our precious resources--our people, including our 
local staff who are an important part in fulfilling our mission, our 
embassy, and the strong reputation of the United States abroad. If 
confirmed, I look forward to building the relations between our two 
nations and defending and promoting the interests of the United States 
in the Republic of Bulgaria.


    Senator Johnson.  Well, thank you, Ms. Mustafa.
    I think it is pretty obvious, just by your opening 
statements and looking at your list of qualifications, that the 
President really has nominated four exceptional individuals, 
very well qualified for these posts, that will represent 
America well in your postings.
    We have had a vote called, so--I think we have some time 
for some questions, but I did not want you to be insulted by 
the fact that we do not have more Senators here. That is what 
is happening. We have got stacked votes, and so everybody is, 
you know, flocking to the floor now to vote on time. Right?
    Normally, we do like a little bit better language skills, 
but we will--you know, we will take that in consideration.
    [Laughter.]
    Senator Johnson.  I am happy yield to you, if you have got 
some questions, then vote, because I will--then I will close 
out the hearing with my questions.
    Senator Shaheen. Well, thank you, Mr. Chairman.
    I want to begin with you, Mr. Carwile, because I had a 
chance to visit Latvia a couple of years ago, and one of the 
things that I did while I was there was to visit a building 
that they have turned into a museum of the terror that occurred 
when the Soviet Union reoccupied Latvia at the end of World War 
II. And they were very clear on the challenges that they 
continue to have with Russian influence in Latvia, and the 
population that still identifies with Russia. So, I wonder if 
you could talk about the kinds of threats that Latvia faces for 
Russia, and what you can do, as Ambassador, to work with them 
to help Latvia address those concerns.
    Mr. Carwile. Thank you, Senator, for that question.
    You are absolutely right. As a front-line state, and given 
its history, which is very well known in last century, Latvia 
is very much aware of what was then the Soviet Union's threat 
to them, and now the Russian threat. And Russia would like 
nothing better than to break not only the strong relationship 
that we have with them, but also with NATO and the other 
Western democracies. So, we work closely with Latvia now, on a 
bilateral and also a regional or through NATO basis. The--one 
of the important things is to increase media literacy in the 
country. I do not know if you had the opportunity to visit the 
STRATCOM Center of Excellence and also the Baltic Media Center 
of Excellence. Those are two efforts that we are intimately 
involved in. We--there are also a number of Embassy programs 
that are run to try to bring truth, as it were, to the areas, 
mostly in the east, that are largely ethnic Russians to sort of 
counter that malign Russian influence. It is no secret that the 
Russians have very high-quality TV programming that is beamed 
into there. So, it is a difficult sort of message/counter-
message that needs to be done, but that is done. And, if I were 
confirmed, it would be done by more active engagement, which 
former Ambassador Pettit was very good at. But, those are the 
sorts of programs, whether it is in schools, whether it is with 
individual servicemen and women who come. And there is a lot of 
on-the-ground programs that are in process.
    Senator Shaheen. Well, thank you. I did have a chance to 
visit the media effort that has been underway, and I thought it 
was a good example for us, in the United States, as we think 
about, How do we counter the Russian threat of disinformation 
in the U.S.?
    And continuing on the concern about Russian influence in 
the Balkans, as opposed to the Baltics, where I think there are 
also reasons to be concerned, Mr. Godfrey, there is a report in 
the media today about the Serbian leader, Vucic, who is 
thanking the Russians for their delivery of 10 armored patrol 
vehicles, part of a promised supply of 30 tanks and 30 
reconnaissance vehicles. And that is on top of 10 armored 
vehicles that have come to Serbia. And I think there are two 
reasons to be concerned about this. One is because of the 
obvious effort of Russia, the continued influence what happens 
in Serbia, but also the concerns that it raises among the other 
nations in the Balkans about--that harken back to the wars of 
the '90s and Serbia's role during that period. So, I wonder if 
you can talk about what you could do, as Ambassador, to help 
keep Serbia moving along the trajectory that they have been on 
to join the EU and to look West, as opposed to looking back to 
Russia?
    Mr. Godfrey. Thank you, Senator, for that question.
    And I am very sorry I did not get a chance to welcome you 
in Russia when I was there. That was not up to me, though.
    Senator Shaheen. Yes, I was disappointed. Senator Johnson 
and I were both disappointed that I was not allowed in.
    Mr. Godfrey. That is--that was a disappointment.
    But, you are exactly right, Senator, our goals for the 
Western Balkans and Russia's do not align. The United States 
aligns with Serbia's own goals for supporting Serbia's Western 
integration. And Russia opposes Western integration and sows 
friction and distrust. And it is a real challenge. So, our goal 
is to model for the Serbians, to encourage, with Serbians and 
with the European Union, their further work towards Western 
integration. And, as I said in my statement, that includes 
normalization of its ties with Kosovo.
    Senator Shaheen. Can you go into a little more detail about 
the efforts in Kosovo? I can remember when the first 
negotiations were looking like they were going to reach a 
positive outcome, hearing that Russia worked very hard to keep 
that from happening, and yet Serbia and Kosovo both moved 
forward despite that. So, can you talk about what the potential 
is to reduce tensions and to actually find a permanent 
resolution to the situation between Serbia and Kosovo?
    Mr. Godfrey. Yes, of course.
    We are working hard on this with our European partners, and 
it is, of course, America's goal that Serbia continues along 
this path. And we are working, both in Pristina and in Belgrade 
and in Washington and with our colleagues in Brussels and--
thank you--with this committee, to find ways to model, for both 
the Serbians and the Kosovars, ways to resume these 
negotiations, to step back from these really counterproductive 
steps that both sides have taken. Both sides need this. And it 
will take both sides to move it forward. And it is our job, 
together with the Europeans, to make this happen.
    Senator Shaheen. Thank you. I really appreciate that. I 
think that Serbia's role in the Western Balkans is very 
important. They represent a very important country as we think 
about the future. And I think it is important to encourage them 
to resolve differences and to help them continue to look West, 
as opposed to East. And I think the United States role in doing 
that is going to be very important.
    Ms. Mustafa, first of all, congratulations on being the 
first Kurdish-American appointed to an ambassadorship.
    Ms. Mustafa. Thank you very much.
    Senator Shaheen. We especially appreciate the relationship 
that the U.S. has had with the Kurds.
    As you look at the challenges that faces--face Bulgaria, 
obviously one of those is the potential for Russia interference 
in Bulgaria, as well. The efforts of Bulgaria to address 
corruption and some of their other challenges offer fertile 
ground for Russia to try and exploit some of the corruption, 
economic insecurity, political volatility that exists there. 
So, can you talk about how, as Ambassador, you can work with 
the Bulgarians to address that?
    Ms. Mustafa. Yes, definitely, thank you. It is a very 
important question.
    Rule of law is a long-term, multifaceted, and challenging 
process, and I know that Bulgaria has passed constitutional 
amendments, and that there is an anti-corruption commission. 
But, more needs to be done. In 2017, the State Department 
established a Resident Legal Advisor's Office in Embassy Sofia, 
and I think strengthening that office is extremely important. 
The State Department also sends participants to the 
International Law Enforcement Academy. Thank you for your 
support on that. That has been truly tremendous and very----
    Senator Shaheen. It is very impressive.
    Ms. Mustafa [continuing]. Yes. Yes.
    And so, as Ambassador, if confirmed, I will continue these 
efforts, as well as efforts to engage civil society and to 
speak publicly about the importance of reform. I think that is 
very important to do from the top.
    Senator Shaheen. Thank you.
    And if I can ask one more question, Mr. Chairman.
    Senator Johnson.  Absolutely.
    Senator Shaheen. Finally, Ms. McKee, obviously you talked 
about the importance of Southeast Asia and our role there. As 
we look at other potential adversaries of the United States, 
China's influence in Asia is growing, and it is important for 
us to provide, I think, a counterweight to that. Can you talk 
about the ways in which you see working on that, if you are 
confirmed?
    Ms. McKee. Thank you very much, Senator, for the question. 
It is an important one.
    Countering China, I prefer to characterize it as providing 
alternatives and options. And one of the ways----
    Senator Shaheen. I like that characterization.
    Ms. McKee  [continuing]. Thank you. One of the ways, I 
think, that is important, and that I mentioned in my statement, 
is to increase our presence and demonstrate and follow through 
with our commitment with concrete deliverables so that 
alternative models of financing, infrastructure investment, 
attractive playing field for the private sector, and other 
alternatives to state-led options that China provides, is what 
I would aim for. I would deepen our work to demonstrate that 
commitment, advance human rights and other things that I 
believe we share, in terms of values and principles, with these 
Pacific Island nations. And, through this amplified presence 
and demonstrated commitment, I believe the United States would 
serve as the partner of choice for these countries.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Johnson.  Thank you, Senator Shaheen.
    The vote has been called, so if you want to head on down.
    Let me follow up with you, Ms. McKee. What investments or 
what activity has China been engaged in in that region?
    Ms. McKee. Thank you for the question, sir.
    I cannot give you specifics for the three countries. I am 
not there on the ground yet. However, I do know that they--that 
there are some debt financing and infrastructure deals on the 
table for those countries, for the three Pacific Island 
nations. What----
    Senator Johnson.  So, they have not been concluded yet?
    Ms. McKee [continuing]. Some of them have not been 
concluded yet. We hear a lot of deals being discussed coming 
out of the Belt and Road forum. But, for them to materialize, I 
think it would be very important for us to make sure that those 
countries, if they are going to enter into negotiations, have 
sound economic advice and adhere to the importance of 
transparency and clarity as they come to the negotiation table.
    Senator Johnson.  I do get the sense that, as other nations 
are looking at the results of some of these other, you know, 
no-strings-attached investments--and it is not ``no strings,'' 
there is chains attached to them--they are becoming a little 
bit more wary. So, I like, also, your typification of providing 
an alternative and, I would argue, the best alternative.
    Mr. Godfrey, I think you are aware that I have been engaged 
pretty in-depth with Serbia and Kosovo. Three trips there. I 
have met repeatedly, in other forums back here in the U.S., 
with both President Vucic and Thaci and the Foreign and Prime 
Minister. It is disappointing that we have not made progress 
there. There have been, as you say, actions taken on both sides 
which have not been helpful.
    In my most recent meetings with both sides--you talked 
about the EU-led negotiations--there was a real plea for 
greater U.S. involvement. Is that something that you are aware 
that the State Department, this administration, is willing to 
engage in, become--provide more of a leadership role in trying 
to hammer out an agreement, as opposed to what we have been 
stating--it think it is been valid, too--giving them the space, 
let the parties come to an agreement?
    Mr. Godfrey. Thank you, Mr. Chairman. And thank you for 
your leadership on this issue. It has been very important. And 
I hope it will continue to be.
    We are disappointed that there has not been more progress. 
And your leadership has been part--has been an important part 
of the United States stepping up more. And I suggest that 
Acting Assistant Secretary for European and Eurasian Affairs 
Reeker's recent meeting with the Foreign Minister, when he was 
here in Washington to attend the Ministerial for International 
Religious Freedom, was a good step in that direction, as well.
    It is an EU process. They own it. It is Western 
integration, with a goal of EU membership. There are ways that 
we can make it more attractive. And, if confirmed, I will 
continue to pursue them. We have important assistance programs 
that are about choice, making clear that the Serbians 
understand where their goals and their own pursuits lie. And 
very often that is in opposition or at least not together with 
where the Russians want them to head. But, as I said earlier, 
sir, it has got to be something to--for it to be a durable 
solution, the parties have to own it, and they have to work it 
out.
    Senator Johnson.  I agree. You know, there is a window of 
opportunity. I do not know how long that window stays open. 
But, you know, windows can close, as well. So, I am assuming 
this is the top priority. I think you stated that in your 
testimony. So, I would like to do everything I can to work with 
you, the State Department, this administration to try and take 
advantage of this moment in time.
    Mr. Godfrey. Thank you, Mr. Chairman.
    Senator Johnson.  Ms. Mustafa, just quick general-interest 
question. Did your parents emigrate here into the U.S.?
    Ms. Mustafa. So, we came as refugees.
    Senator Johnson.  Okay. From where? From Iraq?
    Ms. Mustafa. From Erbil, in Iraq.
    Senator Johnson.  Okay.
    Ms. Mustafa. Yes. And we landed in Minot, North Dakota. So, 
that is where we grew up.
    Senator Johnson.  An interesting place to land.
    Ms. Mustafa. Yes, exactly.
    Senator Johnson.  Well, I am glad you did. And again, you 
have taken, really, advantage of the situation, and I really 
commend you for that.
    Ms. Mustafa. Thank you.
    Senator Johnson.  Russian interference is pervasive 
throughout Eastern Europe. As Ambassador, really, what is your 
primary counter to that in working with the Bulgarians?
    Ms. Mustafa. This, I go back to the three C's: 
Connectivity, Collaboration, and as well as Corruption. But, on 
connectivity, we have to be visible. The Russians are very 
visible in these areas. And, for us, we have to be visible not 
only as Ambassadors, but also as the U.S. government. And this 
is where, again, working with you, if confirmed, and other 
Members of Congress, being present in Bulgaria, I think, is 
very important to demonstrate our support, to strengthen the 
links with the West on all of those various fronts.
    Senator Johnson.  China has been surprisingly active in 
Eastern, Southeastern European countries. What is the level of 
activity in Bulgaria?
    Ms. Mustafa. The Bulgarians have politically good ties with 
the Chinese, and they are interested in greater economic ties. 
And so, this, for me, will obviously be a focus. They do not 
yet have the level of commercial investment, as they do in 
other parts, but this is an area to watch very closely.
    Senator Johnson.  Well, as Ms. McKee suggests, show them a 
better alternative.
    Ms. Mustafa. Yes.
    Senator Johnson.  And again, now, Serbia--I mean, 
Bulgaria--both--the economic future of those countries lies 
with the West, with the EU, with America. Russia offers 
nothing, other than gas and destabilization and false 
propaganda. So, I wish you well there.
    Mr. Carwile, I am certainly concerned about Russian 
aggression into Georgia, Crimea, Eastern Ukraine. I think we 
all worry about some move, if we do not show the strength/
resolve, into one of the Baltic states. You know, we have the 
air patrols there. We have more of a forward presence. Anything 
else you think we should do? I am assuming you support all 
those efforts?
    Mr. Carwile. Thank you for the question, Senator.
    Yes, of course. I think the United States is very 
supportive of the--you mentioned the advanced forward-presence 
posts that are led by the Canadians there, and we supply 
regional support from Warsaw, from Poland, on that. So, we 
already have a robust, sort of, presence there, with rotation 
of a lot of NATO forces. We also have some American servicemen 
and -women that there on a semi-permanent basis for rotary air 
support. And there is also a long-time, since 1991, 
relationship with the Michigan National Guard. So, these are 
the sorts of things that--for the American military presence 
there, but also, more broadly, in NATO.
    Senator Johnson.  Okay. Well, thank you, Mr. Carwile.
    I do have to go vote. Take the fact that other Senators did 
not show up as a vote of confidence. I mean, I am--I mean that 
with all sincerity. Take a look at all of your backgrounds. You 
are very well suited, very well qualified, you will represent 
America well.
    Again, I congratulate you for your nomination, wish you 
well. Again, thank you and your families. It is obvious in the 
testimony there have been a lot of sacrifices during your 
careers. We truly do appreciate that. So, we wish you well.
    The hearing record will remain open for statements or 
questions until the close of business on Thursday, August 1st.
    This hearing is adjourned.


    [Whereupon, at 3:15 p.m., the hearing was adjourned.]

                              ----------                              

              Additional Material Submitted for the Record

                              ----------                              


            Responses to Additional Questions for the Record
      Submitted to John Leslie Carwile by Senator Robert Menendez

    Question. Latvia has long been a gateway for dirty Russian money to 
enter Europe. How has Latvia strengthened its anti-money laundering 
laws and more importantly, its enforcement of those laws, since the 
sanctioning and collapse of ABLV? What are the biggest money laundering 
risks in Latvia today?

    Answer. As a regional financial center with a large number of 
commercial banks and a sizeable non-resident deposit base, Latvia 
remains vulnerable to money laundering and terrorist financing. Latvia 
has indeed been home to several significant money laundering scandals 
over the past several years. U.S. concerns about money laundering in 
Latvia and its impact on U.S.-Latvian priorities were illustrated 
clearly in former U.S. Ambassador to Latvia Nancy Pettit's December 9, 
2018 Op-Ed in Latvian media entitled ``Let's Talk About Corruption,'' 
which included not only specific concerns about corruption and money 
laundering in Latvia, but provided specific recommendations on how to 
address shortfalls in Latvia's judicial, law enforcement, banking, and 
political sectors.
    The current Latvian government--led by Prime Minister Krisjanis 
Karins--has clearly prioritized addressing money laundering. His 
cabinet has introduced and secured passage of legislation that 
downsizes Latvia's non-resident banking sector, strengthens anti-money 
laundering authorities and capabilities, and reforms supervisory and 
regulatory authorities. These are all important and strong positive 
steps and to the extent possible, if confirmed, I will provide support 
for these efforts.

    Question. What are the most recent efforts by Treasury to engage 
Latvia on money laundering issues? Please provide a full list of the 
anti-money laundering recommendations Treasury has given Latvia and 
Treasury's assessment of Latvia's progress on those recommendations. 
Please do not simply refer us to Treasury in your response.

    Answer. In cooperation with U.S. Embassy Riga, the U.S. Departments 
of State and Treasury have engaged extensively over the past several 
years to encourage the government of Latvia to reform and enhance its 
legislative authorities, regulatory controls, judiciary, and 
transparency in order to combat this critical vulnerability. The U.S. 
Embassy and U.S. departments and agencies have also facilitated 
assistance, training, and seminars to improve Latvian government and 
regulator capabilities and knowledge on anticorruption and anti-money 
laundering. The Department of Treasury has regularly engaged Latvian 
leadership on money laundering issues, including a July 10 meeting 
between Secretary of Treasury Steven Mnuchin and Latvian Prime Minister 
Krisjanis Karins. Department of Treasury Assistant Secretary Marshall 
Billingslea has also traveled to Riga on several occasions to discuss 
money laundering with Latvian officials, including as recently as May 
2019.
    If confirmed, I will continue to support this close partnership and 
engage government officials, private sector contacts, and civil society 
representatives on this critical international security issue. I will 
prioritize engaging Department of Treasury leadership as soon as 
possible to coordinate on money laundering issues, including on 
Department of Treasury recommendations to the Latvian government.

    Question. Money laundering, particularly by sanctioned entities, 
remains a major threat to our security and combatting it must be a 
priority in foreign policy. How have Latvia's anti-money laundering 
efforts factored into discussions of U.S. programming in Latvia?

    Answer. As exhibited in former U.S. Ambassador to Latvia Nancy 
Pettit's December 9, 2018 Op-Ed in Latvian media entitled ``Let's Talk 
About Corruption,'' the United States understands the full scope of the 
threat posed by money laundering. Beyond domestic impact, ``money 
laundering makes Latvia vulnerable to malign external actors who aim to 
undermine Latvia's independence and democratic principles by pursuing 
an agenda that threatens national resilience, undermines confidence in 
Latvia's government and regulators, and weakens economic and security 
ties.'' The government of Latvia is making impressive strides advancing 
important anticorruption reforms and legislation, including related to 
Latvia's banking sector. Nonetheless, money laundering remains a major 
vulnerability in Latvia, meaning continued implementation and further 
structural changes are required to sustain progress.
    As noted, the U.S. Embassy and U.S. departments and agencies have 
facilitated assistance, training, and seminars to improve Latvian 
government and regulator capabilities and knowledge on anticorruption 
and anti-money laundering. If confirmed, I will continue to prioritize 
anticorruption and money laundering-focused programs as an essential 
part of U.S. assistance, public diplomacy efforts, and other 
programming to Latvia.

    Question. I understand that the State Department is considering 
adding Latvia to the European Recapitalization Incentive Program 
(ERIP). What is the status of discussions with Latvia regarding ERIP, 
particularly regarding its bidding laws that could preclude it from 
purchasing American equipment? If confirmed, how will you specifically 
incorporate anti-money laundering measures into conversations with 
Latvia regarding ERIP?

    Answer. Discussions are ongoing between the Department of State and 
U.S. European Command regarding a round two of the European 
Recapitalization Incentive Program (ERIP). No funding decisions have 
been made thus far, but Latvia is under consideration as a participant, 
along with other European partners in the region. All such discussions 
take into consideration relevant and applicable foreign country laws 
and regulations. Addressing money laundering is among the U.S. 
government's highest bilateral policy priorities with Latvia. If 
confirmed, I will ensure that money laundering issues continue to be 
taken into account in major policy discussions and decisions related to 
Latvia.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. From 2002-2006, I worked with the Northern Ireland Policing 
Board and engaged with political parties and community groups to 
demonstrate the United States' deep support for community-based 
policing in Northern Ireland--a critical component of the Good Friday 
Agreement and necessary to sustain support for the continuing peace 
process. The Board recognized my efforts when I departed Belfast in 
2006. I also regularly engaged with non-governmental community groups 
in areas affected by paramilitary activities to demonstrate the United 
States' strong commitment to help communities come to terms with the 
legacies of the past and to live free from intimidation and violence. 
As the Deputy Chief of Mission in Kathmandu, Nepal from 2013-2016, I 
oversaw Embassy efforts to support and protect Tibetan refugees 
resident in the country, as well as to reduce trafficking in persons, 
especially vulnerable women and children, and to encourage the 
government of Nepal to prosecute traffickers and protect and 
rehabilitate survivors.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Latvia? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. Latvia is a strong partner on advancing shared values and 
principles on human rights issues. However, according to the U.S. 
Department of State's 2018 Human Rights Report (the latest available), 
Latvia still faces democracy and human rights challenges, such as 
large-scale corruption and widespread intolerance and serious 
discrimination against lesbian, gay, bisexual, transgender, and 
intersex (LGBTI) persons. U.S. concerns regarding corruption in Latvia 
were exhibited perhaps most clearly in former U.S. Ambassador to Latvia 
Nancy Pettit's December 9, 2018 Op-Ed in Latvian media entitled `Let's 
Talk About Corruption,' which included not only specific concerns about 
corruption and money laundering in Latvia, but provided specific 
recommendations on how to address shortfalls in Latvia's judicial, law 
enforcement, banking, and political sectors.
    If confirmed, I will engage Latvian government and parliament 
officials, regulatory bodies, and nongovernmental and civil society 
organizations to promote human rights issues, encourage accountability 
on corruption and protect human rights and fundamental freedoms for 
Latvia's LGBTI community, as well as other marginalized populations. I 
will also prioritize engagement with Latvian government, parliament, 
judicial, regulatory, and civil society officials on to promote efforts 
and programs that reduce corruption.

    Question. What steps will you take--if confirmed--to support 
democracy in Latvia? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. Latvia is a vibrant democracy with resilient institutions, 
established respect for rule of law, and a free press. The government 
has effective mechanisms to investigate and punish abuse and 
corruption. Latvian law provides criminal penalties for corruption. 
Nonetheless, corruption remains an endemic problem, which has led to a 
widespread belief that that high-level officials are seen as enjoying 
impunity from corruption. If confirmed, I will prioritize engagement 
with Latvian officials on promoting democracy, good governance, and 
anticorruption reforms, measures, and programs.

    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. If confirmed, I will leverage the full range of U.S. 
assistance programs to promote good governance, democracy, and human 
rights in Latvia. Latvia is already included in regional Department of 
State assistance programming that--among other objectives--strengthens 
civil society and promotes rule of law. We also collaborate with 
Latvian institutions through the Emerging Donor Challenge Fund to 
advance democracy and rule of law in Ukraine and Central Asian 
countries.
    Corruption remains one of the largest threats to good governance 
and democracy in Latvia. The Department of State's Bureau of 
International Narcotics and Law Enforcement Affairs (INL) includes 
Latvia in a regional anti-corruption program designed to strengthen its 
capacity to identify, investigate, and prosecute corruption and advance 
related institutional reforms. The program aims to improve the 
investigation of corruption and financial crimes, the functioning of 
anticorruption institutions, judicial accountability mechanisms, and 
asset forfeiture and recovery processes. If confirmed, I will work to 
continue these beneficial assistance programs and provide strong 
support for niche technical assistance to Latvia to more effectively 
tackle corruption and prevent the country's financial institutions from 
serving as platforms for the financing of transnational organized crime 
and terrorism.

    Question. If confirmed, do you commit to engaging with 
democratically-oriented members of the opposition?

    Answer. Yes. If confirmed, I pledge to engage a range of Latvian 
political parties and politicians to strengthen bilateral ties and 
promote U.S. interests and objectives in Latvia.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Latvia? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. Yes. If confirmed, I commit to meet with civil society 
members and representatives of human rights and other non-governmental 
organizations in the United States and in Latvia. I will engage Latvian 
government and parliament officials and regulatory bodies to address 
concerns regarding any undue restrictions or penalties imposed upon 
non-government organizations and civil society groups.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. Yes. If confirmed, I commit to engage a range of Latvian 
political parties and politicians to strengthen bilateral ties and 
promote U.S. interests and objectives in Latvia. I will continue U.S. 
Embassy Riga efforts to promote democracy and good governance 
initiatives, including free and fair political systems. I will advocate 
among Latvian government officials, political parties, and civil 
society groups for access and inclusivity for women, members of 
minorities, and youth, including by advancing and implementing the 
objectives articulated in the June 2019 U.S. Strategy on Women, Peace, 
and Security.

    Question. Will you and your embassy team actively engage with 
Latvia on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Latvia?

    Answer. Yes. If confirmed, I will engage with Latvian government 
officials, media groups, and civil society to ensure continued respect 
for press freedoms. I will also continue U.S. Embassy Riga's 
established practice of meeting with independent Latvian press groups 
and bodies.
    Latvia is a vibrant democracy with resilient institutions and a 
free press. If confirmed, I pledge to enhance U.S. and Latvian 
partnership to strengthen independent media, including working with 
civil society and non-governmental organizations such as the Baltic 
Center for Media Excellence.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. Yes. The United States and Latvia recognize that the 
Kremlin attempts to undermine transatlantic unity, sow discord, and 
weaken democratic institutions and governments, including through 
employing malign influence campaigns to pursue these goals. The United 
States and Latvia work together closely to identify and expose Russian 
disinformation and other malign influence tactics not only in Latvia, 
but also throughout the world. The United States and Latvia concur that 
a well-informed citizenry is key to the strength of democratic 
institutions, and work together on efforts to strengthen civil society, 
combat corruption, and promote media literacy. One of the best defenses 
against disinformation is a free, pluralistic, and transparent news 
media environment, which is why the United States and Latvia work in 
partnership to strengthen independent media.
    If confirmed, I will also continue to support cooperation with and 
assistance to Latvia and the other Baltic states--among our most 
knowledgeable and capable Allies on this threat--to combat Russian 
malign influence across all sectors. I will expand U.S. Embassy 
cooperation with organizations in Latvia that address malign influence 
threats--such as the NATO Strategic Communications Center of Excellence 
and the Baltic Center for Media Excellence. I will also promote 
exchange programs so that U.S., Latvian, and other experts can better 
share knowledge, lessons learned, and innovative ideas on how to 
address these threats.

    Question. Will you and your embassy teams actively engage with 
Latvia on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Freedom of association and the right to collective 
bargaining are key elements of labor rights. If confirmed, I will 
actively engage on these issues and encourage adherence to these 
practices among independent trade unions.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Latvia, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Latvia? What specifically will you commit to do to help LGBTQ people in 
Latvia?

    Answer. Yes. If confirmed, I will commit to defending the human 
rights and dignity of all people in Latvia, no matter their sexual 
orientation or gender identity. According to the U.S. Department of 
State's 2018 Human Rights Report (the latest available), lesbian, gay, 
bisexual, transgender, and intersex (LGBTI) persons continue to face 
widespread intolerance and discrimination in Latvia. U.S. Embassy Riga 
has prioritized protecting the human rights and fundamental freedoms of 
LGBTI persons. If confirmed, I pledge to uphold and expand these 
efforts. I will engage Latvian government and parliament officials, 
regulatory bodies, and nongovernmental and civil society organizations 
to uphold basic freedoms, human rights and dignity of all individuals 
in Latvia, including members of Latvia's LGBTI community.

    Question. If a foreign person or government approaches you or a 
staffer at the embassy with derogatory information on a U.S. political 
figure, what is your understanding of official State Department policy 
on how to handle it? In the wake of President Trump's comments 
welcoming such information, it is important that the State Department 
have clear guidance for all of its personnel on how to deal with such 
scenarios. Has a cable with clear guidance on how to handle this 
situation been sent to all U.S. embassies?

    Answer. Pursuant to Foreign Affairs Manual Chapter 12, Section 
262--`Security Awareness and Contact Reporting'--U.S. Department of 
State policy mandates that all employees and contractors report any 
contact that prompts concern that he or she may be the target of actual 
or attempted exploitation by a foreign entity. At the embassy, any such 
contact must be reported as soon as possible to the embassy's Regional 
Security Officer. Cleared U.S. employees are required to take annual 
training ``EX 250 Annual Counter Intelligence Awareness,'' which 
reviews these reporting requirements pursuant to the Foreign Affairs 
Manual Chapter 12, Section 262. The Department has sent cables to all 
diplomatic and consular posts with clear guidance about this training 
and reporting requirement, in addition to Department Notices 
distributed domestically.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes. I agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration is wholly 
inappropriate. If confirmed, I will maintain a policy of no tolerance 
for retaliation, blacklisting, or other prohibited personnel practices 
at U.S. Embassy Riga. I will hold U.S. Embassy Riga employees 
accountable to the highest standards in accordance with applicable law, 
rules, and regulations on anti-discrimination and prohibited personnel 
practices, including the Notification and Federal Employee 
Antidiscrimination and Retaliation Act of 2002, as amended.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No. I take the issues of sexual harassment, discrimination, 
and inappropriate conduct with the utmost seriousness and throughout my 
career, I have immediately addressed any issues raised to me in 
accordance with the Department of State's policies. To my knowledge, I 
have never been named as a responsible management official in a formal 
or informal complaint of harassment or discrimination.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. I take the issues of sexual harassment, discrimination, and 
inappropriate conduct with the utmost seriousness and throughout my 
career, I have immediately addressed any issues raised to me in 
accordance with the Department of State's policies, including 
encouraging any employee who feels they have been harassed or 
discriminated against to report such behavior to any supervisor under 
my management or the Department's Office of Civil Rights.

                               __________


            Responses to Additional Questions for the Record
     Submitted to John Leslie Carwile by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. From 2002-2006, I worked with the Northern Ireland Policing 
Board and engaged with political parties and community groups to 
demonstrate the United States' deep support for community-based 
policing in Northern Ireland--a critical component of the Good Friday 
Agreement and necessary to sustain support for the continuing peace 
process. The Board recognized my efforts when I departed Belfast in 
2006. I also regularly engaged with non-governmental community groups 
in areas affected by paramilitary activities to demonstrate the United 
States' strong commitment to help communities come to terms with the 
legacies of the past and to live free from intimidation and violence. 
As the Deputy Chief of Mission in Kathmandu, Nepal from 2013-2016, I 
oversaw Embassy efforts to support and protect Tibetan refugees 
resident in the country, as well as to reduce trafficking in persons, 
especially vulnerable women and children, and to encourage the 
government of Nepal to prosecute traffickers and protect and 
rehabilitate survivors.

    Question. What are the most pressing human rights issues in Latvia? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Latvia? What do you hope to 
accomplish through these actions?

    Answer. Latvia is a strong partner on advancing shared values and 
principles on human rights. However, according to the U.S. Department 
of State's 2018 Human Rights Report (the latest available), Latvia 
still faces human rights challenges, such as large-scale corruption and 
widespread intolerance and serious discrimination against lesbian, gay, 
bisexual, transgender, and intersex (LGBTI) persons. If confirmed, I 
will engage Latvian government and parliament officials, regulatory 
bodies, and nongovernmental and civil society organizations to promote 
human rights, encourage accountability on corruption, and protect human 
rights and fundamental freedoms for Latvia's LGBTI community, as well 
as other marginalized populations.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Latvia in advancing 
human rights, civil society and democracy in general?

    Answer. If confirmed, I will engage Latvian government officials, 
regulatory bodies, parliamentarians, and nongovernmental and civil 
society organizations to promote human rights, encourage accountability 
on corruption, and uphold basic freedoms, human rights, and dignity of 
all people in Latvia, including Latvia's LGBTI community. A particular 
challenge highlighted in the U.S. Department of State 2018 Human Rights 
Report are widespread allegations of corruption in Latvia's judicial 
system. If confirmed, I pledge to enhance engagement with Latvia's 
Ministry of Justice and across other ministries and law enforcement and 
regulatory agencies to advance critical anticorruption reforms in 
Latvia's judiciary. More generally, U.S. Embassy Riga has prioritized 
promoting anticorruption reforms and protecting the human rights and 
fundamental freedoms of LGBTI persons, and if confirmed, I pledge to 
support and expand these efforts.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Latvia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes. If confirmed, I will engage with civil society and 
non-governmental organizations across the United States and in Latvia 
on a wide array of human rights. I will also ensure vetting procedures 
for U.S. assistance to Latvian security forces are implemented 
consistent with U.S. law.

    Question. Will you and your embassy team actively engage with 
Latvia to address cases of key political prisoners or persons otherwise 
unjustly targeted by Latvia?

    Answer. Latvia is a strong partner sharing our values and 
principles on human rights. There are no reported cases of political 
prisoners or people unjustly targeted by Latvia. If such reports become 
known in the future, I will engage Latvian government officials, 
regulatory bodies, parliamentarians, and nongovernmental and civil 
society organizations to address them.

    Question. Will you engage with Latvia on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will engage Latvian officials on 
promoting democracy, respect for rule of law, human rights, the 
important role of civil society, and good governance practices, 
measures, and programs.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise any concerns that 
arise through appropriate and applicable channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise any concerns that 
arise through appropriate and applicable channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Latvia?

    Answer. My investment portfolio includes funds, which may hold 
interests in companies with a presence in Latvia, but which are exempt 
from the conflict of interest laws. My investment portfolio also 
includes financial interests in individual companies that may maintain 
a presence in Latvia. I am committed to ensuring that my official 
actions will not give rise to a conflict of interest, will divest my 
interests in any companies the State Department Ethics Office deems 
necessary to avoid a conflict of interest on my part, and will remain 
vigilant with regard to my ethics obligations.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I fully support a diverse workforce. Diversity advances and 
illustrates American values and improves work environments by 
facilitating new perspectives, and visions. Increasing diversity 
fosters an inclusive workplace and promotes exchange of new ideas and 
innovating thinking. I advocate for workplaces that reflect the rich 
diversity of the United States. If confirmed, I will promote a 
workplace that encourages tolerance, respect, collaboration, and 
inclusion.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. Diversity and inclusion must be a focus area for Embassy 
planning and leadership. If confirmed, I will foster a positive work 
environment by instituting diversity and inclusion as priority 
objectives in Embassy strategy and planning documents. I will also 
promote diversity and inclusion as focal points in my first meetings 
with Embassy leadership. If confirmed, I will underscore that our 
policies and outcomes are improved by drawing on inclusive, diverse 
teams with a breadth of experiences and perspectives. I will also 
communicate strongly the Department's EEO policies in my mission and 
ensure they are followed.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Latvia 
specifically?

    Answer. Latvia is a vibrant democracy with resilient institutions, 
established respect for rule of law, and a free press. The government 
has effective mechanisms to investigate and punish abuse and 
corruption. Latvian law provides criminal penalties for corruption. 
Nonetheless, corruption remains an endemic problem, which has led to a 
widespread perception that high-level officials are seen as enjoying 
impunity from corruption. U.S. concerns regarding corruption in Latvia 
were exhibited perhaps most clearly in former U.S. Ambassador to Latvia 
Nancy Pettit's December 9, 2018 Op-Ed in Latvian media entitled ``Let's 
Talk About Corruption,'' which included not only our specific concerns 
about corruption and money laundering in Latvia, but provided specific 
recommendations on how to address shortfalls in Latvia's judicial, law 
enforcement, banking, and political sectors. If confirmed, I will 
prioritize engagement with Latvian officials on promoting 
anticorruption reforms, measures, and programs.
    The Department's Bureau of International Narcotics and Law 
Enforcement Affairs (INL) includes Latvia in a regional anti-corruption 
program designed to build resilience to Russian malign influence among 
justice sector partners by strengthening their capacity to identify, 
investigate, and prosecute corruption and advance related institutional 
reforms. Including work through the Department of Justice's Office for 
Prosecutorial Development and Training (OPDAT), the program aims to 
improve the investigation of corruption and financial crimes, the 
functioning of anticorruption institutions, judicial accountability 
mechanisms, and asset forfeiture and recovery processes. If confirmed, 
I will continue to promote the inclusion of Latvia in this important 
program.

    Question. What is your assessment of corruption trends in Latvia 
and efforts to address and reduce it by that government?

    Answer. The government of Latvia is making impressive strides 
advancing important anticorruption reforms and legislation, including 
related to Latvia's banking sector. Nonetheless, corruption remains an 
endemic problem, meaning continued implementation and further 
structural changes are required to sustain progress. U.S. concerns were 
exhibited clearly in former U.S. Ambassador to Latvia Nancy Pettit's 
December 9, 2018 Op-Ed in Latvian media entitled `Let's Talk About 
Corruption,' which included not only our specific concerns about 
corruption and money laundering in Latvia, but provided specific 
recommendations on how to address shortfalls in Latvia's judicial, law 
enforcement, banking, and political sectors.
    The current Latvian government--led by Prime Minister Krisjanis 
Karins--has clearly prioritized addressing money laundering, an 
important step. His cabinet has introduced and secured passage of 
legislation that downsizes Latvia's non-resident banking sector, 
strengthens anti-money laundering authorities and capabilities, and 
reforms supervisory and regulatory authorities. These are all important 
and strong positive steps. Nonetheless, significant work remains to be 
done. If confirmed, I will continue to engage Latvian government, 
parliament, judicial, regulatory, and civil society officials on this 
important issue to ensure the country reduces corruption.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Latvia?

    Answer. In cooperation with U.S. Embassy Riga, the U.S. Departments 
of State and Treasury have engaged extensively over the past several 
years to encourage the government of Latvia to reform and enhance its 
legislative authorities, regulatory controls, judiciary, and 
transparency in order to combat corruption and money laundering 
threats. The U.S. Embassy and U.S. departments and agencies have also 
facilitated assistance, training, and seminars to improve Latvian 
government and regulator capabilities and knowledge on anticorruption 
and anti-money laundering.
    If confirmed, I will continue these programs and U.S. Embassy 
Riga's engagement with officials in the Latvian government, parliament, 
regulatory bodies, and civil society to support good governance and 
anticorruption practices and principles. Through exchanges such as the 
International Visitor Leadership Program and other public diplomacy 
programs, I will also deepen and expand our engagement with Latvia on 
ways to promote transparency and respect for rule of law. I will 
provide my strong support for technical assistance to Latvia to more 
effectively tackle corruption and prevent the country's financial 
institutions from serving as platforms for the financing of 
transnational organized crime and terrorism.

    Question. How do you assess the development of Latvia's security 
capabilities in the context of the long-term security challenges it 
faces in the region? Does Latvia have what it needs to defend against 
Russian disinformation and propaganda?

    Answer. Latvia is a stalwart Ally and close friend of the United 
States. We cooperate closely on regional and global security issues. 
The Latvian government has made clear that it views NATO Article 5 as 
the bedrock of its security. Latvia is one of a handful of Allies that 
meets its NATO Wales Defense spending pledge. Since 2018, it has spent 
two percent of its GDP on defense; over twenty percent of its spending 
is focused on major new equipment, research, and development.
    The United States and Latvia recognize that the Kremlin attempts to 
undermine transatlantic unity, sow discord, and weaken democratic 
institutions and governments, including through employing malign 
influence campaigns to pursue these goals. We work together closely to 
identify and expose Russian disinformation and other malign influence 
tactics not only in Latvia, but also throughout the world. The United 
States supports regional efforts to counter Russian propaganda and 
disinformation with objective, fact-based media, including Russian 
language content. The United States and Latvia concur that a well-
informed citizenry is key to the strength of democratic institutions, 
and work together on efforts to strengthen civil society, combat 
corruption, and promote media literacy.
    If confirmed, I will continue to support cooperation with and 
assistance to Latvia and the Baltic states--among our most 
knowledgeable and capable Allies on this threat--to combat Russian 
malign influence.

    Question. As Ambassador, will you support the development of NATO 
activities in Latvia and encourage stronger partnerships to secure its 
territorial integrity?

    Answer. Yes. Approximately 1,400 multinational forces are deployed 
to Latvia under the Canada-led NATO enhanced Forward Presence (eFP) 
battle group, which strengthens NATO deterrence and defense in Latvia. 
Other countries contributing to the battle group including Albania, 
Czech Republic, Italy, Montenegro, Poland, Slovakia, Slovenia, and 
Spain. The United States, which leads the eFP battle group in Poland, 
is a strong supporter of NATO's deterrence and defense efforts on the 
Alliance's eastern flank. The United States further supports regional 
security by conducting military training and exercises on a periodic 
basis in Latvia and the other Baltic states.
    The United States also supports the work of the NATO-accredited 
Strategic Communications Center of Excellence, which has produced 
notable analysis on disinformation and hybrid warfare. U.S. outreach 
programs highlight the positive role NATO and the United States play in 
Latvia. In the Soldiers in Arms program, a Latvian-American staff 
member from the Embassy, who is also a member of the Latvian National 
Guard, travels to schools around Latvia with a U.S. or other NATO 
service member to dispel negative myths about NATO and educate students 
about what NATO does and how Latvia benefits.
    If confirmed, I pledge to maintain and expand U.S. support to these 
relationships, institutions, and programs.

    Question. Given Latvia's already heavy dependence on Russian gas, 
do you see the Russian-led Nord Stream 2 pipeline as problematic for 
Latvia and the greater Baltic Sea area's energy security?

    Answer. Latvia shares our view that Nord Stream 2 would undermine 
Europe's energy security, including by providing Russia with another 
tool for the political coercion of European countries, especially 
Ukraine. Latvia has been outspoken in its opposition to the project.
    If confirmed, I look forward to continuing our cooperation with 
Latvian officials in opposition to this project.

    Question. How would you propose to work with the Latvians to 
encourage their energy independence?

    Answer. Although Latvia still depends upon Russia for much of its 
natural gas, Latvia has taken steps to increase its energy security, 
including by developing its energy infrastructure as well as 
diversifying its energy supplies. The government continues to work 
towards completion of unbundling its gas sector to comply with the EU's 
Third Energy Package. Latvia is also taking steps to improve pipeline 
access to receive non-Russian gas from other sources.
    The United States supports these efforts and works with the 
government of Latvia, the EU Commission, and other stakeholders to 
encourage progress on Baltic energy security and diversification. If 
confirmed, I will continue the Embassy's strong efforts to raise the 
profile of this important issue and promote a regional approach to 
bolstering energy security.

                               __________


            Responses to Additional Questions for the Record
       Submitted to John Leslie Carwile by Senator Jeanne Shaheen

    Question. To what extent does Latvia's energy dependence pose a 
threat to its or the EU's security? In your view, what are the most 
effective ways to address energy diversification for Latvia and the 
region?
    Answer. Although Latvia still depends upon Russia for much of its 
natural gas, Latvia has taken steps to increase its energy security, 
including by developing its energy infrastructure as well as 
diversifying its energy supplies. The government continues to work 
towards completion of unbundling its gas sector to comply with the EU's 
Third Energy Package. Latvia is also taking steps to improve pipeline 
access to receive non-Russian gas from other sources.
    The United States supports these efforts and works with the 
government of Latvia, the EU Commission, and other stakeholders to 
encourage progress on Baltic energy security and diversification. If 
confirmed, I will continue the Embassy's strong efforts to raise the 
profile of this important issue and promote a regional approach to 
bolstering energy security.

    Question. As discussed in your hearing, few countries have Latvia's 
depth of experience dealing with Russian influence, disinformation and 
more aggressive measures. As Ambassador, how would you approach 
leveraging the Latvian experience to benefit U.S. efforts to address 
Russian interference in our own elections and media environment?
    Answer. The United States and Latvia recognize that the Kremlin 
attempts to undermine transatlantic unity, sow discord, and weaken 
democratic institutions and governments, including through employing 
malign influence campaigns to pursue these goals. The United States and 
Latvia work together closely to identify and expose Russian 
disinformation and other malign influence tactics not only in Latvia, 
but also throughout the world. The United States and Latvia concur that 
a well-informed citizenry is key to the strength of democratic 
institutions, and work together on efforts to strengthen civil society, 
combat corruption, and promote media literacy. One of the best defenses 
against disinformation is a free, pluralistic, and transparent news 
media environment, which is why the United States and Latvia work 
together to strengthen independent media.
    If confirmed, I will continue to support cooperation with and 
assistance to Latvia and the Baltic states--among our most 
knowledgeable and capable Allies on this threat--to combat Russian 
malign influence across all sectors. I will expand U.S. Embassy 
cooperation with organizations in Latvia that address malign influence 
threats--such as the NATO Strategic Communications Center of Excellence 
and the Baltic Center for Media Excellence. I will also promote 
exchange programs so that U.S., Latvian, and other experts are able to 
better share knowledge, lessons learned, and innovative ideas on how to 
address these threats.

    Question. In February 2018, the U.S. Treasury Department sanctioned 
ABLV Bank, then the third-largest bank in Latvia, accusing it of 
institutionalized money laundering, bribery and facilitating 
transactions violating sanctions against North Korea. How would you 
assess Latvian government oversight of its banking sector with respect 
to transparency and foreign account holders, especially in Russia and 
the former Soviet Union? In your view, how does banking sector and 
anti-money laundering reform impact U.S. priorities in Latvia? What 
assistance is the U.S. Embassy in Riga already providing and what more 
should be done?
    Answer. As a regional financial center with a large number of 
commercial banks and a sizeable non-resident deposit base, Latvia 
remains vulnerable to money laundering and terrorist financing. Latvia 
has indeed been home to several significant money laundering scandals 
over the past several years. U.S. concerns about money laundering in 
Latvia and its impact on U.S.-Latvian priorities were illustrated 
clearly in former U.S. Ambassador to Latvia Nancy Pettit's December 9, 
2018 Op-Ed in Latvian media entitled ``Let's Talk About Corruption,'' 
which included not only specific concerns about corruption and money 
laundering in Latvia, but provided specific recommendations on how to 
address shortfalls in Latvia's judicial, law enforcement, banking, and 
political sectors.
    The current Latvian government--led by Prime Minister Krisjanis 
Karins--has clearly prioritized addressing money laundering. His 
cabinet has introduced and secured passage of legislation that 
downsizes Latvia's non-resident banking sector, strengthens anti-money 
laundering authorities and capabilities, and reforms supervisory and 
regulatory authorities. These are all important and strong positive 
steps. Nonetheless, significant gaps remain. In cooperation with U.S. 
Embassy Riga, the U.S. Departments of State and Treasury have engaged 
extensively over the past several years to encourage the government of 
Latvia to reform and enhance its legislative authorities, regulatory 
controls, judiciary, and transparency in order to combat this critical 
vulnerability. The U.S. Embassy and U.S. departments and agencies have 
also facilitated assistance, training, and seminars to improve Latvian 
government and regulator capabilities and knowledge on anticorruption 
and anti-money laundering. For instance, the Department of State's 
Bureau of International Narcotics and Law Enforcement Affairs (INL) 
includes Latvia in a regional anti-corruption program designed to 
strengthen its capacity to identify, investigate, and prosecute 
corruption and advance related institutional reforms. If confirmed, I 
will continue to support this close partnership and engage government 
officials, private sector contacts, and civil society representatives 
on this critical international security issue.

                               __________


            Responses to Additional Questions for the Record
      Submitted to Erin Elizabeth McKee by Senator Robert Menendez

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. The promotion of human rights and democracy has been 
central throughout my career. Since 1995, I have had the privilege of 
serving and representing the United States in eight overseas 
assignments, as well as here in Washington, D.C., with the U.S. Agency 
for International Development. It has been my honor to serve the 
American people and advance our country's interests, promote our values 
and principles, and offer host-country nations a model for hope, 
security, and prosperity across a variety of diverse contexts. I am 
currently serving as the USAID Mission Director to Indonesia and ASEAN, 
which I resumed after filling the role of Acting Deputy Chief of 
Mission of Embassy Jakarta last year.Throughout my tenure in the 
Foreign Service, I have successfully led our interagency and mission 
partners to strategically plan and--more importantly--successfully 
execute our development and security assistance budgets. With multiple 
host-country partners, I have deepened cooperation on human rights and 
democracy issues, and on countering violent extremism, trafficking in 
persons, anti-corruption, maritime security and law enforcement, and 
people-to-people exchanges. In many places where I have served, rule of 
law has been key to promoting human rights and democracy as well as to 
increasing sustainable economic growth, trade and investment. If 
confirmed, I will use my technical background and development expertise 
to guide my Country Team as they work on issues affecting Papua New 
Guinea, the Solomon Islands, and Vanuatu, and to tackle economic 
inequality, poor governance, and underdeveloped capacity, while 
furthering American partnerships.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Papua New Guinea? These challenges might 
include obstacles to participatory and accountable governance and 
institutions, rule of law, authentic political competition, civil 
society, human rights and press freedom. Please be as specific as 
possible.

    Answer. Human rights concerns in Papua New Guinea include security 
force abuses; violence and discrimination against women and girls; and 
vigilante killings and abuses. Other problems include reports of poor 
prison conditions; lengthy pre-trial detention; infringement of privacy 
rights, particularly in highland areas; government corruption; abuse 
and sexual exploitation of children; trafficking in persons; 
discrimination against persons with disabilities; intertribal violence; 
and ineffective enforcement of labor laws. Despite minor reforms to the 
justice system, the government frequently fails to hold accountable 
officials who commit abuses, whether in the security services or 
elsewhere in the government. Impunity is pervasive.
    In the Solomon Islands, inter-ethnic violence among persons from 
different islands has been reduced greatly from previous years, but not 
yet eliminated. Gender-based violence and discrimination are prevalent. 
Other problems include lengthy pre-trial detention and government 
corruption.
    Discrimination and violence against women remain the most prominent 
human rights issues in Vanuatu. Other problems include excessive use of 
force by police, poor prison conditions, arbitrary or unlawful arrests, 
an extremely slow judicial process, and government corruption. 
Authorities failed at times to maintain effective control over the 
security forces.
    As part of the Indo-Pacific Transparency Initiative, and in 
partnership with like-minded governments, the United States is 
prioritizing fiscal transparency and anti-corruption, democracy 
assistance, youth and emerging leader development, media and internet 
freedom, and fundamental freedoms and human rights.
    If confirmed, I will continue to engage government counterparts 
regularly on human rights, democracy, and governance issues. I will 
promote efforts to counter corruption, empower citizens and civil 
society, strengthen institutional capacity, and strengthen respect for 
the rule of law.

    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. Our vision for a free and open Indo-Pacific seeks to ensure 
the freedom of the seas and skies, promote market economics, support 
good governance, and insulate sovereign nations from external pressure. 
The mission objectives of Embassy Port Moresby are already aligned with 
this strategy: empowering women in political and economic life, 
strengthening democratic institutions, and promoting inclusive and 
transparent economic growth. If confirmed, these are the key tenets I 
will seek to advance in Papua New Guinea, the Solomon Islands, and 
Vanuatu through U.S. government assistance.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Papua New Guinea?

    Answer. Papua New Guinea, the Solomon Islands, and Vanuatu are all 
multiparty parliamentary democracies. The United States values the 
voice and opinions of civil society and has a long history of engaging 
leaders both inside and outside the government. Civil society 
organizations have a critical role to play in supporting efforts to 
ensure a healthy democracy. If confirmed, I look forward to meeting 
with civil society members to hear about their goals and objectives and 
to learn how we might work together in areas of common concern and 
share best practices. Just as certain groups are underrepresented in 
the U.S. political system, in Papua New Guinea, the Solomon Islands, 
and Vanuatu women, indigenous peoples and minority groups are generally 
underrepresented in political bodies relative to their proportion of 
the population. If confirmed, I would seek opportunities to share our 
own experiences in encouraging greater inclusivity, possibly through 
U.S. government-sponsored programs.

    Question. If confirmed, will you advocate for access and 
inclusivity for women, minorities and youth within political parties?

    Answer. Papua New Guinea, the Solomon Islands, and Vanuatu are all 
multiparty parliamentary democracies. With no female representation in 
the Papua New Guinea Parliament, encouraging women's political 
participation is a priority. In advance of the 2017 Parliamentary 
elections, Embassy Port Moresby incorporated messaging on the 
importance of women's political participation into all of its public 
activities. If confirmed, I intend to develop cordial relationships 
with members of all political parties in order to better understand 
their positions on issues of importance to us and to them, and to 
explain U.S. positions and their merits. I view this advocacy role as a 
key element of my position as Ambassador.

    Question. Will you and your embassy teams actively engage with 
Papua New Guinea on the right of labor groups to organize, including 
for independent trade unions?

    Answer. Yes, if confirmed, my Embassy team and I will actively 
engage with the governments of Papua New Guinea, the Solomon Islands, 
and Vanuatu, as well as employers and civil society, to promote 
internationally recognized worker rights, including freedom of 
association. Independent trade unions are one of the fundamental 
building blocks for any democratic society and are important partners 
for the State Department in many countries. Moreover, ensuring U.S. 
trade partners respect internationally recognized worker rights and 
adhere to high labor standards promotes a level playing field for U.S. 
workers and helps create stronger trading partners for the United 
States.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Papua New Guinea, 
no matter their sexual orientation or gender identity? What challenges 
do the lesbian, gay, bisexual, transgender and queer (LGBTQ) people 
face in Papua New Guinea? What specifically will you commit to do to 
help LGBTQ people in Papua New Guinea?

    Answer. In Papua New Guinea, consensual same-sex sexual relations 
and acts of ``gross indecency between males are illegal. The maximum 
penalty for same-sex sexual relations is 14 years' imprisonment; for 
acts of gross indecency between male persons (a misdemeanor), it is 
three years. There were no reports of prosecutions directed at lesbian, 
gay, bisexual, transgender, and intersex persons under these provisions 
during the year. There were reports of societal violence and 
discrimination against such persons, and they were vulnerable to 
societal stigmatization, which may have led to underreporting.
    In the Solomon Islands, ``sodomy'' is illegal, as are ``indecent 
practices between persons of the same sex.'' The maximum penalty for 
the former is 14 years' imprisonment and for the latter five years. 
There were no reports of arrests or prosecutions directed at lesbian, 
gay, bisexual, transgender, or intersex persons under these provisions 
during the year, and authorities generally did not enforce these laws. 
There are no specific antidiscrimination laws based on sexual 
orientation and gender identity. There were no reports of violence or 
discrimination against persons based on sexual orientation or gender 
identity, although stigma may hinder some from reporting.
    In Vanuatu, there are no laws criminalizing sexual orientation or 
same-sex sexual conduct, but there were reports of discrimination and 
violence against lesbian, gay, bisexual, transgender, or intersex 
(LGBTI) persons. LGBTI groups operated freely, but there are no 
antidiscrimination laws to protect them. One positive sign for freedom 
of association is that in May 2017, the country's first LGBTI advocacy 
group officially registered as an NGO.
    If confirmed, my team and I will work supportively with all three 
governments, non-governmental organizations and other members of civil 
society to protect LGBTI persons from violence, criminalization, and 
other human rights abuses.

    Question. Do you commit to respond promptly to all requests for 
information by Members of this committee?

    Answer. Yes, I commit to respond promptly to all requests for 
information by Members of this committee.

    Question. Do you commit to appear before this committee upon 
request?

    Answer. Yes, I commit to appear before this committee upon request.

    Question. If you become aware of any suspected waste, fraud, or 
abuse in the Department, do you commit to report it to the Inspector 
General?

    Answer. I commit to comply with all relevant federal laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels, including required reporting to the Office of the 
Inspector General.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. No, I am not aware of any formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against me, in a workplace 
or any other setting. If confirmed, I will make taking care of my team 
and fostering a high-performing, healthy, and secure workplace a 
priority, with zero tolerance for misconduct, including sexual 
harassment.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. If confirmed, I will make taking care of my team and 
fostering a high-performing, healthy, and secure workplace a priority, 
with zero tolerance for misconduct, including sexual harassment. 
Specific allegations of sexual harassment, discrimination, and 
inappropriate conduct are confidential, and in such circumstances I 
have immediately addressed any issues raised to me in accordance with 
the Department of State's policies, including encouraging any employee 
who feels they have been harassed or discriminated against to report 
such behavior to any supervisor under my management or the Department's 
Office of Civil Rights.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. Yes, I agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government. As a career 
member of the Senior Foreign Service and a 24-year veteran of the 
federal government, I am keenly aware and respectful of employee 
rights, including regarding protected activities. In addition to 
ensuring compliance with mandatory training on prohibited personnel 
practices and discrimination, if confirmed, I will prioritize taking 
care of my team and fostering healthy and secure workplace a priority, 
with zero tolerance for discrimination, harassment, retaliation, or 
other misconduct.

                               __________


            Responses to Additional Questions for the Record
    Submitted to Erin Elizabeth McKee by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. The promotion of human rights and democracy has been 
central throughout my career. Since 1995, I have had the privilege of 
serving and representing the United States in eight overseas 
assignments, as well as here in Washington, D.C., with the U.S. Agency 
for International Development. It has been my honor to serve the 
American people and advance our country's interests, promote our values 
and principles, and offer host-country nations a model for hope, 
security, and prosperity across a variety of diverse contexts. I am 
currently serving as the USAID Mission Director to Indonesia and ASEAN, 
which I resumed after filling the role of Acting Deputy Chief of 
Mission of Embassy Jakarta last year.
    Throughout my tenure in the Foreign Service, I have successfully 
led our interagency and mission partners to strategically plan and--
more importantly--successfully execute our development and security 
assistance budgets. With multiple host-country partners, I have 
deepened cooperation on fundamental human rights and democracy issues, 
including countering violent extremism, trafficking in persons, anti-
corruption, maritime security and law enforcement, and people-to-people 
exchanges. In many places where I have served, reform and rule of law 
have been key to promoting human rights and democracy as well as to 
increasing sustainable economic growth, trade and investment. If 
confirmed, I will use my technical background and development expertise 
to guide my Country Team as they work on issues affecting Papua New 
Guinea, the Solomon Islands, and Vanuatu, and to tackle economic 
inequality, poor governance, and underdeveloped capacity, while 
furthering American partnerships.

    Question. What are the most pressing human rights issues in Papua 
New Guinea, the Solomon Islands, and Vanuatu? What are the most 
important steps you expect to take--if confirmed--to promote human 
rights and democracy in Papua New Guinea, the Solomon Islands, and 
Vanuatu? What do you hope to accomplish through these actions?

    Answer. Human rights concerns in Papua New Guinea include security 
force abuses; violence and discrimination against women and girls; and 
vigilante killings and abuses. Other problems include reports of poor 
prison conditions; lengthy pre-trial detention; infringement of privacy 
rights, particularly in highland areas; government corruption; abuse 
and sexual exploitation of children; trafficking in persons; 
discrimination against persons with disabilities; intertribal violence; 
and ineffective enforcement of labor laws. Despite minor reforms to the 
justice system, the government frequently fails to hold accountable 
officials who commit abuses, whether in the security services or 
elsewhere in the government. Impunity is pervasive.
    In the Solomon Islands, inter-ethnic violence among persons from 
different islands has been reduced greatly from previous years, but not 
yet eliminated. Gender-based violence and discrimination are prevalent. 
Other problems include lengthy pre-trial detention and government 
corruption.
    Discrimination and violence against women remain the most prominent 
human rights issues in Vanuatu. Other problems include excessive use of 
force by police, poor prison conditions, arbitrary arrests without 
warrants, an extremely slow judicial process, and government 
corruption. Authorities have failed at times to maintain effective 
control over the security forces.
    As part of the Indo-Pacific Transparency Initiative, and in 
partnership with like-minded governments, the United States is 
prioritizing fiscal transparency and anti-corruption, democracy 
assistance, youth and emerging leader development, media and internet 
freedom, and fundamental freedoms and human rights.
    If confirmed, I will continue to engage government counterparts 
regularly on human rights, democracy, and governance issues. I will 
promote efforts to counter corruption, empower citizens and civil 
society, strengthen institutional capacity, and strengthen respect for 
the rule of law.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Papua New Guinea, 
the Solomon Islands, and Vanuatu in advancing human rights, civil 
society and democracy in general?

    Answer. Corruption at all levels and in all organs of government is 
a serious problem due to weak public institutions and governance, lack 
of transparency, politicization of the bureaucracy, and misuse of 
public resources by officials. Many government agencies lack adequate 
resources to fulfill their mandate, including the police, 
anticorruption agencies, and human rights bodies. These limitations, 
and others, will continue to be a barrier to progress on human rights 
in the region.
    Papua New Guinea is both a source and destination country for men, 
women, and children subjected to sex trafficking, domestic servitude, 
and other forms of forced labor in logging and mining camps and on 
board fishing vessels. Papua New Guinea has been ranked Tier 3 in the 
past two Trafficking in Persons Reports--meaning that the government of 
Papua New Guinea is not making significant efforts to meet the minimum 
standards for the elimination of trafficking in the Trafficking Victims 
Protection Act. If confirmed, I will work to maintain pressure on the 
government of Papua New Guinea to address serious concerns about 
trafficking in persons.
    Enhancing economic opportunities for women is a key priority of the 
United States, as reflected in the White House-led Women's Global 
Development and Prosperity (W-GDP) Initiative. The plight of women in 
Papua New Guinea is among the worst in the world. Women continue to 
face severe inequalities in all aspects of social, cultural, economic, 
and political life, and far too many women are subject to gender-based 
violence. If confirmed, I will strongly support equality for women and 
girls and promote its incorporation into all of the Embassy's work.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Papua New Guinea, the Solomon Islands, and 
Vanuatu? If confirmed, what steps will you take to pro-actively support 
the Leahy Law and similar efforts, and ensure that provisions of U.S. 
security assistance and security cooperation activities reinforce human 
rights?

    Answer. Yes. I am committed to meeting with human rights, civil 
society, and other non-governmental organizations in Papua New Guinea, 
the Solomon Islands, and Vanuatu. Obtaining the views of civil society 
is essential in understanding the country conditions, including in 
support of democratic institutions and respect for human rights, and 
plays a key role in informing and advancing U.S. foreign policy. 
Supporting a rules-based and transparent order that advances democratic 
governance and empowers civil society is a key goal of the 
Administration and is enshrined in our vision for a free and open Indo-
Pacific. If confirmed, I will continue the embassy's strong engagement 
with civil society.
    Advancing security force accountability and respect for human 
rights is a central tenet of United States diplomacy, the Indo-Pacific 
Transparency Initiative, and our laws governing security assistance. If 
confirmed, I will ensure that the Leahy Law continues to be robustly 
implemented in the region and that no U.S. security assistance is 
provided to any security force unit where there is credible information 
that the unit committed a gross violation of human rights.

    Question. Will you and your embassy team actively engage with Papua 
New Guinea, the Solomon Islands, and Vanuatu to address cases of key 
political prisoners or persons otherwise unjustly targeted by Papua New 
Guinea, the Solomon Islands, and Vanuatu?

    Answer. There were no reports of political prisoners or detainees 
in Papua New Guinea, the Solomon Islands, and Vanuatu in 2018. If 
confirmed, I will continue to promote the right of everyone to exercise 
their human rights and fundamental freedoms in the region without fear 
of reprisal by the government.

    Question. Will you engage with Papua New Guinea, the Solomon 
Islands, and Vanuatu on matters of human rights, civil rights and 
governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will work with Papua New Guinea, the 
Solomon Islands, and Vanuatu authorities to engage on matters of human 
rights, fundamental freedoms, and governance. I will also seek to 
exchange best practices between our governments. Good governance is a 
core pillar of the U.S. vision for a free and open Indo-Pacific. As 
part of the Indo-Pacific Transparency Initiative, the United States, 
with allies and partners, will promote just, transparent, and 
responsive governance through anti-corruption efforts while encouraging 
strong civil society and honest business practices. We will also 
continue to work with regional institutions, including the Pacific 
Islands Forum and APEC, to advance these shared goals and principles.
    We are committed to working with all Indo-Pacific nations to create 
the conditions needed to instill greater attention to the importance of 
democracy, transparency, and good governance throughout the region. 
Good governance is a core pillar of the American experience and the 
U.S. vision for a free and open Indo-Pacific. The United States is 
committed to working with Indo-Pacific nations, including Papua New 
Guinea, the Solomon Islands, and Vanuatu, to create the conditions 
needed to unlock greater private investment, combat corruption, and 
secure nations' autonomy from malign foreign influence. We will 
continue to promote transparency, openness, rule of law, and the 
protection of human rights and fundamental freedoms.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Papua New Guinea, the Solomon Islands, or 
Vanuatu?

    Answer. My investment portfolio includes mutual funds that may have 
or acquire investments in companies in Papua New Guinea, the Solomon 
Islands, or Vanuatu; however, these funds are exempt from the conflict 
of interest rules and have been reviewed by the State Department Ethics 
Office. I am committed to ensuring that my official actions will not 
give rise to a conflict of interest. I will divest my interests in any 
investments the State Department Ethics Office deems necessary in the 
future to avoid a conflict of interest, and will remain vigilant with 
regard to my ethics obligations.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As Secretary Pompeo has said, we aim to recognize the 
diversity of our employees' rich experiences, talent, knowledge, and 
personal characteristics. Fostering a culture of inclusion is about 
creating a workplace environment in which everyone is treated with 
dignity and respect, where each individual is valued and empowered to 
thrive. If confirmed, I will draw on the Department's resources for 
employees, including those related to work life wellness, resilience, 
and employee affinity groups. As the Secretary noted when he introduced 
the Department's Professional Ethos Statement on April 26, respect, 
responsibility, and accountability are the foundation of everything we 
do because our greatest resource is our people.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I intend to create a content and productive 
mission by focusing on the safety, security, and personal fulfillment 
of my staff, by remaining actively engaged, by extending opportunities 
in and out of the mission, and by listening to their needs.
    As Secretary Pompeo has said, all employees should feel they work 
in a professional, supportive, and teamwork-oriented community where 
everyone can contribute to the mission, regardless of position, rank, 
grade, or employment status. Ours is a workplace of civility and 
respect. In every position that I have served, I ensured that the 
highest standards for accountability and integrity were set-and met. If 
confirmed, I will make taking care of my team and fostering a high-
performing, healthy, and secure workplace a priority, with zero 
tolerance for misconduct, including sexual harassment.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Papua New 
Guinea, the Solomon Islands, and Vanuatu specifically?

    Answer. A key tenet of the Indo-Pacific Strategy is to support good 
governance, including anti-corruption measures. In November 2018, Vice 
President Pence announced the Indo-Pacific Transparency Initiative in 
Papua New Guinea. It dedicates $400 million over two years to empower 
the Indo-Pacific region's citizens, help combat corruption, and 
strengthen nations' sovereignty in order to achieve the goals of sound, 
just, and responsive governance.
    We are doing so, in partnership with like-minded governments, by 
prioritizing fiscal transparency and anti-corruption, democracy 
assistance, youth and emerging leader development, media and internet 
freedom, and fundamental freedoms and human rights.
    In September 2018, USAID initiated a three-year project to advance 
citizen-responsive democratic governance in Pacific Island countries, 
empower traditionally marginalized stakeholders, promote transparency 
and accountability in elections and government, and, where appropriate, 
promote regional cooperation to share best practices across the region.

    Question. What is your assessment of corruption trends in Papua New 
Guinea, the Solomon Islands, and Vanuatu and efforts to address and 
reduce it by those governments?

    Answer. Embassy Port Moresby regularly engages PNG government 
officials on the importance of sound, just, and responsive governance 
characterized by transparent and rules-based systems, inclusion in 
decision-making by civil society partners and marginalized communities, 
and strong institutions. The embassy has been a strong force behind PNG 
joining the Extractive Industries Transparency Initiative (EITI), which 
aims to decrease corruption by making revenues and expenditures in the 
extractive sector public information. We also support the participation 
of the Solomon Islands in the EITI.
    We work with the Solomon Islands through regional institutions that 
promote good governance, respect for international law, and 
collaboration with international partners. One such organization, the 
Pacific Islands Forum Fisheries Agency (FFA), maintains its 
headquarters in Honiara, the capital of the Solomon Islands, and 
presents an opportunity for the Solomon Islands government to 
demonstrate good governance and capable institutional capacity. The 
United States' overarching goal is a strong partnership with Vanuatu 
based on mutual respect, shared values, and shared concerns on global 
issues, including good governance, and transparent and democratic 
institutions.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Papua New Guinea, the 
Solomon Islands, and Vanuatu?

    Answer. In November 2018, Vice President Pence announced the Indo-
Pacific Transparency Initiative in Papua New Guinea. It dedicates $400 
million over two years to empower the Indo-Pacific region's citizens, 
help combat corruption, and strengthen nations' sovereignty in order to 
achieve the goals of sound, just, and responsive governance.
    We are doing so, in partnership with like-minded governments, by 
prioritizing fiscal transparency and anti-corruption, democracy 
assistance, youth and emerging leader development, media and internet 
freedom, and fundamental freedoms and human rights.
    In September 2018, USAID initiated a three-year project to advance 
citizen-responsive democratic governance in Pacific island countries, 
empower traditionally marginalized stakeholders, promote transparency 
and accountability in elections and government, and, where appropriate, 
promote regional cooperation to share best practices across the region.



                               __________


            Responses to Additional Questions for the Record
       Submitted to Anthony F. Godfrey by Senator Robert Menendez

    Question. What is the current U.S. position on Serbia-Kosovo 
negotiations? What is the U.S. position on land swaps specifically as 
part of a future agreement?

    Answer. The United States continues to strongly support the 
European Union-facilitated Dialogue between Kosovo and Serbia. The goal 
of this process is a comprehensive normalization agreement that paves 
the way for both countries' further Euro-Atlantic integration. Ideally, 
the agreement will focus on mutual recognition. The United States is 
ready to help the parties in any way as they engage in negotiations. 
Both Belgrade and Pristina must demonstrate flexibility and a spirit of 
compromise in order to secure a deal, which would advance stability, 
security, and prosperity in the Western Balkan region.
    The United States will seriously consider an agreement that is 
locally owned, durable, implementable, and contributes to regional 
stability. The United States is not advocating for any particular 
solution. However, the status quo is unsustainable, inherently 
unstable, and enables external malign influence to prevent the 
countries of the region from pursuing their stated desire of further 
integration with Euro-Atlantic institutions.

    Question. How would you assess (1) the prospects of land swaps 
happening and (2) the impact of land swaps, both within the two 
countries and regionally?

    Answer. While the United States has continuously supported the EU-
facilitated Dialogue, and stands ready to support the parties in any 
way that would be helpful, the United States has not been at the 
negotiating table and has seen no formal, specific proposals regarding 
border adjustments between the countries.
    The United States is not advocating for any specific solution to 
normalize relations between Kosovo and Serbia, beyond our support for a 
comprehensive agreement, ideally centered on mutual recognition. We 
expect that a comprehensive agreement would be multidimensional, 
involving political, economic, and security aspects. To be successful, 
a deal must be acceptable to the people of both countries and 
implementable on the ground.
    Sovereign countries can decide to adjust their borders by mutual 
consent. We recognize that border adjustments in any region or context 
involve complex political, economic, social, and security issues. 
Changing borders in the Western Balkans poses serious potential 
concerns. However, the status quo is inherently unstable, and poses 
numerous risks to stability. Kosovo and Serbia may decide that agreed 
border adjustments are a part of a comprehensive normalization 
agreement. If they do, the United States will look seriously at any 
proposal and make clear any concerns that we may have.

    Question. What is the level and nature of Ambassador Richard 
Grennell's involvement in the Serbia-Kosovo negotiations? Please list 
the meetings that he has had with leadership from Serbia and Kosovo 
over the past year. In your response, please do not refer us to the 
U.S. Embassy in Berlin.

    Answer. The United States supports the EU-facilitated Dialogue 
between Kosovo and Serbia, but is not a party to the negotiations. 
Ambassador Grenell and his team met with Kosovo President Thaci in 
December 2018, at Thaci's request, when he was in Berlin to see German 
officials. Grenell, the Deputy Chief of Mission, and Embassy Berlin 
political officers also met with the President of Kosovo, the Prime 
Minister of Kosovo, and the Foreign Minister of Kosovo, at their 
request, at the U.S. Embassy when they were in Berlin in April 2019, 
for a Balkans Summit meeting hosted by German Chancellor Merkel and 
French President Macron.
    In all of these meetings, Ambassador Grenell and U.S. Embassy staff 
reiterated President Trump's message of support for a comprehensive 
normalization agreement between Kosovo and Serbia, and encouraged the 
Kosovo officials to drop the sanctions they had placed on Serbia, as 
per official U.S. policy. Ambassador Grenell also encouraged the Kosovo 
officials to understand that dropping the sanctions could revive 
constructive Dialogue negotiations between the parties.

    Question. Has President Trump personally engaged in the Serbia-
Kosovo negotiations since his December 2018 letters to President Vucic 
and President Thaci? If yes, please describe the nature of that 
engagement. In your response, please do not refer us to the White 
House.

    Answer. Beyond his December 2018 letters, President Trump also made 
clear in statements to both Kosovo and Serbia, on the occasion of their 
respective National Days, that the United States supports a 
comprehensive normalization agreement centered on mutual recognition. 
President Trump and the Administration continue to support a 
comprehensive agreement between Serbia and Kosovo and will remain 
actively engaged with the parties and our European partners. If 
confirmed, I plan to work closely with the White House and government 
agencies to support such an agreement.

    Question. I am deeply disturbed by the recent delivery of armored 
reconnaissance vehicles from Russia to Serbia. How many vehicles did 
Serbia receive in this shipment? By what route were the vehicles 
transported to Serbia? How much did Serbia pay for the vehicles, and 
how much money did the Russian government contribute towards the 
purchase?

    Answer. The government of Serbia acknowledged that on July 19, 
2019, it received 10 BRDM-2MS wheeled armored vehicles from Russia--an 
upgraded variant of a vehicle long in Serbia's inventory. Press reports 
indicate that these items were delivered by air via Hungarian airspace. 
The Serbian government has not released any information about costs or 
payments for transports and upgrades, but the vehicles were reportedly 
donated as part of a larger deal with Russia for MiG-29s and T-72 main 
battle tanks, announced in 2016.
    I am not able to pre-judge whether or not this or any specific 
transaction would result in sanctions under Section 231 of the 
Countering America's Adversaries Through Sanctions Act (CAATSA) prior 
to the Secretary of State's determination. However, as the Department 
has said publicly, the Secretary of State will consider the totality of 
the facts and circumstances surrounding the transaction and weigh 
various factors on a case-by-case basis in determining whether a 
transaction is ``significant'' for purposes of CAATSA.
    If confirmed as Ambassador, I will continue to emphasize to the 
government of Serbia the heightened risk of sanctions associated with 
procuring Russian equipment and the vulnerabilities created by its 
dependence on Russia.

    Question. Please provide a list of military equipment Russia has 
delivered to Serbia since January 2017, as well as a list of Serbia's 
signed contracts for future deliveries of military equipment and 
expected dates of delivery. Answer can be provided in classified format 
if necessary.

    Answer. Press reports indicate that Russia has agreed to supply 
Serbia with additional military equipment, but reports differ on the 
numbers and types. Equipment recently reported in the press includes 20 
additional BRDM-2MS armored wheeled vehicles, 30 used T-72 main battle 
tanks, and Pantsir-S1 air defense systems.
    In July 2019, Serbia acknowledged receiving a donation from Russia 
of 10 BRDM-2MS wheeled armored vehicles, an upgraded variant of a 
vehicle already in Serbia's inventory. The same month, Serbia's 
Ministry of Defense reported that Serbia had received a total of 45,000 
euros worth of unspecified military assistance from Russia. Serbian 
Defense Minister Aleksandar Vulin has also indicated that Serbia 
expects to take delivery of three purchased Mi-17 transport and four 
Mi-35 attack helicopters from Russia by the end of 2019 or the 
beginning of 2020. Russia donated six used, non-flight worthy MiG-29 
fighter aircraft to Serbia in October 2017. The Serbian Air Force 
formally took delivery of the refurbished aircraft in two separate 
tranches in August and October 2018. While Serbia has long maintained 
these aircraft in its inventory, it is paying Russia approximately $205 
million for the refurbishment and upgrade of the six donated airframes.
    If confirmed as Ambassador, I will continue to emphasize to the 
government of Serbia the heightened risk of sanctions associated with 
procuring Russian equipment and the vulnerabilities created by its 
dependence on Russia.

    Question. Please provide an accounting of the number of military 
exercises the U.S. has conducted with Serbia since January 2017 and an 
accounting of the number of military exercises Russia has conducted 
with Serbia since January 2017.

    Answer. Serbia regularly participates in major bilateral and 
multilateral exercises organized both by U.S. European Command and the 
Ohio National Guard, Serbia's National Guard State Partner. Since 
January 2017, Serbia has participated in 17 exercises, ten of which 
were led by USEUCOM and seven by the Ohio National Guard. 
Significantly, during this period Serbia hosted NATO's largest Euro-
Atlantic Disaster Response Coordination Center (EADRCC) exercise to 
date, involving approximately 2,000 participants from thirty NATO 
Allied and partner nations.
    Since 2017, Serbia has participated in ten exercises with Russia: 
most significantly 2017's ZAPAD-2017, and three times each in three 
separate annual exercises: Brotherhood of Aviators of Russia and Serbia 
(BARS), Slavic Brotherhood, and the Russian International Tank 
Biathlon.

    Question. I remain concerned about the true nature of the 
``Russian-Serbian Humanitarian Center'' in Nis and Russia's attempts to 
get diplomatic status for the Center and its employees, which would 
preclude inspection of the Center's activities. Please provide an 
assessment of Russian intelligence personnel presence at the `Russian-
Serbian Humanitarian Center.' Answer can be provided in classified 
format if necessary.

    Answer. Russia maintains a joint Humanitarian Center in the 
southern Serbian city of Nis and has repeatedly pressed to have the 
facility granted diplomatic status. Many fear that this could give 
Moscow a foothold for further subversive activities in the region. The 
United States and our European Allies have expressed our concerns 
regarding Moscow's request to the Serbian government on a number of 
occasions. Thus far the Serbian government has not granted the facility 
diplomatic status. If confirmed, I will continue to engage with 
Serbia's leaders to express our serious concerns about the ways in 
which the facility might be misused.

    Question. How many American Corners are in Serbia, and in which 
cities do they exist? Please describe in detail your plans to expand 
the American Corners' work to discuss U.S. policies and promote 
connections between the U.S. and the people of Serbia.

    Answer. Since 2003, Mission Serbia has established eight American 
Corners: in Belgrade, Novi Sad, Nis, Kragujevac, Subotica, Novi Pazar, 
Vranje and Bujanovac. Visited by roughly 9,000 Serbians each month, 
these American Corners are an essential outreach and engagement tool. 
They offer the Serbian public a welcoming place to learn and practice 
English; exchange ideas; discuss and debate issues important to both 
our countries; and explore American history, culture, and society. They 
contribute to greater awareness of U.S. policies, and strengthen the 
critical thinking and media literacy skills of program participants, 
particularly among Serbia's youth population.
    If confirmed, I will continue the work the team at Embassy Belgrade 
has begun to more closely tie American Corner programming into our 
Integrated Country Strategy goals. This includes promoting economic 
vitality, rule of law, and stable democratic institutions. I will 
continue to focus on youth engagement to promote robust political 
participation, media literacy, small business development, and civil 
society expansion.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. Promoting respect for human rights is a priority for the 
Trump Administration and it would be a central focus of my work in 
Serbia, if I am confirmed. From my first assignment as Human Rights 
Officer in Belarus, through assignments in Chechnya, Croatia, Armenia, 
Turkey, Iraq, and Russia, I have made human rights work a high 
priority.
    In Belarus, my work to highlight the abuses of the government won 
consistent praise from human rights advocates. In Croatia, our team 
helped authorities carry out free and fair elections, paving the way 
for NATO and EU membership. In Armenia, my team's work to improve 
protections for victims of trafficking produced concrete results. In 
Iraq, my consistent work with the fledgling Central Elections 
Commission helped pave the way for parliamentary elections, which won 
praise from international observers. In Moscow, despite an adversarial 
environment, my teams brought international attention to a 
deteriorating human rights environment, and in particular to the 
erosion of respect for the right of all individuals to practice the 
religion or belief of their choice.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Serbia? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights and press freedom. Please be as specific as possible.

    Answer. As the 2018 Serbia Human Rights Report noted, government 
corruption, violence against journalists, undue government interference 
with the press, and violence against LGBTI individuals are among the 
most serious human rights concerns in Serbia. Additionally, police 
brutality and intimidation, harsh prison conditions, domestic and 
social violence, and discrimination against persons belonging to 
religious and ethnic minorities remain serious challenges in Serbia. 
Finally, Serbia must make progress in resolving historical war crimes 
cases.
    If confirmed, I will press the government of Serbia to address 
these problems at all levels. Robust engagement with civil society 
organizations can provide important perspectives on the reforms needed 
to address these challenges in Serbia. If confirmed, I will work with 
my team to encourage Serbia's government to engage with civil society 
and to accelerate the passage and full implementation of proposed 
reforms, through democratic processes, in line with Serbia's EU 
accession process. I will continue to use U.S. assistance programs in 
Serbia to support democratic institutions, address human rights issues, 
and promote justice and accountability, including through support to 
civil society organizations working on issues such as anti-corruption, 
government transparency, media freedom, safety of journalists, and 
access to the justice system, as well as a range of protection and 
advocacy issues for members of minority communities.

    Question. What steps will you take--if confirmed--to support 
democracy in Serbia? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. One of the major obstacles to addressing human rights 
challenges in Serbia is the deteriorating media environment. A free and 
independent media is critical for any democratic society. Despite a 
constitution that guarantees freedom of expression, including for 
members of the press, media freedom in Serbia continues to be 
undermined by threats and attacks on journalists, lawsuits and criminal 
charges against journalists or the threat thereof, lack of transparency 
in media ownership, the opaque process for awarding government media 
grants, and editorial pressure from politicians and politically 
connected media owners. These factors contribute to significant self-
censorship by journalists and media outlets. The Serbian public 
deserves information from independent sources in order to empower and 
support civil society voices seeking to hold Serbia's leaders to 
account. If confirmed, I will speak out about these issues whenever we 
see problems and continue to press for true media freedom and media 
plurality in Serbia.

    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. With the generous support of the U.S. Congress and the 
American taxpayer, Embassy Belgrade has used Assistance to Eastern 
Europe and Central Asia (AEECA) funding to support democracy and 
governance in Serbia, including through USAID programs and, on a 
smaller scale, through Democracy Commission small grants. For example, 
USAID is undertaking a new program in Serbia, which aims to improve 
political processes by working with the government, political parties, 
and civil society to strengthen key democratic institutions. If 
confirmed, I will continue to look for ways we can help Serbia work 
toward a fully democratic, open, and transparent political environment.
    Corruption poses a particularly serious threat to Serbia's 
democracy and governance, and many of our assistance program focus on 
anti-corruption as a key element of our mission goals. For example, 
U.S. assistance supports Serbia's recently formed specialized anti-
corruption and economic crimes prosecutorial and police departments. 
Over the past year, Serbia has made some progress in prosecuting 
corruption cases involving police and municipal officials, but much 
work remains, particularly in tackling high-level corruption and money 
laundering.
    If confirmed, I will lead Mission Serbia in continuing to emphasize 
the need for law enforcement, prosecutorial, and judicial institutions 
to work proactively, independently, transparently, and efficiently. I 
will endeavor to ensure that Serbia's anti-corruption efforts go 
further than the enforcement actions we have seen today, which have too 
often focused on low-level officials. Serbia needs to develop the 
capability, desire, and resolve to investigate and prosecute high-level 
cases of corruption in order to show would-be violators that they will 
be held accountable and restore the confidence of all Serbians. 
Journalists and civic activists have a crucial role to play in 
promoting government accountability, and we need to ensure their voices 
are heard. If confirmed, I will continue to address corruption also by 
supporting the development of Serbia's civil society and a robust 
independent media sector.

    Question. If confirmed, do you commit to engaging with 
democratically-oriented members of the opposition?

    Answer. Serbia's constitution provides for the democratic rights of 
peaceful assembly and freedom of expression. As such, everyone in 
Serbia should be able to voice their concerns with the government 
without fear, including through peaceful protest. A robust opposition 
is crucial for democracy and I will encourage the ruling party to hold 
a constructive dialogue with the opposition and find a compromise to 
end the ongoing boycott of parliament. If confirmed, I will commit to 
engaging with a wide range of Serbian officials and civil society 
actors, to include members of the full spectrum of Serbia's opposition 
parties.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Serbia? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I will continue the Embassy's practice of 
meeting with human rights organizations and other civil society groups, 
from all communities, on a regular basis and empowering their voices in 
policy debates. Additionally, I will work with the Embassy team to 
continue support for human rights NGOs and activists through the 
Democracy Commission and other programs.
    If confirmed, I will encourage the government to pursue a 
transparent legislative process and consult with civil society on new 
legislation, as required by Serbian law. Serbian civil society has an 
impressive history of catalyzing societal change, and it is in our 
interest to ensure the government sees civil society not as a threat, 
but as a partner to help advance Serbia's development in the 21st 
century. The development of both a robust civil society and an 
independent media in Serbia are essential drivers for EU accession-
related reforms in Serbia, as well as a healthy society that is 
responsive to citizens' needs.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I will engage interlocutors across the 
political spectrum to encourage constructive dialogue between the 
government and opposition. The aim will be to address serious concerns 
that citizens have raised, including facilitating democratic debate and 
improving the electoral system.
    Many of the calls for reforms have merit, including calls to ensure 
free and fair elections, and to strengthen press freedoms. There are 
both administrative measures and legislative processes through which 
these concerns should be addressed. If confirmed, I will continue to 
support efforts to increase the capacities of political parties and 
civil society to promote broader representation within government. U.S. 
assistance programs in Serbia to address human rights include grants to 
civil society organizations that work on a range of protection and 
advocacy issues for members of minority communities.

    Question. Will you and your embassy team actively engage with 
Serbia on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory or other measures? Will you commit to meeting regularly with 
independent, local press in Serbia?

    Answer. One of the major obstacles to addressing human rights 
challenges in Serbia is the deteriorating media environment. A free and 
independent media is critical for any democratic society. Despite a 
constitution that guarantees media freedom in Serbia, this right 
continues to be undermined by threats and attacks on journalists; 
lawsuits and criminal charges against journalists or the threat 
thereof; lack of transparency in media ownership; the opaque process 
for awarding government media grants; and editorial pressure from 
politicians and politically connected media owners. These factors 
contribute to significant self-censorship by journalists and media 
outlets. The Serbian public deserves independent sources of information 
in order to empower and support civil society voices seeking to hold 
Serbia's leaders to account.
    If confirmed, I will speak out about these issues whenever we see 
problems and continue to press for true media freedom and media 
plurality in Serbia. I will continue the Embassy's robust engagement 
with both individual journalists and Serbia's leading media 
associations. The Embassy will also continue to be a voice in publicly 
condemning acts of political suppression and threats of violence 
against the media, which journalists in Serbia acknowledge is 
critically important.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. The United States is committed to helping Serbia advance 
the reforms needed to continue its Euro-Atlantic integration while 
countering Russian efforts to derail this integration. In particular, 
U.S. foreign assistance helps Serbia improve media freedom, anti-
corruption and government transparency, access to the justice system, 
as well as a range of advocacy issues.
    Moscow is looking to expand its malign influence throughout the 
Western Balkans, including in Serbia. Our assistance also helps to 
counter vulnerabilities that make Serbia susceptible to Russian malign 
influence by strengthening judicial institutions; combatting organized 
crime; reducing avenues for corruption, including in the economic 
sector; and supporting exchange programs to bolster civic participation 
and civil society.
    We regularly emphasize to Serbian leaders the need for democratic 
reforms, especially in strengthening the rule of law and media freedom. 
We also point out the importance of policy choices reflecting western 
values. This will help Serbia move forward in the EU accession process, 
as well as to build resilience against malign influence campaigns 
carried out by actors such as Russia.

    Question. Will you and your embassy teams actively engage with 
Serbia on the right of labor groups to organize, including for 
independent trade unions?

    Answer. If confirmed, I will continue actively engaging Serbia on 
strengthening labor rights in Serbia. Part of the nearly $1 billion in 
U.S. assistance to Serbia since 2001 has supported the government's 
efforts to develop stronger economic institutions, including fair labor 
laws, effective inspections, a more effective judiciary, a reduction in 
the grey economy, and introduction of electronic construction permits, 
which was a factor in Serbia's breakthrough into the top 50 countries 
on the World Bank's ``Doing Business'' list.
    As the 2018 Serbia Human Rights Report noted, independent trade 
unions are able to organize and address management in state-owned 
companies on behalf of their members. There were, however, some 
allegations of anti-union dismissals and discrimination. We will 
continue engaging NGOs working to increase labor rights awareness, such 
as for groups facing employment discrimination.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Serbia, no matter 
their sexual orientation or gender identity? What challenges do the 
lesbian, gay, bisexual, transgender and queer (LGBTQ) people face in 
Serbia? What specifically will you commit to do to help LGBTQ people in 
Serbia?

    Answer. Violence targeting LGBTI individuals is among the most 
serious human rights concerns in Serbia. As the 2018 Serbia Human 
Rights Report noted, there were 500,000 LGBTI persons in the country, 
according to civil society organizations. Credible NGOs noted a lack of 
significant progress in establishing dialogue, educating the public on 
LGBTI issues, and addressing hate crimes and bias-motivated violence. 
In addition, LGBTI persons in Serbia face widespread discrimination in 
housing, the workplace, and in public life. If confirmed, I would 
engage the government at all levels on behalf of LGBTI individuals in 
Serbia. I would ensure that independent oversight bodies designed to 
protect human rights, such as the Commissioner for the Protection of 
Equality, are empowered to aggressively pursue their mandates. I would 
also remind the government that a lack of progress on protecting the 
rights of LGBTI persons imperils Serbia's EU accession and will make it 
increasingly difficult for Serbia to attract foreign direct investment. 
If confirmed, I will commit to upholding the rights of LGBTI 
individuals in our broader embassy assistance and outreach programs.

    Question. If a foreign person or government approaches you or a 
staffer at the embassy with derogatory information on a U.S. political 
figure, what is your understanding of official State Department policy 
on how to handle it? In the wake of President Trump's comments 
welcoming such information, it is important that the State Department 
have clear guidance for all of its personnel on how to deal with such 
scenarios. Has a cable with clear guidance on how to handle this 
situation been sent to all U.S. embassies?

    Answer. Pursuant to Foreign Affairs Manual Chapter 12, Section 
262--`Security Awareness and Contact Reporting'--U.S. Department of 
State policy mandates that all employees and contractors report any 
contact that prompts concern that he or she may be the target of actual 
or attempted exploitation by a foreign entity. At the embassy, any such 
contact must be reported as soon as possible to the embassy's Regional 
Security Officer. Cleared U.S. employees are required to take annual 
training ``EX 250 Annual Counter Intelligence Awareness,'' which 
reviews these reporting requirements pursuant to the Foreign Affairs 
Manual section Chapter 12, Section 262. The Department has sent cables 
to all diplomatic and consular posts with clear guidance about this 
training and reporting requirement, in addition to Department notices 
distributed domestically.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. If confirmed, I will work to prevent any attempts to target 
or retaliate against career employees on the basis of their perceived 
political beliefs, prior work on policy, or affiliation with a previous 
administration. I take allegations of such practices seriously and will 
ensure they are referred to the Department's Inspector General.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. I take the issues of sexual harassment, discrimination, and 
inappropriate conduct with the utmost seriousness. Throughout my 
career, I have immediately addressed any issues raised to me in 
accordance with the Department of State's policies. During my tenure as 
Minister-Counselor for Political Affairs at U.S. Embassy Moscow, an 
employee raised complaints about management decisions made by Embassy 
leadership, including me, to the Department's Inspector General and the 
Office of Special Counsel. I cooperated fully in responding to requests 
for information in this matter and there was no finding that I engaged 
in any wrongdoing. My understanding is that the matter is now closed. I 
take workplace conduct issues very seriously and will continue to hold 
staff to the highest standard.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. I take the issues of sexual harassment, discrimination, and 
inappropriate conduct with the utmost seriousness and throughout my 
career, I have immediately addressed any issues raised to me in 
accordance with the Department of State's policies, including 
encouraging any employee who feels they have been harassed or 
discriminated against to report such behavior to any supervisor under 
my management or the Department's Office of Civil Rights.

                               __________


            Responses to Additional Questions for the Record
     Submitted to Anthony F. Godfrey by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. Promoting respect for human rights is a priority for the 
Trump Administration and, if confirmed, it would be a central focus of 
my work in Serbia. From my first assignment as Human Rights Officer in 
Belarus, through assignments in Chechnya, Croatia, Armenia, Turkey, 
Iraq, and Russia, I have made human rights work a high priority.
    In Belarus, my work to highlight the abuses of the government won 
consistent praise from human rights advocates. In Croatia, our team 
helped authorities carry out free and fair elections, paving the way 
for NATO and EU membership. In Armenia, my team's work to improve 
protections for victims of trafficking produced concrete results. In 
Iraq, my consistent work with the fledgling Central Elections 
Commission helped pave the way for parliamentary elections which won 
praise from international observers. In Moscow, despite an adversarial 
environment, my teams brought international attention to a 
deteriorating human rights environment, and in particular to the 
erosion of respect for the right of all individuals to practice the 
religion or belief of their choice.

    Question. What are the most pressing human rights issues in Serbia? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Serbia? What do you hope to 
accomplish through these actions?

    Answer. As the 2018 Serbia Human Rights Report noted, government 
corruption, violence against journalists, undue government interference 
with the press, and crimes--including violence--targeting LGBTI 
individuals are among the most serious human rights concerns in Serbia. 
Additionally, police brutality and intimidation, harsh prison 
conditions, domestic and social violence, and discrimination against 
persons belonging to religious and ethnic minorities remain serious 
challenges in Serbia. Serbia must also accelerate progress in resolving 
historical war crimes cases.
    If confirmed, I will press the government of Serbia to address 
these problems at all levels. Robust engagement with civil society 
organizations can provide important perspectives on the reforms needed 
to address these challenges in Serbia. If confirmed, my team and I will 
encourage Serbia's government to engage in dialogue with civil society 
and to accelerate the adoption and full implementation of proposed 
reforms, through democratic means, in line with Serbia's EU accession 
process. I will continue to use U.S. assistance programs in Serbia to 
support democratic institutions, address human rights issues, and 
promote justice and accountability, including through support to civil 
society organizations working on issues such as anti-corruption, 
government transparency, media freedom, safety of journalists, and 
access to the justice system, as well as a range of protection and 
advocacy issues for members of minority communities.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Serbia in advancing 
human rights, civil society and democracy in general?

    Answer. One of the major challenges to addressing human rights 
challenges in Serbia is the deteriorating media environment. A free and 
independent media is critical for any democratic society. Despite a 
constitution that guarantees freedom of expression, including for 
members of the press, media freedom in Serbia continues to be 
undermined by threats and attacks on journalists, lawsuits and criminal 
charges against journalists or the threat thereof, lack of transparency 
in media ownership, the opaque process for awarding government media 
grants, and editorial pressure from politicians and politically 
connected media owners. These factors contribute to significant self-
censorship by journalists and media outlets. The Serbian public 
deserves information from independent sources in order to empower and 
support civil society voices seeking to hold Serbia's leaders to 
account. If confirmed, I will speak out about these issues whenever we 
see problems and continue to press for true media freedom and media 
plurality in Serbia.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Kosovo? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I will continue the Embassy's practice of 
meeting with human rights organizations and other civil society 
groups--from all communities--on a regular basis and empowering their 
voices in policy debates. The development of a robust civil society in 
Serbia and a robust, independent media is an essential driver for the 
EU accession-related reform efforts in Serbia, as well as a healthy 
society that is responsive to citizens' needs. The Embassy's 
implementation of the Leahy Law and other vetting programs is robust, 
drawing on diverse information to ensure that security assistance and 
cooperation are consistent with U.S. law and in line with U.S. advocacy 
on human rights issues.

    Question. Will you and your embassy team actively engage with 
Serbia to address cases of key political prisoners or persons otherwise 
unjustly targeted by Serbia?

    Answer. As noted in the 2018 Human Rights Report, there are no 
reports of political prisoners or detainees in Serbia. If confirmed, I 
will ensure the Embassy team engages with Serbian officials to address 
such issues, if they arise.

    Question. Will you engage with Serbia on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will continue to encourage Serbia to 
improve human rights, civil rights, and governance through both 
political advocacy and programming. Accelerating these efforts is 
essential to Serbia's progress in its European Union accession process, 
as well as improving the quality of life for Serbians. If confirmed, I 
will work to ensure Serbia energetically, sincerely, and 
comprehensively pursues the reforms to which it has committed under its 
EU accession plan.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Serbia?

    Answer. My investment portfolio includes diversified mutual funds, 
which may hold interests in companies with a presence in Serbia, but 
which are exempt from the conflict of interest laws. I am committed to 
ensuring that my official actions will not give rise to a conflict of 
interest and will remain vigilant with regard to my ethics obligations.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I am committed to leading a workforce that reflects the 
diverse people and values that we represent in the United States, as I 
have done throughout my career. Diversity is and will remain a top 
Department priority. As the face of America overseas, the people in our 
embassy should represent our country's richness and diversity-it 
demonstrates our commitment to inclusion as well as acceptance and 
respect for all people.
    If confirmed, as Ambassador in Belgrade, I will invest in a 
skilled, diverse workforce ready to lead. This includes recruiting a 
diverse workforce. If confirmed I will encourage the Embassy Human 
Resources team and post's hiring supervisors to recruit equitably from 
a diverse, qualified group of potential applicants.
    Mentoring is paramount in changing and encouraging behaviors. If 
confirmed I will strive to serve as a role model demonstrating the 
Department's expectations regarding diversity and inclusion, and I will 
expect the same from all of post's supervisors.
    The Department has invested in important diversity and leadership 
training programs in support of the ethos of the State Department. If 
confirmed, I will ensure that all post employees receive this training 
and exemplify this ethos.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. Inclusion and diversity cannot exist unless the entire team 
is committed. If confirmed, I will work to ensure structures and 
strategies--including but not limited to training--equip leaders with 
the knowledge and ability to manage diversity, be accountable, measure 
results, and engender a culture of inclusion. I will work to ensure 
that all employees at Embassy Belgrade model the State Department's 
ethos in word and deed. Embassy events will include open forums for 
discussion on various aspects of inclusion, such as engaging 
underrepresented groups and various religious institutions, as 
appropriate.

    Question. How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Serbia 
specifically?

    Answer. Despite some progress, corruption remains the most 
significant rule of law issue in Serbia, hampering its democratic and 
economic development, spurring emigration, and impeding access to 
justice. Not only does corruption limit the willingness of investors to 
commit funding to the country, it also weakens public confidence in 
Serbia's judicial institutions and democracy.
    Corruption--and related threats, such as money laundering--make 
Serbia vulnerable to malign external actors who aim to undermine 
Serbia's independence and democratic institutions.
    If Serbia does not make progress in its efforts to combat 
corruption, it risks undermining forward movement across the range of 
rule-of-law reforms and in its EU accession process.

    Question. What is your assessment of corruption trends in Serbia 
and efforts to address and reduce it by that government?

    Answer. There are widespread perceptions in Serbia that the law is 
not implemented consistently or systematically and high-level officials 
engage in corrupt practices with impunity. While some progress has been 
made in the government's fight against corruption, including the 
establishment of specialized anti-corruption and economic crimes 
prosecutorial units, as well as corresponding judicial and police units 
that focus on corruption and financial crimes, evidence of senior-level 
government corruption persists. We are assisting the government of 
Serbia in improving its legal framework for fighting corruption and in 
preventing corruption through transparency at all levels of government, 
but government anti-corruption entities such as the Anti-Corruption 
Agency lack personnel and are not adequately integrated into judicial 
entities. If confirmed, I will lead my team in addressing the 
government's shortcomings to more effectively combat corruption, 
including through targeted technical assistance.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Serbia?

    Answer. U.S. assistance supports Serbia's recently formed 
specialized anti-corruption and economic crimes prosecutorial and 
police departments. Over the past year Serbia has made some progress in 
prosecuting corruption cases involving police and municipal officials, 
however much work remains, particularly in tackling high-level 
corruption and money laundering.
    If confirmed, I will lead Mission Serbia in continuing to emphasize 
the need for law enforcement and prosecutorial and judicial 
institutions to work proactively, independently, transparently, and 
efficiently. Journalists and civic activists have a crucial role to 
play in promoting government accountability, and if confirmed, I will 
continue to address corruption by supporting the development of 
Serbia's civil society and a robust independent media sector.

    Question. Twenty years ago, the three Bytyqi brothers--all American 
citizens--were murdered while in the custody of Serbian Interior 
Ministry officials. Earlier Serbian promises, including by President 
Aleksandar Vucic, have not been fulfilled and, indeed, have been 
replaced by increasingly belligerent responses to a reasonable request 
for justice:

   If confirmed as ambassador, will you use every opportunity to raise 
        this case with Serbian officials at the most senior level, and 
        to express publicly our demand for justice irrespective of any 
        other issue in our bilateral relationship?

    Answer. The United States remains seriously concerned about the 
lack of progress made by Serbian officials in this case. If confirmed, 
I will not waver in seeking justice and accountability for the murder 
of Ylli, Agron, and Mehmet Bytyqi. I am committed to pressing the 
Serbian government to complete a thorough investigation and ensure that 
all who were involved in these crimes are brought to justice, 
regardless of rank or position.
    If confirmed, I will also continue to emphasize the longstanding 
U.S. position that Serbia must credibly investigate and prosecute 
remaining cases related to the conflicts in the Balkans and cooperate 
with neighboring countries and the United Nations to ensure justice for 
the victims.

    Question. A ruling Serbian Progressive Party member of the Serbian 
parliament recently tweeted the following: ``I want to congratulate the 
Serbian people on the day of the liberation of Srebrenica. Thanks to 
General Ratko Mladic on the brilliantly conducted military operation.'' 
The United States and the international community consider that 
``liberation'' to have been a genocide, the massacre of about 8,000 men 
and boys in July 1995. Serbian Defense Minister Aleksandar Vulin also 
recently said that ``the Serbian people survived genocide rather than 
committed it,'' effectively denying that the Srebrenica genocide took 
place:

   What will you do as ambassador to counter official Serbian efforts 
        to revise the history of the 1990s, especially given the U.S. 
        role in the Balkans at that time?

    Answer. The Department of State remains deeply concerned by any 
denial of crimes committed during the Balkan conflicts of the 1990s or 
any refusal to accept historical facts established by international 
courts. Serbia is a political and economic leader in the Western 
Balkans. As such, Serbia has the responsibility to foster regional 
stability, reconciliation, and cooperation. Historical revisionism and 
veneration of convicted war criminals, such as Ratko Mladic, foster a 
climate of division and hatred, diminish the suffering of victims, are 
detrimental to Serbia's relationships with its neighbors, and undermine 
regional reconciliation. If confirmed, I will champion historical truth 
and push political and civil society leaders in Serbia to acknowledge 
the genocide in Srebrenica, to condemn instances of historical 
revisionism, and to play a responsible role in advancing security, 
stability, and prosperity for the Western Balkans.

                               __________


            Responses to Additional Questions for the Record
       Submitted to Anthony F. Godfrey by Senator Jeanne Shaheen

    Question. As part of its Belt and Road initiative, China has been 
investing billions of dollars in Serbia. Russia also continues to hold 
considerable influence over Serbia. In your view, how can U.S. and EU 
leaders ensure that Serbia, if it were to become a member of the 
European Union or eventually NATO, would not be susceptible to Russian 
and Chinese manipulation? As Ambassador, how would you mitigate that 
risk?

    Answer. The Administration strongly supports Serbia's European path 
and its stated goal of European Union membership. Serbia is a member in 
NATO's Partnership for Peace and has a good, cooperative relationship 
with NATO. However, Serbia has been unambiguous that it does not aspire 
to join NATO as an Ally.
    Qualifying for EU membership would mean that Serbia has made great 
strides in reconciling its relationship with Kosovo; strengthening the 
rule of law and media freedoms; and improving transparency, 
accountability, and good governance. If confirmed, I will emphasize to 
Serbian leaders the need to undertake these reforms both to advance 
Serbia's own goal of EU accession, as well as to build resilience and 
close down avenues to malign influence.

    Question. According to the Belgrade Center for Human Rights and 
other groups, including the State Department, Human Rights in Serbia 
and Rule of Law is Serbia is not advancing. In fact, as you discussed 
with my staff, we see daily evidence of the suppression of political 
opposition and free media by President Vucic. Do you believe the 
current government shares our values? As Ambassador, how would you 
prioritize advancing the rule of law and protecting human rights in 
balance with other goals?

    Answer. Serbia stands at a critical inflection point. Its leaders 
in Belgrade must undertake serious reforms to advance Serbia on its 
chosen EU path. Essential to the United States' work in Serbia is 
promoting and defending our shared democratic values, to which Serbia 
has committed as part of its strategic goal of EU accession. This 
requires real work to ensure those values are promoted and protected. 
If confirmed, I will lead my team and apply foreign assistance 
resources in helping our Serbian partners to strengthen their 
democratic institutions, protect the rights of members of minority 
communities, combat corruption, and improve media freedom. We will 
continue to help build the capacities of law enforcement and 
prosecutorial and judicial institutions to work proactively, 
independently, transparently, and efficiently. The Embassy will also 
continue to speak out clearly against any acts of political suppression 
or threats of violence against the media. These messages are critically 
important, and, if confirmed, I will continue to press for true media 
freedom and media plurality in Serbia.

                               __________


            Responses to Additional Questions for the Record
         Submitted to Herro Mustafa by Senator Robert Menendez

    Question. I remain deeply concerned about Russia's Turkstream 
pipeline project, which will undermine Ukraine's role as a gas transit 
country and increase European and Bulgarian dependence on Russian 
energy. What is U.S. policy with respect to Turkstream? Following 
Russia's recent announcement that the second leg of Turkstream will go 
through Bulgaria, what is your assessment of the construction and 
completion timeline for the second leg of the project?

    Answer. The United States would not support any new gas pipeline in 
the European Union (EU) that does not increase diversification of 
sources, routes and supplies. A second line of Turkstream does nothing 
to advance the EU's commitment to diversify the region's energy 
supplies and would help to cement Europe's significant dependence on 
Russian gas. Such a project would also provide Gazprom with the 
technical capacity to bypass Ukraine for gas transit to Europe. This 
could significantly harm Ukraine's economy while putting the country at 
greater risk of Russian aggression.
    Construction of the offshore portion of Turkstream was completed 
last winter and the onshore portion, within Turkey, could be completed 
by the end of 2019. Bulgaria, Serbia, Hungary, and Austria are all at 
various stages of coordination and construction to develop associated 
infrastructure to import and transit gas from the second line of 
Turkstream. If confirmed, I will strongly advocate against projects 
that increase European reliance on Russian energy. I will advocate 
instead for projects that can bring competition, transparency, and 
greater security to Bulgaria and European energy markets--projects like 
the Southern Gas Corridor, the Interconnector Greece-Bulgaria (IGB), 
and the Interconnector Bulgaria-Serbia (IBS).

    Question. I am glad that Bulgaria's parliament overrode President 
Radev's veto of the F-16 purchase and that the F-16 procurement has now 
been approved. However, I am concerned that Russia may have attempted 
to interfere with this purchase. What evidence do you have of Russian 
attempts to interfere with the Bulgarian government's approval of the 
F-16 purchase, including but not limited to bribery or pressure tactics 
with MPs or the President's office? Answer can be provided in 
classified format if necessary.

    Answer. Bulgaria's historic decision to purchase U.S.-made F-16s 
ran counter to Russian interests, as it will reduce Bulgarian 
dependence on Russian military equipment and deepen Bulgaria's defense 
ties to the United States. In doing so, Bulgaria reaffirmed its 
decision to join the Western, Transatlantic community in 1989. Russia 
has meddled in the internal affairs of states across Europe, and while 
I have no specific information regarding Russian meddling with respect 
to the F-16 purchase decision, if confirmed, I will prioritize working 
with Bulgarian counterparts to identify and address Russian malign 
influence.

    Question. Who does the State Department assess is responsible for 
the late June cyberattack on Bulgaria's National Revenue Agency? How 
would State assess whether the cyberattack was related to the F-16 
approval process? Answer can be provided in classified format if 
necessary.

    Answer. The investigation by local authorities into this 
cyberattack is ongoing. The investigation is leading to a local private 
company, TAD Group, and authorities have arrested three individuals 
from this company who are being charged with cyber terrorism.

    Question. Please list all ongoing and planned FMF programs with 
Bulgaria. What is Bulgaria's status with regard to the European 
Recapitalization Incentive Program (ERIP)? If confirmed, how will you 
incorporate anti-corruption measures into conversations with Bulgaria 
regarding FMF and ERIP?

    Answer. Foreign Military Financing (FMF) fills a critical role in 
Bulgaria's defense modernization plans. Between Fiscal Years 2016-2019, 
the Department will provide over $100 million in Foreign Military 
Financing (FMF) to build national territorial defense and maritime 
security capabilities to deter Russian aggression, support 
modernization programs, and divest from Russian legacy equipment. 
Bulgaria will receive FMF bilaterally in FY 2019, and through regional 
programs such as the European Recapitalization Incentive Program 
(ERIP), Countering Russian Influence Fund (CRIF), and through the Black 
Sea Maritime Domain Awareness Program that will include Ukraine, 
Georgia, and Romania.Specific programs (some pending Congressional 
notification) include development of Land Forces' intelligence-sharing 
and secure communications for multinational operations and training in 
support of U.S. and NATO-led deployment missions; maritime security 
programs such as counter mine measures, underwater vehicles, and 
regional detection, information sharing and response capabilities; F-16 
procurement and divestiture of Russian aircraft; and cyber-defense 
training and assessment. FY 2019 programs are still under development 
pending final allocation levels.Bulgaria is a part of ERIP and will 
receive up to $60 million of FY 2018-OCO FMF to support the divestiture 
of largely inoperable Russian MiG-29s. Bulgaria appropriated $1.2 
billion toward the procurement of F-16s and this FY2018-00 FMF helps 
conclude this vital sale of U.S. fighter aircraft.

    Question. I am concerned about Bulgaria's investor citizenship 
program, which creates security, money laundering, and tax evasion 
problems in Bulgaria and across the EU. A January 2019 EU Commission 
report flagged the program's lack of transparency and its weak 
governance and enforcement mechanisms. What are the most recent efforts 
by the Treasury Department to engage Bulgaria on its investor 
citizenship program? Please provide a full list of the recommendations 
Treasury has given Bulgaria to strengthen transparency and governance 
around that program and Treasury's assessment of Bulgaria's progress on 
those recommendations. Please do not simply refer us to Treasury in 
your response.

    Answer. If confirmed, I will work with Bulgaria on fighting 
corruption and advancing the rule of law, which is key to Bulgaria's 
continued growth. If confirmed, I pledge to work with the Treasury 
Department and other relevant departments and agencies to address this 
and the full range of issues needed to fight corruption, promote the 
rule of law, and foster transparency and good governance.

    Question. I was pleased to see that you highlighted strengthening 
and deepening the bonds between Bulgaria and the U.S. as a priority if 
confirmed. How many American Corners are there in Bulgaria, and which 
cities are they in? Please describe in detail your plans to expand the 
American Corners' work to discuss U.S. policies and promote connections 
between the U.S. and the people of Bulgaria.

    Answer. There are three American Corners in Bulgaria which are 
located at public libraries in the country's three largest cities: 
Sofia, Plovdiv and Varna. We also have a long-established partnership 
with the University of Veliko Tarnovo, which hosts a space that 
performs many of the same functions as an official American Corner.
    If confirmed, I will work with my Public Affairs Section at Post to 
visit all the American Corners in Bulgaria and to continue our cultural 
and educational programming, within our allocated budgets. Programs 
designed to increase English language proficiency and teach tech skills 
will help Bulgarian youth to improve their employment prospects and 
make it easier for potential U.S. investors to find qualified 
employees. Providing educational advice at our Corners promotes U.S. 
study abroad programs and academic opportunities for qualified 
Bulgarian students. Media literacy programs help Bulgarian audiences to 
identify and refute misinformation. Our Corners will also continue to 
promote American history and culture and strengthen people-to-people 
ties between our two nations, making full use of the variety of 
Americans in-country, including Embassy personnel, Fulbright English 
teachers, official visitors and the U.S. military. American Corners 
will also assist in providing alternatives to negative narratives about 
the United States inspired by Russia, China, and other malign actors.

    Question. What are the most important actions you have taken in 
your career to date to support democracy and human rights? What has 
been the impact of your actions?

    Answer. My most meaningful achievement to promote democracy 
involved my efforts to establish the first fully representative 
provincial council in Mosul, Iraq, to include ethnic and religious 
minorities as well as women. The impact was a political body that gave 
many segments of society a voice in governance and a vehicle for more 
vibrant political debate. I am also proud of the work our mission did 
in India, where I was Political Minister Counselor, to counter violence 
against women and girls. The Department of State honored one of our 
nominees with the International Women of Courage award. I was also 
Human Rights Officer in Greece, responsible for drafting all the 
Congressionally-mandated reports so I am very familiar to the 
requirements and am a strong supporter of human rights. I have always 
met with minority groups throughout my career and have hosted 
representational events for these groups, including LGBTI individuals. 
Where appropriate, I use social media to promote human rights and 
democracy.

    Question. What issues are the most pressing challenges to democracy 
or democratic development in Bulgaria? These challenges might include 
obstacles to participatory and accountable governance and institutions, 
rule of law, authentic political competition, civil society, human 
rights, and press freedom. Please be as specific as possible.

    Answer. The 2018 U.S. Country Report on Human Rights Practices in 
Bulgaria highlighted several ongoing human rights issues of concern, 
including corruption, inefficiency, and a lack of accountability in the 
judicial system; mistreatment of migrants and asylum seekers; 
corruption in all branches of government; violence against ethnic 
minorities; physical mistreatment of detainees and convicts by 
officials; and harsh conditions in prisons and detention facilities. If 
confirmed, I will engage with Bulgarian authorities and civil society 
and encourage cooperation to address ongoing corruption concerns, 
promote tolerance and nondiscrimination, and protect media freedoms.

    Question. What steps will you take--if confirmed--to support 
democracy in Bulgaria? What do you hope to accomplish through these 
actions? What are the potential impediments to addressing the specific 
obstacles you have identified?

    Answer. If confirmed, I will engage with Bulgarian authorities and 
civil society and encourage cooperation to address ongoing corruption 
concerns, promote tolerance and nondiscrimination, and protect media 
freedoms. I will also emphasize that corruption enables malign actors 
to undermine Bulgaria's economic prosperity and political stability.
    Fighting corruption and advancing the rule of law are key to 
Bulgaria's continued growth. But rule of law reform is a long-term, 
multifaceted and challenging process. While Bulgaria has demonstrated a 
commitment to reform and taken some steps to build a more open, 
inclusive, and prosperous society, more remains to be done.

    Question. How will you utilize U.S. government assistance resources 
at your disposal, including the Democracy Commission Small Grants 
program and other sources of State Department and USAID funding, to 
support democracy and governance, and what will you prioritize in 
processes to administer such assistance?

    Answer. In light of Bulgaria's EU membership, the United States no 
longer provides bilateral development assistance to Bulgaria. In 2017, 
the State Department established a Resident Legal Advisor's (RLA) 
office in Embassy Sofia to focus on anti-corruption in Bulgaria and the 
region. The RLA advises and trains Bulgarian officials on best 
practices in preventing and prosecuting high-level corruption. Bulgaria 
also sends participants to the State Department's International Law 
Enforcement Academy in Budapest where they receive training on topics 
related to strengthening the rule of law, and the Embassy has supported 
progress by engaging civil society and speaking publicly about the 
importance of reforms. If confirmed, I will work with my team at our 
Embassy in Sofia to continue engaging with Bulgarian officials at all 
levels of government to support good governance and anti-corruption 
programming.

    Question. If confirmed, do you commit to engaging with 
democratically-oriented members of the opposition?

    Answer. If confirmed, I will meet with a broad array of 
democratically-oriented political figures and parties and will advocate 
for their broad access to and inclusion in political processes.

    Question. If confirmed, do you commit to meet with civil society 
members, human rights and other non-governmental organizations in the 
U.S. and with local human rights NGOs, and other members of civil 
society in Bulgaria? What steps will you take to pro-actively address 
efforts to restrict or penalize NGOs and civil society via legal or 
regulatory measures?

    Answer. If confirmed, I will engage with civil society in Bulgaria, 
including with human rights and religious groups and other non-
governmental organizations, and oppose any efforts to restrict NGOs or 
civil society through legal or regulatory measures.

    Question. If confirmed, do you commit to meet with democratically 
oriented political opposition figures and parties? What steps will you 
take to encourage genuine political competition? Will you advocate for 
access and inclusivity for women, minorities and youth within political 
parties?

    Answer. If confirmed, I will meet with a broad array of 
democratically-oriented political figures. Most observers found that 
the May 2019 European Parliament elections were generally free and 
democratic. Still, there were reports of problems and allegations of 
vote-buying that merit scrutiny and should be addressed. I will 
advocate for access and inclusivity for women, minorities, including 
religious minorities, and youth within political parties.

    Question. Will you and your embassy team actively engage with 
Bulgaria on freedom of the press and address any government efforts 
designed to control or undermine press freedom through legal, 
regulatory, or other measures? Will you commit to meeting regularly 
with independent, local press in Bulgaria?

    Answer. If confirmed, my embassy team and I will actively engage 
with Bulgaria on freedom of the press and will meet regularly with 
independent, local press. The United States supports media freedom 
everywhere, as a free press is essential to the functioning of a 
democracy. If confirmed, I will engage the Bulgarian government on any 
measures designed to control or undermine press freedom.

    Question. Will you and your embassy team actively engage with civil 
society and government counterparts on countering disinformation and 
propaganda disseminated by foreign state or non-state actors in the 
country?

    Answer. If confirmed, I will actively engage with civil society and 
the Bulgarian government to counter disinformation and propaganda 
disseminated by foreign state or non-state actors in the country.

    Question. Will you and your embassy teams actively engage with 
Bulgaria on the right of labor groups to organize, including for 
independent trade unions?

    Answer. Yes. If confirmed, I will actively support labor rights in 
Bulgaria and engage with the Bulgarian government on this issue.

    Question. Will you commit to using your position, if confirmed, to 
defend the human rights and dignity of all people in Bulgaria, no 
matter their sexual orientation or gender identity? What challenges do 
the lesbian, gay, bisexual, transgender and queer (LGBTQ) people face 
in Bulgaria? What specifically will you commit to do to help LGBTQ 
people in Bulgaria?

    Answer. Yes, if confirmed, I will work to support human rights for 
all, including by strengthening efforts to address the discrimination 
LGBTI persons face. I will also continue our Embassy's long-standing 
public support for the human rights and fundamental freedoms of LGBTI 
persons. The 2018 U.S. Country Report on Human Rights Practices in 
Bulgaria noted a number of concerns, including anti-LGBTI hate speech, 
threats, and assault.

    Question. If a foreign person or government approaches you or a 
staffer at the embassy with derogatory information on a U.S. political 
figure, what is your understanding of official State Department policy 
on how to handle it? In the wake of President Trump's comments 
welcoming such information, it is important that the State Department 
have clear guidance for all of its personnel on how to deal with such 
scenarios. Has a cable with clear guidance on how to handle this 
situation been sent to all U.S. embassies?

    Answer. If approached with derogatory information, it is important 
to make certain that this information immediately reaches the 
appropriate law enforcement officials and my Front Office in 
Washington, DC. Pursuant to 12 Foreign Affairs Manual section 262--
``Security Awareness and Contact Reporting''--U.S. Department of State 
policy mandates that all employees and contractors report any contact 
that prompts concern that he or she may be the target of actual or 
attempted exploitation by a foreign entity. At the embassy, any such 
contact must be reported as soon as possible to the embassy's Regional 
Security Officer. Cleared U.S. employees are required to take annual 
training ``EX 250 Annual Counter Intelligence Awareness,'' which 
reviews these reporting requirements pursuant to 12 Foreign Affairs 
Manual section 262. The Department has sent cables to all diplomatic 
and consular posts with clear guidance about this training and 
reporting requirement.

    Question. Do you agree that any targeting of or retaliation against 
career employees based on their perceived political beliefs, prior work 
on policy, or affiliation with a previous administration, is wholly 
inappropriate and has no place in the federal government? If confirmed, 
what will you do to ensure that all employees under your leadership 
understand that any retaliation, blacklisting, or other prohibited 
personnel practices will not be tolerated?

    Answer. If confirmed, I will work to prevent any attempts to target 
or retaliate against career employees on the basis of their perceived 
political beliefs, prior work on policy, or affiliation with a previous 
administration. I take allegations of such practices seriously and will 
ensure they are referred to the Department's Inspector General.

    Question. Has anyone ever made a formal or informal complaint or 
allegation of sexual harassment, discrimination (e.g., racial, ethnic, 
religious, etc.), or inappropriate conduct against you, in a workplace 
or any other setting? If so, please describe the nature of the 
complaint or allegation, your response, and any resolution, including 
any settlements.

    Answer. I take all forms of harassment and discrimination in the 
workplace very seriously and ensure that those who work for me also 
understand the seriousness of such complaints and allegations. If I 
become aware of any such concerns, I address the concerns promptly and 
in accordance with Department policy and regulation. I also ensure that 
all staff complete the mandatory EEO and harassment training. I have 
never been named in a formal or informal complaint of harassment or 
discrimination.

    Question. Have you ever addressed concerns or allegations of sexual 
harassment, discrimination (e.g., racial, ethnic, religious, etc.), or 
inappropriate conduct made against any employee over whom you had 
supervisory authority? If so, please describe the outcome and actions 
taken.

    Answer. I take any allegation of discrimination and sexual 
harassment in the workplace very seriously and ensure that those 
working for me understand how to address such concerns promptly and 
appropriately. If I become aware of possible misconduct, I immediately 
coordinate with the Office of Civil Rights at the State Department (S/
OCR) and with the EEO Counselors at post on appropriate next steps. 
Additionally, I take the Department's mandatory reporting requirement 
seriously. In accordance with Department regulations, if I hear, 
witness, or should have reasonably suspected that discrimination or 
sexual harassment has occurred, I would report the matter directly to 
S/OCR.

                               __________


            Responses to Additional Questions for the Record
           Submitted to Herro Mustafa by Senator Marco Rubio

    Question. Do you concur that Hezbollah-backed terrorists conducted 
the Burgas attack?

    Answer. The State Department concurs that Hizballah conducted the 
Burgas attack. If confirmed, I will call on the Bulgarian government to 
complete the trial of the Hizballah members charged in absentia, 
consistent with its domestic law.

    Question. Intelligence services from the U.S., Bulgaria, Australia, 
Canada, and other nations provided information to the Bulgarian 
government implicating Hezbollah. Therefore, why do you believe that 
the Bulgarian government has not yet named Hezbollah in the indictment? 
Does this concern you?

    Answer. Any wavering in the Bulgarian government's resolve to link 
the attack to Hizballah concerns me. If confirmed, I will call on the 
Bulgarian government to complete the trial.

    Question. Will you convey the U.S. government's deep concerns to 
Bulgaria's government that it appears that Bulgaria is attempting to 
conceal Hezbollah's role in the attack? Will you provide regular 
updates to Congress on your conversations with Bulgaria's government on 
this topic?

    Answer. If confirmed, I will convey these concerns and provide 
regular updates to Congress on this topic.

                               __________


            Responses to Additional Questions for the Record
        Submitted to Herro Mustafa by Senator Benjamin L. Cardin

    Question. What are your most meaningful achievements to date in 
your career to promote human rights and democracy? What has been the 
impact of your actions?

    Answer. My most meaningful achievement to promote democracy 
involved my efforts to establish the first fully representative 
provincial council in Mosul, Iraq, to include ethnic and religious 
minorities as well as women. The impact was a political body that gave 
many segments of society a voice in governance and a vehicle for more 
vibrant political debate. In India, where I was Political Minister 
Counselor, we countered violence against women and girls. The 
Department of State honored one of our nominees with the International 
Women of Courage Award. I was also Human Rights Officer in Greece, 
responsible for drafting all Congressionally-mandated reports so I am 
very familiar with the requirements and am a strong supporter of human 
rights. I have always met with minority groups throughout my career and 
have hosted representational events for these groups, including LGBTI 
individuals. Where appropriate, I use social media to advocate for 
human rights and democracy.

    Question. What are the most pressing human rights issues in 
Bulgaria? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Bulgaria?

    Answer. The 2018 U.S. Country Report on Human Rights Practices in 
Bulgaria highlighted several ongoing human rights issues of concern, 
including corruption, inefficiency, and a lack of accountability in the 
judicial system; mistreatment of migrants and asylum seekers; 
corruption in all branches of government; violence against ethnic 
minorities; physical mistreatment of detainees and convicts by 
officials; and harsh conditions in prisons and detention facilities. 
The 2018 U.S. Report on International Religious Freedom for Bulgaria 
also noted concerns by religious minorities of increases in hate speech 
and anti-Semitism. If confirmed, I will engage with Bulgarian 
authorities and civil society and encourage cooperation to address 
ongoing corruption concerns, promote tolerance and nondiscrimination, 
and protect media freedoms.

    Question. What do you hope to accomplish through these actions?

    Answer. If confirmed, I hope that these actions will help 
strengthen democratic institutions and the rule of law in Bulgaria, 
while also increasing tolerance and participation for marginalized and 
minority communities in political, economic, and social life. In 
addition, by promoting the protection of media freedoms, for example, 
we can encourage a more vibrant media environment and open, vigorous, 
pluralistic, and respectful discussion of issues.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response?

    Answer. If confirmed, I will work closely with the Bulgarian 
government on rule of law issues and to protect human rights and 
fundamental freedoms for all. Rule of law reform is a long-term, 
multifaceted and challenging process. While Bulgaria has taken steps to 
build an open, inclusive, and prosperous society, more remains to be 
done. We are concerned about indications in Bulgaria that media outlets 
are closing or being purchased by conglomerates, reducing the diversity 
of available views to the public.

    Question. What challenges will you face in Bulgaria in advancing 
human rights, civil society and democracy in general?

    Answer. The 2018 U.S. Country Report on Human Rights Practices in 
Bulgaria highlighted several ongoing concerns regarding human rights, 
civil society, and democracy. In addition to the challenges referenced 
in the previous response, I expect challenges on the issues of Roma 
integration, LGBTI inclusivity, and combatting human trafficking.

    Question. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Bulgaria?

    Answer. Yes. If confirmed, I will engage with civil society and 
non-governmental organizations both in the United States and in 
Bulgaria on a range of human rights and other issues of mutual 
interest.

    Question. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. I appreciate the importance of the Leahy Law and worked on 
Leahy vetting extensively when I was the Political Minister Counselor 
at the U.S. Embassy in New Delhi, India. If confirmed, I will ensure 
all the required vetting is carried out for any security assistance and 
security cooperation activities in order to reinforce human rights.

    Question. Will you and your embassy team actively engage with 
Bulgaria to address cases of key political prisoners or persons 
otherwise unjustly targeted by Bulgaria?

    Answer. According to the 2018 Country Report on Human Rights 
Practices, there were no reports of political prisoners or detainees in 
Bulgaria. However, if confirmed, I pledge to actively engage with 
Bulgarian officials, regulatory bodies, nongovernmental and civil 
society organizations to address any such cases should they arise.

    Question. Will you engage with Bulgaria on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will engage Bulgaria on matters of 
human rights, civil rights and governance as part of my bilateral 
mission.

    Question. Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise any concerns that I 
may have through appropriate channels.

    Question. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise any concerns that I 
may have through appropriate channels.

    Question. Do you or do any members of your immediate family have 
any financial interests in Bulgaria?

    Answer. No.

    Question. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Diversity is one of my top leadership principles, and if 
confirmed, I will continue to promote diversity of views and personnel 
in the workplace. I will meet regularly one-on-one for professional 
development sessions with my team and also ensure they have 
opportunities for professional growth.

    Question. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. Diversity is one of my top leadership principles and if 
confirmed, I will highlight diversity in my first mission Town Hall to 
set the tone up front. I will also ask that all supervisors ensure they 
account for diversity in the hiring and assignments process. If 
confirmed, I will also stress to them that inclusivity is critical to 
our collective success.

    Question.  How do you believe political corruption impacts 
democratic governance and the rule of law generally, and in Bulgaria 
specifically?

    Answer. Around the world, corruption saps economic growth, hinders 
development, destabilizes governments, undermines democracy and 
provides openings for dangerous criminals and malign actors. The 
Department of State has made anticorruption a national security 
priority. According to the 2018 Country Report on Human Rights 
Practices, the Bulgarian Industrial Association identified corruption 
as the main factor for low levels of foreign direct investment and 
Transparency International Bulgaria also stated there had been no 
significant progress in the country's anticorruption efforts. If 
confirmed, I will engage the Bulgarian government, at all levels, on 
anticorruption and to strengthen rule of law in support of Bulgaria's 
economic prosperity and political stability.

    Question. What is your assessment of corruption trends in Bulgaria 
and efforts to address and reduce it by that government?

    Answer. The 2018 U.S. Country Report on Human Rights Practices in 
Bulgaria noted corruption remained a concern. According to the report, 
the government did not implement anticorruption laws effectively, and 
officials in all branches of government reportedly engage in corrupt 
practices with impunity. Corrupt practices included bribery, conflict 
of interest, elaborate embezzlement schemes, procurement violations, 
and influence trading. The recent enactment of a law to combat 
corruption--the law also established an Anti-Corruption Commission--is 
a move in the right direction, but effective implementation of the law 
will continue to be important. The European Commission commended the 
legislation while also noting that Bulgarian authorities would need to 
show concrete results. If confirmed, I will seek to continue our work 
in support of anticorruption efforts to enhance Bulgaria's economic 
prosperity and political stability.

    Question. If confirmed, what steps will you take to strengthen good 
governance and anticorruption programming in Bulgaria?

    Answer. In 2017, the State Department established a Resident Legal 
Advisor's (RLA) office in Embassy Sofia to focus on anticorruption in 
Bulgaria and the region. The RLA advises and trains Bulgarian officials 
on best practices in preventing and prosecuting high-level corruption. 
Bulgaria also sends participants to the State Department's 
International Law Enforcement Academy in Budapest where they receive 
training on topics related to strengthening the rule of law, and the 
Embassy has supported progress by engaging civil society and speaking 
publicly about the importance of reforms. If confirmed, I will work 
with my team at the Embassy in Sofia to continue this type of 
engagement with Bulgarian officials at all levels of government to 
support good governance and anticorruption programming. I will also 
engage with civil society and the press on corruption issues and 
consider establishing concrete benchmarks for progress.

    Question. I am very troubled that a NATO country has, as its 
Minister of Defense, someone who has proposed targeting Roma for 
reduction in birth rate, and another cabinet official who has been 
convicted of hate speech against Roma. How will you engage with a 
government that includes representatives of an extremist party?

    Answer. If confirmed, I will call on Bulgarian government officials 
to take steps to combat intolerance against Roma and to enable their 
full participation in civic and economic life. I affirm my commitment 
to work for dignity and equality for Roma people in Bulgaria.

    Question. When you travel outside of Sofia, will you make a point 
of meeting with Roma in the communities where they live?

    Answer.Marginalization of the Roma minority remains among the most 
pressing human rights concerns in Bulgaria, where municipalities 
continue the practice of disproportionately targeting illegally-built 
Roma housing for demolition. If confirmed, I will make a point of 
meeting with Roma in the communities where they live and I will 
encourage Bulgaria to take steps to combat intolerance against the Roma 
and other marginalized groups.

    Question. Bulgarian law prohibits campaigning in minority 
languages. This violates OSCE norms relating to ethnic minorities, free 
speech, and free elections. Will you encourage Bulgarian officials to 
re-examine this law?

    Answer. The 2018 U.S. Country Report on Human Rights Practices in 
Bulgaria noted that the law prohibits campaigning in languages other 
than Bulgarian, and the Office for Democratic Institutions and Human 
Rights reported that the law limited the ability of ethnic minority 
groups to understand election rules and to participate effectively in 
the election process. If confirmed, I pledge to support political 
inclusion for minorities, as well as free speech and free elections, 
and I would encourage Bulgarian officials to re-examine the law.

                               __________

                                  [all]
</pre></body></html>
